<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2014 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 113-108, Part 1]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 113-108, Pt. 1

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1197

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2014 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 1

        U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND
          U.S. AFRICA COMMAND AND U.S. TRANSPORTATION COMMAND
             U.S. STRATEGIC COMMAND AND U.S. CYBER COMMAND
U.S. EUROPEAN COMMAND, U.S. NORTHERN COMMAND, AND U.S. SOUTHERN COMMAND
                          U.S. PACIFIC COMMAND
                            MILITARY POSTURE
                         DEPARTMENT OF THE ARMY
                         DEPARTMENT OF THE NAVY
                      DEPARTMENT OF THE AIR FORCE

                               ----------                              

          MARCH 5, 7, 12, 19; APRIL 9, 17, 23, 25; MAY 7, 2013




         Printed for the use of the Committee on Armed Services

    DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL 
         YEAR 2014 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 1

    U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND  b   U.S. 
  AFRICA COMMAND AND U.S. TRANSPORTATION COMMAND  b   U.S. STRATEGIC 
    COMMAND AND U.S. CYBER COMMAND  b   U.S. EUROPEAN COMMAND, U.S. 
NORTHERN COMMAND, AND U.S. SOUTHERN COMMAND  b   U.S. PACIFIC COMMAND  
b   MILITARY POSTURE  b   DEPARTMENT OF THE ARMY  b   DEPARTMENT OF THE 
                 NAVY  b   DEPARTMENT OF THE AIR FORCE




                                                 S. Hrg. 113-108, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1197

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2014 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 1

        U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND
          U.S. AFRICA COMMAND AND U.S. TRANSPORTATION COMMAND
             U.S. STRATEGIC COMMAND AND U.S. CYBER COMMAND
U.S. EUROPEAN COMMAND, U.S. NORTHERN COMMAND, AND U.S. SOUTHERN COMMAND
                          U.S. PACIFIC COMMAND
                            MILITARY POSTURE
                         DEPARTMENT OF THE ARMY
                         DEPARTMENT OF THE NAVY
                      DEPARTMENT OF THE AIR FORCE

                               __________

          MARCH 5, 7, 12, 19; APRIL 9, 17, 23, 25; MAY 7, 2013

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-626                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
        U.S. Central Command and U.S. Special Operations Command
                             march 5, 2013

                                                                   Page

Mattis, Gen. James N., USMC, Commander, U.S. Central Command.....     7
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................    18

          U.S. Africa Command and U.S. Transportation Command
                             march 7, 2013

Ham, GEN Carter F., USA, Commander, U.S. Africa Command..........   103
Fraser, Gen. William M., III, USAF, Commander, U.S. 
  Transportation Command.........................................   114

             U.S. Strategic Command and U.S. Cyber Command
                             march 12, 2013

Kehler, Gen. C. Robert, USAF, Commander, U.S. Strategic Command..   182
Alexander, Gen. Keith B., USA, Commander, U.S. Cyber Command.....   194

U.S. European Command, U.S. Northern Command, and U.S. Southern Command
                             march 19, 2013

Stavridis, ADM James G., USN, Commander, U.S. European Command 
  and Supreme Allied Commander, Europe...........................   259
Jacoby, GEN Charles H., Jr., USA, Commander, U.S. Northern 
  Command and Commander, North American Aerospace Defense Command   314
Kelly, Gen. John F., USMC, Commander, U.S. Southern Command......   325

                          U.S. Pacific Command
                             april 9, 2013

Locklear, ADM Samuel J., III, USN, Commander, U.S. Pacific 
  Command........................................................   415

                            Military Posture
                             april 17, 2013

Hagel, Hon. Charles T., Secretary of Defense; Accompanied by 
  Robert Hale, Comptroller, Department of Defense................   492
Dempsey, Gen Martin E., USA, Chairman, Joint Chiefs of Staff.....   505

                         Department of the Army
                             april 23, 2013

McHugh, Hon. John M., Secretary of the Army......................   610
Odierno, GEN Raymond T., USA, Chief of Staff of the Army.........   639

                         Department of the Navy
                             april 25, 2013

Mabus, Hon. Raymond E., Jr., Secretary of the Navy...............   725
Greenert, ADM Jonathan W., USN, Chief of Naval Operations........   742
Amos, Gen. James F., USMC, Commandant of the Marine Corps........   759

                      Department of the Air Force
                              may 7, 2013

Donley, Hon. Michael B., Secretary of the Air Force..............   867
Welsh, Gen. Mark A., III, USAF, Chief of Staff of the Air Force..   872


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MARCH 5, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

        U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND

    The committee met, pursuant to notice, at 9:37 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Hagan, Manchin, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Inhofe, McCain, Wicker, Ayotte, 
Fischer, Graham, Blunt, and Lee.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Michael J. Kuiken, professional 
staff member; Jason W. Maroney, counsel; and Michael J. Noblet, 
professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Adam J. Barker, professional staff member; and 
Thomas W. Goffus, professional staff member.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, and Lauren M. Gillis.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; 
Christopher Cannon, assistant to Senator Hagan; Mara Boggs, 
assistant to Senator Manchin; Chad Kreikemeier, assistant to 
Senator Shaheen; Elana Broitman, assistant to Senator 
Gillibrand; Marta McLellan Ross, assistant to Senator Donnelly; 
Nick Ikeda, assistant to Senator Hirono; Karen Courington, 
assistant to Senator Kaine; Steve Smith, assistant to Senator 
King; Christian Brose and Paul C. Hutton IV, assistants to 
Senator McCain; Lenwood Landrum, assistant to Senator Sessions; 
Brandon Bell, assistant to Senator Chambliss; Joseph Lai, 
assistant to Senator Wicker; Brad Bowman, assistant to Senator 
Ayotte; Peter Schirtzinger, assistant to Senator Fischer; Craig 
Abele, assistant to Senator Graham; Charles Prosch, assistant 
to Senator Blunt; and Peter Blair, assistant to Senator Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. This morning's 
hearing is the first in our annual series of posture hearings 
with the combatant commanders to receive testimony on the 
military strategy and operational requirements in their areas 
of responsibility (AOR). Our witnesses are two extraordinary 
military leaders: General James N. Mattis, USMC, Commander, 
U.S. Central Command (CENTCOM); and Admiral William H. McRaven, 
USN, Commander, U.S. Special Operations Command (SOCOM).
    On behalf of our members, please pass along to the men and 
women serving in both CENTCOM and SOCOM for their dedication 
and their sacrifices; and we also thank their families, whose 
support is so essential to the well-being of their loved ones 
and to the well-being of our Nation.
    General Mattis, this is your third and your last posture 
hearing before this committee. This committee has favorably 
reported out your successor, General Lloyd J. Austin III, USA, 
to the full Senate. General, we want to thank you for your more 
than 40 years of military service and your distinguished 
leadership of our Armed Forces.
    This year's posture hearings with the combatant commanders 
are being held under the specter of budget sequestration, which 
threatens to impose arbitrary cuts on our military forces 
unrelated to our national security requirements. Already, 
sequestration is having an operational impact in the CENTCOM 
area, with the Department of Defense's (DOD) postponement of 
the deployment of the USS Harry S. Truman aircraft carrier to 
the Persian Gulf. I hope that General Mattis and Admiral 
McRaven will address the impacts and risks associated with 
sequestration and with the expiration of the Continuing 
Resolution (CR).
    Our transition strategy in Afghanistan is entering a 
critical phase in the coming months. Afghan forces will move 
into the lead for security throughout Afghanistan beginning 
this spring. This transition has been underway for some time 
and Afghan forces are already in charge of security for more 
than 85 percent of the Afghan people.
    This shift to an Afghan security lead is exemplified by the 
statistic that in 2012 Afghan forces for the first time 
suffered more casualties than coalition forces. As Afghan 
National Security Forces (ANSF) are stepping up, coalition 
forces are shifting to a support role, deploying security force 
assistance teams to advise and assist Afghan units throughout 
the end of 2014, when the International Security Assistance 
Force (ISAF) mission ends. ISAF casualties are down and during 
a 1-month stretch from mid-January to mid-February of this year 
ISAF forces suffered no fatalities.
    But it seems the bad news out of Afghanistan is splashed 
across the headlines, while good news barely makes a ripple. 
The press gave wide coverage in December to the DOD report that 
found only 1 of 23 Afghan brigades was rated as independent by 
ISAF. Yet when Senator Reed and I visited Afghanistan in 
January and talked to our regional commanders, we learned that 
Afghan forces in the volatile and critical East Region have 
been successfully conducting over 85 percent of the operations 
unilaterally, without coalition forces even being present.
    Afghans want their own forces providing for their security 
and they have confidence in those forces. General Mattis, the 
committee would be interested in your assessment of whether our 
mission in Afghanistan is succeeding, whether our transition 
plan is on track, and whether the Afghan forces will be ready 
this spring to assume the lead for protecting the Afghan people 
throughout the country.
    Last month, President Obama announced plans for 
withdrawing, by February of next year, 34,000 of the 66,000 
U.S. troops in Afghanistan. As important as the size of the 
cuts in U.S. troop levels over the coming year is, the pace of 
those reductions is also important. The President has 
previously stated that cuts in U.S. Forces would continue at a 
steady pace after the recovery of the U.S. surge force at the 
end of last summer. It's now being reported that the bulk of 
the withdrawal of the 34,000 troops is likely to occur next 
winter, after the 2013 fighting season. We need to understand 
what the pace of U.S. troop withdrawal will look like and how 
it fits with the overall transition strategy.
    Looking ahead, significant challenges in Afghanistan 
remain. Fundamental to the country's stability will be a 
demonstrated commitment by the United States and the 
international community to an enduring relationship with 
Afghanistan. I am encouraged by reports that the North Atlantic 
Treaty Organization (NATO) defense ministers recently 
reconsidered plans to cut ANSF by a third after 2014 and are 
now considering maintaining those forces at 352,000 at least 
through 2018. That sends an important signal of commitment to 
the Afghan people, to the Taliban, and to Afghanistan's 
neighbors.
    Pakistan needs to recognize that an unstable Afghanistan is 
not in its interests, and Pakistan's continuing failure to 
address the safe havens for insurgents conducting cross-border 
attacks into Afghanistan will make it impossible for the United 
States to have a normal relationship with Pakistan.
    In addition, the Government of Afghanistan needs to address 
its failure to deliver services and also the rampant corruption 
that undermine the Afghan people's faith in their government's 
institutions.
    The CENTCOM AOR also presents other vexing challenges. 
Iran's continued pursuit of its nuclear program is one of the 
most significant national security issues of this day. I 
believe most of the members of this committee share President 
Obama's view that all options, including military options, need 
to remain on the table and that preventing Iran from acquiring 
a nuclear weapon is not only our policy, but that we are 
determined to achieve that policy goal.
    Iran is also actively expanding their threat network that 
has promoted violence across the region in Yemen, Gaza, Sudan, 
Syria, Iraq, and elsewhere. Iran continues to provide financial 
and material support through the Revolutionary Guard and 
Lebanese Hezbollah to groups seeking to overthrow or undermine 
governments or terrorize innocent civilians.
    General Mattis and Admiral McRaven, you are the two 
commanders most involved in confronting these current 
challenges and planning for contingencies involving Iran. We 
look forward to hearing your views on these matters.
    In Syria, the death toll continues to rise daily. The mass 
atrocities committed by the Assad regime over the past 2 years 
have solidified the commitment of all but a few in the 
international community that the required outcome in Syria is 
that Assad must go. The United States is the largest 
contributor of non-lethal and humanitarian aid to the 
international response efforts, but these contributions have 
not been enough. General Mattis, the committee looks forward to 
hearing your views on the situation in Syria and to learn of 
what our closest allies in the region say about the possibility 
of extending additional aid to the opposition.
    The committee is also interested in our commanders' 
reactions to recent reports about U.S. counterterrorism 
operations and whether more of these counterterrorism 
operations should be conducted under title 10 authorities. For 
example, Secretary Panetta said recently, ``The advantage to it 
is that it becomes much more transparent in terms of what we're 
doing.'' He's referring, of course, to more counterterrorism 
operations being conducted under title 10 authorities rather 
than title 50.
    John Brennan in his recent confirmation hearing to be 
Director of the Central Intelligence Agency (CIA) stated that: 
``The CIA should not be doing traditional military activities 
and operations,'' and noted that ``On the counterterrorism 
front, there are things the Agency has been involved in since 
September 11 that, in fact, have been a bit of an aberration 
from its traditional role.''
    Beyond the current conflict in Afghanistan and the fight 
against al Qaeda and its affiliates elsewhere, Admiral McRaven 
has spent significant time developing his vision for the future 
of Special Operations Forces (SOF). In light of the continuing 
high demand for SOF throughout the world and the focus of last 
year's Defense Strategic Guidance (DSG) on ``innovative, low-
cost, and small-footprint approaches'' to achieve national 
security objectives, Admiral McRaven has rightly focused on the 
need to develop greater capabilities within our SOF to engage 
with partner nation forces, with the goal of confronting mutual 
security challenges before they become threats to the United 
States or our interests overseas, what the Admiral calls 
``enhancing the global special operations network.'' Admiral 
McRaven, the committee looks forward to hearing more about any 
changes to existing authorities that you believe would help you 
be more effective in these areas.
    Our special operations personnel and their families 
continue to face the highest operational tempo in their 
history. I understand SOCOM has documented the negative impact 
of these repeated high-stress deployments, including an 
increase in marital problems, substance abuse, and suicides, 
and now has a standing task force dedicated to helping special 
operators and their families deal with these issues.
    Admiral, the committee would appreciate your assessment on 
the state of your forces and the adequacy of the support 
provided by the Military Services and SOCOM to address the 
unique challenges in the special operations community.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. Mr. Chairman, 
there are a lot of the things you've covered that I was going 
to, so I'll just paraphrase some of the concerns.
    First of all, I appreciated the opportunity to meet with 
both of you, and I also appreciate your long years of service. 
But I think you'd have to agree, as we discussed, that you 
probably have not faced the situation that you're facing today. 
With the cuts that we've already sustained and then with 
sequestration coming up, with the CR problems that are there, 
it is, in fact, unprecedented.
    Anticipating that this might be a possibility, about 6 
weeks ago we introduced legislation that would allow the 
Service Chiefs to make determinations, as opposed to just the 
straight cut that would come with sequestration. I called all 
five Service Chiefs, including the Guard, and asked them, if we 
were in a position where, taking the same top line, the cuts 
that we are mandated for the military, if you could take that 
and operate within that and make the determinations as to where 
those cuts would be, would that be less devastating than if you 
just went ahead and did it with the straight-line cuts? They 
all said yes.
    Then the second question I asked them was: Do you have time 
to do that between now and the next 6 weeks, as we approach the 
1st of March? They assured me that they did. So we're looking 
at that right now. I'm hoping we'll be able to pass this and 
give that added ability to make determinations within the same 
amount of money, that would be less devastating.
    General Mattis, I think as we look at CENTCOM one of the 
biggest problems there, as we've talked about, is Iran. This 
influence continues to spread across the Middle East, into 
Africa, Europe, and the Pacific. They're developing more 
complex anti-access and anti-denial weapons. We all know that 
our unclassified intelligence said way back in 2007 that they 
are gaining nuclear capability, and they should have it, that 
along with a delivery system, by 2015. They're having a lot of 
influence over the surrounding areas. Assad in Syria is getting 
a lot of his stuff from Iran. The flow of Syrian refugees into 
Jordan and Lebanon will probably exceed more than 1 million as 
quickly as June of this year.
    So all these problems that are out there, and we've talked 
about these and we know how serious it is, it is unprecedented.
    Admiral McRaven, as Commander of SOCOM you play an 
instrumental role in shaping our global counterterrorism 
campaign. Despite our successes in the battlefield, al Qaeda 
and affiliated terrorist organizations remain resilient and 
have developed sophisticated networks that transcend national 
borders.
    You both have your work cut out for you. I can't think of 
two better people to take on this huge responsibility right now 
than the two of you. I appreciate very much your service and 
what you're going to be rendering that addresses our problems 
today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

             Prepared Statement by Senator James M. Inhofe

    Thank you, Mr. Chairman. General Mattis and Admiral McRaven: Thank 
you for your many years of faithful service to our Nation, and on 
behalf of our entire committee, please convey to the brave men and 
women you lead how grateful we are for their sacrifice, and that of 
their families.
    This hearing comes at a critical time for our Nation's security. 
Our military has already endured significant budget cuts and now stands 
to lose significantly more under sequestration. These cuts will 
directly impact the readiness and capabilities of our force, 
particularly at a time when they are confronted with a global security 
environment that is as tumultuous and dangerous as any time in recent 
history--a fact that is particularly true within the U.S. Central 
Command (CENTCOM) area of responsibility (AOR).
    The reality of these cuts and the pain of operating under 
continuing resolutions mean that you will have declining resources and 
reduced flexibility to address increasing threats. You will be forced 
to accept greater strategic risk. As I have said many times before, due 
to the nature of military operations: risk equals lives. As we accept 
greater risk, like we did by under-resourcing U.S. Africa Command 
(AFRICOM) prior to the terrorist attacks in Benghazi, we must 
understand that it will result in greater loss of life. That is why 
last month Senator Toomey and I introduced a bill to give the 
department the flexibility it needs to operate within these severe 
budgetary constraints, and to mitigate risk. Although the amount of the 
cuts to the top line would remain the same, the Department would have 
maneuvering room to decide where to take them. I talked to all of the 
Service Chiefs about this topic, and all of them agreed that this 
flexibility would provide significant relief and help to reduce risk.
    I look to our witnesses to provide the committee with their 
assessment of how the ongoing budget crisis will impact their ability 
to effectively address the challenges within their areas of 
responsibility and whether the current strategies that they are 
operating under are still executable given the budget realities.
    General Mattis, in CENTCOM, the threats you deal with on a daily 
basis are staggering. One of the most vexing challenges we face is 
Iran. Their malign influence continues to spread across the Middle East 
and into Africa, Europe and the Pacific through their proxy network of 
terrorist organizations, such as Hezbollah. Additionally, Iran is 
developing more complex anti-access and area-denial weapons while 
simultaneously pursuing ballistic missile and nuclear weapon 
capabilities. I'm greatly concerned that our ongoing economic and 
diplomatic efforts to halt Iran's acquisition of a nuclear weapon have 
been ineffective and we risk arriving at a similar outcome as we now 
see in North Korea.
    In Afghanistan, we are entering a new consequential chapter. The 
President recently announced a reduction of 34,000 U.S. troops over the 
next year and discussions are ongoing about what a post-2014 residual 
presence should look like. We must ensure that decisions about the 
future of our mission are based on sound strategy and the facts on the 
ground rather than domestic political calculations. I worry that we 
will repeat our mistakes in Iraq and draw down too many troops too 
fast, resulting in a security vacuum that allows the resurgence of al 
Qaeda and other terrorist organizations. We must listen to the 
commanders on the ground, to you General Mattis and Admiral McRaven, 
and your best professional military advice on what it will take to 
preserve our hard fought security gains and prevent Afghanistan from 
returning to a breeding ground for terrorists determined to strike at 
the American homeland.
    In Syria, the country's civil war has entered its second year and 
has now claimed the lives of nearly 70,000. As the conflict drags on, 
we see Syria increasingly becoming the front lines of a protracted 
global struggle between Sunni and Shia terrorist groups that threatens 
broader regional stability. Iran continues to support to the Assad 
regime through their Hezbollah proxy and more directly through arms 
shipments that overfly Iraq. Despite numerous requests from the United 
States, Iraq continues to allow these flights which is damaging the 
relationship between the United States and Iraq.
    The flow of Syrian refugees into Jordan and Lebanon will likely 
exceed more than 10 percent of their respective populations and top 
over 1 million as quickly as June of this year. The overwhelming influx 
of refugees could rapidly exceed the capacity of these small countries 
to absorb massive humanitarian and economic burdens. If we are not 
careful, these conditions will foster and fuel further instability, 
which much like we've seen in North Africa, could serve as a breeding 
ground for terrorism.
    Admiral McRaven, as Commander of U.S. Special Operations Command 
(SOCOM), you play an instrumental role in shaping our global 
counterterrorism campaign. As we have seen in recent years, despite our 
many successes on the battlefield, al Qaeda and affiliated terrorist 
organizations remain remarkably resilient. They have developed 
sophisticated illicit and operational networks that transcend national 
borders. I'm concerned that to date, though, our strategy has been ad-
hoc and focused primarily on a country-by-country approach. We must 
confront this threat by developing a strategy that is truly global in 
nature. I understand that you have taken steps to this end and I look 
forward to you updating the committee on these efforts.
    Admiral, I am also interested in your ongoing efforts to support 
your most important asset-the men and women serving under your command. 
Your predecessor, Admiral Eric Olson, made headlines when he stated 2 
years ago that after a decade of combat operations, the force was 
beginning to ``fray around the edges.'' As a result, Admiral Olson 
began a comprehensive assessment of the force and their families and 
instituted a number of programs to address these stressors. I know you 
have continued these vital efforts and I look forward to your update on 
their status.
    Thank you again for appearing before us today and I look forward to 
your testimony.

    Chairman Levin. Thank you so much, Senator Inhofe.
    General Mattis, let's start with you.

   STATEMENT OF GEN. JAMES N. MATTIS, USMC, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Mattis. Mr. Chairman and Ranking Member Inhofe, 
members of the committee: Thank you for the opportunity to 
testify. I have submitted a written statement and request it be 
accepted for the record.
    Chairman Levin. It will be.
    General Mattis. It's my privilege to appear alongside 
stalwart shipmate and friend, Admiral Bill McRaven. We have 
worked together for many years and continue to do so.
    In the Middle East, we confront what is a significant risk 
to our interests in the region, specifically a perceived lack 
of an enduring U.S. commitment. To counter this misperception, 
we must clearly communicate our intent and demonstrate our 
support through tangible actions.
    In Afghanistan, we are conducting a steady and deliberate 
transition. U.S. leadership among 50 nations fighting together 
in the largest wartime coalition in modern history provide 
continued support of the ANSF as they set conditions for their 
long-term success.
    Iran remains the single most significant regional threat to 
stability and prosperity. Reckless behavior and bellicose 
rhetoric characterize a leadership that cannot win the 
affection of its own people or the respect of any responsible 
nation in the region. Iran's continued support to the murderous 
Assad regime in Syria, coupled with its malign activities in 
Iraq, Afghanistan, Lebanon, Bahrain, Yemen, and Gaza, and 
globally in Sudan, Turkey, Azerbaijan, Thailand, India, 
Georgia, Bulgaria, Nigeria, and even here in Washington, DC, in 
an attempt to kill the Saudi Ambassador, and elsewhere in the 
world, as well as in the cyber domain, raise the risk of 
Iranian miscalculation that could spark a disastrous conflict.
    As we address the very real challenges we collectively 
face, I am confident CENTCOM will continue working by, with, 
and through our regional partners to ensure a measure of 
stability in the region. Our military-to-military engagements, 
security cooperation efforts, exercise programs, and 
information operations will continue to need your support, 
including innovative and flexible authorities and the necessary 
funds, so we can continue doing what is required to protect 
U.S. national security interests.
    As our Nation confronts a period of fiscal austerity, our 
ability to adapt our ways and means to continue to meet our 
operational objectives is impacted by three key factors: first, 
my need for budget certainty. Right now I do not have any 
budget certainty. Second, my need for time to adapt to reduced 
budgets and take the cuts smartly. Specifically, my third 
request is for flexibility to determine where to shift 
available funds in a manner that reduces risks and consistent 
with the intent of Congress, and of course, much of that 
flexibility must be granted to the Service Chiefs.
    With your support and with the continued devotion to duty 
of our troops and the commitment of our military families, we 
will stand by our friends to maintain a measure of regional 
stability in defense of our values and our interests.
    I look forward, Mr. Chairman, to answering your questions.
    [The prepared statement of General Mattis follows:]

            Prepared Statement by Gen. James N. Mattis, USMC

                              INTRODUCTION

    We are in the midst of a transition in the U.S. Central Command 
(CENTCOM) Area of Responsibility (AOR). With volatility a defining 
feature of the region, CENTCOM remains a command postured to respond to 
military crises while at the same time working in tandem with regional 
partners and American diplomats to carry out U.S. strategy in the 
region. In Afghanistan, U.S. Forces continue to support the largest 
coalition campaign in modern history to ensure it will not again become 
a haven from which violent extremist organizations can plan, rehearse 
and execute terrorist attacks. We also work with international 
partners, and across U.S. Government and combatant command lines, to 
share information and posture our forces to inhibit the spread of these 
radical and violent organizations and rapidly respond to protect U.S. 
interests. CENTCOM works closely with our fellow combatant commands to 
mitigate risk collaboratively across COCOM boundaries.
    As we transition to Afghan-lead in accordance with NATO's Lisbon 
and Chicago agreements, each of the other 19 countries that comprise 
CENTCOM's AOR across the Middle East and Central Asian States present 
both challenges and opportunities for our military-to-military 
relationships. The ongoing events of the Arab Awakening, blatant 
brutality by the Iranian-backed Syrian regime and the spillover effects 
of refugees and violence into neighboring countries, coupled with 
Iran's flagrant violation of United Nations Security Council 
Resolutions, bellicose rhetoric and pursuit of a nuclear weapons 
capability, and the persistent threat from both Shia (Iranian 
supported) and Sunni (al Qaeda and its affiliates) violent extremists 
demand international attention.
    These factors, compounded by the lack of forward progress on Middle 
East Peace and the movement toward a sustainable two-state solution and 
the serious economic challenges many nations in the region confront, 
require us to remain vigilant and be ready for turmoil in the months 
ahead. In fact, we are now at a point where a re-energized Middle East 
Peace effort could pay significant dividends in terms of regional 
security since the status quo benefits no one and violent extremists 
use the issue for their own purposes. It is essential that we maintain 
the viability of the Palestinian Authority as a partner for peace and 
security, and preserve the two-state solution.
    As we look to the future direction of American foreign policy, 
three enduring factors will keep U.S. attention anchored in this 
region: the U.S. relationship with Israel and our other partner 
nations; oil and energy resources that fuel the global economy; and the 
persistent threat from violent extremist organizations. U.S. Central 
Command's approach--working in tandem with the State Department and 
other agencies through a whole-of-government approach--is to protect 
our interests using fewer military resources in an era of fiscal 
restraint and political change.

                         OPERATING ENVIRONMENT

    Significant factors are currently shaping and changing the region. 
The Arab Awakening will bring years of political and social changes as 
the demographic challenges of a burgeoning youth bulge collide with 
struggling economies. There will be additional pressure on governments 
to respond to popular interests. We recognize the Awakening is what it 
is and not necessarily what we hope it will be: it is first a flight 
from repression and may or may not result in an embrace of democratic 
principles. The future is not foreseeable, but one thing is clear: 
America must remain deeply engaged in the region and fully utilize all 
tools of national power as a force for stability and prosperity.
    Traditional regimes that held power for decades have been swept 
aside or are under siege, adding to the region's uncertain future. 
Modern communications and social media have the potential to both 
empower and endanger people. While they can enable users to better 
understand their social circumstances and provide ways to organize to 
improve them, they can also make people more vulnerable to manipulation 
by malevolent actors. The increasing role of our adversaries in 
cyberspace necessitates additional emphasis and urgency on a targeted 
expansion of our presence, influence, capabilities and the authorities 
necessary to maintain an advantage in cyberspace. Threat networks 
including those maintained by Iran are adjusting opportunistically, and 
are emboldened by regional developments--to include the Arab Spring and 
events such as those in Benghazi and Syria. These networks pursue a 
range of destabilizing activities that include but are not limited to 
the transfer of illicit arms, as well as the provision of financial, 
lethal, and material aid support to a range of malign actors seeking to 
undermine regional security. In our efforts to counter destabilizing 
extremists, our international and regional partnerships remain one of 
our greatest strengths, and most potent tools. Addressing these 
activities will require our continued engagement, reassurance and 
commitment to work with other nations against extremists' violent 
activities.
    U.S. Central Command's operating environment is also influenced by 
the major and emerging powers bordering our region, by the increasing 
Sunni-Shia polarization, and by Iran's malign influence. U.S. 
Government efforts led by State Department to develop more militarily 
capable and confident partners in the region are advancing, and 
contributing significantly to enhancing our robust regional security 
architecture. There is also widespread attention on how the United 
States and NATO will remain involved in Afghanistan post-2014 to 
prevent its regression, and whether the United States will continue to 
remain resolute in the face of a growing Iranian threat. Finally, the 
threat of weapons of mass destruction is prevalent in the region, with 
both Syria and Iran possessing chemical weapons or the capability to 
produce them and Iran advancing its nuclear program. Pakistan has a 
fast growing nuclear arsenal and violent extremists continue to profess 
a desire to obtain and use weapons of mass destruction. This danger has 
our full attention.
    Each country in my assigned region has its own unique history, 
culture, religions and ethnicities and we treat each country on its own 
merits. The value of American military-to-military relationships is 
evident when you compare the transition in Egypt with events in Libya 
and the ongoing brutality in Syria. Under immense pressure both 
internally and externally, the Supreme Council of the Armed Forces in 
Egypt oversaw the transition and transferred power to an elected 
government. Egyptian military leaders did not attempt to protect the 
old regime from its accountability to the people or seize power for 
themselves. Moreover, they demonstrated restraint and steady 
performance through difficult transition milestones including the 
appointment of new military leadership and the political upheaval 
following President Morsi's December constitutional decree. First and 
foremost, the military sees itself as the upholder of Egypt's 
sovereignty and national security. It has maintained its 
professionalism and validated our longstanding investment in strong 
military ties, sustaining the trust of the Egyptian people through a 
most tumultuous period. As this critically important country 
experiences significant political change and confronts a dire economic 
situation, CENTCOM will remain actively engaged with Egypt's military 
leadership.

                   STRATEGIC RISKS TO U.S. INTERESTS

    The most serious strategic risks to U.S. national security 
interests in the Central region are:
Malign Iranian influence
    Despite significant economic sanctions and increased diplomatic 
isolation within the global community, Iran continues to export 
instability and violence across the region and beyond. There are five 
main threats Iran continues to develop: the potential nuclear threat; 
counter maritime threat; theater ballistic missile threat; the Iranian 
Threat Network to include the Qods Force and its regional surrogates 
and proxies; and cyber-attack capabilities.

        <bullet> Potential nuclear threat. Iran continues to expand its 
        nuclear enrichment capabilities, which enable Iran to quickly 
        produce weapons-grade nuclear material, should Tehran make that 
        decision.
        <bullet> Counter Maritime threat. Iran is improving its counter 
        maritime capabilities (mines, small boats, cruise missiles, 
        submarines) to threaten sea-lanes vital to the global economy. 
        The occasionally provocative behavior of the Revolutionary 
        Guard Navy is an issue with which we deal and we refine our 
        operational approaches in sustaining our stabilizing maritime 
        presence in the Persian Gulf.
        <bullet> Theater Ballistic Missiles. Iran has the largest and 
        most diverse ballistic missile arsenal in the Middle East and 
        is increasing medium and short range ballistic missile 
        inventories and capability with ranges up to about 2,000 
        kilometers, sufficient to strike targets with increasing 
        precision throughout the region. While Iran has previously 
        exaggerated its capabilities, there is consensus that Tehran 
        has creatively adapted foreign technology to increase the 
        quality and quantity of its arsenal.
        <bullet> Iranian Threat Network. Malign influence and 
        activities (illicit weapons, financial aid, trained personnel 
        and training) in Syria, Iraq, Afghanistan, Sudan, Gaza, Lebanon 
        and Yemen along with the 2011 attempt here in Washington to 
        assassinate the Ambassador of the Kingdom of Saudi Arabia, 
        indicate a long-term trend that has clear potential for 
        murderous miscalculation that could spark a disastrous regional 
        conflict. Iran continues to seek to establish nodes throughout 
        the region through which to advance its destabilizing agenda.
        <bullet> Cyber. Given Iran's growing capabilities in this 
        sensitive domain, the United States must recognize and adapt 
        now to defend against malicious cyber activity.

Violent Extremist Organizations (VEOs)
    The focus of our military efforts over the past decade has largely 
been on al Qaeda, its adherents and affiliates (AQAA), and we have 
achieved measurable successes in combating them. The AQAA ``franchise'' 
remains a threat however. An equally concerning long-term threat 
continues to emanate from the Iran-sponsored Shia brand of extremism 
wielded by groups such as Lebanese Hezbollah. In addition to the threat 
from these terrorists with which we are already familiar, a clash 
brought on by these two brands of extremism could pour fuel on the 
simmering Sunni-Shia tensions we observe from Baluchistan to Syria and 
incite a worsening cycle of violence.

State Security and Weapons of Mass Destruction (WMD)
    WMD proliferation and the potential loss of control of WMD by 
regional governments, for example the potential loss of control of 
Syrian chemical weapons, pose a significant risk to the region and our 
most vital national security interests. The potential for WMD in the 
hands of non-state actors and extremist organizations cannot be 
addressed by traditional Cold War deterrence methods and presents a 
clear threat to our regional partners, innocent populations, and our 
forces and bases.

Afghanistan Stability and Security
    While progress in Afghanistan is undeniable, progress and violence 
coexist. In accordance with NATO/ISAF's campaign plan, our sustained 
training, advising and assistance have led to a counterinsurgency-
focused Afghan National Security Force (ANSF) that has now achieved 
full strength in numbers. Keeping our campaign on track requires close 
collaboration and reassurance to our Allies and Afghan partners to 
maintain the confidence of the largest wartime alliance in modern 
history and the Afghan people. That message of commitment will also 
reassure the Central Asian States, which are understandably sharply 
focused on 2014 and beyond. The present drawdown rate leaves the 
campaign on a sound footing for the Afghan forces to assume the lead 
with our advisory support and training.

Regional Instability
    As savagery increases in Syria's civil war, the number of refugees 
fleeing the fighting continues to grow. The impacts on Turkey, Jordan 
and Lebanon are severe, with media reports of over 4 million internally 
displaced persons and the U.N. estimating over 900,000 refugees in 
neighboring countries. Refugees into Jordan alone continue to increase 
by more than 50,000 monthly since the New Year. The potential 
destabilizing impact is clear and there is a growing likelihood of 
unpredictable longer-term effects on regional stability. Refugee camps 
are not a permanent solution, they have not proven to be economically 
viable, nor do they give hope to younger generations.

Perceived Lack of U.S. Commitment
    Perhaps the greatest risk to U.S. interests in the region is a 
perceived lack of an enduring U.S. commitment to collective interests 
and the security of our regional partners. This impression, if not 
actively and often countered, and any lack of clarity regarding U.S. 
intentions in the region, particularly with respect to Afghanistan's 
future, Middle East Peace, and shaping an acceptable outcome in Syria, 
could reduce our partners' commitment to stand with us and leave space 
for other actors to assume less benign leadership roles. If we seek to 
influence events, we must listen to partner concerns and continue to 
demonstrate our support through tangible actions. Our regional partners 
want to share the security burden with us, and we should actively 
enable them to do so, especially as we face our own fiscal realities.

                           CENTCOM'S APPROACH

    All of U.S. Central Command's military activities are firmly nested 
in four main drivers of U.S. foreign policy. First is security, and in 
particular, meeting the urgent challenges posed by Iran's reckless 
behavior across a wide front and being prepared to respond to a range 
of regional contingencies, as well as the related imperative of 
accelerating a transition to the new leadership which the Syrian people 
so deeply deserve. The second driver is our continued support for 
political openness, democratic reforms and successful post-
revolutionary transitions. Third, no political transition or democratic 
reform process can succeed without a sense of economic opportunity. 
Fourth and finally, a re-energized effort is needed to resolve 
persistent regional conflicts, and especially for renewing hope for a 
two-state solution between Israelis and Palestinians. Within this 
framework, CENTCOM stands firmly alongside our friends and supports 
regional security, territorial integrity of sovereign nations, and the 
free flow of commerce.
    CENTCOM's approach to protect the Nation's interests in the Middle 
East is to work BY, WITH, and THROUGH key regional partners to bolster 
regional security and promote stability, while minimizing a permanent 
U.S. military footprint. In so doing, we can build our partners' 
capacity to enable them to share in the security costs for the region.
    CENTCOM uses four principal levers as we engage in the region:

        <bullet> Military to Military Engagements: These lay the 
        foundation for and bolster our broader diplomatic 
        relationships. Much of this work is ongoing, but as resources 
        decrease and American forward presence in the region declines, 
        mil-to-mil engagements and working by, with, and through our 
        partners will become increasingly important. This type of 
        forward engagement is often the bedrock of our most important 
        relationships and builds the trust necessary to work closely 
        together.
        <bullet> Plans and Operations: CENTCOM develops and executes 
        plans and operations in close collaboration with our fellow 
        combatant commands, interagency organizations, and 
        international partners as necessary to address developing 
        contingencies and crises. While providing military options for 
        the Commander in Chief, these plans are designed from the 
        outset to be inclusive of regional and traditional partners.
        <bullet> Security Cooperation Programs: Building partner 
        capacity is the responsible way to reduce U.S. military 
        presence and maintain the health of our force by partnering 
        with regional nations to distribute more of the security 
        burden. In order to build partner effectiveness, we must be 
        more responsive to their capability needs while strategically 
        aligning acquisition and training plans with regional 
        collective security requirements. Combined training, 
        multilateral exercises (resourced by the Office of the 
        Secretary of Defense's (OSD) Combatant Commanders' Exercise 
        Engagement and Training Transformation program), defense 
        reviews and expanded professional military education exchanges 
        are cost-effective means to enhance trust and interoperability 
        while encouraging progress on rule of law and human rights 
        issues. Once fully implemented, the Global Security Contingency 
        Fund will offer us opportunities to respond to emerging 
        security cooperation, assistance and requirements.
        <bullet> Posture and Presence: A tailored, lighter footprint 
        supported by access to infrastructure that enables rapid 
        reinforcement is the foundational concept for future military 
        posture in the region. The CENTCOM military presence will 
        continue to become more maritime in character, supported by 
        expeditionary land forces and have strong air enablers. I 
        anticipate the need to sustain maritime defense, anti-fast 
        attack craft capabilities, amphibious ships and mine-
        countermeasure capability and Intelligence Surveillance and 
        Reconnaissance capabilities. I see the need for growth in our 
        Counter Intelligence and Human Intelligence (HUMINT) capacities 
        across the region. In summary, we will need strong strategic 
        relationships with our partners to enable the presence required 
        to deter adversaries and reassure our friends.

                           AROUND THE REGION

    The Department of Defense carefully shapes military presence 
(United States and partners) in the Middle East to protect the global 
free flow of critical natural resources and to provide a counterbalance 
to Iran--a balanced force presence ready to respond to a variety of 
contingencies, and to deter Iranian aggression. To maintain a right-
sized American security footprint in the Gulf, the United States 
promotes close teamwork with the Gulf Cooperation Council (GCC) states. 
By deepening strategic ties with the Gulf and improving the capability 
of the GCC states through multilateral exercises, security assistance 
and training, regional stability is appropriately shown to be an 
international responsibility. The United States will continue to 
promote the capabilities of GCC partners in such missions as missile 
defense, maritime security, critical infrastructure protection and 
development of a common operating picture that allows us to work 
smoothly together when necessary.
    During the past year, we have seen significant progress in our 
military relationship with countries of the GCC. In support of the 
efforts of the Secretary of State and Secretary of Defense and the 
U.S.-GCC Strategic Cooperation Forum, we have worked to enhance and 
deepen Ballistic Missile Defense cooperation in response to the 
proliferation of these weapons. We continue to emphasize U.S.-GCC 
multilateral exercises, such as our successful International Mine 
Countermeasure Exercise, which included participants from over 30 
countries from 5 continents in 2012, and our Proliferation Security 
Initiative (PSI) exercise Leading Edge 2013 ably hosted by UAE. The 
Gulf States have demonstrated the willingness to work with one another 
and with international partners to counter malign influence in the 
region and ensure freedom of commerce--a critical international issue 
in terms of the global economy. Interoperability in this framework 
improves U.S. defense-in-depth and our own capabilities become more 
robust by supporting partner capacity and working by, with and through 
the GCC.
    For decades, security cooperation has been a cornerstone of our 
relationship with the Kingdom of Saudi Arabia. As we face ever more 
sophisticated regional challenges in the Middle East, helping to enable 
the upgrade of Saudi Arabia's defense capabilities sustains our strong 
military-to-military relations, improves operational interoperability, 
helps the Kingdom prepare to meet regional threats and safeguards the 
world's largest oil reserves. In difficult times, the Kingdom has 
demonstrated its willingness and capability to use its military forces 
to fight as part of a coalition against regional threats. Sustaining 
the Saudi military capability deters hostile actors, increases U.S.-
Saudi military interoperability and positively impacts the stability of 
the global economy. Working with Department of State, CENTCOM helped 
establish the first interagency security assistance program to build 
the capabilities of the Ministry of Interior Security Forces that 
protect Saudi Arabia's critical infrastructure. This is a long-term $1 
billion FMS Interagency Technical Cooperation Agreement, which has 
shown remarkable progress.
    A long-term and strong ally in the region, Kuwait continues to 
build upon a long bi-lateral military relationship with its critical 
support for U.S. troops and equipment. Kuwait remains a valued partner 
and is steadily reconciling its long-standing issues with Iraq and 
supporting the region's stability. We enjoy excellent relations with 
the Kuwaiti military built on many years of trust between us since the 
liberation in 1991.
    The United Arab Emirates (UAE) has been a valued partner through 
Operations Desert Shield/Desert Storm, Bosnia, Kosovo, Somalia, 
Afghanistan and Libya. The Emirates participated in Operation Unified 
Protector in Libya, flying as part of NATO's effort and the Emiratis 
have increased the number of their troops and aircraft deployed to 
Afghanistan even as other nations are drawing down. The UAE is also a 
leader in the Gulf for air and missile defense capabilities. Their 
Foreign Military Sales purchases total $18.1 billion and include the 
Theater High Altitude Area Defense (THAAD) system, valued at 
approximately $3.5 billion, a highly capable and wholly defensive 
system that will contribute to regional stability and our 
interoperability. The UAE was the first foreign government to purchase 
this system. Their many contributions to collective defense and their 
close military ties over decades mark UAE as one of our strongest 
friends within the region, deserving of our continued close engagement 
and tangible FMS support.
    Qatar is taking an increasingly active role within the region, 
supporting operations in Libya with both military and humanitarian aid. 
Qatar continues to demonstrate leadership in its foreign policy, 
including spearheading an Arab League resolution suspending Syria's 
membership. Qatar has placed wide-ranging sanctions on Syria in 
response to the Assad regime's violence against its own citizens and 
has played a leading role in helping the Syrian opposition to improve 
its organization and capabilities. We enjoy excellent military 
relations with this country that has generously hosted several of our 
forward headquarters and facilities.
    Home to our sole main naval operating base in the Middle East, 
Bahrain has been an important friend and partner for many decades, and 
provides key support for U.S. interests by hosting U.S. Navy's Fifth 
Fleet and providing facilities for other U.S. Forces engaged in 
regional security. The strong U.S.-Bahrain relationship is particularly 
critical in the face of the threat Iran poses to regional stability. 
Over the past several years, Bahrain has faced internal challenges. 
CENTCOM works closely with others in the U.S. Government to advance a 
message of support for dialogue and reform in Bahrain, which will be 
key to ensuring the country's stability and security. The United States 
supports Bahrain's National Dialogue and the government's ongoing 
efforts to implement recommendations from the Bahrain Independent 
Commission of Inquiry report. We will continue to be a strong partner 
of Bahrain and the Bahraini people in the years ahead.
    Oman is strategically located along the Strait of Hormuz and the 
Indian Ocean and has played a steadying role and been a voice of 
moderation in the region for many years. We have a shared appreciation 
of the situation in the Gulf and Oman provides valued perspective for 
maintaining regional stability. We enjoy trusted military relations 
with the professional Omani Armed Forces and we are enhancing 
interoperability through exercises and Foreign Military Sales.
    In the face of intense regional pressure and internal economic 
crisis, Jordan endures as one of our most dependable allies in the 
region. Political reform is clearly occurring even as the spillover of 
Syrian refugees severely impacts a challenging economic situation. 
Always a leader in the region, King Abdullah II continues to press 
forward with many political changes to strengthen Jordan's democratic 
processes. On the international front, he advocates for re-energizing 
the Middle East Peace. The Jordanian Armed Forces (JAF) continue to 
provide strong leadership and perform admirably and professionally 
while stretched thin, and while continuing to deploy troops in support 
of ISAF in Afghanistan. The JAF provides protection and humanitarian 
relief to the tens of thousands of Syrian refugees who have fled to 
Jordan over the last 2 years. Our continued support for Jordan, 
including building the capacity of the JAF, has never been more 
critical. A stable and secure Jordan is a needed bulwark now more than 
ever.
    Iraq remains at the geo-strategic center of the Middle East. Iraq 
is also the fourth largest Foreign Military Sales (FMS) partner in the 
region, and ninth in the world. As we work to develop a new strategic 
relationship with the Iraqi government, our desired end state is a 
sustained U.S.-Iraqi partnership in which Iraq becomes a proactive 
security partner with their neighbors in the region. A shared border 
with Iran is a reality as is the spillover of Syria's civil war that 
can reignite sectarian violence in Iraq. Our military-to-military 
relationship forged in recent years is the foundation for developing 
the desired strategic partnership. U.S. security assistance and FMS are 
key tools for building and shaping Iraq's defense capabilities and 
integrating Iraqi security forces into the region, anchored by U.S. 
materiel and training. Recently convened Defense and Security Joint 
Coordination Committees have helped in this regard and CENTCOM 
continues expanding security cooperation activities that deepen our 
military-to-military ties with Iraq, to include opening doors for 
Iraqis to participate in our regional exercises. Internally today, the 
security environment in Iraq continues to present significant 
challenges, and the United States is supporting the Government of 
Iraq's efforts to confront these threats. The imperfect political 
processes still keep most of the tensions from creating havoc. However, 
persistent Arab-Kurd tensions and increasing Sunni discontent--
exacerbated by events in Syria and a sustained violent AQI threat--
diminish their regional leadership potential as well as their internal 
stability. Now the world's third largest producer of oil and desirous 
of the needed stability for exporting its oil, Iraq's long term 
interests align more closely with its Arab neighbors in the GCC than 
with Iran. With our persistent efforts over time, Iraq could become a 
partner that is both a consumer and provider of security in the region.
    Egypt remains one of the most important partners in the pursuit of 
regional peace and stability in CENTCOM's theater of operations. They 
continue to support our over-flight permissions and Suez Canal transit 
courtesies and maintain a field hospital in Afghanistan in support of 
the NATO campaign. The Egyptian military is also deploying peacekeeping 
troops in Darfur, Sudan. The ceasefire agreement with Israel is holding 
and Israeli military leaders have noted that Gaza is quieter today than 
it has been in years. In the Sinai, the Egyptians are taking steps to 
improve security by relocating border detection equipment to counter 
smuggling activities and establishing a National Agency for Development 
and Reconstruction. Further, their military has created quick response 
forces to improve security for the Multinational Force and Observers 
Force stationed in the Sinai, which includes around 600 U.S. troops. 
The political situation remains fluid thus heightening the potential 
for further changes, and this dynamic could place strains on the 
network of relations between Egypt and its neighbors that have 
historically been critical to the anticipation and mitigation of 
emergent crises. Additionally, the dire state of the Egyptian economy 
remains a cause of concern and a driver of internal dissent. Our 
relationship with the Egyptian senior military leadership remains on a 
firm footing characterized by candid and professional discussions. Our 
military assistance plays a major role in protecting our interests and 
is crucial to the modernization and interoperability of the Egyptian 
Armed Forces and CENTCOM endorses its continued support without 
conditionality.
    As the sole multi-confessional security institution in Lebanon, the 
Lebanese Armed Forces (LAF) is a unifying force and the principal 
governmental organization viewed positively by the Lebanese from all 
sectarian groups. In light of the ongoing situation in Syria, our 
various forms of aid to the LAF are vital to maintaining Lebanon's 
internal stability and helping to guard against the spillover violence 
from across the Syrian border. Our program providing military training 
and material support to the LAF has enabled them to be a more effective 
counter-balance to violent extremists within Lebanon. Our shared goal 
is to support the Lebanese Government to be responsive to the peoples' 
needs while allowing the LAF to build into the principal security force 
in a country long abused by extremists and externally supported 
militias.
    In Yemen, President Hadi has made important progress implementing 
the GCC-sponsored political transition agreement. He continues to 
exhibit sound leadership and a strong commitment to reform. To support 
the Yemeni Government's implementation of the agreement, we are working 
closely with the Ministry of Defense to restructure and professionalize 
the military and security apparatus to effectively deal with critical 
national security threats. The economic situation, already degraded by 
a long period of unrest, remains vulnerable and poses a significant 
threat to stability. The security situation remains fragile due to the 
threats posed by al Qaeda in the Arabian Peninsula (AQAP) and Iran's 
destabilizing activities. We continue our support to the national unity 
government to reduce the opportunity for violent extremists to hold 
terrain, challenge the elected government, or conduct operations 
against U.S. interests in the region or the homeland.
    As the crisis in Syria enters its third year, there is little 
evidence to suggest the conflict's end is imminent. Russia and China's 
regrettable vetoes in the U.N. and Iran and Hezbollah's full support 
have helped the Asad regime to remain defiant in the face of 
international condemnation. The regime has shown a growing willingness 
to escalate violence in pursuit of its goal to retain power at all 
costs. The regime's use of ballistic missiles since December 2012 
perhaps best illustrates this point: Over 80 of these largely 
inaccurate but highly destructive weapons have been launched thus far, 
with little regard for collateral civilian population casualties. The 
regime has used almost every conventional weapon in its arsenal and we 
maintain a constant watch for any employment of its chemical and 
biological weapons (CBW). As the conflict spreads, potentially 
threatening the security of the regime's CBW stockpile, it will be 
increasingly difficult to track the vulnerability and status of these 
weapons.
    The conflict has already resulted in an unprecedented level of 
violence, with the United Nations assessing more than 70,000 dead and 
nearly 1 million refugees fleeing the bloodshed (as of mid-Feb 2013). 
Despite tangible gains by the opposition, the Syrian military maintains 
its core capabilities--including ground forces, special operations 
forces, air forces, integrated air defense systems (IADS), and theater 
ballistic missiles (TBMs). Moreover, while the opposition has inflicted 
significant losses on Syria's military and eroded Asad's control over 
many parts of the country, the regime has responded with paramilitary 
operations assisted by sustained Iranian financial and lethal support. 
Hezbollah is now heavily committed as a critical partner of the Syrian 
regime, providing training and oversight to the Shabiha militia in 
conjunction with Iranian support. This cooperation between Syria, Iran 
and Hezbollah stands in contrast to the relative disunity of the Syrian 
Opposition - which is further encumbered by the malign influence of Al 
Nusrah/AQ-related groups.
    In Pakistan we face a confluence of issues that challenge the 
Pakistan government and our ability to provide assistance. The 
political and security environment in Pakistan is impacted by terrorist 
attacks and ethno-sectarianism and a civilian government with tenuous 
control in parts of the country, radicalization of segments of the 
population, overstretched military, strained relationships with 
neighbors, and dealing with frequent natural disasters. The United 
States has a vested interest in Pakistan's sustainability as a nation 
and despite challenges in the U.S.-Pakistan relationship, they are an 
important regional partner that has sacrificed greatly in the war on 
terror. They must play a constructive role if Afghanistan is to achieve 
long-term stability.
    The U.S.-Pakistan relationship in 2012 began at a low point as 
Pakistan maintained the closure of the U.S./ISAF ground lines of 
communication (GLOC) to Afghanistan in response to the tragic November 
2011 incident at Salala. The relationship has steadily improved since 
the GLOC reopened in July 2012 when we resumed security cooperation 
with Pakistan's Army and concluded an agreement that permits two-way 
flow on the GLOC. We also concluded a tripartite U.S.-Pakistan-
Afghanistan agreement to facilitate better coordination and 
complementary operations on both sides of the border that disrupt the 
enemies' freedom of movement and help prevent another fratricide 
incident. In December, we held our first high-level bilateral Defense 
Consultative Group in more than 18 months. We resumed strategic-level 
talks and committed to implement a framework for defense cooperation 
that promotes peace and stability within the region, based on areas of 
converging interests and principles of mutual respect and transparency. 
Subsequently, we have held operational level talks, including through 
the recent Defense Resourcing Conference and Military Consultative 
Committee, which focused on synchronization of our efforts to build 
Pakistan's capabilities to achieve our common objectives. Continued 
support for Foreign Military Financing, International Military 
Education and Training, and the Coalition Support Fund will provide the 
necessary tools to keep our military-to-military relationship on a 
solid footing.
    In Afghanistan, ISAF operations and an increasingly capable ANSF 
have degraded the enemy's capability. The counterinsurgency campaign 
has made gains and created space for the Afghan government to continue 
to make progress toward long-term stability after 30-plus years of war. 
Transition of security responsibilities from ISAF to the ANSF 
continues. Tranche 4 has been announced and will soon move into the 
Transition Phase, after which 87 percent of the population will be in 
areas secured by the ANSF. To that end, ANSF units are demonstrating 
increasing confidence and capability. As the ANSF assumes full security 
lead, the Coalition will continue its transition to a security force 
assistance (SFA) role. These SFA Teams (SFATs) will focus not only on 
the Afghan National Army (ANA) maneuver units and the Afghan Uniformed 
Police (AUP), but will also work to develop a greater level of autonomy 
for key higher headquarters, district and provincial level components 
within the ANSF. With sustained U.S. and international support, in 
accordance with NATO's Lisbon and Chicago decisions, the ANSF will have 
the capability to prevent the return of terrorist safe havens and 
prevent a Taliban re-emergence as a dominant force.
    However, our mission is not yet complete and our hard-fought gains 
must be strengthened. As the final tranches of security transition are 
implemented, Afghanistan will undergo three critical transitions: the 
assumption of full security lead by the ANSF, elections in the spring 
of 2014 with the transfer of authority to a new Afghan administration, 
and the redeployment of the majority of ISAF forces. The success of 
these transitions relies on continued financial support from the 
international community, particularly for training, advising and 
equipping the ANSF. In the current context of global fiscal austerity, 
demonstrated U.S. leadership through continued support of Afghanistan 
will be critical to maintaining Coalition cohesion. I greatly 
appreciate your support for the Afghan Security Forces Fund, which will 
continue to be a necessity through 2018. Not supporting the ANSF will 
greatly limit our ability to prevent the return of terrorist safe 
havens and a Taliban resurgence that threatens the Afghan Government. 
Our enemies are hedging and contemplating whether the opportunity will 
arise for them to pursue their agendas. Specific tools such as the 
Commander's Emergency Response Program, Lift and Sustain, Coalition 
Support Funds, Coalition Readiness Support Program and the Afghanistan 
Infrastructure Fund need your support if we are to achieve a successful 
transition.
    The Central Asian States remain key supporting partners for our 
Afghanistan Strategic Partnership and are concerned about U.S. long-
term engagement with the region. They share our priority to maintain 
security in the region after the transition in Afghanistan. As we 
transition, maintaining access to the Northern Distribution Network 
(NDN) for logistical resupply of the Afghan campaign and retrograde 
operations is of particular importance as we seek to promote stability 
and assure our partners of our continued commitment to the region. The 
development of the NDN has been a critical investment to that end and 
cooperation with our Central Asian partners will continue post-2014. 
Solidifying international support for the New Silk Road initiative, now 
and after the drawdown in Afghanistan, will increase economic 
development, contribute to stability across Central Asia, and may help 
mitigate the impact of a potential economic vacuum that illicit 
industries might otherwise fill. Coupled with our NDN efforts, CENTCOM 
will continue to provide military assistance focused on building 
partner capacity and capabilities to combat terrorists and counter 
illegal trafficking in all its forms. In addition, we will work closely 
with several of our willing partners who are committed to developing 
deployable peacekeeping units. Programs and authorities such as Section 
1206 (Global Train and Equip Fund) and the new Global Security 
Contingency Fund, together with the National Guard's State Partnership 
Program (SPP) represent cost-effective means for the United States to 
respond to emerging opportunities for building partner capacity.
    Our relationship with Kazakhstan continues to mature from one of 
security assistance to a security partnership. In November 2012, we 
signed a Five-Year Military Cooperation Plan (2013-2017) and a Three-
Year Plan of Cooperation in support of Kazakhstan's Partnership for 
Peace Training Center. Both agreements will assist Kazakhstan in 
realizing its objective to deploy a company-sized unit in support of a 
United Nations peacekeeping operation by 2015. Towards this end, 
Kazakhstan will undergo a NATO peacekeeping evaluation and 
certification process at Steppe Eagle, a peacekeeping exercise co-
sponsored by Kazakhstan and the U.S. scheduled for August 2013. 
Kazakhstan remains a force for stability within the region and supports 
our efforts in Afghanistan through facilitation of the NDN.
    Kyrgyzstan continues to be a key partner for U.S. efforts in 
Afghanistan and the region. Our military relationship continues to 
improve, particularly in the areas of regional security and military 
security cooperation. Kyrgyzstan aims to deploy a U.S.-trained 
peacekeeping mission within the next 2 years. The Kyrgyz provision of 
general access and over flight and use of the Manas Transit Center 
remain key factors for successful operations in Afghanistan.
    For Tajikistan, building and maintaining counterterrorism, border 
security and counter-narcotics capability to protect our mutual 
interests from the threat of VEOs are important for regional stability. 
In concert with our counterterrorism efforts, we are working with 
Tajikistan to improve disaster response capabilities. Tajikistan is 
committed to deploying their U.S.-trained peacekeeping battalion on a 
United Nations peacekeeping mission in 2014. We continue to use the 
transit routes along the Kyrgyzstan, Kazakhstan, and Tajikistan (KKT) 
route of the NDN and explore options to facilitate the transit of goods 
and access in the event of a crisis.
    Turkmenistan's policy of positive neutrality governs the shape and 
pace of our security assistance relationship. This is illustrated in 
their preference for non-military, non-alliance exchanges, such as 
those hosted by the George C. Marshall Center and Near East Asia Center 
for Strategic Studies on broad, multilateral topics. Our bilateral 
security assistance relationship has seen modest growth focused on 
building their Caspian Sea and border security capacity.
    Our relationship with Uzbekistan continues to improve in a 
deliberate, balanced way driven by our common regional security 
concerns and expansion of the NDN. Security cooperation provides 
increased opportunity for engagement. The bilateral agreements signed 
in 2012 are now being implemented and are beginning to produce 
important capabilities that support our campaign in Afghanistan. In 
November 2012, we conducted our first Bilateral Defense Consultations, 
serving to focus and strengthen our military cooperation toward 
security threats of mutual concern. We expect cooperation with 
Uzbekistan to continue to progress.

                         REQUIRED CAPABILITIES

    America faces hard fiscal realities and the Defense Department is 
undergoing a period of transition adapting to decreased budgets. U.S. 
Central Command, along with the rest of DOD and the interagency, will 
do less with less, but we will not do it less well. CENTCOM will remain 
tenacious stewards of taxpayer resources as we seek to develop and 
employ innovative ways and means to achieve our ends.
    It is vitally important to invest in relationship development and 
expand the capacity and capability of our regional partners. To 
accomplish this, we must adapt CENTCOM's presence and Regional Security 
Cooperation through strategic reposturing of our forces and by 
providing these forces with the necessary support. We also work to 
maintain access and presence that provide both crisis response and 
prepositioning of critical combat assets and equipment should the need 
for reinforcements arise. Finally, we need to maintain robust 
international training opportunities in U.S. schools for their officers 
as well as multinational exercises as we work to promote regional 
security and stability by, with and through our partners.
    As the war in Afghanistan draws down and our presence reduces, it 
becomes increasingly important to cultivate strategic partnerships that 
enable sustained stability. We will need to continue to leverage 
combined training with our partners and build coalition integration for 
long-term security in the region. CENTCOM's exercise and engagement 
program will enable critical mission rehearsals with partners across 
the entire military spectrum of operations--reducing the risk of denied 
access while enhancing interoperability with our partners and creating 
mutual awareness. This approach will build confidence and enable lower 
cost mil-to-mil engagement and training activities.
    Reposturing for the future, our enduring locations and projects 
support both a steady state and surge basing capacity, air-refueling, 
air operations, command and control, and special operations missions to 
preserve freedom of movement and strategic reach. Our presence also 
serves to demonstrate U.S. commitment to our allies, partners and foes. 
Our partners, in turn, provide locations that support critical access 
for current and future contingency operations while improving their 
forces and building interoperability with CENTCOM.
    The Iranian Threat Network and Ballistic Missile capability 
continue to pose a great threat in the region. These threats are 
expanding in quantity and quality and our focus on the nuclear threat 
will not divert our attention from the larger issues related to Iran's 
malign influence, as demonstrated through Lebanese Hezbollah and others 
of their ilk who are working with Iran's support to destabilize the 
region. Given Iran's intent to drive us out of the region, to undercut 
our partners, and its stated threats to disrupt international oil 
trade, our commitment and reassurance to our regional partners and 
allies have become the lynchpins to regional security and stability. 
Our efforts to advance regional integrated air and missile defense help 
foster U.S. and GCC coordination and advances GCC capabilities in this 
area. This also reduces risk to U.S. and partner deterrence and 
response capabilities and preserves freedom of movement. Iran's 
bombastic threats against the Strait of Hormuz, support for violent 
proxies and demonstrated military capabilities make the goal of 
enhancing GCC-wide missile defense capabilities and strengthening 
collaboration with our forces all the more important.
    Improvised explosive devices (IEDs) continue to be the most 
persistent and lethal weapon confronting our forces, those of our 
partner nations, and local populaces throughout the area of 
responsibility with an average of 172 incidents per month over the past 
2 years, principally but not solely in Afghanistan. We continue to 
execute a comprehensive program with the keenly focused Joint 
Improvised Explosive Device Defeat Organization to deter and defeat the 
IED threat in the region and we appreciate Congress' counter-homemade 
explosives legislation provision.
    Our strategic communications and information operations programs 
provide non-lethal tools to disrupt terrorist recruitment and 
propaganda within the region. In terms of both outcomes and cost, these 
programs are highly-effective complementary activities vital to our 
strategy in the region: they allow us to exert presence, even while our 
combat forces in the region are reducing. They provide the human socio-
cultural data, media analysis, internet video products, and multi-media 
campaign that include attributable social media and the Regional Web 
Interaction program to counter current and future threats. They also 
enable the dissemination of regionally focused information that 
counters violent extremist ideology and propaganda, amplifies moderate 
voices within the region, and degrades adversary dominance of the 
information domain.
    These relatively inexpensive activities support interagency efforts 
to counter violent extremist ideology and diminish the drivers of 
violence that al Qaeda and other terrorists exploit. To make this 
supportable across the Defense enterprise requires an enduring funding 
mechanism that DOD and our partners can rely on. Episodic engagement is 
inefficient and has the potential to create animosity due to unmet 
expectations by the governments and populations we are trying to 
support. Over the long-run, these proactive activities reduce strategic 
risk, protect American lives, and reduce the need for expensive 
responses to terrorist attacks. We seek your support to sustain and 
expand these efforts.
    As I travel throughout the AOR and see the promise of new 
initiatives and the risk posed by numerous challenges, I receive 
requests from military leaders across the region to increase 
intelligence sharing between our militaries. Many show determination to 
make tough decisions and prioritize limited resources to oppose 
antagonists seeking to destabilize their countries or use them to plan 
and stage attacks against the U.S. Homeland. With this in mind, and in 
order to demonstrate our commitment, I requested the Intelligence 
Community to begin drafting releasable products for our most trusted 
partners in the Levant, on the Arabian Peninsula, in the Central Asian 
States, and in South Asia as a standard practice rather than the 
exception.
    I am encouraged by the personal attention the Office of the 
Director of National Intelligence is giving these matters. Director 
Clapper's strong emphasis and encouragement for the Intelligence 
Community to produce intelligence in a manner that eases our ability to 
responsibly share information with our military counterparts creates a 
stronger, more focused front against our common enemies and builds our 
partner nations' confidence. We are grateful for the nimble manner in 
which our Intelligence Community has strengthened our efforts to 
checkmate more of our enemy's designs.

                               CONCLUSION

    Thank you for your continued support to U.S. Central Command and to 
our troops engaged across the region. I recognize the difficult choices 
you must make as we confront fiscal realities. We continue to 
prioritize our needs based on our most critical requirements as we 
rebalance our approach to work by, with and through our partners while 
continuing to build partner capacity and reduce our expenditures.
    As a geographic combatant commander, the negative impact of a year-
long continuing resolution and/or sequestration would severely undercut 
the coherence of our efforts. As conveyed in recent testimony by Deputy 
Secretary of Defense Carter before this committee, ``The consequences 
of sequestration and lowering of discretionary caps are serious and 
far-reaching. In the near-term, reductions would create [are creating] 
an immediate crisis in military readiness, especially if coupled with 
an extension of the Continuing Resolution under which we currently 
operate. In the long-term, failure to replace large arbitrary budget 
cuts with sensible and balanced deficit reduction require this nation 
to change its defense strategy.'' The Department continues to protect 
operations and priority activities in high threat areas, which will 
result in less initial impact on my current operations. However, 
impacts on readiness, investments and the civilian workforce are 
certain as well as other areas that are necessary to support our 
national security strategy and maintain options for the President. 
CENTCOM will weather the challenges we face in the short term. We 
absorbed reductions in fiscal year 2012 and will do our part to reduce 
spending this year as well. We prioritize our needs based on our most 
critical requirements as we balance our approach to work by, with and 
through our partners. Looking ahead, CENTCOM will do its best to do 
what is required to protect U.S. national security interests in a 
region undergoing social and political change and in the face of 
declining resources for our own defense.

    Chairman Levin. Thank you very much, General.
    Admiral McRaven.

   STATEMENT OF ADM WILLIAM H. McRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Good morning. Mr. Chairman, Ranking Member 
Inhofe, distinguished members of the committee: I also 
appreciate the opportunity to address the committee today and 
talk about the magnificent work being accomplished around the 
globe by the men and women of the SOCOM. Sir, I have also 
submitted a statement for the record.
    Chairman Levin. Thank you.
    Admiral McRaven. Sir, before I begin, however, I would like 
to recognize my colleague, my mentor, and my friend, General 
Jim Mattis. In the coming months, sir, General Mattis will be 
completing a 41-year career in the service of our country. 
During that time he has fought in every major conflict in his 
era. He has led soldiers, sailors, airmen, and marines with a 
degree of caring, passion, and professionalism that would make 
every American proud.
    General Mattis has always been known for two things, his 
incredible operational acumen and his candor. I know of no 
other general who is as well-versed in the art of war and no 
other man who speaks his mind the way Jim Mattis does. Every 
warrior who has ever served by his side feels honored and 
privileged to have done so. I count myself in that group.
    Jim, you have been particularly supportive of the men and 
women of SOCOM and on behalf of all those great warriors and 
Americans everywhere, I salute you for your service and your 
sacrifice to this Nation. It has been my distinct honor to have 
served with you.
    Mr. Chairman, this is my second opportunity to address this 
committee since I took command in the summer of 2011. Since 
that time, I'm proud to say we have continued the great work 
initiated by my predecessor, Admiral Eric Olson, and at the 
same time we have adapted to the changing strategic and fiscal 
environment to keep SOF relevant now and in the future.
    In Afghanistan, we helped establish a new SOF command 
structure which brought the various NATO and U.S. SOF elements 
into alignment under a two-star headquarters. This has allowed 
the SOF to have a common view of the enemy and synchronize our 
SOF to achieve a common end-state. It has made SOF even more 
effective than ever before.
    Partnered with our Afghan SOF, we have continued to attrite 
the enemy leadership, while at the same time building and 
training ANSF so they can stand on their own against this 
determined threat.
    In addition to Afghanistan, SOF are in 78 countries around 
the world. At the request of those nations, we are helping to 
build their SOF capacity and strengthen our partnership and 
allied networks to deal with the unpredictable and complex 
threat we face today.
    In the 2012 DSG, former Secretary of Defense Panetta wrote: 
``We are shaping a joint force for the future that will be 
smaller and leaner, but will be agile, flexible, ready, and 
technologically advanced. It will have cutting edge 
capabilities, exploiting our technology, joint and networked 
advantage. It will be led by the highest quality, battle-tested 
professionals. It will have a global presence, strengthening 
alliances and partnerships across all regions.''
    I believe the Secretary's words speak to the core 
capabilities of SOF and therefore SOCOM is working with the 
Joint Chiefs and the Office of the Secretary of Defense (OSD) 
to ensure we are postured now and into the future to meet the 
objectives of the strategy.
    Finally, I have made the caring for our force and their 
families my top priority. In the past year, my command sergeant 
major and I have met with the soldiers and their families from 
around the SOCOM enterprise. We have listened to their concerns 
and, with the support of the Services, we are aggressively 
implementing programs and plans to help with the physical, 
mental, and spiritual well-being of the force. We have a 
professional and moral obligation to take care of our warriors 
and their families, and we greatly appreciate the support of 
this committee and other Members on the Hill in our efforts to 
take care of these men and women.
    Thank you again for your commitment to the soldiers, 
sailors, airmen, marines, and civilians of DOD, and 
specifically those great warriors who make up SOCOM. I look 
forward to your questions.
    [The prepared statement of Admiral McRaven follows:]

           Prepared Statement by ADM William H. McRaven, USN

    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to address this committee, the second in my tenure 
as the 9th commander of U.S. Special Operations Command (SOCOM).
    SOCOM is one of nine Unified Combatant Commands, yet it is distinct 
in that it exercises numerous Service, military department, and defense 
agency-like responsibilities. Under title 10, U.S.C., sections 164 and 
167, it is my legal responsibility to organize, train and equip my 
force; to build a strategy that supports the goals and objectives of 
the Defense Strategic Guidance; and to provide combat ready forces to 
the President and the Secretary of Defense to meet the challenges of 
today's security environment.

                        SOCOM STRATEGY-SOF 2020

    In January 2012, the Secretary of Defense issued his Defense 
Strategic Guidance (DSG) and the Chairman followed with his Capstone 
Concept for Joint Operations (CCJO). The DSG describes the Joint Force 
of the future as ``agile, flexible, ready'' and possessing global 
reach, thereby directing ``the joint force to capitalize on networks 
and interdependency to maximize effectiveness in deterrence and 
evolving war.'' Building on this imperative, the CCJO envisions a 
``globally postured Joint Force . . . that quickly combine[s] 
capabilities with itself and mission partners across domains, echelons, 
geographic boundaries, and organizational affiliations.'' Special 
Operations Forces are uniquely suited to implement the guidance 
outlined in these documents. Specifically, SOF are ``rapidly deployable 
. . . have operational reach . . . [are] persistent . . . and do not 
constitute an irreversible policy commitment.'' General Dempsey 
concluded his Capstone Document with the statement that military 
success in today's environment is ``about building a stronger network 
to defeat the networks that confront us.''
    We live in a world in which the threats have become increasingly 
networked and pose complex and dynamic risks to U.S. interests around 
the world. These networks are diversifying their activities, resulting 
in the convergence of threats that were once linear. In today's 
environment, this convergence can have explosive and destabilizing 
effects--there is no such thing as a local problem. In the words of 
former Secretary of State Hillary Clinton, ``Extremist networks 
squeezed in one country migrate to others. Terrorist propaganda from a 
cell in Yemen can incite attacks as far away as Detroit or Delhi. A flu 
virus in Macao can become an epidemic in Miami. Technology and 
globalization have made our countries and our communities 
interdependent and interconnected. Today's threats have become so 
complex, fast-moving, and cross-cutting that no one nation could ever 
hope to solve them alone.''
    To address these problems, we must adopt a global perspective. With 
SOF deployed in over 75 countries on a daily basis, I can provide a 
global view of the problem and help link and synchronize global effects 
across geographic boundaries. However, as the SOCOM Commander, with 
some unique exceptions, I do not command and control any forces in 
combat or crisis. I am a ``supporting commander'' to the geographic 
combatant commanders and the Chiefs of Mission (COMs). It is my job to 
provide them the best Special Operations Force in the world. It is 
their job, to employ those forces in support of U.S. policy. Special 
Operations Forces do nothing, absolutely nothing, without the approval 
of the President, the Secretary of Defense, the geographic combatant 
commanders and the Chiefs of Mission--nothing. To best serve the 
interest of the GCCs and the Chiefs of Mission, SOCOM is developing a 
plan to enhance its already global force by networking with our U.S. 
interagency counterparts, and our foreign allies and partners around 
the globe. We aim to provide GCCs and Chiefs of Mission with improved 
special operations capacity and are aligning structures, processes, and 
authorities that enable the network.

                         THE GLOBAL SOF NETWORK

    Given strategic guidance, increasing fiscal constraints, and the 
networked and dispersed nature of conflict, SOF will play an 
increasingly critical role in the Joint Force of the future. Although 
SOF usually only garner attention for high-stakes raids and rescues, 
direct action missions are only a small part of what we do, albeit a 
very important part. SOCOM will continue to ensure our Nation has the 
best precision strike force in the world. We will not let up on that 
front. However, I'd like to emphasize that, in fact, on any given day 
SOF are working with our allies around the world, helping build 
indigenous special operations capacity so that our partners can 
effectively deal with the threat of violent extremist groups, 
insurgents, and narco-terrorists--themselves. Indeed, SOF focuses 
intently on building partner capacity and security force assistance so 
that local and regional threats do not become global and thus more 
costly--both in blood and treasure.
    Accordingly, with the support of the GCCs and Chiefs of Mission, 
SOCOM is enhancing its global network of SOF to support our interagency 
and international partners in order to gain expanded situational 
awareness of emerging threats and opportunities. The network enables 
small, persistent presence in critical locations, and facilitates 
engagement where necessary or appropriate--all under the authority of 
the GCC and COM.
    Through civil-military support elements and support to public 
diplomacy, SOF directly support interagency efforts to counter violent 
extremist ideology and diminish the drivers of violence that al Qaeda 
and other terrorists exploit. These efforts to prevent terrorist 
radicalization, recruitment, and mobilization are critical to defeating 
this dangerous ideology in the future; neither we nor our partners can 
kill our way to victory in this fight. These efforts require continuity 
and perseverance. Episodic engagement is inefficient and has the 
potential to create animosity due to unmet expectations by the 
governments and populations we are trying to support. Over the long-
run, these proactive activities reduce strategic risk, protect American 
lives, and reduce the need for expensive response to terrorist attacks.
    To this end, using already programmed force structure, SOCOM is 
methodically enhancing the capabilities of the Theater Special 
Operations Commands (TSOCs) based on a multi-year deliberate process 
supported by detailed analysis and war gaming. The goal is to increase 
the capacity and capabilities of the TSOC and their assigned forces to 
the GCCs to conduct full spectrum special operations--ranging from 
building partner capacity (particularly in austere, high-risk or 
sensitive environments) to irregular warfare and counterterrorism.
    In partnership with the GCCs, COM, TSOCs, other U.S. Government 
agencies and partner nations, SOCOM is working to develop opportunities 
to improve our partnership with regional Special Operations Forces. 
This approach was very successful in NATO, with the establishment of 
the NATO SOF Headquarters which allowed U.S. and partner nations to 
share information, improve interoperability and, when necessary, work 
together abroad. While the NATO construct is unique in the world, we 
believe there are other low-key opportunities that may present 
themselves in other regions of the world.
    In addition to the SOF capacity inherent in all GCCs through the 
TSOCs, SOCOM also employs Special Operations Liaison Officers (SOLOs) 
in key U.S. embassies around the world. SOLOs are in-country SOF 
advisors to the U.S. Country Team. They advise and assist partner 
nation SOF and help to synchronize activities with the host nation. 
Currently, there are SOLOs in Australia, Canada, United Kingdom, 
Jordan, Poland, Colombia, France, Turkey, Kenya, and Italy.
    Similarly, as part of the global SOF network here at home, one-to-
three person Special Operations Support Teams (SOSTs) work with our 
interagency partners in the National Capital Region (NCR). They 
comprise the SOF liaison network that assists in synchronizing DOD 
planning for training, exercises and operations. Currently, we have 
SOSTs working within 19 U.S. Government departments and agencies.
    Given the importance of interagency collaboration, SOCOM is placing 
greater emphasis on its presence in the National Capital Region (NCR) 
to better support coordination and decision making with interagency 
partners. Thus, SOCOM began to consolidate its presence in the NCR in 
early 2012. This is not a duplication of effort. We are focused instead 
on consolidating SOCOM elements in the Washington, DC, region under the 
leadership of the SOCOM Vice Commander--who resides in Washington. 
Specifically, SOCOM-NCR ensures that the perspectives and capabilities 
of interagency and international mission partners are incorporated into 
all phases of SOF planning efforts. The SOCOM NCR also conducts 
outreach to academia, nongovernmental organizations, industry and other 
private sector organizations to get their perspective on complex issues 
affecting SOF.
    At the SOCOM headquarters in Tampa, the staff will serve as the 
focal point for coordinating information that supports SOCOM 
warfighters. It is here that SOCOM will maintain the global perspective 
on all SOF activities in support of the GCCs and U.S. Chiefs of 
Mission. As such, SOCOM will support operations, intelligence, 
logistics, planning, communications, and provide critical information 
to enable forward deployed SOF to meet mission requirements. SOCOM will 
monitor SOF supporting campaigns, ensure that the Command is satisfying 
GCC theater requirements, maintain the global common operating picture 
for the SOF network, and monitor the readiness and availability of all 
U.S. SOF capabilities. The entire network will be enabled by the 
existing communications infrastructure. However, communication and 
information sharing must facilitate interconnectedness beyond the U.S.-
only realm, and improve partner-nation capacity, interagency 
coordination, and stakeholder situational awareness by providing 
information technology infrastructure and communications services to 
unite U.S. and partner-nation SOF, plus other mission partners. This 
communications infrastructure will leverage existing networks and 
systems to avoid duplication of effort.
    As a whole, the SOF network represents a way to improve the support 
to the GCCs and Chiefs of Mission and to empower a global effort with 
capable allies and partners. Recognizing that we have much to learn 
from each other, working with partner SOF will build mutual trust, 
foster enduring relationships, and provide new opportunities to affect 
shared challenges.
    To this end, the Secretary of Defense's authority to support 
foreign forces, irregular forces, and groups or individuals who support 
or facilitate ongoing military operations to combat terrorism--namely 
section 1208 of the NDAA for Fiscal Year 2005--remains critical to 
Special Operations. The drawdown of forces in Afghanistan will not 
diminish the need for 1208 authority. In fact, GCCs' demand for 1208 
authority has increased, and the authority's utility is recognized as 
mission essential in winning their current fight.

                    PRESERVE THE FORCE AND FAMILIES

    A SOF Universal Truth is that ``people are more important than 
hardware.'' We recognize that none of the efforts described in 
preceding paragraphs are possible without having the dedicated, 
professional SOF warriors to bring them to fruition. Hence, it is 
imperative that we do all that we can to preserve the force and care 
for their families. Therefore, to lessen the strain, we are seeking 
improvements in the predictability of SOF schedules--training, 
education, deployment, and rest.
    SOCOM must ensure our SOF warriors and their families are properly 
cared for and that we work to help them reduce the stress they face 
related to high operational tempos. Difficulty also occurs as forces 
reconnect and reintegrate into garrison and family activities. DOD 
provides preventive and responsive counseling, medical, psychological, 
and rehabilitative care to institutionalize the resiliency of our SOF 
warriors and their families.
    Everyone in the fight has been significantly changed by their 
experiences. Providing the treatment our troops need and reducing the 
stigma associated with asking for help is a top priority for all SOCOM 
leaders. For our servicemembers and their families, we are implementing 
programs identified as best practices and aggressively 
institutionalizing education for our Chaplains and Mental Health 
professionals to emphasize prevention-oriented care. Through human 
performance improvement, readiness, and spiritual growth, we hope to 
preserve our forces for the duration of their careers. Recognizing that 
the readiness of many of our servicemembers is inextricably tied to the 
well-being and happiness of their families, we have sought to bolster 
the care afforded to them. Additionally, to increase the predictability 
of servicemembers' time, SOCOM will redouble our efforts to reach out 
to families by opening up communication channels at all levels of the 
command through innovative use of varied media. We are committed to 
sustaining our force and families and will not break faith with our SOF 
family.
    Maximizing SOF readiness also requires an enhanced capacity to 
anticipate and proactively preserve and manage the future force. I am 
implementing an enterprise-wide PERSTEMPO capability that will provide 
commanders increased visibility, fidelity, and ability to manage SOF 
readiness down to the individual servicemember level. Once fully 
implemented throughout the command by fiscal year 2014, SOF commanders 
from the O-5 level and above will have a near real-time common 
operating picture of SOF readiness. This new capability further 
enhances commanders' force management decision making, improves the 
quality of life for the SOF force, and offers promise for maximizing 
force readiness through improved recruitment, retention, and protection 
of investments in SOF personnel and the resources that enable them.

                         ACQUISITION EXCELLENCE

    Mobility, lethality, intelligence, surveillance, reconnaissance, 
and survivability remain critical SOF enablers for the full spectrum of 
SOF operations. SOCOM's unique acquisition authorities remain critical 
to meeting the rapid, information sensitive and operationally peculiar 
demands of Special Operations. Specifically, SOCOM employs rapid and 
tailored acquisition strategies to modify Service-common equipment, 
enhance commercial items, or--when required--develop, procure and field 
SOF-peculiar equipment and services to respond to global requirements.
    SOCOM will continue its emphasis on equipping SOF operators as a 
system. Development, procurement and fielding of the SOF individual 
equipment system (i.e. individual protection, visual augmentation 
systems, weapons and sights) needs to suit the wide variety of SOF 
tasks and environments. The Tactical Combat Casualty Care system and 
use of Freeze Dried Plasma will combine to help care for wounded 
operators in remote and challenging environments, often at great 
distance from primary care facilities.
    To meet the wide range of SOF missions, SOCOM employs platforms 
that are both versatile and agile. For example, current acquisition 
efforts focus on equipping both manned and unmanned fixed wing assets 
with intelligence, surveillance, and reconnaissance (ISR) capabilities 
suitable for diverse global requirements. The Non-Standard Aviation 
fleet of aircraft supports SOF intra-theater mobility, Aviation Foreign 
Internal Defense, and manned ISR. The SOF fleet of Remotely Piloted 
Aircraft (RPA)--ranging from the manportable RQ-20A Puma to the medium 
altitude MQ-9 Reaper--provides essential ISR capabilities and cutting 
edge sensor and communication technologies. SOCOM's ability to 
efficiently modify service common ISR assets with capabilities such as 
high definition (HD) full motion video provides game-changing, 
operational effects at relatively small investment.
    SOCOM is continuing to execute programs to modernize its rotary 
wing and maritime mobility fleets, replacing legacy equipment such as 
the MH-60 K/L, Mark V Naval Special Warfare Rigid Hull Inflatable boat 
(RHIB), and SEAL Delivery Vehicle in the coming years. On the ground, 
SOCOM will maintain a family of special operations tactical combat 
vehicles with customizable, mission-specific payloads. A Non-Standard 
Commercial Vehicle (NSCV) capability enables SOF operators to maintain 
a low profile among indigenous populations while providing necessary 
mobility and protection.
    Global SOF rely on the SOF Information Environment (SIE) to achieve 
full operational potential. Within the SIE, SOCOM will continue to 
incorporate a SOF Deployable Node (SDN), a family of Wide Band SATCOM 
systems, and increased access to SIE voice, data and video services to 
deployed headquarters and operational elements. Simultaneously, SOCOM 
will continue its efforts to downsize system profiles and footprint 
through engineering efficiencies of common and scalable components 
amongst SDN variants, provide SIE access to tactical wireless users 
through SDN, and focus current efforts on providing SIE access to 
maritime and ground mobility platforms.
    SOCOM's Science and Technology (S&T) Directorate continues to 
pursue technology innovation, and utilizes a Special Operations 
Advanced Technology collaborative process for SOF-centric, S&T 
development. This process allows better synchronization of SOF-related 
technology initiatives with the Department of Defense and other 
government agencies to leverage external capital opportunities that 
address SOF capability gaps. S&T's near-term technology development 
efforts are focused on providing SOF operators with all-digital, multi-
spectral visual augmentation systems and advanced novel materials to 
improve protection and survivability for personnel and platforms.

               RESPONSIBLE RESOURCING AND SERVICE SUPPORT

    Despite an increase in operational commitments over the last 
decade, we have been able to sustain our obligation to appropriately 
organize, train, and equip the warriors from whom we ask so much. We 
are aware of current budget uncertainties, and are therefore committed 
to only prudent use of resources provided to us by the taxpayers. I am 
committed to exercising common-sense steps to cost-cutting and cost-
avoidance. The Command has begun to restructure and realign resources 
to support the SOF 2020 vision which reflects the Nation's strategic 
priorities. Currently, we are able to execute the vision I have 
outlined in this document without any increase in either civilian or 
military manpower outside of current programmed growth or additional 
funding. I will continue to manage cost-growth in acquisition programs, 
and implement requirements of the combatant commanders, Executive order 
mandates, and DOD auditability guidance.
    SOCOM has successfully used the Rapid Acquisition Authority to 
source a validated Joint Urgent Operational Needs Statement for 
Intelligence, Surveillance, and Reconnaissance activities. SOCOM will 
rely more heavily on this authority within the future fiscal 
environment.
    The Command's ability to execute rapid acquisition of its materiel 
and service programs is essential to deliver and field critical 
requirements and new technologies. SOCOM's capacity to maintain a 
competitive advantage on the battlefield depends on out-thinking and 
outpacing the enemy in speed, technology, equipment, and 
maneuverability. SOF capabilities are directly related to investments 
we make through our procurement budget.
    SOCOM, like the Services, has seen an extraordinary increase in 
operational tempo. Through advanced technologies, the battlefield has 
become smaller, highlighting a need for continued interoperability 
among the Services and SOF. SOF's reliance on the Services for 
institutional training, installation services and support--particularly 
in forward deployed locations where SOF can only sustain itself for 
short periods of time--remains critical. The Services' support for 
SOF's global persistent presence and annual deployments to over 100 
countries is both vital and very much appreciated.

                               CONCLUSION

    Budget uncertainties which face the Department of Defense and SOCOM 
are of great concern in fiscal year 2013. The SOF network, as a vital 
tool to support the President and Secretary of Defense's national 
defense strategy, seeks a strong and flexible global network of SOF, 
U.S. Government partners, and partner nations. We are working 
tirelessly to provide SOF capabilities and capacity to GCCs and Chiefs 
of Mission; capabilities and capacities that are supported by the 
required structures, processes, and authorities necessary for success. 
In the immediate future, and as stated by Chairman Dempsey, the ``Joint 
Force 2020 must protect . . . against threats that routinely span 
regional boundaries.'' Notably, as presented by former Secretary 
Clinton at the International Special Operations Forces Week in May of 
last year, ``Special Operations Forces exemplify the ethic of smart 
power--fast and flexible, constantly adapting, learning new languages 
and cultures, dedicated to forming partnerships where we can work 
together.'' Your support will ensure SOCOM's continued ability to 
successfully address the most challenging security demands of our 
Nation.

    Chairman Levin. Thank you so much, Admiral.
    We're going to have a 7-minute first round.
    Admiral, let me start with you. Relative to Afghanistan, we 
read frequently that only 1 of 23 Afghan brigades was rated by 
ISAF as being at the highest capability level, and that's 
independent with advisers. Now, at the same time we also know 
and have read--Senator Reed and I went to Afghanistan, so we 
know firsthand--that 70 to 80 percent of the operations that 
take place in many regions, including the toughest regions of 
Afghanistan, are taking place with not just the leadership, but 
with totally Afghan involvement.
    Now, those reports seem to be inconsistent. Can you tell us 
in your judgment whether or not, is our mission succeeding in 
Afghanistan? But second, can you tell us about the capabilities 
of the ANSF and whether they are on track for where we expected 
them to be at this point in the campaign plan, with a little 
over 20 months to go before the end of the ISAF mission?
    Admiral McRaven. Thank you, Mr. Chairman. I'll defer to 
General Mattis----
    Chairman Levin. I thought I would start with General Mattis 
on this.
    Admiral McRaven. Yes, sir.
    Chairman Levin. Did I say you, Admiral? I'm sorry.
    General Mattis. Mr. Chairman, our mission is succeeding. 
The Afghan campaign is on track. It is obviously a combination 
of progress and violence, but I would say when it comes down to 
the ANSF, they are proving themselves capable. Obviously, when 
we were looking at the drawdown numbers there was a certain 
amount of forecasting that the Afghan forces would be capable.
    Let me just give you some statistics that take this beyond 
simply my evaluation. Since the 1st of January, we have lost 
four U.S. troops, four of our wonderful troops killed in 
action. In the same period, the ANSF have lost 198 killed. 
There can be no longer any doubt. It's not opinion; it's now a 
fact: The Afghans are doing the bulk of the fighting, and they 
are doing it with our support.
    As a result, I need to go back and look at these statistics 
and how we're evaluating forces that are proving themselves in 
combat, when on the other hand we're saying only one is capable 
of independent operations with our advisers. I think we may 
have to relook at how we're measuring them, since obviously in 
the field they're measuring themselves against the enemy and 
they are proving themselves there.
    As far as the ANSF itself, we are continuing to see them 
mature and, with our advisers, many of them from the Special 
Forces, but also from our conventional forces, as confidence 
builders, as bringing American air power to bear, that enabling 
function, we are seeing that these lads are willing to take it 
to the enemy, and I think the Taliban has very little reason 
for comfort right now.
    Chairman Levin. General, do you support the decision of the 
President relative to the reduction plan that he's announced in 
our troops, as well as the pace of those reductions? Do you 
support that decision?
    General Mattis. The second part of your question makes it--
--
    Chairman Levin. The numbers and pace.
    General Mattis. Yes, sir. The pace is what makes it 
possible for me to support it fully. The pace, by not bringing 
the American forces down until after this year's fighting 
season, and with what we're seeing of the ANSF, gives me a lot 
of confidence we're on track. I support the pace and I support 
the number.
    Chairman Levin. When you say what we're seeing of the 
Afghan forces, you're talking about a positive trend in the 
capability of those forces as well as the size?
    General Mattis. Absolutely. They are getting better each 
day, and with 87 percent of the country now under their lead 
and them proving themselves in combat, yes, sir, I support it.
    Chairman Levin. There's been a decision made to reconsider 
any reduction in the size of the Afghan troops. There was a 
NATO decision some months ago that the goal was to reduce them 
by 2015, I believe, by about a third, and now that's going to 
be reconsidered. Do you agree that we should keep them at their 
current level, which is much higher than 250,000? It's about 
350,000, I believe.
    General Mattis. Yes, Mr. Chairman, it's 352,000, and I 
completely support that. That's the way to do it as we draw our 
forces down, to make certain the enemy does not see an 
opportunity there.
    Chairman Levin. Now, relative to Iran, I think most of us 
agree with the position of the President, as I said, that 
military options need to be kept on the table, if necessary, to 
prevent Iran from moving to nuclear weapons. Are those military 
option plans being developed? Are they developed now?
    General Mattis. Those plans are fully developed, Mr. 
Chairman.
    Chairman Levin. Thank you.
    This question relates to arming the opposition in Syria. 
Should we now provide lethal assistance to the Syrian 
opposition, and--well, let me start with that. Should we now 
move to providing lethal assistance?
    General Mattis. Mr. Chairman, the situation is so complex 
that I have to get some degree of confidence that the weapons 
that we would be arming them with are not going to people who 
are our enemies. That would be the one caveat that I would put 
on any military advice to go forward along those lines. We 
don't want to inadvertently, with the best of intentions, arm 
people who are basically sworn enemies.
    Chairman Levin. You say you would have to get some degree 
of confidence in order to make that recommendation. As of this 
time, do you have that level of confidence yet?
    General Mattis. I do not, Mr. Chairman. But I have not been 
tasked with this mission, I have not looked deeply into this 
yet, either.
    Chairman Levin. Thank you.
    General, there's a real threat of violence to the Christian 
communities in Iraq. My question to you is whether or not in 
your judgment the Iraqi security forces are taking the threat 
of violence against those Christian communities seriously and 
whether, if not--and I believe that they are not--what can we 
do to make sure that they do it?
    General Mattis. Mr. Chairman, Iraq itself is in a post-
combat but prereconciliation situation, I believe. They are 
still working out how they settle their differences 
politically. So far they are imperfectly working without 
resorting to violence. Al Qaeda is conducting most of the 
violence.
    So long as they continue to try to work these issues out 
politically, I believe that in the long run it's the rule of 
law and the political resolution of challenges that provide for 
all minorities in Iraq the best opportunity to live safely. The 
military itself, when I see them in action trying to work it 
out the Kurdish situation to the north, appear to be willing to 
negotiate, to talk, not to go to arms. I see them doing the 
same thing pretty much with the Sunni troubles they're having 
out west. That's the role I think of a military, to try and 
buttress law and the rule of law and not to try to provide 
security as the sole solution to that problem.
    Chairman Levin. I do hope that you and your successor will 
look for ways that we can press the Iraqis to do what they 
committed to do, which is to protect minorities inside of Iraq.
    General Mattis. Yes, sir.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    In my opening statement I talked about what we did in--
right now it's Senator Toomey and I headed up the effort to 
allow more flexibility if the chiefs--and I mentioned to you 
that I talked to the chiefs about this and they responded 
pretty strongly that, yes, in the same top line, operating with 
the same amount of money, would we be--to reduce the 
devastation, I guess is the best way to put it.
    Would each one of you agree with the chiefs' comments? Any 
comments you'd like to make about what type of thing we could 
do under that arrangement that we couldn't do with the straight 
cuts?
    General Mattis. Senator, I believe that if we got some 
degree of budget certainty through an appropriations bill that 
provides us as much as the CR does now, so we know for certain 
what we're dealing with, then, like any household or business 
in America, we can make some wise choices. The flexibility 
you're talking about for the Service Chiefs would be critical 
to those choices, obviously consistent with the congressional 
intent. But yes, sir, we need that.
    Senator Inhofe. I would say this. Written into the draft is 
the assurance that we're going to follow the legislative intent 
of this committee. So it has that level of discipline. It also 
has the level of discipline that they're going to be able to 
have some type of a congressional oversight or veto power over 
decisions that might be made if they were to be influenced in 
the wrong way.
    Do you have any comments about that, Admiral McRaven?
    Admiral McRaven. Sir, I absolutely concur with the Service 
Chiefs. We at SOCOM have obviously the same dilemma. I have a 
budget--I have Service-like responsibilities as well as 
combatant commander responsibilities. Under that, my ability to 
manage the cuts, the way they are aligned now, is difficult. 
It's an across-the-board cut, as you mentioned.
    So any flexibility in dealing with those cuts would be 
tremendously helpful to me and my staff.
    Senator Inhofe. I appreciate that very much.
    Chairman Levin mentioned, I guess to both of you about 
supporting arming the opposition in Syria. Of course, you gave 
your answer, but I would like to ask you, closely connected to 
that, what is your assessment of how long the Assad regime can 
hold onto the power in at least the sub-region, a sub-region of 
Syria?
    It's my understanding along the coast and then perhaps the 
hockey stick going up to Damascus might be the area where he 
would have most control. But the other area, what's your 
assessment as to how long he'd be able to hold onto power in 
that area?
    General Mattis. We're dealing with a fundamentally 
unpredictable situation. However, his power base is eroding. 
The geographic area he controls is eroding daily. You see him 
using ballistic missiles in order to try to impact those areas 
he's lost control of. Notice how the increased use of those 
missiles over the last month or 2 has been evident.
    So he is losing ground. I really don't have the ability to 
forecast this well, Senator. I'd hate to give you some kind of 
certainty that I don't sense right now.
    Senator Inhofe. He's losing ground, but at the same time 
there's more stuff that's coming out of Iran to fortify him. 
It's a tough area over there, more so than it's ever been 
before.
    Admiral McRaven, as we discussed during our meeting last 
week, we're seeing that al Qaeda and other terrorist groups are 
developing operational networks that are increasingly complex. 
I think you are the one who had stated that we can no longer go 
after terrorist groups in an ad hoc, country-by-country basis 
if we hope to be successful. Yet, I'm very concerned that's 
exactly what we've been doing.
    Do you believe that our current counterterrorism strategy 
has kept pace with the increasing globalization in the nature 
of al Qaeda and affiliated terrorist networks?
    Admiral McRaven. Senator, I certainly think we understand 
the complexity of the al Qaeda network. If you look in Africa 
as an example, you have al Qaeda in the Islamic Maghreb (AQIM), 
and we know that they are partnered or linked with Boko Haram 
out of Nigeria. So you certainly cannot isolate a single 
organization, whether it's AQIM or Boko Haram, and expect to be 
able to solve the problem either locally by going after that 
problem in a particular country or by individual entity. If you 
deal with AQIM, you probably have to deal with Boko Haram.
    Senator Inhofe. You mentioned Africa. Most people think the 
problem is just North Africa or up around the Horn of Africa, 
when, in fact, there's now evidence throughout Africa. I know 
if you talk to General Ham, he'll tell you the evidence that he 
has now of the presence of these terrorist groups in other 
parts of Africa. So I think it is widespread.
    Last question I have. In your professional opinion, are the 
current diplomatic and economic efforts to stop Iran from 
obtaining nuclear weapons capability, are they working?
    General Mattis. No, sir.
    Senator Inhofe. Let's assume that they obtain nuclear 
weapons and that capability, which our intelligence says 
they're going to obtain. How do you think their behavior would 
change after that?
    General Mattis. Senator, you know what our policy is, but I 
believe the reason for that policy is they would be more 
emboldened to act more like a revolutionary cause vice a 
responsible country.
    Senator Inhofe. I think so, too. I think it's important 
that we understand that this thing that we've talked about 
since 2007, with their emerging capabilities, nuclear 
capabilities, delivery systems, it's getting worse all the 
time. I just think we need to keep talking about that. Do you 
agree with that, Admiral McRaven?
    Admiral McRaven. I do, yes, sir.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    I want to add my commendations, General Mattis, along with 
your colleague and my colleagues for your extraordinary service 
to the Nation and to your marines. Thank you, sir, very much.
    Let me begin by asking a specific question about 
Afghanistan to both of you. Recently, President Karzai declared 
that SOF couldn't operate in a certain province south of Kabul. 
Does that affect the short- or long-run plans to deploy SOF as 
part of our withdrawal? Is it something that you can cope with 
in one instance, but if it develops to a wider scale it would 
interfere dramatically with your operations and our withdrawal?
    General Mattis. I just spoke with General Dunford a short 
time ago. That issue is being worked right now. It is not 
operant right now, that decision that you've heard about. So 
we're working this out as we speak.
    Obviously, we'd be reluctant to see our forces unable to 
operate there. But at the same time, I think this is being 
worked at the appropriate level with the responsible people 
working with the President.
    Senator Reed. So you at this juncture feel you can reverse 
what appeared to be a final decision. Going forward, though, I 
presume from your answer is that the need to operate rather 
freely throughout Afghanistan by SOF is essential to the 
withdrawal plans?
    General Mattis. Senator Reed, I think the decision was not 
taken, it's not just reversing it; it's crafting how best we 
operate in Wardak Province, which is a key route into Kabul. So 
I think it's still in place, sir. I can get back to you once 
the decision's made.
    Senator Reed. The larger issue here is, to the extent--
implicit in your plans for a phasedown of American forces, I 
always assumed was a robust special operations capacity that 
could operate throughout the country. Is that still central to 
your plan? Is that something that's still viable?
    General Mattis. It is, sir. Two purposes. One is 
counterterrorism; the other is advise, train, and assist the 
Afghans in their counterterrorism effort. So it's a twofold 
effort.
    Senator Reed. Admiral McRaven, do you have any comments?
    Admiral McRaven. Sir, the SOF that we have in Afghanistan 
are partnered with our Afghan SOF. So as you look at SOF, 
nowadays you can't look independently at U.S. or NATO forces 
alone. We have Commando Kandaks that we have built. We have 
Afghan SOF that are out there. So there is a network of SOF 
that is being applied across the area of operations that deal 
with the threat.
    Senator Reed. Let me ask another question about going 
forward. There's an issue of size of the force. There's also an 
issue of the pace of the force. But there's an issue also of 
the role of the force. There's been some discussion, and I 
don't know how far along, that these residual forces could be 
institutional-based trainers only, not embedded with Afghan 
forces, ANSF.
    Is your vision that you will have embedded forces with them 
or is it simply going to be institutional trainers in bases?
    General Mattis. Senator, we're going to have to watch how 
the Afghan forces mature. I anticipate there will be some 
embedding going on, whether it be with their special forces or 
their conventional forces. But at the current rate of 
maturation, they are actually becoming quite impressive in 
their ability to operate against this enemy.
    So we have some time yet, a year and a half to go, as we 
get them up on the step for when we will draw down to the 
enduring force. During this period we'll figure out what level 
of embedding has to be there and what level NATO forces are 
willing to commit to.
    Senator Reed. A final question on this area, Admiral 
McRaven. You still retain the capability of striking anywhere 
in that region if there is a high-value target as you go 
forward in terms of whether or not there's access to certain 
bases in Afghanistan or other parts of the world. You can do 
that from aerial platforms, from sea-based platforms, or from 
alternate land-based platforms. That capacity or capability 
exists?
    Admiral McRaven. It does, Senator.
    Senator Reed. Thank you.
    Let me turn quickly to the issue of Syria. As many people 
assume, the Assad regime is deteriorating rapidly. So let's 
just assume at some point it fails. What planning is going on, 
General Mattis, for any type of stability operations 
internationally to prevent a descent into anarchy there that 
would be disruptive for the whole region?
    General Mattis. Senator, we have some quiet planning going 
on with regional partners and with other partners, to see what 
level of ambition and what regional leadership could take on 
this mission. Clearly, it would be something best accomplished 
with a regional leader, regional organization. After the 
Russians' regrettable veto in the United Nations (U.N.), we 
probably have fewer options in terms of a U.N.-led effort or 
U.N.-sanctioned effort. But at the same time, there are 
regional organizations--the Arab League, the Gulf Cooperation 
Council--that may be able to take this on.
    We are doing some planning with the regional militaries and 
getting basically a framework for what this would look like, 
sir.
    Senator Reed. Let me ask a follow-on question. What do you 
think the reactions of the Iranians would be to a collapse of 
the Assad government?
    General Mattis. The collapse of the Assad regime, sir, 
would be the biggest strategic setback for Iran in 25 years. I 
believe they will arm militias inside the country to try to 
create a Lebanese Hezbollah-type effect, and they would 
redouble their efforts vis a vis Iraq, Bahrain, Yemen, and 
elsewhere. I think that's on a strategic plane what we would 
see as far as their shift.
    Senator Reed. Part of our reaction would be to plan for 
that contingency explicitly?
    General Mattis. We are, Senator.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    General Mattis, I appreciate your service and good luck in 
your retirement.
    I notice the map that you passed around about the AOR for 
the Commander of CENTCOM. It ranges all the way from Kazakhstan 
to the north, down to Yemen in the south, and over to Egypt. 
About half the Arab world, half the population of the Arab 
world, lives in Egypt, is that correct, General Mattis?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Mattis. I think it's well over a third anyway, yes, 
sir.
    Senator Wicker. A good portion.
    We just had an amendment a few weeks ago offered to a storm 
relief bill on the floor of the Senate. It would have 
prohibited our sale of F-16 aircraft from the United States to 
the Egyptian military. Did you follow that issue, General 
Mattis?
    General Mattis. Yes, sir, I did.
    Senator Wicker. As a matter of fact, Senator McCain took 
the point on that on the Senate floor and made an impassioned 
plea for us not to abandon the chance of improved relationships 
with the Egyptian military. I just wonder, was Senator McCain 
correct? I voted with him on that, to not abandon our sale of 
F-16s to Egypt.
    What advice would you give us going forward, because we may 
have to take further votes on that? What advice would you give? 
What effect would the termination of that sale be on our 
relationship and our chances of having any kind of meaningful 
relationship with the Egyptian military?
    General Mattis. Sir, I strongly endorse the 
administration's position and Senator McCain's position. I will 
tell you that I was just in Cairo a short time ago and our 
Ambassador, one of the best ambassadors we have in the Foreign 
Service, Ambassador Anne Patterson, also endorsed it.
    The bottom line is, Senator, that the Egyptian military 
through a very difficult period has maintained and even built 
trust with the Egyptian people. They have made clear their 
expectation that Egypt will maintain its international 
treaties. That includes the one with peace with Israel. They 
are the people that provide extra security when my ships go 
through the Suez Canal. The Gaza area has probably not been 
this quiet in 10 years, and in no small part the Egyptian 
military is doing quiet operations in the Sinai to help keep it 
that way.
    I think anything right now that we do that would undercut 
the trust between the U.S. military and the Egyptian military 
would be extremely unhelpful.
    Senator Wicker. Now, what do you think the advice of the 
Israeli Government would be to policymakers such as us with 
regard to that F-16 sale? Because I'll tell you, I've gotten a 
lot of mail and a lot of emails from people in Mississippi very 
supportive of the Nation of Israel, and they say, ``how could 
you agree to the sale of these F-16s to Egypt when that could 
be so harmful to Israel?'' What would your answer be to that?
    General Mattis. Sir, I won't speak for what Israel thinks 
about this. I can't do that. But I would tell you that the 
Chief of Defense of Israel was in my office a week ago and this 
issue did not come up.
    Second, as far as how to respond to your constituents, it 
is the Egyptian military right now, sir, that is the bulwark in 
the Sinai against the threats, the extremist threats against 
Israel, against Egypt, against all of us. So the Egyptian 
military is the organization committed, alongside as part of 
their government, but certainly have been very outspoken about 
maintaining the peace treaty, the international treaty. So it 
should not be seen as an enemy. It should be seen as a 
stabilizing force in the region, unlike, I might add, the 
military in Libya that fought alongside Qadafi or directed by 
Qadafi, unlike the military in Syria. We have a military that 
did not act that way when Egypt went through its transition.
    Senator Wicker. Thank you.
    General Mattis. So it's a stabilizing force.
    Senator Wicker. That's very helpful information.
    Let me just switch to something. I had to step out of the 
room to go meet with a very distinguished group of four retired 
admirals and generals representing the U.S. Global Leadership 
Coalition. Are you at all familiar with this coalition, General 
Mattis?
    General Mattis. Only very little. I've heard about them.
    Senator Wicker. Let me tell you. They are a group of more 
than 120 retired three- and four-star generals and admirals, 
and they are coming to the Hill today to meet with Members of 
Congress, not about the military budget, but about the 
international affairs budget, in other words, what we call in 
shorthand, foreign aid. Their message to me was what to some 
people might be a surprising message: We need to be very 
careful about cuts in foreign aid. They view it, General, as 
working hand-in-glove with our security operations that you two 
gentlemen are involved in.
    So, I just wondered if you would comment on that. Have you 
observed that the international development budget is helpful 
to us in providing national defense for our country?
    General Mattis. Yes, sir. I would start with the Department 
of State budget. Frankly, they need to be as fully funded as 
Congress believes appropriate, because if you don't fund the 
State Department fully then I need to buy more ammunition 
ultimately. So I think it's a cost-benefit ratio. The more that 
we put into the State Department's diplomacy, hopefully the 
less we have to put into a military budget as we deal with the 
outcome of an apparent American withdrawal from the 
international scene.
    Senator Wicker. I see. To both of you: As I say, I had to 
step out and I understand a question was asked with regard to 
sequestration and the CR and the advice, I think, that you have 
for us is we at least need to go ahead with the full 
appropriations bill for the entire fiscal year.
    But let me just make sure I get this answer. Would 
flexibility help you two gentlemen in getting through the 
sequestration issue? In other words, if Congress gave you, not 
the meat axe across-the-board arbitrary cuts, but the ability 
to pick and choose; would you be better off in performing your 
missions?
    General Mattis. From CENTCOM's point of view, sir, I'd just 
tell you that the full appropriations bill would give us the 
predictability, the flexibility you refer to. It would be 
critical to the Service Chiefs to carry out their 
responsibilities and lower the risk of less money available to 
us.
    Admiral McRaven. Sir, I think the flexibility would 
certainly allow us to manage our money towards those areas that 
are at most high-risk right now. So certainly having the 
ability to manage our own budget, recognizing the cuts that are 
coming, would be very beneficial to us.
    Senator Wicker. Thank you very much. Thank you both for 
your service.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Nelson.
    Senator Nelson. Thank you, gentlemen, for your service.
    Recently the Navy announced that it was going to delay the 
deployment of an aircraft carrier over into the CENTCOM AOR 
because of the sequestration threat. Can you speak to that?
    General Mattis. Sir, ships are expensive articles to 
operate. We all know that. She will be maintained at an 
enhanced readiness level. I was on board USS Harry S. Truman 
and spoke with Admiral Kevin Sweeney about 2 weeks ago, and he 
assures me his air wing and his ship will be ready to deploy on 
short notice.
    I still have one carrier out there, and I would just 
caution any enemy that might look at it as an opportunity to 
take advantage of this situation that that would be very ill-
advised. If the President orders us into action, I have what it 
takes to make it the enemy's longest day and their worst day, 
and we'll get the other carrier out there quickly to reinforce.
    Senator Nelson. If the President decided that the second 
carrier needed to be out there, what is the transit time from 
the time that he would give the order?
    General Mattis. Sir, the carrier, just knowing the U.S. 
Navy, would deploy faster than it's required to. Right now it's 
on 21-day ready-to-deploy orders. I believe they would be out 
of port faster than that, and would take probably about 14 days 
to get her into theater.
    Senator Nelson. So even if you cut the 21 days in half, say 
down to 10 days, plus 14, you're talking a total of 24 days 
before it could be on station?
    General Mattis. That's correct, Senator. I can buy the 
time.
    Senator Nelson. When was the Harry S. Truman scheduled to 
depart?
    General Mattis. It was about 2 weeks ago, Senator. I don't 
have the specific date.
    Senator Nelson. I ask the questions for the obvious 
reasons, that here is a good example of what you had planned in 
the way of readiness, because of some ridiculous budgetary 
ultimate decision is causing you not to have that second 
carrier out there on station.
    Would that carrier have the opportunity to be diverted into 
the Mediterranean instead of going to the Persian Gulf region?
    General Mattis. Sir, that would, of course, be up to the 
Secretary of Defense, which combatant commander gets her. But 
I've always thought most combatant commanders end up just 
forwarding personnel and ships for my use, so I'm pretty sure I 
could get her.
    Senator Nelson. Coming back to Syria, which is in your AOR, 
and that's why I ask about sending it to the Mediterranean as 
opposed to the Persian Gulf. It seems that on the one hand, we 
have Assad, and on the other hand, we have a group that's 
fighting Assad that increasingly--al Nasra, which is in bed 
with al Qaeda--is trying to take over. That doesn't give us 
much of a choice between those two.
    Do you have any reason for optimism that the anti-Assad 
forces are going to win out that are more amenable to us than 
al Nasra?
    General Mattis. Senator, the al Nasra, they have a good 
propaganda campaign. They're using humanitarian aid, they're 
using their weaponry and their skilled foreign fighters to dig 
their roots into this. But at the same time, they have a 
philosophy that is not admired by a lot of the people who are 
fighting Assad. So there's nothing certain about them coming 
out on top in this, but it could be very messy.
    The regional powers that are supporting the anti-Assad 
forces obviously have no trust with al Nasra and I think that 
you'll see more support continued for non-al Nasra elements. 
But it is the intertwining that concerns me.
    Senator Nelson. Admiral, you want to characterize for the 
committee any effects of sequestration on your ability to 
deploy SOF troops anywhere where there might be a flare-up?
    Admiral McRaven. Thank you, Senator. Obviously, we have the 
perfect storm here, with the CR and sequestration. Right now, 
the CR actually hurts us more than sequestration does at this 
point. The CR for me is about $1.5 billion, but, getting back 
to Senator Wicker's point, I'm unable to manage some of the 
issues in terms of the military construction and new starts and 
some of the adjustments that need to be made.
    So the CR not only precludes me from spending at the fiscal 
year 2013 level, as you know, pushing me back to fiscal year 
2012, but it also limits what I can do there. Then you add on 
top of that sequestration for me, which is about $900 million, 
and again unable to manage that money. It's about a 23 percent 
cut in SOCOM's available resources.
    So what does that equate to? For me it is a function of 
readiness, but not necessarily readiness forward deployed. We 
are managing the forward-deployed readiness, but frankly that's 
coming at the expense of our training base back in the 
continental United States (CONUS). So my concern, sir, is not 
for the immediate future.
    I think I can manage that with the resources we have. But 
we are beginning to create a readiness problem if we don't 
resolve the CR and/or have an opportunity to manage the 
sequestration money, because I'm already cutting 60 percent of 
my flying hours back in CONUS. I'm reducing also some of my 
deployments, about 20 percent of my deployments, going forward.
    So again, a perfect storm of fiscal problems for us, sir.
    Senator Nelson. I want to ask you something down in the 
weeds. Last year the DOD transitioned the Defense Human 
Intelligence Service to the Defense Clandestine Service (DCS). 
How do you anticipate that this is going to affect SOCOM's 
operations?
    Admiral McRaven. Sir, we've been working with the Defense 
Intelligence Agency (DIA) and the Intelligence Community to 
help support the movement forward of the DCS. I'd prefer to 
talk in closed session on some of the details of that, but in 
total, we think it's a very good plan. We like the direction 
and the initiative of the DCS. It puts SOCOM in a position to 
have more collectors supporting the DIA. So I'm very much 
behind it, sir.
    Senator Nelson. In the past, specifically you and the CIA 
have gotten along so well, and yet there is some concern about 
the two stepping on each other as you're moving forward with 
this DCS.
    Admiral McRaven. Yes, sir. We're working very closely with 
the CIA on this and I think we each understand our lanes in the 
road. The DCS is really about military intelligence and 
obviously CIA has a different mandate in that term. So I'm 
pretty comfortable and I think the senior leadership of the 
agency would tell you that they're pretty comfortable with the 
direction we're heading on DCS.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of our witnesses for their 
distinguished service to our country. General Mattis, we will 
certainly miss you, and thank you for everything that you've 
done for our country.
    I wanted to follow up. Senator Inhofe had asked you, 
General Mattis, about your professional opinion on whether 
current diplomatic and economic efforts will stop Iran from 
obtaining nuclear weapons capability, and I believe you said 
no. So if that is the case, right now as I understand it the 
economic sanctions that we have imposed on Iran are having a 
very significant negative impact on their economy and their 
currency, correct?
    General Mattis. Yes, ma'am, they are.
    Senator Ayotte. So if current diplomatic and economic 
sanctions will not stop them, in your opinion, from obtaining 
nuclear weapons capability, what do you think that they are 
doing now with negotiations? Are they trying to delay us again 
and continuing to enrich?
    General Mattis. Ma'am, just to be clear, I fully support 
the economic sanctions. I fully support the diplomatic 
isolation and accruing the international community's support to 
try to stop this. I believe they are trying to buy time with 
the negotiations, but that should not be in any way construed 
as we should not try to negotiate. I still support the 
direction we're taking. I'm paid to take a rather dim view of 
the Iranians, frankly.
    Senator Ayotte. It's understandable why you would be taking 
a dim view, how you describe their activities around the world 
in Syria, Iraq, Afghanistan, Sudan, Gaza, Lebanon, Yemen. I 
dare say that we can't think of another country that is doing 
more damage in terms of terrorism around the world and hurting 
our interests and those of our allies. Would you agree?
    General Mattis. I would agree strongly with what you just 
said, ma'am.
    Senator Ayotte. What is their history, by the way, in terms 
of using negotiations to delay and continuing to enrich? Do 
they have a history of doing that?
    General Mattis. They have a history of denial and deceit, 
ma'am.
    Senator Ayotte. So in the recent P5 Plus 1 negotiations we 
offered, the group offered, basically that we would back off on 
some of the sanctions if they agreed to keep enrichment levels 
at 20 percent. Iran as I understand it--we were not able to 
come to an agreement there. Is that right, General Mattis?
    General Mattis. I believe they agreed to meet again, 
Senator. But again, I think this was negotiations. There's 
nothing final about it. This is a give and take.
    Senator Ayotte. Here's our problem. If they have a history 
of using negotiations as a dilatory tactic while they're 
continuing to enrich and march toward nuclear weapons and we 
know how dangerous that they are, how do we stop this pattern 
to make sure that they know that we are serious that we will 
not accept them having a nuclear weapon?
    General Mattis. Senator, I think that the more that we can 
accommodate a larger coalition against them--I believe that in 
some ways we have to recognize Iran's legitimate security 
interests so they are not put in a position to use illegitimate 
means such as we're observing to address their legitimate 
security interests. I think that we continue everything we're 
doing right now, but, as the President has said, he's taken no 
option off the table and my role is to provide him military 
options.
    Senator Ayotte. How important is it that we stop Iran from 
obtaining a nuclear weapon?
    General Mattis. I would just echo the President's words. 
The Commander in Chief has said it's unacceptable, and I 
believe it's absolutely important.
    Senator Ayotte. In your view, based on your position, on a 
scale of 1 to 10 in terms of danger to the world and to our 
country, where would you put them obtaining a nuclear weapon, 
10 being the highest danger?
    General Mattis. Ma'am, it would be dangerous because it 
would enable Iran to continue to act like a revolutionary cause 
vice a responsible country, and they would sense fewer 
limitations and more invulnerability to conducting the kind of 
attacks to kill Israeli tourists in Bulgaria, provide Man-
Portable Air Defense Systems to Yemen, which they were just 
caught at. I believe we would see more of this irresponsible, 
reckless behavior.
    Senator Ayotte. Given the fact that they use negotiations 
to delay and continuing to enrich, why wouldn't we consider 
just cutting off negotiations and saying: ``here's the bottom 
line, Iran, otherwise, we're going to act,'' because I fear 
that if they continue to use negotiations to delay that we will 
be at a point where they have nuclear weapons capability and 
then it's too late, is it not, sir?
    General Mattis. It would certainly be too late for our 
stated policy that they are not to achieve a nuclear weapons 
capability. But I believe negotiations are critical as we build 
an international consensus against them and sustain that. I 
think that at some point they are going to have to confront the 
unproductive aspects of what they're doing for their own 
interests.
    Senator Ayotte. But one thing I just can't get my hands 
around here. We have pressed their economy. We have pressed 
them dramatically. We have negotiated with them in good faith. 
They have continued to enrich. They have used negotiations as a 
delay tactic. At some point you have to get to a position where 
you say insanity is the definition of doing the same thing over 
and over again and expecting a different result, from a regime 
that obviously continues to flout us and our allies and also to 
be a danger to the world in terms of their terrorism 
activities.
    So that's the thing I worry about, General Mattis. So how 
do we address that?
    General Mattis. Ma'am, what I do, I provide the Commander 
in Chief military options, working with some very strong 
friends, partners in the region. They are creating in their 
minds as a revolutionary cause a resistance economy. They are 
trying to raise a sense of martyrdom as a nation. That's a very 
dangerous type of self-view if they were to get a nuclear 
weapon.
    But I don't believe that we should stop negotiations, 
because they do not prevent us from doing other things at the 
same time. For example, while negotiating I have requested and 
received additional forces in the Gulf by the decision of the 
Secretary of Defense to ensure that we are ready to reassure 
our friends that we mean business and temper the Iranians' 
designs.
    Senator Ayotte. I thank you very much, General Mattis. I 
think we all share the concern, and particularly the Senate. We 
voted on a resolution saying that containment is not the policy 
of the United States of America. This is an overwhelming 
bipartisan issue and Iran needs to understand that we will not 
accept them having a nuclear weapon. But I worry that they are 
using negotiations to delay and I hope the administration will 
make sure that they are not able to use those negotiations to 
further their aims at getting nuclear weapons capability.
    I thank you so much for what you're doing. I want to ask 
you a brief question on another topic on no contracting with 
the enemy, that was incorporated in the National Defense 
Authorization Act for Fiscal Year 2013, section 841, on work 
that Senator Scott Brown and I did together. Senator Richard 
Blumenthal and I recently visited, along with Senators McCain 
and Graham, Afghanistan in January, talked to Major General 
Longo about the impact of those provisions. He indicated that 
it would be helpful--the provisions have been very helpful in 
cutting off funds to those, our enemy, when contractors are 
contracting to those that we don't want taxpayers' dollars to 
go to.
    Senator Blumenthal and I are working on an effort to extend 
those provisions beyond Afghanistan to other combatant commands 
and also to think about extending it to other agencies, 
including the State Department and the U.S. Agency for 
International Development (USAID). I wanted to get your opinion 
on that, General Mattis.
    General Mattis. Very quickly, Senator, I fully support both 
the letter and the spirit of what was in there. We did have to 
look more deeply at the subcontractors. That's where we found 
the problem. It was not with the contractors. But then we 
followed the money down and we found some things that were 
disappointing. I can just tell you from CENTCOM's point of view 
it's been very helpful to focus us in that area.
    Senator Ayotte. Thank you, General.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    Thank you both for being here today. Following up on my 
colleague's question, I know that I have some specific 
questions I probably won't have time for today about the 
Afghanistan Infrastructure Fund and the notion that it's very 
hard to build infrastructure inside of a contingency by our 
military without some money getting to the enemy, because of 
the huge costs of security. One of the reasons the enemy got 
money is because we were trying to pay off the enemy to not 
kill our contractors.
    So the problem here is not just contracting with the enemy. 
As the war contracting provisions that we have now passed into 
law embrace, it is also about whether or not the 
counterinsurgency strategy should, in fact, include 
infrastructure. Should it include major projects? I'm going to 
have some specific questions about metrics being produced 
around the counterinsurgency strategy to support the notion 
that it is an effective part of counterinsurgency efforts.
    I want to take advantage of your years of service, General 
Mattis, and ask you something that is not directly related to 
CENTCOM. My background includes handling dozens and dozens of 
jury trials as a prosecutor of very difficult sexual assault 
and rape cases. I think I have taken an acute interest, along 
with many of my colleagues, on the pervasive problem of 
prosecuting sexual assault in the military.
    I feel a sense of urgency today because of what happened 
last week. A colonel, James Wilkerson, was convicted by a 
military jury of sexual assault that occurred at Aviano, Italy. 
He was sentenced to dismissal, forfeiture of pay, and 1 year in 
jail. With a stroke of a pen last week, a general dismissed 
those charges against him, a general with no legal training, a 
general that had not sat in the courtroom. This general did it 
against the advice of his legal counsel.
    Now, my heart is beating fast right now, I am so upset 
about this. As we are trying to send a signal to women--now, 
the victim in this case wasn't a member of our military. I 
question now whether that unit that that man returns to, 
whether there's any chance a woman who is sexually assaulted in 
that unit would ever say a word, because what that general just 
said is that jury's decision didn't matter.
    The rules actually say that the convening authority not 
only has complete discretion as to whether or not a case is 
brought, without any legal training required; the convening 
authority, also has the right to either reduce punishment or 
dismiss the cases for ``any reason or no reason at all.''
    Now, I ask you, General Mattis, isn't it time, as we 
understand that the majority of homeless women in this country 
are veterans and that the majority of them had some form of 
sexual assault, that we look at the Uniform Code of Military 
Justice (UCMJ) and decide that we need to have something other 
than the arbitrary decision of one general, without any other 
supervising authority, any other procedure that is necessary, 
to actually overturn the very difficult decision that the jury 
came to?
    General Mattis. Senator, I do not know the specifics of 
this case and I've always been reluctant to comment on 
something where I don't know it. Some of you are aware of the 
high-visibility court cases I've superintended. I've read as 
many as 9,500 pages of investigations before I made certain 
decisions.
    But let me assure you, Senator, that the Supreme Court has 
upheld what Congress has passed for the UCMJ, recognizing the 
unique aspects of the military. In this case, there are more 
rights provided to defendants in the military, because no court 
system is more subject to being characterized as a kangaroo 
court than one where military officers who are in command also 
initiate it.
    In this case, I cannot speak to the specifics, but I can 
assure you that justice is overwhelmingly served by the 
currently constituted UCMJ. I say that because as a commander I 
was not just responsible for prosecution, I was also 
responsible for defense, and commanders must balance both of 
those if we're to have a fair system.
    I don't know the specifics of this case, so I do not want 
that to be drawn in as support for something that I really 
can't address. I'm sorry.
    Senator McCaskill. Let's just set aside the specifics of 
this case.
    General Mattis. Okay.
    Senator McCaskill. Do you really think that after a jury 
has found someone guilty and dismissed someone from the 
military for sexual assault, that one person, over the advice 
of their legal counselor, should be able to say, never mind? 
Don't you think that someone up the chain should have an 
opportunity to look at that if they're going to dismiss it, a 
jury conviction?
    I understand that the military is not the civilian system. 
But I'm trying to envision here the ability of a prosecutor or 
a defense lawyer or the person who they both work for--and 
that's a weird concept for me to get my arms around, the notion 
that they could unilaterally, without having to have any 
justification, for no reason at all, just say, never mind.
    I think that is something that most--especially when you 
realize how serious this problem is. I may not be able to talk 
you out of the position that you just stated, but I think that 
the military needs to understand that this could be a tipping 
point, I think, for the American people to rise up, 
particularly the women, and say: ``I don't think one general 
should be able to overturn a jury.''
    General Mattis. Senator, the commanders, including women 
commanders, have this authority for a reason, for a vested 
reason. I would just tell you that I would look beyond one 
case.
    Senator McCaskill. Unfortunately, General, I think I could 
bring you a lot of cases. I think I could bring you a lot where 
cases were not brought, where victims were not taken seriously. 
I think there's a culture issue that's going to have to be 
addressed here, and what this decision did was underline and 
put an exclamation point behind the notion that if you are 
sexually assaulted in the military, good luck.
    General Mattis. Ma'am, I would just tell you that my troops 
generally know what I stand for, but they also have no doubt 
what I won't tolerate. I would just tell you that I'm not 
unique in this. You show us someone who conducts themself in a 
criminal manner along these lines and I am dry-eyed when I put 
my beloved troops in jail the rest of their life for all I 
care.
    Senator McCaskill. Believe me, in some ways I am sad that 
this occurred right before this hearing and that my time with 
you today is covering this subject matter, because I have great 
respect for the leadership of the military and particularly for 
your service, General Mattis. So please don't misinterpret this 
as anything other than a high degree of frustration as to a 
system that appears unaccountable to the thousands of victims 
who are struggling for a piece of justice under these 
circumstances.
    Thank you very much, General.
    General Mattis. I respect that, Senator, and I just assure 
you there is accountability for every general under my command.
    Senator McCaskill. General Welsh is going to be hearing 
from me about this particular general. I think it's also 
interesting that both of these people are fighter pilots, they 
both have served together, and that adds more appearance of 
impropriety to this particular decision. I'm going to ask 
General Welsh some very difficult questions.
    Thank you very much, General Mattis.
    Chairman Levin. Thank you very much, Senator McCaskill. 
There's going to be a sexual assault hearing that Senator 
Gillibrand is chairing----
    Senator McCaskill. March 13.
    Chairman Levin.--as the chair of our Personnel 
Subcommittee. I would think that, even though the issue you 
raise is broader than sexual assaults--it has to do with the 
power of the convening authority, period, sexual assault cases 
and any case--nonetheless, that may be an appropriate time to 
raise it.
    We will ask the General Counsel for DOD, Bob Taylor, who's 
Acting General Counsel, to address this issue, if this is okay 
and consistent with what you have in mind, Senator McCaskill. I 
think it's important that we start getting the General Counsel 
of DOD aware of the issue of the ``no reason at all'' language 
which apparently is in the UCMJ, and to give this committee for 
starters an opinion as to the source of that language and to 
whether or not it is credible to maintain that kind of 
authority, that ``no reason at all'' language in the UCMJ.
    So I don't want to in any way move in a different direction 
than you want to go, but I think that would be helpful, to ask 
the Acting General Counsel that question, and we will do that.
    Thanks to Senator Fischer, Senator McCain is next.
    Senator McCain. I thank Senator Fischer for her indulgence, 
unlike our colleague from New Hampshire. I appreciate it.
    Thank you, Mr. Chairman.
    General Mattis, let's be clear about this cut and the, 
``flexibility.'' We're still looking at $43 billion in cuts, is 
that right?
    General Mattis. Yes, sir.
    Senator McCain. Still, no matter whether you have the 
flexibility or not, isn't this, in the words of Secretary 
Panetta, ``we're shooting ourselves in the foot,'' in the head 
and not in the foot?
    General Mattis. Yes, sir. We're going to have to change our 
strategy. We cannot maintain the same end state.
    Senator McCain. The $43 billion is still a devastating blow 
whether you have the flexibility or not; is that correct?
    General Mattis. It is, Senator, but I don't want the enemy 
to feel brave right now. I can still deal with them in my 
region.
    Senator McCain. But to somehow say that this problem goes 
away because you are given flexibility is not accurate, is that 
true?
    General Mattis. That's correct, sir.
    Senator McCain. First of all, I want to say, thank you. 
Thank you for your service. Thank you for the inspiration 
you've provided to the men and women who serve under you. I 
have met so many of them who have the highest admiration for 
you. Thank you for your service to the country, and you speak 
truth to power. I wish more of your colleagues did that as 
well.
    On the issue of Syria, we're now over a million refugees. 
We're now at 70,000 people at least who have been massacred. 
The risk of spillover into Lebanon and Jordan is obvious. The 
events of yesterday, 42 Syrian soldiers being murdered or 
killed in Iraq. Everything that we worried about if we 
intervened has taken place because we didn't intervene. Would 
you buy that argument?
    General Mattis. Senator McCain, I'm not certain even by 
intervening into this, this cauldron, we could have prevented 
all of it.
    Senator McCain. Have we seen a worst-case scenario?
    General Mattis. Not yet.
    Senator McCain. Not yet, because that's chemical weapons, 
right?
    General Mattis. It's also the further fragmentation of the 
country into ethnic and sectarian militias.
    Senator McCain. I say with respect, that's already 
happened.
    You're saying you want to make sure that we get the weapons 
to the right people if you were to support such a move, is that 
correct, your previous answer?
    General Mattis. Yes, sir.
    Senator McCain. So isn't the best way to do that to give 
them a sanctuary area, a no-fly zone, and let them establish 
themselves as the Libyans did in Benghazi, so that we can make 
sure the weapons do get to the right people?
    General Mattis. If I was given that mission, yes, sir, that 
would be a way to do it.
    Senator McCain. Without that, it's pretty obvious that the 
flow of jihadists into the country continues unabated?
    General Mattis. Yes, sir.
    Senator McCain. The Iranian Revolutionary Guard is on the 
ground.
    General Mattis. They are both on the ground and bringing in 
other foreign fighters.
    Senator McCain. The Russians continue to supply weapons to 
Bashar Assad and veto resolutions in the Security Council.
    General Mattis. Yes, sir.
    Senator McCain. Wouldn't you call that an unfair fight?
    General Mattis. I've never been in a fair fight. Always one 
side has the advantage, and right now Assad has----
    Senator McCain. Yes, but the other side has the advantage 
because we refuse to do something which would make it a fair 
fight.
    General Mattis. There are regional partners that we have 
that are taking action.
    Senator McCain. Many of those weapons are going to the 
wrong people, as we know, some of our partners that are giving 
the weapons to the wrong people.
    General Mattis. Yes, sir.
    Senator McCain. Let me switch very quickly to Afghanistan, 
if I could. What was your recommendation as to the troop levels 
that should remain behind in Afghanistan?
    General Mattis. Sir, we did not use numbers. We said we 
wanted to know what missions are we expected to do. Based on 
that, we got to the 34,000, which I support, the reduction by 
34,000, so long as the pace left them there through this 
fighting season as the ANSF proved themselves.
    Senator McCain. Did that happen?
    General Mattis. It did.
    Senator McCain. What about the residual force?
    General Mattis. The post-2014 force, Senator, that decision 
I know has not been made yet. It's still under consideration. I 
have made my recommendation.
    Senator McCain. Which is?
    General Mattis. That recommendation is for 13,600 U.S. 
Forces, sir.
    Senator McCain. How many NATO?
    General Mattis. Not something I control, but----
    Senator McCain. Right.
    General Mattis. --I assume it would probably be around 50 
percent of what we provide.
    Senator McCain. Back to Iraq for a moment, aren't you 
concerned about the unraveling of Iraq, with the schisms 
between the Kurds, Barzani, and Maliki, the continued terrorist 
attacks that take place, and the increasing polarization of the 
Sunni-Shia situation, particularly in places like Mosul, where 
you have Kurds, Shia, you have everybody, Turkoman, you have 
everybody there? In retrospect, do you think that the situation 
would have been better if we had left a residual force there?
    General Mattis. Hard to say if it would have been better, 
Senator McCain. I share the concerns about the Kurdish schism 
with the country, with the Sunni-Shia situation. Al Qaeda is 
continuing its campaign. I would add one more point: The 
Iranian-backed militia shelling the capital city, the MEK camp, 
shows that the Iranians are not even now above going back and 
to work their own way.
    However, Senator, imperfectly as it is, they are still--the 
various parts of the body politic there in Iraq are talking 
with each other. So it still probably has a level of violence, 
Senator, that is slightly below what it was when we were there 
overall. Not a good answer.
    Senator McCain. Let me just say with respect, Barzani told 
me he had not spoken to Maliki in over a year, and to my 
knowledge they're still not. But that's beside the point.
    Back to Syria a second. We could take out the air assets of 
Bashar Assad with cruise missiles, take them out on the ground?
    General Mattis. Not all of them, Senator, because they have 
a number of mobile systems. I'd have to do a pretty----
    Senator McCain. We can take out a fair amount?
    General Mattis. --we could take out a fair amount, yes, 
sir.
    Senator McCain. The Patriots could defend a no-fly zone?
    General Mattis. They could--they're a point defense weapon. 
They could certainly help put together a no-fly zone.
    Senator McCain. You would agree that in a topography and a 
situation like that, air power is a really decisive and 
important factor in Bashar Assad's being able to hang on?
    Finally, I'm concerned about this withdrawal to the coast, 
the Alawite enclave. I wonder what you think of the likelihood 
of that might be?
    General Mattis. Sir, it is an economically unsustainable 
enclave if they go there. So it's not going to be a long-term 
thing. But it could certainly create a longevity for the regime 
if they were to lose Damascus, that right now, I think, is 
something we have to consider. In other words, you'll see a 
two-step. As Damascus starts to fall, they'll try to get over. 
I believe the Iranians are helping them to get established 
there.
    Senator McCain. Again, General Mattis, I've had the great 
honor of being associated with some outstanding military 
leaders and I know you will continue to contribute to our 
Nation's security. I thank you.
    General Mattis. Thank you.
    Chairman Levin. Thank you very much, Senator McCain.
    Here's the order of battle for us now. On the Democratic 
side it's Hagan, Manchin, Shaheen, Blumenthal. On the 
Republican side it's Lee, Fischer, Blunt, Graham.
    Senator McCaskill. Mr. Chairman.
    Chairman Levin. Yes?
    Senator McCaskill. I notice that our colleagues, Senator 
Kaine and Senator Donnelly, while they are new here, they're 
upset that they were not mentioned. They're afraid that you've 
forgotten they're there.
    Chairman Levin. I have not. I should have said the next 
four.
    Senator McCaskill. Oh, okay. All right. They looked 
panicked for a minute. I used to sit way down there at the end, 
so I'm feeling for them.
    Chairman Levin. Thank you.
    Number five and six and seven and eight on the Democratic 
side are Donnelly, Hirono, Kaine, and King. I should have said 
the next four.
    Since Senator Hagan is not here, it is Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    To General Mattis and Admiral McRaven, thank you for being 
here. Congratulations on your retirement. I'm sure you're going 
to enjoy it.
    With that being said, General Mattis, I know there's been a 
lot going back and forth--if you'd have had the flexibility, 
knowing from the get-go that you'd have had flexibility, but 
had to do the cuts, the $42.5 billion cut, would you have been 
able to deploy the Harry S. Truman on time?
    General Mattis. Sir, I'd have to know better what the Navy 
confronts, but I suspect that we could have, yes, sir.
    Senator Manchin. So much said about the amount of money 
that we spend in DOD versus other countries. Do you have, 
either one of you, just a quick scenario, an oversight, on the 
difference of our cost versus--they tell me the next 10 or 15 
developing nations of the world combined doesn't spend as much 
as we do. What is the high cost of ours so much differently?
    General Mattis. Senator, I think part of it is we're the 
gold standard. We set the standard, from weaponry and 
technology to the training and certainly to the coherence of 
our force, the cohesion of our force, that also believes that 
they're the best in the world because of the support of the 
Hill.
    We also have global responsibilities, and those--I was born 
into this time. Others made those decisions. But I am often 
impressed when I walk into offices where even at this rank 
overseas I say ``Sir'' or ``Your Highness'' or ``Mr. 
President'' or ``Mr. Prime Minister'' or ``Sultan,'' at just 
how much other nations look to us to reassure them that they 
can follow their better instincts and not have to accommodate 
some pretty ugly situations in their region.
    Senator Manchin. Admiral McRaven, I find it troubling that 
the military is losing many of its talented people to private 
contractors. I talk to an awful lot of the SOF, and they're 
being lured away by the higher salaries. Is that not troubling 
to you, sir?
    Admiral McRaven. Sir, statistically, that was true back at 
the beginning of the war, I think, when we saw, certainly 
around 2001 as the wars began to ramp up and the contract base 
began to build, we were losing a number of our senior 
noncommissioned officers (NCO). Sir, that has tapered off 
considerably and right now, frankly, our accessions rate into 
our training pipelines are as good or better than they've ever 
been and our retention is equally high.
    Senator Manchin. Are we reducing our amount of dependency 
on contractors then? Is that what you're saying?
    Admiral McRaven. Sir, we are, yes, sir.
    Senator Manchin. Okay. Either one of you could speak to 
this one, if you compare Pakistan's actions by them having the 
nuclear weapon and how we are working with them as supposedly 
an ally--I can only imagine what your thoughts may be if Iran 
is able to achieve the same status of nuclear weapons. I'm sure 
if you had it to do over again, we'd probably look at that 
differently with Pakistan. But your greatest fear is Iran, I 
would assume, having this nuclear arsenal, right?
    General Mattis. I think that would be the most 
destabilizing event that we could imagine for the Middle East, 
sir.
    Senator Manchin. Another question I have is one that--I 
came out of the Vietnam era, so I remember that war came to a 
close much quicker than this war. Here we are in 2013. In 2001 
if anyone would have, I think, anticipated that we'd still be 
going at this 13 years, the amount of money and time--so I 
think it brings up the question just for discussion: Have you 
thought about, with all the budget cuts and different things 
that we can do and staffing and all that, of the draft, a 
combined hybrid of the draft with the professional services 
that we have now? I know for a fact that we would not be in a 
war 13 years if moms and dads had the input that they had back 
then.
    General Mattis. Senator, I won't take issue with what you 
just said. We in the military are concerned that the All-
Volunteer Force has drawn us a little apart from our body 
politic. But, that said, this threat is real. I've dealt with 
it since 1979. The Shia side declared war on us in the 1980s, 
blew up our peacekeeper barracks in Beirut. They continue with 
Lebanese Hezbollah today. The Sunni side of the extremists--al 
Qaeda is how you know them--they tried to take down the Trade 
Towers once in the 1990s. They took it down the second time.
    It's a real threat. One thing about America: It's been 
willing to meet real threats when the political leadership 
explains it to the American people. I think we would still be 
here, sir, because I think the enemy would force the issue.
    Senator Manchin. I agree that we're going to have to be 
fighting the war on terror for many generations to come. I 
think that most Americans accept that. But when you look at how 
we got into Afghanistan and then we moved to Iraq and now we're 
back in nation-building, I think there's an awful lot--I'd 
rather us get out quicker and come home and rebuild America.
    When you look at the Kajaki Dam that we built in the 1950s, 
and now in disrepair. We went back and rebuilt it again, and 
we've spent, I think, $70 million to finish the project. The 
Special Inspector General of Afghanistan Reconstruction doubts 
that they have the capability of doing that if we gave them the 
$70 million. That's what I think we as Americans are upset 
about, the money we're putting into an infrastructure which 
they are incapable of maintaining.
    Are we moving away from that strategy? Admiral, would you 
say we are?
    Admiral McRaven. Sir, I'll allow General Mattis to address 
the Kajaki Dam issue, but I think in general as we in the 
special operations community work with our partners abroad--as 
I mentioned in my opening statement, we're partnered with about 
78 nations on any day in the calendar. In a lot of those cases, 
we are doing minor construction, so obviously nothing like 
Kajaki Dam, but being able to build schools and boreholes and 
wells and help with small infrastructure projects that 
absolutely, I think, are critical to building our credibility 
with the host nation, both with the military and the civilian 
sectors.
    Senator Manchin. Sir, I'm understanding in that situation 
there we're not even allowed to brand it as made by the United 
States because of the blowback. So we're not even getting 
credit for that as we do that infrastructure repair and 
building.
    Admiral McRaven. Sir, you're referring to the Kajaki Dam, 
sir?
    Senator Manchin. I'm saying all the other things, whether 
it be schools or whether it be the water supplies and things of 
that sort, when I was there that we were afraid or they were 
afraid to put our name on and give us credit, the U.S. 
Government, for doing it.
    Admiral McRaven. Sir, I would tell you, I think it's on a 
case-by-case basis. We work with USAID. They're one of my 
closest partners, and in fact, I have a great relationship with 
USAID. Every time we go downrange we work with the U.S. Embassy 
team. We take our lead from the U.S. Ambassador there. We get 
together with their foreign assistance folks and we 
collectively build a plan that makes sense.
    Where it is important for us to articulate that the United 
States has built this particular piece of infrastructure, we 
absolutely do that. Where, frankly, we think it's more 
culturally sensitive to allow the locals to receive credit, 
then there's an appropriate way to do that as well. But 
certainly it's not one size fits all, sir.
    Chairman Levin. Thank you very much, Senator Manchin.
    Senator Lee is next under our order that we operate here. 
Again, I want to thank Senator Fischer. She may not have known 
what she got into, but her generosity is noted. We appreciate 
it. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to both of you for joining us today. Thank you 
especially for all you do and have done throughout your 
distinguished careers to keep us safe.
    General Mattis, I wanted to start by talking to you about 
Syria. Your written testimony mentions the dire situation in 
Syria and it also refers to the fact that there is a certain 
amount of disunity among the opposition groups and there may be 
some influence from al Qaeda-related groups. I'd like to get 
your assessment on Syria and your answers to a couple of 
questions.
    First, what can you tell us about the composition and the 
objectives of the opposition forces in Syria? In particular, 
what can you tell me about the extent to which they have a 
vision for a future of a post-Assad Syria?
    General Mattis. Senator, the opposition is not completely 
unified. It's becoming more unified day-by-day. The one thing I 
think all of them agree on is Assad has to go, on the 
opposition side. But after that it breaks out pretty broadly, 
to include some what I would call populist extremist views, as 
well as the ones that we would find more along the lines of how 
we would like to see Syria come out of this civil war.
    The vision that some of them have is clearly inconsistent 
with what we would like to see. These are the jihadist elements 
that are there, the extremist elements, the foreign fighters 
who've come in, who simply want to create another chaotic 
background where they can put in their roots and have a new 
place to operate from.
    Senator Lee. What's your sense as to where the center of 
gravity is? Obviously there are some that are like those that 
you've just described, jihadist elements, as you put it. Is 
that where the center of gravity is? Is that where the 
heartland of the opposition forces are?
    General Mattis. Sir, I think when you look at the Syrian 
National Coalition or what you read as the SNC--and I have to 
refer to my notes here in order to keep accurate--and then you 
have the Syrian Opposition Council (SOC), those are one and the 
same thing. So where you see them gaining traction and 
coherence, that's carrying a message to the Assad regime that 
there is an opposition that's increasingly unified against 
them.
    At the same time, there's a military council below that and 
that military council is what actually carries out the 
operations there inside the country.
    Senator Lee. But you can't give me a thumbnail sketch of 
whether this is a minority faction within, whether it's a 
fringe faction, a minority faction, a solid plurality, or a 
majority faction that takes a jihadist approach?
    General Mattis. I would say that that is a significant 
minority that takes a jihadist, extremist approach, with the 
idea of, for example, the al Nasra front gaining traction, 
those kinds of organizations.
    Senator Lee. It's those organizations that are a 
significant minority, not amounting to a majority, but a 
significant minority, that have either links to al Qaeda or to 
some other terrorist group or some other group that might be 
related to or similar to al Qaeda?
    General Mattis. I believe that's correct, sir. They do have 
a powerful propaganda arm. They do use humanitarian efforts in 
addition to their well-armed, well-trained fighters to try to 
build a broader reach among the opposition.
    Senator Lee. Okay. Then I assume that their respective 
visions for a post-Assad Syria would break down according to 
what's motivating them now; would that be correct?
    General Mattis. I believe so, yes, sir.
    Senator Lee. In the time I have remaining, I'd like to talk 
to you just a little bit about the threats that we face 
elsewhere in the region. I certainly agree with our President, 
who said in his State of the Union Address a couple of weeks 
ago: ``We will do what's necessary to prevent Iran from getting 
a nuclear weapon.'' I strongly support that and I suspect 
nearly all my colleagues do as well.
    But the decision to decrease the size of our carrier 
presence in the Persian Gulf worries me because it seems that 
it could be sending a different message. The budget uncertainty 
surrounding sequestration is forcing DOD to take a number of 
difficult steps. But I remain concerned about where the 
administration's priorities are when we weaken our presence in 
a region of such huge strategic importance to our national 
security.
    So let me ask you, will our removal of an aircraft carrier 
from the Persian Gulf affect our ability to deter Iranian 
action in the Gulf or elsewhere in the region?
    General Mattis. Obviously, it is more difficult for me to 
reassure our friends and to deter Iran, but I believe that a 
strong statement of political will and the forces I have there 
right now would cause Iran to take pause before they decide to 
try to take advantage of what is not really an opportunity. I 
can buy the time to get the second carrier out there with the 
combat power I have right now in the Gulf.
    Senator Lee. You think we'll be okay with the time you can 
buy in order to get that out there?
    General Mattis. Yes, sir, I do.
    Senator Lee. Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Lee.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    General Mattis and Admiral McRaven, thank you both for your 
service and thank you for being here this morning. General 
Mattis, as all of my colleagues have said, we will certainly 
miss you and very much appreciate your years of service to this 
country.
    I want to start by following up on some of the Syrian 
issues that Senator Lee was raising. When you were here for 
your posture hearing last year, General Mattis, one of the 
things that we discussed was the chemical weapons in Syria. 
Secretary Panetta was quoted as saying that the situation in 
Syria is 100 times worse than what we saw in Libya with the 
proliferation of weapons. It's been described as a nightmare 
scenario by a number of officials.
    I assume that it's safe to say that your concerns since 
that hearing last year have not diminished and you continue to 
be very concerned about the presence of the stockpiles of 
chemical weapons in Syria?
    General Mattis. Yes, Senator, absolutely.
    Senator Shaheen. There's been discussion about the red line 
that has been drawn should Syria attempt to use those chemical 
weapons either on their own people or on others in the region, 
and a suggestion that the international community is also 
equally concerned about that. But what happens should they try 
to transfer those weapons to Hezbollah and they then get 
transferred throughout the region? Has there been planning for 
how to address that and how to prevent that from happening?
    General Mattis. Yes, ma'am. That would be a policy decision 
by the President. I have military options if he wants to 
disrupt that. It would be very difficult to prevent it at the 
beginning, either use or transfer. But as fast as we picked it 
up, we could disrupt it and we may be able to prevent further 
transfer or use.
    Senator Shaheen. Has NATO and other countries that are 
concerned about what's happening in the region, have they also 
been involved in those contingency plans?
    General Mattis. Yes, ma'am.
    Senator Shaheen. Is there any reason that we should have 
less concern about what's happening there, rather than more 
concern? How can we affect what happens with those chemical 
weapons? What can you share with us about the contingency 
planning that should either make us be more concerned or less 
about what's happening there?
    General Mattis. Senator, in the chaos of what Assad has 
created with his handling of his people's dissatisfaction and 
the civil war that's grown out of it, I believe we have 
increasingly vulnerable chemical sites there as this fighting 
swings back and forth, as weapons get transferred from one 
vulnerable site to one they believe is more secure, as 
certainly the mercurial aspects of their leadership could cause 
them to do things that cause us to keep a very close eye on 
them.
    Our planning is taking this into account to the degree that 
it can. I'll just tell you that we have options prepared.
    Senator Shaheen. Have any of the opposition groups that 
we're talking to been involved in any of those discussions or 
any of those plans?
    General Mattis. No, ma'am.
    Senator Shaheen. Thank you.
    General Mattis. I should say not by CENTCOM. We have not 
engaged with the opposition groups on this.
    Senator Shaheen. Thank you.
    I want to switch from Syria to Pakistan because obviously 
that's one of the other parts of CENTCOM where there are 
serious concerns about the impact on our actions in 
Afghanistan. I wonder if you could talk about what the current 
status is of our relationship with the military in Pakistan and 
how the trilateral engagement on the border there between 
Afghanistan, between ISAF, and Pakistan is working or is not 
working today?
    General Mattis. Senator, I don't want to overstate it, but 
our military-to-military relationship with Pakistan has been 
improving, and this is not recent. This goes back over the last 
year, even in the aftermath of the Salala incident where we 
accidentally killed 24 of their Frontier Corps troops.
    The border itself, the collaboration along the border, the 
trilateral cooperation, is actually much improved over a year 
ago or 2 years ago. It's not everything we need it to be, but 
it is improving, and we have other efforts going on, including 
track two efforts under former Secretary of Defense Dr. Perry 
and former Secretary of State Schultz out of Palo Alto. That 
will shift to Islamabad coming up here in May, where we have 
retired officers working to find ways to continue this improved 
collaboration and help set the conditions for longer-term 
prosperity and peace in that region.
    Senator Shaheen. So how will that work once ISAF pulls out 
with the Afghan and Pakistani forces there along the border? Do 
you expect that collaboration to continue? Senator Levin and I 
had the opportunity 2 years ago this summer to see firsthand 
the attempted collaboration at a time when it had really broken 
down. They were talking about the potential effectiveness of 
that. Obviously, that's going to be critical as we withdraw in 
terms of maintaining some stability in the region.
    So what kinds of plans are in place to help address that 
once ISAF withdraws?
    General Mattis. It's a great question, Senator, because we 
actually identified this as a key part of our transition a year 
ago. Since then we no longer meet as NATO-ISAF with the 
Pakistan military. It's always NATO-ISAF and the ANSF, the 
Afghan security forces, and we meet in these trilaterals, as 
you referenced them. We are going to have to continue to mature 
it.
    But right now, Senator, it's at least going in the right 
direction, and day-by-day we build a little bit more trust, a 
little more cooperation, a little more collaboration along that 
contentious border.
    Senator Shaheen. Thank you very much. My time has expired.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General and Admiral, for your service and for 
the service of those that you represent as well.
    Admiral, earlier I believe you stated that with the 
sequester and the CR we were looking at creating a readiness 
problem. What are you doing now that is absolutely essential 
and that we need to keep on doing with special operations?
    Admiral McRaven. Yes, ma'am, thank you. Our first and 
foremost mission is to take care of the warfighting 
requirements downrange. So my support to General Mattis and to 
the other combatant commanders to me is my number one 
warfighting priority, operational priority.
    The problem with the CR and sequestration is it is 
beginning to affect my readiness back at the CONUS-based 
forces. So as I have to prioritize the training, I'm 
prioritizing it forward, but that will come at the expense of 
the next generation of forces that begins to deploy downrange. 
Now, my ability to manage that budget and continue to provide 
the very best SOF forward is exactly what I intend to do.
    Having said that, if you take a look at our flying hours, 
as an example, as I said, we have about 60 percent of our 
CONUS-based training flying hours. Now, that bathtub, if you 
will, will continue from this fiscal year to the next fiscal 
year. It will get smaller, but it will continue. It just takes 
time to catch up once you stand down training.
    So when you take a look at the flying hours, and then I am 
cutting some of my recruiting base, I'm cutting some of my 
other training, that bathtub, as we refer to it, will move 
throughout until we eventually, hopefully, catch back up 
several years from now to stem the lack of readiness. But we 
take care of our operational priorities first, but we are 
mortgaging a little bit of our readiness and the future.
    Senator Fischer. The troops that you represent, do you 
believe that you're putting them at risk, where they're going 
to have to be in rotation longer since the readiness is not 
there, the training's not there, so that they can benefit from 
some rest when they're off duty? Do you see that as a major 
risk? If so, I'd like to hear why. If not, what do you see as 
the major risks that you are facing due to these cuts that 
we're looking at?
    Admiral McRaven. Yes, ma'am. We've worked very hard with--I 
have subordinate Service components that work for me, and one 
of my biggest concerns has been the pressure on the force and 
making sure that the personnel tempo and the operational tempo 
of the force is appropriate to meet the demands of the 
combatant commanders.
    We've taken a number of pretty dramatic and important steps 
to ensure that those forces have the rest they need when they 
are back in the continental United States before we cycle them 
forward again. But I don't want to mislead you. There are 
certain high-demand, low-density military operational specialty 
codes, some of the intelligence requirements we have, some of 
the information officers; those sorts of high demand, but are 
in low density, require them to rotate a little bit more 
quickly forward.
    So again, I'm working hard as they come back to the 
continental United States not to impress upon them additional 
training and give them a little bit more time in the rear.
    Senator Fischer. Under the current command structures that 
you face, do you see any limitations being imposed on our SOF?
    Admiral McRaven. No, ma'am. I'm very pleased with the kind 
of command relationships I have and the command authorities 
that I have. So right now I am a support team commander to the 
combatant commanders like General Mattis and General Ham and 
others, and that is a great relationship. I provide them the 
forces; they, if you will, fight the forces or have the 
operational command and control; and I'm perfectly comfortable 
with that.
    Senator Fischer. You don't think any changes need to be 
made with regards to that?
    Admiral McRaven. Not in regards to the command 
relationships with the combatant commanders in terms of the 
forces that are under their operational control, no, ma'am, I 
do not.
    Senator Fischer. Do you think there needs to be any 
additional legal authority for soldiers in order for them to 
train with our partners?
    Admiral McRaven. That's certainly an area that we're taking 
a look at. Right now one of the amendments that presents some 
problems for us is the Leahy Amendment, we have to vet not only 
the individual now but the units to make sure that there are no 
human rights violations. We are absolutely in favor and we 
understand the value and the importance of making sure we have 
good clean human rights. Unfortunately, at a time sometimes 
when those units need to have our partnership and our 
relationship so they understand what right looks like, that's a 
time in which we find ourselves more constrained than ever. If 
there is a human rights violation, frankly, I would offer that 
then more than ever we need to get engaged and make sure that 
they do what is right.
    So that's an area that we're exploring both with the 
Chairman of the Joint Chiefs of Staff and with the OSD and with 
the Hill.
    Senator Fischer. You've discussed that with the regional 
commanders, I would assume?
    Admiral McRaven. I have, yes, ma'am.
    Senator Fischer. And their reactions?
    Admiral McRaven. I think they all have similar issues. The 
SOF that I provide them find themselves constrained in certain 
circumstances, not in all circumstances, but in certain 
circumstances in the units that we're dealing with. So, yes, 
ma'am, it's a concern. Again, I think we're working through the 
appropriate processes now.
    Senator Fischer. Thank you very much.
    Admiral McRaven. Yes, ma'am.
    Senator Fischer. General, do you think that it's working 
well together? Do you have any concerns on decisions being 
made?
    General Mattis. Ma'am, we have the best working 
relationship between conventional and SOF that I have enjoyed 
in 40 years of service. There are no longer any lines between 
us. The collaboration is intense. It's been learned the hard 
way, frankly, in the toughest school we could have had, and 
right now the degree of confidence in each other and the use of 
each other's capabilities, I think, is really at the top of its 
game. But we're not complacent. We don't want to lose this as 
the war's drawing down. So we're going to have to work hard to 
maintain it.
    Senator Fischer. Thank you, sir, and thank you for your 
many years of service. You have a sterling reputation. Thank 
you.
    Chairman Levin. Thank you, Senator Fischer.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I too want to echo everybody's thoughts to both of you, 
you've given so many years of service to our country and we 
admire, we respect, and we really do appreciate all of your 
commitment to our military and to the national security of our 
country. So, thank you very much.
    Admiral McRaven, I wanted to ask a question on the women in 
combat now that former Secretary Panetta and General Dempsey 
announced the end of the direct ground combat exclusion rule 
for female servicemembers. I know that you've publicly 
highlighted the contributions that women have made to our 
special operations missions, including the cultural support 
teams, the military information support teams, the civil-
military support elements, and other roles.
    I understand, obviously, DOD's recent decision for women. 
This is going to open up thousands of new positions for women, 
and including many in special operations, too.
    I wanted just to get your overall thoughts on how this is 
going to be carried out under SOCOM. How have women contributed 
to our special operations missions in recent years and then 
what additional contributions do you see that will be possible 
given this policy change, and how is SOCOM going to respond to 
this, and how will you address the need to maintain strict 
standards for assessment and selection for the male and female 
special operators, and will there be exceptions or waivers to 
keep any of the units all male? Just a series of thoughts.
    Admiral McRaven. Yes, ma'am. Thank you. First, as you 
mentioned, the women that have served in special operations 
have done an absolutely magnificent and heroic job. We have 
them with our cultural support teams and for the broader forum 
here, they are partnered with our Rangers and our SEALs and our 
Special Forces elements downrange. They go on target in very 
hostile environments and they have proven themselves again and 
again and again. Those are in small numbers, but have been very 
valuable.
    The policy right now from the Secretary of Defense, we are 
required to provide him a brief on May 15 that will tell how we 
are going to implement the new policy. What it will require me 
to do is over the course of--well, I'm going to build the plan 
before May 15 to brief the Secretary on exactly how we're going 
to get there.
    It will take us some time to do the assessments to 
determine whether or not we need to adjust the standards, 
whether we're going to do that, how they will fit into the 
training pipelines, the critical mass of female trainees and 
students we might need in order to create the appropriate 
pipelines with the various military operational specialties.
    So we will go through all of that analyses here in the next 
year or so. Then if we find that there are areas where we just 
cannot meet the requirements without lowering the standards, 
without unduly affecting the cohesion of the small units, then 
we will come forward to the Secretary for an exception to 
policy.
    Having said that, my going-in position is we are going to 
find a way to make this work. So my staff and I are working 
very closely with the Services. The Services all have equities 
in this in terms of the Special Operations Military 
Occupational Specialties (MOS) that we have. But I have an 
agreement with the Service Chiefs. I will be looking at those 
special operations-unique MOSs, so the Special Forces, the 18 
series, the Green Berets, if you will, the Navy SEALs, the 
Rangers, et cetera. I'm going to have an opportunity to provide 
my input directly to the Service Chiefs.
    Senator Hagan. I think one of the key points was not to 
lower the standards. So when you said assess the standards, I 
don't think anybody's saying lower the standards.
    Admiral McRaven. No, ma'am, absolutely not. In fact, I was 
asked at a press conference a couple of weeks back about the 
concept of the gender-neutral standards and I said, ``we've 
never had gender standards because we haven't had to have other 
genders, so we have a standard. That is the standard.'' It's 
been a standard that we have had around for a very long time. 
It's an important standard. That doesn't mean we don't need to 
assess that standard to make sure that it is, in fact, 
appropriate.
    But there is absolutely positively no intent to lower the 
standard. We want to provide the Nation the very finest SOF we 
can irrespective of gender.
    Senator Hagan. I think that's good, and I also think that 
so many of the women that I have talked to, they have been 
attached to a number of units, but they haven't been assigned, 
so they didn't get the credit for their career ladder. That 
certainly has harmed many individuals, women, and I think many 
of them saw the writing on the wall and then decided not to 
make this a continued career.
    So I think this is really, it's a good step, and I think 
it's a very beneficial step for our military, too.
    Admiral McRaven. Yes, ma'am.
    Senator Hagan. General Mattis, I know that Senator 
McCaskill asked questions on sexual assault, but I wanted to 
follow up on one area, too. I know that some research that I 
have seen says that, from the Department of Veterans Affairs, 
suggests that about half of the women who deployed to Iraq or 
Afghanistan reported being sexually harassed and almost 25 
percent say they were sexually assaulted.
    I've been to Afghanistan three times, Iraq, Pakistan, 
traveled, and women do tend to talk to other women. I was 
really shocked at one of the forward operating bases (FOB) and 
some of the other bases where--in an instance where individuals 
shared with me that they literally were concerned, not then but 
earlier, about the amount of fluid that they would drink in the 
afternoon because they found it dangerous to go to the latrine 
at night. When I think about an issue, how that would impact 
somebody who's fighting for our country, to be concerned about 
their safety, it makes you wonder. We have to take this 
seriously and do something about it.
    So my question is, what's the current state of this problem 
within the CENTCOM AOR, what's specifically being done to 
address the issue of sexual assault while on deployment, and 
will the drawdown in Afghanistan present any unique challenges?
    General Mattis. Senator, I don't believe the drawdown will 
present unique challenges. The environment in the unit is the 
environment, whether they're in buildup, drawdown, combat, FOB. 
It really comes down to the alertness of the chain of command. 
It comes down to the command climate. It comes down to the 
commander's intent and his or her ability to articulate clearly 
what is acceptable behavior. The authority of commanders to 
deal with unacceptable behavior, thanks to the UCMJ that is 
given them by the U.S. Congress, is more than sufficient to 
maintain the discipline.
    But I can assure you that we take this seriously. We took 
it seriously a long time ago. It's not new. I'm keenly aware of 
the disappointing statistics and some of the anecdotal word 
that we get, and we take that for action, is what I will tell 
you. Again, we have the authority to deal with people who think 
that it's an option. It's not an option to act like a jerk or 
in a criminal manner.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Once again, thanks to both of you for what you do for our 
country.
    Senator Kaine [presiding]. Thank you, Senator.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both.
    General, what are you going to do when you retire?
    General Mattis. I have no idea right now, Senator, but it's 
going to be a lot of fun. [Laughter.]
    Senator Graham. I would hire you, but we don't have any 
money up here. Sorry about that. [Laughter.]
    Regarding Syria. Do both of you agree or disagree with the 
statement that we should be arming at least a portion of the 
rebels in Syria to bring this thing to an end sooner rather 
than later?
    General Mattis. Senator, we as the military, I do not 
believe that I have the situational awareness to do it. If 
given the mission, could I do it? Absolutely.
    Admiral McRaven. Sir, we could absolutely do it. But again, 
I think it's, as General Mattis has mentioned a couple of 
times, a very confusing situation and I'm not sure we're in a 
position to do that right now.
    Senator Graham. So are you against arming the rebels or you 
just don't have enough information?
    General Mattis. In my case, Senator, they are being armed 
right now by----
    Senator Graham. But not by us.
    General Mattis. That's correct, yes, sir.
    Senator Graham. Do you have enough information to give us 
advice as to whether or not we should as Americans arm a 
portion of the rebels?
    General Mattis. It's a policy decision, sir. I think that 
if we know who the weapons are going to it's certainly an 
option that would complicate Assad's stay in power.
    Senator Graham. Okay. Iran. Do you believe that 2013 is a 
year of reckoning when it comes to Iran?
    General Mattis. Senator, every year I seem to have a year 
of reckoning. Again, I'm paid to be a sentinel for this 
country, so I consider 2013 a year of reckoning.
    Senator Graham. Now, when it comes to Iran you said that 
the sanctions you believe were not working in their ultimate 
goal of deterring them from acquiring a new capability. Is that 
correct?
    General Mattis. That's correct, sir. Their nuclear industry 
continues.
    Senator Graham. Now, what is the likelihood that they would 
work in the future, in your view?
    General Mattis. I believe this regime, knowing it can't win 
the affections of its own people, I think they are very 
concerned that the economic sanctions could turn the people 
against them, in which case I think they'd cost-benefit. They 
could be willing to give up even the nuclear effort to stay in 
power.
    Senator Graham. Do you think that's the most likely 
scenario if we continue sanctions?
    General Mattis. I think we have to continue sanctions, but 
have other options ready.
    Senator Graham. Do you believe that the Israelis would 
attack Iran if they believed they had reached a critical point 
in terms of nuclear capability?
    General Mattis. The Israelis have said so, Senator. I take 
them at their word.
    Senator Graham. If they did attack Iran, would they need 
our help militarily?
    General Mattis. They could conduct a strike without our 
help.
    Senator Graham. Would it be in our interest to help them, 
in your view?
    General Mattis. That would depend on what the objective of 
the strike is. Is it to stop them? Is it to delay them? How 
long do you want to delay them? Is there a broader effort?
    Senator Graham. If we had to use military force against the 
Iranian nuclear program, would you recommend a limited strike 
or should we go after their navy, their air force, and the 
Revolutionary Guard?
    General Mattis. Senator, I think that is advice that I owe 
confidentiality to the President on. But I could meet you 
separately and answer that question fully.
    Senator Graham. If the Iranians develop a nuclear 
capability, how certain are you that other nations in the 
region would acquire an equal capability?
    General Mattis. At least one other nation has told me they 
would do that. At a leadership level, they have assured me they 
would not stay without a nuclear weapon if Iran----
    Senator Graham. Was that a Sunni Arab state?
    General Mattis. Yes, sir.
    Senator Graham. So the likelihood of Sunni Arab states 
acquiring nuclear capability to counter the Shia Persians is 
great; would you not agree with that?
    General Mattis. I agree, and also other, non-Sunni Arab 
states in the general region.
    Senator Graham. Okay. Let's talk about the budget. Admiral 
McRaven, you say that your budget is being reduced by 23 
percent when you look at the CR as well as sequestration. Over 
a 10-year window, if sequestration is fully implemented, what 
does it do to your command?
    Admiral McRaven. Sir, over a 10-year window it'll cut it by 
about $10 billion. Sequestration alone is $900 million, or 
thereabouts over a 10-year period.
    Senator Graham. What does that mean to your ability to help 
defend this Nation?
    Admiral McRaven. Sir, sequestration alone there is about a 
10 percent cut to my budget. So I could get into eaches, but 
essentially you think about a 10 percent reduction in readiness 
and in capability.
    Senator Graham. Would we have a hollow force if we 
implemented sequestration?
    Admiral McRaven. Sir, I think I can manage--I'm confident I 
can manage the special operations community so that we would 
not have a hollow SOF as a result of sequestration alone.
    Senator Graham. Okay. What about you, General Mattis? What 
about the Marine Corps?
    General Mattis. I can't speak for the Marine Corps. I'm a 
little outside it right now, sir, since I run CENTCOM. I will 
tell you with sequestration, bottom line, we will do less with 
the military in the future. Our goal is to not do it less well, 
in other words keep the sense of purpose, keep them at the top 
of their game with training and good equipment. It would be a 
smaller force. We would do less with it.
    Senator Graham. When people like myself go around the 
country and say that if you implement sequestration the way 
it's designed, where two-thirds of the budget's not affected, 
only one-third, and 50 percent of that, of what's left, comes 
out of DOD on top of what we've done, and personnel is exempt, 
that we would be doing great damage to our national security. 
Am I overstating that?
    Admiral McRaven. No, sir, you are not overstating that. I 
would, if I can, continue on with the SOF side of this, because 
what is unappreciated sometimes is, while I will take about 
$900 million a year in cuts, I get a lot of my support from the 
Services. So for the Services the cuts that they take compound 
the problem of special operations support.
    To clarify my earlier comments, I can manage the SOF, those 
that are badged special operations officers and NCOs. But I get 
a tremendous amount of my support from the various Services and 
that will absolutely affect the special operations capability 
of this Nation.
    Senator Graham. Am I correct in my statements to my 
constituents back home and my colleagues, that sequestration 
would do a lot of damage to our military, General Mattis?
    General Mattis. Yes, sir, it would.
    Senator Graham. Maybe we'll have a second round. Very 
quickly, at the end of the 2-year sequestration we'll be at 
2.41 percent of gross domestic product (GDP) in terms of 
military spending. In 1940, we were at 1.6 percent of GDP. On 
September 11, we were at 3 percent of GDP. I just want the 
committee to understand we'll be at an incredibly low number. 
In 1962, 49 percent of spending was on the military, 30 percent 
on entitlements. Today, 61.9 percent of the Federal budget is 
spent on entitlements, 18.7 on the military. If we don't deal 
with entitlements, we're just going to become Greece. I think 
that's the challenge of Congress.
    I have a couple of other questions, but I'll wait for a 
second round, if that's possible.
    Senator Kaine. Thank you, Senator.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your service to our Nation. We thank 
every member of the armed services who comes before us and many 
who do not when we encounter them. But you both really 
exemplify the strength and courage that we see from our 
military and your records of service, I think, are simply 
extraordinary. So a special thanks to each of you and to your 
staffs for the great work that you have done for our country.
    I want to follow some of the questions that Senator Graham 
has been asking because I think the American people should be 
really deeply troubled that our SOF are going to be cut, not 
increased. After all, the President's strategy, his vision for 
the future of our military readiness, is for special operations 
to play a greater role and to be supported more, not less, in 
resources and budget. I personally feel that approach is 
critical to our Nation's security.
    So my question, Admiral McRaven, is how do you make these 
kinds of cuts consistent with that approach that emphasizes 
special operations as the centerpiece, as the tip of the spear 
of our Nation's readiness going forward? I don't know how I can 
go back to the people of Connecticut and say everything's fine, 
but we're cutting special operations by 10 percent. So I put 
that question to you. I think it's a difficult question for us 
as elected officials and I'm hoping that now, and going into 
the future, you will have an answer.
    Admiral McRaven. Sir, make no mistake about it, the 
sequestration, and then on top of that the CR will have a 
dramatic impact on special operations now and into the future. 
The President and the Secretary of Defense charged me to manage 
the best force I can to provide combat-capable SOF forward to 
the combatant commanders. I will do absolutely the best I can 
to ensure that I am providing those forces forward.
    However, having said that, as I said, we tend to have to 
mortgage a little bit of the future. So it will not be 
apparent, I don't think, to the combatant commanders or to the 
American people the effect that these cuts are having on 
special operations for several years as we begin to cut back on 
our flying programs, as we begin to cut back on our recruiting 
base, as we begin to cut back on some of the modifications 
we're going to do on our helicopters, as we begin to cut back 
on the deployments. Before long, there is an effect, a global 
effect, frankly, with the reduction in capability of the SOF.
    Now, I can't tell you when that line is going to come, when 
we're going to hit that mark where now the forces I'm deploying 
are not the quality forces that I think the American people 
expect. But make no mistake about it, as we move forward with 
these sequestration cuts and if the CR stays in effect, we will 
hit that line sooner than later.
    Senator Blumenthal. So we have some time--and I'm not going 
to ask you how much--but the sooner the better that we reverse 
these cuts so as to avoid the lasting damage to our national 
security.
    Admiral McRaven. Sir, the problems are current, so I don't 
want to lead you to believe that the cuts that were incurred 
now, or that we're accepting now, are not affecting the force 
now. They are. I've cut some of my deployments by about 20 
percent in some cases, in some cases 60 percent of my 
deployments for some of my less forward units.
    So it is having an effect now, but that effect will be 
magnified as we go forward into the future.
    Senator Blumenthal. Thank you.
    Do either of you differ with the statement, which I happen 
to think is true, that Iran continues to be determined to 
develop a nuclear capability?
    General Mattis. Senator, they are enriching uranium beyond 
any plausible peaceful purpose.
    Senator Blumenthal. Do you also share that view, Admiral 
McRaven?
    Admiral McRaven. I do, sir.
    Senator Blumenthal. So whether there has been a slowdown, a 
pause, however the Intelligence Community may refer to it, that 
basic ambition is still there; you would agree with that?
    General Mattis. I would, sir. By their own public 
announcements, they've brought advanced centrifuges on line. 
They are refusing the International Atomic Energy Agency access 
to the Parchin site. They are continuing their program.
    Senator Blumenthal. Thank you.
    I'm going to jump to another topic. I apologize that there 
seems to be little continuity between the subjects, but that's 
the nature of this questioning process, as I'm sure you know. 
On sexual assault, an area that has concerned me, as a 
prosecutor for a good part of my professional career, as well 
as now a member of this committee, one of the current 
weaknesses in our system of deterring as well as punishing 
sexual assault in the military seems to me the nature of the 
reporting of complaints, but also the prosecutorial decisions 
as to whether someone is held criminally responsible. In other 
words, the decision within the command structure is, in fact, 
within that command made by generally someone to whom both the 
complainant and the potential defendant report. That system is 
somewhat unique because of the nature of the military. There 
has to be a command structure.
    I am posing to you the question whether if that 
decisionmaking function, whether to prosecute, whether to hold 
a predator criminally responsible, were taken away from the 
commander, whether that would severely undermine the capability 
of that commander to effectively command, whether it's at the 
regiment or whatever level the decision is made?
    General Mattis. It would severely undermine his command 
authority. Any time a commander is no longer responsible for 
some aspect of good order and discipline, you have set the 
ground work, perhaps for the best of reasons or best of 
intentions, to leave the commander in a more circumscribed 
situation, and that is not something that's good and something 
a force that's put together for the use of violent action. He 
must be seen, she must be seen, as the ultimate arbiter of good 
order and discipline in that unit, or you're solving--perhaps 
addressing one issue and creating a Pandora's Box of other 
issues that history will tell you will not work out well.
    Would you agree, Admiral McRaven?
    Admiral McRaven. Sir, I would. Also, while I don't want to 
get too far astray from my expertise here, I will tell you that 
in cases where there are felony charges against an individual, 
those felony charges are generally resolved by a courts 
martial, as opposed to an individual commander. They're taken 
out of the commander's hands if there are felony charges in 
some cases, and in some cases, they're actually prosecuted in a 
civilian court.
    So the characterization that a commanding officer at a 
battalion level can come to his own decision on a felony charge 
of rape, I think, is a mischaracterization of the UCMJ. Again, 
I will defer to the military lawyers who have that expertise, 
but in my many years of exercising the UCMJ I've found none. As 
General Mattis said, it is absolutely positively critical to 
maintaining good order and discipline in a unit.
    Those cases that are beyond the commander's purview by law 
are referred to a professional lawyer, a judge, a military 
judge, and a courts martial, much like we have in the civilian 
system. So the earlier characterization of the UCMJ as an 
arbitrary decision by a commander to take care of one of his 
buddies, I think, is a mischaracterization of the UCMJ.
    Senator Blumenthal. Thank you.
    My time has expired. I really want to thank you for your 
very helpful and forthright responses and again for your 
service. Thank you very much.
    Senator Kaine. Thank you, Senator.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    To General Mattis and Admiral McRaven, thank you for your 
service to the Nation. To General Mattis, thank you so much for 
an extraordinary career devoted to the men and women of our 
Services and to our country. Thank you so very much.
    General Mattis, in regards to Pakistan, what would you say 
is the state of where our relationship is right now compared to 
some of the peaks and valleys that we have had in the past and 
where we are at the present time, as you see it?
    General Mattis. Senator, we're on an improving trajectory. 
It's been improving for probably the last year, maybe 8 months, 
and we have some valid reasons, I think, to see it continue to 
improve into the near future as we try to get our two countries 
to find common ground wherever possible.
    Senator Donnelly. As we come home from Afghanistan, how do 
you see Pakistan's reaction in relationship to Afghanistan 
regarding that?
    General Mattis. In Pakistan, as well as Central Asia, 
Senator, there's a lot of concern about what's going to be 
there after the NATO forces come out. I think that the ANSF, 
which are performing better, will give a certain amount of 
credence to the idea that the success we've achieved to date is 
not transient. In fact, it can be sustained, and I think the 
more we can get the current trilateral effort of NATO, 
Afghanistan, and Pakistan to work together, the more we'll 
build confidence for the Afghans and Pakistanis to take control 
of that border region at a higher level than they've enjoyed 
before.
    Senator Donnelly. As a big part of this also as we move 
forward is the Afghan-Pakistan relationship. What is your best 
estimate of that relationship right now and where that seems to 
be heading?
    General Mattis. Sir, Pakistan has lost more troops in this 
fight than NATO combined. As they go through this fight in an 
area of their country where they have never had a lot of 
control, they're going to have to exercise a degree of control 
they have not exercised, been able to exercise always in the 
past. There are a number of areas where they're actually 
improving their control right now, but it is militarily the 
most difficult terrain I've ever operated in along that border 
region.
    So this is not easy. The enemy is well dug in. They're hard 
to get at. But the Pakistan military is moving against them, 
and we'll just have to try and keep the collaboration along the 
border continuing on the trajectory it's on now if we're going 
to have success.
    Senator Donnelly. Are the Afghans and Pakistanis, are they 
cooperating more, or is it still a trust-but-verify type of 
relationship? Or both?
    General Mattis. Right. There's dissatisfaction that has 
been articulated by the Afghans about the havens on the 
Pakistan side of the border. Of course, there are some of these 
terrorists who use the Afghan side of the border to attack 
Pakistan. So they both recognize they have to work together. 
It's imperfect right now. There are concerns that I don't want 
to wish away or dismiss. But at least it's going in the right 
direction, and I think NATO is a big facilitator to why it's 
going in the right direction right now, getting Pakistan and 
Afghanistan officers to talk together, to work together.
    Senator Donnelly. There's a report this morning, and I know 
it is not in your particular area, but in some ways it may come 
back to that, that North Korea is again ratcheting up and has 
said that on March 11 they are looking at possible surgical 
strike actions. What do you see as the relationship between 
Iran and North Korea, and how much of the technology that Iran 
is developing is coming from that direction? Is that going to 
be a substantial force for Iran's information in further 
developing what they have? That would be for either of you.
    General Mattis. It's a great question, Senator. I would 
like to get back to you with a more complete answer, but your 
instincts, your thoughts, are on target. There is a connection 
and the degree to which that connection provides real progress 
for Iran I cannot say in open session, but I will get back to 
you, Senator, with an unclassified response for the record.
    [The information referred to follows:]

    We have limited knowledge of North Korean assistance to Iran's 
nuclear efforts and remain concerned that Iran may leverage the 
relationship to further its program. Pyongyang has supplied weapons to 
Iran since the 1980s and is a source of missile technology and 
components. Reports that Iranian personnel attended the February 2013 
nuclear test in North Korea and that North Korea and Iran agreed to an 
``exchange of science, technology, and education'' at the September 
2012 Non-Aligned Movement Summit in Tehran are troubling. Details of 
this agreement are unclear, but Iranian state media cited the 
establishment of joint laboratories, exchanges of Iranian and North 
Korean scientists, and technology transfers in the areas of energy and 
information technology. We remain closely linked with the Intelligence 
Community on the trajectory of Iran's nuclear endeavors and acknowledge 
that many details of this program are still unclear as the IAEA presses 
Tehran for answers and transparency. North Korea has already developed 
and tested nuclear weapons. As such, the country would be in a position 
to provide significant technological assistance to Iran, especially in 
the areas of weapons design and fabrication. A nuclear relationship 
between the countries would give Iran insight into nuclear weapons 
testing and may provide an external venue to test an Iranian weapon.

    Senator Donnelly. Thank you, General.
    Admiral, one of the strongest parts of my State of 
Indiana's assistance to the U.S. Armed Forces is the Naval 
Surface Warfare Center Crane Division, located in Crane, IN. I 
know one of the areas they work on--and this is without getting 
into too much technical detail--is developing technology for 
SOF. I want you to know we consider that a privilege.
    But then also, in terms of our SOF, is there going to be a 
continuing emphasis on the technical improvements as we move 
forward?
    Admiral McRaven. Sir, there absolutely will, and Crane, 
Indiana, is one of our key depots for supporting special 
operations, sir. I've visited Crane a number of times--
magnificent DOD civilians there and contractors and military 
officers and enlisted people that are supporting our efforts. 
Sir, that will continue.
    Senator Donnelly. Thank you.
    General, one of the areas in regards to the Syrian conflict 
that we hear is, what will happen if the rebels are successful 
to non-Muslim faith communities? Will there be a cleansing? 
Will there be a purging? I was just wondering if there have 
been any discussions in regards to those forces as to their 
intentions in that area?
    General Mattis. Sir, the kind of extremists we're most 
concerned about there are not the opposition, not the people 
that are trying to unseat Assad, and we understand where 
they're coming from and where they want to take their country, 
but these extremists who are taking advantage of the current 
situation and the Iranian-inspired and supported what I would 
call militias that they're going to have ready in the event 
Assad falls so they've still got some influence.
    They have a pretty medieval philosophy and I would 
anticipate the worst from them. But they don't represent the 
opposition either.
    Senator Donnelly. Do you know if there are any plans being 
made by either ourselves or the rebels, who in some cases you 
see the rebels that these extremist groups are working right 
next door to them? Are the rebels aware of the potential of 
this danger?
    General Mattis. I believe in many cases they are and 
they're uncomfortable with those folks working next door to 
them. At the same time, they're locked in a pretty rough fight. 
I think they're willing to let bygones be bygones at this time 
in order to try to win this fight, and then deal with that 
issue once they've gotten rid of Assad. But of course, that 
always brings its own danger, Senator.
    Senator Donnelly. General Mattis, thank you again for 
everything you've done. Admiral McRaven, thank you again for 
your continued service.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you very much, Mr. Chairman.
    I would like to join my colleagues in thanking General 
Mattis and Admiral McRaven for your service to our country, and 
also thank the men and women in your respective commands for 
the hard work that they do on behalf of all of us. Of course, 
General Mattis, with 41 years of service, my congratulations to 
you upon your retirement. My very best wishes go with you.
    I know that some of my colleagues have focused on sexual 
assault prevention in the military, I share their concerns and 
I am looking forward to the Personnel Subcommittee's hearing 
that will focus on these issues. I won't go into that, but I 
just want to let you know that I share those concerns.
    General Mattis, in your testimony you talked about the most 
serious strategic risk to the U.S. national security in the 
U.S. Central Command area of responsibility. One of these areas 
was, and you said, ``Perhaps the greatest risk to U.S. 
interests in this area is the perceived lack of U.S. 
commitment, particularly with regard to what happens in 
Afghanistan, Middle East peace, Syria.'' Then you note that, 
``If we seek to influence events, we must listen to partner 
concerns and continue to demonstrate our support through 
tangible actions.''
    Can you give me examples of what you would define as 
``tangible actions'' to make sure that people in this region 
understand we have a continuing commitment?
    General Mattis. Yes, ma'am. On the military side, I provide 
options to the President, and that manifests itself as U.S. 
Forces that work within the framework of U.S. foreign policy to 
reassure our friends and make certain our enemies know that 
we're there, we're going to stand by our friends and work with 
them. It involves bringing officers from various militaries 
overseas to our schools here in the United States so that we 
create relationships with them and create a degree of 
interoperability. It means that we have our special operations 
and conventional forces training alongside their forces. 
Nothing builds those personal relationships faster than 
probably the education and training effort.
    It also means that we're going to be selling equipment, 
high technology American equipment, to countries that share our 
security interests as we make certain that we can operate 
alongside them and they'll be equipped with some of the best 
equipment in the world should we have to fight together. Taken 
together, that serves as a deterrent, so hopefully we never 
have to go into that fight.
    But those would be some of the tangible things that we can 
do, ma'am.
    Senator Hirono. Obviously, we need to continue those 
efforts. It's a long-term kind of a relationship-building that 
we're going to need to engage in in this highly volatile, 
unstable area of the world.
    General Mattis. Absolutely, Senator.
    Senator Hirono. When Senator Hagel's confirmation hearing 
occurred, and now he is the Secretary of Defense, I asked him 
some questions about the rebalance to the Pacific. So that is 
not your command, but I'm just wondering, do you support the 
rebalance to the Pacific in light of the realities that we are 
facing in that area of the world?
    General Mattis. Senator Hirono, I completely support it. We 
do have three anchors in the Middle East. One of them is our 
friends and partners there that must not face the future alone 
without the reassurance that we're with them. Second is, of 
course, oil that fuels the global economy, a global economy 
that we're intimately connected to with the American economy. 
The third are the violent extremists that come out of this 
region threatening civilization everywhere, whether it be India 
or Indonesia, United Kingdom or North Africa. This is a problem 
that we all have to work with.
    So we have three anchors that will keep us firmly committed 
in the Middle East. But I completely support the President's 
declared shift to the Pacific.
    Senator Hirono. Thank you.
    Admiral McRaven, following our move out of Iraq and leaving 
Afghanistan also on the horizon, as you look forward, do you 
see the roles of our special operators changing or moving to a 
different primary mission, and what would be the factors that 
you would consider in making any kind of a change for our 
special operations program?
    Admiral McRaven. Thank you, Senator. As we draw down in 
Afghanistan, that will certainly provide me more capacity and 
SOF that I can then provide to the combatant commanders. You 
talk about the rebalancing to the Pacific. I was out with 
Admiral Locklear a little over a month ago. I had an 
opportunity to spend a fair amount of time in the Pacific. In 
my Navy SEAL career, I grew up in the Pacific, if you will. 
Ma'am, we have had, we the special operations community, have 
had wonderful relationships in the Pacific for many decades, 
from Korea down to Australia and every country in between.
    So we very much value our relationship in the Pacific. I 
will tell you that I think as we look at special operations 
moving forward, we always need to maintain our ability to 
rescue Americans and to capture or eliminate the terrorist 
threats. So that kinetic, that direct action approach, is an 
important part of what we do in special operations.
    But I would tell you, the current and future aspect of 
special operations that I think is equally, if not more, 
important is how we go about building our partners' capacity, 
how we allow them to deal with their own security problems. So 
part of the strategy of SOCOM, building off the DSG put in 
place in 2012 by Secretary Panetta, is the work with the 
combatant commanders, work with the Chiefs of Missions, work 
with the host nations, and figure out where can we apply our 
special operations resources to best help the nations that are 
inclined to help themselves and deal with these problems.
    Senator Hirono. I don't know if this is a setting in which 
you can mention some of those countries in which you are 
working very closely to enable them to enhance their own 
capacity to engage in special operations?
    Admiral McRaven. Yes, ma'am. One of the great success 
stories we've had is working with our Filipino partners. Of 
course, special operations and I can tell you in my time as a 
SEAL, we have been in the Philippines, as I said, for decades 
and had a great relationship with the Philippine Armed Forces. 
But really since September 11, as the Filipino Government 
aggressively went after the Abu Sayyaf and the Jemaah Islamiyah 
down in Basilan and Mindanao, they requested and we supported 
them in building their special operations capability and 
capacity.
    I had an opportunity again in my trip out to U.S. Pacific 
Command a little over a month ago to visit Mindanao and 
Basilan, and I will tell you the success is remarkable, the 
degree of stability. The people see the Filipino Army as a 
credible, reliable, important partner. The Abu Sayyaf is maybe 
not completely gone, but they are on the ropes, and I give 
tremendous credit to the Government of the Philippines and our 
support to the Government of the Philippines in dealing with 
that problem.
    But the Philippines is one example. We have been partnered 
with our South Korean brothers for a long time. I can go from 
South Korea to Singapore to Australia----
    Senator Hirono. Any country in the Middle East?
    Admiral McRaven. Just about every country in the Pacific, 
yes, ma'am.
    Senator Hirono. Any country in the CENTCOM?
    Admiral McRaven. Oh, yes, ma'am. We are partnered with 
General Mattis and most of our allies in CENTCOM as well.
    Senator Hirono. So, General Mattis, what he's doing very 
much is in line with our showing the continuing commitment that 
we have; that addresses your perception issue that you talked 
about?
    General Mattis. Yes, ma'am. As we draw down in Afghanistan, 
as we draw down on some of our forces--you saw that the Harry 
S. Truman battle group will not deploy right now--we just have 
to make certain that's not misinterpreted as a pullback, that 
we stay fully engaged. There's a number of ways to do so, not 
just military. That's the area that I am concerned with and 
Admiral McRaven's concerned with, but there's a number of ways 
to do it. Not all of them cost a lot of money, but it's 
critical that we do it.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator Hirono.
    Thank you for the testimony today and for your service, to 
each of you.
    I had intended to make my questions heavily focused on 
budget, but I think you've done a very good job of covering 
sequestration and the CR effects. I went to the Pentagon 
yesterday on my way into town, to stop and visit with Secretary 
Hagel, Deputy Secretary Carter, and General Odierno. Then I 
went to the lunch room and talked to Active, Guard, Reserve, 
veterans, and DOD civilians and contractors who were there.
    The message I came away with loud and clear is certainly 
something that you've underlined today, the need for us to 
provide some certainty so that you can do the best with the 
resources you have. I think the optimal situation would be for 
our national security strategy to drive our budget. A distant 
second would be for our budget strategy to drive our national 
security. But we're in the far distant third, which is 
budgetary indecision driving national security decisions, and 
that's very dangerous. I think your testimony encourages us to 
try to do some of our best work.
    You are risk tolerators. You run the risk. The risk that 
you shouldn't have to tolerate is a wavering political 
commitment or political indecision in terms of providing you 
the backup that you need.
    Let me just talk for a second about Iran. Good discussion 
today. One of the questions that I have is, as we are 
evaluating what are the right options for our country to make 
sure that Iran does not obtain nuclear capacity or nuclear 
weapons, one of the keys to that is the confidence level that 
we have about our own intelligence regarding Iranian activity. 
That intelligence is both our own, but also credible 
intelligence that we're able to receive from allies.
    Without going into classified material, I'd be curious as 
to each of your confidence level in our intelligence 
surrounding the current status of Iranian activities regarding 
their nuclear plans.
    General Mattis. Senator, I'll just tell you that in 40-odd 
years in the U.S. military, I have never enjoyed the level of 
intelligence and the anticipation I'm able to achieve as I do 
today in this job. It is phenomenal and it allows me insights 
that I know that nobody else has in terms of outside the U.S. 
Government.
    Senator Kaine. General, is that both the intelligence that 
we generate, but also the credible intelligence that we are 
able to share appropriately with allies?
    General Mattis. Absolutely, sir, and that they share with 
us, I might add, which is invaluable.
    But I would also tell you that this program inside a closed 
country that's virtually a police state, its ability to conduct 
denial and deception operations means that I stay in a very 
watchful mode, as does our Intelligence Community. I think we 
have to assume that in some cases we would not know something, 
a decision made in a very small cohort of people, and perhaps 
other hidden sites like the one revealed by our President a 
couple years ago, Ford. I have to assume they have other hidden 
sites where certain activities could be going on.
    So the decision itself and what's going on at those hidden 
sites, Senator Kaine, it could take a while for us to find 
something like that. It's just the normal give and take of the 
intelligence world.
    Senator Kaine. Admiral McRaven, any additional comments on 
that?
    Admiral McRaven. Sir, nothing, but to add to what General 
Mattis said, as the SOCOM Commander, I see virtually everything 
General Mattis sees in terms of the intelligence products and I 
would echo his sentiments that the Intelligence Community both 
within the United States and the external communities that 
provide us that insight is truly incredible.
    Senator Kaine. Admiral McRaven, we have such a SOF 
footprint in the Commonwealth. In Senator Levin's opening 
comments he referred to the work that you've done in stress on 
force studies and then recommendations to follow. I would just 
like you to talk a bit about that. What are some of the things 
that you're doing within SOF to deal with this uptempo 
operation, the effect upon our warriors and their families?
    Admiral McRaven. Thank you, Senator. I appreciate the 
question. My predecessor, Admiral Eric Olson, did a wonderful 
job of identifying the problem early on, and he put together a 
``Pressure On The Force'' Task Force. We called it the POTF at 
the time. They went out and interviewed about 7,000 
servicemembers, and about 1,000 spouses. They had 440 different 
meetings. It was about a 10-month assessment to determine the 
pressure on SOF.
    About the time that I took command back in the summer of 
2011, that report, just a couple of days after I took command, 
landed on my desk. It was very apparent that, as Admiral Olson 
had said, the force was frayed at the time. Candidly, in the 
last 18 months the force has continued to fray, and I'm 
committed to making sure that the force that I leave my 
successor and his successor is healthy and capable of doing the 
mission the Nation expects us to do.
    As a result of that, I took the POTF and we've changed the 
name a little bit and the focus, and it is now the 
``Preservation of the Force and the Families'' (POTFF) Task 
Force. We have spent time working with Capitol Hill, working 
with the Services who provide us a lot of our support, to make 
sure we have the right programs in place for not only our 
members, which we do pretty well, but also for their families. 
I have made a point of stating that the readiness of the member 
is directly related to the readiness of the family.
    So there are a lot of programs out there that allow us to 
take good care of our members, but not such good care of our 
families in some areas. So we're working, again, with Capitol 
Hill and with OSD and others to figure out how can we find the 
appropriate programs where we can take care of our families so 
that, frankly, the servicemembers will be ready to do their 
job. Frankly, it is absolutely the right thing to do, to take 
care of those families that have been supporting this Nation 
along with their servicemembers for so very long.
    I'm pleased we have a full-time task force that does 
nothing but work with my component commanders and their Service 
components to make sure that we're taking care of the tactical 
and the headquarters elements as well. It's pretty aggressive, 
but, as I said, I want to make sure the force is healthy for 
years to come, sir.
    Senator Kaine. Thank you, Admiral. I appreciate hearing 
that status report.
    One last question for you General Mattis, a big picture 
question to take advantage of your lengthy experience. When I 
was elected Lieutenant Governor of Virginia, we had a Virginia 
Guard, as all States did, that was a Reserve Force. Twelve 
years later, as I am now a junior Senator, we have a Virginia 
Guard that has had significant operational experience, scar 
tissue, training, wisdom, lives lost, folks injured in battle. 
But it's a very different kind of a Guard force than it was 10 
or 11 years ago.
    I'd like for you just to talk about in your experience 
since 2001 the changing nature of the Guard and how critical 
the Guard and Reserve have been to your activities in CENTCOM 
or, more broadly, other activities during the war on terror.
    General Mattis. Thanks, Senator Kaine. I appreciate the 
opportunity to recognize that here in a public hearing. They 
have been magnificent in serving as an operational and even 
strategic shock absorber for us so that we could conduct this 
war and not lose the All-Volunteer Force, which I think would 
have been the cost had we not had the ability to bring these 
ready forces full of patriots who look past any hot political 
rhetoric swirling around this war and answer their country's 
call, come in, and deploy, not once, not twice, but in many 
cases, multiple times.
    I bring this up because we did have a contract with the 
Guard and Reserve that said you would come in to take some 
pressure off the others. They've become more of an operational 
force now, and we have to make sure we don't break that 
fundamental contract that allows them to be citizen-soldiers, 
in other words, continue with their civilian career and still 
give us the Reserve, the shock absorber we need. There comes a 
point where they're Reserve only in name; they are, in fact, 
becoming regulars.
    I think we have to look at the kind of force we compose at 
this point and make sure we keep faith with the Reserves and 
the Guard, but at the same time not dismiss the very real 
capability they give this country when the call comes.
    Senator Kaine. Thank you, General.
    We'll have a second round of questions for 3 minutes. I'll 
go to Senator Graham.
    Senator Graham. Thank you both.
    Afghanistan, General Mattis. The last card to play really 
is the residual force in 2014; do you agree with that?
    General Mattis. I do, sir.
    Senator Graham. We could have a very good outcome in 
Afghanistan if we play that card well. Do you agree with that?
    General Mattis. It will be critical to the good outcome.
    Senator Graham. Okay. 13,600 was the recommendation in 
terms of U.S. Force presence, 352,000 in terms of ANSF, and 
some NATO. That's the configuration, right?
    General Mattis. 13,600 was my personal recommendation, yes, 
sir.
    Senator Graham. The President, he's the Commander in 
Chief--we all respect that. My concern is that at the end here 
we're going to drop the ball and I don't want to do that. Let's 
say you announce 10,000 U.S. Forces, not 13,600, and you said 
publicly we will reduce that force 2,000 a year until we get 
down to 2,000 4 years later. What kind of effect would a 
statement like that have on our success or potential success in 
Afghanistan?
    General Mattis. Senator Graham, I think we have to send a 
message of commitment. We work with a lot of unpredictability, 
Senator, and if the ANSF continue to mature the way they have 
been and we hold them at that full strength into 2018, there 
may be more reductions we can take.
    Senator Graham. But you wouldn't announce on day 1 we're 
going to withdraw 2,000 a year no matter what?
    General Mattis. I think a military perspective, Senator, 
because of the unpredictable nature of war, we'd never reveal--
--
    Senator Graham. The enemy would look at the last number, 
not the first number.
    General Mattis. They will, yes, sir, that's fair.
    Senator Graham. Okay. One last thing, about Iran. We have 
two choices here: bring them to their senses, which is to stop 
developing a nuclear weapon capability; or bring them to their 
knees, so they can't develop a nuclear weapon capability. 
Aren't those our two options?
    General Mattis. Yes, sir.
    Senator Graham. As to the second option, do we have the 
capability to bring them to their knees?
    General Mattis. Absolutely, Senator. I would still say, on 
``bring them to their senses,'' between economic sanctions, 
diplomatic isolation, and encouragement of behavior, that does 
not cost them such a degree of political support that they end 
up losing power, there may yet be a way to bring them to their 
senses on a purely cost-benefit ratio.
    Senator Graham. I hope you're right. But if that doesn't 
work, the only option left is to bring them to their knees. Do 
you agree?
    General Mattis. Yes, sir. There are a number of means to do 
that, perhaps even short of open conflict. But certainly that's 
one of the options that I have to have prepared for the 
President.
    Senator Graham. Thank you.
    Senator Kaine. Thank you, Senator Graham.
    General Mattis, one more follow-up on this Guard and 
Reserve question. If they were a traditional Reserve and then 
we built the Guard and Reserve up to have this operational 
capacity and strategic shock absorber, as you indicate, and now 
we're wrestling with not wanting them to be frayed, you don't 
recommend that we take them back to the old Reserve model? 
There's training and expertise that we ought to now be taking 
advantage of, so some scale-back to not wear them out and 
maintain them is appropriate, but wouldn't you suggest that a 
future role for the Guard and Reserve going forward should try 
to take advantage of this operational and strategic shock 
absorber capacity that they've developed over the last 10 
years?
    General Mattis. I believe it would be wise to, Senator 
Kaine. Also, I think that we have to in light of the situation 
we face fiscally in DOD right now.
    Senator Kaine. Let me thank each of you very much. As 
you've noticed, people have been departing because there's a 
vote on right now. I'm going to depart stage right very 
promptly.
    Thank you so much for your service and your testimony 
today. This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

               RETROGRADE OF EQUIPMENT OUT OF AFGHANISTAN

    1. Senator Levin. General Mattis, withdrawing millions of pieces of 
equipment from Afghanistan as our forces draw down will depend on our 
ability to ship equipment through the ground lines in Pakistan and 
along the Northern Distribution Network (NDN) through Central Asia. Do 
you see strategic advantages for regional stability in improving and 
expanding the transportation network between Afghanistan and Pakistan?
    General Mattis. Improvements and expansion of the existing 
transportation network between Afghanistan and Pakistan may yield 
greater regional stability. Expansion of the transportation network 
could facilitate greater capacity and efficiency of regional cross-
border legal commerce, enable customs and cross-border processes and 
cooperation, and encourage expanded bilateral and multilateral trade 
agreements, resulting in increased economic cooperation. All of these 
factors could increase employment opportunities, reduce bureaucratic 
and political barriers, and lead to economic stability, a prerequisite 
for overall regional stability.

    2. Senator Levin. General Mattis, do you see strategic advantages 
for regional stability in connecting historical transit routes in 
Central Asia with the growing economies of South Asia, along the same 
routes we would use for the withdrawal of U.S. equipment from 
Afghanistan?
    General Mattis. Yes. Connecting the transportation network between 
the Central Asian states and South Asia encourages multi-lateral trade 
and economic development. The enhanced transportation infrastructure 
links local vendors and manufacturers with expanded regional and global 
markets. Increased regional trade will cultivate economic and political 
partnerships and result in economic growth and stability. Flow of U.S. 
materiel along the NDN fosters greater cooperation between the Central 
and South Asian states and serves as a catalyst to improve overall 
cross-border commerce, customs processes, and cooperation.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                SPECIAL OPERATIONS FORCES IN AFGHANISTAN

    3. Senator Reed. General Mattis, from my understanding of your 
testimony, there is an ongoing process to define the appropriate 
operational procedures for U.S. Special Operations Forces (SOF) in 
Wardak Province, Afghanistan. As such, once those operational 
procedures have been developed and implemented, U.S. SOF will continue 
to operate in Wardak Province and throughout Afghanistan. As was also 
indicated in your testimony, you will inform the committee when this 
situation is adequately clarified. To be sure that I am absolutely 
clear with respect to this issue, SOF will be allowed to operate 
throughout the entire country of Afghanistan, including Wardak 
Province, particularly post-2014. The only item under consideration is 
the operational techniques those forces can use, ensuring they have the 
suitable operational flexibility to accomplish our mission, while 
respecting the sovereignty of Afghanistan and minimizing civilian 
casualties. Please inform me if this is incorrect?
    General Mattis. Decisions have not yet been made about a post-2014 
U.S. military presence in Afghanistan. The President continues to 
consider a range of options for the size and structure of our post-2014 
force. During post-2014 operations, we anticipate working by, with, and 
through our Afghan partners. The lead for security in Wardak Province 
is transitioning to Afghan National Security Forces (ANSF). The combat 
leadership shift from the International Security Assistance Force 
(ISAF) to the ANSF demonstrates that capability and resolve of the ANSF 
to secure their people and their nation.

    4. Senator Reed. General Mattis, do you anticipate any other areas, 
either now or in the future, that will become off-limits for our SOF?
    General Mattis. The transition to a Government of Islamic Republic 
of Afghanistan (GIRoA) and ANSF lead is progressing and is on track for 
completion by the end of 2014. As GIRoA increasingly exerts 
sovereignty, I anticipate there may be additional areas that limit or 
constrain our forces. However, I have total confidence that General 
Dunford and his team will work with the GIRoA security ministries to 
execute the transition without degrading the security environment.
                                 ______
                                 
               Question Submitted by Senator Bill Nelson

      INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE AVAILABILITY

    5. Senator Nelson. General Mattis, we continue to hear Joint 
Surveillance Target Attack Radar System (JSTARS) is doing very well 
supporting the troops in Southwest Asia. The platform is also in high 
demand by other combatant commands and is a proven performer in combat. 
As you assess your intelligence, surveillance, and reconnaissance (ISR) 
requirements and the various systems available to you for fulfilling 
these requirements, how critical is JSTARS? Specifically, could you 
perform the wide area surveillance mission without it?
    General Mattis. [Deleted.]
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

             INFRASTRUCTURE SPENDING AND COUNTERINSURGENCY

    6. Senator McCaskill. General Mattis, we have been told that 
building infrastructure has been important to our counterinsurgency 
(COIN) strategy in Iraq and Afghanistan. However, no one from the 
Department of Defense (DOD) has been able to show me data supporting 
the argument that these multi-million dollars projects are having any 
positive impact on our COIN efforts. Some projects funded by the 
Afghanistan Infrastructure Fund (AIF) are unlikely to be finished prior 
to the end of 2014, which means we will still be building 
infrastructure in Afghanistan after most of our forces have come home. 
Furthermore, a report last year from the Special Inspector General for 
Afghanistan Reconstruction (SIGAR) raised the concern that some AIF 
projects might be counterproductive to our COIN objectives. It appears 
to me that COIN has been used to justify billions of dollars in 
infrastructure spending in Iraq and Afghanistan without any hard-nosed 
assessment as to whether or not it was doing any good. What metrics do 
you use to determine that the money we have spent on large-scale 
infrastructure projects in Afghanistan and Iraq have contributed to our 
COIN objectives in those countries?
    General Mattis. Each infrastructure project is specifically 
designed to contribute to a system of interdependent, internationally-
funded projects which, as a whole, will raise the ability of all levels 
of the GIRoA to promote stability by providing essential services and 
increasing economic development efforts critical to our COIN strategy. 
Sustainable power, safe and passable roads, reliable irrigation 
systems, well-equipped schools, as well as modern medical facilities, 
all contribute to stability and provide the Afghan people with a 
hopeful alternative to an insurgency marked by violence and oppression. 
More than 100 new businesses have been created in Kandahar since the 
inception of the Kandahar Bridging Solution, and improved roads in 
Helmand enable farmers to get agricultural products to market before 
they spoil.
    Each of the ongoing projects supports objectives of the GIRoA and 
directly contributes to campaign objectives. Until completed and 
functioning, metrics relating to ongoing projects to COIN objectives 
often remain abstract. Once completed, objective metric data measuring 
service delivery rates and outcomes will better articulate whether or 
not a project has achieved its full COIN objective.
    Current ongoing projects will provide for reliable electrical power 
distribution to major population centers and improved water management 
to primary agricultural production areas. Enabling the GIRoA to improve 
such services is key to breaking the cycle of insurgency and bringing 
immediate COIN benefits. The COIN effects of AIF projects--which were 
not intended to be linked to U.S. Force levels--will continue well 
beyond 2014. The U.S. Army Corps of Engineers (USACE), our executing 
agent for large-scale infrastructure projects, has developed an 
oversight and management plan, based on successes in other countries, 
to ensure the completion of these strategic initiatives.

                          JOINT STRIKE FIGHTER

    7. Senator McCaskill. General Mattis, the Navy is currently 
projecting a strike fighter shortfall due to continued delays in the 
Joint Strike Fighter (JSF) program. The Navy is attempting to mitigate 
this shortfall by extending the life of older aircraft. However, we 
don't yet know whether this effort will be successful. Currently, the 
Navy has no plans to procure the F/A-18 Super Hornet beyond fiscal year 
2014, which could result in the shut-down of the Super Hornet line 
before the JSF is ready to fly actual combat missions. As a combatant 
commander, you depend on the Services to fulfill your mission 
requirement needs, and I imagine carrier-launched strike fighter 
aircraft play an important role in the U.S. Central Command (CENTCOM) 
Area of Responsibility (AOR). So, the Navy's strike fighter shortfall 
becomes your strike fighter shortfall. As a commander, can you discuss 
how this shortfall and lack of reliability will affect CENTCOM's 
ability to conducts operations?
    General Mattis. Strike fighter aircraft play an important role in 
CENTCOM's ability to respond to emerging crises, provide for the 
defense of the Arabian Gulf, and to successfully accomplish a variety 
of contingency operations within the CENTCOM AOR. Our joint aviation 
posture includes a mix of shore-based and carrier-based fighter 
aircraft. The continued presence of strike fighter capability in the 
Gulf region is essential to support the articulated requirements of the 
combatant commander, as validated by the Joint Staff and approved by 
the Secretary of Defense. I remain confident the Services will continue 
to meet my operational requirements.

    8. Senator McCaskill. General Mattis, have you raised this as a 
point of concern with the Navy?
    General Mattis. I maintain personal and professional relationships 
with all of the Service Chiefs, including Admiral Greenert in his 
capacity as the Chief of Naval Operations (CNO). He and I candidly 
discuss a range of service-specific issues to ensure his decisions are 
informed by the needs of the warfighters downrange in the CENTCOM AOR. 
I have not voiced any concerns specific to strike fighter procurement 
strategies with the Navy.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin

               AUTOMATED BIOMETRICS IDENTIFICATION SYSTEM

    9. Senator Manchin. Admiral McRaven, the DOD repository for 
biometrics information is housed at the Automated Biometrics 
Identification System (ABIS) in Clarksburg, WV. This facility allows 
SOFs to access biometric information on terrorists and enemy 
combatants, particularly when no other means of identification is 
possible. I am a strong supporter of the work done at this facility. 
More than 6,000 terrorists have been captured or killed as a direct 
result of the real-time information provided by ABIS to SOFs working in 
harm's way. However, the funding for this work will run out on April 4, 
2013. If the funding is allowed to expire, what would your assessment 
be on how SOFs will be impacted when this facility can no longer 
operate?
    Admiral McRaven. Failure by the DOD Executive Agent for Biometrics 
to adequately sustain ABIS will shut down SOF identity intelligence 
operations, eliminating a proven enabler of SOF core missions and 
negatively impacting force protection. U.S. Special Operations Command 
(SOCOM), along with multiple inter-agency and partner nation SOF users, 
depend on the DOD ABIS to search, match, and store biometric 
submissions (fingerprints, facial photos, iris scans) of non-U.S. 
persons of interest (POI). ABIS contains nearly 9 million biometric 
files that SOF query on a daily basis to positively identity POI. 
Additionally, ABIS is the DOD access point to query the FBI and the 
Department of Homeland Security biometric files, adding the power of 
another 225 million biometrics files to query. Connectivity to ABIS via 
the SOF web-based exploitation architecture enables positive 
identification of POI on tactical objectives during field operations 
within 15 minutes. Since September 1, 2006, SOCOM has processed over 
330,000 biometric files through ABIS resulting in over 131,000 positive 
identifications, of which more than 24,000 were watch-listed or 
improvised explosive device (IED)-associated individuals. Each of these 
24,000 POI represents a neutralized threat.

                  SPECIAL OPERATIONS FORCES ``TRUTHS''

    10. Senator Manchin. Admiral McRaven, SOCOM places a significant 
focus on human capital in the SOF ``Truths.'' From my own experience as 
Governor of West Virginia, with a responsibility for National Guard SOF 
units, I witnessed firsthand the significance of these ``Truths'' for 
both overseas and domestic missions. What can we provide SOCOM to 
enhance and maintain capabilities, in both the Active and Reserve 
components, so to provide the global SOF capability needed to execute 
the National Strategy and secure the Homeland?
    Admiral McRaven. Senator Manchin, thank you for your interest in 
assisting SOCOM. The continued migration of Overseas Contingency 
Operations to base funding is critical for SOF's continued engagement 
across the globe in support of the National Strategy and to secure our 
Homeland. Additionally, the continued authorization of funding 
flexibilities such as section 1208 and the Rapid Acquisition Authority 
will ensure critical resourcing support in short order to support 
current operations. I anticipate an increasing need for funding 
execution flexibility in the current global environment and SOF's 
continued efforts to build partnership capacity and conduct 
counterterrorism operations. SOF is asked to respond quickly to a broad 
spectrum of operations which require certainty of available resources 
for continued success.

                   AFGHANISTAN CONSTRUCTION PROJECTS

    11. Senator Manchin. General Mattis, I want to highlight the 
fundamental problems we face when entering into large-scale nation-
building projects, particularly in Afghanistan. A telling example is 
the Kajaki Dam project, in Helmand Province. The United States built 
the dam in the 1950s and later paid to install electrical generation 
units in the 1970s, only for it to fall into extreme disrepair. Since 
returning to Afghanistan, the United States has allocated $266 million 
to repair the Kajaki Dam, and more than 50 U.S. servicemembers have 
been killed in the effort to secure the site. However, the U.S. Agency 
for International Development (USAID) has decided to cede control of 
the installation of a large hydropower turbine, and $70 million to 
complete the project, to the Afghani National Electric-Power Company 
(DABS)--all of this after USAID had already paid two private 
contracting firms, one of them Chinese, to complete the job. So, this 
project, and many more like it, has come full-circle, with little gains 
to the Afghans and too much blood and money spent by the United States. 
I worry that the country is setting a dangerous precedent by entering 
into these sorts of projects, where the recipient nation does not have 
the resources to maintain the project--dooming it to ultimate failure 
until the United States intervenes again with aid money and support. In 
light of this, and as the United States begins its withdrawal from 
Afghanistan, how many reconstruction projects are still planned for 
this year, and for the following year?
    General Mattis. The AIF supports requirements that enable a 
successful handover of the projects intended to provide Afghanistan 
with sufficient power, water, and transportation infrastructure. For 
fiscal year 2013, we are executing three AIF projects, which focus on 
sustaining power, expanding power distribution, and improving water 
storage capacity. U.S. Forces-Afghanistan (USFOR-A) and the Department 
of State (DOS) reviewed the planned project list for fiscal year 2014 
on April 24, 2013. There are currently seven potential AIF projects 
under consideration which focus on completion of critical transmission 
lines and substations, dam control systems, and transitional 
sustainment of infrastructure.

    12. Senator Manchin. General Mattis, are there projections of what 
these costs will be and how will the United States be involved?
    General Mattis. For fiscal year 2013, Congress authorized and 
appropriated $325 million to execute three AIF projects. For fiscal 
year 2014, the total number of projects is still under review so a 
total for the request is not available yet, but it will be less than it 
was in fiscal year 2013. This funding will enable handover of AIF 
projects constructed during previous years.

    13. Senator Manchin. General Mattis, what assurances does the 
United States have that these projects will be maintained?
    General Mattis. We work jointly with GIRoA and USAID to develop 
comprehensive sustainment plans associated with each of the 
infrastructure projects. Sustainment costs are developed based on DOD 
facilities pricing guidelines, including regional adjustment factors 
based on location. The sustainment information for each project is 
forwarded to the appropriate GIRoA ministry that will be responsible 
for the project once constructed, which they include in their annual 
budget submission. Multiple capacity building efforts are ongoing to 
ensure that GIRoA is capable of assuming responsibility for these 
projects. These efforts also include working with the Ministry of 
Finance to ensure operational and maintenance costs are accurately 
captured, as well as developing resourcing strategies consistent with 
GIRoA's budgeting process.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen

                               SUBMARINES

    14. Senator Shaheen. Admiral McRaven, what capabilities will be 
lost from a SOF perspective when the Ohio-class SSGNs retire?
    Admiral McRaven. The SSGN provides a unique capability for SOF 
undersea clandestine insertion (UCI) in terms of its ability to host 
larger numbers of SOF operators for longer time periods, as well as its 
ability to have dual submersible launch and recovery capability. We are 
currently conducting an Analysis of Alternatives (AoA) to determine the 
most cost-effective means to replace this capability when the SSGNs 
retire in the 2020s. Among the alternatives being examined are the 
conversions of existing SSBNs if the future nuclear posture supports as 
well the development of SOF capability in the proposed Block V of the 
Virginia-class of submarines (Virginia Payload Module-VPM). In the 
meantime, we will operate from four fully capable Virginia-class 
submarines, designed to operate in the littoral regions and able to 
conduct the UCI mission.

    15. Senator Shaheen. Admiral McRaven, how many of those would be 
addressed through the Virginia Payload Module (VPM) or other 
enhancements to the Virginia-class submarines?
    Admiral McRaven. The AoA study that we are presently conducting is 
designed to answer this question in a methodical way. However, we are 
very confident that the current state of UCI is very healthy. The four 
Virginia-class submarines designated for Naval Special Warfare are 
extraordinarily capable platforms with a superior ability to penetrate 
littoral regions compared to the SSGN. Whether the VPM adds sufficient 
capacity and endurance to the current Virginia-class, as well as dual 
submersible launch capability, will be evaluated by the AoA. 
Recommendations will be completed as part of the AoA later this year. 
The timing of the AoA study is just right to ensure a healthy UCI 
capability when the SSGNs retire in the 2020s.

    16. Senator Shaheen. Admiral McRaven, are there any capabilities 
that would not be addressed?
    Admiral McRaven. No. The AoA will address all capabilities and the 
study will make a consolidated recommendation to exclude a particular 
capability.

    17. Senator Shaheen. Admiral McRaven, you have mentioned previously 
that Navy consideration of an investment in the next generation Dry 
Deck Shelters (DDS) should be seriously considered in fiscal year 2013 
to ensure seamless transition of this important platform. Can you 
update me on the status of that effort?
    Admiral McRaven. The next generation DDS is also being studied in 
the same AoA that is looking at the SSGN retirement. The AoA is 
scheduled for completion later this year. However, the Naval Sea 
Systems Command has recently completed a service life study of the DDS 
and determined that they can be kept in service an additional 20 years. 
Therefore, they will not go out of service until the 2040s. However, 
they are limited in their capacity, and we are also examining a 
modernization program that will allow the present DDS to deploy a Dry 
Combat Submersible (DCS).

                      CENTRAL COMMAND REQUIREMENTS

    18. Senator Shaheen. General Mattis, what is your assessment of the 
Joint Land Attack Cruise Missile Defense Elevated Netted Sensor (JLENS) 
system?
    General Mattis. Persistent ISR systems such as JLENS, specifically 
designed for missile detection and tracking, would help to counter 
threats such as those posed to U.S. Forces in the Gulf. However, JLENS 
is not currently a program of record and is still in testing. If this 
system does become available for worldwide operational use, JLENS will 
offer persistent and multi-sensor capabilities optimized for point area 
defense. The fact that JLENS is tethered will prove a limitation 
requiring substantial planning and deconfliction to overcome the impact 
to air navigation, especially in nations who only grant the United 
States limited use of their airspace.

    19. Senator Shaheen. General Mattis, does a requirement for 
persistent surveillance and integrated fire control still persist in 
the CENTCOM AOR?
    General Mattis. Yes. CENTCOM forces and coalition partners will 
have only minimal time to react to missile launches in the Arabian 
Gulf. Rapid identification, verification, geolocation, and kinetic 
targeting of such threats are a must (find-fix-finish).

    20. Senator Shaheen. General Mattis, does a requirement for 
Terminal High Altitude Area Defense (THAAD) fire control and precision 
track information to the Ballistic Missile Defense System (BMDS) 
persist in the CENTCOM AOR?
    General Mattis. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                   STRATEGIC RISK IN DEFENSE STRATEGY

    21. Senator Inhofe. General Mattis, DOD Guidance issued in January 
2012 stated: ``Our defense efforts in the Middle East will be aimed at 
countering violent extremists and destabilizing threats, as well as 
upholding our commitment to allies and partner states. Of particular 
concern are the proliferation of ballistic missiles and weapons of mass 
destruction (WMD). To support these objectives, the United States will 
continue to place a premium on U.S. and allied military presence in--
and in support of--partner nations in and around this region.'' How 
would you assess the current status of these goals and where do you 
have concerns?
    General Mattis. Given the resources, and the constant pressure 
being brought to bear against these threats, we are making progress on 
our goals. We are working closely with our regional partners to develop 
their anti-ballistic missile capabilities, and we work to ensure we 
prevent the proliferation of WMD. By working by, with, and through our 
partners, we realize greater progress than by going it alone, and more 
importantly, we demonstrate our enduring commitment to regional 
stability.

    22. Senator Inhofe. General Mattis, given the reduction of defense 
resources, how would you characterize the trends in risk to your 
missions in the region and in what specific areas are you assuming the 
most risk?
    General Mattis. I, and other senior defense leaders, have been 
clear and consistent in saying that resource reductions will have a 
significant impact on operations. We have also been clear in stating 
that supporting the ongoing operations in Afghanistan remains a high 
priority. But this focus on Afghanistan comes at a cost to readiness 
and our ability to respond to emerging contingencies. As resources 
continue to decline we will assume a greater risk in our ability to 
respond decisively to CENTCOM regional challenges such as Iranian 
aggression, instability in the Levant region, or a resurgent violent 
extremist organization's presence.

    23. Senator Inhofe. General Mattis, aside from contingency 
operations, do you believe the number of U.S. Forces permanently 
stationed in CENTCOM is sufficient to meet U.S. national security 
objectives?
    General Mattis. CENTCOM has very few assigned permanent forces. We 
depend on the use of rotational allocated forces to meet operational 
demands and anticipate continuing this approach in the future.
    To date, we are accepting increasingly greater risk to execute our 
assigned missions, and remain concerned about further reductions and 
the potential impacts they could have on key capabilities such as 
maritime force presence, ISR capabilities, Ballistic Missile Defense 
capabilities, and SOF in theater.

                                  IRAN

    24. Senator Inhofe. General Mattis, in your testimony you indicated 
that in your professional opinion, the current diplomatic and economic 
efforts to stop Iran from obtaining nuclear weapons capability were not 
working. If Iran obtains nuclear weapons, do you think that Syria would 
obtain that capability from Iran?
    General Mattis. No, I do not believe Iran would share a nuclear 
weapon capability with Syria. The financial and political cost of 
Iran's nuclear pursuit has been extreme, making it unlikely Iran would 
share a nuclear weapon with another state or sub-national group. This 
is especially true given the current chaotic situation unfolding in 
Syria. However, should this situation stabilize, with the Iran-friendly 
Assad regime (or similar) intact, Iran might eventually share dual-use 
nuclear fuel cycle technologies with Syrian counterparts.

    25. Senator Inhofe. General Mattis, do you think countries like 
Saudi Arabia and Turkey would try to develop nuclear capabilities of 
their own?
    General Mattis. I believe other regional nations will pursue 
nuclear capabilities if Iran were to obtain a nuclear weapon; they have 
told us as much. This is part of why the international community's 
efforts to deter Iran's nuclear progress are so critical.

    26. Senator Inhofe. General Mattis, are there any other countries 
you would expect to try to obtain nuclear capabilities?
    General Mattis. Yes, nearly every regional state would feel 
threatened by Iran's acquisition of a nuclear weapon, and desire 
capabilities to deter this new Iranian threat. Some states are not 
financially capable of embarking on a nuclear effort, but perhaps might 
consider alliances to share this cost.

    27. Senator Inhofe. General Mattis, it is well known that Iran 
continues to provide the Assad regime with weapons and other tactical 
support, including the presence of Iran's Revolutionary Guard Corps 
personnel on the ground in Syria. What is your assessment of current 
Iranian support to the Assad regime and is it growing?
    General Mattis. Iran is focused on keeping the Assad regime in 
power in order to maintain the critical gateway to its regional 
surrogates and proxies. Politically, Iran has attempted to bolster 
Assad's hold on power through economic aid, by hosting conferences, and 
by calling for Muslim unity against Western aggression in Syria. Since 
the unrest began in early 2011, Iran has provided the Syrian regime 
with weapons, military counsel, and technical assistance. Iran's 
Islamic Revolutionary Guard Corps Qods Force and likely the Ministry of 
Intelligence and Security are the primary agencies facilitating the 
Iranian aid flow into Syria. Iran's Qods Force appears to head up 
Iran's support efforts, as evidenced by the multiple trips to Syria by 
Qods Force commander, Ghassem Soleimani, likely to provide advice and 
discuss aid to the Syrian regime. Iran has recently been training and 
equipping a Syrian militia called Jaysh al Sha'bi, which Iran could use 
as a lever of influence in a post-Assad regime scenario. More recently, 
Iran likely has been directly involved in operations against opposition 
forces.

    28. Senator Inhofe. General Mattis, is Iraqi airspace still being 
used to transport weapons and other aid to Syria?
    General Mattis. Yes.

    29. Senator Inhofe. General Mattis, are you aware of any systematic 
effort by the Iraqis to halt these shipments through their airspace?
    General Mattis. No.

    30. Senator Inhofe. General Mattis, do you believe that Iraq 
tacitly allowing these shipments to transit their airspace should make 
the United States rethink our planned security assistance programs with 
Iraq and do you recommend altering that security assistance in any way?
    General Mattis. I believe this is a litmus test to gauge the 
competing influences between the United States and Iran on the 
Government of Iraq. We must consider the Iraqi domestic situation 
aggravated by the Syrian crisis, which has stressed the already tense 
Sunni-Shia rift among Iraqis. The Shia-majority central government 
moves closer to Iran because they fear a Sunni backlash that is 
emboldened by the anti-Assad militias. Our security cooperation 
activities provide us with leverage, but we must remain cognizant of 
our strategic aims in the region when considering any alteration. We 
must focus our leverage to reduce Iraqi internal fissures by pushing 
Prime Minister Maliki to the middle. A strategic pursuit of Iraq, as a 
strong U.S. regional ally, will counter Iranian influence in the region 
and must be considered when contending with the tactical problem of 
Iranian overflights.

    31. Senator Inhofe. General Mattis, what is your biggest concern in 
addressing the Iranian conventional threat in the Gulf?
    General Mattis. Iran's military is capable of inflicting regional 
and global economic damage by impacting access to the Straight of 
Hormuz (SOH) and attacking neighboring energy infrastructure; one-fifth 
of the world's oil, 17.4 million barrels per day, transits the SOH 
daily. A well-armed Iran is capable of projecting power regionally, 
threatening its neighbors, and undermining U.S. influence in the 
region. Tehran's emboldened posture, likely driven by a perception of a 
hostile international economic environment and a belief U.S. power is 
declining in the region, has increased the risk to naval forces and 
maritime traffic throughout the Arabian Gulf and possibly the Gulf of 
Oman.

    32. Senator Inhofe. General Mattis, it is well known that the 
Iranian Revolutionary Guard Corps is aggressively attempting to disrupt 
stability in the region through support of terrorist proxies such as 
Hezbollah. What is your strategy to counteract this threat and what are 
your key priorities to address the spread of Iranian malign influence 
in CENTCOM's AOR?
    General Mattis. We have seen a qualitative and quantitative 
increase in Iranian malign influence activities within our AOR and 
globally. Within the Iranian Revolutionary Guard Corps, the Qods Force 
(IRGC-QF) branch is Iran's primary foreign policy tool for exerting 
clandestine military, political, and economic power throughout the 
world. IRGC-QF conducts operations in support of Iranian foreign policy 
objectives which have two principal aims: limit U.S. influence within 
the region; and reduce U.S. military forward presence.
    CENTCOM, in cooperation with the entire Intelligence Community, has 
greatly expanded efforts to both map and understand the IRGC-QF and its 
nefarious networks throughout the region in the past 2 years. With this 
increased understanding, we are now postured to better work alongside 
our regional partners to counter the IRGC-QF and its networks. In 
addition, we are working very closely with all of the combatant 
commands in order to eliminate any gaps, both intellectually and 
geographically, with respect to a coordinated deterrence effort against 
IRGC-QF.
    CENTCOM is acting to reduce Iranian support to surrogates, proxies, 
and insurgents across the region. In order to accomplish this, we must 
make the region inhospitable to IRGC-QF illicit operations and 
activities through diplomatic, economic, and military engagement with 
our friends and partners across the region. We must also reduce IRGC-QF 
freedom of movement outside Iran, which includes Department of Treasury 
designations, DOS demarches, partnering with other nations, interagency 
and intergovernmental coordination, and maritime interdiction 
operations, as appropriate.

    33. Senator Inhofe. General Mattis, how will the reduction of 
funding impact your ability to execute your strategy?
    General Mattis. Sound strategy requires a balance of ends, ways and 
means. Without an approved budget, I cannot accurately forecast the 
means available to support CENTCOM planning, although it is safe to 
assume I will have less than I had a year ago. A reduction in means 
will require an honest evaluation of our ability to meet prescribed 
National Strategy (ends) and will likely require a modification to how 
we execute our plans (ways). As I have stated in the past, we will 
fight with what means we have available, but realize that achieving our 
ends with less means execution will take longer and will be 
accomplished at greater risk.

                    GLOBAL COUNTERTERRORISM STRATEGY

    34. Senator Inhofe. Admiral McRaven, we are seeing that al Qaeda 
and other terrorist groups are developing operational networks that are 
increasingly complex and global in nature and we can no longer go after 
terrorist groups in an ad-hoc, country-by-country basis if we hope to 
be successful. Do you believe that our current counterterrorism 
strategy has kept pace with the increasingly globalized nature of al 
Qaeda and affiliated terrorist networks?
    Admiral McRaven. In short, yes--from a DOD perspective, we have 
been able to keep pace with an evolving enemy, which requires 
adaptation and innovation on our part. DOD's current geographic 
combatant command construct of specific AORs presents several 
challenges when dealing with a globally-networked enemy. Gaps and seams 
are discovered that a savvy adversary can exploit, and our current 
counterterrorism strategy has morphed to mitigate those 
vulnerabilities. Part of the problem is that al Qaeda, its affiliates, 
and its adherents (AQAA) is more network than army, more a community of 
interest than a corporate structure. Our principal terrorist 
adversaries have regional affiliates--such as al Qaeda in the land of 
the Islamic Maghreb (AQIM), al Qaeda in East Africa (AQEA), and al 
Qaeda in the Arabian Peninsula (AQAP)--who collectively seek to further 
al Qaeda's goals and objectives, to include attacking the U.S. 
Homeland. Therefore, the United States and its partners must continue 
to develop and improve a network to defeat a network. This network must 
include a whole-of-government approach, with close interagency 
cooperation and partner nation assistance to ensure success. The 
battlefield is also no longer confined to geographic terrain. AQAA and 
other terrorist organizations effectively use tactical and strategic 
communications to push information and propaganda via social media. We 
must keep pace by making honest and accurate assessments of both 
ourselves and our adversaries to ensure that our strategies and tactics 
are having the desired effects, and make adjustments as required.

    35. Senator Inhofe. Admiral McRaven, how are we measuring our 
effectiveness?
    Admiral McRaven.

Effectiveness of Global Campaign Plan for Counterterrorism:
    SOCOM's Global Campaign Assessment for Counterterrorism (GCA-CT) 
measures progress toward achieving the end states contained in 
Department-level guidance. GCA-CT provides recommendations to improve 
strategy and execution in order to adapt to the changing 
counterterrorism environment. GCA-CT reports, issued quarterly, focus 
on U.S. and partner nation impacts on violent extremist organizations 
and the environments where those adversaries are present.
    The GCA-CT is conducted through a provisional collaborative process 
that incorporates geographic combatant commands' regional assessments 
into SOCOM's global perspective assessment. In addition, the GCA-CT 
examines broader strategic issues derived from the National Strategy 
for Counterterrorism (NSCT) released in June 2011. GCA-CT output is the 
result of an objectives-based method which evaluates information 
derived from both quantitative and qualitative analysis of collated 
data. In detail, collected data of operational environmental conditions 
is analyzed to derive factual information about threat, friendly, and 
environmental (to include population) activities in the geographic 
combatant commands' AOR. The information is evaluated against criteria 
derived from the planning objectives and from NSCT overarching goals 
and focus areas counterterrorism objectives.

Effectiveness of SOF in Joint Operations, Interdependent with Other 
        Forces, and the Interagency:
    The Chairman's Comprehensive Joint Assessment (CJA) furnishes a 
detailed appraisal of SOCOM's integrated strategic assessment and our 
current and future mitigation efforts. SOCOM's response to the annual 
CJA provides a common informational baseline and strategic picture of 
SOCOM's ability to meet Title 10 and Unified Command Plan (UCP) 
responsibilities and support the National Military Strategy (NMS). 
Correspondingly, in 2012, SOCOM staff conducted a net assessment of how 
SOF is organized, trained, equipped, and postured to address future 
security challenges described by the DSG, in close collaboration with 
the geographic combatant commands. Throughout this assessment process, 
senior leadership focused on identifying areas of risk to mission, risk 
to force, and risk to force structure. That risk construct informed 
realistic force composition and posture recommendations that directly 
support geographic combatant command requirements and shape inputs to 
the CJA.

    36. Senator Inhofe. Admiral McRaven, what must be done to develop a 
comprehensive, long-term counterterrorism strategy that spans regional 
boundaries?
    Admiral McRaven. The NSCT outlines the framework to address this 
challenge. It provides eight clearly stated goals, which, if achieved, 
can be viewed as a checklist for success when executing our 
counterterrorism strategy:

        <bullet> Protect the American People, Homeland, and American 
        Interests
        <bullet> Disrupt, Degrade, Dismantle, and Defeat al Qaeda and 
        its Affiliates and Adherents
        <bullet> Prevent Terrorist Development, Acquisition, and Use of 
        WMD
        <bullet> Eliminate Safe Havens
        <bullet> Build Enduring Counterterrorism Partnerships and 
        Capabilities
        <bullet> Degrade Links between al Qaeda and its Affiliates and 
        Adherents
        <bullet> Counter al Qaeda Ideology and its Resonance and 
        Diminish the Specific Drivers of Violence that al Qaeda 
        Exploits
        <bullet> Deprive Terrorists of their Enabling Means

    These objectives are as relevant and crucial to success today as 
they were in June 2011 when the NSCT was published. As mentioned 
previously, DOD's current geographic combatant command construct 
presents opportunities for an adversary to exploit gaps and seams 
between geographic regions. Terrorist organizations such as AQAA, 
Hezbollah, and Lashkar-e Tayyiba do not limit their activities to 
defined AOR. Furthermore, they have extensive facilitation networks and 
diaspora around the world to help them achieve their objectives.
    AQAA (as our principal and most dangerous terrorist adversary) 
includes regional affiliates such as AQIM, AQEA, and AQAP. These groups 
conspire to further al Qaeda's goals and objectives, to include its 
goal of attacking the U.S. Homeland. In order to counter their lack of 
boundaries and the global nature of this network, our long-term 
strategy must minimize the gaps and seams our adversaries seek to 
exploit. This will require not only a whole-of-government approach, but 
also a multinational effort. For example, as the United States and its 
partners put pressure on AQIM in West Africa, it must also have 
synchronous pressure against the financial networks and safe havens in 
Europe and the Arabian Peninsula, pressure against drug financiers from 
Central and South America who support terrorist actions, and degrade or 
deny cyber communications that support global messaging. Our strategy 
must go beyond the traditional diplomatic, intelligence, military, and 
law enforcement templates we've applied in the past. Our strategy 
requires a purpose-built network, and an integrated coalition of the 
willing and able to dismantle and defeat the adversary's network.
    The strategy must effectively and persistently engage the more 
cerebral spectrums of cyber and human terrain. The adversary is a 
thinking, evolving, globally-networked entity, plugged into both the 
digital domain and the populace. AQAA and other terrorist organizations 
are very active in pushing their narratives and strategic 
communications in these arenas; we must be more skilled than our 
adversaries in doing so.
    Perhaps most importantly, the strategy must be actively coordinated 
across all organizations engaged in the fight. We must guard against 
using a stove-piped approach across numerous departments and agencies 
and with our partners. We need to achieve buy-in and unity of effort 
from all U.S. Government organizations involved, as well as our partner 
nations, in order to present a unified and coordinated front to our 
adversaries.

                                 SYRIA

    37. Senator Inhofe. General Mattis, the ongoing decimation of Syria 
as a result of the Assad regime has the potential to destabilize the 
region. By June, Jordan is expected to have absorbed 600,000 refugees 
from Syria, which would be approximately 10 percent of its population. 
The Jordanian Government is already under severe economic stress with 
the threat of energy shortages this summer. Simultaneously it is at a 
fragile political situation as it attempts to form a government after 
parliamentary elections. The Jordanian Government has done a great job 
thus far responsibly caring for the influx of Syrian refugees while 
holding back the influence of Islamic extremists. What is CENTCOM doing 
to help support the Jordanian Government's efforts to protect its 
borders while caring for large numbers of Syrian refugees?
    General Mattis. [Deleted.]

    38. Senator Inhofe. General Mattis, what can the United States do 
to increase that support and avert a crisis this summer that could 
threaten the stability of the Jordanian Government and its ability to 
hold back the spread of Islamist extremism?
    General Mattis. [Deleted.]

    39. Senator Inhofe. General Mattis, do you support a negotiated 
settlement that would leave Assad in control of some portion of Syrian 
territory?
    General Mattis. [Deleted.]

    40. Senator Inhofe. General Mattis, Syria has one of the largest 
stockpiles of chemical weapons in the world. Does CENTCOM have a plan 
or is developing a plan to address the security of chemical weapons in 
Syria in a scenario in which Assad falls and the regime loses control 
of Syrian chemical weapons?
    General Mattis. [Deleted.]

    41. Senator Inhofe. General Mattis, what role do you see for the 
international community in the effort to secure chemical weapons in 
such a case?
    General Mattis. [Deleted.]

    42. Senator Inhofe. General Mattis, do you anticipate that CENTCOM 
will have adequate resources to address that situation should it arise?
    General Mattis. We have been very careful to articulate force and 
resource requirements for the various planning scenarios envisioned by 
our national leaders to date. I am confident that we would not commit 
military forces towards a situation unless we are properly resourced in 
terms of authorities, equipment, or manpower required for the mission.

    43. Senator Inhofe. General Mattis, what Federal and DOD agencies 
do you see as critical to formulating and executing a whole-of-
government effort in this scenario?
    General Mattis. Under current authorities, the DOS would be the 
lead Federal agency and would coordinate with the United Nations for a 
mandate for U.S. military operations in Syria to secure designated 
chemical and biological weapons facilities and stockpiles. 
Additionally, the DOS will coordinate with adjacent countries to inform 
them of our activities and, if desired, to garner their support and 
potential participation. Diplomatic action will also be important to 
secure any over-flight rights required for possible requests to 
transport these materials safely through or over another country's 
territory for proper disposal. If an evacuation is required due to 
civilian proximity to storage and disposal sites, the USAID might be 
requested to provide humanitarian assistance for displaced personnel.
    Within DOD, the Defense Threat Reduction Agency would lead in the 
inspection, transportation and disposal of these materials. Additional 
defense assets would be required to provide security at storage 
facilities, along routes of transport and at disposal facilities.

    44. Senator Inhofe. Admiral McRaven, what role do you foresee for 
SOCOM in planning, preparing for, and executing a plan to secure 
chemical weapons in Syria?
    Admiral McRaven.

        <bullet> Planning:

                <bullet> SOCOM is a supporting command to CENTCOM for 
                SOF-related planning with respect to the situation in 
                Syria

                        <bullet> As a supporting command, SOCOM 
                        provides SOF-unique planning assistance 
                        primarily through Special Operations Command 
                        Central, which is under the operational control 
                        of CENTCOM

        <bullet> Preparing to execute a plan:

                <bullet> In its role as a SOF joint force provider, 
                SOCOM trains, equips, and deploys SOF in support of 
                requesting geographic combatant commands for employment
                <bullet> Commander of SOCOM accomplishes these tasks 
                primarily through its assigned Service components and 
                subordinate unified commands
                <bullet> As CENTCOM's planning continues to mature, 
                SOCOM tactical units may receive planning tasks. 
                Designated units would then refine training/preparation 
                to address potential contingency mission requirements

        <bullet> Execution:

                <bullet> Were an Execute order to be issued, Commander 
                of SOCOM would deploy forces in accordance with that 
                order in support of Commander of CENTCOM's operations

                              AFGHANISTAN

    45. Senator Inhofe. General Mattis and Admiral McRaven, a primary 
concern is to not repeat the mistakes of Iraq and draw down too many 
forces too quickly and create a security vacuum in Afghanistan that 
will be exploited by al Qaeda and other terrorist groups. Developing 
and properly resourcing a strategy for U.S. support post-2014 is vital 
to ensuring Afghanistan does not revert to a breeding ground for 
terrorists determined to attack the American Homeland. In your 
professional military judgment, what should be the primary objectives 
of our strategy in Afghanistan post-2014 to accomplish our national 
security objectives?
    General Mattis. The purpose of our engagement in Afghanistan since 
2001 has been to eliminate the safe haven from which al Qaeda planned 
and directed the September 11 attacks, and to prevent future safe 
havens in Afghanistan from which terrorists could once again threaten 
the U.S. Homeland. We have made significant progress disrupting, 
dismantling, and defeating al Qaeda. Securing our hard-fought gains 
over the long-term requires a sustained commitment beyond 2014. We, 
along with our NATO partners, are planning for a small enduring 
presence post-2014 to train, advise, and assist the ANSF. Our military 
mission will be limited to: (1) training, assisting, and advising 
Afghan forces so that they can maintain their own security; and (2) 
making sure we can continue to go after the remnants of al Qaeda or 
other affiliates that might threaten our Homeland. Ultimate success in 
Afghanistan will require a whole-of-government effort which supports 
economic and governance development.
    Admiral McRaven. We have two objectives of our strategy in 
Afghanistan: (1) denying al Qaeda and associated insurgent movements 
the opportunity to utilize Afghanistan to support terrorist activities 
that threaten the United States and our partners; and (2) preventing 
the Taliban from overthrowing the Afghan Government. I believe the 
United States should closely cooperate with the Afghan Government to 
achieve these objectives. In my mind, a crucial supporting pillar of 
that strategy should be to continue to build on the excellent work ISAF 
and our U.S. Forces have done in building the ANSF. As outlined in the 
Strategic Partnership Agreement, DOD will continue to work with our 
Afghan partners to achieve a complete transition of security 
responsibility to the ANSF. 2014 will mark the completion of that 
transition but not the end to our commitment. We will continue to 
train, advice, and assist the ANSF and provide financial support to 
them in the post-2014 environment so that we not only maintain but 
build on the security and stability gains earned over the past 12 
years.

    46. Senator Inhofe. General Mattis and Admiral McRaven, do you 
believe that there is a point at which we draw down U.S. Forces so low 
that whatever force remains is unable to accomplish a viable strategy 
to prevent safe havens for terrorists and prevent a resurgence of the 
Taliban, while maintaining adequate force protection?
    General Mattis. There may be such a point. In conjunction with 
General Dunford, CENTCOM will constantly monitor our draw down to 
ensure that strategic momentum is not lost. As conditions on the ground 
warrant, we will adjust the force flow to provide the greatest chance 
of success. If significant changes are required, the CENTCOM commander 
will make that recommendation to the Chairman, the Secretary of 
Defense, and the President.
    Admiral McRaven. The Afghan security conditions and the willingness 
of the Afghan Government to achieve a stable and prosperous country 
will be the indicator of opportunities for the United States to draw 
additional forces from ISAF over time. The capability, proficiency, and 
leadership of the ANSF will enable the United States to conduct a safe 
retrograde, continue to pressure the al Qaeda networks, and enable the 
GIRoA to improve services to its people. The more capable the Afghan 
forces and its leadership prove over the course of time the quicker our 
forces can prudently depart the theater of war. The ISAF commander is 
in the best position to advise on what U.S. force management level is 
best for achieving a viable strategy to prevent safe havens for 
terrorists. SOCOM is prepared to support the level necessary to achieve 
those national objectives.

    47. Senator Inhofe. General Mattis and Admiral McRaven, what will 
be the consequences, including your assessment of the resulting 
security situation, if we are unable to negotiate a Bilateral Security 
Agreement with Afghanistan that ensures our troops have immunity post-
2014?
    General Mattis. The Bilateral Security Agreement is a prerequisite 
for our continued presence in Afghanistan as it provides the legal 
framework for our forces to conduct their mission. Without the 
assurances afforded in the agreement, we cannot remain in country and 
perform our security force assistance mission. Without such assistance, 
it is not clear whether the ANSF will reach their full potential.
    Admiral McRaven. In my opinion, exclusive U.S. jurisdiction over 
our forces and DOD civilian personnel, sometimes also referred to as 
immunity from host country jurisdiction, is an essential element of a 
Bilateral Security Agreement with Afghanistan. The President made this 
point clear in his press conference with President Karzai on January 
11, and I wholly concur with the President's view.
    If a Bilateral Security Agreement with Afghanistan cannot be 
concluded, then theoretically a presence of U.S. Forces might continue 
under our current Status of Forces Agreement with Afghanistan from 
2003, which does not expire. However, it is also possible that either 
or both countries would consider that approach unacceptable, which 
would likely necessitate a complete withdrawal of U.S. Forces 
coincident with the end of the ISAF mandate on December 31, 2014. 
Similarly, if a Bilateral Security Agreement cannot be concluded, it is 
highly likely that NATO would not be able to conclude an agreement to 
support continuation of its presence and that of other coalition 
members in Afghanistan after 2014.
    Such a complete withdrawal of U.S. and coalition forces on 
Afghanistan's security situation would be profound. The ANSF would no 
longer receive training, advice, or assistance from U.S. and coalition 
forces, which would have significant implications for sustaining the 
tactical and operational advantages of the ANSF over their enemies, for 
their leadership development, and perhaps even for their cohesion. The 
absence of coalition forces could cause deterioration in the sense of 
confidence Afghan citizens have about their country's security and its 
future. Others in the region could have similar doubts about 
Afghanistan's future.
    Additionally, without a Bilateral Security Agreement, the United 
States would not be able to continue to conduct counterterrorism 
operations from within Afghanistan against targets al Qaeda and its 
affiliates, which are a threat to both Afghanistan and the United 
States. We would have to rely on other means to address this threat to 
ourselves, but our ability to mitigate the threat to Afghanistan would 
be greatly diminished.

    48. Senator Inhofe. General Mattis, you have said that not 
supporting the ANSF will greatly limit our ability to prevent the 
return of terrorist safe havens and a Taliban resurgence that threatens 
the Afghan Government. If we drop down to only 5,000 to 6,000 troops, 
with 2,500 to 3,000 additional international troops in the post-2014 
environment, do you have adequate force structure to both prevent 
terrorist safe havens and prevent a Taliban resurgence?
    General Mattis. In conjunction with General Dunford, CENTCOM will 
constantly monitor our draw down to ensure that strategic momentum is 
not lost. As conditions on the ground warrant, we will adjust the force 
flow to provide the greatest chance of success. If significant changes 
are required, the CENTCOM commander will make that recommendation to 
the Chairman, the Secretary of Defense, and the President.

    49. Senator Inhofe. General Mattis, although you have recommended 
13,600 U.S. troops, what is the minimum number you would need to 
prevent both terrorist safe havens and a Taliban resurgence if you have 
a coalition presence about half as big as what the United States 
provides?
    General Mattis. 13,600 U.S. troops is what the Commander, USFOR-A 
recommended to me to accomplish the post-2014 Afghanistan mission, as 
directed by the President, and I support that number. The coalition 
presence is half as big as what the United States provides, and this is 
what the 13,600 level assumes.

    50. Senator Inhofe. General Mattis, with the transition to Afghan 
security leadership continuing, we need to have an effective process 
for managing detainee affairs. What specific provisions are being made 
regarding detainees; and during and after the transition, who is 
responsible for combatants detained by U.S. Forces on the battlefield?
    General Mattis. We have worked hand-in-hand with our Afghan 
counterparts to build a competent and sustainable Afghan detention 
regime. In March 2013, we completed the turnover and transfer ceremony 
of the Afghan National Detention Facility in Parwan with the GIRoA. The 
United States has retained control of selected facilities (such as the 
Theater Intelligence Group, Joint Legal Center, Special Housing Unit, 
Combined Joint Operations Center, COIN Office, Medical Services Center, 
Repair and Utility Center, and Classified Information Systems). 
Detainees captured on the battlefield are screened for intelligence 
value, given suitable medical care, and are transferred to GIRoA 
custody within 96 hours for prosecution or rehabilitation. We respect 
the sovereignty of GIRoA to successfully manage Afghan nationals 
captured on the battlefield in accordance with Afghan law.

    51. Senator Inhofe. General Mattis, what safeguards will be in 
place to ensure these combatants are treated in accordance with U.S. 
and international law?
    General Mattis. The United States has received high marks from 
several international humanitarian rights organizations for its 
treatment of detainees. This same belief system and legacy of personal 
accountability has been ingrained in the Afghan National Army (ANA) 
guard forces that we have trained. While U.S. Forces remain in 
Afghanistan, we will do our best to maintain some form of oversight on 
the treatment of former U.S.-held Law-of-Armed-Conflict detainees.

    52. Senator Inhofe. General Mattis, how will U.S. interests be 
protected in the process?
    General Mattis. The United States remains engaged with the GIRoA at 
all levels to make sure that our interests are protected. This is 
highlighted by the transfer of the Afghan National Detention Facility 
in Parwan and the signing of a Memorandum of Understanding (MOU) 
acknowledging both the sovereignty of the Afghan Government over its 
citizens while recognizing the United States' responsibility to ensure 
safe and humane treatment of its former detainees. Additionally, the 
United States will continue to advise and assist the Afghans as they 
conduct their detention operations and as they continue to build and 
operate a humane, competent, and sustainable Afghan detention regime.

    53. Senator Inhofe. General Mattis, Vali Nasr worked for Ambassador 
Holbrooke at the DOS and has characterized U.S. strategy for engaging 
the Taliban as transitioning from ``fight and talk'' to ``talk while 
leaving''. Furthermore, he said that: ``The precepts were how to make 
the conduct of this war politically safe for the administration rather 
than to solve the problem in a way that would protect America's long-
run national security interests.'' How would you characterize the 
formulation of U.S. policy for Afghanistan?
    General Mattis. Like all policy, the U.S. policy for Afghanistan 
was developed through extensive consultation across the whole-of-
government. I provided my best military advice and I concur with our 
strategic objectives.

    54. Senator Inhofe. General Mattis, news reports indicate that it 
may cost as much as $5 billion to retrograde all of the approximately 
750,000 pieces of equipment we currently have in Afghanistan. Are you 
considering the option of transferring it to another U.S. agency or 
another country?
    General Mattis. Yes. My staff has processed Letters of Request 
(LOR) for Excess Defense Articles (EDA) located in Afghanistan from 18 
nations. The EDA process automatically includes offering equipment to 
other U.S. agencies, and involves the DOS, the Defense Security 
Cooperation Agency (DSCA), and Office of the Secretary of Defense 
(OSD). To date, the Services have not declared any EDA. Currently, 
DSCA, DOS, and OSD are reviewing all EDA LOR.

    55. Senator Inhofe. General Mattis, are you considering destroying 
the equipment in place to avoid the movement cost and to prevent it 
from falling into the wrong hands?
    General Mattis. The individual Services (Army, Navy, Air Force, 
Marine Corps) must make this determination; even though located in 
Afghanistan, the equipment is owned and maintained by the Services. As 
equipment is no longer required in the AOR, the Services make the 
decisions to retrograde, redeploy, transfer, or sell to eligible 
nations in accordance with the law. There are processes in place to 
ensure material is properly screened and vetted for retention or 
disposal. As a last resort during instances when the return 
transportation and refurbishment combined costs outweigh the value of 
the equipment, the Services turn over the materiel to the Defense 
Logistics Agency (DLA) Disposition Services in Afghanistan to de-
militarize the equipment and sell the resultant scrap.

    56. Senator Inhofe. General Mattis, what will be the key strategic 
pieces needed to attract international partners to participate in the 
efforts to ensure Afghanistan security in the post-2014 environment?
    General Mattis. The key strategic pieces are the GIRoA's ability to 
demonstrate its legitimacy to the Afghan people. Primarily through its 
actions, namely, transparency of governance, lack of corruption, 
provision of governmental services, free and fair elections--
specifically the presidential elections in 2014--and the peaceful 
transfer of power after elections.

                                BAHRAIN

    57. Senator Inhofe. General Mattis, Bahrain as an important ally in 
the Gulf region has been affected in the past 3 years by DOS decisions 
to leverage Foreign Military Sales (FMS) for political reform in the 
Kingdom. In our cooperation with Bahrain, are we proceeding with the 
construction of ammunition bunkers in order to mitigate operational 
risk in the Gulf?
    General Mattis. Yes, construction of the ammunition bunkers is 
still a valid requirement and long-term solution for U.S. Navy, Army, 
and Marine Corps ammunition and Navy vertical launch system storage in 
the CENTCOM AOR. We are currently seeking host nation approval to 
authorize construction at Isa Air Base.

    58. Senator Inhofe. General Mattis, are you concerned about our 
continued naval presence at Manama?
    General Mattis. The short answer is no. Bahrain is a strong partner 
in the Gulf, and our naval presence there accomplishes bilateral 
security objectives in addition to facilitating security goals with our 
other regional partners. Additionally, our naval presence in this part 
of the world provides stability and leadership in the protection of 
Gulf region shipping. Having been forced to reduce our presence already 
by one aircraft carrier, our ability to offer the security and 
protections that we provided over the last 11 plus years has already 
been impacted. Currently, we are working with our coalition partners to 
overcome this setback.

    59. Senator Inhofe. General Mattis, do we have agreements in place 
for the use of Isa Air Base?
    General Mattis. Yes and no. There is currently a working Defense 
Cooperation Agreement (DCA) between our two countries that was signed 
in 1991 for our military forces to coordinate operations in Bahrain, 
including at Isa Air Base. However, the U.S. Navy Central Command, 
based in Manama, is in the process of negotiating a non-binding 
arrangement for specific aspects of the DCA related to the use of Isa 
Air Base. The completion of this arrangement is being negatively 
impacted by the hold placed on delivery of certain FMS cases.

                                 KUWAIT

    60. Senator Inhofe. General Mattis, the removal of U.S. combat 
forces from Iraq has altered our posture in the region significantly. 
How important is it to you to maintain U.S. ground forces in Kuwait?
    General Mattis. Kuwait remains a steadfast partner of the United 
States in the CENTCOM AOR and it is critical to maintain sufficient 
force posture in Kuwait to position us for success in the future. 
Centrally located in a strategically vital position among Iraq, Iran, 
and Saudi Arabia, Kuwait is distinguished by well-developed air, sea, 
and ground lines of communication and would serve as an ideal platform 
to project power in support of contingency operations.

    61. Senator Inhofe. General Mattis, what numbers and kinds of U.S. 
Forces do we need in Kuwait over the long-term?
    General Mattis. We have reached agreement with the Government of 
Kuwait to transition to a steady-state force presence in support of 
common regional security interests and have continued to coordinate 
with the Government of Kuwait to set this steady-state force presence 
at five designated bases. U.S. force provides an immediately responsive 
joint capability for crisis in the region; assures Kuwait of a 
continued U.S. commitment to a strong bilateral security relationship, 
supports regional deterrence efforts, and will focus on strengthening 
bilateral and multilateral training efforts to improve interoperability 
and partner security force training. The steady-state force presence is 
capped at 13,500 U.S. military personnel but adjusts to specific 
operational requirements, as needed. There is recognition that further 
adjustments will be required to adapt to a changing regional 
environment and missions, U.S. and Kuwait economic and policy 
decisions, and global demand for U.S. Forces. The steady-state force 
recently coordinated with the Government of Kuwait is about 12,231. 
Continual adjustments will be required but this is the approximate 
force required to support regional missions.

    62. Senator Inhofe. General Mattis, do you anticipate a need to 
invest in new facilities for U.S. Forces in Kuwait, and if so, where?
    General Mattis. Kuwait continues to remain a close and supportive 
regional partner of the United States. Following the drawdown of U.S. 
Forces in Iraq, we have coordinated an enduring U.S. force presence 
located at five different locations in Kuwait to support response to 
emergent regional crises and the defense of Kuwait. We are currently 
discussing with the Kuwaitis' refinement of basing concepts to support 
both U.S. and Kuwait force presence and missions. We have select 
projects planned to upgrade and/or maintain our current capabilities 
and infrastructure at Camp Buehring, Camp Arifjan, and Ali Al Salem Air 
Base in support of bilateral efforts to develop a footprint to 
facilitate this presence.

                        CENTRAL COMMAND POSTURE

    63. Senator Inhofe. General Mattis, you have said that CENTCOM 
military presence will continue to become ``more maritime in 
character.'' What do you mean by ``becoming more maritime in 
character''?
    General Mattis. Well before the conflicts in Afghanistan and Iraq, 
CENTCOM maintained a robust maritime presence in the CENTCOM AOR to 
promote freedom of navigation and free flow of commerce in and through 
the Arabian Gulf, the Gulf of Oman, the Gulf of Aden, and the Red Sea, 
including three of the world's most critical choke points. These 
maritime deployments are a visible sign of the United States' 
commitment to overall regional security, and they will continue in the 
aftermath of Operation Enduring Freedom. As forces draw down in 
Afghanistan and are redeployed to the continental United States 
(CONUS), there will be fewer air and ground forces available to exert 
U.S. power and influence. Fiscal constraints and agreements with our 
Gulf Cooperation Council partners may also place limits on the number 
of land and air forces we can base in the region, causing us to rely 
more and more on maritime forces which can project power throughout the 
region without violating a nation's territorial sovereignty.

    64. Senator Inhofe. General Mattis, with sequestration already 
impacting carrier strike group presence, what risks do you assume if a 
large number of naval assets are only able to be on call from CONUS 
ports?
    General Mattis. Placing a large number of naval assets on prepare 
to deploy orders would limit our ability to respond to an emerging 
crisis, provide for the defense of the Arabian Gulf, or successfully 
accomplish other contingency operations. Extended response times 
required when staging from CONUS ports would also increase risk to our 
coalition partnerships and diplomatic missions. The continued presence 
of U.S. naval assets in the Gulf region is essential to support the 
articulated requirements of the combatant commander, as validated by 
the Joint Staff and approved by the Secretary of Defense.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                         GREEN ON BLUE ATTACKS

    65. Senator Wicker. General Mattis, over the span of the Afghan 
conflict, there have been many instances of attacks by Afghan forces on 
U.S. and coalition personnel. As noted in a January 2013 Foreign Policy 
article, 52 coalition soldiers died as a result of 37 green on blue 
attacks in 2012. The same article goes on to note that, despite 
improvements, green on blue attacks continue to escalate, making 
CENTCOM's assessment that ``continued shortfalls . . . will allow some 
insider attacks to continue to occur'' all the more ominous. Is the 
screening program for prospective Afghan military and police forces 
sufficient?
    General Mattis. I believe the screening program for prospective 
Afghan military and police forces is sufficient. During the last 6 
months of 2012, the screening program biometrically enrolled more than 
160,000 ANA personnel and conducted more than 44,000 background checks 
of Afghan National Police (ANP) personnel, resulting in the dismissal 
of 570 individuals due to insurgent ties. Additionally, ISAF boosted 
its counterintelligence capability in 2012 to respond to the insider 
threat. counterintelligence teams detected and neutralized 171 
nefarious individuals, 7 of which were confirmed as insurgents. The 
teams have also conducted 5 significant operations in eastern and 
southern Afghanistan, identifying 36 persons of interest for further 
investigation. Finally, both the Afghan Ministers of Interior and 
Defense have acknowledged shortfalls in past vetting of ANSF recruits 
and are committed to work with ISAF to vet, deter, and hold Afghan 
commanders responsible for insider attacks.

    66. Senator Wicker. General Mattis, are there additional 
capabilities that need to be made available to change the trend with 
regards to green on blue attacks?
    General Mattis. We continue to pursue the introduction of new 
capabilities to assist in countering the green on blue attack trend. 
For instance, the implementation of near real-time biometrics (NRTB) 
will enable the identification of potential persons of interest upon 
initial contact. NRTB will allow vetting stations to receive immediate 
feedback if the individual undergoing screening is a person of 
interest. NRTB will match individuals against more than 200,000 
unresolved latent fingerprints collected from various crime scenes and 
IED incidents throughout Afghanistan. Matching enrollees to latent 
prints identifies individuals to known criminal acts, allowing 
immediate action rather than releasing the individuals before they 
return for a second interview. While there is no set deadline to 
implement NRTB, a pilot program has enabled three battalions in 
Regional Command-South with NRTB capabilities.

    67. Senator Wicker. General Mattis, OSD's December 2012 ``Report on 
Progress Towards Security and Stability in Afghanistan'' notes some 
very positive accomplishments by the ANA in assuming the lead in COIN 
operations. However, a quote from the same report also says:

          ``The capacity of the Afghan Government and the extension of 
        effective governance and rule of law have been limited by 
        multiple factors, including widespread corruption, limited 
        human capacity, lack of access to rural areas due to a lack of 
        security, a lack of coordination between the central government 
        and the Afghan provinces and districts, and an uneven 
        distribution of power among the judicial, legislative, and 
        executive branches. Security, governance, and sustainable 
        economic development are all necessary for a viable and stable 
        Afghanistan.''

    Do you believe that improvements noted in the capabilities of the 
ANA are sustainable given the broader governmental issues noted in the 
December 2012 report?
    General Mattis. The improvements are sustainable, provided the 
GIRoA makes the changes the international community expects it to make. 
These changes are needed in order for the international community to 
continue to support GIRoA in the decade of transformation, because 
outside support is critical to sustainability. Those changes include 
transparency of governance, lack of corruption, provision of 
governmental services, free and fair elections--specifically the 
presidential elections in 2014--and the peaceful transfer of power 
after elections.

    68. Senator Wicker. General Mattis, do you believe that the Afghan 
military is capable of maintaining stability and security long enough 
for local and national government entities to build the capacity to 
govern effectively?
    General Mattis. The ANSF is developing at a pace which will allow 
them to take the lead for security across Afghanistan by the first half 
of 2013, and have responsibility for all security by the end of 
December 2014, per the Lisbon Agreement. How long it will take for 
local and national government entities to build the capacity to govern 
effectively is really a function of Afghan leadership. However, the 
international support pledged at Chicago in 2012 provides Afghanistan 
years of time and space to demonstrate progress.

                        AFGHAN ARMORED VEHICLES

    69. Senator Wicker. General Mattis, it has come to my attention 
that the Army plans to sign a sole-source contract for 135 additional 
Mobile Strike Force Vehicles (MSFV) for the ANSF. The cost per vehicle 
under this contract is estimated to be between $1 to $1.5 million for 
each vehicle. In our current fiscal situation, the sole-source 
procurement of new vehicles appears to be less cost-effective than the 
upgrade and transfer of hundreds of existing Mine-Resistant Ambush 
Protected (MRAP) vehicles already in Afghanistan. Has CENTCOM or ISAF 
considered the upgrade and transfer of the in-country MRAP vehicles to 
the Afghans?
    General Mattis. The Army has already procured 488 MSFV for the ANA. 
This is a second order. For the initial procurement, the Combined 
Security Transition Command-Afghanistan (CSTC-A) Security Assistance 
Office conducted the market research. Based on their findings, CSTC-A 
determined that the MRAP variants did not meet mission requirements 
relating to an enclosed turret with day/night sights per CSTC-A's 
original requirement. Since this requirement was an immediate 
discriminator, an additional, detailed cost analysis to upgrade MRAP 
vehicles was not conducted due to the urgency of the requirement.
    In addition to the fully enclosed turret, the MSFV is distinguished 
from MRAP vehicles by armored protection around both the occupants and 
the major automotive components. Per CSTC-A's mission requirements 
analysis, the MSFV's level of protection provides true ``combat vehicle 
survivability for both the occupants and automotive platform'' versus 
the occupant-centric protection provided to MRAP vehicles where the 
engine and transmission are more vulnerable to damage. MSFV also have 
far greater mobility and terrain accessibility and have been proven to 
outperform MRAP vehicles off road.

    70. Senator Wicker. General Mattis, please have CENTCOM provide a 
written justification for this sole-source contract for MSFV.
    General Mattis. CENTCOM, as a geographic combatant command, does 
not have procurement authority; this rests with the Services. The U.S. 
Army exercised their procurement authority in 2011 to award the sole-
source contract for the MSFV to Textron Marine and Land Systems. Any 
justifications for the contract would need to come from the U.S. Army.

    71. Senator Wicker. Admiral McRaven, as the ranking member of the 
Airland Subcommittee of the Senate Armed Services Committee, I am a 
strong supporter of SOCOM's Non-Standard Commercial Vehicle Program and 
your efforts to acquire the Special Operations Tactical Vehicle. Please 
provide this committee and my office with briefings on SOCOM's 
acquisition strategy for these two programs.
    Admiral McRaven. SOCOM possesses a Family of Special Operations 
Vehicles (FOSOV) that consists of Light, Medium, and Heavy tactical 
vehicles; a variant of each is currently employed in Afghanistan. In 
acquiring these platforms, SOF-peculiar modifications are applied to 
Service common or commercial off-the-shelf (COTS) vehicles and in those 
cases where Service common and COTS vehicles are not available, 
purpose-built military COTS products are procured. Specific details on 
the Ground Mobility Vehicle 1.1. is limited, as it is currently in 
source selection.
    The Special Operations Legislative Affairs Office will follow up to 
provide the requested briefings.

                                 SYRIA

    72. Senator Wicker. General Mattis, last week, Secretary of State 
Kerry announced that the United States would supply $60 million in non-
lethal aid to the Syrian opposition. As Secretary Kerry said, this 
money would primarily go to ``strengthen the organizational capability 
of the Syrian Opposition Coalition.'' I understand that this is the 
first time the United States has given direct assistance to the Syrian 
opposition. This is an important first step, but it seems to me that it 
really won't have a decisive effect on the success or failure of the 
revolution. Given your understanding of the organization, capability, 
and sophistication of the Syrian opposition, do you believe that there 
would be value in providing assistance beyond the non-lethal aid 
announced last week?
    General Mattis. I continue to recommend special caution regarding 
provision of lethal aid to the very disparate and divisive Syrian 
opposition. Simply supporting rebel groups with materiel and training 
is fraught with risk, and harkens 1980s Afghanistan. As the regime 
cedes territory, myriad opposition groups will jockey and fight for 
control, particularly in Aleppo and Damascus. I could not guarantee 
these groups will avoid the same sort of atrocities the Assad regime 
has undertaken . . . opposition atrocities have already been alleged. 
Ethnic cleansing against minority groups will grow more likely once the 
regime retracts further. I strongly recommend a very clear vision for 
Syria and the desired end state there, for both us and our partners.

              SEQUESTRATION AND THE CONTINUING RESOLUTION

    73. Senator Wicker. Admiral McRaven, we've had the opportunity to 
discuss the impacts of the Continuing Resolution (CR) and sequestration 
with then Secretary of Defense Panetta and the Joint Chiefs. I am 
concerned about the significant impacts to readiness they detailed 
during our hearing 2 weeks ago, given the vital role that SOCOM and SOF 
have played during the wars in Iraq, Afghanistan, and elsewhere. What 
are your most significant concerns regarding the CR and sequestration 
with regards to SOCOM?
    Admiral McRaven. Sequestration and a year-long CR create a perfect 
storm for SOCOM. I would like to thank the committee for its efforts in 
mitigating the devastating effects of the latter. Sequestration alone, 
however, still creates current budget uncertainty. SOCOM has already 
reduced all non-essential travel and training, curtailed replenishment 
of non-mission critical supplies, implemented a hiring freeze for non-
critical billets, and released non-critical temporary and term 
civilians. Sequestration results in a 7.8 percent reduction to the 
SOCOM fiscal year 2013 budget request, absorbed almost entirely during 
the last half of this fiscal year, currently estimated $750 million.
    Lastly, but just as important, SOCOM receives critical support from 
the Services and we are already feeling the impact of sequestration 
with the reduction in flying hours, ISR, and CJCS exercises. This will 
negatively impact global operations and SOF efforts to build 
partnership capacity and current counterterrorism operations.

    74. Senator Wicker. General Mattis, the Joint Chiefs expressed 
their concerns about the cutbacks required to meet the CR and 
sequestration leading to the hollowing out of our operational forces. 
As a primary end user of deployed forces, I'm sure this must be of 
great concern to you as well. I am concerned that the way things are 
going with regards to DOD budgeting, we will be forced to pick and 
choose which capabilities are most important to us right now and set 
them aside for funding while others are sacrificed. It seems to me that 
one of the capabilities we overlook until we need it is our ability to 
conduct forced-entry operations from the sea. To maintain this ability 
we need a robust Marine Corps and combat-survivable amphibious lift to 
get them to the fight and to sustain them once ashore. I am very 
concerned that one of the results of the CR and sequestration will be 
significant and irreversible damage to our ability to build survivable 
amphibious shipping. Do you agree with me on the importance of ensuring 
that the Navy and Marine Corps continue to be capable of conducting 
forced-entry operations?
    General Mattis. Our embarked troops and aviation assets provide me 
with the most flexible force in our inventory to pursue a variety of 
missions and respond to various likely contingencies within the CENTCOM 
AOR. These forces give me options across the range of military 
operations from building partner capacity, to humanitarian assistance 
operations, to non-combatant evacuations, to rescues, to counter-
piracy, to combat operations. A steady-state Amphibious Ready Group 
presence is at the top of my list of capabilities to be preserved 
during the impending period of resource constraints. Using the sea as 
maneuver space, these forces enable me to move our assets to a crisis 
or exercise area with minimal exposure to risk and without placing a 
large, visible footprint ashore in a sensitive region. It is imperative 
not only that we maintain the currently planned bare minimum amphibious 
ships in the Navy shipbuilding plan, but also that we maintain these 
high-value assets in a high state of readiness.

            VETERANS BENEFITS FOR SPECIAL OPERATIONS FORCES

    75. Senator Wicker. Admiral McRaven, Esquire Magazine recently ran 
an article detailing the difficulties that the Navy SEAL who shot Osama 
bin Laden is having after leaving Active Duty service. I believe this 
story, which is tragic in its own right, and is indicative of a greater 
problem with the system we have in place to take care of special 
operators when it is time for them to leave the military. It seems to 
me that, while we as a Nation owe a debt to all of our veterans, we 
have a unique obligation to our SOF. What are your thoughts on the 
specific case of the SEAL who shot Osama bin Laden?
    Admiral McRaven. All Active Duty members are volunteers who sign a 
contract with their respective military departments that addresses 
benefits and eligibility requirements for retirement. The SEAL cited in 
Esquire Magazine left the Navy before he was eligible for retirement 
benefits. Months ahead of his separation he was counseled on his status 
and provided with several options to continue his career to reach 
retirement eligibility. SOCOM, Naval Special Warfare Command, and the 
Navy were prepared to help this SEAL address both health and transition 
issues, as we would with other former members.

    76. Senator Wicker. Admiral McRaven, what can be done to better his 
situation?
    Admiral McRaven. SOCOM is working on a number of initiatives that 
ensure our SOF remain the best trained, the best educated, and the most 
resilient force in the world. Highlighted below are two of these 
initiatives that would improve the situation of individuals who are 
faced with similar circumstances encountered by the SEAL from Esquire 
Magazine.
    First, SOCOM is coordinating to expand educational opportunities 
for both officer and enlisted SOF members. This program will provide 
additional opportunities for SOF to attain advanced civilian degrees 
and to attend academic fellowships. Although this program was 
established to fulfill an operational requirement, the benefits for SOF 
operators will extend beyond their time in uniform.
    Second, SOCOM has also established the Preservation of the Force 
and Families Task Force (POTFF) to improve the short- and long-term 
well-being of our SOF operators and their families. They are 
implementing comprehensive, multidisciplinary programs to enhance the 
physical, social, and psychological performance of all SOF personnel. 
These efforts will provide special operations personnel the skills to 
both perform their duties while in uniform and to be productive and 
healthy long after their service ends.

    77. Senator Wicker. Admiral McRaven, what are your thoughts on how 
DOD and SOCOM can more properly reward our SOF for their service?
    Admiral McRaven. Currently, SOF operators are compensated through a 
variety of Special Duty Assignment Pays, Qualification Pays, Hazardous 
Duty Incentive Pays, Foreign Language Proficiency Bonuses, and 
Selective Reenlistment Bonuses. Many of these incentive pays and 
bonuses are unique to the SOF community. Additionally, SOF operators 
are eligible for Hostile Fire Pay, Imminent Danger Pay, and Combat Zone 
Tax Exclusion when serving in designated areas of operation.
    SOCOM has also established the POTFF to improve the short- and 
long-term well-being of our SOF operators and their families. They are 
implementing comprehensive, multidisciplinary programs to enhance the 
physical, social, and psychological performance of all SOF personnel. 
The POTFF identifies and implements innovative solutions across five 
lines of effort to meet the SOF-peculiar needs of our forces: (1) human 
performance; (2) behavior health; (3) spiritual enhancement; (4) family 
programs; and (5) personnel operational tempo predictability.

    78. Senator Wicker. Admiral McRaven, how can we as a Nation better 
prepare these men and women to enjoy the rewarding post-military lives 
they so richly deserve?
    Admiral McRaven. The Service Departments provide official 
transition assistance for SOF; however, SOCOM provides additional 
augmentation. For example, SOCOM supplements Service Department 
transition programs through seminars that cover topics such as job 
search skills, interviewing techniques, salary negotiation, State 
employment, and personal financial seminars.

               BASIC UNDERWATER DEMOLITION/SEAL TRAINING

    79. Senator Wicker. Admiral McRaven, Basic Underwater Demolition/
SEAL (BUD/S) training is considered by many to be the most difficult 
military training in the world. Hell Week, from what I understand, is 
an incredibly grueling and injury-prone portion of BUD/S. What are the 
injury rates for BUD/S classes? Please break down the data by injuries 
that occur during Hell Week and those that occur during other phases of 
BUD/S training. Within the categories of injuries sustained during Hell 
Week and those sustained during other phases of BUD/S, please further 
break down the data by permanent injury (those that force the trainee 
to leave BUD/S or the Navy) and non-permanent injury (those that allow 
the trainee to remain in BUD/S).
    Admiral McRaven. The table below summarizes the answers; specific 
answers follow:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    79a. Senator Wicker. What are the injury rates for BUD/S classes?
    Admiral McRaven. During the most recent nine BUD/S classes, 22 
percent of the candidates incurred injuries.
    79b. Senator Wicker. Please break down the data by injuries that 
occur during Hell Week and those that occur during other phases of BUD/
S training.
    Admiral McRaven. Of all the candidates that incurred injuries, 26 
percent of those injuries occurred during Hell Week while the remaining 
74 percent occurred during other phases of BUD/S training.
    79c. Senator Wicker. Within the categories of injuries sustained 
during Hell Week and those sustained during other phases of BUD/S, 
please further break down the data by permanent injury (those that 
force the trainee to leave BUD/S or the Navy)  and  non-permanent  
injury  (those  that  allow  the  trainee  to  remain  in  BUD/S).
    Admiral McRaven. Of the candidates injured during Hell Week, 5 
percent where unable to continue BUD/S training due to the injury, the 
remaining 95 percent were able  to  continue  training.  Of  the  
candidates  injured  during  other  phases  of  BUD/S training, 18 
percent where unable to continue BUD/S training due to the injury, the 
remaining 82 percent were able to continue training.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                                 SYRIA

    80. Senator Ayotte. General Mattis, what is CENTCOM doing to help 
support the Jordanian Government's efforts to protect its borders while 
caring for large numbers of Syrian refugees?
    General Mattis. CENTCOM is currently supporting the Government of 
Jordan and the Jordanian armed forces in a variety of ways to counter 
the growing crisis along their border and the continued influx of 
refugees from Syria. Since 2009, we have supported the Jordan Border 
Security Program, an initiative to secure the Jordan border with Syria 
and Iraq, which includes both active measures (i.e. cameras, motion 
sensors) and passive measures (i.e. roads, berms, towers). Our support 
for this effort has included both design expertise and supplemental 
Foreign Military Financing (FMF) funds. We have also supplied 
critically needed body armor for the Jordanian border guards who are 
deployed along many parts of the border with Syria that experience 
inadvertent fire from Syria as well as clashes with militants 
attempting to enter Syria from Jordan. Additionally, CENTCOM counter 
WMD experts have supplied technical assistance and materiel to the 
Jordanian armed forces so they can respond to any WMD incidents and/or 
smuggling along the border.
    Regarding refugee assistance in Jordan, CENTCOM is not the lead 
Federal agency to provide response so our authorities are somewhat 
limited compared to our support to the border security projects. 
However, we have been able to provide targeted and expeditious 
assistance through our Overseas Humanitarian, Disaster, and Civic Aid 
authority. These projects have directly impacted the lives of Syrian 
refugees arriving in Jordan at the border crossings (i.e. water tanks, 
latrines, winter shelters) and improved conditions at the refugee camps 
(i.e. medical equipment, tents, pre-fab shelters, gravel, generators).

    81. Senator Ayotte. General Mattis, what can the United States do 
to increase that support and avert a crisis this summer that could 
threaten the stability of the Jordanian Government and its ability to 
hold back the spread of Islamist extremism?
    General Mattis. Jordan is one of our best allies in the region and 
their continued stability and capacity to counter Islamic extremism is 
critical to both the region and to our national security interests. 
Jordan has upheld their international and moral obligations by 
providing refuge to well over 350,000 displaced Syrians fleeing the 
humanitarian crisis in Syria. In addition to the focused support we 
have provided to the refugee situation so far, we are also standing by 
should the Ambassador and/or DOS Bureau of Population, Refugees, and 
Migration determine a more robust CENTCOM response is appropriate. 
Should DOS make this determination and submit an Executive Secretary 
Memorandum to DOD, we will immediately respond, as requested. The 
Executive Secretary Memorandum will enable certain response authorities 
CENTCOM currently does not have, significantly improving our capacity 
to provide care and comfort to the refugee crisis and help to alleviate 
some of the immense pressure currently burdening the Government of 
Jordan. Additionally, our planners are working hand-in-hand with the 
Jordanian armed forces planners to ensure that our humanitarian 
response options to the crisis are completely in sync and complementary 
to Jordanian humanitarian plans in development.

    82. Senator Ayotte. General Mattis, what is your biggest concern in 
addressing the Iranian conventional threat in the Gulf?
    General Mattis. Iran's military is capable of inflicting regional 
and global economic damage by impacting access to the SOH and attacking 
neighboring energy infrastructure (one-fifth of the world's oil, 17.4 
million barrels per day, transits the SOH daily). A well-armed Iran is 
capable of projecting power regionally, threatening its neighbors and 
undermining U.S. influence in the region. Tehran's emboldened posture, 
likely driven by a perception of a hostile international economic 
environment and a belief U.S. power is declining in the region, has 
increased the risk to naval forces and maritime traffic throughout the 
Arabian Gulf and possibly the Gulf of Oman.

    83. Senator Ayotte. General Mattis, could you please provide an 
update of Iran's capabilities as they apply to Iranian threats to close 
the SOH?
    General Mattis. Iran has a variety of weapons, including large 
inventories of cruise missiles, modern mines, small fast attack craft 
equipped with torpedoes and/or cruise missiles, and an expanding 
submarine fleet, all of which are capable of threatening naval assets, 
merchant vessels, and energy infrastructure. Iran's ballistic missile 
inventory is among the largest in the Middle East and includes 
increasingly accurate anti-ship ballistic missiles that could threaten 
U.S. aircraft carrier operations in the Arabian Gulf and Gulf of Oman. 
Iran could, with little warning, effectively and quickly mine the SOH. 
Iran's other options, short of closing the SOH, are similar to those 
used in the 1980s Tanker War, including mining key port facilities of 
Gulf Cooperation Council countries and inserting special forces via 
sea, air, or land to attack those facilities.

    84. Senator Ayotte. General Mattis, what is your assessment of 
current Iranian support to the Assad regime and is it growing?
    General Mattis. Iran is focused on keeping the Assad regime in 
power in order to maintain the critical gateway to its regional 
surrogates and proxies. Politically, Iran has attempted to bolster 
Assad's hold on power through economic aid, by hosting conferences, and 
by calling for Muslim unity against Western aggression in Syria. Since 
the unrest began in early 2011, Iran has provided the Syrian regime 
with weapons, military counsel, and technical assistance. Iran's IRGC-
QF and likely the Ministry of Intelligence and Security are the primary 
agencies facilitating the Iranian aid flow into Syria. Iran's Qods 
Force appears to head up Iran's support efforts, as evidenced by the 
multiple trips to Syria by Qods Force Commander, Ghassem Soleimani, 
likely to provide advice and discuss aid to the Syrian regime. Iran has 
recently been training and equipping a Syrian militia called Jaysh al 
Sha'bi, which Iran could use as a lever of influence in a post-Assad 
regime scenario. More recently, Iran likely has been directly involved 
in operations against opposition forces.

    85. Senator Ayotte. General Mattis, is Iraqi airspace still being 
used to transport weapons and other aid to Syria?
    General Mattis. Yes. Influence over Iraqi officials allows Iran to 
extend hard and soft power influence in key areas of Iraq. Iraqi 
airspace has been used to ferry lethal aid to Syria, uninhibited by 
perfunctory Iraqi inspections of aircraft.

    86. Senator Ayotte. General Mattis, are you aware of any effort by 
the Iraqis to halt these shipments through their airspace?
    General Mattis. No.

    87. Senator Ayotte. General Mattis, do you agree with General 
Austin that Al-Nusrah ``is increasing in capability and influence'' in 
Syria, and if so, why?
    General Mattis. I completely agree with General Austin. The al 
Qaeda in Iraq Syrian front organization, al-Nusrah Front, has achieved 
its current level of capability and influence because of two key 
variables. Nusrah has focused on outreach to the Syrian populace, 
tempering its vision of an Islamic state, and building an outreach 
program that includes basic humanitarian assistance. This has some 
Syrians looking to Nusrah as a viable alternative to the current Assad 
regime. This outreach is powerful when combined with the second key to 
Nusrah's success, the experience its fighters bring to the fight in 
Syria. This experience, gained largely in Iraq, includes not only 
tactics and strategies, but also logistics, organizational skills, and 
a discriminating use of violence. al-Nusrah Front strives to minimize 
civilian casualties and applies savvy propaganda when unwanted deaths 
occur, typically shifting the blame to regime forces or other Syrian 
opposition groups. For these reasons, I believe the al-Nusrah Front 
will remain capable and influential in Syria for the near-term.

                              AFGHANISTAN

    88. Senator Ayotte. General Mattis, what will happen in Afghanistan 
if the United States withdraws too quickly or leaves too few troops in 
Afghanistan after 2014?
    General Mattis. A hasty, premature withdrawal would make it more 
difficult to complete our task of getting the ANSF to a position where 
the Afghans could provide security with minimal international 
intervention and support. CENTCOM's task, in conjunction with ISAF's 
along with our international partners, is to ensure we maintain forward 
progress as we reduce our presence.

                                 EGYPT

    89. Senator Ayotte. General Mattis, is it your understanding that 
the Morsi Government in Egypt has not yet sent their ambassador back to 
Israel since the Gaza conflict in November?
    General Mattis. Yes.

    90. Senator Ayotte. General Mattis, do you believe that it is 
important for the Egyptian Ambassador to return to Israel for the sake 
of regional peace and sustaining the peace between Egypt and Israel?
    General Mattis. While I believe the return of the Egyptian 
Ambassador to Israel would definitely contribute to sustaining the 
peace between Egypt and Israel, I don't think it is a necessity. 
Nonetheless, it is essential that we encourage President Morsi to send 
the Ambassador back to Israel to ensure a direct line for dialogue 
exists between the two countries.
    However, the fact that President Morsi pursued a ceasefire rather 
than intensifying the conflict in Gaza is a sign of enduring interests 
with regard to sustaining the peace. Additionally, President Morsi has 
repeatedly said he would continue to honor the 1979 Peace Treaty with 
Israel and uphold all of its other international agreements, despite 
opposition from his Muslim Brotherhood backers.
    Additionally, there appears to be an understanding that the peace 
process is one of the pillars of the stability of Egypt, Israel, and 
the region. Finally, the partnership between the Egyptian and Israeli 
military and foreign ministries, over border issues, terrorism, 
smuggling, and economic issues, shows a continuing commitment towards 
sustaining the peace between Egypt and Israel.

    91. Senator Ayotte. General Mattis, how does our foreign aid to 
Egypt protect our interests?
    General Mattis. Egypt has been a key regional partner for the 
United States since the signing of the 1979 Camp David Accords. They 
supported all subsequent U.S. military initiatives in the region and 
have been a critical mediator in Arab-Israeli and Palestinian-Israeli 
matters. They control the Suez Canal and have provided unprecedented 
access to their airspace for overflight and landing.
    Our military-to-military relationship with Egyptian Armed Forces 
(EAF) is the foundation of our bilateral relationship and has been the 
continuity in a changing relationship. The EAF is the most respected 
institution in the country and has been a stabilizing force in an 
uncertain environment. The EAF played a positive role, bridging the gap 
when there was no government in charge after the revolution and ceding 
power once there was a democratically-elected government. The EAF has 
helped balance the decisions made by their new, inexperienced civilian 
leaders and have remained a neutral actor. The EAF is not the Muslim 
Brotherhood but supports the legitimately elected Muslim Brotherhood 
Government, staying on the sidelines and asserting they are the neutral 
protector of the nation and its vital infrastructure.
    Our security assistance provides access to and influence with the 
EAF leadership which is critical to maintaining our state-to-state 
relationship in this turbulent time. The annual $1.3 billion in FMF we 
provide has enabled the EAF to modernize around Western, primarily U.S. 
weapons systems, such as the F-16 and M1 tanks. In addition, many 
analysts believe the reluctance of the EAF to brutally suppress 
demonstrations during the January 25, 2011, revolution was a direct 
result of the large number of mid-grade and senior Egyptian military 
officers trained at U.S. military facilities. So it is in our best 
interest to maintain a good relationship with Egypt and our best 
opportunity is through our historically strong military-to-military 
relationship. Decreasing or restricting their security assistance risks 
undermining the only stable institution in the country and could send 
the message of a loss in confidence with the EAF, which could have 
severe repercussions.

    92. Senator Ayotte. General Mattis, why should the United States 
sell F-16s to Egypt?
    General Mattis. Egypt is critical to the stability of CENTCOM's AOR 
and our continued support of the military, including sales of F-16 
aircraft, is crucial to maintaining U.S. relevance within the country. 
The excellent military relationship we have with Egypt plays a central 
role in protecting our interests, to include ready access to Egyptian 
airspace and the Suez Canal, which are must-have requirements for 
operations in the central region. U.S. assistance to Egypt is crucial 
to military modernization and development of advanced capabilities 
which promotes the high level of trust that the military experiences 
within the country. As Egypt goes through the challenges of building a 
new democracy, their military will play a vital role in the success or 
failure of that endeavor. We must maintain our support and I fully 
endorse the continuation of our FMS and International Military 
Education and Training programs without condition. The Egyptian 
military has made it clear they value this bilateral relationship and 
we want to encourage their continued regard for the United States and 
their emulation of U.S. goals and values. To build influence and 
preserve U.S. credibility in this region, we have to deliver on the 
promises of American assistance for Egypt's ongoing transition. 
Delaying or canceling the delivery of these aircraft risks sending a 
message of a loss in confidence with the Egyptian military, which could 
have severe repercussions.

                 INVESTMENTS IN TECHNOLOGICAL ADVANCES

    93. Senator Ayotte. Admiral McRaven, I'm concerned that the budget 
environment will constrain SOCOM's ability to continue to invest in and 
develop technological advances for the future. Do you share this 
concern, and how do you see the role of private capital and COTS 
systems in helping you to continue to make progress in fulfilling your 
critical missions?
    Admiral McRaven. Fiscal constraints in the current budget 
environment do create concerns that must be met by focusing SOCOM 
investments that optimize SOF's agility, relevance, and responsiveness. 
SOCOM's research, development, testing, and engineering (RDT&E) budget 
is absolutely critical for providing SOF with cutting-edge systems and 
capabilities. SOCOM continues to anticipate and proactively manage and 
develop both near-term and mid- to far-term future force revolutionary, 
game-changing capabilities that allow SOF to maintain their comparative 
advantage for executing critical mission sets. SOCOM continues to 
leverage external capital opportunities with government, private 
industry, and academia through focused engagements on SOF specific 
priorities. When feasible, COTS systems are modified to meet SOF 
requirements. For example, commercial vehicles are bought and modified 
as part of SOCOM's Special Operations Research and Development 
Acquisition Center (SORDAC) Program Executive Office-SOF Warrior's 
FOSOV program. When it makes economic sense, SORDAC PEOs will continue 
to utilize COTS systems as a means to provide increased capabilities 
into Programs of Record.

    94. Senator Ayotte. Admiral McRaven, when evaluating the relative 
affordability of various platforms, does SOCOM take into account the 
effects of repetitive, high-impact shock on SEALS, for example, and the 
associated costs of shorter careers and increased health expenses?
    Admiral McRaven. SOCOM is very concerned with the effects of shock 
on the warfighter and has undergone several initiatives to account for 
the effects of repetitive, high-impact shock on both Special Warfare 
Combatant-Craft Crewman and SEALS.
    Efforts are currently underway to capture the effects of shock on 
the operator which include the Combatant-Craft Crewmen Rapid Enhancing, 
Sustaining, and Tracking (CREST) project. CREST is a synergistic 
clinical and translational study investigating the impact of peak 
health and performance on the readiness of Navy Special Warfare (NSW) 
Combatant-Craft Crewmen high-speed boat operators. We have evaluated an 
Aft Lifting Body (ALB) which incorporated shock mitigation technologies 
on rigid inflatable boats to decrease shock on the operator. The CREST 
program and the ALB technology remain in development.
    While studying and mitigating the effects of shock on the operator 
are important, we must also ensure we are investing in the physical 
capability of the individual operator to withstand the rigors of their 
trade. The NSW Tactical Athlete Program is a physical resiliency 
program that maximizes physical performance by providing the highest 
levels of musculoskeletal care and physical training. This properly 
prepares our operators for the crucibles that they operate within, as 
well as reduce injuries and subsequent recovery times.
    Additionally, as SOCOM develops the technical specification for new 
combatant craft systems, we are including specific requirements that 
address reduced shock on the operator and incorporate lessons learned.
    SOCOM is committed to understanding the impact of shock on the 
operator and recognizes shock mitigation as a critical enduring 
requirement consistent with preservation of the force.

    95. Senator Ayotte. Admiral McRaven, are you aware of the small 
company, Juliet Marine, that has made some dramatic advances in small 
high-speed/stable boat design and propulsion? Juliet Marine's GHOST 
craft is a small waterplane area twin hull design that incorporates 
high performance gas turbine engines and a propulsion and control 
system that operates at very high speeds (50+ knots), long ranges (900+ 
nautical miles), and with great stability. It is an existing capability 
that might be very useful to SOCOM.
    Admiral McRaven. Yes, I am aware of the company from New Hampshire. 
SOCOM remains in contact with the Office of Naval Research and the 
Navy, who are more directly involved with the progress of this vessel. 
SOCOM continues to stay engaged with industry and the other Services as 
technology matures through multiple forums. SOCOM will always have the 
need for innovative ideas to meet current and future maritime mobility 
missions.

                              ACQUISITION

    96. Senator Ayotte. General Mattis, how would you rate the ability 
of U.S. Forces to address the anti-access/area denial threats in your 
AOR?
    General Mattis. The anti-access/area denial threats in the CENTCOM 
AOR are real and numerous. Mines, coastal defense cruise missiles, 
small boats armed with torpedoes and cruise missiles, and submarines 
are among the more prevalent threats that can be unleashed in the midst 
of conflict. U.S. contingency plans take these threats into account and 
our military forces stand ready to detect and immediately respond to 
actions that threaten the free flow of commerce through strategic 
chokepoints throughout the region. This is not a Navy-only challenge, 
and requires a joint and combined solution.

    97. Senator Ayotte. General Mattis, what do you see as the most 
significant deficiencies?
    General Mattis. The most significant deficiency for dealing with 
regional anti-access and area denial threats lies with our maritime 
mine clearance capacity and capability. Finding, fixing, and 
neutralizing maritime mines is a long process which can only begin once 
local air and maritime superiority have been attained. Additional mine 
counter-measure ships, technological innovation, and coalition partners 
can all contribute to the mitigation of this threat, but it will still 
be a long operation that is likely to disrupt commerce and transport 
through the region for some time.

    98. Senator Ayotte. General Mattis, how important do you think it 
is to get cutting edge capabilities into the hands of operators so that 
they can help to inform future development, come up with new ways of 
operating, and stay ahead of the enemy?
    General Mattis. The operational requirement is central to 
understanding our technical capability gaps which underpin much of what 
we do in the headquarters. What we learn is used as feedback to inform 
the RDT&E community to improve our capability. Our understanding only 
goes so far however, and early experience with a new capability has 
shown to be a better driver of making capability improvements. Our goal 
has always been to get technology into the hands of the warfighter as 
early as possible so they may experiment and adapt new and novel 
technologies to suit their specific operational needs. To that end, I 
minimalized barriers so as to enable operational experimentation with 
no potential loss of life, no mission failure, and no operational 
distraction.

    99. Senator Ayotte. General Mattis, does DOD have the right 
mechanisms in place to be able to facilitate this kind of interaction?
    General Mattis. Yes. DOD adapted peacetime acquisition and fielding 
processes to quick-turn promising technologies; enabling rapid 
development, fielding, and continued sustainment. The Services, in 
general, developed in-theater monitoring and mechanisms to absorb new 
capability, quickly integrate it into operations, and enhance feedback 
between warfighters and developers. However, these processes were 
rapidly established and in some cases, ad hoc in nature. We should take 
the lessons learned from over a decade of facing an adaptive and 
thinking adversary, to institutionalize those processes which will 
enable us to maintain technical battlespace superiority.

    100. Senator Ayotte. Admiral McRaven, what can the Services learn 
from SOCOM in terms of improving acquisition processes?
    Admiral McRaven. The fifth SOF Truth--``Most SOF operations require 
Services' support''--is as true in acquisition as it is in operations. 
The Services provide direct support for the acquisition of many of our 
platforms, including the AC/MC-130J, MH-60M, et cetera. The Services 
also provide the fully-trained acquisition/contracting/finance/
logistics personnel that perform these activities for SOCOM.
    SOCOM also benefits from having all title 10 authorities--funding, 
the requirements process, and acquisition--aligned under a single four-
star commander. SOCOM acquisition processes follow all of the same 
laws, policies, and procedures as the rest of DOD. The size of our 
portfolio, which is less than 2 percent of the DOD budget and 
consisting of only one ACAT II and three ACAT III programs, allows us 
to streamline decision and reporting chains. In addition, SOCOM 
operators are highly trained and adaptable; this mature user may be 
able to take an 80 percent solution and make it 90 to 100 percent 
effective. The ability to tailor our requirements and acquisition 
processes, coupled with a mature user, enables our staff to make 
requirements and programmatic changes in a rapid manner, working hand-
in-hand with all of the stakeholders.
    These unique attributes of SOCOM acquisition mean that not all of 
our approaches are scalable to the Services. OSD and the Services have 
adopted SOCOM processes, where applicable. Specifically, the Joint 
Rapid Acquisition Cell acquisition model was based on the SOCOM Combat 
Mission Needs Statement and Urgent Deployment Activity processes.

    101. Senator Ayotte. General Mattis, does CENTCOM still have a 
requirement for THAAD fire control and precision track information to 
the BMDS?
    General Mattis. [Deleted.]

    102. Senator Ayotte. General Mattis, does a requirement for 
persistent surveillance and integrated fire control still persist in 
the CENTCOM AOR?
    General Mattis. Yes. CENTCOM forces and coalition partners will 
have only minimal time to react to missile launches in the Arabian 
Gulf. Rapid identification, verification, geolocation, and kinetic 
targeting of such threats are a must (find-fix-finish).

    103. Senator Ayotte. General Mattis, what would the addition of a 
JLENS orbit add to CENTCOM's ability to address cruise missile and 
surface moving threats to the Fifth Fleet and missile defense assets in 
the region?
    General Mattis. Persistent ISR systems such as JLENS, specifically 
designed for missile detection and tracking, would help to counter 
threats such as those posed to U.S. Forces in the Gulf. However, JLENS 
is not currently a program of record and is still in testing. If this 
system does become available for worldwide operational use, JLENS will 
offer persistent and multi-sensor capabilities optimized for point area 
defense. The fact that JLENS is tethered will prove a limitation 
requiring substantial planning and de-confliction to overcome the 
impact to air navigation, especially in nations who only grant the 
United States limited use of their airspace.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                      CENTRAL COMMAND REQUIREMENTS

    104. Senator Vitter. General Mattis, does a requirement for 
persistent surveillance and integrated fire control still persist in 
the CENTCOM AOR?
    General Mattis. Yes. CENTCOM forces and coalition partners will 
have only minimal time to react to missile launches in the Arabian 
Gulf. Rapid identification, verification, geolocation, and kinetic 
targeting of such threats are a must (find-fix-finish).

    105. Senator Vitter. General Mattis, what would the addition of a 
JLENS orbit add to CENTCOM's ability to address cruise missile and 
surface moving threats to the Fifth Fleet and missile defense assets in 
the region?
    General Mattis. Persistent ISR systems such as JLENS, specifically 
designed for missile detection and tracking, would help to counter 
threats such as those posed to U.S. Forces in the Gulf. However, JLENS 
is not currently a program of record and is still in testing. If this 
system does become available for worldwide operational use, JLENS will 
offer persistent and multi-sensor capabilities optimized for point area 
defense. The fact that JLENS is tethered will prove a limitation 
requiring substantial planning and de-confliction to overcome the 
impact to air navigation, especially in nations who only grant the 
United States limited use of their airspace.

    106. Senator Vitter. General Mattis, does a requirement for THAAD 
fire control and precision track information to the BMDS persist in the 
CENTCOM AOR?
    General Mattis. [Deleted.]

    u.s. counterterrorism and intelligence strategy and capabilities
    107. Senator Vitter. Admiral McRaven, in the months leading up to 
the September 11, 2012, attacks on the U.S. compound in Benghazi, there 
were 13 viable threats and 2 bombings on that very compound, and 
increasing threats to and attacks on Libyan nationals hired to work 
security at American diplomatic posts in Tripoli and Benghazi, causing 
the consulate to request more security. Given the long list of non-
classified warning signs leading up to September 11, 2012, what was the 
special operations/Intelligence Community focusing on if not emerging 
trends?
    Admiral McRaven. SOCOM intelligence monitors global emerging 
trends, developing crises, and opportunities for operational solutions 
for assigned missions. The preponderance of SOCOM headquarters 
analytical efforts are focused on support to special operations plans 
and future operations with special emphasis on Phase Zero 
Unconventional and Irregular Warfare analysis and/or assessments. 
Tactical intelligence that is of immediate concern to the operator is 
generally the purview of the geographic combatant commander and their 
joint intelligence centers.

    108. Senator Vitter. Admiral McRaven, in Libya, U.S. Government 
reports indicate that there was a large failure on the part of the 
guards hired to protect the U.S. embassy. To your knowledge, what 
actions are being taken within DOD and the Intelligence Community to 
ensure that the U.S. Government is effectively transferring and 
disseminating critical information, and to ensure those hired have 
adequate training that can be relied upon?
    Admiral McRaven. The Intelligence Community has an extensive 
network of secure and unsecure communication methods by which we share 
real-time data and assessments with U.S. and partner-nation analysts 
and decisionmakers. We remain confident in the ability to rapidly 
disseminate and share critical information such as threats to force 
protection.
    Questions regarding standards and training for hired guards 
assigned to U.S. diplomatic facilities should be directed to the DOS.

    109. Senator Vitter. Admiral McRaven, how reliable is the 
information we have on what is happening on the ground in the SOCOM 
AOR?
    Admiral McRaven. SOCOM's AOR is global in that we synchronize DOD 
planning for global operations against terrorist networks. Our average 
persistent presence includes personnel in approximately 78 countries at 
any given time.
    The reliability of our information on any particular topic is 
dependent on myriad factors including, but not limited to, the quality 
and nature of the source (e.g. Signals Intelligence, Human 
Intelligence, Imagery Intelligence, et cetera), and whether there is 
corroborating data. We also consider contradictory reporting, the 
timeliness of the information, whether or not critical gaps in 
collection exist, and other factors such as regional stability and 
access to the area of interest.

    110. Senator Vitter. Admiral McRaven, were there indicators to 
which SOCOM was aware which had they been given greater weight would 
have shown that the Libyan Government's response would be profoundly 
lacking prior to the night of September 11, 2012?
    Admiral McRaven. No. We are unaware of any pre-September 11, 2012, 
assessments or indicators concerning the Libyan Government's potential 
response in the event of an attack on our Benghazi facility.

    111. Senator Vitter. Admiral McRaven, in Libya, large quantities of 
weapons have recently entered into free circulation where there is 
little or no government control over them. Is it within SOCOM's AOR to 
take actions or look into ways to mitigate Libya from once again 
becoming the arsenal of terrorism that it once was during the 1970s and 
1980s?
    Admiral McRaven. If directed by the President of the United States 
or the Secretary of Defense, SOCOM can conduct counterterrorism 
missions worldwide. However, because Libya is in U.S. African Command's 
(AFRICOM) AOR, AFRICOM has primary responsibility to plan and conduct 
missions to mitigate any threats emanating from Libya. SOCOM's Theater 
Special Operations Command, Special Operations Command-Africa, is under 
operational control of AFRICOM, and directly supports AFRICOM directed 
missions. SOCOM has responsibility to synchronize counterterrorism 
planning and activities worldwide, which would include synchronization 
of planning by AFRICOM to mitigate terrorist threats in Libya. However, 
AFRICOM would retain mission control of any forces operating in its 
AOR.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt

                                BAHRAIN

    112. Senator Blunt. General Mattis, on March 6, 2012, you testified 
before this committee on the CENTCOM posture. You said, ``The deep 
U.S.-Bahrain security relationship is the cornerstone for our 
collective security in the Gulf region,'' adding that ``Bahrain 
provides key support for U.S. interests by hosting U.S. Navy's 5th 
Fleet and providing facilities for other U.S. Forces engaged in 
regional security.'' Can you please describe 1 year after your 
testimony how U.S.-Bahrain military cooperation continues to evolve and 
how the Defense Authorization Request for Fiscal Year 2014 will ensure 
that security relations with Bahrain remain strong?
    General Mattis. The Kingdom of Bahrain has a long history of 
cooperation with the United States and hosts the U.S. 5th Fleet and 
U.S. Naval Forces Central Command, CENTCOM's only permanent forward-
based component. We have a significant strategic interest in Bahrain 
and have worked diligently with the DOS to influence political reform 
in Bahrain while maintaining a strong military-to-military 
relationship. Bahrain remains a staunch ally in the fight against 
terrorism and contributes significantly to the security of the region. 
Additionally, the Bahraini Ministry of Interior's Special Security 
Forces Company recently concluded their sixth and last deployment to 
Afghanistan, plus Bahrain hosted and participated in the International 
Mine Counter Mine Exercise in September.
    The U.S.-Bahrain military-to-military relationship remains strong. 
Unfortunately, there are indications the 10 FMS items on policy hold 
will strain this relationship in the near future, especially since 
Bahrain already paid for several of the items with their own national 
funds. The Defense Authorization Request for Fiscal Year 2014 for 
Bahrain is in line with our common interests to maintain access, 
increase interoperability, and develop an integrated defense from Iran.

    [Whereupon, at 12:32 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 7, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

          U.S. AFRICA COMMAND AND U.S. TRANSPORTATION COMMAND

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Manchin, 
Blumenthal, Donnelly, King, Inhofe, McCain, Ayotte, Fischer, 
Graham, and Blunt.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; and Michael J. Noblet, professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Ambrose R. Hock, professional staff member; 
Anthony J. Lazarski, professional staff member; and Lucian L. 
Niemeyer, professional staff member.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, and Lauren M. Gillis.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Mara Boggs, assistant to Senator Manchin; Marta 
McLellan Ross, assistant to Senator Donnelly; Nick Ikeda, 
assistant to Senator Hirono; Karen Courington, assistant to 
Senator Kaine; Christian Brose, assistant to Senator McCain; 
Lenwood Landrum, assistant to Senator Sessions; Todd Harmer, 
assistant to Senator Chambliss; Peter Schirtzinger, assistant 
to Senator Fischer; Craig Abele, assistant to Senator Graham; 
Joshua Hodges, assistant to Senator Vitter; and Charles Prosch, 
assistant to Senator Blunt.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. I want to welcome 
our witnesses, General William M. Fraser III, USAF, Commander 
of the U.S. Transportation Command (TRANSCOM), and General 
Carter F. Ham, USA, Commander of U.S. Africa Command (AFRICOM), 
to testify this morning on the programs and the budget that's 
needed to meet the current and the future requirements within 
their respective commands. Please extend on behalf of our 
committee our gratitude to the men and women of your commands 
and their families for the many sacrifices that they've made on 
behalf of our Nation. Thanks to both of you for your long 
careers of leadership and service.
    General Ham, this is likely to be your final posture 
hearing. So on behalf of the committee, let me say that we've 
enjoyed working with you in various positions. We wish you and 
your family all the best as you embark upon another adventure 
in your life. Your job as Commander of AFRICOM has been truly 
challenging, coordinating and conducting a major multinational 
effort, and in building relationships throughout the continent 
of Africa. You and your staff at AFRICOM are to be commended 
for your performance in this effort. We thank you, sir.
    The multitude of security and military-related challenges 
across your area of responsibility (AOR) have been well-known 
to the committee since the inception of AFRICOM. The issues 
associated with postwar Libya, ongoing conflict in Somalia, 
evolving threats in Northwest Africa, Sudan's support to Iran 
and its proxies, and enduring regional conflicts in Central 
Africa continue and in some cases have gained momentum since 
the command was stood up.
    Given the Department of Defense's (DOD) economy of force 
effort in the AFRICOM AOR, this committee has sought to provide 
AFRICOM greater flexibility and broader authorities to respond 
to the unique threats faced by your command, General Ham. We 
look forward to learning more about the challenges that you 
face today and how we could enhance your command's ability to 
conduct operations.
    There are three areas I want to call out for special 
attention. First, the attack in Benghazi last September was a 
poignant and powerful reminder of our need and the public's 
expectation for a capability to respond in real time to crises 
around the world. This committee recently heard from the 
Secretary of Defense and from General Dempsey on the 
Department's response to the Benghazi attack. It is clear that 
AFRICOM continues to struggle to secure basing rights and 
access which would allow for such a response or allowing us to 
conduct day-to-day certain military operations with partners in 
the region. Moreover, AFRICOM has received less in the way of 
resources and support than other geographic commands, and this 
problem indeed may grow in a resource-constrained environment.
    So we look forward to learning of the action that the 
Department has taken to ensure AFRICOM is equipped in the 
future to respond to or, more importantly, secure the 
intelligence to warn of such an impending attack.
    Second, AFRICOM's efforts to combat the threat posed by 
al Qaeda, its associated forces, and other violent extremists 
have seen some success, but new challenges to sustaining 
progress seem to emerge daily. In Somalia, AFRICOM's 
investments are showing promise as the African Union forces 
continue to expand their territorial control and the nascent 
Somalia Government is provided additional time and space to 
build its capacity and its capabilities. The committee looks 
forward to learning of Africa's plan to consider building a 
more traditional military-to-military relationship with the 
Somali military.
    The military operations led by General Ham which helped 
bring about the fall of the Qadafi regime and the resulting 
outflow of small arms and other advanced munitions has 
drastically changed the security dynamics in North Africa. Over 
the past few months, al Qaeda in the Lands of the Islamic 
Maghreb (AQIM) has used its kidnapping ransoms to destabilize 
the nation of Mali and to threaten nations across the region.
    While successful French military action enabled by 
intelligence and aerial refueling support from AFRICOM has 
forced AQIM out of the population centers in northern Mali, the 
threat of terrorism emanating from Northwest Africa remains 
potent and the region is likely to be a source of instability 
for years to come. That instability is complicated further by 
key smuggling routes that move drugs, weapons, terrorists, and 
money which finance terrorist and other transnational criminal 
activity around the world. This committee looks forward to 
hearing your views, General Ham, on this dynamic situation as 
well.
    Lastly, Operation Observant Compass, AFRICOM's named 
operation to assist the multinational military effort to remove 
Joseph Kony and his top lieutenants from the battlefield, 
remains of great interest to this committee. This is something 
where Senator Inhofe has been particularly involved and taken a 
leadership role. This committee has sought to ensure that this 
mission is adequately resourced, with additional intelligence, 
surveillance, and reconnaissance (ISR) capabilities as well as 
flexible logistics authorities to better support the 
nontraditional composure of this operation.
    General Ham, we look forward again to your assessment of 
those operations and a report of hopefully any progress that's 
been made during the last year.
    General Fraser, we know that things have been busy for you 
as well ever since you assumed your command at TRANSCOM. 
TRANSCOM has played a critical role in supporting our war 
efforts in Iraq and Afghanistan. TRANSCOM now faces the 
daunting task of returning thousands upon thousands of items of 
equipment and containers of material as we withdraw our forces 
from Afghanistan.
    Less well known, but no less important, has been TRANSCOM's 
role in supporting various humanitarian and relief efforts 
around the world. We applaud those efforts as well.
    TRANSCOM is also facing threats to its infrastructure on a 
day-to-day basis. At TRANSCOM you communicate over the 
unclassified Internet with many private sector entities that 
are central to DOD's ability to support deployment operations 
in the transportation and the shipping industries, in 
particular. Much of the other critical communications and 
operations of DOD can be conducted over the classified DOD 
Internet service, which is not connected to the public Internet 
and therefore is much more protected against eavesdropping and 
disruption by computer network attacks.
    You've been quoted in the press, General, as stating that 
TRANSCOM is the most attacked command in DOD, and we'd like to 
hear today about what those challenges are and any progress 
that you've made in dealing with the problems.
    TRANSCOM is facing many other challenges. The Ready Reserve 
Force, a group of cargo ships held in readiness by the Maritime 
Administration, is aging and will need to be modernized with 
newer ships over the next 10 years. Sealift support is critical 
to our capabilities. We have relied on sealift to deliver more 
than 90 percent of the cargo to Iraq and Afghanistan.
    Another challenging area is the Civil Reserve Air Fleet 
(CRAF) program. I'm going to put my remarks about that program 
in the record.
    Finally, this committee has sought to ensure that combatant 
commanders have what they need to succeed in their missions and 
we will continue to support the requirements of our warfighters 
in these conflicts. However, this year's posture hearings with 
our combatant commanders are being held under the specter of 
budget sequestration, which threatens to impose arbitrary cuts 
on our military forces unrelated to our national security 
requirements. As the committee heard last Tuesday, 
sequestration is already having an operational impact in the 
U.S. Central Command (CENTCOM) area, for instance.
    So, General Ham and General Fraser, please address the 
impacts and the risks associated with sequestration and the 
expiration of the Continuing Resolution (CR), which is also 
looming, as it applies to your commands.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    I want to welcome our witnesses, General William Frazer, Commander 
of U.S. Transportation Command (TRANSCOM) and General Carter Ham, 
Commander of U.S. Africa Command (AFRICOM) to testify this morning on 
the programs and budget needed to meet the current and future 
requirements within their respective commands.
    Please extend, on behalf of the committee, our gratitude to the men 
and women of your commands and their families for the many sacrifices 
that they have made on behalf of our Nation. And thanks to both of you 
for your long careers of leadership and service.
    General Ham--this is likely to be your final posture hearing. On 
behalf of the committee, let me say that we have enjoyed working with 
you in various positions, and we wish you and your family all the best 
as you embark upon another adventure in your life. Your job as 
Commander of AFRICOM has been truly challenging in conducting and 
coordinating a major multinational efforts and in building 
relationships throughout the continent. You and your staff at AFRICOM 
are to be commended for your performance in this effort.
    The multitude of security and military-related challenges across 
your area of responsibility (AOR) have been well known to this 
committee since your command's inception. The issues associated with 
post-war Libya, ongoing conflict in Somalia, evolving threats in 
northwest Africa, Sudan's support to Iran and its proxies, and enduring 
regional conflicts in central Africa continue, and--in some cases--have 
gained momentum since that time. Given the Department of Defense's 
(DOD) economy of force effort in the AFRICOM AOR, this committee has 
sought to provide the AFRICOM greater flexibility and broader 
authorities to respond to the unique threats faced by your command. 
General Ham, we look forward to learning more about your challenges 
today and are prepared to further enhance your command's ability to 
conduct operations.
    There are three areas I want to call out for special attention. 
First, the attack in Benghazi last September was a poignant and 
powerful reminder of our need--and the public's expectation--for a 
capability to respond in real-time to crises around the world. This 
committee recently heard from the Secretary of Defense and General 
Dempsey on the Department's response to that attack. It is clear that 
AFRICOM continues to struggle to secure basing rights and access 
allowing for such a response, or allowing us to conduct day-to-day 
certain military operations with partners in the region. Moreover, 
AFRICOM has received less in the way of resources and support than 
other geographic commands, and this problem indeed may grow in a 
resource-constrained environment. We look forward to learning of the 
action the Department has taken to ensure AFRICOM is equipped in the 
future to respond or--more importantly--to secure the intelligence to 
warn of such an impending attack.
    Second, AFRICOM's efforts to combat the threat posed by al Qaeda, 
its associated forces, and other violent extremists have seen some 
success, but new challenges to sustained progress emerge daily. In 
Somalia, AFRICOM's investments are showing promise as the African Union 
forces continue to expand its territorial control and the nascent 
Somali Government is provided additional time and space to build its 
capacity and capabilities. The committee looks forward to learning of 
AFRICOM's plan to consider building a more traditional military-to-
military relationship with Somali military.
    The military operations led by General Ham, which helped bring 
about the fall of the Qadhafi regime and the resulting outflow of small 
arms and other advanced munitions, has drastically changed the security 
dynamics in North Africa. Over the past few months, al Qaeda in the 
Lands of the Islamic Maghreb (AQIM) has used its kidnapping ransoms to 
destabilize the Nation of Mali and to threaten nations across the 
region. While successful French military action--enabled by 
intelligence and aerial refueling support from AFRICOM--has forced AQIM 
out of the population centers in northern Mali, the threat of terrorism 
emanating from Northwest Africa remains potent and the region is likely 
to be a source of instability for years to come. That instability is 
complicated further by key smuggling routes that move drugs, weapons, 
terrorists, and money, which finance terrorist and other transnational 
criminal activity around the world. General Ham, this committee looks 
forward to hearing your views on this dynamic situation.
    Lastly, Operation Observant Compass--AFRICOM's named operation to 
assist the multinational military effort to remove Joseph Kony and his 
top lieutenants from the battlefield remains of great interest to the 
committee. This committee has sought to ensure this mission is 
adequately resourced with additional intelligence, surveillance and 
reconnaissance capabilities, as well as flexible logistics authorities 
to better support the nontraditional composure of this operation. 
General Ham, we look forward to your assessment of these operations and 
a report on any progress during the past year.
    General Fraser, we know that things have been busy for you as well 
ever since you assumed your job at TRANSCOM. TRANSCOM has played a 
critical role in supporting our war efforts in Iraq and Afghanistan. 
TRANSCOM now faces the daunting task of returning thousands upon 
thousands of items of equipment and containers of materiel as we 
withdraw our forces from Afghanistan. Less well known, but no less 
important, has been TRANSCOM's role in supporting various humanitarian 
and relief efforts around the world. We applaud those efforts as well.
    TRANSCOM is also facing threats to its infrastructure on a day-to-
day basis. At TRANSCOM, you communicate over the unclassified Internet 
with many private-sector entities that are central to DOD's ability to 
support deployment operations--in the transportation and shipping 
industries in particular. Much of the other critical communications and 
operations of the Defense Department can be conducted over the 
classified DOD internet service, which is not connected to the public 
Internet and is therefore much more protected against eavesdropping and 
disruption by computer network attacks. You have been quoted in the 
press as stating that TRANSCOM is the most attacked command in the 
Department. We would like to hear today about any progress you have 
made in dealing with these problems.
    TRANSCOM is facing many other challenges. The Ready Reserve Force 
(RRF), a group of cargo ships held in readiness by the Maritime 
Administration, is aging and will need to be modernized with newer 
ships over the next 10 years. Sealift support is critical to our 
capabilities. We have relied on sealift to deliver more than 90 percent 
of the cargo to Iraq and Afghanistan, which is similar to previous 
contingencies.
    Another challenging area is the Civil Reserve Air Fleet (CRAF) 
program. DOD relies heavily on the CRAF program to provide wartime 
capability, depending upon CRAF to provide as much as 40 percent of 
wartime needs. TRANSCOM and DOD need to ensure that the CRAF 
participants can continue to provide that surge capacity in the future.
    This committee has sought to ensure that our combatant commanders 
have what they need to succeed in their missions and will continue to 
support the requirements of our warfighters in these conflicts.
    However, this year's posture hearings with the combatant commanders 
are being held under the specter of budget sequestration, which 
threatens to impose arbitrary cuts on our military forces unrelated to 
our national security requirements. As the committee heard on Tuesday, 
sequestration is having an operational impact in the CENTCOM area. 
General Ham and General Fraser, please address the impacts and risks 
associated with sequestration and the expiration of the Continuing 
Resolution as it applies to your commands.

    Chairman Levin. Thank you.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I think your 
opening comments covered pretty much all of it and I do agree 
with your concerns.
    I know, General Ham, it's hard for me to believe that it's 
been 2 years now that you've been at that helm. We talked about 
some of the problems that were coming up when you came on the 
job and some of those problems are still there. We'll have a 
chance to talk about that and I appreciate it.
    General Fraser, thanks to both of you for your service.
    Six weeks ago, back when we were talking about the 
sequestration, I made the comment that if it becomes 
inevitable, which I didn't think was the case at the time, 
several of us had legislation that would have changed that, 
including some individuals at this table. However, I said, in 
the event that it becomes a reality, and we have to live with 
the top line that has been dictated, wouldn't it be better if 
the decisions that were made to reach that were made by the 
Service Chiefs?
    I spoke to all Service Chiefs and they all agreed. Number 
one, that that would be less devastating; and number two, that 
it would be something that they would have time to do and put 
it together. I think that's happened. We know that the House 
has a program that's primarily the CR. It doesn't really 
address sequestration quite as much.
    I would like to get a response from you, if you think 
that's a good idea. Hopefully, that still might be a 
possibility, that we can get the expertise of the Service 
Chiefs making these decisions as opposed to the President with 
his formula of across-the-board.
    The AFRICOM AOR has 54 countries and 12 million square 
miles. I felt pleased when we were able to establish AFRICOM as 
a separate command. However, I still believe it's under-
resourced, and I've talked to you about that in the past. As 
the squeeze takes place in the Middle East, we have terrorism 
going down through Djibouti and the Horn of Africa. We know 
what's happening down there. It's not just in North Africa, 
it's spreading.
    The chairman spoke about Joseph Kony, I know that's a tough 
thing to deal with. But this isn't just one madman who's 
mutilating kids. This is a part of a terrorist organization and 
it has to be treated that way. It's been tough, heavy lifting 
for you. So I know you've done a great job and I look forward 
to asking more specific questions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    General Ham.

  STATEMENT OF GEN CARTER F. HAM, USA, COMMANDER, U.S. AFRICA 
                            COMMAND

    General Ham. Thank you very much, Mr. Chairman, Senator 
Inhofe, and members of the committee. Thank you especially for 
this opportunity to discuss the contributions of the women and 
men of AFRICOM. I'm honored to be here today with my friend and 
colleague, General Will Fraser, whose support has been so 
essential to our activities in Africa.
    This year marks the fifth anniversary of the formation of 
AFRICOM. We've evolved considerably since 2008, driven in part 
by events on the ground and in part by our own rethinking about 
the mission. Our operational capabilities and capacities have 
markedly increased and our security cooperation engagements 
have matured both in focus and effectiveness.
    Our approach seeks to address the near-term threats to our 
national security while simultaneously building partnerships 
and fostering regional cooperation which contribute to 
achieving longer-term U.S. objectives in Africa.
    This past year has seen significant positive developments 
in Africa as well as some sobering reminders of the threats 
inherent in the continent's security challenges. Mr. Chairman, 
as you mentioned, in East Africa, Al-Shabaab has been weakened 
by the sustained operations of African forces with the support 
and enabling assistance from the United States and others. 
Somalia still faces significant political, economic, and 
security challenges, but the Somali people now have something 
they haven't had for a very long time: hope for a better 
future. I'm proud that we've played a role in that.
    In Central Africa, African troops, advised and assisted by 
U.S. Special Forces, have achieved some significant tactical 
gains against the Lord's Resistance Army (LRA) and its leader, 
Joseph Kony. Today, we are seeing increased levels of LRA 
defections, fewer LRA attacks, and enhanced cooperation between 
the military forces in the region.
    In the Gulf of Guinea, maritime forces of the many nations 
in the region are increasingly cooperating to counter piracy, 
oil bunkering, and illicit trafficking. Most notably, two of 
the African Union's regional economic communities, the Economic 
Communities of West African States and Central Africa States, 
have for the very first time crafted rules and procedures that 
facilitate maritime security cooperation. I'm very proud that 
AFRICOM has helped bring these nations and these regional 
organizations together.
    I highlight these three, Somalia, counter-LRA, and Gulf of 
Guinea security, because they, at least to me, offer great 
examples of what can be achieved through an African-led 
endeavor to which we provide support and enabling capabilities. 
The next area where such an approach may be useful is Mali. 
We've supported France's request for assistance and are 
actively supporting African nations deploying to operate in 
Mali.
    Mr. Chairman, Senator Inhofe, while the increasing 
willingness of many African partners to actively address shared 
threats is encouraging, other trends in the region are deeply 
concerning. Terrorist organizations in West and North Africa 
are increasing their connectivity. The loss of four Americans 
in Libya and three more in Algeria underscores the threat 
presented by this growing network. Although each terrorist 
organization individually poses a threat to regional stability, 
the increasing collaboration amongst these organizations 
increases the danger that they collectively present. I'm 
convinced that if left unchecked, this network will develop 
into one that poses a greater and more imminent threat to U.S. 
interests.
    Countering the spread of violent extremist organizations 
has been our top priority. At the same time, we're tasked to 
focus on prevention through a very active partnership strategy. 
It remains clear that Africans must solve Africa's problems.
    The fiscal challenges that you mention now place AFRICOM's 
strategy to strengthen the capabilities of our partners at 
increased risk. I'm concerned about the impacts resulting from 
the combined effects of sequestration and the CR. We've already 
had to make difficult decisions based on the availability of 
funds, such as reducing reconnaissance flights. The budget 
reductions we face will cut theater security cooperation 
engagements and will reduce important joint and combined 
exercises. As the Chairman of the Joint Chiefs, General 
Dempsey, has made clear, we will, in fact, be doing less with 
less.
    We at AFRICOM, with the engaged support of the Service 
Chiefs, though, are not idly sitting on our hands. We're 
looking for new and innovative ways to address the many 
challenges in Africa. The Army's regionally aligned force, 
Navy's Africa Partnership Station, and the Air Force 
counterpart, Africa Partnership Flight, are programs the 
Services have purposely designed to help us achieve our 
objectives. We look forward to the capabilities of the Marine 
Corps' new Special Purpose Marine Air-Ground Task Force, which 
will bring improvements in our crisis response capabilities.
    Let me conclude by simply stating that it's been my great 
honor to serve with the dedicated soldiers, sailors, airmen, 
marines, coastguardsmen, civilians, and colleagues from across 
the U.S. Government who serve so unselfishly every day to 
advance our Nation's interests in Africa. I depart in about a 
month, knowing that AFRICOM is in the best of hands. General 
Dave Rodriguez is an exemplary leader and an old friend. It'll 
be my privilege to see him lead the women and men of AFRICOM 
well into the future.
    Lastly, Mr. Chairman, Senator Inhofe, members, I thank this 
committee for its unfailing support of our troops, their 
families, and of AFRICOM. I look forward to your questions. 
Thank you.
    [The prepared statement of General Ham follows:]

              Prepared Statement by GEN Carter F. Ham, USA

                           MISSION STATEMENT

    U.S. Africa Command protects and defends the national security 
interests of the United States by strengthening the defense 
capabilities of African states and regional organizations and, when 
directed, conducts military operations, in order to deter and defeat 
transnational threats and to provide a security environment conducive 
to good governance and development.

                              INTRODUCTION

    This year marks the fifth anniversary of the formation of the 
command. Since our standup in 2008, our operational capabilities and 
capacities have markedly increased. In parallel, our relationships with 
African partners and our security cooperation engagements have matured 
in both focus and effectiveness. Our integrated approach seeks to 
address the greatest near-term threats to our national security while 
simultaneously building long-term partnerships and fostering regional 
cooperation.
    The past year has witnessed both positive developments and sobering 
reminders of the threats in the U.S. Africa Command Area of 
Responsibility. Many African partners are more capable of addressing 
national and regional security challenges today than they were a year 
ago, and we have strengthened both new and enduring partnerships. In 
Somalia, sustained operations by African forces, with enabling 
assistance from the United States and the international community, 
significantly weakened al-Shabaab, providing space for Somalia's 
transition to a constitutionally-based government. We are deepening our 
relationship with the Tanzanian military, a professional force whose 
capabilities and influence increasingly bear on regional security 
issues in eastern and southern Africa and the Great Lakes region. 
Senegal and Ghana, anchors of regional stability in West Africa, held 
peaceful, democratic elections last year and remain important U.S. 
partners in efforts to counter transnational threats. Similarly, in 
Botswana, a highly capable partner and positive influence throughout 
southern Africa, we are strengthening an enduring partnership grounded 
in shared commitments to democracy and the rule of law. Liberia is 
progressing toward the establishment of a professional, capable 
military that is a force for good, as demonstrated by its border 
deployment in response to Cote d' Ivoirian rebel activities last fall. 
In Libya, a nation that witnessed its first election of the General 
National Congress since the overthrow of Qadhafi, we are developing a 
strong partnership with the new military.
    Despite these positive trends, the regional security environment 
continues to challenge U.S. interests and increase the operational 
demands on U.S. Africa Command. In the past year, the United States 
lost four Americans in deadly attacks in Benghazi and three more in the 
terrorist attack on a British Petroleum facility in Algeria; al Qaeda 
in the Islamic Maghreb (AQIM) emerged stronger and better armed 
following the coup d'etat in Mali; and Boko Haram continued its 
campaign of violence in Nigeria.

                         STRATEGIC ENVIRONMENT

Emerging Terrorist Networks
    As al Qaeda has syndicated its ideology and violence, its 
affiliates and adherents in Africa and the Arabian Peninsula have 
become increasingly networked and adaptable in their recruiting, 
training, financing, and operations. Violent extremist organizations, 
insurgents, and criminal organizations are exploiting weak governance 
and under-governed spaces, and remain determined to harm the United 
States, our partners and Allies, and innocent civilians. The need to 
put pressure on al Qaeda affiliates and adherents in East, North, and 
West Africa has never been greater. The September 2012 attack on the 
U.S. Special Mission Compound and Annex in Benghazi and the January 
2013 attack on the British Petroleum oil facility in Algeria illustrate 
the growing threat posed by violent extremist organizations in Africa 
to U.S. citizens and interests. This network of al Qaeda affiliates has 
already developed into a threat to U.S. regional interests and if left 
unchecked, could pose a threat to Europe and the U.S. Homeland. 
Coordinated approaches that integrate diplomatic, development, and 
military efforts are needed to achieve both short- and long-term 
counterterrorism objectives, including the disruption of terrorist 
financing and undermining of recruitment efforts by violent extremist 
organizations.

Arab Awakening
    The Arab Awakening redefined the North African political landscape 
and continues to impact countries across the region. Two years ago, the 
actions of a single Tunisian citizen catalyzed a wave of change that 
continues to reverberate throughout North Africa and the Middle East. 
The post-revolutionary transitions currently underway in Tunisia and 
Libya are extraordinarily important to the future of these countries 
and to the region and have had significant consequences for regional 
security. The flow of fighters and weapons from Libya to violent 
extremist organizations in northern Mali serves as one example of how 
political instability in one nation can have a profound effect across a 
broad region. The United States has a stake in the success of these 
transitions, not least of all for their potential to serve as a 
powerful repudiation of al Qaeda's false narrative that only violent 
extremism can drive change. U.S. Africa Command's relationships with 
the Tunisian and Libyan militaries have important roles in supporting 
these transitions as new governments in Tunisia and Libya work to 
develop accountable and effective institutions, strengthen civil 
society, and improve security.

Increased Regional and International Integration
    The rising political and economic influence of emerging powers is 
transforming the international system, and this change is evident in 
Africa. Asian economic expansion is inflating global commodities 
prices, a major driver of strong economic growth in some African 
nations. Increased Chinese engagement in pursuit of economic 
development is deepening China's political and economic influence and 
increasing its access in the region. Other rapidly growing economies, 
including Brazil and India, are similarly increasing their engagement 
and investment in Africa. As Africa becomes more fully integrated into 
the global economy, African maritime security is growing in importance 
to the free flow of global commerce. In parallel with Africa's 
continuing integration into global political and economic systems, 
African nations are strengthening their regional economic and political 
integration. African nations and regional organizations are 
increasingly taking a lead role in multilateral responses to regional 
security threats, both within and outside the structure of the African 
Union and the regional standby forces that comprise its continental 
security architecture.

                            COMMAND APPROACH

    U.S. Africa Command's approach reflects strategic guidance provided 
in the National Security Strategy, the Defense Strategic Guidance, the 
National Military Strategy, the Presidential Policy Directive for 
Political and Economic Reform in the Middle East and North Africa (PPD 
13) and the United States Strategy Toward Sub-Saharan Africa. Based on 
this strategic guidance, U.S. Africa Command protects and advances 
vital U.S. national security interests in Africa, including protecting 
the security of the global economic system, preventing catastrophic 
attacks on the homeland, developing secure and reliable partners, 
protecting American citizens abroad, and protecting and advancing 
universal values. These universal values include the respect for and 
protection of human rights, the prevention of mass atrocities, and the 
provision of humanitarian assistance and disaster relief. In Africa, 
military-to-military engagement plays a limited but important role in 
sustaining progress in countries undergoing democratic transitions, as 
well as those emerging from conflict.
    In support of advancing regional peace and security, U.S. Africa 
Command focuses on priority countries, regional organizations, and 
programs and initiatives that build defense institutional and 
operational capabilities and strengthen strategic partnerships. 
Cooperative security arrangements are key to addressing transnational 
threats, and U.S. Africa Command utilizes operations, exercises, and 
security cooperation engagements to foster multilateral cooperation and 
build the capacity of regional and sub-regional organizations. U.S. 
assistance, including focused military support, has contributed to 
significant progress by African forces in the past year in both 
peacekeeping and combat operations.
    U.S. Africa Command's strategic approach addresses both threats and 
opportunities. We simultaneously address the greatest near-term threats 
to our national security while building long-term partnerships that 
support and enable the objectives outlined in the U.S. Strategy Toward 
Sub-Saharan Africa: strengthening democratic institutions; spurring 
economic growth, advancing trade and investment; advancing peace and 
security; and promoting opportunity and development. Countering 
terrorism is the Department of Defense's (DOD) highest priority mission 
in Africa and will remain so for the foreseeable future. While 
prioritizing addressing emerging security challenges through both 
direct and indirect responses, U.S. Africa Command views these 
challenges also as opportunities to deepen enduring relationships, 
strengthen partner capabilities, and foster regional cooperation.
    Our theater strategy and four subordinate regional campaign plans 
guide our operations, exercises and engagements, which focus on five 
functional areas: countering violent extremist organizations; 
strengthening maritime security and countering illicit trafficking; 
strengthening defense capabilities; maintaining strategic posture; and 
preparing for and responding to crises. These activities are primarily 
executed by U.S. Africa Command's components: Army Forces Africa, Air 
Forces Africa, Naval Forces Africa, Marine Forces Africa, Special 
Operations Command Africa, and Combined Joint Task Force-Horn of 
Africa. Our headquarters interagency representatives from nine Federal 
agencies and liaison officers from eight countries are integral to the 
success of U.S. Africa Command's efforts.

                     U.S. AFRICA COMMAND PRIORITIES

Countering Violent Extremist Organizations
    The September 2012 attack on the U.S. Special Mission Compound and 
Annex in Benghazi and the January 2013 attack on the British Petroleum 
oil facility in Algeria are evidence of the growing threat posed to 
Americans and U.S. interests by African violent extremist organizations 
(VEO) and the global VEO network. In the past year, U.S. Africa Command 
worked closely with regional and interagency partners to strengthen 
counterterrorism partnerships grounded in shared security interests, 
assisted partner military forces and U.S. interagency partners in 
discrediting and defeating the appeal of violent extremism, and 
strengthened partner capabilities to provide security as an element of 
responsive governance.
    Three violent extremist organizations are of particular concern in 
Africa: al Qaeda in the Lands of the Islamic Maghreb (AQIM), active in 
northern and western Africa; Boko Haram in Nigeria; and al-Shabaab in 
Somalia. Although each organization individually poses a threat to U.S. 
interests and regional stability, the growing collaboration of these 
organizations heightens the danger they collectively represent. Of the 
three organizations, AQIM, which exploited the instability that 
followed the coup d'etat in Mali and seeks to establish an Islamic 
state in northern Mali, is currently the most likely to directly 
threaten U.S. national security interests in the near-term.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    To counter AQIM and support the restoration of governance in Mali, 
U.S. Africa Command is providing support to French and African military 
operations in northern Mali, which are achieving gains against AQIM and 
other terrorist organizations. We are supporting French efforts with 
information, airlift, and refueling, and are working with the 
Department of State (DoS) to support the deployment of west African 
forces to the African-led International Support Mission to Mali 
(AFISMA). Recently, we began unarmed, remotely piloted aircraft 
operations from Niger in support of intelligence gathering efforts in 
the region. Although French, Malian, and AFISMA forces are achieving 
success in removing AQIM fighters from population centers, eliminating 
the long-term threat posed by AQIM will require the restoration of 
Malian governance and territorial integrity, political reconciliation 
with northern indigenous groups, the establishment of security, and the 
sustained engagement of the international community.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    While international focus is currently on Mali, AQIM is not solely 
a Malian challenge. The organization is spread across the Sahel region 
and requires a regional approach to effectively address the threat. 
U.S. Africa Command continues to work closely with the Department of 
State (DoS) and the U.S. Agency for International Development (USAID) 
to support regional counter-terrorism efforts under the umbrella of the 
Trans-Sahara Counterterrorism Partnership (TSCTP). A partnership 
between 10 northern and western African nations and the United States, 
TSCTP is designed to support the development of partner nation military 
counterterrorism skills and capabilities and foster regional 
cooperation among participating nations to address the evolving threat 
of AQIM and related extremist groups. One aspect of TSCTP's impact can 
be seen in the troop contributions of five participating countries 
(Burkina Faso, Chad, Niger, Nigeria, and Senegal) to AFISMA. Although 
Mali has historically been a TSCTP partner, U.S. Africa Command is not 
currently engaged in capacity-building with the armed forces of Mali, 
consistent with U.S. legal prohibitions on the provision of security 
assistance to any military force that has been involved in a military 
overthrow of a democratically-elected government.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In Nigeria, where Boko Haram is conducting a destabilizing campaign 
of violent attacks focused on the northern part of the country, U.S. 
Africa Command engages with the Nigerian Armed Forces to improve their 
military capabilities. We seek to support the development of a 
professional military that will support a coordinated Nigerian 
Government effort to address Boko Haram and provide the citizens of 
Nigeria with responsive governance and improved economic opportunity. 
Boko Haram is in contact with al Qaeda and recently kidnapped a French 
family in retaliation for French actions against AQIM in Mali. If 
pressure on Boko Haram decreases, they could expand their capabilities 
and reach to pose a more significant threat to U.S. interests.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In Somalia, al-Shabaab has been greatly weakened by the operations 
of African Union Mission in Somalia (AMISOM), Ethiopian, and Somali 
forces. While al-Shabaab is less effective, the group is still 
dangerous and capable of conducting unconventional attacks to disrupt 
AMISOM operations and the newly formed Somali Government.
    The significant gains achieved by AMISOM forces over the past year 
were critical in providing space for the political process that 
resulted in Somalia's transition to a government now formally 
recognized by the United States. While Somalia faces many challenges 
ahead, it is on a positive path. As military-to-military relations are 
normalized with Somalia, U.S. Africa Command will work with the DoS to 
develop security cooperation activities to assist with the development 
of a unified Somali security force. For the foreseeable future, focus 
must be maintained on Somalia to sustain security progress made to 
date.
    Overall, we believe that our efforts to counter violent extremist 
organizations are having a positive impact. Our African partners are 
demonstrating strengthened capabilities and are increasingly 
cooperating with other nations to address shared security challenges, 
including supporting African Union and United Nations operations and 
programs. The leadership of the African Union and the Economic 
Community of West African States in addressing the security challenges 
in Mali is indicative of the growing willingness and capability of 
Africans to address African security challenges.

Maritime Security and Counter Illicit Trafficking
    Multilateral cooperation in addressing regional maritime security 
challenges continued to improve over the past year. Maritime security 
is not only vital to countering terrorism and illicit trafficking, but 
is also a critical enabler of trade and economic development. Coastal 
nations contend with a range of challenges off their coasts including 
trafficking in narcotics and arms, human trafficking; piracy and armed 
robbery at sea; oil bunkering; and illegal, unreported and unregulated 
fishing (IUU). Piracy and armed robbery at sea in the western Indian 
Ocean and Gulf of Guinea elevated insurance rates and shipping costs, 
resulting in increased costs to consumers. IUU fishing devastates 
African fisheries, which play a vital role in African economic growth 
and food security. Criminal organizations leverage ungoverned maritime 
space that could also be exploited by violent extremist organizations.
    African partners are making progress in addressing challenges in 
the maritime domain through cooperative regional approaches supported 
by the international community. U.S. Africa Command and our Naval and 
Marine components work closely with the U.S. Coast Guard in the 
execution of our two primary maritime security programs, the African 
Partnership Station program (APS) and the African Maritime Law 
Enforcement Partnership (AMLEP), which are contributing to 
strengthening regional maritime capabilities and interoperability. 
African maritime forces used skills gained through participation in 
AMLEP and APS to conduct operations that resulted in the seizure of 
over $100 million worth of cocaine and the levying of over $3 million 
in fines. Benin and Nigeria now conduct joint maritime patrols while 
South Africa, Tanzania, and Mozambique signed a counter-piracy 
agreement codifying their efforts and reflective of the trend of 
increasing regional cooperation in addressing maritime security 
challenges.
    Countering illicit trafficking is linked to the challenge of 
increasing African maritime security. Illicit trafficking in the 
maritime, air, and land domains provides income to international 
criminal networks, has a destabilizing influence on governance, and is 
increasingly exploited by violent extremist organizations as a source 
of financing. U.S. Africa Command coordinates closely with U.S. 
Government agencies and embassy law enforcement teams to conduct 
programs to counter illicit trafficking. Our efforts focus on 
increasing partner nation capacities to detect and interdict illicit 
trafficking throughout the African continent. Counter-trafficking 
skills are applicable to combating a wide range of criminal activity, 
including poaching.
    As part of our enduring partnership with Liberia, we are supporting 
the development of the Liberian Coast Guard and recently renovated the 
coast guard's pier to enable operations. U.S. Africa Command 
constructed a new Senegalese maritime operation center with follow on 
training and assistance to the new center's staff and advanced training 
to the Cape Verde Counter Narcotics and Maritime Operations Center. The 
U.S. Africa Command also assisted Cape Verde and Senegal in developing 
maritime operations centers that have facilitated the interdiction of 
suspect vessels.

Strengthening Defense Capabilities
    Strengthening partner defense capabilities enables African nations 
to provide for their own security and helps U.S. Africa Command to 
develop enduring relationships that support freedom of movement and 
assured access for U.S. forces. We assist African nations in developing 
capable, accountable, self-sustaining military forces and defense 
institutions. Our capacity-building activities complement DoS programs 
and are planned in close coordination with embassy country teams and 
partner nations. Our engagements, which span the range of essential 
military capabilities, include combined humanitarian and medical 
assistance programs conducted in coordination with the USAID.
    The success of AMISOM forces against al-Shabaab illustrates the 
positive impact of U.S. defense capacity-building efforts in the 
region. AMISOM forces receive pre-deployment training through the DoS 
Global Peace Operations Initiative's Africa Contingency Operations 
Training and Assistance (ACOTA) program. U.S. forces support and 
complement ACOTA activities with specialized training in skills that 
have played a critical role in enhancing the operational success of 
AMISOM forces, including intelligence analysis and countering 
improvised explosive devices. To date, the forces of five AMISOM troop 
contributing countries (Burundi, Djibouti, Kenya, Sierra Leone, and 
Uganda) were trained through the ACOTA program.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Advice and assistance from U.S. forces enhanced the capabilities 
and cooperation of military forces of Uganda, South Sudan, Central 
African Republic, and Democratic Republic of the Congo currently 
engaged in operations to counter the Lord's Resistance Army (LRA). 
Operational gains made by regional forces over the past year, combined 
with civilian efforts, resulted in increased LRA defections, the 
capture of key LRA leaders, and decreased LRA attacks on civilian 
populations. The formation of an African Union Regional Task Force will 
facilitate further cooperation among counter-LRA forces.
    U.S. Africa Command is broadly supporting U.S. commitments to 
countries undergoing democratic transitions by assisting in the 
development of professional militaries that respect civilian authority, 
are respectful of the rule of law, and are increasingly capable of 
securing their borders and combating mutual threats, including 
transnational terrorism. We continue to develop our and strengthen 
partnerships with the armed forces of Libya and South Sudan. In South 
Sudan we have developed a comprehensive program that supports the 
ongoing DoS security assistance program. Our current focus is on 
education of key institutional-level personnel and small-scale civil 
action projects with the South Sudanese military. Our engagement with 
the Libyan Armed Forces similarly focuses on education and also 
emphasizes the strengthening of Libyan counterterrorism capabilities. 
As these relationships continue to develop, we look forward to 
deepening our partnership with both militaries.
    U.S. Africa Command's engagements with African land forces will be 
enhanced as the command becomes the first combatant command to be 
supported by a brigade through the Army's Regionally Aligned Force 
(RAF) concept. Beginning in March 2013, 2nd Brigade, 1st Infantry 
Division will support U.S. Africa Command in developing enduring 
relationships and cooperation with partner nation land forces. RAF 
engagements will likely range from small travelling contact teams to 
support to major exercises. Initial planning for the RAF includes 
support to State Department-led ACOTA training for African forces 
deploying in support of United Nations and African Union peacekeeping 
operations.
    An area of emerging focus is strengthening partner defense 
capabilities in air security and safety. Last year, our dual-hatted Air 
Force component, USAFE-AFAFRICA, launched the African Partnership 
Flight (APF) program, which promotes regional cooperation and 
strengthens the capabilities of partner nation air forces to provide 
airlift support to United Nations and African Union peacekeeping 
operations. 150 airmen from five African nations participated in APF's 
initial event last year, which addressed air mobility and logistics for 
peacekeeping operations, priority areas in which African air forces 
have very limited capabilities. APF will expand this year to include 
175 students from eight nations.
    The State Partnership Program (SPP) provides unique capabilities 
that augment our ability to build enduring relationships with strategic 
partners in the region. SPP engagements build mutual U.S. and partner 
nation capacity to address shared security challenges. SPP activities 
currently contribute to our security cooperation with eight partner 
nations; Botswana, Ghana, Liberia, Morocco, Nigeria, Senegal, South 
Africa, and Tunisia. SPP engagements account for over 40 percent of 
military-to-military engagements each year. Expansion of the State 
Partnership Program, particularly in East and North Africa, would 
assist in developing stable and enduring relationships with additional 
strategic partners, providing a foundation for capacity-building 
efforts by rotational forces.
    Over the past year, U.S. Africa Command increased activities in 
support of the National Action Plan on Women, Peace, and Security, 
including integrating gender training, which is tailored to partner 
nation socio-cultural dynamics, into our security sector reform 
activities. Liberia has established a goal of 20 percent female 
representation in its armed forces, a development that reflects the 
increasing regional interest in expanding opportunities for women in 
the armed forces. We are also working with the Botswana Defence Forces 
to assist in its efforts to expand the integration of women into their 
forces.

Preparing and Responding to Crisis
    U.S. Africa Command stands ready to respond to crises across the 
continent. Several incidents in the last year caused the Command to act 
to ensure the safety and security of American citizens including the 
January 2012 rescue of American citizen Jessica Buchanan and Danish 
citizen Poul Thisted from captors in Somalia. In November 2012, when 
rebel activities in the Central African Republic required the 
suspension of U.S. Embassy operations, we assisted the DoS in 
evacuating U.S. Embassy personnel and American citizens.
    The dynamic security environments that followed the Arab Awakening 
have increased requirements for crisis response capabilities. U.S. 
Africa Command capabilities to respond to crisis have matured over the 
past year, including the establishment of a headquarters Command Center 
and the allocation of a Commander's In-extremis Force in October 2012. 
The Commander's in-Extremis Force is currently based in Colorado, with 
a rotational element forward in Europe. Forward basing in Europe would 
increase the capability of the command to rapidly respond to incidents 
on the continent. Our Special Purpose Marine Air Ground Task Force, 
which previously focused on supporting security cooperation activities, 
will be expanded to allow support to crisis response, further 
increasing our capabilities in this regard.

                        HOW CONGRESS CAN HELP

    Sequestration and potentially, a year-long extension of the current 
Continuing Resolution, will have a negative impact on the command. The 
combined effects may force significant reductions in theater security 
cooperation activities and joint and combined exercises, potentially 
endangering progress in strengthening partner defense capabilities, 
gaining access to strategic locations, and supporting U.S. bilateral 
policy objectives. Meeting Africa's many challenges requires the 
collaboration and support of all agencies of the U.S. Government and 
the support of Congress. Enactment of full year appropriations for 
defense, military construction, DoS, and USAID programs is critical to 
effective program planning and mission execution. Because U.S. 
Government efforts are interconnected and often mutually dependent, 
fully resourcing one of these pillars without the others compounds the 
difficulties of planning and execution, and hinders mission completion.
    Many of our programs use a mix of DoS and DOD authorities and 
funding. For example, DoS peacekeeping operation authority provides for 
training our African partner nation forces, while DOD section 1206 
authority provides for equipping those forces. The use of dual 
authorities requires close coordination between departments, and full 
funding of the DoS's security assistance programs is critical to 
success. We work with our interagency partners to ensure the resources 
provided by Congress are appropriately tied to our defense and foreign 
policy priorities.
    We are keenly aware of the current fiscal environment and support 
all ongoing DOD efforts to decrease spending and ensure funds are 
wisely utilized. Our efforts under the Campaign to Cut Waste resulted 
in budget plans which reflect a savings of $1 million in both monetary 
and process efficiencies. We have also taken a hard look at our 
staffing levels, contracts, and conferences to determine where savings 
can be realized. We applied a self-imposed 5 percent personnel 
reduction for both fiscal year 2013 and fiscal year 2014 and are on a 
path to all but eliminate temporary hires and overhires. But 
sequestration and a possible year-long extension of the current 
Continuing Resolution will have serious negative consequences for our 
efforts.
    I thank this committee and Congress for its support of our team and 
our mission. You have provided key authorities at appropriate times, as 
in extending through fiscal year 2014 the temporary authority to build 
the counter-terrorism capacities of Djibouti, Ethiopia, Kenya, and 
countries engaged in AMISOM. Pursuant to this authority, we have worked 
with the DoS to plan and execute our support to counter-terrorism 
capacity-building at a critical time. We are currently providing 
logistical equipment to Djiboutian and Kenyan forces participating in 
AMISOM. We appreciate this authority and believe it will enable AMISOM 
forces to continue their progress against al-Shabaab.
    We also appreciate the enhanced train and equip authority under 
section 1206 of the NDAA for Fiscal Year 2006, as amended in the NDAA 
for Fiscal Year 2013, to permit small scale military construction among 
the authorized elements.
    Your annual reauthorization of the temporary, limited authority to 
use operation and maintenance funding for military construction in 
support of contingency operations in our area of responsibility has 
permitted us to meet critical operational support needs in a timely 
fashion, and we appreciate your recognition of its importance.
    The recent volatility in North and West Africa demonstrates the 
importance of sufficient Intelligence, Surveillance, and Reconnaissance 
(ISR) assets to cover multiple crises simultaneously. ISR capabilities 
are required to protect American interests and to assist our close 
allies and partners. We appreciate the authorization in the NDAA for 
Fiscal Year 2013 of an additional $50 million for ISR in support of our 
counter-LRA efforts.
    We appreciate your continued support for the Combatant Commander 
Exercise and Engagement Program. This program is the foundation of our 
exercises in Africa and funds strategic lift requirements as well as 
providing Service Incremental Funds to our components, ensuring we can 
provide the forces to work and exercise alongside our African partners.
    Finally, we welcome visits by congressional members and their 
staffs. The members and staff who have had the opportunity to travel in 
Africa gain a deeper appreciation for the challenges and the many 
opportunities that are presented in this large and diverse continent.

                               CONCLUSION

    The African continent will continue to present a complex and fluid 
set of challenges and opportunities. African nations, the African 
Union, and regional economic communities are increasingly demonstrating 
their willingness to address African security challenges. At U.S. 
Africa Command, we will continue to engage with our African partner 
militaries to strengthen their skills and capabilities, so they are 
better able to address shared security concerns and are able to 
contribute to regional stability and security. We also look forward to 
strengthening our existing partnerships and developing new 
partnerships, such as we have with the Libyan military.
    Our contributions to protecting and advancing our national 
interests would not be possible without our interagency partners across 
the government, including the Department of State, U.S. Agency for 
International Development, the incredibly dedicated women and men of 
the U.S. intelligence community and others. Our team of soldiers, 
sailors, airmen, marines and coastguardsmen--and our DOD and 
interagency civilian teammates--is dedicated to our mission and their 
achievements would not be possible without the strong support of their 
families.
    Thank you for your enduring support to our men and women in uniform 
and for your interest in this increasingly important region of the 
world.

    Chairman Levin. Thank you so much, General Ham.
    General Fraser.

STATEMENT OF GEN. WILLIAM M. FRASER III, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Fraser. Chairman Levin, Ranking Member Inhofe, and 
distinguished members of the committee: It's an honor and a 
privilege to be with you here today representing the men and 
women of TRANSCOM. Our total force team of over 150,000 men and 
women, military and civilian, is dedicated to providing 
reliable and seamless logistical support to our warfighters and 
their families around the globe.
    It's also an honor to be here today appearing before you 
with my good friend and colleague, General Carter Ham. Over the 
past 2 years I've had the opportunity to work with General Ham 
as he and his team made significant progress on the African 
continent and continued to meet the challenges of that 
expansive, diverse AOR.
    Carter and I go way back. We go much further back than just 
the last couple years of his service in AFRICOM. I've always 
admired his commitment to his people, his dedication to solving 
the toughest problems, and his selfless service. Carter, on 
behalf of all the men and women of TRANSCOM, we wish you and 
your family all the best in retirement. God bless.
    Distinguished members of this committee: Our Active Duty 
members, National Guard, Reserve, civil servants, merchant 
mariners, and commercial partners must meet the challenges of 
the future. They met the challenges of the past while 
maintaining a high operations tempo of combat operations which 
they are supporting through sustainment efforts, humanitarian 
relief, and crisis action responses. These efforts, from 
support following Super Storm Sandy to developing innovative 
ways to maximize the throughput into and out of Afghanistan to 
meet the directed 68,000 troop reduction level by September 30, 
2012, were made possible by the TRANSCOM team of dedicated 
professionals committed to ensuring our joint force maintains 
global logistics superiority.
    Our component and subordinate command team, comprised of 
the Air Mobility Command led by General Paul Selva, Military 
Sealift Command led by Rear Admiral Mark Busby, Surface 
Deployment and Distribution Command led by Major General Tom 
Richardson, the Joint Enabling Capabilities Command led by Rear 
Admiral Scott Stearney, and the Joint Transportation Reserve 
Unit led by Major General Dave Post, continue their flawless 
execution of our command's mission.
    I have had the opportunity to observe firsthand during my 
travels in Europe, Central Asia, the Pacific, and all around 
the globe the support these world-class professionals provide. 
I can tell you they are doing the Nation's business 
magnificently, without fanfare and often in stressful 
conditions. I could not be prouder of this total force team.
    As we continue to sustain our forces abroad, we're also 
working towards our goal of becoming the government's 
transportation and enabling capabilities provider of choice. To 
meet that goal, we embarked on a comprehensive and 
collaborative 5-year strategic plan, which will tackle the 
challenges and take advantage of the opportunities for 
continuing to project national power and influence. This 
strategic plan positions us to respond effectively and 
efficiently to our rapidly changing operating environment, 
while accounting for the dynamic fiscal landscape that we now 
face.
    We continue to work with our customers and our lift 
providers to pursue smart transportation solutions to reduce 
the cost of operations. Strategic guidance requires a military 
that is smaller and leaner, while at the same time, more agile, 
flexible, and ready. As the global distribution synchronizer 
and distribution process owner, TRANSCOM is committed to 
working with the Military Services, the other combatant 
commands, government agencies, our allies, and commercial 
partners to synchronize distribution planning and synergize our 
distribution initiatives. This collaborative effort will ensure 
that we deliver a scaleable and resilient global distribution 
network from point of origin to point of employment, meeting 
needs in all operating environments.
    As we look towards the future, we're also assessing the 
mission impact of funding reductions for this year and 
potentially beyond. Since TRANSCOM requirements are driven by 
our customer workload and readiness needs, as their demand 
signals decline, our workload will be reduced. While the 
impacts of these reductions will not occur immediately, the 
long-term results will likely affect the business base of our 
commercial partners and our ability to support other combatant 
commands in the same manner as we do today. In the coming 
months, we'll continue to work closely with the Military 
Services and our commercial partners to mitigate the second- 
and third-order effects of these reductions on our airlift, 
sealift, and surface capabilities. We'll keep you informed of 
our progress.
    Preserving our readiness remains critical to maintaining 
our capability to project power and provide support to our 
joint forces around the world.
    Chairman Levin, Ranking Member Inhofe, and members of this 
committee, I want to thank you for your continued support of 
TRANSCOM, of all of our men and women both military and 
civilian. I am grateful for this opportunity to appear before 
you today. I ask that my written statement be submitted for the 
record and I look forward to your questions. Thank you.
    Chairman Levin. Your statement, of course, will be made 
part of the record, and we thank you.
    [The prepared statement of General Fraser follows:]

         Prepared Statement by Gen. William M. Fraser III, USAF

              INTRODUCING THE U.S. TRANSPORTATION COMMAND
                          MISSION/ORGANIZATION

    It is an honor to represent the men and women of the U.S. 
Transportation Command (TRANSCOM). Our Total Force team of Active Duty, 
Guard, Reserve, civilian, commercial partners, and contractors leads a 
world-class Joint Deployment and Distribution Enterprise (JDDE) 
providing reliable and seamless logistical support to our warfighters 
and their families around the globe. Our service component commands the 
Army's Military Surface Deployment and Distribution Command (SDDC), the 
Navy's Military Sealift Command (MSC), the Air Force's Air Mobility 
Command (AMC); our functional component command the Joint 
Transportation Reserve Unit (JTRU); and our subordinate command the 
Joint Enabling Capabilities Command (JECC) provide tremendous 
capabilities that we merge into transportation solutions to deliver 
effective support to the combatant commanders at the best value to the 
Nation. Together, we deliver global transportation services and 
enabling capabilities to our warfighters that no other nation can 
match.
    Preserving our readiness remains critical to maintaining the 
Nation's capability to project power and influence anywhere, anytime. 
As the Distribution Process Owner (DPO), TRANSCOM focuses on end-to-end 
performance and on providing the most value by targeting process 
improvements and enterprise performance measurements. Our mission as 
Global Distribution Synchronizer (GDS) complements the DPO role by 
integrating transportation solutions into theater posture plans in the 
earliest planning phase possible. We are working with all combatant 
commands (COCOMs), interagency, nongovernmental organizations, 
supporting nations, and industry partners to develop regional 
distribution campaign plans, with an eye toward process, global touch-
points, and measureable delivery. Additionally, we are hard at work on 
a series of measures to reduce the cost of operations and maintain 
effectiveness to those who depend on us--while encouraging continued 
and expanded use of the Defense Transportation System (DTS).

                        PLANNING FOR THE FUTURE

    Our goal is to be the U.S. Government's transportation and enabling 
capabilities provider of choice. To meet the numerous challenges and 
take advantage of the enormous opportunities for continuing to rapidly 
project national power and influence well into the future, TRANSCOM has 
proactively embarked on a comprehensive and collaborative 5-year 
strategic plan. This strategic plan is positioning us to effectively 
and efficiently respond to our rapidly changing operating environment 
while accounting for the dynamic fiscal landscape we now face.
    First, we will preserve enterprise readiness by ensuring unfettered 
access to organic and commercial transportation resources. Our 
Readiness Roadmap will better leverage our organic assets, as well as 
the unique strengths and contributions of our commercial partners, and 
identifies the steps we must take to wisely transition from a decade of 
conflict to become a leaner, more efficient and more collaborative 
manager of the defense transportation enterprise.
    Second, we will achieve excellence in information technology (IT) 
management, by promoting increased knowledge-sharing and transparency 
across the enterprise. In our unique roles as Distribution Process 
Owner and Global Distribution Synchronizer, we recognize we must 
develop and sustain a secure information environment that ensures 
effective knowledge-sharing and decisionmaking even while operating in 
a contested cyber domain. We have already begun building a 
functionally-managed IT framework to identify and align resources to 
our most critical needs.
    Third, we are rebaselining our internal roles, functions and 
responsibilities in order to match human and capital resources for 
projected future mission activities. This realignment enhances 
collaboration, matches skills to processes and creates a more 
disciplined, transparent resourcing process in order to achieve sound 
resource stewardship while remaining responsive to those who depend on 
us to effectively execute in an increasingly dynamic operational 
environment.
    Finally, but most importantly, we are better equipping our people 
with the knowledge, skills, and training to maintain our world-class, 
customer-focused professionals. The enhancements we are achieving in 
our diverse workforce of Active, Guard, and Reserve military 
components, civilian employees, and contractors will further enhance 
support for global mobility across the transportation enterprise.

                      SUPPORTING GLOBAL OPERATIONS

    Current fiscal realities have resulted in funding reductions for 
all Services. TRANSCOM requirements are driven by our customer workload 
and readiness requirements. If COCOM demands are reduced, our workload 
will also be reduced. While these impacts will not occur immediately, 
the long-term results may directly impact our ability to execute 
critical missions of our supported COCOMs.
    The capacity to project national power, presence, and influence 
worldwide is unique to the United States. To support this vital 
national capability, we lead a team of dedicated professionals in 
providing global mobility and strategic enablers. TRANSCOM provides the 
ideal blend of operational expertise and distribution know-how to move 
and sustain the force worldwide. Together, we deliver unparalleled 
service to multiple COCOMs in support of their theater campaign plans 
and contingency operations. Our team has an unrelenting passion to meet 
a vision of coordinated, synchronized, and responsive end-to-end 
logistics which ensures that our soldiers, sailors, airmen, marines, 
coastguardsmen, and U.S. Department of Defense (DOD) civilians always 
have the support they require.
    TRANSCOM oversees the global mobility enterprise; our component 
commands execute the mission. In 2012, AMC and its Air Force Reserve 
and Air National Guard partners maintained a high operations tempo 
supporting requirements around the world. AMC deployed, to multiple 
locations, a rotational force of over 30 C-130 Hercules tactical 
airlift aircraft and 60 KC-135 Stratotanker and KC-10 Extender aerial 
refueling aircraft. The strategic airlift fleet flew over 1,400 C-5 
missions and 13,000 C-17 missions supporting the full range of national 
interests. In total, AMC moved 584,000 tons of cargo, offloaded 194 
million gallons of fuel, and moved 1.7 million passengers while flying 
127,000 sorties. On the surface, MSC and SDDC transported over 7.4 
million tons of cargo worldwide. In addition, MSC's point-to-point 
tankers delivered 1.4 billion gallons of fuel in support of global DOD 
requirements.
    During 2012, more than 900 JECC personnel performed 27 operational 
deployments and participated in 39 joint exercises in support of COCOM 
requirements. JECC's highly skilled Active and Reserve component 
personnel rapidly deployed as mission-tailored planning teams to assist 
combatant commanders in establishing, organizing, and operating joint 
force headquarters during numerous operations, and provided unmatched 
deployable joint communications and public affairs expertise, whenever 
and wherever needed.
    Our functional command, the Joint Transportation Reserve Unit, 
provided necessary augmenting capability to a wide array of functions 
across the command. This augmentation has been particularly important 
during numerous surge and contingency operations when our most critical 
operational and planning functions required the highest level of 
activity.

            SUPPORT TO GEOGRAPHIC COMBATANT COMMANDS (GCCS)

    The President directed the reduction of Afghanistan's Force 
Management Level to 68,000 troops by 30 September 2012. Achieving this 
force reduction on schedule was possible through close coordination 
between headquarters, TRANSCOM, our component commands, and our 
commercial partners. Innovative ways to maximize throughput included 
expanding options for transiting forces into and out of the CENTCOM 
Theater. Mihail Kogalniceanu Airfield, Romania, provided an additional 
transit location for deploying and redeploying forces in support of 
Operation Enduring Freedom, resulting in the movement of approximately 
10,000 troops during the height of the surge recovery of forces from 
Afghanistan.
    Working with our regional and commercial partners, we executed 
multiple proofs of principle to validate processes and capabilities. As 
we develop more efficient transportation routes around the globe, we 
continue witnessing the great effects of maturing routes. We continue 
to seek new air, ground, and multi-modal routes, adding flexibility and 
responsiveness to the DTS.
    In addition to validating two-way passenger flow through Romania, 
we are reaping the benefits of last year's initiative to flow air-
direct traffic over an Arctic route. This Arctic routing, allowing both 
commercial and military aircraft to support Afghanistan from the west 
coast, resulted in 2 million gallons of jet fuel saved last year. This 
is a savings of $26 million.
    Our ground lines of communication continue to mature as well. The 
success of the distribution network's flexibility was demonstrated by 
the lack of operational impact resulting from the closure of the 
Pakistan Ground Lines of Communication (PAKGLOC). The Northern 
Distribution Network (NDN) absorbed a 46 percent increase in 
containers, moving over 30,000 containers in total. That capability, 
coupled with our multi-modal capacity, allowed us to continue 
uninterrupted support to our warfighters. Additionally, we have 
successfully reversed our Kazakhstan--Kyrgyzstan--Tajikistan and 
Uzbekistan routes, allowing the movement of retrograde cargo over the 
NDN. We are also executing a reverse Trans-Siberia route, which 
establishes another option for the movement of retrograde cargo. 
Despite the enterprise's ability to weather the unexpected, the 
PAKGLOC, when fully operational, remains the quickest and most cost-
effective route for supporting operations in theater.
    Multi-modal operations continue to provide a middle-ground option 
between the speed of air direct and the lower cost of surface movement. 
TRANSCOM, working with industry and partner nations, continues to 
expand the capabilities of existing locations and add new sites where 
necessary. For example, following the recent success of air direct 
shipments through Baku, Azerbaijan, we developed processes and 
procedures for multi-modal operations. This effort is expected to 
increase volume while reducing transit time and costs. Hybrid multi-
modal operations, leverage a blend of military and commercial airlift, 
and provide another opportunity to reduce cost without sacrificing 
effectiveness.
    In the U.S. Pacific Command (PACOM) area of operations (AOR), 
TRANSCOM continued its support of the National Science Foundation's 
(NSF's) mission. As part of Operation Deep Freeze, we coordinated for 
the delivery of over 4,000 passengers and 2,150 short tons (STONs) of 
cargo via C-17 and more than 6 million gallons of fuel and 3,400 STONs 
of cargo via sealift to McMurdo Station, Antarctica. In February 2012, 
the NSF discovered the ice pier used in previous years to offload cargo 
was not capable of supporting ship off-loading operations. TRANSCOM 
rapidly coordinated the delivery and setup of an Army modular causeway 
system, which permitted the off-load of nearly 7 million pounds of 
cargo in 322 containers and the backload of more than 8.7 million 
pounds of retrograde cargo in 391 containers. This off-load operation, 
the first of its kind in this environment, spanned 8 days, during 
subfreezing temperatures and sustained Antarctic winds.
    In addition to ODF, TRANSCOM supported numerous operations that 
enhanced the security and preparedness of U.S. and allied forces in the 
PACOM AOR. TRANSCOM supported multiple deployments and redeployments in 
support of Operation Enduring Freedom-Phillipines (OEF-P). We also 
provided strategic airlift and sealift to military Security Forces and 
Special Warfare Units to the Republic of Korea, Japan, and Guam in 
support of PACOM's Theater Security Cooperation program engagement 
strategies and objectives. TRANSCOM supported U.S. Special Operations 
Forces Joint Command Exercise Training (JCET) throughout the Asia-
Pacific region at the invitation of regional governments, with 
strategic airlift and sealift of PACOM assets. Support for PACOM's JCS 
Exercises Terminal Fury in Hawaii, Cobra Gold in the Kingdom of 
Thailand, Commando Sling in the Republic of Singapore, Balikatan in the 
Republic of the Philippines, and Key Resolve, and Ulchi Freedom 
Guardian in the Republic of Korea entailed the movement of 10,452 
passengers, 1,298 STONS moved by strategic airlift, and 406,270 square 
feet (or 22,114 STONS) via sealift.
    Additionally, TRANSCOM moved 1,574 STONS of food, water, 
construction materials, and vehicles to support the PACOM Joint POW/MIA 
Accounting Command (JPAC) team from Pusan, Republic of Korea, to Nampo, 
Democratic People's Republic of Korea.
    In the U.S. Southern Command's (SOUTHCOM) AOR, TRANSCOM continued 
to support the secure transport of personnel for detainee movement 
operations. In coordination with the Office of the Secretary of 
Defense, the Office of the Secretary of State, Joint Staff, and 
supported COCOMs, we successfully completed 100 percent of these 
sensitive missions without incident.
    In the U.S. European Command's (EUCOM) AOR, TRANSCOM deployed and 
redeployed more than 2,233 troops and 1,169 STONs of cargo in support 
of the Kosovo Balkan force. During December 2012, we conducted the 
movement planning for 326 personnel and 1,022 STONS of cargo in support 
of the Patriot Missile Battery deployment into Turkey in support of the 
North Atlantic Treaty Organization (NATO) defense. Support to EUCOM 
also included numerous strategic lift missions in support of exercises 
in several countries to include: Estonia, Georgia, Israel, Latvia, 
Norway, and Poland. These exercises entailed moving more than 2,732 
personnel and over 8,000 STONs of cargo for training events aimed at 
exercising the ability to deploy, employ, and sustain forces in 
response to a crisis affecting the EUCOM AOR.
    In the U.S. Africa Command's (AFRICOM) AOR, TRANSCOM deployed and 
redeployed 3,187 troops and 1,297 STONs of cargo in support of Combined 
Joint Task Force Horn of Africa. We also coordinated and tracked 40 
airlift missions moving nearly 300 personnel and over 490 STONs of 
cargo while supporting contingency operations in northern Africa.
    Finally, in the U.S. Northern Command (NORTHCOM) AOR, the Modular 
Airborne Fire Fighting System equipped C-130 aircraft, provided by our 
component, AMC, flew 922 sorties and released more than 22.2 million 
pounds of fire-retardant, combating wildfires in direct support of U.S. 
Forestry Service operations. The WC-130 Hurricane Hunter aircraft flew 
over 120 sorties into 32 storms collecting valuable hurricane data for 
the National Oceanic and Atmospheric Administration. In support of 
relief efforts in the wake of Super Storm Sandy, TRANSCOM coordinated 
for nearly 100 C-17 and C-5 missions moving 749 passengers and 3,762 
STONs of cargo. Critical supplies delivered included electric utility 
restoration vehicles, medical personnel, search and rescue teams, 
blankets, dewatering pumps, and support equipment. Support to NORTHCOM 
also included lift for training exercises providing realistic homeland 
defense and defense support to civil authorities training for joint and 
interagency partners. This entailed moving more than 3,700 personnel 
and over 1,363 STONs of cargo in support of Exercise Vibrant Response 
13, a training event exercising the ability to deploy, employ, and 
sustain specialized military response forces upon the request of 
civilian authorities following a catastrophic incident.

                       SUPPORT FOR THE WARFIGHTER

    Global patient movement remains one of our most demanding missions 
requiring 100-percent accuracy. Last year, in partnership with the 
medics of AMC, Air Force Reserve Command, and the Air National Guard, 
we efficiently and effectively provided en route medical care to more 
than 14,000 patients. Patients requiring critical care support were 
moved by Critical Care Air Transport Teams, including six patients who 
were moved by the new Acute Lung Rescue Teams, one from PACOM and five 
from CENTCOM.
    Our partnership with the Military Health System is vital to the 
success of patient movement. In particular, Landstuhl Regional Medical 
Center is vital to the support of four COCOMs: EUCOM, CENTCOM, AFRICOM, 
and U.S. Special Operations Command. The planned Military Construction 
(MILCON) replacement of this outstanding hospital will further aid the 
en route medical care needs of ill and injured servicemembers and their 
families.
    We are working to improve the quality of life for servicemembers 
and their families by providing convenient and user-friendly online 
services for scheduling the shipment of household goods. Last year, the 
Defense Personal Property Program (DP3) through the Defense Personal 
Property System (DPS) managed approximately 600,000 DOD household goods 
shipments. DP3 provides the procedures necessary to build the many 
online resources provided by DPS. These services include Web-enabled 
counseling, the ability for a DOD customer to score their 
Transportation Service Provider (TSP) via the customer satisfaction 
survey, as well as the ability to file an online claim while in direct 
communication with the TSP.
    Finally, the ability to support the warfighter in Afghanistan's 
mountainous terrain requires reliance on vertical resupply via airdrop 
operations. Although airdrop cargo amounts decreased from 2011 to 2012, 
AMC airdropped over 40 million pounds of fuel and combat supplies, 
significantly reducing exposure to troops on surface roads. With the 
High Speed Container Delivery System, we are able to support forward 
deployed warfighters, increasing delivery tonnage to point of need and 
providing enhanced threat avoidance and tactical maneuverability to 
airlift aircraft and crews. Civilian causality concerns led to the 
development of new capabilities such as an extracted container delivery 
system to improve aerial delivery accuracy. Additionally, enhancements 
in existing capabilities, such as the low-cost, low-altitude airdrop 
system and Joint Precision Airdrop System, enhance our delivery 
capability to warfighters operating at ever increasing, smaller and 
more austere locations or in proximity to civilian populations.

                     INTERAGENCY AND OTHER SUPPORT

    Cyber threats posed to TRANSCOM, our components, commercial 
partners, national critical infrastructure, and key resources are a 
direct challenge to DOD global operations. Among TRANSCOM's top 
priorities is ensuring freedom of action and protection of mission data 
throughout the cyberspace domain to plan and execute our global 
mission. To that end, we continue to strengthen our partnerships with 
U.S. Cyber Command (CYBERCOM) as well as the Defense Information 
Systems Agency (DISA) and other interagency and industry partners. It 
is critical that we protect our essential command and control systems 
and information from cyber attack or exploitation. TRANSCOM continues 
efforts to improve readiness and strengthen ties with both our 
commercial and U.S. Government partners through improved information 
sharing.
    Our role as GDS facilitates enhanced opportunities to support the 
COCOMs and the Department of State by means of engagement events 
focused on distribution, transportation, and logistics. Fostering 
critical relationship-building opportunities based on universal 
logistics interests is our unique and innovative approach to 
traditional security cooperation activities. Our GDS responsibilities 
provide the basis and means for successful strategic engagements as we 
continue to expand our reach and become more agile. The NDN is a prime 
example of coordinated and synchronized activities that have maximized 
strategic distribution flexibility and reduced operational risk. The 
NDN has minimized reliance on any one nation by offering fair and open 
competition that facilitates economic development and diplomatic 
engagement. The strategic impact has improved international relations 
and expanded commodity resourcing through the development of an 
integrated and synchronized distribution enterprise.

              MOBILITY CAPABILITIES ASSESSMENT-18 (MCA-18)

    MCA-18 is an assessment being conducted by TRANSCOM in conjunction 
with the Office of the Secretary of Defense and Joint Staff. We are 
assessing DOD's capability to project and sustain forces in support of 
the defense strategy, through 2018, by examining a range of strategic 
and operational mobility challenges that include current operations 
plans, defense scenarios, seminars presented in Chairman Joint Chief of 
Staff senior leader seminars, and historical operations. MCA-18 will 
identify and evaluate our capabilities, the constraints associated with 
projecting and sustaining forces in support of the strategy, and 
options to mitigate system constraints. We will leverage this 
assessment as we move forward to complete the congressionally-mandated 
Mobility Requirements Capabilities Study 2018.

                         AIR MOBILITY READINESS

    With the delivery of the last U.S. Air Force C-17, we will have the 
planned air mobility force structure to meet the strategic airlift 
requirements for a single large-scale operation, while maintaining the 
flexibility and adaptability to support the Joint Force in another 
region.
    Our other strategic airlifter, the C-5, is critical to our 
oversized and outsized air cargo capability. Management of this fleet 
focuses on retirement of the C-5A, the oldest and least reliable 
aircraft while improving reliability for the remaining C-5s. The 
Reliability Enhancement and Re-Engining Program (RERP) increases the C-
5 fleet mission capable rate from 55 to 75 percent while vastly 
increasing aircraft performance, range, and fuel efficiency.
    Together our C-17 and C-5 fleets continue to improve availability 
through the replacement of aging components, obsolete components and 
the Air Force's new programmed phase inspection maintenance process. 
This change from a ``failure of major components'' process to a 
preventive replacement process, along with the retirement of 
maintenance intensive jets and RERP modifications, will significantly 
improve strategic airlift aircraft availability, velocity, and capacity 
to the warfighters.
    The KC-46A is critical to the entire Joint and coalition team's 
ability to project combat power around the world, and provides America 
and our allies with unparalleled rapid response to combat and 
humanitarian relief operations alike. The KC-46A offers more refueling 
capacity and increased capacity for cargo and aero-medical evacuation. 
The KC-46A will provide outstanding aircraft availability, highly 
adaptable technology, flexible employment options, and superb overall 
capability.
    The legacy air-refueling fleet includes the KC-10 and KC-135 
aircraft providing the backbone for Air Mobility support to our 
warfighters. The KC-10 Communication, Navigation, Surveillance (CNS)/
Air Traffic Management (ATM) Program addresses airspace access and 
near-term critical obsolescence issues for the 59 KC-10 aircraft fleet. 
CNS/ATM capabilities are necessary to ensure worldwide flight 
operations in civil and military air space and meet current Federal 
Aviation Administration and International Civil Aviation Organization 
standards.
    C-130s continue to be the intra-theater workhorse for airlift 
operations around the globe, providing critical lift and airdrop 
capability wherever needed. This versatile aircraft will continue to 
play an integral role for airlift long into the future.
    The Civil Reserve Air Fleet (CRAF) is a voluntary commercial 
segment of our mobility force, providing additional capability to 
rapidly deploy forces and equipment globally. Over the past few years, 
TRANSCOM has encouraged program improvements by way of contracting day-
to-day business with preference to those commercial carriers who have 
modernized their fleet. This approach has provided increased 
reliability and greater fuel efficiency, through economy of scale and 
continues to be of value as we adjust to changes in global economic 
situation and anticipated changes in our future force deployments. We 
continue to examine the CRAF program for viability and cost 
effectiveness for future mission needs.

                           SEALIFT READINESS

    During large-scale operations, roll-on/roll-off (RO/RO) vessels are 
the prime movers of unit equipment for Army and Marine Corps forces. We 
rely primarily on commercial industry for sealift and complement it 
with our U.S. Government-owned vessels from the MSC's surge fleet and 
Maritime Administration's (MARAD) Ready Reserve Force (RRF) when 
necessary. Our partnership with commercial industry is formalized 
through agreements such as the Voluntary Intermodal Sealift Agreement 
(VISA). This agreement and others ensure the availability of a viable 
U.S. flag maritime industry and the required U.S. citizen mariner pool 
needed in times of national emergency. We also leverage significant 
capacity through the Maritime Security Program (MSP). MSP has been an 
extremely successful program since its inception in the mid 1990's; 
over 70 percent of the VISA capacity needed for a national emergency 
would come from our partners in MSP. Additionally, the National Defense 
Authorization Act for Fiscal Year 2013 has ensured the continued 
presence of the U.S. flag fleet in international commerce while 
providing DOD critical continued access to militarily useful RO/RO and 
other cargo vessels. Preserving these programs preserves the U.S. 
merchant mariner base, a vital national asset that provides the 
manpower needed for surge operations.
    The National Defense Sealift Fund provides funding for 9 Large 
Medium-Speed Roll-On/Roll-Off vessels, 5 Roll-On/Roll-Off-Container 
vessels, and the 46 RRF vessels of our U.S. Government-owned surge 
fleets. All vessels are critical for the DOD's ability to surge to meet 
future global requirements. TRANSCOM is working with our commercial and 
U.S. Government sealift partners to find the most cost effective means 
to fund these fleets and the critical capacity they provide. Finally, 
with the average age of the RRF exceeding 36 years, and nearly 1.6 
million square feet of RO/RO capacity retiring over the next 10 years, 
it is important to begin the process of recapitalizing our organic 
fleets.

                           SURFACE READINESS

    Successful execution of our mission and the daily support we 
provide to the warfighter rely on a complex global enterprise of 
interdependent critical infrastructure. Our Critical Infrastructure 
Program aligns resources in managing both a COCOM program and a Defense 
Infrastructure Transportation Sector program, the latter focusing on 
building relationships and trust among non-DOD critical infrastructure 
stakeholders, sharing information and collaborating where appropriate. 
Our critical infrastructure stakeholders range from other Federal 
agencies to State and local entities, foreign countries, and the 
private sector.
    We continuously monitor the infrastructure network based on 
threats, hazards, and vulnerabilities. We augment teams who assess 
risks to infrastructure, advocate initiatives to economically reduce 
risk, and help develop solutions to preserve our readiness. These 
efforts are aimed at ensuring that infrastructure is available when 
required. Through coordination and cooperation with the commercial 
sector, the National Port Readiness Network delivers an important link 
between commercial port operations and military readiness at 17 
strategic ports. These ports provide the critical services and 
intermodal links needed to ensure rapid, secure, and effective military 
mobilization. Improving the resiliency and modernizing our seaports, 
air nodes, and critical rail and road networks is a TRANSCOM focus area 
that ensures our ability to support all geographic combatant commanders 
and respond to emergencies within the homeland, now and far into the 
future.
    Infrastructure improvement projects at the U.S. Army Military Ocean 
Terminal Concord (MOTCO), in Concord, CA, are essential to TRANSCOM's 
support of PACOM's operational plans and DOD's military capability in 
the Pacific Theater. Due to the nature and size of this military 
mission, no suitable alternatives to MOTCO exist on the West Coast. We 
continue to work within DOD to find resources to reduce or eliminate 
any capability gaps and risk at MOTCO to alleviate throughput issues to 
the Pacific Theater. DOD's current efforts are centered on preserving 
existing throughput capability at MOTCO's only operational pier 
configured for movement of containerized ammunition through 
comprehensive structural engineering assessments. Although the 
requisite resourcing processes have not yet run their full course, we 
are working with the U.S. Army to address the deteriorating 
infrastructure at MOTCO to allow for sufficient and uninterrupted 
delivery of supplies to the Pacific Theater.
    Recently completed and ongoing infrastructure improvement projects 
at the U.S. Army Military Ocean Terminal Sunny Point (MOTSU), in Sunny 
Point, NC, are essential to TRANSCOM's support of CENTCOM's operational 
plans and DOD's military capability in multiple theaters. Specifically, 
MOTSU's Center Wharf was recently upgraded to support the installation 
of two new container gantry cranes, which became operational in 2012. 
These improvements enhance MOTSU's ability to conduct missions and 
allow the terminal to meet documented throughput requirements, 
contributing to a resilient capability.
    In addition to improving critical infrastructure, DOD must maintain 
railcar capacity to meet military transportation requirements. TRANSCOM 
through our Army component, SDDC, is executing an Army program 
established to preserve and assure access to commercial railcars needed 
to augment U.S. Government-owned capabilities and meet contingency 
deployment requirements.

                      JOINT ENABLING CAPABILITIES

    TRANSCOM ensures the readiness and timely deployment of mission-
tailored joint capability packages to assist all COCOMs across seven 
unique functional areas-joint planning, operations, logistics, 
knowledge management, intelligence support, communications, and public 
affairs--within hours of notification. JECC forces provide these 
enabling capabilities and are designated as part of the Secretary of 
Defense's Global Response Force. As a result of a changing, complex 
operational environment, the geographic combatant commanders have 
relied on and will increasingly depend upon TRANSCOM's low density-high 
demand JECC forces to accelerate the formation and the effectiveness of 
joint force headquarters and assist joint force commanders in the 
planning and execution of joint operations. We recognize that JECC's 
ability to effectively assist COCOMs on short notice depends on the 
development and maintenance of strong, close relationships with our 
mission partners and stakeholders.

   ENHANCEMENTS TO TRANSCOM READINESS AND DOD SUPPLY CHAIN MANAGEMENT

    As the GDS and DPO, TRANSCOM is committed to working with the 
military Services, COCOMs, governmental agencies, allied, and 
commercial partners to synchronize distribution planning and synergize 
distribution initiatives. This collaborative effort will ensure we 
deliver a scalable and resilient Global Distribution Network from point 
of origin to point of employment, meeting needs dictated by the 
operating environment.
    A robust global infrastructure network is essential to our Nation's 
ability to project and sustain its power and influence; therefore, a 
commitment to obtain the access and agreements necessary to maintain 
this capability and adequately resource it is imperative. Using 
strategic-level analysis and subsequent modeling, we have identified 
requirements in the En Route Infrastructure Master Plan (ERIMP) as both 
current and anticipated capability gaps and requirements. We will 
continue to utilize the ERIMP process to identify access requirements 
and construction projects that will improve our ability to support 
COCOM global routes.
    At TRANSCOM we are constantly focused on reducing costs within the 
DOD supply chain while simultaneously sustaining or improving service 
levels to the warfighter. Last year, in collaboration with mission 
partners from Defense Logistics Agency, General Services 
Administration, COCOMs, and the Services, we achieved over $500 million 
in cumulative cost avoidance due to better surface container 
utilization and better pallet and planeload utilization. This simply 
better optimized business practices. We have set another target this 
year to continue finding savings opportunities and will seek to 
identify an additional $500 million in cost avoidance by the end of 
fiscal year 2015; to date, we have reached $721 million in cumulative 
cost avoidance. Our collective efforts earned the prestigious Defense 
Logistics 2012 Cost Savings and Performance Improvement Award.
    To enhance readiness we are identifying new ways to leverage the 
existing DTS infrastructure and industry resources in support of our 
global demands, as well as formulating better solutions to improve DTS 
capabilities. This will not only benefit military aircrew proficiency 
but will contribute to our organic and commercial viability. In order 
to accomplish these objectives, the command stood up the Enterprise 
Readiness Center (ERC) to help capitalize on opportunities to increase 
DTS volume. The ERC will also seek to improve transportation services 
to existing customers and drive responsiveness to improved levels by 
applying enterprise-proven methods. We understand multiple 
transportation providers exist in today's global distribution network. 
To that point and with the ERC in place, TRANSCOM will endeavor to 
become the transportation provider of choice.
    We continue to partner with CYBERCOM, DISA, industry, and academia 
to improve and harden our information technology resources, strengthen 
cyber defense, and improve our capability to operate effectively in 
cyberspace. Because of our strong reliance on commercial partners, over 
90 percent of DOD deployment and distribution information transactions 
are handled on unclassified systems, leaving us vulnerable to possible 
cyber attacks. We are defining standards for processing and handling 
data that will improve the security of our information through our 
continued collaboration forums, including our cyber summit, industry 
day, and an exercise involving the Department of Homeland Security that 
improved our information sharing processes and relationships.
    In order to fully support the needs of the warfighter, we are 
working with our joint enterprise partners to measure distribution 
performance. Our focus is to measure the right events at a sufficient 
level of detail to pursue supply chain optimization opportunities. For 
example, we are leveraging technology such as electronic data 
transmitted from commercial partners and system of record database 
incorporation to capture appropriate time-stamps. This data facilitates 
performance measurements and root-cause analysis as requisitions flow 
from suppliers to the warfighter. Through continual collaboration 
across the DOD, we are developing common and meaningful performance 
metrics that incorporate best-practices from the commercial and U.S. 
Government sectors.

                 BUSINESS TRANSFORMATION--EFFICIENCIES

    We continue seeking methods to achieve cost avoidance and improve 
processes for container management. We have implemented several 
initiatives to include container detention fee reductions through 
increased use of U.S. Government-owned containers where cost effective, 
improving contract provisions with carriers through the recently 
awarded Universal Services Contract (USC)-7 and accomplishing container 
buyouts earlier when carrier owned containers are required to meet 
mission objectives. USC-7 is also enabling us to transform other 
business areas. This multiple award program, with 22 contracted ocean 
carriers, supports our worldwide surface shipments. Some changes of 
significance from USC-6 to USC-7 include measuring carrier performance 
regionally by COCOM versus global basis; this allows for more relevant 
``best-value'' booking decisions and provides leadership visibility on 
carriers' performance in each COCOM. We added four electronic data 
interchange codes, assisting in more accurate measurement of carriers' 
performance, ensures carriers are appropriately compensated for 
validated and compensable delays by providing more detailed visibility 
into the status of shipments.
    Our operations focus foremost on effective support to the 
warfighter; we constantly search for the best, most efficient methods 
to provide seamless and responsive support. Many times, these 
transparent efficiencies also result in increased effectiveness. 
Deployment and Distribution Cost Based Decision Support (D2 CBDS) 
practice ensures TRANSCOM and COCOM operational decisionmaking 
incorporates cost consciousness with mission effectiveness through 
vetted, standardized, and codified operational cost methodologies. D2 
CBDS methodologies encompass end-to-end nodes and transportation legs. 
To ensure second- and third-order effects are adequately considered, 
all required stakeholders are engaged throughout the D2 CBDS process. 
D2 CBDS has already produced significant cost avoidance, included under 
our DPO Strategic Opportunities umbrella, through a number of emerging 
efforts, including the Tankering Decision Matrix, monitored by the AMC 
Fuel Efficiency Office, that informs the Tanker Airlift Control Center 
when it is cost effective to carry fuel to downrange locations due to 
the prohibitively high costs to deliver fuel in theater.
    Going forward, the D2 CBDS Working Group composed of TRANSCOM 
directorates, COCOMs, and network partners will provide rapid response 
and subject matter expertise for emerging complex operational costing 
opportunities.

                   TRAINING, EDUCATION, AND EXERCISES

    TRANSCOM's participation in the Combatant Commanders Exercise 
Engagement and Training Transformation (CE2T2) Program directly 
supports U.S. national security interests by ensuring joint force 
readiness, increasing military capabilities, strengthening alliances 
and partnerships, and retaining strategic access around the globe. 
Maintaining freedom of action and global access is as much a 
requirement for the functioning of our JDDE as it is for the conduct of 
military operations and requires continuous engagement worldwide. CE2T2 
enables this critical engagement; contributes to strategic and 
logistical access for the U.S. Government; increases readiness across 
combatant commands; and sustains partnerships with commercial industry 
and our global core partners in order to provide reliable and seamless 
logistical support at time of need. As we move forward with a refocus 
on the Pacific and our forces become more contiguous United States-
based, we will see an even greater reliance on the CE2T2 program to 
maintain our freedom of action and the readiness to project that force 
to meet national security objectives. Maintaining the CE2T2 Program is 
critical to TRANSCOM's readiness.

                         PLATFORM ENHANCEMENTS

    Joint Logistics Over the Shore (JLOTS) provides the capability to 
load and discharge vessels in austere environments into Army and Navy 
watercraft or lighterage, where ports are damaged, unavailable, or 
inadequate or access is denied. Among the improvements JLOTS provides 
is a telescopic crane system that has stabilization technology to 
permit the selective retrieval of containers to be transferred between 
vessels or lighterage even under heavy sea states. The second is an 
interface module that will enhance Army Modular Causeway and the Navy 
Improved Lighterage Systems, which have differing freeboards.
    JLOTS operations are extremely complex and require a detailed 
working knowledge of requirements, capabilities, and limitations among 
the Services to successfully plan and execute. As part of our oversight 
authority for JLOTS, this year we established the JLOTS Working Group 
with the primary mission to facilitate and streamline the coordination 
between Services and COCOMs and within the JLOTS community of interest. 
This group will lead the review of JLOTS initiatives, doctrine, and 
training as well as advocate for sustained JLOTS capabilities in 
support of COCOM requirements. JLOTS and Service Logistics Over the 
Shore capabilities continue to provide a necessary capability to 
support combatant commanders.
    Hybrid airships represent a transformational capability, bridging 
the longstanding gap between high-speed, lower-capacity airlift, and 
low-speed, higher-capacity sealift. Across the range of military 
operations, this capability can be leveraged from strategic to tactical 
distances. From swift crisis action support to enduring logistical 
sustainment operations, hybrid airship technology has the potential to 
fulfill ``factory to foxhole'' cargo delivery. We encourage development 
of commercial technologies that may lead to enhanced mobility 
capabilities in the future.

                             FINAL THOUGHTS

    We are entrusted with the authority to lead and transform the Joint 
Deployment and Distribution Enterprise and the incredible 
responsibility of serving the geographic combatant commanders as they 
execute our Nation's most demanding military missions. To ensure that 
we can repeat our successes of the past as we move into a dynamic, 
resource-constrained future, we must transform the way that we manage 
the enterprise and make significant cultural changes in the way that we 
think, train, and execute our missions. Our strategic plan is guiding 
us in this transformation so that we are postured to support our forces 
worldwide with all available resources within the U.S. Government and 
offered by our commercial partners. We will continue to challenge 
ourselves to be ready for any contingency, peacetime or during 
conflict, and to meet the needs of our warfighters across the globe. I 
am extremely proud of the TRANSCOM team and our enterprise partners and 
the fantastic work they do to support our national security objectives. 
They know, better than anyone, that ``Together, we deliver!''

    Chairman Levin. We'll start with an 8-minute first round.
    General Ham, you made reference to a reduction in flight 
hours, I believe, that have already been reduced as a result of 
sequestration. Can you expand a bit on that?
    General Ham. Mr. Chairman, most of our operations are 
funded by the Services through the Service components, Army, 
Navy, Air Force, Marine Corps, and Special Operations, for 
AFRICOM. In two of those components, Navy and Air Force, we 
have had to constrain our flight operations because of the 
Service component's funding challenges. Two specific examples: 
I have asked my Air Force commander to maintain a heightened 
alert posture with transport aircraft to be postured to move 
crisis response forces more readily. That requires him to 
sustain flight crews on a short leash, if you will, heightened 
alert posture. That eats into their normal training and 
sustainment flights and that's where the Air Force component is 
having difficulty having sufficient money to do both of those 
requirements.
    On the Navy side, it's similar. I'd prefer, Mr. Chairman, 
to give you the operational details in a classified setting. 
But suffice to say that I've had to decrease the frequency of 
some operational reconnaissance flights, again because of the 
inability to fund the normal flight operations.
    Chairman Levin. That's already taken place?
    General Ham. It has, sir.
    Chairman Levin. Thank you.
    General Ham, there's been some adjustments to the AFRICOM 
Commander's In-Extremis Force (CIF) and other contingency 
response forces which hopefully will put you in a stronger 
position to respond to a contingency. Have those changes 
already been made and can you tell us what improvements might 
be the result?
    General Ham. The most notable change, Mr. Chairman, was on 
the 1st of October a dedicated CIF was established for AFRICOM. 
This was long in the planning, supported by Admiral McRaven and 
those in U.S. Special Operations Command. The unit actually is 
based in Colorado as part of the Tenth Special Forces Group. 
They always have an element, the immediate response element, 
forward deployed in Europe and have since October 1, where we 
have stationed that force in a number of different places in 
Europe.
    There is still some work to be done. That force does not 
yet have all of its enablers in terms of intelligence, aviation 
support, and some other capabilities that we would like that 
force to have. But it is a significant improvement from where 
we were prior to the 1st of October, where the arrangement was 
that I shared the CIF with Admiral Stavridis and U.S. European 
Command (EUCOM).
    The other Services have made similar improvements. The 
Army's regionally aligned force, should there be an operational 
requirement, I can go to the Secretary of Defense and ask to 
use that force operationally, should that be necessary. General 
Amos and the Marine Corps have proposed a new Marine Corps 
Special Purpose Marine Air-Ground Task Force specifically 
tailored for crisis response in Africa, not yet formally 
approved, but we think that that will be available in the 
relatively near future. I'm most appreciative to General Amos 
for making that force available.
    Chairman Levin. Thank you.
    Now, the forward element that you've made reference to 
which is deployed in Europe, in your judgment is it able to get 
to Africa more quickly actually from where it's deployed in 
Europe than it would be if it were somehow deployed in Africa? 
I know it sounds a little bit counterintuitive, but is it 
actually not the case that you can actually get from, 
particularly if it's in Italy or Southern Europe, to Africa 
more quickly because of the capabilities and the infrastructure 
than would be the case if you could find a location in Africa?
    General Ham. Mr. Chairman, what we're seeking to do is use 
the CIF along with two other forces to build a theater response 
capability, with one element based in Djibouti where we do have 
an enduring presence--that force is now stood up--one in 
Southern Europe that could respond across Northern Africa, and 
another in a site to be determined, but that would be 
principally focused on response in West Africa. I think that 
would give us a significantly improved posture from what we 
have today.
    Chairman Levin. Thank you.
    On the cybersecurity issue, General Fraser, have you 
experienced cyber attacks to the degree that I indicated in my 
opening remarks? If so, with what effect? What are your plans 
to address this threat?
    General Fraser. Thank you, Mr. Chairman. As you've stated 
in your remarks, we are--and as best as I can tell--continue to 
be, the most attacked command. In fact, as I testified last 
year, in 2011 we had nearly 45,000 attacks. This last year, in 
2012, it actually had quadrupled. It is an area that we have 
significant concerns about, but we have taken a lot of actions, 
and it is not in one area. We're taking a holistic approach as 
we work this specific issue.
    If I might highlight just a couple of things.
    Chairman Levin. Please.
    General Fraser. First off is we had within the command a 
number of what I would call touch points, by which industry and 
others can come into the command and they could connect with 
us. Our objective was to develop more of what we term a secure 
enclave and collapsing that network so that there were fewer 
touch points in order to get into the command. This would 
enhance our abilities to have a defensive posture, so that if 
people were trying to get into our network we would be able to 
see it, and we could defend it. We have been successful in 
that, as we have collapsed this to fewer touch points and have 
not had any significant intrusions into our network.
    Another area that we're working on very closely is with our 
commercial partners. We have moved out in a very deliberate 
manner with commercial partners and have actually held three 
forums this last year where we brought in other agencies, to 
include law enforcement and others, with Chief Executive 
Officers and Chief Information Officers who actually came to 
TRANSCOM, and we focused on this cyberthreat that is there. 
These forums were very well-attended, upwards of nearly 100 
each time that we held these conferences.
    We were able to brief them in, to give them some 
information that they did not have before, and allowed them to 
further go back and take a look at their networks and how they 
are working with us.
    From that came an agreement, in working with our partners, 
that we began to write into our contracts the need for more 
cyber awareness/cybersecurity. So what we started doing was, 
last year in the spring time, writing into our contracts the 
need for us to have an understanding of what their information 
assurance plan is. We were not directive in this but we wanted 
to know, ``what are you doing to protect your network?''
    Also in that contract, we stated that we wanted to have an 
agreement as a part of a collaborative nature to know when 
their networks were--in which they had activity that got into 
their network--either having data that was exfilled from their 
network or if they had someone in that was playing with their 
data. So we made sure that we had in the contracts that we 
would have this reporting that would come back to us.
    When we get those types of reports, then we have a process 
and procedure by which we would ensure that law enforcement is 
advised, that we would offer any assistance that we have, and 
then we would stand up a team to determine what impact this 
might have had to our operations.
    The other things that we have continued to do is to reach 
out to other agencies to ensure that we're not missing anything 
in the defense of our network. So it's a collaborative nature 
in working with all of our partners, collapsing the network to 
a secure enclave, and then writing it into our contracts to 
better understand what the threat may be.
    Chairman Levin. Thank you very much, General. If you could 
furnish to the committee some examples of that contract 
language, not necessarily with the names of the contractors, 
just the actual kind of language which you're incorporating 
relative to cyber attacks in your contracts, we would 
appreciate it if you would do that.
    General Fraser. Yes, sir.
    [The information referred to follows:]

    Section 941 of the National Defense Authorization Act for Fiscal 
Year 2013 directs the Department of Defense (DOD) to establish 
procedures requiring cleared defense contractors to report to DOD when 
a covered network of a contractor is successfully penetrated. The 
implicit objective of this section is to provide DOD with greater 
visibility into adversary cyber activity on cleared defense 
contractors' networks and information systems. Since U.S. 
Transportation Command's (TRANSCOM) cyber contract initiative only 
provides visibility into contractors doing direct business with 
TRANSCOM, the section 941 initiative may provide the command with 
additional information in which to understand the adversary's 
intentions, objectives, and capabilities. The command is awaiting DOD 
implementation of section 941. At this time, TRANSCOM does not require 
any additional cyber assistance from the Senate Armed Services 
Committee.
    We have separate cybersecurity language for transportation 
contracts and nontransportation contracts. The same language goes in 
all transportation contracts. [See ``Transportation Contract Cyber 
Language'' document.]
    There are three levels of cybersecurity language for 
nontransportation contracts: Basic Language, Standard Language, and 
Advanced Language. TRANSCOM, in conjunction with our customers, 
determines which level of language is necessary for a particular 
contract. [See ``Non-transportation Contract Cyber Language'' 
document.]
    TRANSCOM includes the cyber language in newly issued contracts and 
notifies the offerors during solicitation. [See ``Transportation 
Solicitations Instructions to Offerors Cyber Language'' document.]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Levin. Also, you are aware, I believe, that we 
included a provision in the National Defense Authorization Act 
for Fiscal Year 2013--it was section 941, which requires 
certain contractors to report to DOD about penetrations of 
covered networks and information systems. If you could, after 
using that or reviewing that language, if you would let us know 
if there's anything else that we need to do to be helpful to 
you in your efforts, please let us know.
    General Fraser. Thank you, sir. We will, and we look 
forward to the Secretary's guidance in accordance with the 
language as written.
    Chairman Levin. Very good. Thank you so much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me start off with something a little unpleasant, but it 
deserves to be brought up, I think, over and over again, even 
though the media doesn't care about it, the whole Benghazi 
thing. It's incontrovertible right now that the second attack, 
the one on the annex, was one that was premeditated, it's one 
that was a terrorist-coordinated attack. We knew that the day 
after. At the very latest it would have been on the 12th 
(September 2012) that we knew that. Everybody knew that. 
They've even testified before this committee that they knew.
    Yet, this administration sent out Ambassador Susan Rice to 
lie to the American people and say that this is something that 
was a response to a video. All that's behind us now. I think 
it's going to go down in history as one of the really great 
cover-ups. That's beyond us, and again, the press doesn't care. 
It's really disturbing to me.
    But this thing just doesn't go away. Yesterday, CBS came up 
with some documents and I'll read just two sentences from this 
release: ``The documents viewed by Intelligence Committee 
members indicated numerous other changes were made to the 
talking points, including the removal of certain references on 
the attacks.''
    Now, what they're talking about here and why this is 
different, all this stuff happened before the attack, saying it 
was going to happen.
    ``The source who reviewed the documents also flagged 
several emails prior to Benghazi attacks from the officials in 
Libya to Washington that supposedly specifically warned of an 
imminent attack within days before this attack.''
    I only bring this up to ask you the question--I don't 
believe them, but I do believe you, General Ham. I've gotten to 
know you very well. We've worked closer together probably than 
you have with any other member on your AOR. Let's assume this 
is right. Did anyone tell you prior to this, as the AFRICOM 
Commander, that they were predicting this was going to happen?
    General Ham. Sir, I've looked at the intelligence over and 
over and, while clearly the situation in Benghazi was worrying, 
I do not find intelligence that----
    Senator Inhofe. They didn't tell you----
    General Ham. No, sir.
    Senator Inhofe.--what I'm reading right now? They didn't 
tell you?
    General Ham. No, sir.
    Senator Inhofe. I believe you. I believe you.
    All right. I'd like to ask both of you this question. In my 
opening statement I talked about sequestration, and how 
critical this is because it's on the heels of an expanded 
budget that would take us down by $487 billion and so we're all 
concerned about it. So 6 weeks ago, I talked to the commands, 
all six of them, and asked them the question that in the event 
it becomes inevitable--and I didn't think it would; at that 
time we had, in fact, Senator McCain and I and several other of 
the Senators here, said that we thought there was a way to do 
this where it could have been less of a threat.
    But I said at that time, in the event we're wrong and that 
they end up having to do this, wouldn't it be better to take 
that same top line and work within that so that the commanders 
would be in a position to make those adjustments, as opposed to 
just a formula that cuts across. They all said yes, it would. 
Do you two agree with them?
    General Ham. I do, Senator.
    General Fraser. Yes, sir, I do.
    Senator Inhofe. Thank you.
    General Fraser, I don't quite understand how this works. 
There's not going to be time for you to explain it, but 
TRANSCOM and its components are paid for their Services by 
their customers, the Service components and other agencies. Are 
they finding themselves strapped to the point where you're not 
getting the adequate funding through this very unique mechanism 
that you would really need to do the job to your expectations?
    General Fraser. Senator, as of right now, we are a Working 
Capital Fund, the Transportation Working Capital Fund.
    Senator Inhofe. Yes, Working Capital Fund.
    General Fraser. We generate revenue. They have the 
resources and then we accomplish the mission that they task us 
to do. Then they pay for that service that is provided.
    Senator Inhofe. Does that put you in a position where 
you're not really in the same strapped situation that many of 
the other Services are?
    General Fraser. Sir, I am in a strapped situation because 
over time the Working Capital Fund has been drawn down. I am 
directed to have 7 to 10 days of Working Capital Fund available 
to me in order to be able to respond in a timely manner and, 
having those resources with all the authorities and 
responsibilities that I do, I can execute operations and then I 
go back later and get paid. What has been happening though is 
coupled with the closure of the Pakistan border and actually 
having to execute different routes that have been more 
expensive, those bills have been higher and we've been relying 
on the Working Capital Fund. This is one example that's been 
drawing down the fund.
    The Services also have other problems in paying their 
Service-level bills and things of that nature, therefore 
drawing down the Working Capital Fund. So we are seeing some 
issues there.
    Senator Inhofe. Thank you very much.
    General Ham, you and I have talked about this before. We 
did something pretty smart on this committee way back on 
September 11 or shortly after that when we recognized, with the 
squeeze that's going on in the Middle East and a lot of the 
terrorist activity going down through Djibouti and the Horn of 
Africa, to assist the Africans, not to do something for them, 
but to assist them in building their five African brigades.
    It started off, as was anticipated--at least in my mind it 
was--and then it seems to have slowed down. I know you have the 
same commitment to complete those standby brigades, but are you 
getting there as fast as we ought to get there?
    General Ham. We are not, Senator. Each of the five regional 
economic communities of the African Union has a plan to 
establish a regional standby force. Those plans have not 
progressed in some cases in any material way, and today, none 
of the five regions has, in my military view, the capability 
that they ought have to be able to respond in short order to 
regional crises.
    Senator Inhofe. I think that's right. I know that the 
Economic Community of West African States (ECOWAS) was among 
the first ones, and a lot of that was under the leadership of 
President John Kufuor, former President of the Fourth Republic 
of Ghana. They were a little bit ahead. But it hasn't reach 
that, and I regret that you're going to be stepping down in 
April and will be replaced by General Rodriguez, and we're 
going to be trying to give new attention to that.
    The LRA, any update you'd like to give us on that? I'd like 
to mention--I think I did in my opening statement--that a lot 
of people think this is just one guy that's mutilating kids and 
that was true the first time that I saw the product of his 
labor, where they would cut the ears and the noses off those 
little kids and force them to kill their parents and all that. 
That has expanded into a major terrorist group. So I think it's 
one that has gotten little pockets of followers around now 
where it's not quite one general unit.
    Are you satisfied that we're doing what we should be doing? 
I think your answer is going to be yes because I know you're 
working very hard on it. Any comments on that?
    General Ham. Senator, the work does continue. Again, as I 
mentioned in my opening comments, I think it is a pretty good 
model of a way in which we can provide, for lack of a better 
term, unique U.S. military capabilities to enable an African 
force. We do a lot of intelligence. We help them with funding 
for rotary and fixed wing aircraft, mobility, information-
sharing, communications leaflets that have elicited numerous 
defections and the like.
    Just in terms of money, sir, over the last year we've spent 
$138 million on counter-LRA, expected to be about $157 million 
this year. It's not an inexpensive proposition, but in terms of 
achieving the desired state of minimizing the effectiveness of 
the LRA, bringing Kony to justice, and simultaneously building 
the capacity of the African forces, I think we're doing okay.
    Senator Inhofe. I do, too. I think you're doing a great job 
there. While you say it's not cheap, it is pretty cheap when 
you consider the other operations that are going on. You might 
occasionally have a helicopter or something like that, but it's 
primarily intelligence, communications, and coordination. I 
think you're doing a great job.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    First, let me thank and commend General Ham for his 
extraordinary service to the Nation and the Army. You've done a 
remarkable job, sir, and we thank you. I know foremost in your 
thoughts has always been the men and women you lead, and it's 
been evident in your contribution to the Nation. Thank you, 
sir.
    Let me ask a question. First, with the collapse of the 
Qadafi regime in Libya and turmoil in the Maghreb, there has 
been the fear that weapons, particularly the Manportable Air-
Defense Systems (MANPADS), are filtering through and 
proliferating. Can you give us a sense in open session of your 
take on that particular issue?
    General Ham. I would, Senator. The details probably ought 
to be in a separate session, but it's very clear that in the 
collapse of the Qadafi regime, weapons, MANPADS, crew-served 
weapons, individual weapons, explosives, have gone really in 
two directions. We thought initially that most would transit 
into northern Mali and we certainly have seen significant 
evidence that that has been the case. AQIM, other 
organizations, are significantly better armed now than they 
were before.
    What we didn't see quite so quickly, but now believe 
certainly to be the case, is movement of weapons in the other 
direction, some of which we believe have ended up in Syria. 
General Mattis is more qualified to speak on that than I am, 
but certainly that proliferation of weapons, I think, poses a 
continuing destabilizing effect across the region.
    Senator Reed. Not just the United States, but the North 
Atlantic Treaty Organization and all of our allies have a 
proactive program to interdict these systems and to, obviously, 
prevent their dispersal?
    General Ham. Senator, there is a multifaceted approach for 
the U.S. Government, principally led by the State Department in 
terms of strengthening border security and helping the host 
nations deal with this. There's a small component that is a 
weapons buyback program. We have a small role along with others 
in the U.S. Government to facilitate that program. I would 
characterize it as having, frankly, modest success. Still, many 
thousands, particularly of the MANPADS that we believe existed 
in Libya prior to the revolution, remain unaccounted for.
    Senator Reed. This leads to another issue, too, is that in 
your mission in Africa a great deal depends on local 
governance, policing borders, interdicting weapons. That role 
is a shared role, not only with you, with the Department of 
State, with nongovernmental organizations in certain cases. We 
frequently talk about the impact of sequester and other budget 
restrictions on DOD operations. Are you seeing significant 
impacts on your State Department and those non-DOD assets that 
you depend upon?
    General Ham. Not yet, Senator. We haven't seen it manifest 
itself. But clearly if sequester continues for the balance of 
this year, I believe that there will be some very real 
consequences in what our brethren at State are able to deliver.
    Senator Reed. That will have an impact on issues like we 
just talked about?
    General Ham. Yes, sir, certainly.
    Senator Reed. Let me ask just another final question with 
respect to Mali. We engaged over the course of several years in 
trying to develop a professional military force in Mali. We did 
tactical training, we had Special Operations Forces troops 
there, et cetera. Then there was a coup. We talked with General 
Rodriguez about this. As we go forward, we're going to have to 
continue to partner with indigenous forces, but we also have to 
emphasize the proper role of the military.
    Can you comment upon that, since you observed some of the 
effects of our training and our lack of training when it came 
to the roles of government?
    General Ham. Yes, sir, certainly. In Mali both good and 
bad, I suspect. The unit with which we were primarily engaged 
was not a unit that participated in the coup. It was the 
parachute regiment, which was actually repressed by those who 
did lead the coup. But we did have interaction with others in 
the Malian Government, in the Malian military.
    My greatest disappointment is the senior leaders in the 
former Malian military with whom we interacted, while they 
didn't support the military coup, they took no action to resist 
it. I think there are some lessons learned in that for us, that 
in our training, as you mentioned, Senator, we have to focus 
not only on technical and tactical training, but more on values 
and the professionalism that is required of a military in a 
democratic society. We can improve and need to improve in our 
engagement in that area.
    Senator Reed. Thank you very much.
    General Fraser, Senator Levin and I were in Afghanistan and 
Pakistan about 6 weeks ago and I got the impression that the 
retrograde operations are picking up momentum significantly. 
The Pakistan ground lines of communication (PAKGLOC) was 
opening up in Pakistan. Can you comment on where we are in 
terms of that retrograde operation?
    General Fraser. Yes, sir. Thank you very much. It is 
continuing to accelerate. We have multiple lanes that we're 
able to use out of Afghanistan now because of the agreements 
that have been struck with a number of different nations. The 
proofs of principle that we have executed are showing us that 
we have the right process, we have the right procedures in 
place. Do we have the level of velocity that we want to have? 
Not yet. It will continue to improve as time goes on.
    I was in Pakistan last month and had very good discussions 
with them. Shortly after that, with all the agreements in 
place, and all the processes for getting the right permits, it 
was not long after that, that we executed our first proof of 
principle of exporting items from Afghanistan. It was 
containers initially. The process went very smoothly. The 
containers arrived down in Karachi. The next level that we're 
going to work is some wheeled armored vehicles.
    So that is continuing to move in the right direction. I am 
encouraged by what I am seeing. I am also encouraged by what's 
going in. When the border closed, the Karachi port was full of 
over 7,000 pieces of equipment, containers, things of this 
nature. We are at less than 2,000 now. We have been moving that 
into Afghanistan since last year and it continues to get 
better.
    We also did a new import process by which we moved some 
containers that were shipped in the local area into Karachi. 
This is going to open up the Foreign Military Sales (FMS) 
equipment that has been held in a couple of locations, and just 
last week we sent a booking notice to our commercial partners 
that we're going to start booking more cargo for the FMS 
equipment.
    Additionally, in the agreement we agreed that we will not 
take a pause at the border crossings; we'll continue to ramp 
up, and we've continued to increase the number of bookings that 
will come as far as exports go. I'm encouraged by what I'm 
seeing, especially on this last visit out there, that the 
capacity is built. We need to now continue to accelerate the 
velocity.
    Senator Reed. Thank you much, sir, and thank you, General.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. I want to thank the witnesses. General Ham, 
I'd like to echo the views of my colleagues and the American 
people in thanking you for your outstanding service to the 
country. I'm sure you feel some sense of relief from not having 
to appear before this committee again.
    General Ham and General Fraser, very briefly, we talk about 
the sequestration effects on our ability and our readiness and 
our capabilities. What is the effect the you're seeing and 
foresee that we will see on the morale and eventually retention 
of the men and women who are serving today of this profound 
uncertainty that affects their lives?
    General Ham. Senator, you captured exactly the right word. 
It is uncertainty in both the military ranks and in our 
civilian workforce. They're not sure what to expect of their 
government. The looming threat of furlough for our civilian 
employees; for our military members and for their families, the 
programs that this committee and this Congress have supported, 
will those be sustained.
    I don't think we yet understand what effect this 
uncertainty may have in the recruiting and retention of our 
civilian workforce and perhaps even more importantly, on the 
recruiting and retention of what, I think, is the crown jewel 
in all of this, and that's the sustainment of the incredibly 
talented All-Volunteer Force we have. I think there are a lot 
more unknowns right now, sir, than knowns.
    Senator McCain. But there could be some--all of that could 
be in some jeopardy?
    General Ham. I believe it is, sir.
    Senator McCain. General Fraser?
    General Fraser. I would agree with General Ham. We hear 
this from our workforce, both the military and the civilians. 
Most certainly I would highlight our civilian workforce and the 
significant concerns that they have at this time of a potential 
furlough.
    The loss of potentially 20 percent of their income between 
April and the end of September is undue burden and undue stress 
upon them and their family members. It also goes into other 
areas about security from a perspective of their job. The 
reason I highlight this is because the workforce has begun 
talking to us that if they have issues with financial 
obligations and we understand the fact that they have security 
clearances and financial responsibility is a piece of that. 
This could be an unintended consequence of that.
    Now, there are ways to adjudicate that, but I think it 
shows this uncertainty, the concern and the stress that's upon 
our family members and the other things that General Ham----
    Senator McCain. So over time both you and General Ham agree 
this could affect morale and retention and over time, 
recruitment?
    General Fraser. Yes, sir, I agree.
    General Ham. I do, sir.
    Senator McCain. General Ham, prior to the attack in Libya 
were you aware of the multiple attacks against western 
interests in Benghazi, including the British ambassador, the 
Red Cross, the U.S. consulate, and the British pulled their 
mission out of Benghazi and the Red Cross suspended operations? 
Were you aware of all of that?
    General Ham. Yes, sir.
    Senator McCain. So what was your assessment of the threat?
    General Ham. That the threat in Benghazi and more broadly--
--
    Senator McCain. In Benghazi?
    General Ham.--in eastern Libya it was growing, that there 
was a renewed presence of extremist organizations that posed a 
threat, not only to western interests, as exhibited by these 
attacks, but also to the fledgling Libyan Government.
    Senator McCain. Did you recommend any changes in force 
posture or alert status based on this threat picture, 
particularly on the date of September 11?
    General Ham. Sir, as 11 September approached and there were 
the obvious concerns of the anniversary event, we did posture 
Marine Corps forces afloat in West Africa, Fleet Antiterrorism 
Support Teams in Southern Europe, the personnel recovery team 
with aviation at Camp Lemonnier in Djibouti, and we ensured 
that we had access to the shared EUCOM-AFRICOM CIF, which was 
at that point based in Europe.
    Senator McCain. But, General Ham, 7\1/2\ hours went by and 
we were unable to get any forces there. As you are well aware, 
two of the Americans were killed in the last hour. That doesn't 
seem to me that you had forces there capable of responding. 
Certainly they didn't respond.
    General Ham. Sir, they didn't. As I replayed the events of 
that evening over and over in my mind, when the first attack 
commenced and then essentially ended shortly, about an hour or 
so after it began, I didn't know at that point that there was 
going to be a second attack. If I could turn the clock back I'd 
do it differently.
    Senator McCain. I say with respect that if an attack had 
taken place, that already we didn't know the whereabouts of the 
Ambassador at that time, it seems to me that would bring some 
urgency to getting some forces there.
    Did you discuss this with Secretary Panetta or General 
Dempsey or the President during these attacks?
    General Ham. We did, sir. I happened to be in Washington 
that day and did meet personally with General Dempsey and with 
then-Secretary Panetta shortly after the first attack began.
    Senator McCain. Were any of your recommendations, were you 
told not to execute?
    General Ham. No, sir. I requested forces be placed on alert 
both overseas and in the contiguous United States. The Chairman 
and the Secretary approved that.
    Senator McCain. Did you believe at the time that, given the 
nature of the weapons used in this attack, that it was a 
coordinated terrorist attack?
    General Ham. In the first attack, I will admit during, as 
the events were unfolding, it was unclear to me. But it became 
clear within a matter of a few hours that this was a terrorist 
attack, at least in my opinion.
    Senator McCain. See, this is the conundrum we face here, is 
that you and General Dempsey and Secretary Panetta all 
testified that they knew right away that it was a terrorist 
attack. Yet the American people literally for weeks, at least 2 
weeks, were told we don't know. This disconnect between the 
assessment that you, the Chairman of the Joint Chiefs of Staff, 
then-Secretary of Defense all immediately concluded, as those 
of us who are not nearly as knowledgeable as you are, because 
we don't believe that people bring rocket-propelled grenades 
and mortars to spontaneous demonstrations--for 2 weeks in the 
height of a presidential campaign, the American people were 
told by the President of the United States, ``We don't know.''
    Of course we did know. Of course we did know. That's why 
some people are a little bit offended that some of us continue 
to pursue this issue. Four people died and four people's 
families deserve to know exactly what happened and what 
transpired. Particularly again two of those brave Americans 
died in the last hour of a 7\1/2\ hour attack.
    So it seems to me that, given September 11th, given the 
warnings, given the entire situation, why we were unable with 
all the forces--you just enumerated so many of them--that we 
have in the region, we were unable to get forces there in order 
to save especially the last two individuals' lives, is 
something that I think the American people deserve to know.
    I thank you both.
    My time is up. Thank you, Mr. Chairman.
    General Ham, would you want to respond to that? I'd be glad 
to hear that.
    General Ham. Mr. Chairman, if it's okay.
    Yes, sir, as I began to say, Senator McCain, that that 
night stays with me, as I know it does with you and with 
others. As I said, we didn't know that there was going to be a 
second attack and we thought, frankly, that after what we felt 
was the culmination of the attack at the Special Mission 
Facility, that frankly the effort now shifted to recovery of 
Ambassador Stevens, who was then the lone unaccounted for 
American.
    Again, in the context of then, not now, with the dispatch 
of the small team from Tripoli to Benghazi, we thought 
assurances from the Libyans, which obviously proved to not be 
fulfilled, that that recovery mission was going to proceed in 
good order. It did not.
    Sir, if I could turn the clock back, I would make different 
decisions based on what I know now as opposed to what I knew 
then.
    Senator McCain. I thank you, General, for that very candid 
response. Again, I thank you for your service and we're very 
grateful for it.
    Chairman Levin. Thank you, Senator McCain.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    To General Ham and General Fraser, thank you for your 
service. General Ham, thank you so much for everything you've 
done for our country in your career.
    General Ham, has the AFRICOM region become as central a 
center for terrorist activities as the CENTCOM region has been?
    General Ham. Sir, I don't think it quite yet rises to that 
level, but it certainly is trending in that direction.
    Senator Donnelly. As you look at it, do you see it as an 
increasingly, as you said, growing area, that we may look at 
this in a few years and see this as equal to or more even than 
the CENTCOM region at this time?
    General Ham.  It's  hard  to  predict  in  the  future,  
Senator.  Remember  that  it  is  in  the  CENTCOM  region  
that  is  the  home  of  al Qaeda. I don't see any indication 
that al Qaeda main, if you will, or al Qaeda's senior 
leadership seeks to reposition to Africa. But certainly their 
associates and affiliates and an increasing number of people 
who adopt that al Qaeda ideology are present in Africa.
    Senator Donnelly. Now, as we look at lessons learned from 
Afghanistan and Iraq, is our plan in AFRICOM--you talked about 
the five regional forces that are developing over there between 
the countries on the military side--is our plan to have them 
stand up and be the main force, with us guiding behind the 
scenes, in the AFRICOM region?
    General Ham. Sir, countering the effects of these violent 
extremist organizations, terrorist organizations, has to be a 
very broad approach. There is a military component and that's 
what I am principally engaged with. But I recognize that the 
military component will not be decisive. There is a military 
component that has to contribute to security and stability, but 
it really is the U.S. Government's interaction with African 
nations and regional organizations to address the underlying 
causes. Good governance, economic development, health care, 
education, all of those programs, I think, will have a longer 
and more lasting effect. But the military component helps set 
the conditions under which those longer-term operations and 
activities can take place.
    Senator Donnelly. As we look at this, I know the French 
have a presence in Mali. Are we primarily on our own other than 
that, or are other nations in there with us?
    General Ham. Senator, there are a number of nations, both 
African and from outside the region, who are contributing in 
meaningful ways to the operations in Mali. A number of European 
countries have pledged training through the European Union and 
also bilateral relationships. Many of them are already on the 
ground in Mali and in other West African countries.
    I think in principle there is broad agreement that, while 
the initial reaction and operation by France was necessary, 
this must transition to an African-led activity as quickly as 
the conditions allow. I think that's the next transition point.
    Senator Donnelly. Are we the point of the spear in 
coordinating all the other nations on these efforts?
    General Ham. No, sir, we're not. The ECOWAS is the 
principal coordinating organization. We and many other nations 
are supporting ECOWAS in their efforts.
    Senator Donnelly. How do we increase as we look at this the 
chance for success of those regional armies? You had talked 
about they are not where we had hoped they would be and we look 
toward a path forward. How do they stand up quicker, better, 
more successfully?
    General Ham. I think it requires a multi-pronged approach. 
Part of it is our bilateral efforts and the bilateral efforts 
of other contributing nations, many of which are in Europe, but 
increasingly Brazil and India and others, to build the 
capabilities of individual African states. But there has to be, 
in my view, a more focused and coordinated effort from the 
African Union directing the regional economic communities and 
establishing standards and expectations for the regional 
standby forces. I think that principally is a diplomatic effort 
in engaging the African Union.
    But I am encouraged because there is for the first time a 
Memorandum of Understanding between the African Union and the 
U.S. Government that formalizes our relationship. So I'm 
hopeful that we can make some progress in the near-term.
    Senator Donnelly. Do we have metrics as we look forward? 
There's no guarantee you can hit numbers or plans or whatever, 
but here's where we hope to be next year in Africa, here's 
where we hope to be the following year, here's where we hope 
this to have expanded in 5 years, so that we can start to turn 
the tide back on this.
    General Ham. Sir, we at AFRICOM have developed each year 
and refine each year, in concert with the U.S. ambassadors, 
what we call a country plan that does, in fact, establish 
specific programs with measurables, that says where do we want 
to go. We don't yet have that same kind of arrangement with the 
regional organizations and I think that's a next step for us.
    Senator Donnelly. General Fraser, you had talked about 
cybersecurity before in regards to TRANSCOM. Do you know the 
source of the cyber attacks that are taking place?
    General Fraser. Sir, a number of them are scanning the 
network, they're just hackers trying to come in. So we see a 
myriad of attacks. There is also some advanced persistent 
attacks out there that we continue to defend against.
    Senator Donnelly. Are any of these of country of origin 
elsewhere that you know of?
    General Fraser. Sir, we continue to do the analysis on the 
various threats that we have out there and some of these are 
passed over actually to another agency to delve deeper into 
that because of the sophistication that is used.
    Senator Donnelly. In working with our contractors and 
suppliers, is there or have you detected any effort that these 
cyber attacks using the contractors and suppliers to be a back 
door into your systems?
    General Fraser. Sir, I've had one report where we are 
working with a company, but that was principally a download of 
data and activity that occurred on their network. It was not a 
back door attack into us.
    Senator Donnelly. General Ham, in regards to Benghazi, one 
of the great concerns of everyone, including you and everyone 
else, has been the time it took for response. So as we look 
forward, are there plans being made with State, with the 
consuls, with the embassies, to see how we can reduce that time 
level before you are there?
    General Ham. Those discussions are underway, Senator, in a 
number of different ways. One, is should there be an increased 
presence of Marine Corps security guards at diplomatic 
facilities in Africa and other places around the globe. That 
discussion continues.
    But I think the fundamental discussion that's occurring 
between Department of State and DOD and, in fact, more broadly 
across the government is the fundamental nature of DOD's 
security role with regard to diplomatic presence. The primary 
responsibility has been with the host nation, and if we're 
going to alter that that has some consequences. If we're going 
to posture forces that can respond in crisis on very short 
timelines in a geographic area as large as Africa, then that 
also has some consequences.
    We've taken some initial steps in that, as I outlined, in 
terms of having an east, west, and north response force. But 
even that, the distances involved, and the times involved, 
preclude response within an hour or so. This will take us, I 
think, some further study and some hard choices, some hard 
resourcing choices, about how quickly must DOD be postured to 
respond in response to a State requirement.
    Senator Donnelly. Thank you both very much. General Ham, 
again, thank you for all the years of service to our men and 
women.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you both for being here today.
    General Ham, I'm concerned about the threats in Africa as 
we see them growing and they continue to grow. With the 
reductions in funding that we've talked about here, do you 
believe that we're going to have to start to rethink our 
strategy and maybe look for more direct involvement by the 
United States in that area?
    General Ham. Senator, I think with sequestration I do 
believe we will have to revisit the Defense Strategic Guidance 
of January 2012. I don't know that that will necessarily shift 
us to a strategy that gives primacy to U.S. intervention as 
opposed to building partner capacity and reliance upon other 
nations. That'll be a difficult choice to make. It's perhaps 
faster for us to respond, but in the longer-term, I think that 
increases the demands on U.S. military forces, rather than what 
we seek to do through building partner capacity is to 
eventually reduce the demand, the global demand for U.S. 
forces, by increasing the capabilities of others.
    Senator Fischer. What areas do you think that we need to 
start to focus on? If we are looking at cuts then, besides the 
partnerships, what areas? I believe that General Rodriguez 
testified before the committee that he felt we needed to see 
increases in surveillance, aircraft, satellite imagery. Do you 
agree with that assessment or where would you look to change 
the focus then?
    General Ham. Senator, I would agree. The most significant 
shortfall I have at present and projected into the future is 
ISR, the ability to see, know, and understand the operating 
environment. So I think that shortfall will continue to have 
the greatest impact on the command.
    Senator Fischer. Do you see other areas where we need to 
focus on as well?
    General Ham. I think one of the programs I like a lot that 
this committee and Congress have supported are the so-called 
dual key authorities that DOD and Department of State, that 
those two Secretaries can control together in an effort to help 
build partner capacity in nations. I think that's an area where 
we can probably operate more efficiently and with greater 
prioritization.
    I think in general, Senator, that's what the budget 
constraints are going to cause us to do, is to take a much 
sharper prioritization to our military-to-military engagements 
in Africa. There are some exercises and other training 
opportunities that we have been doing in past years that, 
frankly, will probably fall by the wayside.
    Second, I think it will drive us to an increased 
multinational approach to building partner capacity, as opposed 
to our exclusively, almost exclusively, bilateral building 
partner capacity activities, to date.
    Senator Fischer. Senator Inhofe and Senator Donnelly both 
alluded to this, and you answered in response to their 
questions about your timing, being able to respond to crisis 
within your command. As we see terrorist networks overlapping 
across commands, how do you think the coordination works 
between the regional commands that we currently have today, and 
is that going to help us at all in responding quicker to 
crises?
    General Ham. We have some good examples recently in our 
collaboration with both CENTCOM and EUCOM. The Secretary of 
Defense has given us in Djibouti and Yemen some authorities to 
do very rapid sharing of forces between the two combatant 
commands, though the geographic boundary exists right there. 
That allows General Mattis and I to very quickly transition a 
capability, a military capability that was dedicated to me, to 
operate in support of him in Yemen or someplace else, or vice 
versa.
    I think we will need more of that kind of flexibility 
because the threats that we face, of course, don't respect our 
boundaries. They work transnationally and regionally. We have 
to be increasingly flexible in applying our authorities and our 
capabilities across those boundaries.
    But I'm encouraged, Senator, by the direction in which 
we're moving.
    Senator Fischer. Thank you, General.
    General Fraser, thank you for coming to my office to visit 
with me. I appreciated the information that you provided.
    You said that the number of attacks has increased fourfold 
in the last year, is that correct?
    General Fraser. Yes, ma'am, that's correct.
    Senator Fischer. You talked about the collaborative nature 
that you have with regards to those cyber attacks with private 
sector partners, correct?
    General Fraser. Yes, ma'am.
    Senator Fischer. This interaction with your private sector 
partners, do you believe that's the most effective way to share 
information, and is it a good approach to take?
    General Fraser. Ma'am, that's not the only thing that we're 
doing. As I mentioned earlier, in coordination with the newly 
stood-up cyber center that we have on our operations floor in 
what we call the fusion center, this neighborhood watch 
capability that we have, where everyone is working together in 
a collaborative nature, is actually enhancing us all, from our 
commercial partners as well as us just in TRANSCOM, in our 
ability to maintain the connectivity that we need to accomplish 
our job.
    So it's all of that working together that is making us as 
effective as we are. Why we're able to get together and work 
this in a collaborative nature is because everybody understands 
the importance of it. So I am encouraged by what we're doing. 
We continue to move forward in a partnership with them and 
sharing this information.
    Senator Fischer. Why are you such a prime target?
    General Fraser. I believe it's because 90 percent of what 
we do is on the unclassified network. We do have a number of 
things that we can do from sensitive operations or movement of 
sensitive or classified cargo. We do that on the SIPRNET, on 
the high side, and through other means. But because of how much 
business that we do with industry and with our commercial 
partners, that's done on the unclassified side. So, therefore, 
I also think that's one reason.
    Another reason is, too, because there's no other nation 
that can do what we do and do it the way we do it in order to 
deploy, sustain, and then redeploy our troops and respond in a 
timely manner for support of a humanitarian crisis to save 
lives, decrease human suffering, or respond to a crisis in 
another region where we've supported other combatant commands. 
So I believe there's a learning that others want to know.
    As I visit other countries and I talk to them about it, 
they don't have a transportation command. They don't have the 
collaborative nature that we have here as we reach across and 
we are actually developing a global campaign plan for 
distribution which synchronizes across all the combatant 
commands, to be able to be agile, flexible, and responsive with 
our forces. So I think there's a learning that's also going on 
to get an understanding as well as they try to collect the 
data.
    Senator Fischer. Just briefly now, without the investment 
of TRANSCOM, are your private sector partners viable? If not, 
what happens?
    General Fraser. There's significant concern in the industry 
right now and we are working through both the land, air, and 
maritime executive working groups to understand what the 
future's going to look like. Because of the budget uncertainty 
that we have with a CR, we see that we are not doing the level 
of work that we had anticipated, programmed, and forecast for 
the future. So when the 2013 budget was built, rates were 
built, they expected a certain amount of business, both 
organically and with respect to all the Services, but they're 
under pressure, and so the inability to do things such as 
exercises that have been changed, revamped, and consolidated.
    There's also a further reduction that's going to be taken 
with sequestration. So this lack of predictability, the lack of 
flexibility that's there, they are feeling the pinch. They have 
come to me and they've talked to me, which is why we're 
bringing this into the executive working groups to make sure 
that we're all on the same sheet of music and have the same 
understanding of what the business is going to look like for 
the future.
    That lack of predictability and stability right now creates 
great uncertainty. We have already had, as a result of the 
change in operations in Iraq, all very positive, but because 
the capacity that had been built on the air side of the 
business, we have had several companies that have actually had 
to go into bankruptcy and into restructure. There is one that 
has had to shut their doors. They are no longer in the 
business.
    There is also concern in the maritime industry now as the 
amount of cargo that we're moving starts to come down. So 
they're looking to shift their business into different lanes 
and going into different areas.
    The other impact as a second-, third-order effect is 
potentially, because of the high cost of crews, there has been 
some discussion about reflagging some of the ships from U.S. 
flags, and this could result in a change-out of the crews as 
well. So, there is concern across all the industries.
    Senator Fischer. Thank you, sir, very much.
    Chairman Levin. Thank you very much.
    Thanks to Senator King for his courtesies.
    Senator Graham.
    Senator Graham. I want, ought to thank Senator King, too. 
We have a markup in Judiciary about the assault weapons ban, 
which is obviously an important topic to everyone in the 
country. I'm going to try to get to that. But Senator King, 
thank you very much. Mr. Chairman, thank you for allowing me to 
go out of order here.
    General Ham, thank you for your service to our country. I 
want to get right into some questions I think are important, at 
least in my mind.
    Do you know a Lieutenant Colonel Wood?
    General Ham. Sir, I've met him briefly, and yes, I do know 
who he is.
    Senator Graham. He was assigned to the site security team 
in Benghazi, Libya. Is that correct General?
    General Ham. In Tripoli, yes, sir.
    Senator Graham. In Tripoli, a 16-person team providing 
additional security to our Ambassador and our State Department 
officials in Libya. Is that correct?
    General Ham. Yes, sir, it is.
    Senator Graham. He says that he reported to you three times 
a week or someone in your command through video 
teleconferencing about the situation in Libya. Is that an 
accurate statement?
    General Ham. Partially, sir. The special security team, a 
DOD entity, operated exclusively under what we call Chief of 
Mission authority, meaning, they took all of their direction 
from the Chief of Mission.
    Senator Graham. Right. They were under their operational 
control. But he told you or your command what was going on in 
Libya; is that correct?
    General Ham. Yes, sir. There was frequent communication.
    Senator Graham. As a matter of fact, I want to compliment 
your organization for informing the Chairman of the Joint 
Chiefs and the Secretary of Defense. My point is that through 
Lieutenant Colonel Wood's interaction with your command, he was 
able to know of the August 16 cable from Ambassador Stevens 
telling the State Department: ``We cannot defend the consulate 
if attacked in a coordinated way.'' Secretary Panetta and 
General Dempsey said that they knew of all the communications 
coming out of Libya to the State Department regarding the 
threat environment in Benghazi and Libya, in general. I think 
that has a lot to do with your command, I want to compliment 
you on that.
    Do you have any idea how the Secretary of Defense could 
have known of the reporting from the State Department about the 
threat condition in Benghazi and the Secretary of State be 
unaware?
    General Ham. Sir, I don't have any insight into that.
    Senator Graham. Thank you.
    Just for the record, Lieutenant Colonel Wood requested an 
extension to go past August 2012 to help the Ambassador. The 
Ambassador wanted his team to stay there. Would you have 
approved that request if it had come before you?
    General Ham. Sir, it would not have been mine to approve, 
but----
    Senator Graham. Would you have supported the request?
    General Ham. I would and I did, and I explained that to 
Ambassador Stevens, that if there were a request to extend the 
team, we at AFRICOM were prepared to do so.
    Senator Graham. He was sent home in August, at the same 
time these cables were coming from our Ambassador, that we 
cannot defend the consulate from a coordinated attack.
    Lieutenant Colonel Wood said on October 12 to Congress it 
was only a matter of time until we were attacked. We were the 
last flag flying. So hats off to Lieutenant Colonel Wood.
    Do you know a Representative Jason Chaffetz?
    General Ham. I do, sir.
    Senator Graham. He visited you on October 5 at your 
headquarters in Stuttgart, Germany. Do you recall that visit?
    General Ham. I do, sir.
    Senator Graham. You went together on October 6 to Tripoli 
to visit the Embassy Country Team. Do you recall that visit?
    General Ham. Yes, sir.
    Senator Graham. Do you recall him asking you what military 
assets you ordered deployed to Libya once you learned that the 
Embassy's Special Mission Compound in Benghazi was under 
attack? According to Representative Chaffetz, you responded 
that you could have deployed assets; however, it was not 
requested. Do you recall saying that?
    General Ham. Not in those specific terms, Senator. I recall 
having a discussion about the forces that were available, the 
forces I requested of Secretary of Defense be placed on 
heightened alert, in some cases----
    Senator Graham. Did you ever recommend to Secretary 
Panetta, General Dempsey, the President, or anyone in authority 
to move assets into Libya?
    General Ham. Yes, sir, and they approved that and the teams 
did move.
    Senator Graham. So what was the closest team?
    General Ham. The team that was best postured to move was 
the Fleet Antiterrorism Security Team in Rota.
    Senator Graham. So when did they begin to move?
    General Ham. I don't know precisely when they began to 
move. They arrived in Tripoli about 24 hours after the attack.
    Senator Graham. I guess my point--were fighter aircraft 
available in Aviano that could have gotten into Libya within 24 
hours?
    General Ham. They could have been, sir. I did not so 
request----
    Senator Graham. Did you ever suggest that we deploy any 
military asset quicker than 24 hours?
    General Ham. I did not. I considered, but did not request 
the deployment of fighter aircraft.
    Senator Graham. Did anybody ever ask you, General Ham, what 
do we have to get to the aid of these folks quickly? Did anyone 
ever suggest that we use an F-15 or F-16 to buzz the compound 
once the Ambassador was found missing?
    General Ham. Not to my knowledge, sir.
    Senator Graham. Were you ever told to stand down in any of 
your efforts to move people into Libya because we were 
concerned about violating Libyan air space?
    General Ham. No, sir.
    Senator Graham. Were you ever tapped on the shoulder by 
anyone and told, ``you're going ahead of yourself here?'' No 
one ever suggested to you to stop what you were doing?
    General Ham. No, sir.
    Senator Graham. Did you know when the attack was going to 
be over when it started?
    General Ham. Certainly not.
    Senator Graham. What kind of reaction was there in the 
system when the Ambassador was found missing?
    General Ham. Shock, to be sure; an all-out effort to find 
him and hence the diversion of the unmanned system to get that 
overhead as quickly as possible.
    Senator Graham. An all-out effort. Did we have air assets 
within 2 to 3 hours of Libya? Were there any 130s available to 
go in? Were there any AC-130 gunships?
    General Ham. I know for a fact there were no AC-130s in the 
theater. I would have to check if there were any C-130s.
    Senator Graham. Could you do this? Could you give this 
committee in writing a detailed analysis of the military assets 
available that could have gotten into the Benghazi area within 
12 hours?
    General Ham. Yes, sir.
    Senator Graham. Please tell us what you recommended, who 
you recommended it to, and what to do with those assets.
    General Ham. I will, sir.
    [The information referred to follows:]

    [Deleted.]

    Senator Graham. Did you ever talk to the President of the 
United States?
    General Ham. Not on this matter, no, sir.
    Senator Graham. When the Secretary of Defense turned to you 
and said, ``there's really nothing we can do within 24 hours to 
help these people,'' what was his reaction?
    General Ham. Sir, it wasn't that kind of a conversation. 
The initial discussion was about the initial reports of an 
attack, trying to gather information, what's happening, what 
forces are available to respond. That's what precipitated the 
alert to the Fleet Antiterrorism Security Team, and to the CIF.
    Senator Graham. Just finally, did it become apparent to 
everybody in the room, there's nobody can get there within 24 
hours?
    General Ham. Pretty quickly. Not necessarily the 24 hours, 
because the Fleet Antiterrorism Security Team and the CIF could 
have arrived earlier. But then, again, knowing what we knew 
then, different than what we know now, the attack culminated 
and seemed----
    Senator Graham. Did you stop their deployment?
    General Ham. We did not. We timed the deployment, then, in 
concert with the embassy to say, ``when do you want this, when 
do you need this team to arrive?''
    Senator Graham. Thank you. My time has run out.
    Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator King.
    Senator King. General Ham, just for the record, you used a 
term that gave me a start. You said ``Al Qaeda-Main.'' Can we 
make it clear that there's no ``e'' on the word ``main'' in 
that phrase? [Laughter.]
    General Ham. Certainly, Senator, yes. ``Al Qaeda senior 
leaders.''
    Senator King. I appreciate that.
    The question's been asked and I think Senator Graham's 
questions were around this. I'm less interested in the details 
of what happened and more interested in what do we learn from 
it. I think the question's been asked several different ways. I 
don't want to prolong it, but it seems to me the strategic 
challenge--and it's fortuitous that you two fellows are here at 
the same time--is how do we decrease response time while still 
maintaining a relatively small footprint? That really, it seems 
to me, is the ongoing strategic issue. I know you've talked 
about it. I don't expect a lengthy answer, but I think it has 
to do with transportation, because we don't want a big base in 
Africa, I don't think. But on the other hand, as we learned in 
Benghazi, we want to be able to get people--and not necessarily 
in the context--the Benghazi case was a State Department 
emergency. There may be other emergencies where American 
interests are threatened on a short-term basis.
    I just suggest to you, I hope that's something that's in 
the planning and discussion stages, because I think that's the 
strategic challenge that we face. Do either one of you want to 
address that?
    General Ham. I'll start, Senator, if that's okay. I do 
agree with you. The challenge for us, I think, begins--first of 
all, we're much better at prevention than we are at response. 
Prevention is a lot cheaper, but that necessitates better 
understanding of the operating environment, and hence my 
concern for increased ISR, so that we have that better 
understanding and we can perhaps, as we have done in some 
places, a preventive deployment, if you will, a reinforcement 
to prevent an activity from occurring, rather than responding 
to crisis.
    General Fraser. Sir, if I might add on TRANSCOM's part, one 
of the things that I find that is good about the command is the 
flexibility and the agility that we have, so that we have a 
rather robust intelligence shop. We maintain constant contact 
with all of our combatant commands, so that when there is an 
event, whether it's an attack, whether it is a natural 
disaster, an earthquake, a tsunami, whatever it may be, one of 
the things that we initially do as part of our process is to 
start looking at what is in the system and what I have 
available.
    As soon as we know that, then we're able to take action 
and, dependent upon what it is that we may be responding to, we 
have authorities, for instance, to start putting aircraft on 
alert, to put crews into crew rest so that they'll be 
immediately able to respond. We have different levels of alert 
postures. Those are some of the things that we start doing 
right away.
    Numerous times they're never called upon. But immediately 
within the system, the global nature of the mission and the 
fact that we're around the globe somewhere, we're able to put 
our hands on assets dependent upon the combatant commander's 
needs. So there's a lot of flexibility and agility in the 
system.
    If I might add, I do have a concern as we move to the 
future. Because of the cuts that are occurring, there's going 
to be an impact, I think, long-term second- and third-order 
effects of this readiness and this posture level. So will we 
have that flexibility and agility in the system if the 
readiness levels begin to lower to lower levels, and what risk 
will that present to the system and the rapid response that is 
required in the future? So it is something we're going to have 
to keep an eye on. It's something that we'll make sure that we 
continue to work with our combatant commands and our commercial 
partners.
    Senator King. I appreciate it. I think to me, the Benghazi 
situation gives us an opportunity to learn. One of my 
principles in a situation like this is after-action assessment 
and what could we have done differently. I'm sure you've done 
that. But to me, the fundamental question is how do we get 
assets where they're needed in a fairly short time, whether 
it's 2 hours, 4 hours, 6 hours? It depends on the 
circumstances. But I'm sure you're working on that, your 
command is working on that.
    General Ham, I certainly appreciate your service to the 
country and wish you the best of luck. I'll join Senator 
McCain. I'm sure that one thing you won't miss is appearing 
before this committee. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator King.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of our witnesses that are here today 
for their distinguished service. I very much want to thank you, 
General Ham, with your impending retirement, for everything 
that you've done in AFRICOM.
    I want to reiterate what you also heard from some of my 
colleagues. I was deeply impressed when General Dempsey 
testified before the committee, certainly the level of 
briefings that you had provided up the chain of command with 
regard to the deteriorating security situation in eastern 
Libya. So I very much appreciate that.
    I have a follow-up question to what Senator Graham was 
asking you about with regard to what happened in Benghazi. When 
General Dempsey testified before this committee along with 
Secretary Panetta, he said that essentially you had recommended 
the extension of the site security team in Libya, in other 
words, the 16-person team that Senator Graham was asking you 
about, the security team that was present, that was not 
extended. It went there until August 5.
    When General Dempsey testified before this committee, he 
said that you personally had recommended the extension of the 
special security team, you were aware and briefed on the August 
cable that the Ambassador had indicated that the consulate 
could not withstand a coordinated attack. According to General 
Dempsey's testimony, you were told no, that there wouldn't be 
an extension.
    So how did that come about? Who told you no? Who made the 
call that the site security team should not be extended?
    General Ham. Senator, to the best of my knowledge, there 
was no request from the Department of State to DOD to extend 
the team. That's how the process began, was a request from 
State to Defense for this augmentation, Senator, twice 
extended. But I'm unaware--I do not believe there was a request 
for a third extension.
    My support for the extension was, first, we were postured 
to do so, that if State so requested we had the people ready--
some of them were those who were already deployed that would be 
extended. Some would be replacement persons. So we were ready 
to respond to an extension should one be directed.
    But there was also, I will admit to a selfish motivation. 
Though the team operated exclusively under the Ambassador's 
authority, it was good for us to have military people in Libya 
who were establishing contacts, building rapport, building 
relationships, building their understanding of Libya, that we 
knew would pay off for us in establishing a military-to-
military relationship with the Libyans. So I had a selfish 
motivation in the DOD presence.
    Senator Ayotte. So as General Dempsey told us, he said that 
you actually called the embassy to ask whether they wanted an 
extension of it. Do you recall doing that?
    General Ham. I do, Senator. I had numerous conversations by 
phone or by secure video teleconference with Ambassador Cretz 
and with Ambassador Stevens, and Ambassador Stevens visited the 
AFRICOM headquarters on August 20 and we had face-to-face 
discussions then as well.
    Senator Ayotte. So when you had these conversations, what 
were you told in terms of why they were not asking to keep the 
security team there?
    General Ham. I did not have that discussion with Ambassador 
Stevens. It was simply my point to him to say: ``You know, if 
State asks and the Secretary of Defense, obviously my boss, 
approved it, we were postured to support the team.''
    Senator Ayotte. Did you think it was a good idea that the 
team remain longer?
    General Ham. In my personal view, yes, ma'am.
    Senator Ayotte. Did you express that to the State 
Department?
    General Ham. Only to Ambassador Stevens, and previously to 
Ambassador Cretz, and certainly to General Dempsey.
    Senator Ayotte. Just so we understand, when the British 
Ambassador's convoy was attacked, this team actually helped 
recover and helped them when they were attacked, as I 
understand it. So it had provided substantial assistance when 
there had been other attacks in the area, particularly on our 
allies.
    General Ham. Senator, some members of the team did 
occasionally travel into Benghazi at the request and direction 
of the Ambassador and, as you might expect, from U.S. military 
personnel, if there was a mission to be accomplished they were 
going to find a way to try to do it.
    Senator Ayotte. Just trying to understand what occurred and 
also what lessons we can take from this. As I understand it, 
you have at AFRICOM headquarters, interagency representatives, 
where you have from nine different Federal agencies that meet 
together to talk about and coordinate AFRICOM's activities. 
Could you explain what that is and how does that working group 
work together, and thinking about it in light of a situation 
like this, where what we don't want is DOD thinking this is 
what we should be doing to protect the consulate and this is 
the best course of action, but Department of State not taking 
that information in.
    Could you tell me, did that working group take up the 
security? Does it take up security issues? Did it in this 
instance?
    General Ham. Senator, one of the directions given to 
AFRICOM is a mission set very similar to other geographic 
combatant commands. But there's a special direction that says 
that in Africa we will give particular attention to a whole-of-
government or interagency approach to achieving the U.S. 
interests in Africa. That's resulted in a presence within the 
command, as you mentioned, for multiple different U.S. 
Government agencies. They don't sit as one body, but rather 
they are interspersed throughout the command.
    What those non-DOD personnel bring to us for the most part 
is African expertise and experience and the particular 
experience and expertise of their home organizations, be it the 
Departments of Homeland Security or Agriculture or Treasury; 
certainly State and the Foreign Service and the U.S. Agency for 
International Development, and many other organizations.
    They're coordinated by a very senior Foreign Service 
officer who serves as my deputy commander for civil-military 
activities, a very senior Foreign Service officer, a three-time 
ambassador. He coordinates the interagency role in the 
government.
    So what that says is that we have an opportunity because of 
the presence of those interagency personnel in the command to 
have a very strong connective relationship with the U.S. 
country teams, who are also multiagency, but also back to the 
agency headquarters in Washington. That gives us some great 
benefits.
    Senator Ayotte. It sounds like a very good working group. 
In the context of what happened in Benghazi and thinking about 
the protection of the consulate, the prior course of attacks 
that, of course, you reported up the chain of command, was that 
ever discussed in that interagency working group in terms of 
the deteriorating security situation and what actions we should 
be taking to ensure protection of personnel and to deal with 
the situation there?
    General Ham. Yes, ma'am. It was a serious point of 
discussion for a number of months--growing concern over the 
increasing presence of individual extremists, some of them with 
strong al Qaeda links, growing concern over an expanding 
network, particularly in eastern Libya, and this caused us to 
concentrate our intelligence collection efforts, which were 
few, frankly, but those that we did have, to coordinate our 
collection efforts in eastern Libya to better understand the 
emerging situation.
    Senator Ayotte. I know that my time is up. One of the 
things that I'm struggling with--I think about that group and I 
know that, as I understand it, your deputy in that group is a 
pretty senior ranking official in the State Department--why we 
wouldn't have thought about having the communication of 
extending the site security team, in light of all these 
discussions and the situation as it was unfolding in Benghazi. 
Was that just not an issue taken up by that group?
    General Ham. Ma'am, we did have that discussion. As 
mentioned, Senator, we were prepared to extend the team. I do 
not know the decisionmaking process within State that led to an 
extension not being requested.
    Senator Ayotte. So this was discussed with this team. There 
was--as I understand it, Chris Dell is your deputy on that 
team, who is a pretty high-ranking official in the State 
Department. But when you had these discussions you don't know 
why they didn't go up and the decision in the State Department 
wasn't made to extend the team?
    General Ham. I do not, Senator.
    Senator Ayotte. Thank you, sir.
    Chairman Levin. Thank you, Senator Ayotte.
    Now we have finished our first round. Is there anyone who 
wishes to ask any additional questions at this time? [No 
response.]
    If not, we thank you both. A special thanks again to those 
who work with you, and a special good luck to you, General Ham.
    We'll stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

               IN-TRANSIT VISIBILITY OF THE SUPPLY CHAIN

    1. Senator Nelson. General Fraser, the U.S. Transportation Command 
(TRANSCOM) is the Department of Defense (DOD) lead for in-transit 
visibility (ITV) throughout the supply chain. Government Accountability 
Office (GAO) reports that although DOD has taken steps to improve in-
transit tracking, no one organization is aware of all such efforts 
across DOD. GAO further states that there are at least 34 such 
individual efforts across DOD, with only informal coordination amongst 
them. As DOD is projected to spend $455 million on these efforts from 
2012 to 2015, are you going to take an active role in these individual 
efforts?
    General Fraser. DOD efforts and projected expenses cited are those 
of the four Services and defense agencies like the Defense Logistics 
Agency (DLA). TRANSCOM's responsibility as DOD lead proponent for ITV 
is to collaborate with the Services/agencies to eliminate overlaps and 
to ensure synergy among their programs.
    Yes, TRANSCOM has been actively involved in this mission and will 
continue to be so. The Deputy Secretary of Defense, Supply Chain 
Integration, is currently drafting DOD Strategy for Improving Asset 
Visibility (Tracking) and ITV with input from TRANSCOM, the Services, 
and DLA. Our understanding is this document will further define the 
centralized roles of TRANSCOM in coordinating the DOD ITV efforts.

                      JACKSONVILLE PORT AUTHORITY

    2. Senator Nelson. General Fraser, the National Defense 
Authorization Act for Fiscal Year 2008 directed the Secretary of 
Defense to develop and implement a plan to optimize the use of 
strategic ports. Despite a 2008 study which ranked Jacksonville as the 
number one east coast strategic port, Jacksonville Port Authority 
(JAXPORT) saw a decrease in volume of military cargo. We corresponded a 
year ago on this particular topic, specifically regarding the overall 
selection process and movement of cargo through strategic seaports, as 
well as best-value practices and processes for planning, routing, and 
booking cargo. At the time, the audit of the Surface Deployment and 
Distribution Command to determine cost effectiveness of cargo movement 
procedures was ongoing, but the results were not expected in the near-
term. Will you provide an update regarding the status of your review?
    General Fraser. The GAO audit referred to in our March 2012 
correspondence is complete. The review of DOD preparations for the 
Afghanistan drawdown (GAO-13-185R) was completed December 2012. This 
audit, however, does not address your concerns regarding the cost 
effectiveness of cargo movements and the relative impact to seaports 
such as the JAXPORT.
    DOD has 22 designated Strategic Seaports and 17 of them are 
commercial. Such designation does not guarantee throughput of military 
cargo or DOD business. However, JAXPORT has been, and remains, one of 
our busiest seaports. Many factors are considered when selecting 
seaports for inbound and outbound military cargo. For most missions, 
port selection is initially recommended by the combatant command at 
Force Flow conferences and is documented in the Joint Operations 
Planning and Execution System. The type of cargo and the overland cost 
to transport the cargo is also considered. Additionally, a significant 
portion of the surface cargo is often booked with a commercial carrier 
using the door-to-door method. In such cases, the carrier decides which 
seaports to use based upon a business analysis taking advantage of 
their network and infrastructure. This is often the best-value option 
for the government.
    Since March 2012, we have processed 1,928 pieces of redeployment/
retrograde cargo through JAXPORT in support of drawdown efforts in Iraq 
(Kuwait) and Afghanistan. During the same time frame, JAXPORT processed 
1,269 pieces of cargo in support of U.S. Africa Command (AFRICOM) 
missions. The 101st Combat Aviation Brigade from Fort Campbell, KY, 
deployed through JAXPORT recently, and we forecast increased traffic 
via Jacksonville for 2,723 pieces of Foreign Military Sales (FMS) bound 
for Afghanistan. Finally, we are conducting a feasibility analysis 
using JAXPORT for expanded agricultural inspections of cargo returning 
from Afghanistan.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

                       BUILDING SECURITY CAPACITY

    3. Senator McCaskill. General Ham, one of AFRICOM's central 
missions is to strengthen the defense capabilities of African states. 
In January 2013, an International Security Advisory Board report on 
``Security Capacity Building'' found that the United States annually 
spends more than $25 billion on what is broadly classified as security 
capacity of the recipient states. The report found that we have a 
multiplicity of programs spread across different departments and 
agencies where there may or may not be coordination in resourcing and 
execution. A lack of coordination could easily lead to duplication of 
effort and waste of resources that would be better spent elsewhere. As 
the combatant commander, what policies are in place to ensure efforts 
are coordinated with our diplomatic missions and other Federal agencies 
to ensure duplication is not occurring?
    General Ham. AFRICOM coordinates directly with the Department of 
State (DOS) and U.S. Embassy country teams as we plan our programs. We 
encourage a transparent approach to capability development to include 
inviting members from the Office of the Secretary of Defense (OSD) and 
DOS to the initial stages of proposal development. Our excellent 
working relationship with DOS and OSD and the growing number of Offices 
of Security Cooperation in African nations facilitate this dialogue and 
help ensure that the U.S. Embassy Chief of Mission has all the required 
information to provide final approval to our programs--a key method for 
ensuring that all agencies are involved.

    4. Senator McCaskill. General Ham, while many at the DOS and the 
U.S. Agency for International Development (USAID) welcome the ability 
of DOD to leverage resources and to organize complex operations, there 
also is concern that the military may overestimate its capabilities as 
well as its diplomatic role, or pursue activities that are not a core 
part of its mandate. The highly unequal allocation of resources between 
the DOD, USAID, and DOS could hinder their ability to act as equal 
partners and could lead to the militarization of development and 
diplomacy. How are you balancing our military presence in Africa with 
our diplomatic responsibilities?
    General Ham. The U.S. Ambassadors are the lead for U.S. diplomatic, 
informational, military, and economic development in each African 
nation. AFRICOM fully supports them and DOS to ensure a balanced and 
synchronized effort between diplomatic, development, and military 
presence in African nations. Traditional U.S. military engagement 
strategy has been grounded in threat-based analysis. To meet our 
growing responsibilities in Africa, the command will complement this 
traditional framework with a partnership-based analytical approach to 
planning. We will develop strategies to use our military capabilities 
in a supporting role with our interagency team in an effort to assist 
our partners in building resilient, democratic security institutions.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III

                        EQUIPMENT IN AFGHANISTAN

    5. Senator Manchin. General Fraser, Foreign Policy Magazine's 
Situation Report reported on Tuesday, March 5 that the Army is planning 
on leaving about $6 billion worth of equipment in Afghanistan post-
2014, after moving about $21 billion of equipment out of the country. I 
do not want a single soldier to die trying to move equipment out of 
Afghanistan, but--at the same time--this seems like a tremendous waste 
of resources at a time of fiscal crisis in this country. What was 
TRANSCOM's role in determining what equipment was worth returning to 
DOD's inventories outside of Afghanistan?
    General Fraser. The individual Services make the determination of 
what equipment will be returned to DOD's inventories. TRANSCOM's role 
is to provide the transportation of equipment back to the United States 
or other locations via military or commercial means.

    6. Senator Manchin. General Fraser, how does the Afghanistan 
retrograde situation compare with that of Iraq?
    General Fraser. The retrograde of materiel out of Iraq was 
significant and challenging. The reduction of troops and equipment out 
of Afghanistan is much more challenging and is being conducted with 
deliberate and careful planning. Additionally, Afghanistan's road 
system is not as developed and there is no neighboring country like 
Kuwait which allows U.S. Forces to stage vehicles and equipment for 
processing and onward movement to the United States. Also, Afghanistan, 
unlike Iraq and Kuwait, does not have access to a seaport.
    To mitigate any challenges, TRANSCOM has focused on increasing our 
strategic flexibility. The past year has seen the successful reversal 
of the flow on multiple ground routes to include: the Afghanistan to 
Europe Route, the Trans-Siberian Route, the Kazakhstan, Kyrgyzstan, 
Tajikistan route, as well as reestablishing bi-directional flow on the 
Pakistan Ground Lines of Communication (PAKGLOC). Additionally, we are 
expanding our multi-modal options to include retrograde operations 
through Baku, Azerbaijan.

    7. Senator Manchin. General Fraser, what was the value of equipment 
left in Iraq?
    General Fraser. The Services are in the best position to provide an 
overall cost analysis of equipment in theater. TRANSCOM assists the 
Services with calculating the transportation cost and readily supports 
equipment movement once the Services make a determination of what is to 
be returned to the United States.

    8. Senator Manchin. General Ham, I recently received an interesting 
briefing from the Henry Jackson Society on those convicted of planning 
or perpetrating al Qaeda related terrorist offenses in the United 
States. Of the 171 individuals convicted of al Qaeda-related offenses 
studied by the researchers, about half had received terrorist training 
of some kind. Of these, nearly 70 percent trained in Afghanistan, but 5 
percent trained in Somalia. What is the current status of terrorist 
training in the AFRICOM Area of Responsibility (AOR), particularly in 
Somalia?
    General Ham. [Deleted.]

    9. Senator Manchin. General Ham, what is AFRICOM doing to manage 
this challenge?
    General Ham. We believe that African nations are best suited to 
address security challenges in Africa. AFRICOM will continue to work as 
one element of a total U.S. Government approach to enable our African 
partners to address security challenges. Our efforts focus on 
intelligence-sharing and capacity-building so that Africa nations are 
better able to prevent or defeat terrorist training activities within 
their borders.

    10. Senator Manchin. General Ham, under your leadership, the United 
States has expanded its presence in Africa, including through the 
establishment of new bases in Niger and Burkina Faso primarily tasked 
with counterterrorism and surveillance missions. Will these bases 
continue to serve primarily as platforms for surveillance, or will we 
begin to see a larger U.S. troop presence and expansion of the mission 
at these bases?
    General Ham. Our presence in Niger and Burkina Faso is served by 
operating locations rather than by long-term enduring bases. We do not 
intend to increase U.S. troop presence or expand the mission in Niger 
or Burkina Faso beyond what is necessary to support our ongoing 
operations. We maintain a low profile presence while bringing to bear 
unique U.S. capabilities in accomplishing our mission.

    11. Senator Manchin. General Ham, over the next year, do you 
anticipate that the United States will conclude additional status of 
forces agreements with African nations, as we did with Burkina Faso on 
February 28?
    General Ham. The United States most recently concluded a Status of 
Forces Agreement (SOFA) with Niger on January 28, 2013. The United 
States currently has status protection agreements with 32 of 54 nations 
in the AFRICOM AOR. Of those, six are global SOFAs which contain all of 
the immunity privilege provisions the United States normally seeks to 
ensure mission accomplishment and status protections for U.S. uniformed 
and civilian members of DOD.
    The United States is currently in the process of negotiating a SOFA 
(renewal and update of existing agreement) with Morocco, as well as 
concluding SOFAs with Cape Verde (new) and Uganda (renewal and update). 
In addition, DOD has coordinated with DOS to deliver our global SOFA 
text to 10 other nations in the AOR in the past year. We are hopeful 
that we will be able to successfully negotiate and conclude these 
agreements.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                                BENGHAZI

    12. Senator Inhofe. General Ham, terrorist attacks in Benghazi on 
September 11, 2012, that left four Americans dead--Ambassador Chris 
Stevens, Sean Smith, Tyrone Woods, and Glen Doherty. Deaths that I 
believe could have been prevented. What has become clear is that the 
United States was woefully unprepared for what occurred in Benghazi. 
Warning signs went unheeded--when tragedy struck, forces weren't ready 
to respond. What is also clear is that following the attack, the 
administration provided the American people inaccurate information 
about the true nature of the catastrophic events in Benghazi. Secretary 
Panetta and General Dempsey admitted before this committee last month 
what most of us knew all along: it was immediately apparent to the 
Obama administration that the deadly assault on our Benghazi annex was 
unequivocally a coordinated terrorist attack. What was your assessment 
of the threat in Libya prior to the attack?
    General Ham. Due to the presence and activities of al Qaeda 
operatives and other extremist networks in the region, there was a 
general agreement in the Intelligence Community that Benghazi and 
northeastern Libya were high-threat areas. However, there was no 
specific, credible intelligence that an attack against the U.S. Special 
Mission Facility or annex was being prepared.

    13. Senator Inhofe. General Ham, were you aware of the multiple 
attacks against Western interests in Benghazi in the months before the 
events of September 11, 2012, including against the British Ambassador, 
the Red Cross, and the U.S. Consulate?
    General Ham. Yes.

    14. Senator Inhofe. General Ham, were you aware that the British 
pulled their mission out of Benghazi and the Red Cross suspended 
operations?
    General Ham. Yes.

    15. Senator Inhofe. General Ham, did you make or recommend any 
changes in AFRICOM force posture or alert status in the region based on 
the threat picture? If not, why not?
    General Ham. Yes, DOD posture across the world on September 11, 
2012, was commensurate with the anticipated threat and force protection 
conditions across individual regions. Our forces maintained heightened 
awareness, however; we were not aware of specific threats to U.S. 
personnel in Libya. We were also unaware of Ambassador Stevens' travel 
to Benghazi as it is not customary for U.S. Embassies to advise DOD of 
ambassadors' travel.

    16. Senator Inhofe. General Ham, did you talk with Secretary 
Panetta, General Dempsey, and/or the President during the attacks, and 
if so, what was discussed?
    General Ham. Yes. I spoke with Secretary Panetta and General 
Dempsey. Secretary Panetta, General Dempsey, and I discussed the 
situation, threats, and forces available.

    17. Senator Inhofe. General Ham, when and how did you find out 
about the attack in Benghazi?
    General Ham. I was in Washington, DC, when I received the 
notification call from my AFRICOM operations center at approximately 
1620 EDT.

    18. Senator Inhofe. General Ham, what options did you recommend to 
the President, Secretary of Defense, and/or the Chairman of the Joint 
Chiefs?
    General Ham. [Deleted.]

    19. Senator Inhofe. General Ham, what forces were available forces 
and what direction did you give your forces?
    General Ham. [Deleted.]

    20. Senator Inhofe. General Ham, were you told not to execute any 
of your recommendations?
    General Ham. No.

    21. Senator Inhofe. General Ham, do you believe the attack was a 
coordinated terrorist attack?
    General Ham. Yes. It was clear to me soon after the first attack 
that this was more than a demonstration.

    22. Senator Inhofe. General Ham, did the State Department ask for 
assistance in securing the attack sites after the Americans had been 
evacuated to facilitate the investigation?
    General Ham. No.

    23. Senator Inhofe. General Ham, knowing what you know now, would 
you make any different immediate recommendations or take different 
actions?
    General Ham. Had we known then what we know now, I suspect 
Ambassador Stevens would not have travelled to Benghazi and the DOS 
would have sought DOD assistance in evacuating all Americans from 
Libya.

    24. Senator Inhofe. General Ham, does the growing terrorist threat, 
and lack of warning of this attack, indicate we are under-resourcing 
our counterterrorism efforts in the Sahel?
    General Ham. AFRICOM's intelligence, surveillance, and 
reconnaissance (ISR) requirements continue to increase based on the 
growing terrorist threat in our AOR. ISR assets are low-density/high-
demand assets that are in demand across the globe.
    We recognize that we are one part of an overall U.S. 
counterterrorism strategy. We will continue to work with the DOS to 
enable partners to strengthen their counterterrorism capabilities.

                        AFGHANISTAN REDEPLOYMENT

    25. Senator Inhofe. General Fraser, unlike Iraq, Afghanistan 
presents a much more significant logistical challenge for the movement 
of people and equipment into and out of the theater. Until last fall, 
the military used a mix of commercial and military surface 
transportation along five major ground routes through Pakistan to 
deliver approximately 40 percent of total cargo into Afghanistan. 
TRANSCOM also used a series of three northern routes though Central 
Asian countries called the Northern Distribution Network (NDN) to 
deliver another 40 percent, and Air Mobility Command (AMC) aircraft to 
move the remaining 20 percent. However, TRANSCOM will remain challenged 
to move the sheer volume required to meet the President's December 2014 
deadline for the withdrawal of the majority of combat forces from 
Afghanistan. What difficulties do you foresee with getting DOD 
equipment and personnel out of Afghanistan?
    General Fraser. None at the present time; however, floods, renewed 
strikes/disputes, sectarian violence, and upcoming elections could 
disrupt future cargo along the PAKGLOC. Afghanistan is a logistically 
challenging area of operations. Limited surface routes and geopolitical 
sensitivities have the potential of negatively affecting our ability to 
support retrograde operations out of Afghanistan. To mitigate these 
challenges, TRANSCOM has established multiple transportation routes, 
including airlift between the continental United States and 
Afghanistan, as well as commercial surface and multi-modal 
transportation routes. TRANSCOM is providing the strategic flexibility 
needed to meet U.S. Central Command's (CENTCOM) redeployment timeline 
and is ensuring that there are no single points of failure in the 
transportation enterprise.
    The past year has seen the successful reversal of the flow on 
multiple ground routes to include the Afghanistan to Europe Route, the 
Trans-Siberian Route, the Kazakhstan, Kyrgyzstan, and Tajikistan route; 
as well as reestablishing bi-directional flow on the PAKGLOC. 
Additionally, we are expanding our multi-modal routing options to 
include retrograde operations through Baku, Azerbaijan.
    In order to increase operational flexibility, decrease 
transportation costs, and provide additional geopolitical theater 
engagement opportunities, we are partnered with DOS, CENTCOM, and U.S. 
European Command (EUCOM) to open new ground and multi-modal routes 
while continuing to synchronize our efforts with CENTCOM. One example 
of increasing flexibility is the passenger (PAX) transit option at 
Mihail Kogalniceanu (MK), Romania. Our efforts to open an additional 
transit location for PAX movements culminated in the successful bi-
directional movement last September and this past February. Nearly 
12,600 passengers have transited MK.

    26. Senator Inhofe. General Fraser, does DOD have sufficient 
capacity to meet the drawdown timeline through 2014?
    General Fraser. TRANSCOM currently has enough capacity to meet the 
2014 drawdown timeline. We are in the process of increasing capacity by 
opening new routes and new modes through several proofs of principle. 
Once fully realized, these routes will provide additional operational 
flexibility to the CENTCOM Commander during the Afghanistan drawdown. 
These efforts will increase cost-effectiveness and provide additional 
geopolitical engagement opportunities.

    27. Senator Inhofe. General Fraser, has DOD determined what 
equipment you will be returning to the United States?
    General Fraser. The Services have made decisions on some equipment 
that will be returning to the United States. TRANSCOM has been 
transporting this equipment back to the United States for over a year. 
The Services are still deciding on other equipment that may be declared 
excess and offered to other countries as Excess Defense Articles (EDA).

    28. Senator Inhofe. General Fraser, do you have the authorities you 
need to return all required equipment?
    General Fraser. Yes, we have the authorities to return all required 
equipment to the United States or other U.S. locations.

    29. Senator Inhofe. General Fraser, why has it taken so long to 
finally open and use the PAKGLOC?
    General Fraser. After the November 26, 2011, friendly fire incident 
in Pakistan, the initial talks between the United States and the 
Government of Pakistan to reopen the PAKGLOC began on April 27, 2012. 
Those talks resulted in a decision to establish a Memorandum of 
Understanding (MOU) on principles and procedures for cargo movement 
through Pakistan. On May 15, 2012, Pakistan's Defense Committee of the 
Cabinet authorized the Ministries/Departments to conclude the ongoing 
negotiations and shift the bilateral discussions to a more formal 
negotiation.
    On July 11, 2012, 1 week after Pakistan formally reopened the 
PAKGLOC, Pakistan indicated that the cargo backlogged in Karachi would 
move under existing, pre-November 2011 arrangements. The U.S. Embassy 
and Pakistan counterparts then agreed that no new transit fees would be 
charged on cargo transiting Pakistan.
    Negotiations for the Terms of Reference (ToR) took place from 
August to November 2012 with formal signing on November 1, 2012. On 
November 7, the Exchange of Letters between Pakistan and the North 
Atlantic Treaty Organization was signed, which brought all of our 
International Security Assistance Force partners under both the MOU and 
the ToR.
    U.S. Forces Afghanistan developed Proof of Principles (PoPs) to 
incrementally test the new agreements, processes, and the newly 
established Universal Service Contract-7. Our PoPs are complete and 
customers are now starting to shift sustainment and retrograde cargo to 
the PAKGLOC.

    30. Senator Inhofe. General Fraser, what difficulties are you 
encountering with this route?
    General Fraser. None at the present time; however, floods, renewed 
strikes/disputes, sectarian violence, and upcoming elections could 
disrupt future cargo along the PAKGLOC. TRANSCOM, while balancing 
requirements and capacity, will continue to ship cargo along other 
transit routes, as a hedging strategy to ensure flexibility and 
minimize the effects of any disruption along the PAKGLOC.

    31. Senator Inhofe. General Fraser, is Pakistan cooperating with 
us?
    General Fraser. Pakistan is cooperating in restoring the flow of 
the PAKGLOC. We have communicated our expectations and they understand 
that if the PAKGLOC is not meeting our requirements we will use our 
other available routes, which would divert business from Pakistan. It 
is in both our interests to maximize the cargo flow along the PAKGLOC.

    32. Senator Inhofe. General Fraser, why does TRANSCOM continue to 
move most of DOD supplies through the NDN when Pakistan is open and 
less expensive to use?
    General Fraser. TRANSCOM supports warfighter and Service priorities 
by providing a transportation network that maximizes strategic 
flexibility and reduces operational risk across a variety of routes and 
modes, both into and out of Afghanistan. Additionally, we are actively 
engaged with Pakistan to fully realize the potential velocity and cost 
savings associated with transiting the PAKGLOC; while at the same time, 
balancing the operational requirement for multiple transportation 
options.
    The PAKGLOC is through the PoP process that was aimed at ensuring 
the viability of the route under the newly negotiated Terms of 
Reference. We are now increasing our bookings of new cargo to this 
route.

    33. Senator Inhofe. General Fraser, what difficulties are you 
encountering with the NDN route?
    General Fraser. TRANSCOM continues to optimize the use of the NDN 
route. This is not one singular route, but a network of roads and rail 
lines throughout Europe, Russia, the Central Asian States, and the 
Caucasus. Each month thousands of containers of cargo destined for 
Afghanistan flow across the NDN with few issues or interruptions. We 
continue to work with the NDN nations to improve the processes and 
strengthen our relations with these partnering countries. As for 
retrograde, countries directly adjacent to Afghanistan require new 
processes and procedures for export of cargo out of Afghanistan. We 
continue to work closely with these nations to meet these specific 
export requirements, and in some cases, improve velocity by replacing 
manual processes with technology.

    34. Senator Inhofe. General Fraser, if operations in the CENTCOM 
and AFRICOM AOR do not substantially subside to support the rebalance 
to the Asia-Pacific region, which is a major premise of the new Defense 
Strategic Guidance, what increased risks do you assess will occur for 
TRANSCOM as it relates to operational tempo and meeting global airlift 
requirements?
    General Fraser. TRANSCOM supports warfighter and Service 
priorities, as directed by the Joint Chiefs, by providing a 
transportation network that maximizes strategic flexibility and reduces 
operational risk across a variety of routes and modes. TRANSCOM 
continues to execute movements as prioritized by the National Command 
Authority to ensure the right level of effort is provided to support 
the national strategy.

    35. Senator Inhofe. General Fraser, what difficulties do you 
foresee with getting DOD equipment and personnel out of Afghanistan 
with a year-long Continuing Resolution (CR) and sequestration?
    General Fraser. As a service provider, TRANSCOM operations are 
funded through a Working Capital Fund. When transportation services are 
requested, the supported command and Services provide the funding 
required. Therefore, the availability of funds for TRANSCOM contingency 
operations will be dependent upon the availability of funds to the 
combatant commands and the Services to conduct operations. The 
redeployment of troops and equipment out of Afghanistan is no different 
from any other TRANSCOM supported movement and is dependent upon 
availability of the Services' funds to reimburse our Working Capital 
Fund for transportation services provided. Today, the Afghanistan 
redeployment is funded through supplemental Overseas Contingency 
Operation (OCO) funds provided to the Services. Therefore, the lack of 
adequate OCO funds and affects of sequestration on these funds have a 
more significant impact on accomplishing the redeployment mission than 
a year-long CR.

                        AFRICOM FORCE REDUCTIONS

    36. Senator Inhofe. General Ham, AFRICOM is an economy of force 
effort--an effort I support but one that raises concerns about adequacy 
of resources. Its forces are completely shared with EUCOM. Admiral 
Stavridis said the drawdown of 11,500 troops, most coming from the loss 
of two Army brigades, will be mitigated by rotating troops through 
EUCOM from a ``dedicated brigade in the United States.'' With 
decreasing military resources and increasing threats in Africa, what is 
the impact on AFRICOM operations given that AFRICOM was created as an 
economy of force command?
    General Ham. We are allocated forces through the Joint Staff 
process from a variety of sources, including the National Guard and 
units stationed in the United States and Europe. In a crisis, forces in 
Europe are often the closest forces and may be the quickest to respond 
to incidents on the continent. Therefore, I'm concerned about the 
impact of a drawdown in Europe on the command's ability to respond to 
developing crises.

    37. Senator Inhofe. General Ham, having flown all over Africa, it 
would take aircraft departing from Germany approximately 8 hours to fly 
to central Africa with limited to no airfields and installations for 
use by our military. What is the impact of having a majority of AFRICOM 
forces in Europe?
    General Ham. [Deleted.]

    38. Senator Inhofe. General Ham, how can AFRICOM rapidly respond to 
crisis in central or southern Africa?
    General Ham. Based on time/distance factors, AFRICOM's ability to 
respond rapidly to crises in central and southern Africa is limited. In 
order to better respond, we require increased intelligence emphasis and 
resources to gain a better understanding of the environment to posture 
forces in a location to more quickly respond to a developing crisis.

    39. Senator Inhofe. General Ham, what is the status of ISR assets 
in AFRICOM today and in the future?
    General Ham. [Deleted.]

    40. Senator Inhofe. General Ham, how will the lack of a 2.0 carrier 
presence in the Gulf impact AFRICOM?
    General Ham. Given current and projected operations, I see no 
significant impact to AFRICOM.

    41. Senator Inhofe. General Ham, the headquarters for AFRICOM is in 
Stuttgart, Germany. A recent DOD report supports keeping the 
headquarters at Stuttgart. Do you agree with the report?
    General Ham. Yes.

    42. Senator Inhofe. General Ham, what are your thoughts of same day 
moving AFRICOM somewhere on the continent of Africa?
    General Ham. Due to the expense of moving the headquarters and 
potential resistance from some African nations, I believe this is not 
feasible in the foreseeable future.

    43. Senator Inhofe. General Ham, what other basing is AFRICOM 
currently looking at near- and far-term on the continent of Africa and 
how will that impact AFRICOM's operations?
    General Ham. AFRICOM is not looking for additional basing on the 
African continent. We continue to maintain a low-cost, small-footprint 
approach to achieving our security objectives, and have significantly 
reduced the number of enduring locations on the African continent in 
favor of non-enduring expeditionary operating locations.

                                  MALI

    44. Senator Inhofe. General Ham, the United States has been 
supporting French military in Mali by providing refueling, airlift, and 
intelligence support. Last week, the President informed Congress that 
he was deploying another 40 U.S. military personnel to Niger to help 
conduct surveillance operations in Africa, particularly in Mali and 
Algeria. The purpose of the deployment is to provide support for 
intelligence collection and facilitate intelligence sharing with French 
forces conducting operations in Mali, and with other partners in the 
region. What support is the United States providing the French, Mali, 
and surrounding African countries?
    General Ham. We are currently supporting French forces and those of 
the African-Led International Support Mission to Mali with intelligence 
sharing, ISR, and refueling. We provided airlift support to France and 
Chad to move forces and equipment.
    AFRICOM is not currently engaged in capacity-building with the 
armed forces of Mali, consistent with U.S. legal prohibitions on the 
provision of security assistance to any military force that has been 
involved in a military overthrow of a democratically-elected 
government.

    45. Senator Inhofe. General Ham, under what legal authority is the 
United States assisting the French and Mali forces?
    General Ham. AFRICOM is executing operations in support of France 
as directed in the Secretary of Defense-issued execution orders. We are 
not currently engaged in capacity-building with the armed forces of 
Mali, consistent with U.S. legal prohibitions on the provision of 
security assistance to any military force that has been involved in a 
military overthrow of a democratically-elected government.

    46. Senator Inhofe. General Ham, what is the U.S. strategic goal in 
supporting French operations in Mali?
    General Ham. Our mission in Mali is to provide support to French 
military operations to stabilize the situation and allow for follow-on 
deployment of designated Economic Community of West African States and 
other forces forming the African-Led International Support Mission in 
Mali.

    47. Senator Inhofe. General Ham, who defines and what is the end 
state for U.S. support for French operations in Mali?
    General Ham. The end state for DOD support to French operations is 
established by the Secretary of Defense. The end state is the French 
military support requirements are met, and the French military can 
support its own operations in Mali.

    48. Senator Inhofe. General Ham, do you foresee U.S. operations 
expanding in Mali?
    General Ham. AFRICOM is not currently engaged in capacity-building 
with the armed forces of Mali, consistent with U.S. legal prohibitions 
on the provision of security assistance to any military force that has 
been involved in a military overthrow of a democratically-elected 
government. In the future, we look forward to establishing a normal 
military-to-military relationship with Mali.

              SECURITY ASSISTANCE AND ENGAGEMENT PROGRAMS

    49. Senator Inhofe. General Ham, you have been strong supporters of 
our security assistance and engagement programs, whether it is foreign 
military financing (FMF), FMS, international military education and 
training (IMET), or our train-and-equip programs. Have these programs 
been successful in AFRICOM? If so, do you have any examples?
    General Ham. All of the security cooperation programs that you 
mentioned have been very successful. We greatly appreciate the 
opportunity that the authorized train-and-equip programs provide and 
have seen successes. The Raven Program for Ugandan African Union 
Mission in Somalia operations provided valuable intelligence leading to 
increased tactical success on the ground. Counterterrorism unit train-
and-equip programs with Chad allowed them to act as an important 
partner to France in the mountains of Northern Mali and assistance to 
the Kenyan Ranger Strike Force led to the capture of Kismayo in 
Somalia. Small boat programs in Kenya and Djibouti have made 
infiltration into those countries more difficult and forced al Qaeda to 
invest in slower and less secure means of conducting asymmetrical 
warfare. The consistent annual appropriation for train-and-equip 
programs, particularly 1206, is leading to a steady increase in 
capability of key nations in Africa.
    In Morocco, we concluded a $2.4 billion FMS case for 24 F-16 
aircraft and are negotiating a case for sale of 108 M1A1 main battle 
tanks. These assets will ensure interoperability with the United States 
and assist Morocco with countering transnational threats in a volatile 
region in our AOR. FMF is supporting vital programs such as Defense 
Institution Building in Africa's newest country, South Sudan. FMF also 
supports Africa Union and United Nations peacekeeping operations 
through maintaining South Africa and Botswana's C-130 transport 
aircraft, and provides Cameroon with surveillance radar to monitor 
trafficking in the Gulf of Guinea.
    The IMET program provides valuable training and builds enduring 
relationships with key partners. For example, we currently have a 
senior officer from Libya attending Naval War College in Newport, RI, 
and a colonel from the South African Air Force attending Air War 
College at Maxwell Air Force Base, AL. We also utilize IMET to 
reinforce the warrant officer and noncommissioned officer (NCO) corps 
of our partners' military forces through attendance at our Services' 
warrant officer and NCO academies. IMET, at all levels, builds enduring 
relationships and helps shape participants' views toward the United 
States.

                        CAMP LEMONNIER, DJIBOUTI

    50. Senator Inhofe. General Ham, Camp Lemonnier in Djibouti is our 
only enduring base on the African continent. The airfield, which we 
share with our host government, serves as a critical hub of operations 
for Combined Joint Task Force-Horn of Africa and as logistics support 
for humanitarian and other theater cooperation missions with our 
allies. Recently, the Government of Djibouti has expressed concern 
about the impact of our operations at their international airport. In 
addition, as our interests grow on the continent, the need for more 
resources may drive a request for additional areas at their airport at 
the same time we are investing hundreds of millions of dollars in new 
facilities for our forces at Camp Lemonnier. Are you aware of any 
operational constraints at Camp Lemonnier that have you concerned over 
the long-term?
    General Ham. Yes. We are working with the host nation to mitigate 
operational and safety concerns about remotely piloted aircraft 
operating out of Djibouti's international commercial airport by 
developing an alternate location for such operations.

    51. Senator Inhofe. General Ham, should we continue to grow our 
presence and invest in new facilities at Camp Lemonnier or should we 
look for new locations to place forces around the continent?
    General Ham. Camp Lemonnier (CLDJ) is strategically important to 
U.S. interests and provides support for four separate combatant 
commands, each having a vested interest in its development. CLDJ is our 
only forward operating site on the African continent and is a critical 
platform in the fight against violent extremist organizations.
    We appreciate your support for our four highest military 
construction projects at Camp Lemonnier. Many CLDJ facilities are 
inadequate to support the amount of personnel currently operating from 
CLDJ. A conservative, time-phased investment in CLDJ's infrastructure 
and facilities will enhance strategic and operational readiness and 
effectiveness, improve force protection, and the quality of life for 
each of these organizations.

                  COUNTERTERRORISM STRATEGY IN AFRICA

    52. Senator Inhofe. General Ham, we are seeing that Al Qaeda and 
other terrorist groups are developing operational networks that are 
increasingly complex and global in nature. Over the past decade, we 
have successfully directed our military and intelligence capabilities 
at fighting terrorism. Yet, it appears the United States is putting 
relatively little effort into a long-range or comprehensive plan, but 
we are putting a great deal of effort into trying to stop terrorists. 
Do you believe the United States has adequately focused its 
intelligence collection capabilities on Africa?
    General Ham. Intelligence requirements in Africa continue to 
increase based on the growing terrorism threat. Over the last year, we 
have seen an increase in intelligence prioritization for AFRICOM. 
Despite this, significant shortfalls remain, therefore, AFRICOM 
requires increased national intelligence emphasis and resources.

    53. Senator Inhofe. General Ham, do you believe AFRICOM has enough 
of the right assets in the right places to execute an effective 
counterterrorism strategy in the whole of Africa?
    General Ham. [Deleted.]

    54. Senator Inhofe. General Ham, are you concerned about the 
potential influence of terrorist groups on large numbers of Western 
Sahara refugees living in camps in southern Algeria?
    General Ham. [Deleted.]

    55. Senator Inhofe. General Ham, do you believe that our current 
counterterrorism strategy has kept pace with the increasingly 
globalized nature of al Qaeda and affiliated terrorist networks?
    General Ham. [Deleted.]

    56. Senator Inhofe. General Ham, how are you measuring your 
effectiveness in AFRICOM?
    General Ham. AFRICOM measures effectiveness in its theater campaign 
plans by assessing progress in the military objectives and effects.
    AFRICOM's military objectives are specific, measureable, and 
achievable within 5 years. They are assessed no less than semi-annually 
using a comprehensive and integrated process of objective, subjective, 
and perceptive indicators. The assessment encompasses all theater 
intelligence, operations, exercises, and security cooperation 
activities.

                         C-5/C-17 OVERFLY HOURS

    57. Senator Inhofe. General Fraser, for the past 2 years, DOD said 
it had too much strategic airlift, so Congress reduced the strategic 
airlift requirement from 313 to 301 and now down to 275. Will you have 
to increase your reliance on commercial carriers as the organic fleet 
reduces to 275?
    General Fraser. No, the change in numbers will not require an 
increased reliance upon Civil Reserve Air Fleet (CRAF) commercial 
carriers. We have conducted a comparison of the current strategic 
guidance to those requirements outlined in Mobility Capabilities and 
Requirements Study 2016. The comparison validated 275 aircraft (223 C-
17s and 52 C-5Ms) and our CRAF partners' ability to support a large 
scale operation in one region, with a capability to deny the objectives 
of an opportunistic aggressor in a second region, while defending the 
Homeland and providing support to civil authorities.

    58. Senator Inhofe. General Fraser, what risks do you see at the 
275 level to accomplishing your mission?
    General Fraser. The TRANSCOM mission is to support the President's 
strategic guidance. Recent assessments indicated that a fleet with 30.4 
million ton miles per day (MTM/D) capacity will support that strategy. 
A fleet of 223 C-17s and 52 C-5Ms provides at least 30.4 MTM/D capacity 
and therefore supports the strategic guidance with moderate risk.

    59. Senator Inhofe. General Fraser, will overflying C-5s and C-17s 
impact long-term readiness of both fleets?
    General Fraser. Yes, overflying the C-5 and the C-17 past their 
planned service life impacts the programs, but it is possible with 
Service Life Extension Programs (SLEP) and additional spare parts.
    Based on engineering analysis, it is estimated the C-5 can fly 33 
percent over the current usage rates without impacting scheduled 
inspection intervals such as programmed depot maintenance. If the 
aircraft operates beyond its planned life, the Air Force will start 
reducing the inspection intervals proportionally to compensate for 
increased stresses. Based on projected usage rates, the C-5 will have 
approximately 15,000 flying hours of structural service life remaining 
at its currently planned 2040 retirement date.
    Flying past the planned service life will impact aircraft spares. 
If the flying hours are increased or extended, then spare parts demands 
increase commensurately. This will result in an increase in not mission 
capable for supply rates in later years of the program if spare parts 
are not funded and procured.
    Each C-17 is programmed to fly 30 years at 1,000 hours per aircraft 
per year. At current usage rates, the first aircraft will reach its 
life expectancy in 2022. Over the past 12 years the fleet has flown an 
average of 1,093 hours/tail/year. Flying beyond 2022 will require more 
frequent structural inspections. The C-17 enterprise is evaluating a 
plan to extend the service life of the aircraft from 30,000 to 60,000 
flying hours provided funding is available to support a SLEP.
    In summary, flying past programmed service life is possible, but 
requires additional funding to assess structural integrity of the 
aircraft and modernization of both the airframe and spare parts pools.

                      REGIONALLY-ALIGNED BRIGADES

    60. Senator Inhofe. General Ham, the Army has aligned the 2nd 
Brigade, 1st Infantry Division, with your command as a test bed for the 
Army's regionally-aligned brigade concept. Do you believe one brigade 
is sufficient to support your area of operations?
    General Ham. Yes. One brigade is sufficient for our planned 
engagements when coupled with the forces of the other Service 
components allocated to the command.

    61. Senator Inhofe. General Ham, do you have the resources to 
support the test bed?
    General Ham. Yes. We appreciate the U.S. Army selecting AFRICOM as 
the first combatant command with a regionally-aligned brigade.

    62. Senator Inhofe. General Ham, does AFRICOM have the 
infrastructure to support the 2nd Brigade Combat Team should the entire 
brigade be deployed to your area of operations?
    General Ham. AFRICOM does not intend to employ the entire brigade 
at one place or all at the same time. The intention is for the brigade 
to employ tailored elements to support short duration security 
cooperation activities which strengthen the defense capabilities of 
African partners and regional organizations.

    63. Senator Inhofe. General Fraser, what risks do you see with 
TRANSCOM's ability to support the Army's regionally-aligned brigade 
concept?
    General Fraser. I am aware the Army is working on the regionally-
aligned brigade concept. The concept creates a relationship between a 
combatant command and an Army Brigade Combat Team that the combatant 
command commander can use for theater campaign plan engagements and 
exercises. I have seen a draft execution order that implements a 
rotational brigade for EUCOM in fiscal year 2014. The rotational force 
is limited to a battalion with some brigade level enablers and brigade 
level command and control. In the case of EUCOM, the Army is creating a 
prepositioned set of equipment for the rotational force to use. At this 
point, I do not envision any problems supporting the Army concept. We 
will continue to assess it for any mobility implications as Army 
implementation progresses.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                         LIBYAN BORDER SECURITY

    64. Senator Wicker. General Ham, one area of concern I have 
regarding the security situation in Libya is the inability of Libyan 
forces to control border crossings. Without the ability to establish 
effective control over its borders, it is unlikely the Libyan 
Government will be able to manage the flow of terrorists and smugglers 
into and out of the country, threatening Libya's long-term stability 
and viability. Has the Libyan Government asked for U.S. assistance to 
enhance their border control capabilities?
    General Ham. Yes. In September 2012, representatives from the 
Libyan Ministry of Defense and Customs Agency visited the U.S./Mexico 
border in Arizona to observe how the U.S. secures its borders. As a 
result of that trip, the Government of Libya submitted a FMS request 
for equipment in support of their Border Security Forces. However, when 
the new Defense Minister was confirmed in December 2012, the request 
was cancelled. Our Office of Security Cooperation is currently working 
with the leadership of the Libyan Border Security Force to coordinate 
for a new equipment request.
    AFRICOM has submitted a proposal to assist Libya with their Border 
Security via a $7 million Global Security Contingency Fund (1207a) 
proposal to create, train, and equip two quick-reaction Border Security 
Companies--one for the east and one for the west. When executed, Marine 
Corps Forces Africa will train the companies at a location to be 
determined, but likely at a base in Europe (due to security concerns in 
Libya).

    65. Senator Wicker. General Ham, how would you envision assisting 
the Libyan Government in establishing control, especially with regards 
to the sparsely populated regions that compose Libya's inland regions?
    General Ham. [Deleted.]

    66. Senator Wicker. General Ham, what types of vehicles and 
equipment would be most useful, given the difficulties inherent to the 
geography and climate?
    General Ham. I believe a holistic approach to Border Security in 
Libya is the key to future success. Important initiatives would be the 
construction of a series of national command and control centers, a 
comprehensive communications system to support all levels in the system 
from the individual guards on the borders up to the commander, and a 
national-level ISR system. The sale or provision of vehicles, weapons, 
and personal gear, such as body armor, night vision goggles, and 
uniforms, would also be a part of this effort.
    Appropriate vehicles would reflect a mixture of civilian trucks and 
sport utility vehicles, with some tactical vehicles in support of 
specialized missions. The Libyan Special Operations Forces and the 
quick-reaction Border Security Forces should use heavier tactical 
vehicles for use in engagements with violent extremist organizations; 
and with some lighter and more mobile vehicles (such as the tactical 
dune buggies used by U.S. Special Operations Forces) when conducting 
ground-borne ISR.
    Appropriate ISR systems would include ground surveillance radars, 
tower-mounted cameras, and unarmed, unmanned aerial vehicles, although 
manned aircraft would also be appropriate.
    The Border Security Forces also require a networked command and 
control system that provides the Libyan Border Security Forces with a 
common operating picture, which would be generated by their ISR assets 
and daily communications with their border guards.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                    BENGHAZI ATTACK AND DOD RESPONSE

    67. Senator Ayotte. General Ham, was AFRICOM on a heightened state 
of alert on September 11, 2012, and if so, what actions did AFRICOM 
take based on this heightened state of alert?
    General Ham. Yes, DOD posture across the world on September 11, 
2012, was commensurate with the anticipated threat and force protection 
conditions across individual regions. Our forces maintained heightened 
awareness, however, we were not aware of specific threats to U.S. 
personnel in Libya. We were also unaware of Ambassador Stevens' travel 
to Benghazi as it is not customary for U.S. Embassies to advise DOD of 
ambassadors' travel.

    68. Senator Ayotte. General Ham, based on the previous attacks in 
Benghazi and the known deteriorating security situation in eastern 
Libya, why weren't our forces in Europe and Djibouti better postured to 
respond?
    General Ham. DOD posture across the world on September 11, 2012, 
was commensurate with the anticipated threat and force protection 
conditions across individual regions. Our forces maintained heightened 
awareness, however, we were not aware of specific threats to U.S. 
personnel in Libya. We were also unaware of Ambassador Stevens' travel 
to Benghazi as it is not customary for U.S. Embassies to advise DOD of 
ambassadors' travel.

                           AFRICOM RESOURCES

    69. Senator Ayotte. General Ham, based on the previous attacks on 
U.S. and other western targets in Benghazi in the months preceding the 
September 11, 2012, attack that left four Americans dead, do you 
believe more than 7 percent of AFRICOM's ISR requirements should have 
been met?
    General Ham. [Deleted.]

    70. Senator Ayotte. General Ham, in the months preceding the 
September 11, 2012, attack in Benghazi, did you request additional ISR 
assets for AFRICOM?
    General Ham. Yes. The command was allocated additional ISR assets 
in response to the increased terrorism threat across Africa.

    71. Senator Ayotte. General Ham, who did you make those requests to 
and what was their response?
    General Ham. AFRICOM submits annual ISR requirements to the Joint 
Staff. ISR is allocated through a formal Global Management Process and 
reviewed/adjusted bimonthly through a process managed by the Joint 
Staff.

    72. Senator Ayotte. General Ham, last month, General Rodriguez said 
that the current ISR allocation ``does not provide sufficient quantity 
or sensor mix to achieve the objectives which the Joint Staff directed 
to AFRICOM.'' Is that accurate?
    General Ham. [Deleted.]

                         BOKO HARAM IN NIGERIA

    73. Senator Ayotte. General Ham, has Boko Haram conducted terrorist 
attacks?
    General Ham. Yes. Boko Haram conducts terrorist attacks against the 
Christian populace, Muslim communities, the Nigerian Government, 
Nigerian infrastructure, and Western interests.
    Recent prominent Boko Haram attacks, which I believe are best 
understood as terrorist acts, include the March 18, 2013, bus bombing 
targeting the Christian community in Kano. The most notable anti-
Western Boko Haram attack was the August 2011 car bomb detonated 
against the United Nations' Headquarters building in Abuja.
    In 2012, Boko Haram and its faction Ansaru, were responsible for up 
to 170 armed attacks, 46 bombings, and 21 suicide car bomb operations.

    74. Senator Ayotte. General Ham, do you believe Boko Haram is a 
terrorist organization?
    General Ham. Yes, my personal opinion is they are a terrorist 
organization. However, I understand the challenges involved with the 
policy decisions to formally designate them as a terrorist organization 
and the different perspectives other policymakers have regarding the 
nature of Boko Haram.

    75. Senator Ayotte. General Ham, how can we increase pressure on 
Boko Haram?
    General Ham. We will continue to work with the Nigerian Government 
through the U.S. Embassy in Abuja. This ongoing dialogue will focus 
increasing pressure on Boko Haram and support the Nigerian military as 
they increase their counterterrorism capabilities to address the threat 
posed by Boko Haram.

    76. Senator Ayotte. General Ham, would it be helpful to U.S. 
interests or to AFRICOM if we designated Boko Haram as a foreign 
terrorist organization?
    General Ham. Yes, my personal opinion is that designating Boko 
Haram as a terrorist organization will provide additional authorities 
to act against this organization. I recognize there are challenges 
involved with the policy decisions to formally designate them as a 
terrorist organization.

    77. Senator Ayotte. General Ham, do you believe the United States 
should designate Boko Haram a foreign terrorist organization?
    General Ham. Yes, my personal opinion is they are a terrorist 
organization and should be so designated.

                MARINE CORPS SECURITY GUARD DETACHMENTS

    78. Senator Ayotte. General Ham, are there U.S. diplomatic 
facilities in Africa today that do not have a Marine Corps Security 
Guard Detachment?
    General Ham. Yes.

    79. Senator Ayotte. General Ham, how many Marine Security Guard 
Detachments are there?
    General Ham. There are 34 Marine Corps Security Guard Detachments 
supporting U.S. diplomatic facilities in Africa.

    80. Senator Ayotte. General Ham, what is DOD doing to address this 
and how can Congress help?
    General Ham. DOD is supporting DOS's efforts to look at reassessing 
diplomatic security. As part of this review, DOD considered how the 
role, mission, and resourcing of the Marine Corps Security Guards could 
be adapted to respond to this new threat environment. In the near-term, 
DOD has agreed with DOS to add 35 Marine Corps Security Guard 
detachments globally over the next 2 to 3 years. DOD is working with 
DOS now to identify specific locations for the new detachments.
    DOD has also initiated coordination with the DOS to expand the 
Marine Corps' role beyond their primary mission to protect classified 
information. This could include expanded use of non-lethal weapons, and 
additional training and equipment, to support the embassy Regional 
Security Officer's response options when host nations' security force 
capabilities are at risk of being overwhelmed.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham

                                 LIBYA

    81. Senator Graham. General Ham, please provide a detailed analysis 
of the military assets that could have arrived in Benghazi within 12 
hours, and the approximate arrival time for each asset.
    General Ham. [Deleted.]

    82. Senator Graham. General Ham, what assets did you ask for or 
recommend deploy to Libya on September 11 and 12, 2012?
    General Ham. [Deleted.]

    83. Senator Graham. General Ham, who did you speak to when you 
requested the above assets? Please provide the approximate time of the 
request.
    General Ham. [Deleted.]

    84. Senator Graham. General Ham, what military assets did 
eventually deploy to Libya? Please provide the arrival time and date 
for each asset's arrival in Libya.
    General Ham. On September 11, 2012, the diverted surveillance 
aircraft arrived on station over the Benghazi facility approximately 
2300 (EET) hours after directed to move from its previous position. It 
was replaced by another asset to maintain continual coverage.
    On September 12, 2012, at approximately 0130 EET, a small U.S. 
element from Tripoli landed in Benghazi.
    On September 12, 2012, at approximately 2100 EET, the Fleet Anti-
Terrorism Security Team platoon and associated equipment arrived in 
Tripoli and at approximately 2130 EET, the Special Operations Forces 
deployed from the United States, and associated equipment, arrived at 
an intermediate staging base in southern Europe.

    [Whereupon, at 11:21 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 12, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

             U.S. STRATEGIC COMMAND AND U.S. CYBER COMMAND

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Udall, Blumenthal, Donnelly, Hirono, Kaine, King, Inhofe, 
McCain, Sessions, Wicker, Ayotte, Fischer, Graham, Blunt, and 
Lee.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Jonathan S. Epstein, counsel; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; and Thomas K. McConnell, 
professional staff member.
    Minority staff members present: Steven M. Barney, minority 
counsel; Ambrose R. Hock, professional staff member; Daniel A. 
Lerner, professional staff member; and Robert M. Soofer, 
professional staff member.
    Staff assistants present: Kathleen A. Kulenkampff, Bradley 
S. Watson, and Lauren M. Gillis.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Casey Howard, assistant to Senator Udall; Marta 
McLellan Ross, assistant to Senator Donnelly; Nick Ikeda, 
assistant to Senator Hirono; Karen Courington, assistant to 
Senator Kaine; Steve Smith, assistant to Senator King; 
Christian Brose, Paul C. Hutton IV, and Elizabeth Lopez, 
assistants to Senator McCain; Lenwood Landrum, assistant to 
Senator Sessions; Brandon Bell, assistant to Senator Chambliss; 
Joseph Lai, assistant to Senator Wicker; Brad Bowman, assistant 
to Senator Ayotte; Peter Schirtzinger, assistant to Senator 
Fischer; Craig Abele, assistant to Senator Graham; Charles 
Prosch, assistant to Senator Blunt; and Robert Moore, assistant 
to Senator Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today's hearing 
continues a series of posture hearings that the Senate Armed 
Services Committee (SASC) is conducting on our combatant 
commands. Today we receive testimony from the U.S. Strategic 
Command (STRATCOM) and the U.S. Cyber Command (CYBERCOM), a 
sub-unified command of STRATCOM.
    Let us welcome General C. Robert Kehler, USAF, the 
Commander of STRATCOM; and General Keith A. Alexander, USAF, 
the Commander of CYBERCOM. I thank them both. We thank you for 
your great work. We thank you. If you would pass along our 
thanks to those who work with you for their service, we would 
greatly appreciate it.
    This hearing comes at a time when the Department of Defense 
(DOD) and other Federal agencies face the twin threat of 
sequestration and an expiring Continuing Resolution (CR) and we 
will want to hear from our witnesses what impact budget 
restrictions and uncertainty are likely to have on their 
programs and their operations over the coming months.
    General Kehler, here are five of the issues that I hope 
you'll address this morning: First, are you satisfied with the 
status of our nuclear deterrence?
    Second, are you satisfied with the National Nuclear 
Security Administration's (NNSA) ability to maintain our 
nuclear stockpile so we can ensure without testing that the 
stockpile remains safe and meets military requirements?
    Third, do you believe we have the ability to protect our 
space assets and to reconstitute them, if necessary, given the 
growing congested and contested nature of space?
    Fourth, DOD has allocated a block of the electromagnetic 
spectrum that connects our space, cyber, and electronic warfare 
assets to our forces. STRATCOM is the lead combatant command 
for synchronizing spectrum operations. How concerned are you 
about preserving DOD's access to this block of spectrum, given 
the competing pressure to allocate more spectrum towards 
commercial use?
    Fifth and finally, what is your view on the links between 
the space and cyber domains and the potential for integration 
of capabilities and operations in both domains?
    Now, relative to CYBERCOM, for years, and especially since 
DOD proposed to establish a CYBERCOM, the SASC has emphasized 
the lack of an effective, mature policy, strategy, rules of 
engagement, doctrine, roles and missions, and command and 
control arrangements that are so critical to managing this 
vital but complex new domain. Progress in this area has been 
slower than we desired, but appears to be picking up some 
steam.
    After Congress failed to pass comprehensive cyber security 
legislation, the President developed and issued an Executive 
order aimed at improving the security of critical 
infrastructure and to better share cyber threat information. 
The President has also recently issued a classified 
Presidential Policy Directive governing cyber operations. DOD, 
working through the interagency planning process, has developed 
a set of emergency action procedures for cyber crisis 
situations similar to the processes in place and regularly 
exercised for nuclear and ballistic missile defense operations. 
The Joint Staff is ready to issue its first-ever document 
covering cyber doctrine. Finally, we understand that the Joint 
Staff states that it will soon issue rules of engagement for 
military commanders.
    The fact that these foundational policy frameworks and 
planning actions are now just taking shape serves as a stark 
illustration of how immature and complex this warfare domain 
remains.
    The National Defense Authorization Act (NDAA) for Fiscal 
Year 2013 included a sense of Congress provision that raised 
serious concerns about the complications that could be caused 
by making CYBERCOM a full unified command. The NDAA also 
included a provision that requires the Secretary of Defense to 
create a process for designated defense contractors to report 
to DOD when networks containing DOD information are 
successfully penetrated, and we'd be interested in hearing the 
views of our witnesses on our recent important addition to the 
law in that regard.
    Meanwhile, China's massive campaign to steal technology, 
business practices, intellectual property, and business 
strategies through cyberspace continues, and it continues 
relentlessly. Last year's report by the National 
Counterintelligence Executive, plus the recent report by the 
Mandiant Corporation and the very recent Cyber National 
Intelligence Estimate, all leave little doubt that China's 
actions are a serious threat to our Nation's economic well-
being and to our security.
    It's long past time when the United States and our allies, 
who are also being attacked in this way, should be imposing 
costs and penalties on China for their behavior. The Defense 
Science Board (DSB) released a study in January that provides a 
grim assessment of the ability of DOD and the owners of 
critical infrastructure to defend vital systems and networks 
against capable adversaries. In light of vulnerabilities 
highlighted in that report, the DSB suggests building 
resilience into our forces and infrastructure in addition to 
trying to improve defenses.
    We look forward to hearing from General Alexander on the 
extent to which CYBERCOM is capable of preventing adversaries 
from seriously damaging our critical infrastructure.
    We have a long way to go to protect our vital 
infrastructure and services from damaging cyber attacks. That's 
why I supported the Lieberman-Collins bill that the Senate 
failed to act on last year. That's the reason why the President 
issued his recent Executive order. That's the reason why all of 
us are deeply concerned about this issue and look to working 
together to try to address the threat that exists particularly 
from China in that area.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I agree with all 
of your statements and I am very concerned. I think it's a very 
significant hearing with both Generals Kehler and Alexander. I 
want to thank both of you for the time that you've given me 
personally to help me along, particularly you, General 
Alexander, because it's a tough issue that not many of us 
understand, certainly not as well as you do.
    The importance of our nuclear forces for the security of 
the Nation and that of our allies was made clear by Deputy 
Secretary of Defense Carter before this committee just last 
month. Even in the face of the drastic budget cuts and all of 
this brought about by sequestration, he said: ``We in the 
Department of Defense will try to protect our nuclear 
capabilities to the maximum extent possible,'' and that ``the 
nuclear deterrence is the last thing that you want to do 
serious damage to.'' While we all agree with that in this room, 
there are a lot of people out there who really don't, because 
it's not as well-understood as the conventional threats that 
face us.
    It's troubling, General Kehler, the statement that you made 
to the House Armed Services Committee (HASC) last week. As 
sequestration impacts continued to grow, you said: ``Reduced 
readiness and curtailed modernization will damage the perceived 
credibility of our capabilities, increasing the risk to achieve 
our primary deterrence and assurance objectives.'' You're 
exactly right and I'm glad you made that very bold statement. 
In other words, if we don't consistently demonstrate a 
commitment to modernizing our nuclear deterrent both in words 
and in funding, our allies might lose confidence in the U.S. 
nuclear umbrella, while potential adversaries could be led to 
believe that they hold a nuclear advantage over the United 
States, which I think that gap is closing. It disturbs me.
    While the President has been absent on the issue, I was 
pleased to hear him acknowledge in his State of the Union 
message the need to strengthen our own missile defense 
capabilities.
    Now, on the cyber end of it, I do agree--and I'm skipping a 
lot of my opening statement because some of the contents made 
references to China, because that is a fact and it would be 
redundant. But this administration has thus far failed to 
implement an effective cyber deterrence strategy that dissuades 
those seeking to hold our economic and national security 
interests at risk in cyberspace. Not a day goes by where it is 
not reported that our national security is being exploited in 
the cyber domain. Nation states such as Iran and China have 
been exposed publicly for attempting to gain access to national 
secrets and undermine our defense and economic interests. 
Criminal and terrorist organizations continue to actively 
pursue and exploit malicious capabilities, with little 
resistance or consequences.
    Despite my concern on White House policy, progress is being 
made within DOD. Organizations and structures are maturing, and 
DOD is beginning to rise above the interagency gridlock that's 
sought to undermine DOD's reach.
    I'm happy to welcome General Alexander and applaud him and 
his team for the progress that they have made in just the last 
year in developing the foundations necessary to start 
developing an offensive cyber capability. I will confess to 
them the conversation that you and I had. My concern over your 
future is to make sure you're there long enough until we can 
find somebody who understands this very complicated issue and 
can deal with it as effectively as you have.
    Certainly more must be done and the resources must be 
allocated. However, progress is being made and I'm pleased to 
see DOD is moving past the defense-only mind set. I think we 
need to get beyond that so that we can understand that there's 
an offensive angle to this that's going to have to be pursued.
    So under sequester, every DOD account will be subject to 
the highest level of scrutiny. The threats we face, however, 
are blind to our fiscal woes and are emboldened by our 
dysfunction. Every dollar we spend has to be maximized, and 
those going toward nuclear deterrence, missile defense, and 
cyber should be placed at a premium. That's nuclear deterrence, 
missile defense, and cyber; that's what is the most significant 
part, I believe, of the hearing that we're having today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

             Prepared Statement by Senator James M. Inhofe

    Thank you, Mr. Chairman. I want to thank General Kehler and General 
Alexander for their many years of service to our Nation and acknowledge 
the dedication of the brave men and women under their command, whose 
main mission is to protect this nation against strategic attack.
    The importance of our nuclear forces for the security of our Nation 
and that of our allies was made clear by Deputy Secretary of Defense 
Carter, when he told this committee last month that, even in the face 
of the drastic budget cuts brought about by the sequester, ``we in the 
Department of Defense will try to protect our nuclear capabilities to 
the maximum extent possible, ``and that nuclear deterrence ``is the 
last thing that you want to do serious damage to.''
    Yet, his comments seem to foretell that despite the Department of 
Defense's best efforts, we can expect shortfalls in funding for the 
nuclear modernization commitments that were the basis for the 
President's policy to reduce U.S. nuclear forces, as well as the 
Senate's support for the New Strategic Arms Reduction Treaty (START) 
treaty.
    It is important to recall the linkage between nuclear force 
reductions and the need to modernize our nuclear infrastructure and 
weapons. Indeed, the President's own 2010 Nuclear Posture Review 
stated, ``these investments are essential to facilitating reductions 
while sustaining deterrence under New START and beyond,''
    It was terribly troubling to hear General Kehler tell the HASC last 
week that, as the sequester impacts continue to grow, ``reduced 
readiness and curtailed modernization damage the perceived credibility 
of our capabilities, increasing the risk to achieving our primary 
deterrence and assurance objectives.'' In other words, if we do not 
consistently demonstrate--both through words and funding--a commitment 
to modernize our nuclear deterrent, our allies might lose confidence in 
the U.S. nuclear umbrella, while potential adversaries could be led to 
believe they might hold a nuclear advantage over the United States.
    Another important rationale for the President's decision to reduce 
both the role and numbers of nuclear weapons is what the 2010 Nuclear 
Posture Review refers to as ``the growth of unrivaled U.S. conventional 
military capabilities.'' Yet, we have heard from the Chairman of the 
Joint Chiefs of Staff and the Service Secretaries that the sequester 
and future years funding reductions will have real, negative 
consequences for our ability to deal with crises around the world.
    I would like to hear from General Kehler what these trends portend 
for the role of U.S. nuclear forces in our military strategy, 
especially in light of the fact that virtually all the other nuclear 
powers are modernizing their nuclear forces and placing more reliance 
on nuclear weapons in their national security strategy. Under these 
circumstances, further reductions in our nuclear arsenal would be ill 
advised.
    I was pleased to hear the President finally acknowledge, in his 
recent State of the Union address, the need to ``strengthen our own 
missile defense capabilities.'' I hope the use of the phrase, ``our 
own,'' was a specific reference to our ground-based midcourse defense 
system, which I believe has suffered from neglect over the past 4 years 
and now must be expanded and modernized to stay ahead of the ballistic 
missile threat to the Homeland.
    Unfortunately this administration has thus far failed to implement 
an effective cyber deterrence strategy that dissuades those seeking to 
hold our economic and national security interests at risk in 
cyberspace. Not a day goes by where it is not reported that are 
national security is being exploited in the cyber domain. Nation states 
such as China and Iran have been exposed publicly for attempting to 
gain access to national secrets and undermine our defense and economic 
interests. Criminal and terrorist organizations continue to actively 
pursue and exploit malicious capabilities with little resistance or 
consequences. This must change. More must be done to make it clear that 
there will be consequences for anyone who seeks to undermine our 
national security through cyberspace. While the White House has been 
quick to blame Congress on the need for cyber legislation, it has been 
slow in developing and implementing the far more important strategy for 
exposing, countering, and deterring our adversaries.
    Despite my concerns on White House policy, progress is being made 
within the Department of Defense. The organizations and structures are 
maturing and the department is beginning to rise above the interagency 
gridlock which has sought to undermine the Pentagon's reach. I am happy 
to welcome General Alexander and applaud him and his team for the 
progress they have made in just the last year in developing the 
foundations necessary to start developing the offensive cyber 
capabilities and personnel necessary to defend the Nation and project 
power in the cyber domain.
    Certainly, more must be done and resources must be allocated; 
however, progress is being made and I am pleased to see for the 
Department is moving past its defense only mindset. The full spectrum 
of cyber defense--from our mainframe computers to our network switches 
to our endpoints--must not be overlooked and the asymmetric and 
relatively low cost potential of offensive cyber must be a priority.
    Under sequester every Department of Defense account will be subject 
to the highest level of scrutiny. The threats we face however are blind 
to our fiscal woes and are emboldened by our dysfunction. Every dollar 
we spend must be maximized and those going towards nuclear deterrence, 
missile defense and cyber should be placed at a premium. The full 
spectrum of strategic capabilities must not be overlooked, as they are 
the Nation's ultimate insurance policy.

    Chairman Levin. Thank you so much, Senator Inhofe.
    General Kehler.

   STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Kehler. Good morning, sir. With your permission, 
I'd like to make my full statement a part of the record, 
please.
    Chairman Levin. It will be.
    General Kehler. Good morning, sir, and Senator Inhofe, 
distinguished members of the committee: I am honored to join 
you today. It's a privilege to begin my third year leading the 
outstanding men and women of STRATCOM.
    I'm also pleased to be here with General Keith Alexander, 
whose responsibilities as the Commander of CYBERCOM and 
Director of the National Security Agency (NSA) cover some of 
the most critically important national security subjects. 
General Alexander and I and our staffs are in constant contact, 
I greatly value his leadership, his vision, and his counsel.
    Uncertainty and complexity continue to dominate the 
national security landscape, even as the United States 
transitions from a decade of active conflict in Southwest Asia. 
Uncertainty and complexity make this transition unlike any we 
have experienced in the past. Many regions of the world remain 
volatile and increasing economic and infrastructure connections 
mean regional issues can quickly have global consequences. 
Events over the past year validate this perspective.
    Since my last appearance before the committee, we have seen 
violent extremists continue to act against or threaten U.S. 
interests, citizens, allies, partners, and our Homeland. Cyber 
activities increased in both quantity and intensity, with the 
potential for greater exploitation of U.S. intellectual 
property, institutions, and critical infrastructure.
    Iran's nuclear ambitions remain concerning. North Korea 
conducted a missile launch in violation of its obligations 
under multiple United Nations (U.N.) Security Council 
resolutions and announced last month it conducted another 
nuclear test. Civil war continues in Syria. Russia and China 
continue to improve and demonstrate their strategic 
capabilities.
    Fiscal uncertainty is adding unique challenges. Not only 
are the additional sequestration reductions steep, but the law 
allows little flexibility in how to apply them, and we're 
working from a CR while the Services are transitioning 
contingency needs to the base budget--all of this during a time 
when continued readiness is essential, modernization is 
overdue, violent extremists remain active, threats in space and 
cyberspace are increasing, and the possibility of nuclear and 
ballistic missile proliferation persists.
    As we confront these challenges, our enemies and potential 
enemies are watching. In this uncertain and complex world, 
STRATCOM remains focused on conducting the missions that are 
most critical to protect our core national security interests, 
and my priorities support this focus. Our fundamental purpose 
remains constant: With the other combatant commands, we must 
deter, detect, and prevent attacks against the United States, 
assure our friends and allies of our security commitments to 
them, and, if directed, employ appropriate force to achieve 
national objectives should deterrence fail.
    To do this, our men and women wield a range of 
complementary capabilities to create the tailored effects the 
Nation needs. Our primary objective is to prevent conflict by 
influencing in advance the perceptions, assessments, and 
decisions of those who would consider threatening our vital 
national interests. Ultimately this requires the continuing 
credibility of America's military capabilities, brought to bear 
in concert with other elements of national power.
    While our heritage in STRATCOM is nuclear and our nuclear 
vigilance will never waver as long as those weapons exist, 
today's STRATCOM is far more diverse and versatile than ever 
before. Mr. Chairman, I am pleased to report that STRATCOM is 
capable of executing its assigned missions today. However, 
given the potential impact fiscal uncertainty and declining 
resources could have on STRATCOM, I am concerned that I may not 
be able to say the same in 6 months or a year.
    I'm most concerned with the impact financial uncertainty is 
having on our people. Uniformed and nonuniformed members alike 
have managed the effects of sustained high-stress combat 
deployment and operational tempos. They willingly take personal 
risks for their country, but they are fearful of taking 
financial risks for their families. Hiring restrictions, salary 
freezes, and the likelihood of unpaid furloughs are especially 
troubling to our civilians. By the way, civilians comprise 
about 60 percent of the STRATCOM headquarters staff. They hold 
key leadership positions. They represent critical expertise and 
they make up much of the essential workforce which provides 
crucial functions like intelligence, maintenance, and 
sustainment.
    Because they are such dedicated patriots, I believe our 
military and civilian members will cope with the effects of 
financial uncertainty in the near term. But I worry that over 
time our most experienced professionals will retire early and 
our best young people will leave to pursue more stable 
opportunities elsewhere. We are detecting hints of that now. 
Beyond the human dimension, sequestration will eventually 
impact the command's readiness and curtail growth in new areas 
like cyber and cyber defense.
    Now, even though the Services are trying to give STRATCOM's 
missions as much priority treatment as possible within the 
law--and you heard that from Deputy Secretary Carter last 
month--we could not remain immune. So while the immediate 
impact will vary by command, overall in STRATCOM the effect is 
a bit like an avalanche. Seemingly small initial impacts are 
going to grow. As time passes, we will see greater impacts and 
potential impacts to things as Senator Inhofe mentioned, like 
the nuclear deterrent, to global strike, to missile warning and 
missile defense, the situational awareness in both space and 
cyberspace, and to our support to warfighters around the globe.
    In the longer term, continuing in this financial path will 
affect STRATCOM's modernization and long-term sustainment 
needs, potentially eliminating or jeopardizing a number of 
important recapitalization efforts. Of course, ultimately such 
reductions could impact our ability to deter and assure.
    Mr. Chairman, STRATCOM's responsibilities have not changed, 
but the strategic and fiscal environment in which we must carry 
them out is much different than a year ago. I remain enormously 
proud of the superb men and women I am privileged to lead and 
potential adversaries must know that we can meet our mission 
responsibilities today. But the pathway we're on is creating 
growing risk to our defense strategy and our ability to execute 
it.
    I look forward to working with this committee and Congress 
on these difficult and complex challenges. I will certainly 
carry back your message of appreciation for the men and women 
who we are privileged to be associated with. I look forward to 
your questions. Thank you.
    [The prepared statement of General Kehler follows:]

              Prepared Statement by Gen. C.R. Kehler, USAF

    Mr. Chairman and distinguished members of the committee, I am 
honored to join you today. It is my privilege to lead U.S Strategic 
Command (STRATCOM), and on behalf of our 54,500 outstanding military 
and civilian men and women I am pleased to report STRATCOM remains 
capable and ready to meet our assigned missions. I thank Congress and 
this committee for your support and I look forward to continuing to 
work together to ensure our national security today and tomorrow.

                             STRATCOM TODAY

    Uncertainty and complexity continue to dominate the national 
security landscape. Today's operating environment is increasingly 
characterized by the potential for persistent conflict across all 
domains--air, sea, land, space and cyberspace--where state and non-
state actors alike can employ highly adaptive combinations of 
strategies, tactics and capabilities to simultaneously and quickly 
exploit and transit political, geographic and domain boundaries. These 
hybrid threats are challenging earlier assumptions; stressing our 
plans, practices, and organization; compelling unity of effort; and 
demanding flexible and innovative approaches to create effects tailored 
to the unique actors, circumstances and scenarios we face. In short, 
yesterday's battlefield is rapidly becoming tomorrow's global 
battlespace.
    Events continue to validate this perspective. Even as the United 
States continues to transition from today's conflicts, the reality of 
preparing for tomorrow's challenges has emerged. Violent extremists 
continue to threaten U.S. interests, allies, partners, and the 
Homeland. Their acts remind us that we must remain both vigilant and 
engaged with our combatant command (CCMD) partners to prevent a 
terrible connection between such extremists and weapons of mass 
destruction (WMD). In December 2012, North Korea conducted a missile 
launch in violation of its obligations under multiple United Nations 
Security Council resolutions and announced last month it conducted 
another nuclear test. Iran continues to pursue its ballistic missile 
program and its nuclear ambitions. The Arab Spring continues to unfold 
and the outcome remains unresolved. Syria, a state with significant 
stocks of chemical weapons, continues to be gripped by civil war.
    We continue to see improvements in more traditional militaries 
whose capabilities can range from low-end conventional, to 
sophisticated, all-domain regional and global (including WMD). China 
conducted a successful anti-ballistic missile test and continues to 
modernize its nuclear forces. South and East China Sea tensions rose 
between China and the Philippines (Scarborough Shoals) and Japan 
(Senkaku/Diaoyutai Islands) respectively. Russia continues to modernize 
its nuclear forces and increase its level of strategic military 
activity.
    Hostile cyber activities have increased in both quantity and 
intensity, and the potential exists for even greater activity against 
U.S. intellectual property, institutions, and critical infrastructure. 
U.S. national power relies heavily on cyberspace and the capabilities 
it enables; therefore, we must continue to improve the protection and 
resilience of our networks as we work to increase cyber capacity and 
capability.
    Fiscal uncertainty presents our people with an unprecedented 
combination of professional and personal concerns as well. The all-
volunteer military and civilian team has performed beyond our greatest 
expectations and is the envy of the world; but some of the best young 
uniformed and non-uniformed people assigned to STRATCOM are questioning 
their future. The uncertainty surrounding civilian hiring restrictions, 
salary freezes, and the possibility of unpaid furloughs is especially 
troubling since 60 percent of the STRATCOM headquarters staff and much 
of the essential workforce which supports our missions and sustains our 
mission critical platforms and systems are civilians. Preserving this 
combat-experienced military-civilian team in the face of further force 
reductions, a potential decline in readiness and unpaid furloughs is 
one of my greatest concerns.
    The possibility of dramatic budget reductions creates additional 
problems. The inflexible nature of cuts associated with sequestration 
and the associated out year budget cuts of over $50 billion per year 
across the Department of Defense, will likely cause dramatic decreases 
in force readiness that will eventually impact our ability to deter 
aggression and assure allies and partners. The impact of across-the-
board reductions and out year budget cuts to readiness accounts will 
cascade as time passes; recovery from such cuts will take longer and be 
more difficult to achieve. Similarly, cuts to investment accounts will 
delay often deferred and much needed modernization to the nuclear 
enterprise, curtail the expansion of cyber capabilities needed to meet 
the growing threat, and will delay other key capabilities. In all cases 
risk will increase.
    The challenges inherent in these examples remind us that as we 
plan, prepare and apply current capabilities to existing problems, we 
must also remain aware of and prepared for the unexpected. Within the 
new defense strategy we must maintain the organizational, programmatic, 
and intellectual flexibility to deal with surprise and meet the 
uncertainties of tomorrow's unforeseen problems.
    STRATCOM remains focused on conducting the missions most critical 
to protect the core national security interests described in the 2012 
defense strategic guidance: defeating al Qaeda and its affiliates and 
succeeding in current conflicts; deterring and defeating aggression by 
adversaries, including those seeking to deny our power projection; 
countering WMD; effectively operating in cyberspace, space, and across 
all domains; maintaining a safe and effective nuclear deterrent; and 
protecting the Homeland.
    While our heritage is nuclear and our nuclear vigilance will never 
waver as long as nuclear weapons exist, today's command is far more 
diverse and versatile. The missions and forces assigned to this command 
allow us to gain a global perspective and to create synergy from a 
range of strategic capabilities--those that can impact many people or 
systems, affect large physical areas, act across great distances, 
persist over long periods of time, change the status quo in a 
fundamental way, and provide the President ready military options in 
extreme circumstances--that is unique among the CCMDs. STRATCOM's 
nuclear and conventional strike, space, cyber, and other capabilities 
remain foundational to confronting the challenges of the future. The 
United States can neither deter adversaries and assure allies nor 
prevail in war without them--simply put, STRATCOM's responsibilities 
and capabilities underwrite freedom of action for our Nation and 
generate viable options for our national leaders. Our seemingly diverse 
missions share commonalities: they are strategic in nature, global in 
scope, and they are interdependent with the responsibilities and 
capabilities of the other CCMDs, the whole of the U.S. Government, and 
key allies.

                 21ST CENTURY DETERRENCE AND ASSURANCE

    Future conflict will:

        <bullet> Encompass all domains (air, sea, land, space, and 
        cyberspace, all tied together through the electromagnetic 
        spectrum)
        <bullet> Cross traditional geographic and manmade boundaries
        <bullet> Involve a wider range of actors with access to 
        advanced, low-cost capabilities
        <bullet> Likely involve the U.S. homeland and multiple 
        combatant commands
        <bullet> Demand that the United States continue to evolve 
        toward an interdependent joint force that is integrated in 
        every aspect

    STRATCOM's primary mission objective is to deter strategic attack 
on the United States, our allies and partners by making anyone who 
might contemplate such an attack recognize that they will not achieve 
their goals and will pay an extraordinary price if they try. We employ 
many means to influence the perceptions and assessments of others; but 
the continuing credibility of America's capabilities is the most 
effective deterrent against a strategic attack on the United States.
    Deterrence and assurance have been part of the national lexicon for 
well over half a century and, for many of those decades, strategic 
deterrence was synonymous with nuclear deterrence (i.e., using nuclear 
weapons to deter a massive nuclear or conventional attack on the United 
States or our allies). Today we believe deterrence and assurance 
concepts address a broader array of strategic attacks from individual 
actors who will have widely different capabilities and motivations. 
While nuclear attack will always remain unique in its potential for 
impact and devastation, today's strategic attacks are potentially 
broader and defined by their effect versus a specific weapon or means 
of delivery. Therefore, it is increasingly clear that the capabilities 
we need, to deter or defeat attacks, are those that can meet multiple 
scenarios and take full account of the interdependencies and 
interactions among CCMDs and across the air, sea, land, space, and 
cyberspace domains--all tied together through the electromagnetic 
spectrum.
    It is also increasingly clear that we must carefully shape our 
deterrence planning to specific actors and situations. To do this will 
require a deeper and more comprehensive understanding of our potential 
adversaries and their decisionmaking processes, a robust understanding 
of the threats they pose, and more flexibility and speed in our 
strategy development and planning processes. In practice, 21st century 
deterrence encompasses a wider range of complementary tools, including 
both nuclear and strong conventional forces, perhaps non-kinetic 
capabilities, limited missile defenses, unfettered access and use of 
space and cyberspace, and modern capabilities that are both resilient 
and sustained.

STRATCOM Missions
        <bullet>  Strategic Deterrence
        <bullet>  Space Operations
        <bullet>  Cyberspace Operations
        <bullet>  Joint Electronic Warfare
        <bullet>  Global Strike
        <bullet>  Missile Defense
        <bullet>  Intelligence, Surveillance, and Reconnaissance
        <bullet>  Combating Weapons of Mass Destruction
        <bullet>  Analysis and Targeting

    Future conflicts will likely involve multiple CCMDs from the 
outset, and so we must improve how we integrate our efforts across 
CCMDs and with the whole of the U.S. Government and allies. We need the 
resources, the situational awareness, the organizations, and the 
decisionmaking capabilities with the responsiveness and flexibility to 
provide the tailored effects the President might need before, during, 
or after armed conflict.
    Assuring U.S. allies and partners also contributes to deterrence by 
demonstrating to our adversaries that our alliances and coalitions are 
resilient and enduring. Our assurance efforts must leverage the 
strengths of the individual CCMDs, Services, and agencies, and 
complement other efforts already in place or in planning. Assurance is 
not necessarily a byproduct of deterrence; it is a deliberate effort in 
itself and one that often requires additional resources beyond those 
needed for deterrence.
    STRATCOM is helping to shape the DOD's approach to deterrence and 
assurance. I'm pleased to report we have made significant progress in 
this regard through our Deterrence and Assurance Campaign. This 
campaign arranges STRATCOM's actions, operations, and messages in time, 
space, and purpose to achieve our deterrence objectives, ensure combat 
readiness, and generate unity of effort. The campaign is oriented 
toward four strategic military objectives.

        <bullet>  Enhancing strategic military deterrence. Adversaries 
        who contemplate strategic attack on the United States and our 
        allies must perceive unacceptable costs and an inability to 
        obtain desired outcomes.
        <bullet>  Maintaining our readiness and capability to employ 
        force to prevent and defeat all strategic attacks, not just 
        nuclear.
        <bullet>  Strengthening efforts to prevent proliferation and 
        use of WMD and mitigate effects if such weapons are used. This 
        includes accelerating the speed with which we develop and field 
        capabilities like standoff detection, better nuclear forensics 
        and improved global situational awareness.
        <bullet>  Increasing the combat capability of the Joint Force 
        by continuing to integrate and exercise STRATCOM capabilities 
        and support plans across mission areas and with other CCMDs and 
        allies.
        <bullet>  The end result of the campaign planning and 
        organizational effort is a STRATCOM that is more effective and 
        soundly positioned to meet today's challenges, deter tomorrow's 
        threats, and assure allies and partners of U.S. commitment to 
        them.

                           COMMAND PRIORITIES

CDR STRATCOM Priorities
        <bullet>  Deter nuclear attack with a safe, secure, and 
        effective nuclear deterrent force
        <bullet>  Partner with the other combatant commands to win 
        today
        <bullet>  Respond to the new challenges in space
        <bullet>  Build cyberspace capability and capacity
        <bullet>  Prepare for uncertainty

    The new U.S. defense strategy is based on a future Joint Force that 
will be smaller and leaner, but will be agile, flexible, ready, and 
technologically advanced. The strategy also incorporates the concepts 
of networked warfare (recognizing the interdependence of both the 
forces and the CCMDs) and unity of action (integrated military action 
as part of a comprehensive whole of government and, when needed, multi-
national approach). Within this new strategy and in support of 
STRATCOM's assigned missions, I have identified five priorities:
    As long as nuclear weapons exist, STRATCOM's top priority must be 
to deter nuclear attack with a safe, secure and effective strategic 
nuclear deterrent force. STRATCOM plans, operates and, if directed by 
the President, employs the strategic nuclear deterrent force as needed 
to achieve national objectives. To meet national deterrence objectives, 
we continue to maintain a Triad of ballistic missile submarines, 
intercontinental ballistic missiles (ICBMs), nuclear capable heavy 
bombers and associated aerial tankers, and an assured warning and 
command and control system. To provide the President with maximum 
flexibility, we maintain a portion of the missile submarine and ICBM 
forces in a ready-to-use posture that is governed by strict nuclear 
surety procedures and is constantly under the direct positive control 
of the President. I can assure you that today's nuclear weapons and 
Triad of delivery platforms are safe, secure, and effective.
    My second priority is to bring STRATCOM's tremendous military 
capabilities to bear in support of our CCMD partners as needed to 
address today's conflicts. Over the last year we have worked hard with 
the other CCMDs, departments and agencies to institutionalize and 
enhance the integrated and synchronized joint force capability that was 
the by-product of the last decade of conflict. To that end we are 
actively exploring and creating new processes and relationships to 
wield all of the Nation's capabilities in responding to future threats.
    My third priority is to ensure that space capabilities will be 
available whenever and wherever they are needed. Space capabilities are 
integral to the American way of warfare and today's space environment 
is characterized by more participants, more activity, and the 
proliferation of a variety of capabilities that can threaten our access 
to and freedom of action in space. In order to preserve the national 
security, humanitarian, scientific, and commercial advantages we gain 
from operating in space, STRATCOM has spent much of the last year 
improving our contingency plans and working with our Service components 
to enhance the resilience of our space capabilities.
    My fourth priority is to continue building the cyberspace 
capability and capacity. Cyberspace is central to civil, commercial, 
humanitarian and national security endeavors as well and, like space, 
we need to protect our access to and freedom of action in cyberspace. 
We are also working with others in the U.S. Government to help protect 
the Nation's intellectual property and critical infrastructure. We are 
actively collaborating with partners in industry, academia, and the 
Intelligence Community to achieve those goals. At the same time we are 
working hard with U.S. Cyber Command to shape our future cyber force 
and advocate for the resources to meet the increased demands of this 
new domain.
    Finally, we expend considerable effort trying to understand the 
emerging strategic environment to avoid or limit the impact of surprise 
which military history makes clear is a deadly enemy. We explore ways 
to limit the impact of surprise by integrating our plans and operations 
with other CCMDs, agencies, and partners through realistic and 
challenging exercises, and by exploring alternative scenarios and 
futures through aggressive tabletop exercises. We are also creating 
opportunities for Joint Forces to exercise in an environment in which 
space and cyberspace capabilities are degraded.

                          ENDURING ADVANTAGES

    Given the uncertainty in the global environment abroad and the 
fiscal environment at home, the Nation must rely ever more heavily on 
the enduring advantages represented by our people and the ability of 
our interdependent Joint Force to maintain global awareness and project 
power. STRATCOM contributes and advocates for major capabilities that 
enable these enduring advantages.

Our People
    People are our greatest and most enduring strength. The men and 
women of STRATCOM remain fully engaged with our many mission partners 
every day--both at home and abroad--despite uncertainty and a high 
mission pace multiplied by the inherent stresses of conflict and 
combat. As a result of DOD-wide suicide statistics and other human 
factors indicators, we have renewed our efforts to ensure our workforce 
remains viable, strong, capable, and resilient. We have taken specific 
steps to strengthen our workforce and enhance the working environment--
addressing the wholly unacceptable nature of sexual assault within our 
ranks, respecting and including servicemembers of all sexual 
orientations, understanding and treating combat-induced stress, and 
confronting and preventing the tragedy of suicide. These efforts are a 
good start toward protecting our most valuable asset, but we must do 
more. Leaders at all levels of STRATCOM are emphasizing the critical 
issues of personal health and well-being that are confronting our 
military and civilian members and their families.
    I fully support the efforts of the Secretary of Defense, Chairman 
of the Joint Chiefs of Staff, Service Chiefs, and Congress to recruit, 
retain, and support our Active Duty, Reserve, National Guard, and 
civilian personnel. Our strategy demands that we also support 
educational efforts (including lifelong science, technology, 
engineering and math skills development) that will enable us to sustain 
the unique and highly technical nuclear, global strike, space and cyber 
workforce skills we need. However, I am extremely concerned about the 
impacts of actual and potential budget reductions on our people. While 
I believe these amazing professionals will continue to cope with 
uncertainty in the near-term, I cannot say the same over time if the 
financial risks to the individuals and their families persist.

Global Awareness
    Our future success also depends on enhancing our enduring advantage 
in global awareness. Over the past decade, U.S. air, sea, and space-
based capabilities have provided unfettered global access for the 
surveillance and reconnaissance information needed to detect and 
characterize trends and events. Most often, these platforms operated in 
uncontested environments. As we go forward, STRATCOM and its mission 
partners need to work to ensure the United States sustains this 
advantage in anti-access/area denial (A2/AD), cyberspace, space, and 
other contested operating environments.
    Space situational awareness (SSA) is foundational to unfettered 
freedom of action in all domains. SSA involves not only characterizing 
the dynamic physical arrangement of the space domain, but also the EMS 
through which we transmit and receive spacecraft commands and mission 
data. Protecting our assets from unwanted electromagnetic interference 
is one of our highest priorities, and we are in the process of 
streamlining procedures to detect, identify, characterize, geolocate, 
and resolve such problems.
    Many nations share the space domain and it is in our best interest 
to create an environment where the sharing of SSA data facilitates 
transparency. We provide conjunction analysis and collision warning for 
space operators around the world, intent on reducing the risk of 
collision that would create dangerous space debris. STRATCOM has 
entered into 35 signed commercial SSA sharing agreements. In 2012, we 
provided orbital data to 90 commercial and foreign, and 180 U.S. 
entities. We received and reviewed nearly 500,000 satellite 
observations and screened over 1,000 active satellites on a daily 
basis. From those screenings we provided over 10,000 conjunction 
warnings, supported 75 conjunction avoidance maneuvers, and fulfilled 
over 300 orbital data requests for more than 85 separate entities. 
Those numbers will grow every year, lending urgency to SSA improvements 
and establishment of appropriate ``rules of the road'' that will govern 
orbital behavior and allow us to more easily detect problems as they 
occur.
    We are also working to share the awareness advantages of space with 
some of our closest allies and partners. The Combined Space Operations 
concept is built upon the current Joint Space Operations Center (JSpOC) 
at Vandenberg Air Force Base, CA, with virtual connections between it 
and other nations' space operations centers around the world. This new 
paradigm enables partnering nations to work together to maintain the 
strategic advantage of access to space capabilities through 
synchronized activities and sustainable, combined military space 
operations.
    Another component of global awareness, cyberspace, has become a key 
element for operations in all other domains, and cyber capabilities 
have enabled military forces to function with greater efficiency, 
precision and lethality. Adversaries also recognize the contribution of 
cyberspace to their overall warfighting capabilities and continue to 
pursue the advantages that effective use of cyberspace can provide. The 
result is a competitive and continuous life cycle of modification, 
enhancement and replacement of information technology systems that 
friends and foes alike can use to gain military, economic, or social 
advantages. We believe that military functions and battlefield 
operating systems will increasingly depend upon agile use of cyberspace 
to gain advantages in combat.
    Other intelligence, surveillance, and reconnaissance (ISR) 
capabilities also strengthen global awareness; the space capabilities 
described just above provide some of these, but a large number of other 
systems--manned and unmanned aircraft, ships, submarines, cyber, 
human--make critical contributions as well. In crisis or contingency, 
``ISR'' is one of the first capabilities commanders request and expect 
for the duration of the mission. From determining the status of Syrian 
chemical weapons, to identifying violent extremist organizations' safe 
havens in North Africa, to monitoring tensions in the South and East 
China Seas, to assessing Iran's progress with nuclear weapons, to 
tracking the development and deployment of adversary ballistic 
missiles--ISR has gone from an enabler to an essential component of all 
military operations.
    A fourth component of global awareness is control of usable 
portions of the electromagnetic spectrum (EMS). Almost every modern 
technological device is reliant on the EMS. The commercial sector is 
now the primary driver of spectrum technology development which has led 
to an exponential increase in the availability of EMS-dependent devices 
and a global proliferation of emerging commercial off-the-shelf and 
dual-use technologies. This proliferation creates competition with the 
military's required access to the EMS and potentially pits economics 
against national security needs. STRATCOM is working with the Services, 
Joint Staff, and the Office of the Secretary of Defense (OSD) to engage 
the whole of government to develop a cooperative way ahead to secure 
spectrum access.
    STRATCOM employs capabilities in the air, space, cyberspace, and at 
sea in order to ensure the Nation maintains global awareness as the 
foundation for deterrence and, ultimately, to project power when and 
where needed.

Power Projection
    The United States has long held a decisive military advantage 
through our ability to project power to any corner of the globe. U.S. 
conventional forces are second to none and our forward presence around 
the world ensures we can rapidly respond to crisis in any theater of 
operations. Adversaries and potential adversaries have taken note of 
this and are working to deny us this advantage through A2/AD 
strategies, improvements to their own capabilities, and the acquisition 
of WMD to discourage or limit U.S. action. As described in the 2012 DOD 
strategic guidance, ``In order to credibly deter potential adversaries 
and to prevent them from achieving their objectives, the United States 
must maintain its ability to project power in areas in which our access 
and freedom to operate are challenged.''
    The ballistic missile submarines (SSBNs), ICBMs, heavy bombers, and 
cruise missiles assigned to STRATCOM remain the core of our nuclear 
deterrent. These highly reliable platforms are credible because we 
continue to invest the resources required to properly evaluate their 
performance and upgrade their capabilities on a recurring basis. Each 
time we test a ballistic missile or forward-deploy a heavy bomber, our 
allies and potential adversaries take note; our ability to 
transparently demonstrate the continued effectiveness of these tools 
creates a lasting impression which enhances our deterrent.
    As effective as the U.S. deterrent force is today, we must plan for 
the likely circumstance that while we are projecting power abroad in a 
future crisis or conflict, we will also be defending the homeland in 
cyberspace and against missile or terrorist attack, perhaps at the 
outset of--or even before--a regional conflict goes ``hot''. This is an 
operational challenge that has strategic implications for warning, 
thresholds, plans, and responses. Therefore, U.S. plans and operations 
across multiple CCMDs must be so well integrated and synchronized that 
when executed, they function as a single, coherent American campaign. 
Over the past year, STRATCOM has begun a complete reassessment of our 
operational plans to ensure we are well-integrated with our mission 
partners in the other CCMDs. We continue to exercise and seek robust 
training opportunities with these partners (including opportunities 
that highlight operations in contested environments) to ensure we are 
ready to achieve the objectives directed by the country's senior 
leaders.

                            KEY INVESTMENTS

    Deciding what capabilities are needed to meet these goals--
hardware, people, organizations and procedures--is more difficult. 
Success in this context will be increasingly problematic as resources 
decline, but we can compensate by complementing planned investments 
with new operational concepts, more comprehensive and collaborative 
plans, and more effective use of the capabilities we have.

Key Investment: Nuclear Deterrent Forces
    Over the past 2 decades, the United States has responded to 
changing geopolitical conditions by making appropriate reductions in 
the total number of nuclear delivery platforms we operate and the 
number of weapons in our nuclear stockpile. These reductions were 
determined based on a careful assessment of the capabilities required 
to provide the options and effects a President might need to achieve 
national security objectives. These capabilities include the nuclear 
weapons, the strategic delivery platforms, surveillance and 
reconnaissance systems, supporting intelligence, and the systems by 
which we command and control these unique forces. We must continue to 
invest in each of these areas even as we reduce to force levels 
specified by New START.
    Many of our current nuclear command and control (NC3) systems were 
designed for the Cold War and require modernization in order to 
effectively meet the challenges presented in the evolving security 
environment. Using new and emerging technologies, we have set a course 
to transform the Nation's NC3 architecture to achieve robust and 
resilient 21st century capabilities. As part of modernizing nuclear 
command and control, last year we broke ground on the new STRATCOM 
Command and Control (C2) Facility. Our current headquarters was built 
in 1957 to support a single mission, nuclear deterrence and operations, 
with the corresponding C2 technology of the time (the land line 
telephone). Our greatly expanded mission set, combined with the vastly 
more complex supporting technology placed increasing demands on the 
legacy electrical and air handling systems to the point where we suffer 
numerous electrical, cooling, water, fire detection/suppression, and 
other basic service interruptions. Your continued support for the new 
facility is greatly appreciated and will ultimately provide better 
command and control for all of our strategic forces.
    The Triad of SSBNs, ICBMs and nuclear-capable heavy bombers, all 
with their associated support elements--offers a mutually reinforcing 
strategic package that provides a credible deterrent to our 
adversaries, assurance to our allies and partners, and flexibility for 
the President.

        <bullet> Because of the extended service life of the current 
        SSBN fleet, it is essential to provide sufficient resources to 
        replace our Ohio-class ballistic missile submarines. Last 
        year's decision to delay the Ohio-class Replacement Program by 
        2 years is all the risk I would recommend in this critical 
        program.
        <bullet> The Minuteman III force is sustainable through 2030 
        and potentially beyond with additional modernization 
        investment. The ongoing Ground Based Strategic Deterrent 
        Analysis of Alternatives is studying the full range of concepts 
        to sustain this Triad leg beyond 2030.
        <bullet> Planned sustainment and modernization activities will 
        ensure a credible heavy nuclear and conventional bomber 
        capability through 2040 for the B-52 and 2050 for the B-2. 
        Looking forward, a new, long-range nuclear-capable penetrating 
        bomber is required. STRATCOM is working with the Air Force to 
        develop requirements for the next nuclear and conventional 
        capable long-range strike platform and long-range stand-off 
        missile. Additionally, the Air Force is replacing the aging KC-
        135 tanker fleet with the KC-46A, ensuring an enduring air 
        refueling capability essential to long-range bomber operations.

    Regarding the nuclear weapons themselves, modernization has in 
practice meant sustainment of the nuclear warheads manufactured 20-plus 
years ago. At the same time, the United States has maintained a 
unilateral moratorium on nuclear testing for over two decades. Thus, 
the nuclear weapons enterprise faces the complex challenges of 
certifying the effectiveness and reliability of nuclear weapons without 
actually testing them with nuclear explosions. Considerable progress 
has been made toward managing these challenges with aggressive science 
and surveillance programs, but our future confidence in the stockpile 
will depend centrally on our continuing ability to attract outstanding 
people with scientific, engineering and technological talent to this 
work.

Key Investment: Global Strike
    Today, the only prompt global strike capability to engage 
potentially time-sensitive, fleeting targets continues to be ballistic 
missile systems armed with nuclear weapons. We continue to require a 
deployed conventional prompt strike capability to provide the President 
a range of flexible military options to address a small number of 
highest-value targets, including in an anti-access and area denial 
environment.

Key Investment: Combating Weapons of Mass Destruction (CWMD)
    STRATCOM continues to make progress in our global CWMD efforts by 
synchronizing planning efforts across the combatant commands through 
cooperation on regional CWMD campaigns, alignment with Theater Campaign 
Plans and incorporation of CWMD objectives and concepts in deliberate 
and crisis action planning efforts with combatant commands.
    Identifying and countering WMD requires extensive technical 
knowledge, capabilities, and timely and relevant intelligence. In 
support of DOD objectives, STRATCOM continues to pursue capabilities 
necessary to detect, interdict, and contain WMD. One of my highest 
priorities in addition to securing and reducing dangerous materials is 
acquiring the capabilities to monitor and track lethal agents and their 
means of delivery, and defeating or responding to the use of these 
weapons. Just this year, we established and sponsored a new University 
Affiliated Research Center (UARC). The center will advance cutting-edge 
defense research in support of STRATCOM--as well as the rest of the 
U.S. Government--in the mission areas of global deterrence and 
combating weapons of mass destruction, along with international space 
and cyber law. The UARC will help address these challenges by providing 
unique access to academic perspectives and research methods not 
currently found anywhere in the DOD, and will help ensure critical 
skill sets are nurtured, developed and available for DOD to engage 
current and future CWMD challenges. We are truly excited about this new 
partnership.
    A key element of our CWMD efforts is the continuing maturation of 
STRATCOM's Standing Joint Force Headquarters for Elimination (SJFHQ-E). 
The SJFHQ-E achieved initial operational capability in September 2012 
and is successfully supporting the other combatant commands with WMD 
elimination expertise and planning. When fully operational, SJFHQ-E 
will be able to quickly integrate into an operational headquarters, 
conduct both deliberate and crisis planning, and maintain awareness of 
the WMD environment.

Key Investment: Intelligence, Surveillance, and Reconnaissance (ISR)
    The ISR community is increasingly being challenged to operate 
effectively in anti-access/area-denial environments. Additionally, our 
ability to process and analyze data from increasingly capable ISR 
platforms is a growing challenge. Analysts are dealing with more data 
on an increased operations tempo that imposes ever-greater demands on 
analysis and reporting timeliness. Greater efficiencies are clearly 
needed, and we are seeking them through improved data management, 
increased computing power and capability to help the analysts, and more 
effective management of ISR processing, exploitation and dissemination. 
Our intent is to manage resources globally while maintaining regional 
and local focus, thus ensuring we can more quickly reprioritize during 
and between emerging crises and contingencies, guaranteeing knowledge 
dominance for our commanders. Additionally, we are looking at ways we 
can reduce these gaps through globally connected, focused integration 
and by managing the exploitation and analytic resources in a more 
unified structure.

Key Investment: Electromagnetic Spectrum (EMS)
    In August 2012, STRATCOM established a federated Joint 
Electromagnetic Spectrum Operations (JEMSO) Office, staffed by subject 
matter experts from across the headquarters and our components. This 
new organization supports all CCMDs with spectrum advocacy, operations, 
test and evaluation, and contingency planning. The JEMSO Office, in 
collaboration with the Joint Staff, is driving the development of a 
holistic JEMSO policy and doctrine that consolidates the activities of 
electronic warfare and spectrum management in order to significantly 
improve spectrum-related mission cohesion, agility, and responsiveness. 
We have created a mission partnership with OSD and the Joint Staff to 
chart a path forward regarding strategy, doctrine, and best practices 
to ensure that all facets of the process are built in a cogent and 
logical manner. Engagement beyond DOD will be vital for success in 
management of this mission area. The JEMSO Office will support the 
combatant commands through contingency planning, training, and advocacy 
for EMS capabilities to enhance combat effectiveness across all 
warfighting domains. To address the rapid technological advances and 
significant proliferation of EMS-dependent systems, STRATCOM's Joint 
Electronic Warfare Center (JEWC) is leading a comprehensive, globally 
oriented, cross-domain, JEMSO assessment. This assessment will continue 
STRATCOM's effort to inform EMS-dependent capability acquisitions, 
ensuring our warfighters are armed with the best possible training and 
equipment to effectively operate in this dynamic environment.

Key Investment: Missile Defense
    Ballistic missiles continue to become more accurate, lethal, and 
capable--remaining a significant threat to the U.S. Homeland and a 
growing threat to our allies and our forces deployed abroad. In 
response, U.S. and allied capabilities to deter, detect, and defeat 
these weapons are also growing, with decades of research and 
development continuing to pay dividends in terms of capability and 
credibility. Missile defense capabilities address limited threats to 
the homeland and our regional partners and allies. Ballistic missile 
threats are likely to grow at least as rapidly as our defensive assets, 
giving us little margin for error in acquisition and force management 
decisions. Sustained missile defense investments support deterrence and 
assurance goals by significantly improving the protection of our 
Homeland, our forward-based forces, and our allies and partners. 
STRATCOM is committed to future capability development efforts that 
leverage past successes, address the most pressing and most likely 
threats, and produce field-tested, reliable assets in a cost-effective 
manner.
    Over the past year, these efforts substantially improved our 
overall missile defenses. We deployed and integrated radars in Europe 
and the Middle East, improving threat coverage and available battle 
space. We concluded a review board and plan to test a revised design of 
the Capability Enhanced (CE II) interceptor to return it to full 
mission capability. We increased the number of Aegis BMD-equipped 
ships. We conducted testing and development of future elements of the 
European Phased Adaptive Approach (EPAA), an effort that improves 
missile defenses through the acquisition and integration of more 
advanced capabilities and the expansion of key partnerships.
    STRATCOM coordinates the integrated air and missile defense 
Prioritized Capabilities List (PCL) across other CCMDs to improve 
Service and Missile Defense Agency understanding of prioritized joint 
warfighter capability needs. To this end the PCL advocates for 
continued support to regional and homeland missile defense needs. This 
includes the upgrade of early warning radars and their integration with 
existing fire control systems for enhanced early warning and 
engagement. More broadly speaking we must avoid delays in development 
and fielding of needed missile program upgrades. We must also continue 
testing individual components in an operationally realistic end-to-end 
manner, and preserve integrated multinational exercises which 
contribute to enhanced operational cooperation and increased confidence 
in our capability and that of our allies. This enhances efforts to 
provide persistent detection; expand data sharing among the United 
States, allies, and partners; field effective defensive systems; and 
provide appropriately robust joint training. As the Joint Functional 
Manager for missile defense capabilities, STRATCOM recommends the 
global allocation of low-density, high-demand assets, including force 
rotations, and force sufficiency--thus making the best use of limited 
resources.

Key Investment: Space
    Space is no longer the exclusive domain of superpowers--the number 
of countries that share the domain continues to grow as barriers to 
entry continue to decline. Space is foundational to the global economy, 
international strategic stability, and our national security. However, 
the strategic advantages space provides are in danger of diminishing. 
America must continue its leadership role to ensure space is 
accessible, usable, and responsibly preserved for all users. As the 
CCMD responsible for military space operations, support, and capability 
advocacy, we remain focused on ensuring intergovernmental 
collaboration, international cooperation, and access to and shared use 
of space.
    Access to orbit remains vital to national security and the key to 
achieving it is an industrial base that is capable, responsive and 
affordable. Diversity in the launch marketplace could prove a positive 
development, and accordingly STRATCOM supports the Air Force's efforts 
to expand the available industrial base of certified and proven launch 
providers. The success of companies like Space-X is an encouraging step 
in the right direction but we must continue to invest in capabilities 
that assure our access to space.
    We must retain a robust and enduring capability to detect, track 
and analyze each of the more than over 20,000 objects on orbit today. 
Clearly, there is an international demand for continued and ever-
improving SSA, but challenges remain in the form of critical SSA 
architecture legacy elements that are well past their design life. 
Addressing these challenges remains a high priority but fluctuating 
funding profiles and constrained budgets make maintenance of existing 
forces and infrastructure and timely acquisition of new capabilities 
more difficult. The JSpOC is enabled by the JSpOC Mission System (JMS) 
which is being developed to provide key SSA, command and control, data 
processing, integration, and exploitation capabilities. Continued JMS 
progress is vital to streamlined data processing integration, 
information sharing with partners and allies, and understanding of 
adversary intent in space.
    Our assessment of existing on-orbit and ground-based communication, 
intelligence, surveillance, geolocation, and environmental monitoring 
assets is acceptable yet fragile. To preclude any gaps in our ability 
to provide support for the warfighter, we must program and procure 
replacements to our aging systems in a timely manner.

Key Investment: Cyberspace
    The great power of technology--and our reliance on it--means that 
cyber threats represent one of the most serious national security, 
public safety, and economic challenges facing the Nation. The ongoing 
theft of the Nation's critical commercial, civil and unclassified 
military data by foreign intelligence and security services continues 
to erode U.S. economic and national security and reduce the competitive 
edge of the U.S. businesses. U.S. Government departments, the private 
sector, allies and international partners must become more actively 
involved in securing our collective networks and to preventing our 
adversaries from inadvertently gaining generational increases in 
technology through inadequate cyber security practices.
    Improving the DOD's ability to operate effectively in cyberspace 
requires investment in five major areas: defensible architecture (the 
Joint Information Environment), trained and ready forces, effective 
command and control, global situational awareness, and policies and 
rules of engagement to defend the Nation in cyberspace. Of these, the 
most urgent investment is increasing the numbers, training and 
readiness of our cyber forces. We are recruiting, training, and 
retaining the best and brightest our Nation has to offer, but the 
operational demands of cyberspace exceed our capacity to conduct 
sustained operations. We must continue to grow and align our cyber 
forces to enable operations and support CCDRs and their components.
    It is also essential that we prepare our forces to operate in a 
cyberspace environment in which expected network resources and data are 
degraded or unavailable, or whose confidentiality and integrity cannot 
be confirmed. Toward this end we have made progress in developing joint 
cyberspace training and certification standards that will serve as the 
common foundation for training all DOD cyber operators.
    Sharing of cyber threat indicators and countermeasures must occur 
in near real-time to enable prevention as well as response. We are 
fostering close information sharing relationships with the Department 
of Homeland Security, law enforcement agencies and private sector 
companies in the Defense Industrial Base, but we need to make it easier 
for the government to share threat information more broadly. At the 
same time we must also establish and develop baseline standards for our 
critical private-sector infrastructure to help companies take proactive 
measures to secure their networks.

                               CONCLUSION

    The Nation and our military are confronted with an unprecedented 
confluence of geopolitical, technological, and fiscal challenges that 
have the potential to threaten the readiness of our military, the 
execution of our National Security Strategy and the security of our 
Nation. These challenges may be daunting but they are not paralyzing. 
We are building our future on a strong and successful past, and your 
support, together with the hard work of the outstanding men and women 
of the U.S. Strategic Command, will ensure that we remain ready, agile, 
and effective in deterring strategic attack, assuring our allies, and 
defeating current and future threats.

    Chairman Levin. Thank you very much, General Kehler.
    General Alexander.

  STATEMENT OF GEN. KEITH B. ALEXANDER, USA, COMMANDER, U.S. 
                         CYBER COMMAND

    General Alexander. Thank you, Chairman Levin, Ranking 
Member Inhofe, and distinguished members of the committee. It's 
an honor to lead the men and women of CYBERCOM. It's also a 
tremendous honor to work with and for General Bob Kehler. He 
has been truly supportive of everything that we're trying to do 
in CYBERCOM, and he's the only one that's nice to me, and as an 
intelligence officer, that's unique. [Laughter.]
    It does give me great pleasure to come here today and talk 
to you about the great things that we're doing at CYBERCOM, but 
also to address some of the questions that you've put on the 
table and I think some of the questions that have troubled the 
committee in the past. I will try to answer some of those. I 
cannot answer all of those today.
    First, the role of DOD. It takes a team to operate in 
cyberspace and we've talked about this team approach. But at 
times I think in talking about the team approach we're not 
clear on who's in charge when. For defending the Nation in 
cyberspace or in any way when the Nation is under attack, 
that's a DOD mission and that falls to STRATCOM and CYBERCOM in 
cyberspace. We are also responsible for supporting the 
combatant commands in their cyberspace operations and for 
defending the DOD networks, as well as supporting the 
Department of Homeland Security (DHS) and defending critical 
infrastructure. We must also gather important threat 
information to protect, prevent, and mitigate and recover from 
cyber incidents in support of DHS and the Federal Bureau of 
Investigation (FBI).
    As I said, no single public or private entity has all the 
required authorities, resources, or capabilities to respond to 
or prevent a serious cyber attack. I work closely with 
Secretary Napolitano and Deputy Secretary Lew at DHS and with 
Director Bob Mueller at FBI. We all see eye-to-eye on the 
importance of cyber, of supporting each other in these cyber 
missions. FBI's role in domestic cyberspace is absolutely 
critical to disrupting cyber criminals and stopping cyber 
attacks and leading investigation in those areas. DHS' work to 
defend the Government and to strengthen the security posture of 
critical infrastructure is essential. They are the lead for 
domestic cyber security and help protect Federal networks and 
critical infrastructure.
    To act quickly, we must have clear lanes of responsibility 
and rules of engagement. We all recognize that the private 
sector plays a key role in this area, and having the ability to 
work with the private sector is important to us and one of the 
key reasons we need cyber legislation. The Executive order 
issued last month, as you noted, Mr. Chairman, is a step in the 
right direction, but it does not take away the need for cyber 
legislation.
    I'd like to point out before I go forward that civil 
liberties, oversight, and compliance are key for both CYBERCOM 
and NSA in operating in this space, and we take that 
requirement sincerely and to heart and ensure that we do every 
part of this properly. I would also point out that we can do 
both. You can protect civil liberties and privacy and protect 
our Nation in cyberspace. I think that's one of the things that 
we need to educate the American people on, how do we do that, 
how do we work with industry to do this.
    If you look at the strategic landscape--you've hit on much 
of that, Mr. Chairman. When you look at the strategic landscape 
from our perspective, it's getting worse. Cyber effects are 
growing. We've seen the attacks on Wall Street over the last 6 
months grow significantly, over 140 of those attacks over the 
last 6 months. Last summer in August we saw a destructive 
attack on Saudi Aramco where the data on over 30,000 systems 
were destroyed. If you look at industry, especially the 
antivirus community and others, they believe it's going to grow 
more in 2013, and there's a lot that we need to do to prepare 
for this.
    Let me just talk a little bit about what we're doing to 
prepare for it from our perspective. As many of you know, we 
are already developing the teams that we need, the tactics, 
techniques, procedures, and the doctrine for how these teams 
would be employed, with a focus on defending the Nation in 
cyberspace.
    I would like to be clear that this team, this Defend-the-
Nation team, is not a defensive team; this is an offensive team 
that the DOD would use to defend the Nation if it were attacked 
in cyberspace. Thirteen of the teams that we are creating are 
for that mission set alone. We're also creating 27 teams that 
would support combatant commands and their planning process for 
offensive cyber capabilities. Then we have a series of teams 
that would defend our networks in cyberspace. Those three sets 
of teams are the core construct for what we're working with and 
the Services to develop our cyber cadre.
    As you noted, the key here is training our folks to the 
highest standard possible. I think that's the most important 
thing that we are on the road to and it's the most important 
partnership that we have with NSA and others, is ensuring that 
the training standards that we have for our folks is at the 
highest level.
    I'd just like to hit on a few key points that we're doing 
to develop this cyber strategy. You mentioned command and 
control. General Kehler, the combatant commands, the Service 
Chiefs, and I are all looking at the command and control, how 
we work this with the other combatant commands. That's a key 
issue. We have done a lot of work on that and we've ironed out 
how the joint cyber centers at each combatant command would 
work with CYBERCOM, how we push information back and forth, and 
how we'd have operational control and direct support of teams 
operating in their area. There will be more to do in this as 
the teams come on line.
    One of the key things that we have to address is 
situational awareness, how do you see an attack in cyberspace. 
Today seeing that attack is almost impossible for the DOD. 
Specifically, an attack on Wall Street would probably not be 
seen by us. It's going to be seen by the private sector first, 
and that's a key need for information-sharing. It has to be 
real-time to DOD, DHS, and FBI, all at the same time, one 
government team. If we're going to respond in time to make a 
difference, we have to see that in real time. Those companies 
that are sharing that information with us have to have 
liability protection.
    We're also building the operational picture that we would 
share, CYBERCOM would share, with the other combatant commands, 
with DHS, with FBI, and with other national leaders.
    We need a defensible architecture, and you've heard about 
the joint information environment, our cloud security. Not only 
is that more defensible, it was created by some of our folks to 
come up with the most defensible architecture we could make; 
it's also more secure. It's not perfect. No architecture is 
perfect in security, but it is better than where we are and 
it's cheaper, and it's something that we should push for.
    Mr. Chairman, you mentioned authorities, policies, and 
standing rules of engagement. We're working that hard, but, as 
you've already stated, this is a new area for many of our 
folks, especially within the administration, within Congress, 
and the American people. Setting those right, we're being 
cautious in ensuring that we're doing that exactly right and 
sharing the information we have with Congress.
    So in conclusion, from my perspective no one actor is to 
blame for our current level of preparedness in cyberspace. Many 
don't understand how serious the threat is, so we need to 
educate people on this threat. We must address this as a team, 
sharing unique insights across government and with the private 
sector. We must leverage the Nation's ingenuity through an 
exceptional cyber workforce and rapid technological innovation. 
The U.S. Government has made significant strides in defining 
cyber doctrine, organizing cyber capabilities, and building 
cyber capacity. We must do much more to sustain our momentum in 
an environment where adversary capabilities continue to evolve 
as fast or faster than our own.
    Mr. Chairman, that completes my statement.
    [The prepared statement of General Alexander follows:]

           Prepared Statement by GEN Keith B. Alexander, USA

    Thank you very much, Chairman Levin and Ranking Member Inhofe, for 
inviting me to speak to you and your colleagues today on behalf of the 
men and women of U.S. Cyber Command (CYBERCOM). I have the honor of 
leading them on a daily basis, and let me assure you there is not a 
finer and more dedicated team of servicemembers and civilian personnel 
anywhere. It gives me great pleasure to appear before you to talk about 
their accomplishments, and to describe some of the challenges they face 
in performing their difficult but vital mission of keeping U.S. 
military networks secure, helping to protect our Nation's critical 
infrastructure from national-level cyber attacks, assisting our 
combatant commanders around the world, and working with other U.S. 
Government agencies tasked with defending our Nation's interests in 
cyberspace.
    CYBERCOM is a subunified command of U.S. Strategic Command in 
Omaha, though we are based at Fort Meade, MD. We have approximately 834 
active-duty military and civilians assigned from an authorized end 
strength of 917 (plus contractors), and a budget of approximately $191 
million for fiscal year 2013. CYBERCOM has strong, evolving, and 
growing cyber components representing each of the Services: Fleet Cyber 
Command/Tenth Fleet, Army Cyber Command/Second Army, Air Force Cyber 
Command/24th Air Force, and Marine Forces Cyber Command. Each of our 
Service Cyber Components also has representation at our headquarters. 
Combined we and they have more than 11,000 people in our force mix.
    CYBERCOM shares its headquarters with key mission partners in the 
National Security Agency (NSA), which I also lead. CYBERCOM's 
colocation with NSA promotes intense and mutually beneficial 
collaboration. The Department of Defense (DOD) established CYBERCOM in 
2010 to leverage NSA's capabilities. This partnership is key to what we 
are doing now, and provides the essential context for all the 
activities I shall describe below. The people under my command and 
direction at CYBERCOM and NSA are collectively responsible for 
operating the Department's information networks, detecting threats in 
foreign cyberspace, attributing threats, securing national security and 
military information systems, and helping to ensure freedom of action 
for the U.S. military and its allies in cyberspace--and, when directed, 
defending the Nation against a cyber attack. Also nearby at Fort Meade 
is another key mission partner, the Defense Information Systems Agency 
(DISA). The constellation of agencies and capabilities in the 
Washington, DC, region makes for a unique synergy of people and ideas--
a nexus for military and national cybersecurity innovation.
    CYBERCOM has deployed representatives and mission support elements 
worldwide. We have an expeditionary cyber support unit forward in 
Afghanistan. We also have liaison officers at each Combatant Command 
(serving as that Command's CSE lead) and in several other key offices 
and agencies in the Washington area. The flow of information and advice 
across CYBERCOM and its Service components and the commands, agencies, 
and foreign mission partners here and overseas is improving slowly but 
steadily.
    Since I last spoke with you in March 2012, our progress has 
accelerated. In December we moved ahead with building a balanced and 
highly capable military cyber force designed to meet our joint 
warfighting requirements. We have laid out and codified team 
composition, training, and certification standards to field a world-
class force in support of the Combatant Commands (CCMD). Although we 
have much work to do, we are focused on doing it right and meeting the 
CCMDs' and the Nation's most pressing cyber defense requirements. In 
short, we have moved ahead to normalize cyber operations within the 
U.S. military, and to turn that capability into a reliable option for 
decisionmakers to employ in defending our Nation. This progress will 
not only make our military more capable but our networks and 
information more secure. We have serious threats facing us, as I shall 
explain. Our progress, however, can only continue if we are able to 
fulfill our urgent requirement for sufficient trained, certified, and 
ready forces to defend U.S. national interests in cyberspace.

                        THE STRATEGIC LANDSCAPE

    U.S. Cyber Command operates in a dynamic and contested environment 
that literally changes its characteristics each time someone powers on 
a networked device. Geographic boundaries are perhaps less evident in 
cyberspace, but every server, fiber-optic line, cell tower, thumb 
drive, router, and laptop is owned by someone and resides in some 
physical locale. In this way cyberspace resembles the land domain--it 
is all owned, and it can be reshaped. Most networked devices, for 
example, are in private hands, and their owners can deny or facilitate 
others' cyber operations by how they manage and maintain their networks 
and devices. Cyberspace as an operating environment also has aspects 
unique to it. Events in cyberspace can seem to happen instantaneously. 
Data can appear to reside in multiple locations. There is a great deal 
of anonymity, and strongly encrypted data are virtually unreadable. In 
cyberspace, moreover, sweeping effects can be precipitated by states, 
enterprises, and individuals, with the added nuance that such cyber 
actors can be very difficult to identify. The cyber landscape also 
changes rapidly with the connection of new devices and bandwidth, and 
with the spread of strong encryption and mobile devices. Despite the 
unique characteristics of cyberspace, states still matter because they 
can affect much of the physical infrastructure within their borders. 
Convergence is our watchword; our communications, computers, and 
networks are merging into one digital environment as our political, 
economic, and social realms are being reshaped by the rush of 
innovation.
    In this environment that is both orderly and chaotic, beneficial 
and perilous, we at CYBERCOM have to focus on actors who possess the 
capability--and possibly the intent--to harm our Nation's interests in 
cyberspace or to use cyber means to inflict harm on us in other ways. 
Unfortunately, the roster of actors of concern to us is growing longer 
and growing also in terms of the variety and sophistication of the ways 
they can affect our operations and security.
    State actors continue to top our list of concerns. We feel 
confident that foreign leaders believe that a devastating attack on the 
critical infrastructure and population of the United States by cyber 
means would be correctly traced back to its source and elicit a prompt 
and proportionate response. Nonetheless, it is possible that some 
future regime or cyber actor could misjudge the impact and the 
certainty of our resolve.
    We have some confidence in our ability to deter major state-on-
state attacks in cyberspace but we are not deterring the seemingly low-
level harassment of private and public sites, property, and data. As 
former Secretary of Defense Panetta explained to an audience in New 
York last October, states and extremist groups are behaving recklessly 
and aggressively in the cyber environment. Such attacks have been 
destructive to both data and property. The Secretary mentioned, for 
example, the remote assaults last summer on Saudi Aramco and RasGas, 
which together rendered inoperable--and effectively destroyed the data 
on--more than 30,000 computers. We have also seen repressive regimes, 
desperate to hold on to power in the face of popular resistance, resort 
to all manner of cyber harassment on both their opponents and their own 
citizens caught in the crossfire. Offensive cyber programs and 
capabilities are growing, evolving, and spreading before our eyes; we 
believe it is only a matter of time before the sort of sophisticated 
tools developed by well-funded state actors find their way to non-state 
groups or even individuals. The United States has already become a 
target. Networks and websites owned by Americans and located here have 
endured intentional, state-sponsored attacks, and some have incurred 
damage and disruption because they happened to be along the route to 
another state's overseas targets.
    Let me draw your attention to another very serious threat to U.S. 
interests. The systematic cyber exploitation of American companies, 
enterprises, and their intellectual property continued unabated over 
the last year. Many incidents were perpetrated by organized 
cybercriminals. Identity and data theft are now big business, netting 
their practitioners large profits and giving rise to an on-line sub-
culture of markets for stolen data and cyber tools for stealing more. 
Much cyber exploitation activity, however, is state-sponsored. Foreign 
government-directed cyber collection personnel, tools, and 
organizations are targeting the data of American and western 
businesses, institutions, and citizens. They are particularly targeting 
our telecommunications, information technology, financial, security, 
and energy sectors. They are exploiting these targets on a scale 
amounting to the greatest unwilling transfer of wealth in history. 
States and cybercriminals do not leave empty bank vaults and file 
drawers behind after they break-in--they usually copy what they find 
and leave the original data intact--but the damage they are doing to 
America's economic competitiveness and innovation edge is profound, 
translating into missed opportunities for U.S. companies and the 
potential for lost American jobs. Cyber-enabled theft jeopardizes our 
economic growth. We at CYBERCOM work closely with our interagency 
partners to address these threats.
    We must also watch potential threats from terrorists and 
hacktivists in cyberspace. The Intelligence Community and others have 
long warned that worldwide terrorist organizations like al Qaeda and 
its affiliates have the intent to harm the United States via cyber 
means. We agree with this judgment, while noting that, so far, their 
capability to do so has not matched their intent. This is not to 
downplay the problem of terrorist use of the Internet. Al Qaeda and 
other violent extremist groups are on the Web proselytizing, 
fundraising, and inspiring imitators. We should not ignore the 
effectiveness with which groups like al Qaeda and its affiliates 
radicalize ever larger numbers of people each year--on more continents. 
The Federal Bureau of Investigation and other agencies cite instances 
in which would-be terrorists found motivation and moral support for 
suicide attacks at jihadist websites and chat rooms. This is an 
especially serious and growing problem in areas of hostilities where 
our troops and personnel are deployed. Another threat that is not 
growing as fast as we might have feared, on the other hand, is that of 
hacktivists with a cause or a grievance that leads them to target U.S. 
Government and military networks. Our vulnerabilities to this sort of 
disruption remain, but 2012 saw fewer such incidents than 2011.

                LOOKING AHEAD: THE COMMAND'S PRIORITIES

    I have established several priorities for U.S. Cyber Command in 
dealing with these risks and threats. We are actively working to guard 
DOD's networks and information and helping to defend the Nation. Key to 
countering these threats is learning how to grow our capabilities in 
this challenging domain. We have no alternative but to do so because 
every world event, crisis, and trend now has a cyber-aspect to it, and 
decisions we make in cyberspace will routinely affect our physical or 
conventional activities and capabilities as well. CYBERCOM is building 
cyber capabilities into our planning, doctrine, and thinking now--while 
we as a nation have time to do so in a deliberate manner. We do not 
want to wait for a crisis and then have to respond with hasty and ad 
hoc solutions that could do more harm than good.
    When I say we are normalizing cyber operations, I mean we are 
making them a more reliable and predictable capability to be employed 
by our senior decisionmakers and Combatant Commanders. Normalizing 
cyber requires improving our tactics, techniques, and procedures, as 
well as our policies and organizations. It also means building cyber 
capabilities into doctrine, plans, and training--and building that 
system in such a way that our combatant commanders can think, plan, and 
integrate cyber capabilities as they would capabilities in the air, 
land and sea domains.
    In keeping with DOD's Strategy for Operating in Cyberspace, U.S. 
Cyber Command and NSA are together assisting the Department in 
building: (1) a defensible architecture; (2) global situational 
awareness and a common operating picture; (3) a concept for operating 
in cyberspace; (4) trained and ready cyber forces; and (5) capacity to 
take action when authorized. Indeed, we are finding that our progress 
in each of these five areas benefits our efforts in the rest. We are 
also finding the converse--that inertia in one area can result in 
slower progress in others. I shall discuss each of these priorities in 
turn.

Defensible Architecture:
    DOD owns 7 million networked devices and thousands of enclaves. 
Cyber Command works around the clock with its Service cyber components, 
with NSA, and with DISA to monitor the functioning of DOD networks, 
including the physical infrastructure, the configurations and protocols 
of the components linked by that infrastructure, and the volume and 
characteristics of the data flow. This is a dynamic defense, and it 
consistently provides better security than the former patch-and-
firewall paradigm. Patches and firewalls are still necessary--I wish 
everyone kept theirs up-to-date--but they are an insufficient defense 
for DOD networks. Dynamic defenses have brought about noticeable 
improvements in the overall security of DOD information environment. We 
know for a fact that our adversaries have to work harder to find ways 
into our sensitive but unclassified networks. Unfortunately, 
adversaries are willing to expend that effort, and DOD's architecture 
in its present state is not defensible over the long run. We in the 
Department and the Command are crafting a solution. The Department's 
bridge to the future is called the DOD Joint Information Environment 
(JIE), comprising a shared infrastructure, enterprise services, and a 
single security architecture to improve mission effectiveness, increase 
security, and realize information technology (IT) efficiencies. The JIE 
will be the base from which we can operate in the knowledge that our 
data are safe from adversaries. Senior officers from CYBERCOM and NSA 
sit on JIE councils and working groups, playing a leading role with the 
office of the DOD's Chief Information Officer, Joint Staff J6, and 
other agencies in guiding the Department's implementation of the JIE. 
NSA, as the Security Adviser to the JIE, is defining the security 
dimension of that architecture, and has shown how we can pool big data 
and still preserve strong security. We have even shared the source code 
publicly so public and private architectures can benefit from it. DOD 
is benefitting from that knowledge and from our growing understanding 
of the totality of measures, procedures, and tools required to assure 
the health and security of even the biggest networks and databases.

Increased Operational Awareness:
    Enhanced intelligence and situational awareness in our networks 
will help us know what is happening in the cyberspace domain. This 
effort can be likened to a cyber version of the tactical air picture of 
friendly, neutral, and aggressor aircraft that a Combined Air 
Operations Center in a Combatant Command typically maintains. We are 
now issuing a weekly Cyber Operating Directive across the DOD cyber 
enterprise for just this purpose, so that all .friendlies. understand 
what is happening in cyberspace. Our improving knowledge of what is 
normal in cyberspace is crucial to grasping what is not normal. We at 
CYBERCOM are also helping DOD increase our global situational awareness 
through our growing collaboration with Federal Government mission 
partners like the Department of Homeland Security (DHS), the FBI, and 
other departments and agencies, as well as with private industry and 
with other countries. That collaboration in turn allows us to better 
understand what is happening across the cyber domain, which enhances 
our situational awareness, not only for the activities of organizations 
based at Fort Meade but also across the U.S. Government. I am happy to 
report that at least one of our foreign partners has volunteered to 
invest in this and enter its own network traffic data to contribute to 
a common picture.

Operating Concepts:
    Our operating concept calls for us to utilize our situational 
awareness to recognize when an adversary is attacking, to block 
malicious traffic that threatens our networks and data, and then to 
maneuver in cyberspace to block and deter new threats. I am pleased to 
report that in December, the Department endorsed the force presentation 
model we need to implement this new operating concept. We are 
establishing cyber mission teams in line with the principles of task 
organizing for the joint force. The Services are building these teams 
to present to U.S. Cyber Command or to support Service and other 
combatant command missions. The teams are analogous to battalions in 
the Army and Marine Corps--or squadrons in the Navy and Air Force. In 
short, they will soon be capable of operating on their own, with a 
range of operational and intelligence skill sets, as well as a mix of 
military and civilian personnel. They will also have appropriate 
authorities under order from the Secretary of Defense and from my 
capacity as the Director of NSA. Teams are now being constructed to 
perform all three of the missions given to U.S. Cyber Command. We will 
have: (1) a Cyber National Mission Force and teams to help defend the 
Nation against national-level threats; (2) a Cyber Combat Mission Force 
with teams that will be assigned to the operational control of 
individual Combatant Commanders to support their objectives (pending 
resolution of the cyber command and control model by the Joint Staff); 
and (3) a Cyber Protection Force and teams to help operate and defend 
DOD information environment.

Trained and Ready Forces:
    Each of these cyber mission teams is being trained to common and 
strict operating standards so that they can be on-line without putting 
at risk our own military, diplomatic, or intelligence interests. Doing 
this will give not only U.S. Cyber Command's planners, but more 
significantly our national leaders and combatant commanders, a certain 
predictability in cyber capabilities and capacity. Key to building out 
the Cyber Mission Force articulated in our Force Planning Model is 
having the training system in place to train each of the cyber warriors 
we need, in the skill sets we require and at the quality mandated by 
the cyber mission. We have that training system in place for the 
operators, and now we need to build the accompanying command and staff 
academic support packages and programs to ensure our officers and 
planners know how to effectively plan for and employ cyber capabilities 
for our Nation. As a result of this operator and staff training system, 
decisionmakers who require increments of cyber skills to include in 
their plans will know how to ask for forces to fill this requirement, 
and planners will know how to work cyber effects into their 
organizations' plans. To build the skills of the force--as well as to 
test the ways in which its teams can be employed--U.S. Cyber Command 
has sponsored not only an expanding range of training courses but also 
two important exercises, Cyber Flag and Cyber Guard. The latter 
assembled 500 participants last summer including 100 from the National 
Guards of 12 States. They exercised State and national-level responses 
in a virtual environment, learning each other's comparative strengths 
and concerns should an adversary attack our critical infrastructure in 
cyberspace. Cyber Flag is our annual exercise at Nellis Air Force Base 
in Nevada and we conduct it with our interagency and international 
partners. Our most recent running of Cyber Flag introduced new 
capabilities to enable dynamic and interactive force-on-force maneuvers 
at net-speed, while incorporating actions by conventional forces as 
well at Nellis' nearby training area.

Capacity to Take Action:
    Successful operations in cyberspace depend on collaboration between 
defenders and operators. Those who secure and defend must synchronize 
with those who operate, and their collaboration must be informed by up-
to-date intelligence. I see greater understanding of the importance of 
this synergy across the Department and the Government. The President 
recently clarified the responsibilities for various organizations and 
capabilities operating in cyberspace, revising the procedures we employ 
for ensuring that we act in a coordinated and mutually-supporting 
manner. As part of this progress, DOD and U.S. Cyber Command are being 
integrated in the machinery for National Event responses so that a 
cyber incident of national significance can elicit a fast and effective 
response to include pre-designated authorities and self-defense actions 
where necessary and appropriate. CYBERCOM is also working with the 
Joint Staff and the combatant commands to capture their cyber 
requirements and to implement and refine interim guidance on the 
command and control of cyber forces in-theater, ensuring our cyber 
forces provide direct and effective support to commanders' missions 
while also helping U.S. Cyber Command in its national-level missions. 
In addition, we are integrating our efforts and plans with combatant 
command operational plans and we want to ensure that this collaboration 
continues at all the commands. Finally, most cyber operations are 
coalition and interagency efforts, almost by definition. We gain 
valuable insight from the great work of other partners like the 
Departments of Justice and Homeland Security, such as in their work 
against distributed denial of service attacks against American 
companies, which in turn helps DOD fine-tune defenses for the DOD 
information environment. We also benefit from sharing with the Services 
and agencies of key partners and allies. We welcome the interagency 
collaboration and evolving frameworks under which these efforts are 
proceeding, especially such revisions that would make it easier for the 
U.S. Government and the private sector to share threat data, as the 
administration previously emphasized. In addition, new standing rules 
of engagement for cyber currently under development will comply with 
and support recently issued policy directives on U.S. cyber operations.

                        BUILDING FOR THE FUTURE

    We have made strides in all of our focus areas, though what 
gratifies me the most is seeing that we are learning how they all fit 
together. We are building quickly and building well, but we are still 
concerned that the cyber threats to our Nation are growing even faster. 
From the technological, legal, and operational standpoints we are 
learning not only what is possible to accomplish but also what is wise 
to attempt. Our plans for U.S. Cyber Command over the foreseeable 
future--which admittedly is not a very distant horizon--should be 
understood in this context.
    In a speech last fall, then-Secretary Panetta emphasized the 
Department's need to adjust our forces as we transition away from a 
decade of war. He explained that a wise adjustment makes cuts without 
hollowing out the force, while also investing in ways that prepare us 
to meet future needs. We will do that, he said, by increasing our 
investments in areas including space and cyber. It is fair to ask how 
we plan to use such new resources while others are trimming back. Our 
new operating concept to normalize cyber capabilities is just the sort 
of overarching theme to unite the whole institutional push. We need to 
foster a common approach to force development and force presentation--
up to and including the Service component and joint headquarters--given 
the intrinsically joint nature of this domain.
    Let me emphasize that this is not a matter of resources alone--it 
is a matter of earning trust. We will continue to do our work in full 
support and defense of the civil liberties and privacy rights enshrined 
in the U.S. Constitution. We do not see a tradeoff between security and 
liberty. We can and must promote both simultaneously because each 
enhances the other. U.S. Cyber Command takes this responsibility very 
seriously. Indeed, we see this commitment in our day-by-day successes. 
We in DOD and DHS, with the Department of Justice and industry, for 
instance, have shown that together we can share threat information, to 
include malware signatures, while still providing robust protection for 
privacy and civil liberties.
    Building the Department's defensible cyber architecture will let us 
guard our weapons systems and military command and control as well as 
our intelligence networks. We hope to take the savings in personnel and 
resources gained by moving to the JIE and have the Services repurpose 
at least some of them to hunt for adversaries in our DOD networks and 
even to perform full-spectrum operations. Although doing so will 
require a large investment of people, resources, and time, in the long 
run it will be cheaper to train Service personnel than to hire 
contractors. Moving to the JIE will make sharing and analytics easier 
while also boosting security. I know this sounds paradoxical but it is 
nonetheless true, as NSA has demonstrated in its Cloud capability. If 
we know what is happening on our networks, and who is working in them 
and what they are doing, then we can more quickly and efficiently see 
and stop unauthorized activities. We can also limit the harm from them 
and more rapidly remedy problems, whether in recovering from an 
incident or in preventing one in the first place. This is our ultimate 
objective for operations on our DOD information architecture.
    As we grow capacity, we are building cyber mission teams now , with 
the majority supporting the combatant commands and the remainder going 
to CYBERCOM to support national missions. When we have built this high-
quality, certified, and standardized force, we will be able to present 
cyber forces with known capability sets to our combatant commanders--
forces they can train with, plan for, plan on, and employ like forces 
and units any other military domain. This gets at the essence of 
normalizing cyber capabilities for DOD. Furthermore, we want to 
increase the education of our future leaders by fully integrating cyber 
in our existing war college curricula. This will further the 
assimilation of cyber into the operational arena for every domain. 
Ultimately we could see a war college for cyber to further the 
professional military education of future leaders in this domain.

                               CONCLUSION

    Thank you again, Mr. Chairman and members of the committee, for 
inviting me to speak to you today. I hope you will agree with me that 
U.S. Cyber Command has made progress across the board in the last year, 
thanks to the support of Congress and our interagency and international 
partners, as well as the hard work of its many dedicated men and women. 
The novelist and visionary William Gibson once noted .The future is 
already here, it's just not evenly distributed.. We are seeing that 
future at U.S. Cyber Command. Cyber capabilities are already enhancing 
operations in all domains. We are working to contain the 
vulnerabilities inherent in any networked environment or activity while 
ensuring that the benefits that we gain and the effects we can create 
are significant, predictable, and decisive. If I could leave you with 
one thought about the course of events, it is that we have no choice 
but to normalize cyberspace operations within the U.S. military and 
make them part of the capability set of our senior policymakers and 
commanders. I am ready to take your questions and to clarify our 
command's achievements and challenges, and to discuss any concerns that 
you might wish to share.

    Chairman Levin. Thank you so much, General Alexander.
    We'll have an 8-minute first round.
    General Kehler, let me start with you. The DSB released a 
report in January that has a number of noteworthy assertions 
and I'd like you to start with this assertion and comment on 
it. The report says that: ``Our nuclear deterrent is regularly 
evaluated for reliability and readiness.'' But then it says: 
``However, most of the systems have not been assessed against a 
sophisticated cyber attack to understand possible weak spots.''
    Can you comment on that? Then, General Alexander, I'm going 
to ask you to comment on that as well.
    General Kehler. Mr. Chairman, in general terms I agree with 
the thrust of the DSB report. I think that they've pointed out 
a number of places that we need to do better. Let me hone in 
specifically on the nuclear command and control system for just 
a second. Much of the nuclear command and control system today 
is the legacy system that we've had. In some ways that helps us 
in terms of the cyber threat. In some cases it's point-to-
point, hard-wired, which makes it very difficult for an 
external cyber threat to emerge.
    However, we are very concerned with the potential of a 
cyber-related attack on our nuclear command and control and on 
the weapons systems themselves. We do evaluate that. I think, 
as the DSB pointed out, in terms of an end-to-end comprehensive 
review, I think that's homework for us to go and accomplish.
    In what we have done to date and the pieces that we have 
looked at to date, which has been going on for quite some time, 
I am confident today that the nuclear command and control 
system and the nuclear weapons platforms themselves do not have 
a significant vulnerability that would cause me to be 
concerned. We don't know what we don't know, and I think what 
the DSB pointed out is that we need a more comprehensive 
recurring way to evaluate such a threat. On that, I am in 
agreement with them.
    But I don't want to leave you with the perception that I 
believe that there is some critical vulnerability today that 
would stop us from being able to perform our mission or, most 
importantly, would disconnect the President from the forces. I 
believe we have looked at that. I receive those reports. We've 
done a lot more over the last 1 to 2 years. But I think in 
general terms the DSB is right. We need to do better at 
exercising such threats and we need to do better working with 
Keith and his team to detect such threats, red teaming, as the 
DSB suggested. I think we have a ways to go here until we put a 
punctuation mark at the end of the sentence.
    Chairman Levin. Is that underway? Are those kinds of 
continuous reviews underway?
    General Kehler. Yes, sir, they are. In fact, the pace of 
those things has increased. We completed, for example, a review 
of the Minuteman intercontinental ballistic missile (ICBM) 
system not so very long ago. We have a little bit of different 
problem, of course, with aircraft that are in flight and 
submarines that are under way. We're confident in the 
connectivity to those.
    But I think that this is something we're going to need to 
increase the volume of the gain here on this whole issue.
    Chairman Levin. Thank you.
    General Alexander, do you want to add anything to that?
    General Alexander. Mr. Chairman, I would just add three key 
points. First, General Kehler has led a series of meetings on 
the nuclear command and control, working with both the NSA side 
and the CYBERCOM side, to look at vulnerabilities and address 
those. I would tell you I think they've done a great job over 
the last 6 months in doing that and I think that's moved in the 
right direction and leads to the conclusion that General Kehler 
just gave.
    I would also add that our infrastructure that we ride on, 
the power and the communications grid, are one of the things 
that is a source of concern, how you maintain that. Now, we can 
go to backup generators and we can have independent routes, but 
it complicates significantly our mission set. It gets back to, 
in the cyber realm, how the government and industry work 
together to ensure the viability of those key portions of our 
critical infrastructure.
    Chairman Levin. General Alexander, there's a real theft 
going on of our technology and our business strategies, our 
intellectual property, by China particularly, but not 
exclusively by China. The question is, of course, what is it 
going to take to stop that practice? I will reserve that 
question for later if there's time.
    But I guess the real question I want to focus on right now 
is whether the Intelligence Community can determine not only 
which Chinese Government organizations are stealing our 
intellectual property, but also what Chinese companies may be 
receiving that intellectual property and using it to compete 
against U.S. firms?
    General Alexander. Walking a fine line, Mr. Chairman, I 
would say that the Intelligence Community has increased its 
capabilities in this area significantly over the last 7 years. 
I can give you specific examples in a classified setting.
    Chairman Levin. Because it's really important that we act. 
I think there's a consensus here in Congress that this has to 
stop and that we have to find ways of preventing it, stopping 
it, responding to it in every way we can. This is a threat 
which is at the moment probably an economic threat, but some 
day could be a physical and a military threat as well. So we 
will take that in a classified setting.
    General Alexander, you mentioned three teams that you're 
creating, I believe. Is there a timetable for those three 
teams?
    General Alexander. Mr. Chairman, we're working with the 
Services on that. The intent is to roughly stand up one-third 
of those, the first third, by the end of September of this 
year, the next third by September of the next year, 2014, and 
the final third by September 2015. The Services are on track. 
In fact, I would tell you great kudos to the Service Chiefs 
because they are pushing that faster. The key part of that is 
training. I am extremely proud of the rate that they're pushing 
that on.
    Chairman Levin. General Alexander, you mentioned the 
Executive order. You've indicated that information-sharing is 
needed in real time. Give us your personal view as to why 
Congress needs to pass cyber legislation and what needs to be 
in there? What is missing now that needs to be in legislation 
which Congress hopefully will pass?
    General Alexander. There are three key elements that I 
believe personally that need to be in cyber legislation: first, 
the ability for industry to tell us in real time--and this is 
specifically the Internet service providers--when they see in 
their networks an attack starting. They can do that in real 
time. They have the technical capability, but they don't have 
the authority to share that information with us at network 
speed. They need liability protection when we share information 
back and forth and they take actions.
    The third part is more difficult and the Executive order in 
part addresses that. That's how do we get the networks to a 
more defensible state. It's like your own personal computers; 
how do we set the standards without being overly bureaucratic, 
but how do we set the standards so that the power grid, our 
communications infrastructure, banks and the government can 
withstand cyber exploits and attack? That resiliency needs to 
be built in.
    I think what the Executive order offers us is a way of 
discussing that with industry, led by Dr. Pat Gallagher at the 
National Institute of Standards and Technology (NIST), would 
allow us to sit down with different sectors of industry and get 
their insights on the most efficient way of doing that and, 
coming back then from Congress, how do we incentivize them for 
moving forward and in some cases, for example the power 
companies, how do we help move them through regulatory 
processes.
    Chairman Levin. Just to complete that point, you talk about 
the ability to communicate. You talk about the authority to 
share. Do we need legislation to authorize the sharing? That's 
the privacy piece of it?
    General Alexander. Mr. Chairman, it is the authority for 
them to share back information on the networks to the 
government. That's the part that needs to be in there.
    Chairman Levin. All right. But that's essentially a privacy 
or a commercial protection of secrets, of proprietary 
information, issue?
    General Alexander. In combination, and I think it goes to 
some of the previous acts that have been there on computer and 
protection that's out there. I think what we have to do is tell 
them it's okay to share this level of information with the 
government. Specifically from our perspective, that information 
that we need to share is the fact of an exploit or an attack 
that's coming in.
    We need to have it in real time. The complication, to 
really get to the point of your question here, is when the 
government shares back signatures it becomes more complicated 
because some of our capabilities are classified. So we have to 
have a way of giving them classified information that they 
would have to protect, and then if they see that classified 
information, think of this as going up to New York City on the 
New Jersey Turnpike. The EasyPass would see a car going by. 
What we're telling the Internet service provider is if you see 
a red car tell us that you saw the red car, where you saw it, 
and where it's going.
    In cyberspace it would be they saw this significant event 
going from this Internet address to this target address, and 
they could tell us that at network speed and they could stop 
that traffic. It is important to recognize the role of industry 
because government could not easily scale to what the Internet 
service providers could do. It would be very costly, very 
inefficient. So we're asking industry to do that.
    Mr. Chairman, that does not get into the content of those 
communications. I think it's absolutely important for people to 
understand we're not asking for content. We're asking for 
information about threats. Think of that as metadata.
    Chairman Levin. You're aware of the fact that in the last 
defense authorization bill we put in a requirement that 
industry that has clearance for classified information is 
required to report threats to the government, and the 
regulations and rules for that are currently being written and 
I presume you're having an input in that; is that correct?
    General Alexander. That's correct. We're working with them. 
The issue would be with the defense industrial base, they don't 
see all the threats coming in all the time. Oftentimes the 
threats that we see have gotten in long before. So I think we 
need a total approach. I think that's a good step in the right 
direction.
    Chairman Levin. What, the law that we wrote?
    General Alexander. Yes.
    Chairman Levin. Okay. Thanks. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'm going to ask for some brief answers to a couple of 
questions here. General Kehler, there seems to be unanimity in 
drawing the relationship between the nuclear reductions and 
nuclear modernization. It's been stated several times, and I 
will quote Secretary Gates, who said: ``When we have more 
confidence in the long-term viability of our weapons system, 
then our ability to reduce the number of weapons that we must 
keep in the stockpile is enhanced.'' Do you agree with that and 
with the linkage in general that I'm referring to?
    General Kehler. Yes, sir, I do.
    Senator Inhofe. Would you take that last statement, that 
says ``When we have more confidence in the long-term viability 
of our weapons system,'' is there reason to believe that we do 
now have more confidence? Have we done what's necessary to have 
that, to earn that confidence in the existing system?
    General Kehler. Sir, I'm confident in the deployed weapons 
today. I am confident in the stockpile that provides the 
sustainment spares and the hedge against any technical failure 
that we might experience. I'm confident in that stockpile 
today. Every year my predecessors, the Commanders of STRATCOM 
prior to me, and I are responsible to provide our assessment of 
the stockpile, and through this year I can certify.
    Senator Inhofe. Do you feel you've had the resources 
necessary to do that to your expectations and to ours?
    General Kehler. Yes. Although the resources have increased 
over the last couple of years and that has helped us, I think 
that the resources were dwindling to an unacceptable point.
    Senator Inhofe. Let me get into the Homeland missile 
defense. We've said for quite some time that there's less 
concentration on the Homeland part of the missile defense. I'm 
referring to, of course, the number of ground-based 
interceptors (GBI) going down under this administration from 44 
to 30, but it's really more than that because there were 10 of 
them that would have been part of the Poland GBI, which would 
have been more for protection of the eastern part of the United 
States.
    It was interesting because I had Vaclav Klaus in my office 
yesterday and we were talking about a conversation we had not 
too many years ago, where he made the statement to me, he said: 
``Are you sure now, if we put our radar system in the Czech 
Republic and agree and do what's necessary in Poland for a GBI 
for the Western Europe and Eastern United States, that you 
won't pull the rug out from under us?'' Of course, I said 
``yes.'' But we did anyway.
    Now we're looking at where we are today and I would ask 
you, General Kehler, are you satisfied with the numbers that 
we've gone down to in terms of our GBIs and do you think that 
we should be--there are a lot of options I'll ask you about in 
a minute. Are you satisfied with the number of GBIs we have 
right now at 30?
    General Kehler. I am satisfied that we can defend against a 
limited attack from North Korea today with 30.
    Senator Inhofe. What about Iran?
    General Kehler. I am confident that we can defend against a 
limited attack from Iran, although we are not in the most 
optimum posture to do that today.
    Senator Inhofe. I think you're being a little too 
cautious--not cautious enough here when you say a ``limited 
attack,'' when our intelligence has shown us that Iran is going 
to have the capability and a delivery system by 2015. We're 
looking at what we have today with some options there. They're 
talking about possibly an option on the east coast, an option 
on additional GBIs--I think you'd probably say it's not 
necessary--at Fort Greely to enhance our capability.
    I'm concerned, as I always have been going all the way back 
to the Poland operation that was pulled out, with what was 
going to happen as far as the east coast of the United States. 
I know you're somewhat cautiously confident. How would you 
characterize your level of confidence in the protection of the 
eastern part of this country with the capability that we have 
today?
    General Kehler. Again, cautious. It doesn't provide total 
defense today.
    Senator Inhofe. What about the idea of a third site in the 
United States?
    General Kehler. It is under consideration along with, as 
importantly, the sensors that will be important for the threat 
from Iran.
    Senator Inhofe. Okay, I'm concerned when you talk about SM-
3 Block 2A missiles. The date of that I believe currently that 
we could expect that would be 2018, is that correct?
    General Kehler. Around 2018, yes, sir.
    Senator Inhofe. The capability that I've been concerned 
about with Iran is 2015. I would share with you and I'd like to 
have you send to me your level of confidence about what's going 
to happen, what our capability is in that 3-year interim time.
    General Kehler. Yes, sir.
    Senator Inhofe. That can be for the record, if you would do 
that for me.
    [The information referred to follows:]

    Given that we can defend against a limited attack from Iran today, 
I remain guardedly optimistic regarding the potential Iranian ballistic 
missile threat between 2015 and 2018. On 15 March 2013, the Secretary 
of Defense announced the plan to increase the number of emplaced 
ground-based interceptors from 30 to 44, add a second AN/TPY-2 radar in 
Japan, initiate environmental studies of potential east coast 
interceptor sites, and restructure the SM3-IIB program to develop 
common-kill vehicle technology. By funding additional GBIs and 
investing in common-kill vehicle technology in addition to already 
planned improvements to sensors and command and control systems, we add 
protection against threats from Iran sooner while providing additional 
defense against a North Korean threat. We are actively engaging with 
other combatant commands and the Missile Defense Agency to understand 
which concepts and technologies best address this 3-year window and 
show the most promise over the longer term.

    Senator Inhofe. Let's see. Let's go to, if we could, 
General Alexander. First of all, you've been very helpful to me 
in bringing to my attention some of the things that I--some of 
my shortfalls in knowledge, as I've confessed to you, on this 
whole issue. Yet I consider it to be so incredibly important. 
Right now, as you're well aware, the mainframe computers, while 
could be considered a relic of the 1980s and the 1990s, of the 
past, they are still integral to our core infrastructure and 
have unique security vulnerabilities that are not as well 
appreciated at this endpoint in security.
    Do you agree that layered defenses are essential and that 
the efforts must be made to ensure our mainframes receive 
comparable attention on the vulnerability protection? It seems 
to me that most of the focus is on where all of the data is 
stored and all the new stuff that's coming on, and are we 
adequately protecting the mainframe components of our systems?
    General Alexander. Senator, as we've discussed, I believe 
there's more work that needs to be done in protecting the 
mainframe computers and that portion of the total information 
infrastructure. It's not the only vulnerability and probably 
not the most frequent one that we see, but it's an important 
one to address because it is at the heart of many of our 
systems. As you've stated, it is one of the ones that we don't 
normally look at. But it is one that our information assurance 
folks are addressing and it's one, as you stated, that's key to 
a layered defense.
    Senator Inhofe. I think that's important, because what you 
hear is the new systems coming on more than the mainframe. I'm 
glad to know that you'll be paying adequate attention to that 
relative to some of the new innovations that we see.
    There was an article in the Wall Street Journal, I think it 
was yesterday, that talked a little bit about how the banks are 
seeking help on Iran cyber attacks. It says: ``Financial firms 
have spent millions of dollars responding to the attacks, 
according to bank officials, who add that they can't be 
expected to fend off attacks from a foreign government.''
    Then further down in the article it says: ``U.S. officials 
have been weighing options, including whether to retaliate 
against Iran. Officials say the topic was discussed at high-
level White House meetings a few weeks ago, a U.S. official 
said, adding, `All options are on the table.' ''
    Could you address this for me?
    General Alexander. Senator, what I can do is hit more 
theoretical and then in a closed session address that more 
specifically, that question. But I think this gets to the heart 
of it. How do we defend the country and when does DOD step in 
to defend the country, and what are the actions that the 
Internet service providers can do, and what's the most logical 
approach to this? Why I say logical is that distributed denial 
of service attacks, those are what mainly today are hitting 
Wall Street. Those types of attacks are probably best today, if 
they're at the nuisance level, mitigated by the Internet 
service providers.
    The issue that we're weighing is when does a nuisance 
become a real problem and when are you prepared to step in for 
that. That's the work that I think the administration is going 
through right now in highlighting that. In order to do that, it 
gets back to the question the chairman had asked about 
information sharing. For us to stop this at network speed, we 
have to see it at network speed, and that's going to be key to 
helping the banks and others.
    I do see this as a growing problem and I believe this is 
one of the problems that the antivirus community and others 
have brought forward to say, here's what you're going to see in 
2013. What we're seeing with the banks today, I am concerned is 
going to grow significantly throughout the year. We have to 
address it.
    Senator Inhofe. I appreciate that.
    Then lastly, just for the record, General Kehler, I have 
been concerned about our allies losing confidence in the 
strength of our umbrella that's out there, and I'd like to have 
you--we all remember during the New START treaty, which I 
opposed, the President was very specific on the things that he 
was going to do. I look at these things and I see that they 
haven't, with specific reference to the B61 bomb, the warheads 
of 78 and 88 and the air-launched cruise missiles, and the Los 
Alamos processing facility. These are all behind the schedule 
that was put out back during the New START treaty.
    So for the record, I'd like to have you evaluate what we 
have done, that we should have done, and were told was going to 
be done if that treaty would pass, if you would do that for the 
record.
    General Kehler. Yes, sir, I will.
    [The information referred to follows:]

    Sustainment and modernization of the nuclear enterprise is a 
complex process dependent on the execution of long-term planning that 
is informed by accurate cost, schedule, performance, and capacity 
projections. Even minor perturbations in any of these areas can result 
in significant long-term impacts.
    For example, the 2011 Budget Control Act fundamentally changed the 
funding outlook for the National Nuclear Security Agency and caused the 
Nuclear Weapons Council (NWC) to make modernization program adjustments 
to meet budget constraints. These choices represent a balance between 
the condition of the stockpile, modernization needs of the 
infrastructure, and the current fiscal environment.
    The NWC understands the out-years of the fiscal year 2013 budget 
submission have additional risk. In response, the NWC recently approved 
a long-range stockpile strategy and an implementation plan to 
restructure modernization efforts for the fiscal year 2014 budget 
submission. This strategy and plan address the critical weapon life 
extension and stockpile management issues discussed during 
consideration of New START. Even with a new strategy and implementation 
plan, the full impacts of additional sequestration reductions remain 
unknown, and thus I remain concerned about the long-term effects of 
fiscal uncertainty on our plans and programs to maintain the stockpile, 
sustain the infrastructure, and retain a technically proficient 
workforce.

    Senator Inhofe. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service.
    General Kehler, in your discussions with Senator Inhofe you 
talked about the capacity to withstand, I believe, a limited 
attack from a country like North Korea or Iran. I think it's 
important to determine what that means. Their existing 
capabilities would allow them only to mount a limited attack or 
they could mount a limited attack, and something more than 
that? I.e., are we capable of defending today against what they 
have, and at what point do you feel that they could go beyond a 
limited attack?
    General Kehler. Senator, let me split that into two 
different questions. There's a question for the theater and the 
theater-class ballistic missiles, where the numbers are large 
and we continue to try to deploy capabilities to be able to 
blunt such a large ballistic missile attack in theater.
    Senator Reed. Which would not be against the United States. 
It would be against regional powers.
    General Kehler. Regional powers, our allies, or forward 
forces, et cetera, and perhaps in some cases Guam and other 
U.S. territory.
    Senator Reed. But not the continental United States.
    General Kehler. Yes, sir.
    Then the second question is about a limited threat to the 
United States, and the current ballistic missile defense system 
is limited in two important ways: number one, in terms of the 
size of raid, if you will, that it could deal with; and number 
two, in terms of the technological capability of it. So our 
system is limited. It is limited in terms of the size--and sir, 
before I say it's X number of ballistic missiles, what I can 
say is we are confident we could defeat a threat from North 
Korea today. But, given the potential progress we are seeing 
from them, we are considering right now whether we need to take 
additional steps.
    Senator Reed. That's a fair response. But today you feel 
confident you could protect the continent of the United States 
from an attack. Then the question is their technology, how fast 
it evolves.
    General Kehler. Yes, sir.
    Senator Reed. You're considering that, as you must.
    General Kehler. Numbers and whether they evolve in terms of 
an intercontinental threat. We're working with the Intelligence 
Community on that to see if we can't scope that. But that has 
our attention. Their activities have our attention and it has 
our concern.
    Senator Reed. Thank you.
    Let me shift gears slightly. The architecture of our 
nuclear deterrence has been the triad; sea, air, and land. One 
aspect is the replacement of the Ohio-class ballistic missile 
submarine. That's slipped a bit. Can you give your assessment 
of whether we can allow additional slippage or is that 
something we have to get on with?
    General Kehler. I think we have to get on with the 
replacement for the Ohio-class submarine. I support the triad. 
I continue to support the triad. I think that what it brings to 
us still are the three big attributes: survivability, 
flexibility, and responsiveness. That confounds an attacker.
    I think that continues to serve us well, and of course the 
most survivable of the legs is the Ohio replacement. As far as 
we can see into the future, I think we're going to require a 
replacement for the Ohio class. Here's the interesting part. 
They will reach a date certain that they are no longer capable 
of going to sea and being used the way they're used today. The 
Navy is working very hard to make sure we understand that time 
with clarity. We intend to keep those submarines longer than 
any other submarines we've ever had before. So I think we will 
reach a point that we must have a replacement and I believe we 
understand where that point is, and the current program puts us 
right about there.
    Senator Reed. Thank you.
    Let me ask a question to both of you which involves the 
triad. You made the point that the most invulnerable leg of the 
triad is the submarine. There's been lots of discussion of the 
potential for disruption of the electric grid as one of the 
major ways to inflict damage on the United States. To what 
extent, General Kehler, are your land-based assets, the missile 
silos and the airfields, dependent critically on the local grid 
that could be taken down and therefore, either wittingly or 
incidentally, two legs of the triad could be knocked out 
without an explicit kinetic blow?
    General Kehler. Sir, the nuclear deterrent force was 
designed to operate through the most extreme circumstances we 
could possibly imagine. So I am not concerned that a disruption 
in the power grid, for example, would disrupt our ability to 
continue to use that force if the President ever chose to do 
that or needed to do that.
    I am concerned, though, about some other facets of this. 
One, of course there's a continuing need to make sure that we 
are protected against electromagnetic pulse and any kind of 
electromagnetic interference. Sometimes we have debates over 
whether that's a Cold War relic and I would argue it is not. We 
need to be mindful of potential disruptions to that force. But 
I am not concerned about disruptions to the power grid, for 
example, or other critical infrastructure pieces impacting that 
force.
    Senator Reed. General Alexander, your comments about this, 
the potential threat?
    General Alexander. Sir, I agree with what General Kehler 
said with nuclear command and control and the way that we do 
that specifically. I think what it really impacts is, as you 
look at commands like U.S. Transportation Command and others, 
our ability to communicate would be significantly reduced and 
it would complicate our governance, if you will, and our 
ability for the government to act.
    I think what General Kehler has would be intact. So the 
consequence of that is, it's the cascading effect into 
operating in that kind of environment that concerns us, 
concerns me mostly.
    Senator Reed. General Alexander, let me raise an issue 
that, as Senator Levin indicated the Collins-Lieberman 
legislation was not successful. I share his view it's very 
important because right now we have essentially a voluntary 
scheme. One of the arguments that's raised by the opponents is 
that it would impose too much cost on the business community, 
et cetera.
    With your knowledge of the potential state and non-state 
ability to disrupt the economy of the United States, not our 
STRATCOM but ATM machines, et cetera, have you done a 
calculation of the potential cost to the economy if someone 
decided to conduct, not an intermittent attack on a banking 
system, but a concentrated attack?
    General Alexander. Senator, an attack on a bank would be 
significant. It would have significant impacts. If people can't 
get to their money the impact of that is huge, and you've seen 
that and we've discussed that impact.
    What I'm concerned about is a distributed denial of service 
attack could accomplish that. A significant distributed denial 
of service attack could make it very difficult for our people 
to do online banking, online trading, and others. So there's 
the cost of losing that. If you think about Amazon, 1 hour of 
Amazon costs $7 million in profit to them if they were offline.
    There's also a cost that complicates legislation in that 
each of our critical infrastructure portions of our industry 
have different levels of cyber readiness, if you will. So the 
banks and the Internet service providers are generally pretty 
good, the power companies not so good, and the government 
somewhere in between. So the cost for repairing, for fixing 
that, is significant.
    I think the issue that I get talking to industry is their 
concern on creating an overbureaucratic regulatory process. So 
I do think that what the administration has put forward is, 
let's sit down and talk to them on the way to address this, is 
a great step forward. It really does allow us now to sit down 
with industry and say, so here's what we think needs to be 
done.
    In my discussions with the power company specifically, 
their comment is: Look, we'd like to do that, but that's going 
to cost more; how do we do that?
    Senator Reed. But the point, my final point, is from your 
perspective right now if an attack, which is conceivable, took 
place, the cost to that company would be many times the cost of 
preemptive action today. Yet they still object to that cost. 
Now, the probability of attack has to be weighed. If that 
probability today is 1 percent, that cost, that might be a 
reasonable judgment. But I think the impression I get from your 
testimony and consistently is that percentage or probability 
goes up and up and up each day, until we reach the point where, 
do the math and if they're not investing in protecting 
themselves, those financial institutions, then the cost they're 
likely, probably to shoulder, will be catastrophic. They don't 
seem to get that point, though.
    General Alexander. I think that's accurate. Just as you've 
said, it increases every day. That's the concern and I think 
you've seen that from industry stating the same thing. So I do 
think we have to have this public debate on that and get it 
right.
    Senator Reed. Thank you very much.
    Chairman Levin. Thank you, Senator Reed.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of our witnesses for your leadership 
and for your service to our country.
    I wanted to follow up, General Kehler, on the issue of the 
ICBM threat to the country that Senator Inhofe and Senator Reed 
asked you about. You used the term ``not optimum'' in terms of 
some of the challenges we may face there. Just so it's clear to 
people, if now, an ICBM were headed to the west coast we would 
get a shoot-look-shoot at it, correct, because of our missile 
defense system? But we don't have an east coast missile defense 
system, so if Iran develops ballistic missile capability we 
don't have the same capacity, do we, on the east coast of the 
country?
    General Kehler. While I hate to say it, the answer is it 
depends. It depends on what a country like Iran would do, where 
they would launch from, what the azimuths are, et cetera. The 
intent is that as time passes and additional features are added 
to the ballistic missile defense system that our capability to 
defend improves.
    Senator Ayotte. But just so we're clear, as of today am I 
not correct in saying that west coast, North Korea, we get 
shoot-look-shoot? We don't get the same capacity on the east 
coast of Iran--some analysts believe that they could develop 
this ICBM capability as soon as 2015. That may or may not be 
correct. But at this point our missile defense is--the capacity 
is different on the east coast of the country versus the west 
coast, isn't that true?
    General Kehler. I would tentatively say yes and provide you 
a better answer for the record.
    [The information referred to follows:]

    The Ballistic Missile Defense System is capable of defending the 
east coast against a limited intercontinental ballistic missile threat 
from Iran today. It's capacity to do so differs from its capacity to 
defend the west coast from North Korea due to a number of technical, 
operational, logistical, and geographical factors. On 15 March 2013, 
the Secretary of Defense announced the plan to increase the number of 
emplaced ground-based interceptors (GBI) from 30 to 44, add a second 
AN/TPY-2 radar in Japan, initiate environmental studies of potential 
east coast interceptor sites, and restructure the SM3-IIB program to 
develop common-kill vehicle technology. By funding additional GBIs and 
investing in common-kill vehicle technology in addition to already 
planned improvements to sensors and command and control systems, we add 
protection against threats from Iran sooner while providing additional 
defense against a North Korean threat.

    Senator Ayotte. I appreciate it, because the National 
Research Council actually this year recommended an additional 
ballistic missile site on the east coast; isn't that right?
    General Kehler. Yes. They are one of the organizations that 
has looked at this, yes.
    Senator Ayotte. I certainly would like to hear your view 
more specifically as to why an east coast missile defense site 
would or would not enhance our capability to address an ICBM 
coming from Iran, particularly protecting the population base 
in the east coast of the country.
    General Kehler. I'd be happy to provide that for the 
record.
    Senator Ayotte. Thank you, General.
    I also wanted to follow up. As I understand it, last week 
you testified in the HASC that any potential future nuclear 
arms reductions with the Russians should be bilateral in 
nature; is that fair?
    General Kehler. That's fair.
    Senator Ayotte. So my follow-up question to that is, should 
they not be bilateral and verifiable? Is verifiable important 
if we were going to take arms reductions based on what we were 
going to count on a bilateral understanding with the Russians?
    General Kehler. I believe verifiable is important.
    Senator Ayotte. Why is verifiable critical or important 
when we think about entering these types of understandings with 
the Russians, or any other country for that matter, with regard 
to nuclear arms?
    General Kehler. Senator, from a military perspective, I 
believe we have been on a successful and deliberate pathway 
with the Russians that has allowed us to reduce the threat to 
the American people and to our allies while at the same time 
being able to achieve our national security objectives, and 
we've done so in a way that's verifiable. I think that's a 
winning combination of things. Verification has proven to be 
important for us, I believe, from an assurance standpoint, and 
I think it's important. It has also provided second and third 
order benefits in terms of transparency and engagement with 
Russia which I think has been very valuable.
    Senator Ayotte. General, are the Russians in full 
compliance with all existing arms control agreements with the 
United States right now?
    General Kehler. The United States' view is that they are 
not in compliance with the Conventional Forces in Europe 
Treaty.
    Senator Ayotte. Are there any other treaty obligations 
they're not in compliance with?
    General Kehler. As I recall, and I'll provide the official 
answer for the record, there are a couple of other treaties 
where we have questions about the way they are going about it. 
I think the only one that we have said that we do not believe 
officially that they are complying with is Conventional Forces 
in Europe.
    I can tell you that so far under New START all of the 
indications I have is that they are, in fact, complying.
    Senator Ayotte. I would actually like a follow-up for the 
record, just with the question of whether they are in full 
compliance with all existing arms control agreements with the 
United States.
    General Kehler. I'll provide that for the record.
    [The information referred to follows:]

    The Department of State (DOS) publishes detailed assessments of 
U.S. and foreign nation compliance with obligations in all arms 
control, nonproliferation, and disarmament agreements, or commitments 
to which the United States is a participating state. The August 2012 
DOS report titled, ``Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments,'' stated 
that the Russian Federation ``failed to comply'' with provisions of the 
Treaty on Conventional Armed Forces in Europe. In addition, the report 
expresses ``concerns'' regarding the Russian Federation's adherence to 
the Chemical Weapons Convention, the Treaty on Open Skies, and the 
Biological and Toxin Weapons Convention. I would defer to the DOS for 
further details.

    Senator Ayotte. Thank you, General.
    I also wanted to ask you--you and I talked about this when 
you came to see me in my office yesterday, which I appreciated, 
to talk about these issues--about an article that appeared in 
the Sunday New York Times titled: ``Cuts Give Obama Path to 
Leaner Military.'' In that article it essentially said that the 
sequestration cuts would allow the administration to call for 
deep reductions in programs long in President Obama's sights, 
and among those programs were an additional reduction in 
deployed nuclear weapons and stockpiles and a restructuring.
    There's some other restructuring, but the issue I want to 
ask you about is an additional reduction in deployed nuclear 
weapons. Can you tell me right now--in the article it said that 
the Joint Chiefs had agreed that we could trim the number of 
active nuclear weapons in America's arsenal by nearly a third 
and make big cuts in the stockpile of backup weapons. Is there 
any intention by the administration right now that you're aware 
of or any recommendation pending to significantly reduce our 
active nuclear weapon arsenal by a third or make big cuts in 
the stockpile of our backup weapons, as outlined in this 
article?
    General Kehler. Senator, I can't comment on the article. 
What I can say is that from the Nuclear Posture Review forward 
certainly the administration has undertaken a study to look at 
what alternatives may exist beyond New START, for reductions 
beyond New START. We participated in that conversation and in 
parts of the study. In fact, we did parts of the study at 
STRATCOM. We were fully involved, and to my knowledge no 
decisions have been made.
    Senator Ayotte. Let me just say that, obviously, I think 
that preserving our nuclear deterrent is very important. I 
think that making significant reductions right now, at a time 
with what's happening in North Korea, with the threat we face 
from Iran, and also from the situation where we find ourselves, 
I think, in the world, that obviously I hope that if there are 
any reductions that are made, for example, with the Russians, 
that will be done through the treaty process. The New START was 
done through the treaty process.
    One of the things this article also says is that there 
could be reductions made with the Russians without a treaty. So 
I don't know whether you would weigh in on whether we should go 
through the treaty process, but in my view I think that 
Congress should have an ability to weigh in on these issues.
    As a follow-up, I wanted to ask you, General Alexander, 
about the role of the Guard in cyber issues. Where do you see 
the Guard in general, not just the Air National Guard, but all 
of the Guard, playing what role they would play with regard to 
how we meet the challenges facing us with cyber attacks, and 
what role could the Guard play on a State basis working with, 
obviously, you, General Kehler and General Alexander, and how 
can the Guard help in this?
    General Alexander. Thank you, Senator. I've sat down with 
the Guard leadership, all the adjutant generals from all the 
Guard, and talked about the role and responsibility of the 
Guard in cyberspace. I think there are two key things that they 
can do: First by setting up protection platoons and teams and 
training them to the same standard as the Active Force, it 
gives us additional capacity that we may need in a cyber 
conflict.
    The second part is it also provides us an ability to work 
with the States, with the Joint Terrorism Task Force and cyber 
forces that FBI has, and with DHS to provide additional 
technical capacity for resilience and recovery. I think those 
two areas the Guard can play a huge role in.
    The key is training them to the same standards. We talked 
about that with all the Guard chiefs. They agree with that and 
we are working towards that objective.
    Senator Ayotte. Thank you both. I appreciate it.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    General Kehler, you spoke very crisply about us having the 
ability in our command and control to control our nuclear 
response. I appreciate that, and that is assuring, even though 
we might have a cyber attack that would take out electric grids 
and so forth and so on.
    What about the Russians and the Chinese? Do they have the 
ability to stop some cyber attack from launching one of their 
nuclear ICBMs?
    General Kehler. Senator, I don't know. I do not know.
    Senator Nelson. Mr. Chairman, I think that's a question 
that we ought to see to what degree we could answer. That 
reminds me, in the disintegration of the Soviet Union it was 
the United States that took the initiative through Nunn-Lugar 
to go in and try to secure those nuclear weapons. That turned 
out to be a very successful program.
    In this new world of cyber threats, we, of course, have to 
be responsible for ours, but we have to worry about those 
others on the planet that have a nuclear strike capability 
protecting theirs against some outside player coming in and 
suddenly taking over their command and control.
    General Alexander, do you have any comment on that?
    Chairman Levin. I wonder if you would yield before his 
answer.
    Senator Nelson. Certainly.
    Chairman Levin. That is, it's a very important question. I 
wonder for starters--and I didn't mean to, I shouldn't 
interrupt the answer--is to whether for starters, Senator 
Nelson, we should ask the Intelligence Community writ large as 
to what we know about that.
    Senator Nelson. Okay. If you want to save that----
    Chairman Levin. No, no. We will do that. It's a great idea. 
It's an important point and we will take that on. We will ask. 
But let me not interrupt further the answer.
    Senator Nelson. Okay. I know General Alexander is going to 
be constrained as to what he can say in this setting. So let me 
just defer that then for a classified setting.
    Chairman Levin. Not just classified, but also a broader 
Intelligence Community assessment as well, if we could do that, 
Senator Nelson.
    Senator Nelson. General Alexander knows everything about 
everything.
    General Kehler. Senator, if I could add just one additional 
point, though. I would say that we know--I think because we've 
worked with the Russians over the years and we've had fairly 
decent transparency with the Russians over the years, I think 
we understand they are very careful about their nuclear command 
and control. They are very careful about the way they provide 
what we would call nuclear surety as well.
    This is also one of the reasons for why we would like to 
see additional transparency with China, because we would like 
to be able to have these dialogues with them in a military-to-
military kind of context. It's something that we have been 
trying to push now for quite some time.
    Senator Nelson. Exactly. As we go into the session that the 
chairman has recommended, let's just don't stop with China. 
What about the Brits? What about the French? Do they have the 
capabilities of stopping a rogue cyber attack from coming in 
and suddenly messing up their command and control?
    Okay. General Alexander, you must be one of the most 
frustrated people on the planet, because you know the threat in 
cyber and here Congress can't get anything done because certain 
players won't allow the passage of the legislation. So let me 
ask you, what is it about liability protection that the private 
sector would feel comfortable about in order so that real-time, 
as you said, we have to have the private sector respond to an 
attack with the information in real time in order to be able to 
meet this present and increasingly dangerous threat?
    General Alexander. Senator, I'll give you my answer here 
and I'd ask to just take that for the record to get you a 
really accurate and detailed answer on it, because I do think 
this is important to lay this out.
    The issues as I see it for liability protection are in two 
parts. When the Internet service providers and companies are 
acting as an agent of the government and make a mistake and are 
subject to lawsuits, the issue becomes they get sued so many 
times by so many different actors that they spend a lot of 
money and time and effort responding to those lawsuits when 
we've asked them to do something to defend the Nation. So there 
is that one set.
    The other is, let's say theoretically that we send a 
signature that says stop this piece of traffic because it is 
that Wiper virus that hit Saudi Aramco, but we the Government 
mischaracterize it and when they stop it that stops some 
traffic that they didn't intend to nor did we. We make a 
mistake. Mistakes are going to happen because when you have 
real-time concerns, emergency concerns, some traffic may be 
impacted.
    That traffic that is impacted, the Internet service 
providers would quickly fix by altering that signature to get 
it right. But some traffic has been delayed or disrupted by 
their actions because we've asked them to, which could make 
them also subject to lawsuits.
    So I think it's in that venue that we have to give them 
immunity from those kinds of actions. I'm not talking about 
giving them broad general immunity and I don't think anyone is. 
It is when they're dealing with the Government in good faith in 
these areas we should protect them for what we're asking them 
to do. I think that's in the venue.
    I'll get you a more specific answer from our legal folks on 
the technical side.
    [The information referred to follows:]

    There are three main areas where concerns about liability may be 
inhibiting private sector action from either sharing cyber threat 
information with the Government or taking action to stop cyber attacks 
and intrusions. Some protections in these areas should be considered:

        <bullet> First is that several current statutes effectively 
        limit or prohibit the Internet service providers and others 
        from sharing cyber threat information with the Government. 
        Those legal constraints should be appropriately modified so 
        that companies can share cyber threat information, subject to 
        appropriate privacy protections.
        <bullet> Second is a broader risk that companies will be 
        subject to private lawsuits sharing cybersecurity information 
        with the Government. Again, there also needs to be liability 
        protection in this area, subject to appropriate privacy 
        protections and limits on what may be shared.
        <bullet> Finally, if they act to stop cyber attacks or 
        intrusions, obviously companies should be held accountable if 
        they cause damage by acting irresponsibly. However, in some 
        cases the companies may be taking action on cyber threat 
        information provided to them by the Government, or using 
        techniques shared with them by the Government. We should 
        consider liability protection for the company when it is really 
        the Government that may be at fault, not the company itself.

    Senator Nelson. This should not be that hard, because we've 
been through this before with the metadata on the question a 
few years ago of being able to intercept traffic in order to 
identify the terrorist wherever the terrorist was. Clearly, 
we've dealt with it before and liability protections, so we 
ought to be able to get this one.
    General Alexander. Senator, if I may, I think there's broad 
consensus on information sharing and liability protection. 
Where it really gets uncomfortable, if you will, is 
regulations, standards, what the Government does there. That's 
the really hard part, in part because all the industry sectors 
are so different.
    I think that's one of the things that the administration 
has done that really puts the step forward, is the Executive 
order now gives us an avenue to start discussing that. I think 
that's very useful. I think any legislation should point to 
that and look at incentives to get industry and others to 
having a more resilient infrastructure.
    Senator Nelson. Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you. Thank you, Senator Nelson.
    Now it is Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    General Alexander, on the staffing of CYBERCOM, it's been 
reported that you need to expand in a significant way. Do you 
want to talk a little about what you see as your staffing needs 
and also how you'd meet those staffing needs? How do you 
compete for the kind of people you need that are in the private 
sector now?
    General Alexander. Senator, thank you. There are two issues 
here and let me just pull them apart to accurately answer your 
question. We're not talking about significantly increasing the 
CYBERCOM staff per se. We're actually asking the Service 
components of CYBERCOM to field teams that could do three 
missions: defend the Nation from an attack, support our 
combatant commanders, and defend our networks with cyber 
protection platoons.
    Those sets of teams are what is the big growth that we're 
talking about and that the Services are looking at. We are 
working closely with each of the Services in setting standards, 
training standards for those.
    The good news: So far the Services have stood up and met 
every goal that we've put for them here. I just give my hats-
off to the Service Chiefs and our components in doing that. So 
we are right now in line, on track for one-third of that force 
being completed by September and about one-third the next 
September 2014, and the last third by 2015, that target range.
    The good news is we are taking the most serious threats and 
addressing those first with the teams that have already stood 
up. They're already on line and actively working in this field. 
So we already have teams up and running, thanks to the Army, 
Air Force, and Navy for setting those teams up.
    So what we're talking about is bringing those folks in. 
Now, doing that, there's two parts to it. One is training, so 
we can take kids, young adults, with great aptitude. They don't 
have to be cyber experts. We can help them get there. I will 
tell you, my experience is people who want to work in this area 
and have the desire--we have a machinist's mate from the Navy, 
a machinist's mate--I talked to him and I said, ``well, how'd 
you get here?'' He goes: ``I really wanted to do it.'' He is 
one of our best. So we've asked the Navy to give us all their 
machinist's mates. No, just kidding. [Laughter.]
    So when you look at it, there is great talent out there. 
The real key part is how do we keep them, how do we incentivize 
them, and what are the programs that we're doing? We're working 
on a program with the Services to do that, and setting up their 
career fields for the Services to have this common among the 
Services.
    Senator Blunt. A concept I'd like you to talk about if you 
want to and think about if you haven't thought about it. 
Senator Vitter, Senator Gillibrand from this committee, and I, 
along with Senator Coons and others, are looking at some 
legislation that would create more cyber warrior opportunities 
in the National Guard. Missouri's done some of this already, as 
I think you know. These are people who are actively in this 
work every day anyway, who would then be available to react or 
be available to train.
    Do you have a sense of how that might be part of what 
you're looking at in the future?
    General Alexander. Senator, we have National Guard folks on 
our staff. We are actively working that with the Guard. A few 
weeks ago I sat down with all the adjutant generals from all 
the States and walked through how we could do this, how we 
train everybody to the same standard, Active and Guard. Their 
roles, twofold. Just to quickly summarize, one would be how 
they work with the States, DHS, FBI, in resiliency and recovery 
and helping the investigative portion, and how they work with 
us in a cyber conflict to complement what we're trying to do. 
We will not have enough force on our side, so we'll depend on 
Reserve and National Guard just like the rest of our force 
structure.
    Senator Blunt. I think in this area that gives--for 
instance, your machinist's mate, if he decides, he or she 
decides, for some reason that they don't want to be in the 
full-time force, but they have this great skill level that 
they've acquired, to take that to the Guard.
    General?
    General Kehler. Senator, if I just might pile into the 
conversation for a moment. I think it's just as important for 
us to remind ourselves that, whether it's growth in cyber, 
whether it's investment in replacement for the Ohio-class 
submarine, no matter which piece of the future that we are 
looking at here, all of this is sensitive to the budget 
decisions.
    Sequestration, for example, and those budget totals will, 
in fact, impact all of this. While General Alexander is right, 
there is some growth that is underway--and I think the Services 
have been very generous in that regard--there will be impacts 
across the board here. We just can't predict what those will 
look like today until the actual budgets are redone.
    Senator Blunt. General Kehler, have you talked about the 
sequestration and the CR component of that? We had people in 
here in the last few days that have talked about how important 
it is we update your spending request, and hopefully we're in 
the process of doing that. But would you visit with me a little 
bit about that?
    General Kehler. Yes, sir. I think we would be in favor of 
as much certainty as we can put back into the process. That is 
a way to help with certainty, and that will be very beneficial. 
I think, as I said earlier, the most immediate impact for us 
and the most concerning and troubling impact in STRATCOM is the 
impact that we will see on our civilians. That is not 
insignificant, and I think we have to be very mindful of the 
potential damage that those impacts will have.
    Beyond that, then there are the impacts on the readiness 
accounts that we will see. That's like a slow-motion movie. In 
STRATCOM this will be like watching something in slow motion. 
It will occur. It is happening now. It's just we do not see the 
effect yet. We will see that effect as the months progress.
    Senator Blunt. I think these two things come together here, 
where the failure to update the priorities by refusing to 
appropriate and debate those bills on the floor has come 
together with then cutting those old priorities on a line-by-
line basis, and it's challenging.
    General Kehler. Yes, sir.
    Senator Blunt. General Alexander?
    General Alexander. Senator, I was just going to add that it 
impacts CYBERCOM in a similar way, two parts. The CR holds us 
to the fiscal year 2012 budget, but, as you now know, we're 
standing up all these teams in fiscal year 2013 and the funding 
for that was in the fiscal year 2013 budget. So about 25 
percent of our budget right now is held up. That's significant.
    One-third of our workforce are Air Force civilians and they 
are going to be impacted by this furlough. When you think about 
it, here are the folks that we're asking to do this tremendous 
job and we're now going to furlough many of them. That's a 
wrong message to send people we want to stay in the military 
acting in these career fields.
    Senator Blunt. What's the impact of dividing your workforce 
between the uniformed personnel and the civilian personnel? 
What's the internal management challenge of that, General 
Alexander?
    General Alexander. Actually, it works well together.
    Senator Blunt. I know it works well, but when the civilian 
force takes a furlough----
    General Alexander. Right. It has a significant impact 
because they look at it and they say, why are we being targeted 
for this? It is a smaller group, and when you look at it, both 
sides agree that this is the wrong way to handle it.
    I think I would add to what General Kehler said, is we need 
to give the Service Chiefs and the military the ability, the 
flexibility to look at where we take these cuts and do it in a 
smart way. Right now, just doing it by activity doesn't make 
sense. We would not do it if we ran this as an industry.
    Senator Blunt. I couldn't agree more.
    General Kehler, when I was at Whiteman Air Force Base the 
other day the commanding general there on this topic said: The 
civilian force is an integral part of what we do and we don't 
need to send a message to them that somehow they're not as 
integral to what happens every day as the uniformed force is. 
He showed real, I thought, very good management concern about 
how you keep your team together when the law is dividing your 
team and part of your team's taking the hit that the other 
part's not taking.
    Not suggesting, by the way, that we do anything to the 
uniformed force, but I think this is maybe one of those, the 
law of unintended consequences. You think you're protecting the 
uniformed force and in writing the law that way then all the 
personnel obligation goes onto the other side.
    Do you have anything you want to say about that?
    General Kehler. Sir, I couldn't agree more. The role of our 
civilians has changed dramatically over the years that I've 
served. Today they are integral to everything we do. They are 
leaders in our organizations. They occupy senior leadership 
positions. In many cases, they represent the expertise and the 
experience that we do not have in the uniformed force.
    So in a place like STRATCOM, in a place like CYBERCOM, in a 
place like the nuclear enterprise, where our senior civilians 
really represent most of the experience that's left in these 
types of highly technical, highly complicated places--certainly 
in the space part of our business, we have some senior 
civilians who are in very important parts of the DOD space 
organizations.
    So I think that my concern with the sequestration begins 
with the intentional and then the unintentional intangible 
impacts that we might see on our workforce. It is the 
uncertainty that goes with that that concerns me the most.
    If I could just add one more thing, we have had a very 
successful intern program to try to entice young college 
graduates to enter civil service so that they can have 
government careers. It's been very successful. So in Omaha we 
find that a number of these youngsters who are just beginning 
their careers in civil service with college degrees are looking 
around today and wondering if this is their future.
    Senator Blunt. Exactly.
    Thank you, Generals.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    To General Kehler, General Alexander, thank you so much for 
your service.
    General Alexander, does the private sector have the same 
skills that your team does in reacting to cyber security and to 
cyber attacks, and being able to protect themselves?
    General Alexander. The private sector has some tremendous 
talent in this area, which we need to leverage and partner 
with. So I want to be clear. There are two parts to answering 
this question accurately, I think. When you look back 70 years 
ago to Enigma and you look at the making and breaking of codes 
and doing some of the special work that the predecessors to NSA 
did, we have special capabilities both in CYBERCOM and NSA. 
Hence that partnership. That gives us unique insights to 
vulnerabilities and other things that we can share back and 
forth.
    It is that area that is perhaps most important in 
identifying those vulnerabilities and sharing it with industry, 
those things that could impact our industry. But industry has 
like skills and sees different things. So the antivirus 
community is very good in this area, and I don't want to 
underestimate them. What you're actually doing is saying, let's 
put the best of those two teams for our Nation together to 
defending us. I think that's, in legislation, one of the key 
things that we need to do.
    Senator Donnelly. When we look at what's going on, a huge 
amount of this is efforts to try to steal America's 
intellectual property, from defense contractors, from private 
businesses, and from our military. If you are a business and 
you're developing products and you're going to patent it, you 
may be concerned about your ability to protect against a cyber 
attack. You know how to develop a great product that may help 
cars run faster, on less fuel, et cetera, but cyber attacks are 
not your thing.
    If you were that company, what would you recommend to them 
in terms of protecting themselves?
    General Alexander. I would recommend that they first talk 
to companies like McAfee, Symantec, Mandiant, and others that 
have great experience in this and that can give them great 
advice. The defense industrial base also has companies that can 
do that. That takes them one step.
    I think Senator Inhofe brought up a good point that needs 
to be brought in here and that is it needs to be a layered 
defense. So there are things that they can do to have a more 
resilient and more protected architecture, and those things 
they should do. It's like having Norton Antivirus in your home 
computer.
    Senator Donnelly. Sure.
    General Alexander. Those are the key things and we can help 
them with that. There's another part. We know things about the 
network that now we'll call classified information, that would 
be useful for us to share to protect those. But what we can't 
do is share those so widely that the adversary knows that we 
know them, or we lose that capability.
    So that part of sharing has to be done properly, in a 
classified forum, that those Internet service providers and 
other companies can use to protect the networks. That's why I 
say it's almost two layers to this.
    Senator Donnelly. You had mentioned before, you talked 
about being on offense as well. Are there communications made 
to those countries, to those organizations, that have done 
cyber attacks against us that there are consequences in regards 
to what we can do as well?
    General Alexander. The President did make that statement 
publicly in 2011, that we'd respond to cyber attacks with all 
the broad range of options that he has before them. I think 
some companies have been talked to privately. I can't go into 
that here. I think that's the first logical step that we should 
take, is say if you do A it will really upset us. That's why 
they don't have me do it. They have people who can really put 
this in the right words. But I think we ought to have those 
demarches and other things with other countries, and I know the 
interagency process does work that closely.
    Senator Donnelly. General Kehler, in regards to North Korea 
and what we have seen in the past few weeks, at this point what 
adjustments to our posture are needed, if any, to make sure 
that not only our friends in South Korea, but our own Nation 
and our other allies are protected?
    General Kehler. Senator, we're looking across our entire 
range of activities to see if any adjustments need to be made. 
What I would say is that deterring North Korea from acting 
irrationally is our number one priority, and that deterrence 
begins on the peninsula with our alliance with the Republic of 
Korea. It extends to our conventional forces that are forward 
on the peninsula. It extends to other forces that are available 
in the theater to Admiral Locklear and General Thurman. It 
extends ultimately all the way back to our nuclear deterrent.
    Today my assessment of certainly STRATCOM's role in this is 
that we are capable of offering to the President the full range 
of options. Whatever he chooses to use in response to a North 
Korean act, I believe we can make available to him, and I'm 
confident in that today.
    We are looking, though, at the pace of the North Korea 
threat to see whether or not the limited missile defense that 
we have in place, both in the theater and for the United 
States, is on the right pathway to deal with the threat. We're 
working that with the Intelligence Community to see if there's 
a more complete assessment that we need to put in place today 
and whether that will cause us to make any adjustments.
    Senator Donnelly. With some areas, some countries, you can 
in a way determine here's what we expect them to do next. Has 
North Korea--you talked about rational actors. Is it difficult 
at times to determine what they are going to do next and what 
steps they will take?
    General Kehler. I believe it's difficult. I believe that we 
all think that's difficult, especially with a new leader that, 
frankly, I think, we're still getting to know. So I think that 
there are great debates about rational, irrational, et cetera. 
I think for us anyway it is a question about readiness for us, 
and us being ready to respond in any way that might become 
appropriate. I am confident today that we can respond in 
appropriate ways.
    We participate in exercises, of course, with U.S. Pacific 
Command and with our command on the peninsula, as they are 
participating with the Republic of Korea in their exercise 
series. So I believe that we are demonstrating the credibility 
of our capabilities and that's important.
    Senator Donnelly. Do you see coordination between North 
Korea and Iran in Iran's efforts to develop further nuclear 
technologies and in Korea's efforts?
    General Kehler. Sir, I would prefer to have that 
conversation in a different setting.
    Senator Donnelly. That's fine.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Fischer is next.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. General Kehler, 
it is a pleasure to see you again.
    Earlier you said that we can protect the continental United 
States with the resources that we currently have. Is that 
correct?
    General Kehler. Against a limited threat, yes.
    Senator Fischer. Against a limited threat. Would you agree 
that that equation would rapidly change if others would be able 
to develop technology to detect our submarines, if governments 
would become more hostile to us, and if we don't maintain the 
systems that we have?
    General Kehler. Senator, I think that any time the threat 
changes that that certainly causes us to review and could cause 
us to make adjustments in all kinds of places, yes.
    Senator Fischer. Are we addressing those concerns now?
    General Kehler. Yes, we are.
    Senator Fischer. Are we maintaining our nuclear arsenal to 
the standards you would like to see?
    General Kehler. We are today and--however, with a caveat. 
The caveat is that all along over the last 2 years that I've 
been in command we have made a point of agreeing forcefully 
with the need to both modernize the deterrent and make sure 
that the enterprise is capable of sustaining it. So with those 
caveats, then yes, I am comfortable that we are capable of 
maintaining a safe, secure, and effective deterrent.
    Senator Fischer. With those caveats, you can perform the 
mission that you are asked to do right now?
    General Kehler. Yes.
    Senator Fischer. Do you agree with the statement: the more 
useable weapons are, the more deterrent value they have and the 
less likely they will be used?
    General Kehler. I would generally agree with that. I 
typically say the more credible the deterrent is, and that, of 
course, includes that we are able to employ it if we were ever 
in the situation where the President asked for us to employ it.
    Senator Fischer. Do you believe that our conventional 
forces today would be able to execute a deterrence mission 
that's currently performed by our nuclear weapons?
    General Kehler. I think in some cases conventional forces 
are capable of executing--of producing a military result that 
would be similar to what a nuclear weapon could do. The 
question about deterrent effect, I think, is an interesting 
one, and in some cases yes, I believe that strong conventional 
forces clearly improve and increase our overall deterrent, just 
like a number of other factors do.
    But I believe that nuclear weapons continue to occupy a 
unique place in our defense strategy, in our national security, 
and in global perceptions; I think they continue to occupy a 
unique place.
    Senator Fischer. From your response, I would assume that 
you would agree that we need to maintain the balance that we 
currently have, then, with our nuclear deterrent in balance 
with our conventional forces. Is that a good balance right now? 
Are we at a good point?
    General Kehler. I think an interesting thing has happened. 
I believe that we are. I think that they are complementary, I 
would say. What has happened, I believe, since the Cold War is 
that our increases in our conventional capabilities and in the 
overwhelming conventional power projection that we can bring to 
bear around the world has made a difference in the role of our 
nuclear deterrent. I think that we've been able to narrow the 
role of that nuclear deterrent accordingly.
    But I think as we go forward that will be an interesting 
question to watch, whether our conventional forces remain 
strong.
    Senator Fischer. But at current levels you believe that it 
is a good balance? If those levels would drop with conventional 
forces or with nuclear, but focusing on the conventional, if we 
see the nuclear side drop, if we don't maintain the arsenal 
that we have now or if we continue to limit it, can the 
conventional forces pick up the slack?
    General Kehler. I think in some cases the answer is yes. I 
don't think they can across the board. I don't think that they 
substitute for the effect of the nuclear deterrent. However, I 
do think that conventional forces do, in fact, make a 
difference in terms that we are no longer in a position where 
we have to threaten nuclear use in order to overcome a 
conventional deficiency. So that's made a difference.
    I also think that we need--saying that they are in some 
kind of balance today doesn't mean in my view that there isn't 
some opportunity to perhaps go below New START levels.
    Senator Fischer. Would you like to elaborate on that?
    General Kehler. I think there are still--as I said earlier, 
from my military perspective, I think that we have in the 
deliberate pathway we have been on with the Russians over the 
years in reducing the number of weapons that can potentially 
threaten the United States or our allies, and we've done that 
in a way that's maintained stability and we've done that in a 
way that's been verifiable, I think that has provided benefit 
to us from a military perspective. I think that if there are 
additional opportunities in the future we ought to explore 
those.
    Senator Fischer. Would you recommend going below the New 
START levels unilaterally?
    General Kehler. I would not. I think that again the formula 
for success has been that we have done this with the Russians 
and I think that's the formula for continued success. I believe 
that certainly Secretary Panetta was very public about that. 
I've seen some correspondence from Secretary Hagel where he has 
agreed with that. The President mentioned in his State of the 
Union address that he wanted to work with the Russians. I think 
that's a consistent theme that we have seen across the board.
    Senator Fischer. It's been suggested by opponents to our 
nuclear program that the program's on a hair trigger. Do you 
believe that there is any risk that's caused by our readiness 
posture right now?
    General Kehler. We go to extraordinary lengths to make sure 
that our nuclear deterrent force is both safe and secure, and I 
believe that it is safe and I believe that it is secure. It is 
also under the positive control of the President of the United 
States.
    Senator Fischer. Do you believe that it makes our country 
safer?
    General Kehler. I believe that in today's global 
environment that having a portion of our force in a ready to 
use posture for the President meets our needs today. But we are 
always reviewing that to see whether that's the appropriate 
balance for tomorrow or the day after. I think that will vary 
as the world situation changes.
    Senator Fischer. Thank you.
    General Alexander, if I could just ask you a brief 
question. The defense authorization bill said that Congress 
should be consulted about any changes to the Unified Command 
Plan as it relates to CYBERCOM. Would you commit to providing 
this committee, this panel, with justification for elevating to 
a CYBERCOM?
    General Alexander. Absolutely. I think right now the 
Secretary and others are looking at that and I know that the 
intent is to share everything with this committee before they 
take any action and make sure the committee is comfortable with 
any actions. Right now it's just in the discussion phases. The 
new Secretary has to look at it and I think that will take some 
time, and they will bring it back.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Fisher.
    Senator Blumenthal is next.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your service, your extraordinary 
contribution to our defense readiness and our Nation.
    Perhaps I could begin, General Alexander, by asking you a 
general question which perplexes me. We agree, I think all of 
us on this committee, with you that the threat of cyber attacks 
and cyber interference with key parts of our Nation's 
infrastructure, our private companies that are so vital to our 
national defense, is a clear and present danger to our Nation. 
Yet the Nation as a whole seems unaware, certainly unalarmed, 
by this threat.
    I know that you've thought a lot about these issues, have 
spoken to us about them privately as well as publicly. I wonder 
if you have some suggestions for us as to how we or you or the 
President can make the Nation more aware about them. Obviously, 
the President has spoken about them, but I wonder whether you 
have some thoughts for us.
    I know it may seem as though it's in the political realm, 
but really in the educational task that I think we face 
together to make the country aware of the real threat 
physically and otherwise of cyber attack.
    General Alexander. Senator, thank you. What you bring out 
is the key, I think, to really moving the legislation and other 
things forward, and that's educating people on the threat, 
accurately educating them on the technical side--what does this 
mean, what's a cyber attack, and what are the effects, what's 
going on, what are we losing, and what should we do.
    There are many reasons that industry and other players are 
concerned about legislation and other things. Part of it is the 
cost, the bureaucracy that comes in. Part of it is addressing a 
very complex issue that at times it's easier to ignore, and 
that's theft of intellectual property. The fact that they lose 
it is an issue, but for the country, for the Nation as a whole, 
this is our future. That intellectual property from an economic 
perspective represents future wealth and we're losing some of 
that.
    Senator Blumenthal. You've referred to it, I think, as the 
greatest single illegal transfer of wealth in the history of 
the world.
    General Alexander. Illegal, yes, exactly. I'm concerned 
that if we don't stop it, it will hurt our Nation 
significantly. There's two parts to stopping it. One is fixing 
our infrastructure, working together with industry and 
government to stop these attacks. Then the second, as was 
brought out by Mr. Donnelly, perhaps our administration and 
others reaching out to those countries and stopping them.
    I think the second part is ongoing right now. We have to 
step back to the first part and look at how we educate. I do 
believe that we have to be more public in some of this and we 
have to defuse the alarming stuff that comes out on civil 
liberties and privacy and have a candid set of discussions on 
what it means to protect in cyberspace. I think that's often 
lost. Often it is just thrown out there as a way of stopping 
progress when what will happen, what I'm really concerned 
about, is a significant event happens and then we rush to 
legislation.
    We have the time now to think our way through and get this 
right. We should educate people and do that. We are pushing the 
same thing, and we'll help in any way we can, Senator.
    Senator Blumenthal. Thank you.
    General Kehler, if I may ask you. You have stated that ``It 
is essential to provide sufficient resources to replace our 
Ohio-class ballistic missile submarines.'' As you're aware, the 
fiscal year 2013 budget deferred procurement of the first Ohio 
replacement boat by 2 years. I'd like you to share with the 
committee, to the extent that you can, whether 12 submarines 
are still required--I assume that they are--and how in general 
terms a requirement like this is established, and what we're 
going to do to achieve that goal?
    General Kehler. Senator, we established the requirement by 
looking into the future and making a number of judgments about 
the future, which is what we do with every weapons system that 
we put on the books. In this case, though, I think we've 
started to report the assessment that the value of a submarine-
based deterrent, as we go to the future, will remain as high as 
it is today. Then the question doesn't become if you need to do 
it; in my mind it becomes when do you need to do it.
    So we've worked this very carefully with the Navy, and it 
is ultimately the Navy's assessment of the current performance 
of the existing submarines and their longevity that's driving 
the answer to this question. Much like any other military 
platform, the amount of use that gets put on it determines its 
lifetime. In the case of submarines, which I don't know much 
about, but a number of submariners who work for me remind me 
constantly that it's the cycles on a submarine. It's a harsh 
environment, first of all, and then you get the pressure, no 
pressure, pressure, reduced pressure, et cetera.
    So that does things to metallurgy and it does things to 
fittings and it does things to the internal workings of a 
submarine that ultimately cause them to question the continued 
safety of being able to cycle down and up. The Navy tells us 
that we're going to reach that. It's not going to be a bright 
line in the sand that on today they're all okay and tomorrow 
they're not. There's a zone that they're going to enter and 
sliding these an additional 2 years to the right puts them in 
the zone.
    My view would be it's not prudent for us to slide them 
further, unless of course the Navy steps forward and says, no, 
we can go another couple of years. I don't know that they're 
going to say that. I don't expect that they will. But I think 
again it's not a bright line in the sand. I think the issue for 
us will be 12 looks like the right number as we go to the 
future. That can always be adjusted as we go to the future. It 
seems to be the right balance between capability and cost, and 
that's going to be important as we go to the future, no 
question about that.
    So on balance my view is that we do need to go forward with 
that. We need to go forward with long-range strike aircraft as 
well, and we need to complete the analysis of alternatives on 
the future of the ICBMs beyond 2030. That's not a decision we 
have to make today, but it is an analysis of alternatives that 
needs to go forward.
    Senator Blumenthal. But there's no question right now that 
12 is the right number?
    General Kehler. I don't have a question that that's--I 
would say that that's a minimum number that we sit there 
looking at today. I don't know if the number gets larger than 
that, and that will depend, I believe, on a number of factors 
as we go forward.
    Senator Blumenthal. When you say that sliding to 2 years 
puts us in the zone, could you explain what you mean?
    General Kehler. The first of the Ohio-class submarines will 
begin to reach the end of their service lives at just about the 
time the first of the replacements comes on line. It's a dance 
that we're working. By the way, we're working this with the 
United Kingdom as well because they are looking to piggyback, 
if you will, on this program for their own replacement. So this 
is a very delicate programmatic dance that the Navy is doing 
with the U.K. as well as with the needs that STRATCOM has put 
on them.
    Senator Blumenthal. Thank you.
    My time has expired. Perhaps I can follow up with some 
questions and also to General Alexander, if we can explore 
perhaps further the education of the public, which is so vital 
to the work really that you're doing and that we're seeking to 
assist you to do.
    Thank you very much. Thank you both.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I thank both of you for your leadership in the important 
commands that you have, both of which are extremely important 
to America.
    DOD acknowledges, General Kehler, that Russia is increasing 
its reliance on nuclear weapons and that the pace and scope of 
China's nuclear programs, as well as the strategy behind their 
plans, raises questions about their future intentions and the 
number of weapons they intend to have. Likewise, India and 
Pakistan are modernizing their nuclear forces and the French 
President recently commented that nuclear weapons are essential 
for France. Of course, North Korea continues to expand its 
capabilities, while Iran is on the verge of acquiring nuclear 
weapons.
    So I'm not aware of any country reducing their nuclear 
stockpiles, except perhaps us as we continue to look at that.
    But let me ask you, what are the strategic implications of 
these trends of enhanced nuclear weapons around the world?
    General Kehler. Senator, they do have implications for us. 
I think first of all, when we look at assessing other nuclear 
arsenals around the world what we do is we look at intent and 
capability. I think none of us believe that the Russians intend 
to attack the United States. I think we don't believe the 
Chinese intend to attack the United States, et cetera. However, 
they have the capability to do so, and as long as they do then 
we have an obligation to deter against such an attack. That 
means we have to be mindful of the capabilities that they are 
bringing to bear.
    We note their modernization and we certainly note their 
numbers. I think, at least again from my military perspective, 
arms control and arms reductions have helped us in terms of 
limiting or reducing in some cases the threat that we face.
    We get to a point here, though, where as we work toward a 
goal, if the eventual goal is zero, you get to a point where 
other arsenals I think begin to bear on this equation.
    Senator Sessions. I couldn't agree more about that. I think 
it's unimaginable that if we go to zero that every other 
country in the world would go to zero, and that would place us 
at a strategic disadvantage of great magnitude and cannot be 
allowed to happen.
    Could the disparity in public vision of countries and their 
nuclear weapons, some or most of these I've mentioned more 
robust than the United States, could that make our allies 
nervous? I'm concerned about these discussions that we're 
having about further reducing our nuclear weapons to a level I 
think is dangerous, about what discussions--what impact they 
might be having on our allies around the world, like Japan and 
South Korea, that have relied on the U.S. nuclear umbrella for 
the past 7 decades.
    If our arsenal and therefore the nuclear umbrella we 
provide continue to shrink, I'm concerned that our partners 
will look to create their own, and this is the very definition 
of proliferation, it seems to me.
    As you may have seen, the Sunday New York Times reported 
that following North Korea's third nuclear test some 
influential South Koreans are now beginning to openly call for 
the South to develop its own nuclear arsenal.
    Is this a factor that we should consider as we evaluate the 
level of nuclear weapons that we want to maintain?
    General Kehler. Yes, sir, I believe it is a factor you have 
to consider.
    Senator Sessions. In a message to the U.S. Senate in 
February 2011, President Obama said: ``I intend to modernize or 
replace the triad of strategic nuclear delivery systems of 
heavy bomber, air-launched cruise missile, and ICBM, and 
nuclear-powered ballistic missile submarines and SLBMs, and 
maintain the United States' rocket motor industrial base.''
    Additionally, 2 days before the vote on the New START 
treaty in a letter to Senators Inouye, Feinstein, Cochran, and 
Alexander, President Obama reaffirmed this commitment to 
nuclear modernization, stating: ``I recognize that nuclear 
modernization requires investment for the long-term. That is my 
commitment to Congress, that my administration will pursue 
these programs and capabilities for as long as I am 
President.''
    Can you tell us where we are on the efforts to modernize 
our triad and our nuclear infrastructure, and are we on pace to 
comply with the President's commitment?
    General Kehler. Sir, I can tell you that through the 
submission of the 2013 President's budget, with some exceptions 
that we talked about last year--there were still issues in the 
nuclear enterprise, the weapons part of the business. The 
program didn't close, if you recall that from last year. But 
the 2013 budget continued the modernization efforts across the 
board. Some were later than others, but it continued the 
modernization efforts.
    The 2013 budget turned into a CR. I don't know what the 
remainder of the year is going to bring to us in terms of the 
2013 piece of this.
    The 2014 piece--we've worked pretty hard over the last year 
to try to structure the 2014 piece so that it would also 
continue all of the things that you've mentioned here. I don't 
know what's going to happen to the 2014 piece, given the 
additional investment reductions that will have to come with 
sequestration. So, I can't tell you today what it looks like, 
sir. I can't tell you it's not going to happen. I just can't 
tell you what's going to happen yet, because we don't have a 
budget on the Hill yet that describes our position.
    Senator Sessions. Do you believe financially we should 
follow through with the commitments that the President had and 
this is a reasonable defense posture and expenditure for the 
United States?
    General Kehler. I believe, as the advocate for the 
strategic force, that this continues to be a wise investment on 
our behalf, I do.
    Senator Sessions. In the last NDAA, we articulated certain 
expectations of the NNSA, which manages our nuclear weapons 
production, and the Nuclear Weapons Council (NWC), of which 
you're a member, with regard to the shaping and reviewing of 
NNSA's budget. You review the budget and through the Council 
have input into that. Specifically, our report said: ``The 
conferees expect that the NWC not only certify, as required by 
law, that the NNSA budget as it is submitted to Congress, but 
that the NWC also take an active role in shaping and reviewing 
the NNSA budget as it is prepared for submission to Congress 
and negotiated with the Office of Management and Budget (OMB) 
during the budget review process.''
    Is the NWC, which you and others sit on, taking an active 
role in shaping and reviewing NNSA's budget proposal? I ask 
that because it's really clear to me, colleagues, that the NNSA 
and the Department of Energy (DOE), their role is much like a 
defense contractor, a Boeing or a Lockheed. They're producing a 
weapons system that you have to have and utilize, and you 
should be involved in how they manage that and the amount of 
money that's spent on it, I believe. At least I think that's 
healthy for America.
    So do you feel good about where NWC is and are we on track 
here to raise it up as we intended to, to give it more power?
    General Kehler. Senator, I do feel good about where we are 
today in terms of insight and influence. It isn't perfect, but 
I think that over the last year in particular there has been a 
dramatic change in the working relationship between DOD and DOE 
and NNSA in particular over visibility into the budget and over 
influence in shaping that budget.
    So again, it's not perfect. I think we're learning a lot 
about how we can get better at this as we go forward. I think 
there's more to do. But I have seen a tremendous change in the 
way we go about working together through the NWC and I think 
it's a tremendous positive change.
    Senator Sessions. Great.
    Mr. Chairman, I would note that my understanding is that 
DOD has not yet certified the budget. They must have some 
concerns about it. But it is at the OMB level already and going 
forward. I do think it's healthy that DOD has real input into 
the production of the budget for nuclear weapons.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, General Kehler and General Alexander, for your 
service.
    General Kehler, the men and women who are assigned to the 
Pacific Missile Range Facility (PMRF) on Hawaii are some of the 
best around. The capabilities provided at this facility are 
exceptional and the Missile Defense Agency (MDA) uses it to 
test the systems that will protect our country and allies from 
missile attacks.
    Currently under construction there is the Aegis Ashore 
Facility, I'm sure you're familiar, which will enhance the 
capabilities available for MDA and the Navy. So if you have not 
visited PMRF recently, I certainly encourage you to go out 
there, and I would certainly want to join you in that visit so 
that you can chat with the great team that we have out there 
and also the contractor personnel that keeps the whole place 
going.
    I would welcome your thoughts on the facility as we go 
forward in these economically constrained times.
    General Kehler. Senator, I'll do that. I could hear my 
staff back here volunteering to get on the airplane and go 
visit out there. [Laughter.]
    I can tell you that the entire Pacific Range complex, that 
really starts on the west coast of the United States, goes to 
PMRF in Hawaii--there are other range assets in Hawaii 
elsewhere as well, as I know you know--and then it extends all 
the way out toward Kwajalein--is very important to the United 
States.
    Senator Hirono. So, I can expect your continuing support 
for the new construction that's happening for the Aegis Ashore?
    General Kehler. Yes, you can.
    Senator Hirono. Again, I note in your testimony the 
challenge that you're facing--I think you might have talked 
about this a little bit--to process and analyze all the data 
that our intelligence, surveillance, and reconnaissance 
platforms are providing. So it's one thing to collect all the 
data and we want to be sure that that data is accurate. It's 
another as to how you're going to use that data, all this 
tremendous amount of raw information that you're getting.
    Given the challenging budget situation that we face and the 
limits on the number of analysts that you have, the costs of 
data storage, and the limits on the amount of intelligence 
products your consumers can effectively use, how do you solve 
this problem and find the balance while ensuring that we don't 
miss something big?
    General Kehler. Senator, let me start and then I'm going to 
defer to my Intelligence Community colleague sitting on my 
left, because over the last 10 years, I think, we've learned 
something in combat in Southwest Asia, and that is, that it 
isn't about the collectors as much as it is about collecting 
and processing. So the more processing power we've been able to 
throw at the collection to have the machines make sense out of 
what is being collected, the better we have gotten. It has 
provided great insight for forward forces to be able to carry 
out their missions and act in ways I think that the adversaries 
did not think we could act.
    The question now and the trick is to extend that globally 
for all of our combatant commands as we look to the future. 
That's something that we are looking at as we speak. So that's 
going to be really important, and I'll defer to Keith because 
his organization has really been in the forefront of how do you 
use computing power to help us in this collection business.
    General Alexander. Senator, I think one of the things--and 
I'll just go back to Iraq--was putting together a real-time 
regional gateway capability--think of this as the processing 
power that General Kehler talks about--and putting it forward 
with our combat troops so that they had the information they 
needed.
    I think there's a few things that you have to put on the 
table: first, understanding the needs of the tactical 
commander, what do they need to do their job. So from the 
Intelligence Community perspective that means our folks going 
down and being in their environment, living in their 
environment, and understanding what their needs are, and then 
having access to all the data that the collectors do.
    I think this committee and others and some of your staff 
have worked hard to ensure that the sensors that we have push 
their information into data stores that everybody could use. 
This is key, key to leveraging the power of our collectors, 
national, theater, and tactical, to impact the tactical 
commander's requirements. We've made great strides in that.
    I know you've been up to NSA Hawaii, a wonderful facility, 
and I think some of the capabilities exist there, and our folks 
would love to walk you through those.
    Senator Hirono. So, I take it that the research and 
development component of what you do is very critical and that 
we need to continue to provide resources for that in order to 
enable you to do what you need to do with all this massive data 
that you are needing to analyze.
    I note, General Alexander, that you had talked a little bit 
about how important recruiting and retaining your key personnel 
would be. I note in your testimony that you wanted to increase 
the education of our future leaders by fully integrating cyber 
into our existing War College curricula. You noted that this 
will further the assimilation of cyber into the operational 
arena for every domain.
    So I know that what you're working in is an area that needs 
to become fully integrated and assimilated. What are your 
thoughts on how long this is going to take to make sure that 
the curricula incorporates cyber and that cyber is at the 
forefront of what all of our generals should be thinking about?
    General Alexander. It should be absolutely the first thing 
they learn and the most important. That's my view, of course.
    Senator Hirono. I tend to share that view. This is a new 
area and I think that we are very vulnerable on the cyber 
front.
    General Alexander. So I speak at the war colleges. We have 
people at the war colleges on the NSA side that carry that 
message forward, and we are adding it into the curriculum and 
these courses are growing.
    We are also working with the Defense Intelligence Agency on 
setting up a cyber, if you will, mid-grade course for field 
grade officers, the young O-3s, O-4s that we have. We have a 
series of courses that we have for our folks and for staffs, 
for the combatant command staffs, not just ours but all of 
them, to understand cyber.
    The interesting part here is we'll get that set up, but 
it's key to note that every day this area changes. So keeping 
on top of it and keeping those changes is what we really need 
to do, and keeping people aware of those changes and the impact 
those changes have. That's the key part.
    One of the great parts about having CYBERCOM at NSA is that 
we can leverage the academic capabilities of NSA with the 
military working together to ensure we have these courses that 
both our civilian and military people go through. We've made 
great strides in that and we have a whole series of courses 
that we can show you that we're giving to our folks.
    Then when I talk publicly, I also give people insights to 
books that they should read. When I was a younger officer, I 
know I did not read all those books that people recommended, 
but there are some great books out there on cyberspace that we 
recommend that they read.
    Senator Hirono. So are you satisfied that this assimilation 
is going on fast enough and that it will continue? As you note, 
changes occur very rapidly in this area.
    General Alexander. It's growing. It's not fast enough. 
There's a lot that we have to do. But changing some of these 
courses takes time. We are pushing this very hard, with a focus 
on those folks that first have to operate in this area. I think 
that part is going well. We do have the staff-level courses 
out, and we have opened it up for all the combatant commands, 
and we're hitting those key parts.
    Finally, I'll tell you that the Chairman of the Joint 
Chiefs of Staff and others have worked with the combatant 
commands and had these discussions with all of us sitting 
around the table to talk about cyber in a classified 
environment, so everybody understands the threat of that. I'll 
tell you, the senior officers in our military do understand 
that.
    Senator Hirono. You noted just now that this is an area 
that changes very rapidly and you have to stay on top of these 
changes. So can you talk a little bit about how you would 
measure effectiveness in your cyber security efforts and what 
kind of metrics would you use to determine whether we're on the 
right track?
    General Alexander. There's two parts to measuring that. One 
is certifying individuals, so we are developing a certification 
program--think about getting a flying license--that our cyber 
operators would have to be certified to operate in cyberspace 
for different functionalities. That's one part.
    The other is in our defense, looking at what we see in 
going through our cyber readiness inspections to see where each 
of our commands in the military are in defending their 
networks. What we've seen is a constant improvement in the 
cyber readiness of those networks. It's not perfect, but it's 
growing and getting better.
    Senator Hirono. That's reassuring.
    I recall that you testified about how important 
collaboration is with the private sector. Can you talk a little 
bit about what you see as the kind of collaboration? Are we 
talking about collaborating on information with the private 
sector, collaborating on technology? Then you also said that in 
order for all of this to happen that the private sector would 
need insulation from liability. So can you talk a little bit 
more specifically about what you mean and why the private 
sector needs liability protection?
    General Alexander. Senator, the key things that they need, 
that we need in sharing information, is the ability for those 
to understand the threats as we see them, perhaps in a 
classified environment, and what they're seeing in threats in 
their networks. They're going to be looking at different 
portions of our networks than the government looks at. So 
together we see more if we put those two facts together, and we 
can come up with a more defensible architecture.
    So there's that sharing of information on the threats that 
we both see. Those threats could be just routine malicious 
software that's out there to nation-state capabilities. That's 
one set of threats, and sharing it.
    The second part is, so what do you do to fix the networks 
and make them more defensible? Here industry and government 
have some great ideas, and implementing those, for example the 
joint information environment, is just such a path forward that 
gives us a more defensible architecture because it allows us to 
patch at a more rapid rate and see threats better than we've 
ever been able to in the past. So it's those kinds of things 
that we're working on to move forward.
    The reason we need liability protection is when we share 
some of this information with industry or they share it back, 
the liability that they incur because they are acting perhaps 
as an agent of the government in letting us know a threat is 
significant. Allowing them to be sued in some of these areas, 
from my perspective, when we're asking them to do something and 
then they bear the brunt of that lawsuit, is not right, and we 
ought to fix that and address that. We ought to give them the 
authority to share their information with the government, which 
they don't have today.
    Senator Hirono. Thank you.
    I apologize for going over my time. I didn't see the little 
blue note. But thank you so much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hirono, and we will put 
these blue notes a little bit closer to the eye contact in the 
future. But you've always maintained your courtesy, so I'm sure 
our colleagues understand.
    Senator Lee is next.
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, General Kehler and General Alexander, for 
joining us today and for your service to our country. Both of 
those things are deeply appreciated.
    General Kehler, in June 2010 as the Senate was considering 
the New START treaty, your predecessor, General Chilton, 
testified before the Senate Foreign Relations Committee that 
the force level under that Treaty, meaning 1,550 warheads on 
700 delivery vehicles, was ``exactly what is needed today to 
provide the deterrent.''
    Did I understand your answer to Senator Fischer's question 
as being inconsistent with that? I think I did. I thought I 
heard you say we could go lower than that. If that's exactly 
what we needed in 2010, what has changed between now and then?
    General Kehler. Senator, I think I'm not inconsistent with 
that, so let me explain. The way we determine the size of the 
force, we don't start with a number. What we start with is a 
set of national security objectives. Those objectives 
eventually wind up being military tasks. Those tasks require a 
certain number of weapons to achieve.
    When General Chilton was asked that question, he took a 
look at the national objectives that he had at the time, the 
tasks that he was asked to perform, and he looked at the number 
of weapons that were going to be permissible under the New 
START treaty, and he said all of those matched.
    My point is that we may have opportunities to go below 
that, but it doesn't start with a number; it has to start with 
national objectives and military tasks that would be associated 
with it.
    Senator Lee. Okay. So you're not saying as of right now 
you're certain or you're confident that we could go below that. 
You're saying it is possible, based on further assessments at 
some point in the future?
    General Kehler. Yes, sir, I think that's right. I think 
it's possible, based upon assessments, based upon national 
objectives, based upon the military tasks we would be asked to 
achieve. I think it depends on the nature of any threat that's 
out there. So I think many factors go into the number.
    My contention is, though, like the Nuclear Posture Review 
said, I support this. I think we should explore whether further 
reductions are possible.
    Senator Lee. One of the reasons why I think I was a little 
bit surprised to hear you say that, though, was in light of the 
ambitious ongoing modernization programs that we have going on 
in Russia and in China, and in light of the fact that we have 
other countries like North Korea and Iran with aggressive 
nuclear ambitions. I would think that our risk and our threat 
would be on the increase and our need for those weapons would 
not necessarily be diminishing. Am I mistaken in that regard?
    General Kehler. I think all of those factors need to be 
considered. Primarily, though, yet today the arsenal that we 
have, that was built during the Cold War, and the arsenal that 
the Russians have represent the vast majority of the weapons 
that exist.
    Senator Lee. Sure, I understand that. But you know, there 
are a lot of countries, in addition to the United States, that 
rely on our nuclear arsenal.
    General Kehler. Most definitely.
    Senator Lee. So that umbrella, if you will, extends over a 
number of our allies, some of which lie in close proximity to 
countries like Iran and countries like North Korea. What 
consequence do you think it might have if we diminish our 
nuclear forces even further, either through reductions or 
because of a failure to modernize adequately? What impact might 
that have on some of our allies who rely on our own nuclear 
capabilities to protect them? Couldn't that bring about 
additional nuclear proliferation?
    General Kehler. I think that's always a possibility. I 
think we would have to be mindful of that as we go forward and 
that needs to be one of the factors considered.
    Senator Lee. Now, do you think that countries like Saudi 
Arabia, Turkey, or maybe other nations in the Middle East might 
feel compelled to develop nuclear weapons in the relatively 
near-term future if, for example, Iran is able to achieve 
status as a nuclear power?
    General Kehler. There have been some reports that some of 
those countries would consider it. I don't have a good feeling 
from my position about what our official view is of that, but I 
think that again any time that we are talking about extending 
our nuclear guarantee, which is what we have done for many, 
many, many years, that our allies, what they've told us when 
they come and visit my headquarters is that it concerns them as 
we consider making changes. So, I think we need to be mindful 
of those concerns and address them accordingly.
    Senator Lee. Right, right. That probably means that we 
ought to be cautious before reducing our nuclear arsenal, and 
we also ought to be very concerned about our failure to 
modernize adequately those weapons systems, wouldn't it? 
Because again, it seems logical to me that, especially as we 
have states like Iran and North Korea moving in that direction, 
that inevitably will have a huge impact on what other countries 
do. What other countries do will in turn most likely put more 
of a burden on us and further strain our ability to provide 
that assurance that we've provided in the past, would it not?
    General Kehler. I think, Senator, as we have always 
thought, ultimately our ability to deter, our ability to extend 
that deterrence and assure our allies with that is based on the 
credibility of our nuclear deterrent and our nuclear deterrent 
force. Increasingly, certainly over the last decade now, the 
presence and capability of our conventional capabilities has 
made a difference, and I think in some cases has set a 
different context for the way we view our nuclear forces. But 
they still remain critical, I believe, and complementary.
    Senator Lee. Okay. In the minute and a half or so that I 
have left, I'd like to talk to you a little bit about China. 
What can you tell me about the Chinese nuclear arsenal, and in 
particular whether you believe that China will continue to 
increase the number of weapons in its arsenal, and whether it's 
going to try to seek a level of equivalency with the United 
States and Russia in terms of nuclear weapons?
    General Kehler. Senator, I think we need to have a more 
full conversation in a different setting than this. But just in 
this setting, what I would say is we watch China continuing to 
modernize portions of their nuclear force. In terms of numbers, 
I believe the number ranges that our Intelligence Community has 
assessed with that--I don't think I can state that here, but I 
tend to believe that they're in about the range that we are 
talking about.
    I do not see, nor has the Intelligence Community reported 
to me, that they are seeking to have some kind of numeric 
parity with the United States or with Russia. But I would 
quickly say I think this is why we want more transparency with 
China. We'd like to know what their intentions are going 
forward and we'd like to be able to expand our dialogue with 
them so that we can prevent any misunderstandings.
    Senator Lee. Thank you very much, General.
    Thank you, Mr. Chairman. I see my time has expired.
    Chairman Levin. Thank you very much, Senator Lee.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I certainly want to associate myself with the line of 
questioning of Senator Lee. I think he's right on point. We 
have to look at the world we live in when we make these 
decisions about numbers and capabilities.
    General Kehler, am I pronouncing your name right?
    General Kehler. Yes.
    Senator Graham. Close enough?
    Senator Fischer. Yes, you and I are right.
    Chairman Levin. We've been batting about 500 on the 
committee today. [Laughter.]
    Senator Graham. Well, I'm a colonel. I don't want to get 
court-martialed. [Laughter.]
    Are we spending enough money to modernize our nuclear 
weapons force?
    General Kehler. I think we are coming out of a period where 
the answer was no.
    Senator Graham. How does sequestration affect?
    General Kehler. It affects it. I can tell you it affects it 
in the near-term in terms of the potential impact on readiness, 
as I mentioned earlier, which will come about over a period of 
months. I described this earlier as a slow-motion impact in 
STRATCOM, because the Services are trying to protect----
    Senator Graham. As part of the START Treaty negotiations 
was, those who voted for the Treaty--I did not--there was a 
promise given we'd modernize our nuclear force.
    General Kehler. Part two of sequestration, of course, is 
the overall budget totals which are coming down.
    Senator Graham. So basically my view is we never honored 
the modernization commitment in terms of funding, and along 
comes sequestration. So you've been hit twice. We never made 
the commitment that was promised in terms of modernization 
funds, even though it was more than in the past. Now you have 
sequestration. It's a double whammy. Would you agree?
    General Kehler. I don't know yet, sir, what the 
sequestration investment impact is going to be on us. I don't 
know. The budget details have yet to be worked out.
    Senator Graham. If it's across-the-board your account will 
be hit, right?
    General Kehler. Certainly if the rules stay the way they 
are, across-the-board.
    Senator Graham. Let's just assume that. Get back to me or 
the committee in writing: Assuming an across-the-board 
continuation over a 10-year period, what it would do to our 
nuclear modernization efforts. Could you do that?
    General Kehler. Yes, I can.
    [The information referred to follows:]

    We can meet our strategic mission responsibilities today. We expect 
continued budget reductions to impact future Department of Defense 
(DOD) platform acquisition programs and National Nuclear Security 
Administration (NNSA) stockpile maintenance and infrastructure 
sustainment activities. We will continue to develop sustainment and 
modernization plans within budget constraints to meet our strategic 
mission requirements. DOD and NNSA are jointly preparing an updated 
Section 1043 Report (Public Law 112-81) that describes our plans for 
maintaining strategic deterrence capabilities for the next 10 years. 
The update will include consideration of the budget reduction impacts 
on program scope and schedule, and estimated funding requirements for 
maintaining nuclear weapons delivery platforms and modernizing the 
nuclear weapons complex.

    Senator Graham. General Alexander, why isn't an attack on 
critical infrastructure in this nation, a cyber attack by a 
government like China or Russia, why is that not considered an 
act of war?
    General Alexander. That's a great question and I think one 
that needs to be ironed out: What constitutes an act of war in 
cyberspace? So let me give you my thoughts on that versus 
trying to bat this around.
    Senator Graham. There is no clear answer, I agree with you.
    General Alexander. Right. I think first I would look at the 
laws of armed conflict, the intent of the nation, and what 
they're doing. I would say what we're seeing today from those 
countries, essentially espionage and theft of intellectual 
property, is not an act of war.
    Senator Graham. What about military modernization plans, 
stealing--a lot of their fighters tend to look like our 
fighters.
    General Alexander. That's right, and a lot, a lot across 
the board. So I think that's espionage. I think that's theft of 
intellectual property. I would say that the intent is to steal 
secrets and you're into the espionage, criminal.
    If the intent is to disrupt or destroy our infrastructure, 
I think you've crossed a line. So somewhere in that zone----
    Senator Graham. Have you seen an intent, a planning process 
in place where enemies of the nation would attack us through 
cyberspace? Is that something we should be worried about?
    General Alexander. Yes, that's something we should be 
worried about, and I can give you more details in a closed 
setting.
    Senator Graham. All right. Now let's talk about outside 
DOD. You can defend the defense infrastructures, but you're so 
connected to the private sector one cannot be disconnected from 
the other; is that correct?
    General Alexander. That's correct.
    Senator Graham. We don't have a little bubble that you can 
protect. If systems go down, if power systems go down, it 
affects you. If financial services are disrupted, it would 
affect you. You can just go on and on with how an attack on 
critical infrastructure could affect our national security.
    Have you talked to Senator Whitehouse about his proposed 
solution of dealing with critical infrastructure?
    General Alexander. I have not, not the latest one. I have 
talked to Senator Whitehouse in the past and found that he and 
I are essentially in sync on those discussions. But I haven't 
seen his latest.
    Senator Graham. I am with him. The concept is that we would 
identify critical infrastructure in the private sector, like 
power supply, financial services, things that every American 
depends on, and if they went down would hurt us as a Nation, 
hurt our economy, and could do harm to our citizens. I think 
his concept is that, let's identify our critical infrastructure 
and allow the industries in question, like the utilities, to 
come up with best business practices within their industry and 
submit their proposal to a collaborative body of government 
agencies, with DHS certainly a key component of it.
    If these best business practices are in the minds of the 
government meaningful, we would grant liability protection to 
those who met those standards. It would be voluntary.
    Does that sound like a reasonable way to proceed?
    General Alexander. Senator, I think in part that's 
reasonable. The issue that it leaves not addressed is the 
information-sharing part.
    Senator Graham. Right. That has to be done. That's a 
critical part of it.
    Let's assume that we get the information-sharing right. We 
have two ways to do this, through a regulatory regime--my 
belief is that regulations would be expensive and the threats 
move too fast for it to work. Do you agree with that?
    General Alexander. I do. In fact, I would say so if you 
separate the two and you have liability and information-sharing 
on one side and then you have liability and standards and 
regulation on the other side that work together, in essence 
that's essentially where the Executive order is trying to go as 
well.
    Senator Graham. Right. So I would just want to encourage 
you. We'll meet with Senator Whitehouse and others and see if 
we can find a pathway forward that would allow the private 
sector to set the standards in the critical infrastructure 
area, and the payoff would be liability protection, because 
this is an ever-changing threat.
    Finally, what kind of damage could be done through a cyber 
attack? Start with nation states, then criminal organizations. 
What kind of threat are we facing?
    Finally, in South Carolina our database at the Department 
of Revenue was hacked into and every citizen's Social Security 
number and a lot of business information was stolen, causing 
the State of South Carolina a lot of chaos in trying to provide 
identity theft protection to our citizens. This was a massive 
intrusion into a State system where over 3 million Social 
Security numbers were seized.
    Can you just quickly tell the committee the kind of threats 
we face, and if Congress doesn't get involved, I think we will 
regret the day.
    General Alexander. Generally speaking, all our systems 
today, our power systems, our water systems, our governments, 
our industry, depend on computers, depend on computerized 
switches, depend on these networks, all are at risk. If an 
adversary were to get in, they could essentially destroy those 
components, make it so that you either had to replace them or 
get somebody to come in and replace each part of that.
    In the power grid as an example----
    Senator Graham. They could do as much or more damage than 
the attacks of September 11?
    General Alexander. That's correct, I think it would. If you 
look at what happened in 2003 in the northeast power 
disruption, that was caused by a software failure. That was not 
somebody attacking us. That was a software failure.
    But now think about somebody imposing a software failure, 
not just in the northeast, but across all of those and 
cascading that across the United States, and breaking some of 
the transformers, which would be very difficult to replace. We 
would have significant power outages for extended periods 
throughout the country.
    Think about Wall Street if we were to go in and--I know 
Senator Blumenthal was asking questions on this earlier, about 
what happens if you attack Wall Street and you destroyed the 
data that they need at the end of the day to ensure all the 
books are right. If you can't close those books, which are done 
today by computers, you have a significant problem in our 
banking infrastructure, not just ours but global.
    Senator Graham. Since our time is up, if you could submit 
to the committee a worst-case scenario from a cyber attack, a 
September 11 scenario.
    General Alexander. Yes, sir.
    [The information referred to follows:]

    I'd like to walk you through an intellectual thought exercise that 
we, at U.S. Cyber Command (CYBERCOM), use to illustrate a potential 
significant cyber event.
    This event is totally fictitious. It is plausible, credible, and we 
have observed full scope adversaries having developed or currently 
developing these capabilities. However, we have no indications that 
anyone is actively attempting to conduct this scale of operation in the 
near-term against U.S. systems.
    From a planning perspective, we envision any global cyber campaign 
to consist of three components; regional, U.S. domestic, and global, 
all three occurring simultaneously. While envisioned to be masked, the 
intention of the adversary would be to effectively paralyze the ability 
of the United States to project power globally and to marshal forces 
regionally.
    Minute 1 would consist of attacking initial military response in 
the affected region combined with an anti-access strategy against U.S. 
regional logistics, i.e. U.S. Pacific Command. As a domestic diversion, 
U.S. financial institutions may be significantly affected.
    Minute 2 would consist of developing a regional internal disruption 
focused on civilian infrastructure and causing internal regional panic. 
This may be combined with affecting U.S. Transportation Command's 
ability to resupply the affected region and/or geographic combatant 
commander and other U.S. Government networks, i.e. intelligence 
agencies, commercial network venders, et cetera.
    Minute 3 would consist of disrupting primary power generation, 
which would force the three components to rely on back-up and/or 
emergency power. Since back-up power generation is far less than 
primary grids, significant systems in communication, visibility, C2, 
and coordination would be stressed and potentially fail.
    Minute 4 would be focused at command and control in the affected 
region and the Gulf Cooperation Council. As a potential icing on the 
cake, U.S. Air Traffic Control may be affected to cause domestic U.S. 
panic.
    Although depicted as a 4 minute scenario, I submit that we've 
slowed the scenario down. This is really a 4 second scenario.
    The implication is this: within seconds, not only could the real 
ability for the United States to globally project power be put at risk, 
the confidence of allies to rely on the credible ability for the United 
States to globally project power be put at risk, which is just as 
significant.

    Senator Graham. Finally, the Executive order, I think, is a 
result of Congress' inaction and I don't blame the President at 
all. Do you believe it would be prudent for Congress to enhance 
the Executive order, that we need legislation in this area 
beyond the Executive order to make the Nation safe?
    General Alexander. I do.
    Senator Graham. Thank you.
    Chairman Levin. We're expecting Senator Kaine back at any 
minute. Senator Inhofe has a question and then I'll have a 
question, and then we'll turn it over to Senator Kaine.
    Senator Inhofe. General Kehler, in response to the question 
that was given to you by Senator Graham--he was talking about 
what's going to happen to you under sequestration, and then you 
qualified it and said, well, that is assuming it's going to be 
cut straight across-the-board. Of course, that would be 
damaging, because that's done, in my opinion, without thought. 
It's just a cut across-the-board.
    Now, I introduced legislation 6 weeks ago anticipating that 
maybe sequestration would happen. I didn't think it would, but 
I thought in case it does, to take the same top line as to how 
it's going to affect a whole division of bureaucracies and then 
say, in the case of you and of anything having to do with 
defense, take that and adhere to that top line, but allow the 
Service Chiefs underneath that to make those decisions, and 
would that be better?
    All the Service Chiefs, all five including the Guard 
Chief--I contacted them, too--said yes, that would make a world 
of difference. The devastation is still there, but not as 
devastating.
    Would you agree with that?
    General Kehler. Yes, sir, I would.
    Senator Inhofe. Would you, General Alexander, too?
    General Alexander. I would, Senator.
    Senator Inhofe. Thank you.
    Chairman Levin. Thank you.
    Now Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, Generals Kehler and Alexander.
    General Kehler, I just want to focus a little bit on some 
of your testimony that grabbed my attention. The opening 
comment that you made and that you repeated verbally today is 
uncertainty and complexity continue to dominate the national 
security landscape. I agree with that and I want to wrestle 
with questions that many of my colleagues here have asked about 
fiscal uncertainty.
    We can't necessarily reduce the uncertainty in the broader 
world, but it is in our power as Congress to try to reduce some 
of the fiscal uncertainty that you're dealing with. One week 
ago yesterday, so the first weekday after the sequester cuts 
went into effect, I visited DOD and spoke with Secretary Hagel 
and General Odierno, Deputy Secretary Carter. I spoke with 
General Welsh on that same day here in my office.
    Then I went downstairs and didn't talk to the brass, but I 
went to the cafeteria and just went table to table. In three 
tables, just in the random three tables I went to, I have 
Active Duty assigned to the Pentagon, veterans who were there 
having lunch with friends, DOD contractors, DOD civilians, and 
some Guard representatives who were there for a planning 
meeting.
    They were all sharing their concerns about sequester, CR, 
and the overall climate of uncertainty as it affects them and 
as it sends a message about our commitment to the mission, to 
the DOD mission. One affect of the uncertainty that I think 
just has really dawned on me and increasingly in your testimony 
is the effect on personnel.
    So a couple of the comments in your testimony. On page 2: 
``Fiscal uncertainty presents our people with an unprecedented 
combination of professional and personal concerns as well. The 
all-volunteer military and civilian team has performed beyond 
our greatest expectations and is the envy of the world. But 
some of the best young uniformed and non-uniformed people 
assigned to STRATCOM are questioning their future. The 
uncertainty surrounding civilian hiring restrictions, salary 
freezes, and the possibility of unpaid furloughs is especially 
troubling since,'' as you testified earlier, ``60 percent of 
STRATCOM headquarters staff and much of the essential workforce 
which supports our missions and sustains our mission-critical 
platforms and systems are civilians.''
    Then with a specific reference to cyber, at the end of your 
testimony--and this is General Kehler's testimony, but I'm sure 
it's something that General Alexander resonates with as well: 
``Improving the DOD's ability to operate effectively in 
cyberspace requires investment in five major areas.'' Then you 
go over the areas. ``But of these, the most urgent intelligence 
is increasing the numbers, training, and readiness of our cyber 
forces.''
    Again, it's about personnel and the choices that people are 
making about their own future. It strikes me, and I just would 
like to hear you talk about this a bit more--I know that 
Senator Blunt raised it--it strikes me that you have two issues 
of significant concern as you're trying to grow a cyber talent 
pool within DOD.
    The first is the competition from the outside world, which 
from a salary and benefits standpoint I would imagine for these 
professionals can be pretty intense. The second is a fiscal 
uncertainty that people would have if they chose the path of 
public service. What would they face in terms of furloughs or 
pay cuts or pay freezes? What is the commitment that we have?
    I would like to hear each of you just talk about how you 
deal with the recruiting and retention in this environment when 
you not only have a global uncertainty, but tough economic 
competitors in the private sector and fiscal uncertainty as 
well.
    General Kehler. Senator, I would only add a couple of 
remarks. Number one, we have the most magnificent people 
anywhere. They're the envy of every other military in the 
world. They're like that for a reason. They're extraordinarily 
talented and they are very patriotic.
    So normally I don't worry much about them other than to 
make sure that as a leader I'm doing everything that I can to 
take care of them and make sure that they're going to be there 
and that we're taking care of them and their families. That's 
been an interesting challenge, of course, over the last 10 or 
12 years, with wounded and other things.
    But I think as we look to the future here what I'm hearing 
from some of our folks is particularly troubling, and it gets 
back to uncertainty. As we all--of course, we all want the 
economy to get better and we'd like it to be better soon, as 
fast as it can possibly happen. But when that happens and as 
that happens, I guess is a better way to say it, as that 
happens, then this competition for our best and brightest 
talent is going to go up. In that environment, I'm concerned 
that as they are weighing, not the personal threats to 
themselves, which they are willing to take, but when they are 
weighing the financial certainty for their families, that 
they'll come down on a different side than government service.
    So I think that's an important question for us. We have an 
all-volunteer military. It's been stressed in a lot of 
different ways. This is another stressor on it. So I think we 
need to be mindful of this because we are competing for the 
best and brightest talent. We've been getting it. I believe 
again they are magnificent people that raise their right hand, 
whether that's a civilian or uniformed or whether they serve as 
a contractor. It doesn't seem to much matter; they're all 
working hard to do the right things.
    It's preserving that, and there is an impact here with what 
is going on. There is an impact on them. It is coming to our 
level. They are telling us that there's an impact on them, and 
we need to be mindful of it.
    Senator Kaine. General Alexander, could you comment 
additionally?
    General Alexander. Senator, two broad areas. First, I agree 
with everything that you read there. I think it's 100 percent 
on track.
    We're impacted in CYBERCOM in two areas. The CR impacts our 
ability to train more and we need to do that to get this force 
stood up. I think by singling out the civilian workforce for 
furloughs we've done a grave injustice. We're trying to get 
people to come in and support us in this technical area. People 
are leaving industry to come in and work with us. Now that they 
get there, they're saying: Did I make the wrong decision? 
You're going to furlough me now X percent of the time. I 
already took a salary reduction to come to work for you. I 
think it's a great thing for our Nation. But if this is the way 
it's going to be, I can't afford to do this to my family.
    That's a big impact across our workforce and we shouldn't 
do that.
    Senator Kaine. Let me stay on cyber and just move to a 
related area that raised some questions earlier as well. That 
is trying to pass the right kind of balanced cyber legislation. 
A lot of it is a dialogue between policymakers and the private 
sector and they have legitimate concerns. Thus far in your own 
experience, has the private sector expressed those concerns in 
the right way? Namely, has it been a series of, don't do this 
to us, don't do that to us, don't do this to us, or have they 
been offering ways that we can accomplish the goal in a 
productive and constructive way? Because if the answer to that 
is no, that might be something that we could help with, to try 
to smoke out the positives, the positive and constructive 
advice about how to balance some of these important 
considerations.
    General Alexander. Senator, I think the big problem is 
every sector approaches it slightly different. So what you get 
is 18, 20 different views, groups of views, on cyber and cyber 
legislation, what we need and how we need to do it. I think the 
Executive order, that which Senator Graham and Senator 
Whitehouse are referring to, are in the right way: Get industry 
to sit down with the government officials, put the Director of 
NIST in charge, bring all our technical talent there, and start 
talking with industry on the best way sector-by-sector, and 
then bring that back up to the administration, to you, and say: 
Here's what we think is the way to work with industry to help 
make their networks more resilient.
    What you'll find is each part of our industry sectors are 
at different states of cyber readiness, if you will, and that's 
the real problem that we face. I've talked to lots of Chief 
Executive Officers out there on this topic area and you get 
from one side to the other. When you do that, when you really 
start drilling down, you see that some of them really need 
help, want help, are concerned about regulation and how we do 
it. Some of them don't need help and are concerned about the 
``help'' we're going to give them.
    So I think what we have to do is address each of those 
concerns and do it in a fair and equitable way. I think that 
Executive order reach-out is a great step in the right 
direction.
    Senator Kaine. Thank you both very much.
    Mr. Chairman, thanks.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Inhofe, you all set?
    If there are no other questions, we just want to thank you 
both for your great service to our country, your great 
testimony this morning, thoughtful, considered, and we are very 
appreciative of it. We will stand adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                                  IRAN

    1. Senator Inhofe. General Alexander, a recent Wall Street Journal 
article titled ``Banks seek U.S. Help on Iran Cybersecurity'' states 
that ``major U.S. banks are pressing for government action to block or 
squelch what Washington officials say is an intensifying Iranian 
campaign of cyber attacks against American financial institutions.'' 
The article asserts that some of the financial institutions are 
concerned by the lack of U.S. Government response arguing that the 
banks ``can't be expected to fend off attacks from a foreign 
government.'' According to the article, ``U.S. officials have been 
weighing options, including whether to retaliate against Iran.'' While 
the Iranian attacks referenced in this article appear to be fairly low 
level nuisance efforts, as attacks grow more sophisticated, or are 
attempted by more sophisticated nations, the role the Department of 
Defense (DOD) will play in protecting the United States becomes 
increasingly more important. What role do you believe DOD should play 
in events such as the recent Iranian attacks on the financial sector 
and do you believe there is an offensive role DOD should be able to 
utilize via cyberspace?
    General Alexander. [Deleted.]

    2. Senator Inhofe. General Alexander, is there a threshold that a 
country must cross before we consider it an attack?
    General Alexander. The President, in consultation with both 
civilian and military advisors, would determine a threshold and decide 
on an appropriate response to any form of attack.

                            CYBER DETERRENCE

    3. Senator Inhofe. General Alexander, in a letter from the 
committee last year you were asked if you believed we are deterring or 
dissuading our adversaries in cyberspace. You responded ``no, while 
work is ongoing in each area, much remains to be done across both the 
public and private sectors.'' What more must be done and what can be 
accomplished within DOD to shift the mindset of those looking to hold 
our economic and national security interests at risk in the cyber 
domain?
    General Alexander. There is much to be done as a nation to deter 
and dissuade adversaries in cyberspace from the perspective of both 
policy and developing viable options. DOD is constantly improving cyber 
defenses to deny benefits and increase costs to any adversary. We are 
close to implementing a new Standing Rules of Engagement but do not yet 
have an Executive order that would allow us to defend the Nation's 
critical cyberspace resources.
    A whole-of-nation approach to cyber deterrence is needed. The 
military deterrence initiatives under development will be most 
effective if our efforts are coordinated with other agencies of the 
U.S. Government. The private sector is also part of this equation since 
most U.S. infrastructure is privately owned. Finally, the United States 
must project a unified approach to deterrence that clearly demonstrates 
to allies and adversaries alike our commitment to defend and maintain 
the availability of cyberspace.

    4. Senator Inhofe. General Alexander, what role could the 
development of offensive cyber capabilities play in cyber deterrence 
and do you view this as a matter of urgency?
    General Alexander. The development of offensive cyber capabilities 
will play a critical role in cyber deterrence, but capabilities alone 
are not the answer. It is of utmost urgency that we develop these 
capabilities, appropriate polices, and delegated authorities to act as 
soon as possible. These capabilities will take time, will, and 
resources. We are at risk now. Overt development of such capabilities--
and the authority to employ them--sends a clear, unambiguous message 
that DOD can respond to cyber threats, intrusions, and attacks if the 
President and DOD leadership so chooses. A robust, comprehensive set of 
cyberspace capabilities provide a range of options to our 
decisionmakers. For this reason, the force generation priority for DOD 
Cyber Mission Forces remains the Cyber National Mission Teams, which 
possess offensive cyber capabilities. Since the end of World War II, a 
major role of the DOD has been to assess emerging military threats from 
overseas and develop technologies and military constructs to counter 
such threats. Threats in cyberspace must be treated the same way. If 
the DOD does not develop effective offensive capabilities in cyberspace 
and clear rules of engagement for using them, adversaries will have 
little to fear of a U.S. response, and therefore, have little 
motivation for restraint.

                                 CHINA

    5. Senator Inhofe. General Alexander, recent estimates suggest that 
China has some 564 million internet users, almost doubling the number 
of internet users in the United States. Taking into account China's 
desire to compensate for military shortfalls with cyber capabilities as 
well as recent public reports describing well-coordinated campaigns by 
the People's Liberation Army against the United States, how at risk or 
vulnerable are we in the cyber domain if China sought to engage us in 
an armed conflict?
    General Alexander. [Deleted.]

    6. Senator Inhofe. General Alexander, what in your opinion will be 
necessary to deter China from making such unwise decisions?
    General Alexander. Three things are necessary. First, working with 
other agencies of the U.S. Government, and in close cooperation with 
allies and partners we need to clearly define acceptable and 
unacceptable behavior in cyberspace. Second, we must have a defensible 
architecture, arrayed in depth so anomalous activity is easily 
detectable and defensive actions may be efficiently synchronized. 
Finally, the United States must have a credible, demonstrated offensive 
cyber capability the employment of which can be justifiably warranted.

    7. Senator Inhofe. General Alexander, how capable are the Chinese?
    General Alexander. [Deleted.]

    8. Senator Inhofe. General Alexander, do you agree that Chinese 
cyber capabilities pose an existential threat to the United States?
    General Alexander. No.

 defense science board report on nuclear vulnerabilities through cyber
    9. Senator Inhofe. General Kehler and General Alexander, in a 
January 2013 report by the Defense Science Board (DSB) on advanced 
cyber threats and the implications for military systems, the DSB's top 
recommendation was to ``Protect the nuclear strike as a deterrent'' and 
to take ``immediate action to assess and assure national leadership 
that the current U.S. nuclear deterrent is also survivable against the 
full-spectrum cyber Tier V-VI threat.'' Do you agree with the DSB's 
recommendations?
    General Kehler. I support the DSB recommendation. Deterring nuclear 
attack with a safe, secure, effective nuclear deterrent force remains 
my #1 priority. U.S. Strategic Command (STRATCOM) is working closely 
with U.S. Cyber Command (CYBERCOM), the Office of the Secretary of 
Defense (OSD), and others to evaluate our nuclear command and control 
systems against a range of threats including cyber, and will advocate 
for updates as appropriate. Cyber threats, whether from nation states 
or individuals, are being closely monitored today and as we develop the 
next generation of nuclear command and control.
    General Alexander. CYBERCOM and the National Security Agency (NSA) 
absolutely support activities to preserve the integrity of our Nuclear 
Command, Control, and Communications (NC3) enterprise. In 2011, the 
collective General Officer Staffs of CYBERCOM and STRATCOM convened a 
conference where the primary focus was ``mission assurance.'' 
Acknowledging the varying threat vectors from all domains, we work 
together, along with the DOD CIO and DISA, to ensure survivable, 
reliable, and assured NC3 platforms.

    10. Senator Inhofe. General Kehler and General Alexander, do you 
agree that a successful DOD cyber strategy must include a deterrence 
component?
    General Kehler. Yes, a successful DOD cyber strategy necessarily 
includes elements of deterrence. In broader terms, I would suggest that 
cyber is only one of many capabilities that form the overall DOD 
deterrence strategy. We enhance our overall deterrence posture by 
convincing adversaries they cannot achieve their objectives through 
cyberspace or any other domain; and that they will run the risk of 
unacceptable U.S. response at the time, place, and via the domain of 
our choosing. Such a deterrence posture includes all elements of 
national power.
    General Alexander. Absolutely. Under the National Military Strategy 
for Cyberspace Operations and the current Defense Strategy for 
Operating in Cyberspace, my team at Fort Meade has been working with 
the Joint Staff and OSD on building a framework for a cyberspace 
deterrence strategy.

    11. Senator Inhofe. General Kehler and General Alexander, do you 
believe that the United States should preserve the right to retaliate 
against a full-scale cyber-attack using nuclear weapons?
    General Kehler. The United States retains the right to respond to a 
full-scale cyber attack in a manner and at the time and place of the 
President's choice. That being said, the 2010 Nuclear Posture Review 
(NPR) stated that, ``The United States would only consider the use of 
nuclear weapons in extreme circumstances to defend the vital interests 
of the United States or its allies and partners.'' Further, the NPR 
issued a ``negative security guarantee'' regarding nuclear response 
which stated ``the United States will not use or threaten to use 
nuclear weapons against non-nuclear weapons states that are party to 
the NPT and in compliance with their nuclear non-proliferation 
obligations.'' I also note that decisions on the use of nuclear weapons 
are reserved exclusively for the President of the United States.
    General Alexander. The President has stated that all options are to 
be considered in the defense of the Nation. We must therefore, consider 
including a nuclear response in the most extreme circumstance. As 
stated in the International Strategy for Cyberspace, ``we reserve the 
right to use all available means--diplomatic, information, military, 
and economic--as appropriate and consistent with applicable 
international law, in order to defend our Nation, our allies, our 
partners, and our interests.''

    12. Senator Inhofe. General Kehler and General Alexander, what 
could a cyber-vulnerability in our nuclear command and control mean for 
deterrence and national security?
    General Kehler. [Deleted].
    General Alexander. A cyber vulnerability in our Nuclear Command and 
Control (NC2) or Nuclear Command, Control and Communication (NC3) 
system could undermine our deterrent strategy. The DOD CIO established 
the NC3 Cyber Risk Assessment Tiger Team in May 2012 to perform a 5-
phase study to examine the cyber vulnerabilities in the NC3 system. One 
of the study phases will focus specifically on cyber vulnerabilities 
associated with Nuclear Force Direction, and will include corrective 
actions and a timeline for mitigation.

                   CYBER COMMAND AS A UNIFIED COMMAND

    13. Senator Inhofe. General Kehler and General Alexander, I 
understand that a decision has been made by the Joint Chiefs to 
recommend that the Secretary of Defense elevate CYBERCOM from its 
current position under STRATCOM to become its own Unified Command. Is 
this true? If so, do you agree with the decision and why do you believe 
the existing command relationship is no longer sufficient?
    General Kehler. A Joint Chiefs of Staff recommendation on the 
status of CYBERCOM is under consideration by the Secretary of Defense, 
and to date no decision has been reached. As military cyber operations 
to protect DOD networks and defend the Nation grow in complexity and 
importance, it is prudent to align our command and control arrangements 
for maximum effectiveness. While the current arrangement is not causing 
undue operational impediments, elevating CYBERCOM to a Unified Command 
would shorten and clarify the chain of command between its Commander 
and the Secretary of Defense and President. Regardless of if or when 
that decision is made, it is essential that the Commander of CYBERCOM 
remains dual-hatted as the Director of the NSA.
    General Alexander. The Chairman of the Joint Chiefs of Staff has 
made a recommendation to the Secretary of Defense regarding the status 
of CYBERCOM, but a decision has yet to be made. Considerations are 
being made with regard to the complexity of the environment, and the 
need for rapid decisionmaking. Elevating CYBERCOM to a Unified Command 
would increase decision speed between the President, the Secretary of 
Defense, and Commander CYBERCOM. In addition, it would elevate and 
align advocacy for prioritization and allocation of resources under one 
commander focused exclusively on cyber. Regardless of the Secretary's 
decision going forward, it is imperative that Commander CYBERCOM remain 
dual-hatted as Director of the NSA.

    14. Senator Inhofe. General Kehler and General Alexander, just over 
2 years ago we were told that the command structure had become 
bureaucratic when then Secretary Gates recommended the closure of Joint 
Forces Command. With an annual cost of $240 million to operate, it was 
determined that the proliferation of combatant commands in some cases 
had become costly and burdensome. Will there be a cost associated with 
making CYBERCOM a unified command?
    General Kehler. If the decision is made to elevate CYBERCOM to a 
Unified Command, there will likely be some costs associated with the 
combatant command headquarters portion of that decision. Those costs as 
well as the costs associated with all the combatant command 
headquarters are currently under review as part of the Secretary of 
Defense's strategic management review. We are working with the Joint 
Staff and OSD to accurately address these costs. In the meantime we 
continue to plan and advocate for the increased cyber operational 
capacity and capabilities needed to meet national and combatant command 
requirements. The Joint Staff is currently analyzing the financial 
impact.
    General Alexander. Yes, there will likely be a cost associated with 
elevating CYBERCOM to a unified command if that decision is made, but 
we are working closely with the Joint Staff and OSD to review all 
programs as part of Secretary Hagel's efforts to ensure optimal defense 
posture for the decade ahead.

                 CYBER HOMELAND DEFENSE AND DUPLICATION

    15. Senator Inhofe. General Alexander, I understand there is some 
confusion over the role the Department of Homeland Security (DHS) would 
play in an attack on the Homeland in cyberspace. Do you believe that 
DHS should have anything more than a supporting role to DOD in a cyber-
attack against the Homeland?
    General Alexander. The Nation's cyber security is a shared 
responsibility. I work closely with Secretary Napolitano at DHS, as 
well as with Director Mueller at the FBI to coordinate and synchronize 
our roles and responsibilities in cyberspace. DHS is the lead Federal 
department responsible for coordinating national protection against, 
mitigation of, and recovery from domestic cyber security incidents, 
protecting critical infrastructure, and securing the Federal civilian 
systems (''.gov''). In essence, DHS works to prevent attacks by raising 
network security standards, sharing information, and developing a more 
resilient infrastructure. The FBI is the lead for investigating and 
mitigating adversary cyber activity in U.S. domestic space. This 
includes nation state actors using U.S. infrastructure.
    When defending the Nation from a nation state attack, or actors 
that present nation state like capabilities, DOD is in charge. DOD's 
cryptologic platform allows the DOD to see activity in foreign 
cyberspace, analogous to radar's role in air defense. With this 
information, NSA is able to provide intelligence on adversary 
capabilities and intentions as well as indications and warnings of 
cyber attacks on U.S. infrastructure. CYBERCOM leverages NSA's 
technical capabilities and insights to develop and employ response 
options.

    16. Senator Inhofe. General Alexander, I assume that you agree that 
the Secretary of Defense as directed by the President is the individual 
responsible for defending the United States against a cyber attack from 
outside our borders. Capabilities-wise, do you agree that DOD and the 
NSA have the most comprehensive set of resources to defend the Nation 
from a foreign cyber attack?
    General Alexander. Yes.

    17. Senator Inhofe. General Alexander, do you agree that 
establishing bureaucracies and duplicative efforts at DHS would be 
unwise?
    General Alexander. Yes. We've worked hard at the leadership level 
of NSA/CYBERCOM, DHS, and FBI to define and articulate our roles and 
responsibilities to minimize duplication and close gaps in the cyber 
mission area. Ensuring the Nation's cybersecurity is a shared 
responsibility, with Department of Justice (DOJ)/FBI, DHS, and DOD, 
each carrying out important roles and responsibilities as part of the 
broader U.S. Federal Cybersecurity Operations Team.

                     MILITARIZATION OF THE INTERNET

    18. Senator Inhofe. General Alexander, a recent statement by the 
American Civil Liberties Union (ACLU) argues that locating a 
government-wide information sharing program ``in a military agency like 
the NSA would create significant new threats to Americans' privacy, and 
must be avoided.'' Do you agree with the ACLU's statement?
    General Alexander. I strongly disagree with that statement. The men 
and women of the NSA and CYBERCOM are deeply committed to compliance 
with the law and the protection of privacy rights. This commitment is 
reinforced by a rigorous compliance program, extensive training and 
education, and multi-layered oversight by the DOJ, the Office of the 
Director of National Intelligence, the OSD, the Foreign Intelligence 
Surveillance Court, and multiple committees of Congress, as well as the 
NSA's own Inspector General. I am totally confident that any private 
sector cyber threat information received by NSA will be handled in a 
way that fully assures U.S. personal privacy and civil liberties.

                       OFFENSIVE CYBER OPERATIONS

    19. Senator Inhofe. General Alexander, in the DSB's recent report 
on cyber, the DSB suggests that the United States should build and 
maintain world-class offensive cyber capabilities. However, they state 
that ``preparing for full-scale force-on-force cyber battle is not 
well-understood.'' The report goes on to say that DOD needs to 
significantly increase the number of qualified cyber warriors and 
enlarge the offensive cyber infrastructure commensurate with the size 
of the threat.'' Do you agree with their assessment?
    General Alexander. I agree. The focus of their assessment is that 
we don't have the workforce in place to accomplish the tasks. In 
coordination with our Service cyber components, CYBERCOM is forming, 
training, certifying, and fielding a world class cyber force--
approximately 6,000 strong. We recently identified 42 specific work 
roles required to plan and execute cyberspace operations. We have 
developed the standards and skills required to operate with those 
proficiencies in work roles. We are identifying existing training and 
in many cases developing training that will satisfy the knowledge, 
skills, and ability requirements. Another challenge, correctly 
identified by the DSB, is building world-class capabilities. We must 
prepare not only for the offensive engagement, but must maintain 
defensive capabilities; both forces and architecture. Over time we will 
develop the people and force structure to integrate both world-class 
offensive and defensive cyber capabilities through our Cyber National 
Mission Teams, Cyber Combat Mission Teams, and Cyber Protection Forces.
    The development of the Nation's Cyber Mission Force will culminate 
in fiscal year 2016 with 133 total teams: 21 teams for a Cyber National 
Mission Force (CNMF), 44 teams for a Cyber Combat Mission Force (CCMF), 
and 68 teams for a Cyber Protection Force (CPF). The presentation of 
these forces will be as follows:

        <bullet> CNMF

                <bullet> 13 Cyber National Mission Teams (CNMT) of 64 
                personnel each.
                <bullet> 8 Direct Support Teams (DST) of 39 personnel 
                each (supporting the 13 CNMTs).

        <bullet> CCMF

                <bullet> 27 Cyber Combat Mission Teams (CCMT) of 64 
                personnel each.
                <bullet> 17 Direct Support Teams (DST) of 39 personnel 
                each (supporting the 27 CCMTs).

        <bullet> CPF

                <bullet> 48 Cyber Protection Platoons (CPP) of 39 
                personnel each (supporting the lines of effort for 
                ``Defend the Nation'', ``DODIN'', and ``Military 
                Services'').
                <bullet> 20 CPPs of 39 personnel each (supporting 
                Combatant Commands).

    20. Senator Inhofe. General Alexander, do you agree that we should 
also be preparing and build our forces to support preemptive cyber 
operations?
    General Alexander. Yes.

    21. Senator Inhofe. General Alexander, is the number of cyber 
warriors you have today commensurate with the threat we face? If not, 
what is that number?
    General Alexander. [Deleted.]

    22. Senator Inhofe. General Alexander, is the size and capability 
of the offensive cyber infrastructure commensurate with the size of the 
threat? If not, why not?
    General Alexander. [Deleted.]

            OVER-CLASSIFICATION OF CYBER-RELATED INFORMATION

    23. Senator Inhofe. General Alexander, one of your predecessors, 
General Michael Hayden, has argued that the Government classifies too 
much information on cybersecurity vulnerabilities. Do you agree with 
General Hayden's assessment that this stuff is overprotected, and if 
so, why do you suspect General Hayden feels this way?
    General Alexander. General Hayden's statements are consistent with 
the findings of the 9/11 Commission and the Reducing Over-
Classification Act of 2010 in acknowledging the challenges of over-
classification of national security information. In accordance with 
Executive Order 13526, the Secretary of Defense delegated Original 
Classification Authority to me as the CYBERCOM Commander. I am aware of 
the dangers of over-classification and my obligation to classify 
national security information at the lowest appropriate level.

    24. Senator Inhofe. General Alexander, do you believe that the 
declassification of threat signatures could help facilitate increased 
information sharing between the public and private sector?
    General Alexander. [Deleted.]

      LINKAGE BETWEEN NUCLEAR REDUCTIONS AND NUCLEAR MODERNIZATION

    25. Senator Inhofe. General Kehler, the 2010 NPR made clear the 
linkage between investments in nuclear modernization and the ability to 
make reductions in the U.S. nuclear arsenal: ``by modernizing our aging 
nuclear facilities and investing in human capital, we can substantially 
reduce the number of nuclear weapons we retain as a hedge against 
technical or geopolitical surprise.'' Please explain the linkage 
between nuclear modernization and nuclear reductions inherent in the 
2010 NPR and in the New START Resolution of Ratification--and how that 
linkage guides your assessment of our nuclear force posture.
    General Kehler. The United States retains a nondeployed stockpile 
of weapons to compensate for the limitations of our aging production 
facilities--especially our uranium and plutonium processing 
capabilities--as well as to mitigate technical risk in our deployed 
weapons and hedge against geopolitical uncertainty. We need to complete 
the design and construction of the Uranium Capabilities Replacement 
Facility at Y-12, and invest in an interim plutonium production 
capability to meet the stockpile's near-term maintenance, surveillance, 
and life extension requirements. Over the long-term, sustained 
investment (to include a permanent, modern plutonium facility) is 
needed to develop a modern, responsive nuclear enterprise that will 
allow the United States to reduce its reliance on the nondeployed 
weapon stockpile.

           POTENTIAL CHANGES IN U.S. NUCLEAR WEAPONS GUIDANCE

    26. Senator Inhofe. General Kehler, why is the administration 
contemplating changes to well-established nuclear deterrence 
requirements and targeting requirements--requirements that informed 
your command's support for the New START treaty?
    General Kehler. Due to many factors, to include the pending 
expiration of the START I treaty, sufficient time was not available to 
conduct a nuclear employment policy and guidance review prior to New 
START treaty negotiations. The NPR report discusses the need for an 
updated assessment of deterrence requirements which aligns with my 
belief that a periodic review of policy and guidance makes sense. 
STRATCOM has participated in a study which examined possible changes to 
nuclear employment policy and guidance to align them with the 
principles contained in the NPR. Results of that study and review are 
pending.

    27. Senator Inhofe. General Kehler, what is wrong with the current 
guidance?
    General Kehler. Periodic policy and guidance reviews are prudent 
and appropriate, and do not by themselves indicate that anything is 
``wrong'' with the policy. Historically, most Presidents have reviewed 
nuclear policy and guidance and adjusted these when needed to meet U.S. 
national security needs.

    28. Senator Inhofe. General Kehler, has there been a change in 
global security conditions that warrants a guidance change, and has 
STRATCOM been involved?
    General Kehler. Yes, there have been numerous changes in the 
international security environment since presidential guidance was last 
updated--one of several reasons to conduct such a review. STRATCOM has 
been involved and I was given every opportunity to provide my best 
military judgment on the issues.

                    FLEXIBILITY IN NUCLEAR TARGETING

    29. Senator Inhofe. General Kehler, do you agree we need a spectrum 
of nuclear employment options and flexibility in targeting? Or, is it 
sufficient merely to be able to attack a certain number of Russian 
cities?
    General Kehler. As the combatant commander tasked with strategic 
deterrence, it is my responsibility to develop nuclear force employment 
plans as directed by the President, Secretary of Defense, and Chairman 
of the Joint Chiefs of Staff. The nature and extent of the options and 
flexibility required is a function of that guidance.

               VERIFICATION AND IMPLICATIONS OF CHEATING

    30. Senator Inhofe. General Kehler, what might be the military 
significance of cheating with tactical nuclear weapons, which are not 
covered by New START and where the Russians enjoy a significant 
superiority over the United States?
    General Kehler. The Intermediate-Range Nuclear Forces (INF) treaty 
is the only treaty that limits non-strategic nuclear forces. Both the 
United States and Russia have met all their obligations under the INF 
treaty. I'm hesitant to speculate on the military significance of 
``cheating'' without understanding which provisions of the agreement 
are being violated and the nature of the violation.

    31. Senator Inhofe. General Kehler, has the United States ever set 
up a verification regime for tactical nuclear weapons?
    General Kehler. Although there have been unilateral/reciprocal 
measures to reduce non-strategic weapons (e.g. Presidential Nuclear 
Initiatives), verification measures have not been applied to these 
agreements.

    32. Senator Inhofe. General Kehler, do you think the U.S. 
Government knows how to verify compliance with reductions in non-
strategic nuclear weapons, which can be as small as an artillery shell?
    General Kehler. The physical characteristics of non-strategic 
nuclear weapons would require different verification measures than are 
currently in place for New START. Absent the details of a reduction 
agreement and associated verification regime, I cannot comment on the 
effectiveness of such a program to verify compliance.

                     COST OF THE NUCLEAR DETERRENT

    33. Senator Inhofe. General Kehler, at the House Energy and Water 
Appropriations Subcommittee hearing on the fiscal year 2014 budget, 
Chairman Frelinghuysen asked Don Cook, the Deputy Administrator for 
Defense Programs, if further reductions in the U.S. stockpile would 
save money in the annual budget. Dr. Cook's response was, ``I'd answer 
the question directly by saying not much . . . So not much savings will 
be achieved.'' Do you agree with Dr. Cook that there are not large 
savings associated with reducing the U.S. nuclear stockpile?
    General Kehler. I agree with Dr. Cook's assessment. There are 
significant fixed infrastructure costs required to maintain a safe, 
secure, and effective nuclear deterrent regardless of the size of the 
underlying stockpile. Therefore, we would not immediately expect large 
cost savings associated with reducing the U.S. nuclear stockpile.

    34. Senator Inhofe. General Kehler, according to section 1043, 
``Estimate of Budget Requirements over the 10-year period,'' submitted 
to Congress by DOD last year, the 10-year cost to modernize and sustain 
nuclear delivery systems is estimated at $119 billion, which doesn't 
include the cost of the follow-on ICBM and full costs for the new 
bomber. Also included is another $36 billion over 10 years for nuclear 
command and control, for a total of $155 billion over 10 years, or 
$15.5 billion per year, which amounts to approximately 2.3 percent of a 
$600 billion defense budget. Is this an accurate assessment of DOD 
costs to sustain and modernize the U.S. nuclear deterrent?
    General Kehler. Yes, it is. In the May 2012 report pursuant to 
section 1043 of the National Defense Authorization Act for Fiscal Year 
2012, DOD provided a 10-year cost estimate to sustain a safe, secure, 
and effective nuclear deterrent. Some costs, such as a potential 
Minuteman ICBM replacement or the full cost of a new bomber, were not 
included in this estimate as these efforts were not yet official 
programs of record or their costs extended beyond the report's 10-year 
period.

                        HOMELAND MISSILE DEFENSE

    35. Senator Inhofe. General Kehler, what are the potential benefits 
for the defense of the Homeland of deploying: additional ground-based 
interceptors (GBI) at Fort Greely, AK; additional GBIs at a site on the 
east coast of the United States; an X-band radar on the east coast of 
the United States; and SM-3 block IIA missiles on the east coast of the 
United States or on ships deployed near the east coast?
    General Kehler. Secretary Hagel's 15 March 2013 announcement to 
deploy additional GBIs to Fort Greely will enhance our capacity to 
address a limited ballistic missile threat to the United States from 
North Korea or Iran. Additional GBI sites would add more capacity to 
defend the United States and a variety of options to include an east 
coast missile site are being studied. We are working with the Missile 
Defense Agency to explore potential benefits and locations of 
additional sensors, but it appears installation of an X-band radar on 
the east coast may not track a ballistic missile threat early enough in 
its flight to employ an interceptor. Stationing SM-3 IIA missiles on or 
near the east coast would likely be of limited use because they are 
designed to defeat intermediate-range rather than intercontinental 
ballistic missiles.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                          CHINA'S CYBER THREAT

    36. Senator McCain. General Alexander, on Monday, March 11, 2013, 
the National Security Adviser said, ``specifically with respect to the 
issue of cyber-enabled theft, we seek three things from the Chinese 
side. First, we need a recognition of the urgency and scope of this 
problem and the risk it poses--to international trade, to the 
reputation of Chinese industry, and to our overall relations. Second, 
Beijing should take serious steps to investigate and put a stop to 
these activities. Finally, we need China to engage with us in a 
constructive direct dialogue to establish acceptable norms of behavior 
in cyberspace.'' Would you agree with recent reports that suggest that 
the Chinese Government, and in particular the Chinese military, is 
responsible for the repeated acts of cyber-espionage and cyber-attacks 
on our government and industry?
    General Alexander. [Deleted.]

    37. Senator McCain. General Alexander, would you agree that, absent 
some kind of consequences, China will continue doing exactly what it 
has been doing for years now?
    General Alexander. Yes. The United States is working with allies 
and partners in the region and internationally to make clear to China 
that its behavior is not acceptable to the majority of international 
actors.

    38. Senator McCain. General Alexander, from your perspective what 
is our government doing to raise the consequences on China for its role 
in the blatant theft of billions and billions of dollars of our 
intellectual property?
    General Alexander. [Deleted.]

                             CYBER DEFENSE

    39. Senator McCain. General Alexander, cyber networks within our 
country, both public and private, have been facing a growing cyber 
threat originating from places like China and Iran. Who is responsible 
for defending the United States from an attack originating outside of 
our borders?
    General Alexander. In the event of a foreign cyber attack on the 
United States with the potential for significant national security or 
economic consequences, the DOD, through CYBERCOM and with the support 
of NSA/CSS, would conduct foreign operations to neutralize the threat 
and/or deny the adversary the capability. The DOJ/FBI would lead 
domestic national security operations. DHS would secure Federal 
civilian government networks (``.gov''), and coordinate the protection 
of the critical infrastructure. Post attack, DHS would lead any 
necessary national recovery and reconstitution efforts.

    40. Senator McCain. General Alexander, according to numerous 
reports, economic espionage and intellectual property theft are costing 
our country billions of dollars annually. Given this reality, what is 
the administration doing to curtail economic espionage and intellectual 
property theft?
    General Alexander. [Deleted.]

    41. Senator McCain. General Alexander, what role does CYBERCOM have 
in this respect?
    General Alexander. [Deleted.]

    42. Senator McCain. General Alexander, what is CYBERCOM's role in 
safeguarding intellectual property and national security information 
held by defense contractors who support DOD programs?
    General Alexander. The DOD's Cleared Defense Contractors (CDC), not 
CYBERCOM, are responsible for protecting the intellectual property and 
national security information they hold. In accordance with guidance 
from the Deputy Secretary of Defense, all DOD components, including 
CYBERCOM, are responsible for encouraging eligible CDCs to consider 
participating in the voluntary Defense Industrial Base (DIB) Cyber 
Security and Information Assurance (CS/IA) program and its optional DIB 
Enhanced Cyber Security Services (DECS) component. Additionally, 
section 941 of the National Defense Authorization Act for Fiscal Year 
2013 mandates cyber intrusion reporting by CDCs. This should improve 
our shared understanding of cyber threat activity and our ability to 
respond to potential damage to critical programs if national security 
information and intellectual property are compromised.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt

                NATIONAL GUARD ROLE IN CYBER INITIATIVE

    43. Senator Blunt. General Alexander, what is the cyber expert 
shortfall in CYBERCOM? It has been reported that CYBERCOM wants to 
expand its cyber workforce from 900 personnel to 4,900 troops and 
civilians.
    General Alexander. It is true that CYBERCOM has developed a manning 
construct that, when fully manned, will be approximately 6,000 
personnel. However, those numbers are not increases to CYBERCOM 
headquarters staff. The teams are divided among our Service components, 
in support of three mission areas: defending the Nation from attack, 
support to combatant commanders, and defense of DOD's networks using 
cyber protection platoons. The Service components are much better 
equipped to accurately describe any shortfalls in expertise or gaps in 
force numbers.
    CYBERCOM realizes that the National Guard and Reserves will play a 
critical role in our mission to defend the Nation within the cyber 
domain. The National Guard and Title 10 Reserve Forces represent a 
significant part of the potential capability and capacity of CYBERCOM 
to conduct effective cyberspace operations in both Federal and domestic 
operations. To that end, the CYBERCOM Guard and Reserve Directorate in 
coordination with NORTHCOM and the National Guard Bureau Joint Staff 
will develop a National Guard and Title 10 Reserve Forces Integration 
Framework that builds on using the unique talents and title 32 
authorities of the National Guard and private sector skills within 
Title 10 Reserve Forces into the Cyber Mission Force construct. 
Together we are working in concert with the Service components to bring 
a Total Force approach to this effort.

    44. Senator Blunt. General Alexander, how do you plan to locate, 
hire, and train enough skilled people to provide for the increase in 
demand?
    General Alexander. The Services are currently applying existing 
personnel resources to the Cyber National Mission Teams and will 
continue to do so over the next 2\1/2\ years. Each Service has 
``revamped'' their career fields that feed the cyber workforce to 
maximize utilization of personnel resources to accomplish their 
Service-specific missions as well as needs of joint commanders. 
Additionally, the Services have reprioritized student through-put in 
their technical training schoolhouses and accelerated training 
schedules to fill the teams along the timetable we've established. Even 
with these efforts to reorganize and reprioritize, we know that a 
significant gap in the teams' manning will remain. Included in this 
approach is the pursuit of select National Guard and Reserve Forces who 
have been vetted through the security clearance process and bring 
specialized civilian cyber skill sets, usually along with previous 
Active-Duty military experience, to the fight.
    To attract and retain highly-qualified civilian employees, we have 
at our disposal numerous incentive programs and tools to include: 
Schedule-A hiring authority, superior qualification step increases, 
leave accrual, relocation bonuses, and tuition repayment bonuses. We 
are also partnering with academic institutions where cyber skills are 
being developed and offering opportunities including scholarships and 
internships. Internally, we identify talent in our existing workforce 
by selecting junior employees from other closely-related fields for 
career broadening and developmental opportunities.

    45. Senator Blunt. General Alexander, how can the National Guard 
and Reserve--in partnership with combatant commanders, the FBI, and 
DHS--complement the work being done here in the Homeland?
    General Alexander. Our National Guard and Reserves play a critical 
role in defending the Nation in the air, land, and sea domains. It will 
be no different in the cyber domain. In fact, their title 32 
authorities could enhance DOD's role in responding to local cyber 
attacks and computer security emergencies. I have sat down with the 
Guard leadership, all the adjutant generals from all the Guard, and 
talked about the role and responsibility of the Guard in cyber space. I 
think there are two key things that they can do. Setting up protection 
teams and training them to the same standard as the Active Force, gives 
us additional capacity that we may need in a cyber conflict. It also 
provides us an ability to work with the States, with the Joint 
Terrorism Task Force and cyber forces the FBI has, and with DHS to 
provide additional technical capacity for resilience and recovery.

                 BOMBER PROGRAM AMID FISCAL UNCERTAINTY

    46. Senator Blunt. General Kehler, how will the readiness of our 
bomber fleet be affected by sequester budget cuts, assuming you have 
the flexibility to prioritize and target the cuts? For example, I 
assume a number of bomber pilots' certification will be affected by a 
reduction in their training resources and flying hours.
    General Kehler. The U.S. nuclear deterrent force remains capable of 
responding with overwhelming force to any attack on our country or our 
allies. The Air Force has established a plan to keep sufficient 
aircrews from each nuclear capable bomber platform proficient and 
prepared to meet all of STRATCOM's missions. To bridge the gap until 
more flying hours become available, remaining aircrews will maintain a 
reduced level of mission readiness through ground training and 
simulators. I am concerned that continued reductions to bomber flying 
hours will eventually impact crew proficiency across all mission areas.

    47. Senator Blunt. General Kehler, how do you prioritize decisions 
like these? I have to think that keeping our bomber pilots certified to 
respond to unforeseen global contingencies is pretty important, right?
    General Kehler. Ensuring bomber pilots are certified to respond to 
unforeseen global contingencies is an important part of the U.S. 
nuclear deterrent. STRATCOM emphasizes this priority through 
coordination and planning with the Air Force to keep sufficient 
aircrews from each nuclear capable bomber platform proficient and 
prepared to meet all of STRATCOM's missions. To bridge the gap until 
more flying hours become available, remaining aircrews will maintain a 
reduced level of mission readiness through ground training and 
simulators. I am concerned that continued reductions to bomber flying 
hours will eventually impact crew proficiency across all mission areas.

                         FOREIGN CYBER ATTACKS

    48. Senator Blunt. General Alexander, I just read an article in the 
Times that said China reportedly is calling for international ``rules 
and cooperation'' on internet espionage issues. At the same time, they 
continue to insist the accusations that the Chinese Government is 
involved in hacking attacks amounts to a false smear campaign. Can you 
comment on that, and also tell us what we can do to deter China from 
making unwise decisions in the realm of cyber?
    General Alexander. [Deleted.]

    49. Senator Blunt. General Alexander, how capable do you believe 
they are?
    General Alexander. [Deleted.]

    50. Senator Blunt. General Alexander, have we established clear 
rules of engagement under which CYBERCOM will operate?
    General Alexander. Not yet, but we are making progress. Cyberspace 
is a new area of conflict in which many norms that exist in other 
domains have not yet been established. As a result, we are still 
developing cyberspace specific rules of engagement that have the level 
of fidelity found in rules of engagement for land warfare or other more 
established military activities. The first version of cyberspace 
Standing Rules of Engagement developed to be consistent with the new 
Presidential Policy Directive 20, has been developed and forwarded to 
the Secretary of Defense for approval and is expected to be signed in 
the near-term.

    51. Senator Blunt. General Alexander, which segments of the private 
sector should fall under DOD's responsibility? In other words, which 
elements of the private sector--if attacked--would be considered an 
``extension'' of U.S. Government facilities?
    General Alexander. DOD is responsible for defending the Nation from 
foreign cyber attack, wherever that foreign cyber attack may be 
directed. In the event of a foreign cyber attack on the United States 
with the potential for significant national security or economic 
consequences, the DOD would defend the Nation from this attack by 
conducting foreign cyberspace operations. In a whole-of-government 
effort, the DOJ and FBI would also conduct operations to disrupt the 
threat domestically. The DHS would secure Federal civilian government 
networks (``.gov'') as well as coordinate protection of the critical 
infrastructure. Post attack, DHS would lead any national recovery and 
reconstitution efforts, if necessary.
    The DOD depends on the private sector to sustain its operations--in 
both the short- or long-term--without the goods and services provided 
by a wide range of other elements of the Nation's critical 
infrastructure and beyond. While some such as Energy, Transportation 
Systems, Communications, and Information Technology are obvious, others 
such as Financial Services, Healthcare, and Food and Agriculture are 
also critically important. In the increasingly interconnected and 
interdependent global environment in which the DOD operates, the DOD's 
dependencies on these infrastructures extend beyond the critical 
infrastructure of our Nation to those of our allies and partners where 
we are located.

    [Whereupon, at 12:20 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 19, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

U.S. EUROPEAN COMMAND, U.S. NORTHERN COMMAND, AND U.S. SOUTHERN COMMAND

    The committee met, pursuant to notice, at 9:39 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Blumenthal, Donnelly, Kaine, King, Inhofe, McCain, Chambliss, 
Wicker, Ayotte, Fischer, and Cruz.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Jonathan D. Clark, counsel; Ozge 
Guzelsu, counsel; Richard W. Fieldhouse, professional staff 
member; Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; William G.P. Monahan, counsel; and William K. 
Sutey, professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Adam J. Barker, professional staff member; 
Steven M. Barney, minority counsel; Thomas W. Goffus, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, and Bradley S. Watson.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Mara Boggs, assistant to Senator 
Manchin; Chad Kreikemeier, assistant to Senator Shaheen; Marta 
McLellan Ross, assistant to Senator Donnelly; Karen Courington 
and Mary Naylor, assistants to Senator Kaine; Steve Smith, 
assistant to Senator King; Christian Brose, assistant to 
Senator McCain; Joseph Lai, assistant to Senator Wicker; Brad 
Bowman, assistant to Senator Ayotte; Peter Schirtzinger, 
assistant to Senator Fischer; Craig Abele, assistant to Senator 
Graham; Charles Prosch, assistant to Senator Blunt; and Brooke 
Bacak, assistant to Senator Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning the committee continues its review of the 
missions and operational requirements of our combatant 
commanders in preparation for consideration of the fiscal year 
2014 national defense budget request. We welcome Admiral James 
R. Stavridis, USN, Commander, U.S. European Command (EUCOM) and 
Supreme Allied Commander, Europe; General Charles H. Jacoby, 
Jr., USA, Commander, U.S. Northern Command (NORTHCOM) and 
Commander, North American Aerospace Defense Command (NORAD); 
and General John F. Kelly, USMC, Commander, U.S. Southern 
Command (SOUTHCOM). We thank you all for your service, your 
leadership, and please pass along our gratitude to the men and 
women who serve in your commands for their dedication to the 
Nation and for their sacrifices, as well as for the sacrifices 
of their families whose support is so essential to the success 
of our military and of our Nation.
    Admiral Stavridis, at last year's EUCOM posture hearing I 
said that it was likely your last appearance before this 
committee, and I'm glad I included the word ``likely.'' So now 
we can thank you again for your nearly 4 years now as EUCOM 
Commander and Supreme Allied Commander, Europe, which I believe 
makes you one of the longest serving EUCOM commanders in recent 
history. You've been a steady hand on the tiller during some 
very turbulent times and we all wish you the best in your 
retirement from military service.
    The witnesses before us represent the United States' 
commitment to defend the Homeland, to help our neighbors, and 
to come to the collective defense of our close allies in 
Europe. Yet our ability to meet these commitments has been put 
at risk by the arbitrary budget cuts called sequestration, 
resulting from the budget impasse here in Washington.
    This committee is interested in hearing from each of you on 
how the Continuing Resolution and sequestration are affecting 
military operations and readiness in your areas of 
responsibility (AOR) and what would be the effect if 
sequestration continues.
    Last Friday Secretary of Defense Hagel announced changes to 
our Homeland missile defense posture and plans, including plans 
to deploy an additional 14 ground-based interceptors (GBI) in 
Alaska in order to stay ahead of the evolving North Korean 
missile threat. Two previous intercept flight tests of the 
Ground-Based Midcourse Defense (GMD) system using the latest 
model of the exoatmospheric kill vehicle (EKV), so-called CE-2, 
resulted in failures. Secretary Hagel made clear that we would 
not deploy the new missiles until we have confidence from 
testing that they will work as intended.
    The Missile Defense Agency (MDA) is taking steps to ensure 
that the CE-2 kill vehicle will work reliably and effectively 
before we produce or deploy more. They have already conducted a 
successful non-intercept test in January and an intercept test 
is planned for late this year. MDA is also planning an 
intercept test of the earlier interceptor with the CE-1 kill 
vehicle this summer to demonstrate that the system works as 
intended.
    It is important that we take the time needed to make sure 
that we conduct adequate and operationally realistic testing so 
that we have confidence in the system, i.e., that we fly before 
we buy.
    Friday's announcement also included a plan to increase our 
defenses of the United States against Iranian long-range 
missiles, with more interceptors deployed in the United States 
rather than in Europe. Secretary Hagel also emphasized that the 
U.S. commitment to the North Atlantic Treaty Organization 
(NATO) missile defense remains ironclad. He said that: ``The 
missile deployments the United States is making in phases one 
through three of the European Phased Adaptive Approach, 
including sites in Poland and Romania, will be able to provide 
coverage of all European NATO territory as planned by 2018.''
    We would be interested to hear from General Jacoby and 
Admiral Stavridis about the proposed changes in our missile 
defense plans and posture.
    Our trans-Atlantic relationship with our European allies 
remains fundamental to our national security interests. Nowhere 
is our mutual commitment more fully demonstrated than in the 
NATO-led International Security Assistance Force (ISAF) in 
Afghanistan, where countries from the EUCOM region contribute 
90 percent of the non-U.S. forces in our international 
coalition.
    Despite some public weariness with the Afghan conflict and 
despite problems created for our troops and for our continued 
presence by the rhetoric of President Karzai, the coalition has 
demonstrated its cohesion, adapting an ``in together, out 
together'' approach through the 2014 end date for the ISAF 
combat mission in Afghanistan.
    At the recent NATO defense ministerial, NATO members 
reconsidered an earlier proposal to reduce the size of the 
Afghan forces by one third after 2014. That was followed last 
month with the good news that alliance defense ministers agreed 
to change course and approved maintaining the Afghan security 
forces at their current level of 352,000 through at least 2018. 
This will send an important message of reassurance to the 
Afghans as we draw down U.S. and coalition forces. I understand 
at the NATO meeting several defense ministers also expressed a 
willingness to participate in a possible post-2014 NATO 
training mission in Afghanistan.
    Another issue discussed at the recent ministerial was the 
appropriate role of NATO with regard to Syria. While Syria is 
not in EUCOM's area, its impact is being felt by key allies in 
the region, including Israel and Turkey. As the civil war in 
Syria continues to rage on, President Assad and his associates 
are resorting increasingly to the use of Scud missiles and 
other indiscriminate capabilities that terrorize innocent 
Syrians and increase further the flow of refugees out of Syria.
    Former Secretary Panetta has discussed the possibility of 
more robust options for military support of the opposition last 
year and he agreed to bring this matter to his counterparts in 
Brussels. The recent decisions by the French and the British to 
provide lethal assistance directly to the Syrian opposition 
suggests that the position at NATO is by no means unified. 
Admiral Stavridis, I hope that you'll provide the committee 
with some context of our current thinking compared to that of 
our European partners as it relates to Syria and possible 
additional roles for the alliance beyond the deployment of 
Patriot batteries.
    EUCOM's responsibilities include managing our military-to-
military engagement and cooperation with Russia, including 
through the NATO-Russia Council. This includes Russia's 
cooperation with the movement of coalition equipment out of 
Afghanistan along the Northern Distribution Network through 
Russia and over 110 military-to-military activities between our 
2 militaries last year.
    I hope, Admiral, that you'll provide us with your views of 
the value of and the prospects for further engagement with 
Russia.
    NORTHCOM, which was established after the terrorist attacks 
of September 11, is responsible for the defense of the homeland 
and for providing defense support to civil authorities in 
response to domestic natural or manmade disasters, including 
those that could result from cyber events or attacks. We'd be 
interested in hearing how NORTHCOM and NORAD will contribute to 
the emerging domain of cyber security in the homeland and how 
they will work together with other elements of the U.S. 
Government in response to cyber threats.
    My additional comments on NORTHCOM and on SOUTHCOM will be 
made part of the record, and again we thank you all for your 
attendance and for your great work on behalf of our country.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral Stavridis, General Kelly, and General Jacoby, I 
appreciate the time that you've given me and the rest of the 
members of this committee to fill us in on what is really going 
on. I guess this time, Admiral, this is going to be your final. 
I don't know whether you're going to go into perhaps education 
in some of these areas, but someone's going to benefit from all 
the great experience that you've had and the contributions that 
you've made.
    Now more than ever before, the threats in the AOR and 
around the globe are interconnected. What happens in Europe, 
Latin America, and the Middle East, the Asia Pacific, and 
Africa has the potential of directly impacting our security 
here at home, our Homeland security that we talk about. This is 
particularly true with regards to Iran and North Korea. The new 
leadership in North Korea has escalated tensions in that region 
through provocative statements, military exercises, nuclear 
tests, and the development of a road-mobile missile delivery 
system.
    But my major concern has been down in Iran. Our 
intelligence has told us since 2007 that they're going to have 
the weapon and a delivery system by 2015. It just seems like we 
ignore that. Now, while I'm encouraged that the President has 
reversed his earlier decision from 2009 to reduce the number of 
GBIs by 14, I'm glad that it's going back up by the same 14, 
however that doesn't resolve the problem of the east coast. 
We've talked about this several times, about a third missile 
site on the east coast. The threat is very real and needs to be 
corrected--needs to be addressed.
    Closer to home, violence continues to escalate throughout 
Central and South America and in Mexico as a result of 
increasingly capable transnational criminal organizations. 
Their multi-billion networks deal in drugs, weapons, bulk cash, 
and now span through West Africa, Europe, and even right here 
in the Homeland of the United States. Combatting them requires 
whole-of-government solutions and robust cooperation with 
international partners.
    There has not been a time in my life when things are--the 
world has been as dangerous as it is today and the threats more 
diverse. Yet, due to the planned budget cuts and sequestration, 
we are poised to cut our defense budget by a trillion dollars 
over the next 10 years. We're talking about what's already come 
out of the budget, that $487 billion. Another half trillion 
dollars would come through sequestration. It's kind of 
interesting. That is the only area where this administration 
has been actively cutting government.
    This reality underscores the glaring need for a national 
military strategy that accurately reflects the global security 
environment we face. I am greatly concerned that, given the 
declining resources available to our military and the growing 
budget uncertainty, the current strategy is untenable. Starting 
with the strategic guidance issued in January 2012, it seems 
that we're falling into a trap of creating strategies based 
almost entirely on how quickly we can cut the defense budget, 
rather than as a result of an honest assessment of the threats 
we face and the resources required to address these threats.
    So I'm very much concerned. Maybe I'm a minority nowadays, 
but I always thought that the major mission of the Federal 
Government is to protect the Homeland. We have to get back to 
that mentality and recognize the threat is greater than any 
threat that we have ever faced before. You guys are in the 
right position to do that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Admiral.

   STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
     EUROPEAN COMMAND AND SUPREME ALLIED COMMANDER, EUROPE

    Admiral Stavridis. Chairman, Ranking Member, and members of 
the committee:
    Thank you very much for taking time to hear from myself, 
General Jacoby, and General Kelly. I always say I feel very 
safe when I'm with a big Marine General and a big Army General. 
It's probably the safest team I could be up here with. So thank 
you for having us and putting us together for this panel.
    As the chairman mentioned, I'm rounding out 4 years in my 
current position. Before that I was lucky enough to be down at 
SOUTHCOM in General Kelly's position. So this is my seventh 
appearance in this run in front of the committee. I've always 
enjoyed the dialogue, the give-and-take, and the chance to 
express what our commands are doing.
    I think that as I look at the challenges for EUCOM where I 
am focused at the moment is first and foremost our work in and 
around Europe, which includes a number of things mentioned by 
the chairman and the ranking member, including the missile 
defense system, NATO system which is coming on line. I'm very 
focused on Afghanistan, which is the key operational mission 
for NATO at the moment, and I'll be glad to talk about that in 
some depth.
    We are, of course, monitoring the situation in the Levant 
extremely closely. It's very close at hand to Europe and part 
of EUCOM's responsibility includes military-to-military 
relations with Israel. So we watch that area very closely.
    We don't talk as much about areas like the Balkans, the 
Caucasus, the Baltics. All of those remain extremely important 
as well. As the ranking member mentioned a moment ago, there 
are a wide variety of other issues, from Special Operations to 
humanitarian disasters, countering terrorism, organized crime, 
cyber. So it's a very rich agenda.
    If I had one overriding message for the committee today, 
I'd like to answer the question, why Europe? Why should we 
continue to be engaged in Europe? What's important about this 
part of the mission for the Department of Defense (DOD)? I 
would say very quickly that, first and foremost, it's the 
values that we share with this pool of partners in Europe, the 
democracies who stand with us on freedom of speech, freedom of 
religion, freedom of the press.
    Second, it's the economic bonds that bind us together. The 
United States represents about a fourth of the world's gross 
domestic product (GDP). The nations of Europe represent another 
fourth. NATO in total is about 50 percent of the world's GDP 
and it's $4 trillion a year that crosses that Atlantic. So I 
think that trans-Atlantic connection has an important economic 
component as well.
    Third, geography matters. Sometimes people say to me, why 
do we need those bases in Europe? They're just--they're the 
bastions of the Cold War. I would counter by saying that 
they're not. They're forward operating bases in the 21st 
century and they allow us to extend support to EUCOM--from 
EUCOM to U.S. Africa Command, to U.S. Central Command 
(CENTCOM), and the Levant area as well.
    Fourth, I'd say NATO itself is important, the alliance. We 
serve together around the world in a wide variety of missions 
that we can talk about this morning.
    Then fifth and finally, nowhere else in the world will we 
find such a complete and capable group of allies who have the 
technology, the training, the force levels to help us. We need 
to encourage our European partners to spend more on defense. I 
do that consistently and I'm glad to talk about that today. But 
I do believe these connections are important for us and will be 
so going forward into the future.
    So, members of the committee, I'll conclude by saying again 
thank you on behalf of EUCOM. Thank you for the support of this 
committee. I'll pass your thanks on to them as well, and I look 
forward to answering your questions this morning.
    [The prepared statement of Admiral Stavridis follows:]

           Prepared Statement by ADM James G. Stavridis, USN

                       INTRODUCTION AND OVERVIEW

    Mr. Chairman, ranking member, and distinguished members of the 
committee: Thank you for the opportunity to appear again before you 
today. For nearly 4 years now, I have commanded the exceptional men and 
women of the United States European Command and the North Atlantic 
Treaty Organization (NATO), Allied Command Operations. It has been the 
privilege of a lifetime, for a mission I deeply believe in: one that 
directly links U.S. national security and the American way of life with 
our most steadfast allies and partners in vital strategic partnerships 
that produce global security and stability. I can report to you today 
that we continue to make strong progress--in military operations, 
theater security cooperation, strategic rebalancing efforts, and 
important initiatives with our international, interagency, and public-
private partners--to protect America's vital national security 
interests and provide stability across Europe and Eurasia. In meeting 
this enduring mission, most recently endorsed and mandated in the 
Department's 2012 Defense Strategic Guidance, Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense, these exceptional men 
and women continue to provide for the forward defense of the United 
States and ensure the collective security and continued viability of 
the NATO Alliance.
    Today, thanks to decades of sustained leadership, tireless 
devotion, and ironclad commitment on both sides of the Atlantic, the 
United States and our historic allies enjoy an unprecedented degree of 
freedom, interconnectedness, economic opportunity and prosperity, and 
interdependence toward achieving these common goals of global security 
and stability. Indeed, as former Secretary of State Clinton remarked in 
assessing the legacy of the last century and its impact on the current 
one: ``Today's transatlantic community is not just a defining 
achievement of the century behind us. It is indispensable to the world 
we hope to build together in the century ahead.''
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    This partnership and investment, made in the 20th century, 
continues to pay us considerable dividends in the 21st. For even as the 
global economy fights through its current perturbations, the fact 
remains that the transatlantic partnership--rooted in the stability 
that flows from security--constitutes nearly half the world's Gross 
Domestic Product (GDP) and a third of global trade. The transatlantic 
economy is valued at nearly $31 trillion,\1\ generates approximately $4 
trillion in annual trade revenue, and supports 15 million jobs.\2\ 
Acting together, the United States and Europe still command the heights 
of the global economy, and maintain the advantage that position offers.
---------------------------------------------------------------------------
    \1\ CIA World Factbook, https://www.cia.gov/library/publications/
the-world-factbook/rankorder/2001rank.html.
    \2\ European Commission Directorate-General for Trade, ``Report on 
European trade with the United States,'' http://ec.europa.eu/trade/
creating-opportunities/bilateral-relations/countries/united-states/.
---------------------------------------------------------------------------
    In support of that position, our European partners continue to make 
important financial and military contributions to our shared security. 
For, in spite of recent and oft-repeated criticisms focused exclusively 
on single national contributions, the fact is that, collectively, our 
European allies and partners are annually investing nearly $300 billion 
on defense, second only to the United States ($600 billion) and well 
ahead of available figures on annual defense expenditures by China 
($140 billion) and Russia ($70 billion).\3\
---------------------------------------------------------------------------
    \3\ The Guardian, ``Military Spending: How Much Does the Military 
Cost at Each Country, Listed,'' http: www.guardian.co.uk/news/datablog/
2012/apr/17/military-spending-countries-list.
---------------------------------------------------------------------------
    It is also a fundamental reality of the modern security 
environment--one recognized in the 2012 Defense Strategic Guidance--
that these defense contributions and NATO's continued evolution have 
transformed Europe, in the span of a single generation, from a security 
consumer to one of the world's most important security producers. 
Today, NATO militaries include 750 ships, 24,000 aircraft, and over 3 
million active duty personnel. Over the past decade, as these assets 
were vigorously put to use, our European allies and partners made 
conscious national decisions to set aside the security paradigms of the 
previous century and stand shoulder-to-shoulder with the United States, 
making unprecedented deployments on out-of-area expeditionary 
operations to confront 21st century threats. It remains one of 
history's more ironic twists that NATO's only Article 5 declaration was 
made by our NATO allies in the defense of the United States after the 
events of September 11, 2001.
    In the decade of war and military operations that followed, 
European military personnel comprised 80 percent of non-U.S. forces in 
Iraq and 90 percent of non-U.S. forces in Afghanistan--essentially a 
third of the International Security Assistance Force (ISAF). In 
addition, our European partners provided substantial military support--
in command and control, basing, air sorties, and maritime 
interdiction--to execute Operation Unified Protector in Libya 
successfully in 2011. They also sustain 90 percent of the mission in 
Kosovo, provide 6,000 troops for U.N. peacekeeping operations across 
the world, and continue providing important support to current missile 
defense and counter-piracy operations. These are extraordinarily 
valuable contributions, both diplomatically and in terms of their 
relief on U.S. force generation requirements. They represent burden-
sharing unparalleled in any other region of the world, showcasing the 
vital importance of our European allies and partners to U.S. national 
security interests and the viability of coalition warfare as we 
continue moving into the 21st century.
    Yet, even as we acknowledge these extraordinary contributions and 
commitments, the fiscal realities and current inflection point that 
follow a decade of war have prompted necessary national deliberation to 
reconsider the U.S. defense strategy and rebalance global U.S. posture. 
Indeed, the Cold War and its strategic imperatives are long over. As 
the 2012 Defense Strategic Guidance makes clear, after 10 years of 
combat operations ``our Nation is at a moment of transition'' requiring 
us to put ``our fiscal house in order here at home and renew our long-
term economic strength.'' These considerations have increased scrutiny 
of U.S. posture in Europe. Yet, the reality is that U.S. posture in 
Europe has been steadily declining for more than 2 decades.
    At the height of the Cold War, more than 450,000 U.S. forces were 
stationed across 1,200 sites on the European continent. Today, U.S. 
forces on the continent have been reduced by more than 85 percent and 
basing sites reduced by 75 percent. Indeed, shortly after release of 
the 2012 Defense Strategic Guidance, European Command announced further 
significant force structure cuts, phasing out the Army's V Corps 
Headquarters, the 170th and 172nd Brigade Combat Teams, three forward-
stationed Air Force squadrons, and a host of Army and Air Force 
enablers in concert with the Department's strategic rebalancing effort. 
Additionally, over the past 6 years, the U.S. Army has dramatically 
consolidated its theater footprint, closing six garrisons and over 100 
sites across Europe to consolidate and align its much smaller presence 
with enduring 21st century missions.
    In light of these reductions, European Command is today comprised 
of approximately 64,000 joint forces--representing less than 5 percent 
of the military--strategically located across 21 main operating bases 
and smaller supporting sites. The command is sharply focused on the 
goals outlined by the Secretary of Defense in his own preface to the 
2012 Defense Strategic Guidance. That guidance seeks to ensure that 
`Joint Force 2020' is capable of: ``maintaining our defense commitments 
to Europe; strengthening alliances and partnerships across all regions; 
deterring and defeating aggression by our adversaries, including those 
seeking to deny our power projection; countering weapons of mass 
destruction (WMD); effectively operating in cyberspace, space, and 
across all domains; maintaining a safe and effective nuclear deterrent; 
and protecting the homeland.'' For European Command, these remain our 
existing and most critical missions, performed from forward-stationed 
locations that protect the United States through strategic depth and 
distance, while providing our Nation the strategic agility and 
responsiveness to deal rapidly with 21st century crises and complex 
contingencies in an environment of unforgiving speed.
    Despite these realities, there persists in some quarters a notion 
that the strategic rebalance represents a zero-sum game for U.S. global 
posture, recalling debates from the last century pitting advocates of 
`Europe first' or `Asia first' against each other. Yet, what that 
century taught us, and what the 2012 Defense Strategic Guidance makes 
clear, is that the United States must retain its global reach, access, 
and prerogatives to maintain its status and influence as a global 
superpower, particularly in regions vital to U.S. economic well-being 
such as Europe and the Middle East. Power, like nature, abhors a 
vacuum. A zero-sum withdrawal or substantial diminishment of U.S. 
presence, influence, and supporting infrastructure across these vital 
regions provides opportunity for other rising powers to displace the 
United States, and gain the geostrategic benefits from that 
substitution.
    The new strategic guidance is also clear in identifying the 
Nation's evolving strategic challenges, as well as its enduring 
strategic partnerships. While the guidance directs that the U.S. 
military will ``of necessity rebalance toward the Asia-Pacific 
region,'' it also articulates that, in addition to working with 
America's allies in the Pacific, Europe remains ``our principal partner 
in seeking global and economic security, and will remain so for the 
foreseeable future.'' Chairman Dempsey echoed this point at the 
strategy's roll-out: ``Our strategic challenges are shifting, and we 
have to pay attention to those shifts. But what we do will always be 
built on the strong foundation of our traditional strategic 
partnerships, and NATO is chief among them.'' Thus, NATO remains an 
essential vehicle, given its more than 60 years of security experience, 
strong and progressive direction from the Lisbon and Chicago summits, 
and a decade of sustained investment and gains in expeditionary out-of-
area operations, capabilities, and interoperability. Within this 
construct, European Command remains the essential catalyst, driving and 
strengthening that principal partnership through vital theater security 
cooperation and multilateral training events, particularly at places 
like U.S. Army Europe's full-spectrum Joint Multinational Training 
Command, centrally located and accessible in southern Germany.
    Geographically, Europe provides the critical access and 
infrastructure to meet the Defense Strategic Guidance's priorities and 
expand U.S. global reach across half the world, to Europe and on to 
Eurasia, Africa, and the Middle East. America's enduring presence and 
leadership in Europe provides our Nation with an indispensable 
geostrategic platform--a metaphorical forward-deployed ``unsinkable 
aircraft carrier''--to facilitate and conduct global operations in 
direct support of NATO, six U.S. Combatant Commands (European Command, 
Central Command, Africa Command, Transportation Command, Special 
Operations Command, and Strategic Command), a wide host of U.S. 
Government interagency organizations, and 51 U.S. Embassies. In 
accordance with the 2012 Defense Strategic Guidance, our evolved but 
enduring presence will continue to support these missions, assure our 
allies, deter potential adversaries, promote enhanced capabilities and 
interoperability for future coalition operations, support and provide 
leadership for NATO's continued progressive evolution, and provide 
critical forward defense against the rising threats of the 21st 
century.
    The timing of the U.S. strategic rebalance--coming simultaneously 
with a number of other rapidly unfolding events in and around our 
theater, in places like Israel, Turkey, Syria, North Africa, the wider 
Middle East, and Afghanistan--has also provided the command with a 
strategic inflection point of our own to consider and to focus on as we 
move into the future.
    European Command has aggressively leveraged this opportunity to 
undertake a significant strategic review last fall, guiding our 
implementation of the Defense Strategic Guidance and ensuring the 
responsible utilization and maximum efficiency of increasingly precious 
defense resources. That strategy acknowledges the environment we are 
witnessing: one characterized by decreasing resources and increasing 
instability; one that endorses the Department's emphasis to work with 
America's ``most stalwart allies and partners'' to maintain our 
commitments to allied security; one that promotes enhanced allied 
capacity and interoperability, ensuring that a decade of sustained 
investment and combat experience with these partners is not lost; and 
one that leverages resource pooling and sharing opportunities--such as 
NATO's `Smart Defense' program--to economize our efforts as we meet the 
challenges of the 21st century.
    In light of this environment and the path forward, European 
Command's new strategy tightly aligns our enduring posture with the 
command's most pressing 21st century missions and priorities. Those 
priorities include: the command's readiness to execute NATO Article 5 
missions and other priority U.S. contingency plans; preservation of our 
strategic theater partnerships, both to enable a successful ISAF 
transition and to preserve the return on past U.S. investment in 
partner capability and interoperability; and European Command's charge 
to defend the Homeland forward against rising threats from ballistic 
missiles, international terrorism, WMD proliferation, transnational 
illicit trafficking, piracy, and malevolence in cyberspace. European 
Command's new strategy will serve to ensure that our resources are 
harmonized effectively and efficiently across the command, that we are 
prepared to address conflict across the spectrum of operations with a 
focus on the most likely scenarios, and that we are meeting the growing 
need, based on fiscal realities, to align high-end training 
opportunities, capability development, and sustained outreach with our 
allies and partners on future coalition operations and military burden-
sharing.
    The transatlantic alliance is and will remain an essential 
foundation for sustained global security, stability, and freedom. It is 
a precious and profound generational inheritance from those who 
preceded us; a tool forged in the fire of the last century to provide 
us the edge we need in this one. In candid remarks on his departure, 
outgoing Secretary of Defense Robert Gates warned against the growing 
devaluation among American leadership of this inheritance: ``The 
policymakers who will follow us will not have the same historical, 
personal, and, indeed, emotional ties to Europe and may not consider 
the return on America's investment in Europe's defense worth the cost . 
. . and that will be a tragedy.'' Former Secretary Panetta has also 
stated it clearly: ``We live in a world of growing danger and 
uncertainty where we face threats from violent extremism, nuclear 
proliferation, rising powers, and cyber attack. We cannot predict where 
the next crisis will occur. But we know we are stronger when we 
confront these threats together. It is precisely because of these 
growing security challenges and growing fiscal constraints that we need 
to work more closely than ever as partners.''
    To summarize, there are five key responses to the question: ``Why 
is Europe of such importance to the United States?'' First, Europe is 
home to most of the world's progressive democracies; nations with which 
we share the fundamental values that are a critical element in building 
effective coalitions. Second, with a GDP of $19 trillion--a quarter of 
the world's economy--and approximately $4 trillion in annual trade with 
the United States, Europe's importance to the U.S. and global economies 
cannot be overstated. Third, the European theater remains critical 
geostrategic terrain, providing the United States with the global 
access it needs to conduct worldwide operations and crisis response. 
Fourth, Europe is the backdrop for NATO, history's most successful and 
effective alliance, and a vital partner for dealing with the challenges 
of the 21st century. Fifth, Europe is today a security exporter, 
possessing among the most highly trained and technologically advanced 
militaries in the world. No other region possesses such a comparable 
pool of capable and willing partners able to conduct global operations 
with the United States.
    Therefore, our Nation must take care--even as we grapple with 
significant economic challenges and chart the necessary strategic 
reorientations--to protect, preserve, and continue evolving this 
extraordinary partnership. We must keep the transatlantic light burning 
brightly. It will help guide us as we continue navigating the shadows, 
complexity, and continuous evolution of the 21st century security 
environment. It will prove, as we persevere and rise to meet today's 
economic and security challenges, that we are still, and will remain, 
STRONGER TOGETHER.

         ``Over a decade of war, from the mountains of Afghanistan to 
        the shores of Tripoli, this alliance has proven its relevance 
        in the security challenges of the 21st century. We have moved 
        closer to realizing a vision for the Atlantic community 
        articulated by President John F. Kennedy 50 years ago, 
        envisioning that one day the United States would partner with a 
        revitalized Europe `in all the great and burdensome tasks of 
        building and defending a community of free nations.' ''--Former 
        U.S. Secretary of Defense Leon Panetta

                      MISSION, VISION, PRIORITIES

Mission
    The mission of the U.S. European Command is to conduct military 
operations, international military engagement, and interagency 
partnering to enhance transatlantic security and defend the United 
States forward.
Vision
    We serve the Nation as an agile security organization executing 
full-spectrum activities in a whole-of-government framework to deliver 
solutions that contribute to enduring security and stability across the 
world.

2013 Theater Priortites:
    1.  Ensure readiness to execute European Command's NATO Article 5 
commitment and other contingency plans.
    2.  Preserve our strategic partnerships.

        <bullet> Sustain relationship with our allies to ensure a 
        strong NATO Alliance;
        <bullet> Preserve recently developed allied and partner 
        capability and interoperability;
        <bullet> Maintain regional stability and security.

    3.  Enable ISAF's transition to Afghan security lead.
    4.  Counter transnational threats, focusing on: missile defense; 
weapons of mass destruction; counterterrorism; illicit trafficking; 
counterpiracy; and cyberspace.
    5.  Maintain U.S. strategic access across Europe in support of 
global operations.
    6.  Maintain particular focus on four key countries: Israel, 
Poland, Russia, and Turkey.

                          SUCCESS AND PROGRESS

              Meeting the Chairman's Strategic Priorities

                Aligned and Supporting Joint Force 2020

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    The Defense Strategic Guidance provides a blueprint for optimizing 
the U.S. Joint Force by the year 2020. This blueprint provides a 21st 
century fighting force that sustains U.S. global leadership, is 
postured to protect America's vital national security interests, stands 
ready to confront and defeat aggression anywhere in the world, and 
maintains the missions, capabilities, and capacity to prevail in the 
complex security environment of the 21st century. As part of that 
blueprint, the Chairman of the Joint Chiefs of Staff has outlined 10 
critical mission areas for Joint Force 2020:

     1.  Counter Terrorism and Irregular Warfare
     2.  Deter and Defeat Aggression
     3.  Maintain a Safe, Secure, and Effective Nuclear Deterrent
     4.  Defend the Homeland and Provide Support to Civil Authorities
     5.  Project Power Despite Anti-Access/Area Denial Challenges
     6.  Counter Weapons of Mass Destruction
     7.  Operate Effectively in Cyberspace and Space
     8.  Provide a Stabilizing Presence
     9.  Conduct Stability and Counterinsurgency Operations
    10.  Conduct Humanitarian, Disaster Relief, and Other Operations

    U.S. European Command is closely aligned with, and executing, all 
ten of these mission areas. Every day, through a wide array of 
operations, exercises, and supporting initiatives, conducted in 
conjunction with our allies and partners, European Command is providing 
the forward defense of the United States and preserving America's vital 
national security interests across multiple continents in each of these 
priority areas. Over the past year, we have achieved significant 
progress in line with the Chairman's strategic priorities. Highlights 
include:

1. Counter Terrorism and Irregular Warfare
    Afghanistan
    European Command continues a wide range of activities to enable a 
successful transition to Afghan security lead at the end of 2014. Our 
European allies and partners, who constitute a third of ISAF, have made 
an ``in together, out together'' commitment, with some countries, 
including Georgia, Hungary, and Romania, having recently increased 
their ISAF contributions to address critical shortfalls. Allied and 
partner special operations forces, working in concert with Special 
Operations Command Europe (SOCEUR) under the Partnership Development 
Program, have demonstrated a particularly noteworthy level of 
commitment, indicating their willingness to continue contributing to 
Afghan stabilization efforts beyond 2014 should this requirement exist. 
European Command leverages a number of essential programs and 
authorities, including Section 1206 (global train & equip), the 
Coalition Support Fund, the Coalition Readiness Support Program, and 
the SOCEUR Partnership Development Program to assist our allies and 
partners with necessary pre-deployment training and equipment needs. 
Through these vital programs, we have provided training in critical 
combat skills and specialized equipment to enhance our partners' 
downrange interoperability and operational effectiveness. The continued 
availability of these programs is essential to support the transition 
and post-2014 missions in Afghanistan.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In quarterly training rotations this year through U.S. Army 
Europe's Joint Multinational Readiness Center in Hohenfels, Germany, 
European Command has also prepared a total of 72 Security Force 
Assistance Teams from 16 countries for ISAF deployment. Additionally, 
we provided life-saving Counter-Improvised Explosive Device training to 
2,481 personnel from 22 countries. To date, the command's Expeditionary 
Intelligence Training Program has developed counterinsurgency 
intelligence, analysis, and operational skill sets for over 1,000 
personnel from 26 countries. European Command has expanded our `Georgia 
Deployment Program' to support the simultaneous deployment of two 
Georgian battalions every 6 months to ISAF's Regional Command 
Southwest, where they operate in conjunction with the U.S. marines 
without caveats. U.S. Air Force Europe's Warrior Preparation Center has 
also contributed to the ISAF mission by training 60 Joint Tactical Air 
Controllers from 19 partner nations. Finally, in 2012, European Command 
obtained and delivered critical lifesaving equipment for deploying 
partners from 10 Central and Eastern European countries.
    Theater Counterterrorism
    Exercise Jackal Stone is U.S. European Command's premier Special 
Operations Force (SOF) training event. In 2012, this theater-wide SOF 
exercise was conducted in Croatia involving over 1,700 personnel 
representing 15 countries: Canada; the Czech Republic; Denmark; 
Estonia; Finland; France; Hungary; Italy; Lithuania; Latvia; Norway; 
Poland; Romania; Slovakia; and the United Kingdom. Exercise Jackal 
Stone honed theater SOF capabilities in all mission sets from 
counterterrorism to high-intensity conflict. The exercise validated 
Special Operations Task Force-Europe's ability to conduct special 
operations, and enhanced SOF relationships with these key partners who 
continue deploying to ISAF and fully support our strategy of active 
security.

2. Deter and Defeat Aggression
    Austere Challenge
    In its 8th year as European Command's premier joint force 
headquarters exercise, Austere Challenge 12--the largest and most 
significant exercise ever to take place in U.S. European Command since 
the end of the Cold War--continued to provide world-class training 
opportunities for U.S. European Command Headquarters, our Service 
component commands, and the Israel Defense Forces. An extensive, multi-
phased event, Austere Challenge 12 exercised existing U.S. European 
Command plans and capabilities in the Levant, focused on combined 
missile defense training and interoperability with a critical partner 
in a challenging strategic environment. The exercise involved 3,500 
U.S. personnel from all 4 Military Services, integrating U.S. Army 
Patriot batteries, Air Operations Center command and control 
capabilities, Aegis Ballistic Missile Defense (BMD) ships, and other 
air defense systems to sharpen combined defensive capabilities against 
a variety of threats. As part of the broader Austere Challenge event, 
European Command also conducted the largest of our combined exercises 
and engagements with Israel, Exercises Juniper Cobra and Juniper 
Falcon. These exercises also sustain the U.S.-Israeli political-
military relationship, exercise important theater capabilities, and 
provide further demonstration of the United States' strong commitment 
to the security of Israel.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Combatant Command Exercise and Engagement Fund continues to be 
a linchpin for theater-wide Joint and Coalition training. In 2012, the 
fund supported 31 joint and coalition exercises, training European 
Command Headquarters staff and more than 25,000 U.S. military personnel 
across a full spectrum of critical missions from integrated air and 
missile defense to counterterrorism. This funding enables European 
Command and NATO to be a net exporter of security, from ISAF operations 
to the defense of Israel, and was instrumental in ensuring the success 
of Exercise Austere Challenge 12, demonstrating a fully-rehearsed, 
seamlessly integrated missile defense capability and clear U.S. 
commitment to a key ally during a critical period.

3. Maintain a Safe, Secure, and Effective Nuclear Deterrent
    Theater Nuclear Forces
    U.S. European Command maintains a safe, secure, and effective 
theater nuclear deterrent in support of the NATO Alliance and enduring 
U.S. security commitments. Through rigorous and effective training, 
exercises, evaluation, inspection, operations, and sustainment, 
European Command ensures U.S. nuclear weapons, dual-capable aircraft, 
nuclear command centers, materials, procedures, and personnel are fully 
ready to support national strategic nuclear directives. Our annual 
program includes command-only exercises, such as Fig Leaf and Clover 
Leaf, as well as participation in the NATO Steadfast exercise series, 
and multiple Joint Staff, NATO, and U.S. European Command assessments 
and inspections.

4. Defend the Homeland and Provide Support to Civil Authorities
    Collective Security Defends the U.S. Homeland
    In 2012, U.S. European Command continued its mission to defend the 
Homeland forward by expanding our planning efforts with, and in support 
of, NATO. Through America's fulfillment of its Article 5 commitments, 
and a strong and enduring NATO Alliance, we support our national and 
collective security, manifested so clearly in NATO's historic and only 
Article 5 declaration, made in the wake of September 11, 2001.
    Supporting the Fight against Transnational Organized Crime
    Additionally, through the work of European Command's Joint 
Interagency Counter Trafficking Center (JICTC), we continue to provide 
strong support to the President's Transnational Organized Crime 
Strategy, the U.S. Government interagency, and numerous U.S. Country 
Teams working to counter global transnational illicit trafficking and 
terrorism. With profits from illicit enterprises estimated in the 
trillions, these efforts focus on disrupting versatile illicit networks 
who traffic in a wide host of destabilizing influences, including 
narcotics, terrorism, weapons (from small arms to WMD), human 
trafficking, and illicit finance. These networks pose a growing threat 
to the U.S. Homeland, as well as the security of our allied and partner 
nations. Through these efforts, we are contributing to U.S. interagency 
efforts to disrupt and dismantle these networks, and assisting our 
partner nations develop and refine the counter-trafficking and 
counterterrorism skills and capacity needed to keep these threats as 
far as possible from American shores.

5. Project Power Despite Anti-Access/Area Denial Challenges
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Ballistic Missile Defense
    Throughout 2012, European Command continued to improve its 
ballistic missile defense (BMD) readiness for the defense of Israel and 
Europe. In particular, 2012 saw the AN/TPY-2 radar--on-line at Kurecik, 
Turkey, since 2011--transition to NATO control as part of the European 
Phased Adaptive Approach (EPAA) to missile defense. Additionally, 
important EPAA Phase Two progress was made last year, as we 
successfully completed all international negotiations to forward-
station four U.S. Navy Aegis BMD warships in Spain,and continued to 
prepare the Aegis Ashore site in Romania.
    European Command has also taken a number of proactive steps to set 
the theater and increase our readiness in response to heightened 
instability in the Levant. Increased Intelligence, Surveillance and 
Reconnaissance (ISR) operations enable the command to maintain a close 
watch on that region. As the situation in the Levant became 
increasingly serious last year, we significantly increased our 
coordination and collaborative planning with our counterparts in the 
Israeli Defense Forces (IDF). European Command also took steps to 
increase our force posture and readiness during this time frame, in 
order to be prepared to rapidly execute operations in the Levant should 
it become necessary.

6. Counter Weapons of Mass Destruction
    European Counter-Proliferation Stakeholders
    Weapons of Mass Destruction (WMD) in the hands of a rogue state or 
non-state actors continue to represent a grave threat to the United 
States, our allies, and partners. In confronting this high-stakes 
challenge, one that possesses far-reaching and highly destabilizing 
consequences, several factors intersect across European Command's 
theater: the bulk of the world's WMD resides here; European population 
centers and U.S. military installations present numerous targets for 
terrorist organizations; and European ports and terminals are the last 
line of defense for much of the commercial traffic that enters the U.S. 
port system.
    Our allies and partners share these concerns, and we continue to 
leverage their capabilities as we pursue efforts, both bilaterally and 
regionally, to reduce the potential for successful WMD trafficking. We 
have increased our preparedness through several military-to-military 
and military-to-civilian engagements, joint training events, NATO's 
annual consequence management exercise (conducted in conjunction with 
over 30 European nations), U.S. interagency cooperation, defensive 
consequence management planning with Israel, the work of the Joint 
Interagency Counter Trafficking Center, and other partnering to bolster 
our collective capabilities in this critical mission area.

7. Operate Effectively in Space and Cyberspace
    Cyberspace Operations
    European Command is pursuing a cyber posture that ensures mission 
assurance by protecting the command's critical data, information 
systems, and networks against an expanding number of increasingly 
sophisticated cyber threats. Over the past year, European Command has 
refined the organization and functionality of its Joint Cyber Center 
(JCC), which serves as the focal point for coordinating, integrating, 
and synchronizing the theater's cyber activities. It is an integral 
part of the command's contingency planning efforts and operations, 
working closely with U.S. Cyber Command and Service cyber components to 
ensure responsiveness to priority mission requirements in the cyber 
domain.
    In an effort to enhance the security of its networks and enhance 
their operational effectiveness, European Command is also working with 
U.S. Africa Command and the U.S. Army to implement the initial 
increment of the Joint Information Environment. This is a multi-phased 
effort supporting the Department's migration from Service-centric 
networks to a single information technology infrastructure and common 
network architecture. This undertaking will allow analysts at each 
combatant command to assess potential cyber threats on a near-real time 
basis and react to potential adversary activity in a more cohesive and 
effective manner.
    Cyber Defenses
    European Command's cyber posture also includes military engagement 
to strengthen coalition networks and the cyber defense capabilities of 
our NATO Allies and Partnership for Peace nations. Thirty-seven 
European Command country cooperation plans include activities that help 
partners strengthen their cyber defense programs and exchange 
information about cyber threats and vulnerabilities. Successful again 
last year, European Command conducted Exercise Combined Endeavor 12, 
the largest communications and information systems interoperability 
exercise in the world. The event drew delegates from 40 nations (26 
NATO and 14 Partnership for Peace countries) focused on partnership 
capabilities, operational preparation of deployable command, control, 
communications, and computer forces, cyber training and professional 
development, and the development of interoperability standards for 
cyberspace.
    European Command also hosted Exercise Cyber Endeavor, which 
promotes a common standard for network defense processes and 
procedures. The exercise involved 175 participants from 32 countries, 
including NATO members and Warsaw Initiative Fund-resourced Partnership 
for Peace nations. It focused on malware analysis and reverse 
engineering, cyber incident response, and network and computer 
forensics. Through this capstone event with NATO, partner nations, 
academia, and industry, European Command is enhancing theater-wide 
cyber capabilities, and building strong defense partnerships to ensure 
that the United States and NATO are prepared to prevail in this 
critical domain.

8. Provide a Stabilizing Presence
    Israel and the Levant
    European Command's sustained engagement with Israel, through our 
theater security cooperation program and numerous annual military-to-
military engagement activities, continues to strengthen our Nations' 
enduring ties and military capabilities. European Command chairs four 
bilateral, semiannual conferences with Israel addressing planning, 
logistics, exercises, and interoperability. Additionally, the U.S.-
Israeli exercise portfolio includes eight major recurring exercises. 
Through these engagements, our leaders and staff maintain uniquely 
strong, recurring, personal, and direct relationships with their IDF 
counterparts.
    U.S. Security Coordinator for Israel and the Palestinian Authority
    European Command's comprehensive engagement strategy with Israel 
complements other U.S. Government security cooperation initiatives, 
including the important work of the U.S. Security Coordinator for 
Israel and the Palestinian Authority (USSC). USSC's mission is to help 
Israel and the Palestinian Authority meet security conditions to 
support a two-state solution; to transform and professionalize the 
Palestinian Authority's security sector; and to support U.S. and 
international whole-of-government engagement, with both the Israelis 
and the Palestinians through security initiatives designed to build 
mutual trust and confidence. Continued U.S. support for this engagement 
and the progressive capacity and capabilities of the Palestinian 
Authority Security Forces remain in the interest of overall Israeli-
Palestinian regional security.
    Kosovo
    In advance of the Serbian elections last year, for which there were 
indications Serbia would attempt to organize illegally in the territory 
of Kosovo, European Command worked closely with Senior Department of 
Defense officials to identify Kosovo Force (KFOR) capacities, 
capabilities, and risks to mitigate against a deterioration in security 
resulting from such an effort. We prepared ground forces, forward-
stationed in Germany, to deploy rapidly to reinforce KFOR if required. 
Though this augmentation was ultimately not needed as a diplomatic 
solution was found to allow the OSCE to administer polling sites where 
dual national Kosovo Serbs could vote, the proximity and presence 
demonstrated important U.S. resolve to continued stability in the 
Balkans.
    Caucasus
    With U.S. assistance, Georgia conducted cross-border Humanitarian 
Assistance and Disaster Response training with Armenia in 2012, and 
also continued to develop their biohazard threat analysis capabilities 
to enhance regional stability. Further south, European Command 
facilitated Armenia's participation in Exercise Combined Endeavor and 
the U.S. Marine Corps' Black Sea Rotational Force, efforts focused on 
regional security, while also providing non-commissioned officer 
training to the Armenian military. In Azerbaijan, European Command also 
involved Azerbaijan forces in the Black Sea Rotational Force, 
coordinated training events at the Joint Multinational Training Center 
in Germany, and provided section 1206-funded explosive ordnance 
disposal (EOD) training to Naval Special Operations Forces.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
9. Conduct Stability and Counterinsurgency Operations
    Baltic States
    In support of this priority, focused on stability and expanding 
military-to-military cooperation to strengthen partner capabilities and 
reduce reliance on U.S. forces, European Command sponsored the 42nd 
annual Baltic Operations (BALTOPS) engagement, a maritime exercise 
which has grown to become the largest military-to-military event in the 
region. BALTOPS 2012 continued America's highly visible outreach and 
engagement in the Baltic region, supporting development of Latvian, 
Lithuanian, and Estonian maritime capabilities, enhancing regional and 
NATO Alliance unity of effort, and exercising a host of key military 
competencies focused on joint and combined air, land, and sea training. 
The exercise brought together 12 European nations--including Russia--27 
ships, 33 aircraft, and 1 submarine to conduct tactical unit actions, 
in-port and at-sea events, and a culminating exercise employing multi-
national sea and air forces. The exercise was important in promoting 
assurance and stability in this key maritime region, and expanding our 
engagement with Russia, one of European Command's leading priorities.
    State Partnership Program
    The National Guard State Partnership Program (SPP) remains one of 
European Command's most effective and efficient programs to enhance 
theater stability and influence the development of partner nation 
military capabilities. Launched in 1993 to reach out to former Warsaw 
Pact and Eastern European countries after the Cold War, the program 
accounts for 25 percent of European Command's theater security 
cooperation and military-to-military engagement programs with these 
nations. In the European Command Theater, SPP partners U.S. National 
Guard forces from 21 participating States with 22 allied and partner 
nations. SPP in the theater leverages other programs and authorities, 
such as National Guard annual training and Overseas Humanitarian, 
Disaster and Civic Aid program activities to conduct military training 
and education, pursue key theater security cooperation objectives, and 
foster positive relationships among junior and mid-grade military 
professionals. These relationships pay dividends as these professionals 
progress to ever higher positions of responsibility in their 
militaries. The program has also delivered a significant operational 
return on investment, with 19 participating nations contributing forces 
to ISAF, and 9 of these nations training, deploying, and serving side-
by-side with participating U.S. National Guard units in Security Force 
Assistance Teams and Provincial Reconstruction Teams across 
Afghanistan.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
10. Conduct Humanitarian, Disaster Relief, and Other Operations
    Disaster Relief
    In 2010, in coordination with the U.S. Agency for International 
Development (USAID), European Command provided critical firefighting 
support to control wildfires raging across Russia and Israel. A year 
later, in August 2011, the Command provided significant disaster relief 
to Turkey in the wake of a devastating earthquake. Last year, in 
response to a particularly harsh winter, European Command provided 
rapid disaster response across the Balkans. In February 2012, blizzard 
conditions caused widespread power outages across Bosnia and 
Herzegovina, prompting officials to request emergency assistance from 
the international community. On short notice, European Command 
delivered badly needed parts and supplies to repair degraded military 
helicopters so that Bosnians could respond to isolated mountain 
communities. A short time later, Montenegro declared a similar state of 
emergency. European Command again answered the call, providing intra-
theater lift to transport required material, personnel, and equipment 
to Montenegro, and dispatched two U.S. Army UH-60 helicopters to assist 
the government with emergency resupply and medical evacuation 
operations.
    Humanitarian Assistance
    European Command also supports civil-military engagement programs 
that focus humanitarian assistance and disaster response along four key 
lines of operation: disaster preparedness; education; health; and water 
and sanitation. These programs provide training and construction 
support to develop disaster preparedness in poorer regions of 
southeastern Europe and Eurasia. This program, also coordinated with 
USAID, generates significant `soft power' for the United States, as 
efforts to renovate clinics, schools, orphanages, and water lines build 
tremendous goodwill and leave a lasting positive American legacy for a 
relatively modest investment. In 2012, the program obligated $9 million 
across 17 countries in the region to help build and reinforce 
stability.
    To summarize, through the execution of the command's combined 
operations, theater exercises, interagency outreach, and security 
cooperation across each of these ten national mission areas, European 
Command is protecting and preserving every one of America's vital 
national security interests. These interest, defined by the Chairman of 
the Joint Chiefs are:

        <bullet> Survival of the Nation (deterrence of nuclear attack);
        <bullet> Survival of the global economic system (enabling 
        physical and virtual flow of global commerce);
        <bullet> Prevention of catastrophic attacks on the Nation (from 
        ballistic missiles, WMD, or terrorists);
        <bullet> Freedom of action for the United States (facilitate 
        the exercise of American power);
        <bullet> Secure, confident, and reliable allies and partners 
        (fulfilling obligations to our partner states);
        <bullet> Protection of American citizens abroad (defending 
        diplomatic facilities and conducting hostage rescue, 
        counterterrorism, and evacuation operations);
        <bullet> Preserving and, where possible, extending universal 
        values (human rights, democracy, humanitarian assistance and 
        disaster relief).

    Supporting each of these vital national security interests, 
European Command is making a difference, keeping America safe, and 
ensuring the Nation's defenses are Stronger Together with our European 
allies and partners.
               challenges, opportunities, and initiatives
         ``European security remains an anchor of U.S. foreign and 
        security policy. A strong Europe is critical to our security 
        and our prosperity. Much of what we hope to accomplish globally 
        depends on working together with Europe.''--Former U.S. 
        Secretary of State Hillary Clinton

    The most important challenge facing U.S. European Command is 
maintaining our readiness to conduct unilateral operations, as well as 
combined operations with our European allies and partners, to support 
our collective NATO Article 5 responsibilities, out-of-area operations, 
and other contingency missions. Today, rising tensions--stemming from 
declining resources, long-simmering ethnic strife, regional hegemonic 
desires impacting U.S. European Command area of responsibility 
partners' security, and a host of demographic, social, political, and 
economic forces--pose challenges and risk to security and stability in 
and around our theater. Enduring U.S. presence and engagement remains 
critical to preventing destabilizing influences or simmering 
resentments from erupting into violence or escalating into open 
conflict. While these challenges are real, European Command remains 
vigilant, proactive, and engaged to seek out opportunities in each of 
these challenges and leverage our presence, leadership, and 
capabilities to continue to protect U.S. vital national security 
interests and meet our collective security commitments.

Afghanistan
    We have entered the critical transition period in Afghanistan. Over 
the next 20 months, ISAF must continue to fully recruit and field the 
Afghan National Security Forces (ANSF), both army and police, in order 
to shift the main security effort to the Afghans later this year. We 
must also prepare to support the Afghan presidential election and the 
NATO Training Mission-Afghanistan (NTM-A), while planning to redeploy 
thousands of ISAF forces and restructure our basing readiness to ensure 
that European Command is postured to support this redeployment and the 
post-2014 mission.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    European Command is involved in a wide range of supporting 
activities to enable a successful transition in Afghanistan in 
accordance with the 2012 Defense Strategic Guidance and NATO's Chicago 
Summit Declaration. As mentioned, European Command continues to 
leverage Section 1206, Coalition Support Fund, Coalition Readiness 
Support Program, and a host of other security assistance programs to 
provide the critical training and equipment that enable our European 
allies and partners--particularly Central and Eastern Europeans who are 
punching far above their weight in ISAF--to continue contributing to 
security and stability in Afghanistan. The continued availability of 
these authorities, particularly Section 1206, is essential to helping 
us meet the transition timeline and our post-2014 responsibilities. 
European Command is also providing critical logistical support to the 
mission in Afghanistan. We are working closely with U.S. Transportation 
Command to ensure the existing capacity, versatility, and 
responsiveness of redeployment mechanisms, routes, and infrastructure 
can cover the size and scope of the Afghanistan redeployment mission. 
To that end, European Command's recently established multi-modal 
logistical hub at U.S. Forward Operating Site Mihail Kogalniceanu 
Airfield in Romania represents an extremely valuable addition to this 
logistical capacity, helping to mitigate risk from existing logistical 
ground and sea lines of communication in Afghanistan and Pakistan.

NATO Evolution
    While progress continues, in step with the Lisbon and Chicago 
summit declarations, budget pressures and the transition in Afghanistan 
will continue to affect NATO's ongoing evolution. This challenge is 
characterized by several elements. First, NATO will discover new force 
capacity when troops, both U.S. and European, return home from 
Afghanistan as we move closer to 2014. This will facilitate support to 
the NATO Response Force (NRF), which provides the alliance with Article 
5 and other crisis response capabilities. Second, the allies will 
naturally refocus on training, exercising, and initiatives inside 
alliance borders, even as they seek to retain hard-earned 
counterinsurgency and expeditionary capabilities. The Department's 
decision to reinvigorate U.S. participation in the NRF offers a 
significant opportunity to ensure America's allies and partners sustain 
their expeditionary capabilities and maintain their interoperability 
with U.S. forces. European Command is working to implement this 
decision, through support to rotational U.S. battalion task forces 
participating in NRF exercises and important training events with our 
European allies and partners. Third, the importance of 
counterinsurgency skill sets will give way to other priorities, 
including missile defense, cyberspace, and regional stability. Fourth, 
NATO will continue to adjust to its recently reduced command structure. 
Fifth, the alliance will seek to integrate increasingly capable allies, 
such as Turkey and Poland, into high-end planning, command structures, 
and exercises. Lastly, the alliance will become more aware of, and 
focused on, evolving transnational challenges, including illicit 
trafficking, piracy, terrorism, WMD proliferation, and energy security.
    The challenge to NATO presented by the current evolution is to 
develop a capable force structure to ensure enduring alliance 
credibility. European Command continues to support NATO's ongoing 
evolution through our bilateral and multilateral engagements, 
exercises, training, theater security cooperation programs, 
participation in the NATO Centers of Excellence, and a wide variety of 
other initiatives. One of the most effective enablers in this effort 
continues to be the U.S. International Military Education and Training 
(IMET) program. Through this invaluable program, the United States has 
trained and educated a number of our partner nations' top performing 
military personnel and future leaders, increasing international 
understanding, cooperation, and interoperability. IMET beneficiaries 
have risen to the highest echelons of their defense establishments, 
which today include 3 Eastern European Chiefs of Defense, 11 partner 
nation Service Chiefs, and 8 Sergeants Major of our partner nations' 
militaries. The IMET program continues to build and expand on these 
vital relationships, strongly supports NATO's continued evolution, and 
provides the United States with considerable advantage in outreach and 
connection as we maintain these relationships over the years. Through 
these programs, European Command reinforces U.S. leadership in NATO and 
reenergizes our enduring commitment to the alliance's collective 
security. These efforts sustain confidence in NATO's aggregate 
strength, shared democratic values, recognition of global 
responsibilities, and continued adherence to operational competence.
    By supporting NATO's continued viability and success, the United 
States encourages European nations to approach global security issues 
from within the alliance, ensuring that European and U.S. viewpoints 
are shared, considered, and weighed together in the decisionmaking 
process. Today, NATO stands at a second major crossroads, similar to 
the decision point that followed the fall of the Berlin Wall. Our 
challenge is to work diligently to support the broader U.S. Government 
effort to demonstrate tangible U.S. commitment to the alliance, 
ensuring that the correct choices are made to maintain NATO's 
capabilities, capacity, and credibility.

         ``NATO not only serves to protect our collective nations but 
        our Homeland as well.''--Congressman Michael Turner (R-OH), 
        House Armed Services Committee

Israel and the Levant
    The `Arab Spring' movement is significantly reshaping leadership 
across the Middle East and North Africa. New strategic challenges are 
emerging. Several Arab countries are undergoing major internal changes 
resulting in a more dynamic, less predictable region. For Israel, a 
country inside European Command's area of responsibility, these 
movements bring increased uncertainty for enduring stability in the 
region. The Sinai's growing instability is of increasing concern to 
Israel. Over the past 3 decades, Israel has made significant military 
reductions along its southern border based on a stable Egyptian/Israeli 
border. Internal developments in Egypt have now put the stability of 
that border into question. Additionally, aggressive actions by elements 
inside Gaza eventually compelled Israel to launch its 7-day `Pillar of 
Defense' operation last November. To the north, events in Syria have 
severely destabilized Israel's northern border. Israel must be prepared 
to deal with the actions of the current Syrian regime as well as a 
range of possible successors. In addition, Lebanese Hezbollah continues 
to grow as a powerful actor on the Israel/Lebanon border, possessing 
lethally accurate rockets and missiles with the potential to severely 
damage Israeli infrastructure. To the east, Iran continues to increase 
its ballistic missile stockpile and pursue a nuclear weapons program, 
further narrowing Israel's strategic depth and decision space. Given 
this situation, it is feasible that increasing violence or war could 
erupt from multiple directions within the Levant with limited warning 
and grave implications for regional stability, Israeli security, and 
U.S. interests.
    Accordingly, European Command continues to work with our IDF 
partners to ensure strong U.S. support to the defense of Israel. 
European Command works closely with U.S. Central Command to keep 
abreast of all emerging threats and intelligence regarding Iran, Syria, 
the Sinai, Hamas, and Hezbollah, ranging from missile threats to 
terrorist activity. Lastly, European Command continues a robust program 
of security cooperation and military-to-military activities with Israel 
to demonstrate U.S. resolve and ensure a high degree of defense 
synchronization between our two nations.

Russia
    Though a significant actor who at times disagrees with U.S. and 
NATO policies, Russia still presents potential for future engagement. 
The military component of the relationship exists principally in the 
annual bilateral U.S.-Russian Military Cooperation Work Plan. Since its 
re-establishment in 2008, focused on `zones of cooperation' where our 
interests overlap and that avoid enhancing Russian combat capabilities, 
our bilateral activities have increased from 10 events in 2009 to 110 
events and exercises in 2012, in areas of mutual interest including: 
combating terrorism; counter-piracy; counter-trafficking; crisis 
response; maritime capabilities; search and rescue; the Arctic; and 
support to coalition stabilization efforts in Afghanistan. Despite 
recent disagreements over missile defense, we continue to seek out 
additional areas for cooperation, such as security for the 2014 Sochi 
Winter Olympics and Russia's recent request for assistance developing 
its new Military Police organization, which the U.S. Army is working 
diligently. The ability to effectively work together not only provides 
important strategic access for ongoing NATO and coalition operations, 
but continues to satisfy our mutual strategic goals.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Militarily, Russia seeks to enhance its regional influence and 
leverage through participation with former Soviet states in the 
Collective Security Treaty Organization (membership includes Armenia, 
Belarus, Kazakhstan, Kyrgyzstan, Russia, and Tajikistan), as well as a 
robust defense build-up through its `State Armament Plan.' That plan 
calls for the construction and modernization of: naval surface 
combatants and submarines; air defense brigades; attack helicopters; 
developments in fifth generation fighters; and the continued 
maintenance of its existing strategic and tactical nuclear weapons. At 
the same time, Russia faces many challenges, including declining 
demographics, a high rate of drug and alcohol abuse, a relatively 
narrow economic base stemming from oil and gas, and uneven 
infrastructure. While appropriately anticipating these developments, 
European Command will continue to seek and leverage existing and 
emerging zones of cooperation as a priority and focus for our current 
and future engagement with Russia.
Turkey
    A NATO ally since 1952, Turkey continues to make important 
contributions to vital U.S. national security interests, particularly 
in its support for regional missile defense with the AN/TPY-2 radar 
site located in eastern Turkey as well as ongoing counter-terrorism 
operations. Turkey is an indispensable partner in addressing the 
increasingly complex challenges in the Levant and across the broader 
Middle East. Turkey's own challenges include a growing refugee crisis 
on the Syrian border, threat of Syrian ballistic spillover (hence 
NATO's Patriot deployment to southern Turkey), and increased terrorist 
activity, specifically with the Kongra-Gel (KGK, formerly the Kurdistan 
Workers Party or PKK) along their border with Iraq.
    We continue to support U.S. efforts with the Government of Turkey 
to ensure optimum cooperation and outcomes given the Assad regime's 
uncertain future in Syria. European Command and the Turkish General 
Staff are engaged in a dialogue that will serve as the foundation for 
deeper cooperation as the situation requires. Turkey's status as a 
stable, democratic nation, its sizable security resources, and its 
influence as a regional power broker combine to make this NATO ally a 
critical component in achieving U.S. regional objectives. In return, 
Turkey is raising its expectations for U.S. cooperation and 
partnership, specifically with access to high-end Foreign Military 
Sales (FMS), cooperation on counter-terrorism activity, and increased 
leadership opportunities in NATO and coalition political/military 
structures. That said, Turkey's eroding relationship with Israel bears 
special emphasis. Resumption of good relations between these two U.S. 
allies, and willingness to facilitate these relations on a military-to-
military level, remain a priority for European Command.

Poland
    Poland remains a pivotal nation in our theater, and an emerging 
leader in eastern Europe and the NATO Alliance. The strong cooperation 
between the United States and Poland remains important to overall 
regional security. European Command sees value in the increased 
visibility and presence of U.S. forces in Poland, through military 
engagements and regionally-hosted exercises, to assist Poland in 
realizing its full potential as a capable and reliable security 
partner, able to contribute forces that can operate side-by-side with 
the United States in future NATO and coalition operations. U.S. 
military engagement with Poland is multi-faceted. Recent cooperation 
across a variety of initiatives, to include missile defense, Patriot 
battery rotations, the establishment of the U.S. Air Force aviation 
detachment, and multinational exercises, has allowed the United States 
to maintain strong defense ties with this important regional power.

Balkans
    In the Balkans, the overarching U.S. goal is to achieve stability 
and advance Euro-Atlantic integration. However, strong enmity remains 
between former warring factions, especially within Bosnia and 
Herzegovina and between Serbia and Kosovo. Bosnia and Herzegovina 
possesses a stagnant economy. Public sector spending accounts for an 
unsustainable 40 percent of GDP. Efforts at post-conflict economic 
revitalization have proven fitful at best. The complex governmental 
structures created by the Dayton Peace Accords are inefficient and 
prone to obstruction by political interference, and resistant to 
reforms promoted by the international community. European Command 
continues its outreach and engagement with Bosnia and Herzegovina 
through theater exercises, humanitarian assistance activities, disaster 
readiness training, theater exercises, and the State Partnership 
Program. We are also energizing defense reform efforts to address 
chronic problems in logistics, procurement, and defense institution 
building.
    Serbia's efforts to realize its aspirations to join the European 
Union, as well as advance military-to-military relations with the 
United States, will be strained until and unless Belgrade makes real 
progress to normalize relations with Kosovo and reach durable solutions 
on northern Kosovo. European Command is looking to the EU-facilitated 
Pristina-Belgrade dialogue to deliver progress in these areas, while 
further engaging Serbia in regional exercises and engagement to 
encourage a constructive relationship.
    Serbia's refusal to date to normalize relations with Kosovo--as 
well as actions by hardliners and criminal elements in northern 
Kosovo--have hampered Pristina's ability to extend its authority to its 
northern borders without significant international presence. Tensions 
in northern Kosovo remained high in 2012, including at least one 
serious violent incident that required the rapid deployment of KFOR 
personnel to control the situation. Accordingly, despite earlier NATO 
plans to continue drawing down alliance force levels in Kosovo, of 
which U.S. troops comprise only 15 percent, KFOR should remain at 
current levels until further progress is made. In addition to KFOR 
support, European Command continues to facilitate State Partnership 
Program engagement between Kosovo and the Iowa National Guard, as well 
as traditional military-to-military efforts aimed at professionalizing 
the Kosovo Security Force's training program and noncommissioned 
officer corps. These efforts are designed to assist in the eventual 
transition of international security responsibilities to Kosovo 
institutions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Overall in the Balkans, European Command continues its work to 
encourage greater collaboration among partners in regional venues such 
as the Adriatic Charter. The Adriatic Charter serves as the flagship 
forum for regional cooperation, and builds on U.S.-provided support 
toward the goals of eventual integration into NATO and other Euro-
Atlantic institutions. European Command's objectives remain focused on 
facilitating regional solutions to challenges, promoting regional 
stability, protecting and strengthening borders through counter-
trafficking and counter-proliferation initiatives, and promoting a safe 
and secure environment in Southeast Europe's most fragile countries.

Caucasus
    Similar to the Balkans, instability and fragility in the Caucasus 
will continue. That instability is highlighted by Russia's continued 
non-compliance with the August 2008 cease-fire agreement with Georgia, 
as well as the ongoing political struggle between Georgia and Russia 
over the occupied regions of South Ossetia and Abkhazia. The North 
Caucasus may very well experience more violence in the near term, as 
persistent economic stagnation, lack of government investment (outside 
of Sochi, the site of the 2014 Winter Olympics), social instability, 
and wholesale emigration by ethnic Slavs seeking safer territories all 
take their toll, resulting in challenges to governance and 
susceptibility to the increasing influence of radical Islamists. Though 
not as volatile as the North Caucasus, the South Caucasus remains a 
concern in the absence of an agreed political resolution to the 
Nagorno-Karabakh conflict between Armenia and Azerbaijan and continued 
violent incidents on the Line of Contact separating the opposing 
forces.
    European Command continues vigorous engagement across the Caucasus, 
given the region's strategic importance as a global energy corridor, 
key node on the Northern Distribution Network, source of national 
contributions to ISAF, potential for narcotics and illicit weapons 
trafficking, interest area for both Russia and Iran, and location of 
frozen conflicts that have potential to flash into wider and more 
destabilizing wars. In 2012, Armenia deployed a platoon of peacekeepers 
to serve alongside the United States in KFOR, and Georgia remains a key 
partner in the region, one who continues to make extraordinary ISAF 
contributions. European Command is involved in defense cooperation 
assessments and efforts with Georgia as directed in the National 
Defense Authorization Act for Fiscal Year 2012. Additional security 
cooperation program priorities in the South Caucasus are focused on 
developing and sustaining relationships that: ensure U.S. access and 
freedom of action (focused in the near term on Northern Distribution 
Network areas); counter regional and transnational threats, especially 
violent extremist organizations, counter-WMD proliferation, and illicit 
trafficking; solidify defense institutional reforms; and sustain 
partner capacity to enhance regional security while not hindering 
diplomatic efforts to settle the region's frozen conflicts.

European Economic, Social, and Demographic Dynamics
    Europe will continue to feel the cumulative effects of several 
economic and associated socio-cultural stresses for the foreseeable 
future. These stresses include: the lasting impact of the Euro zone 
debt crisis; the aging and retirement of a large segment of the 
population, with its attendant pressure on already stressed social 
services; increased labor demand that exceeds worker supply, with a 
resultant pressure to assimilate a growing immigrant work force; and 
the draining of human resources and intellectual capital in countries 
experiencing slow or no growth. These economic and demographic forces 
pose a challenge to European economic and political clout in the near 
term, stress transnational and national governance structures, 
including the European Union and NATO, and increase the potential for 
instability around the continent. The result of these forces is also 
magnified on European militaries, as national GDPs have fallen and 
governments reduce the GDP percentage dedicated to defense spending in 
order to deal with increasing deficits and reduced revenue. European 
Command's response is a campaign of active engagement with allied and 
partner Ministries of Defense across the theater to keep national 
defense funding at effective levels, encouraging wise investment of 
available defense spending and supporting the broader U.S. interagency 
effort to assist newly democratic nations develop well-crafted 
government institutions and reduce the effects of corruption.

Pooling Resources, Sharing Capabilities
    In response to this climate of fiscal austerity and corresponding 
defense cuts, European Command is working with NATO to make the most of 
available defense expenditures by pooling resources, sharing 
capabilities, setting priorities, and enhancing coordination of 
effort--in initiatives like the NATO Centers of Excellence--that 
sustain the required military capabilities that underpin the alliance's 
core tasks, evolving needs, and priorities set in Lisbon and Chicago. 
Additionally, we must also continue to strongly encourage our allies to 
meet the minimum NATO goal of spending at least 2 percent of their GDP 
on defense.

Ballistic Missile Defense
    Unfortunately, our adversaries continue efforts to procure, 
develop, and proliferate advanced ballistic missile technologies, 
posing a serious threat to U.S. forces and installations in the 
theater, as well as to the territory, populations, and forces of our 
European allies and partners.
    Accordingly, European Command continues to make significant 
progress in implementing the President's European Phased Adaptive 
Approach (EPAA) to missile defense. EPAA Phase One is complete, with 
the AN/TPY-2 land-based radar established and operating from eastern 
Turkey, U.S. Navy Aegis BMD warships on-station in the Mediterranean, 
and NATO's declaration last May in Chicago of its interim ballistic 
missile defense (BMD) capability. EPAA Phase Two is currently in 
progress, with planning and construction efforts on track to homeport 
four forward-deployed U.S. Navy Aegis BMD warships at Naval Station 
Rota, Spain, and with work progressing on the first of two Aegis Ashore 
facilities, with the first site located in Romania. The BMD agreement 
with Poland for the second Aegis Ashore site, as part of EPAA Phase 
Three, is signed and in force.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The BMD mission also offers another excellent example of the 
tangible benefits of cooperative resource pooling with our allies and 
partners in a critical collective security mission. At last year's 
European Command-sponsored BMD conference in Berlin, the United States 
and our allies conferred on existing advanced maritime air defense 
systems that could be upgraded to provide European-procured upper-tier 
BMD surveillance or interceptor contributions to NATO's BMD mission, 
augmenting the U.S. national contribution. The conference also explored 
ways to burden-share through a multi-national interceptor pool. This is 
an important dialogue that, adequately supported, can generate ideas 
and realize initiatives to increase allied upper and lower-tier BMD 
contributions complementary to, and interoperable with, existing high-
demand, low-density U.S. assets. European Command efforts in this area 
are already achieving results, as we contributed to the recent Dutch 
decision to procure upper-tier maritime surveillance BMD systems.

Terrorism and Violent Extremism
    With more than 700 kinetic terror incidents occurring in the 
theater over the past several years, ongoing instability and terrorism 
(both international and indigenous) existing in, and transiting 
through, our theater will continue to threaten Europe and the United 
States. The diversification of the threat landscape in Europe combined 
in some cases with the destabilizing social and economic factors 
described earlier will increase the number of disaffected groups across 
the political and cultural spectrum that may support extremist groups 
or seek to express their growing frustrations through violence. The 
concern is that, stretched increasingly thin by fiscal and policy 
constraints, theater national governance mechanisms, including law 
enforcement and intelligence agencies, may be hard-pressed to respond 
to these trends. Meanwhile, Al-Qaida and other Islamist extremist 
groups, with extensive ties to individuals and groups in Western 
Europe, continue to pose a significant regional threat. These groups 
regard Europe as an important venue for recruitment, logistical 
support, financing, and the targeting of U.S. and Western interests. 
Additionally, Iran's Qods Force continues to operate in Europe, and the 
rising influence and actions of Lebanese Hezbollah in our theater also 
operates against U.S. and partner interests.
    In addition to designating Special Operations Command Europe 
(SOCEUR) as the lead organization for theater counter-terrorism 
efforts, and the associated creation of the SOCEUR CT-Core Cell 
organization described in the SOCEUR appendix, European Command 
continues to work closely with theater-based U.S. Intelligence 
Community partners, U.S. Central Command, U.S. Special Operations 
Command, and U.S. Northern Command to track terrorist threats across 
Europe and the Levant which may pose a risk to the security of the 
Homeland, forward-stationed or deployed U.S. forces, or our allies and 
partners.
    In fighting back against theater terrorism and extremism, influence 
operations constitute a key element of the command's 21st century 
strategy and military activities. In the literate and wired societies 
of Europe, these operations provide us with the ability to communicate 
and influence key target audiences using traditional print and 
broadcast media, as well as increasingly pervasive 21st century tools, 
including web sites, social media, and cell phones. Our ongoing 
influence program, Operation Assured Voice, is a vital contributor to 
the pursuit of our military objectives and theater campaign plan. 
Through these increasingly necessary `soft power' activities, we seek 
to counter violent extremist messaging and mitigate the potential loss 
of influence given reduced force presence in Europe. We must be able to 
compete effectively in the information environment, confront violent 
extremist ideology and recruitment, and reach out to fence sitters 
wherever ideas compete. Success on the front lines of the information 
age is critical to preserving stability in our theater and shaping the 
information environment should a crisis occur.

Transnational Organized Crime and Illicit Trafficking
    In addition to, and often in collusion with, terrorist and 
extremist threats is another source of growing instability inside the 
European Command theater: the expanding reach and influence of 
transnational organized crime. Transnational organized crime networks 
are using increasingly sophisticated business models, operations, and 
networks to perpetrate global illicit activities. These networks are 
highly adaptable, bold in technique, ruthless in execution, and are 
expanding and diversifying their activities at an alarming rate. Some 
estimates project their revenue at 8-15 percent of the $70 trillion in 
global GDP.\4\ The result is a convergence of well-funded transnational 
organized crime networks that can destabilize entire economies, 
undermine good governance, and create national security threats to the 
United States, our allies, and partners.
---------------------------------------------------------------------------
    \4\ U.S. National Defense University, ``Final Report of the Trans-
Atlantic Dialogue on Combating Crime-Terror Pipelines,'' June 25-26, 
2012.
---------------------------------------------------------------------------
    There is also growing evidence of an evolving relationship among 
terrorists, criminals, and financiers, as each group attempts to 
exploit the seams that exist in national policies to further this 
growing illicit global enterprise. Additionally, the pace and scope of 
21st century global commercial activity is increasing smuggling venues 
and innovation to facilitate the movement of a wide range of threats 
from small arms to threat finance to human trafficking to, in a worst-
case scenario, WMD agents and delivery systems. Continued pressure on 
European security budgets, along with Europe's open borders and eased 
customs checkpoints, could increase the difficulty in combating these 
threats. Yet, as the President's strategy makes clear, we must continue 
our collective efforts to understand, disrupt, and dismantle these 
growing threat networks. In an increasingly interconnected world, the 
threat from transnational organized crime represents a 21st century 
national and global security imperative.

Joint Interagency Counter-Trafficking Center
    In support of the President's National Strategy to Combat 
Transnational Organized Crime (TOC), European Command has stood up the 
Joint Interagency Counter-Trafficking Center (JICTC). It is important 
to note that JICTC is a facilitator in support of U.S. Country Teams, 
and that JICTC is not a law enforcement organization and does not 
conduct law enforcement activities. Created from existing European 
Command personnel and infrastructure, JICTC uses existing legal 
authorities to support U.S. security cooperation activities conducted 
by U.S. Embassy personnel, operating in countries within the European 
Command area of responsibility. All of the support and training 
provided to any particular European nation is done at the request, and 
through the auspices, of the U.S. Country Team in that nation. JICTC's 
operations are focused security cooperation activities in the areas of 
counter-narcotics and support to law enforcement. JICTC provides a 
single point of contact for U.S. Country Teams to provide training to 
host-nation partners in these areas. The emphasis on counter-narcotics 
is consistent with NATO's priorities, and has been a European Command 
mission for many years.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In support of these objectives, JICTC supports U.S. Country Team 
and interagency efforts, and collaborates with similar European 
organizations, to assist our partner nations build self-sufficient 
counter-trafficking skills, competencies, and capacity to defend the 
United States and Europe from rising TOC threats. Importantly, JICTC 
does not seek a leadership role for combating organized crime; rather 
it simply serves as an important forward, theater-based facilitation 
platform for U.S. agencies and international partners to synchronize 
counter-trafficking efforts in a collaborative, whole-of-government 
approach. In a recent example of its contributions and effectiveness 
last year, JICTC partnered with Southeastern Europe nations to 
implement biometric screenings at border entry ports in order to 
rapidly identify potential terrorists and TOC figures. In just the 
first day in operation, these enhancements netted two arrests, 
including a known terrorist.

Whole-of-Government Approach
    Given the likelihood of reduced budgets for years to come, a 
`whole-of-government' approach to finding and implementing solutions to 
sources of instability and conflict is more important than ever. 
Partnering unlocks efficiencies and avoids costly duplication of 
effort. European Command's J-9 Interagency Partnering Directorate, a 
model that is also in use at numerous other U.S. combatant commands, 
applies the multiple perspectives of U.S. Government interagency 
partners to address complex 21st century problems that transcend 
military-only solutions. For 3 years, European Command has diligently 
worked to assemble a diverse team of representatives from eleven U.S. 
Government agencies, including the Departments of State, Justice, 
Treasury, Energy, Homeland Security, the Defense Threat Reduction 
Agency and the U.S. Agency for International Development. Their 
expertise, skills, and direct linkage to their Washington DC-based 
headquarters make these team members an invaluable resource in taking a 
more probative look at sources of regional instability across our 
theater, including terrorism and extremism, and applying the collective 
wisdom and intellectual resources of the interagency community to form 
more comprehensive long-term solutions.

Public-Private Partnering
    `Whole-of-society' solutions are the next evolution to build upon 
`whole-of-government' success. European Command continues to support 
the Department of Defense initiative to integrate the capabilities and 
expertise of the private and non-profit sectors, in coordination with 
our interagency partners, to support theater objectives. Our long-term 
strategic partnership with the Business Executives for National 
Security (BENS) group continues to enhance our partner nations' 
abilities to provide for their own security. This year, BENS sent a 
delegation of volunteer business executives to the Azores in Portugal 
to help identify economic development opportunities in anticipation of 
projected force structure reductions at Lajes Airfield. BENS also 
teamed with cyber experts to assist the Government of Iceland cope with 
a host of cyber security challenges.
    In direct support of the transition mission in Afghanistan, 
European Command has developed strategic partnerships with the private 
sector, non-profit organizations, and U.S. interagency partners to 
improve access and economic opportunities for countries along the 
Northern Distribution Network. Additionally, we are working with 
partner nations in the South Caucasus to develop and improve treatment 
capabilities for their wounded warriors who have suffered complex 
amputations from combat in Afghanistan. Lastly, these public-private 
efforts are focused on assisting partners improve their disaster 
preparedness and response capabilities by working with private sector 
and non-profit partners to enhance the ability of local commercial 
sectors to assist national recovery efforts in vulnerable areas.

Cyberspace
    Cyberspace remains largely indifferent to national borders and 
traditional security arrangements. Continuous technology evolution and 
the relative ease of employing disruptive effects in cyberspace have 
elevated its strategic significance in the military arena. Challenges 
in attribution and identity management in cyberspace make it difficult 
to differentiate between state-sponsored and non-state threat actors, 
while employment of non-state proxies in cyberspace allows states to 
mask their involvement in malign activity. Traditional deterrence 
strategies and defensive concepts still need to be adapted to the 
unique character and functions of this increasingly vital operational 
domain, without negatively impacting the vital global connectivity, 
commerce, and free flow of information that cyberspace provides.
    Apart from developing technologically superior defensive 
countermeasures and seeking multinational commitment to ensuring 
fundamental freedoms, privacy and the free flow of information in 
cyberspace, European Command continues to work collaboratively with 
regional allies and partners in a whole-of-government effort to build 
strong and resilient collective cyber security. These efforts include 
assisting our partners develop and sustain information assurance and 
cyber defense programs, capable cyber defense workforces (including a 
cyber incident response capacity), and promoting shared situational 
awareness about existing threats and the best practices to mitigate 
them. The command pursues these initiatives through our annual cyber 
exercise program, Combined Endeavor, our ongoing coordination with U.S. 
Cyber Command, and our participation in the NATO Cooperative Cyber 
Defense Center of Excellence in Tallinn, Estonia.

Energy
    Reliable access to affordable energy remains a core issue for 
countries across the European Command theater, whether they are energy 
exporters, importers, or transit states. The reality is that dependence 
on Russian natural gas will continue to drive energy security 
considerations for many of our European partners. We continue to 
support alternatives and monitor changes to the energy status quo in 
Europe, including changes in global oil markets, the potential large-
scale development of unconventional gas resources, alternate 
hydrocarbon supply lines (such as those from the Caspian Sea region), 
and the increased supply of liquefied natural gas.
    European Command's J-9 Interagency Partnering Directorate assists 
our partners in this area by working with the U.S. Department of Energy 
and other U.S. agencies to investigate and expand alternative 
opportunities, primarily in support of partner nation military forces 
and facilities. Advances in hydrocarbon exploration and extraction, 
developments in current and next-generation renewable energy 
technologies, and improvements in energy efficiency all combine to 
provide European states a significant opportunity to reduce their 
energy dependence. The J-9 Directorate continues to work closely with 
these nations to explore these issues and identify energy solutions. 
Last fall marked a milestone, as European Command's bilateral 
engagement and 2011 Memorandum of Understanding with Lithuania's Energy 
Security Center assisted in elevating the importance of that Center's 
work; one which was recently certified by the North Atlantic Council to 
become NATO's fully-accredited Energy Security Center of Excellence. 
Closer to home, J-9 continues its work with the Office of the Secretary 
of Defense to implement the Department's Operational Energy Strategy 
Implementation Plan, focused on energy security and efficiency for U.S. 
forces, defense installations, and critical infrastructure.

                            THEATER POSTURE

         ``For Europe, the U.S. defense strategy reaffirms the lasting 
        strategic importance of the transatlantic partnership with the 
        United States. Although it will evolve in light of strategic 
        guidance and the resulting budget decisions, our military 
        footprint in Europe will remain larger than in any other region 
        in the world. That's not only because the peace and prosperity 
        of Europe is critically important to the United States, but 
        because Europe remains our security partner of choice for 
        military operations and diplomacy around the world.''--Former 
        Secretary Panetta


Force Laydown
    The United States will sustain a military presence in Europe that 
meets our NATO Article 5 commitment, enables execution of our likely 
European Command contingency plans, continues to support America's 
leadership position in NATO, ensures a credible deterrent against 
aggression, and is sufficiently robust to maintain and sustain the 
strategic access, infrastructure, and lines of communication that 
enable the United States to conduct global operations. Global access 
through Europe remains a critical aspect of America's ability to 
execute our existing contingency plans in and beyond Europe. This 
strategic access is dependent upon continued success in sustaining the 
long-term relationships we enjoy with our European allies and partners, 
who remain our hosts. We recognize the challenges of the fiscal 
environment and, in accordance with the Defense Strategic Guidance, 
continue to consolidate our installations and seek additional 
efficiencies in U.S. overseas posture while maintaining the necessary 
capacity to meet our mission requirements. We will continue to advocate 
for a deliberate and balanced approach to posture in Europe to ensure 
that future changes meet minimum requirements to conduct U.S. 
contingency operations, support U.S. global strategic access, and meet 
our NATO commitments.
    U.S. posture in Europe provides unparalleled proximity and access 
to three continents (Europe, Asia, Africa), stands ready to support 
U.S. and NATO operations on extremely short notice, and is critical to 
U.S. planning, logistics, and operations in support of U.S. European 
Command, U.S. Central Command, U.S. Africa Command, U.S. Transportation 
Command, U.S. Special Operations Command, and U.S. Strategic Command. 
Forward-stationed active duty servicemembers, forward-deployed 
rotational units, and Reserve Forces remain the Nation's primary tool 
to maintain influence across our theater and, when called upon, to 
project power quickly within and beyond it. U.S. posture in Europe is 
an incontestable manifestation of our commitment to the region, 
preserving strategic relationships and trust, helping build 
interoperability with our allies and partners, and facilitating 
progressive transformation within European militaries. The U.S. 
approach throughout the recent defense strategy review was guided by 
our enduring need for, and commitment to, these objectives.
    There are approximately 64,000 military personnel authorized for 
the support of U.S. European Command and our Service component 
commands. Additionally, there are approximately 10,000 additional U.S. 
personnel supporting U.S. Africa Command, U.S. Transportation Command, 
NATO, and other U.S. Government and Department of Defense activities in 
Europe. Moving forward into the future, European Command's mission 
focus for our enduring forces is as follows:

        <bullet> Ground Forces: U.S. Army Europe will retain a 
        deployable Contingency Command Post, two Brigade Combat Teams 
        (BCT), and theater enabling forces to include aviation, signal 
        corps, medical, engineers, air and missile defense, logistics 
        units, and the Joint Multinational Training Command. From a 
        pool of globally available forces, the U.S. Army will also 
        allocate a BCT, with rotational assignments described 
        previously, to be part of the NATO Response Force (NRF) 
        beginning this year.
        <bullet> Air Forces: U.S. Air Forces Europe will retain the 
        capability to conduct air superiority, theater nuclear support, 
        suppression of enemy air defense (SEAD), and strike missions. 
        In addition, the Air Force will maintain its current capability 
        in terms of operational and tactical-level command and control, 
        theater airlift, air refueling, intelligence, surveillance, and 
        reconnaissance, special operations forces, and base operations 
        support.
        <bullet> Naval and Marine Forces: U.S. Naval Forces Europe will 
        retain the USS MOUNT WHITNEY and provide command and control of 
        rotational naval forces. Additionally, the U.S. Navy will begin 
        to base four Aegis destroyers at Naval Station Rota beginning 
        in fiscal year 2014. U.S. Marine Corps presence includes the 
        U.S. Marine Forces Europe Headquarters, the USMC Prepositioning 
        Program in Norway, and rotational forces, including those 
        assigned to the Black Sea Rotational Force.
        <bullet> Special Operations Forces: Special Operations Command 
        Europe will retain a headquarters element, along with an Army 
        Special Forces Battalion, an Air Force Special Operations 
        Group, and a Naval Special Warfare (SEAL) unit.

Strategic Rebalance
    In accordance with the Defense Strategic Guidance, U.S. European 
Command continues to rebalance its force levels and base footprint in 
order to help the Department of Defense divest itself of legacy forces, 
reapportion forces toward regions of greater instability, and save 
money. Several recent inactivation decisions will make significant 
changes to our posture. The most notable change is the inactivation of 
the U.S. Army's V Corps Headquarters (2013), 170th Brigade Combat Team 
(2012), and 172nd Brigade Combat Team (2013). Additionally, as the U.S. 
Army reduces force structure in the coming years, there will be an 
additional reduction of approximately 2,500 enabling forces and their 
equipment. Lastly, the Air Force de-activated an air support operations 
squadron (2012), and plans to inactive an A-10 squadron and an air 
control squadron.
    Consistent with the Defense Strategic Guidance and the new NATO 
Strategic Concept, we will also continue to adapt and develop our 
theater requirements by: (1) reinvigorating our contribution to the 
NATO Response Force, allocating elements of a rotational BCT to train 
in a multi-national European environment and leveraging the premier 
U.S. Army training facilities located at the Joint Multinational 
Training Center in Germany; (2) meeting the objectives of the European 
Phased Adaptive Approach by supporting the AN/ TPY-2 radar in Turkey, 
home-porting four Aegis BMD-capable ships in Spain, and establishing 
land-based Aegis Ashore sites in Romania and Poland; (3) enhancing 
regional SOF responsiveness by stationing CV-22 aircraft in the United 
Kingdom, and continuing our strong partnership with the NATO SOF 
Headquarters in Belgium; and (4) continuing C-130 and F-16 aircraft 
rotation to the newly established aviation detachment in Poland to 
enhance Eastern European aviation training and interoperability.

Military Construction
    Thanks to strong and continued congressional support, previous 
annual military construction authorizations and appropriations have 
enabled us to address a balanced mix of our most pressing requirements 
to support the missions and priorities articulated above. The goal of 
our fiscal year 2014 military construction program is to support our 
posture initiatives, recapitalize key infrastructure, and consolidate 
at enduring locations. Of particular importance in the coming year is 
support for our EPAA missile defense projects and the Landstuhl 
Regional Medical Center/Rhine Ordnance Barracks theater medical 
consolidation and recapitalization project.
    Congressional support for EPAA Phase One projects, including 
approval to replace expeditionary facilities in Turkey with semi-
permanent facilities, was critical to achieving a high degree of 
readiness at the AN/TPY-2 radar site. In fiscal year 2013, the command 
will begin EPAA Phase Two projects, including an Aegis Ashore site in 
Romania. Additionally, a request for an EPAA Phase Three Aegis Ashore 
site in Poland is being developed in fiscal year 2015 as part of the 
budget submission and will provide the U.S. and our allies improved 
deterrence against rogue BMD activity.
    The Landstuhl/Rhine Ordnance Barracks Medical Center replacement 
project remains one of the command's highest military constructions 
priorities. Fiscal year 2012 and 2013 funding support have greatly 
facilitated the project's progress to date. The new facility 
consolidates duplicative medical facilities in the Kaiserslautern 
Military Community, and provides a vitally important replacement to 
theater-based combat and contingency operation medical support from the 
aged and failing infrastructure at the Landstuhl Regional Medical 
Center. This recapitalization project will provide lifesaving 
intervention, combat trauma, emergency care, and other medical support 
to warfighters operating in the U.S. European Command, U.S. Central 
Command, and U.S. Africa Command theaters, as well as forward-stationed 
U.S. forces in Europe and their families. Continued support and 
progress with this critical project will ensure the continued 
availability of the highest level trauma care to future U.S. 
warfighters at this medically significant halfway point between the 
United States and areas of persistent conflict in the Middle East, 
Africa, and other regions across half the globe.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    European Command continues to carefully assess our investments at 
enduring locations. We have reduced our footprint dramatically over the 
past 22 years, consolidating all operations to approximately 21 main 
operating bases, with smaller supporting sites. As mentioned earlier, 
this represents a 75 percent reduction in installation inventory since 
the end of the Cold War. Additionally, the command is on a trajectory 
to reduce our footprint further, to 17 main operating bases with the 
closure of the U.S. Army communities at Heidelberg, Mannheim, 
Darmstadt, Schweinfurt, and Bamberg. While further theater 
consolidation at enduring locations remains a command priority, it is 
important to note that continued reductions and consolidations to gain 
greater efficiencies may require additional military construction.

                      OUR MOST IMPORTANT RESOURCE

         ``We will keep faith with our troops, military families, and 
        veterans who have borne the burden of a decade of war and who 
        make our military the best in the world. Though we must make 
        hard fiscal choices, we will continue to prioritize efforts 
        that focus on wounded warriors, mental health, and families. As 
        our newest veterans rejoin civilian life, we continue to have a 
        moral obligation--as a government and as a nation--to give our 
        veterans the care, benefits, and the job opportunities they 
        deserve.''--President Obama

Taking Care of our People and their Families
    As the Department of Defense continues to deal with the effects of 
more than a decade at war, we have a solemn obligation and 
responsibility to continue successful programs and seek new and 
innovative ways to support our forces and families. In that effort, 
European Command's `Force and Family Readiness' priorities are closely 
aligned with the administration's `Strengthening Our Military Families' 
initiative.
    While maintaining our focus on mission readiness, we continue to 
seek avenues and resources to respond to the significant stress placed 
on our forces and families due to protracted combat operations and 
cyclical unit and personnel deployments. There remains a need for 
sustained behavioral health services to support our warriors and their 
families, particularly in an overseas environment with few private 
sector options. It remains a command priority that the members of our 
All-Volunteer Force and their families continue receiving the quality 
care and responsive support they need in a stigma-free environment.
    European Command also supports the efforts being led by the 
Department of Defense Education Activity to transform and modernize our 
1950s-era, aged and, in some cases, failing overseas school 
infrastructure. European Command is fortunate to have some of the best 
and most committed teachers at work in our theater. We are committed to 
providing the resources these educators need to ensure the children of 
our military and DOD civilian families receive a first-rate education.
    Lastly, as total force levels continue to change, servicemembers 
must transfer more often than originally expected, placing yet another 
burden on the military family. The inability of the military spouse to 
remain in his or her chosen career field is a part of that burden, 
adding further economic strain in difficult times. Of the 26,000 Active 
Duty and Reserve spouses who live in our theater, 25 percent possess a 
college degree and 10 percent hold graduate degrees. Accordingly, in 
order to support greater spouse employment, European Command launched 
our first-ever `Spouses Virtual Job Fair' last year. Part of the wider 
`Military Spouse Employment Partnership' program, this initiative 
provided key assistance by linking military spouses with employers 
seeking a highly qualified 21st century workforce.

                NATO AND ALLIED COMMAND OPERATIONS (ACO)

NATO's Strategic Direction
    The NATO Alliance remains the center of a transatlantic framework 
focused on the strategic concept of `Active Engagement, Modern 
Defense.' The core principles of collective defense, crisis management, 
and cooperative security contribute to the peace and safeguarding of 
the United States and our European allies and partners. The alliance 
has evolved from a Cold War construct, consisting of a few nations, to 
twenty-eight member nations today with a shared vision and growing 
interoperability to provide expeditionary capabilities for out-of-area 
operations. To safeguard the alliance against the evolving challenges 
of 21st century security, including ballistic missile defense, cyber 
attack, proliferation of weapons of mass destruction, and terrorism, 
NATO is evolving through institutional reform, programs and 
initiatives, and increased interoperability and partnerships.

NATO Command Structure Reform
    The Lisbon Summit set the glide path for a new NATO command 
structure that is leaner, more affordable, and more effective at 
conducting operational and transformational tasks across the full range 
of alliance missions. NATO Command Structure reform is on track to 
reduce its staff manpower from 13,000 to 8,800 and cut major 
headquarters from 11 to 6. Organized under two Strategic Commands 
(Operations and Transformation), it will include two deployable joint 
force headquarters (JFHQs), land, air, and maritime components, and the 
NATO communications and information systems group. The NATO command 
structure links the alliance's over 3 million active military 
personnel, 24,000 aircraft, 750 ships, and 50 AWACS to operate stronger 
together in the 21st century.
    NATO Forces 2020. NATO's vision for future capability improvement 
was unveiled at the Chicago Summit as a framework to build the concepts 
of `Smart Defense' and the `Connected Forces' initiative. NATO's Smart 
Defense initiative provides the path to develop the capabilities; the 
Connected Forces initiative is how NATO will employ these capabilities.

Smart Defense
    The Smart Defense initiative is a means to provide access to 
crucial capabilities while collectively taking multinational and 
innovative approaches to pooling resources. As mentioned, this 
initiative creates opportunity for the alliance to work together, 
wisely using individual defense budgets to make NATO greater than the 
sum of its parts. In critical areas--such as sustainment, training, 
engagement, ballistic missile defense, force protection, and 
intelligence, surveillance, and reconnaissance--Smart Defense gives 
nations the ability to contribute to projects and acquire capabilities 
that they may otherwise be unable to afford individually. To date, the 
Europeans participate in every one of the 147 Smart Defense projects. 
More importantly for the transatlantic partnership, they lead over two-
thirds of them. Smart Defense aims to assure continued capability 
development commensurate with global security challenges in order to 
meet NATO's Strategic Concept, even in the prevailing resource-
constrained global economy.

         ``We will ensure that our Alliance has the modern, deployable, 
        and connected forces that we need for the next decade and 
        beyond. We will do this through a renewed culture of 
        cooperation called `Smart Defense' . . . We call it `Smart 
        Defense' because it is about spending defense money in a 
        smarter way. The smarter way is to prioritize, to specialize, 
        to cooperate, to focus on not just what we cut, but on what we 
        keep. And to choose multi-national solutions instead of 
        unilateral solutions.''--NATO Secretary General Anders Fogh 
        Rasmussen

Connected Forces Initiative
    The Connected Forces initiative presents an opportunity to 
contribute to the `NATO Forces 2020' vision and goal, by building on 
alliance experience in recent operations, and maintaining and enhancing 
NATO's combat effectiveness--hard earned over the past decade--through 
expanded education and training events, increased exercises, and the 
better use of technology.

Major Operations
    Over the past year, NATO and Allied Command Operations have 
executed multiple major operations, demonstrating the alliance's 
impressive capabilities. Today, roughly 150,000 military personnel are 
engaged in NATO missions around the world, successfully managing 
complex ground, air, and naval operations in every type of environment. 
Every day, NATO forces are operating in Afghanistan, Kosovo, the 
Mediterranean, with the African Union, in the skies over the Baltic and 
North Seas, and in the waters off the Horn of Africa.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Afghanistan
    NATO's operation in Afghanistan continues to remain the top 
priority and operational commitment of the alliance and our partner 
nations comprising ISAF. There are 106,000 troops from 50 troop-
contributing nations sharing the combined burdens and sacrifices of the 
Afghanistan mission as we press forward with a balanced drawdown of 
combat forces and provide sustainment post-2014. The sacrifices shared 
by ISAF and our Afghan partners will ensure that Afghanistan will never 
again become a safe-haven for terrorists. Since NATO's intervention, 
the lives of Afghan men, women, and children have significantly 
improved with respect to security, health care, education, and 
opportunity. Today, over 80 percent of Afghans have access to health 
care. Since 2002, school enrollment for children has increased from 2 
million to 8 million with girls representing 38 percent of this 
enrollment, up from a dismal low of 3 percent under the Taliban. 
Infant, child, and maternal mortality rates have decreased by over 34 
percent since 2002, and adult life expectancy has gone from 42 to 62 
years of age. NATO's goal remains to turn over full responsibility for 
security to Afghanistan by December 31, 2014.
    The strategy outlined at the 2010 Lisbon Summit, assured at the May 
2012 Chicago Summit, and reinforced at the July 2012 Tokyo Conference 
is on track to build the capacity, capability, and professionalism of 
the Afghan National Security Forces (ANSF). Today, ANSF stand at a 
force level of 335,000: 182,000 from the Afghan National Army; 6,000 
from the Afghan Air Force; and 147,000 from the Afghan National Police. 
In October 2012, ANSF reached their recruiting goal of 352,000. The 
transition--which started in 2011, and is being sequentially expanded 
through five tranches of selected districts and cities to encompass all 
of Afghanistan by mid-2013--is underway in some part of all 34 
provinces, all provincial capitals, and two-thirds of all districts. 
The ANSF have assumed lead responsibility for areas that encompass 76 
percent of the Afghan population, and conditions in these areas have 
remained stable or improved. In fact, civilian casualties have fallen 
for the first time in 6 years, down 12 percent, and ISAF casualties are 
down 27 percent compared to last year. Last December, the `Tranche 4' 
announcement transitioned security responsibility for the remaining 
internal and border areas. Once the full transition is complete by the 
end of 2014, the ISAF mission will end.
    In support of post-2014 operations in Afghanistan, NATO will launch 
the NATO Train, Advise, and Assist Mission, tentatively named `Resolute 
Support' in Afghanistan. In October 2012, NATO Defense Ministers 
approved the North Atlantic Council (NAC) Initiating Directive for 
developing the concept of operations for the Resolute Support Mission 
in Afghanistan. It is due this spring. This demonstrated resolve 
ensures the gains made during the transition are irreversible.
    Tangible signs of the gains in Afghanistan continue to be shown. In 
findings recorded by the Asia Foundation in their 2012 Survey of the 
Afghan People, 52 percent of Afghans polled conveyed their belief that 
the country is ``headed in the right direction,'' up from 46 percent 
last year.\5\ It is worth noting that this statistic is higher than the 
percentage found in most Western countries. Moreover, the survey noted 
a moderate decrease in the percentage of Afghans who fear for their 
safety, while reflecting Afghans' continued confidence in the Afghan 
National Army and National Police as the country's most trusted public 
institutions. NATO will not leave a security vacuum in Afghanistan.
---------------------------------------------------------------------------
    \5\ The Asia Foundation, ``Afghanistan in 2012: A Survey of the 
Afghan People,'' http://asiafoundation.org/publications/pdf/1155.
---------------------------------------------------------------------------
Kosovo
    The international supervision of Kosovo has ended 4\1/2\ years 
after it became independent. The situation remains outwardly calm, but 
there remain underlying tensions and fragility while Serbia and Kosovo 
proceed within the EU-facilitated Belgrade-Pristina dialogue to resolve 
their differences peacefully. To ensure this outcome, the NATO-led 
Kosovo Force (KFOR) mission maintains 5,600 troops from 30 contributing 
countries in Kosovo. KFOR will be staying there for the time being, 
along with the 1,250 international legal experts and police supporting 
the EU's rule of law mission. While progress will require committed 
political dialogue between Belgrade and Pristina, KFOR continues to 
create positive conditions for this dialogue by helping to maintain a 
safe and secure environment and facilitate freedom of movement.

Counter-Piracy and Operation Ocean Shield
    Operation Ocean Shield is NATO's counter-piracy mission, consisting 
of up to seven ships working alongside EU and U.S. task forces to 
counter piracy in waters surrounding the Horn of Africa. These 
relationships and the shipping companies' use of armed security teams 
and industry best practices have notably reduced piracy. During the 
first 6 months of 2012, there were 69 incidents involving Somali 
pirates, down from 163 during the same period in 2011, a reduction of 
over 40 percent. Today, 2 vessels and less than 100 hostages are being 
held, compared with 30 ships and 682 mariners in 2011.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Operation Active Endeavor
    As NATO's only current Article 5-based operation, Operation Active 
Endeavor provides maritime situational awareness through operations in 
the Mediterranean to demonstrate NATO's resolve to deter, defend, 
disrupt, and protect against terrorism. Ongoing since 2001, Active 
Endeavor is on a path to transform from a platform-based to a network-
based operation, based on an intelligence and information-sharing 
network among the 63 nations and regional partners that contribute to 
the Maritime Safety and Security Information System.

NATO Members Defense Commitments and Budgeting Outlook
    The European financial crisis has had a security impact on NATO and 
partner nations. Few allies currently meet the NATO goal that each ally 
commits 2 percent of GDP to defense spending. The Smart Defense 
Initiative, Connected Forces Initiative, and NATO Forces 2020 all 
strive to fill capacity and capability gaps. However, at a time of 
uncertain security challenges and severe fiscal austerity it remains 
difficult, but still critical, to adequately fund defense spending.

Enduring 21st Century Impact & Relevance
    The 2012 U.S. Defense Strategic Guidance addresses Europe and NATO 
prominently, noting: ``Europe is home to some of America's most 
stalwart allies and partners, many of whom have sacrificed alongside 
U.S. forces in Afghanistan, Iraq, and elsewhere.'' One of NATO's most 
important priorities is to maintain working relationships, at the 
tactical, operational, and strategic levels, with those allies who have 
recently developed capabilities and interoperability with each other 
and with U.S. Forces. The NATO Response Force (NRF) is a key way to 
meet this priority.

         ``Today, I can announce that the United States will make a new 
        commitment to the security of our NATO partners by 
        reinvigorating our contribution to the NATO Response Force that 
        we value so much. The NRF was designed to be an agile, rapidly 
        deployable, multinational force that can respond to crises when 
        and where necessary. The United States had endorsed the NRF but 
        has not made a tangible contribution due to the demands of the 
        wars--until now.''--Former Secretary Panetta, Munich Security 
        Conference, February 2012

    As announced by the Secretary of Defense last year, our commitment 
of U.S. forces to the NRF is a means to reinvigorating and bolstering 
the NRF. By providing a rapid demonstration of force or an early 
establishment of NATO military presence in support of Article V or 
crisis response operations, NRF mitigates force structure reductions in 
Europe by improving interoperability and capitalizing on flexibility. 
Over the long term, NRF will be a vital asset for post-ISAF 
interoperability ensuring adherence to, and constant improvement of, 
Standing NATO Agreements (STANAGS). The NRF will also serve as both a 
key training resource and valuable tool for evaluating the status of 
European forces. As they remain our most likely companions in any 
security effort--from humanitarian assistance to full-spectrum 
conflict--the United States must have confidence in the 
interoperability and readiness of European forces.

Ballistic Missile Defense
    The protection of NATO European territory, populations, and forces 
against ballistic missiles from increasing threats to the alliance is 
vitally important. NATO declared an Interim Ballistic Missile Defense 
(BMD) capability at the May 2012 Chicago Summit. As mentioned, the U.S. 
AN/TPY-2 surveillance radar based in Turkey has been declared to NATO 
as a part of EPAA's Phase One implementation. The initial operational 
capability of NATO BMD is anticipated in 2016, with full operational 
capability in 2020.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Moreover, NATO's recent decision to provide Patriot missiles to 
defend Turkey against the threat of Syrian ballistic missiles is yet 
another sign of the alliance's solidarity and effectiveness in this 
area.

Cyber Defense
    NATO's policy on cyber defense focuses on the protection of cyber 
assets and sharing of cyber situational awareness among NATO nations. 
The fielding of the NATO Computer Incident Response Center was a 
significant milestone as we progress towards full operational 
capability in 2013 to support alliance operations and missions.

NATO Special Operations Forces
    U.S. leadership of the NATO Special Operations Headquarters (NSHQ) 
remains instrumental in driving the rapid transformation of NATO 
Special Operations Forces (SOF) and creating a NATO allied and partner 
SOF collaborative network. A deployable core of the NATO Special 
Operations Component Command Headquarters will achieve initial 
operational capability in 2013, providing an assured, responsive, and 
agile command and control entity for NATO SOF under the operational 
command of the Supreme Allied Commander, Europe. This core will be 
capable of coordinating NATO military operations within the complex and 
asymmetric environments of the 21st century. Today, over 2,000 NATO 
allied and partner SOF are conducting SOF missions in Afghanistan. 
Additionally, NSHQ is moving forward with several initiatives to 
develop interoperable SOF standards. NATO SOF brings unprecedented 
opportunities to leverage partnerships, improve interoperability, and 
deliver expanded capabilities for NATO to ensure peace and stability 
for the alliance and our partner nations.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Keeping the Edge through Exercises
    The planned reduction of NATO forces supporting ISAF, combined with 
U.S. reinvigoration in the NRF, provides a unique opportunity for NATO 
to modify and align exercise programs with U.S. combatant commands and 
regional partners. After 10 years of combat deployments against an 
asymmetric enemy, NATO will need to dedicate itself to flexible 
training that emphasizes traditional skill sets, while incorporating 
lessons learned from recent conflicts. Additionally, these exercises 
provide the opportunity for newer members of the alliance, as well as 
our other NATO partners, to pair with some of the highly-capable 
founding members, continuing to burden-share collective defense while 
raising the overall quality of NATO forces.

         ``The NATO Alliance continues to wield unprecedented influence 
        in our world, and remains a critical element of U.S. and 
        European security.''--Senator Jeanne Shaheen (D-NH), Senate 
        Armed Services Committee

                               CONCLUSION

    Every day, the soldiers, sailors, airmen, marines, coast guardsmen, 
and civilians of U.S. European Command and NATO Allied Command 
Operations are making vital contributions to the forward defense of the 
United States, the preservation of America's vital national security 
interests, and the continued evolution and effectiveness of NATO. As 
they continue their work, through the seamless execution of combined 
military operations, interagency cooperation, and whole of society 
activities, I ask that you keep faith with these extraordinary men and 
women, and their families, to ensure they receive the care and benefits 
they have earned and so rightly deserve.
    I entered Annapolis and joined the Navy over 40 years ago. Among 
the many things I have learned, one of the clearest lessons is that the 
most reliable constant in this world is change. But in today's world of 
accelerating change, connectivity, and complexity, another anchor has 
also held remarkably constant, recognized by national leaders time and 
again, for providing the essential foundation of continued security and 
stability in the 21st century. That anchor is the transatlantic 
alliance. It is simply a fact, one bridging two centuries and 
continuing to evolve in a dynamic security environment, that Europeans 
remain our most steadfast, reliable, battle-tested, and important 
global partners as we confront the strategic risks and military 
challenges of the 21st century. No other region so readily combines the 
same commitment to shared values, high-end military capabilities and 
capacity, and willingness to stand with America--as our European allies 
and partners have demonstrated at great cost and sacrifice over the 
past decade--in this century's fight for freedom and the pursuit of 
global security and stability. The 2012 Defense Strategic Guidance 
states it clearly: ``Europe is our principal partner in seeking global 
and economic security, and will remain so for the foreseeable future.''
    The world is changing again. Yet, as we consider the contributions 
and future of the transatlantic alliance, the numbers are worth 
repeating, especially in an era of significant fiscal pressure and 
austerity: Together, the United States and Europe generate half the 
globe's GDP. Our European partners collectively spend $300 billion on 
defense, second only to the United States and well ahead of China and 
Russia. As essential contributors to an alliance comprised of 750 
ships, 24,000 aircraft, and over 3 million Active-Duty Forces, and with 
over 40,000 European forces currently devoted to NATO and U.N. 
operations, our European allies and partners are significant and 
necessary global security providers, fielding forces for combat and 
stability operations that have stood shoulder-to-shoulder with the U.S. 
in Afghanistan, Iraq, Libya, Kosovo, and other hot spots across the 
world. Europeans have willingly shared the burden of war over the past 
10 years, consistently comprising the bulk of non-U.S. coalition forces 
for the missions in Iraq, Afghanistan, Kosovo, and Libya.
    Even as we acknowledge these facts, the convergence of several 
factors last year--the 2012 Defense Strategic Guidance, rising tensions 
in the Levant, North Africa, and the Balkans, and the global tightening 
of defense resources--has provided an opportunity for European Command 
to reconsider and rebalance our present priorities and enduring 
capabilities to ensure that we are providing the most efficient and 
effective support to the Nation and to NATO. This effort offered 
several conclusions. First, European Command is actively contributing 
to every one of the Defense Department's ten national missions for 
Joint Force 2020, protecting America's vital national security 
interests, and defending the Nation against the threats of the 21st 
century: ballistic missiles; WMD proliferation; terrorism; piracy; 
cyber attack; and transnational illicit trafficking. Second, U.S. 
presence and infrastructure in Europe, which continues to be right-
sized for these enduring missions and the future security environment, 
provide the United States with an indispensable strategic platform for 
engagement across the globe, directly supporting the operations of 6 
U.S. combatant commanders, numerous U.S. Government Interagency 
functions, and 51 U.S. Country Teams. Third, U.S. leadership and 
commitment to the NATO Alliance continues to support the evolution of 
that institution into the world's premier security organization, 
contributing highly capable and interoperable forces to Afghanistan, 
Iraq, Libya, and Kosovo, and preparing them for future coalition 
expeditionary operations. As such, the alliance has also become a hub 
for continued cooperation and outreach with like-minded partners in the 
Pacific, including Australia, South Korea, Singapore, New Zealand, and 
Japan, essential in the years ahead. In this capacity, the 
transatlantic partnership--one the President calls the ``cornerstone of 
global security''--remains one of the Nation's most valuable and 
enduring strategic investments. Properly sustained, it will continue 
providing critical security dividends in the challenging decades ahead.
    To safeguard that investment, European Command continues to 
leverage the funding and authorities that Congress has provided to 
preserve our strategic partnerships and maintain the essential 
warfighting capabilities and interoperability that our allies and 
partners have gained, with our help, over a decade of sustained 
deployment and combat operations. In the near term, European Command is 
working to enable a successful ISAF transition and preserve partner 
capability and commitment to the post-2014 mission in Afghanistan. To 
that end, we request that Congress continue supporting Section 1206 
(Global Train and Equip) and other ISAF coalition support programs, in 
order to meet our goals to transition security responsibility in 
Afghanistan over the coming year and, in concert with our allies and 
partners, to continue training, advising, and assisting the ANSF after 
they assume full security responsibility in 2014.
    Over the longer term, we seek your assistance and support to 
sustain the value of the transatlantic alliance and its continued 
contributions to global security. The key to that future is ensuring 
our European allies and partners can and will continue contributing 
deployable, capable, and interoperable forces for future conflicts and 
coalition military operations. Despite the economic constraints we all 
face, this future is within reach if we sustain the necessary 
investments to maintain critical gains in expeditionary capabilities 
and interoperability that have been achieved in recent years, and 
preserve the vital strategic relationships that have been painstakingly 
built over the past 6 decades. The preservation and future employment 
of these capabilities represent the impending return on our investment 
when crises arrive on our doorstep at their unscheduled hour, seeking 
urgent, multilateral, and coalition-based solutions.
    Mitigating the risks posed by the fiscal environment to U.S. 
influence in the region and NATO's enduring strength and cohesion also 
requires a clear and unequivocal U.S. commitment to our theater and 
Article V responsibilities. Those responsibilities require that we 
maintain a balanced and enduring U.S. presence in Europe; reinvigorate 
U.S. participation in the NATO Response Force; continue resourcing 
important security assistance programs such as Foreign Military 
Financing, International Military Education and Training, the Warsaw 
Initiative Fund, and the Combatant Commanders' Exercise and Engagement 
Fund; and support NATO's Smart Defense, Connected Forces, NATO 2020, 
and related initiatives.
    History may not repeat itself, but its patterns are clear. After a 
decade of war, and facing significant fiscal challenges, we stand once 
again at the crossroads: on one side, the military retrenchment and 
risk that has traditionally accompanied the end of every period of 
American war; on the other, a belt-tightening but balanced approach 
that sustains U.S. leadership and engagement in the world, with a focus 
on continued global security and prosperity. Each choice entails risks, 
and the future is hard to see. But one thing history has also shown us, 
time and again, is the enduring value of this remarkable transatlantic 
alliance.
    Though the strategic and fiscal challenges are very real on both 
sides of the Atlantic, this historical moment offers us a critical 
opportunity, one acknowledged by former Secretary Panetta: ``I believe 
that today's strategic and fiscal realities offer NATO the opportunity 
to build the alliance we need for the 21st century--an alliance that 
serves as the core of an expanding network of partnerships around the 
globe in support of common security objectives. But it is an alliance 
that remains rooted in the strong bonds of transatlantic security 
cooperation and collective defense.''
    The men and women of U.S. European Command and NATO Allied Command 
Operations are building, strengthening, and preserving those vital 
bonds to provide for the forward defense of the United States, our 
collective security, and the viability of this critical partnership. 
This is critical work, as the transatlantic partnership continues to 
serve as the security foundation for the world's economic center of 
gravity, America's secure Eastern flank, and the ``vital cornerstone of 
global security and stability'' to deal with the challenges of a 
rapidly changing century and security environment. Through this work, 
European Command and NATO form that vital ``core'' of an ``expanding 
network of partnerships''--through joint and coalition forces, civil-
military security partnerships, and international security structures--
that provide us with what I call the ``sum of all security.''
    In his remarks at last year's NATO summit in Chicago, President 
Obama reiterated and reinforced the importance of this security and an 
enduring truth of the global security environment; one that bridges the 
past and current centuries in order to guide us into the future. In 
that statement, the President acknowledged: ``NATO has been the bedrock 
of common security, freedom and prosperity for nearly 65 years. It 
hasn't just endured--it has thrived--because our Nations are stronger 
when we stand together.''
    For nearly 4 years now, the motto of U.S. European Command has been 
that we are, clearly and unequivocally, `Stronger Together.' For nearly 
65 years, this has been NATO's historic organizing principle. It is 
even truer today in light of the economic challenges and increasing 
threats we face. We must continue to work together, trust each other, 
and continue building and evolving this historic partnership to meet 
the needs and challenges of the 21st century. In doing this, we will 
not only endure; we will prevail, we will thrive, and we will continue 
to grow and to be STRONGER TOGETHER.

         ``Our transatlantic partnership is the most successful 
        alliance and the greatest catalyst for global action. I am 
        determined to keep it that way.''--President Obama
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Levin. Thank you very much, Admiral Stavridis.
    General Jacoby.

 STATEMENT OF GEN CHARLES H. JACOBY, JR., USA, COMMANDER, U.S. 
   NORTHERN COMMAND AND COMMANDER, NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    General Jacoby. Chairman Levin, Senator Inhofe, 
distinguished members of the committee: Thank you for the 
opportunity to appear before you today. It is a pleasure to be 
here with my friends and fellow combatant commanders, Admiral 
Jim Stavridis and General John Kelly. I'm not as big an Army 
guy as John is a Marine, but we're here to protect you, Jim.
    On behalf of the men and women of NORTHCOM and NORAD, I 
appreciate this committee's continuing support of our important 
missions. In the case of NORTHCOM, our missions include 
Homeland defense and that's my number one priority mission. 
It's a mission in which we work very closely with Canada in our 
integrated NORAD binational command.
    Next, we remain active in conducting our core mission of 
defense support of civil authorities, for which the highlight 
last year was our participation in the interagency response to 
Hurricane Sandy.
    Finally, alongside cooperative defense activities with our 
ally Canada, we continue to conduct security cooperation 
efforts with our close partners in Mexico and The Bahamas.
    Our NORAD missions specifically include aerospace warning 
and control and maritime warning for the United States and 
Canada. Our commands' motto is ``We Have the Watch!'' This 
reflects the vigilance with which we approach our duties and 
commitment to both the American and Canadian people. We execute 
our NORAD missions principally through our well-honed and 
uncompromising 24/7 defense of our skies, and that's Operation 
Noble Eagle.
    Our citizens have high expectations of our ability to 
defend and support them here in the Homeland, and rightfully 
so. In the event of a natural or manmade disaster, NORTHCOM 
meets those expectations by leveraging the tremendous 
capabilities and capacities of DOD to support a lead agency 
such as the Federal Emergency Management Agency (FEMA). 
Hurricane Sandy offered us glimpse of what a complex 
catastrophe which spans several States and regions could look 
like. We'll continue to mature the successful dual-Status 
Command construct, provided in the 2012 National Defense 
Authorization Act (NDAA) so that we will be ready to act 
swiftly and with unity of effort when the unthinkable happens 
and we are called.
    We are facing an increasingly complex and dynamic security 
environment. Threats are adapting and evolving. Technologies 
advance and proliferate, creating greater vulnerability in the 
homeland than ever before and complicating the accomplishment 
of our mission sets, from cyber and ballistic missile defense 
to the disruption and defeat of transnational criminal 
organizations (TCO).
    As such, critical command priority is to advocate and 
develop capabilities in our core mission areas in order to 
outpace these threats. Yet, while we are confronted with this 
emerging threat landscape, the current fiscal environment adds 
uncertainty to the availability and development of the 
capabilities we will need to manage the risks these threats 
will pose.
    Readiness concerns are sure to grow, as clearly described 
by recent Service Chief testimony. My most pressing of those 
will include unforecasted cuts to training and exercise 
programs, which are fundamental to building partnerships 
essential for responding to events in the Homeland. Unexpected 
loss of service capabilities and readiness could also, in the 
future, erode our ability to conduct our critical Homeland 
defense missions.
    As we look forward, despite these challenges, our current 
layered partnerships and history of training, education, 
exercise programs, for now leave NORTHCOM and NORAD postured to 
defend the Nation against a full spectrum of threats. But we 
will have to work hard with the Services to sustain that 
posture as we deal with program and budget uncertainty.
    Today and in the future, we will remain committed to deter, 
prevent, and defeat aggression aimed at the United States and 
Canada as two commands oriented on a single vision: that, with 
our trusted partners we will defend North America, outpace and 
mitigate threats, maintain faith with our people, and support 
them in their times of greatest need.
    We will need this committee's continued support to meet 
that vision.
    I thank you for the opportunity to appear today and look 
forward to your questions.
    [The prepared statement of General Jacoby follows:]

         Prepared Statement by GEN Charles H. Jacoby, Jr., USA

    Chairman Levin, Senator Inhofe, distinguished members of the 
committee, thank you for the opportunity to report on the posture of 
U.S. Northern Command (NORTHCOM) and North American Aerospace Defense 
Command (NORAD). As the combatant commander charged with defense of our 
Homeland, it is a distinct privilege to represent the more than 2,000 
men and women of the Commands who stand the watch around the clock on 
behalf of our Nation. Strengthened by robust partnerships with 
hemispheric neighbors and interagency communities, my commands execute 
three primary missions: homeland defense, defense support of civil 
authorities (DSCA), and security cooperation.
    NORTHCOM was established October 1, 2002 to provide command and 
control of Department of Defense (DOD) homeland defense efforts and to 
command the Federal military response to requests for DSCA. The 
imperative to protect and secure the homeland against all hazards is 
even more important today. Over the last year, Hurricanes Isaac and 
Sandy, record wildfires, severe drought, and violent tornado activity 
tested the Nation. The continued opening of the Arctic precipitated 
significant growth in human activity, potentially posing new domestic, 
foreign consequence management, and homeland defense challenges and 
opportunities. In addition to these natural events, internal and 
external manmade threats continue to proliferate. Cognizant of these 
challenges, we remain positioned to support our mission partners in 
their response efforts to restore normalcy following any disaster, 
while continually honing our capabilities to outpace and adapt to 
shared security threats to the United States and Canada in accordance 
with the NORAD agreement. Leveraging the vitally important Combatant 
Commander Exercise and Engagement Program, we prepare for our missions 
through training, education, and exercises, and take every opportunity 
to learn from these events. With each real-world crisis, we apply a 
candid, rigorous lessons learned process to replicate successes, 
correct deficiencies, and ultimately strengthen our partnerships.
    Defending the Nation requires a reliance on partners in three 
distinct geographic locations: globally, in the approaches to the 
Homeland, and within the Homeland. On the outer layer of this defense 
in depth, my global partners include the Office of the Director of 
National Intelligence, Defense Intelligence Agency, Department of 
State, and associated functional and geographic combatant commands, to 
name a few. In the approaches to the homeland are our partners in 
Mexico, The Bahamas, and Canada. Within our homeland, my Federal 
partners include the Military Departments and Services, National Guard 
Bureau (NGB), Department of Homeland Security (DHS) (specifically, 
Federal Emergency Management Agency (FEMA), U.S. Coast Guard (USCG), 
Transportation Security Administration, and Customs and Border 
Protection (CBP)), Department of Justice (DOJ), and Federal Aviation 
Administration (FAA). Finally and perhaps most critically, are my 
subordinate headquarters strategically placed at key intersections 
between the approaches and the homeland: Joint Task Force North (JTF-
North) on the Southwest border, Joint Task Force National Capital 
Region, Joint Task Force Civil Support on the eastern seaboard, and 
Joint Task Force Alaska (JTF-Alaska) in America's high north.
    Partnerships are equally important in my DSCA responsibilities. I 
live daily with the knowledge that any moment can bring news of natural 
and manmade disasters. To meet the deservedly high expectations of our 
citizens, we work in support of primary agencies responding to natural 
disasters as part of a team of Federal, state, and local entities. 
Disaster response is largely a function of preparedness. As such, our 
training and exercise program, collaboration, and communications with 
our partners form the foundation of our ability to execute in times of 
crisis. The trusted partnerships we have built with some 50 Federal 
agencies are evident in the presence of more than 60 liaison officers 
in our headquarters with whom we work side-by-side.
    These well-established partnerships achieve two principal effects. 
In pre-crisis, they enable safety and security activities that mitigate 
the effects of natural disasters and deter threat activities. Upon 
transition to crisis, unity of effort and the power of interagency 
teamwork are a function of our robust, realistic, and comprehensive 
training and exercise programs.
    Today, our partners are pressured by budget constraints that can 
erode the defense and security of the homeland unless we judiciously 
build, balance, and protect homeland defense capabilities. We remain 
mindful of our Nation's budgetary challenges and understand that fiscal 
responsibility is itself a matter of national security. The nation 
realizes meaningful security dividends through interagency partnering 
and cooperative engagement with our Canadian, Mexican, and Bahamian 
neighbors. As we confront shared challenges such as transnational 
criminal organizations, terror and weapons proliferation, and other 
threat networks, prudent investments made possible by Congress equate 
to a significant down payment on our national security objectives. With 
a relatively modest geographic combatant command budget, NORTHCOM and 
NORAD carry out our country's foremost and uniquely solemn duties to 
protect our citizens and support them in their times of greatest need. 
We are working smarter in an era of significant budget constraints, 
knowing threats to the homeland will likely not diminish. Keeping faith 
with our fellow Americans is our greatest moral imperative, 
understanding that the physical and moral consequences of a successful 
attack in the homeland far outweigh those of a similar attack overseas.

                            HOMELAND DEFENSE

    Homeland defense is perhaps the best example of how we defend in 
depth through our partners. Our Missile Defense, Aerospace Warning and 
Control, Maritime Warning, Cyber Security, Infrastructure Resiliency, 
and Antiterrorism/Force Protection mission sets require close 
cooperation and communication with partners globally, in the 
approaches, and in the Homeland.

Missile Defense
    North Korea's Taepo Dong 2 launch in December 2012, followed by its 
announcement of a third nuclear test in February 2013, are sobering 
reminders that our Nation must remain vigilant against nation-states 
that can threaten the homeland directly. North Korea continues to seek 
international recognition as a nuclear-armed state and has unveiled a 
road-mobile Intercontinental Ballistic Missile (ICBM) with claims it 
can strike targets in our homeland. Although Iran does not yet possess 
a nuclear weapon, it is developing advanced missile capabilities faster 
than previously assessed and is apparently positioning itself to 
produce a nuclear warhead quickly should its leaders choose to do so.
    I am confident in our ability to employ the Ground-based Midcourse 
Defense (GMD) system to engage the current ballistic threats against 
the United States. The fielded system was developed using a spiral 
acquisition approach designed to counter a limited, unsophisticated 
ballistic missile threat from a rogue nation. In light of the 
challenging threats that loom on the horizon, Admiral Locklear 
(Commander, U.S. Pacific Command), General Kehler (Commander, U.S. 
Strategic Command), Vice Admiral Syring (Director, Missile Defense 
Agency (MDA)), and I are working as a team with the intelligence 
community to improve our capability to warn against and mitigate 
emerging threats. We remain committed to improving current Ballistic 
Missile Defense (BMD) capabilities to ensure we maintain our strategic 
advantage and guarantee confidence in our ability to defeat evolving, 
more complex threats in the future.
    In view of the continued development of North Korean threat 
capabilities, we are partnering with the MDA to improve GMD 
reliability. To be sure, GMD is a system of systems. Only synergistic 
and comprehensive improvements across the entirety of the kill chain--
intelligence, sensors, interceptors, and command and control--can 
ensure system confidence and maximize performance. We are working 
across the entire system to enhance system reliability. The complexity 
of the GMD system dictates an intricate interplay between development 
of new capability, operator tactics, component testing, and the 
continuous calibration of threat profiles.
    We have worked closely with the MDA to maintain the right balance 
in developing and testing missile defense technologies, while 
increasing our readiness to execute this critical mission set. This 
requires that we achieve a cadence of at least one operational GMD 
intercept flight test annually. I am pleased with the successful flight 
test conducted in January 2013 and expect that future tests will serve 
to increase confidence in the fielded system.
    Our BMD responsibilities include all potential missile threats, 
regardless of range or source. To evaluate our capability against a 
regional ballistic missile threat, we have conducted a series of tests 
and exercises using Joint, Deployable Integrated Air and Missile 
Defense systems in the protection of designated critical assets (such 
as population centers, major events, and critical infrastructure) 
against a limited air, cruise, or ballistic missile attack. These 
ongoing tests and exercises are oriented on the development of tactics, 
techniques, and procedures that integrate existing Aegis BMD, Patriot, 
and Terminal High-Altitude Area Defense (THAAD) systems into a layered 
defense. We will continue to pursue effective and efficient methods to 
improve our ability to protect the Homeland. Our citizens expect our 
vigilance and rigor to protect them from a missile attack on our soil. 
We work diligently to maintain their trust.

Aerospace Warning and Control
    A vital component of homeland defense is NORAD's Aerospace Warning 
and Control missions. Through the execution of Operation Noble Eagle 
(ONE), NORAD defends North American airspace from unwanted and 
unauthorized aircraft on a 24/7 basis and accomplishes this critical 
mission with a combination of armed fighters on alert, air patrols, 
aerial refueling, Airborne Warning and Control System (AWACS) 
surveillance platforms, the National Capital Region Integrated Air 
Defense System, and our ground-based Air Defense Sector surveillance 
detection capabilities. These assets allow NORAD to respond to both 
strategic and asymmetric air threats to the Homeland.
    Since September 11, more than 62,000 sorties have been flown in 
support of ONE. Our continued requirements for air domain awareness and 
intercept capabilities mean we must ensure that NORAD forces can 
protect our most critical national infrastructure, and that we maintain 
a basing architecture that defends key terrain and our most critical 
national infrastructure.
    This has been an extremely busy year for the men and women of 
NORTHCOM and NORAD, as we have successfully supported the DHS and the 
U.S. Secret Service (USSS) to plan and execute many National Special 
Security Events (NSSEs). These include the G-8 Summit at Camp David, 
MD; the North Atlantic Treaty Organization (NATO) Summit in Chicago, 
IL; the Republican National Convention in Tampa, FL; the Democratic 
National Convention in Charlotte, NC; the Presidential Inauguration, 
and the State of the Union Address in our Nation's capital. In addition 
to NSSEs, the day-to-day operational planning and support generated by 
the 2012 National Election involved the cooperation and coordination of 
an array of interagency organizations. NORAD participated extensively 
in these efforts with a full array of support, when required by lead 
Federal agencies. We are proud of NORAD's successful planning and 
execution for these critical national events.
    NORAD continues to demonstrate the ability to respond quickly to 
potential strategic threats through Northern Sovereignty Operations, 
which involves the monitoring and detection of announced and 
unannounced Russian Military Aviation flights entering the United 
States and Canadian Air Defense Identification Zones. This year again, 
Russian Long-Range Aviation (LRA) continues a deliberate modernization 
plan with increasing operational capability. The successful detection 
and intercept of such flights demonstrates NORAD's ability and 
intention to defend not only the northern reaches of our sovereign 
airspace, but all of NORAD's area of operations. Whether in the 
continental United States or along the northern tier of Alaska and 
Canada, NORAD continues to successfully provide Aerospace Warning and 
Aerospace Control for North America.

Maritime Warning and Maritime Homeland Defense
    NORAD's Maritime Warning Mission, which supplements the national 
intelligence analysis and warning capabilities of the United States and 
Canada, continues to mature, and we have achieved notable progress in 
building and maintaining relationships with mission partners and 
stakeholders in the maritime community of interest. My staff remains 
engaged with our Canadian partners through the Permanent Joint Board on 
Defense (PJBD) and the Military Cooperation Committee (MCC) as we 
continue to improve awareness and develop the NORAD Maritime Warning 
Mission.
    Beyond maritime warning, NORTHCOM supports the execution of the 
National Maritime Security Strategy through preparations to lead or act 
in a supporting role to ensure the security of the homeland in the face 
of a maritime threat. With the recent assignment of Navy North 
(NAVNORTH), I now have a service component commander and headquarters 
responsible for maritime operations in my area of responsibility. 
NAVNORTH will continue to build on the outstanding working 
relationships with our interagency and Service partners, particularly 
the USCG, to ensure future operations are coordinated and integrated to 
the greatest extent possible.

Cyber Security
    I share former Secretary Panetta's concern that the United States 
may be in a ``pre-September 11 moment'' with regard to a major cyber 
attack. Global dependencies on electronic information technology offer 
adversaries attractive opportunities to wreak havoc in this domain. 
Cyber operations are non-kinetic, asymmetric options that have the 
added advantage of shrouded attribution. The potential effects of a 
targeted attack could have severe consequences for U.S. infrastructure 
and institutions, impede our homeland defense mission, degrade our 
ability to support military activities overseas, and strain our ability 
to provide relief to civil authorities. To address growing threats, 
NORTHCOM and NORAD, in conjunction with U.S. Cyber Command, recently 
established a Joint Cyber Center (JCC) to recognize and assess when a 
cyberspace attack is being orchestrated against the homeland. Although 
in its infancy, the JCC's goal is to provide timely and accurate 
information associated with the cyber domain through focused 
situational awareness and integrated operational cyberspace planning. 
We have also incorporated more robust cyber play in our exercises to 
refine our cyber-defense capability and enhance our effectiveness to 
operate within the confines of a degraded environment.

Antiterrorism and Force Protection
    Consistent with our Unified Command Plan authorities and guidance 
from the Secretary of Defense ``to preserve the Nation's combat 
power,'' NORTHCOM executes an antiterrorism and force protection 
mission across our area of responsibility. This is achieved by 
implementing force protection and security-related policy, ensuring 
compliance with standards, developing new technologies, and engaging 
with key mission partners. To preempt insider threats as occurred at 
Fort Hood, NORTHCOM maintains a close, trusted partnership with the 
Federal Bureau of Investigation (FBI) to share threat information 
rapidly, and to synchronize the collective military response efforts of 
the Department.
    Protection of our installations, people, and Defense Critical 
Infrastructure (DCI) is imperative to maintain mission assurance. 
NORTHCOM advocates to ensure that sufficient resource requirements are 
considered in Military Department budget deliberations to implement 
Service component antiterrorism and force protection programs. In 
addition, NORTHCOM continues aggressive planning and collaboration with 
DOD components to ensure DCI most vital to mission owners is always 
available and mission capable, consistent with DOD guidance.

                  DEFENSE SUPPORT OF CIVIL AUTHORITIES

    We assist our domestic mission partners across the spectrum of 
activities in the homeland. Our civil support actions range from 
support to law enforcement agencies (LEAs) on our borders, to 
mitigating the effects of man-made incidents or natural disasters. 
Unless otherwise directed by the President or the Secretary of Defense, 
our assistance in this role is always in support of the lead Federal 
agency.
    NORTHCOM, with its homeland in my area of responsibility, is 
uniquely characterized by domestic laws, policy, culture, and 
tradition. The nuances of the homeland, coupled with the evolutionary 
nature of the threat, highlight the criticality of NORTHCOM's close 
relationship with law enforcement partners. Our continued investment 
and partnership with LEAs in the execution of their homeland security 
activities prevents operational seams and is the cornerstone of our 
ability to defend the Nation. Underpinning the large majority of our 
relationship with LEAs is JTF-North, co-located with the El Paso 
Intelligence Center on key terrain of the Southwest border.
    During 2012, we responded to multiple requests for assistance in 
support of CBP, Drug Enforcement Administration (DEA), U.S. Immigration 
and Customs Enforcement (ICE), USSS, FBI, and other agencies along the 
Nation's Southwest border. Exchange of information and analysis allows 
DOD and LEAs to be partners in the layered defense and security of the 
homeland. Our partnerships with Federal, State, and local agencies have 
never been stronger.
    This last year speaks to the critical nature of our strong 
interagency partnerships and the continued requirement to support our 
partners. To complement the tremendous capacity of communities and 
states to deal with crises, DOD has capabilities that can save and 
sustain lives, reduce suffering, protect property, mitigate the damage 
to critical infrastructure, and get citizens quickly and solidly onto 
the path of resuming their daily lives. Our challenge in this 
environment is not to be late to need. DOD capabilities are only useful 
if they are accessible and responsive to relief requirements. To 
improve the agility and effectiveness of our support, we conduct 
detailed integrated regional planning to better understand concurrent 
employment challenges of Federal military forces and National Guard, 
and we employ Dual Status Commanders (DSCs), made possible by Congress, 
to improve unity of effort.

Dual Status Commanders
    A fundamental change in how we execute our civil support mission is 
the use of DSCs--perhaps one of the most important initiatives taken in 
the area of DSCA in a decade. The Secretary of Defense and state 
governors authorize specially trained and certified senior military 
officers to command Federal and State military forces employed by DOD 
and a State, respectively, in support of Federal and State civil 
authorities, thereby promoting unity of effort in military assistance 
to the affected community. DSCs provide a link between the distinct and 
separate Federal and state chains of command that is vital to 
facilitating unity of effort between the operations of Federal and 
large State military force packages supporting civil authorities. In 
2012, the use of DSCs for the Waldo Canyon fire and Hurricane Sandy 
provided opportunities, through unity of effort, to strengthen 
NORTHCOM's close collaboration with the National Interagency Fire 
Center (NIFC), FEMA, the NGB, and States' National Guard organizations. 
Multiple states requested and received DSC designations in 2012, 
including: California and Colorado (for wildland firefighting); and 
Florida, Maryland, Massachusetts, New Hampshire, New Jersey, New York, 
and Rhode Island (for hurricane response).

Wildland Firefighting
    When the Waldo Canyon fire erupted less than 12 miles from my 
headquarters last June, our DSCA role was brought into sharp focus. No 
one could have predicted the June 26, 2012, firestorm that was fueled 
by 65 mile per hour winds and rapidly consumed 346 Colorado Springs 
homes, some of which belonged to members of my staff. In reaction to 
this crisis, immediate response support from Fort Carson, Peterson Air 
Force Base (AFB), Schriever AFB, and Buckley AFB was directed toward 
the effort, and the Secretary of Defense and the Governor of Colorado 
quickly authorized a DSC. At the request of NIFC, NORTHCOM coordinated 
the deployment of Air National Guard C-130 aircraft, equipped with U.S. 
Forest Service (USFS) Modular Airborne Firefighting System (MAFFS) to 
support the Federal wildland firefighting effort. Without hesitation, 
the courageous Airmen operating these aircraft continually put their 
lives at great risk to save and protect American lives and property 
during these wildfires. I would be remiss if I did not honor the names 
of Lieutenant Colonel Paul Mikeal, Major Joseph McCormick, Major Ryan 
David, and Senior Master Sergeant Robert Cannon from North Carolina Air 
National Guard's 145th Airlift Wing, who selflessly made the ultimate 
sacrifice fighting wildfires in South Dakota last July.
    With senior leaders from the U.S. Department of Agriculture, U.S. 
Forest Service, Department of Interior, NIFC, and the NGB, we are 
focused on getting ahead of the next fire season. Through routine 
engagement, interagency teamwork, and a collaborative effort of working 
groups, we have expanded our collective understanding of the 
implications of and capabilities required to prepare for requests for 
assistance from our interagency partners' wildland firefighting 
operations. These include near-term proposals such as integrated 
training, improved processes for requesting and implementing support, 
and clarification of lines of authority, ensuring installation 
preparedness and necessary agreements are in place, and identifying 
technology transfers that can be accomplished before the next wildland 
fire season.

Hurricane Sandy Response
    Hurricane Sandy challenged the agility of the National Response 
Framework while impacting key terrain in New York City and New Jersey. 
Working with FEMA (the lead agency for the Federal response), the NGB, 
and the individual States, we estimated required support and 
prepositioned Title 10 resources in the region in order to respond as 
soon as requested. Throughout the response to the storm, NORTHCOM was 
able to support our Federal, State, and local partners by facilitating 
the Department's efforts in power restoration, dewatering, fuel 
distribution, transportation, and public health and safety. In 
addition, along with the NGB, NORTHCOM supported the Secretary's 
approval of Governors' requests for DSCs. As the hurricane made 
landfall, DSCs received orders to facilitate military unity of effort 
for the response and recovery efforts in New Jersey and New York. The 
DSCs provided critical leadership to promoting greater unity of effort 
between Federal and state military forces responding to the devastating 
effects of this hurricane. As a result, NORTHCOM was able to support 
our Federal, State, and local partners by facilitating power 
restoration, dewatering, fuel distribution, transportation, and public 
health and safety.
    As part of the Hurricane Sandy response and recovery effort, and 
with Military Department Secretary concurrence, we designated a number 
of title 10 installations as Incident Support Bases and Federal Team 
Staging Facilities (as requested by FEMA). Located throughout FEMA 
Regions I and II, these installations provided a platform for FEMA to 
stage commodities and equipment as well as response and recovery teams 
(such as Urban Search and Rescue Teams). Additionally, we designated 
four installations as Base Support Installations with the task to 
support logistically the Title 10 response effort. Fort Hamilton and 
Joint Base McGuire-Dix-Lakehurst simultaneously supported both FEMA and 
DOD response efforts.
    During the course of execution, we rapidly recognized the 
incredible capacity and capability of U.S. Transportation Command 
(TRANSCOM), the U.S. Army Corps of Engineers (USACE), and the Defense 
Logistics Agency (DLA). The established authorities, interagency 
agreements, funding mechanisms, and operational flexibility of these 
organizations are critical to mitigating large-scale catastrophic 
events in the future.
    Leveraging our relationships with TRANSCOM and our interagency 
partners, NORTHCOM executed the strategic air and ground movements of 
DOD assets and private/commercial power utility company trucks and 
personnel. Together, our teams completed 241 sorties, hauling 4,173 
short tons and 1,225 passengers. These numbers included the movement of 
262 power restoration vehicles and 429 support personnel from western 
States to New York and New Jersey. Based on our past hurricane response 
experience, we pre-identified title 10 electrical generator and water 
pump availability as Hurricane Sandy approached the New Jersey and New 
York coasts. One hundred DOD water pumps and almost 300 pump operators 
were requested by FEMA and greatly contributed to the overall USACE 
pumping effort, which removed more than 475 million gallons of water 
from tunnels and other critical infrastructure.
    NORTHCOM's success in civil support during Sandy was characterized 
by anticipation and timely support of our partners' requests for 
assistance during domestic crises. As a result, I am overwhelmingly 
convinced that DSCs are the right answer to facilitating military unity 
of effort before, during, and after a natural or manmade disaster. DSCs 
are vital for a successful roadmap to readiness that links 
organizational learning and adaptation to a continuous improvement of 
interagency preparedness in disaster response.

Chemical, Biological, Radiological, and Nuclear (CBRN) Response
    We understand bad actors are committed to gaining access to 
chemical and biological weapons, as well as nuclear and radiological 
material, and employing these weapons against us. This truth demands 
our preparedness and resiliency if a CBRN attack should occur in the 
homeland.
    NORTHCOM, in close collaboration with the NGB and our other 
military and civilian partners, has made significant progress improving 
our ability to respond in the aftermath of a CBRN incident by 
increasing the overall readiness of the Nation's CBRN Response 
Enterprise. Following a series of external evaluations and confirmatory 
exercises, the Enterprise achieved full operational capability (FOC) on 
October 1, 2012. Despite the FOC designation, important work remains to 
be done to realize the full potential of the enterprise. Through our 
robust exercise program and partnerships, we are using both title 10 
exercises (e.g., Vibrant Response) and regional state exercises (e.g., 
Vigilant Guard) to maximize preparedness for the entire range of CBRN 
threats and hazards.

                          SECURITY COOPERATION

Security Cooperation with Mexico and Countering Threat Networks
    When it comes to the security of North America and the shared 
pursuit of enduring stability and prosperity, we cannot afford to work 
in isolation. The ties between the United States and Mexico are deep 
and growing. The Department of Defense views Mexico as a strategic 
partner in mutual regional and hemispheric security interests. At the 
center of our shared security concerns is the proliferation and 
influence of transnational criminal organizations (TCOs) and other 
threat networks that greatly undermine citizen security in Mexico.
    TCOs are sophisticated international enterprises representing a 
national security threat based on their unique ability to move people, 
drugs, money, and weapons across borders. According to the National 
Drug Intelligence Center, the demand for illegal drugs in the United 
States continues, fueling the nearly $40 billion drug trade occurring 
in the region.\1\ Per the Trans-Border Institute, since 2006 there have 
been more than 50,000 TCO-related homicides in Mexico,\2\ often the 
result of conflicts over lucrative territory for drug trafficking and 
other illicit activity, routes, and access points to the U.S. drug 
market. Although narco-related homicides continued to occur at 
disturbing levels in 2012, the number modestly declined for the first 
time in 6 years.
---------------------------------------------------------------------------
    \1\ Richard M. Stana, Director of Homeland and Security Issues. 
Testimony before the U.S. Senate Caucus on International Narcotics 
Control. March 9, 2011.
    \2\ Trans-Border Institute. Drug violence in Mexico, Data and 
Analysis through 2011. March 2012.
---------------------------------------------------------------------------
    More broadly, we are deepening our defense and military partnership 
with Mexico in a whole host of areas, including strengthening our 
ability to work together in humanitarian assistance and disaster 
relief, cyber security, defense planning, training and education, air 
and maritime defense, counter-terrorism, and defense acquisition and 
maintenance.
    In support of the President's July 2011 Strategy to Combat 
Transnational Organized Crime, and his 2012 National Drug Control 
Strategy, NORTHCOM works with mission partners throughout our region to 
increase collaboration to confront TCOs. Our current priority of effort 
resides with the Mexican military where, at their request, we work with 
the Mexican Security Forces to build our shared capabilities and 
capacities. With full respect for Mexico's sovereignty and with full 
understanding that efforts to counter transnational organized crime 
have a civilian law enforcement lead, over the past year we have worked 
together in three key areas: increased capacity to conduct 
intelligence-driven operations; improved awareness and practice in 
protecting human rights; and increased capacity to work on a whole-of-
government basis to address the challenges posed by TCOs.
    Mexico's southern border, an area of strategic importance in the 
counter-TCO effort, also represents a border between the areas of 
responsibility of U.S. Southern Command (SOUTHCOM) and NORTHCOM, 
requiring close coordination between our commands to ensure mission 
success. Illustrative of our partnership, our commands co-sponsor 
Mexico, Guatemala, and Belize Border Region Workshops. These workshops 
bring together national security forces to address communications, 
border security, standard operating procedures, and air, land, and 
maritime surveillance. Another example of our efforts is the 
coordinated deployment of a ground-based radar and associated 
information sharing protocols for Mexico, Guatemala, and Belize.
    Mexico and the United States are critical, strategic partners in 
the security sphere. My goal remains strengthening NORTHCOM's 
relationship with the Mexican military. We look forward to working 
closely with the leadership of the Mexican Army (SEDENA) and Navy 
(SEMAR) as they implement the strategy of President Pena Nieto and 
integrate their actions with those of Mexico's civilian agencies.
    Through our positive partnership, both nations have improved their 
capacity to respond to TCOs, to terrorist threats, and to natural 
disasters. I consider my relationship with the U.S. Ambassador to 
Mexico of utmost importance in the execution of Department of Defense 
goals and objectives throughout the region and hemisphere. Ambassador 
Wayne is the U.S. Government lead for engagements with Mexico and, as 
such, is a vital partner in all coordination and execution of DOD and 
NORTHCOM's security cooperation mission. Confronting the security 
challenges we face in the future will continue to require an 
integrated, whole-of-government approach at home and close cooperation 
with our partners abroad. Nothing is more important to our security and 
prosperity in this region than strengthening those partnerships.

Western Hemisphere Institute for Security Cooperation (WHINSEC)
    Located at Fort Benning, GA, WHINSEC remains a key component of 
DOD's security cooperation outreach in the Western Hemisphere. WHINSEC 
is the only U.S. Army School that teaches in Spanish and informs the 
thinking of future Latin American leaders about democracy, human 
rights, and military topics. It is a strategic tool for international 
engagement supporting principles set forth in the Organization of 
American States (OAS) Charter. The training offered at WHINSEC impacts 
approximately 800-1,000 Latin American leaders annually from military, 
law enforcement, and civilian institutions and serves to increase 
collaboration and improve foreign partner capacity in pursuit of 
NORTHCOM's security cooperation objectives.

Security Cooperation with The Bahamas
    The United States and The Bahamas share a strong bilateral 
relationship founded upon common interests in security, trade, disaster 
response, and the promotion of meaningful cultural exchange. These 
shared interests, including a common belief in the rule of law and 
democratic values, and The Bahamas' geographic proximity to the United 
States have been integral in building this long-standing partnership. 
The Bahamian Government is committed to close cooperation with the 
United States on law enforcement and maritime security concerns, as 
well as on counternarcotics efforts. This strong security cooperation 
relationship is highlighted by Operation Bahamas, Turks and Caicos, a 
trilateral counternarcotics effort conducted by personnel of the Royal 
Bahamas Police Force, Royal Bahamas Defence Force, and the Turks and 
Caicos Islands police, with counterparts from the DEA, ICE, CBP, and 
the USCG.
    One of the key focus areas in The Bahamas is the Hawk's Nest 
Forward Operating Base, a staging location for counternarcotics 
operations. Hawk's Nest is a centrally located facility on Great Exuma, 
used by Bahamian and interagency counternarcotics partners. We were 
ardent supporters of U.S. Embassy-Nassau in its successful effort to 
develop a cost-sharing agreement among the CBP, DEA, and FAA in an 
effort to maintain Hawk's Nest in a state of minimal operational 
capacity. The proximity of The Bahamas to the United States means that 
relatively small sites (like Hawk's Nest) have strategic importance for 
counter-illicit trafficking and Cooperative Defense mission areas.
    Establishment of U.S. Special Operations Command, North (SOCNORTH). 
On December 31, 2012, the Secretary of Defense approved the 
establishment of SOCNORTH. This subordinate unified command is the 
logical progression from our previous Special Operations Detachment 
(SOD). Reorganizing my existing command structures will improve the 
Department's ability to command, through a designated accountable 
commander, special operations forces throughout my area of 
responsibility under NORTHCOM's existing Defense Support of Civil 
Authorities, security cooperation, and Homeland Defense 
responsibilities. The establishment of SOCNORTH provides NORTHCOM with 
a command and control structure that matches that of all other 
geographic combatant commands, where a component commander is placed in 
charge of things we are already doing with a staff element. SOCNORTH 
will enhance NORTHCOM's ability to meet our current security 
cooperation mission requirements, and improve our ability to support 
our interagency and regional partners. This organizational change is 
consistent with the new Defense Strategic Guidance that calls for low-
cost, small-footprint approaches to accomplish our national security 
objectives.

                        PARTNERSHIP WITH CANADA

    We continue to build unprecedented levels of cooperation across our 
two nations, and Canadian and U.S. cooperation in defending our 
homelands has been seamless. One of the most important enablers to 
NORTHCOM and NORAD mission accomplishment remains our ability to 
conduct sophisticated, multi-echeloned exercises with our mission 
partners. This past December, the Commander of the Canadian Joint 
Operations Command (CJOC) and I signed the Tri-Command Training and 
Exercise Statement of Intent, which provides 2 years of training and 
exercise planning among NORTHCOM, NORAD, and CJOC.
    Beyond combining our exercises, the three commands have improved 
cooperative efforts in the Arctic. Rapid reductions in the extent and 
duration of summer ice cover in the Arctic region have led to increased 
human activity, primarily in the forms of scientific research, 
speculative shipping, and resource extraction. As counties and private 
businesses vie for regional access and influence in pursuit of economic 
interests, safety and security concerns will continue to rise. All 
Arctic nations have publicly stated their emphasis on cooperative 
approaches to peace and stability in the region.
    The spike in regional activity may result in increased requests to 
militaries to provide support to other agencies, given the austere 
fiscal and operational environment. Other traditional military actors 
are already setting priorities for the region. Russia is actively 
recapitalizing its Arctic-focused fleet. Additionally, China, a nation 
without Arctic territory, is acquiring a second icebreaker.
    In December 2012, NORTHCOM, NORAD, and CJOC signed the Framework 
for Arctic Cooperation, which acknowledges that Canadian and U.S. 
forces will support other departments and agencies in response to 
threats and hazards in the region when requested or directed. The 
framework also strengthens an already mature partnership, ultimately 
enhancing joint and combined readiness in support of safety, security, 
and defense missions through information sharing, planning, and 
capability development. In this document, CJOC Commander Lieutenant-
General Beare and I recognize that our near-term capability gaps in the 
Arctic are communications, maritime domain awareness, presence, and 
infrastructure. Along with the CJOC's JTF North, JTF-Alaska, which is 
my operational lead in the Arctic, is focused on how we will most 
effectively cooperate and partner to mitigate these capability gaps and 
effect mission success in this expansive region. Our commands will 
continue to seek opportunities to, in coordination with, and as part of 
wider U.S. Government efforts, meet emerging needs associated with 
increased activities throughout the Arctic, and realize the full 
potential of our joint, interagency, intergovernmental, multinational, 
and private sector partnerships.

                         ENGAGEMENT WITH RUSSIA

    We also continue to pursue our engagement with the Russian 
military, taking advantage of every opportunity to increase 
cooperation, interaction, and military-to-military training events. I 
believe these efforts are particularly important to foster shared 
understanding, especially in light of expanded Russian modernization 
and training efforts that extend the range of patrol activities by 
their air forces. For example, NORAD and the Russian Federation Air 
Force conducted our third annual Vigilant Eagle counter-hijacking 
exercise in August 2012. By mutual agreement we conducted a non-flying, 
command post exercise (with each nation) with NORAD and Russian forces 
practicing procedures to track, intercept, and pass control for 
monitoring and escorting a simulated hijacked aircraft into the other's 
airspace. Like our 2011 event, the upcoming August 2013 exercise will 
be a full-profile, live-fly event, involving a variety of NORAD and 
Russian military aircraft exercising a counter hijacking scenario. 
NORTHCOM and NORAD are in the early stages of planning a similar 
cooperative counter-hijacking exercise with our Mexican partners. This 
exercise, known as Amalgam Eagle, will provide an opportunity to 
practice military and civilian roles in responding to a simulated 
hijacking situation in our respective airspaces.
    In addition to fostering mutual trust and increased transparency 
with Russia, NORTHCOM and NORAD have proposed connecting the Alaskan 
NORAD Region to the NATO/Russia Cooperative Airspace Initiative (CAI), 
currently operational in Europe. This proposal, called the Bering 
Strait Initiative, would provide Russian and NORAD air traffic 
controllers with information about tracks of mutual interest moving 
across the Bering Sea, using a web-enabled digital linkage to allow 
information exchange. Poland, Norway, and Turkey have already 
established a CAI link with Russia, and the system was declared 
operational in December 2011. We only await Russian concurrence to 
begin operational testing and implementation of the data link. This 
example of increased cooperation with Russia helps us to avoid 
unintended consequences associated with heightened tensions or 
misunderstandings.

                               CONCLUSION

    We now face a security environment that is more violent, uncertain, 
and complex than ever before. This environment is distinguished by 
myriad global actors and destabilizing events including terrorism, 
cyber attacks, proliferators of weapons of mass destruction (WMD), 
turmoil in nations where WMD are stored, rogue threats, nations with 
nuclear weapons and those processing nuclear material, and 
transnational organized crime in the Western Hemisphere with a growing 
concern of a crime-terror nexus. Bad actors seek either to attack the 
homeland directly, or to diminish the Nation's ability to build strong 
relationships that foster regional stability, security, peace, and 
prosperity. In the midst of this environment are near-peer competitors 
seeking geopolitical advantage over the United States while we are 
engaged in countering global threats. Since the homeland is the likely 
confluence of many of these threats, we face increased challenges as a 
nation and acknowledge the low level of national willingness to assume 
such risk. In the homeland, although the probability of existential and 
catastrophic attacks remains low, the consequences are unacceptable--
driving us to seek preparedness and deterrence to reduce those 
probabilities as low as possible, and keep them there.
    Robust, layered partnerships and steady improvement through 
rigorous training, education, and exercise programs have readied 
NORTHCOM and NORAD to defend the Homeland against a full spectrum of 
threats and support of civilian partners in providing life-saving and--
sustaining assistance to the American people. We are guided by the 
belief that smart investment in relationship building with our partners 
in safety and security endeavors can prevent crises from reaching the 
Nation by deterring and dissuading adversaries, and arresting threat 
streams. Should a transition to crisis occur, we are strengthened by 
the unity of effort and synergy of capabilities made possible by the 
depth of our partnerships. NORTHCOM and NORAD stand ready to deter, 
prevent, and defeat any aggression aimed at the United States and 
Canada as two commands oriented on a single vision: with our trusted 
partners, we will defend North America by outpacing all threats, 
maintaining faith with our people, and supporting them in their times 
of greatest need.
    I am grateful for the support this committee has provided my 
commands and am truly honored to serve as the Commander of NORTHCOM and 
NORAD. I look forward to your questions.

                         ``WE HAVE THE WATCH''

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. General Kelly.

STATEMENT OF GEN. JOHN F. KELLY, USMC, COMMANDER, U.S. SOUTHERN 
                            COMMAND

    General Kelly. Mr. Chairman, Senator Inhofe, distinguished 
members of the committee: Thank you for the opportunity to 
appear today and speak on behalf of not only the SOUTHCOM 
personnel, full, civilian, and military, but also the region 
known as Latin America.
    I'm here today to talk primarily about the four primary 
missions of SOUTHCOM: The first, countering transnational 
organized crime. This effort consists of both title 10 
responsibilities that I have and security cooperation 
activities as well. Our support to law enforcement includes 
very highly effective, efficient, and cost effective detention 
and monitoring operations, also sharing information and 
building the capacity of countries to combat drug trafficking 
and dismantle very powerful criminal networks.
    On our second mission, partner engagement, we focus on 
building relationships with regional militaries to enhance the 
defense of the United States and the security of the region. 
Human rights play a very, very big role in everything we do, 
everything I do, from my engagements with regional leaders to 
our joint training teams that are working alongside partner 
nation forces in Central America, South America, and in the 
Caribbean, to the courses of instruction at Western Hemisphere 
Institute for Security Cooperation (WHINSEC) at Fort Benning 
and in the Inter-American Defense College here in Washington.
    Militaries in the region have made enormous strides in 
terms of professionalization and respect for civilian authority 
and human rights, thanks to a large measure to the role of the 
U.S. military over the years and our continued engagement.
    The third mission, contingency response, involves planning 
for a wide range of possible crises in the region, including 
natural disasters, mass migrations, and the evacuation of U.S. 
citizens.
    Finally, our most critical no-fail mission today is 
detention operations at Guantanamo Bay. I would just offer that 
I am concerned at this point in time that the facilities down 
there, the infrastructure down there, built to last 2 or 3 or 4 
years, has now been in existence for 11 years. It's rapidly 
deteriorating and in large measure has deteriorated, and we 
have some initiatives that certainly in terms of infrastructure 
need to be taken seriously this year.
    Mr. Chairman, members, I look forward to discussion of any 
of these issues. Thank you.
    [The prepared statement of General Kelly follows:]

             Prepared Statement by Gen. John F. Kelly, USMC

                              INTRODUCTION

    Chairman Levin, Ranking Member Inhofe, and distinguished members of 
the committee: thank you for the opportunity to appear before you 
today. As U.S. Southern Command enters its 50th anniversary year, we 
continue to work diligently to build relationships that enhance the 
defense of the United States and the security of the region, and I am 
proud to now be part of this important mission. In my first months in 
command, I am struck by the stark contrasts in our area of 
responsibility. It is a region of enormous promise and exciting 
opportunities, but it is also one of persistent challenges and complex 
threats. It is a region of relative peace, low likelihood of interstate 
conflicts, and overall economic growth, yet is also home to corrosive 
criminal violence, permissive environments for illicit activities, and 
episodic political and social protests. Given the global security 
realities and the fiscal constraints facing the U.S. Government, some 
might argue that we should disengage from the Americas, turn our 
attention to other partners, other priorities. Mr. Chairman, members, 
let me be frank: we must not take progress and overall stability for 
granted; we must not disregard our geographic proximity and the 
economic, cultural, and social interconnections of Latin America and 
the Caribbean to the United States. I thank Congress for sharing this 
sentiment, for its longstanding commitment to our security partners, 
and for its continued support to U.S. Southern Command's mission. 
However, our ability to fully execute this mission is at extreme risk 
as we face present-day budget uncertainty and the potentially 
devastating long-term impacts of sequestration and its associated out-
year budget reductions.

             BUDGET UNCERTAINTY AND SEQUESTRATION CONCERNS

Reduced Spending Plan
    Due to shortfalls associated with the allocation of funding in the 
current Continuing Resolution and the cuts we face as a result of 
sequestration, U.S. Southern Command is facing an immediate, combined 
26 percent reduction to our already lean headquarters operating budget. 
Although this reduction applies only to this fiscal year, we could 
easily face another dire budget situation next year as well. We have 
implemented a reduced spending plan to ensure continued operations this 
year under the Continuing Resolution, and as a practical measure, we 
have incorporated potential sequestration cuts into our planning 
efforts. We have already undertaken painful cost-savings measures, 
including a civilian hiring freeze, eliminating overtime costs, not 
extending temporary and term hires, and reductions in travel and 
administrative costs, as well as cutting back or cancelling numerous 
exercises, training activities, and military-to-military engagements 
for the remainder of the fiscal year. We are also preparing for 
furloughs of our 851 dedicated and patriotic civilian employees, 
beginning in April and lasting through September.\1\ I expect morale 
and financial effects to be severe, especially for our civilian 
professionals in the lower pay grades, who will face significant 
financial hardships due to the resulting 20 percent reduction in take-
home pay for the last 6 months of the fiscal year. This reduction is 
compounded by living and working in Miami, one of the most expensive 
cities in the world.\2\ I have directed our manpower division to offer 
all means of advice, support, and guidance to our people if furloughing 
indeed occurs. Simply put, budget uncertainty in fiscal year 2013 is 
already having very real, deleterious effects on our readiness, 
effectiveness, and day-to-day operations in the region. Mandated 
sequestration cuts only amplify these effects.
---------------------------------------------------------------------------
    \1\ This number includes: all Department of Army and Defense 
Intelligence Agency employees at our headquarters, including term and 
temporary hires, and civilian employees at Joint Interagency Task Force 
(JIATF) South, U.S. Special Operations Command South, JTF-GTMO and 
security cooperation offices.
    \2\ UBS. Pricings and Earnings Report, Edition 2012. Geneva: 
September 2012; Center for Housing Policy. Losing Ground: The Struggle 
for Middle Income Households to Afford the Risings Costs of Housing and 
Transportation. October 2012.
---------------------------------------------------------------------------
Sequestration Impact--Assigned/Allocated Forces
    Although I am able to accept risk associated with this year's 
reduced spending plan, sequestration presents significant additional 
strategic and operational risks. The severe cuts to U.S. Southern 
Command, and the numerous second and third order effects from the 
force-providing Service cuts, will adversely impact our training and 
ability to respond to crises. U.S. Southern Command has traditionally 
achieved valuable ends with limited means through a low-cost, small 
footprint approach. This approach, while effective, does carry inherent 
risk that increases exponentially under sequestration. Due to our 
minimally assigned forces and diminishing availability of surface 
assets, we are already challenged to respond to large-scale 
contingencies such as mass migration, natural disasters, the evacuation 
of American citizens, or ensuring the security of our embassies; 
maintain comprehensive awareness in the southern approaches to the 
United States; and support the National Drug Control Strategy's 
interdiction objectives. Across-the-board spending cuts will only 
exacerbate this situation, at a time in which several regional security 
challenges require active engagement by the United States.

Sequestration Impact--Future Operations
    Mr. Chairman, members, let me be blunt: sequestration in fiscal 
year 2013 and its associated out-year budget cuts in future years will 
severely degrade our ability to fulfill the Department of Defense's 
title 10 statutory obligations and provide operational support to the 
U.S. interagency and our partners in the region. Given the drastic 
magnitude of cuts being contemplated by the Services, the day could 
soon come when U.S. Southern Command has no assigned DOD surface assets 
to conduct detection and monitoring operations.\3\ This would not only 
impact our ability to detect and monitor the illicit transit of drugs 
towards the United States, but we would also be unable to fully support 
U.S. and partner nation law enforcement interdiction operations to 
disrupt this drug flow. Under sequestration, the Coast Guard has 
indicated that it too will curtail air and surface operations, 
affecting several missions including drug interdiction and other law 
enforcement operations. Taken together, these limitations would 
undermine the significant gains we have made through the highly 
successful and ongoing Operation Martillo; the 152 metric tons of 
cocaine seized to date represents over $3 billion in revenue that will 
not go to fund powerful criminal groups, violence in Mexico, and the 
destabilization of our Central American partners. These 152 metric tons 
will also not reach the streets of America nor fuel costly crime and 
drug addiction. Due to sequestration, and its associated out-year 
budget cuts of over $50 billion per year across the Department of 
Defense, we may no longer be able to support future interagency 
initiatives like the Department of State's Regional Aviation Program in 
Central America. Additionally, we could be forced to suspend our 
cooperation with U.S. Northern Command and Mexico on information 
operations, which had been heralded as the model for cross-Combatant 
Command collaboration. Finally, we will face challenges to resource and 
sustain our emergent cyber defense capabilities, at a time when cyber 
concerns are increasing in scope and magnitude.
---------------------------------------------------------------------------
    \3\ As one example, the Chief of Naval Operations indicated in a 
memo dated January 25, 2013 (Ser N000/10005) that due to sequestration, 
the Department of the Navy will be compelled to reduce OMN expenditures 
through numerous actions, to include stopping all naval deployments to 
the Caribbean and South America.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Sequestration Impact--Operational Effectiveness
    It is my position that scarce assets must be deployed where they 
have the greatest impact, but sequestration will cripple our proven 
operational effectiveness. As responsible stewards of taxpayer dollars, 
we have long employed a ``defense forward'' approach to attack the drug 
trafficking problem near its origin, before bulk shipments are broken 
up for transit into the United States. Although the U.S. Southwest 
border has received the greater share of public attention and 
counternarcotics funding, Joint Interagency Task Force South is more 
effective at the removal of large quantities of cocaine than U.S. 
Southwest border operations, as bulk cocaine shipments are broken up 
into numerous smaller quantities upon reaching the transit zone of 
Central America. While this success is noteworthy, diminishing assets 
already place significant limitations on JIATF South's ability to 
target the majority of documented drug trafficking events and support 
Coast Guard interdiction efforts. Sequestration cuts will only 
intensify this challenge, potentially allowing hundreds of tons of 
cocaine and other illicit products to flood into our cities. Likely 
second and third order effects include an increase in supply and purity 
and a decrease in cost of cocaine in the United States, undermining the 
significant progress that has been made in U.S. demand reduction. En 
route to our country, this largely unimpeded flow will chart a 
corrosive pathway through Central America and Mexico, contributing to 
instability, corruption, and violence and impacting efforts to improve 
citizen safety.

Sequestration Impact--Security Cooperation and Partner Engagement
    Building the capabilities of regional militaries is a cost-
effective strategy to help our partners confront internal challenges to 
security, stability, and sovereignty; increase professionalism; and 
strengthen defense and security institutions. Mr. Chairman, Members, I 
am deeply concerned by the adverse impact sequestration will have on 
these efforts, many of which have yielded significant and valuable 
security dividends. Take, for example, how U.S. Southern Command has 
provided persistent, focused training to the Naval Special Forces (FEN) 
in Guatemala over the past 4 years. As a result, the FEN can now 
effectively locate and interdict target vessels, seize drug shipments, 
and cooperate as a cohesive unit. Severe budget cuts will likely reduce 
this type of sustained relationship building and training, the 
repercussions of which could be harmful to U.S. interests. Reduced 
engagement by the United States could result in a partnership 
``vacuum,'' which nations like China, Russia, or Iran may seek to fill. 
In recent years, these countries have made in-roads, deepening 
diplomatic, economic, and military ties with the region. Declining U.S. 
influence will provide an opportunity to expand these relationships at 
the expense of the United States.
    From a strategic perspective, our government-to-government security 
relationships are critical to the United States' ability to meet 
complex global security challenges, facilitate U.S. military and 
coalition operations, and ensure regional stability. With the 
corresponding growth of globalization, economic integration, and a 
changing geopolitical landscape, expanding and deepening these 
bilateral relationships have become even more essential to U.S. 
national security and foreign policy. Sequestration cuts lead to the 
exact opposite outcome, forcing U.S. Southern Command to reduce support 
to partner nations' efforts to respond to internal and external threats 
and impeding our ability to provide defense support to U.S. foreign 
policy objectives, and those outlined in the 2012 Western Hemisphere 
Defense Policy Statement. Ultimately, sequestration undermines our 
efforts to help build and maintain an international community of 
nations that are stable and reliable partners, whose security forces 
fill an appropriate role in a society that is characterized by 
effective, accountable, democratic governance.
    Mr. Chairman, members, this leads me to my final thought on the 
impacts of sequestration and its associated out-year budget cuts of 
over $50 billion per year across the Department of Defense. I will 
speak plainly: severe budget cuts will have long-term, detrimental 
effects on U.S. leadership in the hemisphere. Significantly reduced 
U.S. military engagement will make it difficult to counter those who 
would seek to exploit perceptions that the United States is abandoning 
our longstanding commitment to the region. Sequestration and its 
associated out-year budget cuts will result in damage to the United 
States' leadership, national security, readiness, and ability to deter 
or respond to global crises and regional security challenges.

                      REGIONAL SECURITY CHALLENGES

    Unfortunately, the sequester, a full-year Continuing Resolution, 
and associated out-year budget cuts due to sequestration are not 
accompanied by a corresponding decline in security challenges within 
our area of responsibility. These challenges are non-traditional in 
nature, networked in design, and transnational in scope, requiring 
constant vigilance, regional cooperation, and collective action. When 
it comes to South America, Central America, and the Caribbean, I cannot 
overstate the importance of awareness, access, and the enormous return 
on investment from personal, on-the-ground security relationships. As 
the United States turns its attention to the home front to address 
domestic economic and budget issues, I firmly believe we must remain 
engaged with the Nations in our shared home, the Western Hemisphere, 
for one very simple reason: proximity. Left unaddressed, security 
concerns in the region can quickly become security concerns in the 
homeland.

Transnational Organized Crime
    The prevalent problem in the region--particularly in Central 
America--is the growing power and destabilizing activities of criminal 
networks, whose illicit operations are funded in significant part by 
U.S. and international drug consumption, as well as diverse illicit 
funding streams like kidnapping and extortion. As recognized by the 
President's 2011 Strategy to Combat Transnational Organized Crime, 
transnational organized crime is a global issue with global 
implications that directly impact the United States.\4\ In the U.S. 
Southern Command area of responsibility, these powerful groups exploit 
under-governed areas--where state capacity is weak and corruption and 
impunity are rampant--to consolidate control over drug, money, weapons, 
and human smuggling networks that span the hemisphere. This corrosive 
expansion is taking place in the context of deteriorating citizen 
security, especially in Honduras, where the number of people killed 
rivals that of Iraq at the height of sectarian violence. Like many 
Members of Congress, I am troubled by this rising violence and its 
impact on regional stability.
---------------------------------------------------------------------------
    \4\ National Security Staff. Strategy to Combat Transnational 
Organized Crime: Addressing Converging Threats to National Security, 25 
July, 2011.

           2012 HOMICIDE RATES PER 100,000, SELECT CITIES \5\
San Pedro Sula, Honduras...................................        169
Caracas, Venezuela.........................................        118
Tegucigalpa, Honduras (Distrito Central)...................        101
New Orleans, LA............................................         56
Detroit, MI................................................         54
Baltimore, MD..............................................         35
Washington, DC.............................................         17


    The impact on our own country is also clear. Transnational criminal 
organizations, which have expanded their presence throughout Central 
America, were responsible for several high-profile murders of American 
citizens across or on our border in recent years. Additionally, a 2007 
report estimated that illicit drug use cost the United States an 
estimated $193 billion in combined health and criminal justice 
impacts.\6\ According to an analysis of arrestees carried out for the 
Office of National Drug Control Policy, more than half of the adult 
males arrested for crimes in 10 metropolitan areas tested positive for 
at least one drug at the time of their arrest.\7\ A recent survey 
estimated 6.5 million Americans 12 years and older are dependent on or 
abuse an illicit drug,\8\ while in 2009, 39,147 people died from drug-
induced causes, more than double the amount that were murdered that 
same year.\9\
---------------------------------------------------------------------------
    \5\ Security, Peace, and Justice (Seguridad, Paz y Justicia). 50 
Most Violent Cities in the World, 2012 Rankings. (available online at: 
http://www.seguridadjusticiaypaz.org.mx) Washington, DC figures are 
from the Metropolitan Police Department's 2011 Annual Report (most 
recent data available).
    \6\ National Drug Intelligence Center (2011). The Economic Impact 
of Illicit Drug Use on American Society. Department of Justice.
    \7\ Office of National Drug Control Policy. (2012). Arrestee Drug 
Abuse Monitoring Program: 2011 Annual Report. Executive Office of the 
President: Washington, D.C.
    \8\ 2011 National Survey on Drug Use and Health
    \9\ Kenneth D. Kochanek, M.A.; Jiaquan Xu, M.D.; Sherry L. Murphy, 
B.S.; Arialdi M. Minino, M.P.H.; and Hsiang-Ching Kung, Ph.D., 
``Deaths: Final Data for 2009.'' Division of Vital Statistics (Atlanta, 
GA: Centers for Disease Control), Vol. 60, Number 3, Dec. 29, 2011, p. 
11.
---------------------------------------------------------------------------
    Mr. Chairman, members, I'd like to sketch an image of illicit 
trafficking operations in our hemisphere to illustrate the magnitude of 
this problem. Picture an interconnected system of arteries that 
traverse the entire Western Hemisphere, stretching across the Atlantic 
and Pacific, through the Caribbean, and up and down North, South, and 
Central America. Complex, sophisticated networks use this vast system 
of illicit pathways to move tons of drugs, thousands of people, and 
countless weapons into and out of the United States, Europe, and Africa 
with an efficiency, payload, and gross profit any global transportation 
company would envy. In return, billions of dollars flood back into the 
hands of these criminal enterprises, enabling the purchase of military-
grade weapons, ammunition, and state-of-the-art technology to counter 
law enforcement. This profit also allows these groups to buy the 
support--or silence--of local communities through which these arteries 
flourish, spreading corruption and fear and undermining support for 
legitimate governments.

        <bullet> According to the 2011 National Drug Threat Assessment, 
        Mexican-based transnational criminal organizations and their 
        associates operate in upwards of 1,200 U.S. cities, working 
        with domestic U.S. gangs to distribute and traffic illicit 
        drugs throughout the United States.
        <bullet> The FBI reports that MS-13 gang leaders in El Salvador 
        have initiated assassination plans against U.S. law enforcement 
        personnel and target American citizens.

    The tactics, techniques, and procedures of these criminal networks 
have advanced far beyond the typical activities of ``traditional'' 
organized crime. These are superbly financed, well-organized, and 
ruthless adversaries for our partner nations, especially our Central 
American ones. These networks conduct assassinations, executions, and 
massacres, and with their enormous revenues and advanced weaponry, they 
can outspend and outgun many governments. Some groups have similar--and 
in some cases, superior--training to regional law enforcement units. 
Through intimidation and sheer force, these criminal organizations 
virtually control some areas. In my view, the proximity of the U.S. 
Homeland to criminally-governed spaces is a vulnerability with direct 
implications for U.S. national security. I am also troubled by the 
significant criminal capabilities that are available to anyone--for a 
price. Transnational criminal organizations have access to key 
facilitators who specialize in document forgery, trade-based money 
laundering, weapons procurement, and human smuggling, including the 
smuggling of special interest aliens. This criminal expertise and the 
ability to move people, products, and funds are skills that can be 
exploited by a variety of malign actors, including terrorists.

Crime/Terror Nexus
    Mr. Chairman, members, the presence of all these so-called ``bad 
actors'' raises the question of possible nexus between international 
terrorist organizations and criminal networks in the region. The answer 
is complex. While regionally-based Shi'a who support Lebanese Hezbollah 
are involved in drug and other illicit trafficking, we have only a 
partial understanding of possible interconnections and overlap between 
terrorist financing and illicit revenue streams, both within the 
hemisphere and on a global scale. The 2011 Iranian plot to assassinate 
the Saudi Ambassador to the U.S. demonstrates Iran is willing to 
leverage criminal groups to carry out its objectives in the U.S. 
Homeland. This only underscores my concerns over the exploitation of 
criminal capabilities. In my judgment, any group seeking to harm the 
United States--including Iran--could view criminal middlemen, 
facilitators, and support networks as potential operational enablers, 
although not necessarily operational requirements. As distinguished 
members of this committee have noted, an attack in or through the 
region would have major consequences for the entire Western Hemisphere. 
We remain vigilant against this possibility and its potential criminal 
facilitation, but need the assets to remain so.

Iran in the Western Hemisphere
    This brings me to the next issue I would like to discuss, which has 
serious implications for U.S. national security. I share Congress' 
concerns over Iran's attempts to increase its influence in the region. 
The reality on the ground is that Iran is struggling to maintain 
influence in the region, and that its efforts to cooperate with a small 
set of countries with interests that are inimical to the United States 
are waning. In an attempt to evade international sanctions and 
cultivate anti-U.S. sentiment, the Iranian regime has increased its 
diplomatic and economic outreach across the region with nations like 
Venezuela, Bolivia, Ecuador, and Argentina. This outreach has only been 
marginally successful, however, and the region as a whole has not been 
receptive to Iranian efforts.
    Members and supporters of Iran's partner, Lebanese Hezbollah, have 
an established presence in several countries in the region. The 
Lebanese Shia diaspora in our area of responsibility may generate as 
much as tens of millions of dollars for Hezbollah through both licit 
and illicit means. There is also precedent for Iranian and Hezbollah 
collusion to conduct attacks in the region, as evidenced in the 1992 
and 1994 bombings in Argentina.\10\ In Venezuela, government officials 
have been sanctioned for providing financial support to Hezbollah, and 
for providing support to the FARC's narcotics and arms trafficking 
activities in Colombia.\11\ We take Iranian activities very seriously 
and, along with U.S. Government agencies and international partners, we 
remain vigilant to the activities of Iran and affiliated extremist 
groups and remain prepared to work with our partners to counter any 
direct threat to U.S. national security. I would be remiss, however, if 
I did not share with Congress my assessment that U.S. Southern 
Command's limited intelligence capabilities may prevent our full 
awareness of all Iranian and Hezbollah activities in the region.
---------------------------------------------------------------------------
    \10\ This refers to the 1992 and 1994 bombings of the Asociacion 
Mutual Israelita Argentina (AMIA) and Israeli Embassy by Hezbollah 
operatives.
    \11\ U.S. Department of the Treasury's Office of Foreign Assets 
Control. ``Press Release: Treasury Designates Four Venezuelan Officials 
for Providing Arms and Security to the FARC.'' September 8, 2011; U.S. 
Department of the Treasury's Office of Foreign Assets Control. ``Press 
Release: Treasury Targets Hizballah in Venezuela.'' September 19, 2008.
---------------------------------------------------------------------------
Terrorist Presence in the Region
    Additionally, both Sunni and Shia extremists are present in our 
area of responsibility, and I am watchful for an evolution in 
operational presence, capacity, or radicalization, particularly among 
``homegrown'' extremist groups. Proselytizers with ties to global 
Islamic extremism are attempting to radicalize and recruit among the 
Muslim communities throughout the region. Outreach by external 
extremist groups from the Middle East, Africa, and South Asia, such as 
Jama'at al Tabligh, has increased. As many Members of Congress have 
noted, the United States and our partners should be extremely concerned 
whenever external extremist groups or state-sponsors of terrorism see 
the Western Hemisphere as attractive--or even worse, vulnerable.

        <bullet> The U.S. Treasury Department has imposed sanctions 
        against seven current or former senior Venezuelan Government 
        and military officials, including the former Minister of 
        Defense, for providing direct support to the FARC's narcotics 
        trafficking activities.
        <bullet> In 2008, the U.S. Treasury Department imposed 
        sanctions on two Venezuelans--Ghazi Nasr al Din and Fawzi 
        Kan'an--for providing financial and other support to Hezbollah. 
        Nasr al Din served as Charge d' Affaires at the Venezuelan 
        Embassy in Syria and the Director of Political Aspects at the 
        Venezuelan Embassy in Lebanon.

    Terrorist groups represent a persistent challenge that has plagued 
the region for decades. The FARC is the region's oldest, largest, most 
capable, and best-equipped insurgency. The Government of Colombia is 
currently in peace negotiations with the FARC, but the fight is far 
from over and a successful peace accord is not guaranteed. Although 
weakened, the FARC continues to confront the Colombian state by 
employing improvised explosive devices and attacking energy 
infrastructure and oil pipelines. In Peru, Sendero Luminoso (The 
Shining Path), while smaller than the FARC, remains committed to 
violence and overthrowing the government. Both the FARC and Sendero 
Luminoso rely on drug trafficking, kidnapping, and extortion to fund 
attacks on the Colombian and Peruvian Governments. The hundreds of 
millions of dollars in revenue the FARC receives from cocaine 
trafficking alone enable them to purchase surface-to-air missiles and 
fund the construction of multi-million dollar ``narco subs.'' Utilized 
by a variety of illicit trafficking groups in the region, fully 
submersible vessels are capable of transporting up to 10 metric tons of 
a variety of cargo and have a range capacity of 6,800 nautical miles, a 
range that could reach Africa. In other words, these subs, which are 
extraordinarily difficult to detect, can travel from the Caribbean 
coast of Colombia to just about any major city in Florida, Texas, or 
California in 10-12 days.<SUP>12, 13</SUP>
---------------------------------------------------------------------------
    \12\ Depending on the type and dimensions of the cargo, up to 10 
metric tons of a variety of products could be transported. Range 
estimates based on Office of Naval Intelligence assessments of seized 
fully submersible vessels.
    \13\ Written Testimony of Read Admiral Charles Michel, Director, 
Joint Interagency Task Force South. Subcommittee on Border and Maritime 
Security, House Committee on Homeland Security. June 19, 2012.

          The U.S. Southern Command area of responsibility has the 
        highest improvised explosive devices (IED) activity in the 
        world outside of Afghanistan and Iraq, with Colombia accounting 
---------------------------------------------------------------------------
        for over 90 percent of IEDs in the region.

External Actors
    Finally, I view the expanding influence of countries ``external'' 
to the Western Hemisphere as having uncertain implications. As I stated 
earlier, personal relationships are of enormous importance in this 
region, a fact other nations recognize. China is increasing its 
economic role in the region, and government-owned companies are funding 
or acquiring strategic infrastructure to facilitate commercial 
logistics. Chinese companies own and operate an interest in at least 
five ports in the region, while telecommunications firms such as Huawei 
Technologies and ZTE have a rapidly expanding presence in South 
America. With an unprecedented three naval deployments to Latin America 
since 2008, including a hospital ship visit in 2011, China is 
attempting to directly compete with U.S. military activities in the 
region. I believe it is important to note that sequestration will 
likely result in the cancellation of this year's deployment of the USNS 
Comfort to the region, an absence that would stand in stark contrast to 
China's recent efforts. In my judgment, Chinese interest in cultivating 
relationships with countries in the Western Hemisphere reaffirms the 
importance of strengthening our own partnerships with the region.

    2012 Regional Investments by China:

        <bullet> Two Chinese banks provided $8 billion in credit lines 
        for 60 projects in 12 countries in the region.
        <bullet> $2 billion loan to Argentina to finance railway 
        modernization through soy-producing regions.
        <bullet> $1.4 billion investment in copper mines in Ecuador.
        <bullet> Joint agreement with Venezuela to develop Las 
        Cristinas gold mine, one of the world's largest gold reserves.

                           STRATEGIC APPROACH

    The transnational nature of many of these challenges I described 
cannot be addressed by any one nation or agency alone. In my view, this 
illustrates the efficiency of working with and through our partners in 
the region and the U.S. Government. U.S. Southern Command's strong, 
established relationships with regional militaries and security forces 
can serve as a catalyst for encouraging greater unity of effort on 
hemispheric security, from terrorism to illicit trafficking to the 
security of the Panama Canal. Many of the issues we face in the region 
transcend borders, requiring more than just a ``whole-of-government'' 
approach; they require a whole of community, a whole of society, a 
whole of hemisphere approach. Time and again--whether during Plan 
Colombia or Operation Unified Response in Haiti; whether in an 
interdiction operation that denies drug traffickers billions of dollars 
in revenue; or in multinational training exercises that improve the 
capability of regional armies, air forces, marines, navies, and special 
operations forces--our partnerships are the key enablers for ensuring 
regional security. It is my position that strengthening these 
partnerships is a cost-effective use of government resources. A layered 
defense can help the U.S. detect and deter threats before they reach 
the homeland, and help the hemisphere collectively respond to an 
uncertain and complex security environment. I would like to provide 
Congress with a brief overview of what, in my view, is the invaluable 
return on investment from partnering and engaging with Central America, 
South America, and the Caribbean. I am gravely concerned, however, that 
sequestration and its associated out-year cuts to the defense budget 
will imperil our ability to sustain these successful partnerships and 
regional progress.

                     OPERATION MARTILLO 2012 RESULTS
Cocaine disrupted.........................  152,389 kgs
Marijuana disrupted.......................  21,488 kgs
Bulk cash disrupted.......................  $7.2 million
Assets seized (total).....................  101
Partner nation supported disruptions......  67 percent
Revenue denied to TCOs....................  $3 billion



Operation Martillo
    We are currently witnessing the security dividends from regional 
cooperation as a result of Operation Martillo. In support of Department 
of State's Central American Regional Security Initiative, U.S. Southern 
Command launched a joint, interagency, and combined operation to 
counter illicit trafficking along the Central American coastlines, 
coordinating with Western Hemisphere and European partner nations to 
maximize all possible means for support. In addition to the measurable 
results of the operation, we have also seen greater unity of effort, 
expanded information sharing, and enhanced interoperability among 
partner nations and Federal departments like the Department of Justice 
and the Department of Homeland Security. I am very proud to note that 
67 percent of illicit trafficking disruptions in 2012 were supported by 
partner nations, who have played an enormous role in the success of the 
operation. This unprecedented level of cooperation could serve as a 
model for future operations in Central America, although our ability to 
continue Martillo, build on the nascent progress of our Central 
American partners, or provide complementary support to the Department 
of State's Regional Aviation Program will all be in serious jeopardy 
due to sequestration and its associated out-year cuts to the defense 
budget.

Cooperation on Counterterrorism
    In the region, our engagement on counterterrorism issues centers on 
promoting interoperability with key partner nations and maintaining a 
persistent and episodic presence to counter the influence of Islamic 
extremism, recruitment, and radicalization efforts. We are also 
conducting contingency planning for a variety of scenarios, but the 
most valuable deterrent to direct threats to the United States is 
through presence and partnerships, by maintaining active awareness and 
nurturing our relationships within the region. Continued budget 
uncertainty is impacting our ability to ensure this presence, however, 
as reduced resources have forced us to scale back deployments of Civil 
Affairs and Special Operations Forces teams to the region.

Interagency and Private Sector Partnerships
    Collaboration with our foreign and domestic partners also 
underscores everything we do at U.S. Southern Command headquarters. 
Thirty three interagency representatives and detailees, along with five 
foreign liaison officers, are integrated throughout the command, 
allowing our military personnel to capitalize on the unique 
capabilities, authorities, and expertise of other government agencies 
and partner nations. Likewise, our military planning capability and 
capacity often can enhance synchronization of interagency efforts, even 
when the Department of Defense is not the lead agency. Cooperation with 
the private sector and non-governmental organizations also serves as 
significant force and resource multipliers to our activities and those 
of our interagency partners. In 2012, our collaboration with the 
private sector leveraged gifts-in-kind and the participation of medical 
personnel, emergency management practitioners, business leaders, and 
academics in our humanitarian assistance activities throughout the 
region. While we will seek to expand these no-cost partnerships with 
the private sector, budget cuts have compelled us to reduce the 
interagency presence in our headquarters, which undermines our 
coordination within the U.S. Government.

                         NEW HORIZONS 2012: PERU
Total U.S. troops trained.................  435
Medical Readiness Training Exercises......  8
Patients treated..........................  over 26,000
Animals treated...........................  313
Construction and renovation projects......  6
NGO Contribution..........................  valued at over $200,000


Security Cooperation
    Within the region, we build relationships with partner nation 
militaries through a range of engagements, such as training exercises, 
educational exchanges, and security cooperation activities. Every year, 
U.S. Southern Command conducts multinational training exercises with 
our partners, which focus primarily on maritime interdiction, the 
defense of the Panama Canal, and training for peace support and 
disaster response operations. These exercises are a unique opportunity 
to promote regional cooperation, enhance readiness and interoperability 
of our hemisphere's military forces, and encourage collective action to 
address shared security challenges. To help mitigate costly disaster 
relief operations and strengthen state presence in under-governed 
areas, we conduct low-cost humanitarian assistance programs and 
exercises that provide training to U.S. and partner nation personnel 
and demonstrate U.S. values to the region. The shadow of sequestration 
and its associated out-year budget cuts place the continuation of many 
of these activities in doubt, however. Our security cooperation mission 
has borne the brunt of our budget reductions this year, and reduced 
engagements may have an ``eroding effect'' on our partnerships far into 
the future.
    In addition to training exercises, our Human Rights Initiative and 
International Military Education and Training are essential to 
developing professional armed forces throughout the Americas. The 
regional trend of deploying militaries in non-traditional roles like 
domestic security underscores the continued importance of our human 
rights training, including our ongoing support for Colombian military 
justice reform. Programs like the Inter-American Air Force Academy, the 
Western Hemisphere Institute for Security Cooperation, the Inter-
American Defense College, and the Combating Terrorism Fellowship build 
relationships among future senior military leaders in the region. 
Additionally, the William J. Perry Center for Hemispheric Defense 
Studies helps strengthen regional defense institutions by promoting 
security sector reform. These entities are all vital in assisting our 
partner nations develop the accountable, professional, and transparent 
defense institutions that are key to long-term hemispheric security. 
Sequestration and its associated out-year budget cuts could impact 
these valuable programs. Mr. Chairman, members, we want to avoid losing 
an opportunity to build strong, enduring relationships with militaries 
in our own hemisphere.

               STRENGTHENING REGIONAL DEFENSE INSTITUTIONS

International Military Education Training.  Funded 2,034 students from
                                             the region in 2012
Inter-American Air Force Academy..........  In its 69-year history,
                                             44,000 graduates
Western Hemisphere Institute for Security   In its 12 year history,
 Cooperation.                                trained 15,859 students
                                             from 34 nations, 2 of whom
                                             went on to prominent
                                             positions in their
                                             respective governments
Inter-American Defense College............  More than 2,380 students
                                             from 24 countries have
                                             graduated from the IADC. 34
                                             percent have gone on to
                                             become partner nation
                                             presidents, cabinet
                                             ministers, ambassadors, or
                                             general officers.


    Through our engagement and training activities, U.S. Southern 
Command seeks to build the capabilities of regional militaries to 
confront internal challenges to stability, sovereignty, and security. 
In addition to the rotational forces provided by our component 
commands, we rely on the National Guard's State Partnership Program to 
engage with 22 nations in the area of responsibility. The State 
Partnership Program provides long-term mentorship to our partner 
nations to advance democratic principles and values and to encourage 
subordination of the military to civilian authority. Due to budget 
reductions, however, we were forced to cancel more than 90 events aimed 
at improving partner nation capacity in areas such as disaster 
response, defense support to civil authorities, and countering 
transnational organized crime. If triggered, sequestration and its 
associated out-year cuts to the Department of Defense budget could 
further limit the Services' ability to provide forces for future 
security cooperation activities.

          In 2012, U.S. National Guard units conducted 223 events, and 
        Colombia-South Carolina became the newest partnership under the 
        program.

    In Central America, we are providing training and security 
assistance to improve maritime, aerial, and land domain awareness 
capabilities, focusing on the Northern Tier countries where the threat 
posed by transnational criminal organizations is greatest. In the 
Caribbean, we are supporting the development of a regional maritime 
interdiction strategy, as well as providing equipment and training to 
improve maritime and air domain awareness. Further south, Foreign 
Military Financing for the Joint Rotary Wing/Riverine Program has 
delivered critical mobility to Colombian counterinsurgency efforts, 
while an expanded Military Justice Program has resulted in invaluable 
training in the Law of Armed Conflict and Human Rights Law. In Peru, we 
are supporting planning related to counterterrorism efforts against 
Sendero Luminoso. Additionally, we have partnered with the Joint IED 
Defeat Organization to help the Colombian Armed Forces build their 
counter IED capabilities, and we are in discussions on offering similar 
training to Peru. Our engagement with Brazil centers on space, cyber 
defense, intelligence and information sharing, and counterterrorism 
training for the upcoming World Cup and Summer Olympics. We are also 
exploring possible collaboration with U.S. Health and Human Services on 
consequence management. We fully support the proposal presented at the 
October 2012 Conference of the Defense Ministers of the Americas to 
advance a coordination mechanism for regional disaster response, and 
have begun discussions with the Government of Peru, the next CDMA 
Secretariat, on implementation. Although critical to ensuring the 
forward defense of the United States, our training and engagement 
programs have been seriously impacted by this year's budget reductions. 
Sequestration and its associated out-year budget cuts will result in 
further debilitating effects to these valuable programs.

          In 2012, U.S. Southern Command's DOD Rewards Program 
        facilitated the capture of Florindo Eleuterio Flores-Hala (aka 
        ``Artemio''), the organizational head of the Upper Huallaga 
        Valley (UHV) faction of Sendero Luminoso, landing a blow 
        against the UHV organization.

Partners as Security Exporters
    As I travel throughout U.S. Southern Command's area of 
responsibility, I am continuously impressed by the contributions of our 
partners to regional and international security. A global leader, 
Brazil heads the United Nations Stabilization Mission in Haiti, 
provides security assistance to several African nations, participates 
in maritime exercises with South Africa and India, and is conducting 
border security operations with its neighbors. Chile has integrated a 
Salvadoran infantry unit into a battalion in support of the U.N. 
Mission in Haiti, and is exploring opportunities for further building 
partner capacity initiatives in Central America. Colombia is perhaps 
the best example of the inherent value of security assistance to the 
region. Once on the brink of falling to a powerful insurgency, Colombia 
is now a leader in counterinsurgency tactics and provides training to 
West African and Central American counterparts. U.S. Southern Command 
shares the commitment of these valued partners to ensuring a strong, 
secure, integrated hemisphere and global system, but sequestration may 
limit our ability to deepen our defense relationships with these 
partners or enhance the collective security of the hemisphere.

          Thirteen countries are providing forces to multinational 
        security operations and United Nations peacekeeping missions 
        throughout the world, and El Salvador recently deployed 
        personnel in support of the NATO mission in Afghanistan.

                               WAY AHEAD

Future Budget Reductions
    While we have taken painful steps to reduce spending in 2013, we 
recognize that sequestration and its associated out-year cuts to the 
defense budget will result in even more difficult decisions in the 
future. This year, we were able to decrease spending by applying 
equitable cuts across a range of programs, but future cuts may involve 
wholesale program elimination. As I have told my workforce, spending 
cuts will force us to ``do less, with less.'' There will be some 
missions we will simply no longer be able to conduct, and our regional 
relationships will likely suffer as a result.

Mitigating Asset Gaps in the Caribbean
    Mr. Chairman, members, as I alluded to earlier: presence matters. 
It is a documented deterrent. Given our likely continued asset 
reductions, we will need to rely on our partners, wherever possible, to 
help bridge some capability gaps in terms of assets, authorities, or 
resources. I credit the support of our European and Canadian allies in 
the Caribbean whose presence helps mitigate asset gaps, although I 
remain concerned by the sub-region's vulnerability to a shift in 
trafficking tactics. Although an estimated 92-94 percent of cocaine 
destined for the U.S. still flows through Central America, known 
cocaine movement towards Hispaniola--mainly the Dominican Republic--
appears to have increased by 3 percent to 32 metric tons in 2012.\14\ 
We have experienced the so-called ``balloon effect'' before, and 
focusing limited assets on Central America creates a potential gap in 
other areas, which could be exploited by traffickers seeking to escape 
pressure from Operation Martillo. Last year, according to local media 
reports, 885 pounds of marijuana washed ashore on Florida's beaches, a 
vivid reminder of the heyday of drug smuggling in the Caribbean, an era 
I know none of us wants to see repeated.\15\ This will be increasingly 
difficult to prevent, however, given the impact sequestration will have 
on future asset availability.
---------------------------------------------------------------------------
    \14\ Interagency Assessment of Cocaine Movement (IACM). Cocaine 
Movement Trends 3rd Quarter 2012.
    \15\ ``Drugs found on South Florida beaches recalls smuggling 
heyday.'' October 1, 2012. Sun Sentinel.
---------------------------------------------------------------------------
Detainee Operations
    U.S. Southern Command continues to conduct safe, humane, and 
transparent detention operations at Joint Task Force Guantanamo (JTF-
GTMO). The pending installation of the Guantanamo Bay Naval Station 
undersea fiber optic cable will save the United States millions of 
dollars in the long-term by reducing costs associated with using 
satellite communications. This cable will improve the reliability of 
communications with Guantanamo Bay facilities and also thereby enhance 
our ability to support military commissions, periodic review boards, 
and detention operations.
    Two of the major challenges we face at JTF-GTMO are a lack of long-
term resource planning, and complex issues related to future medical 
care of detainees. Mr. Chairman, members, to paraphrase a former JTF-
GTMO commander, we haven't been at Guantanamo for 11 years; we've been 
there for 1 year, 11 times. A temporary detainee operation has now 
lasted over 11 years, and the expeditionary infrastructure at JTF-GTMO 
is rapidly deteriorating, placing assigned personnel and operations at 
increasing risk. Regardless of policy disputes, we must make pragmatic 
decisions to protect our troops from unsafe and unsanitary living 
conditions and to ensure the continued safe and humane care of the 
detainee population. We have been relying on a patchwork of temporary 
fixes, but there is an urgent need for immediate refurbishment of 
degraded expeditionary infrastructure at JTF-GTMO. Using fiscal year 
2009 Overseas Contingency Funding for military construction, we have 
identified a series of projects aimed at increasing the security of the 
detainees, facilitating our ability to support legal processes for 
detainees, and most of all, meeting basic quality of life requirements 
for our troops. I look forward to working with Congress as we address 
this issue. Additionally, the medical issues of the aging detainee 
population are increasing in scope and complexity. As is the case with 
any older person, aging detainees could require specialized treatment 
for issues such as heart attack, stroke, kidney failure, or even 
cancer. The future emergency and critical medical care of detainees may 
require specialists and equipment to enhance the current capabilities 
at Naval Station Guantanamo Bay.

Quality of Life
    As a nontraditional installation, U.S. Southern Command faces 
unique issues in supporting our assigned military personnel and their 
families, as well as retirees, and veterans living in South Florida who 
utilize the services available at our U.S. Army Garrison facility. In 
my first few months at U.S. Southern Command, I have come to realize 
that military families in South Florida are at a huge financial and 
benefits disadvantage. Access to a commissary is an integral part of 
the military benefits package for Active Duty personnel throughout 
their compensated period of duty or service.\16\ Servicemembers 
stationed at U.S. Southern Command do not have access to a nearby 
commissary, yet live in one of the most expensive cities in the United 
States. The continued lack of a commissary at our headquarters is not 
only a disservice to our personnel, but to the entire South Florida 
military community. In addition to the demonstrated economic returns 
and benefits, the commissary system ensures our service men and women 
and their families receive the full compensation they deserve by 
law.\17\
---------------------------------------------------------------------------
    \16\ Department of Defense Instruction 1330.17. December 2008.
    \17\ Resale and MWR Center for Research. Costs and Benefits of the 
DOD Resale System. December 2012.
---------------------------------------------------------------------------
    Whenever I visit one of our component commands or joint task 
forces, I make a concerted effort to address quality of life issues 
facing our troops, even seemingly minor ones like 24-hour gym access, a 
small request when you are working long shifts far from your loved 
ones. At our headquarters, I have spent a great deal of time talking to 
the servicemembers assigned to U.S. Southern Command, and every single 
junior enlisted person I meet has told me of the financial hardships 
they face trying to make ends meet under the current Cost of Living 
Allowance. For example, a typical E-3 assigned to U.S. Southern Command 
receives $1,787 in monthly pay, $1,437 per month for housing, and a 
mere $18 in Cost of Living Allowance,\18\ in a city with some of the 
highest insurance rates and lack of affordable rental housing in the 
country.\19\ I am actively engaging within the Department of Defense to 
make them aware of my concerns, and we are working to find a solution.
---------------------------------------------------------------------------
    \18\ Based on calculations for duty location (33176) for an E3 with 
2 years of service and no dependents. 2013 pay information from Defense 
Finance and Accounting Services; BAH calculator may be found at: 
www.defensetravel.dod.mil/site/bahCalc.cfm. The CONUS COLA calculator 
may be found at http://www.defensetravel.dod.mil/site/conusCalc.cfm
    \19\ According to apartment market research firm AXOIMetrics, the 
average effective rent (which includes concessions) in Miami is $1,269 
per month, compared to the United States as a whole at $964. According 
to the Joint Center for Housing Studies at Harvard University, the 
Miami rental market has the greatest share of severely cost-burdened 
renters (i.e. renters who pay more than half their income to rent) in 
the country.
---------------------------------------------------------------------------
    U.S. Southern Command's most important resource is its workforce, 
and I am committed to enhancing quality of life at our headquarters. In 
recognition of growing concerns for the health and wellbeing of U.S. 
servicemembers, we conducted two suicide prevention events, and we are 
developing a specialized council to address the emotional, mental, and 
physical health of all our personnel. Although an Army program, our 
Survivor Outreach Services office recently received approval to provide 
long-term support to family members of all our South Florida fallen 
heroes, regardless of service affiliation. As Congress is aware, 
reports of sexual assault and harassment in the military have been at 
an all-time high, and U.S. Southern Command is doing its part to 
address this unacceptable issue. All incidents are handled using the 
exact procedures outlined in Department of Defense directives and 
policy, which promote sensitive care, confidential reporting for 
victims of sexual assault, and 100 percent accountability for those who 
commit these crimes. We also have a strong Sexual Harassment/Assault 
Response and Prevention program in place that ensures victims receive 
all the legal, medical, and psychological support they need. To support 
the professional development of our workforce, we expanded training 
opportunities last year, including language and cultural awareness 
training to enhance our relations with partner nations. Possible 
furloughs, however, will likely disrupt training and professional 
development for our civilian employees, while sequestration will impact 
our language programs, undercutting the readiness of our assigned 
forces.

                               CONCLUSION

    Finally, I would like to extend my personal gratitude to the 
outstanding men and women under my command. Day-in and day-out, 1,482 
soldiers, sailors, airmen, marines, coast guardsmen, and civilians work 
to enhance the defense of the United States and build enduring 
partnerships across Central America, South America, and the Caribbean. 
Mr. Chairman, members, although I have spoken extensively about the 
impact of drastic spending cuts to our missions and operations, there 
is also a human impact. Our dedicated Department of Defense civilians 
and servicemembers--our people--will disproportionally suffer the long-
term damages sequestration and its associated out-year cuts to the 
defense budget will inflict. U.S. Southern Command is committed to 
ensuring the security and stability of the Western Hemisphere, and I 
hope Congress will demonstrate its commitment to our great nation, its 
people, and its military by resolving budget uncertainty and preventing 
the devastating effects of sequestration. Mr. Chairman, distinguished 
committee members, I stand ready for your questions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you very much, General Kelly.
    Let's try an 8-minute first round.
    General Jacoby, let me start with you. Last week, Secretary 
Hagel announced plans to deploy an additional 14 GBIs in Alaska 
to help stay ahead of an evolving missile threat from North 
Korea. He also indicated that we would not deploy these 
interceptors unless we have confidence from flight testing that 
they're going to work as intended.
    Do you support the plan that Secretary Hagel announced last 
week?
    General Jacoby. Senator, yes, I do.
    Chairman Levin. Do you agree that before we deploy these 
interceptors that it is essential to demonstrate the correction 
of the CE-2 kill vehicle in an operationally realistic 
intercept flight test so that we can have some confidence that 
it will work as intended?
    General Jacoby. Senator, yes, as a warfighter I do.
    Chairman Levin. Now, General Jacoby, last Friday Secretary 
Hagel and the Vice Chair of the Joint Chiefs, Admiral 
Winnefeld, both said that the currently deployed GMD system, 
with its 30 interceptors in Alaska and California, currently 
defends all of the United States against long-range missile 
threats from either North Korea or Iran.
    Do you agree that the current system protects all of the 
United States against those long-range missile threats from 
nations such as North Korea and Iran, including the east coast 
as of now?
    General Jacoby. Yes, Senator, we have coverage against both 
Iran and North Korea with the current system.
    Chairman Levin. For the entire United States?
    General Jacoby. That's correct.
    Chairman Levin. Including the east coast at the moment?
    General Jacoby. That's correct.
    Chairman Levin. Now, I asked you last year about the idea 
of an east coast missile defense site and you said at that time 
we did not have a requirement for such a site and no plans to 
deploy one. Since then we have in our defense authorization 
bill required that there be an assessment, an environmental 
assessment of various sites on the east coast. Of course, 
there's been a modification of the Phased Adaptive plan so that 
it's now Europe that is covered by that plan.
    Is it possible in the future that we'll be able to defend 
all of the United States from an Iranian long-range missile 
threat without needing an east coast missile defense site?
    General Jacoby. Senator, as I testified last year, the 
condition is still the same. We currently can defend the entire 
United States from an Iranian long-range missile threat. The 
question is how do we stay ahead of an evolving Iranian threat 
and how do we keep our options open for the continued evolution 
of either Iranian or North Korean threats. The threat of 
ballistic missiles is not going down.
    Chairman Levin. So that we don't know yet whether it will 
be possible in the future to have that kind of defense against 
an Iranian threat without an east coast site? It may or may not 
be, is that your testimony?
    General Jacoby. My testimony is that as the Iranian threat 
evolves, we need to be prepared to continue improving the 
resiliency, the redundancy, and the agility which I provide to 
defend the entire United States. That could include additional 
missile sites.
    Chairman Levin. It could, but we don't yet know; is that 
correct? We just simply want to keep that option open, but as 
of right now we have protection for the entire United States 
and we may or may not be able to have that protection depending 
on the evolvement of an Iranian missile threat without an east 
coast site?
    General Jacoby. That's correct, Senator.
    Chairman Levin. Phases 1 through 3 of the Phased Adaptive 
Approach is going to protect all of NATO Europe against Iranian 
missile threats by 2018. Phase 1 was deployed at the end of 
2011. Phase 2 is due to be deployed in 2015, including a so-
called Aegis Ashore site in Romania. Phase 3 is planned to be 
deployed in 2018 with an Aegis Ashore site in Poland.
    Will this plan and capability provide in fact better 
coverage of Europe than the previous plan, General?
    General Jacoby. Senator, I believe that as rolled out, I 
think that we are making steady improvements in the plan.
    Chairman Levin. Is this plan as far as you're concerned 
going to protect all of NATO Europe against Iranian missile 
threats you 2018?
    General Jacoby. I would defer to the EUCOM commander.
    Chairman Levin. I'm sorry. I really did intend this to go 
to Admiral Stavridis. Forgive me.
    Admiral Stavridis. That's fine. Yes is the answer.
    Chairman Levin. These questions should have been addressed, 
these last two questions, to you, Admiral. I'm sorry.
    Is this Phase 1 through 3 approach that is now the approach 
that has been adopted a solid approach and do you support it?
    Admiral Stavridis. Yes, sir.
    Chairman Levin. Is it at least as good an approach as the 
previous one and perhaps better?
    Admiral Stavridis. I think it fulfills the capability and 
the requirements, sir.
    Chairman Levin. All right. So would you say it's at least 
as good an approach?
    Admiral Stavridis. Yes.
    Chairman Levin. Do the Europeans like this approach?
    Admiral Stavridis. So far, so good. I will know more when I 
get back to Europe and have a chance to talk to them later this 
week.
    Chairman Levin. Now, Admiral, let me ask you about 
Afghanistan. Are the Africa security forces on track to assume 
the security lead throughout Afghanistan later this spring?
    Admiral Stavridis. Yes, sir, they are. They currently have 
87 percent of the population under their remit and that will go 
up to 100 percent this year.
    Chairman Levin. Do you support the President's decision to 
draw down 34,000 U.S. troops from Afghanistan by February 2014?
    Admiral Stavridis. From where we sit today, I think that 
looks like a good--looks militarily supportable.
    Chairman Levin. Admiral, will NATO support--excuse me. Will 
NATO negotiate a status of forces agreement with Afghanistan 
applicable to any NATO forces participating in a post-2014 
mission in the same way that we are negotiating a status of 
forces agreement to protect U.S. forces deployed to Afghanistan 
after 2014?
    Admiral Stavridis. Yes, sir, that is the intent.
    Chairman Levin. Is this a parallel negotiation? Is it one 
negotiation?
    Admiral Stavridis. No, sir, it's going to be sequential. 
We're going to conclude the U.S. Bilateral Security Agreement, 
it's called, and then we will move forward with the NATO one 
after that, using the United States one as a basis.
    Chairman Levin. Admiral, relative to Syria: In your 
prepared statement you outlined the impact of the civil war in 
Syria on certain parts of your AOR. Can you give us some of the 
NATO or European thinking as to whether or not the alliance 
should increase its involvement in Syria through direct lethal 
support to the opposition, possibly the creation of 
humanitarian buffer zones, and possibly the destruction of 
Syria's air defenses or part of Syria's air defenses?
    Admiral Stavridis. Sir, as we all know, the Syrian 
situation continues to become worse and worse and worse--70,000 
killed, a million refugees pushed out of the country, probably 
2.5 internally displaced, no end in sight to a vicious civil 
war. The alliance has taken a position that it will follow the 
same sequence that was used in Libya, which is to say prior to 
NATO involvement there would have to be a U.N. Security Council 
resolution, regional agreement, and agreement among the 28 
nations.
    So within NATO channels what we are focused on is defending 
that border with Syria and, as you alluded to, chairman, in 
your statement, we've moved Patriot missiles down to do that.
    In terms of what else is happening, on an individual nation 
by nation basis there's a great deal of discussion of 
everything you mentioned--lethal support, no-fly zones, arms 
embargoes, et cetera. It is moving individually within the 
Nations, but it has not yet come into NATO as an overall NATO 
type approach. The NATO piece at the moment, again, is focused 
defensively, planning, being prepared, but the movement at the 
moment is in the individual national capitals.
    Chairman Levin. Finally, does that movement include at 
least some countries that are thinking about the possibility of 
going after at least some of Syria's air defense?
    Admiral Stavridis. Yes.
    Chairman Levin. Good. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I sure want to get some clarification out of you guys on 
this thing, because I'm very disturbed over some of the answers 
that you just gave. I know that, General Jacoby, perhaps that 
would have been better asked of the Admiral. However, you're 
responsible for the Homeland. When we talk about the capability 
of Iran we're talking about both Western Europe and eastern 
United States. You both agree with that.
    If you're saying that the GBI in Poland along with the 
radar that was in the Czech Republic was something that--I 
think we all agreed at the time that was primarily for that 
protection, the eastern United States. Yes, we have GBIs. We 
all agree that we're glad we went back to 44 instead of 30. But 
that's still primarily--and I'm comfortable with anything 
coming from that direction.
    We're talking about Iran now. Now, when you say that you're 
comfortable--I ask probably you, Admiral--with what we have in 
the place of what was taken down to accomplish that, is that 
depending upon the SM-3 IIA in any way?
    Admiral Stavridis. As I see the landscape for the European 
defensive piece of this, Senator, from Phase 1, 2, and 3, I 
think it will pace the Iranian threat through that period, and 
it would include therefore the SM-3 IIA as the 2018 weapon that 
would provide the coverage for Europe.
    Senator Inhofe. Europe and eastern United States?
    Admiral Stavridis. No, sir. I defer to Chuck on that, but 
Phase 1, 2, and 3 is strictly for European defense. Over to 
Chuck on how the Homeland----
    Senator Inhofe. All right, General Jacoby. You and I have 
talked about this before. Tell me, how do you assess the threat 
to the eastern United States with our capability right now?
    General Jacoby. We have a plan that's based on limited 
defense of the entire United States and, given the threat that 
is represented by Iran to the eastern United States today, we 
can cover that threat. The question is making sure that we 
outpace that threat as it evolves.
    Senator Inhofe. Admiral, you say yes, you need the SM-3 
IIA, and yet our intelligence, as you heard me say several 
times and we talked about it in my office, would give us the 
system by--Iran would have a weapon and a delivery system by 
2015. That's been in our intelligence estimate since 2007. We 
had General Kehler in here and he said, when I asked him that 
question--this is a quote now. He said: ``I'm confident that we 
can defend against a limited attack from Iran, although we are 
not in the most optimum position''--``posture to do that 
today.''
    Do you agree with him?
    Admiral Stavridis. I think today what we have is the Phase 
1 system, which is the SM-3 IA, a radar in Turkey, Aegis ship 
at sea. I would agree with him that we are not optimally 
positioned, and the faster we can bring on the additional 
phases the better, absolutely.
    Senator Inhofe. Wouldn't we be better off if we had stayed 
with a system that would give us that capability by 2015, which 
was what they were anticipating at that time? Not that it makes 
a lot of difference. That was done. It shouldn't have been 
done, but it was done 4 years ago. But nonetheless I don't want 
to put you in that position.
    Admiral Stavridis, how will the budget cuts impact the 
EUCOM missile defense program called the European Phased 
Adaptive--now, I want to ask that question--you've partially 
answered it--I'd like to get that for the record, because I 
want all the detail in on this as I can get, because I've been 
deeply disturbed since the President's first budget came out 4 
years ago when we did away with that system.
    [The information referred to follows:]

    On March 15, 2013, Secretary Hagel announced U.S. policy changes 
with regard to Ballistic Missile Defense, including Phase 4 of the 
European Phased Adaptive Approach (EPAA). EPAA Phase 4 was cancelled 
and the prime component of Phase 4--the SM-3 Block IIB--was put on 
hold. EPAA Phases 1-3, including Polish and Romanian ``Aegis Ashore'' 
sites, will provide the ballistic missile defense resources to meet the 
requirements to defend U.S. interests and support American commitments 
to our allies. The loss of EPAA Phase 4 will have no effect on EUCOM's 
regional ballistic missile defense requirements, but EUCOM will not 
have the capability to engage in the active defense of the U.S. 
Homeland.

    Senator Inhofe. Now, by the way, it wasn't just that we did 
away with the GBIs in Poland and the radar in the Czech 
Republic. It was that we had told them that we were going to do 
that. I always will remember when Vaclav Klaus--and I was with 
him. This would have been back when they first agreed to do 
this. He said: ``You know, we're taking a lot of risk here. 
We're upsetting Russia. We want to make sure that you don't 
pull the rug out from under us if we agree to this.'' I said: 
``Absolutely, that won't happen.'' Of course that's what did 
happen.
    The situation that we have right now in Africa is very much 
dependent upon the command that has all the assets there. In my 
office, in talking about the SOUTHCOM, you talked about the 
amount of drugs that are taking place right now and the 
proliferation of drugs. I remember when you had that command, 
Admiral, you said the same thing.
    I'd like to have you share with us, with this panel, the 
seriousness of that drug problem that is down there and how the 
drug cartel--no one's paying that much attention to it now. But 
is that producing a lot of assets that are eventually going up 
into western, southern, and northern Africa? Right now they're 
getting the money from someplace, and I think you would 
probably share that that's one of the major areas of financing 
that activity in Mali and other areas.
    General Kelly. Yes, sir. There's two aspects in--let's talk 
cocaine primarily here. There's cocaine that comes into the 
United States in large amounts and has a very adverse effect, 
obviously, and a very expensive effect on our country. Then 
there's a great deal of cocaine produced--and all of that 
cocaine that comes to the United States is primarily from 
Colombia. I have to give them a shout-out. They have done a 
tremendous job working shoulder-to-shoulder with us. They have 
tremendous appreciation for what the U.S. Government and its 
people have done for them over the years to defend against the 
traffickers and the insurgents that they've dealt with.
    They have fallen, if you will, to the number three 
producers of cocaine in the world. Number one and number two 
are Peru and Bolivia. The vast majority, in fact I would say 
100 percent, of that cocaine goes into Brazil. Brazil is now 
the number two consumer of cocaine and also is the traffic 
path, if you will, to Africa and then further to Europe.
    As I mentioned, Brazil is the number two consumer. When the 
cocaine gets to the west coast of Africa by various means, 
Africa is not a particularly big consumer of cocaine, but it's 
a trafficking route up to northern--to the north and to Western 
Europe, which is a very big consumer of cocaine. Everyone takes 
a little bit. All the cartels, all the bad guys along the way, 
take a little bit of a cut.
    So an awful lot of what's going on in West Africa in 
particular and then up through the Maghreb, there is a fair 
amount of----
    Senator Inhofe. So a lot of it is coming from there and is 
being channeled up there, because somewhere a lot of money is 
appearing on the scene in those areas around Mali and that 
portion of Africa.
    General Kelly. Exactly. Exactly right, Senator.
    Senator Inhofe. One last thing. This morning I was on a 
talk show with a rather liberal host, who was--we were arguing 
this thing, which we had a modest disagreement and hopefully 
it'll be cleared up by information on the record, about Iran. 
The response was: They're not going to do anything because they 
know they'd be blown off the map immediately.
    He didn't use the term, but what he was talking about was 
the old relic that used to work, mutual assured destruction. 
Are the three of you as confident with the threat that would 
come from a party such as Iran, that mutual assured destruction 
has the deterrent value that it did back in the days of the 
Cold War, just real quickly?
    Admiral Stavridis. I think Iran is a very difficult nation 
to assess, so I think it would be less certain as a 
proposition.
    Senator Inhofe. General Jacoby?
    General Jacoby. I think they're very different, very 
different strategic contexts, and I think we have to be wide-
eyed with how we approach Iran. As the commander responsible 
for the defense of the Homeland, we are going to focus on the 
defend piece of this. That's not part of mutually assured 
destruction, and I think it's appropriate.
    Senator Inhofe. That's a tool in the quiver, though.
    General?
    General Kelly. No.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service. I particularly want 
to thank Admiral Stavridis for his extraordinary service in 
many different capacities. As you leave your command, thank 
you, sir, for your efforts.
    Let me just begin with a question to Admiral Stavridis. 
Part of our long-term strategy with respect to Afghanistan, 
since it's a NATO operation as well as a United States 
operation, is continued support for the Africa security forces. 
Given the economic crises in Europe today, what's your 
perspective about their long-term commitment to supporting 
these international efforts?
    Admiral Stavridis. Sir, I think the Europeans will stay 
with us in Afghanistan. Historically, they've provided about 
one soldier for every two of ours, so about 33, 35 percent of 
the total force. That holds true today. There's 68,000 U.S. and 
about 35,000, 40,000 Europeans there.
    I think they will key on the United States' commitment in 
the post-2014 period. I think if the United States has 10,000 
troops there, I think the Europeans would come in with 5,000 or 
even 6,000 troops. My sense is they want to be with us in this 
mission. They believe in it, and I think they, like us, are 
cautiously optimistic that, despite all the challenges, if we 
stay steady post-2014, we have a good follow-up mission there, 
that this can succeed.
    Senator Reed. Thank you very much.
    Let me ask all you gentlemen the same question, but from 
your perspectives as commanders in different areas of the 
world. We had General Alexander here recently, who talked about 
cyber. It's a new dimension of warfare. It's evolving very 
quickly. From the perspective of EUCOM and from NORTHCOM and 
from SOUTHCOM, can you just give quick impressions of what you 
think the biggest challenges are, starting with Admiral 
Stavridis?
    Admiral Stavridis. Sir, I think cyber is the area where we 
have the biggest mismatch between our level of preparation, 
which is relatively low, and the level of threat, which is 
relatively high. In other words, we talk a lot and think about 
terrorism, weapons of mass destruction (WMD), specific enemies 
around the world. We spend a lot of time preparing for those. 
In cyber I don't think we've done that level of preparation as 
yet, and you know that better than most from your conversations 
here with General Alexander.
    The good news is, from a European perspective, here is a 
pool of partners who are quite advanced in this area. The 
British, the French, the Germans are all quite capable. NATO as 
a whole is seized with this. We've created a center for cyber 
security in Tallinn, Estonia, a nation that suffered a cyber 
attack.
    So I think as we move forward with this, the ideas of 
partnership and linkages in NATO and in Europe are going to be 
a positive aspect of it, and I'm working with General Alexander 
on that.
    Senator Reed. Thank you.
    General Jacoby, your perspective?
    General Jacoby. Senator, from NORTHCOM's perspective, my 
principal role will be to respond to a cyber event, just as I 
do to any support to civil authorities. It's a very difficult 
challenge for us because it's more like an earthquake than it 
is a hurricane. It'll be in network speed, so it'll be probably 
unannounced, and we'll have effects rapidly.
    We're working closely with FEMA on modeling, along with 
Cyber Command. What could the effects be across various systems 
and critical infrastructure? Also, defending the Homeland, I 
think there were important steps made with the Executive order 
and the PPD that helps us start better defining roles and 
responsibilities of agencies and organizations within the 
Homeland.
    There's a lot of work to be done on that, though. It's 
complicated and we're going to have to continue exercising and 
training against that threat.
    Senator Reed. Your preliminary estimate is that for a 
reasonable threat that exists today, the cost to the country 
could be staggering in terms of a----
    General Jacoby. I think that we had a glimpse of the kinds 
of cascading effects that you can have from a cyber attack in 
Hurricane Sandy, when you saw the amount of power outages and 
the ripple effect that that had across not just the State; but 
a region, across not just people, but the economy. I think that 
was a glimpse of the kinds of effects that you could create 
with a cyber attack. So that's why it has our attention.
    Senator Reed. That's why in individual industries, given 
the potential catastrophic costs, preventive, preemptive action 
today would be more than cost justified in your----
    General Jacoby. Senator, I think that the President's PPD 
sets some standards and goals, and identifies the correct 
relationships between commercial, private, and government. But 
I think there's a lot of work that still needs to be done on 
the gaps and seams that could exist between those.
    Senator Reed. Thank you.
    General Kelly, from your perspective in SOUTHCOM?
    General Kelly. Senator, I'm not sure I could add that Jim 
Stavridis and Chuck haven't already mentioned. I will say this, 
though, to give some perspective. Throughout my AOR, it's 
probably the one single threat that every nation down there, 
whether they're particularly friendly to us or not, it's the 
one single threat they talk to us a lot about and ask for our 
help. We're trying to give them that, but don't have much in 
the way of that capability at SOUTHCOM right now.
    Senator Reed. Thank you.
    General Kelly, too, one of your major efforts is 
counternarcotics, interdiction, et cetera. I presume that 
you're seeing huge pressures as naval forces are withdrawn 
because of budget pressures. But also, can you comment on the 
role of Coast Guard, because even though it's not the 
jurisdiction of this committee, I presume that it plays a very 
large role, too. If they're not able to deploy ships into your 
AOR that could degrade your ability to respond to narcotics.
    General Kelly. Yes, sir. Senator, first of all, the Coast 
Guard plays a very big role in my life and I think I play a big 
role in their life down in that part of the world. We are 
partners joined at the hip and shoulder to shoulder. But as you 
say, even without sequestration I occupy a seat that is very 
definitely the economy of force seat of all of the combatant 
commanders. So we didn't get much then and we get just about 
zero now if sequestration stands.
    What that translates to is last year roughly we got 150 to 
200 tons of cocaine on the high seas, Coast Guard and U.S. Navy 
shoulder to shoulder. Next year all of that will make its way 
ashore and into the United States. So sequestration in 
particular--didn't have much before and we'll have just about 
nothing if sequestration stands.
    Senator Reed. Let me tell you, not much has changed. In 
1969 I was with the 4th of the Tenth Infantry at Fort Gulick, 
the economy of force was quite obvious even then. So at least 
that's consistent.
    One area that's been mentioned before is the foreign 
policy, if not the military role, of Iran and China in areas 
like SOUTHCOM. Have you noticed a significant increase in 
activity, not military activity, but diplomatic activity, 
economic activity, by both these countries?
    General Kelly. The short answer is absolutely. One of the 
things I'm supposed to be doing down there is making sure the 
United States remains the partner of choice in Latin America. 
But a partnership is a two-way thing, I think you'd agree, and 
it's very one-way now. They very much want the United States in 
their lives, with the exception of the two or three of four of 
them, very much want the United States in their lives.
    So we don't bring much any more. We have great trading 
relationships with them. We have great military-to-military 
contact. But when you have an organization like the Chinese 
come in there, just economically powerful, spending a lot of 
money, whether they're increasing infrastructure at ports, the 
Panama Canal, or just going in and buying everything that they 
want in large quantities--so that partnership with China is 
very strong.
    They do the best they can to establish military-to-military 
partnerships and they do pretty well in that. So that's China.
    On the Iranian side, we've seen a fairly significant 
increase in their desire to establish relationships. Obviously, 
Venezuela to date has been kind of the central core of that. 
But over the last several years they've done pretty well in 
other locations. They don't really need, now that Chavez is 
gone, regardless of what happens in Venezuela, they don't 
really need that support any more. They have some positive 
relationships.
    Some of these things, who knows where they're going? It's 
not a huge threat now. But I think anywhere they go, 
particularly when they go to a region that is completely 
different than they are culturally, religiously, and all the 
rest, I think they bear watching.
    Senator Reed. Thank you very much.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. I want to thank the witnesses for being 
here and their outstanding and dedicated work, especially you, 
Admiral. This is probably your last appearance before this 
committee and we thank you for your years of outstanding and 
dedicated service to the country.
    I'd like to ask each of you as succinctly as possible if 
you could tell us the specific impact that it's having and will 
have on the morale and readiness, and including retention, of 
sequestration within your AORs. Maybe begin with you, Admiral.
    Admiral Stavridis. Yes, sir. It is obviously significant 
and negative in all elements that you mentioned. I want to 
begin by saying the particular area that I'm concerned about in 
morale and retention is in our civilian workforce, where we 
have these marvelous civilians who do extraordinary work, stand 
with us every single day, and yet they are facing the 
possibility of furloughs, 20 percent pay cuts, and so forth.
    My own headquarters is reduced by about 25 percent in terms 
of our efficiency and our ability to support our missions. Our 
actual operations in the Balkans, in the Levant, our ISR, 
intelligence, surveillance, reconnaissance, are all reduced at 
about that level. I'm cancelling about 140 security assistance 
programs that help us build this base of support I was talking 
to Senator Reed about in Afghanistan.
    Indeed, even on the family side, the impact on our 
children, who are going to be facing school day cuts and 
furloughs of their teachers is significant and is part of this 
whole challenge for us.
    Then as we look forward and we look at the cuts in force 
structure and platforms that are coming, overall it's a very 
difficult and challenging picture, sir.
    General Jacoby. Senator, many of the same comments as Jim 
had. I would say that we're the command with the most civilian 
personnel assigned to the command. They work across all of my 
mission sets to defend the Homeland to support civil 
authorities, and to work with our partners in the region. So 
this is having a significant impact on them and their families 
as they look forward to some real uncertainty in what's the 
take-home benefit here.
    I would also say from a soldier's point of view on this, 
Senator, you know we have a generation and a force out there 
that knows what right looks like, and they know it's not right 
that they don't have the tools that they need to train and 
maintain readiness. Through 2013 the Services are very 
challenged to meet their readiness requirements and 2014 is 
really unknown at this point.
    I do not have a lot of assigned forces to defend the 
Homeland. I count on trained, ready, and available forces from 
the Services. So degradation in Service capabilities that 
provide me the F-16s that I do Operation Noble Eagle with, to 
the mobile training teams that form the basis of our 
partnership with our Mexican partners--all of those things are 
under stress right now and are part of the sequestration bill 
on the force.
    General Kelly. Senator, the immediate impact on SOUTHCOM is 
our counterdrug interdiction, detention, and monitoring 
operations will go to zero.
    Senator McCain. You just said that you would not be able to 
interdict the drugs next year that you were able to this year.
    General Kelly. Exactly right.
    On the engagement piece, I've had to cancel probably 50 
percent of my engagements. These are small-term engagements. 
These are training exercises that might involve 12 or 15 
soldiers, sailors, airmen, Marines or something like that. 
There's a sense, however, as we go down this road--and I 
certainly can talk to the Latin American countries. There's a 
sense that they have that we are withdrawing. Partnership is 
important, but it has to be a two-way street. They have to 
believe we'll stay engaged. I don't think, increasingly I don't 
think they believe that, which changes a large part of the 
strategic equations, I think, for our country.
    Then on the morale issue, Jim Stavridis talked about his 
civilians. I would ditto that. Our civilians are great folks.
    Senator McCain. What about the desire of the uniformed 
military, the real good ones, to stay in?
    General Kelly. I think the Senator knows----
    Senator McCain. I notice that all three are----
    General Kelly. I have time in the ranks. I was a former 
enlisted marine. I admittedly look at a lot of these things 
through a sergeant's eyes and I'm proud of that. They're 
wondering what the heck's going on. Less than 6 or 8 months ago 
they were ``Thank you for your service'' and ``You guys are the 
greatest'' and ``You fought the wars.'' The families, the Gold 
Star families, they're confused now because it's now dollars 
and cents. I think there's a sense that we've begun to turn our 
backs on them, is how I see it.
    Senator McCain. So we are--I think from what the witnesses 
said we're doing them a grave disservice. For the record, would 
you speak----
    Admiral Stavridis. Yes, sir.
    General Jacoby. I concur, Senator.
    General Kelly. Yes, sir.
    Senator McCain. Thank you very much.
    Admiral Stavridis, last year at this hearing I asked if the 
North Atlantic Council had directed NATO to do any contingency 
planning whatever for possible NATO involvement in Syria. Is 
NATO doing any military planning now for any potential Syria 
contingencies?
    Admiral Stavridis. Sir, we are. We are looking at a wide 
range of operations and we are prepared, if called upon, to be 
engaged, as we were in Libya.
    Senator McCain. NATO has deployed Patriot missile batteries 
to southern Turkey to defend Turkey against contingencies in 
Syria. Are those Patriot missiles capable of shooting down 
aircraft?
    Admiral Stavridis. Yes, sir, they are.
    Senator McCain. Are they capable of shooting down Scud 
missiles?
    Admiral Stavridis. Yes, sir, they are.
    Senator McCain. Are they effective in a 20-mile range?
    Admiral Stavridis. Yes, sir.
    Senator McCain. Can they be positioned in southern Turkey 
in such a way they could shoot down some of Assad's aircraft?
    Admiral Stavridis. Depending on range and altitude, yes, 
sir.
    Senator McCain. Would you agree that shooting down a few 
Syrian aircraft would serve as a powerful disincentive for 
pilots to fly in that area?
    Admiral Stavridis. I think that whenever aircraft are shot 
down that is a powerful disincentive.
    Senator McCain. Is it your opinion, Admiral, that it is 
time that we help the Syrian opposition in ways that would 
break what is a prolonged civil war?
    Admiral Stavridis. I think that that option should be and 
is being actively explored by all the Nations who are looking 
at this.
    Senator McCain. But could I ask your personal opinion?
    Admiral Stavridis. You can. My personal opinion is that 
would be helpful in breaking the deadlock and bringing down the 
Assad regime.
    Senator McCain. I thank you.
    General Kelly and General Jacoby, we are engaged in 
comprehensive immigration reform. Obviously, coming from a 
southern, a southwestern State, the issue of border security is 
very important. The focus is on immigration of illegal people 
crossing our border illegally, but both of you have pointed out 
that a primary reason for border security is the flow of drugs.
    Isn't it true--I think, General, you told me that the 
majority of drugs, cocaine, that comes into the United States 
comes across our southern border? Maybe you could talk a little 
bit about the challenges that we face in securing this Nation 
from the flow of drugs, as well as that of people who come to 
this country illegally?
    General Jacoby. I'll start with that, Senator. NORTHCOM 
supports civil authority on the southwest border, principally 
law enforcement agencies and DHS, through Customs and Border 
Patrol. We do that by fulfilling requests for support and 
providing some unique military capabilities to do that. It's to 
our mutual benefit to do that.
    It's my opinion that borders should be the best part of the 
relationship between two countries. We have a tremendous 
trading relationship across that border, so there is a tension 
between the security and the economic piece of this.
    I think that, as well as we do in security across the 
border, we will always be in a position of needing to improve 
it, because we are dealing with an adaptive, ruthless, 
relentless criminal organization. So in the end our experience 
has been--or I'll speak for myself. My experience has been that 
we're going to have to take on the network on both sides of the 
border and in all of the areas of responsibility to really have 
an effect on security.
    Senator McCain. You would agree that technology is really 
the answer? People are important, but the lessons and 
technology we've developed in Iraq and Afghanistan in the form 
of drones, in the form of sensors, they are really key 
elements, I think. Is it your view--do you agree?
    General Jacoby. I absolutely agree that all of our partners 
should be leveraging every technical capability we can. We've 
seen that be effective across a number of borders that we've 
worked.
    General Kelly. I'll comment on any you want, obviously, 
Senator, but on the technology issue----
    Senator McCain. Flow of drugs first. You mentioned to me--
--
    General Kelly. Flow of drugs. In the so-called transit 
zone, the drugs come up from South America in very large--
talking cocaine here--in very, very large, multiple ton 
packages. Once it gets ashore in Honduras and starts to flow 
through Guatemala--and by the way, the Hondurans, these are 
great partners. They are really with us in this fight, to the 
tune of tens--many thousands of deaths a year.
    But once it gets ashore in Guatemala, in Honduras, and 
starts to flow through Guatemala, gets up into Mexico, which is 
again outside of my zone but a tremendous partner, it 
essentially enters a distribution system that is at least as 
effective as Federal Express. It is moved, broken down into 
packages, and makes its way across our southern border.
    As I mentioned yesterday in an office call with you, 
virtually all of the heroin that comes into the United States 
is produced in Mexico, makes its way across the border, and 
that applies to methamphetamines as well. It's almost all 
produced outside the country and makes its way across the 
border.
    On the technology issue, there's a time--and this wasn't 
Kelly's idea. My predecessor put this together. Rather than 
have U.S. Navy ships and Coast Guard cutters just meandering 
their way across the ocean looking for people, they have it 
down to such a science down there now, basically using ISR, 
electronic intercepts, and a lot of other means, highly 
technical means, essentially they can tell a U.S. Navy ship, we 
can tell a U.S. Navy ship or cutter, to go to a certain 
location on the ocean, kind of look off the starboard bow, and 
you see that guy going 40 knots, stop him. He has 4\1/2\ tons, 
and by the way, they can almost always give the name of the 
driver.
    So the technology piece is huge. In my AOR it resulted in 
150, 200 tons that we know of of cocaine taken off the market.
    Senator McCain. Could I just say, but the flow of cocaine 
into the United States of America has not appreciably 
decreased. Is that correct?
    General Kelly. There is plenty of cocaine on the streets of 
Boston, Chicago, and Los Angeles. So we get a lot. The shout-
out again to Columbia; they get a lot on our behalf. Honduras, 
Guatemala, they get a lot, El Salvador. But we could do a lot 
more, but there's enough getting through, obviously, Senator, 
yes, sir.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Just the follow that question, General Kelly, what more can 
and should the United States do in your command and potentially 
others?
    General Kelly. If you're speaking, Senator, about drugs, 
just more assets. As I say, we're very, very good at locating--
we understand the network certainly south of Mexico, and I can 
only speak to that. We understand the network very, very, very 
well. We can vector airborne ISR assets, all sorts of 
airplanes, any airplane, to look for them. Once we identify 
them, we can then tell surface ships to pick up, whether 
they're go-fast boats or whatever.
    A key point here, if I could. If we get the--if we get the 
drivers of the boats, we can very quickly turn that, because 
they enter our legal justice system. Honduras, Guatemala, 
places like that are extremely helpful to us, but if they get 
the drivers of the boats or the pilots of the airplanes, we 
don't get the same turnaround in intelligence just because of 
the nature of the network.
    But they're with us. More assets equal more tonnage. Less 
assets equal less tonnage.
    Senator Blumenthal. Let me pursue the illegal drug 
trafficking question with a question about human trafficking, 
that is the flow of people, in effect, who are exploited either 
with bad working conditions, substandard working conditions 
there or in this country, sex exploitation and so forth. To 
what extent has that been a concern and what measures can be 
taken against it?
    General Kelly. Let me----
    Senator Blumenthal. I'll ask all three of you that 
question, if I may?
    General Kelly. We watch an awful lot of flow that come in 
from the Middle East, come into the traffic pattern, if you 
will, in Latin America, and then they disappear up into the 
United States. So it's a network. It's highly efficient. 
Anything that gets on that network, if you can pay for it, has 
a pretty good chance of getting through.
    So I look at high-value, high-interest people. You don't 
pay a lot of money to come from, say, Pakistan, fly to Latin 
America, and then get up into the United States. We're not 
talking about the kind of people who are economic refugees. 
They have other business, if you will.
    I think Chuck Jacoby probably has an answer on the other 
part of this.
    Senator Blumenthal. General Jacoby.
    General Jacoby. Senator, I think the thing that all of this 
illicit activity has in common, whether it's people, drugs, 
money, or weapons--is this complex criminal network that has 
grown in size, capacity, ruthlessness, and the ability to find 
the vulnerabilities across our broad frontier, within nations 
that are good partners with us: Central and South America, 
Europe, and Mexico.
    So they are exploiting weak institutions or just 
vulnerabilities that exist. So in my view, after looking at 
this closely--and John and I talk about it a lot--more steps 
that we take to put pressure to disrupt and defeat this network 
is, I believe, the really high payoff activity in terms of all 
of the illicit activity. Whether it's people, whether it's 
drugs, whether it's money or weapons, it is a very powerful 
organization that really hasn't been taken on in the way it 
should.
    Senator Blumenthal. Admiral?
    Admiral Stavridis. Could I, two quick points on that. One 
is, in addition to everything Chuck just reeled off that moves 
on these networks, we need to remember the truly dark edge of 
the spectrum is WMD. These routes, the ability to move ten tons 
of cocaine in a mini-sub, well, if you can move 10 tons of 
cocaine you can put a crude nuclear device in that and move it 
into the homeland. So that's what I really worry about as the 
SOUTHCOM commander, and I think it is also very pertinent today 
when you look at proliferation.
    The second point, to the drug question. We talked a lot 
about cocaine. There's also a heroin issue. Heroin of course 
comes from opium, from poppy, 80 percent of which is produced 
in Afghanistan. So there's another narcotic flow, if you will, 
that comes up through the Balkans, across Europe, and into the 
United States, that is worth considering as we discuss this 
trafficking point.
    I completely agree with my fellow combatant commanders here 
that these trafficking routes are crucial elements of 21st 
century security that don't get enough attention.
    Senator Blumenthal. Are these----
    General Kelly. Senator, if I could just comment.
    Senator Blumenthal. I'm sorry. Go ahead.
    General Kelly. The fact that an awful lot gets onto this 
traffic pattern and into the United States, I think we have to 
acknowledge the fact that we have hundreds and even thousands 
of very, very, very dedicated law enforcement personnel. I have 
them. I think we probably all have them in our headquarters--
Drug Enforcement Agency (DEA), Federal Bureau of Investigation 
(FBI), Department of Justice (DOJ), Treasury, Border Patrol 
agents.
    These people are hugely dedicated people that are fighting 
this fight shoulder to shoulder with us. So we have to 
acknowledge, I think, the fact that we have--they're not in 
uniform, or at least they don't wear military uniforms. We need 
to give them the credit that they're due, a very, very tough 
job. But they're overwhelmed by the, as Chuck points out, the 
intricacy and the efficiency of this networking, the 
ruthlessness of it. But we need to remember they're true heroes 
in every sense of the word.
    Senator Blumenthal. These networks really are not only 
ruthless, they're also relentless, because the amounts of money 
are so huge. I agree with you that our civilian law enforcement 
authorities, which at a prior point in our history would have 
been relied on completely to combat these networks, now has 
been outgunned and outmanned and outresourced by those criminal 
networks.
    So we've relied increasingly on the great work that you and 
the men and women under your command have done. I wonder 
whether you feel that either more resources to them or more 
coordination with you is perhaps an answer to dealing with 
these networks?
    General Kelly. If I understand the question, Senator, I'm a 
believer in the away game. I go back to the efficiency of what 
we do in SOUTHCOM with the U.S. Coast Guard and all the 
interagency, whole-of-government partners that we have across 
the U.S. Government, not to mention our partners. So when I 
talk in terms of what we do in the south, I talk in terms of 
multiple tons at a time, 10 to 20, in that range.
    Once it gets ashore and gets into this landward trafficking 
network, the efficiency of it is just unbelievable. These large 
amounts are broken down into very small amounts and smuggled 
across the border in thousands of trunks, floorboards, 
containers. In my opinion the place to get it is before it ever 
gets ashore.
    Senator Blumenthal. Do you share that view, General Jacoby?
    General Jacoby. Senator, yes, I do. The border itself is 
not the optimum place to stop this, where it's in small loads, 
it's in tunnels, it's in ultralights, it's in Panga boats that 
are going around the coast. So the industrial work that can be 
done, larger than that though, I believe are these global 
networks that we need to treat as threat networks, that 
threaten our security. We need to come up with the policies and 
the partnerships to put pressure on this network and this 
network of networks: the financiers, the leaders, the 
logistics, the operators, all the folks that we've learned how 
to go after in our threat network work that we've done in the 
past.
    Admiral Stavridis. Could I just add, one thing we've done, 
speaking of the away game, in EUCOM is put together a joint 
interagency counter-trafficking center, kind of modeled on 
Joint Interagency Task Force (JIATF)-South, the one down in Key 
West. Very low-cost, whole of government, bring in the partners 
and try and find and get at these routes, land, sea, and air. 
It's that whole-of-government interagency approach that will 
succeed.
    Senator Blumenthal. Thank you.
    I want to thank you all for your very helpful testimony and 
for your extraordinary service to our Nation. I think, General 
Kelly, your testimony about morale and the need to make sure 
that we maintain what attracts the best and brightest and 
bravest to our military is very much on point at this time in 
our history.
    Thank you all for your service and your testimony today. 
Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Gentlemen, to each of you, thanks for your service, thanks 
for your leadership. To all the men and women that serve under 
you, please convey to them our heartfelt thanks for their great 
commitment to freedom.
    Admiral, I'll echo what the chairman said to start with. 
We're going to miss you. You've been such a great asset to our 
country. You've also been a good friend. So we're sorry to see 
you go, but we're very thankful for your service.
    There's a press report today that there may have been the 
use of chemical weapons in Syria. There are allegations being 
thrown from both sides, the rebel side and the government side. 
Any information you can tell us about that with respect to the 
use of chemical weapons, particularly in the Aleppo area where 
it's alleged?
    Admiral Stavridis. Sir, I think I'd best take that for the 
record and provide that at a classified level.
    [The information referred to follows:]

    At this time we cannot confirm anything with respect to alleged 
chemical weapons use in Aleppo. The international community had 
proposed investigating chemical weapons use in Syria--which would 
include Aleppo but I understand such an investigation is held up over 
questions of scope and jurisdiction.

    Senator Chambliss. Okay. With regard to Benghazi, Admiral, 
I know you were put on high alert during the course of the 
attack that took place at the mission and the annex. There were 
lots of failures, it looks like, from an intel standpoint as 
well as some issues of leadership regarding what should have 
been done. Can you give us your look-back now from the 
perspective that you had then with what you were being told and 
give us a lessons learned on Benghazi?
    Admiral Stavridis. Sir, I think my job from EUCOM was to 
serve, if you will, as the back office for Carter Ham. I know 
Carter has been up and testified and I understand he's going to 
provide a detailed classified for-the-record kind of timetable 
of how this unfolded.
    What we did and what I saw was immediately after the attack 
we started chopping assets to General Ham, starting with ISR, 
so we could get Predator coverage up overhead. We began moving, 
at General Ham's request, the Commander's In Extremis Force, 
which was under his and my joint operational control. He took 
control of that, moved it from Croatia to Sigonella.
    He requested and we moved two FAST teams, these Marine 
Corps quick response teams, from Rota to Souda Bay in Crete. We 
spun up all of our C-130s and C-17s. We tried to, from a EUCOM 
perspective, to just push forces south and forward to General 
Ham.
    I think to the degree there are lessons learned here, you 
alluded to the intelligence piece, which I think is really the 
critical thing, because we have to defend hundreds of these 
critical locations all around the world. We need to ensure that 
as the intelligence breaks we are reacting as quickly as we 
can. Time and distance are a tyranny of their own.
    I think the bottom line from this particular incident from 
a EUCOM perspective is the value of having these bases in 
Europe so that we can move these forces forward, and even 
within the European area we can move them from the north to the 
south and get as close to the action as possible to support the 
combatant commander who's in charge, in this case Carter Ham.
    So that's a quick overview, sir. I can provide a little bit 
more on the record from a classified perspective as well.
    Senator Chambliss. Okay. We'll ask that you do that on both 
of those questions, relative to Syria and any additional 
classified info on this.
    General Kelly, during the SOUTHCOM budget hearings for 
fiscal year 2013 General Fraser commented on the capability of 
the Joint STARS platform in the region that was successfully 
being utilized to interdict drug trafficking and detection and 
monitoring of wide-area surveillance. Currently the 116th from 
Robins flies two Joint STARS missions per month in support of 
your operation at SOUTHCOM from a counternarcotics standpoint.
    Can you enlighten us as to the use of Joint STARS and what 
future plans you have to leverage this asset, as well as other 
ISR platforms in your region?
    General Kelly. Senator, JSTARS is very important in what we 
do in the counterdrug effort. We're probably going to lose our 
JSTARS support because of sequestration, so that's essentially 
off the table. But they're hugely effective in that wide-area 
look as we begin the process of identifying the drug 
traffickers as they come up out of the northern tier of--
primarily Colombia and Venezuela.
    If we lose that, it makes it harder. But that's the 
reality. All ISR--and we use anything--much of the ISR we use 
is--an example, are ISR that are just out on training missions. 
We have like bombers as an example, that are going to go up and 
train anyways. U.S. Air Force will vector them down to the 
Caribbean area. They get their training, they get their flight 
time, and they help us out.
    So a lot of it was whatever fell off the table or whatever 
I or General Fraser, better than I am at it, what he could beg 
out of the services. That basically is going away, so it'll 
make it infinitely more difficult to identify the patterns in 
the not-too-distant future.
    Senator Chambliss. I hope with maybe some flexibility that 
we're giving to all of your commands in the CR that hopefully 
will get completed in the next couple of days, maybe we can 
figure out a way to continue to utilize some of those 
platforms.
    General Kelly, again, with the demise of Hugo Chavez, what 
can you tell us about the future leadership in Venezuela, plus 
relationships with the United States? Is it going to improve, 
is it going to denigrate? Which way is it going to go?
    General Kelly. Senator, I think it's safe to say 
essentially the rising stars now that Chavez is gone are from 
the same point of view, same old crowd, if you will. The 
expectation is that the vice president will win the election in 
April.
    But I think the Senator knows this. The economy there, the 
oil production infrastructure, all of that is really on the 
edge. It's a very, very violent country. So the vice president 
when he wins that election or is likely to win that election is 
going to inherit all of the problems that already existed 
there, and they're pretty critical.
    The one difference is he does not have the charisma that 
Chavez had with at least 51 percent of the country. So he has 
his hands full. But we don't anticipate--it's really a State 
Department question, I think. But from my perspective, we don't 
anticipate any real change between our country and the 
Venezuelan Government, at least in the short term.
    Senator Chambliss. Admiral Stavridis, I was not a proponent 
of the START Treaty, primarily because it did not address 
tactical nuclear weapons. Now, the Russians we know have 
continued to, if not increase their arsenal, certainly 
modernize their inventory of tactical weapons. What information 
can you give us relative to the continued production of nuclear 
weapons or the modernization issue relative to tactical versus 
strategic by the Russians?
    Admiral Stavridis. Sir, at an unclassified level, you are 
correct that the Russians continue to have a significant 
inventory of tactical nuclear weapons. They are maintained, 
they are upgraded. It's part of their planning and their 
theory.
    I would like to come back again with a classified answer 
that would give you a little bit more detail. But it is a 
concern and I watch it closely from a NATO perspective.
    Senator Chambliss. Again, if you will follow up with us on 
that in a classified setting.
    Admiral Stavridis. Aye-aye, sir.
    Senator Chambliss. Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of you for your service. Admiral, thank 
you so much. General, thank you. General Kelly, thank you so 
much. Especially if you would pass that on to all the men and 
women who are in harm's way every day, because they don't 
always hear it, but they sure are the ones who protect our 
freedom.
    General Kelly, you had talked about the criminal networks, 
all of you have, that we're facing. It is our law enforcement 
combined with our military facing these criminal networks. Are 
there nations who are working with the criminal networks on the 
other side, who are partners with them in a number of these 
efforts? What can be done in regards to that? General Kelly or 
whoever wants to take the first crack at that?
    General Kelly. With the exception of a couple possibilities 
in SOUTHCOM, I'm confident that there are no governments--in 
fact, I would say across SOUTHCOM there's no governments that 
are supportive. But there are high officials within governments 
that are supportive, many of them for just their own personal 
corruption purposes, but I think many of them--a few of them to 
make life a little bit more difficult for the United States. 
I'll let it go at that. I wouldn't want to get into the detail 
in an open hearing.
    Senator Donnelly. Sure.
    Admiral Stavridis. I think John is absolutely correct, and 
this points to another real concern about these networks. It's 
not just the impact on our populations, our youth that are 
using the narcotics. The profits are used to corrupt officials, 
exactly as John is saying, and that undermines these fragile 
democracies.
    I do agree with John, I'd be hard-pressed to name a state 
that was an identified narco-state. But there are high 
officials throughout the region and in certainly Afghanistan 
that are involved in this. So it's extremely pernicious.
    Senator Donnelly. Do countries like Iran or North Korea 
ever work in coordination with them?
    Admiral Stavridis. Not as--I'll speak to Iran. Not as--not 
as a matter of state policy. In fact, Iran has a very strong 
and reasonably effective counternarcotics effort. I know that 
because it's on the border with Afghanistan and we have 
opportunity to understand what's happening over there. I think 
you'd find, if you asked the DEA, that Iran can be very 
effective in counternarcotics.
    On the other hand, in all of these states in the region I 
think there are high officials that are not adverse to being 
part of that process for financial gain.
    Senator Donnelly. Admiral, in regards to Syria, is there a 
fear or is there planning as to if and when Assad falls, fears 
of ethnic cleansing, religious cleansing and the danger that 
shows us?
    Admiral Stavridis. Sir, there is a great deal of danger in 
the end game scenario in Syria. Of course, I'm not a Syria 
expert. That's really General Mattis and CENTCOM. But I watch 
it closely because of my NATO hat. The closest analogue I could 
give you, sir, is think back to the Balkans in the 1990s, when 
we had competing ethnic, demographic, religious groups that 
really turned the Balkans into a nightmare for the better part 
of 10 years.
    We saw in the Balkans 100,000 killed, 1 million people, 2 
million people pushed across borders, 2 significant wars, 1 in 
Bosnia-Hercegovina, 1 in Serbia-Kosovo. I think, unfortunately, 
that's probably the future in Syria. It's going to be--after 
the Assad regime falls, I think there is every potential for a 
great deal of revenge killing, inter-religious conflict between 
various segments of the population. It's very difficult to see 
the pieces of Syria going back together again very easily.
    Senator Donnelly. General Kelly, this is a little bit of an 
overall general question, which is: What do you see as, other 
than the cyber discussions that we had, what do you see as the 
greatest threat coming out of SOUTHCOM to our Nation?
    General Kelly. Clearly, in my mind it's the network, the 
trafficking network that drugs ride on, certainly people ride 
on, and potentially WMD that could ride on. As I mentioned a 
little earlier, the concern on the part of many of our Latin 
American friends and partners is that we're withdrawing, that 
there's a lack of interest on our part to continue doing what 
we're doing. They want us in their lives for the most part. 
Even the countries that are not so friendly to us get great 
benefit just from what we're doing there, in not only the drug 
trade, but in trade in general. So those are the kind of two 
issues, I guess.
    Senator Donnelly. Admiral, as we look forward in EUCOM, one 
of the discussions on the budget end is, are all the facilities 
in EUCOM necessary as we look at where danger is coming from in 
years ahead? Do you believe our partnership-building efforts 
will result in a smaller U.S. footprint, or is that something 
where--would having the flexibility to make those decisions as 
to where changes are made, would that be of assistance to you?
    Admiral Stavridis. Yes and yes are the two quick answers. I 
think, just to put perspective on it, if you recall, 20 or 30 
years ago, Cold War, we had 450,000 troops in Europe, 1,200 
bases. We've come down 85 percent since then. So we have taken 
a great deal of infrastructure out of Europe. As we've talked 
about at the hearing this morning, what remains are really 
forward operating bases that we need for access into Africa, 
the Levant, the near Middle East, and into Central Asia.
    Having said all that, we should continue to look at the 
basing structure. We have a study that's in progress by the 
Department, which will report out at the end of this year. I 
think we conceivably could over time draw down a bit further. 
It'll depend, exactly as you said, Senator, on partnerships, on 
our confidence in access, and how we move within the NATO 
alliance.
    So I think there is room for continuing analysis of it. I 
feel we're positioned about right for the moment in time in 
which we find ourselves. But I believe that that downward 
trajectory over time will probably continue.
    Senator Donnelly. General Jacoby, a little bit of the same 
version of what I had asked General Kelly. What do you see as 
the greatest threat in NORTHCOM as we look forward, other than 
again the cyber piece that we deal with every day?
    General Jacoby. I think today, as I said in my opening 
statement, we have increased vulnerability in the Homeland, and 
it's because I think there's a closer relationship between the 
home game and the away game than there's ever been before. To 
that end, I worry about my AOR, but I have interests in all of 
the other COCOM's as well. For instance, WMD: a WMD getting 
into the Homeland is any NORTHCOM commander's nightmare. So 
where would that come from? What route would it ride? What 
organizations would sponsor it? What threat would seek to 
deliver a device like that?
    That means I have to be closely connected with all the 
other COCOMs and intelligence agencies. We cannot take our eye 
off the ball on the terrorist threat and al Qaeda; I think they 
still remain determined to attack the United States.
    So the terrorist threat has changed over time. It's 
manifested itself in different places and different ways. We've 
had success against it, but I still believe that they're intent 
on attacking the United States.
    Finally, the no-notice catastrophic event in the Homeland 
and making sure that DOD is not late to need is something that 
increasingly occupies my attention. In just the year and a half 
I've been the commander, we've had three major hurricanes and 
two major wildfires, Hurricane Sandy being the worst of those. 
Those really are times where the expectations of our people are 
that DOD is going to provide assistance.
    So that's kind of the panoply of things that keep me up at 
night.
    Senator Donnelly. Thank you all for your service and for 
what you've done for our country.
    Thank you.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Admiral Stavridis, let me do a little follow-up. Senator 
Donnelly just asked if and when Assad falls and you discussed 
his question about ethnic cleansing. If and when Assad falls, 
does EUCOM or NATO have contingency plans to deal with the 
Syrian stockpile of chemical weapons?
    Admiral Stavridis. EUCOM does not. That would fall under 
General Mattis in CENTCOM.
    Senator Wicker. Can you tell us anything about that?
    Admiral Stavridis. Not at an unclassified level. But I'm 
happy to take that for the record back to General Mattis.
    Senator Wicker. Okay, thank you very much.
    Now, then to follow up on Senator McCain. He had an 
interesting line of questioning with regard to the placement of 
Patriot batteries in Turkey. Who put those Patriot batteries 
there, Admiral?
    Admiral Stavridis. Those are on NATO mission. They were 
assigned by the NATO alliance. There are three nations that 
have contributed batteries. The United States is in a place 
called Gaziantep. Germany is in a place called Kahramanmaras 
and the Dutch are in a place called Adana. All of these are 
located in southwestern Turkey along the border, Senator.
    Senator Wicker. Was this a decision that was reached by the 
NATO leadership or did we do that individually with those, with 
those two allies of ours?
    Admiral Stavridis. It was a NATO decision and this is a 
NATO mission. In fact, although those are the three nations 
that have contributed the actual batteries, the entire 28 
member nations have people that are part of this mission. For 
example, the command and control is made up of people from all 
the different countries, connected back through the operational 
chain and the headquarters. So it's very much a NATO mission.
    Senator Wicker. What did it take within NATO to make that 
decision?
    Admiral Stavridis. We had to bring it into the NATO 
Council, which is 28 nations. They're represented by 
ambassadors in Belgium. It was discussed there. Then those 
ambassadors went back to capitals, got approval for it, and 
then the operational task began.
    I would say that sounds like quite a process, but----
    Senator Wicker. It does.
    Admiral Stavridis. We did it in about a month. In other 
words, from the time the Turkish nation asked for the Patriots 
to be emplaced to the time the first Patriot batteries were in 
place was just about a month.
    Senator Wicker. What level of unanimity was required within 
NATO to do that?
    Admiral Stavridis. All 28 nations had to agree.
    Senator Wicker. So do I take it then from the tone of your 
answer that you're comfortable with our having to rely on that 
level of required consensus in our past dealings with the 
Libyan issue and currently with Syria? Or has that been 
cumbersome and has it stood in the way of us making efficient 
decisions?
    Admiral Stavridis. As I look back on 4 years as the NATO 
commander for operations, I look at all the things we've done--
Afghanistan, counter-piracy, the current Syria mission with the 
Patriots, the Balkans. We've typically got 150,000 people out 
doing five or six operations around the world at any given 
moment. All of those decisions have been done by consensus.
    There have been times when that has been frustrating and 
there have been times when it takes consensus-building, just 
like it does in any deliberative body. But as I look back on 4 
years, I would say that it is reasonably effective at 
delivering operational capability. Having said all that, there 
are always going to be times when each nation must reserve to 
itself the right to act immediately. The United States has done 
that. I think we will continue to do that. We're not bound by 
NATO, but when we want to bring NATO along we go into this 
process. Again, looking back on 4 years, it's been reasonably 
successful in delivering capability for operations.
    Senator Wicker. The United States has not done that, 
though, with regard to Syria policy.
    Admiral Stavridis. It has not done that with regard to 
Syria, that's correct. It did it with regard to Libya, for 
example.
    Senator Wicker. In what respect?
    Admiral Stavridis. In the sense that the Libyan operation 
began as a series of unilateral coalition of the willing 
operations, initially the French and the British. The United 
States jumped in, the Italians came in. At that point, after 
about 10 days to 2 weeks of that coalition of the willing 
operation, NATO stepped up and took over that operation and 
then ran the Libyan operation for the next 9 months.
    Senator Wicker. Now, with regard to Senator McCain's 
specific question about those Patriot batteries being used to 
knock down Syrian military aircraft, at this point our position 
is that that would require this type of NATO consensus 
decision?
    Admiral Stavridis. That's correct. That is correct.
    Senator Wicker. We're far from that at this point?
    How is the Syrian issue impacting our relationship with 
Ankara and what is your current assessment of our military 
relationship with Turkey?
    Admiral Stavridis. Our current U.S. to Turkey military-to-
military relationship is extremely strong. We operate with them 
in a wide variety of missions and they are very capable 
partners. Within a NATO context, they are equally strong. 
Turkey, just for example, has a couple of thousand troops that 
are the bulwark of Kabul's train, equip and organize mission. 
Turkey's participated in every mission since I've been the 
Supreme Allied Commander. They continue to be very strong.
    Senator Wicker. How has the Syria issue affected our 
relationship?
    Admiral Stavridis. It has made it stronger.
    Senator Wicker. Really?
    Admiral Stavridis. It has, because Turkey correctly feels 
as though there's a great deal of danger and difficulty in the 
south and therefore they came to NATO and have come to the 
United States. I think they're very positive about the response 
both from NATO and the United States in both of those 
scenarios.
    Senator Wicker. I think your answer is with regard to our 
military-to-military relationship.
    Admiral Stavridis. Right.
    Senator Wicker. Is there any difference between that and 
our government-to-government relationship?
    Admiral Stavridis. Obviously, State Department would be the 
right people to ask. But I have a fair amount of contact with 
the Minister of Defense, the Minister of Foreign Affairs of 
Turkey. My impression is that we are in a strong position 
government-to-government. But my area is military-to-military 
and I can testify to that.
    Senator Wicker. Let me quickly shift just a bit to the 2012 
Secretary General's annual report with regard to NATO. 
Secretary General Rasmussen makes clear his concerns with the 
growing disparity not only between U.S. and European 
contributions to defense, but also the growing disparity among 
European nations to this contribution.
    Let me quote the Secretary General's report: ``The effects 
of the financial crisis and the declining share of resources 
devoted to defense in many allied countries have resulted in an 
overreliance on a few countries, especially the United 
States''----
    Admiral Stavridis. Correct.
    Senator Wicker. We certainly know that.
    ``--and some significant deficiencies in key capabilities, 
such as intelligence and reconnaissance.''
    So what I'm concerned about is that there seems to be a 
lack of emphasis by some of our NATO allies on defense, to the 
point where they may actually be participants in name only.
    Do you agree with Secretary General Rasmussen's assessment 
and, if so, what needs to be done to correct the problem?
    Admiral Stavridis. I do agree with his assessment, and the 
quick fix is for the Nations of NATO to meet their self-
described 2 percent of GDP spending goal. Today only a handful 
of nations, including of course the United States, spend more 
than 2 percent. The majority do not and that's not right and 
all of us should be continuing to talk to those nations who are 
not meeting that goal so they can increase their spending.
    Having said that, the good news is the Europeans 
collectively spend about $300 billion a year on defense. That 
number surprises people sometimes. It's a very significant 
amount of spending. But it still does not rise to the goal that 
they have set and therefore it's disproportionate for the 
United States and that's not right and it should be addressed.
    Senator Wicker. Other than talk about it, there is very 
little else we can do; is that correct, Admiral?
    Admiral Stavridis. I think there are other pressure tools 
that can be brought to bear. But I think principally----
    Senator Wicker. What suggestions would you have?
    Admiral Stavridis. I think that it would entail the United 
States withholding some of its assets or deciding to take 
positions in NATO that would effectively put pressure on 
nations in operational kinds of ways. We hope not to get to 
that point. We are continuing--and as we come out of this 
financial crisis, especially in Europe, I'm hopeful that our 
allies will step up and get us up into that 2 percent spending 
range.
    Senator Wicker. Thank you very much.
    Admiral Stavridis. Yes, sir.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Kaine.
    Senator Kaine. Thank you all for your testimony today.
    I'm going to hop-scotch around a little bit. I'd like to 
start with General Kelly to follow up on a conversation we 
started to have yesterday. You earlier talked a little about 
the interdiction efforts that have been successful to a degree, 
but there are likely challenges as a result of sequestration. I 
just want to make sure I have this right.
    So last year the interdiction efforts under SOUTHCOM were 
responsible for taking, did you say, 150 to 200 tons of cocaine 
out of circulation?
    General Kelly. Yes, sir. The interdiction effort, it's a 
whole-of-government interdiction. It's not just U.S. military. 
So we're talking DOJ, Department of Treasury, DEA, FBI. It's 
all of government, to include all of the police officers and 
agents in the United States.
    But in the neighborhood of 200, 150 to 200 tons either 
taken, we actually have it in our hands, or it was thrown over 
the side. Those are the estimates, yes, sir.
    Senator Kaine. Do you believe that that is about 20 percent 
of the cocaine that would get into the United States from South 
America?
    General Kelly. By some numbers that's about 20 percent.
    Senator Kaine. Right. We talked yesterday you thought to 
really be disruptive in terms of the drug markets and the 
dollars raised for it you'd have to take about--you'd really 
want to interdict about 70 or 80 percent of the cocaine coming 
in.
    General Kelly. Our President's given us a goal, again the 
entire government goal, of 40 percent. The thinking there is 
that if you took that much cocaine out of the flow that the 
network just wouldn't have the profits that it has enjoyed for 
so many years and it would begin to come apart. The network 
itself would suffer because of the profits.
    Senator Kaine. It would also drive up prices----
    General Kelly. It would drive up prices.
    Senator Kaine.--such that a lot of people couldn't afford 
it.
    General Kelly. I believe we could do much--given the ISR 
assets and the surface assets, more takes more off the market. 
Less takes less off the market. But yes, sir, I think we could 
take much more than even the 40 percent that the President has 
tasked us to take off by 2015.
    Senator Kaine. A key component of this interdiction is the 
use of ships, I guess primarily on the Caribbean side, maybe a 
little bit on the Pacific side. You have about six ships that 
you currently use that would be part of your normal 
interdiction force?
    General Kelly. Surface vessels. The Coast Guard plays big 
into this, both in the Pacific and on the Caribbean side. The 
way we see it, about 14 ships a day would go a long way to 
crippling this effort in that initial part of the transit zone. 
On average we get five or six. We still get tremendous amounts 
of tonnage off the market. But again, SOUTHCOM being very much 
the economy of force area of operations, for many years now 
we've only gotten a relatively small number of Coast Guard 
cutters and U.S. Navy ships of all types.
    Senator Kaine. The five or six now is significantly 
jeopardized by sequester. It would drop it down to zero or one 
potentially?
    General Kelly. Yes, sir, zero or one.
    Senator Kaine. While drugs are interdicted other than by 
the surface ships, the surface ships are really the key 
component to the interdiction effort?
    General Kelly. Overwhelmingly. The example I would give you 
is the product that's flown out of primarily Venezuela by small 
aircraft carry--typically go into the ungoverned spaces, the 
wide-open spaces of Honduras. It might carry a ton, sometimes 
less than that, but roughly a ton. Again, the profits are so 
lucrative they land and then they take the drug off the 
airplane, they just burn the airplane. So it's not even worth 
making the return trip to them, the profits are so high.
    The Hondurans and the Guatemalans tremendously, and the 
Belizeans and the El Salvadorans, tremendously helpful in this 
effort. But the vast majority of the tonnage is taken off the 
high seas.
    I have to point out, with again partnerships--the French 
are involved in this, the Brits are involved in this, small 
numbers, but they are involved. I cannot say enough about the 
Colombians and what they do.
    Senator Kaine. That has dramatically improved, obviously, 
with the current government, ongoing negotiations to 
potentially resolve the civil war with the FARC. Colombia is 
getting to be a stronger and stronger partner every day.
    General Kelly. They are that, yes, Senator.
    Senator Kaine. One of the things you mentioned, and I put 
quotes around it is, a concern by some in the hemisphere as 
they see an upscale of activity from China, maybe somewhat of 
an upscale from Russia, an upscale of activity from Iran, a 
sense that we are pulling back.
    We talked yesterday about just a small example of it, the 
Inter-American Defense College here in Washington that for 50 
years has trained military officers from the hemisphere, who 
have often gone back and assumed key positions militarily or 
even in civilian political leadership. That is a very small 
line item, but it's something that's definitely jeopardized by 
our current budget woes?
    General Kelly. Yes, Senator. I think in the last 50 years 
the Inter-American Defense College, which is here in 
Washington, doesn't work for me, but they've graduated 
something on the neighborhood of 2,500 graduates. Many of them 
have become general officers, admirals, down south. Many of 
them have become presidents, ministers of defense. It's a very 
effective program.
    It's all about civilian control of the military. It's all 
about the right relationship between the military and the 
people of their countries. It's all about human rights. Very 
effective.
    They may go under if we don't find them $800,000, which I 
don't have, but that's not----
    Senator Kaine. $800,000.
    The Chinese are starting to bring the military leadership 
from the hemisphere to China for military training now, 
correct?
    General Kelly. They do. They have kind of a wide-open 
program, much as we have, but for the Chinese it's much easier. 
If you want to go, you can go. As I mentioned yesterday, a lot 
of the officers from Latin America go. They don't get much out 
of it, but it's a year abroad and it's very easy, where we have 
similar programs in the United States and they're very popular 
down south.
    The example I would give you, today the president of Peru 
is a former graduate as a military officer from the old School 
of the Americas. That's gone now and we now have the WHINSEC 
program down in Fort Benning. But he found it to be so useful 
to him, the old program, that he is buying up every seat he can 
get in the Western Hemisphere course of instruction down in 
Fort Benning. The dividends are immense, but there are a few 
hurdles, money being one of them, in order to get students up 
into our programs.
    This includes attendance at schools that the Marines run at 
Quantico, the Army at Leavenworth, the Air Force at Maxwell Air 
Force Base. So it's just not those schools. It's all of the 
schools in the United States. The relationships are key.
    Senator Kaine. I just don't believe we can afford to send 
the message that we're pulling back, and that's important 
testimony.
    General Jacoby, just real quick, staying in the same part 
of the world. Talk a little bit about the military-to-military 
relationship with Mexico?
    General Jacoby. Senator, I'm happy to report we have a 
strong military-to-military relationship with Mexico. It's a 
relatively recent phenomenon. I've been involved with Mexico 
over the last decade or so, and it's really in the last 3 to 4 
years that our military-to-military engagement has become a 
rich exchange between equals. We're developing a great 
partnership.
    We changed administrations in Mexico and I know the two 
gentlemen that became the head of Sedena and the head of Semar, 
tremendous professional officers, very eager to sustain and 
grow the military-to-military relationship. So it's very 
beneficial to both countries to do that and I'm proud of what 
we've accomplished.
    Senator Kaine. Great.
    Thank you very much.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I thank you for 
your service and I hope you will extend my appreciation to the 
men and women that you represent as well.
    General Jacoby, according to certain reports Iran could 
have a ballistic missile capable of striking the United States 
in 2015. Earlier this morning Senator Levin had a conversation 
with you about the threat to the east coast and you discussed 
that. You also said later on in some testimony that the closer 
relationship between home game and the away game--or we have a 
closer relationship between the home game and the away game 
than ever before.
    How long would it take to construct a missile defense site 
on the east coast?
    General Jacoby. It's a pretty complicated proposition, from 
the studies required, the environmental impact statements, and 
then, depending on the site, this could be an issue of years to 
get another missile site done, whether it's on the east coast 
or wherever it might be. So it's quite a proposition, and to 
that end we are happy to be conducting the study that was 
directed in the NDAA to provide decision points along the way 
to make sure that we're outpacing the threat.
    Senator Fischer. I know in my home State in highway 
construction an environmental impact statement can take 5 to 7 
years sometimes. Would that apply to a missile site as well?
    General Jacoby. I think these things--and I do have 
experience with them, can take years to get an environmental 
impact statement, and of course that could be affected by the 
urgency of an increased threat. I think it's safe to say that 
this is a question of years and getting the study started is a 
good and important step.
    Senator Fischer. But if the Iranians are able to have a 
system that can reach this country, reach the east coast, by 
2015, are we already behind?
    General Jacoby. Currently, as I testified, we're able to 
provide defense of the entire United States from an Iranian 
threat.We don't think that threat has resolved itself yet, but 
I would say that it's my belief that Iran is actively pursuing 
an ICBM capability and I think it's prudent to be taking steps 
to hedge against the evolution of that threat.
    Senator Fischer. Will the SM-3 Block IIA missile be 
deployed by 2015?
    General Jacoby. I'll defer to--that won't be part of the 
Homeland defense, the Block IIA.
    Admiral Stavridis. Senator, it will be. That is the current 
plan, and it'll be deployed in Europe.
    Senator Fischer. Correct. Would that help with defense of 
the Homeland?
    Admiral Stavridis. No. No, Senator, it would not. It's 
strictly for defending our allies in Europe.
    Senator Fischer. Thank you.
    Admiral, also on Friday we learned that DOD has made a 
decision to eliminate the deployment of those interceptors in 
Europe. Is that correct?
    Admiral Stavridis. Yes, Senator, that was announced on 
Friday.
    Senator Fischer. So how does that affect Europe and how 
would that affect the United States as well? Does it make the 
east coast more vulnerable? You said it doesn't apply to the 
United States, but would it make the east coast more 
vulnerable?
    Admiral Stavridis. The theory of the Phase 4, which is what 
we're talking about, was that it would defend, help defend, the 
United States. What has happened, as General Jacoby knows 
better than I, they have--the OSD, the Secretary of Defense, 
has moved this capability to the GBI site that you were just 
discussing with him. It will not affect Europe. Phases 1, 2, 
and 3 are the phases that are to defend Europe, Senator.
    Senator Fischer. Thank you.
    General Kelly, in your opening statement you said that 
China is attempting to compete with U.S. military activities in 
the region. Senator Reed asked you about the Chinese influence 
and you mentioned the economic influence. Can you elaborate on 
that?
    General Kelly. Yes, Senator. The Chinese first and foremost 
are very, very active in Latin America commercially. When they 
want to buy something, they buy it in very, very large numbers, 
whether it's soybeans in the far south of the Southern Cone, 
oil from Venezuela. They're in there in a big way buying up 
commodities primarily.
    They also are very good at building things like ports and 
running things like ports, so they're very involved in the 
running of the Panama Canal, as an example, as a commercial 
interest. I don't personally see a threat there. So they're 
doing that commercially and economically.
    They deployed--on the military-to-military context, they 
deployed a hospital ship to the region, much like our own 
hospital ship, and it saw tremendous goodwill, visited large 
numbers of ports, did thousands of medical procedures on people 
that have never seen a doctor, again much as we do in that part 
of the world every other year or so with our own hospital ship.
    Obviously, they want to sell their military hardware to any 
nation that will buy it. It's much easier. You know the 
frustration that our friends and partners around the world have 
with our military sales. It's very complicated, takes a long 
time. I would offer that many of these countries certainly that 
I deal with just get tired of waiting. They'd rather buy 
American stuff because it's better. It's better maintained. It 
comes with better support packages. But they get tired of 
waiting for it, so they go elsewhere, either to the Russians or 
to--the other big players to the Russians are the Chinese.
    So they're down there trying to sell their equipment. We 
already mentioned the training. They have training programs 
where they'll pay for officers particularly to go to China and 
do a year in their staff colleges.
    So they're trying in a big way. What's the ultimate goal? I 
think the ultimate goal certainly commercially is just they're 
huge, powerful, and they're going to penetrate any market they 
can penetrate. That's not a bad thing necessarily. It's a good 
thing for most of the Nations that I'm talking about.
    They're also looking to the U.N. and inflencing the U.N. 
They have certain agenda items that if they could get more 
votes in the U.N. they might be--they might get those agenda 
items. So that's where they are on this.
    I don't see it as a huge threat, but as we back away or 
it's harder and harder for people to buy or military equipment, 
they go to other, easier to deal with countries, and China is 
certainly one of them.
    Senator Fischer. Specifically which countries are being 
most affected by the Chinese influence in this way?
    General Kelly. Economically, any country down there. 
They're all now big trading partners. Again, it's primarily 
commodities, farm products, things like that. I don't think 
there's a soybean safe in Latin America that isn't going to be 
scooped up and sent to China. Oil, as I say, from Venezuela and 
some of those countries.
    But they're all, I think, good trading partners with a 
country that is willing to trade and undercut things and make 
it happen. Again, not a threat in that regard, but certainly if 
we want to remain the partner of choice, we the United States 
of America, we're certainly doing that at the military-to-
military level for the most part. We're doing that in the law 
enforcement level, as we help them, many countries, deal with 
their drug problems and their money-laundering problems. But 
there are other aspects of military or national instruments of 
power that other countries have replaced us or certainly are 
enjoying success in replacing us.
    Senator Fischer. If I could just ask, are our private 
businesses, private industry, picking up the, I guess the slack 
there in maintaining the influence and being good trading 
partners with those countries? So would that diminish the 
threat of the Chinese then?
    General Kelly. Our private business partners are very 
active. We have tremendous trade relationships. In fact, we 
are, the United States, the biggest trader. But there are still 
restrictions on what U.S. private businesses can do, hula-hoops 
they have to get through, hurdles they have to jump. It's much 
easier when you deal with a country that has absolutely no 
restriction and will do business with anyone for any reason.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Fischer.
    Senator King.
    Senator King. Thanks, Mr. Chairman.
    Gentlemen, welcome. Admiral, I'm sorry that you're leaving 
as I'm coming in and we don't get a chance to work together.
    One thing, General Kelly, you just mentioned that sort of 
perked my ears up. What's the Chinese involvement in the 
management of the Panama Canal?
    General Kelly. They have commercial managers, companies, 
that work either end, particularly either end, the port 
facilities on either end of the Panama Canal.
    Senator King. So they in effect, Chinese personnel are in 
effect managing it? Are there Chinese personnel there?
    General Kelly. They have managers and personnel. There are 
many Panamanians that are involved in the process as well, but 
they do have contractual arrangements with the ports on either 
end of the canal.
    Senator King. Thank you.
    The second question. Admiral, on the question of sequester, 
there has been a lot of discussion around here, as you can 
imagine, about it. One of the potential cures, if you will, or 
at least ameliorations, is greater flexibility to DOD in terms 
of how it's going to be achieved, not reducing the overall 
amount, but how it's going to be achieved.
    To all three of you, would that help or are the amounts so 
significant that that would not be a great boon to your ability 
to respond to this issue?
    Admiral Stavridis. I think that would be very helpful. I'm 
not the right person to declame on that and neither are my 
fellows here. That really is a question for our budgeteers in 
the Department. But speaking as an operator, I can see where it 
would be very helpful and it would allow the movement of funds 
across various accounts so we could better prioritize, which I 
think is what you would want us to be able to do.
    Senator King. You gentlemen would agree?
    A different question. Again Admiral Stavridis: Benghazi and 
forces in Europe in a time of fiscal austerity, reducing 
footprints. Is there a middle ground that would allow the 
positioning of smaller strike forces, if you will, to respond 
to a situation like Benghazi, as opposed to maintaining a large 
footprint generally? Do you see what I'm getting at?
    Admiral Stavridis. Yes, sir, I do. Life is not an on-and-
off switch. It's not we have to have a huge infrastructure or 
nothing. Certainly life is a rheostat and you kind of dial it 
in.
    As I testified earlier, I'm generally satisfied with the 
current level of infrastructure that we have in Europe, which 
has come down 85 percent since the height of the Cold War. But 
there are studies in progress this year and I think by the end 
of this year you'll see reported to the committee and to 
Congress ideas for how we can get the best balance on that 
rheostat.
    Senator King. One of the issues that we discussed in 
Benghazi is response time. If you move everybody to Fort 
Benning, it's going to be hard to get them there.
    Admiral Stavridis. Exactly. I would certainly not recommend 
coming out at that level. We need these forward operating bases 
in this 21st century because of all the things we've talked 
about today.
    Senator King. Part of what I'm suggesting is not a full-
blown base, but a much smaller, as I say, a kind of strike 
force in the neighborhood. Is that a feasible option?
    Admiral Stavridis. I think all of those ideas could be 
explored. It would of course depend on our partners. If we 
don't have the infrastructure that we do now, we would then 
rely even more on the Italians, on the Greeks, on the Spanish, 
and so forth. Personally, I'm comfortable at the moment with 
the arrangements we have. But it is certainly worth considering 
all options as we look forward to get the best balance, the 
best position on that rheostat for taxpayers as well as for 
security.
    Senator King. Again changing the subject, trying to hit a 
lot of areas, several of you--you all have mentioned the 
criminal network. I was interested. How organized and unified 
is it? Is it a criminal network? This is reminding me of the 
old James Bond movie, books in the 1970s, where there was this 
criminal network that was organized, that had a boss and a set 
of underlings and a structure. Is that what we're dealing with, 
or are we dealing with a whole bunch of random bad guys?
    Admiral Stavridis. It's somewhere in the middle. There are 
large cartels that operate in a variety of different ways 
around these criminal networks. This is, Senator, if you will, 
this is the dark side of globalization. If we're in a world in 
which there's much more connection and much more ability to 
move information and people quickly, that's generally a good 
thing, but there are going to be entities, both individuals, 
mid-sized groups, and big cartels, that take advantage of this.
    Some of the estimates, if you think of the global economy 
as being about $70 trillion, some estimates are that about $6 
trillion, about 10 percent of the global economy, is invested, 
if you will, in narcotics, human smuggling, cyber crime being 
the largest of all these areas, as well as the other things 
we've talked about, arms, cash, et cetera.
    Senator King. I know you've mentioned cyber crime and we 
don't have time to get into it in detail, but I view that as 
the next Pearl Harbor risk. You'd share that concern?
    General Jacoby. Senator, yes, I would. Former Secretary 
Panetta spoke about it in just those terms--tremendous 
opportunities in the network, but there's also vulnerabilities 
that could have catastrophic consequences for us.
    Senator King. One further question about the criminal 
cartels. One of the things that scared me about your testimony 
is the idea of one of our state enemies, if you will--perhaps I 
shouldn't use that term--people who don't wish us well, working 
with the criminal cartel as a conveyor, for example, of a WMD. 
That to me means that the work you're doing, General Kelly, in 
the SOUTHCOM on the high seas is not only a drug issue or a 
criminal issue, but it's a very serious national security 
issue.
    General Kelly. You won't get an argument from me, Senator. 
I think you're exactly spot on.
    Senator King. Thank you.
    Thank you, gentlemen, and thanks again for your service.
    Chairman Levin. Thank you very much, Senator King.
    We're going to have a brief second round. I think one of 
our colleagues is on her way here also, so she can have her 
first round, of course, when she gets here.
    Admiral, let me ask you some questions about Syria. I think 
the administration has shown some caution, real caution, about 
getting more deeply involved militarily in terms of supplying 
arms particularly to the opposition in Syria. I think the fear 
has been that we want to make sure who those arms are getting 
to, first of all, and second that when Assad falls--I won't say 
if and when because it's when as far as I'm concerned Assad 
falls--there needs to be in place or ready to be put in place 
by the Syrians some kind of an interim government, which would 
avoid chaos and anarchy in Syria so that it doesn't fall apart, 
it doesn't disintegrate, and that progress needs to be made in 
that direction prior to the provision of more lethal arms.
    That seems to have been the feeling of the administration. 
I understand that caution and basically share it, with a couple 
caveats. One is that if Turkey were willing to provide a safe 
zone or to assure a safe zone, with NATO support, along the 
border with Syria, but inside Syria, if Turkey were willing to 
do that, that I think that we ought to support that.
    Second, I favored at least consideration of going after 
some of Syria's air defenses and possibly some of their air 
capability itself.
    We heard an interesting idea today, probably not from his 
mind for the first time. I think Senator McCain is probably 
further along in this line than perhaps most of our colleagues. 
I thought it was a very intriguing set of questions of his when 
he asked about the capability of the Patriot missiles, as to 
whether or not they essentially could defend a zone along that 
border perhaps 20 miles wide from Syrian aircraft, from Turkish 
territory with the Patriot missiles.
    Your answers were very, it seems to me, illuminating, that 
yes, there could be that kind of protection of a, I think you 
indicated or he indicated, a 20-mile wide zone. I think that 
really is subject to some very serious consideration myself, 
because I think we have to step up the military--our military 
effort against Assad in some ways, whether it's some kind of a 
safe zone that we help protect along the border inside of 
Syria, whether it's going after their air defenses, or whether 
it's going after some of their air force.
    Would Turkey, do you believe, support the use of the 
Patriot missiles in that manner, to help protect a safe zone in 
Turkey--I'm sorry, in Syria, along that border?
    Admiral Stavridis. Again, I'm not the expert on Syria. From 
the perspective of our Turkish colleagues, whenever they have 
talked to us about the use of the Patriots they have been very 
emphatic that they would be defensive. That's the role they 
have continued to say is paramount in their view, because I 
think they are loathe to be dragged into the Syrian conflict by 
an inadvertent incident of some kind.
    Having said that, as I told Senator McCain, the capability 
is there. It would have to be first and foremost a Turkish 
decision since it's their sovereign soil. If it were to be a 
NATO mission, it would then need to come into NATO for dialogue 
and so forth. As I was discussing with Senator Wicker, that 
will require 28-nation consensus. So it would be a complicated 
process.
    But I think this range of options are certainly under 
discussion in a lot of the capitals.
    Chairman Levin. Would you take back that option, if it 
isn't already under consideration, to our NATO allies, starting 
with Turkey? Turkey has suggested, I believe, that she would be 
willing to help create and then protect a zone, a narrow band 
inside of Syria along the Turkish border, where Syrians could 
go for safety, instead of all flowing across the border. So it 
would be I think an interesting, obviously important and 
essential, but interesting to find what Turkey's response would 
be to such a proposal.
    If there is a positive response there or a willingness to 
even consider it, can you take that up with other NATO 
countries, the possible use of those Patriots?
    Admiral Stavridis. Yes, sir.
    Chairman Levin. Because I think it's kind of a real 
possibility that we ought to explore.
    Are you familar with the man who was chosen in the last few 
days to head up the exile opposition coalition, a man named 
Ghassan Hitto?
    Admiral Stavridis. No, sir, I'm not.
    Chairman Levin. All right. He's apparently a Syrian-
American who's lived in Texas that the Syrian opposition 
coalition has voted to lead that coalition politically, to help 
form an interim government. It's an interesting article in 
today's Times about him. It was a close vote and there's 
obviously some skepticism as to whether he's the right person. 
That's always the case in close votes. In fact, sometimes it's 
even the case in unanimous votes, sometimes unexpressed concern 
about who got the nod.
    But nonetheless, anything that you learn about him, if you 
could provide for the record----
    Admiral Stavridis. Yes, sir.
    Chairman Levin.--we'd appreciate it.
    I will stop right there. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Since I was disappointed in your responses to my line of 
questioning, let me just get a couple of things in here just 
for clarification. When we put in the Poland site, GBI, when we 
were planning to do that, that was for protection of both 
eastern United States and also Western Europe; is that correct?
    General Jacoby. Senator, I believe that was the idea.
    Senator Inhofe. Yes, I think that was the idea. I believe 
you said that in terms of the eastern United States, the SM-3 
IIA is not something that would work, not fast enough and so 
forth. However, that would have application in Europe. Is that 
correct?
    Admiral Stavridis. Exactly, exactly.
    Senator Inhofe. All right, it would have application in 
Europe. I know that something less desirable, less effective, 
would be the SM-3 IB, which is ready now or pretty close to it, 
is that correct?
    Admiral Stavridis. Yes.
    Senator Inhofe. But the IB does not have the protection 
that the IIA has, is that correct?
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. I guess what I was trying to get to is, the 
IIA--right now we're still looking, we're looking at 2018. Our 
intelligence still says that they're going to have, Iran would 
have that capability by 2015. Now, it's that time frame in 
there in terms of Europe that I am concerned about. So I ask 
the same question in terms of what is your concern over that 3-
year period between 2015 and 2018 in Europe, not in the United 
States?
    Admiral Stavridis. We are concerned about it. We'll need to 
continue to analyze the Iranian movement, and if it continues 
to move we'll need to go back and see if we can accelerate our 
own capability. It is of concern and we'll track it very 
closely, Senator.
    Senator Inhofe. Now, in terms of the United States, the 
east coast site, we've all talked about it. Everyone talks 
about how expensive it is. Are you--I read the comment that was 
made, the statement that was made by General Kehler, he said: 
``I am confident that we can defend against a limited attack 
from Iran, although we are not in the most optimum posture to 
do that today.''
    I think I asked you if you are in agreement with his 
statement.
    General Jacoby. Senator, I am in agreement that we have the 
capability, a limited defense right now. I think that it's not 
optimum, that we've made some important steps forward in what 
was rolled out, and that we need to continue to assess the 
threat to make sure that we stay ahead of it and not fall 
behind it. So I think that that is a process that we are 
committed to. In terms of Iran, I remain concerned about Iran.
    Senator Inhofe. I hope you remain concerned about Iran. I 
don't want to put you in a position of comparing what we would 
have had as opposed to what we could have right now in terms of 
the United States.
    We're talking about the Homeland missile defense site, 
which would include both radars and interceptors on the east 
coast. I think we all agree that that would improve the posture 
that we're in, in response to the question I just now asked you 
from General Kehler; is that correct?
    General Jacoby. Certainly exploring a third site is an 
important next step. What a third site gives me, whether it's 
on the east coast or an alternate location, would be increased 
battle space. That means increased opportunity for me to engage 
threats from either Iran or North Korea.
    Senator Inhofe. So the people who were saying that from the 
West Coast site, a threat coming from Iran or a missile coming 
from Iran to the east coast, it would take away--now, several 
have testified to this--your capability of shoot, look, and 
shoot, and leave a capability of shoot. Do you agree with that?
    General Jacoby. I think that right now we are making it a 
priority to see how we can improve our tactics, techniques, and 
procedures. Shoot-look-shoot is something that I'm very 
interested in continuing to evolve. So there are a number of 
things that would contribute to shoot-look-shoot: GBI 
reliability, EKV upgrades, battle space, and increased number 
of missiles.
    So all of those things are at play for shoot-look-shoot and 
I think it's a very important tactic for us to continue to 
pursue.
    Senator Inhofe. So I think then that all of you pretty much 
would agree with General Kehler, his responses?
    General Jacoby. Specifically that we're not optimum, yes, 
that's correct.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you to all of our panelists for being here and for 
your service to the country. I'm sorry I missed your testimony 
earlier.
    Admiral Stavridis, I want to start with you because I had 
the pleasure of chairing the European Affairs Subcommittee over 
the last 4 years in the Foreign Relations Committee and have 
very much appreciated your openness and willingness to work 
with us, and we will miss you.
    I wonder if you could give me an update on how the new 
strategic concept for NATO is working. I had a chance to attend 
the summit last year and follow the adoption of the new 
strategic concept and am very interested, given the changing 
role of NATO, how you think that's going and any concerns or 
any areas where you feel good about what's happening?
    Admiral Stavridis. Thank you, Senator. Thank you also for 
your work on the NATO parliamentary committee in Europe as 
well. You're one of the experts in this field in this Congress 
and we appreciate all you do.
    Let me start with a concern and it's one we discussed and 
we talked about it this morning with several of your 
colleagues. It's the failure of NATO, almost all of the 
nations, to meet the 2 percent spending. This creates a 
disproportionality between U.S. defense contribution and the 
rest of NATO.
    That concerns me over the long-term in NATO because I think 
it will create a sense here in the United States that our 
European colleagues are not pulling their weight. So I think we 
need to continue to put a lot of pressure, particularly as 
Europe comes out of the current crisis, that they raise their 
defense spending to the 2 percent level. That's extremely 
important even as we are reducing defense spending here in the 
United States, so we get the resources back in balance between 
both sides of the Atlantic.
    Now, that's the challenge. On the positive side, in terms 
of the strategic concept, it's now been in place for almost 3 
years. I think NATO is living up to the strategic concept, 
which is to say we are doing crisis management operations in 
places like Afghanistan, where we still have 100,000 troops, on 
piracy off the Horn of Africa, where we typically have 4 to 6 
ships operating, and we've seen piracy go down by 70 percent, 
the Balkans, where we have 6,000 troops, 90 percent of them 
Europeans, our operations in Libya a year ago.
    I think NATO has answered the call when requested to go 
forth and be part of creating security outside of the borders 
of Europe.
    The second pillar of the strategic concept, of course, is 
collective defense. Here I think as well our capabilities, our 
integration, our Baltic air policing--Balkan air policing, our 
series of exercises, one of which, we'll conduct a big one in 
Poland this year, all of that is very contributory to 
collective defense.
    As far as tackling the new challenges, I think we've made 
some progress in cyber. We've stood up a special operations 
center. We're working very hard on unmanned aircraft, the air 
surveillance ground system that you're familiar with.
    So I think overall we're making a lot of progress in 
fulfilling that strategic concept. My one worry going forward 
is disproportionality in spending and there our European allies 
need to step up to the plate.
    Senator Shaheen. I think we all appreciate the financial 
situation that Europe has been in over the last 4 years. How 
much of your concern is related to a commitment to the burden-
sharing and how much of it is concern that once they come out 
of the financial situation that that commitment may not be 
there?
    Admiral Stavridis. Senator, my own sense--and this is 
simply a personal intuition--is that as they come out of the 
financial crisis they will in fact increase their defense 
spending. I base that on conversations I have with my 
interlocutors, ministers of defense, chiefs of defense, heads 
of state and government. There is a commitment to this 
alliance.
    I think as we look at the long throw of the European 
economy, it's going to be strong. Let's face it, Europe is one-
fourth of the world's GDP, $15 trillion, comparable to the 
United States in every sense. They spend $300 billion a year 
now on defense. That's a significant amount, but it doesn't 
quite rise to the level that it should.
    My sense in my conversations, what I can read and see and 
feel after 4 years in Europe, is that the commitment to the 
alliance remains strong.
    Senator Shaheen. Good.
    You mentioned the Balkans. I think we've seen some real 
progress between Serbia and Kosovo on addressing some of their 
tensions. However, there are still issues that remain. So I 
wonder if you could give us an update on the situation there, 
and also what you see in the future for the KFOR force?
    Admiral Stavridis. I can. I'd actually start by looking 
back for a moment. If we look back, 10 to 15 years ago we saw a 
disaster in the Balkans comparable to what we see in Syria 
today. In that period of time we saw 8,000 men and boys killed 
in Srebrenica in a matter of days. We saw genocide. We saw 
100,000 people killed, millions pushed across borders, two 
major wars.
    Flash forward to today. Instead of reaching for a gun to 
resolve a dispute in the Balkans today, the Nations are 
reaching for the telephone. They are, under the auspices of the 
European Union, as you allude to Senator, we see Kosovo and 
Serbia at the table, their prime ministers at the table, their 
presidents at the table, led by Baroness Catherine Ashton, the 
European Union's head of foreign affairs, if you will.
    I think we're very close to a real settlement between 
Kosovo and Serbia. That will allow us to draw down our forces 
in KFOR, Kosovo. Today we have about 6,000 there. When I came 
into the job 4 years ago we had 15,000. That's in and of itself 
a sign of real progress. If the talks bear fruit, I think we'll 
be able to drive that force down as early as late this year. So 
stay tuned. I think there's more progress ahead in the Balkans.
    Senator Shaheen. That's very encouraging. It's also 
encouraging to think that hopefully, if we're 15 years out from 
the current crisis in Syria, that we might see some similar 
progress.
    Admiral Stavridis. Hopefully faster, but yes, I agree.
    Senator Shaheen. That would be great.
    I'm not sure who would like to answer this next question, 
but I think, Admiral Stavridis, you talked about how critical 
our relationship with Poland is. I wonder if you could 
elaborate a little bit on that, given our military 
relationship?
    Admiral Stavridis. I'd be glad to, Senator. Poland is one 
of the absolute pillars in the alliance. They're the most 
capable military in Eastern Europe. They are full participants 
in all of the NATO missions. Their troops fight very bravely 
and take significant casualties in Ghazni Province, where they 
maintain a full brigade, the White Eagle Brigade that both of 
these two gentlemen know quite well. They are continuing to 
improve their military and they're one of the few nations that 
is actually increasing defense spending. They have a strong 
economy, and the soldiers and sailors and airmen that they send 
around the alliance are leading elements of the intellectual 
capital of the alliance as well.
    They will be the host for the European missile defense 
system that we've talked about. I think in every context 
they're a very strong ally and someone that we the United 
States should maintain a very strong bilateral focus on.
    Senator Shaheen. Good. Thank you very much.
    My time is up, but I just want to close, General Jacoby, by 
talking about, very briefly, about the positive partnership 
that the New Hampshire National Guard has with El Salvador. 
It's been very positive both for our National Guard and for El 
Salvador, and I just wanted to commend that to you because I 
know it's one of the areas that you are looking at.
    General Jacoby. On behalf of General Kelly, I'll say 
thanks.
    Senator Shaheen. Oh, I'm sorry. General Kelly. That wasn't 
aimed for you. I just misread my comments.
    General Kelly. I'll say thanks then.
    Senator Shaheen. Thank you.
    Admiral Stavridis. Mr. Chairman, may I make a comment on 
the state partnership program?
    Chairman Levin. Sure.
    Admiral Stavridis. Because I was both SOUTHCOM and EUCOM, 
I've had over the years 60 of these state partnership programs 
and they are all extraordinary bang for the buck for the 
Department of Defense. For very low dollars, they go into a 
wide variety of countries and help in very fundamental ways to 
build partnership. I think that exists today in SOUTHCOM and I 
assure you it does in EUCOM.
    Senator Shaheen. Thank you.
    Thank you, General Kelly.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Kaine for your second round.
    Senator Kaine. Thank you.
    Admiral Stavridis, I just have one topic that I wanted to 
raise with you and didn't get to you in the first round, and 
that is there's been a lot of testimony today in response to 
many questions about the importance of Turkey, whether it's 
with Patriots, whether it's their role in NATO, support for our 
NATO operations, support for the U.S. efforts to hopefully 
counter the Iranian nuclear threat.
    This is a very important partnership and all the testimony 
I would have a strong accord with. But there is this concern 
that you raised in your written testimony, that I know concerns 
many of us, and that's the eroding relationship between Turkey 
and Israel. What is your command doing or what can the EUCOM do 
to begin to try to make that better, at least on the military 
to military level?
    Admiral Stavridis. You're absolutely right to be concerned 
about it. We are very concerned about it, both from an Israeli 
friend perspective and a Turkish friend perspective. This was a 
very strong relationship 3 years ago before this tragic 
incident that caused the two of them to split apart.
    What we're doing to try and bring them together has both a 
NATO component--we're encouraging Israel to be part of the 
Mediterranean Dialogue, which is a program in NATO that could 
potentially allow some interactions military to military--and 
then in a bilateral context, whenever I, for example, go to 
Israel or go to Turkey, I work very hard to try and at least 
create some connectivity between the senior militaries, so that 
if, God forbid, there's another incident at sea, for example, 
people can be reaching for their cell phones and not spinning 
up their defensive nets.
    So I think the relationship, Senator, is very slightly, 
marginally better than it was a year or so ago, but it's an 
area where we, both NATO and the United States, would like to 
see an improved set of relationships. We'll continue to work 
those. I'm traveling to both Turkey and Israel in the next 45 
days and that will be on my agenda.
    Senator Kaine. Great. Thank you very much.
    Admiral Stavridis. Yes, sir.
    Chairman Levin. I just have--you haven't had a second 
round, so, Senator Shaheen, you could have a couple minutes 
before I ask a third-round question, if you like.
    Senator Shaheen. Okay. I just have two follow-up questions. 
One is on Georgia. Admiral Stavridis, there's been a lot of 
discussion with Georgia about potential future NATO membership, 
and I just wondered where you think they are in terms of the 
prospects. I know many of us have watched their election with 
some concern in the post-election period and we're looking to 
see that they continue the democratic reforms that have been 
started there.
    But I wonder if you could give us an update?
    Admiral Stavridis. I can. Georgia is a terrific partner for 
NATO. Today Georgia is the highest per capita contributor in 
Afghanistan. They are pushing up toward 2,000 troops. They have 
more troops there than any other non-NATO nation. So they are 
absolutely with us in combat. I frequently go over here to 
Bethesda Hospital to visit with Georgians who are amputees, 
veterans. They stand with treasure and blood with the NATO 
alliance.
    Their membership program, if you will, is moving along. We 
continue to interact with them in a wide variety of NATO 
contexts. Of course, the United States is very involved. Our 
Marine Corps has taken on working with the Georgian military, 
to wonderful effect, and has very much improved the Georgian 
capabilities from a technical and a tactical kind of 
standpoint.
    You're correct to focus on the political element of this. 
That will be very important to NATO moving forward. I'm headed 
over to Georgia in about 2 weeks and I'll have a chance to meet 
the new leadership team over there, as well as the continued 
president.
    So I think overall they are moving in the right direction 
and that they are certainly very strong NATO contributors and 
that is well regarded and well known within the Nations.
    Senator Shaheen. Thank you. I'm glad to hear that 
assessment. Hopefully, you will convey to the new leadership 
there, as well as to President Sakashvili, our continued 
interest and scrutiny of what's happening there.
    General Jacoby, you mentioned in your testimony the key 
role the National Guard has played in the success of NORTHCOM 
missions. I wonder if you could talk a little bit more about 
how important that relationship is and that the Guard is to our 
success in those missions?
    General Jacoby. Thank you. The National Guard is a great 
partner across all of my mission sets. So from homeland 
defense, where principally Guard units fly the Operation Noble 
Eagle mission in defense of our skies 24/7, our missile 
defense, where the 100th Brigade mans the command and control 
facilities for our missile launch capabilities, and then of 
course in defense support of civil authorities, where every day 
the Guard not only meets the needs of the citizens in the 
States, but is also available to support regionally through 
their emergency management capabilities.
    So we're a great consumer of Guard capability. I rely on 
the total force to meet the needs of the Nation, but on an 
everyday basis the National Guard steps up and meets a 
tremendous number of my mission requirements.
    Senator Shaheen. Thank you. We're very proud of our 
National Guard, General Kelly, not just in terms of their 
partnership with El Salvador, but all of the other great work 
that they do. So thank you all very much.
    General Kelly. Senator, if I could, since we're talking 
about the Guard, I do want to mention that we lost some 
guardsmen this year fighting fires, brave men and women of the 
North Carolina Air National Guard, 145th Airlift Wing. It just 
reminds us that even supporting our citizens in the Homeland 
can be a dangerous activity----
    Senator Shaheen. Absolutely.
    General Kelly.--and we really appreciate the sacrifices 
that those airmen and their families made on that behalf.
    Senator Shaheen. Thank you very much for pointing that out.
    Chairman Levin. Thank you very much, Senator Shaheen.
    I just have one additional question. Admiral, I asked 
General Jacoby about whether he supports the new missile 
defense approach which was recently announced and he said he 
did. Do you support it?
    Admiral Stavridis. I do.
    Chairman Levin. Any additional questions, colleagues? [No 
response.]
    If not, we thank you all for your service. We appreciate 
your testimony, very forthcoming, very helpful, and do thank 
everybody that you work with and their families for us if you 
would.
    Thank you. This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

             HEALTH ISSUES AT GUANTANAMO DETENTION FACILITY

    1. Senator Levin. General Kelly, as the detainee population at the 
Guantanamo Bay (GTMO) detention facility ages, concerns have arisen 
over how well that facility is equipped to address age-related health 
issues. What medical issues or challenges do you anticipate in the 
coming years at Joint Task Force-Guantanamo (JTF-GTMO), in particular 
with respect to age-related health issues?
    General Kelly. In the coming years, detainees are likely to require 
more health care due to a number of factors. First, as mentioned, the 
population is aging and like any other aging population we expect them 
to have more health problems and require health care that outpaces 
current capability on island. This would likely include heart and 
circulatory problems like hypertension, liver and kidney disease, 
diabetes, stroke, or cancer. This problem becomes more complex when the 
health care issues require specialized treatment for emergencies, 
chronic medical issues, or mental health issues. Second, many detainees 
came to GTMO with health issues that had been unrecognized or untreated 
in their countries of origin, resulting in accelerated progression of 
disease. Finally, many of the detainees do not consent to health care 
treatment and/or medication that is prescribed by the military health 
care professionals caring for them. This circumstance often prevents 
healing, or exacerbates an existing condition.

    2. Senator Levin. General Kelly, what is the legal obligation of 
the United States to provide for the medical treatment of detainees, 
including in particular with regard to providing lifesaving or 
emergency procedures that are readily available in the contiguous 
United States (CONUS) but not at the GTMO detention facility?
    General Kelly. The legal obligation of the United States for the 
medical treatment of detainees is rooted in international law, Common 
Article 3 of the Geneva Conventions, and the Detainee Treatment Act of 
2005. These principles of law are reflected in Department of Defense 
Instruction, ``Medical Program Support for Detainee Operations,'' which 
provides that ``to the extent practicable, treatment of detainees 
should be guided by professional judgments and standards similar to 
those applied to personnel of the U.S. Armed Forces.''
    Detainee health care is provided by the JTF-GTMO Joint Medical 
Group (JMG), a group of more than 100 uniformed military health care 
professionals, and supported by the Guantanamo Bay U.S. Naval Hospital. 
These doctors, nurses, and support personnel provide detainees the same 
level of general health care given to U.S. Armed Forces, applying 
identical professional judgments and standards in caring for the 
detainee population. This health care includes providing lifesaving and 
emergency services to the extent they are available at Guantanamo 
through the JMG detainee health clinic and the Naval Hospital. 
Sustained medical care for more complex and enduring illnesses may 
exceed the capabilities of Guantanamo Bay, and are case dependent.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

         601ST AIR OPERATIONS CENTER AT TYNDALL AIR FORCE BASE

    3. Senator Nelson. General Jacoby, the 601st at Tyndall Air Force 
Base (AFB) supports 1st Air Force (AFNORTH), the North American 
Aerospace Defense Command (NORAD), and U.S. Northern Command 
(NORTHCOM). The Air and Space Operations Center (AOC), which operates 
24 hours a day, 7 days a week, 365 days a year, provides aerospace 
warning and control for NORAD defensive counter-air activities, and 
directs joint air, sea and land forces in support of NORTHCOM homeland 
security and civil support missions. Given the vital nature of its 
mission, will the 601st AOC receive adequate funding under the 
sequester to provide for the proper air defense of North America?
    General Jacoby. The 601st AOC's NORAD mission to provide Aerospace 
Warning and Aerospace Control is an important part of the entire 
Homeland Defense mission. We continue to work with our force providers 
and interagency partners to ensure infrastructure and personnel are 
resourced appropriately in order to provide a robust and sustainable 
aerospace defense network. In fiscal year 2013, adequate funding for 
the 601st AOC was provided through the recently passed fiscal year 2013 
DOD Appropriations Bill. At this time, it is too early to make a 
determination on fiscal year 2014 funding levels; however, I will 
continue to work with our force providers to ensure this mission is 
resourced at appropriate levels.

                       FLORIDA AIR NATIONAL GUARD

    4. Senator Nelson. General Jacoby, Florida Air National Guard F-15s 
of the 125th Fighter Wing, located in Jacksonville and forward deployed 
to Homestead, provide air sovereignty for the Southeastern United 
States. The sequester has cut their flying hours by 57 percent. How 
will you ensure that the National Guard Pilots are ready to fly when 
they have to scramble to intercept an enemy aircraft?
    General Jacoby. The Air National Guard (ANG) as a whole began 
cutting their flying hour budget by 57 percent in February 2013 in 
anticipation of sequestration and the Continuing Resolution not being 
passed. In the weeks since those initial cuts, the fiscal year 2013 DOD 
Appropriations Bill passed, which restored original Air National Guard 
flying hours. ANG Aerospace Control Alert (ACA) units will have 
adequate flying hours to maintain required Combat Mission Ready (CMR)/
Basic Mission Capable (BMC) levels to conduct the ACA mission 
throughout fiscal year 2013. It is unknown if sequestration will impact 
ACA for fiscal year 2014.
    NORAD maintains a regular dialogue with our force providers to 
ensure that, as a team, we get the missions right. Throughout the 
course of sequestration, our staff (and in the case of air defense 
missions, our air component, Continental NORAD Region) has expended a 
great deal of effort to monitor and coordinate with our force providers 
to ensure that DOD's primary mission for defense of the homeland 
remains capable and robust.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III

                           ISRAEL'S SECURITY

    5. Senator Manchin. Admiral Stavridis, the United States does not 
have a greater ally in the Middle East than Israel. In your posture 
statement, you discussed several aspects of our military partnership 
with Israel. With the continued development of Iran's nuclear program 
and the transitions underway throughout the Arab world, Israel is 
entering a period of increasing uncertainty and needs our strong 
support more than ever. How will U.S. European Command (EUCOM) continue 
to prioritize its high level of support for the defense of Israel 
despite the fiscal challenges we currently face?
    Admiral Stavridis. Israel remains my first priority country as 
Commander of EUCOM. We enjoy the strongest military-to-military 
relationship I've ever seen, and I expect that will continue. 
Nonetheless, the recent fiscal restraints in DOD creates new challenges 
for EUCOM in sustaining our military-to-military relationship with 
Israel, and sequestration requires creative solutions. For example, 
Israel has the greatest number of key leader engagements compared with 
our other partners. We will continue these engagements, but, where 
appropriate, reduce the size of the accompanying support staff. 
Additionally, we will use to a greater extent the video tele-
conferencing capability developed over the last several years. I can 
assure the committee, however, that we will continue to maintain our 
established relationships at all levels with the Israel Defense Forces 
and to press forward with critical planning events. Sequestration will 
not immediately affect U.S. or Israeli Defense Forces readiness or 
capabilities to meet the challenges of the potential threats in the 
Middle East.

                NATIONAL GUARD STATE PARTNERSHIP PROGRAM

    6. Senator Manchin. General Kelly, I am proud that West Virginia 
was one of the first States to implement the National Guard's State 
Partnership Program (SPP) by forming a partnership with the Peruvian 
Government in 1996. This program was created to strengthen the 
relationship between the military and civilians, and I know we've had 
rural health experts accompany our National Guard to Peru. I read in 
your posture statement that you have been forced to cancel more than 90 
events within this program. What specific impacts will sequestration 
have on the National Guard Partnership Program?
    General Kelly. The fiscal year 2013 sequestration has forced me to 
make tough decisions about SPP activities in the SOUTHCOM area of 
responsibility. For example, in Peru, sequestration has a relatively 
minor impact on the program. Budget cuts to Traditional Commander 
Activities (TCA) funding resulted in the cancellation of three SPP 
engagement events in Peru. On the opposite side of the spectrum, 
sequestration has a major impact on the program in Nicaragua, where TCA 
funding cuts resulted in a loss of 11 military-to-military engagements 
in that country, 7 of which were under the SPP. fiscal year 2013 
sequestration has disrupted the Security Cooperation Organization's 
ability to pursue short-term objectives identified within individual 
Country Cooperation Plans and the SPP's ability to leverage the 
additional funding from TCA, due to large cuts that also occurred in 
that program.
    While no irreparable damage was done in the fiscal year 2013 cuts, 
in my assessment, a multi-year sequestration would critically damage 
long term enduring relationships between the United States and partner 
nations. Sequestration over a longer period will degrade partner nation 
security forces capability, decrease partner nation confidence in U.S. 
commitment to security in the region and further degrade our ability to 
access partner nation senior leadership for key leader engagement, 
crisis response planning, or other Defense Department issues.

           NORTHCOM-SOUTHCOM COOPERATION ON COUNTERNARCOTICS

    7. Senator Manchin. General Jacoby and General Kelly, your 
geographic areas of responsibility touch (AOR) each other, meeting at 
the southern border of Mexico with Central America. It is clear that 
you both share the mission of countering the drug trade and the 
insecurity that it brings with it. How are your two commands working 
together to stem the flow of narcotics into the United States from 
Latin America?
    General Jacoby. NORTHCOM and SOUTHCOM are working with the Mexican 
and Central American authorities to enhance their capability and 
capacity to counter illicit narcotics trafficking activity throughout 
the region through staff talks, regional syndicates, and mutual 
attendance at Theater Security Cooperation engagements. This approach 
includes an emphasis on the Mexico, Guatemala, and Belize border region 
where the goals for reducing regional insecurity include improving 
border security, enhancing partner country interdiction capabilities, 
improving domain awareness, fostering regional cooperation (including 
interoperability), and building the security foundation for whole-of-
government approaches to extending the effective authority of the state 
in vulnerable regions.
    NORTHCOM co-hosted a Mexico/Guatemala/Belize Working Group Meeting 
with SOUTHCOM to discuss the Mexican Southern Border. This resulted in 
NORTHCOM, SOUTHCOM, and our regional partners agreeing to conduct a 
series of workshops emphasizing the improvement of communications, 
surveillance, and border security. We focus on enhancing the 
partnerships between U.S. law enforcement agencies and respective 
partner nation law enforcement agencies to build capacity along the 
Mexico, Guatemala, and Belize border. This parallels the efforts of 
NORTHCOM and SOUTHCOM with the Mexican, Guatemalan, and Belizean 
militaries.
    General Kelly. SOUTHCOM works with NORTHCOM on several initiatives 
to disrupt the flow of narcotics into the United States. First, the two 
combatant commands partner with the governments of Mexico, Belize, and 
Guatemala to host regular conferences and operational workshops 
addressing the shared security challenges that transnational organized 
crime exacerbates. Second, SOUTHCOM assists NORTHCOM by disrupting 
illegal products and criminal networks along the southern approaches to 
the United States. Toward this end, SOUTHCOM supports Department of 
State and partner nation eradication efforts in the source zones 
located in South America. We also fulfill our statutory responsibility 
for the detection and monitoring of aerial and maritime transit of 
illegal drugs into the United States, primarily through Joint 
Interagency Task Force-South.
    Further, SOUTHCOM and NORTHCOM consistently share information and 
intelligence on people, products, networks, tactics, and operations 
that facilitate transnational criminal networks. Other information 
sharing mechanisms include joint discussions on partner nation 
engagement, strategic communication, and the evolution of our command 
arrangement agreement to harmonize counter-narcotic efforts. These 
interactions focus primarily on an integrated, hemispheric approach to 
combating transnational organized crime in the Western Hemisphere, 
especially along the border shared among Mexico, Guatemala, and Belize.

    8. Senator Manchin. General Jacoby and General Kelly, how are you 
each encouraging your partner nations to work together and share 
intelligence to combat the drug trade?
    General Jacoby. Our commands sponsor the Mexican/Guatemalan/
Belizean Border Security Workshop series, which emphasizes 
communications, surveillance, and shared border security interests. The 
workshops focus on enhancing partnerships between U.S. law enforcement 
agencies and respective partner nation law enforcement agencies to 
build capacity along the Mexico, Guatemala, and Belize border. This 
parallels the efforts of NORTHCOM and SOUTHCOM with the Mexican, 
Guatemalan, and Belizean militaries.
    (U) Operation Martillo is another salient example of regional 
partners working together and sharing information. Operation Martillo 
is a counter illicit trafficking operation, led and implemented by the 
Department of Defense under the auspices of Joint Interagency Task 
Force-South, SOUTHCOM, and NORTHCOM. The operation includes 
participation from Central American partner nations, Mexico, Colombia, 
Canada, and several European countries. Operation Martillo has proven 
to be a critical component of the U.S. Government's coordinated 
interagency regional security strategy in support of the Central 
America Regional Security Initiative and the President's Strategy to 
Combat Transnational Organized Crime.
    General Kelly. The expanded awareness of illicit activities as a 
hemispheric problem has resulted in the expansion of traditional 
partnerships to include extra-regional countries like Mexico and 
Canada, bringing an added dimension to international collaboration. We 
have been able to leverage strategic partners, like Colombia and 
Brazil, to take on leadership roles and export knowledge and lessons 
learned throughout the region.
    SOUTHCOM also provides the technology employed by most partner 
nations to share intelligence and information with their counterparts 
with intelligence networks that span the entire AOR.
    SOUTHCOM promotes regional cooperation and intelligence sharing 
among partner nations by underscoring that transnational organized 
crime (TOC) as a hemispheric problem requiring regional collaboration 
to counter it successfully. Through conferences, workshops, bilateral 
and multilateral events, we have been able to expose partner nations to 
a new analytical tool that has changed the way intelligence and 
information is shared with and among our partner nations. The Whole-of-
Society Information Sharing for Regional Display (WISRD), enables each 
country to share their respective intelligence in the form of layers 
(time, event, survey, gangs, cartels, etc), which result in a three 
dimensional regional common operating picture (COP) of the TOC 
environment. The COP provides a comprehensive common characterization 
that helps identify intelligence gaps so nations can work together to 
satisfy these intelligence gaps. Several Central/South American 
countries are currently using WISRD successfully.
    Operation Martillo, a joint and combined operation against illicit 
trafficking, is a great example of how successful we have been in 
reaching our partners with our TOC message. Its success is attributed 
to the increased cooperation among all the participating nations as 
they fight against national, regional, and international security TOC 
challenges. All the Central American nations, the United States, 
European allies, Canadians, et cetera, are collaborating more than ever 
before as a direct result of Operation Martillo.

                         DUAL-STATUS COMMANDER

    9. Senator Manchin. General Jacoby, I have long said that the 
National Guard presents the best value for the taxpayer's dollar. I 
would like your views on the dual-status commander concept that aligns 
both National Guard and Federal forces under a single leader. While 
first responders and local volunteers might suffice in routine 
emergencies, complex disaster responses like Hurricane Sandy often span 
multiple States and municipalities. The dual-status commander was 
designed to bring a unity of effort to the Department of Defense (DOD) 
disaster response. What lessons did you learn from Hurricane Sandy 
about the relatively new dual-status commander concept?
    General Jacoby. DSCA is a core DOD task for which the total force 
is committed. A fundamental change in how we execute our civil support 
mission is the use of Dual Status Commanders (DSC)-perhaps one of the 
most important initiatives taken in the area of DSCA in a decade. The 
Secretary of Defense and State Governors certify senior military 
officers to simultaneously command Federal and State military forces 
employed in support of civil authorities, unifying DOD assistance to 
the affected community. DSCs provide effective organizational structure 
and leadership that are vital to the successful management and 
operations of Federal and large State military force packages 
supporting State and local authorities.
    Hurricane Sandy offered us a glimpse of what a complex catastrophe 
spanning several States and regions could look like, when flooding and 
winds knocked out power, disrupted fuel and food distribution and 
pushed the limits of what local responders could handle themselves. But 
Sandy helped us to mature the new Dual Status Commander concept that 
allows a single officer to oversee both State National Guard and 
Federal military response, enabling us to be even better prepared and 
ready to act swiftly and with unity of effort if the unthinkable 
happens in our Homeland.
    Three key lessons we learned from Hurricane Sandy include: (1) 
continue to mature the process for establishing DSCs during limited/no 
notice events like hurricanes--we are working with OSD to codify this 
process in a new Department of Defense Instruction to make sure we all 
understand and follow this process; (2) establish clear reporting 
chains for our DSCs so there is no confusion on what the T10 reporting 
chain will be--we are working internally as well as socializing with 
National Guard Bureau and States to ensure we have appropriate options 
for the proper command and control of our DSCs for future events; and 
(3) continue to analyze how multiple DSCs will be resourced for 
catastrophic events where we will have many demands for limited DOD 
resources--we are continuing to work with OSD on catastrophic event 
response to include the employment of DSCs in multiple adjacent states.
    I am convinced that DSCs are the right answer to manage a total 
force response--to include DOD Active Duty, State National Guard, and 
Reserve Forces--to both facilitate unity of effort and leverage 
NORTHCOM's supporting role to primary agencies before, during, and 
after a natural or manmade disaster.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan

                    HEZBOLLAH'S ACTIVITIES IN EUROPE

    10. Senator Hagan. Admiral Stavridis, last month, the Bulgarian 
Government implicated Lebanese as a Hezbollah proxy of Iran in the 
fatal bomb attack on Israeli vacationers in Sofia last summer. What is 
your assessment of this announcement on other European Governments and 
militaries?
    Admiral Stavridis. [Deleted.]

    11. Senator Hagan. Admiral Stavridis, in your view, are military 
leaders in other European capitals fully aware of Hezbollah activities 
across Europe?
    Admiral Stavridis. [Deleted.]

    12. Senator Hagan. Admiral Stavridis, will Hezbollah's involvement 
in this bombing change the posture of governments in Europe on 
Hezbollah and its motives?
    Admiral Stavridis. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                        HOMELAND MISSILE DEFENSE

    13. Senator Inhofe. General Jacoby, you stated during your 
testimony that you agreed with a recent statement by General Kehler, 
Commander of U.S. Strategic Command, in which he said ``I'm confident 
that we can defend against a limited attack from Iran, although we are 
not in the most optimum posture to do that today.'' You went on to say 
that you ``remain concerned about Iran'' and ``exploring a third site 
is an important next step. What a third site gives me, whether it's on 
the East Coast or an alternate location, would be increased battle 
space. That means, increased opportunity for me to engage threats from 
either Iran or North Korea.'' In what ways will the ``increased battle 
space'' provided by a third site on the East Coast help mitigate risk 
in defending the United States against an evolving ballistic missile 
threat from Iran?
    General Jacoby. [Deleted.]

    14. Senator Inhofe. General Jacoby, will you please provide 
unclassified and classified details as to the benefit for the Ground-
Based Midcourse Defense System (GBMD) of deploying the GBR-P (X-Band) 
Radar to a location on the east coast of the United States?
    General Jacoby. [Deleted.]

                        REGIONAL MISSILE DEFENSE

    15. Senator Inhofe. Admiral Stavridis, after Exercise Austere 
Challenge last fall practiced our air and missile defense coordination 
with Israel, what areas do you assess that we need to work on to 
improve our capability to defend Israel?
    Admiral Stavridis. [Deleted.]

    16. Senator Inhofe. Admiral Stavridis, what is your assessment of 
our current missile defense cooperation with Israel?
    Admiral Stavridis. [Deleted.]

    17. Senator Inhofe. Admiral Stavridis, does cancellation of the SM-
3 IIB system leave any part of North Atlantic Treaty Organization 
(NATO) territory in Europe unprotected from a missile attack from Iran?
    Admiral Stavridis. No. Analysis of the defensive capability of the 
European Phased Adaptive Approach (EPAA) Phases 1-3 is based on 
intelligence of threat capabilities, as well as initial, low fidelity 
modeling of planned capabilities--including the Polish and Romanian 
Aegis Ashore sites. This analysis confirms that EUCOM will have the 
ballistic missile defense resources to meet U.S. requirements to defend 
U.S. interests and support American commitments to our allies in the 
2018 timeframe. The loss of EPAA Phase 4 will have no effect on EUCOM's 
regional ballistic missile defense requirements.

    18. Senator Inhofe. Admiral Stavridis, how have our allies reacted 
to the cancellation of the SM-3 IIB?
    Admiral Stavridis. I think the overall reaction is neutral, but may 
be trending slightly negative. We received very subdued responses since 
the announcement. I would highlight the reaction of two allies, the 
Czech Republic and Poland. The Czechs were not surprised, which I 
attribute to their understanding of U.S.-European politics and being 
able to see the larger picture. Similarly, the Poles have indicated 
they were satisfied with how they were notified on the cancellation of 
Phase IV. I think the U.S. message is solid and reinforces progress 
through Phase III, but all maintain a watchful eye for further cuts and 
their potential impacts.

    19. Senator Inhofe. Admiral Stavridis, assuming Iran acquires the 
ability to launch an intercontinental ballistic missile (ICBM) in 2015, 
3 years before the integration of the SM-3 IIA, will you please provide 
one or more graphic depictions of the territory that can be protected 
by the SM-3 IB assuming you are limited to the Romanian land-based 
interceptor site and have access to only two Aegis Ballistic Missile 
Defense (BMD)-capable ships that are tethered to a specified limited 
operating area?
    Admiral Stavridis. As the SM-3 IB is still in development, and 
since EUCOM does not possess the modeling software for such an 
analysis, I respectfully request this question be referred to the 
Missile Defense Agency.

                  COUNTERNARCOTICS/ILLICIT TRAFFICKING

    20. Senator Inhofe. General Kelly, U.S. Southern Command (SOUTHCOM) 
has historically been under-resourced. Now under sequestration, your 
efforts stand to be significantly impacted. The Navy has already cut 
short or cancelled the deployment of several ships to your AOR in 2013, 
including 3 frigates and the hospital ship USNS Comfort. You note in 
your opening statement that sequestration will ``cripple your 
operational effectiveness''. What priorities within your AOR will 
suffer the most under sequestration?
    General Kelly. The primary Intermediate Military Objective (IMO #1) 
in SOUTHCOM's Area of Responsibility (AOR) is Countering Transnational 
Organized Crime. Under sequestration, the loss or curtailment of 
maritime, aviation, personnel, and funding assets across the services 
and organizations that provide this command with resources to 
accomplish this objective will have significant detrimental effects to 
our ability to effectively execute our assigned mission. Specifically, 
the loss or curtailment of scheduled deployments of ships and aircraft 
means that the persistent U.S. presence required to ensure the success 
of Operation Martillo will be substantially degraded. Operation 
Martillo is the multinational, effects-based operation originally 
designed to deny use of the littoral trafficking routes of Central 
America. It is the first truly whole of region response to 
transnational organized crime. The loss of a persistent U.S. presence 
in the Operation Martillo focus areas sends an ambiguous message to our 
regional partners about our willingness to counter a regional threat 
and to conduct sustained detection and monitoring (D&M) against the 
flow of cocaine towards the United States.

    21. Senator Inhofe. General Kelly, where do you stand to accept the 
greatest risk?
    General Kelly. The greatest risk and the one that presents us the 
greatest challenge is the impact of sequestration on our ability to 
effectively execute SOUTHCOM's statutory detection and monitoring (D&M) 
mission under 10 U.S.C. Sec. 124. The loss of air and maritime assets 
and associated systems will result in a commensurate loss of capability 
to effectively execute this mission. The extensive size of the SOUTHCOM 
AOR imposes a significant challenge with respect to domain awareness, 
and although we will still be able to execute detection and monitoring 
operations in areas where an asset is available and assigned, the 
expected loss of air and maritime assets will mean vast areas of the 
AOR will simply go unmonitored.
    Additionally, the loss of these mission-critical assets will 
significantly degrade our ability to contribute to the Office of 
National Drug Control Policy's (ONDCP) goal of 40 percent interdiction 
of cocaine by 2015.

    22. Senator Inhofe. General Kelly, one of the most effective tools 
you have to support the interdiction of drugs and illicit materials 
before they enter the United States is through the Joint Interagency 
Task Force-South (JIATF-South). You note in your prepared remarks that 
in 2012 alone, JIATF-South was directly responsible for the 
interdiction of 152 tons of drugs worth an estimated $3 billion. How 
would you assess the importance of JIATF-South to your operations and 
priorities within the SOUTHCOM AOR?
    General Kelly. JIATF-South operations are critical to SOUTHCOM's 
mission and to the operations of four other Combatant Commands (COCOM). 
JIATF-South Joint Operations Area extends across all COCOMs with the 
exception of United States Central Command, and their detection and 
monitoring mission supports the statutory efforts of all of these 
commands. JIATF-South serves as the primary executor of daily statutory 
10 U.S.C. Sec. 124 detection and monitoring operations and provides 
command and control for interdiction operations in the SOUTHCOM AOR. 
JIATF-South also acts as the primary conduit for intelligence flow 
throughout the AOR, and is the central hub for the interagency fusion, 
collaboration, and exploitation of available information. In 2012, 
working with an operating budget around $50 million, JIATF-South 
contributed to the removal of over 152 metric tons of cocaine worth 
over $3 billion by focusing their efforts near the Source Zone. This is 
61 percent of all the cocaine removed from the Western Hemisphere 
Transit Zone. To provide the value in perspective, of the $25.2 billion 
ONDCP's U.S. Counterdrug Budget, $9.4 billion was spent by U.S. 
domestic law enforcement which interdicted or disrupted 26 metric tons 
of cocaine at all the land, air and sea ports of entry in the United 
States, and 35 metric tons taken internal to the country by domestic 
Law Enforcement. Each year, JIATF-South demonstrates its value as a 
center of excellence for intelligence fusion and interagency 
coordination. Despite the relative lack of operational assets in this 
AOR, these other activities have dramatically enhanced SOUTHCOM's 
operational effectiveness. Without the necessary aircraft and ships to 
support the mission, reliance upon intelligence and our work within the 
interagency and with Partner Nations take on a greater role. Fused-
Intelligence Driven operations conducted in support of, and coordinated 
with, Interagency priorities will enhance the precision and 
effectiveness with which JIATF-South executes their D&M mission. The 
role has not changed from how we do business now, but even greater 
emphasis will need to be placed on fewer resources to perform the same 
mission.

    23. Senator Inhofe. General Kelly, what do you assess the impact of 
sequestration will be to the effectiveness of JIATF-South operations?
    General Kelly. My assessment is that JIATF-South's ability to 
perform their statutory 10 U.S.C. Sec. 124 detection and monitoring 
(D&M) mission will be degraded. Their operational effectiveness will be 
reduced by an estimated 37 percent when compared to fiscal year 2012. 
Additionally, their ability to contribute to ONDCP's 40 percent cocaine 
interdiction goal by 2015 will be similarly affected. Simply put, more 
cocaine will reach American shores due to this degradation.

    24. Senator Inhofe. General Kelly, what, if any, ongoing or planned 
programs within JIATF-South will be cancelled as a result of the cuts 
associated with sequestration?
    General Kelly. No specific programs will be cancelled as JIATF-
South operates under three funding programs that remain intact; however 
JIATF-South planned operations have been severely impacted. For 
example, Operation Atlantic Watch, a combined operation with the United 
Kingdom, France, Brazil, and the U.S. Coast Guard (USCG) has been 
cancelled as a direct result of sequestration impacts on available U.S. 
resources. Without U.S. air and maritime assets to support this 
operation, the British, French, and Brazilian Governments were 
unwilling to commit their valuable resources towards this operation. 
Atlantic Watch focused on the Atlantic area of operations and typically 
provided enhanced awareness of the illicit trafficking departing South 
America for Europe and Africa, a critical concern for our allies.
    Additionally, Operation Martillo has also been negatively impacted 
by sequestration-related cuts. Specifically, a 30 percent reduction in 
maritime assets to conduct this joint, interagency, international 
counter illicit trafficking operation has adversely affected mission 
execution. While JIATF-South continues to execute their statutory 
detection and monitoring mission with limited aviation assets, the 
handoff to law enforcement for interdiction and apprehension of illicit 
traffickers is dramatically constrained as a direct result of this 
reduction in maritime assets. These mission critical assets provide the 
platform for law enforcement based interdictions in the form of USCG 
Law Enforcement Detachments and boarding teams. The interdiction and 
apprehension of illicit traffickers is critical to acquiring the 
witnesses and evidence necessary to continue effective operations 
against Transnational Criminal Organizations, and to demonstrate the 
United States commitment to our allies and partners in the region.

                      STRATEGY-RESOURCE DISCONNECT

    25. Senator Inhofe. Admiral Stavridis, Deputy Secretary Carter 
said, ``One of the ways our strategy would need to change is we 
couldn't do . . . what we want to do in the rebalance in the Asia-
Pacific theater.'' If we cut $500 billion above the $487 billion 
already cut from defense, can we execute the President's military 
strategy that requires rebalancing as laid out in the January 2012 
Strategic Defense Guidance?
    Admiral Stavridis. The Secretary has directed a Strategic Choices 
and Management Review to address this question. The review, led by the 
Deputy Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff, will be complete by 31 May 2013. EUCOM, along with the other 
Combatant Commands, is participating in the review. The review will 
examine ends, ways, and means in light of potential further budget 
reductions and consider significant choices necessary to better align 
the Department to execute the President's strategy.

    26. Senator Inhofe. Admiral Stavridis, what are the strategic risks 
over the next 5 years in your AOR if the current sequestration and 
continuing resolution (CR) budget cuts remain in place?
    Admiral Stavridis. Additional budget cuts could pose strategic 
risks in several areas, depending upon the measures the Department must 
take to fund these reductions. For example, steps to reduce personnel 
and infrastructure costs could increase the risk to our most important 
resource: our civilian and military personnel. Additional cuts in force 
structure, the delay and/or cancellation of modernization programs, and 
reduced readiness will all negatively impact our ability to respond to 
crises and execute contingency plans. There will be greater risk to our 
leadership of NATO, the credibility of our commitment to the alliance, 
and interoperability with allies and partners if forces and funding for 
combined exercises, security cooperation programs, and other steady 
state activities are significantly reduced.

    27. Senator Inhofe. Admiral Stavridis, you have said the drawdown 
of 11,500 troops, most coming from the loss of two Army brigades, will 
be mitigated by rotating a brigade through EUCOM from the United 
States. What size of an Army force will be rotated through the EUCOM 
AOR on an annual basis and how long will they stay in theater for 
exercises and training?
    Admiral Stavridis. Under the current plan, the U.S. Army will 
source elements from a Brigade Combat Team to rotate to EUCOM twice a 
year for up to 60 days each. These elements include the Brigade 
Headquarters and one Battalion Headquarters in October-November 2013, 
and also a Brigade Headquarters and maneuver Battalion (HQ and maneuver 
companies) in May to June 2014.
    These forces have a two-fold purpose. First, as the U.S. ground 
contribution to the NATO Response Force (NRF), they will participate in 
NRF exercises in order to enhance interoperability with our allies. 
Second, they will participate in bilateral training with partners, and 
will also gain familiarity with EUCOM plans and operations.

    28. Senator Inhofe. Admiral Stavridis, how important is the 
rotation of a force of this size to your theater cooperation plan?
    Admiral Stavridis. The rotation of a force of this size is critical 
to my Theater Campaign Plan. The regular deployment of forces based in 
the United States to Europe provides a powerful, tangible demonstration 
of the continued U.S. commitment to NATO. The rotation of elements of a 
Brigade Combat Team to Europe creates opportunities to maintain 
interoperability across the alliance, especially at higher echelons of 
command. Finally, the participation of the rotational force in NRF 
exercises and in other training events with the NRF forces of allies 
and partners enhance NRF training and readiness in support of NATO's 
Connected Forces Initiative.

    29. Senator Inhofe. Admiral Stavridis, will Army budget cuts 
prevent them from rotating a brigade to Europe for annual exercises?
    Admiral Stavridis. As far as we understand, the Army intends to 
rotate a Brigade Headquarters and a Battalion Headquarters to Europe 
for participation in Exercise Steadfast Jazz 13 in October-November 
2013. In May to June 2014, the Army will rotate a Brigade Headquarters 
and a maneuver battalion, including a Headquarters and maneuver 
companies for training in Exercise Rochambeau 14.

    30. Senator Inhofe. Admiral Stavridis, what will be the impact to 
U.S. capability, NATO capability, and interoperability if the 
rotational concept is not executed and how do you think our allies and 
partners will react?
    Admiral Stavridis. In terms of U.S. capability, Army forces based 
in the United States will lose a significant opportunity to exercise 
deployment procedures and to train with European allies and partners. 
Such opportunities will be especially important for U.S. forces to 
maintain readiness and interoperability once regular rotations to 
Afghanistan come to an end after 2014. A critical opportunity to 
enhance NATO capability--specifically the training and readiness of the 
NRF--will also be lost if the rotational concept is not executed. 
Finally, the United States has publicly committed, most recently at the 
February 2013 NATO Defense Ministerial, to reinvigorating its 
participation in the NRF and to rotating battalion task forces to 
Europe to train with allies and partners. Failure to fulfill this 
pledge will likely raise questions among allies and partners about our 
commitment to NATO and our strategic partnership with Europe.

                  EUCOM SUPPORT OF U.S. AFRICA COMMAND

    31. Senator Inhofe. Admiral Stavridis, EUCOM provides forces for 
U.S. Africa Command (AFRICOM) and strategic access to Africa and the 
Middle East while sharing Air Force and Navy component commanders. Will 
you be able to adequately support AFRICOM operations given the cuts in 
EUCOM personnel coupled with additional cuts in the defense budget?
    Admiral Stavridis. [Deleted.]

    32. Senator Inhofe. Admiral Stavridis, what are the additional 
risks in supporting AFRICOM as your resources are reduced?
    Admiral Stavridis. As resources are reduced, EUCOM will experience 
a corresponding reduction in strategic flexibility. Please refer to 
further classified discussion relating to AFRICOM in my response to 
question 31.

    33. Senator Inhofe. Admiral Stavridis, can EUCOM respond quickly to 
a rapidly emerging crisis in central or southern Africa?
    Admiral Stavridis. EUCOM maintains scalable, rapidly deployable 
forces to protect and preserve U.S. lives and facilities in the event 
of regional unrest in the EUCOM and AFRICOM areas of responsibility 
(AOR). These response forces provide a variety of pre- and post-crisis 
response options. However, based on the significant distances involved, 
it would be challenging for EUCOM response forces to reach central or 
southern Africa rapidly without positioning forces in advance of a 
crisis in the AFRICOM AOR.
    EUCOM and AFRICOM staffs collaborate weekly to review threats, 
intelligence products, and other indications/warnings that would 
potentially require crisis response forces. EUCOM is prepared to 
provide assigned forces to AFRICOM with sufficient depth and 
flexibility to respond to crisis. Upon providing forces, AFRICOM would 
then be responsible to position them appropriately across their 
expansive AOR to support an emerging crisis.

    34. Senator Inhofe. Admiral Stavridis, the budget is decreasing 
while threats are increasing in Africa and the Middle East. How will 
the President's strategy shift to Asia impact EUCOM's support to 
AFRICOM operations?
    Admiral Stavridis. Currently the convergence of the Asia pivot with 
the budget impact has a limited impact on EUCOM's ability to support 
AFRICOM. Over time, the reduction in the number of forward-deployed 
forces, and the readiness of those forces, will reduce EUCOM's ability 
to provide forces to AFRICOM.

                  AFGHANISTAN AND NATO TRANSFORMATION

    35. Senator Inhofe. Admiral Stavridis, the International Security 
Assistance Force (ISAF) has been in Afghanistan now for a decade. Can 
you describe some of the successes of the NATO partnership with the 
United States in Afghanistan?
    Admiral Stavridis. Since Afghanistan is in the area of 
responsibility of the U.S. Central Command, I respectfully request this 
question be referred to that command.

    36. Senator Inhofe. Admiral Stavridis, General Mattis has 
recommended 13,600 U.S. troops and about half as many international 
troops in post-2014 Afghanistan. In your professional opinion, what are 
the missions and force size we need in post-2014 Afghanistan to 
preserve our investment in blood and treasure over the past decade?
    Admiral Stavridis. Ultimately, Afghans must be able to secure and 
stabilise their country themselves. Our objective is to develop the 
capability for Afghans to assume these tasks.
    Achieving this objective requires a comprehensive program which 
trains, mentors, and advises the Afghan National Security Forces 
through army and police advisory teams and within the NATO Training 
Mission-Afghanistan (NTM-A). NTM-A brings together both NATO and 
national training efforts to develop professional, capable and self-
sustaining Afghan National Security Forces.
    In parallel with the training and mentoring efforts, ISAF troops 
are implementing a phased process to facilitate the transfer of full 
security responsibility to Afghan security forces as their capabilities 
improve, in keeping with the end of 2014 transition timeline.
    The training, advising and assisting of the Afghan National 
Security Forces will continue after transition is complete at the end 
of 2014, when the ISAF mission will end.
    NATO has agreed to lead a post-2014 mission focused on continued 
support the development of ANSF capacity. Allies and my NATO military 
staffs are currently going through an in-depth review to determine what 
assets and capabilities will be required post-2014 to maintain the 
momentum of ANSF development and sustain the progress we have already 
made. We have not yet reached the point of defining a formal 
recommendation as to what the number of forces and required 
capabilities will be.

    37. Senator Inhofe. Admiral Stavridis, NATO has been transformed by 
the expeditionary requirements of operations in Afghanistan. After 
2014, what do you perceive to be the primary means to maintain those 
hard-earned skills and further evolve NATO to be able to meet 21st 
century threats?
    Admiral Stavridis. The primary means will be a reinvigorated NRF 
and a robust NATO exercise program, which will maintain the links and 
interoperability between allies and, importantly, non-NATO partners 
across the globe.

    38. Senator Inhofe. Admiral Stavridis, as the percentage of Gross 
Domestic Product (GDP) that NATO nations are spending on defense drops 
from the goal of 2 percent towards an inadequate 1 percent, how do we 
ensure that Europe will continue to shoulder its share of the global 
security burden?
    Admiral Stavridis. We need to continue to encourage allies to meet 
the agreed commitment of a minimum of 2 percent of GDP spending on 
defense. Defense budgets in most countries have declined at a time when 
the alliance has undertaken its most demanding and significant mission 
ever in Afghanistan, and when the need for investment in future 
capabilities is essential. However European NATO nations do recognize 
the global security challenges--we have seen this recently with the 
French led intervention into Mali as one example. NATO allies have 
taken steps to address the issues related to falling defense budgets, 
with the announcement at the Chicago Summit in 2012 of a Defence 
Package and key initiatives such as Smart Defence and the Connected 
Forces Initiative. Alongside the 2 percent guideline, allies have 
agreed that at least 20 percent of defense expenditures should be 
devoted to major equipment spending. While only four other allies have 
met this goal, investment in major equipment by the non-U.S. allies has 
held steady at about $50 billion per year for the last decade.

    39. Senator Inhofe. Admiral Stavridis, what areas of defense 
cooperation with our NATO allies do you think have the most potential 
to yield productive relationships?
    Admiral Stavridis. There are four areas that are extremely 
productive:
    Operations. NATO allies have provided the core of global missions 
from Kosovo to Libya to Afghanistan, to European Air Policing and 
maritime operations (counter-piracy) in the Mediterranean and in the 
Indian Ocean.
    Increased interoperability, which is enabled and maintained by 
exercising together, will increase as our forces drawdown in 
Afghanistan.
    The successful SPP strengthens links between the United States and 
a number of allies, at a small cost. This in turns enables increased 
participation in operations and exercises.
    Foreign Military Sales equip a number of allies with common 
equipment.

                             COUNTER PIRACY

    40. Senator Inhofe. Admiral Stavridis, NATO has had success in 
anti-piracy operations off the Horn of Africa. With expanding oil 
discoveries in the Atlantic Ocean off of the coast of western Africa, 
and drug trafficking that runs from South America through that same 
area to Europe, do you see the need for an anti-piracy mission off of 
the west coast of Africa?
    Admiral Stavridis. Each region is faced with its own unique root 
causes of crime and piracy; each will require unique solutions.
    The strategic environment and imperatives which led to NATO's 
involvement in the current counter-piracy mission are quite different 
from that off the coast of West Africa. NATO's mission to counter 
maritime piracy began in 2008 with the request from the United Nations 
to provide escorts to U.N. World Food Program vessels transiting 
through dangerous waters to deliver humanitarian aid to Somalia.
    In addition to the threat piracy posed to humanitarian efforts in 
Africa, there was a broad international recognition of a threat to the 
safety of vital sea lines of communication and economic interests off 
the Horn of Africa and in the Gulf of Aden. This included risks to the 
safety of one of the busiest and most important maritime routes in the 
world--the gateway to and from the Suez Canal.
    What we have found during NATO's Operation Ocean Shield, is that 
countering piracy requires a mix of maritime security capabilities, use 
of best practices by the commercial shipping industry, with stability 
and rule of law ashore. NATO's contribution to international counter-
piracy efforts mission continues to this day, in full accordance with 
the relevant U.N. Security Council Resolutions relating to Somali-based 
piracy, and with the consent of Somali authorities.
    An increase in piracy and maritime crime in the Gulf of Guinea is 
indeed of growing concern to the maritime community, but represents a 
different challenge. Whereas the counter-piracy mission off the coast 
of Somalia, a failed state, has taken place in international waters of 
a vital sea line of communication and required an international 
response, the Gulf of Guinea is lined with sovereign, functioning 
nations and much of the criminal activity takes place within 
territorial waters. The United Nations and other relevant actors have 
called for nations of West Africa to develop a comprehensive and 
integrated regional anti-piracy strategy for the Gulf of Guinea.
    The Gulf of Guinea is neither in EUCOM nor NATO's area of 
responsibility. I understand that AFRICOM is successfully working with 
West African nations to assist in the development of their maritime 
capabilities in order to improve safety and security in the Gulf of 
Guinea.

    41. Senator Inhofe. Admiral Stavridis, what support is Brazil 
providing to support the anti-piracy mission? Should the United States, 
through increased security assistance resources, support Brazil's anti-
piracy efforts?
    Admiral Stavridis. Since Brazil is in the area of responsibility of 
the SOUTHCOM, I respectfully request this question be referred to that 
command.

    42. Senator Inhofe. Admiral Stavridis, do you envision this as a 
U.S. force, a NATO force, or some combination?
    Admiral Stavridis. Since Brazil is in the area of responsibility of 
SOUTHCOM, I respectfully request this question be referred to that 
command.

           ISRAEL-TURKEY RELATIONSHIP AND REGIONAL STABILITY

    43. Senator Inhofe. Admiral Stavridis, given the standoff over the 
Mavi Marmara incident between Israel and Turkey, are Israel and Turkey 
reconcilable?
    Admiral Stavridis. Yes, Israel and Turkey are reconcilable; 
however, the relationship is first and foremost between those two 
countries. EUCOM supports a closer relationship between these two key 
allies of the United States. We have seen recent moves to better the 
relationship by the governments of both countries. Of note, Prime 
Minister Netanyahu's recent apology for the Mavi Marmara incident of 
May 30, 2010 is a positive first step in this incremental process. 
Although many variables and challenges remain that the governments of 
both countries must address together, they both have demonstrated they 
are capable of a dialogue to proactively attempt to resolve disputes.

    44. Senator Inhofe. Admiral Stavridis, what is your assessment of 
Prime Minister Erdogan's regional ambitions?
    Admiral Stavridis. Prime Minister (PM) Erdogan is committed to 
establishing optimum security within his own borders in a conflict with 
the Kurdistan Workers' Party (PKK), a conflict which has spanned three 
decades and cost over 40,000 lives. PM Erdogan is sensitive to regional 
perceptions of Turkey acting unilaterally within the region and 
generally takes the position that Turkey should act as a part of a 
coalition in any action. PM Erdogan appreciates that, comparatively, 
Turkish power within the region is on the rise. However, we have no 
indications that he generally advocates greater unilateral Turkish 
regional activity.

    45. Senator Inhofe. Admiral Stavridis, do you think Turkey's 
cooperation with EUCOM and with NATO on Syria is adequate?
    Admiral Stavridis. Turkey's cooperation with EUCOM and NATO on 
Syria has definitely been adequate. As Syria's northern neighbor, 
Turkey understands the threat, takes it seriously, and is engaged with 
the international community for support. Turkey is a strong and 
reliable partner for EUCOM and NATO in an unstable region. In response 
to the Syrian threat, Turkey has requested and welcomed cooperation in 
a number of areas. In January, EUCOM rapidly deployed two Patriot 
batteries to Turkey's southern border in support of NATO. Over the past 
year EUCOM has worked with Turkey to support and enhance its 
capabilities to respond to various Syrian threats. Several of these 
efforts have been in support of broader Department of Defense and 
Department of State initiatives, such as counter- and non-
proliferation. It is important to note that Turkey is currently home to 
over 250,000 Syrian refugees; has lost two Air Force pilots to Syrian 
air defenses; and has sustained multiple cross-border indirect fire 
incidents due to the Syrian crisis.

    46. Senator Inhofe. Admiral Stavridis, does EUCOM and/or NATO have 
a plan to support efforts to secure chemical weapons in Syria if the 
Assad regime falls given the threat to Israel and Turkey of 
proliferation of weapons of mass destruction (WMD) from Syria?
    Admiral Stavridis. Since Syria is in the area of responsibility of 
the U.S. Central Command, I respectfully request this question be 
referred to that command.

    47. Senator Inhofe. Admiral Stavridis, what are the major 
challenges you see as a military commander to addressing this situation 
and what are potential roles do you see for international partners?
    Admiral Stavridis. Since Syria is in the area of responsibility of 
the U.S. Central Command, I respectfully request this question be 
referred to that command.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                       U.S. AND RUSSIA RELATIONS

    48. Senator Wicker. Admiral Stavridis and General Jacoby, last 
month, it was reported that two Russian bombers, both of which were 
capable of carrying nuclear weapons, circled Guam and caused the U.S. 
Air Force to scramble jets to intercept. It appears that the incident 
occurred at about the same time that President Obama was giving his 
State of the Union Address. General Jacoby, you note in your testimony 
that NORAD's increased ability to detect and respond to Russian 
Military Aviation flights entering U.S. and Canadian Air Defense 
Identification Zones. You also state that Russia is in the process of 
modernizing and enhancing the capability of its long range aviation. 
The fact that you mention these two issues in your testimony indicates 
to me, at the very least, a passing concern with Russia's intentions 
towards the United States and our allies. At a period in time when 
Russia appears to be modernizing its military and flying long range 
bomber missions near U.S. territory, how would each of you characterize 
the nature of U.S.-Russia relations?
    Admiral Stavridis. As Russia continues to modernize its strategic 
forces, it has increased its long-range aviation (LRA) training flights 
to previous levels and areas of activity to test its own capabilities 
and readiness. Additionally, Defense Minister Shoygu and other senior 
military leaders recently conducted ``no notice'' evaluations of 
ground, naval and air forces in Southern, Central and Eastern military 
districts to gauge current and emerging capabilities in these regions. 
We do not assess that the capability to conduct these activities 
presents an imminent threat to U.S. territory or U.S. forces. These 
activities have strained, but not significantly altered, our bilateral 
working relationship. Along with our allies, we should continue to 
track Russian activities near NATO territory in order to maintain a 
persistent deterrent to assure allies and partners of our commitments 
to supporting their security. We must do this while attempting to build 
mutual transparency and trust with Russia to avoid misunderstandings 
and miscalculations over its training activities.
    General Jacoby. Senator, while we have seen a definite increase in 
past years in the number of long range training flights in proximity to 
U.S. air space, I would defer to EUCOM--which is the designated 
combatant command for coordinating U.S.-Russia Military cooperation 
efforts--for a broad brush, big picture, overview of the wider 
military-to-military relationship.
    From a NORAD perspective, we have not seen any significant change 
in our military-to-military relationship with the Russian Federation. 
We continue to use the U.S./Russian Military Work Plan to schedule 
items of mutual interest and benefit. These cooperative efforts 
culminate in the annual Exercise Vigilant Eagle, a very successful 
counter-air terrorism event conducted in the Bering Sea area between 
NORAD and Russian Eastern Military District. I am encouraged that we 
have seen no indications that the Russians intend to curtail or 
eliminate this yearly event. However, while NORAD would like to expand 
the scope and complexity of Vigilant Eagle, the Russian military is 
clearly more comfortable with the existing state of cooperative efforts 
at this time.

    49. Senator Wicker. Admiral Stavridis and General Jacoby, have you 
seen anything to indicate that the administration's Russia reset has or 
has not had the intended effect?
    Admiral Stavridis. The answer is somewhere in the middle between 
success and failure. I think that the level of military cooperation 
with Russia has increased in areas of mutual interest and benefit, 
especially if one looks at where the relationship was in the fall of 
2008. We still have many differences with Russia such as missile 
defense, its support for the Assad regime in Syria, and its desire for 
a ``sphere of influence'' in its periphery. Also, while Russia wants us 
involved in Central and South Asia to stabilize Afghanistan, it works 
at every turn to have us ejected from the Manas Transit Center in 
Manas, Kyrgyzstan. We must however continue to work to develop a 
constructive partnership despite our significant political 
disagreements. No one wants to stumble backwards toward the Cold War, 
so the best course for the future is open discussion, frank airing of 
disagreements, and, hopefully, seeking to build a wider strategic 
partnership.
    General Jacoby. NORAD pursues all appropriate avenues for 
cooperation with the Russian military. We continue to work through 
issues of mutual concern through NORAD specific items in the U.S.-
Russia Military Work Plan. This coordination is highlighted through the 
annual anti-terrorism Exercise Vigilant Eagle. It's clear to me that in 
spite of the ebb and flow of the ongoing political discourse between 
the Nations, we can continue to build cooperation on areas of mutual 
interest with the Russian military.
    That said, whatever the status of reset, the Command's mission 
calls for demonstrating the capability and intentions to defend North 
American from threats, to include those that might be presented by 
Russia.

    50. Senator Wicker. Admiral Stavridis, RT reported on March 18, 
2013 that Russia is going to establish a permanent naval task force, 
composed of five or six combatant ships, in the Mediterranean Sea. The 
article further reports that ``Russia is prepared to send combat ships 
to the Pacific and Indian Ocean.'' How would you characterize the 
nature of this announcement?
    Admiral Stavridis. In strategic terms, Russia's establishment of a 
rotational naval task force in the Mediterranean with plans to follow 
up in the Indian and Pacific oceans is an attempt to regain some 
measure of its former maritime presence, and a continuation of 
evaluations and exercises across the Armed Forces under new Defense 
Minister Shoygu. Given the current instability in the Levant, 
especially in Syria, Russia is making moves to protect its interests in 
the region while appealing to an internal audience nostalgic for its 
former global reach. Syria contains Tartus, Russia's only base outside 
of the territory of the former Soviet Union, and can provide logistical 
and materiel support for some of its smaller warships, alleviating the 
need to navigate the Turkish-controlled Dardanelle and Bosphorus 
Straits into the Black Sea.
    The composition and size of the 5-ship fleet (three combatants and 
two support ships) indicate that it is not capable and likely not 
intended to challenge NATO for dominance in the Mediterranean, where 
the U.S. Sixth Fleet is permanently stationed.

    51. Senator Wicker. Admiral Stavridis, do you believe that the 
Russian task force will be a help or a hindrance to U.S. and NATO 
efforts to promote maritime security in the Mediterranean?
    Admiral Stavridis. I think we can look at the example of the 
Russian counter piracy operations in the Gulf of Aden/Horn of Africa. 
The Russian Navy has been extremely useful to the overall counter 
piracy efforts in the region even though it has not integrated into 
Combined Task Force efforts. Nevertheless, they have been able to 
relieve some of the burden on the Combined Task Force by providing 
extra escort and protection services for ships/convoys. We will likely 
see the Russian Navy also be of assistance in promoting security in the 
Mediterranean Sea, with the possible exception of Syria. The Russian 
Navy has actively participated in Operation Active Endeavor and 
frequently joins Partnership for Peace exercises in the Mediterranean. 
The goals of Operation Active Endeavour and the Partnership for Peace 
exercises are promotion of interoperability, search and rescue, counter 
smuggling, and maritime interdiction operations. The addition of a 
Russian Task Force will possibly enhance these two programs.

    52. Senator Wicker. Admiral Stavridis, in your prepared testimony, 
you acknowledge that U.S. force posture in Europe has been declining 
for decades, and you state, quite rightly I believe, that ``Power, like 
nature, abhors a vacuum.'' I also believe you are correct in asserting 
that the diminishing U.S. presence in Europe provides an opportunity 
for our adversaries. It seems to me that the timing of this 
announcement is not a coincidence. It is no secret that the Chief of 
Naval Operations (CNO) recently announced that significant impacts that 
sequestration will have on our naval readiness and ability to meet 
planned deployment schedules. Do you believe the establishment of the 
Russian task force is, at least in part, in response to the diminished 
U.S. military presence in the AOR?
    Admiral Stavridis. I do not think there is a direct correlation 
with the diminishing U.S. military presence in the AOR, though the 
Russians will definitely take advantage of the situation. Since 2007, 
the Russian Navy has been declaring a desire to return to the world's 
oceans and the new Mediterranean Task Group will be a natural follow on 
to these plans. This commitment to a worldwide presence has been 
reflected by KUZNETSOV Task Group deployments to the Mediterranean in 
2007, 2008, and 2011; near continuous counter-piracy operations in the 
Gulf of Aden/Horn of Africa since 2009; and multiple deployments by 
Kirov-class battle cruisers to the Mediterranean and Caribbean Seas, 
and the Indian and Pacific Oceans since 2008. Accordingly, the 
establishment of a Task Group would seem to be a continuation of plans 
likely put into place several years ago.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                   SYRIA AND USE OF CHEMICAL WEAPONS

    53. Senator Wicker. Admiral Stavridis, from open source news 
outlets, Syria's Government and rebels accused each other of launching 
a deadly chemical attack near the northern city of Aleppo on March 19, 
2013 in what would, if confirmed, be the first use of such weapons in 
the 2-year-old conflict. What can you confirm about the possible use of 
chemical weapons in Aleppo and what contingency plans does EUCOM have 
in place in the event of continued use of chemical weapons?
    Admiral Stavridis. At this time we cannot confirm anything with 
respect to alleged chemical weapons use in Aleppo. The international 
community had proposed investigating chemical weapons use in Syria-
which would include Aleppo--but I understand such an investigation is 
held up over questions of scope and jurisdiction.
    EUCOM does not currently have in place any contingency plans 
related to the continued use of chemical weapons in Syria which, as you 
know, is within the area of responsibility of the U.S. Central Command. 
My team is working with counterparts in CENTCOM to ensure we support 
their contingency plans relative to Syria.

                       EUCOM RESPONSE TO BENGHAZI

    54. Senator Wicker. Admiral Stavridis, you gave a brief overview of 
EUCOM's actions during the response to the Benghazi attacks of 
September 11, 2012 during the posture hearing. Please discuss in detail 
the actions that EUCOM conducted during the attack to include but not 
limited to: the requests that were submitted for support from AFRICOM; 
contingency plans to include units that were slated to respond to a 
Benghazi like attack to AFRICOM; and their actions during the attack?
    Admiral Stavridis. Immediately upon notification of the attacks in 
Benghazi, EUCOM went into action, initiating coordination and support 
for AFRICOM and U.S. Special Operations Command (SOCOM). AFRICOM 
requested, and EUCOM provided, the following operations, intelligence, 
logistical, and communications support:
    Operations Support:

        <bullet> Postured EUCOM Commander's In-Extremis Force (CIF) to 
        Naval Air Station Sigonella, Italy, to respond to AFRICOM 
        requirements.
        <bullet> Deployed one Fleet Anti-Terrorism Security Team (FAST) 
        Platoon to U.S. Embassy Tripoli, Libya.
        <bullet> Postured one FAST Platoon at Naval Station Souda Bay, 
        Greece to respond to AFRICOM requirements.
        <bullet> Provided multiple U.S. Navy surface combatants and 
        aviation platforms for intelligence collection and forward 
        presence, to include the IWO JIMA/24 Marine Expeditionary Unit 
        Strike Group and E/F-18G electronic warfare support.
        <bullet> Provided Intelligence, Surveillance, and 
        Reconnaissance (ISR) support to AFRICOM throughout the 
        operation.
        <bullet> Working closely with U.S. Embassy Country Teams, 
        coordinated basing, access, throughput, and overflight 
        permissions with Spain, Italy, Greece, Germany, and other 
        European nations for responding U.S. forces.

    Intelligence Support:

        <bullet> Provided intelligence support to AFRICOM from the 
        EUCOM Intelligence Directorate and EUCOM's National 
        Intelligence Agency Representatives.
        <bullet> Supported personnel recovery efforts by coordinating 
        strategic debriefing of U.S. State Department members evacuated 
        to Landstuhl Regional Medical Center and Ramstein Air Base.
        <bullet> Coordinated with AFRICOM Intelligence Watch, Theater 
        Cryptologic Operations Center, and National Military Operations 
        Center to gain and maintain situational awareness.
        <bullet> Supported AFRICOM with geospatial information and 
        services support.

    Logistical Support:

        <bullet> The EUCOM Logistics Directorate established and 
        executed a daily Basing Support Working Group that deconflicted 
        movements, intra-theater lift, basing activities, and 
        logistical support requirements between EUCOM, AFRICOM, SOCOM, 
        and various subordinate commands.
        <bullet> Due to a staffing shortage at AFRICOM, EUCOM Mortuary 
        Affairs supported AFRICOM by providing the safe and expeditious 
        repatriation of the four Americans killed in the attack.
        <bullet> Supporting response airlift operations, EUCOM 
        synchronized the execution of 55 airlift missions at 12 
        different bases delivering over 1,000 personnel and 700 short 
        tons of cargo.

    Communications Support:

        <bullet> U.S. Air Forces Europe deployed communications 
        personnel and equipment to Trapani Air Base, Italy, in order to 
        provide secure and non-secure voice and data communications 
        support to U.S. personnel recovery assets stationed there.
        <bullet> The EUCOM Communications Directorate processed and 
        managed 10 high-priority, ad-hoc satellite communications 
        (SATCOM) requests, meeting AFRICOM's planning and operational 
        requirements.

                   tactical nuclear weapons in russia
    55. Senator Wicker. Admiral Stavridis, we suspect that the Russian 
Government continues to increase or modernize their tactical nuclear 
weapons inventory. What information can you provide relative to the 
continued production and/or modernization of Russian tactical weapons 
versus Russian strategic nuclear weapons especially from a NATO 
perspective?
    Admiral Stavridis. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                       STATE PARTNERSHIP PROGRAM

    56. Senator Ayotte. General Kelly, what is your assessment of the 
SPP?
    General Kelly. The SPP is an important instrument for advancing 
international cooperation to effect key defense and security issues in 
the SOUTHCOM area of operation. SOUTHCOM leverages the close ties that 
exist between National Guard units, their communities and States to 
develop holistic government and society solutions.
    The SPP improves my ability to provide a persistent United States 
presence and enhances the Command's ability to counteract the 
increasingly negative influences in the region while promoting United 
States National Security Goals.
    Since 1996, the SPP in the SOUTHCOM theater has grown from 4 to 22 
partnerships, with the latest, Colombia, being partnered with South 
Carolina in 2012. Through the efforts of Congress and the Office of the 
Secretary of Defense, the program's oversight and executions have been 
formalized. Now, SPP activities and events are planned, coordinated, 
and executed to achieve my theater security cooperation program 
objectives, the objectives of the Chief of Mission, as well as the 
national security objectives of the partner nation.

    57. Senator Ayotte. General Kelly, what role does the SPP play in 
helping SOUTHCOM accomplish its mission?
    General Kelly. The SPP provides approximately 10 percent of the 
total annual theater engagement in the SOUTHCOM area of responsibility. 
It builds enduring civil-military relationships that improve long-term 
international security while building partner nation capacity across 
all levels of society with partner nations of strategic importance to 
the United States.
    All National Guard SPP activities and events are planned, 
coordinated, and executed to achieve objectives of the Combatant 
Commander and the Chief of Mission in each partner nation.

    58. Senator Ayotte. General Kelly, what is your assessment of the 
New Hampshire National Guard's SPP in El Salvador?
    General Kelly. I am proud of the work all the National Guard does 
in support of SOUTHCOM through the SPP. New Hampshire's State 
Partnership is a model program, and its mature partnership with El 
Salvador has a solid mix of military-to-military, military-to-civilian 
and Civil Security Cooperation events. New Hampshire's National Guard 
has executed nearly 85 events over the past 12 years under the SPP, and 
all of their efforts have been well harmonized with the Intermediate 
Military Objectives within SOUTHCOM's Theater Campaign Plan.
    In particular, New Hampshire has done an excellent job in focusing 
their engagement efforts on Defense Support to Civilian Authorities. El 
Salvador's defense capabilities are evidenced by its ability to export 
its security capability during 11 deployments to Operation Iraqi 
Freedom and two deployments to Operation Enduring Freedom.

                         SEQUESTRATION IMPACTS

    59. Senator Ayotte. Admiral Stavridis, General Jacoby, and General 
Kelly, how will sequestration impact each of your combatant commands?
    Admiral Stavridis. Sequestration will have several near-term 
effects over the remainder of fiscal year 2013. The lack of sufficient 
funds for training hours, steaming hours, flying hours, and sustainment 
will reduce the readiness, maintenance, and availability of assigned 
and rotational forces required to execute ongoing operations, steady 
state activities, and crisis response. Sequestration will also entail 
cuts to Defense and State Department programs that support EUCOM steady 
state activities to preserve our strategic partnerships in Europe, 
ensure strategic access, and promote regional stability. In addition, 
the ability of EUCOM and our Service component headquarters to plan, 
direct, and execute military operations and steady state activities 
will be degraded due to reductions in headquarters funding, the 
furlough of civilian personnel, and cuts to facilities maintenance. 
Finally, sequestration will adversely affect the services that support 
our military and civilian personnel and their families, such as schools 
and health services.
    General Jacoby. NORTHCOM has very few assigned forces. I rely on 
trained, available, and equipped forces from the Services. Thus, if 
sequestration causes the Services to mortgage their readiness, it will 
put at risk my ability to defend in depth and potentially erode my 
ability to conduct critical homeland defense missions. Service 
readiness will also directly impact the exercises and training NORTHCOM 
conducts and executes alongside our mission partners, through reduced 
Service or partner participation and fewer engagements or touch points. 
Building partnerships is essential to responding to events in the 
homeland; a reduced capacity to build those partnerships adds to the 
existing challenge of protecting the homeland. Each of my mission sets 
will be further impacted by furloughs, as my civilian workforce is 
associated with all aspects of homeland defense and support of civil 
authorities. In summary, NORTHCOM and NORAD are postured to defend the 
Nation against a full spectrum of threats, but we will have to work 
hard with the Services to sustain that posture as we deal with 
sequestration, and the program and budget uncertainty that comes with 
it.
    General Kelly. Sequestration cuts have forced the military services 
to cut personnel, ships, and aircraft deployments to the region, 
affecting several missions including support to drug interdiction and 
other law enforcement operations. Out-year cuts associated with 
sequestration will degrade SOUTHCOM's ability to fulfill its title 10 
statutory obligations to conduct detection and monitoring (D&M) and 
limits its ability to provide operational support to U.S. interagency 
and partner nation interdiction operations. Execution of SOUTHCOM's 
Partnership of the Americas strategy that includes deployment of the 
medical ship USNS Comfort, whose regional stops included Costa Rica, El 
Salvador, and Honduras, has also been canceled for fiscal year 2013. 
The deployment of the USNS Comfort has historically been an enormously 
successful and positive event in the region.
    Security Cooperation Activities have been reduced by approximately 
25 percent ($15 million) in fiscal year 2013, forcing the cancellation 
of three major exercises (Peace Keeping Operations Americas, Fuerzas 
Comando, and Fuerzas Aliadas Humanitarias); the descoping of the 
exercise Panamax and exercise Unitas; and the elimination of 
approximately 200 engagement activities. These activities range from 
medical readiness training exercises to small group training activities 
and infrastructure development projects. Decreased out-year funding 
associated with sequestration, in addition to potential furloughs to my 
civilian workforce, will further impact SOUTHCOM's ability to improve 
the security and defense capabilities of partner nation forces in the 
region. Nonetheless, we remain committed to supporting regional 
security and to strengthening our valued defense partnerships in South 
and Central America, and the Caribbean.

       IRANIAN BALLISTIC MISSILE THREAT AND U.S. MISSILE DEFENSE

    60. Senator Ayotte. General Jacoby, in your prepared statement, you 
conclude that Iran ``is developing advanced missile capabilities faster 
than previously assessed and is apparently positioning itself to 
produce a nuclear warhead quickly should its leaders choose to do so.'' 
Does the United States currently have a shoot-look-shoot capability 
against an ICBM launched from Iran that is heading toward Boston, New 
York, or Washington, DC? In other words, would the United States 
currently have one chance or two chances to shoot down an Iranian ICBM 
headed toward the east coast?
    General Jacoby. [Deleted.]

    61. Senator Ayotte. General Jacoby, would an east coast missile 
defense site provide additional missile defense protection against a 
prospective Iranian ballistic missile threat against the east coast of 
the United States?
    General Jacoby. [Deleted.]

    62. Senator Ayotte. General Jacoby, from start to finish, what is 
your understanding as to how long it would take to build an east coast 
missile defense site?
    General Jacoby. [Deleted.]

                             GUANTANAMO BAY

    63. Senator Ayotte. General Kelly, how would you characterize 
detention operations at GTMO?
    General Kelly. Detention operations in Guantanamo are executed in 
accordance with humanitarian principles, applicable domestic and 
international law, and Department of Defense policies, regulations, and 
directives.
    JTF-GTMO normally houses detainees under two different detention 
models. The majority of detainees are held in single-cell detention, 
which means that a detainee has his own cell, usually in close 
proximity to other detainees in adjacent cells, whereby he is able to 
participate in no less than 2 hours of open-air recreation per day and 
to worship in accordance with his religious beliefs. A smaller number 
of detainees are held in a communal setting, where detainees are not 
locked in their cells during the day, but they are permitted to leave 
their cells and move freely within shared common spaces within their 
detention camp, including outside areas for open-air recreation. 
Whether a detainee is held in single-cell detention or communal 
detention depends upon his behavior and compliance with camp rules: 
only ``compliant'' detainees are afforded the increased freedom of 
socialization and movement granted by communal detention. Whether 
housed in single cell, or communally, all detainees are treated 
humanely as required by international law and U.S. policy.
    Regardless of the detention model, all detainees with pending legal 
processes, including military commissions, habeas corpus litigation, or 
periodic review boards, are permitted access to their attorneys through 
personal visits, mail, and in many cases, telephone calls. 
Additionally, in coordination with the International Committee of the 
Red Cross, JTF-GTMO facilitates quarterly hour-long telephone or video 
teleconference calls between detainees and their families, regardless 
of whether the detainee is held in single-cell or communal detention.

    64. Senator Ayotte. General Kelly, what are the challenges you face 
with respect to the infrastructure at GTMO?
    General Kelly. Most of the current facilities are aging, 
dilapidated temporary structures well beyond their expected life 
expectancy and present risk to JTF-GTMO and their mission. The 
environment at Guantanamo Bay is not suitable for the long term use of 
temporary facilities. Year-to-year funding hampers any real master 
planning efforts and execution. Legal and policy issues are intertwined 
in the infrastructure decisions relative to their repair and 
replacement.

    65. Senator Ayotte. General Kelly, you say that you ``have 
identified a series of projects aimed at increasing the security of the 
detainees, facilitating our ability to support legal processes for 
detainees, and most of all, meeting basic quality of life requirements 
for our troops''. Did you recommend that these projects be included in 
the President's fiscal year 2014 budget request?
    General Kelly. No; the projects identified by JTF-GTMO that I 
endorsed were submitted to the Assistant Secretary of the Army 
(Installations, Energy, and Environment (ASA/IE&E) by our Army 
component (U.S. Army South) for Army Overseas Contingency Operations 
(OCO) Military Construction (MILCON) funding consideration. The ASA/
IE&E identified uncommitted MILCON for possible use to satisfy JTF-GTMO 
requirements; final resolution of funding availability is pending 
approval of the Secretary of Defense.

    66. Senator Ayotte. General Kelly, would our servicemembers 
stationed at GTMO be well-served by ensuring that facility sustainment, 
restoration, and modernization (FSRM) funding for GTMO is incorporated 
into the Future Years Defense Program (FYDP)?
    General Kelly. SOUTHCOM submitted a Program Budget Review (PBR) 
Issue Nomination in fiscal year 2012 to include all JTF-GTMO funding 
into the base budget (FYDP) for the specific purpose of increasing 
fiscal discipline and to enable planning for facility sustainment and 
restoration.

    67. Senator Ayotte. General Kelly, how often do representatives of 
the International Red Cross visit GTMO?
    General Kelly. In 2012, the International Committee of the Red 
Cross (ICRC) began visiting JTF-GTMO six times per year on a bimonthly 
schedule. Representatives of the ICRC now annually carry out four 1-
week visits and two 2-week visits, for a total of 8 weeks per year, 
inspecting facilities, delivering Red Cross Messages, and conducting 
private interviews with detainees from all of JTF-GTMO's detention 
camps.

    68. Senator Ayotte. General Kelly, how often do the media and 
Congressional delegations visit GTMO?
    General Kelly. There is a steady flow of media into JTF-GTMO, both 
to visit the detention facility itself and to report on commissions. 
Since opening the facility in 2002, more than 2,300 media members have 
visited. In 2012, JTF-GTMO hosted 164 media representatives from 60 
U.S. and international news organizations.
    Since 2003 there have been 75 congressional delegation trips to 
JTF-GTMO, with anywhere from 1 to 7 people on each visit.

    69. Senator Ayotte. General Kelly, is it fair to say that GTMO is 
one of the most well-supervised and professional detention facilities 
in the world?
    General Kelly. Yes. JTF-GTMO is unique. JTF-GTMO is staffed by a 
well-trained, professional guard force consisting predominantly of Army 
military policemen. Through the dedicated efforts of dozens of 
committed commissioned officers, noncommissioned officers, soldiers, 
and sailors, the JTF-GTMO Commander, Rear Admiral John Smith, enforces 
the highest standards despite a very challenging detention environment.

               COORDINATION BETWEEN NORTHCOM AND SOUTHCOM

    70. Senator Ayotte. General Jacoby and General Kelly, what are your 
assessments of the illegal activities in this border area between the 
United States and Mexico?
    General Jacoby. As well as we do on securing the border, we will 
always be in a position of needing to improve. The security environment 
constantly changes as criminal enterprises become more sophisticated 
and aim to exploit vulnerabilities in terrain and institutions. 
NORTHCOM supports U.S. law enforcement partners (principally CBP, CBP-
Office of Air and Marine, ICE-Homeland Security Investigations, and 
U.S. Border Patrol) with unique military capabilities to directly 
pressure criminal networks on both sides of the border. With 
persistent, agile application of capability to support our partners, 
the command gains strategic depth in our homeland defense mission.
    (U) NORTHCOM is taking a broader approach to looking at the U.S./
Mexico border area. We view criminal networks operating across the 
border as a part of a sophisticated, integrated, global network that 
poses a national security threat to the United States. To address this 
elaborate network of networks that traverses through physical and cyber 
space, we advocate working across governments and using interagency 
approaches to understand and attack the network. Through a coalition of 
partners, we can put pressure on the financiers, leaders, logisticians, 
and operators that enable illicit activity.
    General Kelly. NORTHCOM, based on its assigned responsibilities in 
the Unified Command Plan, is best suited to characterize the illicit 
activities along the U.S./Mexico border. SOUTHCOM assists NORTHCOM by 
disrupting illegal products and criminal networks along the southern 
approaches to the United States. Specifically, SOUTHCOM supports 
Department of State and partner nation eradication efforts in the 
source zones located in South America. Additionally, SOUTHCOM fulfills 
its statutory responsibility for the detection and monitoring of aerial 
and maritime transit of illegal drugs into the United States primarily 
through Joint Interagency Task Force-South. Further, SOUTHCOM and 
NORTHCOM consistently share information and intelligence on people, 
products, networks, tactics, and operations that facilitate 
transnational criminal networks.

    71. Senator Ayotte. General Jacoby and General Kelly, what are each 
of you doing to ensure optimal coordination between your two commands?
    General Jacoby. NORTHCOM, in collaboration with SOUTHCOM, is 
focused on enhancing the partnerships between U.S. Law Enforcement 
Agencies with our respective counterparts and Mexican, Guatemalan, and 
Belizean militaries to build capability and capacity. Currently, the 
commands are working together to update our Command Arrangement 
Agreement, which establishes coordination procedures and delineates 
responsibilities between our two geographic combatant commands.
    General Kelly. SOUTHCOM coordinates with NORTHCOM at all levels, 
including participation in mutually-relevant conferences, exercises, 
and planning events. My staff coordinates with NORTHCOM on strategy, 
engagement, and strategic communication efforts in the Western 
Hemisphere, focusing primarily on an integrated, hemispheric approach 
to combating transnational organized crime in the Western Hemisphere, 
especially along the border shared among Mexico, Guatemala, and Belize. 
A NORTHCOM-SOUTHCOM Command Arrangement Agreement describes and directs 
formal inter-combatant command relationships essential for operational 
planning and execution in the vicinity of our shared area of 
responsibility boundary and on topics of common interest.

    [Whereupon, at 12:15 p.m., the committee adjourned.]


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 9, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                          U.S. PACIFIC COMMAND

    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Manchin, Shaheen, Blumenthal, Donnelly, Hirono, Kaine, King, 
Inhofe, McCain, Wicker, Ayotte, and Graham.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Jonathan S. Epstein, counsel; Ozge 
Guzelsu, counsel; Richard W. Fieldhouse, professional staff 
member; Jason W. Maroney, counsel; Michael J. Noblet, 
professional staff member; and Russell L. Shaffer, counsel.
    Minority staff members present: John A. Bonsell, Minority 
Staff Director; Thomas W. Goffus, professional staff member; 
and Lucian L. Niemeyer, professional staff member.
    Staff assistants present: Mariah K. McNamara, John L. 
Principato, and Bradley S. Watson.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; David LaPorte, assistant to Senator Manchin; Marta 
McLellan Ross, assistant to Senator Donnelly; Nick Ikeda, 
assistant to Senator Hirono; Karen Courington, assistant to 
Senator Kaine; Steve Smith, assistant to Senator King; 
Christian Brose and Brian Rogers, assistants to Senator McCain; 
Lenwood Landrum, assistant to Senator Sessions; Joseph Lai, 
assistant to Senator Wicker; Brad Bowman, assistant to Senator 
Ayotte; and Craig Abele, assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We hope our 
speakers work here. This microphone I don't think is working. 
We're going to start without the mic. Okay, I have to get 
closer.
    We're receiving testimony today on the posture of U.S. 
forces in the Asia-Pacific region, and on behalf of the 
committee first let me welcome Admiral Samuel Locklear, the 
Commander of the U.S. Pacific Command (PACOM). Admiral, the 
committee appreciates your long years of faithful service and 
the many sacrifices that you and your family have made for our 
Nation, and we would also greatly appreciate it if you would 
pass along to the men and women with whom you work our 
admiration for their service as well. We know this is a 
particularly busy time for you, Admiral, and for your staff. We 
appreciate your joining us today.
    General Thurman, the Commander of U.S. Forces Korea, was 
originally scheduled to testify today as well, but the decision 
was made to keep him on the Korean Peninsula at this time and 
we understand and appreciate the reasons for that decision. We 
wish General Thurman well in his ongoing activities.
    Today's hearing is a particularly timely one because of the 
events on the Korean Peninsula, which have intensified as the 
North Korean regime, which is a longstanding international 
pariah, has elevated its reckless rhetoric and its provocative 
behavior. Any guarded optimism about North Korea that may have 
accompanied the December 2011 death of long-time dictator Kim 
Jong Il has faded as the new regime has adopted many of the 
same destructive policies as its predecessors, stubbornly 
pursuing its nuclear weapons and its ballistic missile programs 
with callous disregard for the well-being of its own people and 
the region.
    Earlier this month, the North Korean regime announced its 
intention to restart plutonium production at Yongbyon. In 
February, it tested a nuclear device that appears to have a 
yield greater than that shown in previous North Korean tests. 
In December of last year, the regime put a satellite in orbit 
using technologies associated with long-range ballistic 
missiles. Last April, it displayed a road-mobile missile 
launcher which may or may not be operational.
    The North Korean regime's rhetorical threats appear to 
exceed its capabilities and its use of what capabilities it has 
against the United States or our allies seems highly unlikely 
and would be completely contrary to the regime's primary goal 
of survival. Nonetheless, its words and actions are not without 
consequences. Even China, despite its longstanding relationship 
with North Korea, has joined in United Nations condemnation of 
the North Korean regime's dangerous behavior and has supported 
new sanctions, including tighter financial restrictions and 
bans on luxury goods.
    A few weeks ago, Secretary Hagel announced a plan to 
enhance our ground-based interceptor (GBI) capability in 
Alaska, and just last week the Department of Defense (DOD) 
announced the deployment of a Terminal High Altitude Area 
Defense (THAAD) ballistic missile defense system to Guam as a 
further precautionary measure.
    The administration has responded to North Korea's bluster, 
not with hot rhetoric of our own, but with firm and confident 
resolve with our partners and countries in the region who want 
stability and calm, always looking forward to the time when the 
oppressive North Korean regime will come to an end.
    I am puzzled by the delay of the long-scheduled 
intercontinental ballistic missile (ICBM) operational test 
following the North Korean rhetorical threats. Why was this 
delayed? Why was our test delayed? I would appreciate knowing, 
Admiral, if you agree with the decision which was made to delay 
that test.
    The Republic of Korea remains one of the United States' 
most steadfast and reliable allies and we are working in close 
coordination to address the North Korean challenge. We look 
forward to hearing Admiral Locklear's views on recent 
developments on the Korean Peninsula and additional steps that 
can be taken.
    We face many other challenges and opportunities in the 
Asia-Pacific region as well. China's continued rise in regional 
and global influence, coupled with its military modernization 
and growth, has drawn justifiable attention from DOD. China's 
pursuit of capabilities that extend the reach of its military 
raises concerns about Chinese intentions, particularly in the 
context of that country's increasing willingness to assert its 
controversial claims of sovereignty in areas of the South China 
Sea and the East China Sea.
    In addition, China's lack of regard for the intellectual 
property rights of the United States and other nations remains 
a huge problem for the global community. China remains the 
leading source of counterfeit parts both in military systems 
and in the commercial sector. In addition, China appears to 
have engaged in a massive campaign to steal technology and 
other vital business information from American industry and our 
government. China's apparent willingness to exploit cyberspace 
to conduct corporate espionage and to steal trade and 
proprietary information from U.S. companies should drive our 
government and our businesses to come together to advance our 
own cyber security.
    There are a number of other PACOM missions that warrant our 
attention as well, such as ensuring freedom of navigation and 
protecting the free flow of commerce through critical sea lanes 
of communication, strengthening alliances, and building on 
partnerships, providing expertise and support to countries 
committed to fighting transnational violent extremism, working 
to prevent the proliferation of weapons of mass destruction 
(WMD), and preparing for and assisting with humanitarian and 
disaster relief efforts.
    To better meet these challenges, the administration 
continues to rebalance toward the Asia-Pacific. DOD has been 
working through substantial realignments of U.S. military 
forces in countries like South Korea and Japan and is also 
engaged in initiatives to position forces further to the south 
in countries such as Australia, Singapore, and, possibly, the 
Philippines. As we rebalance and realign our presence in the 
Asia-Pacific area, it is important that we get it right in 
terms of strategy, but also in terms of resourcing and 
sustainability.
    This committee will continue to exercise its oversight 
responsibilities, to ensure that our forward presence in the 
Asia-Pacific and elsewhere in the world is affordable, 
sustainable, and operationally supportable. In this regard, the 
committee has recently approved the report of its inquiry into 
U.S. costs and allied contributions associated with U.S. 
military presence overseas and we anticipate releasing this 
report in the next few days.
    With respect to the planned realignment of U.S. marines 
currently on Okinawa, Senator McCain, former Senator Webb, and 
I advocated changes for the 2006 U.S.-Japan realignment road 
map plan to better support U.S. strategic goals in the region 
while also accounting for the fiscal, political, and diplomatic 
realities associated with long-term sustainability. The April 
2012 joint U.S.-Japan announcement of changes to the 2006 plan 
reflected an appreciation by both governments of the need to 
make adjustments in order to support the goal of achieving a 
more viable and sustainable U.S. Marine Corps presence in 
Japan, on Guam, and elsewhere in the region.
    DOD is currently working to develop the details of this new 
plan and the final construction schedule and total costs are 
not yet known. After we receive that plan, we will be in a 
position to judge it. But until that plan is forthcoming, the 
committee has deferred action on associated requirements until 
previously-adopted conditions are met. So while I support the 
concept of restationing marines from Okinawa to Guam, it must 
be done in a fiscally and operationally sound manner.
    Of course, we must consider all these challenges and 
initiatives in the Asia-Pacific against the backdrop of the 
budget constraints of sequestration, and, Admiral, we'd be 
interested in your assessment as to the effects of 
sequestration on your ability to meet mission requirements in 
your area of responsibility (AOR).
    Again, we very much appreciate all the work that you do for 
this Nation. We appreciate your joining us this morning. We 
look forward to your testimony.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral Locklear, you're on your own today, but I think 
that General Thurman made the right decision staying where he 
is. So I'm sure you can handle all of this today.
    North Korea's recent actions highlight the historic 
disparity between the Obama administration's triumphant 
declaration that the tide of the war is receding and the 
reality. Old threats are being replaced by new, more dangerous 
ones, just like Kim Jong Il was replaced by Kim Jong Un. North 
Korea's new leader, Kim Jong Un, brutally represses his people 
and is engaged in provocative statements, military exercises, 
and nuclear tests that have pushed the region onto the brink of 
conflict. I just got back from there and I got the clear 
impression that he was doing that intentionally just to 
intimidate and to provoke people.
    Both General Thurman and Admiral Locklear are implementing 
prudent steps that include continuing to train our South Korean 
partners in exercises like Foal Eagle, practicing strike 
missions with the F-22, the B-2, and the B-52 aircraft, moving 
Aegis cruisers closer to the Korean Peninsula, and installing 
the THAAD capability in Guam. Our increased military 
capabilities in the region are designed to deter North Korean 
aggression. Should deterrence fail, they also stand ready to 
punish aggression, to protect vital United States interests.
    Though I'm encouraged by the President's reversal of his 
previous decision by acquiring the 14 additional GBIs, which is 
right after he got rid of the 14 GBIs, I think the decision to 
reverse that first decision was the right one. I think that 
doesn't address the problem, though, that we would have, which 
is not really in your area, but the third site that we've been 
talking about, the regretful thing that we did in getting rid 
of the GBI capability in Poland 4 years ago.
    China's growing defensive capabilities and aggression 
demand that we understand our capability to defend Taiwan and 
how PACOM intends to tailor--I took all of the stuff I had on 
China out of my opening statement because I agree with the 
statement that the chairman made and I think he covered it very 
well. We have to have a clear long-term strategy that details 
adjustments to our force posture, including a plan for Marine 
Corps presence in Okinawa, Guam, Hawaii, and Australia. It's 
been over a year since the administration announced the 
rebalance to Asia and I look to Admiral Locklear as the 
commander on the ground to provide the committee with a 
detailed description of what the rebalance means in military 
terms.
    I also look forward to his frank assessment as to how the 
ongoing budget crisis will impact his plans and operations in 
the Pacific. I have some questions about that and I'm sure that 
you'll give us very straightforward answers.
    I'm deeply concerned about the growing divide between what 
we expect our military to accomplish and the resources that 
we're providing them. I've often said, Admiral, that you do a 
great job with the hand you're being dealt; we need to deal you 
a better hand.
    I can't recall a time in my life when the world has been 
more dangerous and, while the President naively sees the tide 
of war receding, I see the continued need for a strong, able, 
and well-resourced force that remains engaged in the Asia-
Pacific and beyond. This insistence by this President to 
drastically slash the defense budget puts the future of such a 
force at risk. The Obama administration's plan to have DOD, 
which makes up only 18 percent of the budget, be accountable 
for 50 percent of the reduction is not responsible. 
Shortsighted cuts to defense capabilities will result in a 
weakened U.S. military and would embolden adversaries like 
North Korea.
    The reckless course of action pursued by the regime in 
Pyongyang underscores the importance of our forward military 
posture in the Asia-Pacific. Our presence helps to shape events 
and underpin stability, in this case very concretely, through 
deterrence. But should deterrence fail, make no mistake, our 
military forces stand by, ready to defend the Nation.
    Thank you very much, Admiral, and I look forward to your 
testimony.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Admiral.

 STATEMENT OF ADM SAMUEL J. LOCKLEAR III, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Locklear. Good morning, Chairman Levin, Senator 
Inhofe, and distinguished members of the committee. Thank you 
for the opportunity to testify today and provide you with my 
perspectives on the posture of PACOM. I request that my written 
testimony be included in the record.
    Chairman Levin. It will be.
    Admiral Locklear. For the past 13 months or so, I've had 
the great honor to lead the 328,000 servicemembers and about 
38,000 civilian employees and their families in the PACOM area. 
Our AOR is diverse and complex. It encompasses about 52 percent 
of the world's surface and over half the world's population. 
It's culturally, socially, economically, and geo-politically 
diverse. The nations are what I refer to as the Indo-Asia-
Pacific, because that's the framework I see it in, includes 5 
of our Nation's 7 treaty allies, 3 of the largest and 7 of the 
10 smallest economies, the most populated nations in the world, 
including the largest Muslim-majority nation, the largest 
democracy in the world, and of course the world's smallest 
republic as well.
    The Indo-Asia-Pacific is the engine that drives the global 
economy. The open and accessible sea lanes throughout the Indo-
Asia-Pacific annually enjoy about $8 trillion in bilateral 
trade, with one-third of the world's bulk cargo and two-thirds 
of the world's oil shipments sailing to and from the 9 of the 
world's 10 largest economic ports which are in the Asia-
Pacific.
    So by any meaningful measure, the Indo-Asia-Pacific is also 
the world's most militarized region, with 7 of the 10 largest 
standing militaries, the world's largest and most sophisticated 
navies, 5 of the world's declared nuclear-armed nations. So 
when taken altogether, these aspects, they present a region 
with a unique strategic complexity and a wide, diverse group of 
challenges that can significantly stress the security 
environment.
    Now, effectively engaging in the Indo-Asia-Pacific requires 
a committed and sustained effort, and PACOM as a military 
component of this commitment, is clearly focused in our efforts 
to deter aggression, to assure our allies and our partners, and 
to prevent conflict should our national interests be 
threatened.
    While the Indo-Asia-Pacific is relatively peaceful over 
time, I'm concerned by a number of security challenges similar 
to those that you've outlined, Mr. Chairman, that have the 
possibility to impact the stability of today's security 
environment. I'm sure we'll talk later about the Korean 
Peninsula, but it appears it will persist and an impetuous 
young leader continues to focus on provocation rather than on 
his own people.
    The rise of China and India as global economic powers and 
their emergence as regional military powers will continue, and, 
with China specifically, we will focus our efforts on building 
relationships with them and doing all we can to assist them as 
they emerge into a security environment as hopefully productive 
contributors to global peace and prosperity.
    We expect that the growing populations of the world will 
continue to be challenged by inevitable earthquakes and 
tsunamis and typhoons and flooding, as well as continued 
transnational threats like pandemics, pirates, terrorists, 
criminal organizations, human trafficking, and proliferation of 
WMD.
    We will also, no doubt, see historic and emerging border 
and territorial disputes continue as the competition for water, 
food, and energy grow, and we expect that access and freedom of 
action in the shared domains of sea, air, space, and cyber will 
become increasingly challenged.
    Finally, there's no single organization, mechanism, in the 
Indo-Asia-Pacific to manage the relationships when it's needed 
or to provide a framework for conflict resolution. So we have 
to rely on our allies and our growing partner relationships, 
including those that we're growing with multilateral 
organizations like the Association of Southeast Asian Nations 
(ASEAN), to ensure that we can maintain the peace.
    The U.S. joint force has been heavily tasked in other AORs 
over the past decade and as a consequence in my AOR, in PACOM, 
in many key areas we have been resource-challenged and have 
assumed additional risk. Our rebalance to the Pacific strategy 
has given us a new opportunity to begin to solve these 
challenges and to reemphasize to our allies and our partners 
that we are committed to the Pacific, that we are a committed 
Pacific nation. It also reflects the recognition that the 
future prosperity will be defined largely by events and 
developments in the Indo-Asia-Pacific.
    Over the past year, the rebalance has helped focus our 
planning and our resourcing decisions as we work closer with 
our allies and partners to ensure a security environment 
favorable to U.S. interests. However, the impacts of 
sequestration have created budget uncertainties, limited our 
flexibility to manage risk, and have the potential to undermine 
our long-term strategic rebalance momentum.
    Nonetheless, PACOM will work with the Services to preserve, 
to the extent possible, our essential Homeland defense and 
crisis response capabilities, capabilities resident in our 
forward-deployed forces.
    The Pacific Ocean does not separate the United States from 
Asia; it connects us. We are connected by our economies, our 
cultures, our shared interests, and our security challenges. 
We've been resource-challenged and we've been accepting risk in 
the Indo-Asia-Pacific region for some time. But our rebalance 
strategy is in place and we're making good progress.
    Let me assure you that PACOM will continue to demonstrate 
to our allies, our partners, and others the U.S. resolve and 
commitment to peace and security in this important part of the 
world.
    On behalf of our superb military and civilian members and 
their families, all of whom sacrifice every day to ensure that 
our country is well defended, I'd like to thank each member of 
this committee for your support. I look forward to your 
questions.
    [The prepared statement of Admiral Locklear follows:]

           Prepared Statement by ADM Samuel J. Locklear, USN

         INTRODUCTION: WHY IS THE INDO-ASIA-PACIFIC IMPORTANT?

    Chairman Levin, Senator Inhofe, and distinguished members of the 
committee, thank you for this opportunity to present an update on U.S. 
Pacific Command (PACOM). For the past 12 months I have had the honor to 
lead over 328,000 servicemembers and 38,000 civilian employees as the 
PACOM Commander, and I look forward to sharing my thoughts with you on 
the strategic environment of this diverse and complex theater.
    In 2011 the President directed his national security team to make 
America's ``presence and mission in the Asia-Pacific a top priority.'' 
This testimony discusses the foundations of our strategy and how we 
plan to accomplish the President's directive by providing a candid 
assessment of the opportunities and challenges PACOM faces in this 
critical half of the world.
    The Indo-Asia-Pacific stretches from California to India. It 
encompasses over half of the Earth's surface and well over half of its 
population. The Pacific Ocean is the largest physical feature on the 
planet. If all the world's landmasses were placed in the Pacific, there 
would still be room left over for additional North American and African 
continents. To give you an even better idea of its size, a Carrier 
Strike Group takes 3 weeks to transit from the U.S. west coast to the 
Philippines; 15 hours to get there in a C-17; and from Fort Lewis, WA, 
to the Maldives is 9,000 miles.
    This region is culturally, socially, economically, and geo-
politically diverse. The nations of the Indo-Asia-Pacific include five 
of our Nation's seven treaty allies,\1\ three of the largest economies 
in the world,\2\ and seven of the 10 smallest;\3\ the most populous 
nations in the world,\4\ the largest democracy;\5\ the largest Muslim-
majority nation;\6\ and the world's smallest republic.\7\
---------------------------------------------------------------------------
    \1\ Australia, Japan, Korea, Philippines, and Thailand
    \2\ United States, China, and Japan
    \3\ Tokelau, Niue, Tuvalu, Futuna, Nauru, Marshall Islands, Palau
    \4\ China, India, Indonesia
    \5\ India
    \6\ Indonesia
    \7\ Nauru
---------------------------------------------------------------------------
    The Indian Ocean is surpassing the Atlantic and Pacific as the 
world's busiest and most strategically significant trade corridor. One-
third of the world's bulk cargo and two-thirds of its oil shipments now 
pass through the Indian Ocean. Nine of the world's 10 largest ports are 
here,\8\ and the Indo-Asia-Pacific is the engine that drives the global 
economy. China, Japan, and India are three of the world's largest 
economies. Last year alone, there was over $8 trillion of two-way 
trade. Regional cooperation to ensure the safety and security of these 
vital trade routes will become increasingly important over coming 
decades.
---------------------------------------------------------------------------
    \8\ Shanghai, Ningbo-Zhoushan, Singapore, Tianjin, Guangzhou, 
Qingdao, Quinghuangdao, Hong Kong, Busan
---------------------------------------------------------------------------
    By any meaningful measure, the Indo-Asia-Pacific is also the 
world's most militarized region, with 7 of the 10 largest standing 
militaries,\9\ the world's largest and most sophisticated navies,\10\ 
and 5 of the world's declared nuclear armed nations.\11\ All these 
aspects, when you take them together, result in a unique strategic 
complexity. This complexity is magnified by a wide, diverse group of 
challenges that can significantly stress the security environment. To 
be successful, we must draw on the strengths of the entire U.S. 
Government, the U.S. economy, and the American people.
---------------------------------------------------------------------------
    \9\ China, India, Democratic People's Republic of Korea, Russia, 
Republic of Korea, Vietnam, United States
    \10\ China, India, Russia, United States
    \11\ Russia, China, India, Democratic People's Republic of Korea, 
United States
---------------------------------------------------------------------------
    At a time when the region is experiencing such significant change, 
we must clearly communicate to our allies and partners our commitment 
by maintaining a credible, forward deployed, sustainable force.

                          SECURITY ENVIRONMENT

    The Indo-Asia-Pacific has a myriad of security challenges, 
including rapidly growing military capabilities, nuclear developments, 
unresolved territorial and resource disputes, violent extremism, 
natural disasters, proliferation, illicit trafficking and more. This 
complex security environment continues to evolve with both positive and 
negative trends.
    Overall, the region enjoys considerable political stability. In the 
past year, we have seen a series of peaceful leadership transitions, 
most notably in China, the ROK and Japan, which have reinforced 
existing succession processes. With the obvious exception of China, 
these changes have also advanced democracy and democratic principles. 
We've noted the positive changes occurring in Burma's Government and 
look forward to its continued progress. The Association of Southeast 
Asian Nations (ASEAN) continues efforts to provide leadership on 
regional security issues and to effectively address transnational 
challenges such as natural disaster, terrorism, transnational crime, 
climate change, while simultaneously working towards its goal of 
becoming a single economic community by 2015. We expect ASEAN to 
continue to grow in this role under Brunei's chairmanship in 2013. We 
have also seen encouraging examples of states using international 
bodies to address disputes peacefully, such as Bangladesh and Burma 
using the International Tribunal for the Law of the Sea to resolve 
their disputed maritime boundary in the Bay of Bengal and Thailand and 
Cambodia are awaiting a ruling later this year from the International 
Court of Justice on their long-disputed border region. We encourage all 
claimant states to seek peaceful means to resolve their disputes.
    However, not all developments have been positive or stabilizing. 
North Korea's repeated violations of U.N. Security Council resolutions 
that forbid building and testing of nuclear weapons and long-range 
ballistic missile technologies, represent a clear and direct threat to 
U.S. national security and regional peace and stability. China's rapid 
development of advanced military capabilities, combined with its 
unclear intentions, certainly raises strategic and security concerns 
for the United States and the region. Continuing plans by violent 
extremist organizations (VEOs) to attack host nation and U.S. targets 
is another example of the issues in this vast region that are of 
concern not just to PACOM, but too many Indo-Asia-Pacific nations.
North Korea:
    Kim Jong Un used 2012 to consolidate his power. Kim is the youngest 
head of state in the world and holds the leadership position in all 
significant North Korean institutions of national power--military, 
state, and party. We were cautiously encouraged in February 2012 when 
North Korea agreed to implement a moratorium on long-range missile 
launches, nuclear tests, and nuclear activities at Yongbyon. However, 
Pyongyang almost immediately broke its promise by attempting to place a 
satellite into orbit using proscribed ballistic missile technology and 
parading an alleged road mobile intercontinental range ballistic 
missile system. Pyongyang responded to the unanimous U.N. condemnation 
of its December launch with renewed rhetoric, threats and bluster. Just 
a few weeks ago, again in clear violation of U.N. resolutions, North 
Korea announced it had conducted its third nuclear test, which it 
claimed--without any evidence--was a ``smaller, more powerful weapon.'' 
North Korea's nuclear weapons and ballistic missile programs, its 
illicit sales of conventional arms, and its ongoing proliferation 
activities remain a threat to regional stability and underscore the 
requirement for effective missile defense.
    North Korea maintains a significant percentage of its combat forces 
forward deployed along the demilitarized zone with the ROK. From these 
locations, they could threaten U.S. and ROK civilian and military 
personnel, as they showed in 2010 with the surprise attack on the ROK 
ship Cheonan and the artillery attack on Yeonpyeong-Do Island. The 
continued advancement of the north's nuclear and missile programs, its 
conventional force posture, and its willingness to resort to asymmetric 
actions as a tool of coercive diplomacy creates an environment marked 
by the potential for miscalculation that and controlled escalation 
could result from another North Korean provocative action.
    Kim Jong Un's stated emphasis on economic development and promises 
of economic growth have so far yielded little, and are undermined by 
North Korean missile launches and nuclear tests that lead to further 
sanctions and international isolation. We remain concerned about the 
potential for peninsular and regional instability while North Korea 
continues to prioritize military objectives above economic recovery and 
reform, and thus remains unable to sufficiently provide for its own 
population, a concern shared by our allies and partners.
Proliferation:
    We remain concerned by North Korea's illicit proliferation 
activities and attempts to evade U.N. sanctions. North Korea's acts 
defy the will of the international community and represent a clear 
danger to the peace, prosperity and stability of the Indo-Asia-Pacific.
    PACOM's Counter Weapons of Mass Destruction (CWMD) program is a 
complementary multinational activity intended to support counter-
proliferation interdiction operations. PACOM welcomes Thailand as a 
recent endorsee of the Proliferation Security Initiative (PSI) and 
looks forward to the new opportunities their active participation will 
bring. CWMD provides a voluntary framework through which PSI partner 
nations can improve operational capabilities and domestic legal 
authorities in order to interdict WMD, their delivery systems, and 
related materials. Participation in PSI is vital, as part of an 
interagency approach, to the reduction of WMD trafficking. The Defense 
Threat Reduction Agency, the Office of the Secretary of Defense and 
PACOM continue to synchronize a wide range of CWMD-related activities 
such as international counter proliferation with our allies and 
partners, and foreign and homeland consequence management. 
Additionally, PACOM is coordinating with the U.S. Department of Energy 
(DOE) to establish Centers of Excellence with both China and India to 
promote effective nuclear security and safeguards.
China:
    China's military has benefited from many years of double-digit 
economic growth, which has helped fund a comprehensive military 
modernization effort. China's military is an increasingly trained and 
capable fighting force focused, in part, on denying U.S. access to the 
Western Pacific during a time of crisis or conflict. There are a number 
of notable examples of China's improving military capabilities, 
including five new stealth and conventional aircraft programs and the 
initial deployment of a new anti-ship ballistic missile that we believe 
is designed to target U.S. aircraft carriers. China is producing great 
quantities of advanced aircraft, missiles, electronic warfare systems 
and other specialized military equipment, while its shipyards are 
currently building six classes of modern diesel-electric submarines, 
destroyers and frigates. These new systems augment or replace older 
platforms and are rapidly transforming the People's Liberation Army 
(PLA). China commissioned its first aircraft carrier a few months ago 
and is continuing efforts to integrate aircraft with the ship to 
achieve a nascent regional power projection capability within the next 
few years.
    Chinese military operations are also expanding in size, complexity 
and geographic location. Last summer, the PLA-Navy conducted its 
largest ever exercise outside the first island chain and into the 
Western Pacific, demonstrating increasing proficiency and sending a 
clear message to the region. Chinese maritime intelligence collection 
operations increased in 2012 as well; with historic first such missions 
into the Indian Ocean and within the U.S. exclusive economic zones off 
of Guam and Hawaii.
    Overall, China's intensive efforts to build, test, and field new 
aircraft, ships, weapons and supporting systems are of increasing 
concern to the region. Many Asian nations worry about Chinese current 
and future intentions, with many of them asking, ``As China's military 
capabilities improve, will China's intentions change?''
    Chinese naval and maritime law enforcement vessels have been active 
in recent years in trying to advance China's territorial and maritime 
claims in the South China and East China Seas. China's strong rhetoric 
about the indisputable nature of its claims, combined with active 
patrolling by civil and military ships and aircraft in the air and 
waters surrounding Scarborough Reef and the Senkakus Islands, has 
raised tensions with the Republic of the Philippines and Japan 
respectively. China has also used other economic and diplomatic tools 
to pressure those countries to accede to Chinese claims. These actions 
have resulted in U.S. partners and allies in East Asia seeking 
additional support and reassurance. I am particularly concerned that 
the activities around the Senkakus islands could lead to an accident 
and miscalculation and escalation between China and Japan. The close 
proximity of ships and aircraft from all sides of these disputes raises 
the risks of escalation. Elsewhere, in the South China Sea, periodic 
confrontations between Chinese and Vietnamese ships and Chinese efforts 
to pressure international companies to not explore for oil and gas 
raise tensions. China has consistently opposed using collaborative 
diplomatic processes--such as negotiations of a Code of Conduct or 
international arbitration--to address disputes in the South China Sea, 
instead insisting on bilateral negotiations.
    China's relationship with Taiwan remains stable following the 
reelection of President Ma Ying-jeou in Taiwan. Cross-Strait tensions 
are at historic lows because Taiwan and mainland China have 
consistently pursued increased economic integration and people-to-
people exchanges. However, the PLA continues to maintain a robust 
military buildup opposite Taiwan that contradicts Beijing's stated 
pursuit of a ``peaceful development'' of cross-Strait relations. Many 
of China's military developments appear specifically intended for use 
in a possible future conflict with Taiwan. Included in this growing 
arsenal are hundreds of short-range ballistic missiles and land-attack 
cruise missiles, high-speed patrol boats equipped with advanced anti-
ship cruise missiles, naval mines suitable for blockading Taiwan's 
ports, and various types of electronic warfare and cyber attack 
systems. Cyber activity presents a significant and growing threat to 
PACOM.
    China is rapidly improving its space and counterspace capabilities 
to advance its own interests, and presumably to challenge the United 
States' or other actor's use of space-based systems. China is expanding 
its satellite navigation, reconnaissance and communications 
capabilities through routine space launches. At the same time, we are 
concerned over extensive writings about--and apparent continued testing 
of--anti-satellite systems, including a purpose-built missile system, 
lasers and jammers.
    One military development worth specifically highlighting is the 
advances being made across the Indo-Asia-Pacific to enhance or expand 
submarine forces, including in several smaller navies as a potential 
counter to stronger neighbors. From the northernmost part of our area 
of responsibility where Russia maintains attack and strategic 
capabilities in its Pacific Fleet, to the westernmost boundary where 
India is growing its submarine force, we see an emphasis on submarines 
throughout the region. The largest and most capable non-U.S. submarine 
force in the region is clearly China's, which continues to expand and 
modernize to complement China's increasingly capable surface fleet. 
Australia, Singapore, Indonesia, Malaysia, Vietnam and the ROK are 
nations that have recently launched--or soon will launch--new, modern 
submarines. Both Russia and China are expected to soon field new 
ballistic missile submarines capable of ranging the U.S. Homeland.
Violent Extremism:
    Violence perpetrated by extremists, separatists, nationalists, and 
others of varied motivations remains a concern for PACOM and our 
partners. Improvised explosive devices (IED) are the asymmetric weapon 
of choice for many of these groups. We average over 100 IED incidents 
per month in South and Southeast Asia, the highest rate outside Central 
Command's area of responsibility. The overwhelming majority of these 
incidents are not linked to global transnational violent extremism, but 
some are. We continue to see periodic eruptions of sectarian/religious 
violence in a variety of places, to include Burma, India, Indonesia, 
the Philippines, and Thailand. There is also a strong correlation 
between criminal activities and violent extremism, which often 
manifests through extortion, kidnapping and other violent crime. 
Several countries, including Bangladesh, Indonesia, and Malaysia, are 
traditional focal points for extremist recruiting, fundraising, 
movement and other facilitation efforts. Extremists affiliated with 
Iran are active in PACOM's area of responsibility as well. Iranians 
with links to Hezbollah conducted both successful and disrupted attacks 
in India and Thailand in February 2012.
    PACOM has made significant progress in countering terror through 
building partner capabilities and through counter radicalization 
programs implemented by Civil Military Support Elements and Military 
Information Support Teams in support of U.S. Embassies. We are 
encouraged by the persistent pressure that our partners and allies have 
applied against VEOs over the last 10 years and the marked success they 
have achieved in countering extremist ideology and terror plots. 
Continued success requires a consistent long-term effort to diminish 
the drivers of violence that al Qaeda and other terrorists exploit. 
These efforts to prevent terrorist radicalization, recruitment, and 
mobilization are critical to defeating this dangerous ideology and 
reducing strategic risk; neither we nor our partners can capture/kill 
our way to victory in this fight. Continued modest preventive efforts 
today will make expensive reactionary efforts far less likely in the 
future.
    Our partners in Southeast Asia have made impressive strides in 
reducing the danger posed by violent extremists, but disrupted attack 
planning in Indonesia, the Philippines, and Thailand last year is 
testament to the remaining threat. Smaller, more fragmented groups 
continue to pursue their disparate agendas through violence and 
intimidation. Joint Special Operations Task Force-Philippines (JSOTF-P) 
continued to advise and assist Philippine Security Forces as they 
improved counterterrorism capabilities in combating the Abu Sayyaf 
Group and Jemaah Islamiyah in the southern Philippines. The improving 
security situation has supported the implementation of an initial peace 
framework agreement between the Philippine Government and the Moro 
Islamic Liberation Front. This agreement serves as a vehicle for 
ongoing negotiations to build lasting peace and improve security and 
stability in the Southern Philippines. Counterterrorism efforts, which 
have included improved information sharing and increased cooperation, 
have also had positive impacts on the related issues of piracy and 
crime. Piracy and robbery-at-sea in the Malacca and Singapore Straits 
remain low.
    Lashkar-e-Tayyiba (LeT) remains one, if not the most operationally 
capable terrorist groups through all of South Asia. LeT was responsible 
for the November 2008 attack in Mumbai, India that killed over 160 
people, including 6 Americans, and has supported or executed a number 
of other attacks in South Asia in recent years. Beyond the direct 
impact of these attacks, there is a significant danger another major 
terrorist attack could destabilize the fragile peace between India and 
Pakistan. Should the perpetrators of such an attack be linked back to 
Pakistan--as was the case in the 2008 attack--the Indian Government may 
face domestic pressure to respond and the resulting spiral of 
escalation could be rapid. For those reasons, and more importantly to 
protect innocent lives, we and our partners in the U.S. Government 
engage regularly with the Indians and Pakistanis to avert such a 
crisis.
    India's relationship with Pakistan has gradually improved in recent 
years, thanks to a series of confidence building measures, growing 
economic ties and the absence of large-scale destabilizing incidents. 
However, we remain concerned the progress could be quickly undone by a 
major terrorist attack. Both sides maintain modern, trained militaries 
underpinned by demonstrated nuclear capabilities. A major war on the 
subcontinent is not likely, but could be catastrophic to both sides, as 
well as the region. In addition, while India has seen its bilateral 
economic ties with China expand in recent years, its unresolved border 
disputes with China have remained a source of friction. We do not think 
war between India and China is inevitable or likely, but unresolved 
territorial issues and regional competition could fuel incidents.
    Elsewhere, South Asia is mostly free from direct conflict, but 
various, mostly internal, challenges remain. Despite Nepal's inability 
to resolve its many political issues, reintegration of former Maoist 
combatants into the army is now complete and the process has remained 
peaceful, with all parties and entities working within the framework of 
peace and stability. Bangladesh may struggle to contain political 
violence and turmoil as they face national elections early next year. 
Sri Lanka needs to work to move past its recent history and reconcile a 
nation divided by many years of civil war.
    Indo-Asia-Pacific nations continue cooperative efforts to reduce 
illegal trafficking in drugs, persons and commercial products, an 
endeavor significantly challenged by the enormous distances and varied 
geography of the region. Through Joint Interagency Task Force West, 
PACOM partners with international and other U.S. Government agencies in 
this effort.
    Typhoons, earthquakes, floods, tsunamis, and cyclones are all too 
common in Indo-Asia-Pacific. Increasingly severe weather patterns and 
rising sea levels threaten lives and property, and could even threaten 
the loss of entire low-lying nations. In 2012, almost 100 natural 
disasters struck Asia, causing nearly 4,000 deaths and affecting over 
65 million people. Amazingly, this was actually below the 10-year 
average of over 6,600 people killed annually by natural calamities.
    The illegal trafficking of people, animals and products poses a 
transnational threat. Counterfeit or substandard antibiotics can 
promote the introduction and spread of antibiotic resistant strains of 
diseases, such as malaria and tuberculosis. Water sanitation and global 
food security issues can to divert resources and halt the flow of goods 
and services in the event of global pandemics. Illegal trafficking in 
animals and plants has the potential to spread organisms that destroy 
crops or food chain ecosystems. As we engage with the Indo-Asia-Pacific 
nations through Cooperative Health Engagement (CHE), we will enhance 
the region's ability to deal with these and other public health risks.
    Based on PACOM's past humanitarian assistance/disaster response 
(HA/DR) experience, we have initiated changes to the planning and 
execution of health engagement in the Indo-Asia-Pacific. The focus has 
shifted from one-time provision of health care to an underserved 
population to CHEs which build sustainable, multilateral, capability, 
capacity and medical interoperability in support of the PACOM Theater 
Campaign Plan. CHEs tie directly to health security, homeland defense, 
and transnational threats. Some of our more successful efforts include 
Cambodia, Vietnam, and Laos Blood Product Safety projects. These 
interagency collaborations have built national civilian and military 
blood product capacity resulting in a national self-sustaining blood 
supply. Through the DOD HIV/AIDS prevention program (DHAPP), militaries 
of 10 Indo-Asia-Pacific countries are implementing HIV prevention 
programs to reduce the incidence of disease among uniformed 
international partners, and by extension, in the civilian communities 
in which they live. DOD overseas medical research laboratories have 
made great strides in developing countermeasures to many emerging 
diseases. The Armed Forces Research Institute of Medical Sciences in 
Bangkok, Thailand, has made important breakthroughs on the Hepatitis A 
vaccine, the Japanese Encephalitis vaccine, and the first HIV vaccine 
to show efficacy in human trials. All of these engagements serve to 
build health security in the Indo-Asia-Pacific region and contribute to 
a more stable global health environment.
Resource Competition:
    Demand for water, food, and energy will only grow. Friction caused 
by water availability and use is evident between India and Pakistan, 
between India and Bangladesh, between countries in the Lower Mekong 
regions of Southeast Asia, between China and Southeast Asia, and even 
internally in China between the northern and southern regions of the 
industrialized east. Much of the Indo-Asia-Pacific is unable to 
adequately provide for their own food requirements, highlighting the 
need for stable, plentiful supplies available through international 
commerce. The same is true for energy supplies. Disruption to these 
supplies or unexpected price increases will quickly strain many 
governments' ability to ensure their population's needs are met.
Intelligence Support to Operations:
    The challenges I've addressed all place a significant strain on our 
theater and national intelligence organizations. Still, these 
challenges, which necessitated our national strategy to rebalance to 
the Indo-Asia-Pacific, must be met head on by our military leadership 
and the Intelligence Community (IC). There are several key enablers 
that I believe will assist in this task. Key among these is the 
continuing requirement for making ``all sensed data'' available to our 
analysts so that it can be quickly absorbed into our decision cycle and 
visualized in a way that assists our understanding of complex issues. 
As we reset the Intelligence, Surveillance, and Reconnaissance (ISR) 
force in the drawdown from Afghanistan and reprioritize our overhead 
sensors, we must ensure that those ISR sensors and accompanying 
processing, exploitation, and dissemination (PED) architectures and 
personnel that help us understand our unique operating environment are 
optimally positioned and outfitted to achieve this mission. Most 
importantly, I need to have effective command and control over ISR 
architecture in real-time through all phases of operations. We are 
making steady progress in all of these areas. Improving processes to 
rapidly share information with allies and partners creates a common 
understanding within the region and results in more effective and 
robust relationships. Maturing concepts for cloud architectures and 
initiatives to enhance access to those clouds have great promise to 
unleash knowledge from derived data in ways that we have not yet 
experienced. Significant advances in intelligence mission management 
are helping address my need for effective command and control, 
optimization and visualization of ISR. Still, we have much work to do 
to fully realize the potential advantage of a penetrating understanding 
of our key threats.

                    THE INDO-ASIA-PACIFIC REBALANCE

    The Rebalance to the Asia-Pacific Strategy reflects the recognition 
that the future prosperity of the United States will be defined largely 
by events and developments in the Indo-Asia-Pacific.
    While the Indo-Asia-Pacific region today is at relative peace, we 
remain concerned as we see stress points in territorial disputes and 
the threat that North Korea presents to the peace and security of the 
region. However, the credible and persistent commitment of the United 
States to the region through robust presence and partnerships has, and 
will continue to provide, an enduring, prosperous, and stable security 
environment for the region.
    Fundamental to the rebalance is that PACOM actions align and 
synchronize with the diplomacy, policy, and economic confidence 
building measures of our U.S. Government partners. These coordinated 
efforts demonstrate an enduring resolve to show commitment to the Indo-
Asia-Pacific across all facets of engagement. PACOM remains focused as 
the military component of this commitment, and we will continue to plan 
and conduct operations, actions, and activities that support this 
holistic governmental approach in building upon the peace and 
prosperity of the region.
    The posturing and forward presence of our military forces is key to 
PACOM's ability to rapidly respond to any crisis or disaster. Due to 
the vast distances involved in our area of responsibility, it is 
imperative we continue to receive the support provided by our partners 
in the Services and through Congress to maintain the readiness of our 
forward deployed forces. PACOM manages the rebalance along four lines 
of operations that form the bedrock of our strategy. Those four lines 
of operations are: (1) strengthening alliances and partnerships; (2) 
improving posture and presence; (3) developing capabilities and 
concepts; and (4) planning for operations and contingencies.
Strengthening Alliances and Partnerships:
    At the core of the rebalance, is an effort to renew, modernize and 
strengthen our alliances and partnerships in support of shared security 
interests. We are ensuring our alliances are adaptive so they can meet 
the challenges of the current security environment while capitalizing 
on emerging opportunities. Similarly, we are exploring innovative ways 
to expand cooperation through more effective strategic partnerships in 
order to address the complex problems presented by nontraditional 
security challenges. PACOM is working closely with the five U.S. treaty 
allies in our AOR, Australia, Japan, the Philippines, South Korea, and 
Thailand, as well as key partners, including India, Indonesia and 
Singapore.
    Australia:
    The U.S.-Australian alliance is an anchor of peace and stability in 
the Indo-Asia-Pacific, and promotes economic development and 
integration, good governance, and the rule of law. PACOM coordinates 
closely with our Australian partners to promote security in the region. 
This past fall in Sydney, we co-hosted PACOM's Pacific Chiefs of 
Defense annual conference, where 22 of 26 Chiefs of Defense attended. 
We engaged in a weeklong series of briefings and discussions on 
security cooperation. In addition, the Australian Chief of Defense and 
I attended the Australia-U.S. Ministerial (AUSMIN) Consultations in 
Perth in November where we jointly briefed on our robust military-to-
military engagements.
    We are continuing to implement the force posture initiatives 
announced by President Obama and Prime Minister Gillard in November 
2011, which include U.S. marines who will rotate through Darwin to 
participate in bilateral training. In addition, access by U.S. aircraft 
to airfields in Northern Australia, which will provide significant 
training opportunities. The first rotational deployment of 
approximately 250 U.S. marines in Darwin was successful, and planning 
continues for the second rotation scheduled to begin in April 2013. We 
are working together to increase the USMC rotational presence in Darwin 
to approximately 1,100. This increase will require infrastructure 
improvements and we are currently in the process of identifying the 
details of those requirements. We are also working through the 
protocols and lift required to deploy these personnel in the event of a 
natural disaster as we did during the 2004 Indian Ocean tsunami. I am 
confident that our efforts will bear fruit, and we will continue to 
posture in a manner that supports our strategic objectives.
    We also continue to seek better opportunities to advance bilateral 
and multilateral operations. For example, our biennial Exercise 
Talisman Saber 2013 is a combined U.S.-Australian exercise designed to 
train our respective military forces in planning and conducting 
Combined Task Force operations. We are further analyzing the benefits 
of expanding Talisman Saber to include other security partners.
    We are also realizing increased value in the expansion of regional 
trilateral security cooperation engagements. The close relationship 
between Australia and the United States facilitates the inclusion of 
other countries to our combined security cooperation efforts, such as 
with Japan. This allows us to move forward together and support 
multilateral security exercises and activities with multiple nations 
focusing on Proliferation Security Initiative exercises, HA/DR 
operations, information sharing, intelligence, surveillance, and cyber 
security cooperation.
    Japan:
    The U.S.-Japan Alliance, supported by a robust U.S. military 
presence in Japan, continues to provide the deterrence and capabilities 
necessary for the defense of Japan and for the maintenance of peace, 
security, and economic prosperity in the Indo-Asia-Pacific. Over the 
last year, the Office of the Secretary of Defense and PACOM have worked 
with our Japanese counterparts to realize adjustments in the U.S. force 
posture in the Indo-Asia-Pacific. Significant achievements with 
realignment initiatives include: progress in the environmental impact 
assessment process for the Futenma Replacement Facility; the expansion 
of aviation training relocation programs to Guam; the relocation of the 
Japan Air Self Defense Force (JASDF) Air Defense Command to Yokota Air 
Base; and progress in the relocation of the Japan Ground Self Defense 
Force (JGSDF) Central Readiness Force Headquarters to Camp Zama.
    These movements do not alter the fundamental goals of the 
Realignment Roadmap, which are to maintain deterrence and mitigate the 
impact of U.S. forces on local communities. In fact, the adjustments 
improve interoperability between U.S. forces and the Japan Self Defense 
Forces (JSDF) thereby strengthening the overall deterrent capability of 
the U.S.-Japan Alliance. Bilateral exercises, such as Keen Edge 2012 
and Keen Sword 2013, do the same and continue to expand earlier set 
precedents for expanded U.S.-Japan operations. Likewise, the deployment 
of Marine Corps MV-22s to Okinawa replaces outdated equipment and 
brings enhanced capabilities to our forward deployed Marine forces.
    In concert with the Joint Staff and the Office of the Secretary of 
Defense, we have begun to evaluate alliance roles, missions, and 
capabilities in order to fortify the alliance for the evolving 
challenges of the regional and global security environment. The United 
States and Japan continue to share common security interests such as 
containing the threats presented by the North Korea, providing 
humanitarian assistance and disaster relief (HA/DR), and supporting 
freedom of action in shared domains. In addition, we are cooperating to 
help allies and partners in the region build security capacity through 
training and exercises. These efforts will contribute to continued 
peace and stability in the region.
    Philippines:
    Our 62-year-old alliance with the Philippines remains key to our 
efforts to ensure the stability and prosperity of the Western Pacific, 
and we are modernizing the relationship to meet the challenges of the 
21st century. High-level engagements including Secretary Clinton's 
visit to Manila in November 2011, when she signed the ``Manila 
Declaration,'' the first ``Two-Plus-Two'' Ministerial Consultations 
hosted by Secretaries Clinton and Panetta in April 2012, and President 
Aquino's official visit in June 2012, have reinvigorated the U.S.-
Philippines relationship. We are seeing a renewed interest to redefine 
our relationship with capability and capacity building beyond the CT 
effort; increased rotational access; and more sharing of situational 
awareness in the maritime domain.
    We remain committed to our alliance with the Philippines as defined 
in the 1951 Mutual Defense Treaty. This past December, we co-chaired 
the annual Mutual Defense Board/Security Engagement Board in Manila, 
which remains the focal point of our expanding military relationship. 
As the Armed Forces of the Philippines (AFP) continue to transition 
from internal security operations to territorial defense, we will make 
adjustments to the military-to-military relationship in order to 
effectively mitigate perceived threats. We are currently discussing 
opportunities to increase rotational presence of U.S. forces in jointly 
identified priority areas to allow new training for Philippine and U.S. 
forces.
    We use training opportunities to address short-term AFP capability 
gaps while helping them build long-term capability and capacity. 
Additionally, our security assistance is primarily focused on 
supporting the AFP maritime domain awareness and maritime security 
capabilities, but also includes information technology and cyber 
security. This past May, we transferred a second Hamilton-Class Coast 
Guard Cutter (Ramon Alcaraz) to the Philippines, and we continue to 
partner with the AFP to affect the necessary maintenance and training.
    Operationally, PACOM engages the Philippines through the Joint 
Staff-sponsored exercise Balikatan and periodic Pacific Partnership 
missions that focus on humanitarian/civic assistance and civil military 
engagement as well as numerous Service component-led exercises. In 
addition, for the past decade, JSOTF-P has operated in a non-combat 
advisory and assist role in support of the AFP to combat and contain 
violent extremist organizations. We are currently assessing JSOTF-P's 
enduring requirements to align with the current security situation. A 
strong U.S.-Philippines alliance greatly enhances regional stability 
and helps the United States guarantee an environment that will help 
prevent miscalculation, promote regional cooperation, and protect vital 
Sea Lanes of Communication for all parties.
    Republic of Korea (ROK):
    2013 marks the 60th year of the U.S.-ROK alliance, which remains 
strong and essential to the success of our strategy. For over 6 
decades, the United States and the ROK have collectively worked to 
provide peace and stability in Northeast Asia by deterring a North 
Korean regime committed to periodic provocations and overt threats to 
peace and stability on the peninsula and in the region. A major 
conflict in Korea could have unpredictable, long term, and far reaching 
impacts due to the central location of the Korean peninsula in 
Northeast Asia and the vital importance of Northeast Asian trade to the 
global economy. We have limited understanding of North Korean 
leadership intent, which remains a concern to long-term stability.
    General Thurman and I are aligned in our efforts to do what is 
necessary for the United States and the ROK as this alliance undergoes 
transformation, a change that will ultimately assist the ROK to better 
meet security challenges both on and off the peninsula. Part of that 
transformation is the transition of operational control to the ROK 
military, which will allow it to take the lead role in the combined 
defense of Korea. Transition of operational control in 2015 is 
conditions-based and certification of key capabilities must be 
accomplished. The U.S.-ROK exercise program--which includes Key Resolve 
and Ulchi Freedom Guardian--is a key mechanism to certify that critical 
capabilities, such as C4I and command and control of combined and joint 
forces, are achieved. As we proceed through the transition process, 
USFK will seamlessly transform into U.S. Korea Command and will remain 
capable of executing future plans.
    To address the growing threat posed by North Korean missile 
capabilities, the United States and ROK have been conducting close 
consultations through the Alliance Counter-Missile Capabilities 
Committee. Last fall, these discussions resulted in the adoption of a 
comprehensive Alliance counter missile strategy. ROK capability 
improvements under this strategy include the development of new ROK 
ballistic missiles that increase ranges from 300 kilometers (km) up to 
800 km, strengthened missile defenses, improvements to command, control 
and communications, as well as enhanced ISR capabilities. All of this 
is to better achieve a fully-integrated and operational missile defense 
umbrella. As part of enabling these improvements, the Missile 
Guidelines governing ROK missile and unmanned aerial vehicle ranges and 
payloads were revised. These improvements in ROK capabilities are a 
smart and proportionate response to the growing North Korean missile 
threat.
    Trilateral security cooperation between the United States, the ROK, 
and Japan has been evolving, although political and historical context 
moderates the pace at which it develops. The shared values, financial 
resources, logistical capability, and planning capacity to address 
complex contingencies make this trilateral partnership a relationship 
worth pursuing. PACOM and our counterparts within Japanese and the ROK 
military staffs will continue to find ways to enhance trilateral 
cooperation with diplomatic assistance. During the April 2012 and 
December 2012 DPRK missile tests, PACOM coordinated closely with both 
our ROK and Japanese counterparts throughout the launches. We conducted 
a trilateral naval exercise in the Yellow Sea in June 2012 improving 
our naval forces' tactical interoperability in ballistic missile 
defense. U.S., ROK, and Japan officials issued a trilateral statement 
at the Defense Trilateral Talks in early 2013 stressing that we will 
closely coordinate to monitor a potential North Korean nuclear test and 
to respond to ballistic missile threats.
    Thailand:
    As the treaty relationship between the United States and Thailand 
enters its 180th year, our relations remain strong, vibrant, and 
essential. Thailand has demonstrated a willingness and capability to 
act as a regional leader in a number of areas, including HA/DR efforts. 
Thailand has also been a partner supporting reform in Burma, and 
invited representatives from Burma, as observers, to exercise Cobra 
Gold 13, which is the United States' largest co-hosted multilateral 
exercise in the world. Thailand is a demonstrated partner in 
counterterrorism and is the United States' oldest partner in the 
region.
    Thailand will be increasingly important in collective security, 
peace, and prosperity in the region. PACOM remains committed to helping 
the Thai military further develop its already impressive capabilities 
so that it can assume even greater security responsibilities in the 
Indo-Asia-Pacific, particularly in counter-piracy and maritime 
security, humanitarian assistance and disaster relief, and peacekeeping 
operations.
    India:
    The U.S.-India relationship is the strongest it has been since 
India gained its independence in 1947. A strengthened U.S.-India 
strategic partnership is imperative to achieve U.S. national interests 
including ensuring regional security, strengthening the international 
trading system, protecting shared domains, countering terrorism, and 
bolstering international nonproliferation. We remain India's most 
frequent partner for security engagements. Our defense relationship is 
built around a robust program of dialogues and engagements, military 
exercises, personnel exchanges, and defense trade, which has grown from 
$0 to $9 billion in less than a decade. The Indians now operate a fleet 
of 6 C-130J cargo aircraft; they have taken delivery of their first of 
8 P-8I Poseidon maritime patrol aircraft and their first of 10 C-17 
Strategic Airlifters.
    Our relationship with India has room to grow, and we are optimistic 
and enthusiastic about its potential. India's legacy of non-alignment 
and commitment to a policy of ``strategic autonomy'' is often viewed as 
limiting the relationship. However, our shared values and commitment to 
democratic principles inevitably place us on parallel, if independent 
paths. Several of these parallel interests include cooperating in 
multilateral forums which address counterterrorism and maritime 
security, including anti-piracy and HA/DR issues. We support India's 
increased desire for regional leadership.
    While U.S.-Indian relations remain on an upward trajectory, we 
recognize there are impediments that must be overcome in the 
relationship. Process issues in the Indian bureaucracy and Indian 
concerns about U.S.-Pakistan relations are examples of challenges to 
achieving the strategic partnership we seek. Deputy Secretary of 
Defense Carter's India Defense Trade Initiative, however, has great 
potential to overcome much of the inertia and institutional red tape 
that has hampered our ability to expand cooperation. Even though 
progress is incremental, PACOM continues to reinforce our desire for, 
and commitment to an expanded relationship that promotes a secure and 
stable South Asia.
    Indonesia:
    Since President Yudhoyono signed a comprehensive partnership 
between Indonesia and the United States in 2010, progress has been made 
in military relations. Following a decade of political, economic, and 
military reform, Indonesia has surfaced as a vibrant democracy, with an 
emerging economy and a strengthened PACOM--Armed Forces of Indonesia 
(TNI) relationship. We are working extensively with Indonesia in areas 
such as resilience and disaster risk reduction, counter terrorism, and, 
most recently, Indonesia and the United States were designated co-
chairs of the Asia Pacific Intelligence Chiefs Conference. As co-chairs 
with Indonesia since 2011, we are now preparing to conduct the 
inaugural Counterterrorism Exercise (CTX) of the Association of 
Southeast Asian Nations (ASEAN) Defense Ministers' Meeting-Plus (ADMM-
Plus) Experts Working Group (EWG) on Counterterrorism in 2013.
    Following a 12-year hiatus, PACOM has reestablished security 
cooperation activities with the Indonesian KOPASSUS (Army Special 
Forces). The measured pace of this engagement includes key leader 
dialogue and small-scale subject matter expert exchanges in areas such 
as military decisionmaking, medical planning and law of war/human 
rights. More activities of this type are planned for 2013 and will 
gradually expand at a pace commensurate with the demonstrated progress 
in the TNI's transparency and institutional reform. Broadly speaking, 
we cannot afford to disengage just as we establish key partnerships in 
the Pacific.
    Defense trade is also increasing as Indonesia grows its military 
budget. The United States is providing Foreign Military Financing and 
is in conversation with Indonesia on purchases of military equipment 
such as attack helicopters, fighters, and radar systems. The 
comprehensive partnership between Indonesia and the United States is 
strengthening ties between the two countries as well as bolstering our 
engagement with Southeast Asia and the region as a whole. The progress 
in this security relationship is very promising for both countries.
    Singapore:
    Our bilateral relationship with Singapore is extensive and 
continues to strengthen and broaden. Singapore armed forces comprise a 
small, but capable military, and the access to port and airfield 
facilities they grant the United States is key to our posture in the 
Asia Pacific. Their main focus continues to be security within the 
Strait of Malacca and Singapore Strait and they cooperate with 
Indonesia, Malaysia and Thailand in conducting security patrols within 
the Straits against piracy and other illicit activities.
    Singapore's armed forces are also conducting counter-piracy 
missions in the Gulf of Aden. Both of our militaries are seeking to 
increase engagement across all PACOM Service components. Singapore's 
offer to host U.S. Littoral Combat Ships (LCS) at Changi Naval Station, 
the first scheduled to arrive in April 2013, will also significantly 
enhance PACOM's posture.
Engaging with Other Partners:
    New Zealand:
    In addition, PACOM has been working hard to promote our security 
relationships with our partners in the region. For example, U.S.-New 
Zealand bilateral ties are stronger than it has been in 3 decades. We 
have made historic improvements in our relationship as we advance 
diplomatic, economic, and security cooperation. The growth between our 
countries is exemplified by regularized strategic and defense 
consultations, joint efforts to protect Antarctica's maritime 
ecosystem, and strategic dialogues on the Pacific Islands. The 
Washington Declaration, signed by Secretary Panetta and Defense 
Minister Coleman in June 2012, has allowed for greater flexibility in 
terms of joint exercises, military liaisons, and military educational 
exchanges. In 2012, Secretary Panetta announced a significant policy 
change, modifying restrictions on U.S. military relations with New 
Zealand by allowing the Secretary of Defense to waive, on a case-by-
case basis, the restriction on access by Royal New Zealand Naval 
vessels to U.S. military and Coast Guard facilities.
    China:
    The U.S.-China relationship has elements of cooperation and 
competition. The overall U.S. policy goal is to expand the areas of 
practical cooperation in addressing shared economic and security 
challenges, while preventing unhealthy and disruptive competition from 
undermining the relationship. In January 2011, President Obama and 
Chinese President Hu Jintao agreed to ``build a cooperative 
partnership'' that included a commitment to develop ``continuous, 
stable, and reliable military-to-military relations.'' More recently, 
in 2012, President Obama and President Hu Jintao agreed to explore 
``building a new model of major power relations'' in recognition of the 
fact that rivalry and conflict does not need to be inevitable between a 
rising power and an established power. Both Washington and Beijing are 
working towards these goals, as evidenced by the more than 60 formal 
dialogues a year including the Strategic and Economic Dialogue, which 
PACOM attended at the invitation of Secretary Clinton last year. Both 
nations recognize the importance of our bilateral relationship not only 
to the Indo-Asia-Pacific region, but also to the world, which explains 
in part why, in spite of many disagreements, the United States and 
China stress the importance of stability in the overall bilateral 
relationship.
    For the first time in 4 years, the Commander of PACOM participated 
in a military-to-military engagement with China in country. To mature 
the partnership, I visited China twice in my first 6 months as a 
commander and hosted reciprocal visits at my headquarters.
    The importance of stability presents opportunities in our bilateral 
military-to-military relationship. China's participation in regional 
multilateral and bilateral security dialogues, consultations and 
mechanisms has grown commensurate with its rising economic and military 
clout, and has provided greater potential for cooperative engagement 
with the United States and the region. Through those multilateral and 
bilateral activities, the United States is working with the Chinese to 
build a relationship that seeks to address regional security issues 
based on enhanced trust and convergent interests. Nontraditional 
missions such as HA/DR, counter-piracy, peacekeeping, and military 
medicine offer potential for growth. The Chinese received our 
invitation to attend the Rim of the Pacific (RIMPAC) Exercise in 2014 
very positively, and it appears both sides view U.S. outreach and 
Chinese attendance as an important step in fostering greater trust and 
openness in the bilateral military-to-military relationship.
    The seventh U.S.-China Defense Policy Coordination Talks in October 
2012 featured substantive discussions on U.S.-China relations including 
maritime security and safety, as well as regional and global security 
issues. In early December, PACOM hosted a delegation of PLAN officers 
led by VADM Zhang Yongyi, Vice Chief of the PLAN. Discussions during 
the roundtable focused on PACOM's mission in the region and PACOM's 
thoughts on the U.S. Government's perspective on recent territorial and 
maritime disputes in the East China Sea and South China Sea. During the 
13th U.S.-China Defense Consultative Talks in early December, both 
delegations reaffirmed the importance of a healthy, stable and reliable 
military-to-military relationship. We achieved a broad consensus on a 
number of areas of common concern and candidly discussed areas of 
disagreement. The U.S.-PRC 2013 Military-to-Military Planning 
Conference in Beijing expanded on these talks. Both sides agreed to a 
bilateral plan consisting of over 40 events, the largest number since 
China suspended military-to-military engagements in 2010.
    Our bilateral military dialogues with China provide us with 
important opportunities to discuss our respective concerns as well as 
to explore areas of future cooperation. The Chinese characterize our 
rebalance as militarily heavy, aimed at containing them, and that it 
has ``emboldened'' regional actors such as the Philippines and Japan 
against them, generating regional instability. However, Beijing also 
questions the sustainability of the rebalance, pointing to 
sequestration and other looming fiscal issues.
    A continuing point of friction between the United States and China 
and a key part of bilateral discussions involves Chinese efforts to 
impede our lawful military activities in international air and maritime 
areas. While we do not believe China seeks a repeat of the 2001 EP-3 
incident, we still see instances where Chinese forces conduct unsafe or 
unprofessional maneuvers in proximity to legally operating U.S. forces.
    Despite our many differences with the Chinese, we have areas of 
common interest, and both sides agree that 2012 was an especially 
positive and productive year for military-to-military relations. We 
furthered the relationship in line with DOD's long-term objectives of 
increasing cooperative capacity, fostering institutional knowledge and 
building a common picture of the security environment. The PLA became 
more amenable to conducting more complex engagements, and committed to 
events beyond the normal 1-year timeframe. PACOM will continue to 
develop this relationship focusing on our converging interests in 
counter-piracy, counterterrorism, protecting sea lanes, and 
humanitarian assistance and disaster relief.
    Multilateral Relationships and Institutions:
    While the United States is committed to strengthening bilateral 
alliances and partnerships, we also recognize the critical role 
multilateral relationships and institutions will play in enhancing 
regional security. Common challenges like natural disasters that strike 
with little warning require unified efforts to respond rapidly and 
effectively. Institutions such as ASEAN can serve as an organizing 
force to harness such efforts but can likewise serve as a unifying body 
in establishing principles that support responsible behavior by 
regional actors.
    PACOM, working with the State Department and the Office of the 
Secretary of Defense, has supported U.S. engagement with ASEAN. I 
recently met with the newly-inaugurated ASEAN Secretary General and was 
encouraged by his desire to continue the progress made by his 
predecessor in addressing security-related matters in Southeast Asia. 
We are also participating in two major ASEAN Humanitarian and Disaster 
Response field training exercises in May and June 2013 reinforcing 
multilateral civ-mil and mil-mil cooperation as the ASEAN Humanitarian 
Assistance (AHA) Center comes online.
    Engagement Tools:
    Foreign Military Financing (FMF) and International Military 
Education and Training (IMET) are two of the top security cooperation 
engagement tools available to PACOM. With minimal continued increases 
to meet our requirements, we can truly address a broad range of 
challenges from border security issues, HA/DR, counterterrorism, and 
military-to-military engagement. PACOM countries receive between 0.1 
percent-0.15 percent of the worldwide FMF. Specific PACOM 
considerations in making FMF budget recommendations include: Commander 
and Theater Campaign Plan priorities, coalition partner contributions 
or country priorities, and U.S. access objectives. The Philippines and 
Indonesia were the top beneficiaries of PACOM FMF aid in fiscal year 
2012. IMET is a low cost, high impact program that has a longstanding 
track record of establishing valuable relationships with senior 
officers and leaders from critical partner nations.
    Programs such as these contribute resources which PACOM can 
synchronize with other efforts to build right-sized capacity at the 
right time, ultimately strengthening our relationships, building 
interoperability, and maintaining our leadership role in the region. 
The sustained engagements these programs provide also help regional 
nations appreciate the value of maintaining an active U.S. presence.
Improving Posture and Presence:
    The United States requires a more geographically distributed, 
operationally resilient and politically sustainable posture that allows 
persistent presence and, if needed, power projection. As many of you 
who have frequently visited Asia know, the tyranny of distance imposed 
by the size of both the Pacific and Indian Oceans and intervening 
landmasses requires the United States to operate forward in order to 
achieve rapid response. This rapid response hinges on flexibility and 
forward positioning of both permanent and rotational military forces 
and is essential in enabling us to influence the onset and unfolding of 
crises, prevail in conflict, and provide aid in the aftermath of 
disasters.
    Some of the most visible results of the rebalance can be seen in 
the ground forces now returning to theater. After a dozen years 
supporting wars in the Middle East, PACOM's permanently-assigned forces 
are resetting to focus on the Indo-Asia-Pacific. Recently, the Army 
removed I Corps and the 25th Infantry Division from worldwide service 
rotation, permanently assigning them to PACOM and, at my request, 
subsequently elevated Commander, U.S. Army Pacific to a four star 
position. Likewise, the Marine Corps removed the III Marine 
Expeditionary Force from its worldwide service rotations, allowing them 
to once again concentrate on Pacific theater missions.
    A large component of PACOM's permanent posture adjustment is the 
Defense Policy Review Initiative (DPRI), which is a product of an 
extensive force posture and footprint review conducted by PACOM and 
approved by the Secretaries of Defense and State in 2005. DPRI also 
remains a key transformational goal of the U.S.-Japan Alliance, and we 
are supportive of its implementation. A major element of DPRI is the 
significant reduction of Marine forces on Okinawa and relocation of 
approximately 8,000 marines to Guam and Hawaii. The resulting end state 
is a transition from a heavily-concentrated Marine force in Northeast 
Asia region to four Marine Air Ground Task Forces geographically 
distributed across the Pacific providing a more flexible and balanced 
capability throughout the entire Western Pacific. The implementation is 
in progress with the Environmental Impact Statement under development 
in Guam and land-use alternatives being studied to support a future 
Environmental Impact Statement in Hawaii. While we intend to leverage 
the use of existing infrastructure to the maximum extent possible, 
resource investments will be needed to support this realignment. Those 
investment decisions, as well as the timeline for making personnel 
movement decisions, will be informed by the impact studies that are 
underway now. It should be noted that the Government of Japan has also 
committed to providing $3.1 billion to support the strategic 
realignment. It is recommended that a focused approach be adopted for 
the identification of required resources so that the strategic benefits 
of a balanced forward force presence across the entire Western Pacific 
can be realized as soon as is feasible.
    Additional DPRI initiatives include the relocation of part of the 
Navy's air wing in Japan from Naval Air Facility Atsugi to Marine Corps 
Air Station Iwakuni as a result of encroachment issues. In large 
measure, DPRI remains on track due to the contributions provided by the 
Government of Japan (GOJ). In December 2012, the GOJ submitted the 
environmental impact statement for the Henoko-based Futenma Replacement 
Facility to the Okinawa Prefectural Government, moving the process one 
step closer towards completion. Meanwhile, U.S. forces will continue to 
operate from the existing facility at Marine Corps Air Station Futenma.
    As previously mentioned, changes in rotational forces are already 
underway. These include the rotational presence of marines in Darwin, 
Australia, and the upcoming rotational presence of Littoral Combat 
Ships at Changi, Singapore. Further, PACOM is able to enhance the 
persistence of our rotational and forward deployed force presence 
through various operations such as those conducted in support of 
freedom of navigation, humanitarian missions, and civic assistance, to 
name a few. Pacific Air Force's Operation Pacific Angel and Pacific 
Fleet's Pacific Partnership are two examples that bring joint, combined 
and nongovernmental organizations together to deliver cooperative 
health engagements, engineering civic action programs and subject 
matter expert exchanges to many nations, specifically in areas like 
Oceania, Sri Lanka, and Laos--opening doors that would otherwise be 
closed to a U.S. military presence.
    In addition to operations, exercises serve as a valuable means of 
augmenting presence in and around the region while simultaneously 
providing opportunities for robust and meaningful engagement. The PACOM 
exercise program is key to maintaining a credible defense posture, 
strengthening relationships with our allies, expanding our partner 
networks, and preparing to accomplish the full range of military 
contingencies. Congressional support for the Combatant Command Exercise 
Engagement and Training Transformation (CE2T2) program, therefore, is 
critical. CE2T2 directly impacts our ability to conduct joint training 
exercises and theater security engagement events in the Pacific region. 
PACOM's portion of this essential program is comprised of 18 major 
exercises and involves joint military forces, interagency activities, 
and 30 of our 36 partner nations. In support of the rebalance, the 
number of major exercises conducted will expand to include events with 
Malaysia, regional Proliferation Security Initiative (PSI) partners, 
and ASEAN.
    The exercise program also provides important venues for joint 
experimentation to accelerate the development and fielding of new and 
maturing concepts, technologies, and procedures ahead of potential 
adversaries. This is essential to the development and application of 
innovative capabilities and concepts that comprise the third component 
of PACOM's rebalance efforts.
Developing Capabilities and Concepts:
    Today's regional threats and potential contingencies necessitate 
PACOM be equipped with America's most advanced ships, aircraft, 
intelligence collection, logistics, and missile defense capabilities, 
thereby placing our finest forces forward. In order to outpace the 
rapidly evolving challenges of tomorrow, however, PACOM requires 
further investments in hardware, systems, and innovation. For example, 
the Indo-Asia-Pacific's unique challenges in terms of distance and 
threat require development of capabilities related to lift; long-range 
strike; ISR; sub-surface capabilities; and missile defense. We are also 
working with the Deputy Secretary of Defense's Deputy's Management 
Action Group (DMAG Asia Pacific) to determine the optimal mix of 
capabilities, given competing requirements.
    PACOM is further working to improve cyber capability, capacity, and 
security through our recently activated Joint Cyber Center-Pacific. We 
believe the Joint Cyber Center is critical for synchronizing cyber 
operations with the other operational domains. In order to improve 
cyber operations with allies and partners, PACOM continues to advocate 
for implementation of a Joint Information Environment (JIE) that 
addresses coalition networks as an organic element of the design. As a 
result of our cyber planning, exercise, and engagement efforts, the 
United States has emerged as the partner of choice in the Pacific for 
collaboration in the cyber domain.
    We must continue to progress in strengthening the collective cyber 
security capabilities of the United States and its allies and partners. 
Our bilateral and multilateral communications interoperability programs 
have improved the management of electromagnetic spectrum, tactical data 
link capabilities, communications security, and satellite management in 
the multilateral environment. We are working to meet increasing demand 
for cyber and information assurance partnerships, including requests 
from all nations with whom we have bilateral communications agreements 
as well as those from emerging partner nations.
    Resilient cyber and space capabilities are critical to PACOM's 
ability to maintain communications, situational awareness, and command 
and control of forward deployed forces and coalition partners. PACOM is 
working with allies and partners to strengthen collective cyber 
security and those efforts have the collateral benefit of strengthening 
relationships as they build capacity. Still, a more defensible and 
secure cyber architecture specifically designed for joint and coalition 
mission partners as well as cyber defensibility is necessary to ensure 
our ability to communicate securely, share information, and conduct 
operations. Space assets also remain vulnerable to terrestrial and on-
orbit threats. For example, China possesses a mature anti-satellite 
(ASAT) research and development program. Expanding PACOM's organic 
satellite communications capacity will help mitigate this threat.
    Because PACOM recognizes the resource constraints the United States 
faces, we also endorse and participate in the development of concepts 
that augment the efficacy of our capabilities. These include 
warfighting approaches such as the Joint Operational Access Concept, 
Air-Sea Battle, and efforts to deepen ally and partner capacity to 
prevent, respond to, and rebound from crisis.
    PACOM further supports concepts that allow for creative and 
innovative funding mechanisms in order to accomplish our mission. The 
Global Security Contingency Fund (GSCF) is one such tool. Its broad-
based authority has the potential to allow improved interagency 
security cooperation in support of U.S. Government strategic 
objectives.
    Moving forward, to better deter and defeat aggression, PACOM is 
taking steps to improve in-theater critical munitions stockpiles. In 
the past year, U.S. Army Pacific and U.S. Forces Korea have seen 
tangible benefits from the rebalance, improving their ability to meet 
future requirements through enhanced prepositioned stocks. PACOM is 
working with the Office of the Secretary of Defense and the Joint Staff 
through the Munitions Requirement Process to ensure adequate resourcing 
of munitions, as well as other logistics enablers, such as the pier 
facilities at Military Ocean Terminal Concord, a next generation 
Offshore Petroleum Discharge System, our inland petroleum discharge 
system capability, and completion of required MILCON projects in 
support of our theater petroleum plan.
Planning for Operations and Contingencies:
    The final aspect to PACOM's rebalance efforts is the planning we 
conduct for operations and contingencies. Just as innovative concepts 
allow us to maximize our resources, so too, does creative planning. An 
example of this is our approach to the PACOM Theater Campaign Plan 
(TCP). The TCP operationalizes our theater strategy and puts words into 
execution. Although the TCP has traditionally been used to generally 
guide command efforts for a 5-year period, planning has begun too late 
for our Service components to execute with anything but resources on 
hand. PACOM has now extended the TCP's time horizon by producing a 
Theater Campaign Order that defines component taskings for the current 
fiscal year. Planning for the next fiscal year occurs in conjunction 
with TCP planning for the next 5 year period, far enough out to allow 
our Service components time to influence their parent Service budgets.
    Another example of a new approach to planning is our Theater 
Security Cooperation Plan. Developing mutually supported objectives and 
goals with our allies and partners is critical, and aligning a 
solidified U.S. position is crucial to building capability in the 
region. To support this effort we have developed Country Security 
Cooperation Plans to support the Theater Campaign Plan. These lay the 
foundation for our bilateral and multilateral engagements and allow us 
to be smarter in the application of our resources.
    Additionally we have reassessed the efficacy of our theater-wide 
command and control efforts and have made the adjustments necessary to 
better respond to the dynamic security environment we find ourselves 
in.

        REPERCUSSIONS OF SEQUESTRATION AND CONTINUING RESOLUTION

    During the past decade the U.S. joint force has been heavily tasked 
in other AORs. As a consequence, the PACOM AOR, in many areas has 
assumed additional risk. Examples of areas of particular concern are 
ISR assets, regional and homeland ballistic missile defense 
capabilities, carrier strike group availability, undersea warfare 
capabilities, munitions availability and theater lift. The rebalance 
has given us a new opportunity to begin to solve this and to re-
emphasize to our allies and partners that we are a committed Pacific 
nation. However, the impact of sequestration and shortfalls in 
operating accounts under the continuing appropriations resolution may 
begin to undermine our strategic rebalance initiatives, exasperate 
existing resource challenges, and result in increased risk.
    Due to Service funding reductions, PACOM component training tempo 
will be drastically reduced; rotational forces in theater will be 
reduced, all leading to decreased ability to accomplish assigned 
missions, respond to crises, and support theater engagement objectives. 
These funding cuts will challenge our ability to execute both discreet 
operations and the broader Indo-Asia-Pacific rebalance strategy.
    The net effect of sequestration will be a negative impact in the 
Indo-Asia-Pacific at a critical time as we look to stabilize our 
forward presence and increase engagement with our treaty allies and 
partners. Given the size of the PACOM AOR, Service contributions, 
especially lift capabilities that the Air Force and Navy provide, are 
crucial to engagement with Indo-Asia-Pacific countries.
    Facilities maintenance is critical to sustaining essential 
infrastructure. In order to provide immediate savings, Services will be 
forced to forgo facilities sustainment. Due to lack of maintenance, 
issues that would have been inexpensive minor problems will turn into 
expensive projects in future years. The inability to conduct preventive 
maintenance will affect the lives of our servicemembers and will cause 
a bow wave of maintenance and infrastructure requirements in the out 
years. Degraded facilities put missions at risk and delayed MILCON 
projects endanger the implementation of international agreements.
    Civilian furloughs and restrictions on hiring are of special 
interest. Civil servants represent a noteworthy portion of our 
capability and capacity. If furloughs occur, every aspect of PACOM's 
warfighting readiness will be adversely affected. Overseas schools, 
hospitals, and warfighting staffs will be impacted. Of particular 
concern, more than half of those who support our ISR architecture are 
civilians. The current budget restrictions and hiring freeze also puts 
at high risk the Joint POW/MIA Accounting Command's (JPAC) ability to 
meet the NDAA 2010 required 200 identifications per year by fiscal year 
2015.
    The impact to each of these civilians will be significant--22 
unpaid days equates to 20 percent less pay for nearly half the year. On 
a personal level, it breaks faith with a skilled workforce. Much of 
what they do simply cannot be picked up by others in their absence.
    As we work through the near-term resource implications of funding 
reductions and assess the increasing risk, I will continue to work with 
the Services to preserve, to the extent possible, our essential 
homeland defense and crisis response capabilities . . . capabilities 
resident in our PACOM forward deployed forces. We will also continue to 
demonstrate U.S. resolve and commitment to peace and security in the 
Indo-Asia-Pacific.

                               CONCLUSION

    The Pacific Ocean does not separate the United States from Asia; it 
connects us. We are connected by our economies, by our cultures, by our 
shared interests, and our security challenges. We have been accepting 
additional risk in the Indo-Asia-Pacific region for some time. Our 
rebalance strategy is in place, and we are making progress. 
Implementing and sustaining the strategic rebalance will require long-
term, sustained commitment and resources.
    On behalf of our military members and civilian employees that work 
every day to ensure that our country is successful in this effort, I 
would like to thank the committee for their support, and I look forward 
to answering your questions.

    Chairman Levin. Thank you very much. Thank you very much, 
Admiral.
    We're going to try to use the technology we've been 
provided with here today. Senator Inhofe said the other day: 
How come we don't use timers like every other committee? My 
answer was: I don't have the vaguest idea why we don't use 
timers. So we're going to find out whether they actually have 
an impact on us. Instead of a card being handed in front of us, 
now you have to keep your eyes on the timer. So let's see if it 
works.
    We're going to start with 8 minutes.
    Senator McCain. A quantum leap.
    Chairman Levin. A quantum leap, right. A small step for the 
committee, major step for mankind.
    So, Admiral, let me start. Over the weekend, DOD announced 
that they were delaying a routine reliability test of a 
Minuteman III ICBM that would have been from Vandenberg Air 
Force Base to an impact site in the Marshall Islands 4,300 
miles away. The test was apparently delayed so it would not be 
misconstrued by North Korea.
    Now, I know you're not in the chain of command here, but 
basically do you agree with that decision and do you know what 
the basis for it was?
    Admiral Locklear. I do agree with the decision. I assume 
that the basis of the decision was to look at the strategic 
communications, at all the events surrounding this particularly 
tenuous time with North Korea, and the impacts of the totality 
of those. So it is my sense that through this period of the 
last few weeks that we have demonstrated to the people of the 
region, we've demonstrated hopefully to the leadership of North 
Korea, and we've demonstrated to our own population back here, 
our ability and our willingness to defend our Nation, to defend 
our people, to defend our allies, and defend our forward-
deployed forces.
    So I did agree with the decision.
    Chairman Levin. What are some of the things that we've done 
in response to the bellicose rhetoric of North Korea?
    Admiral Locklear. We do a series of exercises each year 
with all of our allies. In particular with North Korea, about 
this time of year we do an exercise called Key Resolve.
    Chairman Levin. With South Korea?
    Admiral Locklear. With South Korea, we do Key Resolve and 
Foal Eagle. Those exercises are to build our alliance 
capabilities together, our defensive capabilities together. 
Many of the activities that you've seen play out over the last 
month are a result of an exercise that we would do annually 
anyway.
    So normally at this time of year you will also see in North 
Korea that they will go into their winter training cycle and 
they will conclude that winter training cycle about the time 
that Foal Eagle finishes. So we have those two events happening 
at the same time.
    So when you lay on top of that the bellicose rhetoric that 
has come out of North Korea and the follow-up from the nuclear 
test and now the poor decisions that it appears that he's 
making, each of these events that were rolled out at Foal Eagle 
start to take on a more significant strategic context. But they 
all, I think, demonstrate the strength of the alliance, 
demonstrate the defensive capabilities we build in the 
alliance, and demonstrate the deterrence capability of the 
forces that we bring together.
    In addition, we pursued a long-range B-2 demonstration as 
part of Foal Eagle that came from the United States here. It 
was a good opportunity for my forces in PACOM to coordinate 
with the U.S. Strategic Command (STRATCOM) and for us to be 
able to demonstrate that capability. I believe the fact that it 
was visibly demonstrated was done at the right time to indicate 
the capabilities that the United States has to ensure the 
defense of our allies and of our Homeland.
    Chairman Levin. I believe we also moved a missile defense 
system, is that correct?
    Admiral Locklear. Yes, sir.
    Chairman Levin. To Guam, I believe.
    Admiral Locklear. Yes, sir, we did. At my request, I asked 
the joint force to be able to produce for the defense of Guam 
the THAAD asset and that request was supported and we're doing 
that to ensure that we can adequately defend our U.S. 
territories as well.
    Chairman Levin. I understand that President Obama talked to 
Chinese President Xi recently regarding the actions that we 
have taken following this North Korean spate of rhetoric. Have 
you had any conversations with your military counterparts in 
China in the last couple of weeks?
    Admiral Locklear. I have not.
    Chairman Levin. A widespread attack by North Korea, 
conventional or otherwise, seems highly unlikely, but 
nonetheless there is a prospect, based on history, for a 
limited military action of some type from North Korea. If there 
were such an event, that would, I presume, draw a military 
response from South Korea.
    The United States and South Korea have reportedly finalized 
something called a Combined Counter-Provocation Plan in an 
effort to get in place the terms and type of any such response 
to a limited military action from North Korea. Can you describe 
for us in general terms what the parts of that agreement are 
and are you satisfied that the plan that we have entered into 
with South Korea strikes the right balance between enabling 
South Korea to respond and to defend itself, at the same time 
ensuring that the United States is involved in any decisions 
that might widen a military action to include U.S. forces?
    Admiral Locklear. Yes, sir. You know we've been planning 
with our ally, joint planning together, for many, many years. 
We have plans that we've worked together and we continually 
revise them. This particular plan that has been talked about is 
basically what I would call a branch from our normal day-to-day 
planning we have there to take a look at how things have 
changed. This is a recognition of a better understanding of the 
cycle of provocation that we see from not only this leader, but 
his father as well, and how best to deal with it.
    I won't go into the details of the plan here because I 
don't think that's appropriate. But I do think that it is a 
good planning effort. I think that it has provided us, General 
Thurman, and his counterparts there the opportunity to ensure 
that the right command and control and the right coordination 
is in place, to ensure that as we were to approach future 
provocations that we do so in a predictable way that allows us 
to be able to manage those provocations without, hopefully 
without, the unnecessary escalation that none of us want.
    So I am supportive of the plan, I think it's a good one, 
and we will continue to revise it as time goes on.
    Chairman Levin. Are you satisfied that we would be ready if 
there were such a limited military action from North Korea?
    Admiral Locklear. I am satisfied that we're ready today, 
yes, sir.
    Chairman Levin. Thank you.
    Can you give us briefly the impact of sequestration on the 
PACOM?
    Admiral Locklear. There's no doubt that sequestration is 
having an impact on near-term operational readiness. By nature 
of the way that sequestration is put into the budget, 
particularly in this year, in the execution year of 2013, 
there's only so many places that we can pay that size of a 
bill, and most of the places that the Services have to go to 
are in readiness and operational accounts.
    So I would say that for us to be able to deal with what we 
have done, what the Services have done, is that we've 
prioritized our assets globally as well as inside the Asia-
Pacific to be able to ensure that our most pressing problems 
are properly addressed with the right force levels and the 
right levels of readiness. So today I think we have managed 
that inside the PACOM AOR.
    Now, where I have concerns is in the mid-term, as our 
overall readiness of our force starts to decline because of the 
impacts of the way that sequestration has been implemented. So 
you're seeing things like cancelling large-scale exercises that 
we've done to ensure the future readiness of our force, because 
we don't have the flying hours, or the transportation, or the 
fuel supplies to do that, or the fuel money to do that. So 
we're having to prioritize those things towards those things in 
PACOM's theater which are most pressing, and today that most 
pressing situation is what's happening on the peninsula in 
Korea.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral, as you and I have talked about before, I'd like to 
get clarification on one statement that was, I think, 
misrepresented. It was in the Boston Globe, reported that you 
indicated--and I'm quoting now from the Boston Globe--``The 
biggest long-term security threat in the Pacific region is 
climate change.''
    Now, I'd like to have you clarify what you meant by that 
because I want to follow up with a couple of things here.
    Admiral Locklear. Thanks for asking that question. I'm 
happy to have the opportunity to clarify.
    Senator Inhofe. I say that because a lot of the people who 
are trying to use that and use your statement are the very 
people who think we're spending too much money on defense and 
that that money should be spent in other areas. Some of the 
environmental extremists don't really believe we need to have 
that strong of a military, as strong as we have right now, in 
spite of the hit that we've taken militarily.
    But go ahead.
    Admiral Locklear. As you might expect, I gave 100 or so 
interviews over the last year. During those interviews, I can 
assure the committee that I always start by talking about the 
most pressing military threats that we have--North Korea, the 
rise of powers in the region, transnational threats, all the 
things that Chairman Levin laid out in his opening remarks 
quite well.
    In this particular case, I did the same. Then we started to 
talk about the long-term, the long-long-term, and what are the 
implications of it. I would clarify my perspective this way. In 
the Indo-Asia-Pacific region, projections are we're going to go 
from about 7 billion people in the world to about 9 or 10 by 
the century, and about 70 percent of them are going to live in 
this part of the world.
    About 80 percent of them today live within about 200 miles 
of the coast, and that trend is increasing as people move 
towards the economic centers which are near the ports and 
facilities that support globalization. So we're seeing that 
trend of people moving into littoral areas.
    We are also seeing--if you go to the U.S. Agency for 
International Development and you ask the numbers for my PACOM 
AOR how many people died due to natural disasters from 2008 to 
2012, it was about 280,000 people. Now, they weren't all 
climate change or weather-related, but a lot of them were due 
to that. About 800,000 people were displaced and there was 
about $500 billion of lost productivity.
    So when I look and I think about our planning and I think 
about what I have to do with allies and partners and I look 
long-term, it's important that the countries in this region 
build the capabilities into their infrastructure to be able to 
deal with the types of things that----
    Senator Inhofe. I'm sorry to interrupt you here, because 
you've now used up half my time and we didn't get around to it. 
Is it safe to say that in the event--that the climate is 
changing, which so many scientists disagree with--in fact, when 
the Boston Globe, coming out of Massachusetts, made that 
statement, perhaps arguably one of the top scientists in the 
country, Richard Lindzen, also from Massachusetts, MIT, said 
that was laughable?
    Let me just put it this way: CRS has told us that we could 
be totally independent from all other countries in terms of 
providing our own energy if we just develop our own resources. 
I believe that to be true. Wouldn't it be a more secure world 
and, specifically in your area, if we not only were totally 
independent, but were able to supply our allies in your 
jurisdiction with their energy so they don't have to depend on 
other sources?
    Admiral Locklear. Absolutely.
    Senator Inhofe. Okay. Let me say something about China. 
China, I understand right now--this is fairly new stuff--that 
they're talking about increasing their defense budget by 10.7 
percent in 2013. I remember back in the 1990s when they 
increased their defense spending during that decade by 300 
percent at the same time that we reduced ours by about 30 
percent. This is not a partisan thing. This was after the Cold 
War. A lot of people felt that we could afford to reduce and we 
did.
    We went down 30 percent in that decade. They went up 300 
percent. Now, we're facing the same thing. My concern is could 
it be that we will cease to become the partner of choice to our 
allies if this trend continues? Does this concern you with the 
amount of increase that China is making and how it's affecting 
your region?
    We see this in Africa. It's our experience in Africa that 
every time we have any type of a void that takes place in 
Africa, China moves in, and they seem to have the resources to 
do that. I just want to know how that might affect our 
relationship with our allies in your jurisdiction?
    Admiral Locklear. It is concerning, and I think one of the 
aspects of the rebalance is to ensure that we have the right 
force posture, the right force mixture for the future in the 
Asia-Pacific so that we can reassure our allies, that we can 
reassure our partners, we can reassure the American people that 
our interests are protected over there. I think we do have to 
watch very carefully how China's military rises, what they do 
with that military, and how that military is integrated into 
the security environment.
    Senator Inhofe. In our trip over to Guam, we were looking 
at that controversial hangar and the fact that you'd made a 
statement that maybe that should be hardened. There's a big 
expense to that. That's a controversial thing over there. I 
would agree with your statement. However, with the resources 
that we have, I would think that others would say, these need 
to be hardened also.
    Would you address that issue in terms of the scarce 
resources and the advantages of hardening those facilities?
    Admiral Locklear. Yes, sir. First, we're acutely aware of 
the significance of the resources that we'd be asking for. It 
really boils down to resiliency. It's not just about hardening. 
It's resiliency of forward bases as you look to the future, 
where in this case you are looking at Guam. It is a significant 
strategic hub for us in any scenario I think that I would see 
in the Asia-Pacific for the next number of decades as far as I 
can see forward.
    So when you look at resiliency, there's really a number of 
components. There's offensive counter-air and how you use that. 
There's offensive methods to protect it. There's defensive 
measures to protect it. Then there are things that you might do 
to harden, and then there's command and control over it. We're 
looking across all of those.
    So when you look at the things we're talking about 
hardening, I think, those are things that would allow you to be 
able to quickly, as quickly as possible, recover Guam if it 
ever were to be attacked by someone. It's not hardening 
everything, but it's hardening those things that would allow 
you to have that resiliency with some expectation you could 
return it to service quickly.
    Senator Inhofe. I think it would be a good idea, just for 
the record, to elaborate on that, in what areas that should 
take place, give us some ideas of some priorities. I know it's 
not of a lot of interest to this committee right now, but it 
was during our trip over there.
    It might also be true on this. Taking the 9,000 marines 
from Okinawa going to Guam, and I think some of them to 
Australia and some to Hawaii, there is some issue there in 
terms of the real estate that that would free up for the 
Japanese. Is there any brief comment you can make about that 
move of those marines?
    Then I'd like to have for the record some of the detail in 
terms of where the remaining, I guess about 10,000 marines, 
would be, where they'd be moved to, how that affects the value 
of the real estate there, and how we might be addressing that.
    Admiral Locklear. Let me begin with the question of 
resiliency in Guam and you said some more detail on that. I 
think generally I would say when you look at fuel supplies and 
how you would regenerate fuel supplies and whether those 
fuelheads would need to be hardened or not, is one we look at; 
whether you have the right runway recovery equipment if the 
runways were ever damaged by someone who decided to attack Guam 
and how fast you could recover them. So those are a couple of 
things we're looking at.
    We're also looking at how you would command and control the 
dispersal of assets so those assets might go to different 
places in times of crisis and conflict. So we're looking at a 
broad spectrum and these are just things that fit together in 
that patchwork.
    Senator Inhofe. Because of the timing, if you can just go 
ahead and answer the other one for the record, that would be 
fine, Admiral.
    [The information referred to follows:]

    In April of this year, the Secretary of Defense released the 
Okinawa Consolidation Plan which established three categories of 
return: immediate facilities and areas upon completion of necessary 
procedures; additional areas following construction of replacement 
facilities; and remaining areas after marines relocate to Guam and 
Hawaii. Under the plan, the remaining 10,000 marines will be 
consolidated in order to reduce impacts on some of the most populated 
parts of Okinawa. Potential effects on the value of real estate will be 
addressed through Environmental Impact Assessments, part of the 
`necessary procedures' specified in each return category. When 
complete, approximately 1,000 hectares will have been returned to the 
people of Okinawa.

    Admiral Locklear. Aye, sir.
    Senator Inhofe. Thanks so much.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Admiral, for your service. I was struck in your 
testimony at page 9 where you describe the growing number of 
nations adopting the submarine as an enhanced weapon system. 
You point out the Russians in the north have both attack and 
ballistic missiles, indeed that India is growing its submarine 
force, the Chinese seem to be the ones who are expanding the 
most. Australia, Singapore, Indonesia, Malaysia, Vietnam, and 
the Republic of Korea have launched new submarines.
    This seems to be the class of weapon systems or ships that 
they are actively trying to compete with the United States; is 
that a fair judgment?
    Admiral Locklear. I don't know that I would say they were 
actively competing with the United States. I think globally you 
have well over 300 submarines and that number's growing. People 
recognize that they have a significant anti-access, denial, or 
anti-access capability, that there remains an asymmetric 
ability in undersea warfare in the ability to remain covert, in 
stealth; and that technology is allowing very quiet submarines 
to be built that can be sustained at sea for longer and longer 
periods of time.
    So I don't know that they're necessarily competing with the 
United States because 300 submarines is a lot, but they 
certainly are, I think, re-emerging into the security 
environment in a way that we should be very thoughtful about.
    Senator Reed. But in terms of our fleet, which is clearly 
because of technology and also the skill of the men and women 
who operate these vessels, is far superior, but no longer do we 
have in one sense an open field. We are now beginning, and 
you're beginning, to note an increase in submarines that are 
being developed and deployed by Asian powers. That's the sum of 
your testimony?
    Admiral Locklear. First of all, let me say that we have the 
very best submarines in the world, so I'm not concerned about 
the capabilities of our submarines or the crews that operate 
them. I am concerned about--numbers matter, and where you have 
them matters, and the types of missions. Our submarines do a 
variety of missions across the broad spectrum of things, and 
there are places in the world where an asymmetric advantage 
from undersea warfare is important.
    Senator Reed. It seems to be important, on the basis of 
your comment, in the context of the anti-access doctrine. Is 
that what you're perceiving to be the major emphasis now in 
Asia, particularly the major powers like China and others being 
in line, to be able to deny access to our fleet?
    Admiral Locklear. I would say the general trend around the 
globe is that people want to be able to control what happens in 
their economic zones and in their territorial seas. Then there 
are those powers that like to project power even beyond those 
areas, and submarines provide them viable alternatives for 
doing that in a way that's sometimes asymmetric.
    Senator Reed. One other, shifting gears slightly, is that 
the Littoral Combat Ship, the Freedom, I believe, has been 
deployed to Singapore, which is in your AOR. We're going to 
have issues with respect to budgets and the capability of 
different ships. How do you--do you intend to monitor the 
operation of the Freedom, or how are you going to employ it, 
since it's in your AOR?
    Admiral Locklear. First, the Freedom is the first of the 
class of the Littoral Combat Ship. It's a concept ship, 
something that started out to build it and then to grow the 
research and development in it as you build it. The Chief of 
Naval Operations, I think, has wisely decided to push it to 
PACOM and to rotationally deploy it out of Singapore.
    It is a ship that was designed for littoral operations 
because of its speed, its shallow draft. It has the ability to 
be, over time, reconfigured. It has mission module packages 
that you are all aware of. What it does for me out there, 
number one, it provides a visible presence of the United States 
in the littorals. It allows us to cooperate and participate 
with a key strategic partner out there, our partners in 
Singapore. It provides my Seventh Fleet commander and my 
Pacific Fleet commander, Admiral Haney, another tool in the 
toolkit to be able to deal with peacetime events as well as 
those in crisis. So I'm anxious to get it out to the theater 
and to see what it can actually do.
    Senator Reed. In that context, do you have a conscious plan 
to evaluate its capabilities, to make recommendations with 
respect to both its design, its function, and its operational 
capacities?
    Admiral Locklear. We do. The Freedom will be there for 
about 10 months in this first rotation to the area. During that 
time, my understanding is that we will concentrate on how we 
move the mission module packages around, how do we employ them 
in the littorals, how do we integrate them into the operational 
fleet, the Seventh Fleet.
    So it's a good thing because it gets it into the real 
world. It gets it to having to see what it can do and how it 
can best perform and how it can best be used.
    Senator Reed. Just a final question. When you're doing your 
planning for a range of operations from noncombatant 
evacuations all the way up to a main fight or a forced landing, 
will you think in terms of where the Littoral Combat Ship fits 
in those missions and what missions it may or may not be 
adequate for?
    Admiral Locklear. Absolutely. I think they are, from my 
other components, all looking very carefully at what they can 
use, how they can use the Littoral Combat Ship, because of its 
reconfigurable capability, because of the amount of cargo and 
types of things it can carry, the flexibility that it has with 
airframes. So we'll be looking at that.
    We'll also be looking carefully at its mine countermeasure 
mission, which is an integral part of, I believe, the Navy 
strategy for next generation mine countermeasures, and we're 
going to ensure that those technologies are looked at as 
carefully as we can.
    Senator Reed. Finally, with the remaining minute or so, can 
you comment about the amphibious capability that you have in 
the Pacific now? Because of the Marine Corps' deployment in 
Afghanistan and their service there, the frequency of 
amphibious operations from ship to shore have been curtailed 
over time. Have they been reinvigorated? Are you conducting 
them on a regular basis, and what are the problems you see?
    Admiral Locklear. They have been reinvigorated. I think one 
of the initial impacts of the rebalance was to see the Marine 
Corps forces, that many of them had been deployed into 
Afghanistan and the Middle East over the last decade, returned 
to the Pacific. So General Amos, the Commandant of the Marine 
Corps, and I have had extensive conversations about how do we 
bring back the marines, reintegrate them back on the amphibious 
ships that we have there, what are the types of missions that 
we need to pursue, what is the level of training, what are the 
exercises we need to be incorporating.
    So we have a good plan. I've asked the Navy to look at 
increasing the amount of amphibious lift that's in the AOR 
because of the geographically distributed operations that 
marines have to do. I think there's a need for more lift in the 
PACOM area and that has been, I believe, positively received 
and we'll look at options on how best to do that.
    Senator Reed. Thank you, sir.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank you, Admiral, for being here. You mentioned the 
effect on sequestration and you were making certain adjustments 
to it. Are you going to be able to, in your view, adjust 
adequately to carry out your assigned missions in the medium- 
and long-term if sequestration continues on the path that it's 
on?
    Admiral Locklear. I would say that we'll have to closely 
assess globally the types of things that our military's being 
asked to do, and then we'll have to decide----
    Senator McCain. I'm asking for PACOM.
    Admiral Locklear. I think it would depend on how, over 
time, if the resources were reprioritized to the rebalance. I 
think at the end of the sequestration we'll still have the most 
powerful military in the world, I expect. So it will depend on 
how we're going to reprioritize that and whether that comes 
back to the Pacific. But it will be a challenge.
    Senator McCain. My question is not whether we will still 
have the most powerful military in the world. My question is, 
will you be able to carry out the assigned missions that the 
PACOM has now in a sufficient manner to ensure our national 
security if sequestration continues on the path that it's on.
    Admiral Locklear. I hate to give you this, but I think it 
depends on----
    Senator McCain. You know what the numbers are, Admiral.
    Admiral Locklear. Yes, sir.
    Senator McCain. You know what the numbers are and you know 
then that those numbers in some way or another are going to 
have to be put into effect. My question again is: Will you be 
able to ensure the American people that you will carry out your 
assigned security requirements to defend this Nation if 
sequestration continues the path that it's on?
    Admiral Locklear. I'd have to give you the answer. It 
depends on how the resources globally are prioritized and if 
they're prioritized to the Pacific.
    Senator McCain. So I guess the answer is that sequestration 
is okay as long as we prioritize in the proper fashion. Is that 
the answer you're giving this committee?
    Admiral Locklear. No, sir. I've been consistent in saying 
that sequestration would have a catastrophic effect on our 
ability to do the type of global operations we're doing today. 
To tell you that sequestration is something that I would be 
supportive of in general, I would say no, I have not said that. 
But now that sequestration appears to be heading in that 
direction, at least in the near term, then there will be 
decisions that DOD will be forced to make.
    I believe Secretary Hagel and Secretary Carter are moving 
in that direction to start to look at what are those strategic 
choices that have to be made. If the strategic choice is that 
we cannot--that we're not going to be able to provide the force 
levels that we have today in the PACOM, then the answer to your 
question is I can't do it. The answer is if they're going to 
reprioritize to the Asia-Pacific, then I'll have to see, sir.
    Senator McCain. Thank you very much. Thank you.
    I was thinking this morning, I don't know of a time of 
greater tension since the end of the Korean War that exists 
today between North Korea, South Korea, and us. Would you agree 
with that?
    Admiral Locklear. I would agree that in my recollection I 
don't know a greater time.
    Senator McCain. Do you believe that we have the ability to 
intercept a missile if the North Koreans launch a missile, as 
it is widely reported they would do in coming days?
    Admiral Locklear. I believe we have a credible ability to 
defend the Homeland, to defend Hawaii, to defend Guam, to 
defend our forward-deployed forces, and to defend our allies.
    Senator McCain. Do we have the capability to intercept a 
missile if the North Koreans launch within the next several 
days?
    Admiral Locklear. We do.
    Senator McCain. Would you recommend such action?
    Admiral Locklear. If the missile was in defense of the 
Homeland, I would certainly recommend that action. If it was 
defense of our allies, I would recommend that action.
    Senator McCain. My question is would you recommend that we 
intercept a missile if it is launched by North Korea, no matter 
where the intended target is?
    Admiral Locklear. I would not recommend that.
    Senator McCain. Until you were sure what the target is?
    Admiral Locklear. I think if you look at the architectures 
that we have, we will be able to sense and be able to 
understand pretty quickly where any launch from anywhere in the 
world, but in this case, from this particular site, where it 
would probably--where it would be going and what we would need 
to do about it. So I am confident that we would be able to make 
that decision for the defense of our allies and our Homeland.
    Senator McCain. So in the event of a missile launch, you 
would wait until you could determine where the missile was 
aimed?
    Admiral Locklear. We should hopefully have--if we have any 
predetermined indications and warning (I&W), we'll have a 
good--we should have a sense of where it's going to be aimed. 
If we don't, it doesn't take long for us to determine where 
it's going and where it's going to land.
    Senator McCain. We see that China made some rather 
cautionary remarks about North Korea. We identified a building 
in Beijing from which cyber attacks emanate. We also see 
continued confrontational behavior on the part of China as far 
as its assertion of sovereignty over the South China Sea. Would 
you agree with me that the only really restraining force on 
North Korea would be at this time the Chinese?
    Admiral Locklear. I would say that they would play--will 
play a key part in any restraint. I don't know the only one, 
but I would say they are a significant factor.
    Senator McCain. Do you think they have played a sufficient 
role of restraint of North Korea yet?
    Admiral Locklear. I think that they could do more.
    Senator McCain. So are you concerned about this combination 
of factors about Chinese behavior, that they certainly are not 
behaving in many respects as a world power should behave, 
especially again in light of the military buildup that Senator 
Inhofe has already described?
    Admiral Locklear. I do have some concerns.
    Senator McCain. How serious are those concerns?
    Admiral Locklear. I think that as the Chinese military 
evolves, which I think it will evolve, it doesn't surprise me 
that they're investing in their military. They're getting 
global aspirations because of their economic growth. The 
question is, for me, about transparency and what they're going 
to do with that military and how they integrate that military 
into the rest of the security environment.
    So it does concern me. They know my concerns. I voice them 
when we meet together, and we continue to have dialogue on 
those concerns.
    Senator McCain. Do you have adequate missile defense 
resources to defend the Homeland, including Guam, Hawaii, and 
Alaska?
    Admiral Locklear. The Secretary of Defense has announced 
some additional missile buys for the GBIs. But today we have 
the capacity, the capability, and a limited capacity to be able 
to defend against the type of threat that we're seeing from 
North Korea.
    Senator McCain. Isn't it true that this concern about North 
Korea is exacerbated by the fact that artillery at the 
demilitarized zone (DMZ) could strike Seoul and cause 
horrendous casualties?
    Admiral Locklear. It is very much exacerbated by that 
because of the legacy of the DMZ and how that has progressed 
for the last 50 or 60 years. That amount of artillery, through 
a miscalculation or a provocation from the north, would put 
Seoul at risk and it is a primary concern of U.S. Forces Korea 
and mine.
    Senator McCain. This committee noted with interest the 
announcement that the Governments of Japan and the United 
States announced for Okinawa movements, that has already been 
mentioned by the chairman and Senator Inhofe. We are awaiting a 
master plan for the movement and what's required and the costs 
required, including environmental impact assessments. When do 
you think the committee and Congress would receive this master 
plan?
    Admiral Locklear. I don't have a date to give you for when 
OSD would present that to you. I've been providing the 
information to them, as required, from my perspective and I 
think I've responded to the committee on a number of issues 
that you've asked me about, including the lift requirements 
necessary to move marines around, and I submitted that to the 
committee within the last 2 weeks.
    Senator McCain. Thank you. I thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you, Admiral, for your service, your extraordinary 
service over many, many years and for being here today and for 
your excellent testimony.
    I am concerned as much about the threat that North Korea 
poses in terms of nuclear proliferation over the long-term as 
the immediate tension and potential threat in the short-term. 
You have briefly discussed it in your testimony. We have 
discussed it barely at all here today. So I wonder if you could 
elaborate on your testimony to describe what you see as the 
extent of the ongoing, and I underscore the word ``ongoing'', 
aid that North Korea is providing to other nuclear-arming 
countries, such as Iran, around the world? Then I'm going to 
ask how we can stop it more effectively, as you've described, 
through the counter-WMD program and what can we do to bolster 
it?
    Admiral Locklear. North Korea's proliferation of weapons 
systems, including potentially missile technologies or nuclear 
technologies, very much concern me. We know that, over a period 
of time, North Korea goes through cycles of provocation. One of 
the things they rely on to fund their ability to do what they 
do is through proliferation and movement of arms sales around 
the world.
    I don't have any direct knowledge that there's been, in 
this near-term case, that there's been collusion between Iran 
and North Korea, but it doesn't mean it hasn't happened.
    Senator Blumenthal. Isn't it a fact that Iran would be 
greatly disadvantaged if North Korea were not helping it?
    Admiral Locklear. I think that Iran would be greatly 
advantaged if North Korea helps them.
    Senator Blumenthal. Is that help ongoing?
    Admiral Locklear. I can't give you a verification of that 
in this forum, but I'd be happy to----
    Senator Blumenthal. Perhaps in another forum or for the 
record?
    Admiral Locklear. Yes.
    Senator Blumenthal. Thank you.
    [The information referred to follows:]

    [Deleted.]

    Senator Blumenthal. What can we do to help stop that kind 
of proliferation even more effectively than we are right now 
through the counter-WMD program?
    Admiral Locklear. I think first the international community 
has to bring pressure, continued pressure, to bear on North 
Korea. We have to tighten our ability to sense and see what is 
being proliferated and where it's going, and then we have to be 
able to ensure that we have the ability to interdict it before 
it is proliferated.
    Senator Blumenthal. I will just say, Admiral--and I know 
you are focused on this problem, as evidenced by your testimony 
here--but for me some of the most chilling testimony this year 
before our committee came from Admiral Stavridis, who told us, 
and I'm quoting: ``Remember, the truly dark edge of the 
spectrum is WMD and the proliferation of these weapons.'' Then 
he said that ``the ability to move 10 tons of cocaine in a 
mini-sub, if you have that ability you can also move a nuclear 
device.''
    So the seas are a ready means of proliferating nuclear arms 
that can do destruction beyond what we have seen so far through 
weapons of terrorism, isn't that correct?
    Admiral Locklear. Certainly the seas, and particularly in 
my AOR, are the highways for a lot of these types of 
activities. Some don't recognize just the size of the Pacific 
Ocean. If you took all the land masses in the world and put 
them together, they'd all fit in the Pacific Ocean.
    Senator Blumenthal. You stated that well in your testimony, 
the sheer physical extent of your challenge. With that in mind, 
and I didn't mean to cut you off, but I do hope that we can be 
rebriefed, perhaps with your guidance as well as others, on the 
threat of proliferation particularly as it concerns Iran going 
forward.
    Let me just shift to a subject that Senator Reed raised, 
submarines. This goes really to the end of your last question. 
There are 300 submarines out there now and they can't compare 
to the United States in terms of their technological capability 
or the ability of the personnel who man them, I agree with you 
totally.
    But don't we need to continue our sub-building program at 
the rate we are now of two-a-year to keep pace with what's 
happening in the rest of the world?
    Admiral Locklear. That's been my recommendation.
    Senator Blumenthal. Nothing has happened to change that 
recommendation, has it?
    Admiral Locklear. Nothing's happened to change that 
recommendation.
    Senator Blumenthal. In fact, arguably, the urgency of that 
recommendation is all the more prescient now in the world with 
the increased building of those submarines by other countries 
around the world.
    Admiral Locklear. I would--it's not only about the 
submarines. Our submarine force does a lot of other things, 
from intelligence and reconnaissance to special operations 
support. So it's a wide array of things that need to be 
addressed in the security environment that can be addressed 
very well by a competent submarine force that has the 
capability and the capacity to be able to address the growing 
challenges we see in the world today.
    Senator Blumenthal. Thank you.
    Finally, you mentioned in your testimony, just very 
briefly, the challenges posed by human trafficking in the 
region under your command. I wonder if you could elaborate a 
little bit on that, particularly focusing on whether it's 
increasing or not, human trafficking, sex exploitation, 
particularly affecting children, young women, the range and 
increasing extent of it.
    Admiral Locklear. I have a slide that somebody gave me the 
other day. I don't know if it's accurate or not, but it said 
that the slave trade in the world today, that it's about $30 
billion a year. So in my particular AOR, my guess is that 
there's a fair amount of that trafficking coming from that part 
of the world.
    So we do look at this. We try to work with our partners, 
our allies, to look at where the sources of this type of 
trafficking might be coming from, what are the security 
mechanisms they may have in place to be able to help deal with 
it. But it is a problem and I think a much larger problem than 
we often want to think about.
    Senator Blumenthal. Isn't the Republic of North Korea a 
primary contributor to this problem?
    Admiral Locklear. I don't have the knowledge of that.
    Senator Blumenthal. My information is that, in fact, they 
are a primary contributor to human trafficking of women and 
girls, both within that country and the industry, particularly 
through Mexico and Canada. Are you aware of information that 
would corroborate that?
    Admiral Locklear. I'm not aware of it, but I'll certainly 
look into your numbers. But I wouldn't be surprised.
    Senator Blumenthal. I apologize, I don't have numbers. But 
if you have some, I certainly welcome any additional 
information that you might be able to provide.
    My time has expired, but I really want to thank you for 
your very informative and helpful testimony here today. Thank 
you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Admiral, for your leadership and for all that 
serve underneath you. I wanted to ask you, what is the 
relationship between China and North Korea, and how does North 
Korea depend upon China?
    Admiral Locklear. China is, I think de facto, the only 
real, so to speak, ally that North Korea would have. They are 
on their border. They share a common border. I believe that 
China economically supports North Korea through food and fuel 
and water. I think that there are diplomatic ties between North 
Korea, unlike--they are much more robust than what we may have 
ever experienced with North Korea. So I think their influence 
in North Korea is and can be significant.
    Senator Ayotte. Wouldn't it be--as I understand it, in 
fact, China is North Korea's biggest trading partner, their 
main source of food, arms to some extent, and fuel. So it seems 
to me that North Korea would have a difficult time continuing 
economically, even at their lower economic development pace as 
they are now, given the starving that many of the North Koreans 
experience, if they didn't have China's support. Would you 
agree with me with that?
    Admiral Locklear. I would have to agree with that. The 
North Korean economy is about 2 percent of the South Korean 
economy.
    Senator Ayotte. So one thing that--when you look at what's 
happened in the last couple of weeks with the new leader of 
North Korea and his bellicose actions, which seem to go beyond 
their typical cycle of provocation that we've seen in the past 
with his father, couldn't China play a key role in getting 
North Korea to stop their actions?
    Admiral Locklear. I would think that China could play a key 
role in influencing the bellicose rhetoric and restoring some 
more sense of calm to the peninsula. Of course, I believe 
sometimes the Chinese, in the way they approach it, are more 
nuanced than we are. I believe there's been some reporting and 
some indication that the leadership in China has made some 
statements about the issue. I can't tell you what's going on 
behind the scenes between Beijing and----
    Senator Ayotte. One thing that troubled me is that when you 
were asked by Chairman Levin about your conversations with your 
Chinese counterpart in the military you said during these past 
2 very dangerous weeks that we've had with North Korea that you 
have not had contacts with your military counterpart. It seems 
to me that we need to be, I would think, clearer with China as 
to what our expectations are because this is a danger to them, 
and also, if there is a provocation between North and South 
Korea and we are required to engage, or North Korea engages us, 
that is to the detriment of China's security as well.
    So I'm wondering why you haven't had those conversations.
    Admiral Locklear. I believe our Secretary of Defense has 
had those conversations. The nature of our military-to-military 
with China is growing and is progressing and I believe that 
over time we will progress to a state where the PACOM commander 
can talk to the chief of defense or the Chairman can talk there 
in real time. We're not there yet. We'd like to get there with 
them.
    But I can't tell you--I'd have to refer you to the 
Department of State. I know that there's a different flow of 
information at the diplomatic level than at the military level 
because of the way the PLA is structured.
    Senator Ayotte. I'm sorry to interrupt, but do you know 
what conversations that Secretary Hagel has had with his 
counterpart in China to get them to stop this? It seems to me 
that the Chinese could get North Korea to back off tomorrow.
    Admiral Locklear. I don't know the specifics of it, but I 
believe that there has been outreach at that level. I believe 
there has.
    Senator Ayotte. I think that's particularly important, 
given that North Korea relies on China essentially for its 
economic existence almost.
    I wanted to ask you, with the thought of stopping the 
proposed Minuteman, which is a preplanned ICBM test that we 
had, you had said you agreed with that decision. Was there any 
thought to the fact that if we stopped a proposed test that we 
were planning on doing anyway that North Korea might interpret 
that as their actions having an impact on us backing off, 
meaning that his bellicose actions were actually getting us to 
stop actions with our own ICBM testing? What was the thought 
process there about the other side of stopping?
    Admiral Locklear. I'm sure that entered into the 
discussions about when the decision was made. I would just say 
that we have many tools available that demonstrate U.S. power 
and resolve and that we use those selectively, particularly as 
we're trying to make sure that we don't end up with a situation 
that spirals out of control on the Korean Peninsula.
    So I think there's no question that we have the capability 
to demonstrate at will, when we want to, the ability to defend 
our own people, defend the peninsula. So I was supportive of 
the decision at the time it was made.
    Senator Ayotte. At some point we're going to have to go 
forward with our regular testing, though, because this isn't 
something that we just planned for this. It's something that we 
do regularly, isn't that right?
    Admiral Locklear. Absolutely.
    Senator Ayotte. Can I ask you about the 14 GBIs that are 
now being placed, replaced. The prior administration had 
planned to put those interceptors in place in Alaska to make 
sure that we had the missile defense capability that was 
needed. How long will it take for that to be put in place?
    Admiral Locklear. I don't have an answer for you. I can 
refer to STRATCOM and get you one, though.
    [The information referred to follows:]

    We defer to Missile Defense Agency for response as this is still in 
the planning phase and not in contract.

    Senator Ayotte. Is that a matter of years, though, to build 
those, to get those in place?
    Admiral Locklear. I would assume that it's longer than 
days.
    Senator Ayotte. Right. So obviously, not having gone 
forward, this administration, with what the prior 
administration had planned, in 2009 has delayed some capacity 
that we now believe we need; is that right?
    Admiral Locklear. I don't really have a comment on that.
    Senator Ayotte. Okay, thank you.
    I wanted to also ask you about, in particular, the 
importance of the Virginia-class submarine. I know that Senator 
Blumenthal had asked you about the need to continue the current 
build, payload schedule. Is that payload schedule under threat 
with sequestration?
    Admiral Locklear. I think that as we look at sequestration 
that they're going to look at--as the Secretary of Defense has 
said, we have to look at all options and all things that are 
out there, and to see what's affordable and within the context 
of what the American people want to provide us for defense. So 
I think it will get looked at and it will stand on its own 
merits as far as what we expect our submarine force to do in a 
sequestered budget.
    Senator Ayotte. Is there any doubt, though, that we need 
that Virginia-class attack submarine capability in light of, 
obviously, what's happening in the Asia-Pacific region and in 
other regions around the world, including obviously what is 
happening in the Middle East?
    Admiral Locklear. In my mind there's no doubt that we need 
the Virginia-class submarine and we need it to be able to 
employ a wide range of capabilities. They are all important. In 
my particular AOR I have to look at what are the capabilities 
that are most important, and we'll be doing that.
    Senator Ayotte. I appreciate it.
    Thank you, Admiral, for your testimony and I appreciate 
your being here today.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Admiral, thank you for your service. The North Korean 
missile that's been moved to their east coast, what is the 
capability of that? What parts of American territory are under 
threat from that, if any, and what countries are under threat 
from that?
    Admiral Locklear. We believe, as has been widely reported, 
that there's been a Musudan movement to the east coast. A 
Musudan has a range of roughly 3,000 miles, 3,500 miles, has a 
minimum range of about 400 or so miles, is what we think. So 
you can just extrapolate that out. It doesn't put the Homeland, 
the mainland of the United States, at risk. It doesn't put 
Hawaii at risk. It could put, I assume, if it was pointed in 
that direction, Guam at risk.
    But let me reiterate again, we have the capability in place 
to be able to monitor and be able to protect the Homeland, 
protect Guam, and protect our forces that are fielded there, as 
well as our allies.
    Senator Donnelly. How quickly are you aware if a launch 
occurs?
    Admiral Locklear. This is complicated, the scenario, over 
time. In the past we had significant I&W to be able to 
understand the direction of the launch, where it was at. So the 
introduction of road-mobile systems creates a problem for our 
intelligence, and the world knows this. This is not just a 
North Korea problem. This is a global issue with road-mobile 
systems.
    So it puts pressure on our ability, a premium on our 
ability to sense and understand what's going on and to see it 
and to be able to respond to it. We would like from a military 
perspective to be able to sense it and be able to, if we have 
to, deal with it before it ever launched. But in this case, in 
the scenario we're in, we're probably looking at being able to 
see it being in the general location and then to sense a launch 
and then to do what's necessary to defend if that was required.
    Senator Donnelly. At what point do you have to launch to 
protect our allies and our own territories?
    Admiral Locklear. That would be speculation, Senator. It 
would depend on the location of the launch. It would depend on 
the geometry of where it was going. It would depend on where 
the assets were located. So we will position our forces to 
optimize our capabilities in that area.
    Senator Donnelly. Do you feel confident we'll be able to 
protect all of our territories and our friends.
    Admiral Locklear. I feel confident, I do.
    Senator Donnelly. In regards to the decisionmaking in North 
Korea with their new leader, what is--what differences do you 
see from his father to him?
    Admiral Locklear. I think first the similarities. I think 
he's taken the playbook probably from his ``Military First.'' 
It's a government that's organized around the military, and 
he's played that hard to the people of North Korea. He has 
indicated that he was going to do economic reform, which we 
haven't seen anything of.
    He has brought from that playbook from his father a 
recognition of a cycle of provocation, where they go through--
they do an event, there's bellicose rhetoric, it builds and it 
builds until the international community says, ``I've had 
enough,'' and they go into some dialogue, he asks for 
concessions, the concessions are either given or not, and then 
it kind of hangs out there for a while, and then starts back up 
again.
    Over time, I believe that that cycle of provocation has 
been a fairly successful strategy for them. They're still in 
power.
    Now, where they differ is that I think our observation is 
that he's unpredictable, more unpredictable. His father and his 
grandfather as far as I can see always figured into their 
provocation cycle an off-ramp of how to get out of it, and it's 
not clear to me that he has thought through how to get out of 
it. So that's what makes this scenario I think particularly 
challenging.
    Senator Donnelly. Is there a tipping point for the Chinese 
with the North Koreans? What I mean by that, is there a point 
where they will look or speak to the generals of North Korea 
and say: Look, this is a point we don't want you to go past. Do 
they have that kind of influence?
    Admiral Locklear. I think that they have that kind of 
influence, and I think there will be a point, would be a point 
in time where you would see more of that probably visible than 
you might have seen to this point in time. But we share with 
the Chinese similar interests. We don't want--we want peace and 
security on the peninsula. There's no benefit to the Chinese of 
having this type of activity occurring on their borders. 
There's no possible benefit that I can see from this.
    So they will, I believe, in time, work this problem to 
their national interest, just like we do and the South Koreans 
do.
    Senator Donnelly. Do they have the ability--obviously, they 
have the physical ability to do it, but do they have the will 
or desire, do you think, if the North Koreans go past a point 
we would have expected them to go past in this, do the Chinese 
have the ability to force a change in North Korea in the 
leadership there?
    Admiral Locklear. I don't know that they have--that they 
would say they have the ability to force a change. My sense is 
that they will look after their national interest and that they 
would at some point in time, if North Korea is not in the best 
interest--activity is not in the best interest of their 
national interest, they will act to preserve their national 
interest, as we would.
    Senator Donnelly. Outside of the Korean Peninsula, what do 
you see as the biggest challenge in your region? What is the 
situation that concerns you the most outside of the Korean 
Peninsula?
    Admiral Locklear. Certainly as we look at the rise of 
regional powers, the rise of China--and I've said this before 
in testimony in other forums--it's looking to a future where 
the U.S. interests are protected, that our allies are protected 
in the Asia-Pacific. But we have to also expect that China will 
integrate into that security environment. They have to. There's 
really not another good option.
    So how we do that and how we are able to assist where we 
can--``assist'' is a pretty soft word--how we can help China 
assume the regional role, a regional role in the security 
environment, which I think they will at some point in time, 
that is consistent with U.S. interests there and the interests 
of our allies is a concern to me of how we get there and the 
road we're on to that.
    Senator Donnelly. Do you see the contesting of islands, of 
territories, not only with Japan but with other countries as 
well in regards to China, do you see that as getting worse or 
is that situation getting worked out better? How do you see 
that moving forward?
    Admiral Locklear. You know in the South China Sea the 
Philippine Government filed an international tribunal under the 
United Nations Convention on the Law of the Sea, which I 
thought was--I was supportive of that when they did that. I 
believe that, first, we don't take sides. That's our U.S. 
policy on territorial disputes. But we do have an opinion and 
the opinion is that they should be resolved using normal 
standards of international rule, that they should be done 
peacefully, without coercion, and that in the end it should be 
in the best interests of all the partners in that region.
    So in the South China Sea I think we have--we are at a, I 
would say, kind of a low boil, is probably the best way I'd put 
it, is that we're watching carefully what happens as each of 
these peripheral countries look at how they're going to secure 
their interests.
    In the East China Sea with the Senkakus, we're clear as 
well there. We don't take sides on territorial disputes. But we 
do recognize that the Senkakus fall in the administrative 
boundary of Japan and that falls under our alliance and our 
treaty responsibilities with them. So we are hoping again that 
over time this scenario can play out to the benefit of both 
Japan and China, to the degree they can ever get there, because 
they do have many, many interests together that I think over 
time may eclipse this event, but they have to get through it. 
Hopefully that's done peacefully.
    Senator Donnelly. Admiral, thank you for your service and 
for your testimony today.
    Senator Nelson [presiding]. Thank you, Senator Donnelly.
    Senator Graham.
    Senator Graham. Thank you, sir.
    Admiral, again, thank you for your service.
    If you looked out over a 10-year window and sequestration 
was fully implemented, we would have 232 ships left in the Navy 
a decade from now. Is that a wise thing?
    Admiral Locklear. Not a wise thing.
    Senator Graham. Would it severely restrict our ability to 
deal with the threat that you face today in your backyard; do 
you agree with that?
    Admiral Locklear. Unless you put them all in my AOR. I'd 
probably be okay if you put them all there.
    Senator Graham. But somebody else wouldn't be.
    Admiral Locklear. But somebody else wouldn't be.
    Senator Graham. Fair enough.
    Admiral Locklear. Yes, sir.
    Senator Graham. Now, what percentage of North Korea's GDP 
is dependent on their relationship with China?
    Admiral Locklear. I don't have that at my fingertips, but I 
imagine a fair percentage, and I can give you a number.
    [The information referred to follows:]

    Over 15 percent of North Korea's gross domestic product (GDP) is 
dependent on its relationship with China. The vast majority of this 
contribution is from direct trade. A smaller portion, likely less than 
1 percent of total GDP, comes from other Chinese-related sources such 
as private entrepreneurial investments and remittances from North 
Koreans working in China. China also indirectly supports the 2 percent 
of North Korean GDP coming from other trade partners, via air/ground 
transport links, telecommunication links, and banking support. Further, 
North Korea relies heavily on China for petroleum, machinery, and 
textiles, all critical for domestic and export production.

    Senator Graham. Okay, I'd appreciate that. The point I'm 
trying to make is that basically North Korea's a client state 
of China and they could stop this if they chose to in my view.
    We're ready for the fight with North Korea if that day ever 
comes?
    Admiral Locklear. We're ready.
    Senator Graham. South Korea and Japan, do they believe we 
have their back?
    Admiral Locklear. In my sessions with my counterparts, the 
answer to that is yes.
    Senator Graham. The politics in South Korea has changed, 
would you agree, where the tolerance by the South Korean 
Government and people to accept any more attacks against South 
Korean interests is much lower than it was 2 years ago, do you 
agree with that?
    Admiral Locklear. I would agree that their toleration of a 
significant provocation towards the South is much lower than it 
has been in the past.
    Senator Graham. If there were an incident where a South 
Korean naval vessel was sunk by North Korea, a South Korean 
island was shelled where South Korean citizens were killed, or 
a South Korean plane was shot down by the North Koreans, it 
would be almost impossible for the South Koreans not to respond 
in some fashion; do you agree with that?
    Admiral Locklear. You'd have to ask, to get a real answer, 
the South Koreans. But my sense is, and I think General Thurman 
would probably agree, is that there is a growing sense in South 
Korea that future provocations of the level you just described 
would require them to respond in some way.
    Senator Graham. From our own national security interests, a 
nuclear-armed North Korea sharing technology with terrorist 
groups is a real concern; do you agree with that?
    Admiral Locklear. One of the greatest concerns.
    Senator Graham. We should be concerned about a missile 
attack coming from North Korea and I applaud the administration 
for showing resolve. I think all the things you have done under 
Secretary Hagel's direction have been good, the right signal to 
send.
    But it is more than just getting hit by a North Korean 
missile that I'm concerned about. A North Korea with an 
advanced nuclear weapons program is probably a nightmare for 
this country, because they have shown a propensity to share the 
technology with terrorist groups. Is that a fair statement?
    Admiral Locklear. A fair statement.
    Senator Graham. Do the North Koreans have a rational bone 
in their body?
    Admiral Locklear. I would say that over time that you 
could, if you look at--the armistice was in place the year 
before I was born, so over time they're still in power. So 
there must have been some rationality from their perspective of 
what they're doing.
    Senator Graham. I think from their perspective this is 
rational if you live like kings and most people are starving to 
death. When you get to the bottom of a North Korean problem you 
have to go back to China in my view, because this North Korean 
regime could not last 6 months under the current construct 
without support from China. Do you agree with that?
    Admiral Locklear. I believe that North Korea is highly 
dependent on China for a lot of its resources. I don't know how 
long they would survive.
    Senator Graham. Not long.
    Do you agree that China must have a plan for propping up 
this crazy regime?
    Admiral Locklear. I don't know that----
    Senator Graham. They're not doing it by accident. They know 
who they're giving the money to, right?
    Admiral Locklear. They do, they do. It's a long----
    Senator Graham. What is their plan? Tell me the best you 
can. You're one of our eyes and ears in that part of the world. 
As briefly as possible, tell me, why does China continue to do 
this? How does this fit into their plan for the planet?
    Admiral Locklear. I would say that, speculating on China, 
my perspective of China's position on it is that over the 
last----
    Senator Graham. Have you ever asked them?
    Admiral Locklear. We've talked about the situation on the 
peninsula----
    Senator Graham. Have you ever asked them, why do you 
support this crazy guy? Why do you do this? What's in it for 
you?
    Admiral Locklear. My sense is that over time that they've 
developed this relationship with North Korea as a buffer to 
U.S. presence in South Korea on the peninsula.
    Senator Graham. Don't you think it's a little deeper than 
that, that they worry about a unified Korea, another democracy 
in their backyard?
    Admiral Locklear. I don't know that I would agree that they 
are--you'd have to ask them. I don't know that I'd agree that 
they're worried about a democracy. They have a pretty vibrant 
relationship with South Korea, actually a strategic 
relationship economically.
    Senator Graham. So you think North Korea is a buffer?
    Admiral Locklear. My sense is that they, again, that they 
may----
    Senator Graham. Okay. Why do they engage in cyber attacks 
against American business interests?
    Admiral Locklear. They do that so that they can get the 
technological advantage.
    Senator Graham. Why do they object to efforts to control 
the slaughter in Syria?
    Admiral Locklear. I don't have a comment on that.
    Senator Graham. Why do they not support us more in terms of 
controlling the ayatollahs in Iran?
    Admiral Locklear. I couldn't comment.
    Senator Graham. I'll give you a comment. I think this is a 
communist dictatorship that fears individual expression. They 
fear freedom of thought. They fear freedom of religion. They 
fear anything not controlled by the state. It is now time to 
deal with these people more directly.
    Do you consider China a friend or a foe?
    Admiral Locklear. I consider them at this point in time, in 
the terms of those two terms, neither.
    Senator Graham. With friends like this, do you agree we 
don't need many enemies?
    Admiral Locklear. I consider them at this point in time 
someone we have to develop a strategic partnership with to 
manage competition between two world powers.
    Senator Graham. I'll be a little more direct. I know you're 
a military officer and I appreciate your service. Their 
behavior is not only provocative, it's obscene. They're 
stealing American intellectual property. They're attacking us 
every day through cyber space. They're propping up one of the 
most dangerous regimes in the world that directly threatens our 
interests. They're one of the groups having Assad's back, one 
of the last real vicious people on the planet--not one of the 
last, but certainly one of the major.
    So you live in a tough neighborhood and I just wish you 
would share with the Chinese that there's a growing frustration 
here in Congress with the way they behave and we would like to 
have a more mature China as part of the international 
community, a China that would bring out the best in the world, 
not reinforce what's dangerous about it. I think I'm speaking 
for a lot of Republicans and Democrats.
    Thank you for your service.
    Chairman Levin. Thank you, Senator Graham.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I'd like to join my colleagues in welcoming you, Admiral 
Locklear, for the very important hearing today. Thank you for 
your leadership, and of course I want to thank the men and 
women who serve with you at PACOM. I visited with many of our 
leaders this past week and so I know how hard they work. The 
fact that they are very much a part of the community through 
volunteering and particularly with our schools.
    I have a question regarding Pearl Harbor Naval Shipyard. 
With the new strategy to rebalance our forces with a focus on 
the Asia-Pacific, the need for a strategically located 
maintenance facility such as the Pearl Harbor Naval Shipyard 
appears even more critical to the readiness of our fleet. When 
I visited Pearl Harbor, one of our attack submarines was in a 
drydock and I saw the huge effort and the hundreds of people 
who have to work to maintain our submarines.
    Do you foresee any adjustment to the role that you see 
Pearl Harbor Shipyard playing with this rebalancing, as well as 
the importance of continuing the modernization efforts at the 
shipyard, because I know that we need to modernize that 
shipyard in order for them to work on these very highly 
sophisticated submarines in order to support the fleet in the 
future? Can you share your thoughts with us on that?
    Admiral Locklear. Yes. I know of no plans to change the 
strategic direction we're headed with Pearl Harbor Naval 
Shipyard. In this AOR we have to have geographically 
distributed capabilities. They have to be operationally--you've 
heard this term--operationally resilient, and they have to be 
able to respond in crisis. But they also have to be affordable.
    So I assume that the changes we're going to make in the 
Pearl Harbor Naval Shipyard will continue to make it 
competitive in nature. But certainly what they produce for us 
from a military perspective, from the PACOM perspective, is 
important and will continue to be important.
    Senator Hirono. I hope that means that you will continue to 
support the efforts to modernize that shipyard so that they can 
conduct the kind of highly technical work that they do there.
    Admiral Locklear. For them to remain operationally 
resilient, they have to be able to do the type of work that I 
would need them do. If that requires them to modernize, then 
we'll need to do that.
    Senator Hirono. They do need to modernize. Some of the 
equipment seems to be under tents.
    When we talk about the importance of the Asia-Pacific area 
and the rebalancing to that area--I just participated in a tea 
ceremony with Dr. Sen of the Urasenke tea group and their focus 
is peace through the way of the tea. So our relationship with 
Japan is very important. Can you talk about the current status 
of our alliance with Japan, which is a critical alliance in 
light of everything that is happening in the Asia-Pacific area?
    Admiral Locklear. Yes, it is a cornerstone alliance, at 
least from the security perspective. Our relationship with 
Japan is equally as important today as it ever has been in the 
past and maybe more important. The strength of our military-to-
military relationships and the strength of our military 
alliance and training together is as strong as it's ever been 
and it's getting better.
    Their capabilities both from a joint command and control 
perspective, their capabilities to participate in high-end 
things like ballistic missile defense of their own territories, 
is growing. I see a continued good way ahead with our military-
to-military relationship with Japan.
    Senator Hirono. Would you say that one of the areas that we 
need to continue to focus on is the Futenma situation in 
Okinawa?
    Admiral Locklear. Yes. We've had recent good news where the 
Government of Japan provided to the governor of Okinawa the 
landfill permit and they're having that under consideration. So 
that's the next step to go forward to be able to realize the 
Futenma replacement.
    Senator Hirono. I know that this committee has had numerous 
hearings on how we can facilitate and ensure that movement of 
marines happens in a way that is of benefit to both of our 
countries, not to mention what we need to do regarding Guam.
    One of the areas that I've focused my questioning with 
other leaders from the military is your need to reduce your 
energy consumption, which DOD is the largest user of energy of 
all of our departments. So regarding your implementation of the 
DOD's operational energy strategy, I'm curious to know how this 
is progressing and what have been some of the successes of your 
implementation efforts? What have been the biggest challenges 
in your operational energy strategy efforts, and any lessons 
learned from the implementation of the strategy being 
integrated into PACOM's decisionmaking?
    Admiral Locklear. I'd like to give you a more complete 
answer if I can later on in writing.
    Senator Hirono. I welcome that.
    [The information referred to follows:]

    U.S. Pacific Command (PACOM) is aggressively pursuing operational 
energy and energy security goals. Given PACOM's extensive area of 
operations, it is imperative to ensure energy limitations do not become 
an Achilles' heel.
    First, we created a Joint Energy Security Working Group which 
includes representatives from each of the command directorates. This 
Working Group integrates energy considerations into all command 
functions: plans, engagement strategies, innovation efforts, exercises, 
intelligence, and operations.
    Second, we are completing a Pacific Command Energy Security 
Strategy. The strategy's main themes are: decreasing energy consumption 
through waste elimination and efficient technology; pursuing 
distributed generation; hardening our electrical grids; and engaging 
with our allies and partners to share energy technology, enhance 
interoperability, and more efficiently share the energy burden. As 
always, we will not sacrifice operational capability for energy 
efficiency.
    Third, as we update our family of plans, we consider operational 
energy at every step, thus creating a lasting legacy in our capstone 
planning documents.
    Finally, we are collaborating with the Office of the Assistant 
Secretary Defense for Operational Energy Plans and Programs to ensure 
energy readiness is regularly reported in our logistics system. By 
capturing this data, we can identify our largest energy-consuming 
activities, eliminate waste, target areas for material and non-material 
improvements, and better understand the costs associated with our 
operational tempo.

    Admiral Locklear. But to the larger perspective, inside of 
DOD, PACOM is the largest user of energy resources. The 
vastness of the AOR requires me to continuously think about 
where the energy resources are and where they're going to come 
from. I have to think about how they're going to get refined, 
the quality that I need to put into the airplanes and the 
ships. I think about, have to think about how I'm going to move 
it around or get it moved around in this vast AOR. I have to 
look to ensuring that the energy is going to be reliable when I 
get there, when I need it.
    I also have to consider that I have locations throughout 
this vast area, that many of them are remote, and more remote 
locations that might be available to look at alternative energy 
supplies. So it remains a critical aspect of the way we think 
through the strategy and we are following OSD's lead on looking 
at renewable energy sources, and you're familiar with many of 
them, and I think there has been some success in that area.
    Senator Hirono. Thank you. I think that's a very important 
strategy--for us to pursue energy, lessening the energy usage 
in DOD.
    Very briefly, I know that Senator Graham asked you some 
questions about China vis-a-vis North Korea. There's some 
indication that perhaps China is not too happy, perhaps 
displeased, with North Korea's rhetoric and actions. Do you 
foresee some action on the part of the Chinese either publicly 
or behind the scenes to stop or at least reduce the level of 
provocations from North Korea?
    Admiral Locklear. I think there've been statements by both 
Xi Jinping and by their minister, I believe of foreign affairs, 
in the last day or 2 that would indicate that they have some 
concerns about any disruption, continued provocations or 
disruptions in this part of the world or anything that would 
put a potential negative situation on their border.
    So I think these are maybe not as direct as what we like to 
see here, but I believe that there are indications that the 
Chinese Government is engaging. I think I'd have to refer you 
to the State Department to get more specifics on what the 
diplomatic channels are. But my sense is that they will 
consider their national interest, just like we do, and they 
will move to protect those national interests when the time 
comes.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hirono.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Admiral Locklear, welcome. I'm going to pick up on a theme. 
There's been a lot of questions about the relationship between 
China and North Korea and I just would like to associate myself 
with comments made by others. I wouldn't have wanted to answer 
that question that you were posed by Senator Graham, is China a 
friend or a foe. It reminded me, I was once in Israel and asked 
the foreign minister of Israel the same question about the 
relationship between Israel and Russia. He groaned and he said: 
``It's a friendship, but it needs an awful lot of work.''
    We have extensive ties with China commercially and in many 
multilateral venues, obviously, and the relationship is 
probably just about the most important relationship between two 
nations in the world. But when you list those items of 
controversy that Senator Graham mentioned--the Chinese position 
vis-a-vis Syria, the completely flagrant cyber-security attacks 
that can be testified to by any governmental agency, financial 
institution, or technology firm in this country will tell you 
about it occurring day after day after day, along with Chinese 
Government denials of the obvious reality, and then the 
situation in North Korea, it is clear that, while we have a 
friendship and an alliance and it's a very strategic one and 
it's important for the world, it needs a lot of work right now.
    I just would like to associate myself with the comments of 
the Senators who have said, I think the North Korean nuclear 
program would come to a grinding halt as soon as China demands 
that it happen. They have the capacity to. They have the 
ability to. They have the leverage to. I think you're right 
that the Chinese interest is in seeing North Korea as a buffer, 
but an unsafe, unstable buffer isn't much of a buffer.
    At some point, other nations in the Pacific region--South 
Korea, Japan, and others--will start to, because of the logical 
illogic of nuclear proliferation, will say: We don't want 
nuclear weapons, but if an unstable neighbor has them then I 
guess we're going to need to get them, too. It would be the 
worst thing for China to face the prospect of additional 
nations in the area with nuclear weapons. Ultimately, that is 
going to be what other nations will be compelled to do unless 
the North Korean program is stopped.
    So this is a comment, but it's to give you a sense of what 
we are thinking here as you deal with your counterparts in 
PACOM, Chinese counterparts, and others. We feel like China can 
bring it to a stop. We feel like they have not chosen to do so. 
The day is coming where they will need to do that or they will 
face other nations with weapons that they'll not be happy to 
have near their borders if they do not act in the role that 
they should.
    I just, having heard similar rounds of questioning in 
hearings before this one from Senator McCain and Senator 
Ayotte, Senator Graham, others who've asked these questions, 
this is the emerging consensus, I believe, of this body, this 
committee, many members of the committee, about China's 
responsibilities and where we will likely go. So I hope you 
would just take that in the ``for what it's worth'' category.
    A question, you've been asked a couple of things about 
sequester. I visited Joint Base Langley-Eustis last week in 
Virginia and that is the home of the Air Force's Air Combat 
Command. I talked to the men and women who maintain F-22s on 
the very day the United States had deployed F-22s to Osan Air 
Force Base in South Korea as part of these joint military 
exercises.
    We've had a remarkable show of force of both F-22s and B-2s 
to demonstrate that we're serious about the North Korean 
threat. But, as we were doing that, I was also being told, and 
I'm concerned about, Air Force plans to cut flying hours by 18 
percent as a result of the sequester. Air Combat Command 
informed us that as of this week it will enter what they called 
a tiered readiness status. One-third of its flying units will 
cease flying or stand down for the remainder of fiscal year 
2013.
    How will that stand down or cessation or that tiered 
readiness of flying units affect your important and critical 
missions in PACOM?
    Admiral Locklear. As I indicated earlier, the fact of 
sequestration at PACOM in the near mid-term will be the 
degradation, potential degradation of readiness of our forces 
that would have to follow on. So what we've done in the near 
term is to ensure that we're able to manage the scenarios that 
are most important to us, in my case North Korea, manage that, 
to manage our homeland defense.
    But as the sequestration starts to move downstream we start 
to see more and more negative impacts on the readiness of our 
force. So what it means to Air Combat Command is that the 
forces that are back here, that are going to be training to get 
ready to come and relieve the ones that are on station, will 
not have adequate flying hours, will not have adequate 
training, potentially not have it. That's the world that we're 
in right now.
    Senator Kaine. I think it is important. Many of us were 
very pleased when we did the defense appropriations bill to 
carry forward through year end to replace the CR. But even with 
that, the notion that a third of our air combat units are 
standing down from now to year end is something that should 
cause us some significant anxiety. I know it worries me.
    You talked a little bit and there was also some information 
in your testimony about the combined counter-provocation plan, 
which is a South Korea-led, U.S.-supported contingency plan for 
challenges in the region. I know that was just signed within 
the last couple weeks, I think March 22. Could you share a 
little bit more about that contingency plan and what are some 
of the strategies for dealing with contingencies, including 
miscalculations or threats over skirmishes or threats that 
escalate in ways that we obviously wish they wouldn't?
    Admiral Locklear. In all of our bilateral planning with our 
allies there, which we've been doing for years with them, and 
we continually evolve it based on the scenarios that we see in 
North Korea--this particular plan that you've heard about is 
just a follow-on iteration of our robust planning that we have. 
It's a look at the recognition that North Korea has established 
a cycle of provocation and then, following the Cheonan and the 
Yeonpyeong Island shelling a number of years ago, is that how 
do we best ensure that, as this cycle of provocation were to 
occur, how do we together as allies communicate, how do we 
understand the situation, how do we share intelligence, how do 
we posture ourselves to be able to ensure that we can manage 
those scenarios?
    I can't go into the details of it, but it's a good--from 
our perspective, it's a very good effort. It's an indication of 
a maturing of the alliance and I'm very supportive of the 
efforts that General Thurman and his counterpart in Korea have 
undertaken.
    Senator Kaine. Thank you, Admiral.
    Finally, your testimony discusses the continued challenge 
faced by the region because of typhoons, earthquakes, floods, 
tsunamis. What is PACOM doing to plan humanitarian assistance 
and disaster response with other nations and also with 
multilateral agencies and nongovernmental organizations?
    Admiral Locklear. Certainly the military aspects of 
Humanitarian Assistance and Disaster Relief (HADR)--that's not 
why you have militaries. You have them to do other things. But 
they certainly can provide assistance in these areas, 
particularly early on in those type of events. So, as we saw in 
Tomodachi in Japan, we saw where the readiness of military 
assets to kind of step in at the early stages of a huge crisis, 
a huge natural disaster, and to kind of get in front of the 
problem and get command and control set up and to give the 
people on the ground the will and the help they need to kind of 
get them jump-started to go solve it. Because, in the end, 
Tomodachi was not solved by the U.S. military or any other 
allies. It was predominantly solved by the people of Japan. But 
it needed to get them started.
    There's other areas that we can support. We have 
technologies and we have know-how that are in developed 
countries that we can share with developing countries. So in 
PACOM, I'm able to bring together many interagencies from our 
U.S. Government and we can transport some of that knowledge 
into these growing HADR scenarios that we do and exercises that 
we do with other countries.
    So for instance, in Bangladesh, over time, they have been 
able to develop warning systems and places where people go 
during large storms that have significantly decreased the 
damage and cost in human life. So we can do some of those 
things in our multilateral planning together. Plus the whole 
idea of HADR is--many times in this large area we have to look 
for places where our interests converge to be able to 
participate with each other. In this case everybody can 
converge on HADR--the Chinese, the United States, everyone can. 
So you will see exercises where we're operating with the 
Chinese, we're operating with others, the Indians, other people 
in the area, because we're going after a common cause. These 
things build trust and over time I think make us a stronger 
region.
    Senator Kaine. Thank you very much for your testimony.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator King.
    Senator King. Thank you for your thoughtful answers today. 
Are there treaty obligations between China and North Korea that 
we know of, a kind of mutual non-aggression or something like 
that?
    Admiral Locklear. I understand that there is an alliance of 
some mechanism there. I don't know the specifics of how it 
would be implemented, but I believe there is, that it's been 
widely speculated that North Korea is an ally and vice versa of 
China.
    Senator King. Here's the scenario that keeps me up at 
night. The North Koreans torpedo a ship, a South Korean ship. 
The South Koreans, as you've testified, seem to have a higher 
level of intolerance for this kind of activity than they have 
in the past, so there's a response from the South Koreans, some 
kind of strike in North Korea. There's then a response from 
North Korea of more severity in the South.
    What happens next? What's worrying me here is the ``Guns of 
August'' phenomenon, Barbara Tuchman's famous study of the 
beginning of World War I, where we stumbled into a world war 
because of a series of alliances based upon what could be 
considered insignificant incidents.
    What is next in that scenario? Let's posit an attack on 
Seoul or some large population area in South Korea. What 
happens next?
    Admiral Locklear. First, I share your concern about the 
seriousness of a provocation that would lead to a 
miscalculation or an escalation that would go kind of up and 
out pretty quickly. The timeline from when you would go to 
where you would see a miscalculation that went kinetic, let's 
say, to the time that you could see significant combat activity 
from the North is a very short timeline, primarily due to the 
proximity of Seoul and the South Korean rising economic state, 
a great ally there.
    So, it's hard for me to speculate exactly how those 
scenarios would play out. But what we have in place is the 
ability for the alliance to have--we've planned and thought 
through some of these events, in fact a lot of the events, and 
we have the ability to quickly consult with each other and to 
quickly bring the forces that would be necessary to hopefully--
the idea would be to get it under control and to de-escalate it 
as fast as possible, so that in the end, the best thing we as 
militaries can do is to preserve the peace, to get it back to 
peace so that diplomacy can work. We would hope that that could 
be done in North Korea.
    But it is a very dangerous situation. I'm not going to go 
where Mrs. Tuchman went on the scenario and extrapolate that 
because I don't think it has to go there. But it is something 
we have to watch and it could be quite volatile.
    Senator King. It seems to me that the key to the situation 
is our relationship with China, which has come out over and 
over, in terms of their ability to be a partner here in 
restoring peace, as opposed to an enemy.
    Let me ask a general question about China. Why are they 
arming? Why are they building their military? Why are they 
diverting more resources? We've been attacked. We know that 
there are people around the world plotting against this 
country. Do they have any serious fear of someone attacking 
their homeland? What's driving them to militarize?
    Admiral Locklear. First, they have a large standing army 
for internal security and border security issues that have 
worried them over time, is my guess. Then, over the last number 
of decades, as they have become a more economically powerful 
nation and they have money and resources to do it, they have 
increased their emphasis in cyber, increased their emphasis in 
space, increased their emphasis in maritime capabilities, which 
I think, if you pragmatically look at it, we shouldn't be 
surprised by that.
    They have growing global economic and national interests 
that are concerning them, and any nation-state that has those 
needs to be able to ensure the security of them. In many ways, 
you do that with navies and things that can deploy. So, 
building an aircraft carrier, does that concern me? To the 
degree that--first of all, aircraft carriers are hard and 
expensive to operate. But to the degree that they get one, it 
would seem kind of a natural progression to me for a power that 
was rising.
    The real key is that they need to be--and we've talked 
about this--there's a need for transparency. There's a need for 
them to build trust between their neighbors, which happen to be 
our allies. As they evolve this military capability, what are 
they going to do with it? Is it there to pursue their own 
interests at the expense of others in this kind of tightly-
controlled, tightly--small sea space part of the world? Or is 
it to be a contributor to a security environment where the 
global economy and all the peace and prosperity can continue?
    So that's what we have to contemplate.
    Senator King. Using the word ``transparency'' in connection 
with China strikes me as something of an oxymoron.
    I also would like, Mr. Chairman, to associate myself with 
the comments, particularly at the end, of Senator Graham's 
remarks about on the one hand we have this commercial 
relationship with China, on the other hand they have some 
opportunities to really assist in peace around the world and 
aren't doing so. I think Senator Graham put it quite well.
    To change the subject entirely, General Kelly from Southern 
Command, when he was here last month, talked about non-state 
actors, transnational criminal organizations, pirates, if you 
will, smugglers, human smugglers, drugs, weapons. Is that a 
serious issue in your command and are we equipped to deal with 
it effectively, particularly given the size of your 
jurisdiction?
    Admiral Locklear. It is a concern and it's a growing 
concern. I think that transnational organizations will, in the 
current security environment we're in, continue to proliferate. 
We've done some--I think the joint U.S. forces and the United 
States of America have done some really magnificent work over 
the last decade or so to help curtail, particularly, al Qaeda 
activity globally.
    But where you have disaffected populations and you have all 
these things that enter into frustrations of peoples, there's a 
potential for that. We don't see a significant terrorist threat 
today. There's pockets of it that we deal with. We work 
carefully with our Filipino partners in the Philippines in some 
operations that we help train and assist in there. Of course, 
in India there is always the concern about the transition of 
terrorists basically from the West into India that we discuss 
and talk about.
    But what we're doing mostly in PACOM to try to stay ahead 
of this is we're working to ensure our information-sharing, so 
that as these networks develop either internal to countries or 
transnationally across countries, that we're able to sense and 
understand with each other what they're doing, how they're 
doing it, and being able to interdict them before this becomes 
a larger problem.
    Senator King. I know my time has expired. One very quick 
question. In the Cold War there was the famous hot line between 
Moscow and Washington. Is there a similar kind of direct 
communication link between Washington and Beijing to your 
knowledge?
    Admiral Locklear. There is, and there's also--if necessary 
there would be one between me and Beijing as well. We exercise 
that on occasion. But as I've said to my Chinese counterparts, 
we need to get better at this, because I don't have the same 
relationship I have with maybe the chief of defense of Japan or 
of Korea or of the Philippines, where we understand each other, 
we meet routinely, we talk through security issues. We need to 
move that forward with our relationship with China, because we 
have many things that are friction points and we also have 
many, many things that we have in common with each other, and 
we need to understand those better.
    Senator King. It's nice to have a relationship before the 
crisis.
    Thank you, Admiral.
    Chairman Levin. Thank you very much, Senator King.
    Senator Nelson.
    Senator Nelson. Admiral, good morning.
    Admiral, going back to sequestration, in a big AOR such as 
yours, to be ready you have to do a lot of exercises. Is there 
any capability of using our increasingly enhanced ability in 
simulation to keep your troops ready as a substitute for actual 
exercises?
    Admiral Locklear. Senator, I think you'll find that we 
have--that we have spent an awful lot of money and time on 
developing simulations that help us. So I see simulations that 
help us across all of the joint force today that are critical. 
Many of what we used to fly in airplanes are now done in 
simulators and so there's a huge, huge cost savings there. Our 
highest-end ships today do most of their training via 
simulators because the cost to actually fire the weapons and 
very expensive missiles and things are prohibitively expensive. 
Even at the joint force command level, we do synthetic training 
where we bring in synthetic exercises to pulse the force and 
make it work.
    Should there be more of this? Absolutely. The down side to 
it is that it is expensive to get into it. There's a cost to 
have to get into it. So we have to weigh that, that cost of 
asking the Services to buy it, versus whether or not it can be 
realized.
    Senator Nelson. Let me ask you about, going back, to the 
North Korean nuclear program. Recently they said they were 
going to reopen their mothballed Yongbyon reactor, weapons-
grade plutonium. They had shut it down, as far as we know, in 
2007 and people have testified that it would take at least 6 
months to get the reactor up and running.
    Do you agree with this kind of assessment? Let me just stop 
there.
    Admiral Locklear. First, I think it's a bad decision by 
North Korean leadership to do it. It's in direct contradiction 
of the U.N. Security Council resolutions and the agreements 
that have been made in the past. It's certainly provocative in 
nature.
    The timeline that you discuss is what I have seen roughly 
approximates that. But it's just an approximation at this point 
in time.
    Senator Nelson. Okay, so that's 6 months. Now, it's another 
thing taking a nuclear weapon and then integrating it on a 
delivery system. Presumably, they have the ability to integrate 
it on short-range delivery systems. What about the long range? 
We've heard testimony from senior officials that they have not 
produced the ability of mounting nuclear weapons on long-range.
    Can you share your thoughts in this open forum or does that 
need to go into closed forum?
    Admiral Locklear. I would say that to get into the 
specifics of it, we'd probably need to go into a more closed 
forum. However, as a general rule, I would say that we have not 
seen them demonstrate that capability yet. Now, they have 
indicated to us that they have it, which makes us--we're going 
to take it seriously when someone indicates it, and I think 
we've done prudent due diligence steps to ensure the defense of 
the homeland and our allies and our forces forward. But we 
haven't seen them demonstrate that capability.
    Senator Nelson. For the American people to understand our 
capability with this bellicose nature of this new young leader 
in North Korea, can you state for the record here that between 
the United States' ground-to-air, sea-to-air capability of 
knocking down one of his threatening missiles from North Korea, 
that we have that capability?
    Admiral Locklear. I can confirm we have that capability.
    Senator Nelson. Yes, sir, that we do.
    Now, what about the F-22s? They were at Kadena going to be 
sent back to the United States and that was a plan that was in 
process until all of this bellicosity started by the Korean 
young leader. So then we sent our F-22s in some kind of 
exercise with South Korea. Do you think we ought to continue on 
that long-planned process of sending those F-22s out of Japan 
back to the United States?
    Admiral Locklear. We rotate--we have two types of forces in 
my theater, one that are forward-deployed all the time, which 
is forward naval deployed forces and the air components that 
are there in both Japan and Korea; and then we have rotational 
forces. So I use a blend of those to maintain the capacity of 
the theater to deal with what we have to.
    Some of those are perfectly useful being deployed from the 
States here. So, over time we've used force packages, F-22s are 
one, where we rotate them in and out. It lets them go back and 
get the high-end training they need and those types of things.
    The decisions we made recently, I won't talk about 
specifically why we made those. But I think it was a prudent 
decision that we made, on General Thurman's behalf, to maintain 
stability of the force that we saw in Korea just in case we saw 
a contingency that we hadn't anticipated.
    What I have more concern about is not so much our ability 
to rotate them, but our ACC's capability to sustain them 
through sequestration in a readiness status that allows them to 
get to me in time to be trained and ready.
    Senator Nelson. Finally, Admiral, you have a lot of 
terrorist activity going on in your AOR and you've had some 
stunning successes over the years--catching the Bali bomber, 
the success that we've had in the southern Philippines, 
Zamboanga. But terrorism continues throughout the AOR, 
including Mumbai, et cetera.
    If you would provide, in a classified setting for the 
committee, what you are doing with regard to an attack not only 
of the terrorism, but all of the other illicit activities that 
go along with terrorism, such as transfer of drugs, money 
laundering, and other terrorism-related activities, I would 
appreciate that for this committee in a classified process.
    Admiral Locklear. All right, sir. I will take that and 
provide it.
    Senator Nelson. Have that, of course, sent to the chairman, 
but make sure that part of it is directed to me.
    Thank you.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. We will ask staff when this is received in 
a classified form to notify the members of the committee that 
it's available for members. Thank you for raising that, Senator 
Nelson.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Admiral Locklear, thank you very much for being here and 
for your stamina in responding to our questions.
    I want to--forgive me if I re-cover some ground that you've 
already responded to. Assuming that we continue to operate on 
heightened alert with respect to North Korea, is there any 
indication that sequestration has limited your ability to 
respond to a crisis there?
    Admiral Locklear. It has not limited my ability to date.
    Senator Shaheen. That's really the question that I have, 
because you have indicated that sequestration will have an 
impact over time in the operational capability of PACOM and, 
obviously, other parts of our military. So at what point are we 
going to get to that tipping point where it is going to have an 
impact on our ability to respond, and how do we know that, and 
how can you convey to members of this committee and to Congress 
when we've reached that tipping point?
    Admiral Locklear. We're continually looking at our 
readiness capabilities in the AOR, in my area, particularly of 
the forward-deployed forces. So I have certain priorities that 
I maintain as we go through any kind of budget decision 
process. One is, I have to be able to sense what's going on in 
my AOR. So there's a continuing high demand for intelligence 
and reconnaissance type of activity so we know what's going on. 
It gives me the ability to understand what's happening. It 
gives me the ability to coordinate with our allies. So we do 
that.
    The second thing is I need to make sure that, at least in 
the near term right now, in fact in the long term too, that the 
forces on the Korean Peninsula, that they're ready to do what 
we call a ``fight tonight,'' if something happens there that 
we're able to respond in ability to protect the interests of 
the alliance and the interests of the United States, as well as 
the soldiers, sailors, and airmen that are on the peninsula. So 
keeping those forces attuned and ready to be able to respond is 
something we're doing and that I've done now.
    Then, finally, my concern is as those forces need to be 
replaced over time, are those forces that need to replace them, 
are they agile, are they trained, are they able to get there? 
Is there the money to do the training to keep those skill sets 
up? This is where I think the impacts of sequestration start to 
make the choices very difficult for the Services. The Services 
do have some leeway in where they make their decisions, but not 
a lot, particularly in the near term.
    Now, as you go further down into the planning cycle into 
the out years, you might be able to start looking at different 
ways of doing it. But, in the near-term and the mid-term, it's 
going to have an impact on us.
    Senator Shaheen. So, I missed the part where you said there 
was a mechanism to notify Congress when you get to that point.
    Admiral Locklear. I didn't mean to skip over that part. We 
keep a very formatted reporting system that's monitored by the 
joint force. The Chairman then takes from me, about once a 
quarter, my assessment of the risk that we're assuming in the 
theater, and that risk then gets reported to the Secretary of 
Defense. My guess is that through the dialogue at that level 
that our readiness levels are well-reflected.
    There's no secret here. We won't hide readiness that we 
don't have. We're very upfront about it. It's a matter of kind 
of a--I put it, like a math equation. What you put in is what 
you get out. When we can't meet those readiness requirements, 
then that becomes risk and that's risk that I have to manage as 
a combatant commander. When my risks get too high, where they 
go from risks to being potentially worse than risk, then my 
responsibility is to tell my leadership and you that those 
risks are too high.
    Senator Shaheen. As chair of the Readiness and Management 
Support Subcommittee, I hope you feel like you have a direct 
line in to me when you get to that point. I certainly hope that 
we will have addressed sequestration before we get to that 
point. I think it's critical to our national security.
    Let me follow up on a line of questioning that Senator 
Kaine was going after, relative to the potential for what's 
happening in North Korea to set off a nuclear arms race across 
Asia. I understand that India continues to develop nuclear-
capable ballistic missile submarines, that Pakistan has 
indicated an interest in doing that because of India's 
capability. So, how do we combat the risk that, whether it's 
those nuclear ballistic missile technologies, whether it's the 
technology that North Korea now has and we know already has 
shared with other non-state actors in a way that is dangerous, 
how do we keep that from proliferating?
    Can you also talk, if you would, the extent to which the 
effort to address arms control has an impact on the thinking of 
actors about this question?
    Admiral Locklear. First, let me give you my position from 
the PACOM commander. First, I support the nuclear triad from 
where I sit.
    Senator Shaheen. Right.
    Admiral Locklear. I support, as long as there are nuclear 
weapons in the world, that we have a safe, reliable, and secure 
nuclear deterrent. But also the father in me says that I'd like 
to see a world that didn't have nuclear weapons, because--will 
we ever realize that? I don't know, but it would be nice some 
day if the world could see themselves to that. But I'm not 
predicting that that's going to happen any time soon.
    So to the question of the proliferation among what I would 
call state actors that are building a nuclear deterrent, that's 
really not something--that has to be dealt with above my level. 
But when you talk about a North Korea that is potentially going 
to proliferate nuclear technology to irresponsible actors, and 
particularly maybe to transnational threats or to actors which 
you could extrapolate that to, this becomes a very real concern 
for me.
    Now, so it gets to the issue of how do you monitor it, how 
do you interdict it, how does the international community 
enforce the U.N. Security Council resolutions that forbid all 
this, so it all fits together, my part of that is on kind of 
the monitoring and interdiction side of it.
    Now, so the question then of how does the nuclear 
proliferation or a discussion of nuclear weapons in the 
theater, which I think is what you're kind of getting at, we 
have an extended deterrence policy for our allies in this part 
of the world, and it works. There are occasionally discussions 
about, well, would our actions here in this, what we're doing 
here, would it create a desire by our allies or other partner 
nations to want to proliferate their own nuclear systems?
    First of all, it would not be beneficial. It's unnecessary. 
I'm confident that the U.S. extended deterrence policies are 
adequate and substantial enough to do what's necessary. But 
deterrence isn't just about nuclear weapons. It's also about 
conventional capabilities and how those conventional 
capabilities are applied and how they're viewed.
    So this is what makes it important for our forward 
presence, our exercises that were talked about here, that build 
that confidence in the alliances that we've had over the years, 
that make it--in any scenario, you want to handle a contingency 
through conventional means. You just don't want to go the other 
direction. So ensuring that the conventional side of our 
deterrent is strong deserves equally as much discussion as the 
other side of it, in my view.
    Senator Shaheen. Thank you.
    Chairman Levin. Thank you.
    I just have one additional question. Then I'll call on 
others to see if they might for a second round just have an 
additional question or two.
    Admiral, I think you've heard from this committee, to a 
person, some very strong feelings that China could, if it 
chose, put an end to the provocative, blustering kind of 
comments that are coming from North Korea and thereby help to 
avoid a miscalculation and a possible spinning out of control 
of military actions on the peninsula. We all, I think, have 
very strong feelings that China creates all kinds of problems 
for us in terms of what they do in cyber, in what they do in 
other areas. I mentioned some of those in my opening statement 
and others have mentioned them very powerfully as well.
    But, in this interest, our interests are the same. It's 
clear to me that China, at least in their vote at the U.N., is 
indicating some willingness now to take some action to try to 
prevent the kind of spinning out of control that could lead to 
serious military confrontation on the Korean Peninsula.
    I asked you whether or not we are ready to respond 
appropriately and proportionately should North Korea take some 
action against our ally South Korea or against us, and you 
indicated that we are ready. You also indicated that there is a 
hotline between you and your counterpart in China that you 
could use and that you at least are able to communicate with 
them should you choose.
    I guess my question and my request would be the following: 
that the military-to-military contact sometimes is the best way 
to show a seriousness of purpose on our part with China, and 
their military has a major influence, obviously, in their 
government. Would you explore the possibility, after talking to 
the Secretary of Defense, the Chairman of the Joint Chiefs, and 
the, perhaps, Secretary of State--the Secretary of Defense 
could do that--would you explore the possibility as to whether 
it might be useful for you to contact your equivalent person in 
the Chinese defense establishment, your counterpart, and 
express to them, your counterpart, the great desirability of 
China weighing in with North Korea before this--these incidents 
grow in seriousness, and make it clear to the Chinese that we 
and the South Koreans want them to act to put an end to the 
North Korean provocations, and that we and our South Korean 
allies are prepared to respond in an appropriate way should 
North Korea take any action against the South or against us.
    Would you explore the possibility of that, whether you 
should, at this point, make that military-to-military 
connection with your counterpart in China, with your superiors 
at the civilian, at the Secretary of Defense level, and also 
with the Chairman of the Joint Chiefs? Could you explore that?
    Admiral Locklear. Absolutely, Senator, I will explore it. 
We'll look at it in the context of the benefit, which I think 
there are--obviously, I have advocated for this with my 
counterparts in China. There is benefit to establishing those 
types of links. In this particular scenario, I think because of 
where we are it will have to be tied in with the other 
communications that are happening through other forms of our 
government, which I'm sure there are those that are going on 
with their Chinese counterparts as well.
    Chairman Levin. I agree that all ought to be coordinated 
and linked. But it could add a very important element if this 
military-to-military communication occurred with your Chinese 
counterpart.
    Admiral Locklear. Yes, sir.
    Chairman Levin. So that's something you could take on?
    Admiral Locklear. I will explore it, yes, sir.
    Chairman Levin. That's what I mean. Thank you.
    Any other question? I don't need to call in order. I'll 
just see if anyone raises their hands at this point. Senator 
Shaheen.
    Senator Shaheen. I just had one follow-up to the question 
about should we need to respond to North Korea. What would 
China--can you suggest what you think China's reaction might be 
should the United States respond to an act of aggression by 
North Korea?
    Admiral Locklear. Again I'd be making hypotheticals, but I 
would again go back to what are their enduring interests there. 
One is their own border security. I think they would be 
concerned about refugee flow, uncontrolled refugee flow. 
There's 25 million people there that will be affected by 
something like that, and how would that be controlled.
    I think they will have a similar concern as we have about 
WMD, not only particularly fissile material but all other WMD 
that we know that he has the capability and the capacity to 
have in the country, and how that would be managed at the time. 
We're contemplating all that and are thinking through how that 
would be done with our allies in the South as well.
    So I think--how would they respond beyond that and how they 
would do it, I can't speculate on that. But I think again they 
would move to secure their national interests, just like we 
would--will.
    Senator Shaheen. Thank you.
    Chairman Levin. Thank you.
    If there's no other questions, then we thank you very much, 
Admiral. As always, you've been very direct and very helpful, 
and we greatly appreciate your presence here this morning and 
all the great work you and those who work with you are doing in 
PACOM.
    Thanks again and we will stand adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Claire McCaskill

                                 JAPAN

    1. Senator McCaskill. Admiral Locklear, we have seen an enormous 
increase in our costs while host nations are paying less in spite of 
the agreements we have with them. For example, in Japan, U.S. 
nonpersonnel costs have doubled since 2008 while the Japanese have 
contributed less every year since 2000. Last week it was announced that 
the United States and Japan agreed on a new timetable for the return of 
Futenma and other military bases on Okinawa. In your prepared testimony 
you state that the Government of Japan (GoJ) has committed to providing 
$3.1 billion to support the strategic realignment. What measures are in 
place to ensure that the Japanese Government fulfills its share of this 
$3.1 billion commitment and what is being done to change the course of 
our increasing costs while theirs are decreasing?
    Admiral Locklear. In support of the Defense Policy Review 
Initiative, the GoJ agreed to provide funding for the reposturing of 
U.S. forces throughout Japan, particularly the relocation of 8,000 
marines from Okinawa to Guam. Under the original terms of the 
agreement, the GoJ committed $3.1 billion to this effort. 
Unfortunately, continued congressional funding restrictions undermine 
the realignment of forces in the PACOM area of responsibility (AOR). 
This situation prevents the Department of Defense (DOD) from spending 
the nearly $1 billion in GoJ funding that has been transferred to the 
U.S. Government and hinders the further funding of projects by the GoJ.
    Any concerns regarding the equity of cost sharing will be addressed 
during the next round of Department of State (DOS)-led Special Measures 
Agreement negotiations that will take place in 3 years.

    2. Senator McCaskill. Admiral Locklear, in Europe we have seen 
numerous issues with in-kind payments being accepted instead of 
pursuing cash settlements associated with consolidation and relocation. 
As we conduct the Pacific Pivot, will all payments be in the form of 
cash settlements?
    Admiral Locklear. No. The Status of Forces Agreements in Japan and 
Korea do not provide for the host nation to make residual value 
payments when we return facilities or areas. In turn, the United States 
is not responsible to cover the costs of the restoration for returned 
facilities.

    3. Senator McCaskill. Admiral Locklear, will Congress receive 
advance notice and justification of any intent to accept in-kind 
payments?
    Admiral Locklear. No. Since the host nation does not have an 
obligation to make residual value payments for the returned facilities 
or areas, we will not be in a position to accept either cash payments 
or in-kind payments for such returns.

                          JOINT STRIKE FIGHTER

    4. Senator McCaskill. Admiral Locklear, the Navy is currently 
projecting a strike fighter shortfall due to continued delays in the 
Joint Strike Fighter (JSF) program. The Navy is attempting to mitigate 
this shortfall by extending the life of older aircraft. However, we 
don't yet know whether this effort will be successful. Currently, the 
Navy has no plans to procure the F/A-18 Super Hornet beyond fiscal year 
2014. As a combatant commander, you depend on the Services to fulfill 
your mission requirement needs, and I imagine carrier-launched strike 
fighter aircraft play an important role in the Pacific Command (PACOM) 
AOR. So, the Navy's strike fighter shortfall becomes your strike 
fighter shortfall. As a commander, how does this shortfall and lack of 
reliability affect PACOM's ability to conduct operations?
    Admiral Locklear. My expectation is that we will continue to 
maintain Forward Deployed Naval Forces (FDNF) and deployed carrier 
strike group strike/fighter squadrons at fully-equipped levels, thus 
supporting our operational requirements. However, continued operations 
in overseas contingencies has resulted in the Navy's F/A-18 Super 
Hornet fleet flying at a higher operational tempo than planned, aging 
the fleet faster than anticipated when the timeline for introduction of 
the follow-on F-35 JSF was established. In addition, as the total force 
Super Hornet numbers come down, operational tempo of individual units 
will increase, further exasperating the shortfall in the strike fighter 
community. While this will not directly affect my ability to operate on 
a day-to-day basis, it will impact nondeployed squadrons will likely 
reduce our surge capacity in the event of contingency operations.

                              NORTH KOREA

    5. Senator McCaskill. Admiral Locklear, last month DOD publicly 
announced the participation of two B-2 stealth bombers in a practice 
bombing run over South Korea. While Secretary Hagel stated publicly 
that the use of the B-2s was not intended to provoke North Korea, this 
appears to be the first time B-2s have been used in this way on the 
Korean peninsula. Why was the decision made to publicly disclose the 
use of the nuclear-capable B-2 bomber at time when tensions with North 
Korea are so high?
    Admiral Locklear. [Deleted.]

    6. Senator McCaskill. Admiral Locklear, was the use of the B-2 in a 
practice bombing run requested by allies in the region, and did we 
inform our allies that the B-2s would be used in this way?
    Admiral Locklear. The B-2 training sortie was not requested by our 
allies. However, the B-2 training sorties were routine in nature and 
coordinated with the host nation and appropriate regional allies and 
partners in a timely manner.

    7. Senator McCaskill. Admiral Locklear, were our ambassadors in our 
allied nations in the region given notice that the B-2s would be used 
and publicly disclosed?
    Admiral Locklear. Yes, the ambassadors in the region were notified 
of the participation of B-2s in Exercise Foal Eagle. Their 
participation was acknowledged in response to questions from the media 
after the B-2s had achieved their training objectives.

    8. Senator McCaskill. Admiral Locklear, was the decision to use the 
B-2s in this manner coordinated with U.S. diplomatic efforts being led 
by DOS?
    Admiral Locklear. Yes. The Office of the Secretary of Defense led 
the coordination between the DOS and the DOD.

    9. Senator McCaskill. Admiral Locklear, how did our allies in the 
region react to the use of the B-2s?
    Admiral Locklear. The response from our allies was generally very 
positive. These flights, along with our force posturing, reassured our 
allies and demonstrated our commitment to the defense of the Republic 
of Korea and Japan and to regional peace and stability. They also 
demonstrated our commitment to the nuclear deterrence umbrella.

    10. Senator McCaskill. Admiral Locklear, I am aware that North 
Korea often acts aggressively when recognizing significant events, such 
as commemorating the assent to power of past leaders. Does PACOM have 
lessons-learned from past bellicosity of North Korean leaders during 
events like we are currently experiencing and, if so, how is it 
applying them?
    Admiral Locklear. Yes, PACOM has lessons-learned from the past 
bellicosity of North Korean leaders during events like the tensions we 
are currently experiencing and is applying them. For example, prior 
provocation cycles have informed the timelines we use to deploy 
ballistic missile defense assets to the theater. We are currently 
monitoring Kim Jong Un's actions to evaluate whether he will continue 
the patterns of his father and grandfather or whether he will establish 
his own approach to confrontations with the United States and Republic 
of Korea.

    11. Senator McCaskill. Admiral Locklear, you stated that our 
missile defenses have the ability, ``to defend the Homeland, to defend 
Hawaii, defend Guam, to defend our forward-deployed forces, and defend 
our allies.'' I'm concerned about U.S. forces and their dependents 
living in South Korea and Japan. North Korea is reported to have more 
than 1,000 missiles. Do we have adequate early warning capabilities and 
missile defenses in the region to protect them?
    Admiral Locklear. [Deleted.]

    12. Senator McCaskill. Admiral Locklear, are there emergency action 
plans in place to safeguard and evacuate U.S. dependents located in the 
region?
    Admiral Locklear. [Deleted.]

    13. Senator McCaskill. Admiral Locklear, should we consider moving 
dependents from the region now?
    Admiral Locklear. No. PACOM continuously consults with the DOS, 
U.S. Forces Korea, and U.S. Forces Japan regarding force protection 
posture. After weighing historical trends and current intelligence, I 
do not assess that we should remove dependents from the region.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                             CLIMATE CHANGE

    14. Senator Inhofe. Admiral Locklear, following up on your response 
regarding your analysis of the long-term threats facing your region, 
you cite numbers from the U.S. Agency for International Development 
(USAID) on the impact of natural disasters on civilian populations, 
most of whom will live within 200 miles of a coast and the impact of 
climate change. Yes or no, do you believe climate change is the most 
urgent long-term threat facing your command?
    Admiral Locklear. No, not the most urgent.

    15. Senator Inhofe. Admiral Locklear, can you characterize which 
natural disasters you reviewed since 2008 were, in your opinion, the 
result of climate change?
    Admiral Locklear. PACOM does not analyze or categorize the root 
cause of natural disasters. However, since 2008 humanitarian assistance 
and disaster response (HADR) events have increasingly consumed PACOM 
resources in terms of planning and operations.

    16. Senator Inhofe. Admiral Locklear, is it your position that 
humanitarian assistance and disaster response operations should be the 
primary PACOM mission for long-term planning?
    Admiral Locklear. The frequency and magnitude of extreme weather 
events and natural disasters around the world will continue to be a 
concern. Responding to these events is not a primary PACOM mission; 
however, when directed, and in coordination with U.S. lead agencies, 
PACOM has responsibility to support foreign government authorities when 
they request military support through the U.S. Ambassador. 
Additionally, PACOM plays an important role in assisting partner 
nations to build their capacity to respond.
    Natural disasters also have second and third order impacts on 
security. These impacts include adversaries exploiting the instability 
created by a natural disaster, and internal unrest caused by food 
shortages and other domestic pressures. PACOM seeks to consistently 
shape the Asia-Pacific Theater and foster regional security 
cooperation. Therefore, we must continue to work closely with partner 
nation militaries and governments, U.N. agencies, and international 
nongovernment organizations (NGOs) to prepare for and respond to 
humanitarian assistance and disaster response operations.

    17. Senator Inhofe. Admiral Locklear, how much of the PACOM budget 
is set aside for humanitarian assistance and disaster response 
operations?
    Admiral Locklear. Humanitarian Assistance funding for PACOM is 
provided by the Defense Security Cooperation Agency (DSCA) as part of 
the Overseas Humanitarian, Disaster and Civic Aid (OHDACA) Program. 
OHDACA is 2-year funding and PACOM received $18.8 million in fiscal 
year 2012/fiscal year 2013 and $6.0 million in fiscal year 2013/fiscal 
year 2014.
    Disaster-response funding is also provided by DSCA as needed for 
Office of Secretary of the Defense-approved relief operations in the 
PACOM AOR. PACOM received $10.0 million for disaster relief operations 
in Thailand in fiscal year 2012 and $5.0 million for disaster response 
operations in the Philippines in fiscal year 2013.

    18. Senator Inhofe. Admiral Locklear, which U.S. agency do you 
consider to be the lead for humanitarian assistance and disaster 
response operations overseas?
    Admiral Locklear. The USAID's Office of U.S. Foreign Disaster 
Assistance (USAID/OFDA) is the lead agency for humanitarian and 
disaster response operations overseas.

    19. Senator Inhofe. Admiral Locklear, are you developing any plans 
to address climate change? If so, can you describe those plans?
    Admiral Locklear. PACOM does not have any plans that specifically 
address climate change, but we do recognize the threats of extreme 
weather events, natural disasters, erosion of littoral areas, and other 
global effects associated with climate change as security challenges 
within the region. PACOM plays an important role in assisting allies 
and partners' capacity and capability to assess and address these 
threats and respond to HADR events. Building relationships with allies 
and partners through HADR capacity building efforts is an integral part 
of PACOM Theater Strategy. Additionally, PACOM has and will continue to 
work by, through, and with interagency (e.g., DOS and USAID) 
international, and nongovernmental organization partners to improve 
regional resiliency, stability and security in confronting climate 
change challenges.

    20. Senator Inhofe. Admiral Locklear, in your testimony you said `` 
. . . it is important that the countries in this region build the 
capabilities into their infrastructure to be able to deal with the 
[natural disaster] types of things . . . '' Is it PACOM's primary 
responsibility to ensure that partner nations build the proper 
infrastructure to deal with climate change?
    Admiral Locklear. No, it is not PACOM's primary responsibility to 
ensure that partner nations build the proper infrastructure to deal 
with climate change. However, in the interest of underpinning regional 
stability, it is important for PACOM to engage in ways that build 
partner capacity (BPC), promote resiliency and set the theater for 
operations across the spectrum of military operations. Humanitarian 
assistance and disaster relief is one area where broad consensus drives 
increased cooperation. The second order effect of BPC, which is a 
powerful yet inexpensive engagement tool, is increased access and 
forward presence for U.S. forces. BPC across a variety of areas, from 
terrorism to human trafficking, maritime security to disaster response, 
is a key enabler of our forward military posture strategy in the 
theater.

                     RESOURCES FOR ASIA REBALANCING

    21. Senator Inhofe. Admiral Locklear, in recent press coverage of a 
speech by the Deputy Secretary of Defense, Ash Carter, at the Center 
for Strategic and International Studies, reaffirmed that ``the U.S. 
rebalance towards Asia is durable and will persist and grow regardless 
of automatic, widespread budget cuts this fiscal year and lower overall 
spending levels in future years.'' I know DOD is currently in the 
process of undergoing a Strategic Choices and Management Review to 
assess the impact of reduced budgets on the Defense Strategic Guidance 
issued in January 2012. In your testimony, you expressed concern about 
the impact of budget cuts on the Asia rebalancing. From your 
perspective, what items contained in the budget request for fiscal year 
2014 are critical for you to carry out the rebalancing?
    Admiral Locklear. All of them are critical at some level. Over the 
past decade, the United States has been focused on conflicts and 
challenges in the U.S. Central Command AOR. As the United States begins 
to transition out of Afghanistan, it is imperative that we follow 
through with the President's commitment to re-engage in the Indo-Asia-
Pacific.
    In order to deter and, if necessary, defeat aggression, we must 
have the capability and capacity to decisively defeat any opponent. 
This requires the correct mix of systems to counter both large-scale 
and high-end offensives. Additionally, we need to have the ability to 
move personnel and equipment, and protect them, across vast stretches 
of ocean.
    All of the weapons systems, personnel, and transportation will mean 
nothing if we cannot maintain a high standard of training. Readiness is 
the glue that holds our forces together. An inadequately trained force 
is a liability, not an asset.
    To single out a specific item in the budget as critical to carrying 
out the rebalance would be difficult as they are all linked together in 
support of our strategy.

    22. Senator Inhofe. Admiral Locklear, what specific U.S. force 
posture changes, other than increased exercises, removing I Corps, the 
25th Infantry Division, and the III Marine Expeditionary Force from the 
worldwide service rotation, elevating the Commander of U.S. Army 
Pacific to a four-star position, relocating 8,000 marines to Guam and 
Hawaii, and rotating marines through Australia and Littoral Combat 
Ships through Singapore are part of your rebalance plan over the next 5 
years?
    Admiral Locklear. PACOM's force posture efforts over the next 5 
years aim to address rapidly-evolving threats to forces in the theater 
while encouraging partner nation contributions to their own defense and 
pursuing assured access to rotational and small footprint locations for 
engagement and crisis response.
    We will continue to advocate for more investments in resiliency, 
including protecting critical defense infrastructure in Hawaii and 
forward operating locations. We will also seek to field new systems and 
capabilities, such as the F-35 JSF, to maintain a credible regional 
deterrence.
    Additionally, we envision a significantly Increased Rotational 
Presence (IRP) in the Philippines. Increased access to Philippine 
ports, airfields, and training areas will be foundational to our 
rebalance to Asia. We intend to accomplish this IRP by partnering with 
the Armed Forces of the Philippines to determine host nation locations 
which are currently capable of supporting U.S. forces or require 
minimal infrastructure development.
    Special Operations Command Pacific, in order to fill longstanding 
and critical capability gaps, anticipates gaining additional theater-
assigned forces and continental U.S.-based rotational forces. These 
additional forces may include fixed wing, CV-22 tilt-rotor, rotary-wing 
aviation, Intelligence, Surveillance, and Reconnaissance assets, SEAL 
Platoon and boat detachment, military information support teams, civil-
military support elements, and Marine Special Operations teams. Forces 
will utilize intra-theater lift platforms to move to specific operating 
locations to conduct activities.
    We will also seek to increase amphibious lift capabilities and make 
infrastructure improvements in Japan, Guam, and Australia (pending 
access agreements) in support of the relocation of marines to Guam and 
Hawaii. Providing these supporting lift capabilities and infrastructure 
improvements is essential to ensure PACOM maximizes opportunities to 
exercise, train, and operate with partner nation militaries, while 
maintaining quality of life standards for our forward-deployed forces.

    23. Senator Inhofe. Admiral Locklear, have you identified 
requirements for fiscal year 2014 that are not currently included in 
the budget request?
    Admiral Locklear. No. The President's budget has supported efforts 
to begin a rebalance to the Indo-Asia-Pacific. Our immediate concern is 
the potential for further cuts due to sequestration which could 
negatively impact the rebalance. Continued sequestration, as well as 
yearly continuing resolutions, imposes significant uncertainty on our 
planning ability.

    24. Senator Inhofe. Admiral Locklear, what is the impact of 
sequestration and budget cuts on your plan to increase exercises in the 
Pacific as part of the rebalance?
    Admiral Locklear. The direct impact of sequestration on the PACOM 
fiscal year 2013 Joint Exercise Program (JEP) is a decrement of $13 
million (approximately 20 percent) to joint exercises conducted through 
the remainder of fiscal year 2013. The realization of this fiscal 
decrement will be taken from a combination of the Joint Exercise 
Transportation Program used to provide Strategic Lift to components for 
unit participation in exercises as well in the Service Incremental 
Funds used to offset Service component costs for participation in Joint 
Exercises. The attached table outlines current impacts to the JEP. Two 
of three planned iterations of Commando Sling have been cancelled due 
to Service component cost mitigation measures and reduced flying hours. 
Northern Edge 13 was cancelled due to priorities of participating units 
and flying hours. Talisman Saber 13 and Ssang Yong 13 were rescoped to 
meet both JEP decrements as well as Service sequestration guidance. 
Terminal Fury 13 was rescoped partially due to internal reorganization 
and in part to sequestration cuts.
    Our exercises are increasingly focused on strengthening our 
alliances and partnerships, enhancing our presence, building regional 
relationships, while simultaneously achieving the highest level of 
readiness for our forces. Training underpins and strengthens PACOM's 
military preeminence; it achieves and sustains force readiness, 
develops capabilities and confidence, fosters cooperation, both within 
PACOM forces and interoperability and capacity building with allies and 
partner nations. Exercises demonstrate PACOM's clear sustained 
commitment to a secure and peaceful Asia-Pacific region.
    PACOM continues to adjust to the effects of sequestration on our 
JEP. In support of PACOM priorities, preliminary adjustments have been 
made to the JEP to enable us to execute our program in the AOR. 
Projected participation reductions are not expected to significantly 
impact the readiness of our forces or our obligations to our allies and 
partners. Our long-term effort will be adjusted based on funding 
availability and prioritized in accordance with readiness and rebalance 
goals. As part of our strategy, we recently introduced two new JEP 
exercises for fiscal year 2014: Association of Southeast Asian Nations 
(ASEAN) Defense Ministers Meeting/ASEAN Regional Forum Disaster Relief 
Exercise, and Proliferation Security Initiative. These events are not 
as large as some of our other exercises. However, their introduction 
highlights our expanded approach to promoting cooperation and 
understanding.
    The strategy to rebalance to the Asia-Pacific has not changed, but 
what is affected in the near term is the tempo. The levying of both the 
sequestration and Continuing Resolution bills so late in the fiscal 
year impacted the Services' ability to provide the assets and forces 
necessary to fully leverage in the rebalance strategy. For example, 
fiscal year 2013 exercise support, partnership activities, and 
engagements are reduced due to Service component cost mitigation 
measures. Limited flying hours, ship steaming days, and travel funding 
have reduced some of our engagement activities.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    25. Senator Inhofe. Admiral Locklear, you mentioned the lift 
requirements necessary to move the marines around your theater in 
testimony to Senator McCain and in what you have submitted within the 
last 2 weeks to the Senate Armed Services Committee. Can you identify 
which of these lift requirements are included in the budget request for 
fiscal year 2014? Given the possibility of defense budget cuts, are you 
concerned about having the strategic air and sealift to support the 
annual deployments?
    Admiral Locklear. Yes. The presidential budget for fiscal year 2014 
requests $24 million to continue the lease of High Speed Vessel, MV 
Westpac Express. Additionally, $3.5 million is requested for Joint High 
Speed Vessel steaming days in support of the Marine Rotational Force-
Darwin. However, I am concerned that the net effect of sequestration 
will negatively impact the Indo-Asia-Pacific. Specifically, given the 
size of the PACOM AOR, the lift capabilities provided by the Air Force 
and Navy, which are critical to our engagement with our allies and 
partners, our presence and our ability to execute our plans must be 
preserved.

    26. Senator Inhofe. Admiral Locklear, when do you expect to have 
submitted all of the necessary information to the Office of the 
Secretary of Defense for a master plan for the movement of marines from 
Okinawa?
    Admiral Locklear. DOD is conducting a Supplemental Environmental 
Impact Study (SEIS) for the new Marine Corps main cantonment area and 
live-fire training area complex on Guam. We anticipate the draft SEIS 
being available in 2014, with a final record of decision in February 
2015. This study will inform the master plan which we project will be 
submitted to DOD in 2015.

                               AUSTRALIA

    27. Senator Inhofe. Admiral Locklear, in your written statement 
regarding Marine Corps deployments to Australia, you noted that: ``We 
are working together to increase the Marine Corps rotational presence 
in Darwin to approximately 1,100. This increase will require 
infrastructure improvements and we are currently in the process of 
identifying the details of those requirements.'' What is the status of 
progress on the agreement with the Australian Government?
    Admiral Locklear. We expect the Australian Government decision on 
approval of 1,100 USMC personnel sometime this summer. Once approved, 
we will commence negotiations on required arrangements, including 
infrastructure improvements, after we have secured Circular 175 
authority through the DOS.

    28. Senator Inhofe. Admiral Locklear, what is the total number of 
marines planned for annual deployments to Australia?
    Admiral Locklear. We currently have about 200 Marine Corps 
personnel in Darwin from April to September 2013. We plan to increase 
to 1,100 in 2014, contingent on Australian Government approval that we 
expect this summer. Our overall goal is a fully-manned Marine Air 
Ground Task Force of 2,500 personnel by 2017-2018 timeframe, contingent 
on Australian Government approval.

    29. Senator Inhofe. Admiral Locklear, when will the details of the 
infrastructure improvements required in Australia to support Marine 
Corps deployments be available for congressional review?
    Admiral Locklear. Upon completion of negotiations with the 
Government of Australia projected to begin this summer, details of 
infrastructure improvements required will be available for 
congressional review.

    30. Senator Inhofe. Admiral Locklear, from your interactions with 
counterparts and defense leaders of allies and partners in the region, 
what is their perception of the rebalance and if budget cuts prevent 
you from executing the strategy, what do we risk in terms of our 
relationships with them?
    Admiral Locklear. Asia is a complex region that exhibits a wide 
range of opinions; nevertheless several themes have recurred during our 
engagements in the region.
    The rebalance has generally been welcomed by ASEAN countries. 
Southeast Asian nations appreciate our enhanced regional focus and 
generally understand our rationale for the rebalance. Additionally, 
they are highly appreciative of increased U.S. support bilaterally and 
to the ASEAN organizations (e.g. ASEAN Defense Ministers Meeting Plus; 
ASEAN Regional Forum.)
    Regional nations seek a more detailed understanding of what the 
rebalance means for them and how the United States will execute it. 
Some believe the rebalance has not been effectively communicated in 
regard to its specific purpose, strategy, and details. Most see the 
rebalance as focused on Northeast and Southeast Asia, and do not 
appreciate the South Asia and Oceania dimensions. Some believe there 
has been too much emphasis on the military dimension of the strategy. 
We must work across the U.S. Government to better communicate the 
rebalance strategy, particularly the nondefense aspects. This will help 
counter China's narrative that the rebalance is a military effort to 
contain their rise.
    The rebalance is seen, at least partly, as a response to China's 
rapid rise in regional affairs. This is generally regarded as 
appropriate, though with significant reservations. Some leaders have 
opined the rebalance is an effort to contain China and express concern 
it could increase tension with China or place them uncomfortably in the 
middle of the United States and China. Continued messaging is necessary 
to emphasize that the rebalance is not containment, that we welcome 
China's rise, and that the region can enjoy good relations with both 
the United States and China simultaneously.
    Countries are watching the U.S. budget process closely. ASEAN 
nations will weigh their relationships carefully in light of China's 
ascendance and questions regarding U.S. commitment. Allies and partners 
desire reassurance that the rebalance is sustainable. They insist the 
rebalance will be validated by actions, not narrative.

                                 CHINA

    31. Senator Inhofe. Admiral Locklear, how have your Chinese 
counterparts reacted to the concept of rebalance?
    Admiral Locklear. [Deleted.]

    32. Senator Inhofe. Admiral Locklear, you have said we are going to 
``pursue a lasting relationship'' with China. What are the primary 
components of that pursuit and is this similar to the Russia reset?
    Admiral Locklear. A ``lasting relationship with China'' is one in 
which the security component of our bilateral relationship grows into 
one that is healthy, stable, reliable, and mature enough to withstand 
the friction generated by policy disagreements that exist between our 
two countries. This relationship would exist in the context of our 
existing alliances and partnerships--not at their expense--and be based 
upon pragmatic cooperation in areas of shared interest, such as 
disaster response, counter-piracy, countering proliferation, 
peacekeeping, and military medicine. Our military relations with China 
develop from different pressures, motives, and imperatives than our 
relations with Russia. PACOM does not seek to ``reset'' relations with 
China, but rather seeks to mature the security component of an already 
robust, and largely cooperative, bilateral relationship. Therefore, I 
would not characterize it as similar to the Russia reset.

    33. Senator Inhofe. Admiral Locklear, you have indicated we will 
invite the Chinese to our Rim of the Pacific exercise. Are you also 
going to invite the Taiwanese to participate? Why or why not?
    Admiral Locklear. [Deleted.]

    34. Senator Inhofe. Admiral Locklear, what effects are China's 
significant increases in defense spending, foreign military sales, and 
soft power having in the PACOM region?
    Admiral Locklear. [Deleted.]

    35. Senator Inhofe. Admiral Locklear, if we don't deliver on the 
rebalance due to budget constraints on the military, how much will that 
erode our influence in the region?
    Admiral Locklear. [Deleted.]

    36. Senator Inhofe. Admiral Locklear, given the expected growth in 
Chinese missile capabilities over the next 10 years, how do you 
envision the evolution of the Phased Adaptive Approach to missile 
defense in the Pacific?
    Admiral Locklear. [Deleted.]

                              NORTH KOREA

    37. Senator Inhofe. Admiral Locklear, do you think our current 
strategy of diplomatic isolation and economic sanctions will stop Kim 
Jong Un from acquiring nuclear weapons capability?
    Admiral Locklear. No. The Democratic People's Republic of Korea has 
already demonstrated the ability to construct and detonate crude 
nuclear devices. However, PACOM is confident that our defense posture, 
military capabilities, deterrence, and counter-proliferation strategies 
can protect the U.S. Homeland, forward-deployed U.S. forces, and our 
regional allies and partners.

    38. Senator Inhofe. Admiral Locklear, we know that missile defense 
is an important but expensive capability. What allies and partners are 
helping us with regional missile defense efforts and what capabilities 
are they developing?
    Admiral Locklear. [Deleted.]

                         OPERATIONAL RESILIENCY

    39. Senator Inhofe. Admiral Locklear, you mention in your written 
statement regarding Pacific military forces that ``the United States 
requires a more geographically distributed, operationally resilient, 
and politically sustainable posture that allows persistent presence 
and, if needed, power projection.'' Can you explain the concept of 
operational resiliency and your plans to improve it?
    Admiral Locklear. Operational resiliency refers to a force posture 
that has active and passive defenses as well as the offensive capacity 
and capability to meet war-fighting requirements. A resilient posture 
assures access for U.S. forces in a contested environment. In short, an 
operationally resilient posture is the foundation of our ability to 
respond rapidly and prevail in crisis.
    With regards to missile defense, the concept of resiliency includes 
dispersal, active missile defense capabilities, operational deception, 
and, when appropriate, hardening. This concept is a key tenant to 
safeguarding U.S. assets and critical defense infrastructure in the 
PACOM theater. The resiliency efforts already underway or planned for 
Guam (missile defense and hardening of critical infrastructure) remain 
a top priority.
    Additionally, PACOM continues investments in dispersal initiatives 
to ensure we have a range of options for rapidly responding to crises 
across the Indo-Asia-Pacific. Areas where PACOM is looking to increase 
our presence include Northeast Asia, Australia, the Philippines, 
Southeast Asia, Micronesia, and the Marianas. In this way, 
operationally resilient posture underpins our persistent presence and 
power projection, essential tenets of the rebalance.

    40. Senator Inhofe. Admiral Locklear, given the strategic 
importance of the military resources stationed in your command, 
including the aircraft carrier USS George Washington in Japan, what are 
your priorities to improve operational resiliency? Are the Marine 
Corps, Navy, and Army going to harden their facilities as well, in 
other words, will this resiliency concept be applied across PACOM?
    Admiral Locklear. Operational resiliency goes beyond the hardening 
of critical defense infrastructure. It denotes a force posture that has 
the flexibility and depth to respond to a broad spectrum of crises, 
whether tsunamis, earthquakes, humanitarian crises, or major 
contingency operations. To this end, we seek a diverse mix of 
capabilities across the theater.
    With regards to missile defense, the resiliency concept of 
hardening, dispersal, active defense capabilities, and deception is a 
key tenant to safeguarding U.S. assets and critical infrastructure 
throughout the PACOM theater. The resiliency efforts already underway 
or planned for Guam are a top priority.
    As forward deployable forces, the Marine Corps, Navy, and Army have 
different and unique resiliency requirements, of which hardening is 
just one aspect. As the threat evolves we will continue to study and 
apply the appropriate resiliency pillar for specific facilities and 
services across PACOM.

    41. Senator Inhofe. Admiral Locklear, given the recent provocations 
of North Korea, have you identified significant risk or vulnerabilities 
for our forces stationed in Korea and Japan? If so, can you describe 
them and what measures you are undertaking to mitigate those risks?
    Admiral Locklear. [Deleted.]

    42. Senator Inhofe. Admiral Locklear, last year you wrote a 
classified letter to the Senate Armed Services Committee advocating for 
the funding of a hardened aircraft fuel cell maintenance hangar on Guam 
and noting that ``to reduce the operational vulnerabilities of our 
forces, we should selectively invest in force protection enhancement 
now.'' In an era of declining defense spending, is the construction of 
hardened facilities on Guam to protect certain assets during a 
contingency your highest priority for the operational resiliency of 
forces in your AOR? If not, what higher priorities do you have?
    Admiral Locklear. [Deleted.]

    43. Senator Inhofe. Admiral Locklear, do you support the hardening 
of facilities on Guam to preserve a second strike capability and 
increase the targeting complexity for adversaries?
    Admiral Locklear. [Deleted.]

    44. Senator Inhofe. Admiral Locklear, given the large numbers of 
Chinese missiles projected in 2020, what makes you believe that you can 
protect enough infrastructure to be able to launch a second strike?
    Admiral Locklear. [Deleted.]

    45. Senator Inhofe. Admiral Locklear, hardening approximately 
doubles the cost of a facility--can we afford that cost in this budget 
environment?
    Admiral Locklear. [Deleted.]

                        ARTICLE 60 MODIFICATIONS

    46. Senator Inhofe. Admiral Locklear, commanders in the military 
are given great responsibility, literally over life and death. 
Decisions they make send men and women into battle where they may die 
or be severely wounded. This special trust and confidence is given to 
no other position in our government. In line with this responsibility, 
commanders are given the autonomy to discipline, train, and reward 
their units so that they can establish a cohesive, mission-ready unit 
capable of fighting and winning the Nation's wars. While we trust you 
with our sons' and daughters' lives, the proposed modifications to 
Article 60 of the Uniform Code of Military Justice (UCMJ) seem to 
suggest that we do not trust your discretion when it comes to UCMJ 
offenses. Do you, as a commander, consider the UCMJ as it is currently 
structured, to be a viable tool to help you maintain and enhance the 
cohesiveness and fighting capabilities of your combat units?
    Admiral Locklear. Yes.

    47. Senator Inhofe. Admiral Locklear, have you seen any evidence 
that commanders are abusing their discretion as the convening authority 
to adjust sentencing?
    Admiral Locklear. No.

    48. Senator Inhofe. Admiral Locklear, the Secretary of Defense has 
announced that he intends to recommend changes to the UCMJ. How would 
the proposed changes to the UCMJ impact your effectiveness as a 
commander?
    Admiral Locklear. I support the Secretary Defense's recommended 
changes to the UCMJ.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                            MISSILE DEFENSE

    49. Senator Ayotte. Admiral Locklear, from your perspective as the 
Commander of PACOM, what is the requirement for effective missile 
defense in your AOR?
    Admiral Locklear. [Deleted.]

    50. Senator Ayotte. Admiral Locklear, what is the difference 
between our current missile defense posture in PACOM and the missile 
defense posture required to protect our interests in the region?
    Admiral Locklear. [Deleted.]

                   F-35 JOINT STRIKE FIGHTER PROGRAM

    51. Senator Ayotte. Admiral Locklear, is China developing a fifth 
generation fighter?
    Admiral Locklear. [Deleted.]

    52. Senator Ayotte. Admiral Locklear, how would these Chinese fifth 
generation fighters match up against our current fourth generation 
fighters?
    Admiral Locklear. [Deleted.]

    53. Senator Ayotte. Admiral Locklear, in order to maintain U.S. air 
dominance, deter potential adversaries, and assure our allies, how 
important is it that the United States finalizes development of the JSF 
and begin to dramatically ramp up procurement of the F-35?
    Admiral Locklear. In order to maintain air dominance, deter 
potential adversaries, and assure our allies, it is extremely important 
to procure the F-35. To this end, the President's fiscal year 2014 
budget specifically requests $8.4 billion for the continued development 
of the JSF.

                       VIRGINIA-CLASS SUBMARINES

    54. Senator Ayotte. Admiral Locklear, what capabilities and what 
strategic value does the Virginia-class submarine provide you as the 
PACOM Commander?
    Admiral Locklear. [Deleted.]

    55. Senator Ayotte. Admiral Locklear, from your perspective, how is 
the Virginia-class submarine performing?
    Admiral Locklear. [Deleted.]

    56. Senator Ayotte. Admiral Locklear, what percentage of your 
combatant commander requirements for attack submarines were met in 
fiscal year 2012?
    Admiral Locklear. [Deleted.]

    57. Senator Ayotte. Admiral Locklear, as Los Angeles-class 
submarines retire in the coming years and we fail to replace them 
quickly enough with Virginia-class submarines, our number of attack 
submarines will drop from 54 today to 43 in 2030. As a result, our 
undersea strike volume will decline. In order to at least partially 
address this decline in undersea strike volume, how important is it 
that we go forward with the Virginia payload module?
    Admiral Locklear. [Deleted.]

                    JOINT POW/MIA ACCOUNTING COMMAND

    58. Senator Ayotte. Admiral Locklear, can you give an update on the 
Joint POW/MIA Accounting Command's (JPAC) operations?
    Admiral Locklear. Thus far in fiscal year 2013, JPAC has identified 
38 individuals: 4 from the Vietnam War, 27 from the Korean War, and 7 
from World War II.
    JPAC's plan to increase capacity and capability to fulfill the 
National Defense Authorization Act (NDAA) 2010 mandate continues to 
progress in some areas, but is hindered in others. We expect Full 
Operational Capability (FOC) of the JPAC Continental U.S. Annex (JCA) 
at Offutt Air Force Base, NE, in June 2013. Physically, this annex will 
significantly improve laboratory capacity to enable additional 
identification capabilities. However, the current civilian hiring 
freeze is preventing the proper scientific staffing of the JCA beyond 
the one anthropologist who relocated from Headquarters, JPAC. 
Construction of the JPAC Headquarters Building at Joint Base Pearl 
Harbor-Hickam has experienced a delay, but is projected to be 
construction-complete in spring 2014. However, the continued lack of 
funding for the communications and computer infrastructure will delay 
occupancy of the building to spring 2015. JPAC will be requesting 
reprogramming of available excess MILCON funding to fund this facility 
requirement.
    Within the past year, additional challenges have manifested in 
JPAC's ability to contract and pay for services in austere locations 
which can negatively impact mission success. While a Joint Field 
Activities (JFA) in Cambodia had to be deferred and others adjusted, a 
country-by-country comprehensive review has ensured the proper fiscal 
authorities and contracting mechanisms are in place for JPAC teams to 
operate in these countries.

    59. Senator Ayotte. Admiral Locklear, how can Congress help support 
JPAC's mission?
    Admiral Locklear. The recently-introduced POW/MIA Accounting and 
Recovery Support Act of 2013 (H.R. 1520), if passed, would help reduce 
disruptions to JPAC field operations, if civilian furloughs were to go 
into effect. It would allow JPAC's deployed civilian scientists a 
temporary exemption from the requirement to take 1 furlough day off 
each week. The bill would permit them to support the 4 to 6 week 
mission, otherwise lacking an anthropologist to deploy, the recovery 
missions would have to be cancelled. The deploying civilians would make 
up the accumulated furlough days upon their return to JPAC 
Headquarters.
    JPAC would greatly benefit by having a dedicated, ``fenced'' 
funding line separate from PACOM. Currently JPAC's budget is embedded 
with PACOM's budget which means that every time the combatant commands 
(COCOM) are hit with a budget cut, JPAC assumes a large portion of the 
PACOM share since they have the largest budget that is not in direct 
support of our warfighting mission. With a ``fenced'' line item in the 
budget, JPAC would better weather the budget challenges and 
uncertainties we face, and in doing so build and sustain the capacity 
and capabilities to meet Congress' mandate in the NDAA for Fiscal Year 
2010.

    60. Senator Ayotte. Admiral Locklear, can you provide more detail 
on the impact of sequestration and furloughs on the ability of JPAC to 
perform its important mission?
    Admiral Locklear. The extended Continuing Resolution Authority 
(CRA) reduced JPAC's programmed budget by $21 million, thus lowering 
JPAC's fiscal year 2013 planned Joint Field Activities (JFAs) from 30 
to 19. Sequestration forced PACOM to levy an additional $15 million 
mark against JPAC's already-diminished CRA budget line which further 
reduced JPAC's operational capacity from 19 to 14 JFAs, 6 of which were 
also reduced in scope. Total net loss to JPAC budget due to CRA and 
sequestration is $36 million. Total net loss in operational capacity 
was 16 JFAs. With the allocation of the fiscal year 2013 
appropriations, JPAC hopes to buy back some cancelled JFAs (difficult 
this late in the fiscal year) or enhance some of the remaining 
scheduled JFAs.
    CRA and sequestration also combined to result in a civilian hiring 
freeze. fiscal year 2013 was JPAC's high watermark in the Fiscal Year 
Defense Plan for programmed growth to increase capacity and capability 
to meet the NDAA for Fiscal Year 2010 mandate. However, the hiring 
freeze left JPAC unable to bring aboard 86 civilian hires, a large 
percentage of which had already been selected for the new positions. 
This impedes JPAC's requirement to add key anthropologists, historians, 
and other key personnel to its ranks.

                NUCLEAR MODERNIZATION AND PROLIFERATION

    61. Senator Ayotte. Admiral Locklear, as North Korea has developed 
its nuclear weapons program, what are you and General Thurman hearing 
from our allies in Japan and South Korea?
    Admiral Locklear. North Korea's rhetoric, recent nuclear tests, and 
missile launches have only strengthened our alliances with Japan and 
South Korea. We continue to conduct annually scheduled combined joint 
military exercises with South Korean Armed Forces and the Japanese Self 
Defense Force. Kim Jong Un's continued threats and provocations 
encourage more trilateral cooperation with Japan and South Korea, 
particularly with regards to regional Ballistic Missile Defense.

    62. Senator Ayotte. Admiral Locklear, do you believe North Korea's 
nuclear program could encourage some of our allies to move closer to a 
nuclear weapons capability?
    Admiral Locklear. No. While elements in Japan and the Republic of 
Korea periodically advocate for independent nuclear weapon programs, 
both governments have a mature understanding of the diplomatic, 
political, and economic costs of developing nuclear weapons. 
Specifically, they recognize that the U.S. extended deterrence 
commitment comes with the understanding that they will forego their own 
nuclear weapons development and remain within the Nonproliferation 
Treaty. As long as our allies see our extended deterrence commitment as 
credible, PACOM is confident they will not pursue nuclear weapons.

    63. Senator Ayotte. Admiral Locklear, what role does a reliable and 
credible U.S. nuclear triad play in not only deterring North Korean 
aggression, but in also discouraging the proliferation of nuclear 
weapons programs among our allies?
    Admiral Locklear. A reliable and credible U.S. nuclear triad 
assures a second strike capability and guarantees the capability for an 
overwhelming response in retaliation to any employment of nuclear 
weapons by North Korea. While Kim Jong Un may be young and bellicose, 
PACOM assesses that he is a rational actor and can be deterred.
    The existence of a reliable U.S. nuclear triad is essential to 
maintaining the credibility of the United States' extended deterrence 
commitments. Extended deterrence is a key consideration for our allies, 
providing a credible defense without them having to develop their own 
nuclear programs.

                      SEA LEG OF OUR NUCLEAR TRIAD

    64. Senator Ayotte. Admiral Locklear, how important is the sea leg 
of our nuclear triad?
    Admiral Locklear. The sea leg is the most survivable part of the 
U.S. Nuclear Triad and is thus an essential component of our strategic 
nuclear deterrence.

    65. Senator Ayotte. Admiral Locklear, what unique role do our Ohio-
class submarines play in our Nation's nuclear deterrent?
    Admiral Locklear. The Ohio-class ballistic missile submarines 
comprise the most survivable leg of the U.S. Nuclear Triad. Our ability 
to have a reliable, survivable second strike capability is crucial to 
our nuclear deterrence strategy because it interrupts the adversary 
decision cycle by the positive knowledge that any initial strike, no 
matter how massive, will result in an overwhelming second strike.

    66. Senator Ayotte. Admiral Locklear, do you believe any additional 
delay to the Ohio-class replacement program would undermine U.S. 
national security and our Nation's nuclear deterrent?
    Admiral Locklear. A delay in the Ohio-class replacement program 
would complicate the Navy's ability to meet its nuclear deterrence 
patrol and presence requirements.

                     COMMERCIAL OFF-THE-SHELF BOATS

    67. Senator Ayotte. Admiral Locklear, given the number of nations 
with whom you would like to engage, as well as the long distances 
between them, how useful would long-range, high-speed, commercial off-
the-shelf (COTS) boats be in helping you to bridge that gap?
    Admiral Locklear. Current versions of COTS vessels do not 
adequately meet our engagement needs to move equipment, supplies, and 
personnel over the vast distances of the Indo-Asia-Pacific. These 
vessels lack the following necessary capabilities: helicopter landing 
deck capacity, onboard cranes, and adequate life support (berthing, 
feeding, showers, etc.) for personnel who use the ship as 
transportation or for in-port billeting. The military is currently 
contracting the Joint High Speed Vessel that meets all of the above 
requirements.

    68. Senator Ayotte. Admiral Locklear, do you believe that the 
export capability of COTS boats would help enhance partnership-building 
and interoperability?
    Admiral Locklear. Potentially. Depending on the specific 
requirements of our allies and partners, exporting COTS boats could 
enhance partnership and increase their capability to quickly transport 
equipment.

    69. Senator Ayotte. Admiral Locklear, there is a growing need for 
low-cost, multi-role, and flexible platforms. What attributes of naval 
platforms are most critical to you in your AOR, either individually or 
as part of a broader force package?
    Admiral Locklear. In the PACOM AOR, there is a need for a balanced 
portfolio of platforms that can deal with both high- and low-intensity 
conflicts, conduct humanitarian assistance and presence operations, as 
well as provide a sufficient, credible force to deter aggression.
    With the rapidly increasing cost of fossil fuel, fuel-efficient 
ships that provide greater endurance and lower steaming costs are 
critical given the vast distances necessary to transit in the PACOM 
AOR.
    Finally, ships must also possess a high degree of independent 
operational and maintenance capability, thus allowing them to operate 
forward for extended periods.

    [Whereupon, at 12:03 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Hagan, Manchin, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Inhofe, McCain, Sessions, 
Wicker, Ayotte, Fischer, Graham, Vitter, Blunt, Lee, and Cruz.
    Committee staff members present: Peter K. Levine, staff 
director; Travis E. Smith, chief clerk; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Gabriella E. Fahrer, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, general counsel; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; Roy F. Phillips, professional staff member; 
Russell L. Shaffer, counsel; and William K. Sutey, professional 
staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Thomas W. Goffus, professional staff member; 
Ambrose R. Hock, professional staff member; Anthony J. 
Lazarski, professional staff member; Daniel A. Lerner, 
professional staff member; and Lucian L. Niemeyer, professional 
staff member.
    Staff assistants present: Kathleen A. Kulenkampff, Mariah 
K. McNamara, and John L. Principato.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; Casey 
Howard, assistant to Senator Udall; Mara Boggs, assistant to 
Senator Manchin; Chad Kreikemeier, assistant to Senator 
Shaheen; Elana Broitman, assistant to Senator Gillibrand; Marta 
McLellan Ross, assistant to Senator Donnelly; Nick Ikeda, 
assistant to Senator Hirono; Karen Courington, assistant to 
Senator Kaine; Steve Smith, assistant to Senator King; Paul C. 
Hutton IV, assistant to Senator McCain; Lenwood Landrum, 
assistant to Senator Sessions; Joseph Lai, assistant to Senator 
Wicker; Brad Bowman, assistant to Senator Ayotte; Peter 
Schirtzinger, assistant to Senator Fischer; Craig Abele, 
assistant to Senator Graham; Joshua Hodges, assistant to 
Senator Vitter; Charles Prosch, assistant to Senator Blunt; 
Robert Moore, assistant to Senator Lee; and Jeremy Hayes, 
assistant to Senator Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the 
committee gives a warm welcome to Secretary of Defense Chuck 
Hagel; General Martin Dempsey, the Chairman of the Joint Chiefs 
of Staff; accompanied by the Department of Defense's (DOD) 
Comptroller, Under Secretary Robert Hale, for our hearing on 
the DOD's fiscal year 2014 budget request and the posture of 
the U.S. Armed Forces.
    We welcome Secretary Hagel on his first appearance as 
Secretary of Defense before this committee. We thank all of our 
witnesses for their service to our Nation and to the soldiers, 
sailors, airmen, and marines at home and in harm's way. We can 
never say that enough.
    Your testimony today is a key component of the committee's 
review of the fiscal year 2014 budget request for DOD. This 
year's request includes $526.6 billion for the base budget and 
$88.5 billion for overseas contingency operations (OCO), 
although as your testimony notes, the OCO number is simply a 
placeholder figure pending final force level and deployment 
decisions.
    The future of the defense budget is in flux due to 
Congress' failure to enact legislation reducing the deficit by 
$1.2 trillion as required by the Budget Control Act (BCA). As a 
result of that, the DOD funding for fiscal year 2013 was 
reduced by sequestration in the amount of $41 billion, and 
unless Congress acts, the fiscal year 2014 DOD budget will be 
cut by an additional $52 billion below the funding level which 
is in the President's budget for fiscal year 2014 and also in 
the budgets passed by the Senate and the House of 
Representatives.
    Congress can fix the budget problems by enacting 
legislation that reduces the deficit by $1.2 trillion over 10 
years. That would take a grand bargain, including both spending 
cuts and additional revenues, that would turn off the automatic 
spending cuts of sequestration for those 10 years. I remain 
hopeful we can develop such a bipartisan plan. But absent a so-
called ``grand bargain'', surely we can devise a balanced 
deficit reduction package for 1 year that avoids sequestration 
in fiscal year 2014. We simply cannot continue to ignore the 
effects of sequestration.
    Sequestration will have a major impact on military 
personnel. Though the pay of military personnel has been 
exempted, the sequester will reduce military readiness and 
needed services for our troops, including schools for military 
children, family support programs, and transition assistance 
programs and mental health and other counseling programs.
    The President's budget request continues the measured 
drawdown of Active Duty and Reserve end strength. We have, in 
recent years, given DOD numerous force-shaping authorities to 
allow it to reduce its end strength in a responsible way, 
ensuring that the Services maintain the proper force mix and 
avoiding grade and occupational disparities, all of which have 
long-term effects. If sequestration continues, the result would 
be more precipitous reductions, leaving us with a force 
structure that is out of sync with the requirements of our 
defense strategy.
    Sequestration has already affected military readiness. We 
have heard testimony that as a result of cuts to flying hours, 
steaming hours, and other training activities, that readiness 
will fall below acceptable levels for all three military 
Services by the end of this summer. The Army, for example, has 
informed us that by the end of September, only one-third of its 
Active Duty units will have acceptable readiness ratings far 
below the two-thirds level that the Army needs to achieve to 
meet national security requirements. These cuts are having an 
operational impact as well. For example, four of six fighter 
squadrons in Europe have been grounded and the deployment of 
the Truman carrier group to the Persian Gulf has been postponed 
indefinitely. It will cost us billions of dollars and months of 
effort to make up for these shortfalls in training and 
maintenance, and it will be nearly impossible for us to do so 
if we have a second round of sequestration in fiscal year 2014. 
Our men and women in the military and their families should not 
have to face both the pressure of military service and the 
uncertainty about future financial support from their 
Government.
    DOD faces these budget shortfalls at a time when 68,000 
U.S. troops remain in harm's way in Afghanistan. We must, above 
all, ensure that our troops in Afghanistan have what they need 
to carry out their mission. The campaign in Afghanistan is now 
on track to reach a major milestone later this spring, when the 
lead for security throughout Afghanistan will transition fully 
to Afghan security forces. As our commander in Afghanistan told 
us yesterday, there are clear signs that the Afghan security 
forces are capable of taking the fight to the Taliban and are 
doing so effectively. Operations by Afghan security forces are 
increasingly conducted by Afghan units on their own, that is, 
without international forces present. There are fewer Afghan 
civilian casualties in recent months and fewer U.S. and 
coalition casualties, including a 4-week stretch earlier this 
year with no U.S. or coalition fatalities.
    DOD's budget challenges, which are the subject of today's 
hearing, are occurring in a world full of threats to U.S. 
security, including North Korea's reckless rhetoric and 
provocative behavior, and perhaps the greatest world threat, 
Iran's nuclear program and its support for international 
terrorism.
    In the interest of time, I am going to submit the remainder 
of my statement relative to those and other matters for the 
record.
    [The prepared statement of Senator Levin follows:)

                Prepared Statement by Senator Carl Levin

    Good morning. Today, the committee welcomes Secretary of Defense 
Chuck Hagel and General Martin Dempsey, the Chairman of the Joint 
Chiefs of Staff, accompanied by the Department's Comptroller, Under 
Secretary Robert Hale, for our hearing on the Department of Defense's 
(DOD) fiscal year 2014 budget request and the posture of the U.S. Armed 
Forces.
    This morning's hearing is Secretary Hagel's first appearance before 
this committee as Secretary of Defense and we welcome you back. We 
thank all of you for your service to the Nation and to the soldiers, 
sailors, airmen, and marines at home and in harm's way. They and their 
families deserve our utmost support and appreciation for their 
willingness to serve our Nation.

                                 BUDGET

    Your testimony today is a key component of the committee's review 
of the fiscal year 2014 budget request for DOD. This year's request 
includes $526.6 billion for the base budget and $88.5 billion for 
overseas contingency operations (OCO) although, as your testimony 
notes, the OCO number is a placeholder figure pending final force level 
and deployment decisions.
    The Defense Department's fiscal year 2013 budget and the budget 
request for fiscal year 2014 are both in flux due to Congress' failure 
to enact legislation reducing the deficit by $1.2 trillion as required 
by the Budget Control Act. As a result of this failure, DOD funding for 
fiscal year 2013 was reduced by sequestration in the amount of $41 
billion and, unless Congress acts, the fiscal year 2014 DOD budget will 
be cut by an additional $52 billion below the funding level which is in 
the President's budget and also in the budgets passed by the Senate and 
the House of Representatives.
    Congress can fix the budget problems by enacting legislation that 
reduces the deficit by $1.2 trillion over 10 years. That would take a 
``grand bargain''--including both spending cuts and additional 
revenues--that would turn off the automatic spending cuts of 
sequestration for those 10 years. I remain hopeful that we can develop 
such a bipartisan plan. But absent a so-called grand bargain, surely we 
can devise a balanced deficit reduction package for one year that 
avoids sequestration in fiscal year 2014. We simply cannot continue to 
ignore the effects of sequestration.
    Personnel, both military and civilian, remain our top priority. 
Sequestration will have a major impact on military personnel. Though 
the pay of military personnel has been exempted, the sequester will 
reduce needed services for our troops, including schools for military 
children, family support programs, and transition assistance programs, 
and possibly mental health and other counseling programs, all of which 
are staffed significantly by civilian employees or contractors. The 
Department has also informed us that htere is a risk that it will be 
unable to pay its TRICARE bills before the end of the year, resulting 
in a reduction in the avilability of medical services.
    The President's budget request continues the measured drawdown of 
active duty and Reserve end strength. We have in recent years given the 
Department numerous force shaping authorities to allow it to reduce its 
end strength in a responsible way, while ensuring that the Services 
maintain the proper force mix, and avoid grade and occupational 
disparities, which have long-term effects. I have been supportive of 
the Department's efforts, but I remain concerned that continued 
sequestration could require more precipitous reductions without 
adequate planning, leaving us with a force structure that does not 
match the requirements of our defense strategy.
    The President's budget also contains numerous proposals affecting 
the pay and benefits of our servicemembers, retirees, and their 
families, including a 1 percent across-the-board pay raise for fiscal 
year 2014, for both military and civilian personnel. While the budget's 
pay raise is below the expected increase in the Employment Cost Index 
of 1.8 percent, I support modest but equal pay raises for our military 
and civilian personnel. The Department also proposes, as it has for a 
number of years, to establish or raise certain fees relating to health 
care coverage for military dependents and retirees. Congress has not 
fully supported these proposals in past years, but given the impact of 
sequestration and the continued pressure the personnel and health care 
accounts are exerting on other areas of the budget, these proposals may 
be considered in a different light this year.
    For civilian personnel, the situation is even worse. As a result of 
sequestration, the Department plans to furlough most of its 800,000 
civilian employees for up to 14 days beginning in June--a pay cut of 20 
percent for the rest of the year. As a number of our combatant 
commanders have testified, the Department's civilian workforce is an 
important component of the total force. DOD civilian employees play a 
vital role in acquiring, sustaining, and repairing weapon systems, 
providing logistics support to our troops in the field, providing 
medical care for military members and their families, developing the 
next generation technologies we need to keep our military edge in the 
future, and maintaining the infrastructure of the Department of 
Defense. I am concerned that if we continue to target our civilian 
workforce for cuts, young people may no longer see public service as a 
viable career--a devastating result.
    Another place where sequestration will have a deep impact is on 
military readiness. Sequestration will cut the Department's operation 
and maintenance accounts by several billion dollars in fiscal year 
2013, requiring deep reductions in spending for training and 
maintenance. We have heard testimony that as a result of cuts to flying 
hours, steaming hours, and other training activities, readiness will 
fall below acceptable levels for all three military Services by the end 
of this summer. These cuts are having an operational impact as well. 
For example: four of six fighter squadrons in Europe have been 
grounded, the deployment of the Truman carrier group to the Persian 
Gulf has been postponed indefinitely, and we are unable to deploy ships 
that would otherwise be expected to interdict 200 tons of cocaine per 
year in the U.S. Southern Command area of responsibility. It will cost 
us billions of dollars and months of effort to make up for these 
shortfalls in training and maintenance and it will be nearly impossible 
for us to do so if we have a second round of sequestration in fiscal 
year 2014.
    I do not believe that Members of Congress have any interest in the 
new round of base closures proposed as a part of this budget--but if we 
are unable to address the sequestration problem, we may have no choice 
but to reconsider. It is difficult to see how the Department could cut 
another $500 billion from its budget over the next decade and still 
retain the same infrastructure.

                          SECURITY CHALLENGES

    The Department faces these budget shortfalls at a time when 68,000 
U.S. troops remain in harm's way in Afghanistan, and the Department 
must be prepared to address a myriad of other challenges on a moment's 
notice. This is not, in my view, a time when we can afford to be 
shortchanging the Department of Defense, or our men and women in 
uniform.
    First and foremost, we must ensure that our troops in Afghanistan 
have what they need to carry out their mission. The campaign in 
Afghanistan is now on track to reach a major milestone later this 
spring, when the lead for security throughout Afghanistan will 
transition fully to the Afghan security forces. There are clear signs 
that the Afghan security forces are capable of taking the fight to the 
Taliban, and are doing so effectively. Operations by Afghan security 
forces are increasingly conducted unilaterally, that is, without 
international forces present. This has translated into fewer Afghans 
civilian casualties in 2012, and fewer U.S. and coalition casualties, 
including a 4-week stretch earlier this year with no U.S. or coalition 
fatalities.
    Nonetheless, significant challenges remain in Afghanistan. Not 
least is the continuing presence of safe havens for the Afghan Taliban 
and associated extremist groups in Pakistan. Pakistan must do more to 
disrupt and degrade these deadly sanctuaries. The Government of 
Afghanistan needs to demonstrate its seriousness about improving 
governance and fighting corruption. And our bilateral relations are 
harmed by President Karzai's inflammatory remarks, which offend 
Americans and weaken U.S. support for Afghanistan. I remain hopeful 
that the campaign remains on the right track, but continued robust OCO 
funding will be necessary to ensure that we don't undermine our 
decades-long work as we transfer responsibility to the Afghans.
    I've just outlined a daunting list of challenges for the 
department. It is a sign of the times that this lengthy list does not 
include major additional challenges: North Korea's continued 
belligerence; Iran's nuclear program and its support of international 
terrorism; or the ongoing bloodshed in Syria, about which we will hear 
more later today. In the interests of time I will submit the remainder 
of my statement for the record, but rest assured the committee remains 
concerned about each of those issues and more.
    Before I turn to Senator Inhofe, I should also mention that this 
morning the committee released a report of our year-long review of 
Department of Defense spending overseas. The review focused on spending 
in Japan, South Korea and Germany, three critical allies. In order to 
better sustain our presence in these countries, we need to understand 
and manage our costs. Our review found construction projects lacking 
congressional or Pentagon oversight and allied contributions failing to 
keep up with rapidly rising U.S. costs. Every dollar spent on 
unnecessary or unsustainable projects is a dollar unavailable to care 
for our troops and their families, to maintain and modernize equipment, 
and to pay for necessary investments in base infrastructure. Our 
findings suggest that changes to how we manage spending are necessary 
and that closer scrutiny is warranted to avoid future commitments that 
may be inefficient or unaffordable.

                              NORTH KOREA

    Over the last several months, the North Korean regime has elevated 
its reckless rhetoric and provocative behavior. Earlier this month, the 
North Korean regime announced its intention to re-start plutonium 
production at Yongbyon. In February, it tested a nuclear device that 
appears to have a yield greater than that shown in previous North 
Korean tests. In December of last year, the regime put a satellite in 
orbit using technologies associated with long-range ballistic missiles. 
And last April, it displayed a road-mobile missile launcher, which may 
or may not be operational.
    A series of United Nations Security Council resolutions--joined by 
China, despite its longstanding relationship with North Korea have 
condemned the regime's dangerous behavior and imposed new sanctions, 
including tighter financial restrictions and bans on luxury goods. A 
few weeks ago, Secretary Hagel announced a plan to enhance our ground-
based interceptor capability in Alaska. And just last week, the 
Department announced the deployment of a Terminal High Altitude Area 
Defense (THAAD) ballistic missile defense system to Guam as a 
precautionary measure. I support the measured steps taken by the 
administration to date, but the situation in Korea remains volatile.

                                  IRAN

    Iran's continued pursuit of its nuclear program is one of the most 
significant challenges confronting our Nation today. There is unanimous 
agreement that our preferred outcome to this problem is a diplomatic 
arrangement that welcomes Iran back into the global community. However, 
I also believe most of the members of this committee share President 
Obama's view that all options--including additional sanctions and 
military options--need to remain on the table, and that preventing Iran 
from acquiring a nuclear weapon is our policy.
    Further, Iran's ongoing expansion of its support to international 
terrorism and its capability to promote violence and instability in 
Syria, Yemen, Lebanon, Gaza, Sudan, Iraq, and elsewhere is also a 
source of great concern. It is critical that DOD map this network and 
build the capacity of our partners to counter it. In the case of Syria, 
Iran's support of President Assad's campaign to conquer his fellow 
Syrians is considered by many, including General Mattis--the former 
Commander of U.S. Central Command to be a key reason the Assad regime 
continues to operate.

                            COUNTERTERRORISM

    The declaration of allegiance of the al Nusrah Front in Syria to al 
Qaeda's senior leadership recently was a keen reminder that despite the 
successful operations against many of al Qaeda's senior leaders, the 
United States must continue to pursue al Qaeda and its affiliates. Al 
Qaeda's ability to mutate and identify emerging safe havens, such as 
North Africa, and its ongoing activities in the Horn of Africa and 
Yemen demonstrate its willingness to continue the fight. These threats 
remain a source of great concern, and we must ensure that DOD can 
continue to conduct operations that increase pressure on al Qaeda and 
its affiliates.
    Both former Defense Secretary Leon Panetta and new Director of 
Central Intelligence John Brennan have expressed support for a shift of 
counterterrorism operations from title 50 authorities to title 10 
authorities. I will be interested to hear the views of our witnesses on 
this issue as well.

                            MISSILE DEFENSE

    The decision announced by Secretary Hagel on March 15 to increase 
the number of ground-based missile defense interceptors by nearly 50 
percent in Alaska--after they have demonstrated success in realistic 
flight testing--is a prudent step that has several benefits. It will 
enhance future protection of the entire homeland to help stay ahead of 
the evolving North Korean and Iranian missile threats. It will also 
allow us to maintain our missile defense commitment to our North 
Atlantic Treaty Organization (NATO) allies while avoiding the cost of 
the expensive and delayed Phase 4 of the Phased Adaptive Approach to 
missile defense in Europe. And if an East Coast missile defense site 
proves unnecessary in the future- as our U.S. Northern Command 
Commander, General Jacoby, acknowledged may be the case the Secretary's 
decision will allow us to enhance our Homeland missile defense against 
future threats from North Korea and Iran while avoiding the multi-
billion dollar expense of developing and deploying such a site.
    At our hearing on March 19, General Jacoby testified that all of 
the United States, including the east coast, is currently defended from 
missile threats from both North Korea and Iran. He also reiterated his 
strong support for continuing our ``fly before you buy'' approach to 
making sure our missile defense interceptors are realistically tested 
and demonstrated to work as intended before being deployed. Admiral 
Stavridis, our European Command and NATO Commander, told the committee 
that Phases 1-3 of the European Phased Adaptive Approach to missile 
defense remain on track to protect all of NATO Europe, including force 
protection of our forward deployed forces, against Iran's current and 
emerging regional missiles by 2018, including interceptor sites in 
Romania and Poland.
    In addition to the steps announced on March 15, the Department has 
since taken additional prudent steps to enhance our missile defense 
capabilities in response to North Korea's bellicose threats to launch 
missiles at the United States and our allies in the region. These 
include deployment of a THAAD battery to Guam, deployment of additional 
Aegis missile defense-capable destroyers in the waters off the Korean 
Peninsula, and deployment of the Sea-Based X-band radar to the Pacific. 
Last week, Admiral Locklear, our Pacific Commander, told the committee 
that the United States is capable of shooting down any North Korean 
missile, and can defend the areas threatened by North Korea, namely the 
United States, Hawaii, Guam, South Korea, and Japan.

                              ASIA-PACIFIC

    Recent events on the Korean Peninsula remind us that the relative 
stability and prosperity that we have enjoyed in the Asia-Pacific 
region must not be taken for granted. The rogue North Korean regime's 
relentless pursuit of dangerous nuclear and missile capabilities and 
its callous oppression of its own people demand the continued attention 
of the international community, and the United States, our allies, and 
partners must remain vigilant and steadfast in the face of North 
Korea's continuous cycle of provocations and bluster.
    Other challenges in the region, such as the emergence of new and 
ambiguous military capabilities, the uncertainties surrounding 
simmering territorial disputes, and the continuing threat of 
transnational violent extremism, underscore the need for the United 
States to stay actively engaged and present in this important part of 
the world.

                             CYBERSECURITY

    The cybersecurity threat continues to grow and diversify. It is 
essential to sustain the recent momentum towards maturing Cyber Command 
and the broad policy framework necessary to guide its operations. This 
includes finalizing standing rules of engagement, operational doctrine, 
emergency action procedures, command relationships, and plans to 
establish the first genuine operational military cyber units with the 
mission to actively defend DOD networks, to support the war plans of 
the combatant commands, and to defend the Nation against a major attack 
in cyberspace.
    There is a proposal before the Secretary of Defense to elevate 
Cyber Command from a sub-unified command under U.S. Strategic Command 
to a full-fledged unified command. The Senate and House Armed Services 
Committees, through the National Defense Authorization Act for Fiscal 
Year 2013, expressed concern and raised questions about this proposal, 
given the immaturity of the command and the cyber policy framework, as 
well as concerns about sustaining the dual-hatting of the Commander of 
Cyber Command as the Director of the National Security Agency.
    It bears emphasizing that even when Cyber Command stands up its 
national cyber defense units, critical infrastructure is going to 
remain vulnerable to cyber attack, requiring owners and operators to 
work with the government pursuant to the President's recent Executive 
order to improve defenses, increase resiliency and redundancy, and 
share threat information.
    With regard to China's unrelenting campaign to steal American 
intellectual property, I believe the time has come to act to impose 
costs on China for this serious threat to economic well-being and 
national security. It is also time to consider measures to start 
controlling the proliferation and trafficking of cyber tools that can 
be used as weapons, just as we have done for all other dangerous 
weapons.
    Secretary Hagel, General Dempsey, and Under Secretary Hale we look 
forward to your testimony.
    Senator Inhofe.

    Chairman Levin. As each of us were notified, we will have a 
separate hearing on the growing bloodshed in Syria after the 
conclusion of this morning's session. We will take a half-hour 
break and then we will return to hear from our witnesses about 
the situation in Syria.
    Secretary Hagel, General Dempsey, Under Secretary Hale, we 
look forward to your testimony. I now call on Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    First, I want to join you in welcoming our guests and 
especially my friend, former Senator Hagel. We worked together 
for a long period of time, had some differences of opinion. We 
will always remain good friends.
    The request comes at a time when our military is facing 
unprecedented challenges categorized by escalating threats 
abroad and a growing budget crisis here at home. Unfortunately, 
the budget before us today is symbolic for its lack of 
presidential leadership necessary to overcome the unprecedented 
challenges facing our military. Most troubling, the budget does 
not even acknowledge the mandatory cuts associated with 
sequestration in fiscal year 2014, much less propose a plan to 
replace the cuts that can actually pass Congress.
    This is not a new phenomenon. The defense budget cuts and 
fiscal uncertainty have become a hallmark of this 
administration. If you want to get into a lot more detail, I 
have an op-ed piece in this morning's The Hill that gets into a 
lot more detail.
    Since entering office over 4 years ago, the President has 
already cut over $600 billion from our military at a time--and 
this is significant--non-security-related domestic spending has 
increased by nearly 30 percent.
    The Chairman of the Joint Chiefs of Staff recently 
testified that after absorbing over $400 billion in cuts, the 
military cannot afford to give another dollar if they are to 
maintain current capabilities.
    Our military leaders are warning that we are on the brink 
of creating a hollow force, unprepared to respond to 
contingencies around the world. Yet, according to the fiscal 
year 2014 budget request, the White House now feels that we can 
slice another $120 billion out of DOD.
    We are at the point in our Nation's history where our 
National Military Strategy is no longer guided by the threats 
we face or an honest assessment of the resources needed to 
protect our critical interests. Instead, the discussion in 
Washington has centered around how deeply we can cut defense. 
Our forces are now being asked to do more with less training, 
less equipment, less capability; no one's assessing the 
increased risk on the battlefield and increased risk of our 
service men and women ultimately making the sacrifice. This is 
unacceptable and the fiscal year 2014 budget does little to 
reverse this.
    I think that Chairman Levin said it very well in talking 
about the dilemma that we are facing in our Services, the 
flying hours, the steaming hours. At a time our intelligence 
experts tell us that we face the most diverse, complex, and 
damaging threats to our national security in recent history, we 
are poised to slash defense budgets by over $1 trillion over 
that period of time.
    We have made this mistake before in the military drawdowns 
in the 1970s and 1990s which left this country with a military 
too small to meet the instability and the rising threats of a 
changing world. We need to stop this stupid argument that 
runaway defense spending is what is driving our country's 
unsustainable debt. It is disingenuous and, more important, it 
is just wrong.
    Defense spending accounts for approximately 18 percent of 
Federal spending annually while non-security mandatory spending 
accounts for 60 percent. We are on a path where an insatiable 
appetite to protect domestic spending and mandatory programs is 
consuming our defense budget and will soon result in a hollow 
military.
    The Commander in Chief must take a lead in restoring 
certainty to our budgeting process and ensure that our military 
leaders have appropriate resources to develop and execute plans 
and manage DOD efficiently. I have repeated the warnings of 
Admiral Sandy Winnefeld, the Vice Chairman of the Joint Chiefs, 
many times over the last 3 months, and this quote is an 
accurate quote which he has reaffirmed. ``I know of no other 
time in history when we have come potentially down this far, 
this fast in the defense budget. There could be, for the first 
time in my career, instances where we may be asked to respond 
to a crisis and we will have to say we cannot do it.''
    We have to correct this, Mr. Chairman.
    Thank you.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Secretary Hagel, welcome.
    Secretary Hagel. Mr. Chairman, thank you, and to Ranking 
Member Inhofe and to all members of the committee, thank you 
for an opportunity to appear before you this morning.
    Chairman Levin. I am going to interrupt you before you get 
started because we have a quorum. That means that we can now 
consider a list of pending military nominations. I know you 
would want us to do that.
    So I will now ask our committee to consider 549 pending 
military nominations. Included in the list is the nomination of 
General Breedlove to be Commander, U.S. European Command and 
Supreme Allied Commander, Europe. Now, of these nominations, 
311 are 1 day short of the committee's requirement that 
nominations be in the committee for 7 days before we report 
them out. No objection has been raised to these nominations. I 
recommend that we waive the 7-day rule in order to permit the 
confirmation of the nominations of these 311 officers, as well 
as the others.
    Is there a motion to report?
    Voice. So moved.
    Chairman Levin. Is there a second?
    Senator Inhofe. I second the motion.
    Chairman Levin. All in favor, say aye. [Chorus of ayes.]
    Opposed, nay? [No response.]
    The ayes carry.
    Thank you very much.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
Which are Proposed for the Committee's Consideration on April 17, 2013.
    1. LTG John W. Hesterman III, USAF, to be lieutenant general and 
Commander, U.S. Air Forces, Central Command, Air Combat Command 
(Reference No. 54).
    2. Col. Richard M. Murphy, USAF, to be brigadier general (Reference 
No. 56).
    3. In the Marine Corps, there are 98 appointments to the grade of 
colonel (list begins with Christopher C. Abrams) (Reference No. 112).
    4. Col. Dorothy A. Hogg, USAF, to be major general (Reference No. 
139).
    5. MG James M. Holmes, USAF, to be lieutenant general and Vice 
Commander, Air Education and Training Command (Reference No. 140).
    6. MG Michelle D. Johnson, USAF, to be lieutenant general and 
Superintendent, U.S. Air Force Academy (Reference No. 180).
    7. In the Marine Corps Reserve, there are 57 appointments to the 
grade of colonel (list begins with Timothy L. Adams) (Reference No. 
187).
    8. LTG Susan J. Helms, USAF, to be lieutenant general and Vice 
Commander, Air Force Space Command (Reference No. 207).
    9. Col. Erik C. Peterson, USA, to be brigadier general (Reference 
No. 209).
    10. Col. Brently F. White, USAR, to be brigadier general (Reference 
No. 210).
    11. Col. Christie L. Nixon, USAR, to be brigadier general 
(Reference No. 211).
    12. In the Army, there are 24 appointments to the grade of major 
general (list begins with Jeffrey L. Bannister) (Reference No. 212).
    13. LTG John E. Wissler, USMC, to be lieutenant general and 
Commanding General, III Marine Expeditionary Force; Commander, Marine 
Forces Japan (Reference No. 214).
    14. MG Ronald L. Bailey, USMC, to be lieutenant general and Deputy 
Commandant for Plans, Policies, and Operations, Headquarters, U.S. 
Marine Corps (Reference No. 215).
    15. LTG Steven A. Hummer, USMC, to be lieutenant general and Deputy 
for Military Operations, U.S. Africa Command (Reference No. 216).
    16. LTG Kenneth J. Glueck, Jr., USMC, to be lieutenant general and 
Deputy Commandant for Combat Development and Integration; Commanding 
General, Marine Corps Combat Development Command; Commander, U.S. 
Marine Corps Forces Strategic Command; Commanding General, Marine Corps 
National Capital Region Command; and Commander, U.S. Marine Corps 
Forces Cyber Command (Reference No. 217).
    17. In the Army, there is one appointment to the grade of 
lieutenant colonel (Jonathan F. Potter) (Reference No. 220).
    18. In the Army, there are two appointments to the grade of major 
(list begins with Hilario A. Pascua) (Reference No. 221).
    19. In the Army Reserve there are two appointments to the grade of 
colonel (list begins with James D. Peake) (Reference No. 222).
    20. In the Army, there are six appointments to the grade of colonel 
and below (list begins with John D. Pitcher) (Reference No. 223).
    21. In the Army Reserve, there are six appointments to the grade of 
colonel (list begins with Mark L. Allison) (Reference No. 224).
    22. In the Army Reserve, there are seven appointments to the grade 
of colonel (list begins with Phillip E. Appleton) (Reference No. 225).
    23. In the Navy, there is one appointment to the grade of commander 
(Joseph R. Primeaux, Jr.) (Reference No. 229).
    24. In the Navy, there is one appointment to the grade of captain 
(Gary S. Phillips) (Reference No. 232).
    25. In the Navy, there is one appointment to the grade of 
lieutenant commander (Genevieve Buenaflor) (Reference No. 233).
    26. In the Navy, there is one appointment to the grade of 
lieutenant commander (Freddie R. Harmon) (Reference No. 234).
    27. In the Navy, there is one appointment to the grade of 
lieutenant commander (Catherine W. Boehme) (Reference No. 235).
    28. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Todd W. Mills) (Reference No. 
236).
    29. Capt. Bret J. Muilenburg, USN, to be rear admiral (lower half) 
(Reference No. 249).
    30. Capt. Adrian J. Jansen, USN, to be rear admiral (lower half) 
(Reference No. 254).
    31. Gen. Philip M. Breedlove, USAF, to be general and Commander, 
U.S. European Command and Supreme Allied Commander, Europe (Reference 
No. 263).
    32. MG Mark O. Schissler, USAF, to be lieutenant general and Deputy 
Chairman, North Atlantic Treaty Organization Military Committee 
(Reference No. 267).
    33. MG Robert P. Otto, USAF, to be lieutenant general and Deputy 
Chief of Staff for Intelligence, Surveillance, and Reconnaissance, 
Headquarters, Air Force (Reference No. 268).
    34. BG Scott W. Jansson, USAF, to be major general (Reference No. 
269).
    35. LTG Daniel B. Allyn, USA, to be general and Commanding General, 
U.S. Army Forces Command (Reference No. 270).
    36. LTG James L. Terry, USA, to be lieutenant general and 
Commanding General, U.S. Army Central Command/Third U.S. Army 
(Reference No. 271).
    37. MG Perry L. Wiggins, USA, to be lieutenant general and 
Commanding General, U.S. Army North/Fifth U.S. Army (Reference No. 
272).
    38. LTG Richard P. Mills, USMC, to be lieutenant general and 
Commander, Marine Forces Reserve and Commander, Marine Forces North 
(Reference No. 276).
    39. In the Air Force, there is one appointment to the grade of 
major (Lou Rose Malamug) (Reference No. 279).
    40. In the Air Force, there is one appointment to the grade of 
major (Kelly A. Halligan) (Reference No. 280).
    41. In the Army, there is one appointment to the grade of major 
(Andrew W. Beach) (Reference No. 281).
    42. In the Army, there is one appointment to the grade of major 
(Donald V. Wood) (Reference No. 282).
    43. In the Navy, there is one appointment to the grade of 
lieutenant commander (Richard J. Witt) (Reference No. 285).
    44. In the Air Force, there are three appointments to the grade of 
major (list begins with Christopher E. Curtis) (Reference No. 300).
    45. In the Air Force, there are four appointments to the grade of 
colonel (list begins with Timothy A. Butler) (Reference No. 301).
    46. In the Air Force, there are nine appointments to the grade of 
colonel and below (list begins with John T. Grivakis) (Reference No. 
302).
    47. In the Air Force, there are 11 appointments to the grade of 
colonel (list begins with Danny L. Blake) (Reference No. 303).
    48. In the Air Force, there are 14 appointments to the grade of 
lieutenant colonel (list begins with Richard G. Anderson) (Reference 
No. 304).
    49. In the Air Force, there are 17 appointments to the grade of 
colonel (list begins with Jeffrey R. Alder) (Reference No. 305).
    50. In the Air Force, there are 20 appointments to the grade of 
major (list begins with Ronnelle Armstrong) (Reference No. 306).
    51. In the Air Force, there are 51 appointments to the grade of 
lieutenant colonel (list begins with Maiya D. Anderson) (Reference No. 
307).
    52. In the Air Force, there are 126 appointments to the grade of 
major (list begins with Matthew G. Adkins) (Reference No. 308).
    53. In the Army, there is one appointment to the grade of colonel 
(Suzanne C. Nielsen) (Reference No. 310).
    54. In the Army, there is one appointment to the grade of major 
(Ann M. Rudick) (Reference No. 311).
    55. In the Army, there is one appointment to the grade of major 
(Matthew P. Weberg) (Reference No. 312).
    56. In the Army, there is one appointment to the grade of major 
(Grady L. Gentry) (Reference No. 313).
    57. In the Navy Reserve, there is one appointment to the grade of 
captain (Oleh Haluszka) (Reference No. 316).
    58. In the Navy, there are three appointments to the grade of 
lieutenant commander (list begins with Stephen S. Cho) (Reference No. 
317).
    59. In the Navy, there are 48 appointments to the grade of 
lieutenant commander (list begins with Timothy R. Anderson) (Reference 
No. 318).
    Total: 549.

    Chairman Levin. Mr. Secretary?
    Secretary Hagel. Is the hearing over?
    Chairman Levin. It is. [Laughter.]
    At least for the 549 nominees, it is over. [Laughter.]
    Secretary Hagel. It is a damn efficient committee. 
[Laughter.]
    Thank you. I know General Dempsey and all of us are very 
pleased with that action, as will be other members of our team. 
So we appreciate your deliberation and your action.
    Mr. Chairman, before I begin my formal presentation, which 
you have noted, I have a longer version that has been 
distributed, I believe, last night to the committee and 
committee members on the fiscal year 2014 budget.
    Let me say on behalf of the men and women that represent 
our Armed Forces both in uniform and civilians that our prayers 
and hearts go out to the people in Boston, the families who 
lost loved ones, those who were injured, wounded by this 
despicable act. We are very proud of how our leaders and those 
responsible for assisting and dealing with the tragedy in 
Boston, how they have responded. We are particularly proud of 
our National Guard who are still working with local officials. 
I wanted to put that on the record, Mr. Chairman, and make that 
of considerable note. Thank you.
    Chairman Levin. We thank you very much for that. Our 
sympathies were reflected yesterday at a hearing that we had 
here, and we surely join you in your sentiments.

   STATEMENT OF HON. CHARLES T. HAGEL, SECRETARY OF DEFENSE; 
 ACCOMPANIED BY ROBERT HALE, COMPTROLLER, DEPARTMENT OF DEFENSE

    Secretary Hagel. Thank you.
    Allow me first to express my appreciation and that of DOD 
to this committee and each of its members for its continued 
support of our men and women in uniform and our civilian 
workforce. They are doing tremendous work, Mr. Chairman and 
Senator Inhofe, as you have both noted, and they are making 
great sacrifices, along with their families, as they have for 
more than 11 years of our Nation being at war. Their dedication 
and professionalism are the foundation of our military 
strength. As we discuss numbers, budgets, and strategic 
priorities this morning, we will not lose sight of those men 
and women serving across the globe. As you all know, their 
well-being depends on the decisions we make here in Washington.
    Today, DOD faces the significant challenge of conducting 
long-term planning and budgeting at a time of considerable 
uncertainty, both in terms of the security challenges we face 
around the globe and the levels of defense spending we can 
expect here at home.
    Even as the military emerges and recovers from more than a 
decade of sustained conflict in Iraq and Afghanistan, it 
confronts an array of complex threats of varying vintage and 
degree of risk to the United States, to include: the 
persistence of violent extremism throughout weak states and 
ungoverned spaces in the Middle East and North Africa; the 
proliferation of dangerous weapons and materials; the rise of 
new powers competing for influence; the risk of regional 
conflicts which could draw in the United States; faceless, 
nameless, silent, and destructive cyber attacks; the 
debilitating dangerous curse of human despair and poverty; and 
the uncertain implications of environmental degradation.
    Meanwhile, the frenetic pace of technological change and 
the spread of advanced military technology to state and non-
state actors pose an increasing challenge to America's 
military.
    This is the strategic environment facing DOD as it enters a 
third year of flat or declining budgets. The onset of these 
resource constraints has already led to significant and ongoing 
belt-tightening in military modernization, force structure, 
personnel costs, and overhead expenditures. You have noted some 
of those, Mr. Chairman. It has also given us an opportunity to 
reshape the military and reform defense institutions to better 
reflect 21st century realities, flexibility, and agility.
    The process began under the leadership of Secretary Gates 
who canceled or curtailed more than 30 modernization programs 
and trimmed overhead costs within the military Services and 
across the defense enterprise.
    The realignment continued under Secretary Panetta who 
worked closely with the President and the Joint Chiefs of Staff 
to craft new defense strategic guidance and a fiscal year 2013 
defense budget plan which reduced DOD's top line by $487 
billion over the course of a decade.
    The President's request of $526.6 billion for DOD's base 
budget for fiscal year 2014 continues to implement the 
President's defense strategic guidance and enhances DOD's 
efforts at institutional reform. Most critically, it sustains 
the quality of the All-Volunteer Force and the care we provide 
our servicemembers and their families, which underpins 
everything we do as an organization.
    Before discussing the particulars of this budget request, 
however, allow me to address the profound budget problems 
facing DOD in fiscal year 2013 and beyond as a result of 
sequester. Congress and DOD have a responsibility to find 
answers to these problems together because we have a shared 
responsibility. We have a shared responsibility to protect our 
national security. DOD is going to need the help of this 
committee. We are going to need the help of Congress to manage 
through this uncertainty.
    The fiscal year 2013 DOD appropriations bill enacted by 
Congress last month addressed many urgent problems by 
allocating DOD funding more closely in line with the 
President's budget request, giving DOD authorities to start new 
programs and allowing us to proceed with important military 
construction (MILCON) projects. Nonetheless, the bill still 
left in place the deep and abrupt cuts associated with 
sequester, as much as $41 billion in spending reductions over 
the next 6 months. Military pay and benefits are exempt, as you 
have noted, Mr. Chairman, they are exempt from the sequester. 
We made a decision to shift the impact of sequester from those 
serving in harm's way.
    Furthermore, the military is experiencing higher operating 
tempos and higher transportation costs than expected when the 
budget request was formulated more than a year ago. As a result 
of all these factors, DOD is now facing a shortfall in our 
operation and maintenance accounts for fiscal year 2013 of at 
least $22 billion in our base budget for Active Forces.
    In response, DOD has reduced official travel, cut back 
sharply on facilities maintenance, imposed hiring freezes, and 
halted many other important but lower priority activities. 
However, we will have to do more. We will have to do much more. 
We will soon send to Congress a large reprogramming request 
designed to offset some of our shortfalls, especially 
shortfalls in wartime funding, and we ask your help with its 
speedy review and approval. This reprogramming will be limited 
by ceilings on transfer authority and so can only solve some of 
our problem.
    We will have to continue to consider furloughing civilian 
personnel in the months ahead. There will also be significant 
cuts in maintenance and training, which further erodes the 
readiness of the force and will be costly to regain in the 
future. As the Service Chiefs have said, we are consuming our 
readiness. Meanwhile, our investment accounts and the defense 
industrial base are not spared damage as we also take 
indiscriminate cuts across these areas of the budget. We will 
continue to need the strong partnership of this committee to 
help us address these shortfalls.
    If the sequester-related provisions of the BCA of 2011 are 
not changed, fiscal year 2014 funding for national defense 
programs will be subject to a steeply reduced cap, which would 
further cut DOD funding by roughly $52 billion. If there is no 
action by Congress and the President, roughly $500 billion in 
reductions to defense spending would be required over the next 
9 years.
    As an alternative, the President's budget proposes some 
$150 billion in additional defense savings over the next 
decade. These cuts are part of a balanced package of deficit 
reduction. Unlike sequester, these cuts are largely back-
loaded, occurring mainly in the years beyond fiscal year 2018. 
That gives DOD time to implement these reductions wisely, 
carefully, responsibly, and anchored by the President's defense 
strategic guidance.
    Now, let me turn to the details of the President's budget 
request for fiscal year 2014.
    The $526.6 billion fiscal year 2014 budget request 
continues to balance the compelling demands of supporting our 
troops still at war in Afghanistan, protecting readiness, 
modernizing the military's aging weapons inventory in keeping 
with the President's strategic guidance, and sustaining the 
quality of the All-Volunteer Force.
    Today's budget request also contains a placeholder request, 
which you have noted, Mr. Chairman, for OCO at the fiscal year 
2013 level, $88.5 billion. The submission does not include a 
formal OCO request because Afghanistan force level and 
deployment decisions for this year were delayed in order to 
provide commanders enough time to fully assess responsibilities 
and requirements. We will soon be submitting an OCO budget 
amendment with a revised spending level and account-level 
detail.
    The base budget being presented today continues DOD's 
approach of the last several years to first target growing 
costs in the areas of support, acquisition, and pay and 
benefits before cutting military capabilities and force 
structure. This budget identifies new savings of about $34 
billion in fiscal year 2014 through 2018, including $5.5 
billion in fiscal year 2014 from these areas.
    In order to maintain balance and readiness, DOD must be 
able to eliminate excess infrastructure as it reduces force 
structure. DOD has been shedding infrastructure in Europe. We 
have been shedding infrastructure in Europe for several years 
and consolidating that infrastructure and are undertaking a 
review of our European footprint this year. But we also need to 
look at our domestic footprint. Therefore, the President's 
fiscal year 2014 budget request authorizes one round of base 
realignment and closure (BRAC) in 2015.
    BRAC is a comprehensive and fair tool that allows 
communities to have a role in the reuse decisions for their 
property and provides development assistance. BRAC, as we all 
know, is imperfect and there are upfront costs for BRAC. The 
Future Years Defense Program (FYDP) adds $2.4 billion to pay 
for those costs, but in the long term there are significant 
savings. The previous five rounds of BRAC are saving $12 
billion annually, and those savings will continue.
    DOD continues to streamline its acquisition programs and 
processes and, over the past 4 years, we have realized 
significant cost savings as a result of reforms implemented by 
the Weapons System and Acquisition Reform Act of 2009, 
sponsored by Chairman Levin and Senator McCain. In this budget, 
DOD has also achieved $8.2 billion in savings from weapons 
program terminations and restructuring.
    For example, by revising the acquisition strategy for the 
Army's ground combat vehicle, DOD will save over $2 billion in 
development costs. In other cases, DOD used evolutionary 
approaches to develop new capabilities instead of relying on 
leap-ahead gains in technology.
    The cost of military pay and benefits are another 
significant driver of spending growth that must be addressed in 
the current fiscal environment. In this budget, DOD is 
substituting a new package of military compensation proposals 
that take into consideration congressional concerns associated 
with those from fiscal year 2013. These changes save about $1.4 
billion in fiscal year 2014 and a total of $12.8 billion in 
fiscal years 2014 through 2018.
    This package includes a modest slowing of the growth of 
military pay by implementing a 1 percent pay raise for 
servicemembers in 2014. DOD is also seeking additional changes 
to the TRICARE program in the fiscal year 2014 budget to bring 
the beneficiaries' costs closer to levels envisioned when the 
program was implemented, particularly for working-age retirees. 
Survivors of military members who died on Active Duty or 
medically retired members would be excluded from all TRICARE 
increases. Even after the proposed changes in fees, TRICARE 
will still remain a very substantial benefit.
    These adjustments to pay and benefits were among the most 
carefully considered and most difficult choices in the budget. 
They were made with strong support of the Joint Chiefs of Staff 
and the senior enlisted leadership in recognition that in order 
to sustain these benefits over the long term, without 
dramatically reducing the size or readiness of the force, these 
rising costs will need to be brought under control.
    Nevertheless, spending reductions on the scale of the 
current drawdown cannot be implemented through improving 
efficiency and reducing overhead alone. Cuts and changes to 
capabilities, force structure, and modernization programs will 
all be required. The strategic guidance issued in January 2012 
set the priorities and the parameters and informed those 
choices, and the fiscal year 2014 budget submission further 
implements and deepens program alignment to this strategic 
guidance.
    The new strategy calls for a smaller, leaner, more agile, 
more flexible force. Last year, we proposed reductions of about 
100,000 in military end strength between 2012 and 2017. Most of 
those reductions occur in the ground forces and are consistent 
with the decision not to size U.S. ground forces to accomplish 
prolonged stability operations, while maintaining adequate 
capability should such activities again be required. By the end 
of 2014, we will have completed almost two-thirds of the 
drawdown of our ground forces, and the drawdown should be fully 
complete by fiscal year 2017.
    Increased emphasis on the Asia-Pacific and the Middle East 
represents another key tenet of the new defense strategic 
guidance. This budget continues to put a premium on rapidly 
deployable, self-sustaining forces such as submarines, long-
range bombers, and carrier strike groups. They all can project 
force over great distance and carry out a variety of 
complicated missions.
    This new strategy leverages new concepts of operation 
enabled by advances in space, cyberspace, special operations, 
global mobility, precision-strike, missile defense, and other 
capabilities. By making difficult tradeoffs in lower priority 
areas, the fiscal year 2014 budget protects or increases key 
investments in these critical capabilities.
    Another area of focus in this budget request is sustaining 
the readiness and quality of the All-Volunteer Force. The high 
quality of our All-Volunteer Force continues to be the 
foundation of our military strength. The fiscal year 2014 
budget request includes $137.1 billion for military personnel, 
as well as $49.4 billion for military medical care. Together, 
these make up roughly one-third of our base budget. This budget 
seeks to ensure that our troops receive the training and the 
equipment they need for military readiness and the world-class 
support programs they and their families have earned and 
deserve.
    DOD continues to support key provisions and programs in 
fiscal year 2014 that support servicemembers and their 
families, spending $8.5 billion on initiatives that include 
transition assistance and veterans employment assurance, 
behavioral health, family readiness, suicide prevention, and 
sexual assault prevention and response. The fiscal year 2014 
budget is a reflection of DOD's best efforts to match ends, 
ways, and means during a period of intense fiscal uncertainty.
    It is obvious that significant changes, Mr. Chairman, to 
DOD's top-line spending would require changes to this budget 
plan. DOD must plan for any additional reductions to the 
defense budget that might result in Congress and the 
administration agreeing on a deficit reduction plan. It must be 
prepared in the event that sequester-level cuts persist for 
another year or over the long term.
    Consequently, I directed a Strategic Choices and Management 
Review in order to assess the potential impact of further 
reductions up to the level of full sequester. The purpose of 
this review is to reassess the basic assumptions that drive 
DOD's investment and force structure decisions.
    The review will identify strategic choices and further 
institutional reforms that may be required, including those 
reforms which should be pursued regardless of fiscal pressures. 
It is designed to help understand the challenges, articulate 
the risks, and look for opportunities for reform and 
efficiencies presented by resource constraints. Everything will 
be on the table during this review: roles and missions, 
planning, business practices, force structure, personnel, 
compensation, acquisition and modernization investments, how we 
operate, and how we measure and maintain readiness.
    This review is being conducted by Deputy Secretary of 
Defense Carter working with General Dempsey. The Service 
Secretaries, Service Chiefs, Office of the Secretary of Defense 
principals, and combatant commanders will serve as essential 
participants. Our aim is to include this review which is now 
underway by May 31. The results will inform our fiscal year 
2015 budget request and will be the foundation for the 
Quadrennial Defense Review due in Congress in February of next 
year.
    It is already clear to me, Mr. Chairman, that achieving 
significant additional budget savings without unacceptable risk 
to national security will require not just tweaking or chipping 
away at existing structures and practices but, if necessary, 
fashioning entirely new ones that better reflect 21st century 
realities. That will require the partnership of Congress.
    The fiscal year 2014 budget and the ones before it have 
made hard choices. In many cases, modest reforms to personnel 
and benefits, along with efforts to reduce infrastructure and 
restructure acquisition programs, met fierce political 
resistance and were not implemented.
    We are now in a completely different fiscal environment 
dealing with new realities that will force us to more fully 
confront these tough and painful choices and to make the 
reforms we need to put DOD on a path to sustain or maintain our 
military strength for the 21st century. But in order to do 
that, we will need flexibility, time, and some budget 
certainty.
    We will also need to fund the military capabilities that 
are necessary for the complex security threats of the 21st 
century. I believe the President's budget does that. With the 
partnership of Congress, DOD can continue to find new ways to 
operate more affordably, efficiently, and effectively. However, 
multiple reviews and analyses show that additional major cuts, 
especially those on the scale and timelines of sequestration, 
would require dramatic reductions in core military capabilities 
or the scope of our activities around the world.
    Mr. Chairman, that completes my formal remarks. As I said, 
I have a more detailed report that I have submitted for the 
record. I appreciate the time of the committee and look forward 
to your questions.
    Now I know you would like to hear from Chairman Dempsey.
    Thank you.
    [The prepared statement of Secretary Hagel follows:]
              Prepared Statement by Hon. Charles T. Hagel
    Chairman Levin, Senator Inhofe, members of the committee, thank you 
for this opportunity to discuss the President's fiscal year 2014 budget 
request for the Department of Defense (DOD).
    Allow me to express my appreciation to this committee for its 
continued support of our men and women in uniform and our civilian 
workforce. They are doing tremendous work and making great sacrifices, 
along with their families, as they have for the more than 11 years our 
Nation has been at war. Whether fighting in Afghanistan, patrolling the 
world's sea lanes, standing vigilant on the Korean Peninsula, supplying 
our troops around the world, or supporting civil authorities when 
natural disasters strike, they are advancing America's interests at 
home and abroad. Their dedication and professionalism are the 
foundation of our military strength.
    As we discuss numbers, budgets, and strategic priorities, we will 
not lose sight of these men and women serving across the globe. As you 
all know, their well-being depends on the decisions we make here in 
Washington.
                      fiscal and strategic context
    Today, DOD faces the significant challenge of conducting long-term 
planning and budgeting at a time of considerable uncertainty--both in 
terms of the security challenges we face around the world and the 
levels of defense spending we can expect here at home.
    Even as the military emerges--and recovers--from more than a decade 
of sustained conflict in Iraq and Afghanistan, it confronts an array of 
complex threats of varying vintage and degrees of risk to the United 
States, to include:

        <bullet> the persistence of violent extremism throughout weak 
        states and ungoverned spaces in the Middle East and North 
        Africa;
        <bullet> the proliferation of dangerous weapons and materials;
        <bullet> the rise of new powers competing for influence;
        <bullet> the risk of regional conflicts which could draw in the 
        United States;
        <bullet> faceless, nameless, silent and destructive 
        cyberattacks;
        <bullet> the debilitating and dangerous curse of human despair 
        and poverty, as well as the uncertain implications of 
        environmental degradation.

    Meanwhile, the frenetic pace of technological change and the spread 
of advanced military technology to state and non-state actors pose an 
increasing challenge to America's military.
    This is the strategic environment facing DOD as it enters a third 
year of flat or declining budgets. The onset of these resource 
constraints has already led to significant and ongoing belt-tightening 
in military modernization, force structure, personnel costs, and 
overhead expenditures. It has also given us an opportunity to reshape 
the military and reform defense institutions to better reflect 21st 
century realities.
    The process began under the leadership of Secretary Gates, who 
canceled or curtailed more than 30 modernization programs and trimmed 
overhead costs within the military services and across the defense 
enterprise. These efforts reduced the Department's topline by $78 
billion over a 5-year period, as detailed in the Department's fiscal 
year 2012 budget plan.
    The realignment continued under Secretary Panetta, who worked 
closely with the President and the Joint Chiefs of Staff to craft new 
defense strategic guidance and a fiscal year 2013 defense budget plan 
which reduced the Department's topline by $487 billion over the course 
of a decade. Even while restructuring the force to become smaller and 
leaner and once again targeting overhead savings, this budget made 
important investments in the new strategy--including rebalancing to 
Asia and increasing funding for critical capabilities such as cyber, 
special operations, global mobility, and unmanned systems.
    The President's request of $526.6 billion for DOD's base budget for 
fiscal year 2014 continues to implement the President's defense 
strategic guidance and enhances the Department's efforts at 
institutional reform. Most critically, it sustains the quality of the 
All-Volunteer Force and the care we provide our servicemembers and 
their families, which underpins everything we do as an organization.

                     CHALLENGES IN FISCAL YEAR 2013

    Before discussing the particulars of this budget request, however, 
allow me to address the profound budget problems facing the Department 
in fiscal year 2013 and beyond as a result of sequester--because they 
have significantly disrupted operations for the current fiscal year and 
greatly complicated efforts to plan for the future. Congress and DOD 
have a responsibility to find answers to these problems together--
because we have a shared responsibility to protect our national 
security. DOD is going to need the help of Congress to manage through 
this uncertainty.
    The fiscal year 2013 DOD Appropriations bill enacted by Congress 
last month addressed many urgent problems by allocating DOD funding 
more closely in line with the President's budget request than a 
continuing resolution would have, giving the Department authorities to 
start new programs, and allowing us to proceed with important military 
construction projects. Nonetheless, the bill still left in place the 
deep and abrupt cuts associated with sequester--as much as $41 billion 
in spending reductions over the next 6 months. With military pay and 
benefits exempt from the sequester, and our internal decision to shift 
the impact of sequestration away from those serving in harm's way and 
spread them to the rest of the force where possible, the cuts fall 
heavily on DOD's operations, maintenance, and modernization accounts 
that we use to train and equip those who will deploy in the future.
    Furthermore, the military is experiencing higher operating tempos 
and higher transportation costs than expected when the budget request 
was formulated more than a year ago. As a result of all these factors, 
the Department is now facing a shortfall in our operation and 
maintenance (O&M) accounts for fiscal year 2013 of at least $22 billion 
in our base budget for Active Forces.
    In response, the Department has reduced official travel, cut back 
sharply on facilities maintenance, imposed hiring freezes, and halted 
many other important but lower-priority activities. However, we will 
have to do more. We will soon send to Congress a large reprogramming 
request designed to offset some of our shortfalls, especially 
shortfalls in wartime funding, and we ask your help with its speedy 
review and approval. This reprogramming will be limited by ceilings on 
transfer authority and so can only solve part of our problem.
    We will have to continue to consider furloughing civilian personnel 
in the months ahead. There will also be significant cuts in maintenance 
and training, which further erodes the readiness of the force and will 
be costly to regain in the future. As the Service Chiefs have said, we 
are consuming our readiness. Meanwhile, our investment accounts and the 
defense industrial base are not spared damage as we also take 
indiscriminate cuts across these areas of the budget. We will continue 
to need the strong partnership of this committee to help us address 
these shortfalls.
    If the sequester-related provisions of the Budget Control Act of 
2011 are not changed, fiscal year 2014 funding for national defense 
programs will be subject to a steeply reduced cap, which would cut DOD 
funding by roughly $52 billion further. If there is no action by 
Congress, roughly $500 billion in reductions to defense spending would 
be required over the next 9 years.
    As an alternative, the President's budget proposes some $150 
billion in additional defense savings (measured in terms of budget 
authority) over the next decade when compared with the budget plan 
submitted last year. These cuts are part of a balanced package of 
deficit reduction. Unlike sequester, these cuts are largely back-
loaded--occurring mainly in the years beyond fiscal year 2018--which 
gives the Department time to plan and implement the reductions wisely, 
and responsibly, anchored by the President's defense strategic 
guidance.

                    FISCAL YEAR 2014 BUDGET REQUEST

    The President's fiscal year 2014 request continues to balance the 
compelling demands of supporting troops still very much at war in 
Afghanistan, protecting readiness, modernizing the military's aging 
weapons inventory in keeping with the president's strategic guidance, 
and sustaining the quality of the All-Volunteer Force.
    The top-line budget request of $526.6 billion for fiscal year 2014 
is essentially flat compared to the President's request for fiscal year 
2013, and roughly in line with what both the House and Senate have 
passed in their fiscal year 2014 budget resolutions.
    Today's budget request also contains a placeholder request for 
overseas contingency operations (OCO) at the fiscal year 2013 level 
($88.5 billion). The submission does not include a formal OCO request 
because Afghanistan force level and deployment decisions for this year 
were delayed in order to provide commanders enough time to fully assess 
requirements. We will soon be submitting an OCO budget amendment with a 
revised level and account-level detail.
    The following are the major components of the $526.6 billion fiscal 
year 2014 base budget request:

        <bullet> Military pay and benefits (including TRICARE and 
        retirement costs)--$170.2 billion (32 percent of the total base 
        budget);
        <bullet> Operating costs (including $77.3 billion for civilian 
        pay)--$180.1 billion (34 percent);
        <bullet> Acquisitions and other investments (procurement, 
        research, development, test and evaluation, and new facilities 
        construction)--$176.3 billion (33 percent)

    The budget presented today, at its most basic level, consists of a 
series of choices that reinforce each of the following complementary 
goals:

        <bullet> making more disciplined use of defense resources;
        <bullet> implementing the President's defense strategic 
        guidance;
        <bullet> seeking to sustain the readiness and quality of the 
        All-Volunteer Force;
        <bullet> supporting troops deployed and fighting in 
        Afghanistan.

    Many of the reductions we are being forced to make in fiscal year 
2013 as a result of sequester run counter to these goals.

    1.  Making more disciplined use of defense resources

    In developing the fiscal year 2014 budget, the Department 
identified about $34 billion in savings over the current Future Years 
Defense Program (FYDP), which covers fiscal year 2014 to fiscal year 
2018. These savings were used to help pay the costs of implementing the 
new defense strategy and to accommodate budget reductions.
    These efforts continue the Department's approach of the last 
several years to first target growing costs in areas of support, 
acquisition, and pay and benefits, before cutting military capabilities 
and force structure.
Reducing Support Costs
    In order to maintain balance and readiness, DOD must be able to 
eliminate excess infrastructure as it reduces force structure. DOD has 
been shedding infrastructure in Europe for several years and we are 
undertaking a review of our European footprint this year, but we also 
need to look at our domestic footprint. Therefore, the President's 
fiscal year 2014 budget requests authorization for one round of Base 
Realignment and Closure (BRAC) in 2015. While the commission would meet 
in 2015, the actual closing of any bases would involve a multiyear 
process that would not begin until 2016.
    BRAC is a comprehensive and fair tool that allows communities a 
role in reuse decisions for the property and provides redevelopment 
assistance. There are upfront costs for BRAC, and this FYDP adds $2.4 
billion to pay them, but in the long term, there are significant 
savings. The previous five rounds of BRAC are now saving a total of $12 
billion annually.
    We are also taking other important steps to cut back on support 
costs. We will institute a study of our Military Treatment Facilities, 
including many hospitals and clinics that are currently underutilized. 
By the end of this year we will have a plan in place that suggests how 
to reduce that underutilization while still providing high-quality 
medical care. This restructuring, coupled with a BRAC round and other 
changes, would permits us to plan on a cut in our civilian workforce 
that will comply with congressional direction.
    We are also continuing our successful efforts to hold down military 
health system costs. With the Department's proposed TRICARE benefit 
changes, our projected costs for fiscal year 2014 are about 4 percent 
lower than those costs in fiscal year 2012, a significant turnaround 
compared to health care trends over the past decade. We continue 
efforts to slow the growth of medical care costs through actions such 
as rephasing military construction, making full use of past changes in 
provider costs, and taking advantage of the slowing of growth in 
medical costs in the private sector.
    Another important initiative is our effort to improve the 
Department's financial management and achieve auditable financial 
statements. We need auditable statements, both to improve the quality 
of our financial information and to reassure the public, and Congress, 
that we are good stewards of public funds. We have a focused plan and 
are making progress. Our next goal is audit-ready budget statements by 
the end of 2014. We are working hard to achieve this goal, though the 
current budget turmoil is hampering our efforts. I strongly support 
this initiative and will do everything I can to fulfill this 
commitment.
    These and many other changes led to total savings of about $34 
billion in fiscal year 2014-2018, including $5.5 billion in fiscal year 
2014. However, we are concerned that these savings from more 
disciplined use of resources could be eroded by sequester, as we are 
forced to make inefficient choices that drive up costs. Today, for 
example, we are being forced to engage in shorter and less efficient 
contracts and sharp cuts in unit buy sizes that will increase the unit 
costs of weapons.

Restructuring and Terminations of Weapons Programs
    The Department continues to streamline its acquisition programs and 
processes, and over the past 4 years we have realized significant cost 
savings as a result of reforms implemented by the Weapon Systems and 
Acquisition Reform Act of 2009 sponsored by Senators Levin and McCain. 
In this budget, the Department has shifted priorities within its 
modernization portfolios and achieved $8.2 billion in savings from 
weapons program terminations and restructuring.
    For example, by revising the acquisition strategy for the Army's 
Ground Combat Vehicle program, the Department will save over $2 billion 
in development costs.
    In other cases the Department used evolutionary approaches to 
develop new capabilities instead of relying on leap-ahead gains in 
technology.
    For example, the Department:

        <bullet> Realigned investment funding and restructured the SM-3 
        IIB interceptor--a high-risk, high-cost system--to improve the 
        capabilities of existing missile defense systems, resulting in 
        savings of about $2.1 billion during the Future Year Defense 
        Program (FYDP);
        <bullet> Cancelled the Precision Tracking Space Satellite 
        system--another high-risk project--saving $1.9 billion during 
        the FYDP; the Department invested a portion of these savings in 
        technology upgrades to existing ground-based radars and 
        sensors.

    To lessen the potential impact on local communities from the 
reductions in defense procurement, the Department is requesting an 
additional $36 million in support of the Defense Industry Adjustment 
program.
    The Department is continuing to take steps to tighten the contract 
terms and reduce risk in our largest acquisition program, the F-35 
Joint Strike Fighter. The fiscal year 2014 budget request includes $8.4 
billion for the Joint Strike Fighter.

Military Pay and Benefits
    The costs of military pay and benefits are another significant 
driver of spending growth that must be addressed in the current fiscal 
environment. In this budget, the Department is submitting a new package 
of military compensation proposals that take into consideration 
congressional concerns associated with those from fiscal year 2013. 
These changes save about $1.4 billion in fiscal year 2014 and a total 
of $12.8 billion in fiscal year 2014-2018.
    This package includes a modest slowing of the growth of military 
pay by implementing a 1 percent pay raise for servicemembers in 2014. 
The Department is also seeking additional changes to the TRICARE 
program in the fiscal year 2014 budget to bring the beneficiary's cost 
share closer to the levels envisioned when the program was 
implemented--particularly for working-age retirees. Today military 
retirees contribute less than 11 percent of their total health care 
costs, compared to an average of 27 percent when TRICARE was first 
fully implemented in 1996.
    The proposed TRICARE changes include:

        <bullet> For retirees, modest increases in TRICARE Prime 
        enrollment fees, instituting an enrollment fee for TRICARE 
        Standard/Extra, and increasing Standard/Extra deductibles;
        <bullet> Implementation of an enrollment fee for new TRICARE-
        for-Life beneficiaries, while grandfathering in those already 
        Medicare-eligible at enactment;
        <bullet> Increases in pharmacy co-pays and, where appropriate, 
        mandatory use of mail order delivery of pharmaceuticals; and
        <bullet> Indexing of fees, deductibles, co-pays, and the 
        catastrophic cap to the growth in annual retiree cost-of-living 
        adjustment.

    Survivors of military members who died on active duty or medically 
retired members would be excluded from all TRICARE increases. Even 
after the proposed changes in fees, TRICARE will remain a substantial 
benefit.
    These adjustments to pay and benefits were among the most carefully 
considered and difficult choices in the budget. They were made with the 
strong support of the Joint Chiefs of Staff and Senior Enlisted 
Leadership, in recognition that in order to sustain these benefits over 
the long term without dramatically reducing the size or readiness of 
the force, these rising costs need to be brought under control.

    2.  Implementing and deepening our commitment to the President's 
defense strategic guidance

    Spending reductions on the scale of the current drawdown cannot be 
implemented through improving efficiency and reducing overhead alone. 
Cuts and changes to capabilities--force structure and modernization 
programs--will also be required. The strategic guidance issued in 
January 2012 set the priorities and parameters that informed those 
choices, and the fiscal year 2014 budget submission further implements 
and deepens program alignment to this strategic guidance.
    The new strategy calls for a smaller and leaner force. Last year we 
proposed reductions of about 100,000 in military end strength between 
fiscal year 2012 and fiscal year 2017. Most of those reductions occur 
in the ground forces and are consistent with a decision not to size 
U.S. ground forces to accomplish prolonged stability operations, while 
maintaining adequate capability should such activities again be 
required. By the end of fiscal year 2014 we will have completed almost 
two thirds of the drawdown of our ground forces, and the drawdown 
should be fully complete by fiscal year 2017.
    Last year DOD submitted proposals for changes in Air Force and Navy 
force structure; some were rejected by Congress. We continue to 
believe, however, that these reductions are consistent with our defense 
strategy and the need to hold down costs. Therefore, DOD is 
resubmitting several proposals from its fiscal year 2013 budget 
submission that were not supported by Congress, including the 
retirement of seven Aegis cruisers and two amphibious ships at the 
beginning of fiscal year 2015. Despite the growing importance of the 
Asia-Pacific--a mostly maritime theater--the high costs of maintaining 
these older ships relative to their capabilities argues strongly for 
their retirement.
    The fiscal year 2014 budget continues implementation of the Air 
Force total force proposal included in the National Defense 
Authorization Act for Fiscal Year 2013. In response to state and 
congressional concerns about proposed reductions to the Air National 
Guard that DOD made in the original fiscal year 2013 budget, the 
Department added back 44 aircraft to the Guard, 30 aircraft to the Air 
Force Reserve, and is taking away 31 aircraft from the Active Air 
Force.
    These shifts were forced primarily by political realities, not 
strategy or analysis. While this Active-Reserve compromise allows the 
Air Force to move forward with prior year retirements and transfers, 
and approved mission changes for many Reserve units, it does requires 
the Department to retain excess aircraft capacity. The Department's 
position continues to be that retaining excess air capacity in the 
Reserve component is an unnecessary expenditure of government funds 
that detracts from more pressing military priorities outlined in the 
defense strategic guidance.
    Increased emphasis on the Asia-Pacific and Middle East represents 
another key tenet of the new defense strategic guidance. This budget 
continues to put a premium on rapidly deployable, self-sustaining 
forces--such as submarines, long-range bombers, and carrier strike 
groups--that can project power over great distance and carry out a 
variety of missions.
    As part of the rebalance to the Asia-Pacific, the Department is 
expanding the Marine Corps presence in the region, including rotational 
deployments of Marine units to Australia. We continue to develop Guam 
as a strategic hub where we maintain a rotational bomber presence among 
other capabilities. The Department will stage its most capable forces 
in the region, including an F-22 squadron at Kadena Air Force Base in 
Japan. The Navy has deployed a Littoral Combat Ship to Singapore and is 
increasing and more widely distributing port visits in the Western 
Pacific.
    Additional enhancements and key capabilities supporting the Asia-
Pacific rebalance in the fiscal year 2014 budget include:

        <bullet> Protecting investments for new ship construction, 
        enabling the Navy to procure eight new ships in fiscal year 
        2014--including two Virginia-class submarines ($10.9 billion);
        <bullet> Continuing investments to develop a new penetrating 
        bomber ($379 million);
        <bullet> Investing in new maritime patrol aircraft ($3.8 
        billion);
        <bullet> Continuing investments to maintain and expand undersea 
        dominance, including increasing the cruise missile capacity of 
        the future Virginia-class subs and developing new unmanned 
        undersea vehicles ($223.9 million);
        <bullet> Continuing to fund development of an unmanned carrier 
        launched UAV ($427 million);
        <bullet> Adding electronic attack EA-18Gs to offset the loss of 
        retired Marine Corps EA-6B (Prowler) squadrons ($2.0 billion);
        <bullet> Investing in a new suite of anti-surface warfare 
        weapons ($160 million);
        <bullet> Increasing the number of attack submarines forward 
        deployed to Guam to four ($78 million);
        <bullet> Funding airfield resiliency measures such as 
        dispersal, rapid runway repair, and hardening in the Western 
        Pacific ($440 million);
        <bullet> The Army is investing in upgraded missile defense 
        capabilities in the region ($40 million);
        <bullet> Increasing funding for joint exercises in the PACOM 
        region ($14 million).

    Another tenet of the strategy is to support efforts to build 
partner capacity through innovative mechanisms based on lessons learned 
over the past decade of war. To that end, the fiscal year 2014 request 
builds on our section 1206 program by including $75 million in 
dedicated funding for the new Global Security Contingency Fund, a 
pooled resource between DOD and Department of State that supports 
common efforts to boost the security capacity of partners in regions 
like Africa. This represents the first time dedicated funds have been 
requested for this new authority.
    This new strategy not only recognizes the changing character of the 
conflicts in which the United States must prevail, but also leverages 
new concepts of operation enabled by advances in space, cyberspace, 
special operations, global mobility, precision-strike, missile defense, 
and other capabilities. By making difficult trade-offs in lower 
priority areas, the fiscal year 2014 budget protects or increases key 
investments in these critical capabilities, including:

        <bullet> Cyberspace operations, including the recruitment and 
        retention of world-class cyber personnel ($4.7 billion for 
        fiscal year 2014, an increase of $800 million over fiscal year 
        2013 enacted levels).
        <bullet> Space operations--to maintain our superiority in 
        space, the Air Force continues to modernize the GPS program and 
        is investing in improved space surveillance capabilities and a 
        new generation of communications satellites ($10.1 billion).
        <bullet> Airborne intelligence, surveillance, and 
        reconnaissance (ISR)--the Department is investing in both sea-
        based and extended range, land-based ISR platforms ($2.5 
        billion).
        <bullet> Rapid Global Mobility--to maintain our ability to 
        rapidly deliver and sustain our forces around the globe, the 
        Air Force is upgrading its C-5, C-17, and C-130 transport 
        aircraft--replacing the oldest aircraft and modernizing the 
        fleet--and building the new KC-46 aerial refueling tanker ($5.0 
        billion);
        <bullet> Missile Defense--to protect against ballistic missile 
        threats from Asia-Pacific and the Middle East, the Department 
        is increasing its fleet of Ground Based Interceptors (GBI), 
        continuing the conversion of Aegis ships to provide ballistic 
        missile defense capability, and procuring additional Terminal 
        High Altitude Area Defense (THAAD) interceptors and Patriot 
        PAC-3 missiles ($9.2 billion);
        <bullet> Special Operations/counterterrorism--to ensure our 
        Special Operations Forces maintain the highest levels of 
        readiness and to expand the global Special Operations Force 
        network ($7.7 billion).

    3. Seeking to sustain the readiness and quality of the All-
Volunteer Force

    The high-quality of our All-Volunteer Force continues to be the 
foundation of our military strength. This budget seeks to ensure that 
our troops receive the training and equipment they need for military 
readiness, and the world-class support programs they and their families 
have earned. However, as in other areas of the budget, the steep and 
abrupt cuts of sequester would harm these programs. The remainder of 
this discussion outlines the goals of the fiscal year 2014 budget, but 
they would be significantly impacted by the persistence of sequester-
level cuts.

Readiness Investments
    Even with flat and declining defense budgets, this budget seeks to 
press ahead with the transition from a counterinsurgency-focused force 
to a force ready and capable of operating across a full range of 
operations across the globe. The service budgets all fund initiatives 
that seek to return to full-spectrum training and preparation for 
missions beyond current operations in Afghanistan:

        <bullet> The Army would prepare for a rotational presence in 
        multiple regions and has begun training in ``decisive action'' 
        scenarios and is transitioning to training in combined arms 
        conventional warfare;
        <bullet> The Marine Corps would return to a sea-going posture, 
        its traditional role in between major conflicts;
        <bullet> The Navy would invest in ship maintenance and measures 
        to alleviate the stress on personnel from prolonged and 
        extended deployments required by current operations;
        <bullet> The Air Force would re-focus on high-end capabilities 
        required to confront the advanced air forces and air defense 
        systems of other nations.

    The Department continues its work to understand and quantify 
readiness activities as we seek to maximize our preparedness for real-
world missions. We do not yet know the costs of fixing the readiness of 
the force following the 6 months of sequester cuts to training in this 
fiscal year. Therefore these costs are not included in the fiscal year 
2014 budget. However, the President's budget includes balanced deficit 
reduction proposals that are more than sufficient to allow Congress to 
replace and repeal the sequester-related reductions required by the 
Budget Control Act.

Family Support Programs
    The Department's budget submission makes clear that people are 
central to everything we do. While sequester cuts would unfortunately 
counter many of these initiatives, especially for our civilian 
workforce, the initiatives remain important statements of the intent in 
this budget.
    The Department continues to support key programs in fiscal year 
2014 that support servicemembers and their families, spending $8.5 
billion on initiatives that include:

        <bullet> Transition Assistance and Veteran's Employment 
        Assurance--the Department continues to support the Transition 
        Assistance Program to ensure every servicemember receives 
        training, education, and credentials needed to successfully 
        transition to the civilian workforce.
        <bullet> Family Readiness--the Department continues to ensure 
        that family support is a high priority by redesigning and 
        boosting family support in a number of ways.

    The Department is also providing support to our people with a 
number of other important initiatives, including:

        <bullet> Behavioral Health--the Department maintains funding 
        for psychological health programs and expands those programs 
        that are most effective, such as Embedded Behavioral Health, to 
        provide improved access to care, improved continuity of care, 
        and enhanced behavioral health provider communication.
        <bullet> Suicide Prevention--the Department continues to 
        implement recommendations from the Suicide Prevention Task 
        Force and act on other findings from think tanks, the National 
        Action Alliance's National Suicide Prevention Strategy, and DOD 
        and Department of Veteran's Affairs Integrated Mental Health 
        Strategy.

    Another area of focus has been Sexual Assault Prevention and 
Response. The Department has implemented a number of initiatives to 
change the way it prevents and responds to the crime of sexual assault, 
along five lines of effort:

        <bullet> Prevention--the military services have launched a wide 
        range of enhanced training programs, which are now being taught 
        in multiple professional military education and training 
        courses, to include DOD-wide precommand and senior 
        noncommissioned officer training courses.
        <bullet> Investigation--Consistent with the National Defense 
        Authorization Acts for Fiscal Year 2012 and Fiscal Year 2013, 
        DOD has established new policies to retain investigative 
        documentation for 50 years for unrestricted reports, and is 
        developing policy for Special Victim Capability.
        <bullet> Advocacy--DOD has implemented a Safe helpline to give 
        victims 24/7 global access to crisis support staff, implemented 
        an expedited transfer policy for victims requesting transfer to 
        a new unit, and expanded emergency care and services to DOD 
        civilians stationed abroad.
        <bullet> Assessment--DOD has added sexual assault questions to 
        DOD Command Climate Surveys and implemented policy to conduct 
        assessments within 120 days for new commanders and annually 
        thereafter, consistent with the National Defense Authorization 
        Act for Fiscal Year 2013.
        <bullet> Accountability--on April 8, I directed DOD's Acting 
        General Counsel to propose to Congress changes to Article 60 of 
        the Uniform Code of Military Justice (UCMJ) that would 
        eliminate the ability of a convening authority to change 
        findings in courts-martial, except for certain minor offenses. 
        These changes would also require the convening authority to 
        explain in writing any changes made to court-martial sentences, 
        as well as any changes to findings involving minor offenses. 
        These changes, if enacted, would help ensure that our military 
        justice system works fairly, ensures due process, and is 
        accountable.

    I am currently reviewing other options and actions to strengthen 
the Department's prevention and response efforts, and will announce 
those decisions and actions soon. Consistent with the 2013 National 
Defense Authorization Act, I will soon be naming individuals to sit on 
independent panels to review and assess the systems used to 
investigate, prosecute, and adjudicate crimes involving sexual assault, 
and judicial proceedings of sexual assault cases. I will closely review 
their recommendations when complete.

    4.  Supporting troops deployed and fighting overseas

    As I said earlier, this budget request includes a placeholder 
request for OCO funding at the fiscal year 2013 level ($88.5 billion)--
we expect to submit an OCO budget amendment with a revised level and 
account-level detail later this spring. I would note that OCO funding 
is essential in fiscal year 2014 to support troops deployed and 
fighting in, and coming home from, Afghanistan, and the cost of 
transporting and resetting equipment returning from theater. OCO costs 
should decrease as our military presence in Afghanistan decreases, but 
even after the conclusion of combat operations we will face war-related 
costs that must be addressed.
         the way ahead: strategic choices and management review
    The fiscal year 2014 budget is a reflection of DOD's best efforts 
to match ends, ways, and means during a period of intense fiscal 
uncertainty. It is a balanced plan that would address some of the 
Department's structural costs and internal budget imbalances while 
implementing the President's defense strategic guidance and keeping 
faith with our men and women in uniform and their families.
    It is obvious that significant changes to the Department's top-line 
spending would require changes to this budget plan. The Department must 
plan for any additional reductions to the defense budget that might 
result from Congress and the administration agreeing on a deficit 
reduction plan, and it must be prepared in the event that sequester-
level cuts persist for another year or over the long term.
    Consequently, I directed a Strategic Choices and Management Review 
in order to assess the potential impact of further reductions up to the 
level of full sequester. The purpose of this Strategic Choices and 
Management Review is to reassess the basic assumptions that drive the 
Department's investment and force structure decisions.
    The review will identify the strategic choices and further 
institutional reforms that may be required--including those reforms 
which should be pursued regardless of fiscal pressures. It is designed 
to help understand the challenges, articulate the risks, and look for 
opportunities for reform and efficiencies presented by resource 
constraints. Everything will be on the table during this review--roles 
and missions, planning, business practices, force structure, personnel 
and compensation, acquisition and modernization investments, how we 
operate, and how we measure and maintain readiness.
    This review is being conducted by Deputy Secretary Carter working 
with General Dempsey. The Service Secretaries and Service Chiefs, 
Office of the Secretary of Defense Principals, and combatant commanders 
will serve as essential participants. Our aim is to conclude this 
review by May 31, 2013. The results will inform our fiscal year 2015 
budget request and will be the foundation for the Quadrennial Defense 
Review due to Congress in February 2014.
    It is already clear to me that achieving significant additional 
budget savings without unacceptable risk to national security will 
require not just tweaking or chipping away at existing structures and 
practices but, if necessary, fashioning entirely new ones that better 
reflect 21st century realities. That will require the partnership of 
Congress.
    The fiscal year 2014 budget and the ones before it have made hard 
choices. In many cases, modest reforms to personnel and benefits, along 
with efforts to reduce infrastructure and restructure acquisition 
programs, met fierce political resistance and were not implemented.
    We are now in a different fiscal environment dealing with new 
realities that will force us to more fully confront these tough and 
painful choices, and to make the reforms we need to put this Department 
on a path to sustain our military strength for the 21st century. But in 
order to do that we will need flexibility, time, and some budget 
certainty.
    We will also need to fund the military capabilities that are 
necessary for the complex security threats of the 21st century. I 
believe the President's budget does that. With the partnership of 
Congress, the Defense Department can continue to find new ways to 
operate more affordably, efficiently, and effectively. However, 
multiple reviews and analyses show that additional major cuts--
especially those on the scale and timeline of sequestration--would 
require dramatic reductions in core military capabilities or the scope 
of our activities around the world.
    As the executive and legislative branches of government, we have a 
shared responsibility to ensure that we protect national security and 
America's strategic interests. Doing so requires that we make every 
decision on the basis of enduring national interests and make sure 
every policy is worthy of the service and sacrifice of our 
servicemembers and their families.

    Chairman Levin. Thank you very much, Secretary Hagel. Your 
full statement will, of course, be made part of the record.
    General Dempsey.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Chairman Levin, Ranking Member 
Inhofe.
    I would like to add my thoughts and prayers, as the 
Secretary mentioned, to those affected by the terror attack in 
Boston and also tell you how proud we are of our guardsmen who 
were among the first responders. Of course, we will stand 
ready, all of us, to provide whatever support they need as this 
issue evolves.
    I welcome this opportunity to update you on the U.S. Armed 
Forces and to comment on the budget proposal for fiscal year 
2014.
    This hearing comes at a time of extraordinary uncertainty. 
As resources are declining, the risks to our national security 
are rising. It is in this context that I offer my perspective 
on how we can work together to sustain a balanced and a 
peerless joint force.
    One thing you should be certain of is that our men and 
women are steadfast in their courage and in their devotion to 
duty. I saw it recently in their eyes as I had the honor of 
reenlisting some of them at Bagram Airfield. In Afghanistan, 
our forces are simultaneously fighting, transitioning, and 
redeploying. The Afghan military, as the Secretary said, will 
soon take operational lead for security across the country. As 
they gain confidence, so too do the Afghan people.
    The coalition will remain in support as we transition to a 
sustainable presence beyond 2014, and at every point along the 
way we must make sure that our force levels match the mission 
that we ask of our men and women in uniform.
    Our joint force has been vigilant elsewhere as well. We are 
deterring aggression and assuring our allies in the face of 
provocation by North Korea and by Iran. We are working with our 
interagency partners to defend against cyber attack. We are 
acting directly and with partners to defeat al Qaeda. We are 
rebalancing to the Asia-Pacific region and adapting our force 
posture to a new normal of combustible violence in North Africa 
and the Middle East. As we will discuss more later today, we 
are also working with others to keep Syria's complex conflict 
from destabilizing the region. We are prepared with options if 
military force is called for and if it can be used effectively 
to secure our interests without making the situation worse.
    We must also be ready with options for an uncertain and 
dangerous future, and this budget was purpose-built to keep our 
Nation immune from coercion. It aims to restore versatility to 
a more affordable joint force in support of our defense 
strategy.
    But let me also be clear about what this budget does not 
do. This budget does not reflect the full sequestration amount. 
It does impose less reduction and give us more time.
    However, uncertainty does persist about what the top line 
will be for this or for any other budget. Nor does this budget 
include funds to restore lost readiness. We do not yet know the 
full impact or the cost to recover from the readiness 
shortfalls we are experiencing this year.
    As expected, we have already curtailed or canceled training 
for many units across all forces, those not preparing to 
deploy. We all know it is more expensive to get ready than it 
is to stay ready. Recovery costs, therefore, will compete with 
the costs of us building the joint force towards 2020.
    This budget does, however, invest in our priorities. It 
keeps the force in balance. It supports our forward-deployed 
operations. It upholds funding for emerging capabilities, 
notably cyber. It funds those conventional and nuclear 
capabilities that have proven so essential to our defense. It 
also lowers manpower costs, reduces excess infrastructure, and 
makes health care more sustainable. Most importantly, it 
protects our investment in our real decisive edge, which is our 
people. It treats being the best-led, the best-trained, and the 
best-equipped military as non-negotiable and as an imperative.
    Never has our Nation sustained such a lengthy war solely 
through the service of an All-Volunteer Force. We must honor 
our commitments to them and to their families. For many 
veterans, returning home is a new front line in the struggle 
with wounds seen and unseen. We must continue to invest in 
world-class treatment for mental health issues, traumatic brain 
injury, and combat stress. We also have a shared responsibility 
to address the urgent issue of suicide with the same devotion 
we have shown to protecting the lives of those in combat.
    The risks inherent to military service must never include 
the risk of sexual assault. Sexual assault betrays the trust on 
which our profession is founded. We will pursue every option to 
drive this crime from our ranks.
    This is a defining moment for our military. Our warriors' 
will to win is undaunted, but the means to prepare to win are 
becoming uncertain. We, therefore, have an opportunity and an 
obligation with this and any future budget to restore 
confidence. We have it within us to stay strong as a global 
leader and as a reliable partner. The joint force is looking to 
us to lead through this period of historic fiscal correction, 
but we cannot do it alone.
    As I have said before, we need budget certainty, we need 
time, and we need flexibility. That means a predictable funding 
stream. It means the time to deliberately evaluate tradeoffs in 
force structure, modernization, compensation, and readiness. It 
means the full flexibility to keep the force in balance.
    Thank you for all you have done to support our men and 
women in uniform. I only ask that you continue to support a 
responsible investment in our Nation's defense.
    I look forward to your questions.
    [The prepared statement of General Dempsey follows:]

           Prepared Statement by GEN. Martin E. Dempsey, USA

                            I. INTRODUCTION

    Chairman, Ranking Member, and distinguished committee members, it 
is my privilege to update you on the state of the U.S. Armed Forces and 
to comment on the President's budget proposal for fiscal year 2014.
    This year's posture testimony comes in the context of extraordinary 
uncertainty. Our Nation is going through an historic fiscal correction 
to restore the economic foundation of our power. As resources decline, 
risks to our national security interests rise. A more competitive 
security environment compounds these risks, increasing the probability 
and consequences of aggression.
    This context calls out for our leadership. We can and must find it 
within ourselves to stay strong as a global leader and reliable 
partner. We must restore lost readiness and continue to make 
responsible investments in our Nation's defense.

               II. STRATEGIC DIRECTION TO THE JOINT FORCE

    A year ago, I established four priorities to help guide our Joint 
Force through this period of uncertainty. Our way forward must be 
rooted in a renewed commitment to the Profession of Arms. This means 
preserving an uncommon profession that is without equal in both its 
competence and its character. Along the way, we must keep faith with 
our military family. This means honoring the commitments we have made 
to our servicemembers and their families. They deserve the future they 
sacrificed so much to secure.
    These two priorities serve as a source of strength for the Joint 
Force as it achieves our national objectives in current conflicts. This 
means achieving our campaign objectives in Afghanistan while 
confronting aggression toward America and its allies in all its forms 
wherever and whenever it arises. It also means helping to secure the 
flow of commerce in the global commons, building the capacity of our 
partners, providing humanitarian assistance, and maintaining a credible 
nuclear deterrent.
    These three priorities enable us to understand and develop the 
Joint Force of 2020. Our ability to build the force we will need 
tomorrow depends on the decisions we make today. This is a defining 
moment in a defining year. Ensuring our future military is unrivaled 
and sustainable requires the right mix between current capacity and new 
capabilities. We must recapitalize current equipment where possible and 
modernize capabilities that preserve our decisive advantages.

                      III. JOINT FORCE OPERATIONS

    One thing has been certain over the last year--the Joint Force 
stood strong and responded to the Nation's call. After more than a 
decade of continual deployments and tough fighting, I remain humbled by 
the resilience and determination of our warriors.
    In the past year, our service men and women have simultaneously 
fought, transitioned, and redeployed from Afghanistan. Never before 
have we retrograded so much combat power and equipment while continuing 
combat operations. Our forces performed superbly, transitioning to 
Afghan security lead in areas comprising over 85 percent of the 
population. In the process, we redeployed over 30,000 U.S. troops, 
closed over 600 bases, and preserved coalition cohesion. We were 
challenged by ``insider attacks,'' but responded the way professional 
militaries do. We assessed and adapted. We reaffirmed our partnerships 
and moved forward jointly with more stringent force protection and 
vetting procedures.
    Transition continues. In the weeks ahead, the Afghanistan National 
Security Forces will assume operational lead across all of Afghanistan. 
This milestone represents an important achievement on the Lisbon 
roadmap, reaffirmed at the Chicago Summit in 2012. At the same time, 
the International Security Assistance Force will transition primarily 
to training and advising. We are also working with the North Atlantic 
Treaty Organization and the Afghan Government on options for an 
enduring presence beyond 2014 to reinforce Afghan security and maintain 
pressure on transnational terrorists.
    When I testified last year, the effects of the November 2011 border 
incident with Pakistan were still fresh, and tensions were as high as 
any time since the Osama bin Laden raid. Measured, but steady civilian-
military engagement with Pakistani leadership led to the reopening of 
the Ground Lines of Communication in July 2012. We are gradually 
rebuilding our relationship with Pakistan as reflected in the recent 
signing of a tripartite border document to standardize complementary 
cross-border operations.
    The Joint Force has been vigilant well beyond South Asia and around 
the world. We continue to help deter aggression and counter the 
increasingly bold provocations from North Korea and Iran. We are 
supporting Syria's neighbors in their efforts to contain spillover 
violence while providing assistance to help with refugees. We are 
postured to support additional options for dealing with any threats to 
our national interests that may emerge from the Syrian conflict.
    Along with our interagency partners, we are also postured to 
detect, deter, and defeat cyber-attacks against government and critical 
infrastructure targets. We are part of interagency and multinational 
efforts to counter transnational crime. We remain relentless in our 
pursuit of al Qaeda and other violent extremist organizations, directly 
and through our partners. This includes al Qaeda in the Arabian 
Peninsula in Yemen and, working with French and African partners, al 
Qaeda in the Islamic Magreb.
    Finally, in the context of a ``new normal''--where the diffusion of 
power fuels insecurity and unrest--we continue to support reform across 
the Middle East and North Africa through military-to-military 
exercises, exchanges, and security assistance. We are also adjusting 
global force posture to reflect these risks in the context of our 
rebalance to the Asia-Pacific region.

                       IV. OUR JOINT FORCE TODAY

    We have an experienced, combat-tested force. Never has our Nation 
sustained such a lengthy period of war solely through the service of an 
All-Volunteer military. Our warriors' will to win is undaunted, but the 
means to prepare to win are becoming uncertain. Military readiness is 
at risk due to the convergence of several budget factors. These same 
factors compound risk to the wellness of the Joint Force and our 
military family. We need the help of our elected leaders to gain budget 
certainty, time, and flexibility.
    Few have borne more of war's burden than our military family. For 
12 relentless years, our service men and women have answered our 
Nation's call with unsurpassed courage and skill. Many have fallen or 
been grievously wounded in the service of our country. We honor them 
most by caring for their families and for those who have come home with 
wounds seen and unseen.
    We are unfailing in our praise for the sacrifices of our warriors 
in battle. But for so many of our veterans, returning home is a new 
type of frontline in their struggle. We cannot cut corners on their 
healthcare. We must continue to invest in world-class treatments for 
mental health issues, traumatic brain injury, and combat stress. Stigma 
and barriers to seeking mental health services must be reduced.
    Suicide is a tragic consequence for far too many. As a Nation, we 
have a shared responsibility to address this urgent issue with the same 
devotion we have shown to protecting the lives of our forces while in 
combat. The Department is working closely with our interagency partners 
and the White House to increase our understanding of the factors 
leading to suicide and how to best leverage care networks to keep our 
veterans alive.
    The risks inherent to military service must not include the risk of 
sexual assault. We cannot shrink from our obligations to treat each 
other with dignity. We cannot allow sexual assault to undermine the 
cohesion, discipline, and respect that gives us strength. Therefore, we 
are examining the best ways to leverage additional education, training, 
and the Uniform Code of Military Justice. We are exploring every 
option, and we are open to every idea, that could help eliminate this 
crime from our ranks.
    Future success relies on opening our ranks to all of America's 
talent. Accordingly, the Joint Chiefs and I have supported the 
expansion of service opportunities for women. This decision better 
aligns our policies with our experience in war, and it serves to 
strengthen the Joint Force. Consistent with the law, we also extended 
some benefits to the same-sex domestic partners of servicemembers. We 
are implementing both initiatives deliberately across all Services to 
ensure we uphold essential standards and avoid creating new inequities 
for other members of the Joint Force.
    Keeping faith with our military family will take a mutual 
commitment from fellow veterans and a grateful Nation. The next few 
years will define how we, as a Nation, view the September 11 generation 
of veterans. America's future All-Volunteer Force is watching.
    They are also watching as we inflict risk on ourselves. With $487 
billion in planned reductions already reflected in the Department's 
fiscal year 2013 budget, sequestration's additional cuts jeopardize 
readiness not only this year, but also for many years to come. We 
cannot fail to resource the war we are still fighting. At the same 
time, we cannot compromise on readiness in the face of an uncertain and 
dangerous future. Our Joint Force must begin to reconnect with family 
while resetting and refitting war-torn equipment. It must retrain on 
the full-spectrum skills that have atrophied while developing new 
skills required for emerging threats. There are no shortcuts to a 
strong national defense.
    When budget uncertainty is combined with the mechanism and 
magnitude of sequestration, the consequences could lead to a security 
gap--vulnerability against future threats to our national security 
interests. Our military power could become less credible because it is 
less sustainable. We could break commitments to our partners and 
allies, our defense industrial base, and our men and women in uniform 
and their families.
    This outcome is not inevitable. We can maintain the readiness and 
health of the force at an affordable cost. But, we need help from our 
elected leaders to keep the force in balance and avert the strategic 
errors of past drawdowns. To this end, the Joint Chiefs and I have 
requested your support for certainty, time, and flexibility.
    Most importantly, we need long-term budget certainty--a steady, 
predictable funding stream. While the passage of the fiscal year 2013 
Appropriations Act provided relief from the Continuing Resolution, 
uncertainty over the fiscal year 2014 topline budget and the full 
effects of fiscal year 2013 sequestration remains.
    Second, we need the time to deliberately evaluate trade-offs in 
force structure, modernization, compensation, and readiness. Finally, 
we need the full flexibility to keep the force in balance. Budget 
reductions of this magnitude require more than just transfer authority 
and follow-on reprogramming authority. Everything must be on the 
table--military and civilian force reductions; basing and facilities; 
pay and compensation; and the mix among Active, Reserve, and National 
Guard units.
    The fiscal year 2014 budget proposal helps us rebalance and 
strengthen readiness through hard choices. It enables us to lower 
manpower costs, reduce unneeded infrastructure, and shed ineffective 
acquisition programs while maintaining support for the responsible 
drawdown of our military presence in Afghanistan. It provides a 2014 
military pay raise of 1 percent while protecting important education, 
counseling, and wounded warrior programs. Proposed infrastructure 
reductions include a request for BRAC authorization in fiscal year 
2015, although any closures would take multiple years and not begin 
until 2016. We simply cannot afford to keep infrastructure and weapons 
we do not need without getting the reforms we do need.

                       V. A JOINT FORCE FOR 2020

    The budget decisions we are making now will indicate whether we 
view our future Joint Force as an investment or an expense.
    America is unmatched in its ability to employ power in defense of 
national interests, but we have little margin for error. We are able to 
deter threats, assure partners, and defeat adversaries because we act 
from a position of strength.
    We are strong--and our Nation is secure--because we treat being the 
best led, trained, and equipped force as a non-negotiable imperative. 
The secret to sustaining our strength with this or any future budget is 
simple--preserve investment in readiness, prioritize investment in 
people, and protect investment in decisive capabilities.
    It is our people that make us the most capable military in the 
world. They are our best hedge against threats to our homeland and 
interests abroad. By 2020, we will require even greater technical 
talent in our ranks. But, developing technological skill must occur in 
concert with leader and character development. We must resist the 
temptation to scale back on education, including languages and cultural 
knowledge. Military service must continue to be our Nation's preeminent 
leadership experience. It is more important than ever to get the most 
from the potential and performance of every servicemember.
    Investing in people is not just about their development and 
readiness. It is also about the commitment we make to their families. 
Unsustainable costs and smaller budgets mean we must examine every 
warrior and family support program to make sure we are getting the best 
return on our investment.
    We need to reform pay and compensation to reduce costs while making 
sure we recruit and retain the best America has to offer. We must also 
balance our commitment to provide quality, accessible health care with 
better management and essential reform to get escalating costs under 
control. The fiscal year 2014 budget would help control rising health 
care costs by initiating a restructuring of medical facilities to make 
them more efficient, without sacrificing quality or continuity of care, 
and by proposing fee adjustments that exempt disabled retirees, 
survivors of servicemembers who died on active duty, and their family 
members. The Department of Defense is also working with Veterans 
Affairs to find efficiencies across health care systems.
    As we work to get the people right, we must also sustain our 
investment in decisive capabilities. The fiscal year 2014 budget 
continues to fund long-term capabilities that sustain our edge against 
resourceful and innovative enemies, while maintaining critical 
investments in science and technology, and research and development 
programs.
    Emerging capabilities, once on the margins, must move to the 
forefront and be fully integrated with our general purpose forces. 
Special Operations Forces, for example, have played an increasingly 
consequential role over the past 10 years. We have expanded their ranks 
considerably during this timeframe, and now we must continue to improve 
the quality of their personnel and capabilities.
    Closely linked are our intelligence, surveillance, and 
reconnaissance capabilities--from sensors to analysts. We will continue 
to rely on proven systems designed for the low threat environments of 
Iraq and Afghanistan. At the same time, we must also develop and field 
sensors designed to penetrate and survive in high-threat areas. They 
will expand our ability to access and assess hard-to-reach targets.
    This budget also sustains our investment in cyber, in part by 
expanding the cyber forces led by the U.S. Cyber Command. Despite 
significant investment and progress in the past year, the threat 
continues to outpace us, placing the Nation at risk. The fiscal year 
2014 budget increases funding for cyber security information sharing, 
but we need legislation to allow the private sector and U.S. 
interagency to share real-time cyber threat information--within a 
framework of privacy and civil liberty safeguards. In parallel, we must 
establish and adopt standards for protecting critical infrastructure.
    The development and integration of these emerging capabilities will 
by no means amount to all that is new in Joint Force 2020. They must be 
integrated with our foundational and impressive conventional force 
capabilities. The fiscal year 2014 budget protects several areas where 
reinvestment in existing systems--such as the C-130, F-16, and the 
Army's Stryker combat vehicle--sustains our competitive advantage. All 
are backed by our asymmetric advantages in long-range strike, global 
mobility, logistics, space, and undersea warfare. They must be 
connected with a secure, mobile, and collaborative command and control 
network.
    This combination of increasingly powerful network capabilities and 
agile units at the tactical edge is a powerful complement to leadership 
at every echelon. It provides the basis to project both discrete and 
overwhelming power across multiple domains. It gives policymakers and 
commanders alike a greater degree of flexibility in how they pursue 
objectives.
    As we set priorities and implement reductions, we need to pay 
attention to the important relationship among defense, development, and 
diplomacy. Fewer defense dollars means we must rely more on--and invest 
more in--our other instruments of power to help underwrite global 
security. Our international partners will have to work with us on 
accepting a greater share of the risk. Some are more ready and willing 
to do that than others.

                             VI. CONCLUSION

    Although I am confident the Joint Force today can marshal resources 
for any specific contingency, our goal is to be able to offer military 
options that put U.S. national security on a sustainable path to 2020 
and beyond. To do this, we must recruit and retain the most talented 
people. We must invest in their competence and character so they can 
leverage emerging and existing capabilities in our defense. It is an 
investment our predecessors made in decades past. We must do the same.
    Our consistent first line of defense has been and always will be 
our people. They are our greatest strength. We will rely on our war-
tested leaders to think and innovate as we navigate the challenges and 
opportunities that lie ahead. We need to seize the moment to think 
differently and to be different. But, we cannot do it alone. We need 
the help of our elected officials to give us the certainty, time, and 
flexibility to make change.
    We can and must stay strong in the face of declining budgets and 
rising risk. We must have the courage to make the difficult choices 
about our investments, about our people, and about our way of war. The 
Secretary's Strategic Choices and Management Review will us help us 
identify options and opportunities.
    We have been down this road before. We can lead through this 
uncertainty and manage the transition to a more secure and prosperous 
future. I know your Nation's military leaders are ready--as is every 
single soldier, sailor, airman, marine, and coastguardsman--to give 
their last breath to defend America and her allies.
    Please accept my thanks to this committee and Congress for all you 
have done to support our men and women in uniform. Together, we serve 
our Nation.

    Chairman Levin. General, thank you so much.
    We are going to have a 7-minute first round, and that may 
likely be the only round here, given the large number of 
Senators that are here today.
    Let me start first with you, General Dempsey. Do you 
personally support the request for the DOD budget for fiscal 
year 2014?
    General Dempsey. I do.
    Chairman Levin. Do you know whether the Chiefs share in 
your view?
    General Dempsey. They do.
    Chairman Levin. We heard yesterday, General, quite an 
optimistic assessment of the security situation in Afghanistan, 
more optimistic than in previous years, and we heard that from 
our commander there, General Dunford. I am wondering whether 
you share the generally optimistic assessment that we heard.
    General Dempsey. Yes. I was with General Dunford and his 
subordinate commanders about 2 weeks ago. I will say that my 
impression after visiting some of the operational coordination 
centers, where for the first time I have seen the Afghan 
Government actually applying some of their instruments and some 
governance and economic factors into security, does lead me to 
be more optimistic than I have been in the past where I felt 
like we have been doing a good job but not necessarily that 
they have been shouldering as much of the burden as I think 
they need to shoulder.
    Chairman Levin. Have you reached a conclusion as to the 
troop level which you are going to recommend to the President 
for the post-2014 period?
    General Dempsey. No, we have not, Senator. I have said at a 
previous hearing that the target that the North Atlantic Treaty 
Organization (NATO) has established for the range, let us call 
it, that NATO has established, 8,000 to 12,000, seems to me to 
be a reasonable target. But we have not selected a specific 
number.
    Chairman Levin. Is that a target for U.S. Forces?
    General Dempsey. No. That would be the International 
Security Assistance Force and it would be that part of the 
mission related to training, advising, and assisting.
    Chairman Levin. So the President has not made a decision 
yet on that either then. Is that correct?
    General Dempsey. That is correct.
    Chairman Levin. In terms of the reduction between now and 
2014, the President announced plans to draw down 34,000 of the 
66,000 troops in Afghanistan by February 2014. Is it true that 
the pace of that drawdown will affect the OCO funds that are 
needed and when they are needed?
    General Dempsey. I am sure it will, and that is the reason, 
I think, Mr. Hale would agree that the OCO budget has not been 
submitted yet. What we have done is given the commander in the 
field the flexibility to plan that reduction which, by the way, 
I think is very important to allow him to plan the pace and 
manage the equilibrium between fighting, transitioning, and 
redeploying. But I think that is why the OCO budget is delayed.
    Chairman Levin. If the commander has that flexibility, then 
as soon as we presumably learn from the commander how they are 
going to exercise that flexibility, then we are going to 
determine the OCO?
    General Dempsey. That would be my understanding of the 
sequence.
    Chairman Levin. For the record, Secretary Hale--not now 
because of my time limit--would you tell us how the pace, as it 
is determined by the commander, if the commander has that 
flexibility, will affect the OCO needs, for the record?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Hale. We are making assumptions, though, because we 
have to go ahead.
    Chairman Levin. All right.
    We, in this budget, Mr. Secretary, have certain amounts 
that are going to be utilized for our missile defense. There 
has been an announcement--I believe that you were the one who 
made it--that we are going to deploy 14 additional ground-based 
interceptors (GBI) in Alaska. We have made a decision relative 
to the final phase of the Phased Adaptive Approach (PAA), which 
has been adopted for NATO. I am wondering, let me ask you, 
General, do you personally support the missile defense approach 
that has been decided upon by the administration?
    General Dempsey. I do. It is in response to what we 
perceive to be an increasing threat, in particular from North 
Korea.
    Chairman Levin. That includes both parts of the missile 
defense approach that I have just identified. One is the 
modification to the PAA in Europe but also the additional GBIs 
in Alaska. Both pieces? Do you approve of both parts?
    General Dempsey. I do.
    Chairman Levin. On the BRAC issue, as I understand your 
testimony and your budget, Mr. Secretary, there is a short-term 
cost if there were an additional BRAC approved, but that cost 
is not in the 2014 budget request. You put it in the 2015 
budget request. Is that correct?
    Mr. Hale. The money is actually in 2016 through 2018. It is 
$2.4 billion of additional funds.
    Chairman Levin. Okay, but the additional upfront funding, 
the cost of the BRAC is not provided for in the 2014 budget 
request. You made a provision or you say you are going to make 
a provision in 2015. Is that correct?
    Mr. Hale. 2016, 2017, and 2018.
    Secretary Hagel. We are not requesting it until 2015. So we 
put the money in the out-years.
    Chairman Levin. So there is no money impact for this year.
    Now, when we met at the Pentagon a few days ago, and there 
were a number of us that were there, we discussed the point 
that you made about alleged savings from the last BRAC round. 
You today indicated that previous rounds or perhaps the 
previous round, you testified, saved $12 billion annually. Was 
that the savings that you say exists, created from the last 
round or from all of the previous rounds?
    Secretary Hagel. From all the rounds.
    Chairman Levin. All the rounds.
    Secretary Hagel. If you would like more detail, maybe Mr. 
Hale could break that out. But it would be for all the rounds.
    Chairman Levin. Can you give us that for the record? I 
think that is the detail that we would need for the record, 
round by round.
    [The information referred to follows:]

    Please refer to my letter to you, signed on May 1, 2013. [Inserted 
previously]

    Chairman Levin. I think that is my time. So we will call on 
Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Since you are on the subject of BRAC, I think you might 
remember, Secretary Hagel, that you were in the Senate at the 
time in 2005. You might remember that I led the opposition to 
that BRAC round unsuccessfully, I might say. The irony of that 
was that my senior Senator Don Nickles was on the other side, 
and we lost by two votes. So it is contentious.
    Secretary Hagel. You are not going to hold that against me, 
are you?
    Senator Inhofe. No. I do not even remember how you voted on 
that, but I will not get into that.
    Secretary Hagel. I support BRAC.
    Senator Inhofe. Okay.
    Yes, I came in with the first BRAC round of the five BRAC 
rounds. I supported some of them in the past. I opposed the one 
in 2005 for two reasons. One is that it was bringing down our 
infrastructure to an artificially low size to meet what I 
thought was an unacceptable force size. Now, that was just one 
reason at that time. I think that reason is good today.
    But the other reason is what the chairman touched on here, 
and that is that there is a cost to BRAC. It is in two 
different areas. One is in the initial cost and the other is 
the recurring cost.
    Now, the Government Accountability Office (GAO) released a 
report last year. That is 7 years after the 2005 BRAC round, 
noting that the one-time implementation cost of 2005 grew from 
$21 billion to $35 billion, an increase of $14 billion, or 67 
percent.
    As a result of the 20-year value--now we will get into the 
recurring costs--DOD expected to achieve from the 2005 round, 
it decreased by 72 percent. In addition, GAO determined that 75 
out of the 182 recommendations, about 41 percent, are now 
expected to result in a negative 20-year value. That means they 
will cost more to implement than any projected savings over a 
20-year period. Now, that is pretty bad. I have seen this.
    I know there are different ways of projecting figures. 
Those are the figures, and this came from GAO just last year, 7 
years after this. So keep that in mind, recognizing, as you 
pointed out, you may not feel this until 2015. I have no reason 
to believe we are going to be in a lot better shape in 2015 
than we are today.
    Have you considered that in your support of this BRAC 
round?
    Secretary Hagel. I have not seen the actual figures or the 
study you referred to, Senator. I do not know if it was the 
same GAO report or another one that noted on that 2005 BRAC 
round, it clearly reflected--I think the number was almost a 25 
percent over-capacity in infrastructure at the time in our 
facilities.
    Now, I am going to ask Mr. Hale to respond here very 
quickly.
    But to answer your question, we have looked at all the 
factors, upfront costs, continuing costs, do we need it.
    Senator Inhofe. Yes. We do not need to hear from Mr. Hale 
now.
    I know you have read the report I referred to, and I would 
ask that you share that with Secretary Hagel, which I am sure 
he will want to look at. I would only ask that you consider 
that because I think those reasons for my opposition 7 years 
ago--8 years ago now, are probably more true today.
    When the chairman talked about the missile defense thing, I 
was very pleased when you made the decision to increase, back 
up to 44, the number of GBI sites on the west coast. I think 
that was good.
    Where I do not agree, as has been pointed out, that is 
probably a good thing to do in light of all the things that are 
happening in North Korea. I was over there recently. In fact, I 
talked to you from over there, and I realize that this is 
something that we need to protect against.
    I am satisfied. I may not be in the majority up here, but I 
am satisfied that anything coming from North Korea or coming 
from that way we have the capability to shoot, look, and shoot. 
I feel comfortable we could knock down anything coming.
    Where I probably disagree, General Dempsey, with you is on 
our capacity to knock one down coming from the other side, from 
the east. That is the reason, of course, that we were initially 
building the GBI in Poland.
    Now we are talking about a third site, and I could quote 
several generals here. General Jacoby, for example, had said we 
are not in the most optimum posture to defend against an 
Iranian threat, in spite of the fact that our intelligence has 
told us since 2007 that Iran is going to have the capability of 
a weapon and a delivery system by 2015.
    Secretary Hagel, do you disagree with my concern over the 
threat that would come from the east as opposed to the west?
    Secretary Hagel. No, I do not disagree. It is something 
that DOD and all those responsible for our missile defense 
capabilities and our strategies and the tactics to match those 
and the weapons to match those strategies are concerned with as 
well. So it is a very real issue. It is one that we are dealing 
with. We are going to have to continue to deal with it. So it 
is like all of these issues. How do you deal with it? What 
should we be doing? What are we doing?
    Senator Inhofe. One way to deal with it is on the third 
site everyone is talking about. I do not know whether you have 
taken a position on that or not. But if you have, would you let 
us know what that is?
    Secretary Hagel. We were instructed through the National 
Defense Authorization Act (NDAA) to conduct environmental 
impact statements (EIS) looking at the possibility of putting a 
site on the east coast. That investigation, that study, is 
underway. We should have it complete by the end of this year. 
We will obviously share that with Congress.
    Senator Inhofe. Okay.
    The last question I would have, Mr. Secretary, is having to 
do with the New Strategic Arms Reduction Treaty (START), a 
commitment that was made by the President in order to get the 
votes necessary for that. Those commitments have not been met. 
What I would like to get from you for the record, since there 
would not be time now, is will you support the products that 
the President talked about in order to get the votes that he 
got for the New START treaty, in other words, noting our 
nuclear capability.
    Secretary Hagel. Whatever commitment the President made, I, 
of course, would support and carry forward my responsibilities 
in order to comply with those commitments and the Treaty.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Secretary Hale, on that GAO report, would you give us any 
differences that you have--not now but for the record--with 
that GAO report, in addition to the request of Senator Inhofe?
    Mr. Hale. I will. May I just say quickly we do not intend 
to repeat the 2005 round? It was very different than we would 
do in 2015.
    Chairman Levin. You can just give us your criticisms or 
disagreements with that report.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Secretary Hagel, General Dempsey, Secretary Hale, the 
Secretary mentioned in his comments that we are facing a lot of 
short-run constraints, sequestration, other issues, but longer-
term there are financial issues that have to be dealt with 
regardless of the present dilemma with sequestration and the 
BCA. One of those is growing personnel costs and particularly 
health care costs. I know you have made some proposals in the 
budget in that regard, and I just want to direct the question 
to General Dempsey and ask the Secretary if he wants to comment 
also.
    But it would seem to me that in order to effectively carry 
out any reforms, there has to be an ongoing dialogue with both 
uniformed Active Duty personnel and Reserve personnel. That 
dialogue is probably best conducted by the uniformed military 
because you have shared the service and the sacrifice of these 
individuals more so than anyone else. Is that dialogue going 
on? Are there constructive ways organizationally to begin to 
save costs? Is there any sort of path forward that could be 
agreed upon and then giving us more of an opportunity to deal 
with a solution that has buy-in on all sides?
    General Dempsey. There has to be, Senator. We have to find 
a way forward. The manpower costs are truly unsustainable when 
we project them out to 2020, which is where I am trying to 
look.
    We have reached out. We have actually had several sessions 
now with veteran support organizations on this budget 
submission and more broadly on the issue of, let us call it, 
compensation reform. I would not suggest that we have made much 
progress, but I assure you we are working toward that.
    Senator Reed. I think it is something that you constantly 
have to do, and also, obviously, it is a two-way process, 
listening as well as explaining.
    I think the other issue too that must concern you is that 
at some point you crowd out operations training, maintenance, 
procurement. For the Active Force, training, good equipment, 
well-motivated, well-schooled leaders are more of a factor than 
other benefits.
    General Dempsey. Yes. If I could just reinforce that point.
    What gets crowded out, by the way, is training and 
readiness. There are plenty of constituents for infrastructure, 
for compensation, and for weapons systems, but there are not so 
many constituents for readiness. So when I talk to the force 
about this, I explain to them that you do not want to be the 
best compensated force on the planet, but sitting at Fort Hood, 
TX, or Beaufort or Langley Air Force Base. We have to keep this 
thing in balance.
    Senator Reed. I appreciate that very much.
    Last year, we were able to work through a process where we 
were able to reduce co-pays on pharmaceuticals by adopting a 
new technique of mail order, and that was a more efficient 
approach. I think those are the types of smart adjustments that 
might be more palatable and more acceptable and more 
achievable, frankly.
    Mr. Secretary, just quickly changing, you initiated, as you 
indicated, a strategic review indicating that Secretary Carter 
and the Chairman should look at it. Can you update us on any 
insights you have at this point? Also, it obviously begs the 
obvious question: Is that strategy going to drive the budget or 
is the budget going to drive the strategy?
    Secretary Hagel. As I noted in my statement, the budget, 
obviously, is affecting all of this, not just fiscal year 2013, 
which we are living through, which you all understand what we 
are going through. I noted this and the Chairman did. But as we 
look out into the future, where are we going? How are we going 
to get there? What are our strategic priorities? How do we 
defend the interests of our country? When you look through 
that, obviously resources are critical to that.
    When I initiated the Strategic Choices and Management 
Review, it was, yes, influenced by the budget, the uncertainty 
of that budget. But also more than that, the world is a 
different kind of world today, as everyone on this committee 
knows. You all travel. You go everywhere. We have new threats. 
We have some of the same old threats. There is an alignment 
going on in global affairs that we have not seen certainly 
since World War II and maybe never quite seen it the way it is.
    So the question I have to ask as Secretary of Defense is: 
are we prepared, not just today, but are we going to be 
prepared within the constraints of budget realities, but bigger 
than that? How are we using our assets? Are they smart? Are we 
doing wise things, capable things? You mentioned personnel 
costs, TRICARE. That has to be examined within and is being 
examined within the framework of our examination of everything.
    You asked for a status. It is ongoing. As I noted in my 
remarks, we brought everybody into this not just to have a 
committee, but we have to hear from the combatant commanders. 
We have to hear from the senior enlisted. We have to hear from 
the men and women who actually have the responsibility of 
implementing whatever policies we decide. They are part of 
that. We should have it, at least initial report on this, by 
the end of May.
    I get reports on this weekly. Ash Carter and I talk about 
it the end of every week. We will talk about it on Friday. It 
is a result of his collaboration with General Dempsey and what 
has been done that week and how it is all factoring in.
    That is a general, broad brush of it. If you want to go 
deeper, I will be glad to.
    Senator Reed. No, Mr. Secretary. Thank you.
    I just have a few seconds left which I would cede back to 
the chairman.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    We are going to talk about Syria after this hearing, but I 
just have one question initially about it.
    Secretary Hagel, General Dempsey, and your predecessor, 
Secretary Panetta, and Secretary of State Clinton and General 
Clapper, all have openly stated they favor providing weapons to 
the resistance in Syria. Have you reached an opinion on that 
issue?
    Secretary Hagel. I have not made a recommendation to the 
President that we should militarily intervene.
    Senator McCain. No. I am asking about providing weapons to 
the resistance.
    Secretary Hagel. We are constantly reviewing every policy, 
every option.
    Senator McCain. Have you reached a conclusion yet?
    Secretary Hagel. No.
    Senator McCain. Thank you.
    General Dempsey, there are persistent rumors the North 
Koreans are going to launch a missile sometime in the next days 
or weeks to coincide with certain events. Do we have the 
capability to intercept a launch?
    General Dempsey. We do.
    Senator McCain. Would you recommend if that missile left 
North Korean airspace, that we intercept it?
    General Dempsey. If it threatened any of our facilities or 
any of our personnel.
    Senator McCain. So the criteria would not be whether it 
left North Korean airspace. It would be whether we viewed it as 
a threat.
    General Dempsey. That would be my advice at this point. 
Yes, sir.
    Senator McCain. Is there any doubt in your mind that over 
time, the North Koreans are on the path to having a combination 
of a missile and a weapon on it?
    General Dempsey. No doubt at all.
    Senator McCain. In the case of the Iranians, the latest 
round of talks have, obviously, been unsuccessful. We hear 
reports about increased capabilities that the Iranians have 
even announced. How serious do you think this is getting?
    General Dempsey. I have said before, Senator, I think the 
Iranian threat is not limited to its nuclear aspirations. I 
think they are proliferating weapons of all kinds. They have 
surrogates and proxies all over the globe, and I think they 
aspire to control the Gulf.
    Senator McCain. Secretary Hagel, the defense budget for the 
2014 request is $52 billion over the spending cap imposed by 
the BCA. Have you made any plans? Are you going to share with 
Congress the plans that you will have to make if the BCA and 
sequestration is not repealed?
    Secretary Hagel. We are underway with those options right 
now, Senator. One of the parts of the Strategic Choices and 
Management Review is part of that. Every day that is what we 
are about, that reality.
    Senator McCain. Would it be appropriate to share with 
Congress, since it can only be Congress that repeals, and a 
signature from the President that repeals, the BCA? Would it 
not be appropriate for us to know what measures have to be 
taken in case existing law continues to prevail?
    Secretary Hagel. Yes, it is and we do. For example, I noted 
in my testimony that we will be coming up to Congress with a 
significant package of reprogramming requests, which we have 
been working with Congress on.
    Senator McCain. It is one thing to have reprogramming 
requests. It is another thing to submit an overall budget that 
reflects the realities of the law as it is today rather than 
sending us a budget that has restoration of cuts. So far, there 
has been no movement or action to repeal. I am saying that 
because I think we need to know what happens if we do not 
repeal. It is in your interests, in my view, to give us that 
information as to what would happen if we just simply complied 
with existing law.
    Secretary Hagel. I want to address both points.
    One is we are continuing to do that, Senator, as part of 
Marty's testimony, part of my testimony on what we are doing, 
and explaining and working with the committees here in the 
House and the Senate if we do not make these changes, what is 
going to be requested. For example, is a supplemental 
appropriation within the realm of what is going to be required? 
We do not know. We are trying to internally adjust now.
    The second part of that is I would just add on the budget--
and I noted one of the points made here this morning on this--
the Senate and the House budget resolutions for defense for 
2014 essentially were the same, basically the same numbers as 
our budget for defense.
    The other part of this is, not at all dismissing your 
questions that are real and legitimate on the reality of this, 
but as well as anyone, this is a $600 billion enterprise. This 
budget was put together over a year. To try to readjust that 
and come back with new numbers in a budget was difficult as 
well.
    But make no mistake, Senator, we are dealing with the 
realities of everything that you just talked about.
    Senator McCain. But you need to share those with Congress, 
Mr. Secretary. I appreciate the fact that you put together a 
budget that ignores the realities of the law today. It would be 
very helpful in adjusting for those realities if you would 
share with Congress what the budget would be if the existing 
law is implemented.
    Secretary Hagel. We will.
    Senator McCain. When?
    Secretary Hagel. We are doing that now. As I said----
    Senator McCain. You will submit it to Congress.
    Secretary Hagel. I am sorry?
    Senator McCain. You will submit to Congress----
    Secretary Hagel. We have been informing Congress, working 
with Congress.
    Senator McCain.--a budget that reflects the $52 billion 
less than the budget that has been submitted by the President?
    Secretary Hagel. As I said in my statement, if there is no 
balanced budget agreement, then that is the law, as you have 
noted, as I noted in my statement, that we are going to be 
facing the reality of a $51 billion to $52 billion cut. We are 
preparing for that reality.
    Senator McCain. I am just saying you need to inform 
Congress and work with Congress so that we can also explain to 
our constituents the realities of what would happen if the BCA 
were fully implemented. I do not think that is too----
    Secretary Hagel. No. I agree.
    Senator McCain. General Dempsey, the Commandant of the 
Marine Corps says the sequester's impact on marines constitutes 
excessive risk. Do you agree? Does that apply to all our 
Services?
    General Dempsey. It does apply to all our Services. Full 
sequestration, particularly in the mechanism, would destroy 
readiness in a way that I think none of us would be very 
pleased with.
    Senator McCain. I thank you. My time has expired. I thank 
the witnesses.
    Chairman Levin. Secretary Hagel, let me just agree with 
what Senator McCain was driving at. If you will let us know 
when you know what the impact would be of a $52 billion 
reduction in the budget you have submitted, it will help us, I 
believe, avoid that outcome. I think that is what Senator 
McCain was pointing to, and I would just agree with that.
    Secretary Hagel. I agree with it. We will.
    Chairman Levin. Okay, thank you very much.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    I first want to thank Secretary Hagel and General Dempsey 
for responding to concerns that we have expressed. Senator 
Gillibrand had a hearing on this and many of us have been 
working on this issue for a number of years, and that is making 
sure that the military is doing everything it can to catch the 
perpetrators of sexual assault and make sure that the system is 
respecting the victims and is not arbitrary or capricious. I 
know that it is unusual for the Joint Chiefs to come together 
with a recommendation to change the Uniform Code of Military 
Justice (UCMJ) and for the Secretary of Defense to endorse that 
and embrace it in such a quick fashion as this occurred, and I 
just want you to know how grateful all of us are that are 
working on this issue. We will continue to work with you as we 
codify some of these changes hopefully in the NDAA this year. I 
appreciate your mentioning it in your statement and look 
forward to working with both of you to make sure that we are 
doing everything we can to focus the system on the act that 
occurred and the facts surrounding that act and take the focus 
off the victim and what she did or did not do or what he did or 
did not do and get us into this century as it relates to the 
way this crime is being handled within the UCMJ.
    It will not surprise you I want to talk about contracting. 
I noticed that U.S. Transportation Command recently put out a 
solicitation for airevac, medevac, airlift in Africa. So my 
question to you is, was there an analysis done as to why our 
current capability on medevac and all of the different commands 
that deal with--I think you all just canceled--the Air Force 
just decided to cancel the C-27J, which is hard for me to 
figure if we are going to turn around and contract with 
Blackwater, which it appears from the solicitation that you are 
looking for CASA C-212 as the only aircraft that would qualify 
under the solicitation. Of course, that is the aircraft that is 
used by Academia, the new name for Blackwater.
    I am not against contracting logistical support, but I need 
to know what the analysis was as to why we cannot do this and 
why this is cheaper.
    Secretary Hagel. I do not know. Marty, do you?
    General Dempsey. No. I know that our lift is stretched. It 
is a stretched resource, and in particular, most of what is 
coming out of Afghanistan these days comes out by lift.
    Second, the threat environment in Africa is different than 
it is in other parts of the world, and I am sure that was a 
factor. Some of the aircraft you are referring to are 
actually--we do not want them in the inventory because of their 
sustainability and their capability.
    So I know the analysis was done and I am sure that it 
followed the rules of competition by the Federal acquisition 
regulations. But we owe you an answer. I do not know the 
specifics.
    Senator McCaskill. I think the answer I am looking for here 
is before we do contracting as a default position on 
logistics--what I worry about in this shrinking budget 
environment, that there is going to be even more of a tendency 
to just assume that we should contract it out because it is 
cheaper. If Afghanistan and Iraq have taught us anything is 
that that is not always true. If you do not have adequate 
contracting oversight, it is not, and especially when it is 
inherently a governmental function. We could spend a whole 
hearing and we have many on that. But I just want to make sure 
that it is a new day, and as we begin to do new solicitations 
for new logistics support contracts in any threat environment, 
there has to be a really detailed analysis done as to why this 
is going to save you money and why we cannot do this within the 
existing command.
    So I will be anxious to see that analysis that was done, 
and as you are probably aware, I will spend some time on it.
    Secretary Hagel. Senator, we will provide that for you.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Hagel. But let me address just very briefly your 
general question and concern. You are right. That is part of 
what we are doing in the review. You have been, as much as 
anyone, engaged in this overall procurement/acquisition issue 
and been very helpful. That is an area that we need to do more, 
obviously.
    There have been some successes. A recent GAO report that 
came out reflected rather positively on what we have been 
doing. We will continue to stay at it for the reasons you 
mentioned and work with you on it.
    Thank you.
    Senator McCaskill. Thank you.
    As we are drawing out of Afghanistan, I think it is really 
time to measure the effects of large-scale infrastructure 
spending as being part of the counter-insurgency. I continue to 
harp on this, and I am going to keep harping on it until you 
all do the work. I need some kind of analysis as to how large-
scale infrastructure spending contributed to a successful fight 
in the area of counterinsurgency. You have the ability because 
you have done small-scale projects and you have done large-
scale projects. So I am confident that you can do the analysis 
as to the impact of what the Commander's Emergency Response 
Program was originally intended for versus water systems, 
electrical grid, highway systems, all of that that we have 
spent billions and billions and billions of Americans' dollars 
on.
    If we do not do it now, there will be a tendency in the 
next conflict to say, okay, let us start building big stuff. I 
especially want the analysis to do the overlay of the security 
environment and whether or not the small-scale makes sense 
because you have to pay off less to security people and 
therefore risk getting the money into the wrong hands versus 
the large-scale payments we have had to make many times to the 
bad guys. So if you would get back to me on that analysis and 
when it is planned or how it is planned, that would be very 
helpful.
    [The information referred to follows:]

    Please refer to my letter to you, signed on April 29, 2013. 
[Inserted previously]

    Secretary Hagel. We will, and just one brief comment.
    I believe about five of six of those large-scale 
infrastructure projects are directly related to energy or in 
some way the lifestyle and the well-being of the people of 
Afghanistan, which is obviously important for us and the 
importance of the government in bringing together some 
nationalism to promote a cohesiveness of society that actually 
makes their life better. We want to do that.
    But your points about accountability, the whole question of 
can they maintain it, is this a wise investment, should we be 
doing smaller projects, all appropriate. They are being 
analyzed. They are being questioned, and we have spent a lot of 
money. Inspector General reports come out almost monthly on 
every one of these. We are looking very carefully at every one 
of them, and you are exactly right. So we will continue to work 
with you on it and get you the analysis your requested.
    Senator McCaskill. Thank you, Secretary Hagel. In 
isolation, the theory sounds absolutely sound, but now we have 
the data and we can figure out if it actually works or not.
    Secretary Hagel. We have made mistakes.
    Senator McCaskill. That would be terrific.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Sessions.
    Senator Sessions. Thank you.
    Congratulations, Secretary Hagel. I look forward to working 
with you. I know you love the country and know a lot about the 
military. So we have some real opportunities, I think, in the 
years to come and some real challenges.
    One thing that you need to fully understand--it happened 
before you came--was in August 2011 that this Nation reached 
the debt ceiling, and there was a national discussion about 
that. An agreement was reached and passed in the law. It was 
signed by the President of the United States. It said we will 
reduce the growth in spending by the amount we raise the debt 
ceiling, $2.1 trillion. $1.1 trillion of that was a sequester 
if an agreement was not reached by this committee, and the 
committee did not reach an agreement.
    There was no provision in the BCA agreement to raise taxes. 
The President did succeed in January of this year raising taxes 
$600 billion, but there was never an agreement as part of the 
sequester or the BCA to raise taxes. So that is where we have 
loggerheads. This is the problem.
    So at the end of debate, I remember sitting bolt up when 
the President guaranteed the American people that sequester 
would not happen. But it is happening. It is happening right 
now. It is in the law.
    Now, the House has proposed a budget that eliminates the 
cuts on DOD but finds other cuts in the government to replace 
them with. The President is saying he wants to eliminate the 
sequester, or he apparently indicates he does, but he wants to 
do it raising taxes. That is a non-starter.
    Under our current debt path, we are increasing spending 
every year. The difficulty, as I pointed out before our 
committee so many times, is half of the reductions in spending 
in the sequester fall on DOD, which only makes up one-sixth of 
the entire spending in our government. So that is a 
disproportionate cut.
    So as you talk to Congress about the difficulties, I 
suggest that you go to 1600 Pennsylvania Avenue and talk to the 
President, the Commander in Chief, because I am very worried. I 
am very worried because Congress is not going to raise taxes to 
eliminate the sequester.
    It has been deeply disappointing, DOD has delayed telling 
us what those cuts might be. Senator McCain raised it a long 
time ago. I have talked about it. We passed legislation, as I 
recall, requiring you to lay out a spending plan if the 
sequester was not fixed. It is a big deal. I just want to tell 
you that you are in a tough spot. But I really do believe that 
the way to handle this is to look for other reductions in 
spending. Big agencies like Medicaid or food stamps and other 
programs got no reductions in spending at all. Zero. So there 
is an opportunity to spread some of these reductions around and 
not have this burden fall on DOD.
    So as the ranking guy on the Senate Budget Committee, I 
have been wrestling with these issues. I am worried. I do not 
see an easy solution right now. Hopefully, something will 
happen, but you need to be prepared for the worst.
    I am the ranking member on the Strategic Forces Subommittee 
that has nuclear and missile defense forces. I just want to 
share some concerns with you, really, about the commitment we 
have as a Nation--and this administration does--to the nuclear 
arsenal, our nuclear infrastructure, our nuclear modernization 
that we have said we are committed to and its understanding for 
our nuclear forces as they serve as the ultimate guarantor of 
the security of our country and the assurance it provides to 
our allies and our partners. These are big issues right now.
    President Obama identified nuclear proliferation as a key 
danger to the United States and its allies, and it is a danger. 
Yet, the response we have seen from this threat of 
proliferation has been self-defeating, I am afraid. The 
President had hoped to set a disarmament example for others to 
follow by emphasizing nuclear arms reductions with Russia over 
nuclear deterrence, striking that balance. But the disarmament 
provision and the President's policies are undermined by our 
inability--the international community's inability--to keep 
regimes such as North Korea and Iran from developing nuclear 
weapons and long-range missiles. So this will cause 
proliferation not only in those rogue nations but people who 
feel threatened by them may well feel compelled to develop 
nuclear weapons.
    I am sure you know, Defense Secretary Ash Carter, in an 
attempt to reassure our Asian allies in the face of North 
Korean missile threats, said on April 8, ``we will continue to 
provide the extended deterrence offered by the U.S. nuclear 
umbrella.''
    But the President in March in South Korea--March 2012, 
March last year--said as President, ``I changed our nuclear 
posture to reduce the number and role of nuclear weapons in our 
national security strategy. I made it clear the United States 
will not develop new nuclear warheads and we will not pursue 
new military missions for nuclear weapons. We have narrowed the 
range of contingencies under which we would ever use or 
threaten to use nuclear weapons.''
    So there is no wonder, I think, our allies are getting 
nervous here, and it has the danger of proliferation and danger 
of instability, I am afraid, in the world. We do not like to 
talk about nuclear weapons. This is a grim subject, indeed, but 
I want to raise these issues with you.
    It looks like in November 2010, the White House issued the 
statement noting the administration had added $4.1 billion to 
the 5-year plan for weapons, but according to my accounting, 
over the years 2012, 2013, and proposed 2014, assuming the 
sequester were to occur, we would have $1.4 billion, 34 percent 
short of what the promised increases were.
    We were informed last year that the replacement for the 
Ohio-class ballistic missile submarine and the air-launched 
cruise missile were both 2 years behind schedule. It has yet to 
be made clear about the follow-on for the Intercontinental 
Ballistic Missile (ICBM) program. The Life Extension Program 
(LEP) for the B-61 bomb was 2 years behind schedule, as was the 
planned LEP for the W-78 and W-88 nuclear warheads.
    So, I think this is a dangerous trend that we have to 
reverse and stop.
    I think what we need to hear from you, and the world needs 
to hear from you, is a commitment to maintain the strategic 
triad and modernizing U.S. nuclear forces and the nuclear 
weapons complex, as I understand, the President has agreed to. 
I understand you support the agreement.
    But just would you repeat that here today? I think it would 
be important for the world, our allies, and our adversaries. 
General Dempsey, you have your commitment that you will 
preserve our nuclear arsenal and pursue the nuclear 
modernization efforts that President Obama, our Commander in 
Chief, has committed to. Specifically, will you commit to 
increases in the fiscal year 2015 budget and FYDP to help get 
these capabilities on track or to, at least, prevent further 
delays?
    General Dempsey. Senator, I am committed. My advice has 
been and will continue to be to maintain the triad to include 
extended deterrence in our capability and to maintain a safe 
and secure and reliable stockpile.
    Chairman Levin. Thank you.
    Senator Sessions. Secretary Hagel, you had a comment.
    Secretary Hagel. I have said that in my confirmation 
hearing, would say it again, and am absolutely committed to it.
    Senator Sessions. Thank you very much.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Nelson?
    Senator Nelson. Mr. Secretary, it is good to see you.
    There is talk around as a result of us passing the defense 
appropriations for the rest of the fiscal year. There is now 
talk around that you can reduce the furlough days for defense 
civilians from 14 to 7. Is that true?
    Secretary Hagel. Senator, we sent out notification to 
Congress, to comply with the law, that we were considering 
furloughing. Our initial take--and I will let our Comptroller 
respond more fully to this, but our initial take on it was 
maybe as much as 21 days were going to be required. We now have 
that down to 14. We are still reviewing, Senator, what actions 
we may have to take. I think we are probably a couple of weeks 
away from coming to a determination on what that furlough would 
be. Congress, of course, will be fully informed, kept informed 
on any decisions we think we need to make to comply with our 
budget restraints.
    With that, let me ask the Comptroller if he has anything 
further.
    Mr. Hale. I think you said it well, Mr. Secretary. We have 
not made a decision beyond the 14 days--beyond saying up to 14 
days.
    Senator Nelson. If it stays at 14, that would start to go 
into effect at what time? Either 14 or 7--when would it go into 
effect?
    Mr. Hale. We also have not made specific timing decisions, 
but it would probably be in late June, perhaps at the 14-day 
level. I want to preserve the Secretary's options for looking 
at this.
    Senator Nelson. Mr. Secretary, President Karzai has said 
that we are in cahoots with the Taliban. Why would he say such 
a thing?
    Secretary Hagel. I was welcomed with that comment as I was 
arriving in Afghanistan. We had an opportunity to expand on 
that privately, and he has since, I think, readjusted his 
thinking on what he said publicly. Secretary Kerry was there 
soon after my visit. I did not go into any great depth as to 
what led him to that conclusion, but I think he said something 
to the effect that he was misinterpreted or there was some 
confusion in what he said.
    I spoke to President Karzai 2 days ago. I called him and I 
think it is important that we stay in touch with leaders. We 
had a conversation, in particular, about a bilateral security 
agreement, and I wanted to also get his sense of the handover 
at the detention center, which I know General Dunford was here 
yesterday and addressed that.
    You know that that is an area of the world and its leaders 
are under a lot of pressure all the time. I think we need to 
stay engaged wisely and carefully and reach out, make it very 
clear what our guidelines are. We have a big challenge ahead of 
us, which has already been noted here this morning. We will 
probably get into a little more detail this afternoon on post-
2014 activities and how many troops. What will be our mission? 
Why should we stay there? Should we stay there? So the only way 
we can, I think, responsibly transition out is to continue to 
work with the leaders.
    But I guess only President Karzai would be able to answer 
that question.
    Senator Nelson. Are the leaders over there beginning to 
accept the fact that we are not going to remain as an occupying 
force?
    Secretary Hagel. I think so, Senator. I think it is pretty 
clear, as we are consolidating our bases and handing over 
responsibilities. General Dempsey noted in some of his 
testimony this morning what the Afghan army has taken 
responsibility for, what their police force has. There is some 
good news. It is imperfect. It is, in places, raggedy, but that 
is reality. I think we have to recognize that this is the first 
time that we have ever seen any kind of a national government 
with a national unity of a national force and all that goes 
with it. We need to continue to assist where we can, but not 
occupy. But I do think, to answer your question, it is clear to 
the leadership in Afghanistan and the people that we are not 
there to occupy.
    Senator Nelson. Mr. Chairman, I have some questions on 
Syria. Do you want me to wait until the afternoon session?
    Chairman Levin. That is the plan, but you have a minute and 
35 seconds left and I am not about to tell you how to answer. 
But we will have a----
    Senator Nelson. I can yield back the same amount of time 
that Senator Sessions went over, and then we would be even. 
[Laughter.]
    Chairman Levin. I think I am going to stay out of this 
conversation. You are free to ask a question.
    Senator Nelson. I would just like to get it on the table, 
and if you want to discuss it later this afternoon, that will 
be fine.
    If we are faced with having to go in and secure the 
chemical weapons in Syria, it has been bandied about that that 
would take 75,000 troops, boots-on-the-ground, American troops 
in Syria. Is that an accurate assessment?
    Secretary Hagel. I am going to defer that question to 
General Dempsey because we are looking at all options for all 
contingencies. But let me ask General Dempsey if he would take 
it.
    General Dempsey. In the time remaining--and we can follow 
up this afternoon. We have looked at alternative futures. The 
answer to your question would be whether we are entering a 
hostile environment, a non-permissive environment, a permissive 
environment, or an environment of collaboration. We know how 
that number changes based on the environment. But it is a 
resource-intensive task to be sure.
    Senator Nelson. Thank you.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    First, Mr. Secretary, welcome back from your travels.
    Let me quote from the Stars and Stripes dated April 16 
regarding the sharing of medical records. It starts off, 
``Faced with tough questions from legislators, Defense 
Secretary Chuck Hagel on Tuesday said he would decide on a plan 
within 30 days to work through the tangled process to 
seamlessly share medical records between DOD and the Department 
of Veterans Affairs (VA).''
    Mr. Secretary, it goes on to say you are doing this at the 
urging of members of the Veterans Affairs Committee. They have 
asked you to institute electronic transfer capabilities by 
December 31.
    It mentions that Secretary Panetta, your predecessor, had 
instead taken another approach of filesharing rather than 
building a single, integrated system from scratch. He said he 
could not defend DOD's past performance on record sharing. In 
recent days he said he stopped further spending on the process 
and has restructured the program oversight.
    I was in the U.S. House of Representatives before I came 
over here. I have been here 5 years, and I was on the 
appropriations subcommittee dealing with veterans for some time 
over there, Mr. Secretary.
    We did not even have iPads 4 years ago, and this whole 
technology has been developed in 4 short years. It just seems 
to me that the fact that we have been talking in 2013 about 
filesharing only and not thinking big about a new system that 
our most talented people in America could certainly do, to just 
start over and have a system that starts within DOD and moves 
seamlessly with you when leave and need the system is something 
we ought to go to.
    So tell us what we can expect from you in 30 days and 
elaborate, if you will, on your plans there.
    Secretary Hagel. I think, Senator, you have said it. Why 
can we not expect exactly what you just said? We should expect 
it. We owe that to our veterans.
    I also said in my response yesterday that there have been a 
lot of positive things done too. There has been a lot of good 
things, and there has been a lot of progress. But we are still 
not where we need to be, where the President committed us to be 
in 2009, and Members of Congress expected us to be.
    Now, with that said, there is no point in going back and 
blaming anybody for anything. We are where we are. Now, how do 
we fix it? That is the only thing that matters.
    When I came in--and I am not an expert on any of this, but 
I have some background on this, Senator. 30 years ago, I was 
Ronald Reagan's Deputy Administrator of the VA, 1981 and 1982, 
and I had some ability at the time to start to actually 
computerize systems. Now, I do not take credit for that 
happening, but I pushed that pretty hard.
    In some ways, we are still in a state of limbo in 
accomplishing what needs to be done. You used the iPad example 
as why can we not do this. We will do it. We will get to it. 
But I always start with who is in charge, who is accountable, 
how does it happen, theory, policy, strategy. You need it, but 
how does it get implemented. What I have done is I have asked 
to stop everything as far as request for proposals going out 
until I can understand what it is that our objective is. How 
are we spending our money? Why? What is it that we can do that 
is most helpful to the VA? What is our obligation to our 
people? We invent the veteran. The person starts with us. The 
seamless network, the interoperability that you refer to is 
where we need to be in everything. So we are going to continue 
to do it.
    Senator Wicker. Have you had a chance to sit down with VA 
Secretary Shinseki about this?
    Secretary Hagel. I sat down with Secretary Shinseki in the 
second week I was on the job. We have talked a number of times 
on the phone. We talk once a week. We are very closely 
connected. It is a tough assignment that he has. But I am 
absolutely committed, as my predecessors have been--you noted 
Secretary Panetta's involvement--to make this work and to have 
these two agencies cooperate and work together.
    Senator Wicker. What can we expect to receive from you? 
What can we on the committee expect to receive from you after 
the 30-day period you alluded to?
    Secretary Hagel. What I said is that I am assessing it all 
now, and what we will do is we will restructure the 
accountability chain as to how we are going to go forward, who 
is going to be in charge, and who will have that 
responsibility, what kind of resources we will have.
    Senator Wicker. Is there something you can get back to us 
with, say, by the end of May?
    Secretary Hagel. Once I make a decision, we will, of 
course, share it with the committee.
    Senator Wicker. Do you think that might be by the end of 
May?
    Secretary Hagel. As I said, my goal is to try to have 
something together structurally within 30 days.
    Senator Wicker. Okay, thank you very much.
    [The information referred to follows:]

    Please find my memorandum dated May 21, 2013, to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics and the 
Acting Under Secretary of Defense for Personnel and Readiness attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Wicker. General Dempsey, I was visiting with some 
DOD people earlier this week. A 9 percent sequestration cut, 
when you cram it into half a year, turns out to be 18 percent. 
The number of training sorties that we are able to have in the 
Air Force, for example, 18 percent of those cannot be done. I 
understand a lot of that is fuel, some other costs there.
    The statement was also made to a small group of us that if 
only we had more time, we could absorb the sequestration cuts 
in a more logical way. It just makes me wonder. Did we take the 
wrong approach in assuring the public and assuring ourselves 
that sequestration really was not going to happen? This is just 
unimaginable.
    It seems to me in retrospect--and I am speaking about 
myself also--that we should have known at the collapse of the 
Supercommittee, that sequestration was the law and also that it 
was likely to happen. If we had, since 2011, the realization 
that this was a fact and was going to happen in 2013, we would 
be in a better position, would we not, General?
    General Dempsey. If you are asking me did we take the wrong 
approach, yes. I do think that this Strategic Choices and 
Management Review allows us to understand the impact and to be 
able to articulate to Congress what the effect of full 
sequestration would be.
    But please remember too we are still trying to figure out 
how to absorb the $487 billion of the BCA. So this is not the 
deepest budget cut in our history. It is the steepest by far.
    Senator Wicker. Thank you, and thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    In terms of Senator Wicker's request that we hear from you 
by the end of May, can you give us a status report by the end 
of May even if you have not made that decision, letting us know 
where you are? Would you include in that report the response of 
DOD to the Wounded Warriors legislation that we passed here 
that required that there be interoperability, not a single 
record, but interoperability by, I believe, the end of 2012? 
Let us know just what became of that and how interoperable the 
two systems are as part of your response to Senator Wicker's 
request, and give us again that status report even if you have 
not completed your decision.
    Secretary Hagel. I will.
    Chairman Levin. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Great to have you here. Mr. 
Secretary, I particularly want to extend a special welcome to 
you in your first appearance as the Secretary of Defense before 
the committee.
    General Dempsey, let me start on cyber, if I might. I was 
pleased to see the increased funding in the budget, especially 
given the threats and the capabilities that we have seen 
developing over these last few years, and what you are 
proposing will hopefully allow us to stay ahead of all of this.
    Can you give the committee a sense of what the $800 million 
in the budget will buy us? What enhancements will be a result 
of that investment that we did not have before? On that same 
subject, given the current level of maturity, is it now the 
appropriate time to elevate U.S. Cyber Command (CYBERCOM) to 
the level of a separate unified command?
    General Dempsey. What we are doing with the $800 million; 
we are organizing ourselves. Currently, we have capabilities at 
the national level. I know you know this, Senator, but our 
portfolio for cyber is very narrowly defined as defending the 
dot-mil domain. So we are protecting ourselves, though we have 
said frequently that we have capabilities that could be 
extended to the Nation, should that become necessary, in the 
defense against an attack, for example. So we have the teams 
formed at the national level.
    We are also trying to export the capability, if you will, 
to the combatant commanders, forming fusion centers, operations 
centers, if you will, so that they have the capability to 
conduct reconnaissance of threat networks external to the 
United States, of course, and then defensive teams that if the 
dot-mil domain is under attack can block and, if necessary, 
have the capability to perform offensive cyber as well.
    So what we are doing is protecting ourselves. But you are 
interested, of course, as well as the Nation, and I think that 
the next step in that journey will require some legislation to 
augment and supplement what the President provided in his 
Executive order.
    Senator Udall. Thoughts on a unified CYBERCOM? Do you want 
to take that under advisement?
    General Dempsey. Yes, sure. We have not pushed it because 
we want to make sure that the timing is right. You know that I 
advocate that CYBERCOM and the National Security Agency be 
dual-hatted. I am not sure we have been persuasive in that 
regard, and so until I am persuasive, we want to leave well 
enough alone because I think we are adequately organized right 
now. But I think that if we are having this conversation in 
2020, people will say, of course, it should have been a unified 
command, but we are just not there yet.
    Senator Udall. Mr. Secretary, you know well the important 
role research and development (R&D) has played, not just in DOD 
but the work that has been done has been translated and 
transferred over to the civilian sector dating way back.
    I want to focus on energy R&D. Many experts have been 
saying that we should do so in DOD. I understand in that vein 
that the price of fuel that the Services will pay--and this is 
conventional fuel--is going to rise to over $4.70 per gallon on 
May 1, which is an increase of about 21 percent over current 
prices. The bottom line is oil prices keep going up and the 
volatility of those prices makes budgeting impossible.
    With that in mind, what kind of investments will DOD need 
to make to prevent our fuel bill from cutting further into our 
critical programs?
    Secretary Hagel. You know the numbers on this, Senator, as 
to how much money we spend annually and one of the largest, 
maybe the largest, consumer of fuels in the world is DOD. So it 
is an issue. It is not just a budget issue, but it is a 
security issue, the reliability of our sources as we have the 
fleet all over the world, and planes.
    We have an office in DOD that focuses on this. We have 
programs within that office. We continue to look at different 
options and programs. We fund those offices. It is a priority, 
has to be a priority, within the balance of all the things that 
we are doing.
    The R&D wing of defense has been a remarkably productive 
element for defense and the country. So, yes, it is a priority, 
will continue to be a priority.
    Senator Udall. I look forward to working with you in that 
regard. I want to, again, pay tribute to the Navy, in 
particular. It has really been on the cutting edge of this 
effort, Secretary Mabus specifically.
    If I might, let me reference General Dunford's comments 
yesterday that he is worried about the effect that cuts will 
have on the training and readiness of troops rotating into 
Afghanistan. General Odierno told us last month that reduced 
training dollars could force the Army--extending tour lengths 
in order to prevent units that are not fully prepared from 
going into harm's way.
    Do you have the same concerns? If I could be more blunt, is 
Congress' inability to compromise putting our troops' safety at 
risk? I direct that to both you and General Dempsey.
    Secretary Hagel. I will respond briefly and then General 
Dempsey will want to respond.
    First, as General Dempsey has said, as I noted in my 
statement, readiness has to be our number one priority. I 
cannot certify, nor can the Chairman of the Joint Chiefs, or 
any of our chiefs, to have our young men and women go to war if 
they are unprepared, if they are not ready. I will not do that. 
I know Chairman Dempsey will not do that. Any of our leaders 
will not do it, so it has to remain a priority.
    Are we concerned with the cuts and what is happening? Yes, 
we are. As you heard this morning and will continue to hear, we 
are working around that in every way we can to affect that. But 
at some point here, we are going to see that start to cut 
pretty deeply, I think, as the Chairman has noted and General 
Dunford noted, the chiefs have noted.
    With that, let me ask General Dempsey.
    General Dempsey. Yes, I am deeply concerned. Right now, 
Senator, we are consuming readiness. We are using it. We are 
not producing it. We are stuck in that position because we have 
to find $23 billion in readiness funding for the rest of the 
year. So we are consuming it. We are not producing it. That is 
a dangerous path.
    Senator Udall. I would note we have another opportunity as 
a Congress in the early/middle part of the summer to deal with 
this. It is my desire that we do so, and I am going to be 
focused on this in every way I possibly can. I know Sergeant 
Hagel would not send our troops into combat without being 
properly prepared.
    Thank you again, gentlemen.
    Chairman Levin. Thank you, Senator Udall.
    Senator Ayotte.
    Senator Ayotte. Mr. Chairman, I am going to defer my 
questioning to Ms. Fischer and go after her. Thank you.
    Chairman Levin. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman and Ranking 
Member.
    Thank you, Mr. Secretary, for being here today. General 
Dempsey, Mr. Hale, I appreciate it very much.
    I would like to follow up a little bit on Senator Sessions' 
question about the commitment to the triad. You all agreed that 
you have a firm commitment to the triad. Is that correct?
    Secretary Hagel. Yes.
    Senator Fischer. General Dempsey, you as well?
    General Dempsey. Yes, Senator.
    Senator Fischer. Do either of you see any reason to abandon 
that commitment in the foreseeable future?
    Secretary Hagel. No, I do not see a reason to abandon it.
    General Dempsey. Nor do I.
    Senator Fischer. Thank you.
    I ask this because, Secretary Hagel, last week you were 
speaking and testifying before the House Armed Services 
Committee, and you discussed your office's request for funds to 
perform an EIS related to the ICBM missile wings. What is the 
EIS examining?
    Secretary Hagel. Senator, in the NDAA, we were instructed 
to examine possible ground-based locations on the east coast to 
supplement the two that we have on the west coast, Fort Greeley 
and Vandenberg. We are conducting EISs to examine those at the 
direction of the NDAA.
    Senator Fischer. Are you looking at any partial shutdowns 
at all?
    Mr. Hale, did you have a comment you would like to put in?
    Mr. Hale. I think you are referring to the EIS at the three 
missile wings. Is that correct?
    Senator Fischer. Yes.
    Mr. Hale. There, I think, we are looking at ways to 
accommodate the New START treaty's drawdown and looking at all 
options. But as the Secretary just said, no decisions have been 
made.
    Senator Fischer. It is my understanding that leadership in 
the military consistently says that we need to make sure that 
we have a strong triad and that we need our ICBMs. So why would 
we be conducting any kind of study looking at possible 
shutdowns?
    General Dempsey. As Mr. Hale said, Senator, we have to get 
to New START levels. So we have to look at the triad. The two 
places that are likely to be adjusted are either submarine-
launched ballistic missiles or ICBMs. So the EIS is looking at 
the impact of that.
    But we are already on a path where we have to achieve New 
START levels by, I think, 2017.
    Senator Fischer. Would that include keeping some of the 
silos warm?
    General Dempsey. It could, Senator. That is partly the 
purpose of the EIS, as well as the Nuclear Posture Review that 
we have been conducting for some time.
    Senator Fischer. Are you looking at any other missions with 
regard to EIS, besides the ICBMs?
    General Dempsey. Meaning some other use for those silos? 
Yes. We are looking at the entire spectrum of possibilities.
    The problem with keeping a silo warm is that it causes 
concerns in our compliance with New START. So we have to work 
through all that, but we are looking at the entire spectrum of 
possibilities.
    Senator Fischer. Does that include shutting down any of the 
missile wings completely?
    General Dempsey. Decision to be determined, but generally 
speaking at this time, we do not believe so.
    Senator Fischer. What is the cost of the evaluation? Do you 
have any idea on that?
    General Dempsey. I do not, Senator.
    Mr. Hale. I am going to have to give you that for the 
record. I am sorry. I do not have it in my head.
    Senator Fischer. Okay, that would be good.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Fischer. Senator Hagel, in your prepared statement, 
you speak about the curse of human despair and poverty, along 
with environmental degradation, as key threats confronting our 
military. I guess I was not aware that our military was ever 
formed to look at those items. Why did you put that in your 
statement, especially in light of the budgetary concerns that 
we now have?
    Secretary Hagel. That was included in the list of issues 
that our military does have to face around the world as we go 
into other countries to protect our interests. What produces 
terrorists? What produces instability? What produces 
uncertainty around the world? That rolls right back on 
responsibility and obligation of DOD to protect our interests 
around the world. When you have unstable areas that, partly, 
are as a result of poverty, degradation in any way, it adds to 
the complication of the environment of terrorism challenge 
problems. So it was not just one issue. I listed an entire 
inventory.
    Senator Fischer. How would you try to balance that, though, 
with the needs of our men and women who are in the Service and 
their need for training, for resources, to make sure that we do 
not send out a hollow force, and that they have all the 
resources that they require to accomplish their mission?
    Secretary Hagel. Senator, that inventory of issues was, as 
you note from my testimony, an inventory of issues of the 
global environment that we face today. I mentioned global 
terrorism, technology, and so on. It had nothing to do with 
directly making a choice. But my point was when you look at all 
those challenges that we need to prepare our military--for 
example, in Iraq and Afghanistan, young Army and Marine Corps 
captains were doing many things on the ground. They were 
leading their men and women into combat. They were dealing with 
tribal leaders. They were dealing with different systems within 
the village. They were dealing with social issues. So it all 
does have an intersection and a confluence as to how we train 
and prepare all of our people.
    Senator Fischer. With the sequester and the limits that we 
are going to have on DOD's budget, are we going to be able to 
continue to train our military so that they can address that 
very wide range of issues that you listed?
    Secretary Hagel. We are going to have to continue to train 
our military to be prepared to deal with every eventuality, 
every contingency, every option. That is how we prepare our 
military. It is how we prepare any institution's leaders.
    Senator Fischer. So as you look ahead to that $52 billion 
in cuts that are not a part of the budget that you presented 
but yet are required under the sequester, do you have any idea 
at this point, at this hearing, on what you would suggest that 
we are able to cut and still maintain a fighting force that is 
well-prepared?
    Secretary Hagel. I would refer you back to the comment I 
made in my statement, and General Dempsey has noted, and my 
response to Senator McCain on this question. That is one 
reason--not the only, but it was certainly an important 
reason--why I directed the Strategic Choices and Management 
Review to prepare all of us, DOD, all our forces, to deal with 
that $52 billion that may well be coming. That, as you note, is 
reality. That is law, and it may get worse. It may be another 
$500 billion over 9 years. So within that review, Senator, then 
we will have to come up with ways to deal with this reality 
with this current law.
    Senator Fischer. Within your review, would you also list 
what you deem as priorities that cannot be reduced?
    Secretary Hagel. That is the whole point of it because it 
is a matter of, as I have noted here, others here, a 
prioritization of our resources, but mainly it has to begin 
with what is our main responsibility. The main responsibility 
we have--I have as Secretary--is the security of this country.
    Senator Fischer. Thank you, sir.
    Chairman Levin. Thank you, Senator Fischer.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    General Dempsey and Secretary Hale, thank you, obviously, 
for your service. Secretary Hagel, welcome back to this 
committee.
    Secretary Hagel, I wanted to ask you some questions about 
the furloughs. The Navy is reporting that with the recent 
passage of a defense appropriations bill, that it does have the 
financial resources to avoid furloughing the 200,000 Navy and 
Marine Corps civilians, including thousands from my home State 
of North Carolina. However, recently a DOD spokesman stated 
that the current plan is to implement civilian furloughs with 
rough consistency across DOD.
    So I remain committed to replacing sequestration with a 
balanced, long-term approach that can give certainty not only 
to DOD, but to the Departments, to businesses, and obviously, 
the men and women serving our Nation. Until this problem is 
fixed, I am concerned about any unnecessary furloughs.
    While there would be some short-term savings by furloughing 
civilian employees, those savings would be outweighed by the 
longer-term drop in readiness. For example, delaying 
maintenance like that performed at FRC East at Cherry Point 
would likely result in additional cost when the backlog would 
be eventually addressed.
    So, Secretary Hagel, do you plan on furloughing civilian 
workers even if it is not financially necessary? How does DOD 
plan on approaching furloughs?
    Secretary Hagel. Thank you.
    First, you know that when we notified Congress, appropriate 
to the law, that we are considering furloughs, which we have 
done, at that time we were looking at the possibility of a 21-
day furlough. We have since announced, as we have tried to 
bring this down and manage it, that we think we are at 14 days. 
We have also said if we have to do this, it could be less.
    But that said, to answer your question, we are examining 
all of this very carefully for the reasons you mentioned. That 
would be one of the last options that we would want to take for 
the reasons you mentioned and more.
    We believe within 2 to 3 weeks, we will have an answer to 
this. There could be some better news; there could not be some 
better news. But we are dealing with a balancing here of where 
do you get the cuts in order to, as you have said--we discussed 
this morning--maintain readiness and do the things that we have 
the highest responsibility for, what are our highest 
priorities? Now, that is not to say our civilian workforce is 
not a high priority, not at all. I think General Dempsey talked 
about the costs of getting back, and you just mentioned some of 
the maintenance issues. We are well aware of that. There are no 
good choices here, Senator, at all.
    So we will not take any action on furloughs unless in our 
collective judgment there is no other way to get around this in 
order to comply with the law and with our budget.
    Senator Hagan. Thank you. But I would like you to be sure 
and look at what the Navy has said in response, that it does 
have the financial resources to avoid those furloughs.
    Secretary Hagel. I am not unaware of that, but let me 
respond this way. We have tried to come at this in a fair way 
across the board. Some Services are in better shape than 
others. I do not think that is necessarily--and I will ask the 
Chairman to respond to this--meaning one Service is better 
managed than the other. The Army has taken the brunt in 
Afghanistan. They had to chew up so much of their budget. That 
is the way it is. I do believe--and I said this when I first 
went over there 6 weeks ago--on this issue and everything, we 
are going into this together. We are going to come out of it 
together. I think that is the wise, smart, and fair way to do 
this. Some Services are on some higher ground with their budget 
than others. So that is recognizing what you have just said.
    Let me ask General Dempsey on the Service----
    Senator Hagan. I would also add the Marines are taking that 
brunt too.
    Secretary Hagel. That is true.
    General Dempsey. I cannot improve upon that, Mr. Secretary. 
That is right. This is an issue of dealing with this as a 
Department, not as individual Services.
    Senator Hagan. General Dempsey, let me move to the cyber 
threat issue. I know we were just talking about that too. We 
all know that China, on a huge scale, is routinely hacking into 
U.S. Government information networks collecting intelligence 
and stealing technology. The same is true for our U.S. 
businesses and academia.
    There have been numerous press reports of Chinese cyber-
operators breaking into industrial control systems. Specific 
stories indicate that Chinese actors penetrated the control 
systems of a string of gas pipeline companies to such an extent 
that they could have freely manipulated them.
    So I am interested to know the extent of China's cyber 
capabilities that could have a more direct impact on our 
security if we were to find ourselves in a crisis in the 
future. Although conflicts between the United States and China 
is a very remote proposal, can you address China's cyber 
capability, if it would allow it to effectively attack our 
critical infrastructure through cyberspace if it felt compelled 
to do so, and likewise, your comments on whether you think 
China would be able to impair our ability to mobilize, deploy, 
and sustain military forces in the Pacific from a cyberattack 
on infrastructure that DOD, obviously, depends on to move and 
supply our troops?
    General Dempsey. In the time available, let me, if I could, 
Senator, suggest that we have a longer conversation about this.
    But I am concerned about the state and non-state actors and 
individuals operating in cyber. It is ungoverned space and 
there are plenty of actors taking advantage of it. We are 
vulnerable to it. We will continue to be vulnerable to it until 
we reach agreements both internal to our country and also 
internationally.
    I am going to China, in particular, in the next week or so. 
You may have seen that Secretary Kerry, when he was there, 
gained agreement with them to have a cyber working group, and I 
think that will be a very positive step forward.
    But I am concerned about the vulnerabilities in cyber in 
general, not necessarily pended to any particular country or 
group.
    Senator Hagan. Whenever I talk about cyber, I always want 
to talk about the fact that we need to really concentrate on 
science, technology, engineering, and math (STEM) education in 
our K through 12 and in our university system. I think we need 
to have a much larger focus and investments in STEM because not 
only does our military need individuals well-trained in that 
field, we are competing with industry right now and so many 
other factors. These are the jobs that are going to continue 
propelling the United States as a global super power. So I just 
want to reiterate the intense need and desire for investments 
in STEM education.
    General Dempsey. I think Duke University would be 
particularly well-placed to lead that effort.
    Chairman Levin. A very wise answer. [Laughter.]
    Senator Hagan. Many of our North Carolina institutions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Vitter.
    Senator Vitter. Mr. Chairman, because of scheduling 
concerns, I am going to defer to Senator Ayotte, and then if I 
could be the next Republican? Thank you.
    Chairman Levin. If you are here at that moment, you will be 
the next Republican and then Senator Lee would be after you, 
and now Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman. I thank Senator 
Vitter for yielding to me. I really appreciate it.
    I want to thank our witnesses for being here today.
    Let me echo what Senator Hagan just touched upon with 
regard to the furloughs because I had an opportunity to meet 
with Admiral Ferguson yesterday and he is going to be 
testifying before the Readiness and Management Support 
Subcommittee on the Navy readiness posture. He also informed me 
that the Navy, in looking at their resources and budget, have 
come up with a proposal that could end all the furloughs for 
the Navy and the Marine Corps, including--of course, you think 
about our shipyards and the important maintenance work done 
there, particularly at the Portsmouth Naval Shipyard. One of 
the reasons he gave me was--it made a lot of sense to me, 
having been to the shipyard and talked to certainly the 
commander there and the workers--that once we get behind on a 
maintenance schedule, then the entire maintenance of our naval 
fleet and our submarine fleet gets behind. So what I was told 
by Admiral Ferguson is this proposal to end the furloughs he 
believes would also be cost efficient because of the 
maintenance schedule issue that will get us behind if we have 
to furlough the workers at the shipyard in Portsmouth and the 
other public shipyards in the country.
    So I wanted to follow up just to add to what Senator Hagan 
said, and it is my hope that given that the Navy has said that 
they are able to do this, that we will follow through because I 
understand the difficulties and appreciate--and I thank you for 
serving in challenging times in sequestration. But if we can, 
obviously, in areas that are very important, such as the 
maintenance of our submarines and ships, not get behind 
schedule and also keep those workers working, I think that is 
very important.
    So I do not know if you have a further comment on that, but 
I am really hoping that given that they have come up with this 
proposal, that you will decide to implement it.
    General Dempsey. Senator, as the Chairman of the Joint 
Chiefs, it will not surprise you to know that my 
recommendation--and that is what it is--to the Secretary is 
that we deal with this problem as a Department, not as 
individual Services. I know, for example, that the Army has 
some real problems at Anniston Army Depot in trying to reset 
equipment that has been beaten to death in Afghanistan. So 
every Service has their own particular challenge, but my 
recommendation is that we have to deal with it as a Department.
    Senator Ayotte. I appreciate that. Also, I would hope that 
as you look at it, you think about, to the extent we can 
mitigate additional costs we are going to see in the long term 
like, for example, in a maintenance schedule or even with the 
reset of equipment, certainly I know that you will look at 
those issues. I know that you are in a tough position. But I 
was encouraged to hear that by Admiral Ferguson the other day 
and appreciate the decision that you will make. Thank you for 
taking those priorities into consideration.
    Secretary Hagel. Just to reassure you on it, Senator, as I 
had noted to Senator Hagan, Mr. Hale spends a good part of 
every day of his life and his staff dealing with this. This is 
as difficult a part of this as we have to deal with. I noted 
that in my testimony. You are right on every count on 
maintenance and costs and longer-term costs. All those factors 
are part of it. We will only take action if really we feel--the 
chiefs and everybody--there is no other way to get around this.
    I would also say, without getting too deep into this, that 
if we would have to move in that direction of furloughs, there 
are exceptions as well to those who would be exempt with 
certain jobs. Then we would have to factor some of what your 
conversation is about into that as well.
    Senator Ayotte. Good, good. That makes sense so that you 
can try to prioritize given the challenges. I appreciate that, 
Mr. Secretary.
    I also wanted to ask you if--you said in your prepared 
statement that our next goal is audit-ready budget statements 
by the end of 2014. Secretary Hale will appreciate this because 
I have asked him about this on many instances. But what I 
really want to ask you is will you meet the law and produce the 
budgetary statement of audit-ready budget statements by the end 
of 2014 because it is the law?
    Secretary Hagel. I know it is the law. We are all aware 
that it is the law. We are committed to do that and to comply 
with the law. We need to do it whether there was a law or not.
    Senator Ayotte. Good. Thank you. I appreciate that very 
much.
    I wanted to ask about the North Korea situation, and in 
particular, if you have had any interactions with your 
counterpart from China, Mr. Secretary.
    One of the concerns I have had and I know that the 
administration shares is that North Korea is very dependent 
upon China for their economic viability, including food, fuel, 
trading. In my view, China could end some of the deeply 
troubling and bellicose behavior that we are seeing from the 
leader of North Korea. I know we put additional defense assets 
in the area because we are concerned about the North Koreans.
    So if I could get a comment from either Secretary Hagel or 
General Dempsey about the Chinese, what interactions we have 
had with them, and how we could encourage them to tell North 
Korea to knock it off.
    Secretary Hagel. Thank you. I will begin and then I know 
General Dempsey will want to say something because, as he has 
noted and he will talk about, he is leaving for China here in a 
couple of days.
    Yes, I have spoken to my Chinese counterpart about this. We 
spent some time on this issue. He is well aware of the 
seriousness for them too, the common interests.
    Secretary Kerry was just recently there. I talked to 
Secretary Kerry Sunday night. He was in Tokyo. He called me and 
we had a long conversation about it. I will see him today. We 
will have further conversation about it. Both of us focused on 
the same issue. We need more help from China here for the 
reasons you mentioned. So let me leave it there before I ask 
General Dempsey to respond.
    You are right. We are doing everything we can within our 
frameworks here to encourage the Chinese to do more. I think 
that we are seeing some response to that. This issue is not 
over. We know that. But I think it is moving in the right 
direction with the Chinese.
    General Dempsey. I will just add, Senator, you can be sure 
that is going to be on the top of the agenda when I am in 
China. I will be happy to give you a call when I get back.
    Senator Ayotte. I am sure you will come up with a more 
polite way to say, can you tell them to, ``knock it off,'' but 
that is what we need.
    General Dempsey. I wrote that down. I will see if I can fit 
it in. [Laughter.]
    Senator Ayotte. I appreciate it.
    I thank you all for being here and for your leadership.
    Chairman Levin. General, I think it might be very helpful 
if you get a Chinese translation of ``knock it off'' because 
that kind of directness, I think, reflects the feeling of every 
member of this committee, probably every Member of the Senate, 
that they have an ability--they being China--capability and, 
indeed, a responsibility to the region and the world to take 
the action that they are able to take to tell North Korea that 
their continuing economic support of North Korea is dependent 
upon North Korea ``knocking it off,'' however that is 
translated into Chinese, Mandarin, or otherwise.
    General Dempsey. Thanks, Mr. Chairman. I think there is an 
opportunity to have this conversation in a new way. Secretary 
Kerry and their leadership agreed on the discussion of a new 
great power relationship. Great powers have great 
responsibilities, and I think on that basis, we will have a 
good conversation.
    Chairman Levin. Thank you, Senator Ayotte, for your plain 
English. We appreciate that.
    Senator Gillibrand.
    Senator Gillibrand. Thank you for your testimony. Thank you 
for your service. I am extremely grateful.
    I would like to just continue the line on North Korea just 
for a moment. Obviously, they have extraordinary 
unpredictability and highly threatening behavior, and we need 
China to step up to play a leadership role, to apply the kind 
of serious pressure that it will take to have North Korea 
refrain from the language and threats that they are making. How 
confident are you that we will be able to convince China to 
play this role? If they choose not to, what recommendations 
will you make?
    Secretary Hagel. As I said in my parting comments regarding 
this issue, I think we are seeing some movement in the right 
direction with our relationship with China on North Korea. I 
start with the fact that this is a problem for them. Every 
nation responds in its own self-interest, which is predictable. 
But we clearly have a common interest here. I agree with the 
chairman's comment that he just made that we may have some 
opportunities here, and the way we are approaching it, I think, 
is the right way to approach it. As to what happens if things 
do not turn out right, I think we will have to deal with that 
at an appropriate time.
    But I have some confidence that this is moving in the right 
direction. It is always a balance of projecting force, which we 
have done, I think, wisely and carefully. Diplomacy and 
economics are involved in this. I think also we realize that 
they have a new set of leaders in China. So they are going to 
carefully navigate this, as they should, and I think we are 
seeing that kind of careful and responsible leadership through 
this. We need to do more. I believe China needs to do more. But 
we will keep working at it.
    Senator Gillibrand. My concern is that we have a lot of 
assets now moved to the region in response to the threats in 
order to be prudent, but part of our military exercises in the 
region may well exacerbate the type of response that we have 
gotten from North Korea. Do you imagine that if we can engage 
China appropriately--and obviously, China has every interest in 
the world to engage on this appropriately--do you think it 
would change our long-term strategy for how we respond in the 
region?
    Secretary Hagel. We have interests and we will continue to 
have interests in the Asia-Pacific, and that is, obviously, 
part of what was behind the President's decision to rebalance 
in our defense strategic guidance. I agree with that, and I 
think that was an appropriate rebalancing.
    Our allies in that area are critically important. Allies 
are always important, but I think as we sail into an even more 
complicated 21st century where military action alone is not 
going to make the decisive moves that will bring about the 
conclusions and accomplish objectives that we want, we are 
going to have to work with allies. We are going to have to 
continue to prepare and build up our allies.
    Obviously, China is a hugely important country. It will 
continue to be. We have a relationship with it that is one of 
competition, one of cooperation, and in some cases, one of 
collaboration where we find common interests.
    So, yes, it has a lot to do with the future and our role.
    But I do not think there is any mistake that anyone should 
make that the United States is not going to be in the Pacific 
and Asia for a long time. Our interests are clearly there. We 
have strong alliances there and friends there.
    Senator Gillibrand. Along the lines of long-term strategic 
planning, as we consider these kinds of threats, we also have 
to consider nonstatic nuclear-equipped states that have 
capacity to launch threats from other locations. Have you 
thought about whether we need an east coast missile defense 
system and site? What role do you see EADS playing in ensuring 
domestic security against a nonstatic nuclear-equipped state?
    Secretary Hagel. We discussed this a bit in the latest 
exchange with Senator Fischer, and others have asked this 
before.
    We are involved now in a study directed by the NDAA which 
we are undertaking now. We have not come to any conclusions. 
That, of course, as we know, is a part of a review and a study. 
We will present those reviews and conclusions.
    So I could not give you an answer now, Senator, on whether 
I think we need an east coast site or not.
    Senator Gillibrand. We can continue that dialogue.
    Secretary Hagel. We will.
    Senator Gillibrand. For the last minute, I would like to 
turn to cyber. I know, General Dempsey, you have testified 
already today that it is very important for the defense budget 
to expand our cyber capabilities. I believe that an attack on 
our infrastructure is a threat that we cannot take lightly, and 
I appreciate that you believe you do need some legislative 
support to amplify the President's Executive order.
    One piece of legislation I have been working on with 
Senator Vitter is to create and leverage a cyber guard. 
Basically it would allow the capacity of the National Guard and 
Reserve to have expertise outside of the military to leverage 
that expertise to the benefit of our national security. Is that 
something you have thought about? Is it something that you 
would be willing to work on with me?
    I have talked to some of the Service Chiefs already and I 
have gotten a positive letter back from General Alexander on 
the topic. But I would love your thoughts.
    General Dempsey. The short answer is yes. I think we need 
to take a total force approach, which means we need both Active 
and Guard involved. I am familiar with the direction you are 
moving. Anything that Keith Alexander tells me I generally 
agree with.
    Senator Gillibrand. Thank you. Thank you again for your 
service, each of you.
    Chairman Levin. Thank you, Senator Gillibrand.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thanks to all of you for your service.
    With regard to the budget, the big threshold frustration a 
lot of us have is that it is 2 months late largely, we were 
told, because of dealing with sequestration and planning about 
sequestration. Then we get it 2 months late and it ignores 
sequestration. Do you think that is a responsible or a helpful 
approach to ignore what is clearly part of the law and give no 
guidance about how you would deal with sequestration even in 
fiscal year 2014?
    Secretary Hagel. Senator, thank you.
    My answer would be this. As I noted earlier this morning, a 
$600 billion enterprise just does not slam together a budget. 
It is a year-long process. Before I got to DOD, it was pulling 
together that budget and it was predicated on what the 
President's numbers were, numbers that we were given from the 
Office of Management and Budget.
    Second, I noted this morning--and this is in no way a 
defense of us being late, but the House and Senate resolutions 
for the DOD budget were essentially the same as the budget we 
are presenting.
    I recognize--we do recognize--that sequestration is the law 
of the land, the reality, and that is why I have asked 
essentially for the review to prepare this institution to have 
to deal with the law of the land as it currently is, as you 
have noted, sequestration and beyond.
    Senator Vitter. I appreciate that.
    Let me just point out that, obviously, sequestration 
started recently, but it was enacted--that possibility was 
enacted in mid-2011, and then mid-2012. Congress affirmatively 
said start planning for it, show us that outline. So it is not 
as if it was a complete surprise a few months ago.
    But given that planning, when we will see your budget, if 
you will, taking account of sequestration, at least for fiscal 
year 2014?
    Secretary Hagel. As I said to Senator McCain, we are 
working on it now. We have had to adjust. We are adjusting to 
2013. At the same time, we are also looking at the reality of 
taking another $52 billion cut for 2014.
    Again, I go back to why I asked the institution for the 
review, due the end of May, so we can understand better what 
our choices are, first what our priorities are, what are the 
obligations and responsibilities of DOD first. Then we look at 
that reality of what we are going to be dealing with. From 
that, then comes the numbers and how we prepare to make that 
cut.
    Senator Vitter. Will that yield and outline a budget given 
to us, given to Congress that takes into account that number at 
least for fiscal year 2014?
    Secretary Hagel. I do not think we are talking about 
sending up a new budget, but we are certainly working with 
Congress and the appropriate committees on how we intend to go 
forward.
    Let me ask the Comptroller if he wants to add anything to 
this.
    Mr. Hale. Nor would I expect we would send up another 
budget and provide information--
    Senator Vitter. I do not want to get bogged down in 
semantics, but the point is, when will we see your 
recommendations about how you would deal with those numbers 
starting in fiscal year 2014?
    Mr. Hale. I think it would be sometime after May 31, but we 
need to give the Secretary time to review it.
    Senator Vitter. But we will see that sort of proposal, 
whether you want to call it a new budget or whatever you want 
to call it. It does not matter.
    Mr. Hale. I assume at some point, if the Secretary agrees, 
that we would share it with Congress.
    Senator Vitter. Mr. Secretary, would you share it with 
Congress?
    Secretary Hagel. We will have to share it with Congress 
because, as I said in my opening statement, Congress is a 
partner here, and we have to let Congress know and work with 
Congress on how we intend to do this, to accomplish it.
    Senator Vitter. I think all of us feel like the sooner, the 
better and the more specific, the better, because you all are 
the experts about these things far more than we are. So we 
would like that leadership and that guidance to continue that 
discussion in a productive way.
    The second point. Even ignoring sequestration, the 
President's New START funding commitment is not kept in fiscal 
year 2014, $300 million short. Now, these were very specific 
commitments related to the passage of that treaty, the 
ratification of that treaty. There were a lot of discussions in 
the Senate about that, very specific discussions, and it is 
underfunded a couple years later, a year and a half later.
    How is this going to be corrected? If it is not, what are 
we to take away from that experience? Very specific commitments 
are made in the discussion about ratification, and a very short 
time later, they are not kept. That does not even account for 
sequestration.
    Secretary Hagel. I am going to ask the Comptroller to talk 
specifically about the numbers.
    But let me address it this way. The President is committed 
to carrying out the law. I am committed to carrying out the law 
and the commitments that the President made with the new 
treaty, as I noted here in an earlier conversation. The safety, 
security, reliability of our stockpile, the funds required to 
do that, the commitment to triad, some of the discussion we 
have had this morning are all part of that. We will do that and 
we will continue to do that.
    Now, your question about the $300 million. Let me ask the 
Comptroller to address it because there are some savings that 
we realized in some other areas as well.
    Mr. Hale. I am going to need to get with your staff and get 
more information on the $300 million.
    Senator Vitter. We can follow up with that.
    [The information referred to follows:]

    Please refer to my letter to you, signed on May 1, 2013. [Inserted 
previously]

    Senator Vitter. But my concern is a pretty simple one. 
Again, a lot of discussions about this related to the 
ratification of the treaty. Then the treaty gets ratified. Then 
the funding commitments are not kept a very short time later. 
It has nothing to do with sequestration because the budget does 
not account for sequestration. So the lesson I would draw from 
it is do not believe anything you hear when an administration, 
maybe any administration, wants a confirmation because it 
evaporates 3 months after the ratification happens.
    Mr. Secretary, you have suggested a new BRAC, and I think 
you have suggested an upfront cost of $2.4 billion. I would 
suggest that Congress broadly does not have a big appetite for 
anything with a significant MILCON upfront cost. But I am also 
concerned that that $2.4 billion just seems on a different 
planet from the last BRAC where GAO has said the first 5-year 
cost was $35 billion. So how do you jibe all that?
    Secretary Hagel. There will be no BRAC without the 
authorization of Congress, as we know.
    I am going to ask the Comptroller to deal with the specific 
number because we talked about it earlier this morning.
    But I will respond this way, as I have already done. When 
you look at the infrastructure required, as we are bringing 
down our troops, reducing 100,000, we are unwinding from two 
wars, reducing responsibilities, commitments around the world, 
a different kind of a structure that we are dealing with now, 
funding now, preparing our forces for, that is also going to 
require less inventory and infrastructure. We are doing that in 
Europe now. We are going to continue to do that in Europe and 
around the world.
    It is my thought, and I think the President's thought, that 
we need to look at our infrastructure here. Do we have excess 
capacity? The GAO report and the 2005 study showed that we did 
have about 25 percent excess capacity.
    Now, as I said in my statement, it is going to come at some 
upfront costs, of course. But let me stop there because the 
2005 BRAC versus what we are talking about in 2015 is different 
in certain ways which do account, I think, for the numbers that 
you asked about.
    Chairman Levin. I wonder, Senator Vitter, because we have 
asked for that detail for the record, whether that might be 
satisfactory in terms of the time.
    Senator Vitter. Okay, that is fine. Thank you, Mr. 
Chairman.
    Chairman Levin. Would that be all right? Thank you, Senator 
Vitter.
    [The information referred to follows:]

    Please refer to my letter to you, signed on May 1, 2013. [Inserted 
previously]

    Mr. Hale. Mr. Chairman, may I at least just reiterate we 
are not going to do 2015 the way we did 2005. It will be much 
more focused on closing and therefore the costs will be lower 
and the savings quicker. We are getting $12 billion a year from 
BRAC. We cannot afford, in my view, not to do this because at 
some point 4 or 5 years from now, we will be having this same 
conversation and we need those savings.
    Chairman Levin. Senator Vitter, they have committed to 
provide for us for the record that $12 billion figure, what the 
basis of it is. Earlier they said it was from all the BRAC 
rounds not just from the last one. But we still are demanding 
that we see the data that supports that allegation.
    Senator Vitter. It seems to me upfront MILCON costs are not 
adequately weighted into that the way I think they should be, 
given the fiscal situation and Congress' lack of appetite for 
upfront MILCON costs.
    Chairman Levin. Thank you.
    Senator Inhofe. Let me just comment. You were not here when 
I asked my questions, and that was my concern too. Of course, 
we will look and see. We have not seen a product yet, so we do 
not know what we are talking about. I suspect, though, it is 
going to be very similar to what we faced in 2005, and I know 
that they all said at that time, no, this is not going to 
happen this time. But it did and the costs were far greater 
than they anticipated prior to the 2005 round.
    Chairman Levin. Thank you.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here.
    Before I ask you a question, I just want to mention that in 
half an hour at Arlington National Cemetery, Lieutenant Colonel 
Don Faith is going to be interred. He was killed in Korea in 
1950. He finally came home after 50-plus years in Korea from 
Washington, Indiana. He served under General Matt Ridgway, was 
at the Chosin Reservoir when they were overwhelmed by Chinese 
forces. His superior was killed, and he personally led the 
breakout of the troops. He was killed there, never came home. 
Over 50-plus years later, he finally came home. They did DNA 
testing. They finally figured out who the lieutenant colonel 
was. In half an hour, his daughter and the men he served with--
he is at Arlington right now, a Congressional Medal of Honor 
winner. I just wanted to mention his name and keep him in your 
prayers and thoughts. He is an American hero.
    Chairman Levin. Thank you for mentioning that, Senator.
    Senator Donnelly. This would be to Secretary Hagel. The 
Indiana National Guard--we were just off-ramped--a number of 
them. It affected over 1,000 of our National Guard members. We 
had 570 members who were going to the Horn of Africa this 
month, and 446 members were going to Egypt in June. They are 
the only ones this has happened to. These two units, less than 
6 weeks from being deployed, were off-ramped and they were off-
ramped and replaced by Active component forces.
    We are willing to take our share of the hit as we move 
forward on sequestration and on all of these issues. But over 
1,000 of these families will lose TRICARE in 4 days. 142 
soldiers that reenlisted for these deployments and they were 
given a reenlistment bonus, are being terminated and then being 
asked to reenlist without any bonus. 60 of these soldiers left 
their civilian employment and have lost their jobs. Others have 
had their employers already hire somebody else. They have gone 
back and their employer said we want to take care of our 
soldiers, but what do we do.
    This has been extraordinarily damaging to the families and 
to our soldiers. So, as I said, we are willing to step up and 
take our hit. We always have been. But there are only two 
minimal requests that the Indiana National Guard has made to 
me, and that is just that the units have 180 days of TRICARE. 
Number two is that the people who were promised a bonus get 
their bonus. The cost of that is less $1 million. This is 
simply a matter of keeping our word. Our people, as we have 
always said, are central to everything we do. They were 
prepared for the mission, ready to go on the mission, got 
bumped on the mission for Active-Duty Forces. All we are 
asking--many of them have lost their jobs. Many of them are 
losing their health care, and so all we are asking is those 
minimal things, that we be able to do that.
    Secretary Hagel. Senator, thank you.
    Let me ask the Chairman of the Joint Chiefs to respond to 
the entire framework of issues that you noted, the off-ramping 
of the Guard. I am generally aware of all those activities, but 
specifically about your request.
    Senator Donnelly. In particular, these folks were 6 weeks 
out and had, in effect, basically done the packing, getting 
ready, canceling leases, getting the family squared away. These 
are just two minimal things that they had asked me to talk to 
you--that the soldiers had asked me to talk to you about and to 
the General.
    Secretary Hagel. I do not know what our policies and 
procedures are about these specific issues. I will find out.
    [The information referred to follows:]

    Please refer to my letter to you, signed on May 1, 2013. [Inserted 
previously]

    Secretary Hagel. Let me ask the Chairman to respond here 
quickly to your bigger point. But I will look at your last 
request, and if the Comptroller wants to add anything to this, 
we would welcome him. But we will look at it and we will be 
back to you on it.
    General Dempsey. As you say, Senator, these off-ramp 
decisions are really challenging, Active and Guard, and of 
course, the Truman. Some people suggested that we off-ramped 
the Truman to make a political statement. I assure you I would 
not do that to 5,000 sailors who had the same issues. Families 
have gone home to live with their parents, terminated leases, 
sold cars, stopped education courses, and of course, this issue 
on the off-ramping of the Indiana Guard.
    So you have our commitment that when we off-ramp either 
because of sequestration--the other reason we are beginning to 
off-ramp some units is, of course, the glide slope in 
Afghanistan. We will always have the human dimension of this 
first and foremost.
    We will go back and work on trying to meet your specific 
request.
    Senator Donnelly. Because I think after these decisions 
were made, they then said, ``we are not going to do it to any 
groups less than 120 days before.'' These folks, in effect, 
were the ones who were caught in the middle, that were 6 weeks 
out. So if you could take a look at that, we would be 
extraordinarily appreciative of it.
    General Dempsey, in Afghanistan, as we draw down, I am sure 
you have plans and metrics in place as we are going through 
this year as well. I wanted to see how we are doing on that, if 
we are on target, on schedule, and if the transition is moving 
the way that has been planned.
    General Dempsey. It is, and we have what we are calling 
Milestone 2013 coming up later in the spring/early summer where 
Afghan National Security Forces (ANSF) will be in the lead 
across the country. What that gives us, Senator, is two 
fighting seasons now to allow them to demonstrate their 
capabilities while in the lead and us in support. So we will 
continue to know more and more. We are accelerating enablers. 
We are talking about how long should we keep the ANSF at 
352,000. All of those are factoring into what we will recommend 
for our enduring presence. The enduring presence number is not 
in isolation. It is glide slope. It is ANSF capability, how 
long we keep them at 352,000, how successful are we at 
providing enablers and these two fighting seasons of 
experience. So I think we are in a pretty good place right now.
    Senator Donnelly. Thank you very much.
    Chairman Levin. Thank you very much, Senator Donnelly.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to each of you for your service to our country, for 
all you do to keep us safe. It is deeply appreciated by me, my 
colleagues, and my constituents back at home.
    My first question goes both to Secretary Hagel and to 
General Dempsey. The former Chairman of the Joint Chiefs of 
Staff, Admiral Mullen, made a statement in 2011 that people on 
both sides of the aisle and across America have quoted many 
times since then, and I would like to repeat it because it is 
something that I think needs to be repeated often. He said, ``I 
have said many times that I believe the single biggest threat 
to our national security is our debt. So I also believe we have 
every responsibility to help eliminate that threat.''
    Do you both agree with that statement today when our 
national debt is significantly larger than it was in 2007 
through 2011?
    Secretary Hagel. I agree with it, yes.
    Senator Lee. You do.
    Secretary Hagel. I do, yes.
    General Dempsey. Yes, I have always pointed out--by the 
way, I cannot tell you how many times that quote has been read 
to me. So thanks for reminding me again.
    But, look, economics, our fiscal situation, the deficit, 
the budget are all threats to our security. There are a lot of 
physical, seen and unseen, threats out there that perhaps are 
different even from when Admiral Mullen made that comment. So I 
do align myself with the economic piece of it. But there are 
just groups out there that also threaten us.
    Senator Lee. So you would not necessarily say it is the 
single biggest threat.
    General Dempsey. No.
    Senator Lee. Okay, thank you.
    It is important for us, I think, to remember the 
President's budget, despite proposing pretty significant tax 
increases, would still contemplate adding about $2.5 trillion 
to the total debt held by the public by the time he leaves 
office in 2017. Then by 2021, our payments, just our interest 
payments, on our debt will be larger than our defense outlays.
    So it is for this reason that several weeks ago during the 
Senate budget debates, I put forward an amendment that would 
prohibit us from getting into a position where we are spending, 
or contemplating spending, more money on interest on our debt 
than we are on defense. I was happy that we got bipartisan 
support for that, at least narrow bipartisan support. I think 
we had all Republicans voting for it and one Democrat.
    But the budget that is in the best interest of our national 
security is one that balances, one that gets to a balance and 
is able to turn off the sequester by focusing not just on 
cutting disproportionately out of our defense spending, but on 
spending as a whole.
    To that end and consistent with following up on something 
Senator Vitter was asking, if the sequester is not turned off--
the sequester or some would say that there are spending caps 
moving forward in the future years covered by the BCA--will we 
continue to see budgets that ignore these provisions, that 
ignore the sequestration provisions? Can we expect budgets like 
that to continue to be sent to Congress that do not reflect the 
law, that is, the BCA of 2011? Secretary Hagel?
    Secretary Hagel. The fiscal year 2015 budget that we will 
present early next year will reflect the reality of whatever 
the situation is. I do not know if between now and next 
February if Congress and the President are able to come 
together with some deficit reduction plan--I know Congress has 
worked very hard on it, both parties. The President has. I know 
everyone was hopeful. But as you suggest, the law of the land 
is the law of the land, and that is reality. So that will be 
the budget that is presented.
    Senator Lee. Okay, that is great. That is why we were 
surprised when it did not reflect it this time around, but I am 
happy to hear that it will reflect the law of the land next 
time around.
    Mr. Secretary, you announced last month that 15 additional 
GBIs will be deployed to Alaska as a reaction to the 
provocations that we have had from North Korea. This brings the 
numbers of GBIs in Alaska to the number that was originally 
planned during the Bush administration, I believe, was later 
reduced by President Obama. I have a question for you about 
this.
    Was the Russian Government consulted or informed that the 
United States was considering this decision before that 
decision was made, and if so, when did that occur?
    Secretary Hagel. The answer is, not to my knowledge. The 
Russian Government was not consulted in any way, and that 
decision, that policy, was not decided based on any 
consideration of the Russian Government.
    Incidentally, I would just add that those GBIs also not 
only are in Fort Greeley, AK, but some are in Vandenberg, CA.
    Senator Lee. Okay. But to your knowledge, they were not 
consulted. If DOD were to decide that additional missile 
defense systems were needed to be deployed for the protection 
of the United States, whether domestically or abroad, would the 
Russian Government be consulted or informed before that 
decision was made?
    Secretary Hagel. First, I cannot answer for the President. 
That would be a decision for the President to make. It would, I 
suspect, have to revolve around treaty obligations we have with 
the Russians and other issues like that.
    Senator Lee. In March, the Russian Government requested 
that some meetings take place regularly to discuss plans with 
the European missile shield. Are there any plans for those 
talks to take place, and if there are plans for such talks, 
will these include any of our NATO allies as part of those 
discussions?
    Secretary Hagel. Again, Senator, I do not know about those 
talks. That would be in the purview of the Secretary of State 
and the White House. I have not been consulted on any talks or 
the possibility of what you are talking about.
    Senator Lee. Okay. You are not certain of whether there 
have been those talks, but to your knowledge, there have not.
    Secretary Hagel. To answer your question, I do not know of 
any conversations about what you suggested about resuming talks 
on the basis that you laid out.
    Senator Lee. Okay. I see my time is expired. Thank you very 
much, and thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lee.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman, and welcome to 
Secretary Hagel and General Dempsey and Secretary Hale. Thank 
you for your service, and of course, we thank the men and women 
of the armed services and their families for their service and 
sacrifice.
    I would like to commend you and acknowledge the work that 
you are doing to stop sexual assault in our Services because it 
has been the subject of a separate hearing of a subcommittee of 
this committee. Secretary Hagel, thank you for your quick 
action in changing the UCMJ regarding the convening authority's 
right to overturn decisions--overturn verdicts, and I expect to 
continue to work with you and General Dempsey on these issues.
    I also would like to thank you, Secretary Hagel, for your 
commitment to a continuing collaboration with the VA and 
Secretary Shinseki to create a seamless transition for the men 
and women who are transitioning from Active Duty to civilian 
life. There are major issues regarding all of that.
    My colleague, Senator Mark Udall, asked you some questions, 
Secretary Hagel, about the energy use of DOD. Of course, given 
the unstable fuel costs and the rising fuel costs and the 
impact of fuel costs on budget estimates, as well as the 
overall fiscal environment, I believe that controlling energy 
costs across the board, now and in the future, is an important 
goal for DOD.
    The operational energy implementation plan identified 
incorporating energy security concerns into the requirements 
and acquisitions process as one of the targets for DOD to 
implement. I wanted to get your views on the importance of 
those goals and how we are doing in making sure that energy use 
criteria and factors are considered in acquisition planning 
processes.
    Secretary Hagel. Thank you, Senator.
    As I noted in my response to Senator Udall, for me, for our 
leadership at DOD, our energy use, our energy sources, our cost 
of energy are and must be a high priority. That is R&D. It is 
not just the budget, but it is the security and reliability of 
our sources of energy. So we continue to put a high priority on 
those programs. We continue to invest in those programs. As you 
noted--it has been much of the conversation this morning--we 
have less money and it appears we are going to have even less 
money. So we have to balance the resources we have with the 
responsibilities we have.
    But that all said, we are committed--I am committed to 
continue to follow through on the energy programs that we have 
in existence that continue to find more reliable, cheaper forms 
of energy.
    Senator Hirono. I think that to reiterate, those kinds of 
energy security concerns should be very much part and parcel of 
how you analyze various priorities, going to equipment needs, 
all of those concerns. It should be an across-the-board part of 
our consideration as we meet our fiscal challenges.
    Secretary Hagel. Yes.
    Senator Hirono. I wanted to turn to, General Dempsey, the 
military-to-military relationships that we have, and we have 
been working to engage China in these exchanges, and you are 
going to China soon. Would you expect that the issue of our 
rebalance to the Pacific to be a matter of some concern to the 
Chinese? Do you expect this to become part of the conversation 
that you have when you are in China?
    General Dempsey. I do, Senator. I have had some telephonic 
contact with my new Chinese counterpart, and he has indicated 
that he is eager to get my views and understand better our 
intentions, and I am prepared to have that conversation.
    Senator Hirono. At the same time, to make sure that one of 
our intentions is to strengthen our communication and 
relationships with them, because as some of my colleagues have 
said, China is a very big part of the activities and actions of 
North Korea, and any stronger relationship we can have with the 
Chinese would be, I think, a goal to be sought.
    General Dempsey. Yes. I am committed to that. I am 
committed to strengthening our relationship with China.
    Senator Hirono. Thank you.
    Regarding recruiting, I know that we are drawing down our 
numbers in our Service. But at the same time, with all the news 
about the challenges facing our military, DOD, the cuts, the 
furloughs, all of that, Secretary Hagel and also General 
Dempsey, have you already seen an impact of all of this kind of 
news on recruitment now and in the future?
    Secretary Hagel. I am going to ask the Chairman to respond 
to that. But as far as I can see and know, I do not think it 
has yet impacted that recruitment, but the Chairman is closer 
to it than I am.
    General Dempsey. The answer is that we are having no 
difficulties right now, either recruiting or retaining high-
quality, very high-quality individuals.
    But here is a prediction, Senator. If sequestration affects 
readiness and young men who come in to be pilots are sitting 
not flying or they come in to be seamen, sailors, and they are 
sitting at dockside and not steaming and they come into the 
training on tanks and they are parked in the motor pool, then 
we will have a retention problem. I actually have that T-shirt. 
We have done this before, and we did not do it correctly and 
shame on us if we do it again.
    Mr. Hale. I would just add. I worry about our civilian 
workforce. I do not know--three pay freezes, furlough 
potential--I am not sure why anybody would want to work for us 
right now, frankly. We need to do better. I think there are no 
problems I know of with 7.8 percent unemployment. But as the 
economy recovers, I think we have every reason to worry about 
the ability to recruit good civilians.
    Senator Hirono. Thank you for raising that point because, 
of course, we have some 18,000 civilians in Hawaii who are 
working for DOD and very concerned about potential furloughs 
and other changes.
    Thank you.
    Chairman Levin. Thank you, Senator Hirono.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Secretary Hagel, General Dempsey, Under Secretary Hale, I 
want to thank you for being here. Thank you for your testimony 
this morning. I want to thank all three of you for your service 
to this Nation.
    As recent events have powerfully underscored, these are 
perilous times, whether we are speaking of the horrific terror 
attack in Boston this week or the escalating situation in North 
Korea. Your service is greatly appreciated, and I thank all 
three of you for serving on the front lines and protecting 
America.
    The questions I would like to ask focus on two areas: 
number one, financial planning going forward at DOD; and number 
two, missile defense and our ability to defend the Homeland.
    I want to start with there has been much discussion today 
about sequestration--that the current budget does not reflect 
the cuts in sequestration, but I understand that DOD will, 
hopefully in the month of May, submit a plan to comply with 
those cuts. That presents both short-term challenges and long-
term challenges.
    In addition, the budget contemplates a renewed BRAC 
commission process going forward.
    I would suggest in the process both of assessing 
sequestration in the short-term and long-term and in the BRAC 
process that a significant component of DOD's assessment should 
include consideration of the degree to which we can reduce our 
footprint overseas, reduce our bases overseas, reduce our 
manpower overseas, consistent with the central imperative of 
protecting our national security.
    So the first question I wanted to ask Secretary Hagel is: 
to what extent is DOD currently assessing, in complying with 
these financial pressures, our ability to draw down our 
overseas footprint, reduce bases? I would suggest it is 
preferable to reduce bases overseas than here at home, if it 
can be done consistent with national security. To what extent 
is DOD engaged right now in that assessment and analysis?
    Secretary Hagel. Thank you, Senator.
    Let me also clarify a point you made so there is no 
misunderstanding. I do not want an expectation that may be 
inaccurate. I did not say we are going to present a plan by the 
end of May to the committee on how we are going to deal with 
sequestration. What I said was the Strategic Choices and 
Management Review that I asked for was going to come back to me 
by the end of May, which then we will start making some 
assessments and decisions based on that, which obviously will 
affect complying with the law of the land, if we have to. I 
just want to make sure----
    Senator Cruz. If I may follow up then. Do you have right 
now an intention for a timetable of when DOD would get back to 
the committee on its intention and plan for complying with----
    Secretary Hagel. This is evolving, and I have to look at 
the review that the Deputy Secretary of Defense and the 
Chairman of the Joint Chiefs are leading, and then we will 
proceed on that basis. But I do not want an expectation here 
that is not correct.
    As to your questions about overseas and overhead and 
manpower and the other observations you made about how we are 
assessing what we have to do to comply with these new 
realities, yes is the first. We have been consolidating and 
closing facilities overseas for the last few years. We will 
have a study complete by the end of this year specifically on 
additional recommendations on closing facilities and 
consolidating overseas. So, yes, that has been ongoing.
    At the same time, I think, the President thinks, and the 
leadership of DOD, that we need to also take a look at our 
infrastructure in this country as well.
    Mr. Hale. Can I just add a couple facts that might be 
helpful?
    We have transferred more than 100 sites back to our allies 
since 2003. There are about 30 more scheduled over the next 
several years, in addition to any identified by this 
consolidation. So we have been aggressively looking at overseas 
infrastructure.
    Senator Cruz. Thank you very much.
    General Dempsey, I would like to get your thoughts, in 
particular, about North Korea, both about how grave a threat 
the current North Korean situation poses and what is our 
capacity right now with missile defense to intercept and defend 
against a hostile launch from North Korea?
    General Dempsey. Yes, Senator. There has been some 
discussion in the Intelligence Community about whether they 
have been able to weaponize, but as you might expect, as the 
Chairman of the Joint Chiefs, we will react to what we think 
could be the worst case scenario. So we have postured ourselves 
to be capable of intercepting and destroying any ballistic 
missile that would be launched at our facilities or our 
personnel, and we are postured to do that.
    Senator Cruz. I would note that the President's budget, 
while not accounting for sequestration, nonetheless cuts $500 
million from missile defense. In my judgment, particularly 
given the threats we are seeing from North Korea, the potential 
threat we have from the Nation of Iran, reducing our commitment 
to missile defense at this point seems ill-advised. Indeed, our 
current posture on missile defense is at a minimum of 2 months 
in that we are right now deploying a Terminal High Altitude 
Area Defense system to Guam and at the same time reinstating 
GBIs that have been canceled in Alaska, both of which, I think, 
are reasonable and positive responses to the threat we are 
seeing. Yet, that seems inconsistent with reducing funding for 
missile defense, and it seems in many ways driven by our 
enemies rather than a comprehensive, strategic plan for missile 
defense. I would welcome the thoughts of either Secretary Hagel 
or General Dempsey on that issue.
    Secretary Hagel. I think the budget reflects the priorities 
of our missile defense programs and plans. Missile defense is 
an essential component of securing this country, the interests 
of this country. I certainly would never sign off on any budget 
that would lessen that ability to fulfill that commitment to 
this country. I think I can speak for the Chairman and every 
leader inside the Pentagon. So it is my sense that it does 
comply with our requirements.
    I will ask the Chairman if he would like to add anything.
    General Dempsey. I think in the interest of time, Senator, 
I would be happy to have someone give you a lay-down of the way 
ahead, what we have done this year, why, and where we think 
this is all going.
    I would also say, ballistic missile defense is an important 
investment. It can get to be extraordinarily expensive. So one 
of the things we have to do is balance defense and offense. I 
often use the phrase that at some point you have to stop 
worrying about the arrow and start worrying about the archer. I 
would suggest to our potential adversaries that we have not 
forgotten that we also have capabilities to deal with the 
archer.
    Senator Cruz. Thank you, General. I look forward to that 
ongoing discussion. I thank all three of you for being here.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cruz.
    Just relative to the facilities overseas that are being 
closed, we do have rules as to the reimbursement to us for the 
improvements which we have made in overseas facilities. We just 
issued a report yesterday, a committee report, which we hope 
you will take up, showing the failure of DOD to achieve that 
reimbursement in the way in which it is supposed to be made. It 
has been going on too long. Part of it is a failure of 
oversight, but mainly it is a failure of DOD to enforce our 
rules relative to reimbursement by our allies for the 
improvements which we have made in those facilities which we 
are turning back to them. So that was a report which was 
released yesterday. It is, I know, on your desks, and we would 
look forward to your response.
    Senator Inhofe. Just one comment about the overseas 
facilities. All of us know, in western Europe we had quite a 
few of them there. One of the problems that came up is because 
of some of their environmental controls over there, they are 
restricting in Germany, for example, our ability to use a live 
range to so many hours a day and so many days a week. Finally, 
we had to go in and say if we cannot train, we are going to 
leave, and that got their attention. So I think that we need to 
use the tools that we have to most efficiently train our people 
as we are supposed to be doing over there.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Kaine.
    Senator Kaine. Welcome to all of you. Thank you for the 
testimony this morning.
    I am just going to jump right to it. I would like to say a 
word about sequester, a word about BRAC, and then a comment 
about Syria.
    A lot of discussion about sequester. I agree with what 
Senator Sessions said earlier. It was a horrible idea. I do 
have the alibi of not having been around when it was put in 
place. So that makes me very free to criticize, and we never 
should have allowed it to happen. To make a sixth of the 
budget, defense, take 50 percent of the cuts, that was foolish. 
To make one-eighth of the budget non-defense discretionary take 
50 percent of the cuts, that was foolish.
    It is important to acknowledge there was an alternative. We 
had an alternative in this body that had 53 votes. That is the 
majority of the body that wanted to turn off sequester and do 
it a different way. That is sufficient votes to pass unless 
filibuster is invoked by the minority. In this instance, in 
late February filibuster was invoked by the minority and we 
needed more than 50 votes. But that is not an automatic. There 
was a sufficient vote in this body to turn off the sequester 
that is having, in my view, a very significant and negative 
effect.
    Especially, Secretary Hagel, I do think Senator McCain's 
suggestion was an extremely helpful one. If there is to be any 
chance of this Congress, this Senate considering an alternative 
to sequester--and the sooner, the better--the more people have 
an understanding about the good faith, most considered judgment 
of DOD about what is going to be cut if we have to knock that 
extra $52 billion off, the more specifics we have about that, 
the more we look and say, boy, we do not want that to happen. 
We better come up with an alternative. In the absence of an 
alternative that is so specific and granular and clear, it does 
not put any pressure on us at this point really to come up with 
an alternative. So I would just say that I viewed Senator 
McCain's suggestion as actually a helpful one.
    On BRAC, I worry about the sturm und drang of BRAC. So when 
the testimony this morning said we have done five BRAC rounds 
and we have saved $12.5 billion annually--and I look forward to 
the accounting of that. When BRAC is announced, what happens is 
that every community that has military assets, whether they are 
ultimately going to be on the chopping block or not--they 
lawyer up. They accountant up. They public relations up. There 
is an economic effect in the community of anxiety and 
uncertainty that can have its own economic effects. If we are 
going to do all that to produce--if it has been $12.5 billion 
for five BRAC rounds, if we are going to do all that to produce 
$2.5 billion of savings, I really wonder if it is worth the 
trouble. It is important to lay out potential cuts to deal with 
these budgetary realities, and so just two examples.
    As Governor, I had an $80 billion budget and in 4 years--
you just get one term in Virginia--I cut $5 billion out of the 
budget. I did not convene a commission to do it. I sat with a 
bunch of budget folks and I made very specific reduction 
proposals, and I gave them to my legislature. They all, 
Democratic and Republican, as soon as they saw every one--and 
this was successive rounds--they said I was a heartless dope 
for everything I proposed. Then after they spent a bunch of 
time going through everything I proposed, they ended up 
approving 90 percent of what I proposed. That was a regular 
order process. By doing it that way, I did not make every last 
person or every last community in Virginia by announcing the 
BRAC round or something like that think uh-oh, we have to 
lawyer up and lobby.
    So the one thing I would just encourage to you and 
encourage to my committee members--and I know Senator Inhofe 
had some concerns about the 2005 BRAC--is whether that is--we 
are dealing with the need to make some challenges. But whether 
a BRAC round really is the best way to reduce costs, when you 
add in the anxiety it creates, and you add in the economic 
effect of that and all the external transaction costs that it 
generates, is a BRAC approach the best way to reduce costs?
    After the last BRAC round, your predecessor--one of your 
predecessors, Secretary Hagel, Secretary Gates, reached a 
conclusion that a particular mission in Virginia, Joint Forces 
Command (JFCOM) was probably not the best expenditure of money. 
That was, as I understand it, a joint effort that might have 
been inspired by an earlier Secretary of Defense. I think 
Secretary Gates said, hey, if the Joint Chiefs of Staff have 
offices near each other inside the Pentagon anyway, why do we 
need a separate JFCOM in Norfolk. He did not do a BRAC. He just 
said, I am not sure we need this, and he put on the table, let 
us get rid of JFCOM.
    The local community and the congressional delegation came 
forward and said we think this is a bad idea, and they laid out 
a case. They reached an accommodation where essentially the 
JFCOM structure was removed, but some of the military missions 
that were being provided in Hampton Roads continued to be 
provided and there was compromise. That was done not in a BRAC 
process but with DOD laying down, we think we should get rid of 
this, and then Members of Congress saying we think you are 
wrong, and then a compromise being reached.
    I would just recommend that as a potential way of thinking 
about it as an alternative to BRAC because BRAC will produce a 
whole lot of sturm und drang, and if it is going to do that and 
it is going to produce a $2.5 billion savings which, by my 
quick math, is--$2.5 billion out of $585 billion is about 0.6 
of 1 percent of a savings, and that is what it is going to 
produce. I am not sure that the BRAC process and all the drama 
associated with it is worthwhile. So I would just commend you 
to ponder that.
    The last thing. I just want to say a word, Mr. Chairman, 
with your permission, about Syria. There will be additional 
discussion of Syria this afternoon. But there is a competing 
Senate Armed Service Committee hearing on the personnel aspects 
of the NDAA proposal, and I am on the Personnel Subcommittee 
and I think I am going to do that.
    I am also on the Senate Foreign Relations Committee. We are 
spending a lot of time talking about Syria. I have some 
sympathy with Senator McCain and others who said we need to 
explore the recommendation potentially to go from non-lethal to 
lethal assistance and what would be the conditions. My concern 
about Syria right now is this, that it looks more and more 
sectarian, that Assad is an Alawite and with a military that 
is--about 70 percent of the military leadership is Alawite. It 
is becoming a death struggle for the Alawite community which is 
about a sixth of the population. If they believe that the only 
outcome of this is likely going to be whether they survive or 
whether they are purged as that community, then this will be a 
fight to death whether we offer lethal aid or not.
    I know one of the factors that must weigh in very heavily 
on any decision about whether to provide aid is what is the 
character of the opposition. Can we trust them? Will the 
weapons end up in the wrong place? If the opposition can do 
things that will bring Alawites into the opposition and 
convince the Alawite minority that there is not going to be a 
purge against that ethnic group, that would also have the 
effect of diluting the jihadist elements of the opposition and 
would probably give us an opposition that we could have more 
trust in.
    In your tiering, General Dempsey, of non-permissive, 
permissive, or collaborative--and there is another tier in 
there--hostile, non-permissive, permissive, collaborative. 
Efforts that we would undertake to assure that the character of 
the opposition included members of the Alawite minority so that 
Alawites would not fear an ethnic purge in the aftermath of a 
conflict, that would make our decision easier. That would make 
the cost less. That would make the consequences less severe.
    I would just put that on the table as part of the 
discussion of Syria. I am sure I have not said a single thing 
that you all have not thought five steps down the chessboard 
on, but for purposes of my committee members and others, I just 
wanted to state that.
    General Dempsey. Thanks, Senator. We would be happy to have 
you put a chair right here and testify with us this afternoon. 
[Laughter.]
    Secretary Hagel. Senator, thank you.
    I listened very carefully to all three of your main points, 
and you make a lot of sense. So we will take all of your points 
under advisement.
    Mr. Hale. Can I briefly add on BRAC? There are specific 
laws that stop us from closing bases above a certain level. 
JFCOM fell just under those or through exceptions. I am not 
sure it would work, $2 billion a year for 10 years is $20 
billion. It sounds interesting to me. I think we have to think 
about it.
    Senator Kaine. I am not against the $2 billion. I am just 
suggesting you might be able to find a way that will create 
less drama.
    Chairman Levin. One of the things that Senator Kaine 
referred to has to do with the lawyering up and getting other 
kinds of consultants just by the mention of the possibility of 
BRAC, and I would urge our constituents not to start lawyering 
up and hiring consultants because it has a long way to go 
before Congress approves another BRAC round. I think the 
implied suggestion of Senator Kaine is wise.
    Second, I hope you did not suggest, Mr. Secretary, that 
Congress, both the Senate and the House, and the President did 
not comply with the law in your budget request. The BCA made 
certain requirements in order to avoid sequestration. The 
President did it in his budget. He avoided it in a way which is 
very different from what the House did. The House avoided it in 
a very different way from what the Senate did. Hopefully now 
the House and the Senate will get together and adopt a joint 
budget.
    But in any event, I hope that you did not mean to imply in 
any way that the three budgets that are now out there are not 
in compliance with the BCA and I hope you did not mean to imply 
that your budget--these 2013 budgets are not in compliance. 
They do it in different ways. One has greater focus on cuts. 
One has greater balance of cuts and revenues. One has a greater 
balance yet on additional revenues. But they are in compliance, 
are they not, all three of them?
    Secretary Hagel. Yes, and I did not mean to imply that. My 
point in bringing that up was in reference to somehow--at least 
I interpreted some implication that the President's budget was 
somehow out here in the ether. In fact, all three budgets were 
pretty closely aligned but not at all to imply that they were 
not complying with the law.
    Chairman Levin. As I said before when Senator McCain made 
his comments, I agree with what Senator McCain said and what 
Senator Kaine just said. I said it before: it will be helpful 
to us to avoid sequestration if you can get to us as quickly as 
you can the details, some of what the specific impacts would be 
if we do not avoid sequestration.
    Secretary Hagel. We intend to do that, as I said. But at 
the same time, we wanted to make sure whatever we come up here 
with we can defend and make sense. That is why I referenced the 
review, and until we get that review--and then go forward. I 
agree with that. I got it.
    Chairman Levin. Senator Graham has shown up just in time--
--
    Senator Graham. I will be last and certainly least.
    Secretary Hagel, I want to congratulate you and the 
administration for, I think, a responsible handling of North 
Korea.
    Very quickly--you have probably beat this to death, but I 
think 2013 is going to be a major year for national security 
issues. General Dempsey, do you believe if we do not deal with 
the Iranian nuclear program between now and the end of the 
year, we are probably in trouble one way or the other?
    General Dempsey. I have been disappointed about the 
progress, and I think that the urgency will only increase.
    Senator Graham. As I understand it, as we have been 
negotiating the P5+1, our intelligence tells us that the level 
of enriched uranium has gone up during the negotiations, not 
down. Do you agree with that?
    General Dempsey. There has been a pattern of it going up 
and then transitioned into oxide to stay below what they think 
would be the threshold.
    Senator Graham. But the information I have received is that 
the amount of enriched uranium has actually increased over the 
last 6 months. I very much support sanctions and a diplomatic 
resolution to the Iranian problem.
    Secretary Hagel, when it comes to Afghanistan, I think you 
are still making an evaluation. Is that correct?
    Secretary Hagel. When you say ``evaluation''----
    Senator Graham. Post-2014.
    Secretary Hagel. That is right.
    Senator Graham. Do you agree with me that the Iranians are 
probably watching us on multiple fronts in terms of our 
resolve?
    Secretary Hagel. Yes, I do and I have said that publicly, 
not specifically about the Iranians, but we have a global 
audience.
    Senator Graham. That is why I am just so upset, for lack of 
a better word, that we would pick now of all times to basically 
gut our military.
    Do you agree, General Dempsey, this is a time of great 
national security risk, that we live in pretty dangerous times?
    General Dempsey. I do.
    Senator Graham. From a GDP point of view, we are on the low 
end of defense spending in time of conflict. Is that correct, 
Secretary Hagel?
    Secretary Hagel. We are, and General Dempsey and I were 
talking about this the other day, the ups and downs. But you 
are right.
    Senator Graham. It is not that we cannot reform DOD and 
reduce spending. We have $489 billion and maybe there is some 
more to do. But $600 billion, I will agree with both of you, 
will make us a hollow force at the time we need it the most.
    So I would just urge you, as you meet with the President--
there is a lot of bipartisan support for the idea that it is 
unacceptable for the Iranians to get a nuclear capability. 
There is no good ending to a nuclear-armed Iran. Our friends in 
Israel, our Sunni Arab allies--it would just take the whole 
region and throw it into chaos. Do you agree with that 
assessment, General Dempsey?
    General Dempsey. I do.
    Senator Graham. So we are at a critical time.
    How would you evaluate the security situation in Iraq, 
Secretary Hagel, at this point?
    Secretary Hagel. In Iraq?
    Senator Graham. Yes, sir.
    Secretary Hagel. Obviously, that is a country still dealing 
with internal issues, and I think they are, unfortunately, 
playing out in some sectarian ways, al Qaeda. They still have 
difficult challenges.
    Senator Graham. It seems to me that al Qaeda in Iraq is on 
the rise and their political process is frozen.
    When it comes back to Afghanistan, I know it is a 
frustrating country. I think the detainee agreement you have 
negotiated is a good one. I think it really resolves the issues 
in a good way for us.
    So my question really is, is now the time, given all the 
things going on in the world, to really be engaged in 
sequestration?
    Secretary Hagel. Senator, I wish we were not. I am right 
with you on this. But as I have been constantly reminded all 
morning, it is the law of the land. So we have a responsibility 
to deal with that law and that reality.
    Senator Graham. The people who made this law, as Secretary 
Panetta said, a dumb law--I think we have the ability, if we 
choose, to replace it. It is not that I do not want to put us 
on a sound financial footing. I just do not want to destroy the 
military in the process.
    So between now and the end of this year, we have to deal 
with Syria. We are going to talk about that in more detail. We 
have to deal with how we end the war in Afghanistan.
    General Dempsey, what would winning look like in 
Afghanistan? Do you agree with General Dunford--his definition 
of winning?
    General Dempsey. Yes, I do, Senator.
    By the way, let me thank you personally for your help on 
the detention issue.
    Senator Graham. You all found a good resolution to a hard 
problem.
    What would losing look like in your opinion in Afghanistan?
    General Dempsey. I think that the inability of the central 
government to control its urban areas and arteries, as well, I 
think it would be a loss if we did not have a long-term 
relationship with them.
    Senator Graham. Is morale being affected by this 
uncertainty we have created in the budget process?
    General Dempsey. Absolutely.
    Senator Graham. The Chairman of the Joint Chiefs of Staff 
has just told this committee--all of us care about the 
military--that we are hurting morale by not having a better 
budget solution. I hope we will take that to heart. Thank you 
for your honesty.
    Secretary Hagel, what would you like to see Congress do 
this year, if you had a two- or three-item wish list, to help 
you confront the threats that we all face?
    Secretary Hagel. I would start with some certainty on 
dealing with sequestration on a budget. If we could get that, 
as we have said this morning and I think particularly the 
Chairman's comments--I noted it to some extent--it would give 
us, Senator, the time, the flexibility, to do what we need to 
do to adjust to the realities that we are adjusting to as we 
unwind from two wars and all the consequences that come with 
that. That would be my main priority.
    Senator Graham. I would end with this thought. There is an 
al Qaeda element on the Pakistan side of the border that we 
have been dealing with. Is that correct?
    Secretary Hagel. Yes.
    Senator Graham. The drone program has been pretty 
successful.
    Secretary Hagel. It has been, yes.
    Senator Graham. The infrastructure that we have in place to 
identify al Qaeda movements in Pakistan and Afghanistan and to 
neutralize their ability to hit us--I hope we do not dismantle 
that. As we wind down the war in Afghanistan, I hope we realize 
that this is the place we were attacked from, that al Qaeda 
still exists in that region, and that a stable, secure 
Afghanistan would be a tremendous win for us and our war on 
terror. I look forward to talking to both of you about troop 
levels, keeping the Afghan army at 352,000. I think this will 
be one of the most important decisions the President makes in 
his second term.
    Thank you all for your service.
    Secretary Hagel. Thank you, Senator.
    Chairman Levin. Thank you, Senator Graham.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you for being here and thank you for your service to 
our country.
    I want to begin by following up one of the questions that 
was asked earlier concerning sexual assault. I understand that 
a report was under preparation, expected to be delivered at the 
end of March, regarding potential changes and recommendations. 
I know that you have answered a number of inquiries regarding 
sexual assault at this forum. But I wonder if you could tell us 
whether that report has been received and whether you can 
commit to providing it to us.
    Secretary Hagel. Thank you, Senator.
    That request of the Office of General Counsel, as well as 
the Office of the Secretary of the Air Force, was given to me. 
One of the requests was to give me their thoughts on 
recommendations on how they believe Article 60 of the UCMJ 
should be amended. They did. I accepted those recommendations. 
We are now moving forward on working with our counsel to draft 
legislation that we would ask Congress to look at and propose 
changes to Article 60. We announced this about a week ago.
    Senator Blumenthal. Is that report available?
    Secretary Hagel. It is not exactly a report. They are 
recommendations, which I will go back to the General Counsel's 
Office and ask them.
    Senator Blumenthal. If you could provide them to us, I 
would appreciate it, Mr. Secretary. Thank you.
    [The information referred to follows:]

    The Department of Defense submitted to Congress a legislative 
proposal to amend Article 60 of the Uniform Code of Military Justice by 
limiting the authority of commanders to take action under Article 60 on 
the findings of courts-martial on May 7, 2013. The legislative proposal 
reflects the advice provided by the Secretary of the Air Force, the 
Joint Chiefs of Staff, and the Acting General Counsel of the Department 
of Defense (DOD). DOD looks forward to working with Congress as it 
considers this issue.

    Senator Blumenthal. I want to turn now to an area that I 
think is very important to our national security: our submarine 
building program. You and I have talked about it at various 
points, and I believe that the President's budget envisions 
continuing to build two submarines a year, both in this fiscal 
year and going forward in the next. I assume that you share his 
apparent view that submarines are more important than ever to 
our strategic security.
    Secretary Hagel. Yes, I do.
    Senator Blumenthal. On another issue that has not really 
been covered, is the Joint Strike Fighter (JSF), I wonder if 
you could bring us up to date as to your views regarding what I 
view as an essential platform for our air superiority.
    Secretary Hagel. You know the background and the problems 
and the issues. So I will not traverse that territory.
    I met with the director of the F-35 program 2 weeks ago and 
asked for a report. He spent a couple of hours with me.
    It is my assessment that we are making progress. We are 
getting to where we need to be; we are not there yet. Our 
partners, our other allies, who went in with us on joining us 
in procurement of copies of the F-35, are essentially hanging 
with us on this. They have delayed--most of the countries--on 
their orders. But the program is moving forward. I think it 
should. We put a lot of money in it. It is the largest 
acquisition program we have ever had, but I do think overall it 
is the answer for our Services.
    Senator Blumenthal. I appreciate that.
    General Dempsey.
    General Dempsey. If I could just add, Senator. First of 
all, on submarines, they are truly our asymmetric advantage 
globally. No one--no one--comes anywhere near our capability 
beneath the sea, and I think we have to keep those asymmetric 
advantages prominent.
    On the JSF, I happened to meet the Marine Corps lieutenant 
colonel who is running the operational squadron of the B 
variant down in Eglin. I was open-minded to hear whether he 
thought it was good or bad. I am a ground-pounder. So I did not 
have any predisposed notions. But I am telling you he convinced 
me.
    I will say this: we have not been attacked from the air 
since April 15, 1953. I am not going to be the Chairman on 
whose watch that is reversed. So I am an advocate.
    Senator Blumenthal. I deeply appreciate both of your views 
on both submarines and the JSF because I strongly share the 
commitment to those programs not only because they are 
stealthy, strong, and asymmetric, but also extraordinarily 
versatile, speaking about the submarines, and of course, the 
JSF is, in my view, the linchpin to our air superiority in 
defending against the kind of aggression that you have just 
alluded to many years ago. So I thank you both for those 
answers.
    Mr. Secretary, one of the reasons that I was so proud to 
support you and so grateful that you have been confirmed is 
your commitment to the well-being of our troops. On health 
issues and health care, on their well-being while they are in 
service, but also I think you share my view that more needs to 
be done to enable and prepare them for lives after their 
service, particularly concerning employment and skill training. 
I know that the minute-plus that I have left here will be 
absolutely inadequate for an answer on this score from you and 
General Dempsey, but perhaps you can just give us your view as 
to how we are doing and where we should go in terms of 
preparing the men and women, particularly many of them who are 
going to leave the Services in the very near future for 
civilian life.
    Secretary Hagel. Thank you. I will ask General Dempsey for 
his comments as well.
    First, I share absolutely your comments for the reasons you 
noted. These are young men and women who come forward and serve 
our country unselfishly with tremendous sacrifices that, in 
most cases, they make with their families.
    We do have some responsibility here. We have programs now 
underway that we continue to fund to assist that transition. 
Can we do more? Yes. Can we coordinate that better? Yes. All 
the Services are in complete agreement on this. No one is more 
committed than the Joint Chiefs and the senior enlisted and 
General Dempsey, as I am. So you have my continued commitment 
on this issue.
    Let me ask General Dempsey for his thoughts.
    General Dempsey. Transition assistance programs are going 
well. They can continue to be improved upon. They are resourced 
in our budget submissions. We are working on credentialing 
across States. There are initiatives to allow welders in the 
Army and the Navy, Air Force, and Marine Corps to be welders 
elsewhere. Working on the spouses' side as well, working with, 
for example, career trackers so that right from the time a 
young man or woman comes in, they begin thinking about 
transitioning instead of waiting until the last 6 weeks. So I 
think we get it.
    We also know that as we down-size the force, we are going 
to make the challenge a little more challenging. But we are 
ready for it.
    Senator Blumenthal. Thank you. Thank you all for your 
testimony here today, and thank you for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    Senator King.
    Senator King. Secretary Hagel, welcome. Nice to see you.
    One of the advantages of going last is that most of the 
other questions have already been asked, but I do have one. It 
is more in the nature of a request.
    Yesterday in the Senate Select Committee on Intelligence, 
we had a briefing by Jim Clapper on the intelligence budget 
going forward, and he produced a chart which basically showed--
it started with fiscal year 2012 and then showed the effects of 
the first sequester and then the ongoing sequester, the 
President's budget, and other things that have affected that 
budget. It was a very powerful chart. I would ask if you could 
check with him perhaps--it is chart number 11 in his 
presentation--and give us a similar visual breakdown of what 
your budget looks like, including as we now know, the sequester 
on an ongoing basis. If we do not do anything about it, what 
does it do?
    I found this information yesterday to be very important 
because what it shows is real cuts, not cuts to growth, but 
real diminutions of the amount of funds available. I think it 
would be helpful to the committee to be able to see that data 
as it looks over the next 10 years, building in different 
slices. You look at the director's chart and you will see what 
I am saying.
    [The information referred to follows:]

    Please refer to my letter to you, signed on April 29, 2013. 
[Inserted previously]

    Secretary Hagel. We will, Senator. Thank you.
    Senator King. Thank you.
    Just one other quick comment on this whole sequester and 
budget issue. I am sure you know this as well as I do. One of 
the first things you have to do in a situation like this is 
defer maintenance, but deferring maintenance is not saving. It 
is just a cost that somebody is going to have to pay in the 
future. I am sure you agree.
    Secretary Hagel. We do agree.
    General Dempsey. You actually end up paying more. As I said 
earlier, even in things like training, it costs less to sustain 
training than it does to restart it. The same thing with 
maintenance.
    Senator King. I do not know if you have had this question. 
I apologize for not being here the entire hearing. But my sense 
is that this budgetary uncertainty is hurting morale and 
retention and those kinds of intangible assets that are such an 
important part of our force structure and our troop readiness. 
Is that an accurate statement?
    General Dempsey. It is absolutely true, Senator. I have a 
little formula that I carry around in my head that says today's 
readiness challenges are tomorrow's retention problems. That 
always proves true. If you allow readiness to erode, the young 
men and women who come in to serve and to be trained and ready 
will not stick around very long.
    Senator King. That is the essence of the deal is the 
personnel.
    Final question. General Dempsey, you have been involved 
with two drawdowns; at the end of Vietnam and at the end of the 
Cold War. There was a significant drawdown. Share some lessons 
from those experiences that you think might be beneficial to us 
in this situation.
    General Dempsey. Yes, thanks for asking, Senator, although 
I am not happy you reminded me about how long I have been 
serving. [Laughter.]
    A couple of things. One is the drawdown produced hollowness 
in different ways each time. The first time, it was manpower 
hollowness. The second time, it was equipment hollowness. What 
we are seeing in this one is a readiness hollowing of the 
force. So although we have learned lessons each time, it has 
been a little different challenge each time.
    I think we have to be alert for what we are doing this time 
to readiness. We have incredible young men and women in 
uniform. So the personnel side of it is good. Our equipment has 
been recapitalized and reset over time. So equipment is 
adequate, although it is aging and we do not want to stop 
modernizing. But where we are really suffering now is in 
readiness. We are not training to the level we should be 
training because of sequestration and its mechanism.
    The other factor, in terms of the three different 
drawdowns, is each time you start from a much lower start 
point. So I will take the Army as an example. A million men in 
uniform in Vietnam, down to 781,000 by the end of the 1970s. 
You start at 781,000 and you draw down in the 1990s to roughly 
500,000. Today, we are starting at 490,000. We will be at 
490,000 in the Army Active as a result of the BCA, 487,000. 
That is where you start from to absorb sequestration. So each 
time you start at a lower level. I think we have to remember 
that.
    Senator King. Thank you very much, General, and thank you 
all for your testimony.
    Chairman Levin. Thank you very much, Senator King.
    Just one quick reference on Senator Blumenthal's reference 
to Article 60. I believe that it is understood that what you 
are considering are generic changes in terms of the convening 
authority's power, not just relating to sexual assault. It is a 
generic change for all----
    Secretary Hagel. Major offenses.
    Chairman Levin. For major offenses.
    Secretary Hagel. That is right.
    Chairman Levin. Thank you. I think that is what we 
understood.
    I think Senator Inhofe has a quick last comment.
    Senator Inhofe. Yes. Senator Lee came out and expressed a 
concern. I do not think you had time to fully develop it. That 
is, to what degree are we going to be influenced by Russia in 
our missile defense decisions that we make?
    It goes back to the decision that this President made the 
first year that he was President to pull the rug out from under 
both Poland and the Czech Republic on the GBI. I can remember 
talking to Vaclav Klaus at that time, and he said, now we are 
going to go ahead and do this. It is going to really anger 
Russia, but can we be sure that you are not going to pull the 
rug out from under us. That is what I referred to, and he did 
in the first year. I will always think it was a result of his 
effort to get along with Russia.
    Now, you answered his questions about not having that 
influence. I would call your attention to the--and I am sure, 
Mr. Secretary, that you have had communication with the defense 
minister, whose name I can never pronounce right, from Russia 
who said that he wanted to carry on conversations with you as 
national missile defense developed. So it implies that Senator 
Lee is pretty accurate in his concern over how much influence 
that will be over us.
    Do you have any thoughts? Do you think you would be willing 
to talk about it now?
    Secretary Hagel. Yes. Thank you, Senator. A couple of 
thoughts in response.
    First, on Poland and the announcement that we had made 
regarding the PAA. The Polish and Romanian Governments were 
very supportive of that announcement and what we are doing. I 
spoke, incidentally, to both the Polish Defense Minister and 
the Romanian Defense Minister about this.
    Senator Inhofe. No, this all happened before you were on 
board, though.
    Secretary Hagel. No, I am talking about the latest 
announcement that we made during the ground-based----
    Senator Inhofe. Okay. I was talking about 4 years ago, that 
decision that was made.
    Secretary Hagel. There is nothing I can say about that, but 
I can say again when Senator Lee asked me the question about 
this latest decision, which I announced that decision, the 
conversation I had with the Russian Defense Minister was after 
that decision was made, after that decision was announced. One 
of the things we did talk about was further missile defense 
issues, but we talked about a number of things. That was not 
the intent of the call. But it was after the announcement was 
made.
    Senator Inhofe. Okay.
    Chairman Levin. I am glad we are not afraid to talk to 
people and on a positive note.
    We will reconvene in 30 minutes for the second session, 
which will resume at 2 p.m. Thank you.
    This first session is now adjourned. Thank you.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                           DRUG INTERDICTION

    1. Senator Nelson. General Dempsey, due to the sequester, Navy ship 
deployments to U.S. Southern Command (SOUTHCOM) have been cancelled. 
Additionally, the President's fiscal year 2014 budget request saw a 
drastic 38 percent reduction from his fiscal year 2013 request for drug 
interdiction efforts. Historically, SOUTHCOM drug interdiction results 
in the annual removal of 200 tons of cocaine from the U.S. supply--10 
times the amount of what is removed by all domestic U.S. law 
enforcement. Can you share the short- and long-term effects of the 
sequester and the President's fiscal year 2014 budget request on the 
drug interdiction mission in the Caribbean?
    General Dempsey. The U.S. Government has two primary 
counternarcotics missions in the Caribbean and Eastern Pacific 
narcotics transit zone, which lies between the Andean region source 
zone and the domestic arrival zones. These missions are the: (1) 
detection and monitoring of aerial and maritime transit of illegal 
drugs into the United States; and (2) interdiction and apprehension. 10 
U.S.C., section 124, designates the Department of Defense (DOD) as the 
lead agency for detection and monitoring of aerial and maritime transit 
of illegal drugs into the United States in support of the counterdrug 
activities of Federal, State, local, and foreign law enforcement 
agencies. The U.S. Coast Guard under 14 U.S.C., section 89, has the 
lead for interdiction and apprehension. DOD assets have supported the 
U.S. Coast Guard in their mission.
    Sequestration and budget reductions are coming at a time when a 
major Navy surface asset recapitalization effort is occurring. These 
events, coupled with other global activities requiring increased 
demands for support from DOD, are compounding the impacts on our 
ability to fully support these two counternarcotics missions. Though 
DOD will continue to execute its detection and monitoring mission, the 
overall support to the U.S. Coast Guard for interdiction efforts over 
the short- and mid-term (1 to 5 years) time horizon will be 
significantly curtailed, and could potentially undergo further 
reductions.

                    MAYPORT AND STRATEGIC DISPERSAL

    2. Senator Nelson. Secretary Hagel, dispersing our capital ships is 
in our best national security interest and specifically, dispersing the 
east coast carrier fleet is a national security priority. The 2010 
Quadrennial Defense Review (QDR) clearly states, ``to mitigate the risk 
of a terrorist attack, accident, or natural disaster, the U.S. Navy 
will homeport an east coast carrier in Mayport, FL.'' The Navy has 
stated military construction (MILCON) costs to prepare Mayport to 
homeport a carrier would be approximately $500 million, while the 
Government Accountability Office (GAO) estimates the number to be $250 
to $300 million. However, the Navy recently completed a Controlled 
Industrial Area at the Naval Shipyard in Portsmouth, VA, for $33 
million. Can you discuss how the Navy can provide such a drastically 
different quote for a similar facility?
    Secretary Hagel. When comparing facilities, it is important to note 
the one-time costs associated with the creation of a second CVN 
homeport at Mayport, FL, which was estimated at $588 million, 
consisting of $489 million of MILCON projects and $99 million of other 
one-time costs including Initial Outfitting and Permanent Change of 
Station orders for rotating personnel. The $489 includes $46 million 
for dredging (contract awarded in fiscal year 2010); $15 million for 
Massey Avenue Corridor Improvements (contract awarded in fiscal year 
2012); $30.9 million for Parking; $42 million for Wharf F Improvements; 
$150.4 million for a Controlled Industrial Facility; $174.4 million for 
a Ship Maintenance Facility/Maintenance Support Facility, and $30 for 
Planning and Design.
    The cost estimates for the Mayport unprogrammed projects were 
developed for initial planning purposes. They were based on highly 
preliminary design information and included conservative assumptions to 
account for projected local and national market conditions, force 
protection standards, sustainable design requirements, and unique 
construction features, such as hurricane/storm-surge design 
considerations. Planning assumptions are reviewed multiple times as 
part of the MILCON programming process. Based on current market 
conditions, the Navy anticipates the cost will decrease during routine 
planning and design.

    3. Senator Nelson. Secretary Hagel, will you ensure strategic 
dispersal is again added as an objective in the 2014 QDR?
    Secretary Hagel. The nature of the future strategic environment 
requires U.S. forces project power with global flexibility and agility 
to accomplish the Nation's security objectives. A U.S. military force 
that is properly postured provides the credible combat power needed to 
protect the American interests, assure friends and allies, and deter 
potential adversaries.
    The strategic dispersal of U.S. forces must also be fiscally 
informed and appropriately planned within a framework that considers 
risk, responsiveness, and Joint Force capability tradeoffs. To that 
end, I expect the degree to which U.S. forces are dispersed, both at 
home and abroad, will be reviewed during the upcoming QDR.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan

                             SEXUAL ASSAULT

    4. Senator Hagan. Secretary Hagel, since being confirmed, you have 
made the recommendation of eliminating the discretion for a convening 
authority to change the findings of a court-martial, except for certain 
minor offenses. While I'm glad you are looking into the problem of 
sexual assault in the military--as you indicated you would during your 
confirmation process--I'd like to hear what you are doing on the front 
end of these attacks. In 2011, less than 8 percent of reported cases 
even went to trial. Considering that roughly 85 percent of sexual 
assaults go unreported, in order to make a dent in this problem, you 
have to address what occurs shortly after an attack. What are you doing 
to foster an environment where victims are comfortable reporting their 
assault and are confident in their leadership to adjudicate the matter 
fully?
    Secretary Hagel. I am committed to achieving an enduring culture 
change and hold leadership accountable to create an institution that 
makes victims feel safe and confident the DOD's ability to properly 
adjudicate reporting of assaults. DOD has taken many steps to improve 
victim confidence, recognizing that increased victim confidence and 
reporting is a bridge to greater victim care and offender 
accountability. Our Sexual Assault Prevention and Response (SAPR) 
program has a focus on the victim as its foundation. We have created, 
resourced, and trained the entire force on the variety of reporting 
options that provide avenues for victims to seek support services that 
range from anonymous crisis intervention with the DOD Safe Helpline to 
Restricted Reporting that provides case management and medical care to 
full Unrestricted Reporting, investigation, and support services. A 
victim can report an assault confidentially through a Restricted Report 
to a healthcare provider, Sexual Assault Response Coordinator (SARC) or 
victim advocate and receive services and healthcare without law 
enforcement or commander notification. A victim can also choose to 
report her/his offense to law enforcement through an Unrestricted 
Report. These recipients of reports provide the independent care and 
professional first responder treatment that can contribute to victim 
confidence in reporting and adjudication.
    Other victim care initiatives have been completed and are available 
to victims to instill confidence.

        <bullet> The DOD Safe Helpline provides victims 24/7 global 
        access to crisis support staff and we have developed and 
        fielded a Safe Helpline Mobile Application to advance victim 
        support services.
        <bullet> Victims may now request an expedited transfer.
        <bullet> We have expanded SAPR Restricted Reporting support 
        services to adult military dependents.
        <bullet> We offer expanded SAPR services during emergency care 
        for DOD civilians stationed abroad and DOD U.S. citizen 
        contractors in combat areas.
        <bullet> A victim-victim advocate privilege creating a new 
        category of protected communications was enacted.
        <bullet> As part of the revised DOD SAPR policy, we implemented 
        new standards for medical care providers to support victim care 
        and enhance investigations.
        <bullet> Finally, DOD is sponsoring a legal assistance pilot 
        program in the Air Force with 60 specially trained attorneys 
        who are providing legal representation to victims of sexual 
        assault. Under this program, legal assistance attorneys 
        represent victims in a confidential, attorney-client 
        relationship, throughout the investigation and prosecution 
        processes. Initial reports are positive in the number of 
        victims staying in the system and converting Restricted Reports 
        to Unrestricted.

    In addition, I recently directed the Secretaries of the Military 
Departments to assess, monitor, and develop methods to improve victim 
treatment by their peers, co-workers, and chains of command, and to 
report their methods to me by November 1, 2013.

    5. Senator Hagan. Secretary Hagel, how are you ensuring 
accountability at every level of command not only for preventing sexual 
assault, but also for properly handling sexual assault cases when they 
are brought forward?
    Secretary Hagel. I am committed to achieving an enduring culture 
change and hold leadership accountable to create an institution that 
not only works to prevent sexual assaults, but to make victims feel 
safe and confident the DOD's ability to properly adjudicate assaults 
when they occur. DOD currently has multiple tools in place to better 
ensure accountability.
    First, DOD Inspector General (IG) reviews are a primary tool DOD 
uses to ensure accountability, integrity, and efficiency. To date, the 
DOD IG has conducted three separate reviews to assess different aspects 
of how the overall system responds to and handles sexual assault cases. 
In 2011, the DOD IG formed a new Violent Crime Division focused on 
evaluating and improving the quality of DOD's violent crime 
investigations, including sexual assault. They also review 
investigative training programs that form the foundation for sound 
investigative products. Through this unit, the DOD IG reviewed closed 
cases to ensure investigators performed thorough investigations and 
followed the best practice protocols.
    Second, accountability is a point of emphasis within the SAPR 
Program, operating on several levels simultaneously. First, our leaders 
within the Military Services are responsible for program compliance and 
success. In September 2012, the Secretary of Defense directed the 
development of standardized core competencies, learning objectives, and 
training assessment methods for this training. The Services implemented 
these tools for all pre-command and senior enlisted training starting 
in April 2013.
    To further enhance command accountability, the Service Chiefs, 
through the Secretaries of their respective Military Departments, are 
developing methods to assess the performance of military commanders in 
establishing command climates of dignity and respect, and incorporating 
SAPR prevention and victim care principles in their commands. These 
methods will be reported back to the Secretary by November 1, 2013.
    Finally, the Department ensures accountability through the military 
justice process. In June 2012, the Secretary of Defense elevated 
initial disposition decisions to senior commanders (colonels or Navy 
captains) for cases of rape, sexual assault, forcible sodomy, and 
attempts to commit these crimes. This action allows a more experienced 
commander to make disposition decisions in these very serious and often 
complicated cases.

    6. Senator Hagan. Secretary Hagel, is the Uniform Code of Military 
Justice (UCMJ), in its present form, capable of dealing with the 
problem of sexual assault, or do we need to consider a more significant 
overhaul of the system?
    Secretary Hagel. There is no silver bullet to eliminate sexual 
assault. Congress and I recently appointed the members of the Response 
Systems Panel established pursuant to section 576 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2013. I welcome the 
Panel's review and scrutiny of the military justice system, and I am 
open to all improvements that may enhance reporting, investigating, and 
prosecuting sexual crimes and the military justice system as a whole. I 
support limiting a commander's authority to reverse findings of guilt 
from a court-martial. However, I urge against further piecemeal changes 
of the military justice system to avoid unintended consequences for the 
victim, the accused, and the integrity of the military justice system 
as a whole.
    The military justice system was established as a separate system 
because of the worldwide deployment of military personnel, the need for 
a system that can be responsive to the unique nature of military life 
and the combat environment, and the need to maintain discipline in the 
force. The deployability of the administration of military justice 
system is paramount to ensuring a ready fighting force throughout the 
world.
    Our commanders are trained in their responsibilities under the UCMJ 
from the day that they are commissioned and throughout their careers. 
Commanders have at their disposal Judge Advocates to provide advice and 
counsel. Judge Advocates are an integral part of the military justice 
system; they serve as command legal advisors, prosecutors, defense 
counsel, and military judges. Judge advocates are trained to analyze 
evidence to determine if there are sufficient facts to support 
allegations, and to make recommendations to commanders on disposition. 
A variety of procedural safeguards ensure commanders make evidence-
based disposition decisions, particularly in regard to sexual assault 
allegations.

                        SYRIAN CHEMICAL WEAPONS

    7. Senator Hagan. General Dempsey, Syria has the largest stockpile 
of chemical weapons in the Middle East. During his trip to Israel in 
March, President Obama reiterated the U.S. position that the use of 
chemical weapons by the Assad regime would constitute a red line, 
presumably meaning the United States would intervene militarily, if 
necessary. Earlier this year, however, you stated that preventing Syria 
from using chemical weapons would be almost ``unachievable.'' What is 
the United States doing to ensure that Syria's chemical weapons do not 
fall into the wrong hands and how quickly is the United States capable 
of responding once intelligence is received that a transfer is taking 
place?
    General Dempsey. Given the complexity of the issue regarding the 
proliferation of Syria's chemical weapons, DOD is working closely with 
the Department of State, the Intelligence Community, other U.S. 
Government departments, and key international partners. As an example, 
through the Cooperative Threat Reduction (CTR) program, DOD personnel 
and our interagency partners are working with Syria's neighbors to help 
build their capabilities to counter the threat of proliferation from 
Syria's chemical weapons. With regard to our ability to respond, 
options are ready to respond to a broad spectrum of scenarios and if 
ordered to do so by the President we will act. Chemical weapons remain 
a very difficult target set because the Syrian regime moves them and 
because even their destruction carries risk.

    8. Senator Hagan. General Dempsey, President Obama said that the 
Assad regime ``will be held accountable'' for transferring chemical 
weapons to terrorists. Can you elaborate on what this means?
    General Dempsey. Militarily this means we will provide the 
President with a full range of options for any contingency. DOD has 
plans in place and continues to engage in planning to respond to a 
broad spectrum of scenarios.

    9. Senator Hagan. General Dempsey, will the United States act to 
prevent other strategic weapons from being transferred from Syria to 
Hezbollah, including advanced missiles and anti-aircraft systems?
    General Dempsey. We are concerned about the danger of sophisticated 
conventional weapons falling into the hands of extremist groups. The 
Department is continually reviewing our planning to make sure that we 
have appropriate options to respond to a variety of scenarios. We also 
work very closely with allies and partners in the region to prevent 
proliferation of these types of weapons.

                                BIOFUELS

    10. Senator Hagan. Secretary Hagel, last year, DOD released a 
funding opportunity announcement for the Defense Production Act Title 
III Advanced Drop-In Biofuel Production Project. In that announcement, 
DOD expected to award a Technology Investment Agreement (TIA) by March 
1, 2013. What is the status of that TIA award and if it has not been 
awarded, when do you expect that decision?
    Secretary Hagel. I have authorized awards to three companies in 
California, Nebraska, and Illinois, totaling $16 million in funding for 
the first phase of the interagency Advanced Drop-In Biofuels Production 
Project. The Government investment will be matched by $17.4 million in 
private sector funding.
    Phase I of the project involves validation of production 
technology, verification of technical maturity, site selection, plant 
design, permitting, and detailed cost estimation, all of which will 
require 12 to 15 months to complete. Following Phase I, interagency 
technical experts will evaluate the projects to determine which, if 
any, will move on to Phase II, which is for bio-refinery construction. 
If all Phase I projects successfully complete the second phase of this 
project, awardees project that this would represent more than 150 
million gallons per year of drop-in, military-compatible fuels with 
initial production capacity by 2016 at an average cost of less than $4 
per gallon. Government funding up to $130 million is currently 
programmed for Phase II coupled with matching private sector funding.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin

       ACTIVE DUTY SOLDIERS BUYING FIREARMS IN THEIR HOME STATES

    11. Senator Manchin. Secretary Hagel and General Dempsey, my good 
friend Senator Pat Toomey and I have been working hard on this 
background check bill. We want to make sure that criminals and the 
dangerously mentally ill can't get a firearm. When we crafted this 
bill, we did everything we could to protect the dignity of our 
veterans, and gave them some much-needed protections in the Department 
of Veterans Affairs (VA) process. When we did our research, and when we 
talked to the National Rifle Association, we also found out that Active 
Duty troops cannot buy guns in their home State. They move around so 
much--they might not even have a chance to establish residency where 
they are based. So, we included that provision in our bill. Our bill 
allows Active Duty troops, and their spouses, to purchase firearms in 
their home State, as well as where they are based. This is just the 
right thing to do. What do you think about that provision in our bill? 
For reference, this bill is Amendment 725 to S. 649, Safe Communities, 
Safe Schools Act of 2013.
    Secretary Hagel. I support the administration's approach to 
comprehensive gun control and believe this issue should be addressed in 
the broader negotiations on gun control.
    General Dempsey. I prefer not to make public comment on an 
important domestic political debate such as firearms legislation. I 
always appreciate any provision that would recognize the special 
circumstances of our servicemembers and their spouses, and would always 
ask that provisions be made in support of them. I thank you very much 
for both the consideration and support you have provided in this 
circumstance.

                          THE DRAFT IN CONTEXT

    12. Senator Manchin. Secretary Hagel, when you and I were young, 
this country had a draft. There was something about a shared sacrifice 
that gave everybody a stake in our country's wars. Today, less than 1 
percent of America serves in the military. I've had many West 
Virginians ask me if we should go back to the draft. I'm very 
interested in your perspective on that. If we don't go back to a draft, 
what can we do so that everyone shares in the sacrifices that go along 
with war?
    Secretary Hagel. There is no military necessity for a draft at this 
time. The 1 percent of American youth who volunteer meet the 
Department's needs for the foreseeable future, given our reduced force 
size.
    Today's All-Volunteer Force reaches out to every person in every 
corner of the country. The military is more representative of society 
now than it was at any other time in history of the All-Volunteer 
Force. This goal was achieved by ensuring geographic diversity was a 
focus of recruiting strategies. To this point, there are over 6,500 
recruiting-related facilities throughout all 50 States and the U.S. 
Territories seeking diverse, qualified talent that is necessary to meet 
the challenges of the 21st century. The Department benefits immensely 
from the different perspectives and linguistic and cultural skills of 
all Americans.
    The last time the United States had to draft young Americans into 
Service, the military was nearly twice the size of the force today. A 
draft, given the current requirement for just over a quarter of a 
million new accessions each year, would be possibly forcing some young 
people into doing something they do not want to do and, at the same 
time, denying others who want to join the opportunity to serve. Even if 
a mass mobilization were required, the recall of active and inactive 
reservists would suffice for all but the most extraordinary of 
circumstances.
    Since the creation of the All-Volunteer Force in 1974, the U.S. 
military has maintained the smartest, strongest, and most technically 
lethal military in the world. As tested by dual conflicts in 
Afghanistan and Iraq, the volunteers of America's Armed Forces 
sustained operations for over 12 years, keeping the Services at high 
readiness throughout this unprecedented period of military operations.

                     EXCESSIVE CONTRACTOR SALARIES

    13. Senator Manchin. Secretary Hagel, U.S. taxpayers pay 
contractors as much as $700,000 per year. Many times these contractors 
do the same jobs that our troops do, and as the Secretary of Defense, 
you make about $200,000 a year. That's a lot less than $700,000. I'm 
not spilling any secrets here--all this information is public. I truly 
believe that you are serious about reforming the DOD budget. Can you 
tell me--where is the common sense when contractors make so much more 
than our very own Secretary of Defense?
    Secretary Hagel. You are correct, Senator; I am committed to budget 
reform. By law, allowable contractor executive compensation costs are 
limited to a benchmark compensation amount determined annually by the 
Administrator of the Office of Federal Procurement Policy (OFPP). While 
the contractor personnel can be paid more than that amount by their 
employers, the costs cannot be passed on to the taxpayers through 
Government contracts. The NDAA for Fiscal Year 2012 extended the 
compensation cap on executive salaries to all contractor employees, 
with limited exceptions; this broader limitation is being incorporated 
into the Federal Acquisition Regulation through the rulemaking process. 
The NDAA for Fiscal Year 2013 directed the GAO to study the impact of 
tying the cap to either the President's or the Vice President's salary, 
rather than the OFPP benchmark. I understand that the GAO study is 
almost complete and that should inform the discussion on compensation.
    In addition to the statutory cap on compensation, there are 
longstanding limitations on the allowability of compensation costs. 
Employee compensation costs will not be reimbursed by the Government 
unless the costs are determined to be reasonable in amount, are 
otherwise allowable, and are properly allocable to a Government 
contract. Reasonableness is determined by comparing a contractor's 
employee compensation data to that paid on a comparable industry-wide 
basis. Excessive compensation is disallowed as unreasonable.

                         VETERANS UNEMPLOYMENT

    14. Senator Manchin. Secretary Hagel and General Dempsey, as we've 
discussed before, my good friend Senator Mark Kirk and I formed the 
bipartisan Congressional Veterans Jobs Caucus to address veterans' 
unemployment. The veterans' unemployment epidemic is affecting the 
defense budget too. I find it troubling that DOD will spend nearly $1 
billion this year in unemployment compensation. This figure has 
increased by over 300 percent since 2003, when DOD spent about $300 
million on unemployment benefits. Our younger veterans are increasingly 
at risk. The 18- to 24-year-old veterans' unemployment rate is at 33 
percent. What are you doing to help our troops find a job, before they 
need a job--before they leave the Service?
    Secretary Hagel. The Department's efforts are not merely about 
finding jobs for our future and current veteran population, but also 
include empowering them with the skills-development training, 
information, awareness, and confidence to be ``career ready'' and 
highly competitive in today's very challenging labor market. As you may 
already be aware, the Department recently revamped its Transition 
Assistance Program (TAP) into a cohesive, modular, outcome-based 
program. TAP is an outcome-based curriculum known as Transition GPS 
(Goals, Plans, Success), which provides practical skills, development 
training, and tools to veterans. These resources include financial 
planning seminars, VA workshops on available benefits, and Department 
of Labor Employment Workshop. DOD is also aggressively pursuing 
licensing and credentialing programs with many State agencies and trade 
associations allowing members to translate their military training into 
professional licenses and related items.
    General Dempsey. I would say the biggest challenge is making sure 
we prepare them properly for transition. We want to make sure that 
these young men and women who have served so honorably and so well and 
have the skills and attributes, can translate their service in the 
military into employment in the civilian sector. We need to begin 
preparing them for transition at the beginning of their careers and not 
wait and cram it into the last 6 weeks before they separate from 
Service.
    That said, the recent changes to the TAP are the most prominent 
efforts within DOD to improve employment outcomes for our transitioning 
servicemembers. Working with the VA and the Department of Labor we've 
redesigned the TAP into a comprehensive, mandatory program that 
includes pre-separation counseling, a military-to-civilian skills 
review, VA benefits briefings, financial planning support, a job search 
skills building workshop and individual transition plan preparation. 
We've expanded the timeline and created multiple tracks, to include 
technical training for those pursuing a technical career as well as an 
entrepreneurial track to prepare servicemembers wishing to start a 
business or be self-employed.

                      OVERSPENDING IN AFGHANISTAN

    15. Senator Manchin. Secretary Hagel and General Dempsey, the 
President accelerated the draw down of forces this year. But, war 
spending is higher than expected and one of the cited reasons for the 
current budget shortfall. Why are we spending more in Afghanistan than 
projected?
    Secretary Hagel. I expect the drawdown of 34,000 troops in 
Afghanistan, as announced by the President, will eventually lead to 
lower overseas contingency operations (OCO) budgets. The drawdown will 
occur mostly in fiscal year 2014.
    However, for fiscal year 2013, the Department is experiencing 
higher-than-budgeted costs in war spending because operating tempo in 
Afghanistan and transportation/retrograde costs are higher than 
anticipated. Efforts to responsibly draw down troop strength in 
Afghanistan require oversight, logistics support, base closure 
activities, and environmental remediation, a lot of which was not 
anticipated when formulating the fiscal year 2013 OCO budget.
    As we move toward a responsible drawdown in fiscal year 2014, the 
budget is not projected to decrease proportionately to the forces in 
Afghanistan, because the cost reduction associated with fewer troops 
will be substantially offset by increasing costs such as:

        <bullet> Preparing facilities for closure/environmental 
        remediation;
        <bullet> Bringing equipment home (transportation and retrograde 
        costs);
        <bullet> Costs for contractor personnel, which tend to lag 
        reductions in troop costs because contractors are heavily 
        involved in closure activities;
        <bullet> Fixing or replacing equipment and replenishment of 
        munitions (reset costs), which will remain high for several 
        years after combat activities end; and
        <bullet> Costs for sustaining in-theater forces--that is, units 
        and forces operating outside Afghanistan but supporting our 
        troops in Afghanistan and other activities in the U.S. Central 
        Command region--largely continue at a steady pace of 
        operations.

    General Dempsey. The Department's operating tempo and 
transportation costs in Afghanistan are higher than we anticipated when 
we developed the fiscal year 2013 OCO submission. Our efforts to 
responsibly drawdown troop strength in Afghanistan require oversight, 
logistics support, base closure expertise, and environmental 
inspectors/controls, most of which were not included in the fiscal year 
2013 OCO request. Finally, we could not predict the higher retrograde 
costs due to the slow reopening of the Pakistan ground routes.
    The Department has submited a reprogramming action to Congress to 
largely offset war-related costs and avoid adverse effects on our 
wartime operations. The $7.5 billion in transfer authority provided in 
fiscal year 2013 will provide some relief from this shortfall.

    16. Senator Manchin. Secretary Hagel and General Dempsey, in some 
cases, are we spending more money to retrograde equipment than the 
actual equipment is worth?
    Secretary Hagel. In most cases, if the cost to retrograde an item 
exceeds its acquisition value, the Military Services will not 
retrograde the item. Instead, the Military Service will dispose of the 
item in accordance with existing authorities and guidance for 
reutilization, transfer, donation, demilitarization and destruction. In 
a limited number of cases, an item whose retrograde cost exceeds its 
acquisition value may be retrograded if it retains significant military 
utility and cannot be easily or quickly replaced.
    General Dempsey.

        <bullet> In many cases, such as for tactical vehicles, the 
        equipment is being sent back with several upgrades and better 
        capabilities than when it arrived in Afghanistan. These 
        battlefield improvements represent lessons learned during 
        combat, and it is essential we bring this knowledge home to 
        benefit America's future national defense.
        <bullet> The focus for us is not the cost but the requirement 
        to bring home needed military capability, to ensure U.S. Armed 
        Forces maintain proper future readiness. That being said, it 
        will likely cost several billion dollars total, which is a good 
        investment since the equipment in question would cost many 
        times that amount to replace.
        <bullet> In cases where the materiel is excess to the needs of 
        the DOD and/or the transportation cost exceeds the fair market 
        value, the materiel will be donated or disposed of. The 
        disposition of U.S. equipment and supplies is an area of 
        interest to Congress. Congress will be notified of the intent 
        to donate or sell military equipment.

                      TROOP LEVELS IN AFGHANISTAN

    17. Senator Manchin. General Dempsey, after 2014, the North 
Atlantic Treaty Organization (NATO) is planning for somewhere between 
8,000 to 12,000 troops in Afghanistan. You said, ``I find that to be a 
reasonable target.'' If we leave this many troops in country, I fear 
the war in Afghanistan may never conclude. In Iraq, we currently have 
less than 300 troops there. Why do you feel 8,000 to 12,000 troops are 
needed in Afghanistan after 2014?
    General Dempsey. In my military judgment, a NATO force of 8,000 to 
12,000 is necessary to secure our national objectives as I currently 
understand them in a post-2014 environment. NATO's proposed force 
structure range preserves flexibility, limits unnecessary risk to force 
and mission, and supports the objectives of the Afghanistan campaign. 
We will continue to refine our analysis and coordinate with NATO as 
conditions change over time.

            ACTIVE COMPONENT TO RESERVE COMPONENT FORCE MIX

    18. Senator Manchin. Secretary Hagel, since September 11, the Army 
National Guard has deployed over 500,000 soldiers to Iraq or 
Afghanistan. This includes 5,700 West Virginia guardsmen. Our Guard is 
really indistinguishable from the Active Force. Long gone are the days 
when our Guard didn't have a seat at the table. But, I'm not sure we've 
learned as much from this experience as we should have, and are yet to 
truly unleash the full potential of an operational reserve. I'm sure 
you are well aware that even after the Army completes its projected 
downsizing to 490,000 soldiers, it will actually be slightly larger 
than it was on September 11. Do you feel we have the right mixture of 
Active component and Reserve component forces?
    Secretary Hagel. At present, the Active component and Reserve 
component mix is about right. The National Guard and Reserves clearly 
proved their ability to accomplish assigned missions both overseas and 
at home. They will continue to play a vital role as the Department 
moves beyond the past decade of war in Iraq and Afghanistan, shaping 
the force in accordance with a defense strategy addressing the 
challenges of a new era. The high state of readiness of the Reserve 
Forces has been, and will continue to be, a strength for the 
Department. DOD is looking for opportunities to continue to use the 
National Guard and Reserves as part of the operational force.

    19. Senator Manchin. Secretary Hagel, can we push more of our 
Active Force to the Guard to save money and retain our trained forces?
    Secretary Hagel. The Active component/Reserve component is at 
appropriate levels. Over the last decade, the Department has learned a 
significant amount about using Reserve Forces in many different mission 
sets. Reserve Forces provide unique opportunity to preserve operational 
capability and mitigate risk at reduced costs. The upcoming QDR will 
lay the ground work for assigning mission sets to all forces. Each 
component brings different capabilities to the fight. I will be looking 
to the Chairman of the Joint Chiefs of Staff, working closely with the 
Services and the Chief of the National Guard Bureau to recommend the 
most effective mix and makeup of Active, Reserve, and Guard personnel 
to support the Defense Strategy. We need to capitalize on each of the 
Reserve component capabilities. We need to take advantage of Reserve 
and Guard cost efficiencies where mission and acceptable risk permits. 
Determining the best mix is important to our national security, the 
efficient operation of the Department, and the overall cost 
effectiveness for U.S. taxpayers.

                   PRESIDENT'S DEFENSE BUDGET REQUEST

    20. Senator Manchin. Secretary Hagel and General Dempsey, this 
budget largely ignores the caps that are in place under current law. 
While we all want a more balanced approach, the Budget Control Act 
(BCA) is the law of the land. If no deal is reached, at some point, 
between now and October, DOD will have to adjust to the sequester 
levels. In your estimation, at what point in the year would DOD need to 
move forward at the sequester levels and reduce this budget by $52 
billion?
    Secretary Hagel. The President's fiscal year 2014 budget request 
conforms to the discretionary spending limits in the BCA, as amended, 
as well as being within the targets established by both the Senate and 
House Budget Committees. The BCA does contain a provision for reducing 
these limits by over $50 billion for the defense function; however, 
this provision is intended as a forcing function as all of the parties 
to this agreement agreed that these steep reductions were not intended 
to take effect. The President's budget contains sufficient deficit 
reduction to meet the threshold of the BCA, which, if enacted, would 
avoid sequestration.
    General Dempsey. The fiscal year 2014 President's budget, in total, 
exceeds the deficit reduction targets in the BCA, meeting the intent of 
the law. This budget also proposes a level of defense funding that we 
believe is appropriate to defend the Nation. Secretary Hagel initiated 
a Strategic Choices and Management Review (SCMR) to examine options in 
the event sequestration cannot be mitigated.

    21. Senator Manchin. Secretary Hagel and General Dempsey, do you 
plan on further end strength cuts if the sequester levels remain in 
place?
    Secretary Hagel. The fiscal year 2014 budget builds on the choices 
from the previous budget cycle and further implements the strategy 
articulated in the January 2012 Defense Strategic Guidance. In 
developing the fiscal year 2014 budget and planning for future years, 
the Department will adjust the size of the Total Force commensurate 
with requirements for future missions, while at the same time ensuring 
full support for the All-Volunteer Force.
    If sequester levels remain in place, DOD will ask for flexibility 
to apply the reductions in a more strategic manner than the current 
across-the-board sequestration rules permit. I have initiated the SCMR 
to focus on the choices the Department faces in fiscal year 2014 and 
beyond, informed by the strategy that was put forth by the President a 
year ago. DOD must consider all options, including further force 
adjustments, to absorb a $52 billion reduction.
    General Dempsey. The new strategy calls for a smaller and leaner 
force. Last year we proposed reductions of about 100,000 in military 
end strength between fiscal year 2012 and fiscal year 2017. Most of 
those reductions occur in the ground forces and are consistent with the 
decision not to size U.S. ground forces for prolonged stability 
operations.
    The fiscal year 2014 President's budget proposes no additional end 
strength reductions, but the Secretary's SCMR is assessing the 
potential impact of further funding reductions. The SCMR will reassess 
the basic assumptions that drive the Department's investment and force 
structure decisions. As Secretary Hagel has said, everything will be on 
the table, including force structure, personnel and compensation, 
acquisition and modernization, how we operate, and how we measure and 
maintain readiness. The review will identify the strategic choices and 
further institutional reforms that still may be required, including 
those reforms which should be pursued regardless of fiscal pressure.

             BUDGET FLEXIBILITY AND REPROGRAMMING AUTHORITY

    22. Senator Manchin. Secretary Hagel and General Dempsey, although 
we hope for a budget solution that is more balanced, the sequester and 
its caps are the law of the land. In the meantime, I am concerned that 
amount of flexibility Congress gave you to enact the cuts was 
insufficient. For instance, I was informed that the Army National Guard 
needs approximately $123 million in reprogramming authority to pay 
certain guardsmen during this summer's annual training. What do you 
feel would be an optimal amount of additional flexibility during this 
year if the sequester cuts remain?
    Secretary Hagel. If the President's fiscal year 2014 budget for DOD 
were enacted by Congress as submitted, no other action was taken to 
avoid sequestration, and the President chose to exempt military 
personnel from sequestration, the Department would face a $20 billion 
shortfall in our O&M accounts. Thus, the Department sees a requirement 
for $20 billion in general transfer authority as a minimum to support 
the warfighters in the field and restore and maintain military 
readiness. It would, of course, be difficult to find the sources for 
these potential transfers without doing irreparable harm to our 
investment portfolio.
    General Dempsey. We are now in a different fiscal environment. In 
order to put the Department on a path to sustain our military strength 
for the 21st century, we will need time, flexibility, and budget 
certainty. This means time to deliberately evaluate the tradeoffs in 
force structure, modernization, compensation, and readiness, the full 
flexibility to keep the force in balance, and a predictable funding 
stream.
    We only have a few months left to absorb up to $41 billion in 
reductions in fiscal year 2013. The Department is complying with the 
law and accommodating these reductions by cutting back sharply on 
everything from training to maintenance. If sequestration continues 
through the end of fiscal year 2013, we will be forced to impose far-
reaching changes that will seriously damage military readiness. 
Unfortunately, at this point in the fiscal year, additional flexibility 
does not help very much.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen

                               FURLOUGHS

    23. Senator Shaheen. Secretary Hagel, one of the big concerns I 
have at this time is the effect furloughs might have on our readiness. 
DOD is currently considering furloughs of up to 14 days for our 
civilian workforce. In many cases, furloughs could wind up costing us 
more in the long run. For instance, the Navy has indicated that 
furloughs of our shipyard workforce could result in delayed maintenance 
of around 85 days. I understand the Navy has submitted proposals to 
find savings elsewhere and eliminate the necessity of furloughs 
altogether. I understand that DOD is currently considering plans for 
furloughing the civilian workforce. As you make a decision, can we have 
your commitment to take into account the long-term costs associated 
with furloughing our critical civilian workforce, particularly the 
long-term costs of delayed maintenance, possible overtime pay, and a 
growing backlog of ship and aircraft availabilities?
    Secretary Hagel. Major budgetary shortfalls drove the basic 
furlough decision. Before making a decision, I sought advice from 
senior leaders in the military departments and agencies as well as 
advice from my senior civilian and military staff. I asked them to keep 
in mind our fundamental criterion to minimize adverse mission effects 
and, subject to that criterion, to ensure reasonable consistency and 
fairness across DOD for any furloughs that we impose.
    Based on all these inputs, I decided to direct furloughs of up to 
11 days for most of the Department's civilian personnel. This halving 
of previous furlough plans reflects vigorous efforts to meet budgetary 
shortfalls through actions other than furloughs.
    Furloughs will be imposed in every military department as well as 
almost every agency and in our working capital funds. All of our 
civilian employees are important, and I would prefer not to furlough 
any of them. However, there will only be limited exceptions driven by 
law and by the need to minimize harm to mission execution.
    I understand that the decision to impose furloughs will impose 
financial burdens on our valued employees, harm overall morale, and 
corrode the long-term ability of DOD to carry out the national defense 
mission. I deeply regret these aforementioned effects of my decision. 
Nevertheless, I continue to urge our Nation's leaders to reach an 
agreement to reduce the deficit and detrigger sequestration.

    24. Senator Shaheen. Secretary Hagel, will you do what you can to 
find alternative ways to eliminate the need for civilian furloughs 
altogether?
    Secretary Hagel. Major budgetary shortfalls drove the basic 
furlough decision. Before making a decision, I sought advice from 
senior leaders in the military departments and agencies as well as 
advice from my senior civilian and military staff. I asked them to keep 
in mind our fundamental criterion to minimize adverse mission effects 
and, subject to that criterion, to ensure reasonable consistency and 
fairness across DOD for any furloughs that we impose.
    Based on all these inputs, I decided to direct furloughs of up to 
11 days for most of DOD's civilian personnel. This halving of previous 
furlough plans reflects vigorous efforts to meet budgetary shortfalls 
through actions other than furloughs.
    Furloughs will be imposed in every military department as well as 
almost every agency and in our working capital funds. All of our 
civilian employees are important, and I would prefer not to furlough 
any of them. However, there will only be limited exceptions driven by 
law and by the need to minimize harm to mission execution.
    I understand that the decision to impose furloughs imposes 
financial burdens on our valued employees, harms overall morale, and 
corrodes the long-term ability of DOD to carry out the national defense 
mission. I deeply regret these aforementioned effects of my decision. 
Nevertheless, I continue to urge our Nation's leaders to reach an 
agreement to reduce the deficit and detrigger sequestration.

                            PUBLIC SHIPYARDS

    25. Senator Shaheen. Secretary Hagel, our four public shipyards--in 
Washington State, Hawaii, Virginia, and Maine--are the backbone of our 
naval power. We are pleased that the Navy has agreed to accelerate a 
critical military construction project into this budget. In addition, 
we are pleased at the fact that the Navy may actually hit its 6 percent 
capital investment requirement for its installation sustainment account 
in the fiscal year 2014 budget. We look forward to supporting that 
commitment. These are good first steps, but more will need to be done 
in the years ahead to ensure that all of our public shipyards are 
modernized to meet their responsibilities. We are eagerly awaiting the 
shipyard modernization plan that this committee required from the Navy 
in the NDAA for Fiscal Year 2012. I understand it is on its way to us 
soon. Will you commit to pressing the Navy to fully fund the 
investments needed to implement this important modernization plan to 
the extent practicable?
    Secretary Hagel. The report to Congress on the Navy's Investment 
Plan for the Modernization of Naval Shipyards was delivered today. It 
outlines Navy's overall investment strategy to ensure the long-term 
continued mission effectiveness of naval shipyards.
    Given the critical nature of naval shipyard facilities and 
requirements for uninterrupted service for aircraft carrier and 
submarine depot maintenance, the Navy recognizes the importance of 
infrastructure investments to improve mission-essential facilities as 
quickly as possible.
    I will commit to pressing the Navy to fund shipyard investments, 
which is challenged by the current lack of predictability of future DOD 
budgets and competing requirements. Within the unpredictable 
environment, the Navy will address the investments on a year-to-year 
basis, balancing shipyard investments with those of the operating 
fleets.

                     GAY AND LESBIAN SERVICEMEMBERS

    26. Senator Shaheen. General Dempsey, is there any reason to 
believe that gay and lesbian servicemembers are in any less danger than 
their straight counterparts during their time in uniform or their 
deployments overseas?
    General Dempsey. No. There is no reason to believe that gay and 
lesbian servicemembers are in any less danger than their straight 
counterparts during their time in uniform or their deployments 
overseas.
    All servicemembers, regardless of sexual orientation, face similar 
challenges and threats during their time in uniform or when deployed 
overseas. With our All-Volunteer Force, all servicemembers will 
continue to be eligible for worldwide assignment without consideration 
of sexual orientation.

    27. Senator Shaheen. General Dempsey, do you see any military 
reason that the families and spouses of gay and lesbian servicemembers 
should not have access to compensation or benefits should their loved 
ones be injured or killed?
    General Dempsey. No, I do not. Currently there are 20 member-
designated benefits that can be extended to same-sex domestic partners; 
12 of these benefits are survivor and death benefits available to the 
same-sex domestic partner of the military member if he/she designates 
the same-sex domestic partner as a beneficiary. On February 11, 2013, 
the Secretary of Defense announced the extension of 22 additional 
benefits for same-sex domestic partners of military members, and, where 
applicable, the children of the same-sex domestic partner. However, if 
the law governing the benefit defines the term ``dependent'' to be a 
spouse, then the Defense of Marriage Act prohibits us from extending 
the benefit to a same-sex domestic partner. DOD is committed to 
extending benefits to same-sex domestic partners to the maximum extent 
allowable under current law.

    28. Senator Shaheen. Secretary Hagel, can you think of any other 
segment of individuals serving in our military that are entitled to 
fewer benefits than their peers based on their lifestyle?
    Secretary Hagel. Other than single individuals not being entitled 
to the same benefits as individuals with family members, no I cannot. 
For example, married servicemembers qualify for a higher basic 
allowance for housing rate than unmarried members without dependents. 
In this regard, under the law some benefits require gay and lesbian 
servicemembers to be treated the same as single servicemembers, despite 
being in committed relationships. If the law governing the benefit 
defines the term ``dependent'' to be a spouse, then the Defense of 
Marriage Act prohibits us from extending the benefit to a same-sex 
domestic partner.
    To address this inequity, on February 11, 2013, then-Secretary 
Panetta announced the extension of additional benefits for same-sex 
domestic partners of military members, and where applicable, the 
children of the same-sex domestic partner, where the Department could 
extend benefits by policy. In advancing this policy change, then-
Secretary Panetta committed DOD to extending benefits to same-sex 
domestic partners to the maximum extent allowable under current law.

    29. Senator Shaheen. Secretary Hagel, do you foresee any managerial 
problems in providing benefits to the families of gay and lesbian 
servicemembers?
    Secretary Hagel. No, I do not. Implementation of the benefits 
announced on February 11, 2013, requires substantial policy revision, 
training, and, in the case of identification cards, changes to computer 
applications. DOD and the Military Services are currently working on 
these revisions and developing mechanisms to ensure the force is 
informed of the pending changes. It is my expectation that DOD and the 
Military Services will make every effort to ensure specified benefits 
will be available for same-sex domestic partners of military members, 
and, where applicable, the children of same-sex domestic partners.

                       VIRGINIA-CLASS SUBMARINES

    30. Senator Shaheen. Secretary Hagel, DOD's submarine capability 
will be a critical asset in the rebalance to the Asia-Pacific 
especially in light of nations in that region (China, North Korea, 
India, and Pakistan) placing an increased emphasis on developing their 
undersea programs. I am pleased to see that DOD was able to protect its 
investments in ship construction despite the difficult challenges 
imposed by sequestration. The procurement of two Virginia-class 
submarines in fiscal year 2014 with a plan to procure a total of 10 
over the next 5 years signals your commitment to maintaining a 
preeminent submarine force. What effect will sequestration have on 
DOD's ability to meet its shipbuilding goals?
    Secretary Hagel. DOD is currently assessing the impact of 
sequestration on its shipbuilding goals as part of a review of the 
Defense Strategy. Upon completion of the review, DOD will balance the 
level of risk across warfighting and support capabilities for the full 
range of potential military operations and prioritize procurements to 
meet those requirements. Changes to ship force structure numbers and 
types of ships will be evaluated based upon the results of this review.

    31. Senator Shaheen. General Dempsey, I mentioned the undersea 
developments within the Asia-Pacific region. Do you feel confident that 
the Virginia-class submarine procurement plan and proposed enhancements 
are adequate to meet 21st century demands of our submarine force?
    General Dempsey. Yes. The current Virginia-class submarine 
procurement plan supports a post-2020 SSN force of sufficient size to 
meet the 21st century demands of our submarine force. We plan to 
procure 30 Virginia-class submarines to maintain a post-2020 force of 
48 attack submarines.

    COOPERATIVE THREAT REDUCTION IN THE MIDDLE EAST AND NORTH AFRICA

    32. Senator Shaheen. Secretary Hagel, you recently announced that 
the administration is utilizing DOD's CTR authorities to work with 
Jordan to help them counter the threat from Syria's chemical weapons. I 
believe that the Middle East and North Africa region represent a 
growing proliferation challenge when it comes to weapons of mass 
destruction (WMD)-related materials. I believe we should be supporting 
more CTR and nonproliferation programs in this region. Do you believe 
the United States is doing enough to work with our partners in the 
region to build their capacity to prevent, detect, or interdict WMD-
related materials--particularly with respect to Syria's chemical 
weapons stockpile?
    Secretary Hagel. The U.S. Government is undertaking a significant 
effort to enhance the capacity of partners to mitigate the threat from 
Syria's chemical weapons stockpile. DOD's CTR program plays a key role 
in these efforts. In October 2012, then-Secretary Panetta, with the 
concurrence of the Secretary of State, exercised the authority to 
initiate CTR programs outside the area of the former Soviet Union, and 
specifically in the Middle East region to enable activities intended to 
mitigate threats from Syria's chemical weapons program. The CTR 
program's new work builds on an existing DOD CTR program to enhance 
Iraq's biosecurity capacity. DOD intends to use the CTR program's full 
suite of capabilities to enhance partner capacity through both training 
and equipment. DOD will continue to coordinate closely with the 
Department of State and Department of Energy, both of which are also 
undertaking important nonproliferation efforts in the region. Although 
WMD development and proliferation remain persistent threats in the 
Middle East, North Africa, and elsewhere, DOD seeks to advance its 
highest CTR priorities and is continuously evaluating how to apply 
available resources to address the most immediate threats most 
effectively.

    33. Senator Shaheen. Secretary Hagel, given the threat posed by 
Syria's chemical weapons and other proliferation challenges in the 
region, can we anticipate additional CTR programming requests in the 
Middle East and North Africa?
    Secretary Hagel. The fiscal year 2014 budget submitted by the 
President requested $528.5 million for the CTR program, which includes 
current requirements in the Middle East and North Africa. However, if 
the situation in Syria changes dramatically, such that the U.S. 
Government had a Syrian partner with which it could undertake efforts 
to secure and destroy Syria's chemical weapons stockpile, then the CTR 
program might face additional requirements. In that circumstance, DOD 
would seek to fund new requirements using available resources first, 
but would engage Congress if additional appropriations became 
necessary.

    34. Senator Shaheen. Secretary Hagel, does DOD have all the 
authorities it needs to ramp up CTR efforts in the Middle East and 
North Africa?
    Secretary Hagel. Yes. The Middle East determination that Secretary 
Panetta signed in October 2012, with the concurrence of Secretary 
Clinton and Secretary Chu, enables DOD to help regional partners 
mitigate the threat from Syria's chemical weapons through the full 
suite of CTR program tools. DOD's CTR program also provides the ability 
to help Libya secure and destroy its chemical weapons stockpile, and to 
enhance Iraq's biosecurity capabilities. The applicable determinations 
reflect the DOD CTR program's current priorities and validated 
opportunities. If the Department identifies additional priorities in 
the region not already covered by my Department of State and Department 
of Energy counterparts, and if such potential opportunities for 
cooperation were validated, DOD could address these opportunities by 
proposing additional determinations to expand the CTR program 
accordingly.
                                 ______
                                 
               Questions Submitted by Senator Angus King

                             REVERSIBILITY

    35. Senator King. Secretary Hagel, last year's Defense Strategic 
Guidance, ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense,'' discussed the need to build the concept of 
reversibility into defense investment decisions we make in case our 
current assumptions about the future security environment are not 
valid. It specifically said we need to apply this concept to decisions 
we make concerning the industrial base, our people, our Active-Reserve 
component balance, our posture, and our partnership emphasis. How do 
you define reversibility, and how does the fiscal year 2014 budget 
request and Future Years Defense Program (FYDP) embody this concept?
    Secretary Hagel. Reversibility applies to DOD's ability to make 
course corrections in response to strategic, economic, or technological 
change. It is very hard to predict the future in this current 
environment. It takes years to recover a particular skill set when 
lost, if ever. That fact has been factored into DOD's program and 
budget decisions. So even though a particular program may have been 
weak, or something we thought about doing away with, if in doing away 
with it we would completely lose a capability or the ability to have 
that capability in the future on a timely or responsive basis, we have 
input of what to do in that case. The guiding principle of 
reversibility has spurred DOD to try to maintain investments in science 
and technology as well as research and development.

                    DEFINITION OF KEEPING THE FAITH

    36. Senator King. General Dempsey, what are your thoughts about 
what it means to you and the Joint Chiefs of Staff to keep faith with 
our men and women in uniform, their families, and veterans? 
Specifically, please discuss the concept of keeping faith in the 
context of military pay, benefits, and health care so that this 
committee can understand your views as we consider proposals related to 
military compensation, TRICARE, and other personnel issues.
    General Dempsey. Yes, ``Keeping Faith with Our Military Family'' is 
one of the four priorities I established upon taking office. The most 
important way we keep faith is by making sure our soldiers, sailors, 
airmen, marines, and coastguardsmen are the best trained, led, and 
equipped when we send them into harm's way.
    We should also honor our commitments to just and sustainable pay 
and compensation. I think we can reform both in a way that: (1) ensures 
long-term viability of an All-Volunteer Force; (2) fosters successful 
recruiting, retention, and military careers; (3) ensures quality of 
life for members, retirees, and families; and (4) achieves fiscal 
sustainability. We should pursue such reform comprehensively and at 
once if possible to remove prolonged uncertainty.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                          HEALTH OF THE FORCE

    37. Senator Inhofe. General Dempsey, you recently indicated to 
Congress that in your assessment of the military readiness, there are 
several worrisome health of the force indicators, but you did not 
elaborate further. Can you provide a detailed description of the 
indicators that are causing you concern and their anticipated trends 
over the next 5 years and for each one, can you suggest remedies to 
alleviate your concerns?
    General Dempsey. Yes, there are a number of health of force 
indicators that make me concerned. Among them are suicide rates, sexual 
assault, behavioral/mental health issues, divorce rates, and retention 
rates. The Joint Staff continues to work with the Office of the 
Secretary of Defense, the Services, and Congress to implement holistic 
solutions to address each of these problem areas. We will continue to 
monitor these indicators and seek every opportunity to adopt/evolve our 
policies and practices. Senior leaders across all of the Services are 
unified in this effort.

                          DEFENSE ACQUISITION

    38. Senator Inhofe. Secretary Hagel and General Dempsey, in 
January, Admiral Winnefeld, in his role as head of the Joint 
Requirements Oversight Council (JROC), authored a memorandum which 
stated: ``the JROC encourages Program Managers, Program Executive 
Officers (PEO), and Component Acquisition Executives, in coordination 
with the requirements sponsor, to officially request requirements 
relief, through the appropriate requirements validation authority, 
where Key Performance Parameters (KPP) appear out of line with 
appropriate cost-benefit analysis.'' Obviously, this reform was 
designed to overcome situations such as when we spend 15 percent of a 
program's budget to get the last 3 percent of KPP. Though this reform 
is new, does DOD have any preliminary examples of how this reform has 
positively affected the acquisition process?
    Secretary Hagel. Since the Vice Chairman, in his role as head of 
the JROC, promulgated the KPP relief memorandum in January 2013, the 
Air Force was granted KPP relief for the required number of concurrent 
Joint Space Operations Center Mission System operators, which helped 
the program to stay on schedule; and the Army's Apache Block III 
program ground proximity hover characteristics were reset to a level 
more in line with observed mission profiles. Admiral Winnefeld and Mr. 
Kendall are also working closely together to set KPPs at levels to 
provide effective and affordable capability to the warfighter in 
programs such as the Navy's Air and Missile Defense Radar program, and 
the Air Force Three Dimensional Expeditionary Long Range Radar program.
    General Dempsey. Shortly after the release of this particular JROC 
memorandum, the Air Force requested KPP relief for the minimum number 
of users supported by the Joint Space Operations Center Mission System. 
The JROC reduced the threshold value for the number of concurrent users 
and consequently enabled the Air Force to meet the timeline for 
increment 1 Milestone C.
    Additionally, in February the Army brought its Apache Block III 
program back to the JROC for relief of its hover-out-of-ground-effect 
capability. The JROC approved the proposed change which allows for a 
slight decrease in the required performance to account for expected 
engine wear over the life of the program.

    39. Senator Inhofe. Secretary Hagel and General Dempsey, what are 
your thoughts on the potential of this reform?
    Secretary Hagel. Seeking KPP relief is not a new option. For 
instance, in 2009 the Navy sought and was granted acoustics related KPP 
relief for the Virginia-class submarine to bring those parameters more 
in line with mission requirements. However, the Vice Chairman's 
memorandum, as well as other directive and process revisions, have 
served to strengthen the coordination and synchronization of our 
activities to control cost and/or schedule.
    General Dempsey. This initiative and similar efforts, like the 
pending update to the Department of Defense Instruction (DODI) 5000.02 
and the revision of the Joint Capabilities Integration Development 
System (JCIDS) guidance documents, strive to improve the coordination 
between the requirements and acquisition processes. By building a more 
synchronous, dynamic, and flexible relationship between military 
requirements, acquisition, and budgetary efforts, DOD is better 
positioned to realize timely delivery of warfighter capability at a 
reasonable cost.

    40. Senator Inhofe. Secretary Hagel and General Dempsey, how can 
DOD's leadership encourage such reforms in the future?
    Secretary Hagel. DOD's Better Buying Power 2.0 initiative provides 
a framework and specific tasks to continuously examine our 
sequestration processes to drive efficiency and effectiveness, measure 
progress, and capture lessons learned. To ensure leadership engagement, 
the Vice Chairman of the Joint Chiefs of Staff; Director, Cost 
Assessment and Program Evaluation; and Under Secretary of Defense for 
Acquisition, Technology, and Logistics will hold Quarterly Leadership 
Forums to ensure leadership visibility and engagement in process 
improvement. The Better Buying Power 2.0 initiative encourages the 
Services to emulate these cross-authority discussions within their 
Departments.
    General Dempsey. We believe that maintaining focus on the changes 
put in place recently and continuing to improve the requirements 
process and its interaction with acquisition and resourcing will be key 
to future successes. The review and revision of the Chairman of the 
Joint Chiefs of Staff Instruction (CJCSI) 5123.01 (JROC Charter), CJCSI 
3170.01 (JCIDS Instruction), and the JCIDS Manual is ongoing. They will 
continue to emphasize flexibility and speed in requirements review and 
validation, and when necessary, reassessment and adjustments to 
previously validated documents when overreaching or poorly crafted 
requirements inhibit acquisition program success.

    41. Senator Inhofe. Secretary Hagel and General Dempsey, are there 
any incentives for program managers and PEOs to request relief?
    Secretary Hagel. Better Buying Power 1.0 put affordability 
constraints on programs over 2 years ago. The DODI 5000.02, currently 
in coordination, stipulates affordability goals, treated as KPPs, at 
Materiel Development Decision and Milestone A, and places affordability 
caps at Pre-Engineering and Manufacturing Development and Milestone B 
reviews. These affordability constraints force prioritization of 
requirements, drive performance and cost trades, and ensure that 
unaffordable programs do not enter the acquisition process. If poorly 
designed KPPs are driving unacceptable cost growth, the PEO has a very 
strong incentive to seek relief or face potential program cancellation.
    General Dempsey. The incentive for the program manager and PEO is 
to develop a capability that meets the warfighters' needs on time and 
within budget. By focusing program resources on the achievement of a 
single performance parameter, the ability to enhance the overall system 
capability is diminished. Therefore, in order to provide the best 
technically feasible solution to the warfighter while remaining within 
budget, it is in the PEO's best interest to request requirements relief 
when appropriate.
    The Marine Corps' request for KPP relief with the Joint Air Ground 
Missile (JAGM) offers an exemplar of a program manager willing to seek 
requirements relief. The JROC-approved KPP relief for JAGM range was 
based on an updated acquisition strategy employing incremental 
thresholds for range values. The new range values still satisfied the 
primary need to provide better than current Hellfire capabilities and 
allowed the program to remain affordable without driving delivery 
delay.

                          DEFENSE ACQUISITION

    42. Senator Inhofe. Secretary Hagel and General Dempsey, in June 
2011, GAO authored a report titled, ``DOD Weapon Systems: Missed Trade-
off Opportunities During Requirements Reviews.'' In this report, GAO 
recommended that the JROC establish a mechanism to review analysis of 
alternatives (AOA) results earlier in the acquisition process. The JROC 
has adopted this recommendation. What are the advantages of this 
change?
    Secretary Hagel. Previously, there was an extended gap between JROC 
reviews during which capability requirements were developed, refined, 
and endorsed. The formal review of AOA results brings all stakeholders 
together including Joint Staff, Cost Assessment and Program Evaluation, 
AT&L, and the Services, to assess the requirements analysis and 
proposed alternatives, especially regarding cost and technology risk, 
before performance parameters are finalized in the and Capability 
Development Document (CDD). This provides a great advantage to 
acquisition activities that follow, especially conveying vetted and 
executable program requirements to industry in the Requests for 
Proposals.
    General Dempsey. An upfront review of the AOA provides the JROC an 
opportunity to review the relative cost, capability, and strategic risk 
associated with each alternative evaluated and the preferred solution 
proposed out of these studies. This is a key enabler for the JROC to 
execute its statutory responsibilities under 10 U.S.C., section 181. 
Additionally, senior decisionmakers have the opportunity to assess non-
materiel approaches as alternatives or in conjunction with materiel 
solutions. A recent example was the review of the Unmanned Carrier 
Launched Airborne Surveillance and Strike (UCLASS) Initial Capabilities 
Document (ICD) and AOA which resulted in reducing several capability 
requirement values to deliver proposed solutions to the warfighter 
quicker and at lower costs. The entire effort is to ensure DOD delivers 
the required capabilities to our warfighters at the right time, in the 
right quantity, for the best price.

    43. Senator Inhofe. Secretary Hagel and General Dempsey, is DOD 
better able to explore non-materiel solutions to military requirements?
    Secretary Hagel. The iterative nature of the JCIDS process provides 
avenues for sponsors to identify and employ non-materiel solutions to 
satisfy validated capability gaps. When prudent, the JROC will also 
assess non-materiel options before validating a requirement for a 
materiel solution. For example, this was the case when the JROC 
reviewed DOD nuclear sampling requirements. After approving the Mobile 
Nuclear Air Sampling Initial Capabilities Document, the JROC 
recommended pursuit of non-materiel solutions in lieu of additional 
aircraft procurement.
    General Dempsey. The iterative nature of the JCIDS process provides 
avenues for sponsors to identify and employ non-materiel solutions to 
satisfy validated capability gaps. When prudent, the JROC will also 
assess non-materiel options before validating a requirement for a 
materiel solution. Such was the case when the JROC reviewed DOD nuclear 
sampling requirements. After approving the Mobile Nuclear Air Sampling 
ICD, the JROC recommended pursuit of non-materiel solutions in lieu of 
additional aircraft procurement.

    44. Senator Inhofe. Secretary Hagel and General Dempsey, is DOD 
better able to determine a materiel solution which provides the best 
equipment to warfighters, while also providing the best value to 
taxpayers?
    Secretary Hagel. Refinements in both requirements and acquisition 
processes, and components' active engagement in seeking Joint 
solutions, have made DOD more effective in looking across capability 
portfolios to procure effective weapon systems at lower cost. 
Spearheaded by better buying power initiatives, our performance in 
acquisition is improving, and mechanisms are in place to sustain 
improvement in the severe budget-constrained environment.
    General Dempsey. The JROC is looking at capabilities in portfolios 
more than ever, which is driving DOD away from each problem having a 
distinct solution. For example, the JROC reviewed potential overlapping 
requirements for Service specific surveillance radar capabilities. 
After providing some requirements relief, the JROC determined that the 
requirements for Air Forces' three-dimensional long-range radar and the 
Marine Corps' Ground/Air Task-Oriented Radar provided similar 
capabilities to the joint force. The JROC continues to identify ways to 
develop cost savings from these redundancies as the programs continue 
through acquisition development.
    Additionally, the JROC directed an assessment of Ground Combat 
Vehicle (GCV) and Amphibious Combat Vehicle (ACV) commonalities. After 
a comprehensive review, the JROC determined a common platform for both 
Services was not achievable due to the differences in mission. However, 
the JROC identified common technical areas and subsystems which could 
provide cost savings. By employing a portfolio perspective when 
validating requirements, the JROC is better able to define requirements 
which address the warfighters' needs more efficiently and effectively.

    45. Senator Inhofe. Secretary Hagel and General Dempsey, are there 
examples where as a result of early consideration of the AOA, DOD 
changed its approach?
    Secretary Hagel. The AOA reviews have served to increase Joint 
scrutiny for all programs as they progress through the requirements and 
acquisition processes. In the case of the Army's GCV, the set of 
preferred performance parameters which were identified in AOA review 
were carried forward as the program moved into the acquisition process. 
This early extensive analysis enables opportunities for expanded 
performance trade-space, technology risk reduction, and cost control.
    General Dempsey. The Navy's UCLASS was on a track to provide one 
orbit's worth of high end capability at a premium cost. After JROC 
review, UCLASS is now well-placed within the broader portfolio of 
unmanned ISR aircraft with respect to performance, capability, and 
basing. As a result, the program is now positioned to provide a larger 
number of lower end, long-range platforms carrying a variety of agile 
payloads that are common to other platforms and which support a variety 
of missions.

    46. Senator Inhofe. Secretary Hagel and General Dempsey, what other 
reforms in this area is DOD considering so that decisions such as these 
are considered earlier in the acquisition process?
    Secretary Hagel. Admiral Winnefeld and Mr. Kendall lead a dynamic 
collaboration between the Joint Staff and the Office of the Secretary 
of Defense to foster analytic rigor and informed decisions earlier. 
This helps to ensure that acquisition programs start on a solid footing 
with executable and affordable requirements. The JCIDS and Better 
Buying Power-driven Defense Acquisition revisions provide the framework 
for implementing that shift to earlier in the acquisition process.
    General Dempsey. DOD is striving to push capability gap information 
out to industry earlier in the acquisition process and provide them 
insight into what DOD is considering for future capabilities. By 
partnering early with industry, DOD is better able to leverage industry 
S&T efforts and, informed by early S&T development, provide feasible 
and affordable options for acquisition decisions. A recent example of 
this new approach is the Army's Future of Vertical (FVL) Initial 
Capabilities Document which defined capability gaps in the 2030 and 
beyond joint operational environment. Combatant command identified 
capability gaps will be shared with industry early in the assessment 
process providing a starting point for requirements, determination, and 
cost-informed trades.

                          DEFENSE ACQUISITION

    47. Senator Inhofe. Secretary Hagel and General Dempsey, the Weapon 
Systems Acquisition Reform Act of 2009 made important and beneficial 
changes to the acquisition process. This includes statutory changes to 
the mission of the JROC. One such change was to remove the phrase the 
JROC should ``ensur[e] the consideration of trade-offs among cost, 
schedule, and performance objectives for joint military requirements'' 
and insert ``in ensuring that appropriate trade-offs are made among 
life-cycle cost, schedule, and performance objectives, and procurement 
quantity objectives, in the establishment and approval of military 
requirements.'' What has been the effect of this statutory change? Most 
importantly, does the change enable DOD to better strike a balance 
between providing the best equipment to the warfighter while ensuring, 
if a materiel solution is chosen, that it is affordable and sustainable 
over the long-term?
    Secretary Hagel. The JROC is increasingly focused on program 
affordability over the lifecycle when assessing and endorsing joint 
military requirements. This serves to move consideration of trade-offs 
among cost, schedule, performance, and quantity further to the left in 
the acquisition process. Collaboratively setting parameters correctly 
early in program development is a key objective of both requirements 
and acquisition authorities and processes.
    General Dempsey. In short, the answer is yes. We are focused on 
life cycle costs, especially operations and support where most costs 
are incurred. Affordability is becoming more important and we expect to 
provide more guidance in this area in the upcoming DODI 5000.02 
revision.

    48. Senator Inhofe. Secretary Hagel and General Dempsey, what 
additional changes should this committee consider to the statute to 
better achieve that goal?
    Secretary Hagel. The Department has submitted a legislative 
proposal that would amend section 2366b(a) of title 10 U.S.C which 
would allow for a more effective sequence of acquisition events and 
improve the operation of the DOD acquisition system. This sequence 
would have the formal Milestone B occurring when the Milestone Decision 
Authority approves the program plan and authorizes the release of the 
solicitation to industry and the Preliminary Design Review would be 
required prior to contract award.
    General Dempsey. We believe that the 2013 NDAA changes provide the 
statutory guidance needed to move forward and improve upon the way we 
do business. We are already updating our guidance documents to ensure 
this is a focus in future requirements, acquisition, and resourcing 
decisions.

    49. Senator Inhofe. Secretary Hagel and General Dempsey, the JROC 
has adopted new management procedures where the number of individuals 
who are invited to participate in JROC meetings has been significantly 
reduced. Has this increased the effectiveness and timeliness of the 
requirement determination process, and if so, how?
    Secretary Hagel. Admiral Winnefeld instituted the smaller forum to 
enable frank and open discussion among top leadership addressing 
shaping of the future force. The Office of the Secretary of Defense 
advisors to the JROC, particularly USD(AT&L), Director, CAPE, and 
USD(C) play a key role in those forums to produce informed, 
coordinated, and timely decisions on the Nation's defense capabilities. 
As a result, the JROC has become more agile and responsive, limiting 
its agenda and participation to top level leadership decision-making, 
and increasingly driving issues analysis and coordination to lower 
level preparatory forums.
    General Dempsey. We believe this change is extremely positive and 
has resulted in more frank, open, and joint force-focused discussions 
by the JROC. Senior leadership is having a dramatic impact on shaping 
the joint force of the future. Critical issues are address for more 
timely and informed decisions as programs move through the resourcing 
and acquisition processes. Additionally, regular attendance of the 
statutory advisors, in particular USD(AT&L), D/CAPE, and USD(C), at the 
JROC forums has made coordination between requirements, acquisition, 
and resourcing processes more effective.

                              AUDITABILITY

    50. Senator Inhofe. Secretary Hagel and General Dempsey, DOD is 
required to achieve audit readiness for its Statement of Business 
Resources (SBR) by September 30, 2014. In addition, by September 30, 
2017, DOD is required to achieve audit readiness for its full financial 
statement. In order to assist in achieving these legal requirements, 
DOD has published a Financial Improvement and Audit Readiness (FIAR) 
Guidance. This FIAR Guidance outlines a process of four waves for 
achieving DOD's legal requirements. Each wave has objectives which must 
be achieved before progressing to the next wave. For example, upon 
successful completion of Wave 2, DOD's SBR must be able to be audited. 
In addition, at the conclusion of Wave 4, DOD's full financial 
statement will be audited. What is less certain is the specific 
timeline for accomplishing the objectives of Waves 1 and 3. What are 
the specific timelines for achieving the requirements of Waves 1 and 3, 
and is DOD on schedule?
    Secretary Hagel. The Department's incremental strategy for 
achieving audit readiness and the roadmap to auditable financial 
statements are contained in the DOD FIAR Guidance, which is being 
followed by all DOD Components and is detailed in their financial 
improvement plans. The FIAR Strategy is comprised of four waves. 
Completion of Wave 2 is dependent on the successful completion of Wave 
1, and the completion of Wave 4 is dependent on the successful 
completion of Waves 2 and 3.
    Specific information relating to the four waves and DOD's status on 
each wave follows:

          Wave 1 - Appropriations Received Audit has been completed by 
        all DOD Components and validated as audit ready. The completion 
        of this milestone was important, demonstrating that the funds 
        appropriated to the Department are properly recorded and can be 
        presented in the manner required by a financial audit. As such, 
        Wave 1 was an important first step to enable completion of Wave 
        2.
          Wave 2 - Statement of Budgetary Resources Audit builds on and 
        expands the FIAR activity of Wave 1 by focusing testing and 
        corrective activity on the business and financial processes 
        that impact the SBR, which is also necessary to successfully 
        complete Wave 4. All DOD Components are currently working on 
        Wave 2 and are on track to achieve audit readiness of these 
        processes by September 30, 2014, as required by the NDAA for 
        Fiscal Year 2012. Audits are scheduled to begin in fiscal year 
        2015.
          Wave 3 - Mission Critical Asset Existence and Completeness 
        Audit requires DOD Components to improve practices, processes, 
        controls, and systems to ensure mission critical assets are 
        ready for existence and completeness audits. Since the 
        existence and completeness of mission critical assets was 
        established as a FIAR priority in August 2009, work is well 
        underway and 53 percent of the assets are either under audit, 
        validated as audit ready, or asserted as audit ready. 
        Completing Wave 3 prior to completing Wave 4 is an important, 
        incremental step and essential to achieving full audit 
        readiness. All DOD Components with mission critical assets are 
        currently working Wave 3. Plans indicate incremental completion 
        with sufficient time to support Wave 4, and in all cases prior 
        to September 30, 2017.
          Wave 4 - Full Audit Except for Existing Asset Valuation, all 
        work to improve processes, controls, and systems for Waves 1-3 
        also impact achieving the objectives of Wave 4. The Department 
        is presently updating the DOD FIAR Guidance to document the 
        specific steps needed to complete Wave 4 and achieve full audit 
        readiness.

    The Department's updated plans and timelines for completing Waves 
2, 3, and 4 are contained in the May 2013 FIAR Plan Status Report that 
was delivered to Congress on May 15, 2013.
    General Dempsey. I fully support the intent of full auditability of 
the Joint Force to include achieving audit readiness for both the Joint 
Staff Statement of Budgetary Resources as well as the Joint Staff's 
full financial statement. The Joint Staff is closely following DOD's 
FIAR Guidance and the schedule prescribed by DOD. We are currently on 
schedule to meet the timeline and objectives of Waves 1 and 2.

  RISK MITIGATION PLANS IN RESPONSE TO THE CHAIRMAN'S RISK ASSESSMENT

    51. Senator Inhofe. Secretary Hagel, Congress requires the Chairman 
of the Joint Chiefs to prepare an annual Chairman's Risk Assessment 
(CRA) and requires you to accompany the assessment with a plan to 
mitigate significant risks or deficiencies identified in the 
assessment. Both documents are required pursuant to section 153 of 
title 10, U.S.C., to be submitted by February 15 of each year. We 
received the CRA this year on April 10, 2013. In your mitigation plan, 
you note that while sequestration has occurred, your plan does not 
account for the severe fiscal effects imposed on DOD. As we review the 
budget request for fiscal year 2014 for DOD and the potential 
devastating impact of the budget caps imposed by the BCA, it is 
imperative that we receive a risk mitigation plan that takes into 
account current laws regarding future defense spending. Therefore, in 
addition to the information requested by other members of this 
committee regarding the impact on national security of sequestration in 
fiscal year 2014, can you please provide a revised risk mitigation plan 
assuming the budget caps imposed by current law on security accounts 
are maintained?
    Secretary Hagel. The Department is currently in the process of 
conducting a SCMR, which will examine the choices that underlie the 
defense strategy, posture, and investments, identify the opportunities 
to more efficiently and effectively structure the Department, and 
develop options to deal with the wide range of future budgetary 
circumstances. It will be informed by the strategy that was put forth 
by the President a year ago, and DOD will keep strategy in mind during 
every step of this review. Results of the review are expected to 
provide DOD with a holistic set of strategic choices to preserve and 
adapt the defense strategy--to include possible adjustments to military 
personnel levels--if sequestration is not de-triggered. The results of 
the SCMR will help define the risk associated with living within the 
budget caps imposed by the BCA and allow DOD to make informed decisions 
about how best to mitigate that risk, if possible.

                   NAVAL STATION GUANTANAMO BAY CUBA

    52. Senator Inhofe. Secretary Hagel, we recently received a 
notification from DOD of the intent to spend over $200 million for the 
construction of new detainee facilities and support facilities for the 
Joint Task Force at Naval Station Guantanamo Bay, Cuba (JTF-GTMO). As 
of now, these projects are not authorized by Congress and I would 
strongly recommend that Congress be allowed to review the policy 
implications of these initiatives prior to the expense of taxpayers' 
funds. Is your plan to request a formal authorization from Congress 
before carrying out the award of any construction projects?
    Secretary Hagel. DOD is currently in the process of assessing 
whether to repair or to replace certain facilities that have exceeded 
their anticipated service life (in some cases by many years). DOD will 
abide by its obligations to keep Congress informed, consistent with 
current military construction authorities. The projects being 
considered would replace deteriorating structures, consolidate 
facilities, gain efficiencies by reducing detainee movements, and 
provide quality of life improvements for servicemembers supporting the 
Joint Task Force mission.

    53. Senator Inhofe. Secretary Hagel, what status of detainees will 
the new facility house?
    Secretary Hagel. All detainees at Guantanamo are held as 
unprivileged enemy belligerents under the authority provided by the 
2001 Authorization for Use of Military Force, as informed by the laws 
of war. The new detainee facility under consideration would house High-
Value Detainees currently held in Camp 7 by JTF-GTMO.

    54. Senator Inhofe. Secretary Hagel, for how long will these 
projects be built to last?
    Secretary Hagel. These facilities will be built to Unified 
Facilities Criteria (UFC) 1-201-01 (Non-Permanent in support of 
Military Operations) standards. Therefore, I expect these facilities to 
last 7 to 10 years.

    55. Senator Inhofe. Secretary Hagel, what is the current 
administration policy about housing detainees at GTMO in the future?
    Secretary Hagel. The President and the administration are committed 
to closing the DOD Detention Facilities at JTF-GTMO. Until such a time, 
DOD will continue to hold detainees in a manner that reflects the best 
practices for detention in non-international armed conflict and 
complies both with Common Article 3 of the Geneva Conventions and 
applicable U.S. law and policy. As a function of this continuing 
requirement, DOD is assessing whether to repair or replace certain 
facilities built for temporary use and far exceed their anticipated 
service life.

    56. Senator Inhofe. Secretary Hagel, what is the administration 
policy about where to detain al Qaeda and its affiliates?
    Secretary Hagel. Throughout its history, the United States held 
detainees captured during armed conflict in various overseas theaters, 
as well as on U.S. soil. Historically, the particular circumstances of 
each conflict determined the appropriate detention location. In similar 
fashion, decisions regarding where to detain members of al Qaeda and 
associated forces are made on a case-by-case basis, in consultation 
with the Department's interagency partners.

    57. Senator Inhofe. Secretary Hagel, what is the proper venue for 
trial, if appropriate?
    Secretary Hagel. A decision regarding the appropriateness of a 
venue in which to prosecute an alleged terrorist should be made based 
on the unique facts and circumstances of that particular case.
    Speaking generally, with regard to the prosecution of alleged 
terrorists, it is essential that the government has the ability to use 
both military commissions and Federal courts as tools to keep this 
country safe. Both Federal courts and the reformed military commissions 
can and must be available to disrupt terrorist plots and activities, to 
gather intelligence, and to incapacitate terrorists through prosecution 
and conviction. When determining which system to use to prosecute a 
particular detainee, the Department remains relentlessly practical, 
focusing exclusively on which option will produce a result that best 
serves national security interests in the unique facts and 
circumstances of that case.

                     TRICARE FEE INCREASE PROPOSALS

    58. Senator Inhofe. Secretary Hagel, in the fiscal year 2014 budget 
request, DOD's TRICARE Prime and TRICARE for Life enrollment fee 
proposals provide for fee increases based on each beneficiary's gross 
military retired pay. Why did you choose this method to calculate those 
specific fee increases?
    Secretary Hagel. DOD's benefit reform proposals are based on one's 
ability to pay, as calculated by gross retirement pay. The higher the 
gross retirement pay, the higher the enrollment fees, but only to a 
point. DOD instituted both a floor and ceiling to help ensure that no 
one pays too much or too little. An additional feature of this method 
is that it provides for a gradual increase rather than a cost cliff 
that can occur with a tier-based system. When fully implemented, the 
annual calculation is a simple 4 percent of gross retired pay. Even 
after benefit reform, TRICARE will still be an incredible value. Out-
of-pocket costs remain far below the percentage of cost-sharing 
experienced in 1995, even with proposed changes. Moreover, DOD will 
protect the most vulnerable beneficiaries from proposed changes in 
cost-shares.

    59. Senator Inhofe. Secretary Hagel, how much will it cost DOD to 
implement all of the new TRICARE fee increases that you propose?
    Secretary Hagel. DOD anticipates $27 million in one-time, 
additional administrative costs. This includes change orders for the 
TRICARE contractors, system changes, and other transition costs needed 
to effect the changes. The savings estimates for the proposals were 
reduced by this amount.

    60. Senator Inhofe. Secretary Hagel, did DOD consider the 
additional administrative costs (systems changes, contract 
modifications, et cetera) required to implement new TRICARE fee 
increases and how do those costs affect your estimated savings from fee 
increases in fiscal year 2014 and the out-years?
    Secretary Hagel. The savings estimates for the proposals were 
reduced by $27 million in anticipation of one-time additional 
administrative costs. This includes change orders for the TRICARE 
contractors, system changes, and other transition costs needed to 
effect the changes.

    61. Senator Inhofe. Secretary Hagel, were health program and policy 
experts within DOD given an opportunity to consult on the fee increase 
proposals or were DOD's proposals simply the result of a budget-driven 
exercise by the administration?
    Secretary Hagel. Health benefit reform within DOD was shaped over 
the last 8 years by many program and policy experts, Members of 
Congress, constituencies, and subject matter experts from both within 
and outside of the Department. Far from being simply a budget-driven 
exercise, these proposals are based on sound principles. Beneficiaries, 
both Active and retired, deserve a generous health benefit. The 
military health benefit is one of the best in the country, and it 
remains that way. Out-of-pocket costs are far below the percentage of 
cost-sharing beneficiaries experienced in 1995, even with proposed 
changes. In addition, DOD will protect the most vulnerable 
beneficiaries from proposed changes in cost-shares.

    62. Senator Inhofe. Secretary Hagel, if Congress prohibits DOD's 
new TRICARE fee proposals, what is your back-up plan to make up the 
large deficit in the Defense Health Program accounts?
    Secretary Hagel. If Congress prohibits the proposed TRICARE fee 
changes and does not restore the budgeted savings in fiscal year 2014, 
the Department will likely be forced to make additional reductions to 
readiness and modernization accounts. The TRICARE fee proposals are an 
important piece of the Department's approach to balanced drawdown in 
defense spending. The fee changes are necessary to help put the 
military health benefit on a path to long-term fiscal sustainability, 
to lessen the impact on readiness and modernization efforts, and to 
avoid a hollowing of the force in the near-term until savings from 
longer-term structural changes are realized.

                           CIVILIAN FURLOUGHS

    63. Senator Inhofe. Secretary Hagel, the Navy and Marine Corps have 
announced that funds are available to avoid furloughs of their civilian 
employees and to meet readiness requirements, but the Office of the 
Secretary of Defense will not give the Navy that flexibility. You 
testified that DOD favors a unified approach to furloughs, recognizing 
that some Services--like the Army--may not be in the same position with 
respect to funds available to avoid furloughs. If DOD cannot avoid 
furloughs completely, would you require the Navy and Marine Corps to 
furlough civilian employees, with resulting hardship to those civilian 
employees and their families, when the Navy and Marine Corps have found 
a way to avoid furloughs?
    Secretary Hagel. Major budgetary shortfalls drove the basic 
furlough decision. Before making a decision, I sought advice from 
senior leaders in the military departments and agencies as well as 
advice from my senior civilian and military staff. I asked them to keep 
in mind our fundamental criterion to minimize adverse mission effects 
and, subject to that criterion, to ensure reasonable consistency and 
fairness across DOD for any furloughs that we impose.
    Based on all these inputs, I decided to direct furloughs of up to 
11 days for most of DOD's civilian personnel. This halving of previous 
furlough plans reflects vigorous efforts to meet our budgetary 
shortfalls through actions other than furloughs.
    Furloughs will be imposed in every military department as well as 
almost every agency and in our working capital funds. All of our 
civilian employees are important, and I would prefer not to furlough 
any of them. However, there will only be limited exceptions driven by 
law and by the need to minimize harm to mission execution.
    I understand that the decision to impose furloughs imposes 
financial burdens on our valued employees, harms overall morale, and 
corrodes the long-term ability of DOD to carry out the national defense 
mission. I deeply regret this decision. I continue to urge our Nation's 
leaders to reach an agreement to reduce the deficit and de-trigger 
sequestration.

             RECRUIT PROCESSING IMPACTS FROM SEQUESTRATION

    64. Senator Inhofe. Secretary Hagel, if civilian furloughs in 
response to sequestration impact the mission of the Military Entrance 
Processing Stations (MEPS), then what options does DOD have to provide 
additional resources to ensure recruit processing is not degraded?
    Secretary Hagel. The Department is carefully considering the impact 
that furloughs will have across the MEPS. It is expected that Military 
Entrance Processing Command (MEPCOM) will focus furlough days on 
Fridays, which is the lowest volume day of the week for processing 
recruits, to allow the maximum use of civilian resources to support 
recruit processing as much as possible. Additionally, MEPCOM will 
continue to work with the Service recruiting commands to optimize 
recruit scheduling, which will make the most of available processing 
time. The reduction in processing capability will still exist, but 
these mitigation efforts will lessen the overall shortfall in recruit 
processing.

                  INTEGRATED ELECTRONIC HEALTH RECORD

    65. Senator Inhofe. Secretary Hagel, DOD and the VA have been 
working on integrated electronic health records (iEHR) for several 
years with very little progress being made towards a truly seamless 
transition of health information between the two of them. In January 
2013, the VA decided to use VistA, its legacy system, as its core 
health record despite the findings of a recent study commissioned by 
the VA that identified many VistA deficiencies. We've been told that 
DOD has been evaluating existing solutions to determine the appropriate 
core health record to use. When will DOD announce its decision on a way 
forward?
    Secretary Hagel. Following a 30-day internal review, I issued a 
memorandum directing the Department to conduct a competitive 
acquisition process to achieve DOD's electronic healthcare system 
modernization. In the near-term, DOD will continue to work with the VA 
to provide seamless, integrated sharing of electronic health data this 
year. The completion modernization effort will build on this near-term 
work.

    66. Senator Inhofe. Secretary Hagel, how much will it cost for both 
DOD and the VA to develop and field a new, interoperable iEHR?
    Secretary Hagel. Updated cost estimates for the development, 
deployment, and sustainment of a modernized DOD electronic health 
record system will not be known until the program is realigned with the 
direction I provided in my memorandum for the Department's electronic 
health care record modernization way ahead.

    67. Senator Inhofe. Secretary Hagel, why should Congress believe 
that DOD and VA can develop and implement an interoperable iEHR since 
they have shown little competence and cooperation doing this work in 
the past?
    Secretary Hagel. Secretary Shinseki and I are both committed to the 
goal of providing seamlessly integrated healthcare data interchange 
between the DOD and the VA this year. DOD and VA intend to make 
standardized, integrated clinical record data broadly available to 
clinicians across the DOD and VA later in calendar year 2014. On a 
parallel path, the DOD needs to modernize its clinical software, and 
the VA continues to evolve its legacy system. My memorandum providing 
direction the Department's healthcare modernization effort is intended 
to refocus efforts on achieving near-term data-interoperability while 
also pursuing a competitive acquisition process to satisfy DOD mid-term 
electronic healthcare management software modernization needs.

    68. Senator Inhofe. Secretary Hagel, Office of the Secretary of 
Defense/Legislative Affairs recently informed this committee that the 
iEHR effort has been transferred from the Office of the Under Secretary 
of Personnel and Readiness to the Office of the Under Secretary for 
Acquisitions, Technology, and Logistics. What caused this abrupt change 
in oversight?
    Secretary Hagel. Both my Acting Under Secretary of Defense for 
Personnel and Readiness (A/USD(P&R)) and the Under Secretary for 
Acquisition, Technology, and Logistics (USD(AT&L)) remain engaged in 
the Department's iEHR efforts. The Assistant Secretary of Defense for 
Health Affairs will continue to serve as the functional sponsor for 
this capability. Because choosing EHRs is an acquisition decision, I 
directed USD(AT&L), who is an expert in procurement, to assume 
responsibility for DOD healthcare records interoperability, software 
modernization, and lead for DOD coordination with VA on the technical 
and acquisition aspects of iEHR.

                           SUICIDE PREVENTION

    69. Senator Inhofe. Secretary Hagel and General Dempsey, our force 
is exceptionally well-trained on suicide awareness and prevention, and 
yet we still experience the tragedy of suicide at an unacceptably high 
rate. What is your assessment on whether the current level of training 
and leadership engagement is sufficient or whether it has inadvertently 
created a climate in which some vulnerable individuals may have 
contemplated suicide because we talk about it so much?
    Secretary Hagel. Research has shown that increased awareness of the 
issue of suicide, so long as it is not glamorized or normalized, does 
not increase the risk of suicide. Most suicide awareness trainings 
include messages about how treatment works and that seeking help is a 
sign of strength. Leaders reinforce these messages outside of the 
awareness trainings. DOD is shifting towards a resilience emphasis, 
which will reinforce messages of hope, recovery, and strength to 
further reduce suicidal thoughts among servicemembers.
    General Dempsey. Currently, DOD widely disseminates suicide 
prevention trainings that focus on recognized best practices in raising 
awareness about the warning signs and risk factors of suicide, and the 
crisis resources available to servicemembers and their families. 
Leaders in DOD encourage servicemembers to seek help for their 
behavioral health issues, and understand the potential negative 
consequences if leadership is not actively involved in the issue of 
suicide. These negative consequences may reflect in suicide contagion, 
resulting from inappropriate communications, such as glamorizing or 
sensationalizing suicide. However, research has shown that increased 
awareness of the issue of suicide, when conveyed according to 
nationally-accepted best practices, does not increase the risk of 
suicide. DOD has strong guidelines that encourage the safe reporting of 
suicide, which are in line with the prevention guidance of health 
bodies such as the World Health Organization and the Suicide Prevention 
Resource Center. This guidance, which is provided in trainings, aims to 
reduce suicide contagion, helps reduce the stigma that prevents some 
servicemembers from seeking help, and promotes awareness of the 
Military Crisis Line, which provides 24/7 crisis support to 
servicemembers and their families. These efforts target the saving of 
lives, rather than increasing the possibility of suicide. In addition, 
DOD is shifting towards a stronger emphasis on resilience to improve 
servicemembers' protective factors against suicide.

                             SEXUAL ASSAULT

    70. Senator Inhofe. Secretary Hagel, what is your assessment 
concerning whether DOD has experienced any difficulties in implementing 
NDAA requirements to reduce the occurrence of sexual assault?
    Secretary Hagel. There are several areas we have experienced 
difficulty in resolving.
    Section 586 of the NDAA for 2012 requires DOD to develop a 
comprehensive policy on retention and access to records. Because 
section 586 required preservation of all physical and forensic evidence 
rather than just the SAFE Kit and related documentation, section 586 
had the unintended consequence of preventing victims from recovering 
their personal property after the legal proceedings are finalized.
    This requirement brings unnecessary anguish to victims and places 
law enforcement in a difficult and uncomfortable position of denying 
victims access to property, which they rightfully own. Personal 
property seized could include articles of clothing, jewelry, bedding, 
shoes, cell phones, computers or other electronic devices, or anything 
the victim submitted for evidence. These items could have significant 
sentimental value (e.g., necklace given by a parent) or considerable 
monetary value, as with an electronic device.
    Before section 586 was enacted, these items were routinely returned 
to victims at the end of legal proceedings. The return of a victim's 
personal property assists in giving victims closure and helping in 
their recovery. Consequently, DOD seeks to alter the requirements of 
section 586 to ensure that personal property can be returned to the 
victim in a manner that does not interfere with any potential legal 
proceedings.
    Also, section 575 of the NDAA for 2013 requires DOD to gather 
additional detail/data for inclusion in the annual report. This new 
requirement included an analysis and assessment of trends and 
incidence, disposition, and prosecution of sexual assault by units, 
commands, and installations.
    While important for assessing the effectiveness of DOD's SAPR 
program, this new level of detail stands to potentially eliminate a 
victim's right to privacy and his/her desire for confidentiality 
because it could have the unintended consequence of identifying 
victims. Our concern is that victims will not view reporting as a 
reasonable option and, as a result, may not access the care they need.

    71. Senator Inhofe. Secretary Hagel, has DOD had an adequate time 
and opportunity to evaluate the effectiveness of those requirements?
    Secretary Hagel. In the past two NDAA legislative cycles, fiscal 
year 2012 and fiscal year 2013, we have been responsible for 
implementing more than 25 provisions of law related to sexual assault. 
Most of these provisions were passed on January 2, 2013. As we are 
still actively developing and implementing in policy many of these 
provisions of law, it is too early to assess their effectiveness. We 
need to allow time to ensure these policies take effect and then to 
assess their overall impact on our ability to reduce and eliminate 
sexual assault in the armed forces.

    72. Senator Inhofe. Secretary Hagel, what additional tools does DOD 
need in order to continue to reduce--with the goal of eliminating--
sexual assault?
    Secretary Hagel. In the last year alone, my predecessor and I 
announced numerous initiatives to prevent and respond to the crime of 
sexual assault. These initiatives, as well as our new DOD Strategic 
Plan, the UCMJ review panels, the Air Force Pilot Program on legal 
assistance, the DOD-wide stand-down, and visual inspection of DOD 
facilities have the potential to make a dramatic impact on victims 
desire to remain in the system and to instill confidence across the 
board. Because of the range and scope of these many new efforts, we 
need time to put them in place, prepare and implement needed training, 
and then assess what additional steps need to be taken.

                   ASSESSING COMMANDERS' PERFORMANCE

    73. Senator Inhofe. General Dempsey, some have suggested that it 
would be appropriate to incorporate standardized assessments of 
commanders' performance in prevention, investigation, accountability, 
advocacy, and assessment of sexual assault response and prevention 
lines of effort. What are your views of the potential benefit and 
feasibility of requiring assessment of commanders' performance on SAPR 
in Service-specific performance appraisal systems?
    General Dempsey. It is important that we hold commanders 
accountable for the organizational climate in their organizations. 
Secretary Hagel recently directed the Service Chiefs to develop methods 
to assess the performance of military commanders in establishing 
command climates of dignity and respect, and incorporate sexual assault 
prevention and victim care principles in their commands. The use of 
Service-specific performance appraisal systems will be assessed.

                       SAME SEX PARTNER BENEFITS

    74. Senator Inhofe. Secretary Hagel, recently former Secretary of 
Defense Panetta announced that DOD will expand benefits to unmarried 
same-sex domestic partners who declare a committed relationship, but 
will not extend those same benefits to unmarried heterosexual domestic 
partners. Do you agree with Secretary Panetta, that when it comes to 
benefits paid for by hard-working American taxpayers, that DOD should 
favor same-sex domestic partners over heterosexual partners?
    Secretary Hagel. I value the service of all members of DOD equally. 
I am humbled by their dedication to their nation and the tremendous 
sacrifices they make on a daily basis. That being said, I am bound by 
the laws passed by Congress. I recognize, as did Secretary Panetta, 
that good order and discipline are enhanced by the equitable treatment 
of all individuals in DOD, to the extent permissible under law. 
Heterosexual couples, if they so choose, have the opportunity to get 
married in every State, and their marriages are recognized by Federal 
law. Same-sex couples do not have this opportunity and as a result, 
several benefits, such as medical care, may not be legally extended. 
The extension of benefits identified by my predecessor earlier this 
year is a significant effort to close the gap in equity for benefits, 
consistent with current law, and sends a clear signal to all 
servicemembers that the United States highly values their service.

                    RESERVE/NATIONAL GUARD FORCE MIX

    75. Senator Inhofe. General Dempsey, in your testimony you stated 
that DOD needs flexibility to keep the force in balance, and that 
everything must be on the table including the mix among Active, 
Reserve, and National Guard units. In view of the heavy wartime demand 
on the forces including the Reserve and Guard, what do you envision as 
a viable option to change that force mix?
    General Dempsey. Specific force mixes are dependent on the ongoing 
strategic review, still uncertain budget, and future threats. What is 
certain is the requirement to refine the integrated, Total Force 
approach that served us so well the past decade during counter-
insurgency operations. In reshaping for our joint future, we require 
the flexibility to organize complementary capabilities to cost-
effectively meet a changing and dynamic national security environment. 
We will need a total force mix that is responsive enough to deter and 
defeat adversaries forward and appropriately sized to defend the 
Homeland within its borders or surge for unforeseen threats. At the 
same time, we need to be able to sustain the All-Volunteer Force over 
the long-term. Meeting these requirements requires us to periodically 
and carefully rebalance Active and Reserve component forces. While 
minimizing cost is an important consideration and always one of our 
goals, maintaining an effective and responsive force is the imperative.

           MILITARY COMPENSATION FOR THE ALL-VOLUNTEER FORCE

    76. Senator Inhofe. Secretary Hagel and General Dempsey, our 
Nation's historical experience of pursuing cost savings by cutting 
military compensation has demonstrated that periods of designed 
reduction in overall compensation levels resulted in retention 
problems. Those retention problems, especially in the context of 
generally improving civilian employment opportunities, meant Congress 
was required to come back and authorize catch-up increases to help us 
keep the highly trained talents and skills that we need. What is your 
assessment of the impact of the President's proposed slowdown in 
military compensation on retention and recruiting?
    Secretary Hagel. My assessment, informed by recommendations of the 
Department's senior leadership, is that curbing the growth in 
compensation is prudent and does not increase risk to recruiting and 
retention programs. The costs of military pay and benefits are a 
significant driver of spending growth that must be addressed in today's 
constrained fiscal environment. Therefore, the President's budget 
package includes a modest slowing of military pay growth by 
implementing a 1 percent pay raise for servicemembers in 2014.
    In June 2012, the 11th Quadrennial Review of Military Compensation 
reported that on average, enlisted members are paid at approximately 
the 90th percentile, and officers are paid at the 83rd percentile 
relative to American workers with similar education and experience. 
Capping the pay raise in 2014 at 1 percent, while the Department 
continues to assess the economy and prepares for reduced operations 
abroad, will provide the flexibility to inject limited resources into 
those areas critical to maintaining the future force. This will also 
continue to fulfill the United States' responsibility to provide 
military members a standard of living above a majority of their 
civilian counterparts.
    This adjustment to pay was among the most carefully considered and 
difficult choices in the budget. The decision was made with the strong 
support of the Joint Chiefs of Staff and the senior enlisted 
leadership, in recognition that limiting personnel costs was necessary 
to sustain military compensation over the long-term without reducing 
the size or readiness of the force.
    General Dempsey. My assessment, informed by the Service Chiefs' 
recommendations, is that curbing the growth in compensation is prudent 
and does not increase risk to the Department's recruiting and retention 
programs. The cost of military pay and benefits are a significant 
driver of spending growth that must be addressed in today's constrained 
fiscal environment. Therefore, the President's budget package includes 
a modest slowing of the growth of military pay by implementing a 1 
percent pay raise for servicemembers in 2014.
    Capping the pay raise in 2014 at 1 percent, while we continue to 
assess the economy and prepare for reduced operations abroad, will 
afford the Department the flexibility to target limited resources at 
those areas critical to maintaining the force we need in the future.
    This adjustment to pay was among the most carefully considered and 
difficult choices in the budget. This decision was made with the strong 
support of the Joint Chiefs of Staff and the senior enlisted leadership 
in recognition that limiting personnel costs was necessary to sustain 
military compensation over the long-term without reducing the size or 
readiness of the force.

                        FAMILY SUPPORT PROGRAMS

    77. Senator Inhofe. General Dempsey, you testified that 
unsustainable cost and smaller budgets require DOD to examine every 
warrior and family support program to make sure we are getting the best 
return on our investment. How do you assess the investments our Nation 
has already made in family support programs, and suicide prevention, in 
particular, in moving the needle with demonstrable positive return on 
investment?
    General Dempsey. The Nation's investment has been continuous and 
favorable. As our budget decreases, we're continuing to explore public-
private partnerships. As you're well aware, America cares about and 
values our men and women in uniform and their families--and is 
assisting them in communities across our Nation.

                           TUITION ASSISTANCE

    78. Senator Inhofe. General Dempsey, I am pleased to learn that DOD 
has now reinstated the Tuition Assistance program, previously cancelled 
by the Army, Marine Corps, and Air Force in response to the 
administration's failure to plan for sequestration. How does tuition 
assistance enable the Active-Duty Forces to meet the professional 
development requirements you described in your testimony to establish 
the Profession of Arms as the foundation for the Joint Force?
    General Dempsey. Renewing our commitment to the Profession of Arms 
has been one of my priorities. In order to be a professional, we must 
develop servicemembers of character and competence. Education is 
essential to how we do this as an institution.
    We recruit and seek to retain high quality individuals who are 
committed to continuous learning. The Tuition Assistance program helps 
us to satisfy their interests and invest in the future of the Joint 
Force. The courses our members take using the Tuition Assistance 
program balance the pursuit of education with other professional 
priorities, such as mastery of rating skills, warfare qualification, 
and leadership skills.
    As we work to restore and maintain readiness in light of budget 
reductions, we must carefully balance our investments. To minimize the 
impact to programs like this, the Joint Chiefs and I are seeking 
congressional support for greater time and flexibility to implement 
reductions.

                     LANGUAGE AND CULTURE TRAINING

    79. Senator Inhofe. General Dempsey, having military members with 
language and culture training are essential to a U.S. global force. The 
NDAA for Fiscal Year 2013 authorized the Secretary of Defense to 
transform the National Language Service Corps from a pilot to a 
permanent program, and also to enhance the ability of our Federal 
agencies to hire people with strategic foreign language skills and as 
National Security Education Program awardees. What are DOD's goals with 
respect to the capabilities represented by the National Language 
Service Corps?
    General Dempsey. The National Language Service Corps is an 
invaluable asset that maintains a readily available group of language 
volunteers who provide supplemental language resources to U.S. Federal 
agencies when a U.S. Government requirement arises. In order to respond 
to increasing demands for foreign language skills, DOD plans to 
increase membership in the National Language Service Corps from the 
current 4,200 to at least 5,500 and expand the number of languages/
dialects represented from 283 at present to at least 350, by fiscal 
year 2015. This increase will provide greater opportunities for the 
Corps to respond to requests in areas such as strategic language 
support operations (interpretation, translation, and analysis), 
training (instruction), logistics activities, emergency relief 
activities, and administrative language support services to Federal 
Government domestic and international activities. Once DOD internal 
procedures are established, the National Language Service Corps will 
more actively expand its membership recruitment efforts to reach out to 
groups in which the government has already invested (such as veterans 
and other members departing the Services who have foreign language 
skills).

                            WOMEN IN COMBAT

    80. Senator Inhofe. Secretary Hagel and General Dempsey, on January 
24th, former Secretary of Defense Panetta rescinded the 1994 Direct 
Ground Combat Definition and Assignment rule that excluded women from 
assignment to units and positions whose primary mission is to engage 
indirect combat on the ground. How will military readiness be improved 
by opening combat arms units and positions to women?
    Secretary Hagel. Opening positions to women maximizes military 
capabilities, provides a greater pool of qualified members from which 
to draw, and reduces operational tempo. The Department's goal is to 
ensure that the mission is met with the best-qualified and most capable 
people, regardless of gender. This effort will ensure that the 
Department continues to maintain a high state of readiness and preserve 
the quality of our All-Volunteer Force.
    General Dempsey. The elimination of the 1994 Direct Ground Combat 
Definition and Assignment Rule provided greater flexibility assigning 
the best qualified individuals where they are needed most. Greater 
flexibility and wider pool of skilled personnel creates a more agile 
and responsive force generation model for greater readiness.

    81. Senator Inhofe. Secretary Hagel and General Dempsey, how will 
you integrate sexual assault prevention consideration into decisions on 
whether units should be opened to women?
    Secretary Hagel. I have made it abundantly clear that there is no 
place in DOD for sexual assault and made it a top priority to do 
everything possible to reduce and prevent sexual assault, to make 
victims of sexual assault feel secure enough to report this crime 
without fear of retribution or harm to their career, and to hold 
perpetrators appropriately accountable.
    The key to successful integration will be our commanders, who are 
expected to follow DOD policies on standards of conduct, ensure strict 
compliance with those standards, and build the appropriate command 
climate. No one should be at risk--male or female.
    General Dempsey. Sexual assault and sexual harassment are 
unacceptable and eradication of both is a top priority throughout the 
Department. Our men and women need to feel safe and secure no matter 
where they serve. To that end, we have a plan that ensures a sufficient 
cadre of mid-grade/senior enlisted and officers are assigned to 
previously closed units to ensure successful assimilation of women for 
the long run. Having these women in leadership positions helps create a 
command climate where more junior women will have senior female mentors 
who are already established in the unit.

    82. Senator Inhofe. Secretary Hagel and General Dempsey, how will 
integration of women into these units and positions further efforts to 
combat sexual harassment and assault in the Armed Forces?
    Secretary Hagel. Commanders are key for successful integration. 
General Dempsey and the Joint Chiefs of Staff proposed a way forward 
that ensures a sufficient cadre of women who are mid-grade/senior 
enlisted and officers are assigned to commands at the point of 
introduction to ensure success in the long run. As women are assigned 
to previously closed positions, the Services will solicit feedback from 
these women and assess how future assignments may be enhanced.
    General Dempsey. Sexual assault and sexual harassment are 
unacceptable and eradication of both is a top priority throughout the 
Department. Our men and women need to feel safe no matter where they 
serve and feel secure enough to report this crime without fear of 
retribution or harm to their career. To that end, we have worked 
extensively on a plan to ensure a sufficient cadre of women who are 
mid-grade/senior enlisted and officers are assigned to these previously 
closed units to become established members of the command to act as 
mentors to younger women as they assimilate into the unit. Having these 
women mentors firmly established within the command will have a 
positive influence toward establishing a command climate of trust and 
support for young women once they arrive.

    83. Senator Inhofe. Secretary Hagel and General Dempsey, do you 
agree that if physical requirements are based on bona fide military 
requirements, some male servicemembers may be unable to meet gender-
neutral standards?
    Secretary Hagel. Yes, I agree. Recent experience at over a decade 
of war indicates that a review of standards is necessary to ensure both 
men and women are physically able to perform the tasks required of them 
without sustaining an injury.
    The Services are working to ensure the standards used to classify 
and train male and female servicemembers are validated by science and 
related directly to the tasks required by their occupations. Applying 
these task-oriented occupational screening tests, without regard to 
gender, provides the greatest opportunity for maintaining the readiness 
of the force.
    This effort complies with the requirements of the NDAA for Fiscal 
Year 1994 (P.L. 103-160), section 543, which requires the Department 
shall ensure that occupations are evaluated on the basis of common, 
relevant performance standards, without differential standards of 
evaluation on the basis of gender. If the physical requirements of an 
occupational specialty are newly established or revised, a member 
serving in that occupational specialty shall be provided a reasonable 
period to meet the new standard.
    General Dempsey. Relevant performance standards exist to ensure 
individuals can accomplish the associated tasks required of the 
mission. This includes screening males at certain military occupational 
training schools to ensure they meet requisite standards.

                         CHANGES TO ARTICLE 60

    84. Senator Inhofe. Secretary Hagel and General Dempsey, Secretary 
Hagel recently directed the DOD General Counsel to draft a change to 
Article 60 of the UCMJ that would limit existing authority of 
commanders to take post-trial action for military courts-martial, 
including cases involving sexual harassment and sexual assault, which 
can have a negative impact on unit readiness, cohesiveness, and combat 
effectiveness. In light of the recent testimony by the Service Judge 
Advocates General that it is exceedingly rare for convening authorities 
to exercise their lawful authority to set aside court-martial 
convictions, explain why you can trust your commanders to make 
decisions to send servicemembers into combat, but you cannot trust 
their authority to make decisions concerning military justice?
    Secretary Hagel. The military justice system must serve two 
critical purposes: (1) to provide justice for all participants in the 
system, including victims, and (2) to support good order and discipline 
throughout the ranks. Proposed changes to the military justice system 
must be carefully evaluated against those two goals. After consulting 
with the Joint Chiefs, and with the Department's military justice 
experts, I concluded that limiting the commander's authority to reject 
findings would increase the confidence of the men and women of our 
military in the military justice system, and thereby contribute to good 
order and discipline, and it would increase the confidence of victims 
of crimes that they would receive justice.
    General Dempsey. I do trust commanders to make decisions within 
their authority in times of combat and peace, on the battlefield, and 
within garrison. This includes trusting those commanders vested with 
the responsibility of serving as a convening authority.
    That being said, military justice has significantly evolved since 
the UCMJ was originally enacted. Sixty years ago, military judges had 
no role in courts-martial, and neither the accused nor the government 
was represented by an attorney. The convening authority, with the 
assistance and advice of a staff judge advocate, was required to review 
the record of trial for both factual and legal errors. Today, the 
accused has the right to be represented by an attorney, trial counsel 
are also licensed attorneys, and professional military judges preside 
over general and special courts-martial. A robust appellate process has 
also developed over time, providing an added layer of judicial review 
to ensure an accused's legal rights were protected. These positive 
developments in the professional nature of court-martial practice have 
significantly diminished the need for convening authorities to modify 
the findings adjudged at a court-martial, except in limited 
circumstances in the best interest of justice.
    Secretary Hagel's proposed amendment to Article 60, on which I and 
the Joint Chiefs of Staff provided recommendations, does not undercut 
the authority of convening authorities and commanders. Under the 
proposed amendment, the convening authority retains the responsibility 
for approving and enforcing the punishment for an individual convicted 
of a crime at court-martial. The proposed amendment also provides the 
convening authority the ability to modify findings for certain minor 
offenses when doing so is in the best interests of justice. Also, the 
requirement for a convening authority to explain his or her decision to 
modify an accused's sentence or to disapprove a finding of guilt for 
certain minor offenses promotes transparency and public trust in the 
military justice system. These changes should not be perceived as the 
result of a loss of faith in commanders but rather as positive 
developments that can be made due to the advanced professionalism of 
our system of military justice.

    85. Senator Inhofe. Secretary Hagel and General Dempsey, despite 
Secretary Hagel's recent announcement that he has directed the DOD 
General Counsel to draft a change to Article 60 of the UCMJ that would 
limit existing authority of commanders to take post-trial action for 
military courts-martial, some Members of Congress believe you have not 
gone far enough and suggest that the public trust and confidence in the 
military justice system cannot be preserved unless military commanders 
are deprived of the discretion to dispose of offenses under the UCMJ, 
and to shift that responsibility to judge advocates. Do you agree that 
removing that authority from military commanders would be a fundamental 
change to the UCMJ and that it would undermine the ability of 
commanders at every level of the chain of command to maintain and 
sustain unit readiness, cohesiveness, and combat effectiveness?
    Secretary Hagel. Removing the authority of commanders to make 
disposition decisions regarding allegations of misconduct by members of 
their commands would be a fundamental change to military justice. Given 
the depth of the concerns about sexual assault, however, I believe that 
DOD must be open to considering all options to improve public trust and 
confidence in the military justice system. The panel required by 
section 576 of the NDAA for Fiscal Year 2013 (P.L. 112-239) is tasked 
to examine proposals to modify the role of commanders in the military 
justice system, and I look forward to the panel's assessment and 
recommendations.
    General Dempsey. The Article 60 revision proposed by Secretary 
Hagel does not undercut the authority of a convening authority and 
serves as a well-crafted and refined proposal that will simply prohibit 
a convening authority from setting aside the findings of a court-
martial except for a narrow group of qualified offenses. It also 
preserves the ability of the convening authority to enter into pretrial 
agreements, when appropriate, which provides a limitation on an 
accused's sentence in exchange for a guilty plea.
    However, I do not support any revisions to the UCMJ that would 
remove the commander from the military justice system, or that would 
eliminate a commander's authority to take action on a court-martial 
sentence. The ability to punish is the bedrock of discipline, and the 
commander must have the authority to dispense punishment quickly, 
visibly, and under any conditions. It would send the wrong message to 
everyone in the military that there is a lack of faith in those 
officers selected to command. The commander is responsible and 
accountable for all that goes on in a formation, including health, 
welfare, safety, morale, discipline, and readiness to execute the 
mission.
    I remain committed to working with Congress, the Secretary of 
Defense, and the Services to make further necessary amendments and 
revisions to the UCMJ. Any changes to the UCMJ must be carefully 
considered, as even minor changes could have unintended consequences 
that could negatively impact our system of justice.

                        ARTICLE 60 MODIFICATIONS

    86. Senator Inhofe. Chairman Dempsey, we trust you to make 
decisions that may result in the loss of life in order to protect the 
Nation and accomplish the mission. Every day commanders must make 
decisions to correct underperformers with training or education, and, 
when necessary, to discipline troops or possibly relieve commanders. 
Ultimately, our Nation charges them, and you, with the responsibility 
to establish cohesive, mission-ready combat units. While we trust you 
with our sons' and daughters' lives, the proposed modifications to 
Article 60 of the UCMJ seem to suggest that we do not trust your 
discretion when it comes to UCMJ offenses. Do you, as a commander, 
consider the UCMJ as it is currently structured, to be a viable tool to 
help you maintain and enhance the cohesiveness and fighting 
capabilities of your combat units?
    General Dempsey. Yes. I believe the UCMJ as currently structured to 
be an effective means to maintain and enhance the cohesiveness of 
military units, provide due process under the law, and preserve good 
order and discipline. It provides accountability at all times and 
places, in peace and in combat.
    However, the UCMJ, while effective, is not perfect. We should 
always be searching for ways to improve our system of military justice. 
Reasonable changes to military justice system, such as the Article 60 
revision proposed by Secretary Hagel, keep the UCMJ vibrant and fair to 
victims and to the accused. The proposed revision does not limit the 
current role of appellate courts, access to defense counsel, and 
significant post-trial involvement by convening authorities.
    The NDAA for Fiscal Year 2013 requires a Response Systems Panel to 
conduct an independent review and assessment of the systems used to 
investigate, prosecute, and adjudicate crimes involving sexual assault 
and related offenses. I welcome the Panel's review of the effectiveness 
of the UCMJ and its strengths and weaknesses in dealing with sexual 
assault. I also welcome the opportunity to provide input regarding the 
important role commanders serve in the military justice system.

    87. Senator Inhofe. Chairman Dempsey, have you seen any evidence 
that commanders are abusing their discretion as the convening authority 
to adjust sentencing?
    General Dempsey. No. I have not seen any evidence that commanders 
are abusing their discretion as convening authorities to adjust 
sentencing.
    It is critical that the convening authority retain the authority to 
reduce or suspend an adjudged sentence. This authority is essential for 
purposes of giving effect to plea bargains. Within the military justice 
system, a plea bargain is accomplished when an accused agrees to plead 
guilty in exchange for a cap on the maximum sentence the convening 
authority can approve. Removing the convening authority's ability to 
modify an adjudged sentence would eliminate that option and the 
efficiencies it affords. This authority is also critical to the 
commander's ability to act in the best interests of good order and 
discipline to prevent undue hardship or for reasons of military 
necessity.

    88. Senator Inhofe. Chairman Dempsey, how would the proposed 
changes to the UCMJ impact your effectiveness as a commander?
    General Dempsey. The Article 60 revision proposed by Secretary 
Hagel does not undercut the authority of a convening authority and 
serves as a well-crafted and refined proposal that will simply prohibit 
a convening authority from setting aside the findings of a court-
martial except for a narrow group of qualified offenses. It also 
preserves the ability of the convening authority to enter into pretrial 
agreements, when appropriate, which provides a limitation on an 
accused's sentence in exchange for a guilty plea.
    However, I oppose any revisions to the UCMJ that would remove the 
commander from the military justice system, or that would eliminate a 
commander's authority to take action on a court-martial sentence. The 
ability to punish is the bedrock of discipline, and the commander must 
have the authority to dispense punishment quickly, visibly, and under 
any conditions. It would send the wrong message to everyone in the 
military that there is a lack of faith in those officers selected to 
command. The commander is responsible and accountable for all that goes 
on in a formation, including health, welfare, safety, morale, 
discipline, and readiness to execute the mission.
    I remain committed to working with Congress, the Secretary of 
Defense, and the Services to make further necessary amendments and 
revisions to the UCMJ. Any changes to the UCMJ must be carefully 
considered, as even minor changes could have unintended, negative 
second- and third-order effects. Secretary Hagel's proposed revision to 
Article 60 received thorough review, and I am satisfied that it will 
not have unintended consequences that could negatively impact our 
system of military justice.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                             TOWER CLOSURES

    89. Senator Vitter. Secretary Hagel, the Federal Aviation 
Administration (FAA) recently made the decision to close 149 Federal 
contact towers around the country beginning on April 7 as part of their 
plan to meet their obligations under sequestration. A few of these 
towers are situated near Air Force bases, such as the tower at the 
Shreveport Downtown Airport, which is located near the Barksdale Air 
Force Base. Did the FAA contact DOD when considering which towers to 
close or to coordinate their closing?
    Secretary Hagel. On February 26, 2013, the FAA requested that each 
Military Service determine the mission impacts of potential contractor-
staffed tower closures. In response, each Service assessed towers 
within its purview. On March 19, 2013, the Deputy Secretary of 
Transportation contacted the Department and requested that DOD 
consolidate and validate each of the Services' lists and return a 
comprehensive DOD list to the Department of Transportation by March 21, 
2013. The Acting Deputy Under Secretary of Defense for Installations 
and Environment--working with the Deputy Assistant Secretary of Defense 
for Readiness and the Deputy Assistant Secretary of Defense for 
Strategic and Tactical Systems--combined Service and departmental 
inputs into a list with tiered categories (based on the Transportation 
Department's standard approach) for approval by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics. The approved list 
was transmitted to the Transportation Department on March 21, 2013. 
DOD's response identified 38 towers, the closure of which would result 
in a severe impact to operations.

    90. Senator Vitter. Secretary Hagel, since many of these areas 
share the air space between the area airport and the adjacent Air Force 
bases, are there any safety concerns?
    Secretary Hagel. Although the Department does not anticipate that 
tower closures will significantly impact safety or increase the risk of 
collision, it will be important for all aviators operating in the 
affected areas to have an awareness of the changes that will occur 
subsequent to the closures. Specifically, operations at these airfields 
will migrate from positive control to uncontrolled operations once the 
towers close. In order to accommodate the introduction of uncontrolled 
operations, changes will likely be put in place to procedurally 
deconflict aircraft and mitigate risk. Additionally, a high emphasis 
will have to be placed on local aviation safety education programs, a 
robust mid-air collision avoidance program, and at other recurring 
safety awareness forums.

    91. Senator Vitter. Secretary Hagel, is there an increased risk of 
collision or will there be any impact on mission readiness or training 
activities?
    Secretary Hagel. Although DOD does not anticipate the tower 
closures will significantly impact safety or increase the risk of a 
collision, it will be important for all aviators operating in the 
affected areas to have an awareness of the changes that will occur 
subsequent to the closures. Specifically, operations at these airfields 
will migrate from positive control to uncontrolled operations once the 
towers close. In order to accommodate the introduction of uncontrolled 
operations, changes will likely be put in place to procedurally 
deconflict aircraft and mitigate risk. Additionally, a high emphasis 
will have to be placed on local aviation safety education programs, a 
robust mid-air collision avoidance program, and at other recurring 
safety awareness forums.
    In terms of Air Force readiness and training, the Air Force only 
anticipates possible impacts to Air Education and Training Command 
(AETC), the command whose mission it is to train pilots. AETC uses the 
airfields on the closure list for off-station pattern work because of 
on-station traffic congestion. According to AETC, the closure of these 
locations will drive increased risk due to uncontrolled airfield 
operations and could result in ceasing operations at these airfields, 
potentially affecting pilot production. These tower closures could be 
further complicated by the furlough of Air Force civilian air traffic 
controllers who make up approximately 45 percent of the AETC controller 
workforce. This will potentially drive decreased hours of operations or 
reduced services, i.e., combined air traffic control positions, et 
cetera, at our AETC bases. AETC continues to assess the changing 
complexion of the FAA landscape for impact and explore mitigations 
where possible.

    92. Senator Vitter. Secretary Hagel, due to the suggested changes, 
is there potential negative impact on costs to the military and if so, 
is DOD taking any actions to remedy these concerns?
    Secretary Hagel. The military does not anticipate any increased 
monetary cost subsequent to the Federal contract tower closures.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee

                            MISSILE DEFENSE

    93. Senator Lee. Secretary Hagel, you announced last month that 14 
additional Ground-Based Interceptors (GBI) will be deployed to the west 
coast as a reaction to North Korean provocations. This brings the 
numbers of GBIs to the number originally planned by the Bush 
administration and reduced by President Obama. Was the Russian 
Government consulted or informed by DOD or any other agency or 
representative of the U.S. Government that the United States was 
considering this before the decision was made?
    Secretary Hagel. Russia was not consulted or informed prior to this 
decision. The decision was made to strengthen protection of the United 
States from the growing North Korean threats.

    94. Senator Lee. Secretary Hagel, when was the Russian Government 
notified of this decision to deploy the additional GBIs?
    Secretary Hagel. Russia was notified through my press conference 
announcement on March 15, 2013, following notifications to key allies. 
U.S. and Russian officials met the following week to discuss the 
announcement.

    95. Senator Lee. Secretary Hagel, if DOD decided that additional 
missile defense systems needed to be deployed for the protection of the 
United States, domestically or around the world, would the Russian 
Government be consulted before the decision was made?
    Secretary Hagel. The United States will continue to discuss missile 
defense with Russia and explore opportunities for cooperation, but 
Russia will not be allowed to have a veto on U.S. missile defense 
plans, programs, or decisions. The President has made clear on numerous 
occasions that cooperation with Russia will not in any way limit U.S. 
or NATO missile defenses. The United States is committed to continue to 
develop and deploy missile defenses that are affordable and effective 
against projected threats.

    96. Senator Lee. Secretary Hagel, Russian Defense Minister Sergey 
Shoygu stated in March that he expressed his desire to you to reconvene 
missile defense discussions with the United States. Are there any plans 
for these talks to take place and if so, will these talks include our 
NATO allies?
    Secretary Hagel. Yes, the United States plans to continue a long-
running series of talks with Russia on potential missile defense 
cooperation. We are pursuing a bilateral U.S.-Russia dialogue, but U.S. 
officials regularly provide readout briefings to NATO allies on the 
substance of the discussions. The United States is committed to keeping 
allies informed at every step of the way. At the same time, we are also 
continuing to explore opportunities for missile defense cooperation in 
a multilateral setting via the NATO-Russia Council. In neither track 
will we accept limitations on U.S. missile defenses.

                              NORTH KOREA

    97. Senator Lee. Secretary Hagel and General Dempsey, the 
President, Secretary Kerry, and Secretary Hagel, throughout the crisis 
on the Korean Peninsula, have been united in stating that North Korea 
will not be accepted as a nuclear power. However, North Korea conducted 
its third nuclear test in February and is vigorously working to create 
a launching vehicle and suitable warhead. Do you believe current U.S. 
and United Nations sanctions will keep North Korea from developing a 
reliable nuclear weapon and delivery platform?
    Secretary Hagel. North Korea's continued attempts to advance its 
nuclear and ballistic missile programs constitute a threat to U.S. 
national security, to the security of U.S. allies in the region, and to 
international peace and security. Based upon its actions, North Korea 
will never be accepted as a nuclear power by the international 
community. The United States will continue to take steps to impede the 
growth of these programs, as well as to defend itself and its allies 
from the threat posed by North Korea, including through the U.S. 
extended deterrence commitments in the region.
    General Dempsey. Changing North Korea's behavior will continue to 
require international cooperation and pressure. U.S. and U.N. sanctions 
remain essential components to a more comprehensive strategy to impact 
Pyongyang's calculus. The sanctions regime slows down and increases the 
development costs of a nuclear weapon and delivery systems. This is of 
particular consequence because North Korea obtains technology and 
material to develop their capability through illicit transactions. We 
need and expect our partners to fulfill their obligations to robustly 
implement the current U.N. sanctions regime.

    98. Senator Lee. Secretary Hagel and General Dempsey, what can the 
United States do to further deter North Korea from development of these 
weapons when they have progressed this far already?
    Secretary Hagel. The United States and the Republic of Korea deter 
North Korean aggression every day and will continue to be prepared to 
defend against threats on the Korean Peninsula and in the region. The 
United States will strengthen its ongoing close coordination with 
allies and work with our Six-Party partners, the U.N. Security Council, 
and other U.N. member states to pursue firm action against North 
Korea's nuclear weapons program. We are also engaged in proliferation 
prevention activities across the globe, which seek to identify various 
networks used by North Korea to proliferate WMD and related 
capabilities. By disrupting these networks, we raise barriers to North 
Korea's acquisition efforts.
    Although North Korea has demonstrated that it could pose a threat 
to regional stability and U.S. national security, the United States is 
fully prepared and capable of defending itself and its allies and 
partners with the full range of capabilities available, including the 
deterrence provided by both U.S. conventional and nuclear forces.
    General Dempsey. The United States and the Republic of Korea deter 
North Korea from aggression every day and will continue to prepare to 
defend against threats on the Korean Peninsula and in the region. While 
North Korea has demonstrated that it is a threat to regional stability 
as well as U.S. national security, the United States is fully prepared 
and capable of defending itself and its allies with the full range of 
capabilities available, including the deterrence provided by both our 
conventional and nuclear forces.

    99. Senator Lee. Secretary Hagel and General Dempsey, in spite of 
multiple warnings and sanctions from the United States and the world 
community over 2 decades, North Korea has successfully tested nuclear 
weapons and ballistic missiles. What message does this telegraph to 
Iran and other countries that seek their own nuclear weapons?
    Secretary Hagel. North Korea's pursuit of nuclear and ballistic 
missile programs do not make it secure. Far from achieving its stated 
goal of becoming a strong and prosperous nation, North Korea has 
instead become increasingly isolated, impoverishing its people through 
its ill-advised pursuit of WMD and their means of delivery. Other 
countries, like Iran, seeking nuclear weapons should take note of North 
Korea's experience.
    General Dempsey. North Korea's actions risk creating a perception 
in Iran that possession of nuclear weapons may somehow guarantee regime 
survival. The history preceding North Korea's initial nuclear test 
highlights the importance of strengthening diplomacy with credible 
threats of military force. However, the scenarios differ within the 
frameworks of regional partnerships and international resolve, as well 
as regime behavior, where Iran's sponsorship of global terrorism and 
regional malign activities compound the international threat we are 
working to prevent.

                           AFGHANISTAN BUDGET

    100. Senator Lee. Secretary Hagel and General Dempsey, at last 
Wednesday's news briefing on the defense budget, Under Secretary Robert 
Hale stated an answer to a question that the costs in Afghanistan were 
$7 to $10 billion higher this year than what we anticipated. This is 
very troubling in any environment, but especially under the constraints 
that DOD is currently under. Can you verify if this is correct, and 
account for such a massive underestimation?
    Secretary Hagel. DOD is experiencing higher-than-expected costs in 
war spending, because operating tempo in Afghanistan and transportation 
costs are higher than anticipated 2 years ago. The DOD's OCO request is 
a bottom-up budget preparation each year, and it is configured to 
support current military strategy and the commander's assessment of 
needs on the ground. However, the budget is prepared about 2 years in 
advance of when the funds are needed and sometimes fact-of-life 
adjustments (e.g., fuel price increases) and changes in strategy (e.g., 
retrograde of equipment due to adjustments in redeployment schedule) 
drive budget shortfalls.
    The O&M portion of DOD's fiscal year 2013 OCO request is 
understated based on emerging requirements identified above. DOD has 
submitted a reprogramming action that, if approved, should mitigate 
these shortfalls.
    General Dempsey. DOD's operating tempo and transportation costs in 
Afghanistan are higher than we anticipated when we developed the fiscal 
year 2013 OCO submission. Our efforts to responsibly drawdown troop 
strength in Afghanistan require oversight, logistics support, base 
closure expertise, and environmental inspections/controls, most of 
which were not included in the fiscal year 2013 OCO request. Finally, 
we could not predict the higher retrograde costs due to the slow 
reopening of the Pakistan ground routes.
    DOD will submit a reprogramming action to Congress to largely 
offset war-related costs and avoid adverse effects on our wartime 
operations. The $7.5 billion in transfer authority provided in fiscal 
year 2013 will allow us to request some relief for the situation in 
which we find ourselves this year.

    101. Senator Lee. As the United States and Afghanistan negotiate 
for a troops presence in that country, can we continue to expect 
miscalculations similar to those referenced to in the previous question 
in the future?
    Secretary Hagel. I hope not, but, the DOD OCO request is a bottom-
up budget preparation each year, and it is configured to support 
current military strategy and the commander's assessment of needs on 
the ground. However, the budget is prepared about 2 years in advance of 
when the funds are needed and sometimes fact-of-life adjustments (e.g., 
fuel price increases) and changes in strategy (e.g., retrograde of 
equipment due to adjustments in redeployment schedule) drive budget 
shortfalls.
    The O&M portion of DOD's fiscal year 2013 OCO request is 
understated based on emerging requirements identified above. DOD 
submitted a reprogramming action that, if approved, should mitigate 
these shortfalls.
    General Dempsey. DOD uses the best assumptions possible to budget 
for OCO requirements, but the situation in the field continues to 
evolve. Higher than anticipated execution costs for fiscal year 2013 
are associated with operational tempo and transportation costs.
    As we move toward a responsible drawdown, the budget will not come 
down proportionately to the forces in U.S. Central Command's area of 
responsibility because our in-theater strength continues to support 
operations such as intelligence collection, which does not decrease 
proportionately to troop levels. DOD's reset costs will also continue 
beyond the drawdown timeframe. DOD strives to project these costs 
appropriately, but year of execution adjustments will always be 
necessary.

    [Whereupon, at 1:27 p.m., the committee adjourned.]


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                         DEPARTMENT OF THE ARMY

    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Udall, Hagan, Manchin, Gillibrand, Blumenthal, Donnelly, King, 
Inhofe, McCain, Chambliss, Ayotte, and Vitter.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gerald J. Leeling, general counsel; Jason W. Maroney, counsel; 
William K. Sutey, professional staff member; and Bradley S. 
Watson, special assistant for investigations.
    Minority staff members present: John A. Bonsell, minority 
staff director; Steven M. Barney, minority counsel; Allen M. 
Edwards, professional staff member; and Lucian L. Niemeyer, 
professional staff member.
    Staff assistant present: John L. Principato.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Casey Howard, assistant to Senator 
Udall; Christopher Cannon, assistant to Senator Hagan; Mara 
Boggs and David LaPorte, assistants to Senator Manchin; Brooke 
Jamison and Kathryn Parker, assistants to Senator Gillibrand; 
Marta McLellan Ross, assistant to Senator Donnelly; Karen 
Courington, assistant to Senator Kaine; Steve Smith, assistant 
to Senator King; Paul C. Hutton IV, assistant to Senator 
McCain; T. Finch Fulton and Lenwood Landrum, assistants to 
Senator Sessions; Brandon Bell, assistant to Senator Chambliss; 
Joseph Lai, assistant to Senator Wicker; Brad Bowman, assistant 
to Senator Ayotte; Craig Abele, assistant to Senator Graham; 
Joshua Hodges, assistant to Senator Vitter; and Charles Prosch, 
assistant to Senator Blunt.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today, and we welcome Secretary of the Army, John McHugh, 
and Chief of Staff of the Army, General Ray Odierno, to our 
hearing on the Army's fiscal year 2014 budget request and 
current posture.
    Secretary McHugh and General Odierno, thank you for your 
continued outstanding service to the Army and to our Nation. 
Over the last decade, the men and women of the Army have 
learned and adapted to the hard lessons of the wars in Iraq and 
Afghanistan, showing that they have what it takes to be ready, 
to be successful, and to be resilient through repeated combat 
deployments. I hope that you'll convey this committee's 
appreciation with all whom you serve, both military and 
civilian, and for all that they do.
    Even as the Army's combat commitments wind down in 
Afghanistan, the Nation is asking it to deal with serious 
resources challenges. The sequestration required by the Budget 
Control Act (BCA) in fiscal year 2013, along with a higher-
than-expected operating tempo in Afghanistan, has led to a $12 
billion shortfall in Army operation and maintenance (O&M) 
accounts, leading to the cancellation of major training 
exercises and the deferral of required equipment maintenance 
and repair. By the end of September, only one-third of the 
Army's Active Duty units are expected to have acceptable 
readiness ratings.
    We look forward to the testimony of our witnesses on how 
the fiscal situation facing the Army is likely to impact 
military and civilian personnel, families, readiness, 
modernization, and, as well, on the operations on Afghanistan.
    The Defense Strategic Guidance (DSG) announced by President 
Obama in January 2012 de-emphasizes ground forces for large-
scale stability operations, and increases emphasis on air and 
sea forces for global power projection. Under the DSG, the 
Active Army will cut its end strength by approximately 52,000 
soldiers, ending with a force of 490,000 by the end of fiscal 
year 2017, and will still be approximately 10,000 soldiers 
above its pre-Iraq war size. The added stress of troop 
reductions on an Army still at war will be significant, and we 
know the Army will strive to manage this risk very carefully.
    We recently learned that, due to increasing success in 
transitioning wounded soldiers through the Integrated 
Disability Evaluation System (IDES) and back into civilian 
society, the Army expects to end fiscal year 2013 with 530,000 
soldiers, which is 22,000 below its authorized strength for the 
year. We'd be interested to hear from our witnesses whether the 
Army's success in moving wounded warriors through the IDES will 
have a similar impact on Active Duty end strength in fiscal 
year 2014.
    The 2012 DSG also reduces the Army's force structure by 
eight combat brigades, with two of these brigades in Germany 
being inactivated. We're interested to hear from our witnesses 
on how the Army will reorganize to meet the rest of this 
brigade reduction and whether additional savings might be 
realized by moving foreign-based units that are not 
inactivating back to the United States.
    If end strength and force structure reductions in readiness 
were not well-managed, the Army increases the risk of allowing 
the nondeployed force to become hollow. That is, too many 
units, with too few soldiers, to fill them or with training 
levels below that necessary to accomplish the units' missions. 
This risk will be compounded if we allow Army readiness to 
further erode, which would be the result if sequestration takes 
place again in fiscal year 2014 and beyond.
    Secretary McHugh and General Odierno, we look forward to 
your views on steps that are necessary to avoid a hollow Army 
that would be unable to meet its mission requirements for 
current contingency plans and in various future scenarios.
    The Army works with great determination to deal effectively 
with the human cost to soldiers and their families after 11 
years of war. The Army has initiated creative programs and 
budgeted billions of dollars to improve the care of our wounded 
soldiers and to support families before, during, and after the 
deployment of their loved one. There's more work ahead for the 
Army--indeed, all the Services--dealing with the prevention and 
treatment of the heartbreaking incidence of suicides and sexual 
assault. The committee is interested to hear updates from 
Secretary McHugh and General Odierno on their assessments of 
the steps the Army has already taken to address these problems 
and the steps that lie ahead.
    The committee has noted over the years how the Army's 
equipment modernization efforts have struggled. As the Decker-
Wagner report found, several years ago, many Army acquisition 
programs have been canceled without delivering the capabilities 
expected and needed. Please describe your efforts to develop an 
achievable and affordable new equipment strategy that will 
enable us to avoid a repetition of that experience.
    In this year's request, the Army has tried to meet tight 
budget requirements by restructuring, slowing, or cutting, but 
not canceling, nearly all of its ground vehicle and aviation 
programs. This means the Army will get what it plans for, but 
it will be later and likely cost more in the long-run. Our 
witnesses will, hopefully, tell the committee how slower 
procurement and maintenance might impact the health of the 
military vehicle industrial base. More generally, we're 
interested to hear from our witnesses their assessment of and 
their plans to manage risks in the industrial base.
    Again, to our witnesses, our country is appreciative of 
your leadership of the Army in meeting these complex 
challenges.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, General Odierno, I've enjoyed our getting to 
know each other well, both in the field and in the office.
    It's hard for me to believe, Secretary McHugh, that you and 
I have been friends since we sat next to each other on the 
House Armed Services Committee. I won't even mention how long 
ago that was.
    But, anyway, we hear all the time--and, of course, it's 
true--that our Army is the best-tested and so forth, but there 
are really some serious problems that are out there. I think 
the chairman has articulated, and very well, that this budget 
is emblematic of the growing mismatch between the missions and 
the capabilities that we expect our Armed Forces to maintain in 
the budget resources provided to them.
    Last week, Director of the National Intelligence, James 
Clapper, stated, ``In my almost 50 years in intelligence, I do 
not recall a period in which we confronted a more diverse array 
of threats, crises, and challenges around the world.'' I agree 
with him. Yet, despite that reality, we're poised to cut over 
$1 trillion from our military. These cuts are having a 
significant impact on the Army. Even without sequestration, 
these budget cuts are causing a significant decline in the 
readiness of our Army and its ability to train for the next 
contingency.
    General Campbell, the Vice Chief of the Army, recently 
stated before the Senate Armed Services Committee's Readiness 
and Management Support Subcommittee, ``To meet the sequestered 
targets to protect our warfighter, warfighter funding in fiscal 
year 2013, we've currently curtained training for 80 percent of 
our ground forces for the next fiscal year. We've canceled six 
combat maneuver training exercises at the National Training 
Center (NTC) and the Joint Readiness Training Center (JRTC).''
    These cuts in training come at great cost to the readiness 
of the Army. I've often said, and everyone agrees, that 
readiness equals lives and risk. It means that our soldiers 
will be less capable and less prepared to deal with the growing 
threats abroad. The longer these cuts continue, the closer we 
get to a hollow force.
    Readiness is not the only area that I'm concerned about. 
The Army has rightfully prioritized funding to support deployed 
and next-to-deploy forces, but we are learning that the Army's 
modernization accounts, its future readiness, are at 
significant risk. These negative effects on modernization are 
only compounded by sequestration. Last week, General Campbell 
stated, ``Sequestration will also result in delays to every 1 
of our 10 major modernization programs, including the ground 
combat vehicle (GCV), the network, and the joint light tactical 
vehicle (JLTV). It will increase costs. It will create an 
inability to reset our equipment after 12 years of war.''
    These cuts will also have an impact on civilian workforce. 
The civilians play an important role in the Service, especially 
in maintenance and logistics area. I'm greatly concerned on how 
these furloughs will impact the support they provide the Army.
    The Service Chiefs continue to tell us that what they need 
the most is certainty, flexibility, and time. The Army's budget 
request does little to help the Army address these three 
concerns. Last week, in our Department of Defense (DOD) posture 
hearing, General Dempsey testified. He said, ``When budget 
uncertainty is combined with the mechanism and magnitude of 
sequestration, the consequences could lead to a security-gap 
vulnerability against future threats to our national security 
interests.'' That's exactly what we are beginning to see.
    I believe General Dempsey said it best in a letter signed 
by the Joint Chiefs to the congressional defense committees: 
``The readiness of our Armed Forces is at a tipping point.''
    So, we hear it from everyone, about what is happening, 
about the immorality--I call it--of the action that is being 
taken that's forcing you to do a better job. I've said, General 
Odierno, several times in the past that you do a great job, you 
guys, with the hand that's dealt. We have to deal you a better 
hand. I think that's what this is all about, and I look forward 
to your testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

             Prepared Statement by Senator James M. Inhofe

    Thank you, Mr. Chairman, I join you in welcoming Secretary McHugh 
and General Odierno and thank them for their many years of dedicated 
service to our Nation.
    The purpose of our hearing today is to discuss the fiscal year 2014 
budget request for the Department of the Army. Our Army continues to 
perform with remarkable courage, professionalism, and effectiveness 
around the world. They are battletested after a decade of sustained 
combat operations and demonstrate every day that they are the best led, 
trained, and equipped land force in the world. It is our responsibility 
to ensure that this continues to be the case. Unfortunately, the budget 
request before us today falls short of this necessary goal.
    This budget is emblematic of the growing mismatch between the 
missions and capabilities we expect our Armed Forces to maintain and 
the budget resources provided to them. Last week, Director of National 
Intelligence James Clapper stated: ``in my almost 50 years in 
intelligence, I do not recall a period in which we confronted a more 
diverse array of threats, crises, and challenges around the world.'' I 
agree with him. Yet, despite this reality, we're poised to cut over a 
trillion dollars from our military. These cuts are having a significant 
impact on the Army. In August 2011, Congress passed the Budget Control 
Act (BCA) of 2011, which reduced planned defense spending by $487 
billion over 10 years. The Army's share of the phase 1 cuts associated 
with the BCA are forcing the Army to reduce its end strength by 80,000 
Active-Duty Forces by 2017 and to cut the number of brigade combat 
teams from 44 to 36.
    Additionally, these budget cuts when coupled with the impacts of 
sequestration are causing a significant decline in the readiness of our 
Army and its ability to train for the next contingency. General 
Campbell, the Vice Chief of Staff of the Army, recently stated before 
the Senate Armed Services Committee's Readiness and Management Support 
Subcommittee: ``To meet the sequestered targets to protect war fighter 
funding in fiscal year 2013, [we're] currently curtailing training for 
80 percent of our ground forces for the next fiscal year. We've 
cancelled six combat maneuver training exercises at [the] National 
Training Center and the Joint Readiness Training Center.'' These cuts 
in training come at great cost to the readiness of our Army. It means 
that our soldiers will be less capable and less prepared to deal with 
growing threats abroad. And, the longer these cuts continue, the closer 
we get to a hollow force.
    Readiness is not the only area that I'm concerned about. The Army 
has rightfully prioritized funding to support deployed and next-to-
deploy forces, but we are learning that the Army's modernization 
accounts--its future readiness--are at significant risk. Overall, the 
Army's base budget request for its modernization accounts is $1.7 
billion less than last year's request, driven primarily by reductions 
in aviation and ammunition procurement and Ground Combat Vehicle 
research and development. These reductions do not reflect cuts 
associated with sequestration nor do they reflect the likely reduction 
to the modernization accounts this year as the Army attempts to solve 
its fiscal year 2013 readiness shortfalls. These negative effects on 
modernization are only compounded by sequestration. Last week, General 
Campbell stated: ``Sequestration will also result in delays to every 1 
of our 10 major modernization programs, including the ground-combat 
vehicle, the network, and the joint light tactical vehicle. In most 
cases, this will increase our cost. It will create an inability to 
reset our equipment after 12 years of war.''
    The civilian workforce is an important component of the Army. They 
provide a variety of services especially in the maintenance and 
logistics arena. Prior to passing a defense appropriations act, the 
Army, along with the rest of the Department was directed to furlough 
its entire civilian workforce for up to 22 days. However, as a result 
of H.R. 933 which provided budgetary relief for fiscal year 2013, the 
Department adjusted the furlough period from 22 to 14 days. I'm greatly 
concerned with the impact of these furloughs and look to our witnesses 
to provide more information on how these cuts are affecting our 
civilians.
    The Service Chiefs continue to tell us that what they need the most 
is certainty, flexibility, and time. The Army's budget request does 
little to help the Army address these concerns. Ongoing budget 
uncertainty has degraded the readiness of our Army and I'm concerned 
with the long term impacts if we don't address these shortfalls now. 
Last week in our Defense Department Posture Hearing, General Dempsey 
testified, ``When budget uncertainty is combined with the mechanism and 
magnitude of sequestration, the consequences could lead to a security 
gap-vulnerability against future threats to our national security 
interests.'' That is exactly what we are beginning to see.
    I believe General Dempsey said it best in a letter, signed by the 
Joint Chiefs of Staff, to the Congressional Defense Committees: ``The 
readiness of our Armed Forces is at a tipping point.'' I couldn't agree 
with him more. We're going down a path where readiness and capability 
are being cut at such a rate that, as General Dempsey has stated 
previously, it would be ``immoral'' to use this force. We need for our 
witnesses to tell us not only what it will cost to prevent a further 
decline in the readiness of our Army, but also what it will take to 
rebuild the readiness that's been lost already this year.
    It is our job today to make sure we understand the impacts and 
ramifications of reducing the Army budget to levels from which we may 
never recover if we ``go over the tipping point.'' Such an outcome 
would have dire implications for our Army. We cannot allow that happen.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much, Senator Inhofe.
    Secretary McHugh.

               STATEMENT OF HON. JOHN M. McHUGH, 
                     SECRETARY OF THE ARMY

    Mr. McHugh. Thank you very much, Mr. Chairman, Ranking 
Member Inhofe, distinguished members of the committee. Thank 
you for the opportunity, once again this year, to appear before 
you to discuss what I know you will agree is the extraordinary 
work of America's Army this past year, its current state, and, 
of course, the vital requirements that are necessary to sustain 
our combat power for today, tomorrow, and beyond.
    I want to assure all the members of this committee, in 
response to the chairman's opening comments, this Army--and I 
think I can speak for all the Services--deeply, deeply 
appreciates the leadership, the guidance, and sometimes the 
shelter that you, the members of this great committee, provide. 
We not just look forward to, we very much need to continue to 
work with you in the days ahead.
    I wish I had better news to share, frankly, but today we 
find our Army at what can be described as a dangerous 
crossroads, one which if we, as a Nation, choose the wrong 
path, may severely damage our force, further reduce our 
readiness, and hamper our national security for years to come.
    Over the last 12 years, this Nation has built the most 
combat-ready, capable, and lethal fighting force the world has 
ever known. From Iraq and Afghanistan to the Horn of Africa and 
Korea, we have fought America's enemies, protected our national 
interests, deterred would-be aggressors, and supported our 
allies with unprecedented skill, determination, and, quite 
frankly, results. Over the last year alone, we've seen great 
success in operations ranging from counterterrorism and 
counterinsurgency to homeland security and disaster response. 
Soldiers and civilians from all components--Active, Guard, and 
Reserve--have repeatedly risked their lives to defend our 
freedom, to save the lives of others, and to support our 
citizens in recovering from hurricanes, wildfires, and even 
droughts. There has been no foreign enemy, natural disaster, or 
threat to our Homeland that your Army has not been prepared to 
decisively engage.
    Unfortunately, today we face an unparalleled threat to our 
readiness, capabilities, and soldier and family programs. That 
danger comes from the uncertainty caused by continued 
sequestration, funding through repeated Continuing Resolutions 
(CR), and significant shortfalls in overseas contingency 
accounts.
    In fiscal year 2013, the blunt ax, known as sequestration, 
which struck in the last half of the year, on top of the $487 
billion in Department-wide cuts already imposed by the BCA, 
forced us to take a extraordinary measures just to ensure that 
our warfighters have the support needed for the current fight. 
We made those hard decisions, but at a heavy price to our 
civilian employees, training needs, maintenance requirements, 
readiness levels, and to a myriad of other vital programs 
necessary to sustain our force and to develop it for the 
future.
    For the Army, sequestration created an estimated shortfall 
of $7.6 billion for the remaining 6 months of fiscal year 2013. 
This includes nearly $5.5 billion in O&M accounts alone, as the 
chairman referenced. The impact of this drastic decline over 
such a short period will directly and significantly impact the 
readiness of our total force. We've reduced flying hours, 
frozen hiring, and released hundreds of temporary and term 
workers. We were forced to cancel initial entry training for 
more than 2,300 military intelligence soldiers, reduce training 
to the described level for our nondeploying units, and had to 
cancel again, as the chairman and ranking member noted, all but 
two of the remaining brigade decisive-action rotations at our 
NTC. This is on top of the drastic impacts to our depot, 
vehicle, and facility maintenance programs. Unavoidably, these 
negative effects will cascade well into the next fiscal year, 
and often beyond.
    Simply put, to continue sequestration into fiscal year 2014 
and beyond would not only be irresponsible but devastating to 
the force, but it would also directly hamper our ability to 
provide sufficiently trained and ready forces to protect our 
national interests.
    Moreover, full implementation through fiscal year 2021 will 
require even greater force reductions that will dramatically 
increase strategic risk. For example, just to maintain balance, 
we may have to reduce over 100,000 additional personnel across 
all three components. When coupled with the cuts driven by the 
BCA already, your Army could lose up to 200,000 over the next 
10 years.
    Consequently, to mitigate against the continued impacts of 
such indiscriminate reductions, our fiscal year budget request 
for 2014, as in the House and as in the Senate resolutions, 
does not reflect further sequestration cuts. Rather, we attempt 
to protect some of our most vital capabilities, which were 
developed over nearly a dozen years of war in a hedge against 
even further reductions in readiness. We hope that, if 
additional funding reductions are required, they are properly 
backloaded into later fiscal years and that we're provided the 
time and flexibility to better implement them, and do as 
responsibly as possible.
    For all of its challenges, continued sequestration is only 
part of the danger we face. Since fiscal year 2010, the Army 
has experienced funding through some 15 different CRs. This has 
caused repeated disruptions in our modernization efforts, 
uncertainty in our contracts, and unpredictability for our 
industrial base. Each CR prevents new starts for needed 
programs and creates inefficiencies that often result in 
wasteful spending for things we no longer need or can no longer 
afford. This year it was 6 months into the fiscal year before 
we had an appropriation, and there's more.
    While we remain at war with a determined enemy in 
Afghanistan while simultaneously conducting retrograde 
operations, we must remember that Overseas Contingency 
Operations (OCO) funding is essential. Unfortunately, your Army 
currently faces up to a $7.8 billion deficit in overseas 
contingency funding. Although, as noted earlier, we will not 
allow our warfighters to suffer, OCO shortfalls disrupt our 
ability to repair and reset equipment, and directly impact our 
organic and commercial industrial bases.
    Continued budgetary uncertainty jeopardizes our ability to 
have the right forces with the right training and the right 
equipment in the right place to defend our Nation. Our 
readiness has suffered, our equipment has suffered, and, if 
we're not careful, our people may suffer, as well.
    As such, more than ever before, we need you, our strategic 
partners, to help ensure that America's Army has the resources, 
tools, and force structure necessary to meet our requirements 
both at home and abroad. The Army's fiscal year 2014 budget 
request is designed to meet those objectives. As you'll see, 
the fiscal year 2014 submission meets our current operational 
requirements while allowing us to build an Army to meet future 
challenges through prudently managing and aligning force 
structure, readiness, and modernization against strategic risk.
    First, it helps us balance readiness across the total 
force--Active, National Guard, and Reserve. It allows us to 
refocus training toward core competencies, and supports a 
steady and sensible transition to a smaller force.
    Second, it reinforces the Army's central role in the 
defense strategy by allowing us to strengthen our global 
engagements with regionally aligned forces, and ensures that we 
remain a lynchpin of the rebalance toward the Asia-Pacific 
theater.
    Third, it provides for vital reset and replacement of 
battle-damaged equipment, helps to support our industrial base, 
and funds key modernization priorities focused on soldier-squad 
systems, the network, and enhanced mobility.
    Most importantly, it sustains our commitment to soldiers, 
civilians, and their family members, many of whom continue to 
deal with the wounds, illnesses, and stresses of war. From 
suicide prevention and Wounded Warrior programs to resiliency 
training and sexual assault prevention and prosecution, this 
budget is designed to strengthen, protect, and preserve our 
Army family that uses those programs, and uses them in ways 
that are efficient, effective, and comprehensive. We have a 
sacred covenant with all those who serve and with all those who 
support them, and we must not break it.
    Nevertheless, we recognize our Nation's fiscal reality. 
Accordingly, our budget proposal will further these vital goals 
with a 4 percent reduction from fiscal year 2013's budget base, 
achieved through prudent, well-planned reductions, not 
indiscriminate slashing.
    In conclusion, on behalf of the men and women of the Army, 
let me thank you again for your thoughtful oversight, your 
unwavering commitment, and your proud partnership with this 
Army. With your support, the Army has become the finest land 
force in history. Now we need to work together to help protect 
the hard-fought capabilities developed over years of war and to 
ensure we have the resources necessary to meet the unforeseen 
challenges that may lie ahead.
    Our soldiers, civilians, and family members are second to 
none, as I know everyone on this committee knows and agrees. 
They are patriots, working tirelessly every day to support and 
to defend freedom. America's Army has succeeded in Iraq and is 
making progress in Afghanistan, and, at this moment, and as 
this budget demonstrates, is focused on completing the current 
fight as we transform into a leaner, more adaptable force. To 
do so, as I said earlier, we need flexibility, predictability, 
and the funding necessary to ensure we have highly trained and 
ready forces to meet the mission. As we face this crossroads 
together, it's critical that we choose the right path for our 
soldiers, our Army, and our Nation.
    Thank you, Mr. Chairman.
    [The prepared joint statement of Mr. McHugh and General 
Odierno follows:]

          Prepared Joint Statement by Hon. John M. McHugh and 
                      GEN Raymond T. Odierno, USA

                              INTRODUCTION

    The Army has been in a state of continuous war for the past 12 
years, the longest in our Nation's history. More than 168,000 soldiers 
are deployed or forward stationed in nearly 150 countries worldwide. 
The global security environment points to further instability, and the 
Army remains a key guardian of our national security.
    The Army's ability to perform this vital role, and field a ready 
and capable force that meets mission requirements, has been placed at 
risk by fiscal challenges in fiscal year 2013. The combined effects of 
funding reductions due to sequestration, the fiscal uncertainty of 
Continuing Resolutions and emerging shortfalls in Overseas Contingency 
Operations funding has significantly and rapidly degraded Army 
readiness, which will translate directly into fiscal year 2014 and 
beyond. This lack of predictability makes it difficult to address the 
posture of the Army in fiscal year 2014 with certainty and specificity. 
However, this document will address some of the potential long-term 
effects that fiscal uncertainty will have on the Army.
Landpower for the Nation
    America's Army is the best-trained, best-equipped and best-led 
fighting force in the world, providing a credible and capable 
instrument of national power. Army forces play a fundamental role in 
all but one of the missions specified by the defense strategic 
guidance, Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense. The Army's ability to provide strategic landpower for 
the Nation makes it uniquely suited to meet these requirements. Army 
forces are tailorable and scalable to meet mission requirements. The 
Army's ability to rapidly deploy task organized forces, from company to 
corps level over extended distances, sustain them and deliver precise, 
discriminate results is unmatched. Highly ready, responsive and capable 
ground forces prevent conflict through deterrence, by shaping combatant 
commanders' operational environment and, when necessary, winning the 
Nation's wars.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Fiscal Challenges
    The Budget Control Act of 2011 imposed caps on discretionary 
spending that required a $487 billion reduction in planned defense 
spending over 10 years. As a result of these spending cuts and in line 
with the defense strategic guidance announced in January 2012, we are 
reducing Active Army end strength from a wartime high of about 570,000 
to 490,000, the Army National Guard from 358,200 to 350,000, the Army 
Reserve from 206,000 to 205,000 and the civilian workforce from 272,000 
to 255,000 all by the end of fiscal year 2017. These reductions, which 
began in fiscal year 2012, represent a net loss of 106,000 soldier and 
civilian positions.
    The implementation of sequestration in fiscal year 2013 created a 
significant shortfall in Army funding, estimated at $7.6 billion for 
the remaining months of the fiscal year, which includes nearly $5.5 
billion in the Operation and Maintenance account for Active and Reserve 
component forces. We also face up to a $7.8 billion shortfall in 
Overseas Contingency Operations funding due to increasing costs related 
to the war in Afghanistan. The sharp decline over a short period of 
time significantly impacts readiness which will cascade into the next 
fiscal year and beyond.
    The President's budget includes balanced deficit reduction 
proposals that allow Congress to replace and repeal the sequester-
related reductions required by the Budget Control Act of 2011 through 
fiscal year 2021. In the absence of such an agreement, the Army may not 
be able to execute the current defense strategic guidance as planned. 
This may compel actions that break faith with our soldiers, civilians, 
and families. Full implementation of sequestration and its associated 
outyear budget cuts will require further force structure reductions 
that will greatly increase strategic risk. To maintain balance between 
force structure, readiness and modernization, the Army may have to 
reduce at least 100,000 additional personnel across the Total Force--
the Active Army, the Army National Guard, and the Army Reserve. When 
coupled with previously planned cuts to end strength, the Army could 
lose up to 200,000 soldiers over the next 10 years. If steep cuts are 
required in fiscal year 2014 and beyond, this will create imbalance and 
significantly compound risk. It will cause a disproportionate 
investment across manpower, operations and maintenance, modernization 
and procurement, challenging our ability to sustain appropriate 
readiness in the near term in support of our current defense strategy.
    To some extent, the impact of spending reductions can be mitigated 
if funding is timely and predictable, and cuts are backloaded, enabling 
the Army to plan, resource and manage the programs that yield a highly 
trained and ready force. Continued fiscal uncertainty, on the other 
hand, poses considerable risk to our ability to maintain a ready force. 
Each Continuing Resolution prevents new starts for needed programs, 
limits reprogramming actions, creates inefficiency and often results in 
wasteful funding for accounts that we no longer want or need. Resource 
predictability affords the Army the opportunity to plan and shape the 
Army's force for the future within identified budgetary constraints.
    The fiscal year 2014 budget is designed to meet current operational 
requirements and allows us to build an Army to meet our future needs by 
balancing force structure, readiness and modernization. It fully 
supports the Army's central role in the defense strategic guidance. The 
budget request funds balanced readiness across the Total Force while 
retaining agility and capacity. It supports reset and replacement of 
battle-damaged equipment, as well as modernization priorities. A 4-
percent reduction from the fiscal year 2013 base budget request 
reflects the Army's acceptance of measured risk, accommodating a 
tightening fiscal environment.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                          AMERICA'S ARMY TODAY

    Beyond combat operations in Afghanistan, the Army conducts many 
missions worldwide in support of national security objectives, as well 
as within the United States in support of civil authorities. The Total 
Force provides the foundation for Joint operations. Demand for Army 
forces in Afghanistan will continue to decrease. However, the 
requirement for strategic landpower capable of worldwide deployment 
will endure.

Operations Around the World
    The Army has nearly 80,000 soldiers currently committed to 
operations around the world--in Afghanistan, Kosovo, the Philippines, 
Horn of Africa, Turkey, Sinai Peninsula and throughout the Middle East. 
Forward-stationed Army forces, in the Republic of Korea, Japan, Europe 
and elsewhere, provide Geographic Combatant Commands with an 
unparalleled capability to prevent conflict, shape the environment and, 
if necessary, win decisively. About 77,000 soldiers are postured to 
support operations and engagements in the Asia-Pacific region. During 
2012, these soldiers participated in security cooperation engagements 
in 23 countries across the Pacific. Reductions to our force posture in 
Europe are underway, but a significant Army presence and commitment 
remains. Army forces in Europe remain a critical source of timely 
operational and logistical support for operations in other theaters, 
such as Southwest Asia and Africa. The long-term impacts of 
sequestration and the associated outyear reductions, particularly to 
force structure and readiness, threaten the Army's ability to provide 
trained and ready forces to perform these enduring and vital missions.

Operations in Afghanistan
    The approximately 60,000 soldiers deployed to Afghanistan, in both 
conventional and special operations units, remain our top priority. The 
Army provides the corps-level headquarters that form the basic 
structures for conventional forces in the theater, and provides two 
division-level headquarters that control the majority of operational 
activities in the country. The Combined Joint Special Operations Task 
Force is built on a foundation of an Army Special Forces Group. The 
majority of combat units in theater are U.S. Army, and some of the most 
critical enablers such as tactical unmanned aerial vehicles and route 
clearance units are almost exclusively U.S. Army. The critical 
transition to Afghan leadership in security is being enabled by 
thousands of Army noncomissioned officers (NCO), officers, and soldiers 
who have been remissioned to advise and assist the increasingly capable 
Afghan National Security Forces. The Army also provides essential 
logistics capabilities that sustain the land-locked Afghan theater. In 
fact, only the Army can provide the theater logistics, transportation, 
medical and communications infrastructure necessary to support 
operations of this size, complexity, and duration. The Army has also 
begun the challenging task of equipment and materiel retrograde and 
refit from Afghanistan. It is a daunting task by virtue of the sheer 
volume of the equipment that must be brought home as well; this 
challenge is compounded by harsh geography, adverse weather and ongoing 
combat operations. Funding shortfalls threaten to further extend the 
timeline and increase overall costs.

Missions as a Member of the Joint Force
    The Army provides a wide range of capabilities as an indispensable 
member of the Joint Force. Every day, the Army maintains deployable 
contingency forces, employs forward-based capabilities, delivers 
humanitarian assistance and conducts multilateral exercises with 
partners and allies. The Army maintains a Global Response Force at 
constant high readiness providing the Nation its only rapid response, 
inland forcible entry capability for unforeseen contingencies. Army 
forces set theaters for the combatant commanders maintaining constantly 
the critical logistical, communications, intelligence, medical and 
inland ground transportation infrastructure to support all plans and 
contingencies. We maintain partner relationships that ensure access to 
critical regions around the world. Army commanders and headquarters 
lead Joint Task Forces, plan operations and exercise mission command of 
units across the full range of military operations. Army units provide 
space, air and missile defense capabilities for the Joint Force. We 
build and operate the space and terrestrial communication networks that 
connect our own units, the Joint community, and interagency and 
multinational partners. Soldiers provide essential logistics 
infrastructure, delivering food, fuel, ammunition, materiel and medical 
support that sustain Joint operations ranging from combat to 
humanitarian assistance. In addition, the Army collects and analyzes 
the intelligence that informs our actions and measures our progress, 
and provides the majority of the forces in U.S. Special Operations 
Command.

Missions at Home and Support of Civil Authorities
    The Total Force is prepared to defend the Homeland and routinely 
conducts critical Defense Support of Civil Authorities operations. As 
this past year demonstrated through wildland fires, two major 
Hurricanes (Isaac and Sandy), floods in the heartland and multiple 
winter storm emergencies, the Army is always ready to respond to the 
call of its citizens. The Army does so by performing a wide range of 
complex tasks in support of civil authorities during natural and 
manmade disasters, including Chemical, Biological, Radiological, or 
Nuclear incidents, and for counterdrug operations within each State, as 
well as along the approaches to the United States. After Hurricane 
Sandy struck the eastern United States, more than 22,000 Active and 
Reserve component soldiers, which included over 10,000 Army National 
Guard soldiers from 19 States, provided immediate and sustained relief. 
Army Corps of Engineers soldiers and civilians pumped more than 475 
million gallons of water from the New York City subway system and all 
tunnels connecting Manhattan.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                        THE ARMY FOR THE FUTURE

    The Army for the future will feature regionally aligned and 
mission-tailored forces designed to respond to combatant commander 
requirements to prevent conflict, shape the strategic environment and, 
when necessary, win decisively. Maintaining credible strategic 
landpower requires the Army to continually assess and refine how we 
operate, manage our human capital and increase our capabilities, all 
while mitigating the effects of significant reductions in funding. We 
must exploit our advantages in some key areas such as leader 
development; strategic, operational and tactical mobility; command, 
control, communications, computers, and intelligence (C4I) and 
logistics. As we transition over the next 5 to 10 years, this effort 
will be underpinned by a strong institutional Army. This institutional 
Army mans, trains, equips, deploys and ensures the readiness of all 
Army forces. It generates the concepts and doctrine that guides the way 
we operate. It runs the professional military education system, that 
provides our country unparalleled thinkers and leaders at the tactical 
operational and strategic levels. It recruits our soldiers and prepares 
them for military services. It is the foundation upon which readiness 
is built, enabling the operational Army to provide landpower capability 
to the combatant commander. The institutional Army takes a deep look at 
the future strategic environment to formulate concepts and plans for 
the best mix of capabilities to meet the Nation's land warfare 
challenge--the right skills, right doctrine, right equipment and the 
right qualities in our adaptive leaders.
    The Army must strike a balance between force structure, readiness 
and modernization, in a manner that is mindful of fiscal realities yet 
also provides the Nation with optimized but capable landpower. The 
decisions we have made in response to fiscal year 2013 budget 
reductions will have far reaching impacts on the Army. Clear priorities 
guided these decisions. All soldiers meeting operational requirements--
such as those deployed to Afghanistan, Kosovo and the Horn of Africa or 
forward stationed in the Republic of Korea--will be prepared and ready. 
We will fund programs related to Wounded Warrior care. Finally, we will 
determine whether we have sufficient funds to continue training the 
units that meet our Global Response Force requirements. The rest of the 
Army, however, will experience significant training and sustainment 
shortfalls that will impact readiness this year and will be felt for 
years to come. The Army's ability to perform its missions, as directed 
in the defense strategic guidance, will inevitably be degraded.

Globally Responsive, Regionally Engaged Strategic Land Forces
    Regional alignment will provide Geographic Combatant Commands with 
mission-trained and regionally focused forces that are responsive to 
all requirements, including operational missions, bilateral and 
multilateral military exercises and theater security cooperation 
activities. Regionally aligned forces are drawn from the Total Force, 
which includes Active Army, Army National Guard, and Army Reserve 
capabilities. Aligned Corps and Divisions will provide Joint Task Force 
capability to every geographic combatant command. Through regional 
alignment, the Army will maintain its warfighting skills and complement 
these skills with language, regional expertise and cultural training. 
For example, 2nd Brigade of the 1st Infantry Division, stationed at 
Fort Riley, KS, is aligned with U.S. Africa Command for fiscal year 
2013. In support of U.S. Africa Command objectives, the brigade will 
conduct engagement activities in 34 African nations over the coming 
year.
    Regionally aligned, mission tailored forces play an essential role 
in the defense strategic guidance, which rebalances to the Asia-Pacific 
region while maintaining our commitment to partners in and around the 
Middle East. Lessening demand for forces in Afghanistan allows our 
aligned units in the Asia-Pacific theater to refocus on supporting U.S. 
Pacific Command's objectives. In addition, U.S. Army Pacific will be 
elevated to a four-star headquarters in 2013. I Corps, stationed at 
Joint Base Lewis-McChord, WA, is developing Joint Task Force command 
capability, which will provide a deployable headquarters that can meet 
contingencies across the full range of military operations. These 
initiatives will enhance the capability and responsiveness of our 
forces. However, the training shortfalls and readiness impacts of 
sequestration places the Army's ability to provide these critical 
capabilities at risk.

Training for Operational Adaptability
    In recent years the Army has deliberately focused training on 
counterinsurgency and stability operations to support requirements in 
Iraq and Afghanistan. We will build upon that expertise while 
transitioning to a more versatile Army, with operationally adaptable 
land forces that will take on a broader range of missions in support of 
the national defense strategy. Innovative training methods produce 
ready and responsive forces while optimizing our resources. Army units 
train at Combat Training Centers, while deployed and at home station. 
Live, virtual, and constructive training enables Army commanders to 
conduct multi-echelon events in a complex environment at home station. 
The Army's Decisive Action Training Environment, which has been 
incorporated by each of our three maneuver Combat Training Centers, 
creates a realistic training environment that includes Joint, 
Interagency, Intergovernmental, and Multinational partners against a 
wide range of opportunistic threats.
    Sequestration has had an immediate impact on the Army's ability to 
train at every level--individual soldier, Brigade Combat Team, and 
deployable headquarters. We were forced to cancel fiscal year 2013 
Initial Entry Training (IET) for more than 2,300 Military Intelligence 
soldiers, and we may have to cancel up to 10 Field Artillery IET 
classes, which would affect over 200 soldiers. We may also be forced to 
cancel all but two of the remaining fiscal year 2013 brigade-level 
Decisive Action rotations at our Maneuver Combat Training Centers 
unless additional funds become available. Training in fiscal year 2014 
and beyond remains at risk as well. With sequestration, the Army will 
not be able to fully train our soldiers, whether through professional 
military education or collective unit training, in a way that enables 
them to operate successfully in a complex environment across the full 
range of military operations. The long-term readiness impacts of the 
resulting deficit in trained forces will jeopardize the Army's ability 
to meet war plan requirements.

People
    The soldiers of our All-Volunteer Force are the Army's greatest 
strategic asset. These professional men and women provide depth and 
versatility throughout the Total Force--the Active Army, the Army 
National Guard, and the Army Reserve. As the Army gets smaller, it 
becomes even more important that we retain and recruit only the highest 
quality soldiers. With the support of Congress, we will maintain a 
military pay and benefits package--to include affordable, high-quality 
health care--that acknowledges the burdens and sacrifice of service 
while understanding our future fiscal environment. During 2012, 96 
percent of the Army's recruits were high school graduates, exceeding 
the goal of 90 percent. The fiscal year 2012 Active component 
recruiting effort produced the highest quality enlisted recruits in our 
history, based on test scores and waivers issued. We are also on track 
to sustain the high retention rate of the past 3 years. While the Army 
draws down, it is important that we do so at a pace that will allow us 
to continue to recruit and retain these high-quality soldiers. A 
precipitous drawdown, which may be necessary if sequestration and 
associated reductions in budgetary caps are fully implemented over the 
coming years, will have lasting impacts on the quality of the force.
    The Army is committed to ensuring that female soldiers are provided 
career opportunities that enable them to reach their highest potential 
while enhancing overall Army readiness. Over the last year, the Army 
opened more than 13,000 positions to women. In January 2013, the 
Department of Defense rescinded the Direct Ground Combat Definition and 
Assignment Rule, thus enabling the elimination of unnecessary gender-
based restrictions for assignment. The Army is currently developing, 
reviewing and validating occupational standards, with the aim of fully 
integrating women into occupational fields to the maximum extent 
possible. We are proceeding in a deliberate, measured and responsible 
way that preserves unit readiness, cohesion and morale.
    Ready and Resilient
    Caring for the Army means doing our best to prepare soldiers, 
civilians, and families for the rigors of Army life. The Army remains 
committed to providing soldiers and families with a quality of life 
commensurate with their service. We continue to review our investments 
and eliminate redundant and poor performing programs. The Army will 
make every effort to protect essential Army Family Programs, but they 
will be unavoidably affected by workforce reductions, cuts to base 
sustainment funding and the elimination of contracts.
    The Army's Ready and Resilient Campaign enhances readiness for the 
Total Force by tailoring prevention and response measures to promote 
physical and mental fitness, emotional stability, personal growth and 
dignity and respect for all. An integral part of this campaign is the 
Comprehensive Soldier and Family Fitness Program, which strengthens 
soldiers, family members, and Army civilians by addressing physical, 
emotional, family, spiritual, and social fitness collectively. Healthy 
soldiers, families, and civilians perform better, are more resilient, 
and improve unit readiness.
    The challenges associated with suicide directly affect the force. 
It is a complex phenomenon that reflects broader societal problems and 
defies easy solutions. To better understand psychological health 
issues, the Army has partnered with a number of agencies to assess 
mental health risk and help commanders effectively address this 
persistent problem. In collaboration with the National Institute of 
Mental Health, the Army is examining risk and resilience factors among 
soldiers in the largest behavioral health study of its kind ever 
undertaken. The study will develop data-driven methods to reduce or 
prevent suicide behaviors and improve soldiers' overall mental health. 
The objective is to identify the most important risk and protective 
factors, and then act on them. Programs that improve soldier and family 
access to care, while reducing stigma, are essential to our efforts. 
The Embedded Behavioral Health program, which is being established for 
all operational units in the Active Army, is a leading example of how 
we are redesigning behavioral health services to improve the care that 
our soldiers receive.
    The Army is committed to providing quality care for our wounded, 
ill, and injured soldiers and their families. During 2012, six new 
warrior transition complexes were completed, which consist of barracks, 
administrative facilities and a Soldier and Family Assistance Center. 
Medical innovation and groundbreaking research in areas such as 
traumatic brain injury and post-traumatic stress disorder are helping 
us improve the care we provide our wounded soldiers. Our command 
climate must foster an environment in which soldiers can seek 
assistance without stigma.

Sexual Harassment/Assault Response and Prevention Program
    The Army continues to employ the Sexual Harassment/Assault Response 
and Prevention Program (SHARP) to eliminate sexual assault and 
harassment within our ranks. Active and engaged leadership is central 
to helping the Army community understand that a climate that respects 
and grants dignity to every member of the Army family increases our 
combat readiness. The Army will reinforce a culture in our basic 
training units, our officer training courses and our operational units 
in which sexual harassment, sexual assault and hazing are not 
tolerated, and if they occur are dealt with rapidly and justly. We are 
adding 829 full-time military and civilian sexual assault response 
coordinators and victim advocates at the brigade level as well as 73 
trainers, certifying those personnel, and executing more frequent 
command climate surveys in units. We have begun the hiring process for 
the 446 civilian positions.
    The Army has increased emphasis on investigations, prosecutions and 
laboratory resources needed to effectively build cases in order to 
ensure each alleged incident is adequately investigated, and if found 
credible, prosecuted to the full extent of the law. All unrestricted 
sexual assault allegations are referred to the Criminal Investigation 
Division, where we have added four highly qualified expert criminal 
investigators and 6 expert military attorneys and 20 specially trained 
agents who pursue their investigations independent of the command. We 
have also hired 30 additional Lab Examiners. Our 20 Special Victim 
Prosecutors educate and support the victim and provide advice and 
counsel to the criminal investigators as well as commanders. 
Sequestration and associated civilian furloughs are likely to degrade 
aspects of our SHARP efforts, from slowing hiring actions, to delaying 
lab results which hinders our ability to provide resolution for 
victims.
    Develop Adaptive Leaders
    One of our greatest advantages is our officers and noncommissioned 
officers, and the Army's ability to provide strategic landpower depends 
on the quality of these leaders. While we can recruit and train 
soldiers in relatively short order, the Army cannot build leaders in a 
similar timeframe. Army leaders must be innovative, possess a 
willingness to accept prudent risk in unfamiliar, highly complex and 
dangerous environments and display an ability to adjust based on 
continuous assessment. As we face an uncertain future with an uncertain 
level of resources, we must prudently commit to the one certain, high-
payoff investment--our leaders. Training, education and experience are 
the pillars of our leader development strategy, and we have many 
initiatives underway to ensure we cultivate, manage and optimize the 
talent of our leaders. We are instituting a program to match personal 
history and informal skills to duty assignments. We are implementing 
and improving our 360-degree assessment programs for officers and are 
making 360-degree assessments prerequisites to assume command at the 
lieutenant colonel and colonel levels. We are dramatically increasing 
the opportunity for and emphasis on broadening experiences and have 
increased the number of fellowships for our officers in government, 
industry and academia. Cuts to institutional and unit training, due to 
sequestration, OCO budget shortfalls in fiscal year 2013 and continuing 
fiscal uncertainty, will degrade our ability to develop leaders and 
will have long-term impacts on the readiness of the force.

Equipment Modernization and Reset
    As we prepare for the future, we will need to invest considerable 
time and resources to restore equipment used in combat operations to an 
acceptable level of readiness through reset operations, a combination 
of repair, replacement, recapitalization and transition. At the same 
time, other pressing modernization needs require attention and 
investment. The long-term nature of sequestration-related budget 
reductions puts each of the Army's investment priorities at risk. All 
acquisition priorities and many equipment modernization programs may 
face unanticipated schedule or cost impacts in the out years.
    The Army will require Overseas Contingency Operations funding for 
equipment reset for 3 years after the last piece of equipment has been 
retrograded from Afghanistan. This funding will support the substantial 
workload required for equipment retrograde, induction and repair, a 
process that can take up to 3 years for some items such as crash and 
battle damaged aircraft. Fiscal year 2013 budget reductions have 
already placed the Army at a disadvantage, forcing the cancellation of 
depot maintenance that will delay required repairs and upgrades.
    Organic and Commercial Industrial Base
    The Army will deliberately draw down force and production levels to 
fulfill the strategic guidance we have received. Aware that the future 
may bring unexpected crises, we must retain the ability to regenerate 
capabilities quickly in response to unforeseen emergencies. It is 
critical that we find the right balance between our organic and the 
commercial industrial bases. The ability to reduce the industrial base 
in times of peace but surge as required remains essential to equipping 
the Army, the Joint Force, and, in many cases, our allies and coalition 
partners. The current fiscal environment threatens the retention of 
critical skill sets in our depots, arsenals and ammunition plants. 
Fiscal uncertainty in fiscal year 2013 led to delays in awarding many 
new contracts. Industry also began laying off workers and postponed 
hiring actions due to the slowdown in funding.
    Acquisition Reform
    The Army continues to reform the way it develops and acquires 
services and materiel through a capability portfolio review process. 
This approach exposes redundancies and ensures that funds are properly 
programmed in accordance with combatant commanders' requests, wartime 
lessons learned, progressive readiness and affordability. The Army 
develops capabilities through Army research and development processes, 
collaborating with other Services, industry, academia and international 
partners to identify and harvest technologies suitable for transition 
to the force.

Modernization Strategy
    The Army must maintain the technological edge over potential 
adversaries, enabling the force to prevail in all domains. The Army for 
the future requires capabilities that are versatile and tailorable, yet 
affordable and cost effective. The Army modernization effort goes 
beyond materiel and equipment solutions. It is a comprehensive strategy 
that includes doctrine, organizations, training, leadership, personnel 
and facilities. The heart of the strategy is the use of mature 
technologies and incremental upgrades of existing equipment, while 
balancing research investments between evolutionary and disruptive 
technologies. The modernization strategy is also supported by a risk-
based assessment to identify candidate capabilities for complete 
divestiture. Divestiture decisions will reduce total costs and preserve 
our ability to sustain the force.
    Soldier Systems
    The centerpiece of the Army Modernization Strategy is the soldier 
and the squad. The soldier portfolio focuses on equipment vital for 
squad success and empowers and enables squads with improved lethality, 
protection and situational awareness. It also includes resources to 
develop leaders and train soldiers to take advantage of new or improved 
capabilities. Planned improvements for dismounted soldiers include a 
mission command system that allows soldiers to see each other's 
positions, mark hazards collaboratively and access on-the-move 
broadband voice, data and video capabilities. This unprecedented 
situational awareness, coupled with the continued fielding of advanced 
sensors and lightweight small arms systems, will ensure that our 
soldiers and squads remain the best in the world.
    The Network and Investment in Cyber Capabilities
    The Network, also known as LandWarNet, is critical to empowering 
our soldiers. Our senior leaders and soldiers must have the right 
information at the right time to make the decisions essential to 
mission success. Consequently, the Army is building a single, secure, 
standards-based, versatile network that connects soldiers and their 
equipment to vital information and our joint, interagency, 
intergovernmental and multinational partners. It is critical that 
network modernization and sustainment efforts meet the ever-growing 
demand for tactical and business-related information and enterprise 
services in a timely manner and at an affordable cost.
    Ensuring freedom of maneuver in cyberspace and protecting our 
information and the Network is a continuing Army priority. The Army 
must strengthen its cyber security and network defense by building 
secure and resilient network environments, providing greater 
situational awareness, expanding programs for ensuring compliance with 
information assurance policies and best practices, and increasing 
training for all technical and non-technical personnel. To ensure the 
Army can defeat adversaries in both land and cyber domains, a full 
range of cyberspace capabilities must be available in support of the 
combatant commander, including well-trained cyber warriors, cyberspace 
operational freedom and assured mission command. This will require 
investment not only in technology, but also in people and process 
improvement.
    Ground Combat Vehicle and Joint Light Tactical Vehicle
    The Army's top two vehicle modernization programs are the Ground 
Combat Vehicle and Joint Light Tactical Vehicle. As a replacement for 
the Bradley Infantry Fighting Vehicle, the Ground Combat Vehicle will 
accommodate a full nine-man infantry squad in a vehicle that features 
increased underbelly and ballistic protection with scalable armor that 
provides maximum mission flexibility. The Ground Combat Vehicle will 
also provide sufficient space and power to host the Army's advanced 
network, increasing the effectiveness of the vehicle in any threat 
environment. The Army is developing the Joint Light Tactical Vehicle to 
fill capability gaps in the light wheeled vehicle fleet, carefully 
balancing payload, performance and protection. The Joint Light Tactical 
Vehicle combines an increased level of protection with improved 
mobility and transportability. It is also the Army's first network-
ready vehicle. Together, this integrated team of vehicles will be 
capable of dominating across the range of military operations and allow 
for incremental improvements.

                                CLOSING

    The American people have learned time and again that they can trust 
their Army to protect our national interests at home and abroad. Over 
the past 12 years of conflict, our Army has proven itself in arguably 
the most difficult environment we have ever faced. Our leaders at every 
level have displayed unparalleled ingenuity, flexibility and 
adaptability. Our soldiers have displayed mental and physical toughness 
and courage under fire. They have transformed the Army into the most 
versatile, agile, rapidly deployable and sustainable strategic land 
force in the world.
    We live in an uncertain world, which often requires a military 
response to protect our national security interests. When that time 
comes, the Army must be ready to answer the Nation's call. We cannot 
take the readiness of the force for granted. Sequestration budget cuts, 
and continuing fiscal uncertainty, have placed us on the outer edge of 
acceptable risk for our future force. The Army must be capable of 
providing strategic landpower that can prevent conflict, shape the 
environment and win the Nation's wars. Preventing conflict demands 
presence, shaping the environment demands presence, restoring the peace 
demands presence, and more often than not, that presence proudly wears 
the uniform of an American soldier.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. Thank you very much, Mr. Secretary.
    General Odierno.

           STATEMENT OF GEN RAYMOND T. ODIERNO, USA, 
                   CHIEF OF STAFF OF THE ARMY

    General Odierno. Thank you, Chairman Levin, Ranking Member 
Inhofe, and other distinguished members of the committee.
    First, I want to thank you for your continued commitment to 
our soldiers and families, especially over the past 12 years as 
we've been in combat. This partnership has done a great job in 
supporting them, ensuring they have what they need, and it 
helped us to ensure we have success on the battlefield.
    Second, I want to thank Congress for its hard work in 
passing the fiscal year 2013 Consolidated Appropriations and 
Further Continued Appropriations Act. We very much appreciate 
your help, which has alleviated nearly $6 billion of the $18 
billion shortfall to the Army's O&M accounts in fiscal year 
2013.
    I'm humbled to be here representing the 1.1 million 
soldiers, 318,000 Department of the Army civilians, and 1.4 
million family members of the U.S. Army. I'm extremely proud of 
their competence, character, and commitment of our soldiers and 
civilians, their sacrifice and their incredible 
accomplishments.
    I remind everyone as we sit here today, the U.S. Army has 
nearly 80,000 soldiers deployed and more than 91,000 forward-
stationed in 150 countries, including almost 60,000 in 
Afghanistan and thousands of others in Korea, and new 
deployments with command-and-control capability to Jordan, 
patriots to Turkey, and Terminal High Aptitude Area Defense 
batteries to Guam and elsewhere around the world.
    Our forces in Afghanistan continue to conduct the 
successful transfer of security responsibility to the Afghan 
National Security Forces (ANSF), who increasingly demonstrate 
the self-reliance, confidence, and capability to protect their 
population and secure a more stable political future.
    Today, the Army's primary purpose remains steadfast: to 
fight and win the Nation's wars. We will continue to be ready 
to do that, even as we do our part to help the country solve 
our fiscal problems. But the timing, magnitude, and method of 
implementing budget reductions will be critical.
    In fiscal year 2013, the Army still faces a more than $13 
billion O&M shortfall, which includes a $5.5 million reduction 
to the Army's base budget and a $7.8 billion shortfall to OCO. 
As a result, we have taken drastic actions to curb spending. In 
the final 6 months of the year, we have curtailed training for 
80 percent of the force, canceled 6 brigade maneuver combat 
training center rotations, and cut 37,000 flying hours, 
initiated termination of 3,100 temporary employees, canceled 
third- and fourth-quarter depot maintenance, and are planning 
to furlough our valued civilian workforce for 14 days in fiscal 
year 2013.
    The cost of these actions is clear. We are sacrificing 
readiness to achieve reductions inside the short period of the 
fiscal year, and readiness cannot be bought back, not quickly 
and not cheaply. So, I am concerned that the problems created 
by the over $13 billion shortfall will push into fiscal year 
2014 and beyond.
    The Army's fiscal year 2014 base budget submission of 
$129.7 billion enables us to support the 2012 DSG, but it does 
not account for the decaying readiness that is being caused by 
our shortfall in fiscal year 2013, and this will impact the 
Army as we enter fiscal year 2014.
    In addition to this base budget, the Army will continue to 
require OCO funding for operations in Afghanistan and our 
ability to continue to reset our force. The Army has submitted 
a separate request for a fiscal year 2014 OCO. It is critical 
that this request be fully funded.
    I would implore all of us to work together so that we 
receive the National Defense Authorization for Fiscal Year 2014 
and fiscal year 2014 budget on time. This will allow us to 
properly plan for and mitigate the risks associated with a 
declining defense budget.
    It is imperative that we gain predictability in our budget 
process. If we don't, we'll be unable to efficiently and 
effectively manage our resources, and it will be impossible to 
make informed decisions about the future of the Army.
    I also think that it is in the best interests of our Army, 
DOD, and our national security to avert sequestration. The size 
and the steepness of cuts required by sequestration make it 
impossible to downsize the force in a deliberate, logical 
manner that allows us to sustain appropriate balance of 
readiness, modernization, and end strength. The cuts are simply 
too steep. We just cannot move enough people out of the Army 
quickly enough to produce the level of savings needed to comply 
with sequester. Therefore, we will need to take 
disproportionate cuts in modernization and readiness. Let me 
explain.
    Under sequestration, the Army would need to again absorb 
immediate cuts in fiscal year 2014. This would likely force us 
to cut personnel accounts, reductions that could equate to tens 
of thousands of soldiers. By the time we paid separation 
benefits for these soldiers, the cost to separate them would 
exceed the savings garnered. The maximum we can reduce the 
force by without breaking readiness and including excessive 
separations costs is somewhere between 15,000 and 20,000 
soldiers per year, but this would only save $2 billion a year. 
So, right now, almost the full weight of sequester will again 
fall on the modernization and readiness accounts, where such 
drastic cuts will take years to overcome. The net result will 
be units that are overmanned, unready, and unmodernized. The 
steepness of the cuts in sequestration forces us to be hollow.
    Even though I think the level of sequestration cuts are too 
large, if we backload them into the later years of the 
sequester period, at least that would allow us the opportunity 
to properly plan and to sustain the balance we need in these 
uncertain times.
    As we look to fiscal year 2014 and beyond, our foremost 
priority is to ensure that our soldiers deployed on operational 
commitments are trained, ready, and able to execute their 
missions. Simultaneously, we'll continue to draw down the 
force. We are on schedule to remove 89,000 soldiers from the 
Army by fiscal year 2017, due to the budget reductions levied 
by the 2011 BCA. So far, most of these cuts have come from our 
overseas formations; specifically, in Europe. In fiscal year 
2014, future force reduction will affect almost every Army and 
joint installation across the United States. We will release 
our plans for these reductions in June. The key to the current 
drawdown is to maintain that the balance between end strength, 
readiness, and modernization so that we are properly sized and 
ready for whatever the country needs us to do. Such an 
evenhanded approach is the only acceptable one while the world 
remains such an unstable place, the most unstable I have seen 
in my nearly 37 years of service.
    Full sequestration will dangerously steepen that drawdown 
ramp. It will require us to reduce, at a minimum, another 
100,000 soldiers from the total Army. That will be on top of 
the 89,000 already being reduced. This will result in a 14 
percent reduction of the Army's end strength and an almost 40 
percent reduction in our Brigade Combat Teams (BCT).
    In addition, these reductions will degrade support to 
combatant commanders in critical areas, such as missile 
defense, special operations, cyber, logistics, intelligence, 
and communications. Cuts of this magnitude will leave us with 
excess infrastructure, making a future round of base 
realignment and closure (BRAC) essential.
    Sequestration will degrade our ability to take care of our 
soldiers and families who have fought so hard and sacrificed so 
much over the last 12 years, both those who are leaving the 
Army and those who are staying in the Army. Sequestration will 
make it impossible to execute a responsible drawdown and will 
challenge our ability to support the 2012 DSG.
    Looking into the future, we are reposturing our force to be 
globally responsive and regionally engaged. We are aligning our 
forces with the geographical combatant commanders to provide 
mission-tailored, -sized, and -scaled organizations for 
operational missions, exercises, and theater security 
cooperation activities.
    For times of crisis, we'll maintain a global response force 
capable of conducting force entry on short notice. We will 
reinvest in our expeditionary capabilities to deploy forces 
quickly and efficiently anywhere in the world. We are refining 
the integration of our conventional special operations and 
cyber capabilities to ensure we can handle a broad range of 
emerging threats. In this uncertain world, we need an Army that 
conducts many missions, at many speeds, at many sizes, under 
many conditions.
    Going forward, the Army will evolve into a force that can 
deploy and sustain capabilities across the range of military 
operations anywhere in the world on short notice. It will have 
increased flexibility and agility in both its formations and 
its acquisition systems.
    A modernization strategy will center on the Army's 
strength--the soldier--making him the most discriminately 
lethal weapon in the U.S. military. We will provide our 
soldiers with the network connections to give them unparalleled 
access to information and intelligence so they can make timely 
decisions. We will provide our soldiers with the tactical 
mobility, survivability, and lethality to take decisive action.
    As we prepare to operate in an increasingly complex and 
uncertain environment, our number-one priority is to invest in 
our leaders. This spring, we will roll out a brand new leader 
development strategy, which will invest in our soldiers' 
training, education, and development. It will fundamentally 
change the way we train, educate, assign, assess, and promote 
our leaders. It will be the foundation of our future Army.
    We will continue our efforts to take care of our soldiers. 
Twelve years of war has taught us the importance of building 
and sustaining the resiliency of our soldiers, civilians, and 
their families. Just this year, we rolled out the Army Ready 
and Resilient Campaign. This holistic effort to build the 
emotional, physical, and spiritual health of our soldiers will 
pay dividends in all three components.
    Caring for wounded warriors and keeping faith with veterans 
is essential to honoring their service. Our Soldier-for-Life 
Campaign will ensure that our soldiers transition successfully 
into civilian life and enrich American society with their Army 
experience.
    With the support of Congress, we'll maintain a military pay 
and benefits package, including affordable, high-quality 
healthcare that acknowledges the burdens and sacrifice of 
service while remaining responsive to the fiscal environment.
    Soldier personnel costs have doubled over the last 10 years 
and now make up 44 percent of the Army's fiscal year 2014 
budget. If we do not slow the rate of growth of manpower costs, 
we will not be able to afford to keep our Army trained and 
ready.
    We are at a strategic point in the future of the U.S. Army 
and our military. We must strike the right balance of 
capabilities both within the Army and across the joint force. 
Our history tells us that if we get out of balance, our enemies 
will seek to take advantage.
    Our soldiers are the finest men and women our country has 
to offer. Since 2001, more than 1.5 million soldiers have 
deployed, and more than a half a million have deployed two, 
three, or four more times. More than 35,000 soldiers have been 
wounded, and over 4,800 soldiers have made the ultimate 
sacrifice to defend this great Nation. It is our responsibility 
to ensure that we never again send soldiers into harm's way 
that are not trained, equipped, well-led, and ready for any 
contingency, to include war. It is our responsibility to honor 
the service and sacrifices of our veterans, whether they remain 
in uniform or transition back to civilian life.
    The strength of our Nation is our Army. The strength of our 
Army is our soldiers. The strength of our soldiers is our 
families, and that's what makes us Army Strong.
    Thank you, Mr. Chairman. Thank you to the committee for 
allowing me to testify today.
    Chairman Levin. Thank you so much, General.
    We'll have an 8-minute round for the first round.
    Let me start with this question. We were notified recently 
that the Army's Active Duty end strength at the end of fiscal 
year 2013 would be approximately 530,000. Now, that's below 
their authorized strength. It's 22,000 below the authorized 
strength for the Army, and it's 12,000 below the floor 
established in law. The President is given the power to waive 
end strength laws in time of war in order to avoid violating 
the law. But, nonetheless, those seem to be the statistics.
    Now, the Army Times had an article recently in which they 
said the following, that 11,000 Active Duty soldiers backlogged 
in the IDES are going to be separated this year, and as many as 
15,000 soldiers, according to this article, will be separated 
this year, ``for misconduct or for not meeting the required 
standards, such as physical fitness and weight control.''
    So, my question, starting with you, Mr. Secretary--this is 
a rapid reduction, more than expected, in the Army's fiscal 
year 2013 end strength. Is that due to the expedited processing 
in the IDES, or are we removing soldiers who no longer meet the 
requirements for detention, or both, and to what degree is each 
involved?
    Mr. McHugh. Thank you, Mr. Chairman. The answer is both. 
The article that you cited is pretty correct. The estimates 
that we have now through the rest of this year will be about 
11,000 more soldiers out-processed, and, frankly, as a result 
of a good-news effort to try to reduce the backlog and the 
Medical Evaluation Board (MEB) and the Physical Evaluation 
Board (PEB) process going into IDES. That's a good readiness 
story, as well. Those soldiers count against end strength, and, 
obviously, because of their conditions, are not really assigned 
in any Active Duty details that allow them to deploy. So, we 
view that as a positive step.
    Also, the new era that we're entering does allow us to get 
back to basics, and that includes our standards for discipline, 
height, and weight. Commanders across the force have been 
paying, I think, rightfully, more attention to that; and the 
result, in large measure, is an expected 15,000-soldier 
reduction who have been out-processed either for misconduct or 
other failures to meet up to standard. So, that has brought us 
down to the numbers that you cite. The end-strength objective 
for the Army at the end of 2014 will be 520,000, but again, 
we'll have to measure that against these kinds of factors going 
forward.
    Chairman Levin. That 520,000 may be high if these patterns 
continue, is that right?
    Mr. McHugh. That's my reference to ``we have to continue to 
monitor.'' From my perspective, the more we can reduce the 
backlog to IDES and MEB and PEB, and I'm sure you all agree, is 
a good thing.
    Chairman Levin. Right.
    Mr. McHugh. We want to maintain standards. So, if those 
trends continue, the 520 may be subject to some amendment, as 
well.
    Chairman Levin. Okay. The administration is requesting a 1 
percent pay raise for military personnel. They're also 
proposing to increase fees for military retirees who enroll in 
the TRICARE Prime healthcare program, instituting enrollment 
fees for participation in the TRICARE Standard, Extra, and 
TRICARE for Life programs. They're proposing to increase 
pharmacy copayments and to increase deductibles and the 
catastrophic cap. As a result of the 1 percent pay raise for 
personnel and the--well, let me just focus on those fee 
increases.
    DOD has assumed budget savings of about a billion dollars 
for the fee increases, and I'd like to ask you about both the 
pay raise and the TRICARE fee increases, and ask you both 
whether you support both the amount of the pay raise, at 1 
percent, which is a little bit below the expected 1.8 percent, 
but also whether or not you support those increased TRICARE 
fees.
    So, Mr. Secretary, do you support those items in the 
budget?
    Mr. McHugh. I do, Senator.
    Starting with the pay increase. Thanks to the great work of 
Congress and this committee, there have been significant gains 
against the private-sector equivalents in pay. We think we're 
now at a fairly good place. The President very much wanted to 
reflect some increase, based on the continued sacrifice of our 
soldiers, and 1 percent seems to fit well both within that 
recognition band but also recognizing the challenges that we 
have in this budget in the ways going forward.
    Our first responsibility to our soldiers is making sure 
they have the equipment they need, making sure, particularly 
while deploying, they have all the resources they need. So, 
that was both our, and I think it would be their, first desire, 
as well.
    As to the TRICARE fees, as we discussed last year, we all 
wish that things could remain status quo, but, as is happening 
in the civilian sector, although numbers have come down, to 
some extent, the increases to the Defense Health Plan and 
Program have skyrocketed, particularly over the last 10 years. 
These are matters of ensuring we have the resources necessary 
to support a very robust and, in the military, a very favorable 
program, when compared to the private sector, but also 
recognizing we have to do some things to get those increases 
and those costs under control.
    I think--and the Chief can certainly speak for himself--
those proposals were the product of a lot of work from both the 
civilian and the uniformed leadership, including the 
noncommissioned officer (NCO) leadership of the Army.
    Chairman Levin. Thank you.
    General Odierno, do you support both that 1 percent pay 
raise plus the TRICARE fee increases that I outlined?
    General Odierno. I do, Senator. As I mentioned in my 
opening statement, we have to reduce the rate of growth of the 
cost of our soldiers that has doubled since 2001. If we don't, 
that will require further significant reductions in end 
strengths across all the Services, but specifically the Army. 
So, I think there's a way for us to balance. I think this 
proposal balances proper compensation with what we need in 
order to sustain the right level of end strength for our Army 
as we move forward.
    Chairman Levin. Thank you.
    Then, my final question has to do with the management of 
risk in the industrial base. There are proposals here to reduce 
the quantities, and also to delay the development, procurement, 
and maintenance programs for equipment. The question is what 
actions you're taking to--or, let me put it this way: What 
criteria or indications in the industrial base are you going to 
monitor to alert you to the potential or to the imminent loss 
of capability or capacity to meet the Army's needs into the 
future? In other words, what's going to indicate some evidence 
of an unacceptable increase in that risk, or an imminent loss 
of capacity or capability in the future?
    Mr. McHugh. Yes, this is an area that troubles us deeply, 
and it really is a confluence of two factors. You noted 
correctly, Mr. Chairman, that the sequestration threat, the 
budget and fiscal realities, going forward will require some 
changes in how we've done business, but also, the reality of 
coming out of two theaters of war; it's just natural to assume 
we'll have less need to buy things.
    So, what we have attempted to do is really a two-path 
track. The first is to work with DOD, through their sector-by-
sector, tier-by-tier analysis. That's an across-the-board look 
at all military suppliers to do what you queried; that is, 
identify the metrics necessary to measure and eventually assess 
risk. The first year of that has been completed. It was begun 
in 2012. The Department is now trying to set up those metrics 
so we can feed consumption data into it and come up with those 
kinds of red flags, and it'll provide us at least the 
opportunity to try to do something about it.
    From the Army perspective, the second path, we've started 
an industrial-base program to do a similar analysis within the 
Army and also have hired A.T. Kearney, an industrial analyst 
firm, to study particularly our combat vehicle fleet to make 
sure that we understand where the threats lie to our industrial 
base, particularly where we have single point of failures. We 
will receive that report hopefully in June, which, of course, 
we'll share with the committee. The first step is knowing where 
the problems lie. The second is trying to use diminishing 
resources to protect it. That's why it's important we work on a 
Department-wide basis.
    Chairman Levin. Thank you very much, to both of you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Odierno, we talked about this in my office. There 
are proposed changes to the Uniform Code of Military Justice 
(UCMJ) that have, up until now, been the responsibility of 
commanders. Now, to date, we've only had Judge Advocate 
Generals (JAG) testify up here before the subcommittee and give 
their opinions, so I would like to get a commander's 
perspective. As a commander, we trust you to make decisions 
that may result in the loss of life in order to protect the 
Nation and accomplish the mission. We trust you with our sons' 
and daughters' lives, but we don't trust you, or your 
discretion, when it comes to UCMJ offenses. This seems a little 
bit hard for normal people to believe that you would have that 
responsibility, but not have that responsibility, in terms of 
what they are doing.
    I'd ask first, do you as a commander consider the UCMJ as 
it is currently structured to be a viable tool to help you 
maintain enhanced cohesiveness and fighting capabilities of 
your units?
    General Odierno. First, the commander's role in the 
military justice is simply essential. It's critical to our 
system. It's essential to the commander's authority. The 
commander is responsible for good order, discipline, health, 
and morale and welfare of the force. The commander needs the 
ability to punish quickly, locally, and visibly, which impacts 
the overall discipline of the force.
    So, as we look at changes to Article 60, it's important 
that we do it deliberately to make sure that it does not take 
away the commander's authority and ability to maintain standard 
order and discipline. It's essential to us as we move forward.
    Senator Inhofe. General, that's a great answer. I 
appreciate that very much. I had the staff look up a couple of 
things for me, and I just got it this morning. In the Marine 
Corps, only 7 out of 1,768 has the convening authority actually 
changed a guilty decision. In the Air Force, it's 1.1 percent. 
The Navy has had 16,056 general court-martials, and in only 2 
known cases have they reduced them. Now, in the Army, it's very 
similar; since 2008, the Army convening authority has 
disapproved the findings and sentence of a soldier convicted of 
a sexual assault and returning the soldier to Active Duty. So, 
they didn't have any of those.
    So, I'm going to put this into the record, but it sounds to 
me like there is not a serious problem here.
    [The information referred to follows:]

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Inhofe. Secretary Hagel came out and said that he 
would take away that jurisdiction from the post sentencing, 
which I thought was going quite a ways. Now, I've talked to 
several members who agree with me. Do you think that that's a 
reasonable compromise?
    General Odierno. I think they still--the important--what 
UCMJ gives you is flexibility. So, you have a variety of 
actions that you can take along the spectrum that allows you to 
punish appropriately for the offense that's conducted.
    Senator Inhofe. Yes.
    General Odierno. So, that's the important part that the 
UCMJ--that is not anywhere else in a public judicial system, 
and that's what allows us to--so, we have to be careful that we 
don't ever walk away from that ability.
    Senator Inhofe. Yes.
    General Odierno. So, I think, in the proposal, they 
maintain that for the minor offenses. For the more difficult 
offenses, they--for the more Federal-conviction-like offenses, 
then it would be brought forward----
    Senator Inhofe. Yes. Well, no, and I appreciate that. Let 
me ask both of you--because there is an independent panel that 
is investigating this. They're going to convene in the summer. 
I don't know exactly when they're going to have the report. 
But, it would seem to me that, if we're going to take something 
that is as far-reaching as this, that we should at least wait 
until we get an independent panel, get the results, and 
consider their recommendations. Would both of you comment on 
that or agree with that?
    Mr. McHugh. The concern I have, Senator, is that, based on 
over 20 years in a legislative body, myself, in an effort to do 
understandably good things, we tend to go too far in the first 
bite. So, what I would simply say--and I'd--obviously, we defer 
to the judgment of Congress, here--is that we take this in a 
very measured way and, as the Chief said, recognizing what I 
think most people who have had the opportunity to look at the 
UCMJ and the commander's role in it understand, is a positive 
role. Secretary Hagel, as you noted, Senator Inhofe, has 
proposed some changes and is pursuing some changes for one 
aspect, in the commander's right to overturn, in felony cases, 
in certain circumstances. I personally support that, but any 
steps beyond that, I think should be done----
    Senator Inhofe. Okay, that's----
    Mr. McHugh.--very carefully.
    Senator Inhofe.--a fair answer. But, you say ``a measured 
approach.'' Wouldn't a measured approach be to take the results 
of an independent commission that is conducting an 
investigation as early as this summer, before making a 
decision? Wouldn't that be valuable?
    Mr. McHugh. It depends what the commission says. I never 
like to commit to an outcome before I know what that outcome 
is.
    Senator Inhofe. Yes. Okay, but, at least we'd have the 
input. Not saying that we're going to do what the commission or 
the committee says, but we'd have the information from their 
independent study. Is there any problem with that?
    Mr. McHugh. I can't, again, judge outcome.
    Senator Inhofe. Sure.
    Mr. McHugh. I would simply say this. To change the UCMJ 
would, rightfully, take an act of Congress, and we'll defer to 
Congress as to how to go forward.
    Senator Inhofe. Okay, that's fair. I have a couple of other 
questions. I may have to take some of these for the record. 
But, you've heard several of us up here talking about the cost 
of energy. I know when you're cutting defense there are cuts, 
there are delays. A lot of times, I think the delays, like the 
2-year delay on the 179 F-35s, that could end up being a cut. 
But, the thing that people are not as aware of is putting the 
agenda, as this President has done, into the defense budget. 
For example, why should DOD be paying for biorefineries and 
solar panels and these things? It's my understanding that right 
now--the Army budgeted $562 million and approximately $4.2 
billion in the Future Years Defense Program (FYDP) for 
operational energy initiative. Now, down here in the last--it 
says, ``In addition, the Army announced, late last year, an 
initiative to award $7 billion a contract''--over a period of 
time, I'm sure--``to procure renewable and alternative 
energy.''
    As I look at that and I see the things, General Odierno, 
that you stated about the crises that we're facing, I would 
like to have--I'll just wait and get this for the record, 
because I don't think there's time to give you adequate time to 
answer that.
    [The information referred to follows:]

    The Multiple Award Task Order Contract (MATOC) is an Indefinite 
Delivery Indefinite Quantity (IDIQ) contract vehicle that establishes a 
pool of qualified firms/contractors for four renewable energy 
technologies (i.e., solar, wind, biomass, and geothermal) to compete 
for individual task order contracts. These contracts will be for 
renewable energy projects located on or adjacent to U.S. military 
installations. The objective of this acquisition is to procure 
reliable, locally-generated renewable and alternative energy utilizing 
Power Purchase Agreements (PPA) or other contractual equivalents. There 
is no capital or military construction appropriation connected with a 
PPA. PPAs are third-party funded acquisitions where the Army only buys 
the power and does not own, operate, or maintain the generating assets 
that are built on federal land. The intent is to award contracts to all 
qualified and responsible competing firms, both large and small 
businesses, whose offers receive the required minimum acceptable 
evaluation ratings and whose price is reasonable and realistic.
    The MATOC's total estimated value of $7 billion refers to the total 
dollar value of energy available for purchase under all PPA task orders 
for their entire term (up to 30 years). The authority to entered into 
such contracts has been provided by Congress to all military 
departments for renewable energy projects located on land under the 
Secretary's jurisdiction or privately held.

    Senator Inhofe. But, $7 billion in this, to me, is just 
outrageous. I was around when they established the Department 
of Energy. That's what those guys, in my opinion, are supposed 
to be doing.
    So, I'd like to have your response to that for the record, 
since there would not be time to do it now.
    Mr. McHugh. Senator, can I provide one point?
    Senator Inhofe. Yes, of course.
    Mr. McHugh. The multiple award task order contract (MATOC), 
the multiple year--30-year contract you've mentioned, that 
really is private-sector investment money. What it does is 
allow us, as the Army, to purchase power that is produced 
through the investments. Those programs, by our analysis, for 
every dollar of government taxpayer money invested, we get $7 
of private investment and a dollar on--in return. So it's just 
energy independence, it's not a biofuel.
    Senator Inhofe. I understand that. But, when the Navy is 
forced to pay $27 a gallon for 420,000 gallons of gas, a fuel 
that you can get for $3, that doesn't apply there.
    Mr. McHugh. I won't speak for the Navy. We don't have that 
program.
    Senator Inhofe. Well, all right.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Reed was sitting right here, and he asked me if he 
could switch positions with Senator King, and I told him he 
could do that.
    So, Senator King, you would take his place, and I assured 
him he could leave 10 seconds early and do that so that, then, 
Senator Reed would take your position, which is near the end of 
the queue. So, that's very gracious of him to do that.
    I hope I didn't in any way mislead you, Senator Donnelly, 
on this.
    Senator Donnelly. No, and if Senator Reed would like to 
take my position, so----[Laughter.]
    Chairman Levin. Now you're really confusing things here. 
[Laughter.]
    Senator Donnelly. I'm fine with having Senator Reed go 
before me.
    Chairman Levin. Thank you both.
    Senator King.
    Senator King. Thank you.
    Mr. Secretary, we've been talking a lot about sequestation 
and budgets. We know that the Senate--the budget, that was 
passed by the Senate several weeks ago, essentially unwinds the 
sequester in fiscal year 2014, and thereafter, through a 
different series of cuts and revenues. Have you analyzed the 
House budget that's been passed and what it does? I've tried to 
research this, and I'm a little confused. Does the House budget 
maintain the sequester on into the indefinite future?
    Mr. McHugh. My understanding--and we do get into a level of 
semantics, here, that are always troubling--but, both houses, 
the Senate and the House, do not assume the sequester numbers. 
However, the two houses accommodate those sequester numbers in 
very different ways. I would really prefer to defer to the 
House to analyze their own budget. But, that's why we come here 
in support of the President's 2014 budget. We think that has a 
reasonable approach to the issue.
    Senator King. Thank you very much.
    General, you were testifying about training. To put it most 
bluntly, when we cut training, are we putting lives at risk?
    General Odierno. Ultimately, if we have to deploy soldiers 
on a no-notice contingency, they will go at a lower training 
rate, which usually equates to putting their lives at risk, 
because they will not be able to accomplish their missions 
effectively or efficiently as we'd like them to be, and they 
will not have the experience of training, working together. The 
Army is, probably more than any other Service--maybe the Marine 
Corps, as well--we have to focus so much on the team, and 
integrating the team in very complex environments. If you don't 
have the ability to train on that, that could cost lives, if we 
had to deploy them without that appropriate training.
    Senator King. Thank you.
    On the issue of maintenance, you have mentioned--both of 
you, I think, mentioned that maintenance is going to have to be 
cut. In my view, cutting maintenance isn't a savings. It may be 
a savings this year, but it's ultimately something that's going 
to have to happen, and it may be more expensive in the future. 
Mr. Secretary, do you have a thought on that?
    Mr. McHugh. I think that's absolutely correct. The other 
thing it does, particularly when you talk about reset 
maintenance, bringing products out of theater, and platforms 
out of theater, ultimately that's where our equipment-on-hand 
ratings come from. That's how troops, both in the Active and 
the Guard and Reserve, get their training--or, get their 
equipment, after we've had a chance to provide the maintenance, 
and, in the case of coming out of the theater, the reset. So, 
that degrades their equipment on hand, which degrades their 
readiness, as well.
    So, all of these things are fiscally necessary to keep us 
on track, but I don't think many people would argue they're 
fiscally prudent or economically wise.
    Senator King. Thank you.
    We had a hearing last week of the Senate Armed Services 
Committee Personnel Subcommittee with representatives of the 
veterans organizations. You used terms today like ``keep the 
faith,'' ``breaking faith with our troops,'' particularly in 
terms of TRICARE. What does that term mean? The implication 
from our hearing last week was that the veterans assume a 
lifetime of health benefits at a much reduced rate as part of 
their employment package, if you will. Is that the way the Army 
sees it? What are people told when they enlist?
    General Odierno. I would just say, when you enlist, you 
understand you have a series of benefits that are available to 
you. I think when you enlist, people probably aren't thinking 
about retirement, but we learn that, over time, what your 
retirement benefits are and what you expect when you retire.
    I think what we're talking about here though is, we're not 
eliminating benefits, but we're realizing that we have not 
increased the cost of contributing to TRICARE from when we 
originally started this program. We started a little bit last 
year. So the benefit has actually gotten so much better because 
as inflation has gone up, the TRICARE contributions have not 
kept up with it. So in reality, the benefit has gotten much 
better than when they first came in because pay's gone up, 
inflation's gone up, retired pay continues to go up, and yet 
the TRICARE contribution did not go up at the same rate. So, 
what we're trying to do is make it a bit more even now. Because 
if we don't--and ultimately it's going to--what will cost us 
not to bring in less soldiers into the Army, Navy, Air Force, 
et cetera, because the cost of a soldier will be so much to us. 
So we're trying to get that balance. So we think that's a good 
way to get after this.
    Senator King. I was struck by your comment--I believe it 
was yours--that 44 percent of your total costs now are 
personnel. I presume that includes these health benefits.
    General Odierno. It does. In fact, it was and it will go 
up, frankly. It's going to go up, it's not going to come down, 
if we continue along the path----
    Senator King. Of that 44 percent, do you have, offhand, a 
figure of what percentage of that is the long-term health cost?
    General Odierno. I don't, but I can get it for you, sir.
    Senator King. I'd appreciate that.
    General Odierno. Yes.
    [The information referred to follows:]

    The fiscal year 2014 Army budget includes 44 percent of the base 
request in the Military Personnel Appropriations (MPA). Of this, the 
projected percentage of the total cost associated with long-term health 
care in fiscal year 2014 is 2.31 percent. This information is reflected 
as the fiscal year 2014 contribution to the Medicare-Eligible Retiree 
Health Care Fund (MERHCF) in the budget estimates dated April 2013 for 
the MPA, NGPA, and RPA appropriations. These documents display a total 
fiscal year 2014 personnel request of $56.6 billion. This includes 
MERHCF contributions of $3.0 billion. The MERHCF is for retiree health 
care for those over 60 years of age. Most health care costs can be 
found in the Department of Defense health programs budget submission.

    Senator King. Finally, I'm still concerned about the high 
rate of unemployment among veterans. You're talking about a 
drawdown, a mustering out of 10,000 to 20,000 soldiers. Are you 
satisfied with the steps the Army is taking to help those 
people transition? I raised with Secretary Hagel the idea that 
you have recruiters. How about having outplacement people at 
the other end in order to assist with that transition? Because 
it's just tragic to have these unemployed veterans.
    General Odierno. I agree with you, Senator. We have two 
things that we're doing. One, we have the Soldier-for-Life 
program that we've established. We have a Soldier-for-Life 
office that is helping to place veterans as they come out. They 
are organized regionally. They deal with many corporations 
regionally to help the transition of our veterans. But also the 
execution of the Veterans Opportunity to Work (VOW) Act that 
was passed last year which significantly increases the assets 
we have available to us in order to help soldiers transition, 
is allowing us to develop programs that are important.
    But, we have two--the Army, having the biggest Reserve 
component, has two issues. First is Active-component soldiers. 
The second is the Reserve. Frankly, because of the amount of 
deployments that the Reserve component has had, their 
unemployment rate is very high, because we--that's what I worry 
about as we go to the future. We have to get their deployments 
down because they are citizen soldiers. Because they've been 
deployed so much, some of them have lost jobs or have had to 
quit jobs. That's not what we want our Reserve component to do. 
We want to have that right balance so they are able to maintain 
their job and not--and we think we have about a 24 percent 
unemployment rate with our Reserve component. Now those numbers 
are a little bit fuzzy, but they're high. So we have to really 
focus on that.
    So part of it is not deploying them so much and making life 
more predictable for our Reserve component and then having 
capability to place them as we work through the VOW Act and 
putting into place at all our installations and offices around 
the country to help them get jobs.
    We have some good initiatives going on. We just had one, we 
did a joint initiative with a welder's union, it was a pilot 
program out of Fort Lewis, WA, and they ended up placing about 
200 soldiers right into jobs, and we allowed them to train 
their last 2 weeks of Active Duty or Reserve duty, after they 
retired, they got immediately to a job. Those are the kind of 
programs we're trying to work so we can place our soldiers as 
soon as possible.
    Senator King. Good. We can't do anything about it here, 
because it's a matter of States' law. But one of the things--if 
you can do an analysis of State laws about certification so 
that people can get full credit--it's ridiculous to have 
somebody that's trained as an electrician in the Army have to 
go through a year-long something or other in a State in order 
to be licensed. I hope that could be part of your initiative.
    General Odierno. The one thing we're doing is, we're 
looking at where we can change our programs in the Army that at 
least get them closer to a standard that we think is close to a 
standard or close in the States. We're doing that for things 
like medics, truck drivers--as you said, electricians--and 
other capabilities. We're learning more and more about this. I 
think we are making progress but we still have a ways to go in 
this area.
    Senator King. Appreciate it. Thank you.
    General, Mr. Secretary, thank you.
    Mr. McHugh. Thanks.
    Senator King. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator King.
    Senator McCain.
    Senator McCain. I thank the witnesses for their important 
testimony.
    General Odierno, I understand that you were commissioned in 
1976. So as a junior officer, you were aware of the condition 
the Army was in at that time. I'm sure you recall when the 
Chief of Staff of the U.S. Army, General Meyer, came before 
this committee and said we had a hollow Army. Can you compare 
that situation with the situation we're in today, as regards to 
the impact of sequester? I'm sure you were much smarter in 1976 
than you are now.
    General Odierno. When I first came in the Army there were 
several things. It's pretty similar, actually. We were just 
coming--we were out of Vietnam, we were recovering from 
Vietnam, but our ability to train, our ability to sustain our 
equipment, was limited. We had discipline issues within the 
force that were really causing us to have significant problems 
in allowing us to assure we were able to deploy and meet our 
future requirements. So, General Meyer was very clear, and he 
was focused on moving us away from that. So, for the next 15 
years, we focused on improving our readiness, improving our 
modernization, and improving our training programs. We've 
revolutionized how the Army did the business. I was fortunate 
enough to grow up in that environment.
    What we can't have happen today--we don't have--we can't 
allow this to get away from us, where it's going to take us 5 
or 10 years to recover. That's what I'm worried about. I made a 
comment early in my testimony, that I came into a hollow Army; 
I don't want to leave a hollow Army when I leave the Army. I'm 
focused on that.
    So, what I worry about, the steepness of cuts of 
sequestration could lead us back to where we were in the late 
1970s.
    Senator McCain. Inevitably? If something doesn't change?
    General Odierno. If something does not change.
    Senator McCain. It's inevitable we would return to the era 
of a hollow Army.
    General Odierno. That's right, the steepness of the cuts 
will not allow us to maintain that right balance between end 
strength, modernization, and readiness, training, and 
educational readiness.
    Senator McCain. You've stated that possibly or the 
Secretary stated, you may have to eliminate another 100,000 
Active and Reserve soldiers, so we could be near the pre-World 
War II low of 400,000 members of the Army.
    General Odierno. We will be headed in that direction, 
Senator. In fact, I would say 100,000 is the minimum. If we go 
to full sequestration, it will probably be more than that.
    Senator McCain. Does it intrigue you, as it does me, that 
there doesn't seem to be the concern in Congress that there was 
back in 1976?
    General Odierno. I think, what I worry about is our 
military over the last 20 years has been able to respond to any 
contingency that we've had. We've been able to do it very well. 
I worry that we are getting somewhat used to that.
    Senator McCain. Arguably, the world is in many ways more 
dangerous than we have ever seen it. Certainly more complex and 
dangerous. Would you agree with that?
    General Odierno. I absolutely agree with that.
    Senator McCain. So here we are, on a steep decline as you 
mentioned, with a world that is fundamentally in turmoil from 
Pacific to Middle East. It's intriguing.
    Also, one of the great intangibles of the military is we 
find, particularly when we get to know other countries' 
military, the morale and the willingness of very bright people 
to remain in the military. Are you sensing amongst the very 
best, particularly those who are making decisions as to whether 
to make the Army a career or not, a certain questioning as to 
whether they should remain in this organization, and perhaps 
even a sense of frustration that they feel about their ability 
to train, to operate, to maintain, to lead?
    General Odierno. I think--I agree with you--right now we're 
in a position of strength, because of the incredible combat 
experience that we have and our leaders, both our NCOs and 
officers. One of the focuses needs to be is keeping these 
leaders in the Army as we move to our future. We want that 
experience.
    What we have to be careful of is, we are not seeing it yet 
because we're still involved with some heavy issues with 
Afghanistan, and the full impact of not having enough money to 
train has not fully hit yet. It's just beginning to hit. But, 
if it continues over a 2- to 3-year period, I believe we'll 
have some real challenges on our hands in terms of people 
saying, ``I want to stay in an organization that's the best 
organization in the world,'' they might start questioning that.
    So, I think we still have time to ensure that we can keep 
the best in our Army. We have to act now and make sure we are 
doing the right thing--get predictable budgets that allow us to 
prove to them that we're going to have an Army that is right-
sized, trained, and ready when they're asked to deploy anywhere 
around the world.
    Senator McCain. On the subject of predictability, Secretary 
McHugh, you and the DOD; I asked Secretary Hagel about this--
are planning on a budget that does not include the effects of 
sequestration. Is that correct?
    Mr. McHugh. That is correct. We've----
    Senator McCain. So----
    Mr. McHugh. Sorry, sir. Go ahead.
    Senator McCain. So, we're in an Orwellian situation here. 
All of us decry the effects of sequestration, and there's 
graphic testimony, such has just been presented, and yet 
there's no request on the part of the President of the United 
States or the Secretary of Defense that we repeal sequester. I 
don't ask you to respond to that, but it's a weird experience 
to hear our military leaders in uniform decry the effects of 
the sequestration on the military, yet I don't hear the 
President of the United States, the Commander in Chief, saying: 
``This is destroying our military--has the potential to destroy 
our military, and we want Congress to repeal it.''
    So I hope that you will continue to--not only to Members of 
Congress, but to the members of the administration--convey the 
urgency of this situation, because I don't hear anything from 
the administration saying we want it repealed, and yet we 
continue to have testimony as to the draconian effects.
    General Odierno, in the unlikely circumstance that there is 
a conflict on the Korean Peninsula, are we prepared to respond?
    General Odierno. The units in Korea are obviously at a high 
state of readiness. We continue to ensure they are. Right now, 
we have about--I would say, about 40 percent of the forces that 
would be required, that I would consider to be ready to go 
there now. The cancellation of the Combat Training Center 
rotations, the six of them that we've canceled, is having an 
impact on our ability to potentially respond to the Korean 
Peninsula, because those decisive-action rotations would have 
helped them to prepare for this eventuality.
    Senator McCain. So, obviously you didn't agree with that.
    General Odierno. No.
    Senator McCain. Finally, in the event of hostilities on the 
Korean Peninsula, we all know the North Koreans would lose, 
they could inflict incredible damage on Seoul because of their 
capability at the demilitarization zone. Is that correct?
    General Odierno. Their ability to provide indirect fires 
and other things would have a potentially devastating effect on 
Seoul.
    Senator McCain. Thank you.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Udall.
    Senator Udall. Good morning, gentlemen.
    I would note as a preface to the questions I'm going to ask 
on the heels of what Senator McCain is discussing in regards to 
sequestration, that when we look at another budgetary 
crossroads early in the middle of this summer this committee 
could lead the way in crafting a budget deal that sets aside 
sequestration with this--with a goal of some of the cuts, more 
broadly, but giving you all the kinds of flexibility that we 
hear you need and you should have.
    Secretary McHugh, great to see you. You and I served in the 
House for a number of years, and again, I want to just thank 
you for your service across the river.
    Could you, focusing on the BCT reductions, talk a little 
bit about your process? Specifically, is the analysis that 
you're using include fiscal savings to the Army and strategic 
impacts? Have you also thought about the economic losses that 
would be felt by local communities?
    Mr. McHugh. Senator, we are, as you noted, in the process 
of determining where our restationing will actually occur. 
There seems to be some thought, amongst some, that this is an 
action resulting out of sequestration. I think it's important 
to note that this really comes as a result of the 490,000 end 
strength through the end of fiscal year 2017 that was put into 
place in the beginnings of the BCA.
    As the Chief mentioned in his opening comments, we have 
already reduced 6 of the necessary 8 brigades to meet that 
490,000, those 2 both coming out of Europe, 2 heavy BCTs, that 
needs 6 to be assessed across our remaining structure.
    Part of the law by which we pursue this is called an 
environmental assessment--programmatic environmental 
assessment. We went to 21 installations where we would 
potentially inflict larger numbers of either increases or 
decreases. That process has been completed. That from our 
perspective completes our requirements under the Network 
Environmental Policy Act and other environmental regulations 
and laws that essentially found that, in considering the 
economic impact, that clearly those bases that might lose 
structure or might lose soldiers would suffer some economic 
impact. That's just a natural. It was not of the level that 
would require a full economic impact statement.
    We are now in the process of holding public listening 
sessions in over 30 locations throughout the Army to receive 
input from the communities that surround places like Fort 
Carson and others, to make sure that we have the fullest record 
possible to make those very important decisions.
    As to the decisions, we have a listing of criteria that do, 
indeed, include the cost savings or loss to the Army, 
geographic distribution, and other kinds of measures that we 
would be happy to share with you, and I believe we already have 
shared with the committee staff professional staff.
    Senator Udall. When do you expect that announcement to be 
made?
    Mr. McHugh. We hope to get through the hearing process, 
analyze it, and then come to a decision, probably by June.
    Senator Udall. All right.
    General Odierno. Senator, if I could just add one thing to 
this.
    One of the things we're trying to make sure everybody 
understands is, you shouldn't focus so much on flags, but focus 
on the numbers of people, because we are also looking at 
reorganizing our BCTs. We have not made any decisions yet, but 
we might make them larger. So, we might eliminate flags, but it 
wouldn't be a total loss of a BCT, because we would add a third 
maneuver battalion to the BCT.
    So, one of the things we're trying to tell people is, don't 
focus on the flags, focus on the number which will be more 
important in the end, depending on what decisions we make as we 
go forward.
    Senator Udall. General, you anticipated one of my other 
questions. I'm not sure I'm going to get to it, but will submit 
it for the record. That applies to how you're going to align 
the BCTs, the combat commands, and are you going to come up 
with a different structure so those realigned teams will have a 
different look, or will they simply be in those habitual 
relationships with the----
    General Odierno. They will rotate through habitual 
relationships with the combatant commanders. The concept of 
reorganizing these brigades, we've done an extensive analysis 
that tries to tell us what is the most capable organization to 
operate across the spectrum of conflict that we can expect? The 
results are, it looks like we probably should reorganize. But, 
the Secretary and I have not made that final decision yet, but 
that would be part of this process as we announce in June.
    Senator Udall. Yes, again, I'm going off on a tangent and 
will ask this for the record because I want to turn back to 
Afghanistan.
    But does the division structure become almost obsolete, 
given the ways in which the division structure will still have 
application. If you'd respond to that in more detail for the 
record that would be terrific.
    General Odierno. Sure.
    Okay, let me turn to Afghanistan. We all know that one of 
your key priorities is modernizing and restoring equipment to 
an acceptable level of readiness. Are we going to see real 
savings as the war in Afghanistan scales back or is the cost of 
repairing, replacing, and modernizing equipment--is that going 
to overwhelm any savings we might have?
    General Odierno. Senator, so we have about--there's just 
about $21 billion worth of equipment that we have in 
Afghanistan today that we want to bring back. If we had to 
repurchase that equipment, it would cost us significantly more 
than it does--cost us to reset and then redistribute to the 
Army. This will help us increase our equipment on hand in our 
Active, Army Reserve, and National Guard units. It's essential 
for us to make sure this redistribution happens as we come out. 
So that's why that is so important.
    Senator Udall. Okay.
    Mr. McHugh. Could I add a comment?
    Senator Udall. Sure. Mr. Secretary, please go ahead.
    Mr. McHugh. Your question goes to our interest in assuring 
we have 3 years of OCO funding after the end of hostilities. As 
we bring back that $22 billion of equipment that the Chief 
noted, it's essential we have the funds necessary to recoup it, 
to rehab it, and to get it back to the units. OCO's a critical 
part of meeting that need.
    Senator Udall. Let me stay on the subject of Afghanistan. 
General, you mentioned last month that sequestration could 
affect the Army to the extent that we'd have to extend tour 
lengths in Afghanistan. Do you still have the same concerns? 
Have you proposed any changes to the deployment patch chart at 
this point?
    General Odierno. Thank you, Senator, for asking that 
question.
    Senator Udall. Yes.
    General Odierno. We have reworked, I did talk about that. 
That was one of the decisions that we'd have to make. That's 
one of the reasons why we have to continue, unfortunately, with 
14 days' worth of furloughs, because that's allowing us to have 
enough money to invest in the training of the units that would 
replace those in Afghanistan so we will not have to increase 
tour lengths. We've had to make some very difficult decisions 
here in 2013 in order to ensure that we do not extend those 
tour lengths. They were tough, difficult decisions, but we 
believe right now that tour lengths will remain the same and we 
will be able to train the forces that follow up those units.
    Senator Udall. My time's about to expire, so let me ask a 
question for the record, and you might be able to give a 
general answer.
    If you look at what you all had to say in your opening 
statements, 200,000 soldiers lost in the next 10 years, with 
cuts of that size, can you explain what an Army that size can 
and cannot do?
    General Odierno. We certainly, we just barely, with 
490,000, would have enough capability to do one major 
contingency, maybe something a bit smaller. If we cut another 
80,000 and 100,000 out, we now put into question our ability to 
respond to large-scale major contingencies, and we certainly 
will not be able to do anything above that. So, it really puts 
into question the capabilities that we have to deter potential 
future conflict.
    Senator Udall. Thank you, gentlemen.
    Chairman Levin. Thank you, Senator.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you both, again, for your service.
    I wanted to go back to the ongoing assessment of the 
restructuring of Active BCTs. I was happy and honored to 
participate in one of those listening sessions at Fort Polk by 
Skype very recently. I'll just quickly mention some of the 
significant factors there in Fort Polk's favor.
    The Army's own analysis indicates there wouldn't be any 
need for military construction to not only retain its BCT, but 
could accommodate 1,000 more soldiers. It's one of the few Army 
installations with an active land acquisition program which is 
ongoing. There's a very unique JRTC there, capable of training 
forces for exactly the sorts of conflicts we're facing today.
    Mr. Secretary, with all that in mind, can you reaffirm to 
the committee that this process is going to be fully open and 
transparent using objective criteria, and that you'll release 
that grading, if you will, based on those criteria?
    Mr. McHugh. The means by which we arrive at these decisions 
will be released. I want to assure, not just the good people of 
Fort Polk, but all across this great country, that we're doing 
this in the most deliberative, the most objective way possible. 
I would note as well the reports I received on the public 
listening opportunity outside Fort Polk was extraordinarily 
well-attended, so we appreciate that kind of interest.
    Senator Vitter. Yes, great.
    Can you also confirm that the process will certainly 
consider the factors I mentioned, including that Fort Polk has 
a land acquisition program, is growing for mission expansion, 
and would not need any additional military construction?
    Mr. McHugh. Yes. All of those factors are critical to 
establishing military value, are critical to judging the kinds 
of investments that may be needed in the future. So, anything 
that a post, camp, or station is in a posture to do, like 
adding land, is certainly something we have to judge.
    Senator Vitter. Right.
    I can't speak for anyone else here, but I think it's going 
to be a very widespread concern if there's a big military 
construction bill to shrink the Army in the context of the 
fiscal situation we've been discussing today.
    Finally, on this point will you be releasing the grading, 
if you will, of facilities according to these objective 
criteria and the weighting guidance about these different 
criteria?
    Mr. McHugh. The commitment we have made to the committees 
is to ensure both the inputs--in other words, the various 
criteria--and also to share with the professional staff members 
the weighting that attends those. Those have not been decided, 
as yet. Those are still something that the Chief and I need to 
take a look at and make final determinations. But, based on my 
experience in past force-changing initiatives, it does not 
inure to the Army's interests to try to be secretive. We want 
to be as open as possible, but also as fair as possible, to 
everyone as we go forward.
    Senator Vitter. Okay, great.
    General, on the same topic, I know one factor listed is 
proximity, which appears to mean the Army's desire to have the 
BCTs close to division headquarters. Why is that important, 
particularly these days, with all sorts of distance 
communications available?
    General Odierno. First, one of the lessons we've learned 
out of the last 5 or 6 years when we went to full modularity of 
brigades, is that the oversight--the training and oversight 
necessary that a division headquarters gives, both from a 
training perspective, a discipline perspective, a standards 
perspective--we saw some degradation in that. So we're trying 
to make some subtle adjustments to get the divisions once again 
more involved with having training oversight with the BCTs to 
ensure standards are being sustained, proper training 
requirements are being met. The development of officers and 
NCOs becomes a very important criteria as we move forward. So, 
those are the kinds of things.
    That said, it doesn't mean they necessarily have to be 
colocated to do that, but it is something we want is to have 
the divisions more involved with the BCTs.
    Senator Vitter. Okay. So just to be clear, it doesn't 
absolutely require close physical proximity.
    General Odierno. It does not.
    Senator Vitter. Okay.
    Thank you very much.
    Chairman Levin. Thank you, Senator Vitter.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Secretary McHugh and General Odierno, I want to thank you 
for your service and for being here today to testify.
    Also, I think you know in the State of West Virginia we 
have the utmost respect for all of our servicemembers and all 
of the veterans. We have a high percentage of veterans in a 
little State of West Virginia. We're proud of what we've done. 
We recently saw the National Guard people--it was just so 
moving to see in Boston [Boston Marathon bombings on April 15, 
2013], as horrible and horrific as that was, to see all men and 
women in uniform, and National Guard especially, running 
towards the area of danger. That just speaks volumes of how 
they're trained and the people that you're attracting to there.
    Secretary McHugh, I would like to say that I know DOD was 
instructed in 2012 really not to plan for the sequester. No one 
thought it would come to fruition. I know that the Army has 
always been good at planning for every type of situation. 
Hindsight being 20/20, do you think that maybe that could have 
been handled a little differently?
    Mr. McHugh. I don't think our real problem is that we 
didn't plan. Our real problem is the depth and the breadth of 
these cuts. As the Chief noted, and as I've commented as well, 
it really didn't come just from sequester. We have a $7.6 or 
$7.8 billion hole in our overseas contingency accounts, which 
is really unrelated to sequester, per se. The fact that we've 
had CR after CR that has caused us to do what, in the longer-
term, were inefficient things. So, we can do the math of 
sequester. The problem is, the math is so hard and it's so 
devastating----
    Senator Manchin. Let me ask both of you, and maybe, 
General, you might want to chime in on this one, but right now 
you have $42.5 billion of cuts that have to come under 
sequestering between now and September 30, right? October 1? If 
we in Congress were able to give you the flexibility to make 
those adjustments--and I have every confidence that you'll make 
the $42.5 billion--would it be a lot different than what we're 
seeing today if you had the ability to recommend to us what 
you'd want to change and cut?
    General Odierno. Yes, I would say for 2013, there's nothing 
we can do. Because there's flexibility--there is no 
flexibility----
    Senator Manchin. If we could give you, if we came right 
back now and gave you the flexibility----
    General Odierno. 2013?
    Senator Manchin. Right now, for the rest of 2013, and say: 
``General, tell us how you could do it.''
    General Odierno. Yes. So, it would help us if we could move 
more money between accounts, because if we would do that, we 
would be able to probably invest a bit more in our O&M 
accounts. That would allow us to mitigate much of this.
    Senator Manchin. By Congress not giving you the 
flexibility, we're basically just shooting ourself in the foot, 
if--literally.
    General Odierno. It's making it more difficult.
    Senator Manchin. More difficult.
    General Odierno. Now, what I want is in the out-years--
that's why we talk about backloading. If you backload it, it 
then gives us the ability to plan and do this right. Because 
you can't take the amount of people out you have to in an 
efficient way, the way it's set right now. It costs too much to 
take the people out, because you have to pay benefits.
    Senator Manchin. Right.
    General Odierno. So, you lose the ability to do the right 
balance of modernization, readiness, and end strength.
    Senator Manchin. With that being said, let me ask you--I 
know you're going to--you're thinking about a 100,000 troop-
level cut, in that neighborhood, correct? Why wouldn't you move 
those to the National Guard?
    General Odierno. I'm not going to move all of it to the 
National Guard. There'll be more out of the Active component. 
But, there has to be a balance that we have to maintain. We 
have a total Army--and I think we've proven the value of the 
total Army over the last 10 or 12 years--we need an Active 
component that can respond to crises, are at a higher readiness 
level. We need our National Guard and our Army Reserve to 
provide us depth and capabilities to give us operational depth, 
to conduct operations as well as they need capabilities to 
respond to the Governors. So, it has to be a combination of 
that. We've already taken 80,000 out of the Active component. 
We've already said that. If we have to take 100,000 more, at 
least 50,000 of that's going to come out of the Active 
component.
    So as I look at the formula and the capabilities that I 
need across the total Army, we're going to have to take a 
little bit out of the National Guard and Army Reserve in order 
to continue that right balance.
    It is about sustaining the balance of the different 
qualities and capabilities we have in each one of the forces. 
They are all valuable. They are all valuable and we have to 
keep that right balance.
    Senator Manchin. From the business standpoint, I'm just 
looking at it--if I had--and I know it's not a business model, 
but a business model would be, if you had this type of 
expertise that's been well-trained, and you can bring them up 
when you need them, and basically keep them in a readiness 
state, that----
    General Odierno. No, because in order to do that, the cost 
goes up. If you want to keep them at the same readiness level 
as an Active component, you have to spend more and more money. 
So, it doesn't work that way.
    What we're investing in our National Guard is an ability to 
expand over a period of time. Thirty-nine days a year, they 
train. Active component trains over 250 days a year. There's a 
huge difference in readiness levels.
    So if you decide to go that way, you're taking significant 
risk in being able to respond to unknown contingencies with 
predictability.
    Senator Manchin. But, they've been able to just about meet 
every----
    General Odierno. Two years notice for deployments to Iraq 
and Afghanistan. Two years. If we have to respond to Korea, I 
can't give them 2 years notice and slowly build up readiness. I 
need both.
    Senator Manchin. I see.
    General Odierno. I'm not telling you I don't need the 
National Guard or the U.S. Army. I need both.
    Senator Manchin. If there's an opportunity, I'd love to 
come and sit down and make sure I understand it better.
    General Odierno. Sure.
    Senator Manchin. Secretary McHugh, if I may ask you--I 
asked this question, I believe, about the expense of the 
private contractors that we have with all different branches. 
You told me one of the major initiatives we have is to diminish 
significantly the number of contractors that we employ. So my 
question would be pretty straightforward. How many contractors 
did the Army have last year, and how many do they have this 
year?
    Mr. McHugh. I'd have to get you the actual numbers for the 
record.
    [The information referred to follows:]

     In compliance with statutory requirements in 10 U.S.C. 2330a, the 
Army does not generate contractor inventory data until the end of the 
fiscal year in order to minimize reporting requirements on contractors 
in accordance with the Paperwork Reduction Act. The Army's contractor 
inventory is captured in the Contractor Manpower Reporting Application 
(CMRA) Report. For its Fiscal Year 2012 CMRA Report, the Army reported 
approximately 150,535 contractor full-time equivalents for the 
generating force and 90,319 contractor full-time equivalents in the 
operating force (which includes Overseas Contingency Operations).

    Mr. McHugh. I can tell you, it depends how you define 
``contractor.'' But one of our major initiatives, in part to 
respond to the current challenges we're facing, was to go 
through all of our hundreds upon hundreds of thousands of 
contractors and to change up the requirements. We've actually 
reduced our contracting cost by double-digits.
    Senator Manchin. I basically look at contractors--those 
jobs that the military men and women can do, and have done, in 
some period of our past that have been taken over by 
contractors. If you look at the graph, it basically starts our 
post-war era, whether it be Korea to Vietnam to the Cold War to 
today. It's just exponentially what are increased amounts of 
people and costs in contractors versus what military used to 
do. Some of that could have been because of the draft. You had 
more people you were using differently.
    Mr. McHugh. I think probably it had more to do with the 
war. Over the last 10 years, we've needed every man and woman, 
or certainly every possible man and woman in uniform, to go do 
things that contractors can't do.
    Senator Manchin. Contractors are doing the same job as some 
of our military, side by side.
    Mr. McHugh. In some places, that may be true, but if you're 
saying they're fighting the war, I wouldn't agree with that.
    Senator Manchin. You don't agree that we have contractors 
that we're paying to do the same exact job as a person in 
uniform?
    Mr. McHugh. It depends what job you're talking about.
    Senator Manchin. I'm talking about fighting forward 
operating base (FOB).
    Mr. McHugh. Carrying a rifle out----
    That's why we were----
    Senator Manchin. Security?
    Mr. McHugh. That's why we rely upon contractors. I'd also 
note that we're using----
    Senator Manchin. How can a contractor carry a rifle better 
than a military person trained to do it? I'm just saying----
    General Odierno. Excuse me----
    Senator Manchin. Why would we have anybody in contracting 
doing what the military----
    Mr. McHugh. Because if you don't use contractors, you have 
to use military, and that takes away from the warfight.
    General Odierno. Yes. The missions that they do are 
missions that are nowhere near what we ask our military to do, 
carrying a weapon. But, I would say this. If you don't want 
contractors to do that, you have to significantly increase the 
size of the Army. So the reason we've gone into this strategy 
is, we can't afford an increased size in the Active and 
National Guard and Army. You'd have to increase it 200,000 to 
300,000 in order to be able to meet these commitments, if we 
had to go to war.
    Senator Manchin. But we have as many contractors or more 
contractors now than ever. You're paying high prices. It would 
be cheaper to increase the end strength size.
    General Odierno. No, it's not. The analysis has been done 
that says in order to sustain 300,000 for a lifetime--it's 
about benefits, it's about retirements, it's about--it's 
significantly more than hiring contractors for short periods of 
time. I would love to be able to use soldiers for this. I would 
much rather have soldiers doing all of those jobs. But I don't 
think we can afford it. I don't think we can--hell, we're 
cutting 100,000 more right now. This sequester, I'm going to 
cut 200,000 soldiers out of the Army.
    Senator Manchin. How many contractors? No one can ever 
get--every time I ask the question, I never get an answer. I 
get--this is not disrespectful--I never have gotten an answer--
--
    General Odierno. It's because when we contract out, you 
contract for a capability. The number of people that do that 
capability changes from month to month, based on what's needed. 
That's why it's difficult to give an exact number of 
contractors, because it's based on the dollar figure of the 
contract.
    But the point is, when we go to war, we get OCO funding, we 
get operational funding that allows us to do this. We do not 
have the base budget to sustain the Army at the size necessary 
for us to fill all the needs we have. So unless we're willing 
to increase the base budget of the Army significantly, we're 
going to have to live with this--contractors on the 
battlefield. As a commander, I'd much rather have military. I'm 
with you, Senator. I really am, I'm with you. But, we can't do 
it in our base budget.
    Senator Manchin. Thank you.
    My time is up. I'd like to continue this later.
    Chairman Levin. Thank you, Senator Manchin.
    Secretary McHugh, will you get these numbers to Senator 
Manchin, at least as of one particular point in time, how many 
contractors we have? Because that is a knowable number. So, if 
you would.
    Mr. McHugh. That absolutely is. I just wasn't prepared to 
answer it exactly 1 year to the next.
    Chairman Levin. All right. That's fine.
    That's fine, but I think that--anyway.
    Mr. McHugh. Absolutely.
    Chairman Levin. Thank you.
    Senator Blunt.
    No, wait, excuse me. No, I think Senator Ayotte came back 
here in time, beat you out.
    My note says ``Blunt,'' but my other note says ``Ayotte.'' 
So, Ayotte is next.
    Senator Blunt. Go with your heart. [Laughter.]
    Chairman Levin. Senator Ayotte.
    I was half-tempted to say that, but I avoided it. 
Politically incorrect. [Laughter.]
    But, Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Senator Blunt.
    I certainly appreciate, General Odierno, Secretary McHugh, 
your service during challenging times.
    In your prepared statement, you discuss the serious problem 
of suicide in the Army. As I understand it, in 2012 there were 
182 potential Active Duty suicides--some have been confirmed, 
some are under investigation--and 143 potential suicides in the 
Guard and Reserve.
    You've mentioned that the Army's partnering with a number 
of agencies to identify the most important risk and protective 
factors, and then act on them for best practices. Obviously, we 
want to do everything we can to prevent suicides and to give 
people the support that they need in difficult circumstances.
    We have a program in New Hampshire that has received 
national recognition. It's achieved tangible results. We've 
prevented at least one suicide directly, but we've also 
assisted many servicemembers and their families with mental 
healthcare, employment, and homelessness, many factors that can 
contribute to someone feeling that they have to take their own 
life.
    It's called the Deployment Cycle Support Care Program. It's 
a unique program. In 2012, actually, we intervened successfully 
in 29 suicide-risk situations in the State of New Hampshire 
alone. I recognize this is a difficult problem, so I would ask 
that--I believe, if--are you both aware of the program in New 
Hampshire?
    General Odierno. I am, Senator.
    Senator Ayotte. To what extent are you looking at best 
practices around the Nation, both within the Army, Active Duty, 
and then obviously, with the Guard and Reserve, we have 
different challenges because they're going back in their 
communities. One of the things I'm very proud of in New 
Hampshire is that we be able to bring the private sector in 
this to leverage resources. What are your thoughts on this 
issue? What more can we do?
    Mr. McHugh. We absolutely are looking at best practices. 
You mentioned the Guard and Reserve, very correctly. The way by 
which they redeploy and disperse makes reaching out to them and 
making sure that we're detecting any emerging problems as 
quickly as possible is particularly challenging.
    The Guard has done a good job, nationally, through a 
variety of programs, particularly what's called the Resilience, 
Risk Reduction, and Suicide Prevention program, that 
establishes councils in every State and territory to help 
coordinate and, in places like New Hampshire, take advantage of 
things that are working particularly well. As part of that, 
they have appointed 54 suicide prevention program managers and 
78 directors of psychological health to ensure that a soldier 
knows where he or she can call or go and get the kind of 
referral that's necessary.
    But one of the things that we're working on--and it isn't 
just for the Guard and Reserve, but I think it's particularly 
well-suited to them--are telebehavioral health programs. We 
have increased those programs. I believe the contacts have gone 
up by over 900 percent--about 10 percent of those are Guard and 
Reserve, the increase--that allows people in remote locations 
to get somebody and actually do a face-to-face discussion, and 
to get a referral, if absolutely essential.
    Of course, while the Guard and Reserve are deployed and 
coming back for redeployment, we put them through the same 
behavioral health screenings that we do every deploying 
soldier. There are five touch points: predeployment; about 90 
days before the sector redeploy and three times after coming 
back.
    We're trying to make sure that we have both the behavioral 
health specialists necessary--for the first time in my nearly 4 
years as Secretary, we're actually exceeding the requirement 
for those behavioral health specialists--and trying to 
destigmatize the continuing challenge of helping soldiers 
realize it's okay to ask for help, that it doesn't make you any 
less of a soldier, and that it won't ruin your career.
     I think we're making inroads. But as you noted, Senator, 
this is something that plagues, yes, the military, but as a 
member of the National Alliance on Suicide Prevention that I 
am, as appointed by Secretary Gates, I can tell you it's 
something that plagues the civilian sector as well, as you, of 
course, understand very clearly.
    General Odierno. Senator, if I could just add--
unfortunately, in 2013, we're seeing a rise in suicides, 
specifically in the National Guard and Army Reserve, so it's 
very concerning to us. They have the most difficult problem; I 
don't have to tell you this. But because the commanders don't 
have control of their soldiers all the time, because of their 
civilian jobs, although they're doing a great job of trying to 
outreach and stay in contact. So this private governmental 
relationship is critical for us to help our National Guard, 
U.S. Army Reserve. So we have to figure out ways how we can get 
this work with the States in order for them to adopt this 
program, because it's critical to what we want to do as we move 
forward.
    Some other things that we've done is, we've also improved 
our ability to share information. We're working very hard and 
getting to better share information with people who have some 
discipline issues with their health issues, with other issues 
that all contribute to potential suicide. Our ability to share 
this information and bring that together is helping to identify 
those who are at risk.
    Then, as the Secretary mentioned, in my mind the most 
important thing is the intervention or what I call bystander 
mentality, those who are willing to not only come forward 
themselves, but those people who are closest to them who start 
to see the signs, to come forward. We're starting to gain some 
traction. We're not where we need to be yet, but we're starting 
to gain traction.
    But I'm worried because we're doing a lot and we're putting 
in a lot of assets, but we are not seeing any substantial 
improvement yet in the lowering of suicides. I think this has 
become a societal issue that--and we're trying to--we have a 
bit more controlled environment to try to deal with it, but we 
are not yet seeing the success that we need to see in this. So, 
there's lots of work that needs to be done yet.
    Senator Ayotte. Thank you, General. I do hope--obviously, I 
know you're familiar with our program, but I think it is a very 
important model. Not every State has had everyone coming 
together around this issue like New Hampshire. We hope that we 
can, obviously, continue to improve our program--it's a 
terrific program--but also to bring it to the rest of the 
Nation, because this is a huge issue and something we have to 
address, not only in the general population, but, in 
particular, for our military, with this rise that we're seeing. 
So, I appreciate very much how concerned you are about this.
    I also wanted to follow up on. There's something that, as 
serving on the Senate Armed Services Committee Readiness and 
Management Support Subcommittee, that I think it's important 
for everyone here to understand. I serve on the Senate Budget 
Committee, other committees, and everyone around this place 
seems to have their eyes on OCO funding for some other purpose. 
Go into any other committee in this body, and you'll find 
somebody else with their eyes on OCO.
    So, let me be clear. General, the Army needs 3 years of OCO 
funding for reset after the last piece of equipment returns 
from Afghanistan. Why is that? I think it's very important that 
people understand that if we don't do that, we will have a 
hollow Army, and we will not be able to reset, because--people 
need to understand that, so that this money isn't grabbed 
elsewhere.
    General Odierno. What this does is, as the equipment comes 
out, it immediately goes to a depot or some other commercial 
entity that allows us then to upgrade it or because of years 
and years of use in a combat environment. It then goes back to 
the units, in the National Guard, Reserve, and Active 
component, to ensure they have the equipment on hand so they're 
ready to use it, wherever it might be, for whatever mission we 
give them.
    The reason it takes 3 years is because of the load that we 
have in our organic industrial base. It takes a period of time 
to get the equipment through there. If it does not get funded, 
that means it has to come out of our base budget, which has not 
been budgeted for, and it'll take money away from the daily 
readiness that we need in order to be prepared to meet any 
operational missions that we have.
    Senator Ayotte. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Secretary McHugh, it's wonderful to see you again. It was 
an honor to serve with you in the House together.
    General Odierno, thank you for your leadership. Thank you 
for your service. We're greatly appreciative of it.
    This is a little bit of a follow-up in regards to the Guard 
that we were talking about. We had two groups from Indiana 
ready to go, and they were off-ramped less than 6 weeks before. 
So, they're now dealing, right now, with loss of TRICARE, 
trying to figure out where they're going to go to work, because 
in many cases, their jobs, they went back and somebody had 
already gotten in that position and the employer is wondering 
what the heck to do. I'm just following--and we're willing to 
take our cuts. We understand that. We're willing to take our 
chunk and then some extra. All we're trying to do right now, 
April 21 was the day that their TRICARE ended. All they ask for 
is, ``Can we extend it for 180 days?'' In regards to--they 
reenlisted to go to the Horn of Africa, to go to Egypt. A lot 
of them had to reenlist. They got a bonus with that. All the 
Guard is asking for is, ``Can we keep our bonus? Can we have 
180 days of TRICARE?'' Because they're trying to figure out a 
whole lot more than that right now.
    I wanted to ask both of you. I had talked to Secretary 
Hagel about this, and he said, ``You know, we're going to look 
into this.'' We were told yesterday it's in the front office. I 
don't know who the front office is, but you look like the 
general manager to me, Mr. Secretary.
    Mr. McHugh. First, let me say that these kinds of off-
ramps--and the Indiana Guard and the people of Indiana should 
be aware of how forward-leaning you have been in trying to 
present their interests--is not something we--as I said, that 
we do lightly or do easily. This was something in light of the 
current fiscal circumstances that we felt we had to do to save 
some $85 million in the process. I would say, just generically, 
in light of where we find ourselves financially, it's likely 
that we'll have to take similar actions into the future.
    I would defer to the Chief as to the actual discussions 
that occurred, leading up to this, with Guard officials.
    Senator Donnelly. Great.
    Mr. McHugh. I assure you, we will do everything we can to 
maximize every benefit that is available to them.
    My understanding--and I would ask for a little time to 
check this more fully.
    Senator Donnelly. Sure.
    Mr. McHugh. My understanding is, the availability of 
TRICARE for 180 days pre and 180 days post, it would not be 
available to these soldiers, given the conditions of their off-
ramping. I do believe, however, that they are eligible, and I 
would certainly encourage them to pursue TRICARE Reserve 
Select, which is paid for, about 74 percent of that is paid for 
by the Federal Government.
    Senator Donnelly. I wanted to ask you another Indiana-
specific question. That is in regards to the Humvees. There's 
$100 million that's been appropriated as part of fiscal year 
2013 to be spent to purchase, it was allocated to be spent to 
purchase new Humvees. The adjutant generals have asked that it 
be spent for new Humvees. It is the Army's decision. It is 
being talked about that it will possibly be used for 
recapitalization instead. The adjutant generals have asked for 
new ones. So, I just wanted to put that on your radar.
    Mr. McHugh. Yes. We need to get into that as well. My 
understanding previously was that the Guard Bureau and the U.S. 
Army were in agreement on the recap proposal, but we'll check 
that out.
    Senator Donnelly. Maybe we can talk a little bit more about 
that.
    Mr. McHugh. Yes.
    Senator Donnelly. Then, General, what is your biggest fear 
over the next 6 months in Afghanistan?
    General Odierno. I think, in Afghanistan--not fear, but I 
think what we have to watch----
    Senator Donnelly. Biggest challenge, then.
    General Odierno. The biggest--what we have to watch is the 
confidence of the ANSF as we go through this fighting season. 
We think they're ready. They're in the lead in about 73 percent 
or 75 percent of the country. It is about helping them to 
ensure they're able to themselves to get through the fighting 
season, protect their citizens in a way where they continue to 
have the confidence, so when we leave in 2014, they are 
prepared to do this on their own. So for me, that's the most 
important thing.
    So far, we're pretty confident.
    Senator Donnelly. Are we on target right now? In the 
planning we have, as to the end of 2014, are we where you 
expected to be?
    General Odierno. I think, actually--I was over there a 
couple of months, and, frankly, a little ahead of where I 
thought we were, to be honest with you. I think the ANSF has 
had an exponential improvement, because of the teams that we've 
put with them, and how we've readjusted, it has increased their 
capability quite significantly. I think they are prepared to 
take this over.
    The thing that we have to do now is make sure they have the 
right enablers as we leave, because we now still provide them 
of some enablers, whether it be improvised explosive device 
(IED) protection, whether it be some aircraft capability, 
whether it be logistics capability. We now have to make sure 
that they have the right enabler. I guess that that would be my 
biggest concern, that they would build the enablers necessary 
for them to be successful once we leave.
    Senator Donnelly. Okay. In regards to North Korea--and this 
is to you, General, or to you, Mr. Secretary--have you seen any 
change in the last week or 2? Is there any walking back on 
their part or is it right where it was or getting worse at this 
point?
    General Odierno. I try to defer all of these to General 
Thurman, but from what I've read, I think things are calming a 
bit, but I think we have to watch it very carefully. I know 
that we're doing that.
    Senator Donnelly. Have you seen any indication that Kim 
Jong has even thought about a potential off-ramp for himself or 
for the country in this process?
    General Odierno. I think it's hard for all of us to predict 
what Kim Jong-un is doing, or will do, and that's what makes 
this such a tense situation in my mind because we simply don't 
know what he's thinking. I think that's what makes it even more 
problematic for us.
    Senator Donnelly. I know I have less than a minute left, 
and it is certainly not a fair amount of time for you to answer 
this question, but, in regards to Syria, what do you see as the 
best path forward for the United States at this point?
    General Odierno. I would just say I think we have to 
continue to watch and leave options open, because Syria is 
dynamic. I think deploying the command-and-control headquarters 
into Jordan is a good capability that allows us to do planning 
and allows us to develop several different options. They've 
been working very closely with the Jordanians and others. I 
think things like that help us, whether it's dealing with--if 
we have to--so it then provides the President options. That's 
what we owe him. We owe him a range of options that allow him 
to choose from what happens based on this year, because it's 
still not quite predictable enough to really figure out what's 
going to happen in Syria. We're all obviously watching very 
closely about the use of chemical and biological weapons, which 
is something that we think is quite significant. We'll continue 
to watch that very carefully. It's also important for us to 
ensure that we take care--we help and assist and take care of 
some of the citizens, which we've been doing.
    It's a combination of all these factors, but it's about 
working with our friends and allies in the region to come up 
with a solution that we do together in order to solve this 
problem. I think that's what we're trying to work towards.
    Senator Donnelly. General, thank you and your family for 
all your dedication to the country, and, Mr. Secretary, for all 
your service.
    Thank you.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    To both of you, you're not only my personal friends, but 
you're heroes, and I'd just thank you for your service to our 
country.
    With respect to what's going on in the Army now--and the 
same is true for the other branches--there seems to be a lot of 
uncertainty. First, we have sequestration staring us in the 
face, and you guys are struggling with that, just as we are, to 
try to make life easier for you there. Second, that you're 
going to be downsizing your force structure.
    How is this affecting those individuals who have been a 
part of this great Army that we have developed over a couple of 
hundred years into the finest Army in the world? How are those 
men and women who are coming back from 10 years of experience 
in combat dealing with these issues? What are you doing about 
the potential for combat brain-drain loss, with that 
uncertainty steering a lot of your NCOs and particularly a lot 
of your younger officers?
    General Odierno. Senator, if I could, what we're seeing so 
far is the trends are good. In fact, our attrition rates right 
now of NCOs and officers is the lowest it's been for some time.
    That said, I have the same concerns you do. We are working 
this very carefully and making sure that they understand about 
the path ahead for the Army, because we need them to help us to 
bring the Army forward, where we want to be 5 years from now, 
10 years from now. We need their leadership. We're looking at 
our new leader development program to help adjust them and help 
them stay interested in order for them to help us to develop 
what we're going to look like.
    I think it's exciting for them to look at how we will 
develop our Army in the future. But the one thing that would 
help us tremendously in doing this is predictability. As I said 
earlier, it's predictability in our budget so we can clearly 
outline where we are headed as an Army. If we don't get this 
predictability, it's going to cause all kinds of problems. It's 
going to cause potential hollowness in the Army. It's going to 
cause potential loss of leadership that we developed over a 
long period of time.
    So for me, if we can just get some predictability that 
allows us to put a solid plan together, that Congress and us 
have worked together on for our Army, that will, frankly, 
reduce a lot of angst that's out--in both the civilian and 
military workforce.
    They still want to serve. That's not the issue. But if we 
continue along this unpredictability, it's going to start to 
whittle away at our leaders, and I think it becomes a real 
problem if we don't solve this predictability issue.
    Mr. McHugh. Could I add just a couple of words?
    Senator Chambliss. Sure.
    Mr. McHugh. The Chief's absolutely right. I think so far 
the folks in uniform are willing to see if we can get this 
right, even though they are concerned.
    Senator Chambliss, I know you've been to Iraq and, of 
course, Afghanistan, and you've seen as I have these captains 
and lieutenants, young men and women, out there making 
decisions that usually had to have an O6 full-bird colonel 
insignia to make. They want to come back into this Army and 
stay challenged. One of the biggest problems we have as we 
attempt to deal with sequestration is funding the training 
opportunities, the schoolhouses, the kinds of things that we're 
going to need to make as robust as possible and as available as 
possible to these young leaders so that they stay challenged 
and they stay excited about being in the Army. So that's why 
predictability is so critical for us.
    The other side the Chief mentioned is civilian workers. I'm 
deeply worried about the morale of the civilian workers. As 
this committee knows, we're discussing in the Department 14 
days of furloughs or some variant thereof. That comes on top of 
3 years of pay freezes for the civilian employees. They feel a 
part of this Army as well and we believe they should; they've 
been critical to the fight. Their morale is, I think, on the 
downswing.
    Then there are 50,000 U.S. Army civilians who today could 
walk out the front door with full retirement benefits, and 
another 25,000 who are eligible to go and receive early 
retirement benefits. I'm concerned again if we don't get this 
straightened out so we can at least see a straight path 
forward, whatever that is, those civilians are going to start 
to walk on us as well. In their own way, they're absolutely as 
important to this fight as every soldier is as well.
    General Odierno. As an anecdotal example, I was down at the 
San Antonio Military Medical Center (SAMMC), as we now call it. 
They are starting to be concerned because of the furloughs and 
the unpredictability of future budgets. They're starting to see 
some of their--as they get offered jobs, they're starting to 
walk away. They're walking away to the Department of Veterans 
Affairs (VA), they're walking away to other facilities, because 
there's more predictability in their future.
    So we're starting to lose some people because of this 
unpredictability. That's an anecdotal example, but that's the 
kind of thing that we'll continue to face unless we can tell 
them, ``This is what our future is going to be.''
    Senator Chambliss. Yes.
    As you look at downsizing and make your plans for the next 
couple of years, what are you doing with respect to flag 
officers? Are we going to be downsizing there also?
    General Odierno. We are in the process of downsizing. I 
would just say the Army has the lowest ratio of general 
officers to soldiers than any other Service. I think we're 1 to 
1,700 or 1,800. So we have been very cognizant of doing this. 
We have met, or are going to meet, the initial reductions that 
we put in for ourselves by the end of next year. We'll continue 
to review this as we downsize the Army.
    Now, I will say that a lot of our general officers are now 
in the joint and combatant command world, and so we have to 
work with the joint and combatant commands to work some of 
these positions. But within the Army itself, we have downsized, 
we have reduced ranks, and we have the lowest general officer 
to soldier ratio of any Service, to include the Marine Corps.
    Senator Chambliss. General, as we come out of Afghanistan--
I heard what you just said in response to Senator Donnelly. I 
look at what's going on in Iraq now. The violence appears to be 
on the rise. We have no idea, obviously, what difference it 
would have made had we left a residual force in Iraq. But I 
know that's under consideration right now as to what we're 
going to do, what size of a residual force needs to be there. 
What's your thought with respect to how we're going to ensure, 
number one, that the violence in Afghanistan does not start on 
the upswing like we're seeing in Iraq? Then, number two, what 
size residual force do we need to have to make sure that the 
Afghans are able to do what we expect them to do?
    General Odierno. There's a couple of things. I would just 
make a quick comment about Iraq.
    I don't think that's a sense, that's not a mark against the 
capability of the security forces. I think those are political 
issues that are driving that violence. There's been some 
political divide within the country that's causing, I think, 
some violence. I think it can be fixed by some political 
agreements and other things between the parties there.
    In Afghanistan, it's important that we sustain a long-term 
commitment from not only the military but a government-wide 
commitment to them. If we do that, continuing to help fund for 
a period of time their security forces to continue to help them 
develop in several different areas, I believe that will help us 
significantly in tamping down the violence. Because the 
security forces, I believe, will have the capability based on 
the trajectory we were on in Afghanistan. It's now solving some 
of the other issues that are necessary to go along with the 
security capability that will be key to ensuring violence 
remains low once we leave, Senator.
    Senator Chambliss. The size of the force?
    General Odierno. I think they're looking at anywhere from 0 
to 12,000 to 13,000. I think it depends on the type of missions 
you want them to do. I think we want to do training and 
advising at higher levels. I think we want to be able to have 
some special operations capability on the ground. My opinion is 
somewhere around 9,000, 8,000 is probably about the right 
number. We're continuing to work that, and I'd leave that up to 
the commander on the ground, General Dunford.
    Senator Chambliss. Thank you.
    Chairman Levin. Thanks, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Secretary and 
General Odierno, for not only your testimony but for your 
service. A lot of the questions that have been raised today go 
to the reduction-in-force of the Army. Let me ask a question 
and either the Secretary or the Chief can take it.
    In terms of force structure, where is the excess personnel? 
At what ranks?
    General Odierno. In reality, as we've gone through natural 
attrition, where we'll see some access right now is at the O6 
level, the O5 level, and then, for some year groups, O3s, and 
then senior NCOs, sergeant first class, master sergeant, 
sergeant major. Because we've been able to do everything else 
by attrition, we'll have to see where we'll have some actions 
where we will have to make some selections, and it's going to 
be by year group, because it's about balancing it across the 
years as we go forward. We'll have to make some of those 
decisions pretty shortly.
    Senator Reed. You, in fact, are contemplating a selective 
early retirement board?
    General Odierno. We are. I think we've already announced 
it, Senator, for August.
    Senator Reed. Which is, in the old terminology, a 
reduction-in-force.
    General Odierno. Except that they get to retire.
    Senator Reed. Okay.
    General Odierno. Yes, so this will be for lieutenant 
colonels and colonels.
    Senator Reed. Who have been vested, then will retire, but 
they will----
    General Odierno. But, they--right.
    Senator Reed.--they'll be--or get to retire. No? So you 
don't contemplate the need, given the force structure, to go 
in, having involuntary separations?
    General Odierno. We don't yet, but, I think, before we get 
done with this process, we're going to have to have involuntary 
separations.
    Senator Reed. Okay.
    One of the consequences, not just the budget, but the 
completion of operations in Iraq and soon, Afghanistan, is a 
shift from almost an exclusive focus on counterinsurgency, in 
terms of training, in terms of equipping, in terms of 
everything else, to what I think you described as a more full-
spectrum approach. Can you give us an indication of that? Just 
as a footnote is that one of the most labor-intensive and one 
of the most difficult challenges is Phase 4 in 
counterinsurgency. So as you shift away from that and shift to 
more conventional forces, what does that do to your flexibility 
and to force structure and to the need for resources?
    General Odierno. Sir, we are not shifting away in our 
training base from counterinsurgency. However, what we are 
doing is, as we do our decisive-action rotations, which are 
being developed at NTC/JTRC, that's a combination of stability, 
counterinsurgency, and combined arms operations, all going on 
at one time, because that's what we believe we will see in the 
future. It will be a combination of all of those, because our 
enemies learn from what they've seen, and we'll have to conduct 
that simultaneously. So we're training our units to do that, 
both in our leader development programs, as well as our 
training centers, both for divisions and corps as well as 
brigades and below.
    I think we're integrating what we've learned over the last 
10 years into this, and we're developing scenarios that are 
very complex and very difficult. But that's what we think our 
leaders will face in the future.
    In terms of force structure, there have been some decisions 
in the 2012 guidance that we were given that we would not be 
sized to conduct large-scale stability operations. So although 
we will still be able to do them, we would not be able to do 
them at the size we have done over the last--and duration--of 
what we've done over the last 10 or 12 years.
    Senator Reed. Let me ask a related question. A lot of the 
equipment that we required was very specialized for both 
Afghanistan and Iraq--the mine-resistant ambush-protected 
(MRAP) vehicles, the type of suspension systems, everything was 
necessarily thrown in to protect our men and women in these 
situations. Do you find yourself now with equipment that you 
don't need because of this shift from the full-scale operations 
together with a deliberate decision to conduct much smaller-
scale counterinsurgency operations?
    General Odierno. I think, for example, the problem we have 
now is we're out of balance. We have to always balance 
mobility, survivability, and lethality in all our equipment. 
Right now, we're out of balance towards survivability. We've 
limited our mobility and given up some lethality because of the 
counterinsurgency. As we develop our new systems, it's 
important that we integrate them where they have all three of 
those at the right balance.
    In terms of MRAP vehicles and things like that, we will 
have to divest ourselves of MRAP vehicles. We have a strategy 
to keep a portion of the MRAP vehicles that we'll lead, and 
we'll invest in the force, and we'll also keep a portion of 
them where we put in storage, so if we need them for other 
small-scale contingencies, that they would be available.
    We will divest probably of about 60 percent or so, a bit 
higher, the number of MRAP vehicles now. We'll keep about--and 
we'll do it in such a way where it's efficient and effective 
for us to----
    Senator Reed. That will allow some limited cost savings, 
nothing spectacular, but some limited cost savings.
    General Odierno. That's right.
    Senator Reed. There's another aspect of this too, 
particularly as sequestration rolls forward. That is, some 
functions that have routinely been done for the last 20 years 
by contractors, like mess halls, like cutting grass, et cetera, 
in fact, I think there's a whole generation of soldiers that 
post support is something that their fathers spoke about. Do 
you anticipate that you're going to have to make adjustments 
along those lines, too? Which has a definite tradeoff with 
training and readiness?
    General Odierno. We've already done that, Senator. Guarding 
gates is another one.
    Senator Reed. I remember.
    General Odierno. Roger. So dining facility, guarding gates, 
maintenance of facilities--there'll be some more troop labor 
used to do that. I think it's okay. We can work our way through 
that. All of those things require leadership and organization, 
so there's always some training value in it. I believe that 
we'll do that.
    We do have to be careful that we don't trade off so much 
that it does impact our training. That's that balance that we 
have to meet. But we've already started to do that, and I see 
that continuing beyond this fiscal year into next, and the 
close coming up.
    Senator Reed. I remember the training time being a mess 
officer. [Laughter.]
    Mr. McHugh. For whatever it's worth----
    Senator Reed. Mr. Secretary, I'd like you to just finish up 
my time by making any comments you have on the range of 
questions I posed.
    Mr. McHugh. I appreciate it very much. I just wanted to 
piggyback onto the Chief's comments about what we're calling, 
in the near-term, borrowed military manpower, that trading for 
contractors, the military. We had planned about 8,000 of those 
switches this year. We're actually running a little bit lower 
than that. But I think that'll still come to be pretty close to 
the number. As the Chief said in a very careful way, we need to 
ensure that we continue along that path, but don't do it in a 
way that excessively erodes the readiness levels that are 
already, as we've discussed here today, a challenge.
    Senator Reed. Thank you very much, gentlemen, for your 
service.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman. The advantage of 
waiting is you get to hear lots of good questions. I was glad 
to get to hear my colleagues' questions.
    It's good to see both of you here today, particularly 
Secretary McHugh, who we worked so closely together for so 
long.
    Secretary McHugh, you mentioned the problem of CR after CR. 
How much of that was taken care of in what was done last month? 
What are your priorities moving forward in terms of structuring 
for the next spending year what you'd hope would be there?
    Mr. McHugh. Public Law 113-6, I believe was the number, 
gave us what the Chief and I have been talking about. That is, 
predictability and stability. It was an important step with 
respect to being able to redirect funds. We were initially 
estimating that a year-long CR would cost us about $6 billion. 
So by interrupting that progression, it saved us some money, 
but most importantly, allowed us to take funds and do what we 
consider our prime objective for the moment and that is to 
continue to provide for the warfighters.
    As to the way ahead, I think it's important for everyone to 
understand that the things that we're going to have to do, the 
things we've already done here in 2013, will, in some 
instances, take a year, multiple years, to fix, regardless of 
what we may do in 2014 in adopting either the Senate 
resolution, the President's proposed budget, or the House 
resolution, because we're just creating holes that don't get 
fixed overnight.
    For example, at the Aviation Center of Excellence at Fort 
Rucker, sequestration will probably require the reduction of 
more than 500 training seats. Those just don't get recreated in 
a year's time. The Chief mentioned about how we'll only be able 
to do two BCT rotations at our NTC. All of those other 
rotations will be put back into the queue. It's not like 
they'll make up that readiness in a 6-month period.
    So those are holes that are, even under the best 
circumstances as we can see it, that we're going to be dealing 
with for some time. But at least with predictability and an on-
time budget and, if not the elimination, certainly the control 
of CRs, we're going to be significantly challenged in the way 
ahead.
    Senator Blunt. That'd be great if we could eliminate CRs. 
It's our job, and we ought to do our best to do that.
    You mentioned the OCO accounts. I want to be sure I 
understood what your concern was there.
    Mr. McHugh. Well, money.
    Senator Blunt. That there's too much money in contingencies 
you no longer need?
    Mr. McHugh. No.
    Senator Blunt. Or there's not enough money in 
contingencies?
    Mr. McHugh. There's not enough money. In the current OCO 
account, our estimation is that we're about $7.8 billion short 
of what the Army needs to fund the warfighters through the end 
of this year. That's why we're having to make all of these cuts 
that degrade readiness, that go into our base budgets, because 
we're moving money out of our base into what should be the 
funded OCO accounts, in our view, to support that warfighter. 
Our prime goal is not to send anyone into harm's way or into 
Korea or as part of the global response force that has without 
what they absolutely need. That's the commitment we make. But, 
right now, we're hard-pressed to do that.
    Senator Blunt. Okay. Thank you.
    General, following up on your conversation with Senator 
Reed, how has the recruitment strategy been impacted by the 
reduction strategy?
    General Odierno. Sir, the one thing that we have to be able 
to do is sustain the balance of people coming in the Army as 
they leave. So, for example, because we had a larger number of 
people leave the Army this year than anticipated, we increased 
our recruiting level by about 5,000 this year and in the Active 
component, we're meeting that.
    We have to always sustain the balance between recruiting 
and as soldiers leave, because if you don't do it by year 
group, and you get out of balance, you create holes in your 
force over time. So as we've increased the amount of soldiers 
leaving, we've had a small increase in those we're recruiting.
    The quality of recruits that we're bringing in this year 
are the highest they've been, and over the last 3 years, we've 
had the least amount of waivers, the highest level of education 
that the Army has seen since we've been keeping track of 
records.
    So for now, we're doing okay. But we are worried, 2014, 
2015, 2016, as the economy continues to get better and, 
frankly, this unpredictability that we have, how will that 
contribute to people wanting to come into the Army? We're 
concerned about the out-years because even though we're 
reducing, you have to keep those fresh people coming in every 
single year.
    Senator Blunt. Some of the reductions would actually not 
impact in a negative way your intake numbers. Your intake 
numbers are still going to be pretty high. Is that what I 
understand?
    General Odierno. It is. When we were growing the Army, they 
were much higher, but they're about 65,000 this year, is how 
many we're bringing in to the Active component, and we're 
bringing in more to the National Guard and Army Reserve. So 
that number continues. We have to stay consistent with that 
number.
    As the overall end strength of the Army goes down, that 
will reduce. It'll probably get down sometime in 2 or 3 years 
from now, to about 55,000 a year. But we have to continue to 
bring people in every single year.
    Senator Blunt. Right. To repeat some of what's been said--
as you look at the BCT restructuring the facility I'd be most 
familiar with would be Fort Leonard Wood, the two things that 
occur to me there are the proximity to the schools, to the 
training and doctrine schools, and then the location of that 
and other bases if, at some point, you need to support civil 
authorities because of incidents that happen here. I would hope 
those would be two of the things you'd put into the matrix of 
trying to make that decision.
    Mr. Secretary, do you want to respond to that?
    Mr. McHugh. I would tell you, one of the newer criteria or 
factors is that geographical balance. That's something we're 
going to look at very carefully. That, frankly, responds to the 
issue you said, so that we are located to work and support our 
civil authorities where and when as necessary, but it also 
helps with keeping the Army relevant to the American population 
as a whole. I worry about us becoming isolated unto ourselves. 
The more places we can maintain presence and American 
communities can look across a patch of land or a piece of water 
and see, in this case, an Army base, a camp, post, or station, 
I think is a good day.
    Geographic dispersal in equity is part of our 
consideration.
    Senator Blunt. Okay.
    General Odierno, we had General Alexander, from U.S. Cyber 
Command (CYBERCOM), in the other day, and when you were talking 
earlier, I think with Senator Manchin, about Guard versus the 
readiness of the full-time force actually, in talking to him 
and some things we're looking at, I think CYBERCOM could be a 
place where guardsmen and reservists are likely to be doing 
every day in the private sector the same kind of skill set that 
we are going to need in CYBERCOM. Would you like to respond to 
that?
    General Odierno. Yes. As we look at cyber warfare as we go 
forward, there are several things. One is national cyber 
capability, and then we have both operational/tactical cyber 
capability that we have to sustain in the Army as we go 
forward. So what we have to do is, we're building structure in 
the Active, and we have to have mirrored structure in the 
National Guard and Reserve, because as you say, we think that's 
a good place for us to have some of this key capability that we 
would need to do operational, tactical, national-level cyber 
capability. So, as we are looking, as we're waiting for 
CYBERCOM to develop its requirements, and then we will develop 
to meet the requirements they have for each one of the 
Services, and then we have to develop our own requirements for 
operational and tactical cyber.
    What we want the National Guard and Reserves to do is 
mirror our structure, because we're going to need them as we 
move forward. Then, of course, what comes along with that is 
training and everything else. So we'll make sure that they get 
the matched training, because that's something, I think, would 
be an important mission.
    What we have to balance, though, is the requirements of the 
State with the requirements that we have federally. That's what 
we have to think our way through.
    Senator Blunt. That's true. At one time, when I was 
Secretary of State of Missouri, the securities responsibilities 
of investment were in my office, and the securities 
commissioner worked for me and others. My view was that every 
time we brought in somebody from the private sector, they 
actually had some strengths that diminished as they got away 
from that daily contact with the bigger of the private sector.
    I think in cyber you're going to see some of that same 
thing, so people who are out there trying to protect their own 
networks, trying to do the things that are going to be critical 
in that responsibility. I think this is a place where the Guard 
and Reserve component is more likely, frankly, particularly if 
they're well-placed in their civilian role, more likely to be 
kept up-to-date than they might be in some of the other areas 
you were visited about earlier. I just would hope we'd all keep 
that in mind as we look at the potential of some of these cyber 
units in the Guard.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your service to our Nation. Thank you 
for being here today and for your leadership in difficult 
times.
    If I may begin, General, by focusing on part of your 
testimony dealing with the service of women in new career 
opportunities, particularly in combat positions. I note that 
the Army has opened 13,000 more positions to women and is in 
the process of developing occupational and validating 
standards, as you say in your testimony.
    Could you give me some idea of how soon women will be 
integrated into infantry officer positions in the Army?
    General Odierno. Senator, we don't know exactly yet. What 
we're trying to do now is, we're doing the studies of standards 
in order for us to make sure we integrate them properly. We're 
looking at probably in the next 2 to 3 years we'd be able to do 
that.
    We actually are doing a pilot right now with field 
artillery officers. Women were always able to serve in field 
artillery, but they were limited in the units they could go to. 
We are now doing a pilot that will put them in the positions 
for them to do this. So we're doing that first, and then we'll 
move--and as we get the standards developed and what we need 
them to do--and they would be standards that are the same for 
everybody--and once we establish those and everybody 
understands what those are, we will start to attempt to begin 
to run pilots with the women. I see that about 2 years down the 
road from now. We're going to slowly move our way towards that.
    What we don't want to do is rush to failure. In other 
words, I want to set our females up for success. So when we 
give them the opportunity, they have the opportunity to succeed 
in what we're asking them to do. I'm afraid if we rush too 
quickly they might not succeed, which would cause problems for 
them to integrate fully when we really need them to.
    I'm a believer it's about talent management. I have to make 
the most of the talent that's available to us, and we have to 
take advantage of the talent that our females bring to us. I 
want to make sure we set them up to be successful when we make 
this decision and to move forward.
    Senator Blumenthal. So 2 years would probably be the 
timeline for----
    General Odierno. It might be sooner, but within the next 2 
years, when we first begin to integrate officers, it'll be done 
after we do some assessments and what's the best way for us to 
do that, assess them and set them up to be successful as we go 
forward.
    Senator Blumenthal. Enlisted would probably follow that?
    General Odierno. That's right, NCOs. Because the issue is, 
you want to develop a cadre of officers and NCOs. Since you 
can't grow them, we're going to have to move them from other 
positions and train them, and we have to figure out how we do 
that to make them successful. Then the soldiers would follow. 
That's the model that we think is the most successful model.
    Senator Blumenthal. Let me shift if I may to a subject that 
I don't think has been covered. You and I have discussed it in 
the past and that is the continued threat of IEDs in 
Afghanistan. I know you've been very active, concerned, and 
devoted to the well-being of our troops, in protecting them 
from these devices. Am I right in assuming, as I've been told 
within at least the past couple of months, that IEDs continue 
to cause more than half of all the casualties in Afghanistan to 
our troops?
    General Odierno. That's correct.
    Senator Blumenthal. Do you note any progress in either 
protecting troops on the ground or stopping the Pakistani 
sources of the fertilizer and other components of the bombs?
    General Odierno. First, the number of casualties, although 
it's still greater than 50 percent, is way down. So that shows 
some of the progress that we've made in protecting our 
soldiers. So we are continuing to make progress.
    This is a very dynamic piece. We adjust, they adjust; we 
adjust, they adjust; and we have to constantly figure this out.
    I think there's been some things put into place that have 
enabled us to slow the movement of capability from Pakistan 
into Afghanistan. They just did some work with the Pakistani 
army. I think we have put some procedures in place with the 
Afghan army and ourselves to prevent that. We certainly have 
not stopped it, but there's some progress being made in the 
interdiction of this.
    IEDs are still being used. We continue to try to come up 
with capabilities that allow us to detect at the point of 
attack but we're still really focused on how do we get there to 
the left? That's where we made our most progress, in trying to 
develop and understand the networks and get involved with the 
networks, identify the things necessary that are made to use 
and build IEDs. We've made some good progress there.
    But we still have an issue with IEDs.
    Senator Blumenthal. Do you think the threat from IEDs will 
grow or diminish as we draw down?
    General Odierno. I think it is a weapon that the enemy will 
continue to use. It's cheap, it's inexpensive, and it gets them 
the effect that they want.
    I also believe that IEDs will be used by many people into 
the future. It is a weapon system now that will be used quite 
regularly. Frankly, that's what we saw in Boston this week, it 
was an IED. That's what people, when they try to make a 
statement or they try to conduct operations against a military 
that they know they're overmatched against, they will continue 
to find irregular ways to attack them. We're going to have to 
be prepared to deal with this for a very long time, in my 
opinion.
    Mr. McHugh. Could I add a comment?
    Senator Blumenthal. Yes, Mr. Secretary.
    Mr. McHugh. If I could just add on, because it really goes 
back to an earlier discussion we had about what we're doing to 
get ourselves more modernized for the future. One of the things 
we're keying upon as we look at such future platforms is the 
GCV, the JLTV, and others, is to be able to operate with 
mobility as the Chief mentioned earlier, but also in an IED 
environment. Because we have no reason to suspect we will see 
anything but more of those into the future.
    Senator Blumenthal. Yes, you and I, and the General and I, 
have discussed this issue over the years. I think the 
investments we've made in Afghanistan in combating IEDs will 
pay off in the future, because it is the asymmetrical weapons 
platform for terrorism in the future. Unfortunately, it also, 
obviously, is the type of device that was used recently in 
Boston, tragically and horrifically there. That was one of my 
first thoughts when I saw and heard more detail about the 
explosion, that it fit all the criteria for an IED that you've 
been seeing in Afghanistan over many years.
    Let me just finish talking about Afghanistan. Is there an 
estimate as to the total amount--the value of equipment and 
hardware, so to speak, that we have on the ground in 
Afghanistan?
    General Odierno. Senator, there's $28 billion worth of 
equipment on the ground now, is our estimate. That's all 
equipment. There's about $21 billion of that that we think 
we'll bring back in order to reset and redistribute to the 
force.
    Senator Blumenthal. What's the estimate--and I apologize if 
I'm asking you to repeat testimony you've already given--on the 
cost of how much will be necessary to bring the $21 billion 
back?
    General Odierno. I will get back to you with that number; I 
have not said that.
    [The information referred to follows:]

    As of February 13, the Army had $28 billion worth of Army equipment 
in Afghanistan with the requirement to retrograde and reset $21 billion 
to meet Army requirements. The estimated cost to do so is between $1.8 
billion and $3.2 billion in Overseas Contingency Operations funding. 
This range of costs is based on numerous variable conditions such as 
the viability of the Pakistan Ground Lines of Communication, the 
availability of overflight/landing rights at multi-modal sites, the 
condition of combat operations on the battlefield, and political/
election unknowns. A worst-case scenario, in which all equipment must 
be flown from Afghanistan directly to the United States by military 
aircraft, could cost as much as $6 billion.

    General Odierno. It's a combination of transportation costs 
and others. But I will tell you we've done the analysis and the 
cost of the transportation and the cost to reset is much 
cheaper than the cost to have to repurchase new equipment.
    Senator Blumenthal. Despite what you very aptly describe in 
your testimony as the harsh weather conditions, the adverse 
geography, and the need for sufficient funding to do it, 
because I think, to state the obvious, although it may not be 
obvious to most Americans, the difficulty of withdrawing that 
equipment from Afghanistan is far, far greater than it was in 
Iraq.
    General Odierno. It is, yes.
    The specific numbers, the calculations, there's quite a 
difference in the cost if we had to repurchase this equipment 
new, and we think we can reset it, as I've walked through our 
depots and everything else, when we reset equipment, it is like 
new. Our ability to do that and bring it back, we'll do it much 
cheaper than if we had to buy it new.
    Senator Blumenthal. Thank you. I look forward to that 
additional information. Thank you so much for being here today.
    Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Secretary McHugh and General Odierno, I'm always honored to 
have you before our committee, and I thank you both for your 
service and your commitment to our country. So, thank you. It's 
a pleasure to see you.
    The Army's fiscal year 2014 military construction request 
is over 35 percent less than last year's. The Army has stated 
that this request reflects a return to a more historical level 
of funding, following the completion of the Grow the Army and 
the 2005 BRAC changes and investments. One of the concerns that 
I have with this is that there are no transportation projects 
at Fort Bragg in fiscal year 2014, and there's also nothing 
planned for the FYDP either. Roads and these other projects 
have not kept up with the facilities projects in the growth of 
that base. It's created a serious safety problem at one of, I 
believe, the Army's most elite bases, including an increase in 
over 400 percent of traffic accidents since 2005. With an 
increase of over 200 percent in injuries also during the same 
period, it appears to me that investing in transportation 
infrastructure there would be a smart and critical safety 
investment. In our current fiscal environment, this seems like 
low hanging fruit in terms of payback to the Army.
    So my question is, could you give me your thoughts on my 
concern on the lack of transportation projects at Fort Bragg.
    Mr. McHugh. Senator, I have no doubt that there are 
projects such as that spread across the Army that, had we the 
money, we could expand upon. What this budget, as I mentioned 
in my opening comments, attempts to do is balance the wide 
range of needs against the available funding. The statements, 
you are absolutely correct, and the posture that notes this is 
historically a number that reflects our past military 
construction numbers, that doesn't necessarily reflect the 
statement that we're meeting every one of our needs in this 
budget.
    We try to do the best job we can, taking the military 
construction appropriation availability and dispersing it 
across the projects, as necessary. That doesn't mean we get it 
perfectly correct every time. We're certainly happy to sit down 
and take a look at whatever description and materials you might 
want to make available to us. We begin a next budget cycle as 
soon as we've completed the last. I don't want to make any 
promises, but I'm sure we can do better.
    But, we do feel, as was noted in the posture statement, the 
very significant expenditures on new construction embedded in 
the 2005 BRAC that met so many of our needs, and the high level 
of military construction investments that have been occurring 
over the last 10 years, that this budget account is reflective 
of our affordability.
    General Odierno. Yes, I would just say, Senator, certainly 
we will take a look at it. I think we do have some money in 
Fort Polk which I think is important. That's something that has 
to be taken care of. So we put that probably at a higher 
priority, based on the military construction dollars that we 
were able to allocate, and we believe that's in very much need 
of help down in Fort Bragg.
    As I go down there, first, I'm very pleased with the work 
that the State is doing outside, increasing the road network 
coming into Fort Bragg, which I think will help a lot coming 
off of I-95, there.
    Senator Hagan. It will.
    General Odierno. I hope that that will help us. So as that 
project gets developed, we'll probably have to review how does 
that impact the rest of the transportation network around Fort 
Bragg? Is there some things that we have to do as we do that? 
That'll be something that we'll ask our commanders down there 
to take a look at and get back with us.
    Senator Hagan. Okay. I appreciate that. I am concerned 
about the traffic issues, the accidents, and obviously the 
injuries associated with that.
    I want to ask a couple of questions on sexual assault. 
Recent research by the VA suggests that about half of the women 
who have deployed to Iraq and Afghanistan report being sexually 
harassed and almost 25 percent say they were sexually 
assaulted. I've spoken personally with a number of the female 
servicemembers and veterans that when they were deployed they 
actually stated that when they were at a forward operating 
base, they had to decrease their water intake so they wouldn't 
have to use the latrines at night. I know there's been 
significant changes with lighting and safety conditions and 
things like that, but it is an issue that you're thinking, 
``Oh, my goodness. You know, why in the world, when we have our 
women serving us overseas, fighting for our country, do they 
have to think about an issue like that, how much water they 
take, much less the threat of a sexual harassment or sexual 
assault?''
    What's the current state of the problem with our deployed 
Army units? What's specifically being done to address the issue 
of sexual assault while on deployment?
    General Odierno. First of all, having just been over there, 
and actually, I had a discussion about this with all of the 
commanders on the ground about this specific issue, not only 
while deployed but also when they come back. First, I know 
people are tired of hearing me say this but we have to change 
the culture. It's about commanders setting the environment that 
becomes nontolerant of any of this activity. We have to start 
from the time there are cadets at West Point, ROTC cadets, 
basic training, and we're really starting to make a difference 
and try to emphasize this.
    But that said, let's put that aside, because that's a long-
term solution. It is about commanders' awareness of being able 
to see themselves. I asked them, we have to increase the 
assessment tools that you have in theater that allows you to 
assess where are the problem areas and what are you doing to 
reduce the risk to our female soldiers that are forward 
deployed? They are increasing the amount of sensing sessions, 
they're increasing surveys, they're increasing other techniques 
that they use in order to understand that environment so they 
can make the corrections.
    Then we emphasize, obviously, that it's about maintaining 
discipline and standards and taking swift action when something 
is found, so that people realize that this kind of behavior 
simply will not be tolerated.
    It's a combination of those kinds of things that we have to 
do, and then the constant awareness training and lecturing and 
everything else you need to do to make soldiers aware that this 
is not acceptable.
    It is just about constantly talking about this problem, and 
constantly ensuring that people understand we are going to take 
this seriously. It's as frustrating to all of us, I know, as it 
is to you, Senator.
    Senator Hagan. General Odierno?
    General Odierno. I wish I had a better answer for you, 
frankly.
    Senator Hagan. Of all these commanders that you're talking 
to, how many are women?
    General Odierno. Probably about 20 percent--15 to 20 
percent.
    Senator Hagan. Okay.
    Let me ask about reporting the sexual assault. Part of the 
challenge faced by soldiers in deployed units relates to the 
geographical dispersion and remoteness of many of these units, 
which obviously necessitates creative and adaptive measures to 
ensure that the reporting resources are readily available and 
that the victim's privacy is protected. I know you're talking 
about the extra training, sensing sessions, but what are you 
doing to ensure that the deployed units are prepared to process 
reports of sexual assault and that the deployed victims are 
also cared for equally with those in the garrison? If you could 
just emphasize a little bit about the predeployment training 
that's required to ensure that our deployed servicemembers 
actually know what the Services are available to them while 
deployed, if, hopefully, not needed.
    Mr. McHugh. If I could just start and then defer to the 
Chief.
    As to predeployment, it goes to the part of the comments 
that the Chief made about making sure that our lessons on 
sexual harassment, sexual assault, are not just confined to a 
single touch-point during initial entry training. We have 
embedded this into virtually every aspect of our training, 
through all ranks and through all processes that we offer to 
our soldiers, and not just for 1 day, not just 1 time, but 
repeatedly. That includes part of their predeployment 
counseling.
    The way in which we're attempting in part to deal with the 
problems in theater are as directed by this Congress to ensure 
that every brigade has a sexual advocate, an assault advocate, 
and a sexual assault response coordinator there so that 
soldiers feel confident they can go to someone whose 
responsibility is to be caring about these, to know kinds of 
things, to know about the process and to protect their 
interests so they don't feel like they'll be victimized again. 
The deployed environment is a very challenging one, but if you 
look across the Army--and I haven't seen the breakout of the 
data specifically for in-theater, but our propensity to report 
has gone up significantly. It was about 28 percent just a few 
years ago. Our latest statistic is at 42 percent.
    Now that's not perfect, and it's a long way from where we 
need to be. But, I do think it shows that female soldiers are 
no longer willing to just sit back, that they're going to take 
action. The data seems to confirm that.
    This is something that has to be imbued at virtually every 
level of our Army. I was out just a few weeks ago at Charm 
School, as they smilingly call it, for our new brigadier 
generals, and I told them very frankly: ``You can succeed, from 
this day forward, in virtually every aspect of your military 
career, but if you fail at this''--and that is leading on the 
issue of sexual assault--``you've failed the Army,'' because 
there's nothing more important to the very bedrock upon which 
this Army is built. Clearly, a long way to go but I can only 
tell you, Senator, we're dedicated to doing everything we 
possibly can to help fix it.
    Senator Hagan. Thank you.
    General Odierno. Senator, if I could just add a couple of 
things.
    One is, we've also increased the number, we've trained 
criminal investigation command-qualified experts, we have also 
trained prosecutors, and we've increased those numbers in 
Afghanistan, so they are available to conduct investigations 
and make sure that we have the expertise over there as we move 
forward. So as we have increased them around the Army, we also 
have that increased expertise there as well.
    So anyhow, we're doing what we can. But as I said, this is 
about commanders and this is about them setting the right tone 
at all levels. I have a lot of confidence in our brigade and 
battalion commanders, but it's how that translates down into 
our company commanders, our platoon leaders, our platoon 
sergeants, and our squad leaders, because they're the ones who 
actually lead, they are the first ones to touch these women in 
many cases and we have to make sure they understand, and they 
understand the requirements that we extended.
    Senator Hagan. I know my time is running out but Secretary 
McHugh, you said that 42 percent of the sexual-assaults 
reporting has increased, but are you seeing an increase in the 
number of sexual-assaults percent or a decrease?
    Mr. McHugh. The actual number reported went down by, I 
believe, about 16 percent with the propensity to report going 
up.
    Senator Hagan. Thank you.
    My time is up. Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    We're in a second round. I have a few questions to submit 
for the record which I would ask you to reply to.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was out of time when you corrected my assumption 
concerning some of the commitments that we're making in terms 
of energy policy. I wanted to ask the question about that 
because there was an Army plan that was announced that said 
that $7 billion--that's where the number came from.
    Mr. McHugh. That's correct.
    Senator Inhofe. The $7 billion would be over a period of 
time. There's going to be contracts that over a period of time, 
maybe 10, 20, 30 years, in terms of the amount or the 
percentage that would go to renewable sources. I guess the 
multiple award task order contract would use the power purchase 
agreements by the Army for a long-term contract. Is that 
correct?
    Mr. McHugh. That is correct, yes.
    Senator Inhofe. Which would be 10 to 30 years?
    Mr. McHugh. Probably 30 years, I believe, is the multiple 
award task order contract length, sir.
    Senator Inhofe. Those contracts would commit the Army to a 
specific price for the purchase of renewable energy I assume. 
Is that correct?
    Mr. McHugh. It would commit us to purchasing energy from a 
private developer at a set price, that the objective is to 
reach a price that is at least at parity, if not lower, than 
what we would pay otherwise.
    Senator Inhofe. That may be the objective but you're 
projecting out a number of years and decades in this case, and 
how in the world could we accurately do that? I just wonder at 
the wisdom of why we would want to lock in a price and not 
allow the Army at some future date to take advantage of the 
many changes that are taking place out there, whether that's a 
wise thing to do.
    Mr. McHugh. A couple of things. One, the creation, the 
generation of energy, Senator, is an incredibly expensive 
undertaking, one that frankly we don't think the taxpayers, 
insofar as the Army base budget is concerned, can afford to 
bear. Where we can encourage private investment to come in and 
to make those kinds of commitments, as we did with the 
Residential Communities Initiative and privatized housing, can 
be a good value for the Army. It also helps us posture 
ourselves to bring energy independence, of a kind, to our 
individual bases, which we consider to be a very critical 
strategic move.
    Senator Inhofe. Is the request for proposal already out or 
is it planning to be out?
    Mr. McHugh. On the multiple award task order contract, it 
has been released, yes.
    Senator Inhofe. Oh, it has been released.
    Mr. McHugh. That is my understanding. I'll check that 
though.
    [The information referred to follows:]

    The U.S. Army Corps of Engineers, Huntsville Center issued the 
solicitation notice for the Multiple Award Task Order Contract in 
August 2012. Proposals for prequalification were due to the Government 
in September 2012. Individual Multiple Award Task Order Contract awards 
are being staggered by technology and are anticipated for release 
through the remainder of calendar year 2013. The intent is to award 
contracts to all qualified and responsible offerors, both large and 
small businesses, whose offers receive the required minimum acceptable 
evaluation ratings and whose price is reasonable and realistic. 
Individual project task orders will be competed amongst those qualified 
offerors on a project-by-project basis.

    Senator Inhofe. Okay. What I'd like to get, and I think 
it's a reasonable request, is a copy of it. I'd like to see how 
the wording is stated and to be able to look at it.
    Mr. McHugh. Of course, absolutely.
    Senator Inhofe. If the concern, of course, is in the future 
to be able to take advantage of our independence, there's a lot 
easier way of doing it than exploring new technologies in the 
future. I think, going back to what I stated a little bit 
earlier, that's what the Department of Energy was supposed to 
be doing initially.
    Mr. McHugh. We'll be happy to come and provide you all the 
materials that are available, and certainly to talk and try to 
answer any questions you may have.
    Senator Inhofe. Yes, because we have enough problems, as 
pointed out by both you and General Odierno, with the current 
problems that are there, and then relating that, as General 
Odierno did, to other times in our history when we've had a 
hollow force and all things like that that are coming out 
there. I just would like to see how it's worded, then be able 
to sit down with you and discuss where to go, we go from here.
    Mr. McHugh. Absolutely.
    Senator Inhofe. Also, how I might be able to impact that.
    Mr. McHugh. Absolutely, Senator.
    Senator Inhofe. Thank you. Thank you very much. I 
appreciate it.
    Chairman Levin. Thank you, Senator Inhofe.
    I think, actually, all of us would be interested in seeing 
that request for proposal, if you could submit that to the 
committee.
    Mr. McHugh. Sure.
    Chairman Levin. Actually, one of my four questions that I'm 
going to ask you to answer for the record does relate to the 
renewable energy technologies and how they actually, in some 
cases, can enhance combat capability. We'll save that for the 
record.
    We thank you both very much, again, for your service, for 
your testimony. Thank you for joining us this morning, 
Secretary McHugh and General Odierno.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

 MANAGEMENT OF RISK IN THE COMBAT AND TACTICAL VEHICLE INDUSTRIAL BASE

    1. Senator Levin. Secretary McHugh, given the fiscal year 2013 and 
now fiscal year 2014 and beyond reductions in the Army's ground combat 
and tactical vehicle investment accounts, what, in your view, are the 
risks, if any, to the combat and tactical vehicle industrial base and 
what actions, if any, is the Army taking to mitigate these risks?
    Mr. McHugh. In the overall combat and tactical vehicle industrial 
base, single point failures and the loss of critical component 
suppliers are a concern. These disruptions would negatively affect 
overhaul and rebuild operations. The Army is taking action to keep 
production lines open to minimize these risks. Using the Abrams tank as 
an example, the Army has extended production of 67 M1A2SEP v2 tanks for 
2 years through December 2014. In addition, there is every indication 
that both ``Firm'' and ``High Potential'' foreign military sales (FMS) 
production will maintain a minimal level of sustaining work flow 
through fiscal year 2016.
    The Army is also conducting a comprehensive Combat Vehicle 
Portfolio Industrial Base Study through A.T. Kearney, a global 
management consulting firm. The 21-week study is assessing the 
Commercial and Organic Combat Vehicle Industrial Base, viable strategic 
alternatives, and sustainment of the Combat Vehicle Industrial Base in 
a constrained fiscal environment. A final report will be submitted to 
Congress later this year.

                   USE OF SOLAR ENERGY IN OPERATIONS

    2. Senator Levin. Secretary McHugh and General Odierno, in 
Afghanistan, the smart use of alternative energy directly translates 
into an enhanced combat capability that enables soldiers to accomplish 
their missions, save lives, and increase efficiency. How do these 
renewable energy technologies enhance the combat capability of our 
soldiers deployed around the globe?
    Mr. McHugh and General Odierno. The Army is fielding renewable 
energy technologies in both its soldier power systems and on its 
contingency bases. The Army has been fielding the Rucksack Enhanced 
Portable Power System, which combines lightweight solar panels, 
connectors, and adapters that can charge most common military batteries 
in 5 or 6 hours, and can also be daisy-chained together for more power. 
This system reduces battery requirements enabling greater mobility and 
extended resupply intervals.
    On its contingency bases the Army is installing hybrid power 
systems that help to reduce fuel consumption and improve the 
reliability of electrical supply for critical systems. These fuel 
savings lead to enhanced mission effectiveness by returning combat 
power to commanders through reduction in resupply missions, which 
reduces the risk to the warfighter.
    We have a dedicated effort underway, lead by the Army G-4 and the 
Army's Training and Development Command to incorporate operational 
energy lessons learned in Afghanistan into our doctrine and into our 
training centers in order to ensure they are part of all future, global 
operations.

    3. Senator Levin. Secretary McHugh and General Odierno, how do 
these technologies affect soldiers' fuel consumption demand and 
logistical resupply efforts?
    Mr. McHugh and General Odierno. Renewable energy technologies, 
along with other operational energy efforts in theater, such as 
improved generators and minigrids, significantly reduce fuel 
consumption on Army outposts and contingency bases. These investments 
are improving performance of critical equipment, reducing the logistic 
footprint, increasing efficiency, creating energy alternatives, and 
assuring availability of supply. The combined effect of these efforts 
is a reduction in resupply missions to our outposts and contingency 
bases, which in turn allows the return of combat power to commanders.

              ARMY ROLE IN STRATEGIC SHIFT TO ASIA-PACIFIC

    4. Senator Levin. General Odierno, what, in your view, is the 
impact on the Army of the new Asia-Pacific-oriented strategy?
    General Odierno. The Army's contribution to the region will only 
increase as the Department of Defense (DOD) rebalances toward the Asia-
Pacific region, pending fiscal decisions. The Army already maintains a 
robust presence through forces assigned to U.S. Pacific Command (PACOM) 
and the placement of Army pre-positioned equipment sets in Korea, Guam, 
Japan, and Diego Garcia. Three of the Army's four forward-stationed 
Patriot battalions are located in the region. In recognition of the 
importance of the region, the Army has upgraded U.S. Army Pacific 
Command to a four-star headquarters. At a time of fiscal difficulties 
and downsizing, we are preserving the readiness of forces stationed in 
Korea at the expense of other forces. The Army recently deployed one of 
its two Theater High Altitude Air Defense systems to Guam in support of 
regional objectives. Beginning next year, the Army will rotate an 
additional Combined Arms Battalion and Attack Reconnaissance Squadron 
to Korea. Another important focus for the region is building 
partnership capacity. Acknowledging the region includes a number of 
U.S. treaty allies and 7 of the world's 10 largest armies, we will 
strengthen relationships with our key partners while cultivating 
relationships with nations that share our common values.

                      ARMY FORCE STRUCTURE CHANGES

    5. Senator Levin. General Odierno, with respect to increasing the 
size and capability of armored and infantry brigades by adding a third 
maneuver battalion, will the Army need to further reduce the number of 
combat brigades to find the troops necessary to implement this change, 
and if so, by how many more and over what period of time?
    General Odierno. The Army announced its force structure decision on 
June 25, 2013. The reorganized Brigade Combat Team (BCT) provides a 
third maneuver battalion, a brigade engineer battalion, improved fires 
and other capabilities and directly addresses capability gaps 
identified by extensive modeling and by tactical commanders based on 
their experiences with the modular BCTs. As announced, this conversion 
required a further reduction of BCTs beyond the eight previously 
announced resulting in fewer, more capable BCTs. This will allow us to 
reduce some overhead and maintain more combat capability. We have 
performed significant analysis in U.S. Army Training and Doctrine 
Command (TRADOC) using a series of 34 vignettes and conducting 
extensive interactive interviews and modeling with both the Army's 
Division commanders and with current or recent combat veteran BCT 
commanders (23) across the range of military operations, and in every 
case the three-maneuver battalion brigade outperformed the two-maneuver 
battalion brigade. The Army National Guard's (ARNG) BCTs would also be 
reorganized to the same design. The reorganization will begin in fiscal 
year 2014 and continue through fiscal year 2017. This does not take 
into account sequestration. If sequestration is allowed to continue, 
the Army will have to further reduce end strength and adjust force 
structure across all three components.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

                   BRIGADE COMBAT TEAM REORGANIZATION

    6. Senator McCaskill. Secretary McHugh and General Odierno, 
following the 2005 Base Realignment and Closure (BRAC) round, the Army 
made a conscious effort to co-locate Army schools with related 
operational units because doing so enhances Army readiness and welfare. 
Does the Army continue to see value co-locating U.S. Army Forces 
Command and TRADOC units?
    Mr. McHugh and General Odierno. The 2005 BRAC round did recommend 
co-locating a number of operational units on TRADOC installations, 
though the analysis underpinning the BRAC did not treat any benefit 
deriving from co-location as a singular factor. Rather, TRADOC 
installations offered other benefits such as available training land 
and ranges. The same considerations would apply as part of the 
programmed 80,000 reduction in Active component Army end strength.

    7. Senator McCaskill. General Odierno, you have testified that you 
believe it is important to reconfigure BCTs by adding a third maneuver 
battalion, and have stated that you do not believe there are enough 
engineers within the brigades. What analysis has been done to justify 
this conclusion?
    General Odierno. In the overall combat and tactical vehicle 
industrial base, single point failures and the loss of critical 
component suppliers are a concern. These disruptions would negatively 
affect overhaul and rebuild operations. The Army is taking action to 
keep production lines open to minimize these risks. Using the Abrams 
tank as an example, the Army has extended production of 67 M1A2SEP v2 
tanks for 2 years through December 2014. In addition, there is every 
indication that both ``Firm'' and ``High Potential'' FMS production 
will maintain a minimal level of sustaining work flow through fiscal 
year 2016.
    The Army is also conducting a comprehensive Combat Vehicle 
Portfolio Industrial Base Study through A.T. Kearney, a global 
management consulting firm. The 21-week study is assessing the 
Commercial and Organic Combat Vehicle Industrial Base, viable strategic 
alternatives, and sustainment of the Combat Vehicle Industrial Base in 
a constrained fiscal environment. A final report will be submitted to 
Congress later this year.

    8. Senator McCaskill. General Odierno, was this analysis based on 
the Army's experiences over the last 10 years of war, or was it based 
on likely scenarios that would stem from the Defense Strategic Guidance 
(DSG) announcement by DOD in January 2012?
    General Odierno. The decision to reorganize the BCTs was based on 
both lessons learned in our recent wars and on our perception of the 
needs of the Army as we move forward into a different security 
environment--which was in turn informed by scenario guidance stemming 
from the January 2012 DSG. Working with the Office of the Secretary of 
Defense (OSD) and the Army Staff to develop a range of possible visions 
of the future demands for the Army and for BCTs, TRADOC then conducted 
extensive analysis.
    TRADOC's analysis can be broken into three primary areas. First, 
using a series of 34 vignettes and conducting extensive interactive 
interviews and modeling with both the Army's division commanders and 
with 23 current or recent combat veteran BCT commanders, TRADOC 
established how the force would use the different BCT designs 
differently in order to accomplish the full range of missions--from 
Homeland Defense/Security missions, to full-scale combat missions, to a 
wide variety of stabilization and other missions. Understanding 
commander's preferences and concerns about the different BCT designs 
and mixes (Stryker, Infantry, and Armored) and how they would be 
employed, TRADOC then did force-on-force modeling to understand the 
differences in outcomes from over 6,500 hours of simulated combat 
examining four organizational options across three vignettes (ranging 
from 7 to 72 hours of operations) and measuring success and speed in 
winning battles/engagements, casualties (friendly and enemy), other 
combat losses (equipment), and ability of the unit to continue on to a 
subsequent mission or the amount of time it might need to reconstitute 
prior to performing a subsequent mission. At the strategic level, 
TRADOC's analysis looked at multiple different mixes of future demand 
using campaign level criteria such as how long it took to deploy and 
how well the Army could sustain supplying BCTs over time to a wide 
range of different mission demands at acceptable levels of stress on 
the force.
    Across all of the different levels of analysis the new BCT design, 
with its third Maneuver Battalion and other combat support enablers, 
represented the clear best choice for the Army. From a Headquarters, 
Department of the Army perspective, the new design also allowed us to 
reduce some overhead and maintain more combat capacity than would have 
been possible if we stayed with the older design.

    9. Senator McCaskill. General Odierno, in April at a speech at the 
National Defense University, Secretary Hagel announced that he had 
tasked Deputy Defense Secretary Carter and General Dempsey to lead a 
Strategic Choices and Management Review (SCMR). How will the findings 
of this review inform the Army's ultimate decision on any 
reorganization of its BCTs?
    General Odierno. The Army has been an active participant in the 
SCMR. We anticipate that the output from this review will be used to 
frame fiscal guidance for 2015. At this point we don't expect the 
results of the SCMR to affect the Army's decision on whether to 
reorganize the BCTs. As you know, we have completed a very lengthy and 
complex analysis to inform our decisions on the organizational design 
of the Army's BCTs. The SCMR results will provide fiscal guidance to 
help inform the size of the operating force that will remain in the 
Army.

CHEMICAL, BIOLOGICAL, RADIOLOGICAL, NUCLEAR, AND ENVIRONMENTAL RESPONSE

    10. Senator McCaskill. General Odierno, last month General Charles 
H. Jacoby, Jr., USA, testified that, ``U.S. Northern Command, in close 
collaboration with the National Guard Bureau and our other military and 
civilian partners, has made significant progress improving our ability 
to respond in the aftermath of chemical, biological, radiological, 
nuclear, and environmental (CBRNE) hazards incident by increasing the 
overall readiness of the Nation's CBRNE Response Enterprise. Following 
a series of external evaluations and confirmatory exercises, the 
Enterprise achieved full operational capability (FOC) on October 1, 
2012. Despite the FOC designation, important work remains to be done to 
realize the full potential of the enterprise.''
    In September 2012, Mr. John W. Newman, Special Assistant to the 
Assistant Secretary of the Army for Manpower and Reserve Affairs 
(M&RA), visited Fort Leonard Wood, the Maneuver Support Center of 
Excellence (MSCoE), to discuss the need for an Emergency Management 
(EM) training program to ensure that the Active and Reserve component 
personnel supporting future Defense Support to Civil Authorities (DSCA) 
missions are fully prepared and/or can train others in DSCA operations. 
Fort Leonard Wood already has a training program for CBRNE training 
that qualifies DOD and interagency personnel; however the program is 
not accredited for offering civilian educational credit. The Missouri 
National Guard has offered the MSCoE the use of its Regional Training 
Institute for a proposed EM training program that could be combined 
with an existing University of Central Missouri bachelors and master 
degree program that could be merged with existing CBRNE training to 
offer MSCoE an accredited degree program for EM. The Assistant 
Secretary of the Army for Manpower and Reserve Affairs directed a 
review of EM and DSCA with a projected completion by March 1, 2013. 
What are the findings of this review?
    General Odierno. The Assistant Secretary of the Army (Manpower and 
Reserve Affairs) directed TRADOC to study a range of issues related to 
EM and DSCA. TRADOC is in the early stage of its analysis, and is not 
anticipated to report its finding to Headquarters, Department of the 
Army until late in fiscal year 2013.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III

                        UNEMPLOYMENT IN THE ARMY

    11. Senator Manchin. General Odierno, the Army has spent more than 
$3 billion dollars on unemployment compensation over the last 10 years. 
Last year, you said that the Army was working on a single portal than 
links up soldiers and jobs. Can you update me on the progress of this 
single portal concept?
    General Odierno. Yes. The Army uses Hero2Hired (H2H) as a single 
portal for both soldiers who will transition from Active Duty and 
employers who want an expedited way to connect soldiers to their 
various employment opportunities. The H2H portal makes it easy for 
soldiers to connect to employers and find jobs, explore careers, 
translate military skills to civilian careers, find hiring events, and 
post resumes. Employers get free, direct access to qualified soldiers, 
who in many cases already have background checks and security 
clearances.

                             C-23 DIVESTURE

    12. Senator Manchin. General Odierno, language in this year's 
appropriation bill states that no funds shall be used to retire C-23 
Sherpa aircraft. What is the Army going to do with C-23s that were 
scheduled to be divested?
    General Odierno. In order to comply with Public Law 113-6, which 
prohibits the expenditure of funds to retire C-23 aircraft in fiscal 
year 2013, Headquarters, Department of the Army is implementing a semi-
flyable storage plan for its C-23 fleet for fiscal year 2013. No fiscal 
year 2013 appropriated funds will be used to retire C-23 aircraft. This 
semi-flyable storage plan will result in approximately $30 million in 
savings and allows for eight C-23 aircraft to remain assigned to the 
Army National Guard. The intent will be to use these savings for higher 
priority mission requirements.

    13. Senator Manchin. General Odierno, will the C-23s prohibited 
from divesture continue to be used in support of the National Guard's 
domestic mission?
    General Odierno. The Army no longer has a Fixed Wing Cargo mission. 
The September 2009 Resource Management Decision 802 transferred all 
direct support (cargo) missions and program requirements to the U.S. 
Air Force. In October 2009, a Memorandum of Agreement (MOA) was signed 
between the U.S. Army and the U.S. Air Force to implement this direct 
support mission. Eight C-23 aircraft assigned to the Army National 
Guard will likely continue flight operations until placed in storage at 
the end of fiscal year 2013.

                      ARMY END STRENGTH REDUCTIONS

    14. Senator Manchin. Secretary McHugh and General Odierno, the 2014 
defense budget does not conform to the caps set under sequestration. 
While we all want a more balanced approach, the Budget Control Act 
(BCA) is the law of the land. If no deal is reached, at some point, 
between now and October, DOD will have to adjust to the sequester 
levels. If the sequester remains in place, what type of end strength 
cuts, by Army component, do you project for the Army in fiscal year 
2014?
    Mr. McHugh and General Odierno. The Army is already reducing 80,000 
out of the Active Army, 8,000 out of the Army National Guard, and 1,000 
out of the U.S. Army Reserve based on the initial $487 billion 
reduction in the BCA of 2011. If full sequestration is implemented, the 
Army may have to reduce up to an additional 100,000 soldiers across the 
Active Army, Army National Guard, and U.S. Army Reserve and further 
reduce the civilian workforce in future program submissions. In doing 
so, the Army would strive to maintain a balance between end strength, 
readiness, and modernization. The Army is assessing the distribution of 
such reductions across the Army components to strike the best possible 
balance for the future, but our assessment is that the Army that 
results in the near years will be forced to accept hollowness in our 
modernization and readiness accounts.

    15. Senator Manchin. Secretary McHugh and General Odierno, in your 
estimation, when would that decision need to be made?
    Mr. McHugh and General Odierno. The Army has been an active 
participant in the SCMR. We anticipate that the output from this review 
will be redefined DSG which will be used to frame fiscal guidance for 
2015. That fiscal guidance combined with direction from the OSD will be 
the basis for any further reductions in Army end strength. Once the 
Army is provided with guidance from the OSD to execute plans to 
accommodate long-term sequestration of our budgets, the Army would 
initiate the actions to draw-down the force over time. The sooner those 
decisions and actions are taken, the sooner savings from personnel 
draw-down could materialize. The Army is beyond the window for any 
decisions that would generate large changes to strength in fiscal year 
2014 that would save fiscal year 2014 resources. We are fast 
approaching the decision window for actions that would adjust fiscal 
year 2015 strength. If sequestration remains unaltered through 2023, 
the Army will be forced to initiate further reductions in order to 
properly balance end strength, readiness, and modernization, and ensure 
our formations are prepared for any contingency.

                TRAINING DAYS FOR THE RESERVE COMPONENTS

    16. Senator Manchin. General Odierno, in the hearing, you gave the 
following statement regarding training days in the National Guard: 
``What we're investing in our National Guard is an ability to expand 
over a period of time--39 days a year they train.'' It is my 
understanding that 39 days is the statutory minimum for a member to 
perform in the selected Reserve and that most soldiers in the National 
Guard train in excess of 39 days. Is this a correct assessment?
    General Odierno. According to 32 U.S.C. Section 502, the Army 
Reserve/National Guard units are required to assemble for at least 48 
drills (2<greek-e>4-hour drills=1 Inactive Duty Training (IDT) day) and 
15 days of annual training each year. As a result, a unit must conduct 
a minimum of 39 days of training annually. However, individual soldiers 
may be excused from this training for a variety of reasons--for 
example, attendance at military school, Special Training, mobilization, 
etc.--resulting in some soldiers training at less than the unit 
minimum. In fact, a majority of National Guard soldiers train 39 days 
or less, though soldiers can add to their total number of training days 
by conducting military duty in other statuses, such as Active Duty for 
training or operational support.

    17. Senator Manchin. General Odierno, what is the average annual 
number of training days for a soldier in the Army National Guard?
    General Odierno. The average annual number of training days 
executed in fiscal year 2012 (the most recent fiscal year with complete 
data) per drilling soldier was 18 days of IDT (36 drill periods) and 12 
days of annual training, for a total of 30 training days. Of the total 
average drilling strength, a portion do not participate in all Annual 
Training/IDT for various reasons (e.g. military school attendance, 
Special Training, mobilization, etc.). Thus, the average annual number 
of training days is fewer than 39 days. If the non-participating 
population is removed from the data, the average annual number of 
training days per soldier increases to 42 days--26 days of IDT (52 
drill periods) and 16 days of annual training.

                            ARMY CONTRACTORS

    18. Senator Manchin. Secretary McHugh, what is the approximate 
number of contractors the Army presently has in its inventory?
    Mr. McHugh. The Army's contractor inventory is captured in the 
Contractor Manpower Reporting Application (CMRA) Report that is 
generated at the end of the fiscal year. For the fiscal year 2012 CMRA 
Report, the Army reported approximately 150,535 contractor full-time 
equivalents for the generating force and 90,319 contractor full-time 
equivalents in the operating force (which includes Overseas Contingency 
Operations (OCO)).

    19. Senator Manchin. Secretary McHugh, has this figure gone up or 
down since last year?
    Mr. McHugh. In compliance with statutory requirements in 10 U.S.C. 
2330a, the Army does not generate contractor inventory data until the 
end of the fiscal year in order to minimize reporting requirements on 
contractors in accordance with the Paperwork Reduction Act. The Army's 
contractor inventory is captured in the CMRA Report. For purposes of 
comparison, between fiscal year 2011 and fiscal year 2012, contractors 
in the generating force increased by 15,870 contract full-time 
equivalents and contractors in the OCO part of the contractor inventory 
decreased by 21,940 contractor full-time equivalents.

                      SUPPORT FOR MILITARY SPOUSES

    20. Senator Manchin. General Odierno, in many cases, servicemembers 
convicted of Uniform Code of Military Justice (UCMJ) violations lose 
their retirement pension and benefits. When this happens, innocent 
family members also suffer. Can you tell me about the Victims' 
Transitional Compensation Benefit Program?
    General Odierno. As currently structured, the Transitional 
Compensation program helps ease the unexpected transition from military 
to civilian life for eligible family members who have experienced a 
dependent-abuse offense. The program was established by Congress as an 
entitlement for abused dependents of military personnel in the National 
Defense Authorization Act (NDAA) for Fiscal Year 1994 (P.L. 103-160). 
The Act authorizes temporary payments for families in which the Active 
Duty soldier has been court-martialed with a qualifying sentence or is 
being administratively separated from the military as a result of a 
dependent-abuse offense. Crimes that may qualify as dependent-abuse 
offenses include, but are not limited to, sexual assault, rape, sodomy, 
assault, battery, murder, and manslaughter. Under current law, crimes 
such as larceny of military property, desertion, and those not related 
to directly abusing dependents do not qualify for Transitional 
Compensation. There are still some dependents who are not adequately 
covered. I encourage Congress to review the legislation further.
    The Army provides benefits and entitlements for 36 months to 
eligible family members. Eligible family members receive monthly 
payments based on the current monthly dependency and indemnity 
compensation rate. During the entitlement period, beneficiaries are 
also entitled to commissary and exchange privileges. They are also 
eligible to receive medical care, including behavioral health services, 
as TRICARE beneficiaries. Dental care services may be provided in 
dental facilities of the Uniformed Services on a space available basis.

    21. Senator Manchin. General Odierno, could this program be 
expanded to protect families in other cases?
    General Odierno. Broadly speaking, the Transitional Compensation 
program could be expanded to protect families in other cases, but such 
an expansion would require congressional action.
    As the DOD is the proponent to implement the policy, assign 
responsibilities, and prescribe procedures under 10 U.S.C. section 
1059, they would have the lead in providing views on any changes to 
existing law. The Army stands ready to partner with DOD and Congress to 
consider shortfalls in the existing program and ensure any change to 
the law is affordable, supportable, and inclusive of all Services.

                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen

                 ARMY SUSPENSION AND DEBARMENT BACKLOG

    22. Senator Shaheen. Secretary McHugh, on March 27, 2013, I joined 
a bipartisan group of Senators in a letter to you and General Odierno 
expressing our continued concern and deep frustration over the Army's 
apparent lack of progress to date to thoroughly process the 43 
debarment referrals involving individuals and companies with links to 
terrorist groups, including the Haqqani Network and al Qaeda, as 
identified by the U.S. Central Command (CENTCOM) Commander under the 
Section 841 designation and the Department of Commerce, Bureau of 
Industry and Security, Entity List. Given the serious nature of these 
cases, we strongly believe that special and immediate consideration 
from the Army is required. In our letter, we requested the Army 
Suspension and Debarment Official commit to thoroughly reviewing these 
43 cases and to make a determination on each within 30 days, and to 
notify us of the final decisions of each case. How soon can we expect 
to receive a response to our March 27 letter?
    Mr. McHugh. As discussed in my April 15, 2013 response to your 
March 27 letter, the Army's Procurement Fraud Branch (PFB) initially 
received the Special Inspector General for Afghanistan Reconstruction's 
(SIGAR) recommendation concerning these 43 cases (9 based upon section 
841 designations and 34 based upon Department of Commerce (DoC) 
decisions to place individuals and entities on the Entity List) on 
September 4, 2012. Initially, the 43 recommendations did not include 
any supporting evidence, but merely cited the fact that these 
individuals or entities were so designated. After a number of requests 
from PFB, on November 13, 2012, SIGAR provided the classified 
documentation on which SIGAR relied to support the nine Section 841 
designations, which consisted of classified intelligence summaries 
derived from unidentified sources of ``unknown'' or ``varying 
credibility/reliability.'' The summary reports are unattributed and 
include neither indicia of reliability nor evidence of corroboration, 
and amount to mere suspicion. While such reports may be adequate under 
Section 841 and for the DoC Entity List decisions (both of which have 
severely limited due process and reduced burdens of proof), they are 
not an adequate basis to propose debarment. SIGAR did not provide 
supporting documentation on the 34 Entity List recommendations. On 
December 18, 2012, PFB returned the 43 recommendations to SIGAR with a 
detailed explanation of the basis for their return, and requested 
supporting evidence underlying the summary reports and Entity List 
decisions.

    23. Senator Shaheen. Secretary McHugh, where is the Army in the 
review process and on making final determinations for these 43 cases?
    Mr. McHugh. On December 18, 2012, Army PFB returned the 43 
recommendations to the SIGAR with a detailed explanation of the reason 
for their return, and requested supporting evidence underlying the 
summary reports and Entity List decisions. On March 14, 2013, SIGAR and 
the DoC made a number of classified documents available for PFB review 
concerning the one company on SIGAR's referral of DoC Entity List 
companies that appeared to do business with the Army. These documents 
consisted of summaries from un-named sources of varying credibility/
reliability which were legally insufficient to support the initiation 
of debarment action. Subsequently, on April 4, 2013, PFB requested that 
SIGAR and DoC provide all available supporting documentation to enable 
PFB to conduct a thorough review of all 34 individuals/entities on the 
DoC Entity List. SIGAR notified PFB that it is coordinating with DoC 
and the Defense Intelligence Agency to make additional documents 
related to the 34 Entity List recommendations available for PFB to 
review. PFB continues to work with SIGAR and DoC, but PFB has not yet 
received any additional supporting evidence upon which to conduct a 
review.

    24. Senator Shaheen. Secretary McHugh, will you commit to ensuring 
these 43 cases are thoroughly reviewed and processed in order to make 
sure that these individuals and companies are not funneling U.S. 
taxpayers' dollars to our enemies?
    Mr. McHugh. Once the SIGAR and the DoC make additional evidence 
available for review, the Army PFB will promptly review the material 
for legal sufficiency in accordance with the requirements of Federal 
Acquisition Regulation (FAR) 9.406.

    25. Senator Shaheen. Secretary McHugh, is the Army committed to 
preventing U.S. taxpayers' dollars from flowing to insurgent and 
terrorist groups?
    Mr. McHugh. Yes. The Army fully supports the comprehensive exercise 
of both authorities under Section 841 (to include the authority to 
restrict the award of future contracts to designated 841 entities) and 
Suspension and Debarment action under FAR 9.406 when such action is 
warranted and supported by sufficient credible evidence. Army PFB 
attorneys will continue to work with the SIGAR staff to develop 
supporting evidence to proceed with recommendations from SIGAR. In 
fact, just since October 1, 2012, the Army Suspension and Debarment 
Official has taken 156 suspension and debarment actions on cases from 
the Afghanistan theater of operations, 127 of which were forwarded to 
PFB by SIGAR.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand

                 PROGRAMMATIC ENVIRONMENTAL ASSESSMENT

    26. Senator Gillibrand. Secretary McHugh, I want to ask you about a 
place you know well--Fort Drum and the 10th Mountain Division. Over the 
last decade, the 10th Mountain Division has been one of the most 
deployed divisions, demonstrating its importance to the Army and the 
Nation. I am very proud of the work these soldiers have done and am 
honored to represent them. As we begin to transition away from combat 
operations in Afghanistan, I want to make sure the 10th Mountain 
Division is still seen as a vital division for the Army. As you analyze 
the findings from the Programmatic Environmental Assessment, what 
metrics will you use to make force reduction decisions?
    Mr. McHugh. The Army realignment and stationing decisions are based 
on quantitative and qualitative factors that ensure that the Army is 
properly stationed at installations where we can best train and deploy 
to meet the Army's worldwide mission.
    To begin its analysis, the Army uses the Military Value Analysis 
(MVA) model to evaluate five broad operational categories critical to 
BCTs including: (1) training; (2) power projection; (3) well-being; (4) 
mission expansion; and (5) geographic distribution. Within each 
category, the Army weighs a number of attributes. For example, in 
analyzing an installation's ability to support training, the Army 
considers available maneuver land, range sustainability, training 
facilities, indirect fire capabilities, and available airspace. Power 
projection evaluations look at an installation's deployment 
infrastructure, aerial port of embarkation and sea port of embarkation 
proximity. Factors that impact soldier well-being include access to 
medical care, family housing availability, the general quality of life 
of an installation (e.g., access to Army Community Services, child care 
development centers, fitness centers, chapels, and youth centers), and 
the quality and quantity of brigade facilities and barracks. Mission 
expansion considerations include buildable acres, urban sprawl, and 
telecommunications infrastructure. Finally, we will evaluate geographic 
distribution by examining the dispersion of the Army's BCTs in order to 
support civil authorities for disaster response, minimize vulnerability 
to a catastrophic attack or natural disaster, and keep our All-
Volunteer Force connected to the American people.
    Using the MVA model scores as a baseline, the Army applies 
qualitative factors, including environmental and socioeconomic impacts, 
military construction (MILCON) costs, readiness, command and control 
proximity, and support to National Defense Strategy to evaluate various 
courses of action in order to reach an optimal stationing solution that 
is both feasible and acceptable.

    27. Senator Gillibrand. Secretary McHugh, will you make these 
metrics available to our military communities so that they can 
understand your decisions?
    Mr. McHugh. Yes. The Army recently completed Community Listening 
Sessions at 30 installations in order to explain the process that the 
Army is using to make these difficult decisions and to receive 
community input before any final decisions are made. The Army's brief 
detailed the operational categories contained in the MVA model--
training, power projection, well-being, mission expansion, and 
geographic distribution, as well as the qualitative factors outside the 
MVA model that the Army is using, to include strategic considerations, 
command and control proximity, MILCON costs, readiness impacts, 
environmental and socioeconomic impacts, and community input.

                           CYBER CAPABILITIES

    28. Senator Gillibrand. General Odierno, the fiscal year 2014 
budget indicates a large investment in our military's cyber 
capabilities. DOD approved a major expansion of the U.S. Cyber Command 
(CYBERCOM), to include growing its ranks from around 900 to 4,900 
personnel or cyber warriors which I understand will: (1) fortify DOD's 
own networks; (2) help plan and execute offensive attacks; and (3) 
protect critical infrastructure like power grids and power plants. What 
is the Army doing to recruit the best and brightest cyber talent?
    General Odierno. The Army, as part of a Joint Service research 
team, is making strides in efforts to screen new recruits to assess 
their ability to perform cyber-related functions. The Information and 
Communication Technology Literacy Test (ICTL), an Air Force sponsored 
test, is designed to measure aptitude for cyber security specialties. 
The Army Research Institute (ARI), through the testing of tens of 
thousands of applicants at U.S. Military Entrance Processing Stations, 
is gathering data to validate the ICTL instrument to determine its 
viability for Army use. The Army's signal proponent is conducting a 
pilot study of ICTL for use in selecting soldiers for cyber-related 
occupations. The ICTL also appears to have potential for use in the 
selection process for military intelligence cyber occupations. ARI 
researchers believe the instrument will prove to be a credible 
screening tool. The Army has also greatly expanded its targeting of 
applicants with Science, Technology, Engineering, and Mathematics 
(STEM) degrees to improve production of officers with these skills. The 
Army in the last 2 years has increased by nearly one third the number 
of accessions with these degrees into our technical branches and is on 
a path to have nearly half of new officer accessions in these branches 
hold these degrees.

    29. Senator Gillibrand. General Odierno, what mechanisms do we have 
in place to encourage cyber studies at West Point and in Reserve 
Officer Training Corps (ROTC) programs across the country?
    General Odierno. On October 19, 2012, the Secretary of the Army 
established the Army Cyber Center at West Point to serve as the Army's 
premier resource for strategic insight, advice, and exceptional subject 
matter expertise on cyberspace-related issues affecting Army 
operations, organizations, and institutions. With a view towards 
building the Army's cadre of cyber-qualified leaders, the Army Cyber 
Center will develop the educational and training programs to foster the 
rigorous study of the intellectual underpinnings of cyberspace 
operations to enhance the competencies of Army personnel in the cyber 
domain.
    All cadets attending the U.S. Military Academy (USMA) complete an 
information technology course that provides cyber-related topics, a 
technology tour, and hands-on cyber security demonstration to encourage 
cyber-related studies as part of their West Point curriculum. A 
majority of juniors take another course that focuses on cyber security 
and cyber operations overall. A new five-course cyber minor allows 
cadets to take focused coursework in cyber studies and the minor will 
be annotated on the cadets' transcripts. Additionally, a new three-
course engineering sequence focusing on cyber, one of seven such 
sequences at USMA will also be available and is required for non-
engineer cadets.
    The USMA has several other cyber-related programs that encourage 
participation in cyber studies. Some of the activities include a cyber 
warfare club that offers a robust guest-speaker program, cadet-
organized lessons on cyber topics, and hands-on learning opportunities; 
the club boasts over 250 cadet members. Another program is the Cyber 
Defense Exercise, an intensive competition between all the Service 
Academies.
    A program that covers both USMA and ROTC cadets is the cyber 
internship program for cadets from all academic disciplines. In 2013, 
there are 86 cadets from USMA and U.S. Army Cadet Command participating 
in internships at the National Security Agency, CYBERCOM, Army Cyber 
Command, and other government and industry organizations. Participating 
cadets receive a TS-SCI clearance.
    U.S. Army Cadet Command has set conditions for meeting cyber 
challenges by using scholarships to increase production of STEM 
graduates in general, and cyber studies in particular. Currently, there 
are 3,334 (30 percent) ROTC scholarship cadets studying in STEM fields. 
We currently have 535 cadets studying in the cyber field. Other large 
concentrations of academic STEM studies that would facilitate future 
cyber support are Computer Science (225), Information Systems (147). We 
also have cadets studying Software Engineering, Computer Science, and 
Computer Engineering/Artificial Intelligence. We reward cadets by using 
extra points for degrees in engineering, hard sciences, math, and 
computer science in our Order of Merit System that determines 
branching. The points awarded improve cadet standing for those with 
STEM qualifications. Additionally, cadets with cyber compatible majors 
who have a 2.75 or higher GPA may be preferentially branched to our 
Signal Corps where a majority of cyber skill requirements reside.

    30. Senator Gillibrand. General Odierno, is the Army considering an 
incentive pay system that helps in the retention of military members 
with high level cyber skill sets?
    General Odierno. Yes. We have four tools available to recruit, 
retain, and stabilize this critical population. We have the Current 
Station Stabilization Reenlistment Option, the Conversion Bonus, the 
Selective Reenlistment Bonus, and the Critical Skills Retention Bonus 
to target recruitment and retention of soldiers with high level cyber 
skills. The Army will monitor retention trends to maximize use of these 
incentives as the career field matures.

    31. Senator Gillibrand. Secretary McHugh, leveraging citizen 
soldiers who work in the cyber industry every day and also serve their 
country in uniform through the National Guard and Reserve is 
imperative. Senator Vitter and I have introduced a bill to create and 
leverage a Cyber Guard. I received a positive letter from General 
Alexander and the National Guard Governors Association about the idea. 
At the DOD posture hearing, I asked General Dempsey about the bill and 
he was also supportive. I'd like to work with you to ensure that we 
implement every available tool to recruit and retain a capable cyber 
force. Does this sound like legislation the Army will support?
    Mr. McHugh. The Army does not support the legislation as written, 
but like you, we are committed to a cyber strategy that leverages the 
cyber civilian skills existing in our Guard and Reserve Forces. Our 
concern is that this legislation would likely compete directly with 
Joint Staff's efforts to build Reserve Component Cyber Protection Force 
units inside the CYBERCOM Force Build. The Army is collaboratively 
working with the Army National Guard and the Office of the Chief, Army 
Reserve on an Army Reserve Component Cyber Integration Strategy to 
identify specific contributions the Reserve component could make toward 
the CYBERCOM Force Build. The optimal solution is one in which the 
Active and Reserve component cyber force structure complements each 
other to establish a total Army solution to providing cyber forces for 
defense of the Nation.

                             SEXUAL ASSAULT

    32. Senator Gillibrand. General Odierno, I have enormous respect 
for the men and women who serve in the military. That is why I am 
committed to ending the violent crime of sexual assault among those in 
uniform. The new DOD Health Related Behaviors Survey of Active Duty 
Military Personnel was released this week, and I am very disturbed that 
it indicates more than 1 in 5 women in the Active Duty Armed Forces 
reported experiencing unwanted sexual contact by a fellow 
servicemember. That is unacceptable. The men and women who serve in our 
Armed Forces are the military's most precious resource, and clearly the 
system is failing to protect them from the worst kind of violence. As 
you may know, I am drafting legislation that will remove the initial 
disposition authority from commanding officers and put it in the hands 
of experienced military prosecutors. Over the past few months, we have 
been examining this change and one of the concerns that has been voiced 
is that it will disrupt the good order and discipline of the unit. In 
your opinion, what precisely about this change would disrupt good order 
and discipline?
    General Odierno. Command authority under the UCMJ and the 
maintenance of good order and discipline are inextricably linked. The 
only way that a commander can be effective in enforcing good order and 
discipline is by having the authority to dispose of criminal offenses--
quickly, visibly, and locally.
    Put another way, commanders are individually responsible and 
accountable for everything that goes on in his or her command, 
including good order and discipline. Soldiers understand that, and they 
look to the commander, no one else, for enforcement of all standards. 
Command authority, particularly in the context of military justice, is 
and will remain the most critical mechanism for ensuring discipline, 
accountability, cohesion, and integrity of the force. A commander's 
ability to execute the responsibilities of command will be severely 
disrupted if that command authority is diminished in any way.

    33. Senator Gillibrand. General Odierno, what other recommendations 
do you have for dealing with this crisis and actually getting results?
    General Odierno. On May 28, 2013, the Secretary of the Army 
directed the Assistant Secretary of the Army (Manpower and Reserve 
Affairs) to establish a department-wide working group ``to explore 
other options for ensuring the qualifications and suitability of, and 
incentivizing service as, a SARC or Sexual Assault Victim Advocates to 
ensure that the best-qualified and most suitable individuals seek out 
and are selected for service in these positions.'' The group's 
recommendations will be provided to the Secretary of the Army not later 
than October 31, 2013.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                           CIVILIAN FURLOUGHS

    34. Senator Inhofe. Secretary McHugh, I am concerned about the 
potential impact of civilian furloughs on the Army's critically 
important family support programs. If furloughs take place, do you 
expect any cutbacks in your operating hours at commissaries, exchanges, 
and child development centers or curtailment of Morale, Welfare, and 
Recreation (MWR), Department of Defense Education Activity (DODEA), 
Transition Assistance Program (TAP) or military spouse employment 
programs?
    Mr. McHugh. As a result of funding reductions/furlough guidance, 
each commissary will close 1 day per week. Operations at 7-day stores 
will reduce to 6-day operations; 6 days to 5; and 5 days to 4. At 
overseas locations, stores will be closed 1 additional day a week 
unless adequate local nationals are available to keep them open. HQ/
Areas Operations will be closed to coincide with store closures. There 
will be no impact on operating hours at the Exchange.
    As far as DODEA, furloughs will not affect the end of the 2012-2013 
school year. Though furloughs will be in place at the start of the 
2013-2014 school year, the number of days has not been confirmed. 
Regardless, DODEA will ensure that all students have a robust academic 
year. School staff will ensure students receive a full year of academic 
study even within a slightly shortened academic year due to the 
furloughs.
    Transition counseling services are contracted by a fully-funded 
contract through September 30, 2013. There will not be a decrease/delay 
in providing transition services to soldiers and their families. 
However, the program is overseen at most installations by Transition 
Services Managers (TSM), who are civilian employees. Garrisons will 
have a civilian employee or military personnel available to oversee 
contract operations during the time the TSM is furloughed. At smaller 
installations, transitioning soldiers will utilize virtual counseling 
services to meet Veterans Opportunity to Work Act requirements.
    Family, Morale, Welfare, and Recreation (FMWR) programs and 
services are currently frozen at fiscal year 2012 levels. 
Nonappropriated Fund (NAF) employees are currently exempt from 
furlough, which includes 2,637 full-time Child Development Center (CDC) 
and School Age Center (SAC) employees. These individuals will continue 
to maintain 5-day coverage of centers to accommodate the needs of 
soldiers and families.
    Although NAF employees are the primary service providers for most 
FMWR programs and services, appropriated fund (APF) employees are 
utilized within Army Community Service (ACS) Centers and, in some 
cases, Community Recreation programs. These employees are subject to 
furlough and some services will be impacted. Installation Senior 
Commanders and Garrison Commanders will determine the optimum method of 
furlough implementation with the goal of minimizing disruption to 
critical soldier and family programs. Some of these key programs 
include spouse employment, victim advocacy for sexual assault and 
domestic violence, Army emergency relief, support to exceptional family 
members, child abuse prevention and intervention support, support to 
wounded warriors and their families, and support to survivors. In most 
cases, our ACS Centers plan to close 1 day per week during the furlough 
period. In order to mitigate the effect of furlough, ACS Centers will 
develop strategies to ensure 24/7/365 coverage for key services such as 
victim advocacy and child abuse/domestic violence response. We 
encourage our Centers to rely on electronic resources such as Army 
OneSource and Military OneSource to provide information and link up 
service providers to our soldiers and families.

    35. Senator Inhofe. Secretary McHugh, if civilian furloughs, in 
response to sequestration, impact the mission of the Military Entrance 
Processing Stations, then what options does the Army have to ensure 
your recruit accessions are not disrupted?
    Mr. McHugh. By shifting funding, the Army addressed the risk of 
accession mission failure in fiscal year 2013 and fiscal year 2014 due 
to sequestration. Civilian furloughs will not affect the ability of 
Army accessioning agencies to achieve fiscal year 2013 accession 
missions. However, if the U.S. Military Entrance Processing Command 
curtails operations in fiscal year 2013 due to civilian furloughs, some 
delays in contracting new soldiers for entry into the Army in fiscal 
year 2014 may occur. For example, the Military Entrance Processing 
Stations will be shut down for 1 day per week. This will significantly 
increase applicant travel costs and adversely affect the streamlined 
process of new recruits. The Army plans to mitigate these delays by 
processing these soldiers after the beginning of the new fiscal year.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    36. Senator Inhofe. Secretary McHugh, it is unconscionable that 
servicemembers must wait many months to receive a disability 
determination from the Department of Veterans Affairs (VA). While DOD 
and VA have made some progress in decreasing the amount of time it 
takes to get disability claims completed in the Integrated Disability 
Evaluation System (IDES), more work must be done. What is the Army 
doing to help DOD and VA to expedite claims through the system?
    Mr. McHugh. To assist the VA in managing this additional workload, 
the Army is providing personnel to perform administrative procedures so 
that VA adjudicators can focus on rating activities. The Army is also 
making additional entries into the Veterans Tracking Application to 
allow VA to better manage cases in the benefits delivery phase of IDES. 
VA estimates this assistance will lead to a 10 to 15 percent increase 
in the number of Ready for Decision cases over the 90-day period. We 
continue to explore and implement other solutions to provide the 
information that VA needs to finalize their rating decisions in a more 
timely manner.

    37. Senator Inhofe. Secretary McHugh, do you believe the VA is 
doing all that it can do to decrease the amount of time for disability 
case reviews and claims adjudication?
    Mr. McHugh. Yes, I believe our partners in the VA are doing 
everything they can to decrease the amount of time for disability case 
reviews and claims adjudication.

    38. Senator Inhofe. Secretary McHugh, does the VA need additional 
resources to hire more claims adjudicators?
    Mr. McHugh. The Army does not know if VA requires additional 
resources to hire more claims adjudicators.

                    PROTECTING PROSPECTIVE RECRUITS

    39. Senator Inhofe. Secretary McHugh, a recent tragic case in 
Maryland appears to have been a murder/suicide incident involving a 
prospective recruit and her recruiter. What guidance has the Army 
provided to ensure that prospective recruits and their parents or 
guardians are fully aware of the limits for relationships with 
recruiters?
    Mr. McHugh. Army recruiter contact with newly contracted soldiers, 
prospects, and applicants is highly restricted by Army policy. 
Recruiters who violate the regulations governing this contact are 
subject to disciplinary action, relief, or separation. Cards describing 
sexual harassment prohibitions and what the prohibited activities are 
for recruiters and applicants are given to all applicants upon first 
contact, as well as to their parents. These cards are used by the U.S. 
Army Recruiting Command in its recruitment of Regular Army and Army 
Reserve applicants. The Army National Guard has similar cards in 
development. In addition, all recruits in all the Army's components 
sign contracts that include descriptions of sexual harassment 
prohibitions and what the prohibited activities are for recruiters and 
members of the Delayed Entry Program (DEP).

    40. Senator Inhofe. Secretary McHugh, what information does the 
Army require to be provided to prospective recruits to ensure that they 
have immediate access to assistance and intervention, if necessary, if 
they believe a recruiter is intending to take improper advantage of 
them?
    Mr. McHugh. Army recruiter contact with newly contracted soldiers, 
prospects, and applicants is highly restricted. Cards describing sexual 
harassment prohibitions and what the prohibited activities are for 
recruiters and applicants are given to all applicants upon first 
contact, as well as to their parents. These cards are used by the U.S. 
Army Recruiting Command in its recruitment of Regular Army and Army 
Reserve applicants. The Army National Guard has similar cards in 
development. Applicants and recruiters are offered a Hot Line phone 
number on the card to report any improper actions. In addition, all 
recruits in all the Army's components sign contracts that include 
descriptions of sexual harassment prohibitions and what the prohibited 
activities are for recruiters and members of the DEP. The contract also 
provides the applicant a recruiting agency senior leader's telephone 
number for reporting sexual harassment or prohibited activity 
violations.

                DEFENSE SEXUAL ASSAULT INCIDENT DATABASE

    41. Senator Inhofe. Secretary McHugh, DOD has told us they have 
achieved full-deployment of the congressionally-mandated Defense Sexual 
Assault Incident Database (DSAID). Is the Army providing data to 
populate the database, and if so, what information, specifically, is 
this database providing Army leadership concerning sexual assault 
incidents?
    Mr. McHugh. The Army has a Memorandum of Agreement (MOA) with DOD 
that allows us to continue to use our Sexual Assault Data Management 
System (SADMS), which has been operational since 2005. Under that MOA, 
the Army ``pushes'' the required sexual assault data to DSAID from 
SADMS on a monthly basis. Accordingly, the sexual assault information 
provided to Army leadership comes from SADMS through our Sexual 
Harassment/Assault Response and Prevention (SHARP) Program Office. This 
information includes the type of reports (Restricted or Unrestricted), 
type of assault (rape, forcible sodomy, aggravated sexual contact, et 
cetera), gender, rank, location (on/off post), investigation status, 
disposition status (court-martial, non-judicial punishment, adverse 
administrative action, et cetera) and victim services (counseling, 
healthcare, advocacy, legal, et cetera).

                             SEXUAL ASSAULT

    42. Senator Inhofe. Secretary McHugh and General Odierno, before 
this committee, DOD witnesses described the recently revised DOD-wide 
policy on Sexual Assault Program to standardize prevention, health 
care, victim safety, training and response efforts, and to clearly 
convey the role of servicemembers and employees in sexual assault 
prevention and recovery. This committee is concerned that medical care 
providers were not fully aware of their obligations concerning 
restricted reports, including the obligation to withhold disclosure to 
the chain of command. What actions have been taken to ensure 
standardization with response to protecting the sanctity of Restricted 
Reports?
    Mr. McHugh and General Odierno. The Army follows DOD policy and 
requires our healthcare providers to notify a Sexual Assault Response 
Coordinator (SARC) when a sexual assault victim seeks care at a 
Military Treatment Facility (MTF). The SARC (if not present with the 
victim) will then respond to the victim as quickly as possible.
    Health care providers are trained to safeguard the confidentiality 
of medical information and maintain it in accordance with current 
Health Insurance Portability and Accountability Act (HIPAA) guidelines 
regardless of whether the soldier elects restricted or unrestricted 
reporting. Improper disclosure of covered communications and improper 
release of medical information are prohibited and may result in 
disciplinary actions under the UCMJ, loss of credentials, or other 
adverse personnel or administrative actions.
    Additionally, each Army MTF has a Sexual Assault Care Coordinator, 
Sexual Assault Clinical Provider, and a SARC who train other health 
care providers and health care personnel on their requirements 
regarding the preservation of restricted reports, including withholding 
protected information from the chain of command.

    43. Senator Inhofe. Secretary McHugh and General Odierno, what 
additional challenges do you see in attaining the required level of 
standardization?
    Mr. McHugh and General Odierno. I do not see any challenges with 
respect to protecting sanctity of restricted reports in standardization 
that the Services and DOD, working together, have not already 
addressed. Two examples include the decisions by DOD to standardize 
SARC and Victim Advocate credentialing requirements and train sexual 
assault investigators from all Services at the U.S. Army Military 
Police School.

    44. Senator Inhofe. Secretary McHugh and General Odierno, what 
additional tools does the Army need in order to continue to reduce--
with the goal of eliminating--sexual assault?
    Mr. McHugh and General Odierno. The Army possesses the tools needed 
to achieve the goal of resolving the problem of sexual assault in the 
military, but additional refinement is needed. We look forward to the 
results of the Response Systems Panel, which will highlight components 
of the UCMJ that may need to be changed, while at the same time 
thoroughly exploring the second and third order effects of those 
refinements. However, we know it is our responsibility to establish the 
positive organizational climate and culture needed to protect victims, 
and appropriately prevent and respond to sexual assault.

    45. Senator Inhofe. General Odierno, some have suggested that it 
would be appropriate to incorporate standardized assessments of 
commanders' performance in prevention, investigation, accountability, 
advocacy, and assessment of sexual assault response and prevention 
lines of effort. What is your assessment of the feasibility of 
implementing commanders' performance in Service-specific performance 
appraisals?
    General Odierno. It is feasible and very appropriate to assess all 
officers and noncommissioned officers (NCO) on their enforcement of 
sexual assault prevention and response principles, including their 
establishment or support of a positive command climate. The current 
officer and NCO evaluation reports allow for comments regarding support 
of Equal Opportunity (EO) and Sexual Harassment. AR 600-20, Army 
Command Policy, also encourages comments for this topic. The future 
officer and NCO evaluations will continue to stress this topic and the 
Army Doctrine Reference Publication (ADRP) 6-22, Army Leadership under 
the Leader Competency of Trust reinforces this in leader development. 
We are exploring methods to reinforce the SHARP effort by including 
SHARP and EO topics as part of the performance evaluation and including 
a directed comment in both the officer and NCO evaluations reports, 
both of which are currently under revision.

    46. Senator Inhofe. Secretary McHugh, the annual report on sexual 
assault at the Service Academies revealed that many people who enter 
the armed services have experienced and report sexual assault or 
unwanted sexual contact that occurred before they entered the Service 
Academies or the armed services. What could the Army be doing to 
improve support to men and women in the accession process, to identify 
whether individuals have experienced sexual assault?
    Mr. McHugh. The USMA does not screen applicants for a history of 
sexual assault but does provide all new cadets information about the 
Army's SHARP Program.
    When a new cadet self-identifies during cadet basic training, or 
subsequently over the course of their career as a cadet, the cadet is 
referred to a SARC or Victim Advocate who provides essential support 
and care to the victim.
    This support includes, but is not limited to, providing information 
on available reporting options (restricted and unrestricted), available 
resources to assist the victim in the healing process (e.g., on- and 
off-post counseling, chaplaincy, DOD SafeHelpline), and due process and 
investigation procedures (legal assistance and/or law enforcement to 
include Criminal Investigation Division--even if serving in a liaison 
role between civilian law enforcement and the military for off-post 
incidents).
    The Victim Advocate provides continual support until the victim 
states that s/he no longer requires assistance or until departure from 
the Academy, at which point s/he receives information about resources 
available after departure.

                      COMMAND CLIMATE ASSESSMENTS

    47. Senator Inhofe. Secretary McHugh and General Odierno, what 
percent of your commands conduct command climate assessments?
    Mr. McHugh and General Odierno. Per Army regulations, all Active 
component company commanders (or equivalents) must administer a command 
climate survey within 30 days of assuming command, then again at 6 
months, and annually thereafter. Reserve component company commanders 
receive 120 days to complete command climate surveys upon assuming 
command. I have also directed command climate surveys at all levels of 
command through Division level. Revised policy will require command 
climate assessments to be conducted at all command and major 
organization levels and for results to be reviewed with the next higher 
level commander or leader.
    Unfortunately, the Army is unable to respond to the specific 
question of the percent of commands which have completed fiscal year 
2013 company-level assessments. The Defense Equal Opportunity 
Management Institute provides automated organizational climate survey 
services, and this service was shut down for several months during this 
last year. While this service was down, the Army conducted its 
assessments manually (paper and pencil surveys). A way ahead is being 
planned for Army automated survey administration, tracking, and 
accountability mechanisms.

    48. Senator Inhofe. Secretary McHugh and General Odierno, what is 
the Army doing to improve the regularity of command climate 
assessments?
    Mr. McHugh and General Odierno. We updated Army Regulation 600-20 
in September 2012 to read ``Company level commander (or their 
equivalents) will conduct a unit command climate survey within 30 days 
of assuming command (120 days for ARNG and USAR), again at 6 months, 
and annually thereafter. Assessments must include a facilitated small 
group discussion of topics. Company level commanders (or equivalents) 
may supplement any survey efforts with individual and group interviews, 
the analysis of unit records, and statistical information (awards, 
promotions, reenlistments, incidents of misconduct resulting in UCMJ, 
and EO complaint reports).'' We report and track the compliance rates 
for command climate surveys. I have also directed command climate 
surveys at all levels of command through Division level.

    49. Senator Inhofe. Secretary McHugh and General Odierno, what is 
the Army doing to evaluate the results of the command climate 
assessments to ensure necessary follow-up action?
    Mr. McHugh and General Odierno. Current Army policy requires 
company level commanders to administer command climate surveys within 
30 days of assuming command (120 days for Army National Guard and Army 
Reserve), again at 6 months and annually thereafter. I have also 
directed command climate surveys at all levels of command through 
division level. Revised policy will require command climate assessments 
to be conducted at all command and major organization levels and for 
results to be reviewed with the next higher level commander or leader. 
Additionally, revised evaluations policy will include mandatory 
comments on unit climate. Results of an ongoing 360 Assessment Pilot 
will provide information for a decision to expand this assessment to 
all brigade and battalion commanders. Completion of command climate 
assessment survey requirements will be tracked and reported to Army 
Senior Leaders as a part of the Army's Ready and Resilient Campaign.

                   FEDERAL VOTING ASSISTANCE PROGRAM

    50. Senator Inhofe. Secretary McHugh, what is your assessment of 
the performance of the Army's Federal Voting Assistance Program (FVAP)?
    Mr. McHugh. In my view, the Army has a very robust voting 
assistance program. We have a large network of Installation Voting 
Assistance (IVA) offices and Unit Voting Assistance Officers (UVAO), 
who are providing voting assistance on a year-round basis. In 2012, the 
Army voting assistance program had over 7,800 appointed and trained 
Active Duty UVAOs who provided information to eligible voters within 
their organizations. The Army also created Public Service Announcements 
(PSA) that were seen overseas and State-side and participated in 
Absentee Voters Week and Armed Forces Voters Week to encourage eligible 
voters to register and vote. The Army voting assistance program has 
also successfully leveraged social media by using Facebook and Twitter, 
and established and maintain a vigorous communications strategy. We 
empower individual voters and continue to provide voting assistance and 
guidance to soldiers, civilians, and their dependents.

    51. Senator Inhofe. Secretary McHugh, what Army-specific 
initiatives have you implemented to improve compliance with FVAP and to 
maximize the opportunity for servicemembers to exercise their right to 
vote?
    Mr. McHugh. The Army welcomes the responsibility for providing 
voting assistance to our servicemembers, their family members, and our 
civilian employees. Before the 2012 elections, we made weekly phone 
calls and/or e-mail communications to IVA offices to ensure proper 
manning and updated any changes to office contact information. The Army 
continues to complete monthly phone and/or e-mail communications to the 
IVA offices. To maximize voter participation, over 7,800 Active Duty 
UVAOs provided voting assistance at the unit level. They presented 
registration and voting information during meetings, training sessions, 
and formations. The UVAOs provided assistance and encouraged 
servicemembers to access the FVAP website for fast and efficient voter 
registration and assistance. Some of the Army voting activities for 
2012 included participation in Armed Forces Voters Week and Absentee 
Voters Week with IVA offices setting up voting information tables in 
high traffic areas. To increase voter awareness and participation, the 
Army Voting Assistance Program uses Facebook, Twitter, PSAs, print 
media, and mass e-mail distribution. The Army continues to use 
collaborative tools and information sharing with FVAP to push current 
and relevant voting information to our voting assistance personnel and 
eligible voters.

                      OPERATIONAL TEMPO OVERSIGHT

    52. Secretary McHugh, what is your assessment of the Army's 
operational tempo (OPTEMPO) reporting and how well are we meeting our 
OPTEMPO requirements to reduce stress on our servicemembers and their 
families?
    Mr. McHugh. Overall, the Army is meeting its OPTEMPO, with the 
exception of the Army Reserve. The Active component goal is a ratio of 
1:2 (time deployed vs. time home). The Active component is exceeding 
this goal with a ratio of 1:2.46. The Army National Guard is achieving 
the goal of 1:4 (time deployed vs. time home). The Army Reserve is 
continuing to improve; however its current ratio of 1:3.5 is below the 
goal of 1:4. A number of high demand military occupational specialties 
such as interpreters, aviation maintainers, and engineer specialties 
fall below the goals, with ratios ranging from 1:1.5 to 1:2. However, 
given the expected reduction in demand for ground forces in support of 
Operation Enduring Freedom (OEF), we expect ratios to improve.

                     LANGUAGE AND CULTURE TRAINING

    53. Senator Inhofe. Secretary McHugh, military members with 
language and culture training are essential to a U.S. global force. The 
NDAA for Fiscal Year 2013 authorized the Secretary of Defense to 
transform the National Language Service Corps (NLSC) from a pilot to a 
permanent program, and also to enhance the ability of our Federal 
agencies to hire people with strategic foreign language skills and as 
National Security Education Program awardees. What are the Army's goals 
with respect to the capabilities represented by the NLSCs?
    Mr. McHugh. The Army continues to support and leverage the 
capabilities provided by the NLSC under the NDAA. Currently, the Army 
works with NLSC's recruiters to hire language proficient soldiers 
departing the Army to work at NLSC. We display NLSC advertisements on 
various portals targeting language qualified soldiers and civilians. 
Additionally, the NLSC provides an overview of their organizational 
opportunities to our 09L soldiers (native speakers of foreign languages 
who serve as interpreters) planning to depart military service. The 
Army is very active in supporting this program's growth. In addition, 
the Army leverages NLSC capabilities to fill short-term foreign 
language requirements that cannot be met from within. Some of these 
categories include: role players, interpretation, translation and 
analysis, training (instruction), and administrative language support 
services.
    To respond to increasing demands for foreign language skills, the 
NLSC plans to increase membership from the current 4,200 to at least 
5,500 personnel. The number of languages/dialects represented is 
expected to increase from 283 to at least 350 by fiscal year 2015. The 
Army continues to work with the Secretary of Defense to actively expand 
the NLSC membership, reaching out to groups in which the government has 
already invested while seeking to leverage the capabilities of this 
organization.

                       MARKETING AND ADVERTISING

    54. Senator Inhofe. Secretary McHugh, one effect of sequestration 
was that the Services quickly moved to end service advertising, 
marketing, and outreach programs that have been used to aid in 
recruiting. What is your assessment of the value of funding these 
programs, and the projected impact to recruiting if these programs are 
not funded?
    Mr. McHugh. It is essential that the Army conduct a vigorous and 
sustained marketing and advertising program in order to recruit a 
quality force capable of handling 21st century mission challenges.

                  INTEGRATED ELECTRONIC HEALTH RECORD

    55. Senator Inhofe. Secretary McHugh, DOD and VA have been working 
on an integrated electronic health record (IEHR) for a number of years 
with very little progress being made towards a truly seamless 
transition of health information between the two departments. In 
January 2013, VA decided to use VistA, its legacy system, as its core 
health record despite the findings of a recent study commissioned by 
the VA that identified many VistA deficiencies. We've been told that 
DOD has been evaluating existing solutions to determine the appropriate 
core health record to use. Has DOD coordinated its proposed EHR program 
with the Army?
    Mr. McHugh. Yes, the Army has coordinated with the Navy and Air 
Force in the review of the request for information submissions. This 
information was released to the public on February 8, 2013. Results and 
recommendations were briefed to DOD leadership and the three Service 
Deputy Surgeon Generals. The Army actively contributed to defining EHR 
core capabilities.

    56. Senator Inhofe. Secretary McHugh, how much will it cost for the 
Army to field a new IEHR?
    Mr. McHugh. The estimated costs as determined by the DOD Cost 
Assessment and Program Evaluation (CAPE) office are acquisition 
sensitive and not available for public release at this time.

    57. Senator Inhofe. Secretary McHugh, what impact do you anticipate 
for the Army's medical readiness?
    Mr. McHugh. The IEHR provides a lifetime EHR from the time a 
solider enters the Army; it is a key enabler for a soldier's seamless 
transition to the VA. The IEHR will make it easier to extract medical 
records as a soldier goes through the IDES process, which will improve 
readiness capabilities, for example, by making it easier to track 
immunizations. Current systems require duplicate efforts that cause 
errors and gaps, so it is important that the IEHR have full 
compatibility with readiness data systems for all Services to enable 
crucial bidirectional data exchange.

    58. Senator Inhofe. Secretary McHugh, do you believe the EHR must 
be deployable?
    Mr. McHugh. Yes, it is essential that the IEHR be deployable to 
support soldiers in theaters of operation or doing contingency 
operations. A deployable IEHR will allow data input and visibility 
throughout the continuum of care from point of injury to DOD medical 
treatment facilities to VA treatment facilities. Documenting care in 
the deployed environment will enhance the accuracy of a soldier's 
medical history, which could affect future disability assessments and 
benefits determination.
    Documenting pre-hospitalization care and assessment provides 
valuable retrospective data to conduct research to improve patient care 
to address preventable causes of battlefield death. Finally, a 
deployable IEHR also enables deployed providers to access the medical 
history of the injured soldiers, thereby improving the quality of care.

    59. Senator Inhofe. Secretary McHugh, what input has the Army had 
on the EHR program?
    Mr. McHugh. Army medicine has been involved in the IEHR program 
from the beginning. Army's contributions to the IEHR program include: 
requirements generation and support with Clinical Informatics, 
Capability Management, and Enterprise Architecture assets. The Army 
Surgeon General is a non-voting member of the Interagency Program 
Office Advisory Board, which is responsible for IEHR governance.

                     BENEFITS FOR SAME-SEX PARTNERS

    60. Senator Inhofe. Secretary McHugh, recently, former Secretary of 
Defense Panetta announced that DOD will expand benefits to unmarried 
same-sex domestic partners who declare a committed relationship, but 
will not extend those same benefits to unmarried heterosexual domestic 
partners. Do you agree with former Secretary Panetta, that when it 
comes to benefits paid for by hard-working American taxpayers, that DOD 
should favor same-sex domestic partners over heterosexual partners, and 
was the Army consulted to determine the cost impact of extending these 
benefits to same-sex partners?
    Mr. McHugh. We support former Secretary Panetta's decision. 
Heterosexual couples, if they so choose, have the opportunity in every 
State to get married; currently, same-sex couples do not have this 
opportunity. The steps that have been announced are an effort to close 
the equity gap for benefits, consistent with current law. Once 
implemented, same-sex domestic partners will be required to sign DD 
Form 683, (Declaration of Partnership) attesting to the committed 
relationship. Similarly, a DD Form 684, (Dissolution of Partnership) 
will be required if the relationship ends. Soldiers must notify their 
personnel official within 30 days of the dissolution and will be 
required to wait 6 months before attesting to another relationship.

                            TOTAL FORCE MIX

    61. Senator Inhofe. General Odierno, General Dempsey said in his 
testimony last week that DOD needs flexibility to keep the force in 
balance and, that everything must be on the table including the mix 
among Active, Reserve, and National Guard units. In view of the heavy 
wartime demand on the forces including the Reserve and Guard, what do 
you envision as a viable option to change that force mix for the Army?
    General Odierno. The Army must maintain a balance between military 
and civilian end strength, readiness, and modernization as it considers 
future strategic implications. As for force mix, I do not envision 
significant migration of force structure between the Active and Reserve 
components. As we draw down and rebalance, I would continue to see the 
Active component as that portion of the force best suited for 
unpredictable and frequent employment, for dealing with complex 
operational environments, and for dealing with unexpected 
contingencies. I would see the Reserve components best suited for 
predictable and infrequent deployments, for providing title 32 support 
to State and local authorities, and for providing operational and 
strategic depth.

                         MILITARY COMPENSATION

    62. Senator Inhofe. Secretary McHugh, our Nation's historical 
experience of pursuing cost savings by cutting military compensation 
has demonstrated that periods of designed reduction in overall 
compensation levels resulted in retention problems. Those retention 
problems, especially in the context of generally improving civilian 
employment opportunities, meant Congress was required to come back and 
authorize catch-up increases to help us keep the highly-trained talents 
and skills that we need. What is your assessment of the impact of the 
President's proposed slowdown in military compensation on retention and 
recruiting in your Service?
    Mr. McHugh. The Army believes that a slowdown in the increase in 
military compensation can be accomplished without sacrificing recruit 
quality or member retention. Conditions appear favorable for slowing 
the increase in military pay. Recruiting quantity is being met and 
recruit quality is high; retention goals are typically being exceeded. 
Any unanticipated changes in circumstances, such as a significant 
improvement in civilian employment opportunities, could negatively 
affect Army retention and recruiting. However, at present and in the 
anticipated future environment, the Army does not believe that a 
slowdown in the increase in military compensation will adversely affect 
its ability to recruit and retain an adequate number of high-quality 
personnel.

                        FAMILY SUPPORT PROGRAMS

    63. Senator Inhofe. Secretary McHugh, General Dempsey testified 
last week that unsustainable costs and smaller budgets require DOD to 
examine every warrior and family support program to make sure we are 
getting the best return on our investment. How do you assess the 
investments our Nation has already made in family support programs, and 
suicide prevention in particular, in moving the needle with 
demonstrable positive return on investment?
    Mr. McHugh. In late 2011, the Army adopted a portfolio approach for 
managing warrior and family support programs. This portfolio approach 
shifts the governance focus from individual program proponents to the 
entire group of related programs, such as suicide prevention. In 2012, 
the Army piloted its first enterprise evaluation to assess how programs 
within the Health Promotion and Risk Reduction Portfolio contribute to 
specific strategic outcomes (Help-Seeking, Risk Reduction, Transition, 
and Resilience and Coping). The findings of this and future evaluations 
will focus on how programs could increase their ability to achieve the 
Army's strategic outcomes and improve our return on investment.

                       TUITION ASSISTANCE PROGRAM

    64. Senator Inhofe. Secretary McHugh, I am pleased to learn that 
DOD has now reinstated the Tuition Assistance Program (TAP), previously 
cancelled by the Army, Marines Corps, and Air Force in response to the 
administration's failure to plan for sequestration. How does TAP enable 
your Active Duty Forces to meet the professional development 
requirements described by General Dempsey to establish the Profession 
of Arms as the foundation for the Joint Force?
    Mr. McHugh. Tuition assistance supports soldiers in completion of 
classes leading to Associate's, Bachelor's and Master's degrees as well 
as certificate programs. This off-duty voluntary education program 
develops critical and adaptive thinking skills soldiers and leaders 
need to make informed decisions. These skill-sets allow our soldiers 
and the Army to learn faster and adapt more quickly than our 
adversaries, all of which are necessary skills to meet the challenges 
of today's operational environment.

                           SUICIDE PREVENTION

    65. Senator Inhofe. Secretary McHugh and General Odierno, our force 
is exceptionally well-trained on suicide awareness and prevention, and 
yet we still experience the tragedy of suicide at an unacceptably high 
rate. What is your assessment on whether the current level of training 
and leadership engagement is sufficient or whether it has inadvertently 
created a climate in which some vulnerable individuals may have 
contemplated suicide because we talk about it so much?
    Mr. McHugh and General Odierno. We continually assess our training 
for effectiveness. The Ready and Resilience Campaign requires an 
assessment of programs that support the campaign. The Army has not, 
however, completed an assessment on the correlation of suicide 
prevention training and the incidences of suicides overall. What we do 
know is that suicide is a complex issue with a multitude of variables 
influencing each one. The Army focus on identifying the early signs of 
suicidal behaviors and intervention skills remains the best option in 
attempting to reduce the number of suicides. That said, we are not 
aware of any direct correlation that the increase in suicide prevention 
training has created a higher propensity of soldiers to consider 
suicide.

                               SEQUESTER

    66. Senator Inhofe. Secretary McHugh and General Odierno, in your 
prepared testimony, you say, ``The combined effects of funding 
reductions due to sequestration, the fiscal uncertainty of Continuing 
Resolutions and emerging shortfalls in OCOs funding has significantly 
and rapidly degraded Army readiness, which will translate directly into 
fiscal year 2014 and beyond. This lack of predictability makes it 
difficult to address the posture of the Army in fiscal year 2014 with 
certainty and specificity.'' Failing to budget for or at a minimum 
identify where DOD would cut in fiscal year 2014 in response to 
sequester is a failure in leadership by the President. Aside from 
wanting to shift the responsibility of making cuts to Congress, why 
doesn't your testimony address the Army's share of the $52 billion that 
will have to be cut if a sequester replacement agreement cannot be 
reached?
    Mr. McHugh and General Odierno. We built and submitted the Army's 
portion of the fiscal year 2014 President's budget request within the 
top-line provided by the DOD Comptroller. As of the date of our 
submission and testimony we do not know the magnitude of any potential 
sequestration reduction that would be applied to Army accounts. If 
sequestration is directed in fiscal year 2014, the Army will have to 
take a significant reduction in modernization and readiness accounts, 
severely impacting future readiness levels.

    67. Senator Inhofe. Secretary McHugh and General Odierno, do you 
believe Congress is best informed to make such cuts?
    Mr. McHugh and General Odierno. The Army and its commanders provide 
their best military information and assessments to the President and to 
Congress. We will continue to perform our advisory duties on military 
issues, but do not believe we are in position to identify who is best 
qualified to propose reductions to the defense budget. It is through 
Service posture, budget, and other hearings where military officials 
provide their best military advice that Congress obtains the best 
information available to make the hard choices necessary to address the 
growing budget deficits. Each year, the President submits the budget 
request to Congress, and the Army presents and defends its portion of 
the budget in congressional hearings to the authorization and 
appropriations committees. Under expressed constitutional powers, 
Congress strictly controls the obligation and expenditure of public 
funds by the executive branch, regulating virtually all executive 
branch programs and activities through the appropriations process.

    68. Senator Inhofe. Secretary McHugh and General Odierno, do you 
believe Congress is best informed to make decisions on where to take 
risk in the defense strategy?
    Mr. McHugh and General Odierno. Without question, we must work 
together to ensure the right decisions are made for our national 
security, especially in light of the harsh consequences of 
sequestration. Congress plays an important and positive role in 
exercising oversight over the execution of the national security 
strategy and helping the executive branch assess risks and align 
resources. We are committed to providing Congress the information 
necessary to effectively exercise these oversight responsibilities.

                     BACK LOADING DEFICIT REDUCTION

    69. Senator Inhofe. Secretary McHugh and General Odierno, in your 
prepared testimony, you say, ``The President's budget includes balanced 
deficit reduction proposals that allow Congress to replace and repeal 
the sequester-related reductions required by the BCA of 2011 through 
fiscal year 2021,'' followed later by the comment, ``To some extent, 
the impact of spending reductions can be mitigated if funding is timely 
and predictable, and cuts are back-loaded, enabling the Army to plan, 
resource, and manage the programs that yield a highly trained and ready 
force.'' General Dempsey has stated in other venues that sequestration, 
even if it does not last the full 10 years, will cost more than it will 
save. How can you argue that the impact of an additional $120 billion 
cut in the out-years will not have a significant effect if the near-
term budgets continue to consume readiness in the manor this budget 
will for the Army?
    Mr. McHugh and General Odierno. Timely and predictable funding 
allows for effective and efficient execution of resources against a 
long-term plan (or ends). Given the opportunity to deliberately plan 
for reductions and establish a set of objectives to achieve readiness 
(or ways), the Army can assess the impact of constrained budgets on the 
strategy and make the necessary adjustments to implement with the 
allocated resources (or means). While there is no guarantee that these 
plans will avoid costs, predictable funding enables the Army to 
establish the long-term requirements necessary to man, train, equip, 
and sustain a highly-trained and ready-force and set the conditions 
necessary to maintain balance in force structure, readiness, and 
modernization efforts.

                      BASE REALIGNMENT AND CLOSURE

    70. Senator Inhofe. Secretary McHugh and General Odierno, the 
President's defense budget request includes a request for authorization 
to conduct a round of BRAC in 2015. How many of the Army's BRAC 
decisions in the 2005 round end up costing the Army more than they will 
save over 20 years?
    Mr. McHugh and General Odierno. Unlike previous BRAC rounds that 
focused primarily on creating savings, BRAC 2005's goal was military 
transformation. The process provided an opportunity to maximize the 
Army's warfighting capability by reshaping and transforming force 
structure, infrastructure, and vital industrial, training, and 
operational capabilities and functions. The BRAC 2005 vastly improved 
the quality of the Army's infrastructure portfolio, facilitated the 
return of thousands of soldiers from overseas, and enhanced mission 
capabilities. BRAC 2005 generates a $1 billion annual net recurring 
savings, which the Army has been realizing since 2011.
    A total of $17.9 billion was invested to implement the Army's BRAC 
2005 recommendations and total net savings will exceed total net costs 
for an overall break-even point of just over 12.5 years. The BRAC 2005 
Commission Report identified 56 specific Army recommendations (Appendix 
Q): 46 recommendations will achieve the break-even point within the 20-
year window; 6 recommendations will exceed the 20-year window; and 4 
recommendations have transformation goals that do not produce savings 
with implementation costs that will never be paid back.

    71. Senator Inhofe. Secretary McHugh and General Odierno, does the 
Army really need a BRAC round?
    Mr. McHugh and General Odierno. Yes. The current budget situation 
and declining forces make it important to reduce overhead. Parametric 
techniques used to analyze aggregate assessment of excess capacity in 
2004 indicated that DOD had 24 percent excess capacity overall relative 
to force structure plans developed by the Joint Staff. Because BRAC 
2005 eliminated only a modest portion of the DOD excess capacity, we 
believe we have still significant excess today. The excess capacity in 
our infrastructure will only get larger as force structure is reduced.
    Financially, the Army is reaping over $1 billion a year in net 
savings from the BRAC 2005 round, and another $1 billion a year in net 
savings from prior rounds of BRAC. Comparatively, the cumulative 
savings to the Army from previous BRAC efforts exceeds our entire 
fiscal year 2014 MILCON program.

    72. Senator Inhofe. Secretary McHugh and General Odierno, in 
addition, the Army is also conducting an assessment of the number of 
U.S. Army personnel and units stationed overseas. Can you provide the 
results for the review of the stationing of U.S. Army personnel 
overseas?
    Mr. McHugh and General Odierno. The Army, with DOD, is conducting a 
reassessment of our global posture in light of the emerging defense 
strategy. This effort remains a work in progress, and there are no 
results to report at this time. Overseas basing enables the United 
States to maintain its strong leadership role throughout the world and 
secures our vital national interests overseas. This sends a clear and 
visible sign of commitment to global security/peace to our allies and 
potential adversaries. The Army will maintain a flexible ground force 
in the U.S. European Command area of responsibility to meet Article 5 
and other NATO commitments. The U.S. pledge to the NATO Response Force 
is essential to reassuring European allies that the United States 
remains invested in the trans-atlantic alliance. Army forces in South 
Korea are well-positioned and play a strategic role throughout the 
region.

    73. Senator Inhofe. Secretary McHugh and General Odierno, are there 
any overseas basing issues for the Army remaining to be resolved?
    Mr. McHugh and General Odierno. Other overseas basing issues will 
be informed by a potentially redefined DSG that will frame Fiscal 
Guidance for fiscal year 2015 and beyond.

                    BRIGADE COMBAT TEAM RESTRUCTURE

    74. Senator Inhofe. Secretary McHugh and General Odierno, the Army 
is currently in the middle of an assessment to restructure its Active 
BCTs by eliminating six Active U.S.-based BCTs and realigning brigades 
to man BCTs with additional maneuver battalions. When can we expect a 
decision?
    Mr. McHugh and General Odierno. The Army announced its brigade 
restructuring and elimination decision on June 25, 2013.

    75. Senator Inhofe. Secretary McHugh and General Odierno, can you 
assure me that you have an open, transparent process with objective 
criteria to assess both the military value and external considerations 
for each installation?
    Mr. McHugh and General Odierno. Yes. The Army recently completed 
Community Listening Sessions at 30 installations in order to explain 
the process that the Army is using to make these difficult decisions 
and to receive community input before any final decisions are made. The 
Army's brief detailed the operational categories contained in the MVA 
model--training, power projection, well-being, mission expansion, and 
geographic distribution, as well as an overview of the qualitative 
factors outside the MVA model that the Army is using, to include 
strategic considerations, command and control proximity, military 
constructions costs, readiness impacts, environmental and socioeconomic 
impacts, and community input.

    76. Senator Inhofe. Secretary McHugh and General Odierno, will the 
Army publicly release the weighting guidance for each attribute of the 
qualitative assessment prior to your final decisions?
    Mr. McHugh and General Odierno. The Army has briefed the committee 
professional staff members on the process that the Army is using to 
make these difficult decisions. The Army's brief detailed the 
operational categories contained in the MVA model--training, power 
projection, well-being, mission expansion, and geographic distribution, 
as well as the qualitative factors outside the MVA model that the Army 
is using, to include strategic considerations, command and control 
proximity, MILCON costs, readiness impacts, environmental and 
socioeconomic impacts, and community input. Now that the weighting for 
the attributes in the MVA model has been approved, we are prepared to 
share that information with the committee professional staff members.

    77. Senator Inhofe. Secretary McHugh and General Odierno, in your 
testimony, you assert that without a solution to sequestration, you may 
have to eliminate another 100,000 Active and Reserve component 
soldiers. How many BCTs does this represent?
    Mr. McHugh and General Odierno. We have yet to quantify the force 
structure impacts associated with such a significant reduction. I would 
anticipate additional BCTs beyond those identified would have to be 
reduced and that they would have to come from both the Active component 
and from the Army National Guard. It would impact all Combat Support 
and Combat Service Support structure as well.

               FUNDS FOR OVERSEAS CONTINGENCY OPERATIONS

    78. Senator Inhofe. Secretary McHugh and General Odierno, for the 
first time in 5 years, we cannot review the administration's request 
for emergency supplemental funds for OCO at the same time we are 
reviewing the President's base defense budget. In addition, I am also 
aware that $88.5 billion requested by the administration for OCO for 
fiscal year 2013 is not sufficient to meet current warfighter 
requirements. I am concerned that this administration is losing the 
ability to accurately budget for OCO at the same time many core 
readiness needs for the Services are being migrated to the OCO from the 
base budget. What is the Army's share of the $88 billion wedge for OCO?
    Mr. McHugh and General Odierno. Because final decisions about the 
pace and structure of the drawdown of U.S. forces in Afghanistan were 
not available before the preparation of the budget, the fiscal year 
2014 budget included a placeholder value of $88.5 billion for DOD OCO 
funding. In May 2013, the President submitted budget amendments that 
revised the fiscal year 2014 DOD OCO funding request to $79.4 billion 
of which Army's request is $47.6 billion.

    79. Senator Inhofe. General Odierno, will the OCO request for 2014 
include funds to address the fiscal year 2013 problems in both the OCO 
and base budget for readiness shortfalls?
    General Odierno. The Army developed the fiscal year 2014 budget 
request without full knowledge of the negative impacts to the fiscal 
year 2013 budget driven by the Continuing Resolution, the impact of 
sequestration, and the OCO Operations and Maintenance (O&M), Army (OMA) 
budget shortfalls. Therefore, the fiscal year 2014 OCO budget request 
does not contain additional funds to address the fiscal year 2013 
problems in either the OCO or base budget for readiness shortfalls.

                           MILITARY READINESS

    80. Senator Inhofe. General Odierno, the Army has adapted a policy 
that rightfully prioritizes funding to deployed and next-to-deploy 
forces. At the same time, units not in those categories are being 
starved of the necessary funding to maintain readiness. For example, 
the Army has cancelled seven readiness exercises because of a lack of 
funding in fiscal year 2013. These units have lost valuable training 
time that cannot be addressed in your fiscal year 2014 budget 
submission. The fiscal year 2014 funding O&M funding request 
exacerbates existing fiscal year 2013 readiness challenges from which 
it will take years to recover from these impacts. How will you know 
that the forces are not ready?
    General Odierno. The Army's critical funding priorities for 
readiness are unit training, maintenance and sustainment of equipment, 
and leader development. We will begin to see changes in readiness 
ratings for the next to deploy units as well as those units not 
scheduled to deploy immediately. The present budgetary situation forces 
the Army to focus training resources on next to deploy units, but only 
to conduct training and advisory missions. Therefore, we accept 
significant risk in the training of nondeploying units causing a 
significant degradation in readiness for fiscal year 2014 and beyond. 
Even though units with scheduled deployments are the priority, it will 
take these units much longer to meet the required training proficiency 
due to constrained and limited resources, which in turn affects the 
assessment of the ability of the deploying units to execute their 
assigned missions and nondeploying units to meet contingency missions. 
The effects of degraded readiness will manifest themselves in lower C-
Levels, Training Levels, Mission Essential Tasks Assessments, and 
ultimately in the Army's Readiness Assessment levels.
    The lack of training resources limits home station and combat 
training center opportunities, and stalls the development of all other 
units not scheduled to deploy. Another mitigating action shifts 
personnel from nondeployed to deploying forces in order to meet 
operational demands. This would exacerbate personnel shortfalls 
geometrically each month and put successful execution of combatant 
commander operational plans at greater risk. Equipment would be 
migrated from nondeployed to deploying forces in order to fill 
shortages due to incomplete reset and redistribution, or shortages 
arising from the lack of equipment retrograded from theater. To 
mitigate the impacts upon readiness, the Army limited reset and depot 
repair of equipment to those items required for deploying units. Again, 
this would jeopardize combatant commander operational plans in an ever-
increasing manner each succeeding month.
    The cumulative effect of reduced training, equipment readiness and 
availability, and leader development increases the overall risk to 
unacceptable. If current budgetary conditions persist, the level of 
risk increases if required to deploy these forces. The lack of adequate 
funding and the flexibility to manage the funds available, forces the 
Army to make resourcing decisions that have the potential to increase 
the level of risk with respect to other OPLANS. It is highly probable 
that a long-term continuance of the current fiscal limitations will 
degrade the overall readiness of the Army.

    81. Senator Inhofe. General Odierno, what will be the triggering 
event that tells you we have reached a readiness crisis?
    General Odierno. There will not be one signature event to indicate 
a readiness crisis. Rather, the long-term impacts of reduced fiscal 
resources and the associated out-year reductions, particularly to force 
structure and readiness, threaten the Army's ability to provide trained 
and ready forces to the combatant commanders and to perform enduring 
and vital missions. If steep cuts are required in fiscal year 2014 and 
beyond, this will create imbalance and significantly compound risk. It 
will cause a disproportionate investment across manpower, O&M, 
modernization, and procurement, challenging our ability to sustain 
appropriate readiness in the near-term in support of our current 
National Defense Strategy. Initially, we will see the effects of 
degraded readiness reflected in lower c-levels, training levels, 
mission essential task assignments, and ultimately the Army's readiness 
assessment levels.

    82. Senator Inhofe. General Odierno, what is the plan to address 
these impacts and when will Congress be notified of mitigation 
measures?
    General Odierno. Right now with sequestration as the law, the Army 
will not be able to meet readiness goals for the next 3 years, 
incurring significant risk to our soldiers if asked to deploy on 
contingency operations. The steepness of sequestration does not allow 
us to balance end strength, modernization, and readiness.

    83. Senator Inhofe. General Odierno, we are interested in knowing 
about readiness reporting requirements through the quarterly readiness 
reports. Are the reports useful to you in planning, and if not, why?
    General Odierno. Yes they are. The Quarterly Readiness Report to 
Congress describes the operational overview of the Army's deployed and 
forward stationed soldiers, the Army's top readiness concerns, and 
supports the Joint Staff's effort to report DOD's current readiness 
posture.
    However, readiness of units deploying for specific missions does 
not necessarily make them ready for full-scale contingency operations. 
This is especially true for units deploying to Afghanistan, since they 
are conducting advisory and assistance operations in a complex 
environment.

    84. Senator Inhofe. General Odierno, what systems do you use 
internally to track readiness trends?
    General Odierno. Unit commanders measure their unit readiness using 
the four functional areas of Manning, Equipping, Equipment Readiness, 
and Training. The unit overall readiness levels are reported using Core 
Mission (C levels) and Assigned Mission (A levels). The C level 
assessment indicates the ability of the unit to accomplish its core 
mission while the A level assessment indicates the unit's ability to 
accomplish its directed, currently assigned mission. Headquarters, 
Department of the Army uses many systems to measure readiness in 
addition to the Commanders Unit Status Report, and the Strategic 
Readiness Update (SRU). Presently, the Army is developing AR 525-XX-B, 
Army Strategic Readiness. This regulation will define Army Strategic 
Readiness and develop the concept for developing the Army Strategic 
Readiness Assessment. The Army will track leading indicators across the 
six strategic readiness tenets of manning, equipping, sustaining, 
training, installations, and capacity and capability, in order to 
provide a holistic view of Army readiness. Upon analyzing the leading 
indicators and associated trends, the Army Staff will be able to make 
readiness projections and recommend courses of actions to senior Army 
leaders to mitigate negative impacts upon Army readiness at the 
strategic level.

    85. Senator Inhofe. General Odierno, do you have suggestions for 
alternative reporting mechanisms?
    General Odierno. The Army currently has multiple readiness 
reporting mechanisms across the various tenets of Army readiness. The 
unit status report is the most recognized of these systems--it provides 
unit commanders with a mechanism to provide their own assessment of 
unit capabilities directly to Headquarters, Department of the Army. 
Other reporting mechanisms or databases currently exist across the 
readiness tenets of manning, equipping, sustaining, training, and 
installations that provide insight into Army capabilities. Currently, 
the Army is developing strategic readiness policy and procedures that 
will identify leading indicators of readiness deficiencies. Analysis of 
both deficiencies and indicators will provide the Army an assessment of 
current strategic readiness and an ability to project future 
capabilities.

    86. Senator Inhofe. General Odierno, prior to the Continuing 
Resolution, you said the Army would have a $17 billion to $19 billion 
shortfall in Army O&M accounts. The recently passed Continuing 
Resolution fixed $6 billion, leaving the Army an O&M shortfall in the 
range of $113.3 billion entering into fiscal year 2014. Will the fiscal 
year 2014 budget request combined with the fiscal year 2013 O&M 
shortfall create a hollow Army, and if not, why?
    General Odierno. As you stated, the Army faces a more than $13 
billion O&M shortfall in fiscal year 2013 which includes a $5.5 billion 
reduction to the Army's base budget and a $7.8 billion shortfall to 
OCO. (Operational decisions in Afghanistan led to adjustment to the OCO 
shortfall, which stands at $6.7 billion today, July 17, 2013.)
    The Army's fiscal year 2014 Base Budget Submission of $129.7 
billion enables us to support the 2012 Defense Strategy in fiscal year 
2013 but does not account for the decaying readiness that will impact 
the Army as we enter fiscal year 2014. In addition to this base budget, 
the Army will continue to require OCO funding for operations in 
Afghanistan and to continue the reset of our force. The Army submitted 
a separate request for fiscal year 2014 OCO; it is critical that this 
request be fully funded.
    It is in the best interest of our Army, DOD, and our national 
security to avert sequestration. The size and steepness of cuts 
required by sequestration make it impossible to downsize the force in a 
deliberate, logical manner that allows us to sustain an appropriate 
balance of readiness, modernization, and end strength. The cuts are 
simply too steep; we just cannot move enough people out of the Army 
quickly enough to produce the level of savings needed to comply with 
sequester, and therefore we will need to take disproportionate cuts in 
modernization and readiness. The net result will be units that are 
overmanned, unready, and unmodernized. Even though I think the level of 
sequestration cuts are too large, if we back load them into the later 
years of the sequester period, at least that would allow us the 
opportunity to properly plan and to sustain the balance we need in 
these uncertain times.

    87. Senator Inhofe. General Odierno, what will be the trigger that 
signals the Army is going hollow?
    General Odierno. We are today out of balance and this will continue 
into fiscal years 2014, 2015, and 2016. This imbalance puts at risk our 
ability to provide properly trained and ready forces for unknown 
contingencies over the next few years.

    88. Senator Inhofe. General Odierno, will the Army submit a 
supplemental funding request for fiscal year 2013 if the Army cannot 
solve its O&M shortfalls?
    General Odierno. The Army may need a fiscal year 2013 supplemental 
funding request to ensure adequate resources are available to support 
ongoing contingency operations. DOD recently submitted two 
reprogramming actions for fiscal year 2013 that use all the OCO special 
transfer authority and all but $200 million of general transfer 
authority for fiscal year 2013. Congressional approval of the 
reprogramming actions as submitted will help reduce the Army's current 
OCO shortfall from $8.3 billion to $3.3 billion. The Army is continuing 
to work with U.S. Forces-Afghanistan and all other OCO stakeholders to 
reduce the remaining $3.3 billion shortfall (which has been reduced to 
$3.1 billion as of June 6, 2013). If unsuccessful, the Army may have to 
submit a request for supplemental funding later in fiscal year 2013.

    89. Senator Inhofe. General Odierno, in your written testimony, you 
note that the Army may not be able to execute the current DSG, as 
planned. In your opinion, are U.S. combat forces ready today to defend 
South Korea and Japan from an unprovoked attack by North Korea?
    General Odierno. The Army forces stationed on the Korean peninsula 
and in Japan can defend against North Korean attacks, but training 
readiness degradation in fiscal year 2013 and fiscal year 2014 put our 
ability to provide forces to meet combatant commanders' requirements at 
significant risk.

    90. Senator Inhofe. General Odierno, in what Army capabilities are 
you concerned about risk?
    General Odierno. Today, our readiness level will make it difficult 
to respond with ready forces to one major event.

    91. Senator Inhofe. General Odierno, if the Army is fully funded to 
its request in fiscal year 2014, how long will it take you to restore 
readiness of the nondeployed forces?
    General Odierno. The Army's fiscal year 2014 President's budget 
does not include all the resources needed to recover from lost 
readiness in fiscal year 2013. The impact of sequestration reductions 
is an atrophy of readiness due to cancelled training, deferred 
equipment maintenance, and delayed procurements. Any new unfunded 
directed missions will also negatively impact our OPTEMPO accounts and 
our ability to build readiness for all except the top priority units of 
those next to deploy, rotating to Korea, or a part of the Global 
Response Force.
    The Army has significant unfunded OMA requirements to recover lost 
training and rebuild lost readiness. Adding funds to those OMA and 
procurement accounts would be a positive step toward rebuilding 
readiness in fiscal year 2014. This would not, however, address the 
need to restore the Army's base funding for OCO-funded training, 
sustainment, and procurement that supported the Army at war for nearly 
12 years. As more soldiers return to home station, restoring base 
funding is among the biggest challenges in an environment of continued 
fiscal uncertainty.
    As soon as we can provide forces with the resources they need to 
execute their full training strategies, they will be able to 
progressively build readiness for a broader range of missions. It takes 
an Army BCT approximately a full year to reset from a deployment and 
train-up for another mission. Even with full funding, a unit's training 
progression is generally linear, which limits acceleration. Units must 
go through the steps of building proficiency from smaller units to 
larger formations, from easy conditions to ambiguous or varied 
conditions, from basic tasks to synchronization of more complex 
operations. A BCT is not considered fully ready for decisive action 
until it has completed a training rotation at a maneuver combat 
training center (CTC). The Army will manage limited training assets 
(like CTC rotations) as best we can to support the training progression 
of priority units. Even with additional funding for CTC rotations, 
units at squad-level proficiency at the end of fiscal year 2013 would 
not have time to adequately prepare and benefit from a CTC rotation 
early in fiscal year 2014.

    92. Senator Inhofe. General Odierno, due to funding shortfalls, the 
Army has cancelled third and fourth quarters depot maintenance. If the 
Army completes the rest of the fiscal year without conducting depot 
maintenance, what impacts on the materiel readiness of the Army will be 
felt in fiscal year 2014 and beyond?
    General Odierno. Initially the Army believed it would have to 
cancel $2.43 billion in depot orders, essentially cancelling all depot 
maintenance for the third and fourth quarters. However, funding 
provided by H.R. 933 combined with internal reprioritization has 
allowed the Army to restore $1.07 billion in funding for depot 
maintenance. Although this additional funding mitigates about 50 
percent of the original sequestration impact, it will still create a 
maintenance backlog that will extend post-combat equipment repair in 
Active and Reserve units by 2 to 3 years following redeployment. If 
sequestration cuts are continued, there will be a backlog even further 
into the future.
    The Army will begin addressing the deferred workload in fiscal year 
2014 if it has sufficient funding to meet both the fiscal year 2014 
maintenance requirements and the deferred fiscal year 2013 workload. As 
we meet these challenges, the Army will always focus available 
resources on priority units and equipment--those deployed, next to 
deploy, or equipment needed to fill validated shortages.

    93. Senator Inhofe. General Odierno, how long, once fully funded, 
will it take the Army to return to a proper level of maintenance?
    General Odierno. The Army continues to defer maintenance daily at 
the field and depot level due to funding constraints. The Army will 
begin addressing the deferred workload in fiscal year 2014 given 
sufficient resources are provided to meet both the fiscal year 2014 
maintenance requirements and to meet the deferred fiscal year 2013 
workload. Future OPTEMPO and available capacity will dictate the length 
of time it will take the Army to bring all equipment back to Technical 
Manual (TM) 10/20 Maintenance Standard. Current estimates range from 2 
to 3 years to restore all ground equipment to the Army's standard TM 
10/20.

         JOINT IMPROVISED EXPLOSIVE DEVICE DEFEAT ORGANIZATION

    94. Senator Inhofe. Secretary McHugh and General Odierno, the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) was 
established 7 years ago and is a pass-through account for the Army. 
Consistent with DOD's inability to audit its finances, GAO has 
identified a lack of comprehensive visibility over all of DOD's 
counter-IED efforts external to JIEDDO. We have authorized billions of 
dollars to JIEDDO to address the counter-IED problem but it is time to 
assess the organization. How do you see JIEDDO's mission and 
organization in the future?
    Mr. McHugh and General Odierno. What we know is that the nature of 
warfare is such that Improvised Explosive Devices (IEDs) will continue 
to be a threat around the world. The IED will remain the weapon of 
choice for terrorists, not only in Afghanistan, but also wherever the 
United States and our allies have national security interests. As such, 
JIEDDO's mission will not end with the drawdown of forces in 
Afghanistan; the IED threat will continue to drive combatant commander 
and Service requirements for counter-IED capabilities and training. We 
agree that current fiscal constraints drive a need for shared 
responsibilities and resources with other Federal agencies. JIEDDO 
remains the DOD lead for a whole-of-government approach to IED threats, 
which highlights that there are many stakeholders with an interest in 
counter-IED capabilities. We understand that JIEDDO's rapid acquisition 
authority has provided a vital ability to meet validated battlefield 
requirements much faster than the Services' regular acquisition 
process. In the end, the enemy always gets a vote, so JIEDDO's 
continuous and focused action, reaction, and counter-action as the 
enemy adapts is crucial to saving lives.

    95. Senator Inhofe. Secretary McHugh and General Odierno, is it 
time to integrate JIEDDO into other existing organizations and 
processes?
    Mr. McHugh and General Odierno. The reasons for transforming the 
Army IED task force into a joint IED organization are as valid today as 
they were when the IED task force was first established in 2003. As a 
joint entity and jointly manned activity of DOD, under the authority, 
direction, and control of the Deputy Secretary of Defense, JIEDDO is 
able to leverage the experience of warfighters across the Services to 
defeat IEDs. Because IEDs will remain the weapon of choice of 
terrorists and continue to grow in sophistication and frequency 
wherever we deploy forces in support of our national security 
interests, the counter-IED mission to attack the network, defeat the 
device, and train the force remains an important one.
    The Army currently serves as Executive Agent by providing 
administrative support to JIEDDO in accordance with DOD Directive 
2000.19E, enclosure 3.
    The Army will fully support any review of JIEDDO organization, 
mission, and resourcing.

    96. Senator Inhofe. Secretary McHugh and General Odierno, how do we 
gain more visibility into what DOD is doing in all aspects of counter-
IED?
    Mr. McHugh and General Odierno. We are available to brief you about 
Army activities in the area of counter-IED, both as Executive Agent for 
JIEDDO under DOD Directive 2000.19E and any complementary work that is 
being done at our centers and schools.

                            INDUSTRIAL BASE

    97. Senator Inhofe. Secretary McHugh and General Odierno, in your 
written testimony you state, ``It is critical that we find the right 
balance between our organic and the commercial industrial bases. The 
ability to reduce the industrial base in times of peace but surge as 
required remains essential to equipping the Army, the Joint Force, and, 
in many cases, our allies and coalition partners.'' I am concerned that 
the Army is cancelling contracts simply to bring more work into the 
depots or engineering centers at a time where the breakdown between 
depot and commercial work within the Army is 61 percent to 39 percent 
in favor of the Army. Is this the right balance between organic and 
commercial industrial base?
    Mr. McHugh and General Odierno. The Army is not canceling contracts 
to bring more work to its depots or engineering centers. The Army seeks 
to maintain complementary capability between the organic and commercial 
industrial base sectors to ensure the viable health of both, and the 
Army promotes public-private partnerships to maintain this delicate 
balance. The Army's organic percentage of work increased during 
Operation Iraqi Freedom and Operation Enduring Freedom (OIF/OEF) to 
support wartime surge requirements, but as overall requirements decline 
to pre-OIF/OEF levels, the Army envisions that its organic percentage 
will also decrease, which will generate a closer balance between 
organic and contract depot maintenance workloads.

    98. Senator Inhofe. Secretary McHugh and General Odierno, what 
actions are you taking to support a strong and viable organic and 
commercial industrial base?
    Mr. McHugh and General Odierno. The Army is taking several actions 
to support a strong and viable commercial and organic industrial base.
    In the commercial industrial base, the Army is working with the OSD 
and the Army Materiel Command to assess critical manufacturing 
capabilities and seek innovation within the supply chain sectors 
through responsible investment. The Army is also analyzing the 
challenges of critical and fragile elements of the commercial 
industrial base to identify systemic and fundamental issues that can be 
resolved through engagement across the public and private sectors. For 
example, the Army continues its engagement in the sector-by-sector, 
tier-by-tier industrial base analysis that: (1) establishes early 
warning indicators of risk, particularly at lower-tiers; (2) 
strengthens the supply chain to mitigate potential points of failure; 
and (3) improves coordination among Services to ensure a viable 
industrial base is maintained.
    The Army is conducting a comprehensive Combat Vehicle Portfolio 
Industrial Base Study through A.T. Kearney, a global management 
consulting firm. The 21-week study is assessing the Commercial and 
Organic Combat Vehicle Industrial Base, viable strategic alternatives, 
and sustainment of the Combat Vehicle Industrial Base in a constrained 
fiscal environment. A final report will be delivered to Congress later 
this year.
    The Army is also engaged in Industrial Base Baseline Assessments 
that aim to sustain those areas critical in supporting Army and Joint 
Services programs by: (1) conducting sector assessments of programs 
identified as critical by Program Executive Offices and Life Cycle 
Management Commands; (2) determining the impact of reductions in 
funding to program requirements; and (3) developing recommendations 
that enable the industrial base to sustain current and future 
warfighter requirements.
    The Army's strategy for ensuring that its Organic Industrial Base 
remains viable and relevant includes: (1) establishing modern 
facilities, equipment, and skill sets at the same rate that the Army 
modernizes its weapon systems; (2) ensuring capabilities and capacities 
are sustained to support current and future contingency operations; (3) 
investing to ensure that facilities are capable of maintaining core 
competencies and critical manufacturing capabilities; and (4) 
prioritizing funding to achieve the desired end state of viable and 
relevant organic industrial base facilities.

                   CONTINGENCY RESPONSE PREPAREDNESS

    99. Senator Inhofe. General Odierno, what impact have 
sequestration-driven cuts had on the Army's ability to respond to 
contingencies worldwide?
    General Odierno. Sequestration-driven budget cuts have led to 
reduced readiness of Army units intended to support contingency 
requirements. The Army's short-term mitigation strategy for 
sequestration and shortfalls in OCO funds is to protect the readiness 
of deployed forces, those stationed in Korea, and the Global Response 
Force. The Army will only resource remaining forces (those that would 
support contingency requirements) to achieve squad level proficiency.

    100. Senator Inhofe. General Odierno, are we appropriately ready 
for the most probable and dangerous contingencies, and what would 
happen if we had to deploy to the contingencies on very short notice?
    General Odierno. The Army may no longer be able to provide a 
sufficient number of units in accordance with the timelines required by 
combatant commanders for our most likely or demanding contingencies. As 
a result of the current fiscal situation and budget cuts, the Army 
units available to deploy to contingencies will train less often and to 
a lower level of proficiency. The Army will prioritize resources to 
maintain readiness for units deploying to OEF, homeland defense units, 
units forward deployed in Korea, and global and regional response 
forces.

                   DEFENSE STRATEGY AND FORCE SIZING

    101. Senator Inhofe. General Odierno, what do you perceive the risk 
to be of not sizing the Army to conduct large-scale sustained ground 
combat operations?
    General Odierno. It would be dangerous to assume we will not have 
to engage in a large-scale ground war. I see nothing on the horizon 
that tells me we no longer need ground forces for such a mission. Not 
sizing the Army to conduct large-scale sustained ground combat 
operations denies the Nation a credible force-in-being to serve as a 
deterrent to a would-be adversary that might seek to take advantage of 
such a miscalculation.

    102. Senator Inhofe. General Odierno, does this limit our Nation's 
ability to deter aggressors and bring our conflicts to a satisfactory 
conclusion?
    General Odierno. Maintaining an Army sufficiently large to generate 
a credible capability of defeating any threat--state or non-state--
through sustained combat operations is critical for our Nation to 
effectively deter agressors. I believe that the 490,000 Active 
component force will serve as an effective deterrent, but any further 
reductions could challenge the Army's deterrent capability. Another 
element of deterrence is willingness to support partners, and an 
appropriately sized Army can improve our allies' and partners' 
abilities to secure themselves and manange regional security 
challenges.

                                 RADIOS

    103. Senator Inhofe. Secretary McHugh, how many proprietary, sole-
source radios has the Army procured over the last 4 years? Please 
provide a breakdown by year, the number of radios, and the funding 
associated with these radios.
    Mr. McHugh. Within the last 4 years, the Army procured 739 Rockwell 
Enhanced Position Location Reporting System, 5,124 Commercial Off-The-
Shelf (COTS) Harris Corporation AN/PRC-117G radios, and 1,144 COTS 
Harris Corporation AN/PRC-152A radios.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Harris Corporation AN/PRC-117G radios were procured using a 
blanket purchase agreement through the General Services Administration 
schedule. Harris Corporation was the only company that responded to a 
market survey for potential vendors.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Harris Corporation AN/PRC-152 radios were procured off the 
competitively awarded Consolidated Interim Single Channel Handheld 
Radio contract. An engineer change proposal to modify the Harris AN/
PRC-152 to the NSA certified Type 1 AN/PRC-152A models was approved due 
to a lack of responses from a market research conducted requesting the 
availability of NSA Type 1 certified handheld radios.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                      SUPPORT FOR MILITARY SPOUSES

    104. Senator Ayotte. General Odierno, I understand that DOD 
provides transitional compensation for spouses of servicemembers and 
their family members who are victims of domestic violence at the hands 
of a servicemember. Yet, this benefit does not exist for other cases in 
which a servicemember has violated the UCMJ. Do you believe this 
program has potential value in protecting other military families 
which, due to no fault of their own, stand to lose all benefits because 
of UCMJ violations by the servicemember?
    General Odierno. The transitional compensation program does have 
potential to protect families in non-domestic abuse cases, but such an 
expansion would require congressional action.
    As DOD is the proponent to implement the policy, assign 
responsibilities, and prescribe procedures under 10 U.S.C. section 
1059, they would have the lead in providing views on any changes to 
existing law. The Army stands ready to partner with DOD and Congress to 
consider shortfalls in the existing program and ensure any change to 
the law is affordable, supportable, and inclusive of all Services.

    105. Senator Ayotte. General Odierno, do you believe the Victims' 
Transitional Compensation Benefit Program could be broadened to protect 
families, especially cases where retirement benefits are involved?
    General Odierno. The transitional compensation program does have 
the potential to be broadened to protect families where retirement 
benefits are involved, but such an expansion would require 
congressional action.
    As DOD is the proponent to implement the policy, assign 
responsibilities, and prescribe procedures under 10 U.S.C. section 
1059, they would have the lead in providing views on any changes to 
existing law. The Army stands ready to partner with DOD and Congress to 
consider shortfalls in the existing program and ensure any change to 
the law is affordable, supportable, and inclusive of all Services.

                        INVOLUNTARY SEPARATIONS

    106. Senator Ayotte. General Odierno, to what extent has the Army 
already utilized involuntary separations to achieve end strength 
reduction goals?
    General Odierno. To date, the Army has not used any programs 
specifically to generate involuntary separations to achieve end 
strength goals. However, in order to attain a 490,000 force by fiscal 
year 2017, Army planning foresees the requirement to use programs that 
will identify officers, NCOs, and enlisted soldiers for involuntary 
separation. We have begun identifying NCOs (SSG and above) for denial 
of continued service through the use of the Qualitative Service 
Program. At this time, based on current planning, it is anticipated 
that a majority of these soldiers would qualify for some form of 
retirement.

    107. Senator Ayotte. General Odierno, do you anticipate that the 
Army will have to use involuntary separations to achieve the existing 
end strength reductions?
    General Odierno. Yes. Analysis shows we cannot achieve a 490,000 
force by the end of fiscal year 2017 through natural attrition alone.

    108. Senator Ayotte. General Odierno, if the administration and 
Congress fail to identify alternative spending reductions and defense 
sequestration goes forward and the Army must cut another 100,000 
soldiers, would this force the Army to implement large-scale 
involuntary separations?
    General Odierno. If sequestration remains in place, the Army would 
have to implement additional involuntary separation measures based on 
the required end strength reductions. Since the Army has not completed 
its analysis of the necessary force reductions, we cannot provide exact 
figures. However, we learned from the 1990's drawdown that in order to 
generate accelerated voluntary losses, substantial incentives are 
required. These incentives are not in the current budget.

    109. Senator Ayotte. General Odierno, can you provide an estimate 
as to how many involuntary separations might be required?
    General Odierno. The Army anticipates we will require involuntary 
separations of approximately 6,500 officers and close to 6,000 enlisted 
through fiscal year 2017 to achieve an end strength of 490,000. If 
sequestration remains in place, those numbers would have to be 
increased based on any additional end strength reductions required and 
the timeline that those reductions must be completed within.

    110. Senator Ayotte. General Odierno, what impact could involuntary 
separations have on unit morale and readiness?
    General Odierno. The Army has carefully considered the possible 
impacts on morale from involuntary separations and has designed 
programs to minimize unwanted outcomes. The Secretary and I have 
provided direction to the Army staff on how to make these difficult 
decisions in a way that ensures a quality Army remains at the end of 
the drawdown. The plan is to use programs that are seen as fair and 
equitable (e.g., promotion, continuation, and selective early 
retirement boards). This should minimize the perception of favoritism 
and capriciousness by incorporating field commander input with the 
impartiality of centrally-managed selection processes.

    111. Senator Ayotte. General Odierno, do I have your continued 
commitment that you will avoid involuntary separations as much as 
possible and that you will keep Congress fully informed when you are 
forced to utilize involuntary separations, as required by Section 525 
of the NDAA for Fiscal Year 2013?
    General Odierno. It is the Army's intent to avoid involuntary 
separations whenever possible, and the Army will certainly keep 
Congress fully informed as we make these difficult decisions.

                       REBALANCE TO ASIA-PACIFIC

    112. Senator Ayotte. General Odierno, as DOD rebalances toward the 
Asia-Pacific, why do you believe our Nation continues to require an 
Army of sufficient size and top quality?
    General Odierno. Only with a credible and capable U.S. land power 
will the nations of this critical region choose us as their partner of 
first choice for security and stability. The Army must maintain its 
strong regional and global role in maintaining and developing the 
relationships that preserve U.S. access and influence through our 
consistent engagement and interface focused on building our partners' 
capabilities. We have an expansive program in the Pacific to include 24 
large-scale exercises in fiscal year 2014 involving 14 nations in the 
region.
    Additionally, there are contingency plans and operational plans 
that require large amounts of ground forces. We use our plans to size, 
train, and modernize the Army.

                              HOLLOW ARMY

    113. Senator Ayotte. General Odierno, what does a hollow Army look 
like?
    General Odierno. It would look like a force that lacks the right 
balance between end strength, modernization, readiness training, and 
educational readiness. The Army is showing these characteristics. Our 
ability to train and sustain our equipment is becoming limited. This 
denies the Army the ability to ensure that it is able to deploy and 
meet future requirements and puts our soldiers at higher risk to 
execute their mission with the training and capability we would expect, 
ultimately increasing casualties and the time to accomplish the 
mission.

    114. Senator Ayotte. General Odierno, what was the hollow Army like 
after the Vietnam War?
    General Odierno. When I entered the Army in 1976, our country had 
recently completed a long and divisive war in Vietnam, the aftermath 
resulted in the collapse of retention rates among first-term soldiers, 
career NCOs, and junior officers. Our Nation was struggling with 
inflation and unemployment, and military priorities were less important 
in a time of economic difficulties, when many people predicted that 
never again would our country enter into a sustained conflict like 
Vietnam that would cost so much in terms of lives and resources. 
Without adequate funding for its assigned missions and with the end of 
Selective Service, the Army was unable to recruit and retain enough 
high-quality personnel, requiring years to rebuild a capable NCO Corps. 
The degradation of readiness caused by this personnel shortfall was 
compounded by insufficient funds both for the training of soldiers and 
for the maintenance of equipment. Modernization, for the most part 
deferred during the Vietnam war, was impeded. Under these conditions, 
low morale and indiscipline became serious problems for the Army during 
the 1970s.
    In the end, the after effects of the war, difficulties in 
transitioning from a draftee to an All-Volunteer Force, force structure 
decisions, the lengthy process of improving professionalism in the 
officer and NCO ranks, and inadequate budgets created a hollow Army 
throughout the 1970s.
    I worry that if we continue having to deal with our current budget 
issues, we are heading down the same road and we simply cannot do that 
again. It would not be acceptable to the American people or to me. The 
American people expect us to be ready to respond when needed, but our 
ability to do so will be put at risk over the next several years as 
sequestration takes its toll.

    115. Senator Ayotte. General Odierno, what are the warning signs 
that the Army is becoming hollow?
    General Odierno. A hollow Army may simply be defined as existing 
force structure that lacks the necessary combination of ready equipment 
and trained personnel to accomplish the mission for which it was 
designed. The warning signs are likewise a combined effect of 
insufficient investment in the building blocks that comprise a properly 
trained and well-equipped Army unit. A warning sign that the Army is 
becoming hollow is the prolonged disparity between training for 
counterinsurgency (COIN) and the reinvestment in training for the full 
range of military operations. The highest order of which is decisive 
action. Deferred maintenance compounded by the reduced standard of 
maintenance of equipment is a leading indicator of a future down-turn 
in readiness. These indicators of hollowness are closely monitored at 
every level of command to safeguard against the inevitable risk they 
present to the successful employment of soldiers in future conflicts.

    116. Senator Ayotte. General Odierno, is the Army becoming hollow?
    General Odierno. Presently, the Army no longer has the right 
balance among end strength, modernization, readiness training, and 
educational readiness to prevent the force from becoming hollow. If the 
Army cannot manage end strength/force reduction, force structure 
reductions and readiness, the Army increases the risk of allowing the 
nondeployed force to become hollow. This results in units that are 
overmanned, unready, and unmodernized. Further erosion of the Army's 
readiness compounds this risk. Sequestration occurring in fiscal year 
2014 and beyond will result in the reduction of readiness across the 
Army and puts our soldiers at higher risk to execute their mission with 
the training and capability we would expect, ultimately increasing 
casualties and the time to accomplish the mission.

    117. Senator Ayotte. General Odierno, if sequestration goes forward 
this year and next year, will the Army become hollow?
    General Odierno. The resourcing decisions and adjustments that the 
Army made because of sequestration have the potential to create a 
hollow Army over time. These decisions will accelerate and compound the 
inequalities and risks to the force caused by sequestration. Since 
March 2013, the Army has already experienced a 20 percent decline in 
the readiness of non-allocated BCTs. Seven Combat Training Center (CTC) 
rotations that were planned to train Army BCTs to their full designed 
capability were cancelled because of the fiscal austerity resulting 
from the Continuing Resolution and sequestration. The Army is losing 
opportunities to develop its current and future leaders through 
Professional Military Education (PME) because of sequestration. The 
loss of training opportunities affects unit readiness and leadership 
development at unit levels. The lost opportunities caused by 
sequestration will become more difficult to recover. Restoring 
readiness lost to sequestration will require extended timelines and 
significant investment of resources. Under sequestration, the Army 
needs to absorb immediate cuts in fiscal year 2014. This will force 
cuts to personnel accounts--reductions that could potentially equate to 
tens of thousands of soldiers, and by the time we paid separation 
benefits, the cost to separate them would exceed the savings garnered. 
We cannot move enough people out of the Army quickly enough to produce 
the level of savings needed to comply with sequester, and therefore we 
will need to take disproportionate cuts in modernization and readiness. 
The reductions in readiness across the force jeopardize the ability of 
the Army to meet the demands of the National Military Strategy. This 
will continue to be compounded in fiscal years 2014 and 2015 until we 
can reduce enough end strength.

    118. Senator Ayotte. General Odierno, what impact does a hollow 
Army have on our soldiers, families, and military readiness?
    General Odierno. The Army I entered in 1976 was hollow in that it 
was not well-trained and did not have the resources necessary to 
sustain readiness while supporting soldiers and their families. I am 
absolutely focused on making sure I do not leave this Army hollow in 
that way. Ultimately, maintaining the Army with fewer resources 
requires balancing the overall size of the force, its equipment, and 
its training and readiness. Each of these must be sufficiently robust 
to field an army with the capability and capacity to perform its 
assigned missions.
    The steepness of sequestration forces us into a hollow force from 
fiscal year 2013 to fiscal year 2017 because we are forced to reduce 
resources for modernization and readiness faster than we have reduced 
end strength. When you have structure that cannot be properly trained 
or equipped, it is the start of a hollow force. A hollow Army loses 
military readiness over time. A hollow Army is challenged to maintain 
high levels of professionalism.
    A hollow Army affects soldiers. Lost training opportunities for 
soldiers will impact on our units' basic warfighting skills. We will 
have a cohort of leaders who will have lost out on the opportunity to 
conduct a wide array of leader development and training, for example 
valuable CTC rotations.
    We have mitigated impacts on families in fiscal year 2013, but in 
fiscal year 2014 we are very concerned and we are evaluating the full 
impacts on families and support programs. At a minimum we will have to 
consolidate some family programs.
    We are sacrificing readiness to achieve reductions inside the short 
period of the fiscal year. There is a time component to readiness. 
Trained forces require time to practice the employment of teams, manned 
with the right skills, equipped with modern systems, and exposed to the 
complex conditions they likely will face on contemporary battlefields. 
We are now going to go through a period during which we need to buy 
back as much readiness as possible, or we're going to have a severe 
problem over the next 2 or 3 years. Time required by nondeploying 
forces to restore readiness in fiscal year 2014 will depend largely on 
how far their readiness slips in fiscal year 2013.
    The cost of a hollow force and the risk posed will equate to a loss 
of soldiers' lives. We can't continue to do more with less or else 
we're going to put soldiers' lives at risk.

    119. Senator Ayotte. General Odierno, what must Congress do to 
avoid a hollow Army?
    General Odierno. A hollow Army is one in which there is prolonged 
and disproportionate investment across manpower, O&M, modernization, 
and procurement without corresponding adjustments to strategy. The 
fiscal uncertainty caused by repeated Continuing Resolutions, delayed 
appropriations, and the implementation of sequestration is not in the 
best interest of our country, our soldiers, or our national security. 
Just this year, the late appropriation and sequestration led to the 
cancellation of training and the release of 3,100 valuable temporary 
and term civilian employees.
    In fiscal year 2013, the Army faces the combined effects of a 
sequestered budget and an increase in theater demand. These two events 
have put a $13 billion pressure on the Army's O&M accounts. This 
includes the $4.6 billion OMA reduction due to sequestration and an 
$8.3 billion theater activities level higher than the fiscal year 2013 
President's OCO budget request. The emergency reprogramming action 
being considered by Congress would restore $5 billion of the $8.3 
billion OCO OMA shortfall. I do want to highlight that our sister 
Services are helping us fund some of the $5 billion, however, the 
Committees have denied or deferred portions of our sources, causing us 
to seek replacement sources. I ask that you act quickly on our proposed 
replacement sources. Additionally, that reprogramming action will still 
leave us with a shortfall, which the Army is working with OSD toward 
resolving with a joint solution that will likely require another 
reprogramming. With your continued support, I am confident that our 
enterprise solution will meet the immediate needs of the warfighter in 
theater.
    Congress can further help the Army by carefully considering the 
fiscal year 2014 O&M budget submission. Reductions to the fiscal year 
2014 O&M accounts further continue the decline in readiness and our 
ability to provide trained and ready forces to combatant commanders. 
The Army continues to outline the buyback of readiness in the Notice to 
Congress on Unfunded Priorities (section 1003 of the NDAA for Fiscal 
Year 2013).
    I must stress, however, that fiscal flexibility, while essential, 
is not sufficient to avert the problems we face. Even if we get relief 
from current restrictions, the budget reductions in fiscal year 2014 
and beyond as a result of sequestration will pose a significant risk to 
readiness and will force us to reconsider the Army's ability to execute 
its obligations under the DSG.

 SEQUESTRATION END STRENGTH REDUCTIONS AND IMPACT ON THE NATIONAL GUARD

    120. Senator Ayotte. General Odierno, if sequestration and its 
associated out-year budget reductions go forward and the Army must cut 
approximately 100,000 additional personnel, roughly speaking, how much 
of a reduction would this be from the National Guard?
    General Odierno. The Army is on schedule to remove 89,000 soldiers 
from the Army by fiscal year 2017, due to the budget reductions 
contained in the 2011 BCA. Our analysis suggests that full 
sequestration may require the Army to potentially reduce another 
100,000 soldiers from the total Army, on top of the 89,000 already 
being reduced.
    There is a balance that the Army must maintain between the Active 
component and Reserve component end strengths. This additional 100,000 
reduction in end strength would have to be appropriately spread across 
all components of the Army. The Army is currently looking into various 
options to keep the Army in balance and at this time specific 
reductions to the Army National Guard have not been determined.

                        COUNTERINSURGENCY SKILLS

    121. Senator Ayotte. General Odierno, as the Army attempts to 
regain full spectrum readiness--including readiness for high intensity 
combat--how will the Army codify and institutionalize the 
counterinsurgency skills and lessons learned over the last decade so 
that these hard-won skills and lessons are not lost?
    General Odierno. Beginning in 2011, the Army began revising all 
doctrinal publications describing the Army concept of decisive action 
through the simultaneous execution of offensive, defensive, and 
stability operations and defense support of civil authorities, all in 
support of unified land operations. COIN skills are inherent to 
decisive action. The Army published the COIN Operations Doctrine (Field 
Manual 3-07.22) in 2004 and Tactics for COIN Operations (Field Manual 
3-24) in 2009, and has maximized opportunities to codify lessons 
learned in handbook publications and on-line reference sites from the 
Center for Army Lessons Learned, as well as institutionalizing the 
cross-service exchange of information and lessons learned as a result 
of the Joint/Army Lessons Learned Forums. We have defined the future 
environment as one which entails a hybrid threat. Therefore, combat 
training centers encompass decisive action, unless otherwise directed. 
This training will develop the skills for not only offense and defense, 
but also stability operations (including COIN).

    122. Senator Ayotte. General Odierno, how will the Army ensure the 
current force retains and passes on to future Army leaders their COIN 
know-how?
    General Odierno. The Army published COIN Operations Doctrine (Field 
Manual 3-07.22) in 2004 and Tactics for COIN Operations (Field Manual 
3-24) in 2009, and has maximized opportunities to codify lessons 
learned in handbook publications and on-line reference sites from the 
Center for Army Lessons Learned, as well as institutionalizing the 
cross-service exchange of information and lessons learned as a result 
of the Joint/Army Lessons Learned Forums. The Army will continue to 
benefit from the experiences of our soldiers and leaders as they 
embrace increasing responsibilities over the next few years as small-
unit leaders, doctrine writers, and institutional trainers. We have 
defined the future environment as one which entails a hybrid threat. 
Therefore, combat training centers encompass decisive action, unless 
otherwise directed. This training will develop the skills for not only 
offense and defense, but also stability operations (including COIN).

    123. Senator Ayotte. General Odierno, based on your experience in 
Iraq, what are the most important lessons you learned about COIN 
operations?
    General Odierno. My experiences in Iraq have taught me that war is 
a human endeavor, and that the human dimension of conflict is as 
important, if not more important, than other considerations. Our 
soldiers must understand culture, religion, history, political and 
social dynamics, and economics in order to prevail.
    Second, we must deal with the challenge of hybrid warfare. In the 
future, the Army will operate in environments with regular military, 
irregular paramilitary or civilian adversaries, with the potential for 
terrorism, criminality, and other complications. Our leaders and 
soldiers must understand and adapt to a complex future in which the 
ability to distinguish between friend and foe will be increasingly 
difficult and experience and judgment will be more important than 
simply technical solutions. The Army will retain and integrate into its 
training what we have learned over the last decade about the changing 
nature of conflict.
    Third, we will not fight alone. As a rule, we will fight in 
coalitions, and these coalitions will include civil agencies and 
nongovernmental organizations as key components or partners. We must 
continue to build on the interagency and multinational experiences we 
have gained in the last decade.
    Fourth, an important lesson is that the American soldier remains 
the most discriminately lethal force on the battlefield. Any activity a 
soldier undertakes can rapidly evolve into a combination of combat, 
governance, and civil support missions. Any individual, military or 
civilian, can alter the trajectory of an operation with the push of a 
button on a cell phone. Not only do our own actions receive immediate 
international coverage, but technology allows our adversaries to shape 
the narrative to their advantage, often with little regard for the 
truth. Our soldiers must remain able to operate comfortably within this 
exceptionally complex arena.
    As our experiences in Afghanistan and Iraq clearly demonstrate, it 
is difficult to imagine any future situation in which a relationship 
exists solely between two states, whether an alliance or a conflict. 
Other regional actors can and will seek to advance their own interests 
in every situation and have more tools at their disposal to do so. 
Sometimes they will work in concert with our objectives, but at other 
times we may be in opposition. Regardless of the path they choose, our 
actions must be informed by an awareness of these dynamics. The 
evolving complexities of the environment require us to adapt.

            SEQUESTRATION'S IMPACT ON TRAINING AND WAR PLANS

    124. Senator Ayotte. General Odierno, what training events have 
already been canceled?
    General Odierno. For all but our deploying and higher-priority 
contingency forces, training events and activities above squad-level 
were curtailed in the latter half of fiscal year 2013. Cancelled 
training included seven maneuver CTC rotations, which train BCTs to 
maneuver and synchronize live fire; eight Mission Command Training 
Program Warfighter Exercises, which train staffs of BCTs to command and 
control the brigade; and support for a Warfighter Exercise for one Army 
Service Component Command Headquarters. We still have a $3.1 billion 
shortfall which will cause us to cancel institutional training if 
additional resources are not found.

    125. Senator Ayotte. General Odierno, if sequestration continues 
into next year, will more training events have to be canceled?
    General Odierno. Yes. Continued cancellation of training events can 
be expected until appropriations better align with programming and 
budget requirements. It will take some time for the Army to rebalance 
readiness components: manning, equipping, training, facilities, 
services, force structure, and current and future readiness. In fiscal 
year 2014, the Army will continue to do its best to ensure deploying 
and high-priority contingency forces are prepared, but training events 
for other forces will be significantly curtailed since the lack of 
training in fiscal year 2013 will be compounded by another degradation 
in readiness in fiscal year 2014. We are working within appropriation 
guidelines and Army readiness priorities to find support for these 
training events.

    126. Senator Ayotte. General Odierno, would you agree that not 
providing our soldiers the very best training represents a breach of 
faith with our soldiers, their families, and the American people?
    General Odierno. It is our solemn responsibility to ensure that 
American soldiers are prepared, trained, ready, and well-led whenever 
our Nation might call on them. We remain committed to the current fight 
and dedicated to ensuring our forces receive the best training, 
equipment, and support possible. In 1976, I entered a hollowed Army 
that was not well-trained and did not have the resources necessary to 
buy equipment. I am absolutely focused on making sure I do not leave 
this Army in the same way that I came into it. We must ensure that we 
resource our soldiers much with the proper resources to conduct the 
missions we have asked them to do.
    We're making sure that those who are deploying are fully trained. 
Those who will next deploy will be trained, but that's at the expense 
of not training of the rest of the Army. We're no longer able to build 
readiness up under current budget constraints. The unfortunate reality 
is that we now lack the resources to train simultaneously for future 
contingencies. We are accepting risk when we only have enough resources 
to train for the current demands for forces. This leaves us unprepared 
for unforeseen contingencies. We are sacrificing readiness to achieve 
reductions inside the short period of the fiscal year; unfortunately, 
readiness can't ever be brought back, because there is a time component 
to readiness. So we are now going to go through a period where we have 
to make sure that we're able to buy back as much readiness as possible, 
or we're going to have a severe problem over the next 2 or 3 years, 
especially if the sequestration cuts are not addressed.

                         ARMY FORCES IN EUROPE

    127. Senator Ayotte. General Odierno, do you believe it is in 
America's interests to maintain a significant U.S. Army presence in 
Europe? If so, why?
    General Odierno. Yes. First, with a GDP of $19 trillion--a quarter 
of the world economy--and approximately $4 trillion in annual trade 
with the United States, Europe's importance to the U.S. and global 
economies cannot be overstated. Second, the European theater remains 
critical geostrategic terrain, providing the United States with the 
global access it needs to conduct worldwide operations and crisis 
response. Third, Europe is home to most of the world's liberal 
democracies; nations with whom we share the fundamental values that are 
critical elements in building effective coalitions. Fourth, Europe is 
the backdrop for NATO, history's most successful and effective 
alliance, and a vital partner for dealing with the challenges of the 
21st century. Fifth, Europe is a security exporter, possessing among 
the most highly trained and technologically advanced militaries in the 
world.

    128. Senator Ayotte. General Odierno, how does a U.S. Army presence 
in Europe benefit U.S. national security?
    General Odierno. Europe provides the critical access and 
infrastructure to meet the DSG's priorities and expand U.S. global 
reach across half the world, to Europe and on to Eurasia, Africa, and 
the Middle East.

                             BREAKING FAITH

    129. Senator Ayotte. General Odierno, in your prepared statement, 
you state that sequester may ``compel actions that break faith with our 
soldiers, civilians, and families.'' What specific kinds of actions 
would the Army be forced to take that would ``break faith''?
    General Odierno. In the near-term, the upcoming furloughs for our 
civilian employees, while temporary, will disrupt lives, impact Army 
operations, and may cause financial burdens on our civilians and their 
families. In addition, the ripple effect of further force reductions 
beyond the current program of 490,000 by fiscal year 2017 will create a 
situation forcing the Army to separate fully qualified soldiers. 
Reductions in overstrength skills and grades will also force out some 
of our best qualified personnel. While the Army will provide a robust 
package of benefits including transition assistance, involuntary 
separation pay, and early retirement for eligible soldiers who are 
selected for involuntary separation, the inevitable result will be that 
good soldiers will be denied continued service. Such difficult 
decisions will undoubtedly disrupt the lives of certain soldiers, some 
with deployment experience, who had every intention of continuing their 
military careers. Since compensation is such a large portion of the 
budget, it will be very hard to exempt it from reductions needed to 
meet sequestration. As a result, soldiers who remain in the Army could 
well face lower compensation and health benefits packages.

                            SIZE OF THE ARMY

    130. Senator Ayotte. General Odierno, based on your professional 
military judgment, the threats to our country, current war plans, and 
the DSG, what do you believe should be the floor for U.S. Army end 
strength?
    General Odierno. The BCA of 2011 imposed caps on discretionary 
spending that required a $487 billion reduction in planned defense 
spending over 10 years. As a result of these spending cuts and in line 
with the DSG announced in January 2012, we are reducing Active Army end 
strength from a wartime high of about 570,000 to 490,000, the Army 
National Guard from 358,200 to 350,000, the Army Reserve from 206,000 
to 205,000 and the civilian workforce from 272,000 to 255,000. Army 
analysis indicates that at 490,000, we will maintain sufficient 
capability for the Active component to meet the anticipated range of 
potential future missions envisioned in the new defense strategy. 
Anything below 490,000 would threaten our ability to meet the National 
Strategic Guidance.

    [Whereupon, at 12:26 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                         DEPARTMENT OF THE NAVY

    The committee met, pursuant to notice, at 8:32 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Hagan, Manchin, Shaheen, Blumenthal, Donnelly, 
Hirono, Kaine, King, Inhofe, Sessions, and Ayotte.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
general counsel; John H. Quirk V, professional staff member; 
and William K. Sutey, professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Adam J. Barker, professional staff member; 
Steven M. Barney, minority counsel; Allen M. Edwards, 
professional staff member; Ambrose R. Hock, professional staff 
member; and Lucian L. Niemeyer, professional staff member.
    Staff assistants present: Jennifer R. Knowles and John L. 
Principato.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; 
Christopher Cannon, assistant to Senator Hagan; Mara Boggs, 
assistant to Senator Manchin; Chad Kreikemeier, assistant to 
Senator Shaheen; Marta McLellan Ross, assistant to Senator 
Donnelly; Nick Ikeda, assistant to Senator Hirono; Karen 
Courington, assistant to Senator Kaine; Steve Smith, assistant 
to Senator King; Paul C. Hutton IV, assistant to Senator 
McCain; Lenwood Landrum, assistant to Senator Sessions; Todd 
Harmer, assistant to Senator Chambliss; Brad Bowman, assistant 
to Senator Ayotte; and Craig Abele, assistant to Senator 
Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. I want to welcome 
Secretary Mabus, Admiral Greenert, General Amos to our 
committee to testify on the plans and programs of the 
Department of the Navy in our review of the fiscal year 2014 
annual budget request. We very much appreciate your willingness 
to accommodate this early starting time for our hearing. It's 
my goal to conclude the hearing in time for members to attend 
an all-Senators briefing at 10:30 a.m. this morning, and in 
order to do that we're going to have to have a shorter first 
round when we come to that of either 6 or 7 minutes to give 
everybody a chance, depending on when that first round begins.
    We're grateful to each of you for your service to the 
Nation and for the truly professional service of the men and 
women that you work with. We're very grateful to their 
families, all of your families, knowing as you do the vital 
role that families play in the success of the men and women of 
our Armed Forces.
    This year the defense budget situation is particularly 
challenging. The sequestration required by the Budget Control 
Act (BCA) for fiscal year 2013 is already having an adverse 
impact on the Navy and the Marine Corps in the form of deferred 
maintenance, reduced steaming, and flying hours. The problem 
will get dramatically worse in fiscal years 2014 and beyond, 
and I look forward to the testimony of our witnesses on how 
this fiscal situation is likely to affect personnel, readiness, 
modernization, and our operations overseas.
    The Department of Defense's (DOD) most recent strategic 
guidance, issued in January 2012, refocuses the U.S. military 
on the Asia-Pacific region. Consistent with that strategy, DOD 
has been working to realign U.S. military forces in South Korea 
and Japan and plans to position Navy and Marine Corps forces 
further to the south in Australia, Singapore, and possibly 
elsewhere.
    The Department has also begun implementing a plan to deploy 
forward more ships, as shown by the beginning of the Navy's 
first rotational deployment of a Littoral Combat Ship (LCS), 
the USS Freedom, to Singapore in the past few weeks.
    As we rebalance and realign our presence in the Asia-
Pacific region, it is important that we not only get the 
strategy right, but that we also ensure that it is sustainable. 
With respect to the planned realignment of U.S. marines 
currently on Okinawa, Senator McCain, former Senator Webb, and 
I advocated changes to the 2006 U.S.-Japan realignment roadmap 
plan to better support U.S. strategic goals in the region while 
also accounting for the fiscal, political, and diplomatic 
realities associated with long-term sustainability.
    The April 2012 joint U.S.-Japan announcement of changes to 
the 2006 plan reflected an appreciation by both governments of 
the need to make adjustments in order to support the goal of 
achieving a more viable and sustainable U.S. Marine Corps 
presence in Japan, Guam, Australia, and Hawaii. The Department 
is currently working to develop the details of this new plan, 
so the final construction schedule and total cost are not yet 
known. After we receive that plan, we will be in a position to 
judge it. But until that plan is forthcoming, the committee has 
deferred action on associated requirements until the conditions 
that we set are met.
    Even in the absence of sequestration, the DOD authorization 
request raises significant issues. For example, should we 
increase the cost cap for the aircraft carrier CVN-78? Should 
we approve the multi-year procurement authority for the E-2D 
surveillance aircraft? Should we authorize advance 
appropriations for the SSN-774 Virginia-class submarine?
    For many years the committee has expressed concern about 
Navy ship force levels which have consistently fallen short of 
the projected needs. At the same time, Navy and Marine Corps 
aviation force levels are also under pressure. The budget 
provides for a service life extension program on some 150 F-18 
aircraft already in the inventory and for the purchase of 
additional E/A-18G electronic warfare aircraft to support land-
based electronic warfare squadrons, but would end the 
acquisition and production of new F-18 aircraft. The budget 
also sustains planned purchases of the Marine Corps and Navy 
versions of the F-35 Joint Strike Fighter (JSF) aircraft and, 
while it is encouraging that the Navy is now predicting a 
strike fighter shortfall of only 18 aircraft compared to 
earlier projections as high as 250 aircraft, I suspect that 
estimate will be significantly impacted by sequestration.
    The Weapons Systems Acquisition Reform Act (WSARA) of 2009 
requires that the DOD make significant changes to avoid the 
kind of costly delays and overruns that have plagued our 
acquisition system in the past. While this legislation should 
help correct past problems, I know that we will succeed only 
through concerted efforts within the executive branch to 
implement that legislation, and we look forward to hearing from 
our witnesses as to how the Department of the Navy is 
implementing the provisions of the WSARA of 2009.
    Finally, I want to commend you, Secretary Mabus, for your 
efforts to lead on energy efficiency and energy self-reliance. 
You have placed a strong emphasis on an area where, as strong 
as our military forces may be, we remain subject to the tyranny 
of energy supplies. You have put deeds behind the commitment to 
a more sustainable Navy and the Nation is stronger for it.
    Our witnesses this morning face huge challenges as they 
strive to balance modernization needs against the costs of 
supporting ongoing operations and sustaining readiness in the 
face of across-the-board cuts from sequestration. Those 
challenges are made all the more important by the fact that we 
continue to have roughly 7,000 marines in Helmand Province in 
Afghanistan and thousands more Navy and Marine Corps personnel 
deployed elsewhere around the world.
    We appreciate everything that you do and the men and women 
of the Navy and the Marine Corps do every day what they do to 
meet the challenges that this Nation faces.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me thank all three witnesses for sharing 
your valuable time with me personally. It was actually helpful 
to me, Secretary Mabus, with some of the areas where I thought 
I would have more disagreement with you, and that's changed. 
You'll have a chance to cover those things.
    I think, Mr. Chairman, you've covered the budget comments 
that I would have made adequately. Our ability to meet our 30-
year shipbuilding goal and recapitalize our sea-based nuclear 
deterrent will greatly depend upon budget certainty. It's the 
certainty that's important, I believe.
    The Navy needs a sustained level of investment topping $20 
billion by 2021 and maintaining that level for the following 10 
years. More importantly, this assumes that DOD can finally 
control the runaway cost overruns in ship construction. We are 
not on the right track to accomplish that at this time.
    The Navy's largest research and development (R&D) program 
in fiscal year 2014 is the Ohio-class ballistic missile 
submarine replacement program. A failure to recapitalize our 
at-sea deterrent on time would have devastating impacts. I 
encourage the Navy to aggressively continue to reduce risk and 
emphasize affordability of this program.
    The Navy also needs a sustained level of funding for 
readiness, training, and shipyard maintenance to keep a 
majority of the fleet fully mission capable. Sequestration in 
2013 has resulted in a $4 billion operation and maintenance 
(O&M) shortfall and a $6 billion investment shortfall. In 
addition, the Navy has not budgeted for over the $700 million 
in unscheduled ship repairs resulting from a series of sea 
accidents, sabotage, and major equipment failures. I think you 
have to budget for these things because these are going to 
happen.
    The Navy just released a report stating that shipyards are 
in such poor shape that at the current funding rate it would 
take 17 years just to clear the backlog of critical facility 
repairs that have been identified to date. Further, the Navy 
announced in January 2013 yet another reduction in its 
requirement for Navy combatant vessels, from 313 to 306. Then 
the budget request for fiscal year 2014 goes even further and 
accelerates the retirement of 16 ships, reducing the combatant 
force structure to an all-time low of 273, down from 289. I 
suspect that we'll hear some comments about that in opening 
remarks. If not, there'll be some questions.
    In addition, while DOD has identified a requirement for 33 
amphibious ships to support the Marine Corps, the Navy only had 
22 of those ships actually available and fully mission capable 
and ready to go last year.
    Marine Corps readiness continues to be a significant 
concern. Similar to other Services, the Marine Corps has 
rightfully prioritized deployment and next-to-deploy marines in 
the O&M accounts. This is at the expense of non-deployed units 
and has already resulted in a degradation of the Marine Corps 
readiness.
    By the beginning of calendar year 2014, approximately 50 
percent of Marine Corps ground and aviation units will be below 
acceptable mission readiness levels. Of course, readiness, 
risk, and lives are all tied together.
    This all comes down to risk. As the world is becoming more 
dangerous, our Navy and Marine Corps are becoming less capable 
and less prepared. We're going down a path where readiness and 
capability are being cut at such a rate, as General Dempsey has 
said, will soon be at a point where it would be immoral to use 
this force.
    So we have problems and I'm looking forward to your 
testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Secretary Mabus, welcome.

           STATEMENT OF HON. RAYMOND E. MABUS, JR., 
                     SECRETARY OF THE NAVY

    Mr. Mabus. Mr. Chairman, thank you, Ranking Member Inhofe, 
and distinguished members of this committee. I first want to 
thank you for your support for the Department of the Navy, for 
our sailors, our marines, our civilians, and our families.
    General Amos, the Commandant of the Marine Corps, and 
Admiral Greenert, the Chief of Naval Operations, and I could 
not be prouder to represent those steadfast and courageous 
sailors, marines, and civilians. No matter what missions are 
given to them, no matter what hardships are asked of them, 
these men and women serve the Nation around the world with 
skill and dedication.
    In the past year the Navy and Marine Corps team has 
continued to conduct a full range of military operations, from 
combat in Afghanistan to security cooperation missions in the 
Pacific to disaster recovery operations on the streets of 
Staten Island. In each one of these, sailors and marines have 
gotten the job done.
    As the United States transitions from two land wars in 
Central Asia to the maritime-centric defense strategy that was 
referenced by the chairman and which was announced 15 months 
ago, our naval forces will be absolutely critical in the years 
ahead. This strategy, which focuses on the Western Pacific, the 
Arabian Gulf, and continuing to build partnerships around the 
world, requires a forward-deployed, flexible, multi-mission 
force that is the Navy and Marine Corps, America's away team.
    Within this strategy we have to balance our missions with 
our resources. We're working under Secretary Hagel's leadership 
on a strategic choices and management review to assess how we 
deal with budget uncertainty facing the Department as we go 
forward. He has directed us to review the basic assumptions 
that drive the Department's investment in force structure, to 
identify institutional reforms that may be required, including, 
as we always should, those reforms that should be pursued 
regardless of fiscal pressures. As he said during recent 
testimony, everything will be on the table during this review.
    2013 has been hard because we began the fiscal year 
operating under a Continuing Resolution that gave us little 
room to be strategic and to prioritize, limiting our ability to 
manage the Navy and Marine Corps through this new fiscal 
reality.
    Thanks to the efforts of this committee and to your 
congressional colleagues, we have an appropriations bill for 
this fiscal year. However, sequestration is still forcing us, 
as also mentioned by the chairman and the ranking member, to 
make across-the-board cuts totaling more than $4 billion from 
our O&M accounts and about $6 billion from our investment 
accounts.
    These cuts will have some real impacts. We've prioritized 
combat operations in U.S. Central Command (CENTCOM) and 
deployments to U.S. Pacific Command (PACOM). However, we've had 
to cancel a number of deployments into U.S. Southern Command 
(SOUTHCOM). In order to maintain our priority deployments in 
2013 and 2014 and to meet our global force management 
allocation plan, funding shortfalls will cause our units back 
home to cut back on training and maintenance. Pilots will get 
less flight time, ships will have less time at sea, and marines 
will have less time in the field. It will take longer for 
repair parts to arrive when needed. Our facilities ashore will 
be maintained at a far lower level.
    The Department's 2014 budget request is a return to a 
measured budget approach, one based on strategy that protects 
the warfighters by advancing the priorities I've referred to as 
four Ps: people, platforms, power, and partnerships.
    We're working to make sure our people are resilient and 
strong after more than a decade of a very high operations 
tempo. We're doing this with programs like 21st Century Sailor 
and Marine Initiative. With this program we aim to bring all 
the efforts on protection and readiness, on fitness and 
inclusion, and the continuum of service, together as one 
coherent whole. This encompasses a wide range of issues from 
preventing sexual assault and suicide to fostering a culture of 
fitness to strengthening the force through diversity to 
ensuring a successful transition following 4 years of service 
or 40.
    In the Marine Corps, we continue decreasing manpower to 
meet our new end strength of just over 182,000 marines by 
fiscal year 2016. But we're doing this in a way to keep faith 
with the marines and to help retain the right level of 
noncommissioned officers (NCO) and field grade officers and 
their experience.
    We're working to make sure that our sailors and marines 
have the tools and the platforms they need to do the missions 
they are given. One of the most important of these is our 
fleet. On September 11, 2001, the U.S. Navy had 316 ships. By 
2008, after one of the largest buildups in our Nation's 
military history, that number was down to 278 ships. In 2008 
the Navy put only three ships under contract, far too few to 
maintain the size of the fleet or our industrial base, and many 
of our shipbuilding programs were over budget, behind schedule, 
or both.
    One of my main priorities as Secretary has been to reverse 
those trends. Today, the fleet is stabilized and the problems 
in most of our shipbuilding programs have been corrected or 
arrested. We have 47 ships under contract today, 43 of which 
were contracted since I took office, and our current 
shipbuilding plan puts us on track for 300 ships in the fleet 
by 2019.
    The way we power our ships and our installations has always 
been a core and vital issue for the Department of the Navy. We 
continue to lead in energy as we have throughout our history. 
From sail to coal to oil to nuclear, the Navy has led in moving 
to new sources of power, and every time it has made us a better 
warfighting force.
    Today, from marines making power in the field to 
alternatives on land, on and under the sea, and in the air, the 
Navy and Marine Corps are powering innovations that will 
maintain our operational edge.
    Building partnerships, interoperabiity, capacity, and 
capability is a crucial component of this defense strategy. The 
strategy directs that these partnerships be pursued in a low-
cost, small-footprint, innovative way. This is exactly what the 
U.S. Navy and Marine Corps do. The process we use to craft the 
Department of the Navy's budget was determined, deliberate, and 
dedicated to our responsibility to you and to the taxpayers. 
Like the budget resolutions of both the Senate and the House, 
we do not assume in this budget that sequestration will 
continue in fiscal year 2014.
    Mr. Chairman and members of the committee, the budget we 
are submitting supports the defense strategy. It preserves the 
readiness of our people and it builds on the success we've 
achieved in shipbuilding. For 237 years our maritime warriors 
have established a proven record as an agile and adaptable 
force. Forward deployed, we remain the most responsive option 
to defend the American people and our interests.
    Thank you very much.
    [The prepared statement of Mr. Mabus follows:]

                  Prepared Statement by Hon. Ray Mabus

    Chairman Levin and Ranking Senator Inhofe, and members of the 
committee, today I have the privilege of appearing on behalf of the 
sailors, marines, and civilians who make up the Department of the Navy. 
This is the fifth time that I have been honored to report on the 
readiness, posture, progress, and budgetary requests of the Department. 
With my shipmates--Commandant of the Marine Corps, General James Amos, 
and Chief of Naval Operations (CNO), Admiral Jonathan Greenert--I take 
great pride in the opportunity to both lead and serve the dedicated men 
and women of the Department. This statement, together with the posture 
statements provided by CNO Greenert and Commandant Amos, present a 
comprehensive overview of the state of the Department of the Navy.
    For 237 years the U.S. Navy and Marine Corps have been deployed 
around the globe, conducting missions across the full spectrum of 
military operations. Whether ashore, in the air, on or under the 
world's oceans, or in the vast cyberspace, The Navy-Marine Corps team 
operates forward, as America's ``Away Team,'' to protect our national 
interests, respond to crises, deter conflict, prevent war or, when 
necessary, fight and win. The past year has been no different. Among 
myriad missions, our sailors and marines have continued to conduct 
combat operations in Afghanistan; maritime stability and security 
operations around Africa; ballistic missile defense with our allies in 
Europe, the Middle East and the Pacific; and humanitarian assistance 
and disaster relief missions from the archipelagos of Southeast Asia to 
the streets of Staten Island.
    Today, we continue to transition from a decade of war and 
counterinsurgency ashore to a time of increased global uncertainty. 
Eighty percent of the world's population live a short distance from the 
sea and 90 percent of global trade moves by sea, so our naval forces 
play a vital role in delivering the security needed to help address 
today's global challenges. The Nation's Defense Strategic Guidance, as 
announced by President Obama, directs focus toward the maritime-centric 
regions of Western Pacific and Arabian Gulf and uses innovative, low-
cost, light footprint engagements in other regions. These are tasks 
tailor made for the Navy-Marine Corps Team. The Commandant, CNO, and I 
are confident that with proper resourcing, the U.S. Navy and Marine 
Corps will meet today's and tomorrow's missions.
    Almost a century ago the United States began a fruitful period of 
profound military development between the First and Second World Wars. 
Vice Admiral William Sims, commander of our naval forces in England 
during World War I, wrote that ``we must be on our guard against the 
dangers of a lack of vision.'' As then, strategic thinking and 
innovative development of our operating concepts will be central to our 
success now and in the future. The ability to think and adapt to 
changes in the fiscal and operational environment has been and will be 
the key to the success of American naval forces.
    The Department of the Navy has a proven track record of effective 
and efficient management of our Nation's most important maritime 
resources: people, platforms, power, and partnerships. The most 
resilient and capable force in our history protects the Nation. In the 
past 4 years, we have stabilized the size of the Fleet, and we are 
building more capable ships with greater accountability and at a better 
value to the taxpayer and we are on a trajectory to restore the Fleet 
to 300 ships by 2019. The Navy and Marine Corps are seeking ways to 
lessen dependence on fossil fuel and volatile oil prices, some of our 
greatest military vulnerabilities, by using more efficient and varied 
forms of power. We are building and maintaining the global partnerships 
that are so critical to the Navy and Marine Corps' ability to project 
power throughout the world through forward deployment. As we sail into 
a new maritime century, the Navy and Marine Corps team is the most 
formidable expeditionary fighting force the world has ever known.

                        NAVAL OPERATIONS IN 2012

    Operational tempo in 2012 was high. On a daily basis, almost half 
the fleet was at sea and more than 70,000 sailors and marines were 
deployed; our Reserve components mobilized over 3,700 sailors and 5,000 
marines to support operations. Our forces conducted combat and maritime 
security operations, bi-lateral and multi-lateral exercises with our 
international partners, and humanitarian assistance missions.
U.S. Pacific Command (PACOM)
    The Asia-Pacific is fundamentally a maritime region, and over 50 
percent of the world's population and the world's five largest Armed 
Forces lie within the operating area of the U.S. Seventh Fleet. 
Emphasizing our existing alliances while also expanding our networks of 
cooperation with emerging partners is central to the defense strategy 
articulated by the President in January 2012. Our mission is to provide 
security with combat ready units, demonstrated by the forward basing in 
Japan of USS George Washington and her strike group as well as the USS 
Bonhomme Richard amphibious ready group and 31st Marine Expeditionary 
Unit. Destroyer Squadron 15 continues to conduct Ballistic Missile 
Defense (BMD) patrols that contribute significantly to this mission. 
When North Korea conducted launches using ballistic missile technology 
in both April 2012 and December 2012, our ships were on scene to 
monitor the situation and defend our forces and allies if needed.
    The first Marine rotational force arrived in Darwin, Australia 
early last year. The marines, part of the 3rd Marine Expeditionary 
Force (MEF) soon after embarked USS Germantown and began operations in 
the region. Working with naval assets like the destroyer USS Lassen and 
the submarine USS Buffalo the marines participated in the longstanding 
Cooperation Afloat Readiness and Training (CARAT) exercises with a 
number of our allies and partners including Thailand, Singapore and 
Bangladesh. Marines from 3rd MEF also participated in Mongolia's Khaan 
Quest 2013 exercise as part of a joint force that included the U.S. 
Army. The multinational exercise started 10 years ago as a bi-lateral 
training opportunity between U.S. Marines and Mongolian forces and has 
grown to include participants from 10 countries.
    Exercise Malabar, an annual bi-lateral exercise between U.S. and 
Indian Forces, continued to expand in 2012 and comprised training in 
numerous mission areas including maritime security operations and 
strike missions. U.S. units, including the USS Carl Vinson strike 
group, conducted operations both at sea and ashore with our partners 
from the Indian Navy. In cooperation with the armed forces of the 
Philippines in 2012 we expanded our annual Balikatan exercise to 
include 20 participating partners from the Association of South East 
Asian Nations (ASEAN). This year's exercise focused on Humanitarian 
Assistance, Search and Rescue, and helped develop interoperability with 
the participating forces.
    In 2012 our west coast hospital ship, USNS Mercy executed a 5-month 
Pacific Partnership humanitarian assistance deployment, conducting 
medical and civic assistance missions in Indonesia, Vietnam, the 
Republic of the Philippines, and Cambodia. Pacific Partnership began as 
a humanitarian response to one of the world's most catastrophic natural 
disasters, the 2004 tsunami that devastated parts of Southeast Asia. 
The Peleliu Amphibious Ready Group and marines from the 15th Marine 
Expeditionary Unit (MEU) conducted Exercise Crocodilo with the Defense 
Forces of Timor-Leste, demonstrating the importance of working with all 
partner nations, no matter the size of their naval forces, which share 
our commitment to peace and security.
    Our largest operation in the Pacific this year was the biennial Rim 
of the Pacific Exercise (RIMPAC). The largest maritime exercise in the 
world, RIMPAC in 2012 had participants from 22 nations, including for 
the first time the Russian Navy. RIMPAC provides a unique training 
opportunity that helps foster and sustain the cooperative relationships 
that are critical to maritime safety and security not only in the 
Pacific, but across the globe. This year's exercise also displayed the 
Navy's commitment to energy security with the Great Green Fleet 
demonstration. USNS Henry J. Kaiser conducted an underway replenishment 
with USS Nimitz, USS Princeton, USS Chafee, and USS Chung-Hoon, 
refueling all the ships and types of aircraft in the Nimitz Strike 
Group with a 50/50 blend of advanced biofuels and petroleum-based 
fossil fuels. Every type of aircraft that flew from the strike group 
flew on this blend and all the surface ships sailed on this blend. No 
engines were changed in any way. This demonstrated the effectiveness 
and seamlessness of the use of advanced biofuels during operations at 
sea.

U.S. Central Command (CENTCOM)
    Marines and sailors, Active and Reserve, remain engaged in 
operations in Afghanistan. They have denied the Taliban safe haven and 
substantially calmed the violent Helmand Province. Along with Coalition 
partners from eight nations and the Afghan National Security Forces 
(ANSF), Marines have succeeded in pushing enemy initiated attacks 
outside populated areas, diminishing the enemy's ability to disrupt 
governance efforts by Afghans and bringing increased security to 
population centers.
    As 9,000 marines have been drawn down in Helmand over the course of 
the year, our forces there helped to standup the 215th Corps of the 
Afghan National Army as well as units of the Afghan National Police and 
Afghan Local Police. Through these efforts, ANSF has increasingly taken 
responsibility for securing this area. ANSF units currently conduct 80 
percent of operations on their own while leading 85 percent of all 
operations in Helmand Province.
    Aircraft from Carrier Strike Groups in the Indian Ocean conducted 
thousands of sorties supporting combat operations in Afghanistan with 
Intelligence, Surveillance and Reconnaissance (ISR) and close air 
support. With two Carrier Strike Groups in the region for much of the 
year, regular flight operations were also conducted in the Arabian 
Gulf. USS Ponce also deployed to the region to demonstrate and employ 
the capabilities of our future Afloat Forward Staging Bases (AFSB).
    Off the Horn of Africa, we continue to work with partners in 
Combined Task Force 151 and other counter-piracy missions. Primarily as 
a result of these efforts, there was a dramatic drop in the number of 
pirate attacks during 2012. While the primary purpose and goal of 
counter-piracy operations is to enhance maritime security in the 
region, an additional benefit is the development of operational 
relationships with a wide range of partners. For example, in September 
USS Winston S. Churchill conducted exercises to expand counter-piracy 
expertise and promote interoperability with the Chinese frigate Yi 
Yang, the first bilateral exercise of its kind between the navies of 
the United States and the People's Republic of China.

European Command/Africa Command/Southern Command (EUCOM/AFRICOM/
        SOUTHCOM)
    U.S. Navy ships teamed with 11 European and African partners for 
Phoenix Express 2012, a maritime security exercise in the 
Mediterranean. AEGIS ships in EUCOM continued their BMD patrols for the 
European Phased Adaptive Approach to missile defense and planning 
continues to forward base four guided missile destroyers in Rota, 
Spain. The High Speed Vessel (HSV) Swift circumnavigated Africa for 
African Partnership Station, making 20 port calls to conduct security 
cooperation missions and humanitarian assistance. Marines from Special 
Purpose Marine Air-Ground Task Force (SPMAGTF) Africa trained 
counterterrorism forces and provided support to forces across the 
Maghreb region of North Africa.
    In the Caribbean, western Atlantic, and eastern Pacific work 
continued with our regional partners to counter transnational organized 
crime. Aircraft from Helicopter Anti-Submarine (Light) and Carrier 
Airborne Early Warning squadrons flew detection and monitoring missions 
while our ships, working with the U.S. Coast Guard, helped confiscate 
millions of dollars of illegal drugs and illicit cargo.
    Southern Partnership Station provided both military to military 
training opportunities and humanitarian assistance missions to 
countries in Central and South America. The Navy also supported the 
annual Unitas exercises, multinational naval exercises designed to 
enhance security cooperation and improve coalition operations. Unitas 
exercises are typically conducted annually in Atlantic and Pacific 
waters around South America, and in 2012 U.S. Southern Command 
conducted bilateral training opportunities with nations including 
Guatemala, Honduras, and Belize. Panamax, the annual U.S. Southern 
Command-sponsored multinational exercise series, focused in 2012 on 
ensuring the defense of the Panama Canal. Personnel from 17 nations, 
including the United States, participated in simulated training 
scenarios from various U.S. locations.

U.S. Northern Command (NORTHCOM)
    When Hurricane Sandy came ashore in October, the Navy and Marine 
Corps immediately gathered resources to support the Federal Emergency 
Management Agency (FEMA) and other Federal agencies in the response to 
this disaster. USS Wasp, USS San Antionio, USS Carter Hall, and USNS 
Kanawha steamed to the coast of New York and New Jersey and became 
logistics bases for relief efforts following the storm, working in 
concert with units deployed to Lakehurst Naval Air Station in central 
New Jersey. Marines from 26th MEU went ashore from Wasp at Staten 
Island to clear debris and reopen streets, while Seabees ran supply 
convoys into hard hit areas and set up generators, removed beach sand 
from city streets, pumped over a million gallons of water from homes 
and removed tons of debris. Sailors from Mobile Diving and Salvage 
Units worked with FEMA and State officials in dewatering the World 
Trade Center site and the New York subway system, while members of the 
Coastal Riverine force cooperated with FEMA at the Hoboken Ferry 
Terminal to restore service.
    Our sea-based strategic deterrent force of ballistic missile 
submarines continues to provide the most survivable leg of the Nation's 
strategic deterrent triad. For 50 years, and for more than 4,000 
strategic patrols, our Navy's submarine force has patrolled, 
undetected, below the sea. Our Ohio-class ballistic missile submarines 
promote global stability and provide credible and reliable deterrence.
    There are countless other examples of Navy and Marine Corps units 
on, above and under the seas, on land both in the United States and in 
every corner of the globe, standing watch protecting this Nation.

             DEVELOPING CAPABILITIES FOR FUTURE OPERATIONS

    The 21st century presents us with new challenges or threats to both 
our national security and to global stability. The Navy and Marine 
Corps are working to develop new concepts and capabilities that will 
help address sophisticated anti access/area denial (A2/AD) networks, 
irregular and cyber threats, and the proliferation of precision guided 
munitions. The Navy, Marine Corps, Air Force and Army are working 
together to implement the Air-Sea Battle concept, which seeks to 
improve integration of air, land, maritime, space, and cyberspace 
forces. The Navy and Marine Corps are also developing the concept of an 
integrated battle force, taking many of the lessons we have learned 
about joint and combined operations, combining them with the results of 
exercises like Bold Alligator 2012, the largest amphibious exercise in 
over a decade which was conducted on the coast of North Carolina in 
early 2012, and developing new frameworks for naval warfare and 
expeditionary operations.

Air-Sea Battle
    In order to ensure that U.S. forces remain able to project power on 
behalf of American interests, the Departments of the Navy, Air Force, 
and Army continue to develop the Air-Sea Battle concept and its 
capabilities. The Air-Sea Battle Office, jointly manned by all four 
Services, is working on a series of initiatives to achieve the 
capabilities and integration required in future joint forces so that 
combatant commanders have the tools they need, delivered with the most 
efficient use of resources. Air-Sea Battle is building on the lessons 
learned by the joint force over the past three decades to enhance 
efficiency while confronting the challenge of A2/AD systems in all 
theaters of operations.
    The Navy continues to work on the integration of advanced air and 
cruise missile defense capabilities, the development of BMD 
enhancements, and ``soft-kill'' capability. A new generation of Anti-
Ship Cruise Missile (ASCM) remains a priority, which will increase the 
range and speed at which we can engage enemy surface combatants, the 
most capable of which are armed with advanced ASCMs. We are also 
developing the Virginia Payload Module for the Virginia-class 
submarines, to mitigate the loss of the undersea strike capacity of our 
guided missile submarines when they retire in the mid-2020s.

        DEFENDING FREEDOM OF THE SEAS: LAW OF THE SEA CONVENTION

    By custom, experience and treaty the traditional concept of freedom 
of the seas for all nations has developed over centuries. This vital 
part of the global order has been codified within the Law of the Sea 
Convention (LOS Convention). The DOD and the Navy continue to strongly 
support this important treaty. The LOS Convention guarantees rights 
such as innocent passage through territorial seas; transit passage 
through, under and over international straits; and the laying and 
maintaining of submarine cables. Nearly every maritime power and all 
the permanent members of the UN Security Council except the United 
States have ratified the convention. Our absence as a Party weakens our 
position and impacts our military, diplomatic, and economic efforts 
worldwide. Remaining outside the LOS Convention also undercuts our 
ability to challenge expansive jurisdictional claims that, if 
unchallenged, could undermine our ability to exercise our navigational 
rights and freedoms, conduct routine naval operations in international 
waters, and provide support to our allies. Additionally, only as a 
Party to the Convention can the United States fully secure its 
sovereign rights to the vast resources of our continental shelf beyond 
200 miles from shore. The uniformed and civilian leaders of the 
Department strongly support accession to the LOS Convention.

                        DEPARTMENTAL PRIORITIES

    Maintaining the world's most capable expeditionary fighting force 
means developing our Navy and Marine Corps as a strategic asset that 
provides our Commander in Chief with the broadest range of options in a 
dynamic and complex global security environment. As Secretary, I 
continue to charge the Department to focus on four key priorities: 
people, platforms, power, and partnerships, by ensuring we do the 
following:

          Support our sailors, marines, civilians, and their families;
          Strengthen shipbuilding and the industrial base; Promote 
        acquisition excellence and integrity; Continue development and 
        deployment of unmanned systems;
          Recognize energy as a strategic national security issue; and
          Build partner capacity to help distribute the burden of 
        securing the global maritime domain based on alliances, shared 
        values, and mutual trust.

    From training our newest midshipmen and recruits, to supporting 
ongoing operations in Central Asia and the Pacific, to preparing for 
the future force, these principles will guide the Department in all of 
its many tasks.
Supporting our sailors, marines, and their families
    Operational tempo is high and getting higher. The Bataan Amphibious 
Ready Group and 22d Marine Expeditionary Unit's spent almost 11 months 
at sea, the longest amphibious deployment since World War II. Personnel 
with John Stennis Carrier Strike Group spent only 5 months at home 
between her two most recent 7-month deployments. Sailors, marines, 
civilians, and their families are being asked to do more with less, and 
it is the job of the Department's civilian and military leaders to 
provide them with the resources to maintain readiness, both physically 
and mentally, and to support families while loved ones are forward 
deployed.
    The naval strategist and historian Alfred Thayer Mahan once wrote 
that being ready for naval operations ``consists not so much in the 
building of ships and guns as it does in the possession of trained 
men.'' The Department is committed to our most important asset and the 
most critical combat payload for our ships, aircraft, and units 
ashore--our people. Over the last 4 years, I have visited with sailors 
and marines deployed in 96 countries across the globe. When our U.S. 
Navy and Marine Corps team is on the job, they are far from home and 
from the people they serve. One of my core missions is to remind them 
we are grateful for their service, and humbled by their sacrifice.
    Pay and benefits are the most tangible example of our commitment to 
our sailors and marines, and an important focus for the Department. The 
President's budget includes a 1 percent pay raise for sailors and 
marines. The amount of this raise reflects the commitment to our 
sailors and marines, while adhering to the current budget constraints 
faced by DOD. We support the modest TRICARE fee increase in the fiscal 
year 2014 budget, which Congress has allowed the Department of Defense 
to link to CPI to help ensure an efficient and fair benefit cost, as 
well as efforts to introduce efficiency and cost savings into military 
pharmacies. These are important steps that help us introduce reform to 
the Department's personnel costs. The promise of a military retirement 
is one of the solemn pledges we make to compensate our servicemembers 
when they volunteer for a full career. However, it is time for a review 
of this system. We fully support Congress' establishment of the 
Military Compensation and Retirement Modernization Commission to 
conduct a comprehensive review of military compensation and retirement 
systems. The commission must maintain a focus on ensuring any suggested 
changes support the required force profiles of the services. Keeping 
faith with those currently serving is a high priority, and the 
Commission and Congress should ensure that any resulting reforms 
protect our current servicemembers through grandfathering those who 
prefer the current retirement structure.
    We must manage resources to ensure support for the most combat 
effective and the most resilient force in history. The standards are 
high, and we owe sailors, marines, and civilians the services they need 
to meet those standards. I am very proud of the dedicated service 
provided by our civilian workforce, who despite economic sacrifices, 
continue to deliver outstanding products and services in support of the 
Navy mission. The continued development of the 21st Century Sailor and 
Marine Initiative will help ensure that sailors and marines maximize 
their professional and personal readiness with initiatives that cut 
across previously stove-piped programs. In March 2012, aboard USS 
Bataan, I outlined the five ``pillars'' of the 21st century sailor and 
marine which are: readiness and protection, safety, physical fitness, 
inclusion, and the continuum of service.
    Readiness and protection will ensure sailors, marines, and their 
families are prepared to handle the mental and emotional rigors of 
Military Service. Ensuring the readiness of the force includes 
continuing campaigns by both Services to deglamorize, treat, and track 
alcohol abuse.
    It also means maintaining the standard of zero tolerance for sexual 
assault. The Navy Sexual Assault Prevention and Response Office (SAPRO) 
is responsible for keeping the health and safety of our sailors and 
marines at the forefront. SAPRO has developed training initiatives, 
opened new lines of communication, and worked to ensure that offenders 
are held accountable while reducing the number of attacks. In the last 
year, SAPRO conducted dozens of site visits to Navy and Marine Corps 
installations worldwide. Their sexual assault prevention programs for 
leadership reached over 5,000 Navy and Marine officers and senior 
enlisted personnel at eight operational concentration sites. 
Simultaneously, live-acted and vignette-based programs, emphasizing the 
importance of bystander intervention in preventing sexual assault, were 
presented to packed theaters totaling roughly 15,000 sailors and 
marines. The Commandant of the Marine Corps has personally championed a 
Sexual Assault Prevention and Response (SAPR) Campaign Plan that 
engages his senior leadership in top-down, Corps-wide training 
initiatives anchored on the core values of Honor, Courage, and 
Commitment. He and the Sergeant Major of the Marine Corps have been 
tireless in conveying their expectations in special forums and personal 
visits to virtually every Marine Corps installation. Across both 
Services, literally every sailor and marine is receiving special SAPR 
training that emphasizes the concept of Bystander Intervention to 
prevent sexual assaults, and additional training tools are in 
development.
    To enhance capabilities in the area of sexual assault prevention 
and prosecution, Naval Criminal Investigative Service (NCIS) created an 
advanced adult sexual assault training course. They have also launched 
a multidisciplinary Adult Sexual Assault Program, which synchronizes 
the efforts of investigators, prosecutors, and victim advocates. NCIS 
has continued its campaign to train the Department's leaders, 
conducting 389 briefings worldwide to over 48,000 servicemembers. Last 
year they also introduced a 24-hour text-tip capability to enhance 
responsiveness to criminal allegations including sexual assault, 
receiving 1,300 web based referrals.
    A ready force is also a force that understands how to respond to 
our shipmates in need in order to help stem the tide of military 
suicides. The Department will continue to work to improve suicide 
prevention programs to eliminate suicide from the ranks. This will not 
be easy. The complexities surrounding suicide requires an ``all-hands'' 
effort and comprehensive approach. New training programs, like the 
Marine Corps' R.A.C.E. (Recognize suicide warning signs, Ask one 
another about suicide, Care for one another through listening and 
support, and escort fellow marines to help), are just the start. Navy 
and Marine Corps commanders are fully engaged in promoting the 
psychological health of our marines, sailors, and family members and 
are receiving training on how best to provide solutions in their units. 
The message to all Navy and Marine Corps leaders is to look out for 
each other and to ask for help.
    The fiscal uncertainty we live with today not only affects 
operational readiness; the impact may also manifest itself in safety 
performance. More than ever, we must emphasize safety and risk 
management, both on- and off-duty as operational tempo increases and 
our sailors and marines are asked to do more with resources that are 
being stretched. Efforts to ensure the safest and most secure force in 
the Department's history include more targeted oversight of our high 
risk evolutions and training. To improve risk assessment, the 
Department is analyzing safety and safety-related data from a variety 
of sources and in 2012 committed to establishing a secure funding 
stream for the Risk Management Information System. The Department is 
also employing System Safety Engineers in the hazard and mishap 
investigation process.
    Physical fitness is central to the ability of our sailors and 
marines to complete their missions. More than just another program, it 
is a way of life and supporting it resonates throughout the 21st 
Century Sailor and Marine Initiative. Throughout the force personal 
fitness standards will be emphasized and reinforced. That commitment 
extends to improving nutrition standards at Navy dining facilities with 
the ``Fueled to Fight'' program, developed and used by the marines. 
Fueled to Fight emphasizes the importance of nutrition and healthy food 
items, and ensures their availability.
    A cornerstone of the Department's commitments to individual sailors 
and marines is to ensure the Navy is inclusive and, consistent with 
military effectiveness, recruits, retains, and promotes a force that 
reflects the Nation it defends. The aim to increase the diversity of 
ideas, experiences, expertise, and backgrounds to ensure the right mix 
of people to perform the variety of missions required of the services. 
With military requirements as a guiding tenet, the Department will 
reduce restrictions to military assignments for personnel to the 
greatest extent possible.
    An officer corps must be representative of the enlisted force it 
leads. The U.S. Naval Academy, our Reserve Officer Training Corps 
programs, and Officer Candidate School have all continued to achieve 
high ethnic diversity rates as minority applications remain at historic 
levels. In recent years NROTC units have reopened at some Ivy League 
schools, and new units have opened at State Universities with large 
minority populations, including Arizona State University and Rutgers 
University. The first group of women assigned to the submarine force 
have deployed aboard their boats. Three of these trailblazing officers 
already earned their qualifications in Submarine Warfare and were 
presented their ``Dolphins'' in a ceremony last fall. With success 
aboard Ohio Class ballistic missile submarines (SSBNs) and guided 
missile submarines (SSGNs) women will now be assigned to the attack 
submarine fleet and enlisted women will soon be included in the 
submarine force.
    The final pillar, continuum of service, will provide the strongest 
transition support in the Department's history. The Navy and Marine 
Corps develop future leaders of our Nation, in and out of uniform. For 
that reason, and for their service, individuals separating or retiring 
from the Naval Service should be provided the best assistance programs 
and benefits available to get a positive start in civilian life. The 
Department's education benefits, transition assistance, career 
management training, life-work balance programs, and morale, welfare, 
and recreation programs are keys to their future and have been 
recognized by human resource experts as some of the best personnel 
support mechanisms in the Nation. Our transition efforts also bolster 
our ability to maintain a highly-skilled Reserve Force, ensuring those 
highly-trained servicemembers who want to continue to serve in a 
Reserve capacity are smoothly and appropriately aligned within the 
Reserve component.
    Both the Navy and Marine Corps reached our recruiting goals again 
in the past year. The Navy is on track to meet its active duty-manning 
ceiling of 322,700 sailors by the end of this fiscal year. The Marine 
Corps continues to draw down from 202,001 to the goal of 182,100 by 
fiscal year 2016 and stood at about 198,000 at the end of 2012. The 
quality of our recruits continues to rise, with high levels of physical 
fitness and increasing numbers of recruits with a high school diploma 
rather than a GED. With high quality recruits the attrition numbers in 
Boot Camp have dropped, and more sailors and marines are successfully 
completing their follow-on schools, where they learn the basics of 
their military specialty.
    In order to address many of the asymmetric military scenarios we 
face, the Department has initiated programs in our Special Operations 
and Cyber Forces to ensure we have the right personnel for the mission. 
For instance, the Department conducted a Cyber Zero-Based Review and 
developed a Cyberspace Manpower Strategy. Operating in and 
strategically leveraging cyberspace requires a sophisticated and 
technically savvy force and we must invest in their training and 
development. We also need an equally sophisticated officer corps to 
lead this force and therefore, I will make the construction of a 
cybersecurity studies facility at the U.S. Naval Academy a top priority 
in developing the fiscal year 2015-2019 military construction program, 
looking for opportunities to accelerate this vital project. With 
respect to Special Forces, the Department continues to work closely 
with U.S. Special Operations Command (SOCOM) on their manpower 
priorities, including emphasis on targeted recruiting of personnel with 
language capability and ethnic diversity, compensation issues, and 
ensuring the proper balance of SOF manning during times of fiscal 
austerity.
    The Department constantly evaluates its success at reintegrating 
the combat-wounded sailor or marine into civilian life. The Navy and 
Marine Corps have pressed forward in their efforts to support our 
wounded, ill, and injured (WII) sailors and marines. The Marine Corps' 
Wounded Warrior Regiment, based at Quantico, provides and facilitates 
non-medical assistance throughout all phases of recovery. With 
Battalions located on both coasts and detachments around the world, it 
has the global reach needed to support our men and women. The Navy has 
established the Safe Harbor Program to coordinate the non-medical care 
of WII sailors, coast guardsmen, and their families. The program 
provides a lifetime of individually tailored assistance designed to 
optimize the success of our shipmates' recovery, rehabilitation, and 
reintegration activities and has representatives at military treatment 
facilities all over the world, including partnering with some Veteran's 
Affairs facilities.
    A key to successful integration is meaningful employment and the 
Department continues to lead by example in providing employment 
opportunities for Wounded Warriors and veterans. Civilian careers 
within the Navy offer a wealth of opportunities that allow Wounded 
Warriors to apply the wide array of skills and experience gained from 
their military service. Last year, veterans represented more than 50 
percent of new hires, with nearly one in ten having a 30 percent or 
more compensable service-connected disability. Additionally, nearly 60 
percent of the Department's civilian workforce has prior military 
experience. The Department also continues to share best practices 
across the Federal and private sector, and annually hosts the Wounded 
Warrior Hiring and Support Conference.
    In addition to the successful efforts to help employ transitioning 
sailors and marines, the Department has also made tremendous strides to 
improve overall career readiness through the implementation of the 
newly designed Transition Assistance Program. Both the Navy and Marine 
Corps have reported compliance with the mandatory components of the 
transition program required by the Veterans Opportunity to Work to Hire 
Heroes Act (VOW Act) and implemented new and revised curriculum to 
facilitate pursuit of post-military goals. By the end of this year, 
program enhancements will also include the program's three 
individualized tracks for education, technical training, and 
entrepreneurship.

Strengthening Shipbuilding and the Industrial Base
    Much has been said and written about the size of our Fleet. A few 
facts are in order. On September 11, 2001, the Navy's battle force 
stood at 316 ships. By 2008, after one of the great military buildups 
in American history, our battle force had shrunk to 278 ships. In 2008, 
the Navy built only three ships, and many of our shipbuilding programs 
were over budget or over schedule or both. Over the past 4 years, the 
Fleet has stabilized and many problems in our shipbuilding programs 
have been corrected or arrested. There are now 47 ships under contract, 
many under fixed-price contracts that ensure the Department receives 
the best value for our shipbuilding programs.
    Maintaining and increasing current Fleet numbers is a challenge in 
the current fiscal environment. However, it is important that we 
succeed in this effort as our defense strategy calls upon us to focus 
on the maritime-centric theaters of Pacific and Central Command, while 
still remaining engaged globally. This is why building up the number of 
ships in our Fleet has been my priority from day one. With your support 
it will continue to be a priority as we allocate our resources moving 
forward.
    The fiscal year 2013 shipbuilding plan projected that, by the end 
of the 5 years of the Future Years Defense Program (FYDP), the Fleet, 
because of a large number of retirements, would have 285 ships, about 
the same number as exist today. Beyond the FYDP, the Fleet would again 
experience growth reaching 300 ships before the end of the decade. The 
plan maintains a flexible, balanced battle force that will prevail in 
combat situations, including in the most stressing A2/AD environments, 
while living within the reduced means allocated.
    Furthermore, our shipbuilding plan aims to build a Fleet designed 
to support the new defense strategy and the joint force for 2020 and 
beyond. A force structure assessment was recently completed and it 
found, due to the new defense strategy, forward basing and other 
variables that about 300 ships will be needed to meet the Navy's future 
responsibilities.
    Regardless of the final battle force number, the Fleet's ship count 
will begin to rise as major surface combatant and submarine building 
profiles are sustained and as the Littoral Combat Ships (LCS) and Joint 
High Speed Vessels (JHSVs) built during the next 5 years begin to enter 
fleet service.
    A healthy industrial base is necessary to support the Department's 
priorities going forward. Our Nation faces tough economic times, so our 
plan, as we noted earlier, to grow the Fleet to 300 ships by 2019 means 
we have to work closely with the shipbuilding industry to ensure we 
maintain their skill and capability while growing a fleet affordable to 
the American people. The industrial base also includes our aircraft 
manufacturers, and the industry teams that develop the payloads aboard 
our ships. We will work to ensure diversity in supply as we move ahead, 
and we will look for opportunities to compete.

Promoting Acquisition Excellence and Integrity
    One of the most important obligations of public service is a 
responsibility to be good stewards of the American people's money; it 
is particularly important given today's fiscal realities. Rebuilding 
the fleet with the right platforms continues to be a top priority, and 
requires efficient and smart spending based on a realistic vision of 
the future force. At the heart of the Department's improved stewardship 
and leadership is the acquisition excellence initiative in force since 
2009.
    The central role Navy and Marine Corps play in the Nation's defense 
strategy drives the acquisition programs currently underway and those 
planned in the future. Contract requirements, aggressive oversight, and 
competition drive affordability. At every appropriate opportunity the 
Department pursues fixed-price contracts like those in use for the LCS 
program, or multi-year procurements like those used to purchase the 
Virginia-class submarines, MV-22 Ospreys, and MH-60 helicopters. The 
Department continues to look for other innovative funding strategies 
that help ensure a consistent workload for the industrial base, as well 
as focus on increasing productivity and fostering innovation both in 
industry and government. Total ownership costs, eliminating unnecessary 
bureaucracy, and unproductive processes are always considered as 
programs are developed. Using these methods to inject affordability and 
refine requirements in the LCS and DDG-51 programs, the Department cut 
over $4.4 billion from the projected cost of the ships, and over $4.9 
billion in projected life-cycle costs.
    To be responsible with the taxpayer's money also means we must take 
action against fraudulent contractors and shoddy work. The Navy has 
greatly strengthened our suspension and debarment system, and enhanced 
its ability to protect the Department from unscrupulous and 
irresponsible contractors. NCIS has made significant investments in our 
major procurement fraud program and has realized a 300 percent return 
on investment through fines and recoveries associated with criminal 
prosecutions this year. During fiscal year 2012, the Navy Suspending 
and Debarring Official suspended or debarred 344 contractors, a 75 
percent increase from the previous year. Most of this increase was the 
result of aggressive pursuit of ``fact-based'' debarments of 
contractors who had been terminated for default or poor performance 
under a Navy contract or who had mischarged costs against Navy 
contracts, but also includes conviction-based debarments taken against 
contractors for fraud associated with Government contracts. The 
Government Accountability Office has recognized the Navy for its very 
active procurement fraud program, which actively pursues leads of 
contractor misconduct from numerous sources, and effectively carries 
out its suspension and debarment responsibilities under the Federal 
Acquisition Regulations.
    To protect the Department's research, development and acquisition 
(RDA) process from a counterintelligence (CI) perspective, NCIS has 
partnered with intelligence community members at locations of special 
interest. For example, integration of NCIS resources at University 
Applied Research Centers (UARC) and the Applied Research Laboratories 
has allowed NCIS CI agents and analysts to intensify their operational 
efforts and investigations that protect these prioritized programs and 
technologies. Operation ``Bigger Game'', an integrated RDA CI effort, 
resulted in the arrest of seven individuals affiliated with a UARC for 
illegally exporting high-tech microelectronics from the United States 
to Russian military and intelligence agencies.
    Over the past decade and a half the acquisition workforce was 
downsized. As a result, our expertise and experience was stretched too 
thin. With your support the Department has been slowly increasing the 
number of acquisition professionals, restoring the core competencies 
inherent in their profession and to our responsibilities in the 
Department to organize, train and equip the Navy and Marine Corps. 
Since starting the effort 3 years ago, the Department has grown the 
acquisition work force by 4,700 personnel, which has been key to 
increasing the necessary technical authority and business skill sets, 
and improving the probability of program success.
    Additionally the Department is keeping program managers in place 
longer to build up their expertise in and oversight of individual 
programs, which also contributes to program stability and success. The 
Department also invests in education for our program managers, who are 
sent to an intensive short course at the graduate business school at 
the University of North Carolina specifically targeting a better 
understanding of defense contractors. A pilot for mid-level managers 
began last year for a similar graduate level course at the University 
of Virginia Darden Business School. The Department is also changing the 
way program leaders are evaluated and now incentivizes them to work 
with their industry counterparts to manage costs. Finally, acquisition 
workforce professionalization is receiving the attention it deserves, 
and more resources are targeted to individual training, education and 
experience for individuals in key leadership positions.

Developing and Deploying Unmanned Systems
    Unmanned systems will continue to be key military platforms, both 
in the maritime domain and ashore. Successful integration of the 
unmanned systems begins with the sailors and marines who support the 
effort. In October 2012, we established Unmanned Helicopter 
Reconnaissance Squadron 1 (HUQ-1), the first dedicated rotary-wing UAV 
squadron in the Navy, to train sailors on the aircraft as well as 
provide deployable detachments. Across the entire spectrum of military 
operations, an integrated and hybrid force of manned and unmanned 
platforms is the way of the future. In the past year the Department has 
made significant movement forward in the development of unmanned 
systems.
    In 2012 USS Klakring deployed with 4 MQ-8B Fire Scouts operated by 
Helicopter Anti-Submarine Squadron (Light) 42 to conduct operations in 
the Fifth and Sixth Fleets. The ship and squadron, which deployed with 
a Fire Scout detachment in 2011 in support of counter-piracy operations 
and operations off of Libya, continued to develop the tactics, 
techniques and procedures to integrate the Fire Scout helicopters into 
fleet operations. Another detachment of 3 Fire Scouts flew over 3,000 
hours of ISR missions for marines engaged in combat operations in 
Afghanistan. The next generation Fire Scout, the MQ-8C, made its first 
flight in 2010 and began production in 2012. It has greater range and 
payload capacity and it will fly its first missions to serve with Naval 
Special Warfare.
    In unmanned rotary-wing aviation, the marines have continued 
experimenting with the Cargo Resupply Unmanned Aerial System, using 
unmanned K-MAX helicopters for resupply in Afghanistan. These UAVs 
carry cargo to patrol bases and forward operating bases, eliminating 
the need for dangerous convoys. The contract was extended for another 
6-month deployment in Afghanistan, in order to build on the system's 
success.
    A good example of integrating manned and unmanned systems is the 
Mine Countermeasures (MCM) Mission Module in LCS. This module includes 
the Remote Multi-Mission Vehicle (RMMV), which will tow the AN/AQS-20A 
mine hunting sonar to find mines, paired with a manned MH-60S 
helicopter with the Airborne Mine Neutralization System (AMNS) system 
to neutralize them. The development team is working with unmanned 
surface craft for autonomous mine sweeping and shallow water mine 
interdiction, as well as vertical take-off UAVs for detection and 
neutralization. USS Independence (LCS-2) has already conducted 
developmental testing of the RMMV and continues to develop operating 
concepts and procedures.
    This spring will bring the first flight of the MQ-4C Triton, the 
unmanned element of Navy's maritime patrol system of systems. Based on 
the proven Global Hawk, the Triton will play a central role in building 
maritime domain awareness and prosecuting surface targets. Further 
testing and evaluation will occur in 2013. Its experimental 
predecessor, the BAMS-D demonstrator aircraft, continues to provide 
maritime surveillance in Fifth Fleet and to develop operating concepts 
for the aircraft.
    The Unmanned Carrier Launched Airborne Surveillance and Strike 
system (UCLASS) is changing the way reconnaissance and strike 
capabilities are delivered from our aircraft carriers. Designed to 
operate alone in permissive environments or as part of the air wing in 
contested environments, UCLASS will conduct ISR&T and/or strike 
missions over extended periods of time and at extreme ranges. Unlike 
manned carrier aircraft, UCLASS will not require flights solely to 
maintain pilot proficiency. The UCLASS airframe will be employed only 
for operational missions and operators will maintain proficiency in the 
simulator, extending its useful life expectancy considerably. Its 
airborne mission time will not be limited by human physiology but 
rather will be determined by tanker availability, ordnance expenditure, 
or the need to conduct maintenance. At NAS Lakehurst, the X-47 Unmanned 
Combat Air System, Aircraft Carrier Demonstrator conducted its first 
launch via catapult. In December, the X-47 went to sea for the first 
time aboard USS Harry S. Truman and conducted integration testing and 
evaluation with the flight deck crews for taxi checks and flight deck 
operability. Increased autonomy will continue to evolve and will 
continue to expand the possibilities of what can be done with unmanned 
systems flying from a carrier. Integrated manned and unmanned systems 
will provide a more effective fighting force while helping to reduce 
risk to our sailors and marines.

Recognizing Energy as a Strategic National Security Issue
    How the Navy and Marine Corps use, produce, and procure energy is a 
critical operational element. From the adoption of steam power over 
sail, the development of oil burning power plants, or the move to 
nuclear power more than half a century ago, the Navy has a history of 
leading in energy innovation. In this fiscally constrained environment 
we must use energy more efficiently and effectively. This fiscal 
environment also means that the Department must continue to lead on and 
invest in alternative energy. Failure to do so will leave a critical 
military vulnerability unaddressed and will expose the Department to 
price shocks inherent in a global commodity like oil.
    The Department's energy initiatives are about combat and 
operational effectiveness. In wartime, energy is a tactical and 
operational vulnerability. Because of the massive amount of fuel that 
the Department uses, price shocks in the global market have a 
significant impact on budget resources. Every time the cost of a barrel 
of oil goes up a dollar, it effectively costs the Department an 
additional $30 million in fuel costs. These price spikes are mostly 
paid out of operational funds, which mean less steaming time, less 
flight time, less training time for our sailors and marines and lack of 
facilities sustainment. To help address these operational 
vulnerabilities and threats to our combat effectiveness, in 2009 I 
established energy goals for the Department. These goals drive the Navy 
and Marine Corps to strengthen our combat capability by using energy 
more efficiently and by diversifying our sources of power.
    Efficiency and innovation are key starting points to changing the 
way we use energy. USS Makin Island, the fleet's newest amphibious 
assault ship, is a great example. Designed with energy efficiency in 
mind, it has a unique hybrid electric power plant instead of the steam 
plant powering the rest of the Wasp class. The ship returned from its 
maiden deployment last year and, between the highly efficient systems 
and the energy awareness of the crew, saved the Navy $15 million in 
fuel costs out of a budgeted $33 million over the 7-month deployment. 
Plans for the two following ships, USS America and USS Tripoli, include 
hybrid electric systems like Makin Island and we are working on a 
similar system to back-fit it onto Flight IIA Burke-class DDGs.
    The Marine Corps has proven and is proving that energy efficient 
and renewable energy equipment increases combat effectiveness. 
Recognizing a combat multiplier, the Marines Corps came up with an 
innovative process to shorten the timeline from concept to combat. In 
just a year, using the Experimental Forward Operating Base (ExFOB) 
process, the Marine Corps equipped marines with new capabilities that 
reduce the burden of fuel and batteries. Since Third Battalion, Fifth 
Marines deployed to Helmand Province in fall of 2010 with solutions 
identified through ExFOB, this equipment has become a standard part of 
the Marine Corps kit. Marine Battalions in Afghanistan are equipped 
with these energy technologies so we now have sniper teams, Special 
Operations teams, Communication units, Infantry and Artillery Units, 
and teams training our Afghan partners employing ExFOB-proven gear, 
from solar blankets to power radios, LED lights to illuminate tents, 
and solar generators to provide power at forward operating bases and 
combat outposts. These capabilities have made a real impact: enabling a 
foot patrol to operate for 3 weeks without battery resupply, reducing 
the backpack load on marines, and increasing self-sufficiency at 
operations centers. Continuing to aggressively pursue solutions, ExFOB 
deployed hybrid power solutions to Patrol Base Boldak in Afghanistan. 
With the lessons learned at Boldak, the Marine Corps is now writing 
requirements to redefine how they power the Force--with hybrid power 
systems and fewer generators that are right-sized for the mission. 
Capabilities that increase combat power through greater energy 
performance have become fundamental to Marine Corps modernization.
    The Department continues to develop the drop-in, advanced biofuel 
initiative for our ships, aircraft, and shore facilities. Under the 
Defense Production Act, the Department of the Navy has teamed with the 
Departments of Agriculture and Energy to fund the Advanced Drop-in 
Biofuel Initiative to help the development of multiple, geographically 
dispersed biorefineries. Last fall, DOD issued a multi-stage 
solicitation under Title III of the Defense Production Act (DPA) that 
sought to construct or retrofit through public-private partnerships 
multiple, commercial-scale next generation bio-refineries 
geographically located and capable of producing cost-competitive, ready 
drop-in biofuels that meet or exceed military specifications. Soon, DOD 
will finalize negotiations with several companies that have met the 
criteria, including demonstrating the ability to domestically produce 
alternative fuels by 2016-2017 that are very cost-competitive with 
petroleum.
    This past year the Navy purchased a B20 blend (80 percent 
conventional/20 percent biodiesel) for the steam plant at the St. 
Julien's Creek Annex, near Norfolk, VA. The cost of the B20 is 13 cents 
per gallon less expensive than conventional fuel, and is projected to 
save the facility approximately $30,000 over the 2012-2013 heating 
season.
    Drop-in fuels are necessary so that no changes to our engines, 
aircraft, ships, or facilities are needed to burn the fuel and so we 
retain operational flexibility to use whatever fuel is available. After 
testing individual platforms in 2011, in 2012 the Department took an 
important leap forward toward the goal of globally deploying ships and 
aircraft in maritime operations on competitively priced biofuels by 
2016. At RIMPAC, the entire Nimitz Carrier Strike Group, from the 
surface escorts to the helicopters flying patrol and logistics 
missions, conducted operations on a 50/50 conventional and biofuel 
blend. The ships of the strike group also demonstrated energy efficient 
technologies to reduce the overall energy use, including solid-state 
lighting, on-line gas turbine waterwash, and shipboard energy 
dashboards.
    This year I issued the Department's ``Strategy for Renewable 
Energy'' to outline our path to procuring one gigawatt (GW) of 
renewable energy for our shore facilities by 2020. For reference, one 
GW can power a city the size of Orlando. This strategy will help us 
achieve the goal of obtaining 50 percent of our power ashore from 
alternative energy sources, at no additional cost to the taxpayer. The 
Department chartered a 1GW Task Force to create an implementation plan, 
calling on each region of our shore establishment to develop their own 
energy plans to help achieve these goals. In fiscal year 2012 we 
initiated four power purchase agreements for large scale renewable 
energy including three photovoltaic projects, each of which will 
provide electricity cheaper than conventional sources and will save a 
total of $20 million over the lives of the agreements, and a waste-to-
energy facility at MCAS Miramar that is cost neutral when compared to 
conventional power. All four of these projects have been developed with 
third party financing.
    Continued leadership in this field is vital to the Nation's future. 
Our allies and friends around the world are actively exploring the 
potential of efficiency and alternative energy to increase combat 
effectiveness and strategic flexibility. The Australian Navy is 
drafting an alternative fuels policy, and the Department is working 
closely with them to ensure interoperability so that our forces can use 
alternative fuels together. The British Army, partnered with marines in 
Afghanistan, has begun to use alternative energy equipment developed by 
the marines in their ExFOB program at the bases they operate in 
theater. These partnerships are emblematic of the types of engagements 
with our allies around the world on important topics such alternative 
fuels, energy efficiency and renewable energy that we must continue to 
lead to provide secure alternatives, improve reliability of fuel 
supplies, and enhance combat and operational effectiveness.
    Energy, fuel, and how we power our ships have always been a vital 
issue for the United States Navy. Those who question why the Navy 
should be leading in the field forget the Navy's leadership in energy 
throughout history. From John Paul Jones rebuilding the sailing rig of 
USS Ranger in France in order to make the ship faster and more 
efficient before raiding the British seacoast, to the deployment of our 
first nuclear powered aircraft carrier USS Enterprise, which was just 
decommissioned, the energy and fuel to propel the Fleet has been a key 
element of the U.S. Navy's success.

Maritime Partnerships and Forward Presence
    For almost 7 decades, U.S. Naval forces have maintained the 
stability and security of the global maritime domain, upholding the two 
key economic principles of free trade and freedom of navigation, which 
have underwritten unprecedented economic growth for the global economy. 
As 90 percent of worldwide trade and over half of global oil production 
are moved at sea, this system, and the sophisticated set of 
international rules and treaties upon which it is based, has become 
central to the economic success of the global marketplace. However its 
efficiencies, and the demanding timelines of a ``just in time'' 
economy, place it at risk from the destabilizing influences of rogue 
nations and non-state actors. While our engagement with and assurance 
of this global system are not without cost, the risk of instability, 
stagnant global economic growth and a decline in national prosperity 
could be dramatic.
    Providing security across the global maritime domain requires more 
capacity and capability than any single nation is able to muster 
especially within the current fiscal constraints. Building partner 
capacity helps distribute the burden of securing the global maritime 
domain based on alliances, shared values and mutual trust. The Navy and 
Marine Corps are naturally suited to develop these relationships. Trust 
and partnerships across the globe cannot be surged when conflict looms 
if they have not been established in times of peace.
    Forward presence is the key element of seapower, which can help 
deter or dissuade adversaries from destabilizing the system or starting 
a military conflict. U.S. naval forces operating around the world 
underwrite the credibility of our global leadership, and give meaning 
to our security guarantees. They demonstrate shared commitments and 
concerns, and reinforce regional security without a large and expensive 
footprint ashore. Forward deployed naval forces allow us to provide a 
full range of options to the President and the combatant commanders; 
from a single patrol craft to a carrier strike group; from a platoon of 
SEALs to a Marine air-ground task force; that ensure our leaders have 
the adaptable and flexible forces needed to respond to any challenge 
and retain an element of control in the escalation of conflict. The 
ability to concentrate forces for military operations in times of 
crisis, or distribute them to engage allies, partners, and friends in 
times of relative peace, depends on maintaining naval forces forward. 
As does our ability to be present during a crisis and avoid the 
appearance of escalation.
    In addition to the exercises and operations previously described, 
senior leader engagement and training opportunities for our allies, 
partners, and friends are important components of building 
international relationships and trust. As Secretary, I have had the 
opportunity to meet with 35 Heads of State and Government, over 60 
Ministers of Defense, over 80 Chiefs of Navy, as well as additional 
military leaders and many foreign military personnel. The U.S. Naval 
Academy, the U.S. Naval War College, Marine Corps University, and the 
Naval Post Graduate School host international students who return home 
with not only a first-rate education, but with friendships and new 
perspectives on the United States and its people that can have a 
significant impact on future military-to-military relationships.

                   FISCAL YEAR 2014 BUDGET SUBMISSION

    Every strategy is a balance of responsibilities and resources. The 
Department's ability to meet the demands of today's operations, in 
support of our Defense Strategic Guidance, depends on anticipating and 
preparing for the changing geopolitical landscape and having the proper 
resources ready to deploy. The Department will continue to maintain the 
capabilities required to ensure that the Navy and Marine Corps is the 
finest expeditionary force in the world, however proper resourcing is 
needed to maintain our capacity for global operations.
    With the resources as laid out in the fiscal year 2014 budget 
request, the battle force of 2019 will include the following platforms.
Nuclear-powered Aircraft Carriers and Air Wings.
    With the 2016 delivery of USS Gerald R. Ford, the first of a new 
class of nuclear-powered aircraft carriers, the number of carriers in 
commission returns to 11. The Department will sustain that number at a 
minimum through the middle of this century. The Ford class of carrier 
is a completely new ship within a rearranged Nimitz hull. The Ford 
class contains new shipboard systems like an electromagnetic launch 
system and advanced arresting gear, and with advanced combat 
capabilities resident in the F-35C Lightning II Joint Strike Fighter, 
F/A-18E/F Super Hornet, EA-18G Growler electronic attack aircraft, E-2D 
Advanced Hawkeye airborne early warning aircraft, the MH-60 Sierra and 
Romeo tactical helicopters, and new unmanned aerial systems.
Nuclear-powered Attack Submarines.
    There are nine Virginia-class submarines already in commission and 
seven more at various stages of construction. The planned fiscal year 
2014-2018 multi-year procurement (MYP) of nine submarines remains 
intact, andwith the 2013 congressional action, advanced procurement has 
been authorized and appropriated for a 10th boat to be ordered in 2014. 
I would like to thank Congress for their support of our submarine 
programs. Your continued support is needed for the advance 
appropriation required to complete the procurement of the 10th 
Virginia-class boat. This means that these flexible, versatile 
platforms will be built at the rate of two per year during the FYDP 
with the cost-saving benefits afforded by the multi-year procurement 
contract.
    With four guided missile submarines (SSGNs) decommissioning in 
2026-2028, the Department will continue to invest in research and 
development for the Virginia Payload Module (VPM). VPM could provide 
future Virginia-class SSNs with four additional large diameter payload 
tubes, increasing her Tomahawk cruise missile capability from 12 to 40 
and adding other payload options.

Guided Missile Cruisers and Destroyers.
    Modular construction of the DDG 1000 class destroyers is proceeding 
apace, with commissioning of all three ships of this class planned 
between 2015 and 2019. The Arleigh Burke-class DDGs (DDG-51s) remain in 
serial production, with plans in place for a multi-year purchase of up 
to 10 ships through fiscal year 2017. As part of that multi-year 
purchase, the Navy intends to seek congressional approval for 
introducing the DDG-51 Flight III aboard the second fiscal year 2016 
ship based on the achievement of a sufficient level of technical 
maturity of the Air and Missile Defense Radar (AMDR) development 
effort. The Flight III Destroyer will include the more powerful AMDR 
providing enhanced Ballistic Missile Defense (BMD) and Air Defense 
capability. The modernization program for in-service Ticonderoga-class 
CGs and Arleigh Burke-class DDGs is progressing satisfactorily, with 
hull, machinery, and electrical system maintenance and repairs; 
installation of advanced open architecture combat systems, and upgrades 
to weapons/sensors suites that will extend the service life and 
maintain the combat effectiveness of these fleet assets.

Littoral Combat Ships
    With their flexible payload bays, open combat systems, advanced 
unmanned systems, and superb aviation and boat handling capabilities, 
LCSs will be an important part of our future Fleet. This spring we 
forward deployed the first LCS, USS Freedom, to Singapore and will 
forward deploy four by CY16. Crew rotation plans will allow for 
substantially more LCS forward presence than the frigates, Mine 
Counter-Measures ships, and coastal patrol craft they will replace, and 
will free our multi-mission capable destroyers for more complex 
missions. The Department remains fully committed to our plan of 
purchasing 52 Littoral Combat Ships.

Amphibious Ships
    Thirty amphibious landing ships can support a two-Marine 
Expeditionary Brigade (MEB) forcible entry operation, with some risk. 
To generate 30 operationally available ships, the strategic review 
envisions an amphibious force consisting of 33 ships total. The 
objective fleet will consist of 11 big deck Amphibious ships (LHA/LHD), 
11 Amphibious Transport Docks (LPD), and 10 Landing Ship Dock (LSD). To 
support routine forward deployments of Marine Expeditionary Units 
(MEUs), the amphibious force will be organized into nine, three-ship 
Amphibious Ready Groups (ARGs) and one four-ship ARG forward based in 
Japan, plus an additional big-deck Amphibious ship available to support 
contingency operations worldwide.

Afloat Forward Staging Bases (AFSBs)
    The Navy is proposing to procure a fourth Mobile Landing Platform 
(MLP) in fiscal year 2014, configured to serve as an Afloat Forward 
Staging Base (AFSB). This AFSB will fulfill an urgent combatant 
commander requirement for sea-based support for mine warfare, Special 
Operations Forces (SOF), Intelligence, Surveillance and Reconnaissance 
(ISR), and other operations. The work demonstrated by the interim AFSB, 
USS Ponce, has been very encouraging. To speed this capability into the 
fleet, and to ultimately provide for continuous AFSB support anywhere 
in the world, we are designing and building the fiscal year 2012 MLP 3 
to the AFSB configuration, resulting in a final force of two MLPs and 
two AFSBs. This mix will alleviate the demands on an already stressed 
surface combatant and amphibious fleet while reducing our reliance on 
shore-based infrastructure and preserving an important part of our 
shipbuilding industrial base.

Naval Aviation
    The Department continues to evaluate the needs of naval aviation to 
ensure the most efficient and capable force in line with the Defense 
Strategic Guidance. The Navy procured the final F/A-18 Super Hornet in 
fiscal year 2013 for delivery in fiscal year 2015 for a total of 552 
aircraft. EA-18 Growler will complete program of record procurement 
with 21 EA-18G in fiscal year 2014 for delivery in fiscal year 2016 for 
a total of 135 aircraft. The Department's review of aviation 
requirements has validated the decision to purchase 680 Navy and Marine 
Corps F-35s. The F-35 procurement remains steady, with four F-35C and 
six F-35B. The Marine Corps stood up the first F-35 operational 
squadron, VMFA-121, in November 2012. The Fleet Replacement Squadron, 
VFA-101, is expected to receive its first F-35C in April 2013.
    The Department of the Navy continues to monitor strike fighter 
capacity. Changes in the Marine Corps force structure, accelerated 
transition from the legacy Hornet aircraft to the Super Hornets, high 
flight hour extensions for legacy hornets and lowered utilization rates 
resulted in an appropriately sized strike fighter aircraft inventory. 
Based on current assumptions and plans, strike fighter aircraft 
shortfall is predicted to remain below a manageable 29 aircraft through 
2023, with some risk.
    In the long term, the Navy will need to replace its F/A-18E/F 
Fleet. Pre-Milestone A activities are underway to define the follow-on 
F/A-XX aircraft. Navy continues to develop the first-generation 
Unmanned Carrier-Launched Airborne Surveillance and Strike System 
(UCLASS), which will provide long-range, persistent ISR&T with 
precision strike capability, enhancing the carrier's future ability to 
provide support across the range of military operations in 2020 and 
beyond. UCLASS will utilize the flexibility and access inherent in 
carrier operations to provide the Joint Force and combatant commanders 
with on demand intelligence and strike capability against time-
sensitive targets while on station.
    In fiscal year 2014, the Navy is seeking approval for a MYP of 32 
E-2D aircraft over a longer term than originally proposed. Over the 
FYDP, purchases of P-8s have been reduced by eight aircraft, which 
reflects the Department's intent to procure all the aircraft originally 
planned, but at a slower rate in order to distribute the costs more 
evenly.

                              MARINE CORPS

    As the Nation's ready response force, the Marine Corps, by 
definition, remains at a high state of readiness. The demands of a 
ready force require careful balance across these accounts to avoid a 
hollowing of the force. The Department is executing an approved multi-
year plan to draw down the Corps from an end strength of 202,100 in 
early 2012 to 182,100 by the end of fiscal year 2016. The drawdown is 
on pace at approximately 5,000 marines per year and anticipates that 
voluntary separations will be adequate to meet this planned rate. The 
marines will resort to involuntary separations only if absolutely 
necessary. But, no matter how a marine leaves, we remain committed to 
providing effective transition assistance and family support.
    The Joint Strike Fighter continues as the Marine Corps number one 
aviation program. The F-35 will replace the Marine Corps' aging legacy 
tactical fleet; the F/A-18A-D Hornet, the AV-8B Harrier and the EA-6B 
Prowler, bringing the force to one common tactical fixed-wing aircraft. 
The integration of F-35B will provide the dominant, multi-role, fifth-
generation capabilities needed across the full spectrum of combat 
operations, particularly to the Marine Air Ground Task Force (MAGTF) 
and the Joint Force. Having successfully completed initial ship trials, 
dropping a variety of ordnance and completing hundreds of successful 
test flights, the F-35B continues to make significant progress, 
culminating with the standup this past November of the first 
operational JSF squadron, VMFA-121, in Yuma, AZ.
    The Marine Corps' ground vehicle programs are also a critical 
element of revitalizing the force after age and operational tempo have 
taken their toll on the equipment. Two key programs for the Ground 
Combat Elements are the Joint Light Tactical Vehicle (JLTV) and the 
Amphibious Combat Vehicle (ACV). The JLTV will provide the Marine Corps 
tactical mobility with a modern expeditionary light utility vehicle. 
The initial planned purchase of 5,500 vehicles has been reduced based 
on our constrained fiscal environment, and the Marine Corps will need 
to refurbish the remaining High Mobility Multi-Purpose Wheeled Vehicle 
(HMMWV) fleet in order to fill out less dangerous missions. The ACV is 
central to the Marine Corps role as an amphibious force providing 
forcible entry and crisis response. The ACV program will develop the 
next generation amphibious, armored personnel carrier that will help 
ensure the Marine Corps can continue to bridge the sea and land 
domains. The Marines' Light Armor Vehicle (LAV) Mobility and 
Obsolescence program is on track to extend the service life of the LAV 
by replacing or upgrading several components including the suspension 
and drive systems. The Marine Corps' ability to exploit an obsolete but 
already produced suspension system from the Army's Stryker vehicles has 
saved at least $162 million taxpayer dollars.
    Of particular concern is the fact that the Marine Corps 
modernization accounts represent only 14 percent of the Marines' total 
obligation authority. Because of this level of modernization funding, 
even proportional cuts have disproportionate impact on the many small 
programs essential to modernization of the Corps. Combining this with 
efforts to reconstitute the force as it returns from Afghanistan, our 
reset strategy, which focuses on the most economical way to restore 
equipment readiness, is vital to the Marine Corps' future.
    Keeping faith with our marines as we reduce the force, maintaining 
our plans for the modernization of the force, and resetting our 
equipment after a decade in combat depend on appropriate funding.

                               CONCLUSION

    The Founding Fathers, in their wisdom, placed in the Constitution 
the requirement that Congress ``provide for and maintain a Navy.'' In 
the 21st century, that force is as vital, or more so, to our national 
security as it has been throughout our Nation's history. As we 
commemorate the bicentennial of the Battle of Lake Erie, we continue to 
recognize our Navy's history in the War of 1812. Captain Oliver Hazard 
Perry led his men through a bloody battle, in the end reporting that 
``we have met the enemy, and they are ours.'' It was the first time 
that an entire squadron of the Royal Navy surrendered to an enemy 
force. The battle was a critical naval victory and represents more than 
just the skill and daring of our Navy in the Age of Sail. The joint 
operations that followed, with Perry's naval forces conducting an 
amphibious landing and providing naval gunfire support for an Army 
invasion of Canada, were early examples of joint power projection. It 
serves as a reminder that the Navy and Marine-Corps Team has a vital 
role to play in the defense of our Nation, but is a teammate with our 
joint partners who all contribute to success and victory.
    The goals and programs we have discussed today will determine our 
future as a global force. We have worked to streamline our processes 
and increase efficiency, to work toward innovative new solutions to our 
21st century problems, and to eliminate programs that no longer apply 
in the current strategic environment. We have done this to ensure that 
we retain the ability to deter regional conflict and respond rapidly 
and decisively to emerging crises.
    Our specific requests are reflected in the President's fiscal year 
2014 budget submission. Today's economic environment and our Nation's 
fiscal constraints demand strict stewardship and leadership. The 
process by which we arrived at the Department's budget requests was 
determined, deliberate, and dedicated to our responsibility to you and 
the taxpayer. I can assure you that the Department has thoroughly 
considered the risks and applied our available resources efficiently 
and carefully to align our request with the President's Defense 
Strategic Guidance.
    Today, your Navy and Marine Corps are deployed across the spectrum 
of military engagement around the world, from direct combat operations 
to providing security in the maritime domain to humanitarian 
assistance. Our sailors and marines often seem to be everywhere except 
at home. Their hard work and success are based on the unparalleled 
professionalism, skill, and dedication that ensure their dominance in 
every clime and place. The Commandant, CNO, and I look forward to 
answering your questions. This committee's continued and enduring 
support for our policies, payloads, platforms, and people enables us to 
fulfill the historic charge of the Founders to sail as the Shield of 
the Republic.
    Thank you.

    Chairman Levin. Thank you very much, Secretary Mabus.
    Admiral Greenert.

          STATEMENT OF ADM JONATHAN W. GREENERT, USN,
                   CHIEF OF NAVAL OPERATIONS

    Admiral Greenert. Thank you, Chairman Levin, Senator 
Inhofe, distinguished members of the committee: It's my 
pleasure to appear before you today to testify on the Navy's 
fiscal year 2014 budget and our posture. I am honored to 
represent 613,000 Active and Reserve sailors, Navy civilians, 
and the families who support them, all who are serving today. 
This morning I will address three points in my oral testimony: 
our enduring tenets for decisionmaking, our budget strategy for 
2013 and the subsequent carryover that we will incur, and our 
intended course for 2014.
    Two important characteristics of our naval forces describe 
our mandate, that we will operate forward where it matters and 
that we will be ready when it matters. Our fundamental approach 
to meeting this responsibility remains unchanged. We organize, 
man, train, and equip the Navy by viewing our decisions through 
three lens, or I call them tenets. They are that warfighting is 
first, we have to operate forward, and we need to be ready. 
Regardless of the size of our budget or our fleet, these three 
tenets are the lens through which we evaluate all our 
decisions.
    If you refer to the chartlet I've provided in front of you, 
you will see that on any given day we have about 50,000 sailors 
in 100 ships deployed overseas. They are providing forward 
presence. The orange bow ties, if you will, on the chart 
represent what I call the maritime crossroads, where shipping 
lanes and our security concerns intersect. A unique strength of 
your fleet is that it operates forward from U.S. bases, 
represented by circles on the chartlet, and from places 
provided by partner nations, represented by squares on the 
chartlet.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Admiral Greenert. These places are critical to your Navy 
being where it matters because they enable us to respond 
rapidly to crises and enable us to sustain forward presence 
with fewer ships by reducing the number of ships on rotational 
deployments.
    The reverse side of the chartlet will describe the plan for 
our deployments shown in the rebalance to the Asia-Pacific 
while sustaining our Mideast posture.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Admiral Greenert. In February we faced a shortfall of about 
$8.6 billion in our 2013 O&M account. Since then we received a 
2013 appropriation in March, and I thank this committee for 
their work in that regard. In accordance with our priorities 
and tenets, we plan to invest our remaining 2013 O&M funds to 
fund our must-pay items such as contracts, leases, and 
utilities, to reconcile our 2013 presence with our combatant 
commanders, and to conduct the training and maintenance for 
forces next to deploy, and to prepare to meet our 2014 global 
force management allocation plan responsibilities. Also, we'll 
restore critical base operations and renovation projects.
    Although we intend to meet our most critical operational 
commitments to the combatant commanders, sequestration still 
leaves us with a $4.1 billion O&M shortfall and a $6 billion 
investment shortfall. This will result in our surge capacity of 
fully mission-capable carrier strike groups and amphibious 
ready groups being reduced by two-thirds through 2014. Further, 
we will have deferred about $1.2 billion in facilities 
maintenance, as well as depot-level maintenance for 84 aircraft 
and 184 engines.
    Combined, our O&M and investment shortfalls leave us $9 
billion worth of carryover challenge for 2014. A continuation 
of sequestration in 2014 will compound this carryover challenge 
from $9 billion to $23 billion. Further, accounts and 
activities we were able to protect in 2013, such as manpower 
and nuclear maintenance and critical fleet operations, will be 
liable to a reduction in 2014.
    Our people have remained resilient in the face of this 
uncertainty and I have been amazed throughout this process with 
their patience and their dedication, that of our sailors and 
our civilians.
    Our 2014 budget submission supports the Defense Strategic 
Guidance (DSG) and enables us to maintain our commitments in 
the Middle East and to rebalance to the Asia-Pacific region. We 
prepared this budget with the following priorities: One, to 
deliver overseas presence in accordance with our Global Force 
Management Allocation Plan (GFMAP); and two, to continue our 
near-term investments and address challenges in the Middle East 
and the Asia-Pacific region; three, we want to develop long-
term capabilities with the appropriate capacity to address 
warfighting challenges in the Middle East and the Asia-Pacific 
region.
    Our budget submission continues to invest in future fleet. 
We've requested $44 billion in ships, submarines, manned and 
unmanned aircraft, weapons, cyber, and other procurement 
programs such as the JSF, LCS, unmanned aerial vehicles, the 
DDG-1000, and the P-8A Poseidon, just to name a few.
    These investments will deliver a fleet of 300 ships by 2019 
with greater interoperability and greater flexibility when 
compared to today's fleet.
    We also continue to fund important high-technology and 
asymmetric capabilities such as the Laser Weapon System for 
small boat and drone defense, which will deploy aboard the ship 
Ponce in spring 2014. Also in 2014, we will deploy on the 
carrier George Herbert Walker Bush a successfully tested 
prototype system to detect and defeat advanced wake-homing 
torpedoes.
    We continue to grow manpower by about 4,600 sailors in this 
submission compared to last year's budget, and these new 
sailors will reduce our manning gaps at sea, will enhance our 
cyber capabilities, and will improve our waterfront training. 
We will continue to address our critical readiness and safety 
degraders, such as sexual assault, suicide, increased 
operational tempo, and our at-sea manning.
    Mr. Chairman, this budget places our Navy on a good course 
which enables us to meet the requirements of the DSG today 
while building a relevant future force and sustaining our 
manpower for tomorrow. We appreciate everything you and the 
committee have done for the sailors and civilians of our Navy 
as well as the families, and we again ask for your support in 
removing the burden of sequestration so that we can better 
train, better equip, and deploy properly these brave men and 
women in defense of our Nation.
    [The prepared statement of Admiral Greenert follows:]

            Prepared Statement by ADM Jonathan Greenert, USN

    Chairman Levin, Ranking Senator Inhofe, distinguished members of 
the committee; it is my pleasure to appear before you today to testify 
on the Navy's fiscal year 2014 budget and posture. I am honored to 
represent the approximately 613,000 Active and Reserve sailors and Navy 
civilians serving today, as well as their families.

             ESTABLISHING THE BASELINE FOR FISCAL YEAR 2014

    Before discussing our fiscal year 2014 budget submission, we have 
to clarify our current situation in fiscal year 2013. This will form 
the baseline for our fiscal year 2014 program. In February, Navy faced 
a shortfall of about $8.6 billion in our fiscal year 2013 operations 
and maintenance (O&M) account due to a combination of requirements 
growth, the Continuing Resolution and sequestration. Since then, thanks 
to Congress' efforts, we received an fiscal year 2013 appropriation in 
March as part of the Consolidated and Further Continuing Appropriations 
Act of 2013. This appropriation restored about $4.5 billion toward our 
total need in operations and maintenance. As a result, we have a fiscal 
year 2013 shortfall in operations and maintenance of about $4.1 
billion, approximately 10 percent of the planned amount for this fiscal 
year.
    In accordance with our priorities and strategy, we are applying our 
remaining O&M funds to the following:

        <bullet> Pay ``must pay bills'': Ensure we have funding for 
        bills such as utilities, contracts and reimbursables.
        <bullet> Reconcile fiscal year 2013 readiness: Sustain 
        operations and maintenance for the priority forces in 
        accordance with the defense strategy that will deploy to meet 
        the current approved fiscal year 2013 Global Force Management 
        Allocation Plan (GFMAP), which describes the forces required to 
        be provided by the Services to the combatant commanders (CCDR) 
        as directed by the Secretary of Defense. Our remaining spending 
        plan for fiscal year 2013 will address furloughs of civilians 
        and sustain nondeployed ship and aircraft operations so 
        appropriate forces prepare to deploy, and other forces operate 
        enough to be able to safely respond if needed to support 
        homeland defense.
        <bullet> Prepare to meet fiscal year 2014 GFMAP: Conduct 
        training and maintenance for forces that will deploy as part of 
        the fiscal year 2014 GFMAP, including guided missile destroyers 
        (DDG) transferring to Rota, Spain as part of the Forward 
        Deployed Naval Force (FDNF).
        <bullet> Restore critical base operations and renovation: 
        Sustain base infrastructure and port and airfield operations to 
        support training and deployments needed for the fiscal year 
        2013 and fiscal year 2014 GFMAP. We will also conduct health 
        and safety-related facility repairs and continue high-return 
        energy efficiency projects.

    However, sequestration will result in a fleet and bases less ready 
than planned. For example, at sea we were compelled to recommend the 
fiscal year 2013 GFMAP be changed to cancel one ship deployment to the 
Pacific, two ship deployments to Europe and cancel all but one fiscal 
year 2013 ship deployment to U.S. Southern Command. We continue to 
evaluate opportunities to add deployments to these regions as our 
fiscal position becomes clearer. In addition to reducing overseas 
deployments, we will also reduce the amount of operations and training 
our ships and aircraft will conduct when not deployed.
    We reduced maintenance, including deferral of depot maintenance on 
84 aircraft and 184 engines, and reducing the scope of 2 ship 
maintenance availabilities. We plan to recover this backlog during 
fiscal year 2014. With Congress' approval of our proposed fiscal year 
2013 reprogramming, we will restore all of our planned ship maintenance 
availabilities remaining in fiscal year 2013.
    The impact of reduced fleet operations and maintenance will be less 
surge capacity, but we will retain the ability to support the fiscal 
year 2014 GFMAP. All our forces deploying in fiscal year 2013 and 
fiscal year 2014, including two carrier strike groups (CSG) and two 
amphibious ready groups (ARG) (one each in the Middle East and the 
Asia-Pacific), will be fully mission-capable and certified for Major 
Combat Operations. All our forces supporting operations in Afghanistan, 
where Navy aircraft fly about one-third of all tactical sorties, will 
also be fully mission-capable and certified. For surge, we will retain 
one additional CSG and ARG in the United States that are fully mission-
capable, certified for Major Combat Operations and available to deploy 
within 1-2 weeks. This is about one-third of our normal surge capacity. 
Overall, due to reduced training and maintenance, about two-thirds of 
the fleet will be less than fully mission capable and not certified for 
Major Combat Operations. Historically, about half of our fleet is in 
this status, since ships and squadrons are in training or maintenance 
preparing for their next deployment. While these forces will not be 
ready or certified to deploy overseas, they will remain able to 
respond, if needed, to support homeland defense missions.
    Ashore, we deferred about 16 percent of our planned fiscal year 
2013 shore facility sustainment and upgrades, about $1.2 billion worth 
of work. Recovering these projects could take 5 years or more, and in 
the meantime, our shore facility condition will degrade. We were able 
to sustain our Sailor and Family Readiness programs through fiscal year 
2013, including Child Development Centers, Fleet and Family Support 
Centers, and Sexual Assault and Prevention programs. We also fully 
funded a judicious Tuition Assistance program for our sailors. Despite 
these efforts to reduce the impact of sequestration on our people, 
however, we must still consider furloughs for our Navy civilians.
    Sequestration reduced the fiscal year 2013 funding for each of our 
investment programs by about 8 percent, or about $6.1 billion total. We 
are still reconciling the impact of this reduction, but due to the 
mechanics of sequestration and limited reprogramming authorized by the 
fiscal year 2013 Defense Appropriations Act, it is likely we will be 
compelled to reduce the number of weapons we purchase and the number of 
aircraft we buy in some of our aviation programs due to the reduction--
including one E-2D Hawkeye, one F-35C Lightning II, one P-8A Poseidon 
and two MQ-8C Firescout. Our ship construction programs will need to 
restructure schedules and shift some outfitting costs to future years 
to address the nearly 8 percent sequestration reduction in fiscal year 
2013. This will pass on ``costs to complete'' that will need to be 
reconciled in future years. These costs will not be an insignificant 
challenge as they may compel Navy to cancel the procurement of future 
ships to complete outfitting ships that are nearing delivery.

                  THE IMPACT OF CONTINUED UNCERTAINTY

    Over the past 4 months we slowed our spending, stopped new program 
starts, and proceeded very deliberately in choosing our operations, 
deployments and investments. We brought ``all hands on deck'' to work 
on revised plans for everything from how we provide presence to what we 
buy in fiscal year 2013. In the Fleet, this is standard procedure for 
proceeding through a fog bank--slow, deliberate and with limited 
visibility ahead; effectively, most other operations and planning stop 
because of the dangerous near-term situation. With a fiscal year 2013 
appropriation, we are now coming out of this ``fog,'' increasing speed, 
heading toward a national future, and reestablishing momentum behind 
our top priorities.
    This momentum, however, may be short-lived. While the fiscal year 
2014 budget submission includes deficit reduction proposals beyond that 
called for by the Budget Control Act of 2011 (BCA), it requires the 
BCA's lower discretionary budget caps are replaced in fiscal year 2014 
and beyond. If the discretionary caps are not revised, our fiscal year 
2014 obligation authority could be reduced $10-$14 billion. This would 
compel Navy to again dramatically reduce operations, maintenance and 
procurement in fiscal year 2014, preventing us from meeting the fiscal 
year 2014 GFMAP and negatively impacting the industrial base. While 
military personnel compensation was exempted in sequestration during 
fiscal year 2013, if the lower discretionary budget caps of the BCA are 
retained, we will evaluate options to reduce personnel and personnel 
costs, including compensation and entitlements.
    The uncertainty inherent in our fiscal outlook prevents effective 
long-term planning and will begin to affect the ``Health of the 
Force.'' We can ill-afford the distraction of planning for multiple 
budget contingencies, stopping and restarting maintenance, changing 
operational schedules and restructuring investment programs. This 
constant change negatively impacts our sailors and civilians and their 
Families here at headquarters and in the Fleet. It also precludes us 
from looking long-term at how we should build, train, develop and 
posture the future force as we end two land wars in Middle East and 
rebalance our effort toward the Asia-Pacific.
    To begin planning for the long-term and ensure we are realistically 
confronting our strategic and fiscal challenges, the Secretary of 
Defense ordered a Strategic Choices and Management Review (SCMR). The 
review does not assume or accept that deep reductions to defense 
spending, such as those from sequestration, will endure or that they 
could be accommodated without a significant reduction in military 
capabilities. The review does reflect the Secretary's view that the 
Department of Defense must constantly examine the choices that underlie 
our defense strategy, posture, and investments, including all past 
assumptions.
    The SCMR will consider the 2012 Defense Strategic Guidance (DSG) as 
the point of departure. It will define the major strategic choices and 
institutional challenges affecting the defense posture in the decade 
ahead that must be made to preserve and adapt defense strategy and 
management under a wide range of future circumstances. The results of 
this review will frame the Secretary's guidance for the fiscal year 
2015 budget and will ultimately be the foundation for the Quadrennial 
Defense Review due to Congress in February 2014.

                         OUR STRATEGIC APPROACH

    Our first responsibility is to ensure Navy is able to deliver the 
overseas presence and capabilities required by our DSG Sustaining U.S. 
Global Leadership: Priorities for 21st Century Defense, as manifested 
in the GFMAP.
    Our mandate per the DSG is to be present overseas where it matters, 
and to be ready when it matters. A central element of the DSG to Navy 
is to field a ready force, with the right capabilities, postured in 
each region. The DSG concludes that a prompt, credible response by 
forward U.S. forces can demonstrate American resolve and can blunt the 
initial actions of an aggressor. This can in turn deter, assure, and--
if necessary--control escalation, contain the conflict and prevent it 
from growing into a larger war.
    Our fundamental approach to making decisions and implementing the 
DSG is unchanged since I assumed the office of the Chief of Naval 
Operations. We organize, man, train and equip the Navy by viewing our 
decisions through three lenses, or tenets. They are: Warfighting First, 
Operate Forward, and Be Ready. Regardless of the size of our budget or 
our fleet, these tenets are the key considerations we apply to each 
decision.

Warfighting First
    Warfighting First is a first principle. It is our fundamental 
responsibility; each decision inherent in our fiscal year 2014 program 
was viewed in terms of its impact on warfighting. Our forces must have 
relevant warfighting capability today to be credible--not at some point 
in the future. If the credibility of our forces is lost (or perceived 
lost) they cannot rebuild it easily or quickly. In developing our 
fiscal year 2014 budget submission we did not ``let perfect be the 
enemy of good--or good enough.'' For example, if a new system or 
capability would provide a probability of successfully defeating a 
threat 60 percent of the time, we will deploy it, particularly if 
today's probability of success is 0 percent.
    To develop future capability, Warfighting First compels us to look 
for the most effective way to defeat a threat or deliver an effect that 
can be realistically fielded, efficiently. The logic we use to identify 
our most effective capabilities is to analyze the adversary's ``kill 
chain'' or ``effects chain'' and pursue an asymmetric means to ``break 
the chain.'' For example, to execute a successful attack, an adversary 
has to:

        <bullet> Find the target
        <bullet> Determine the target's location, course, and speed (or 
        relative motion)
        <bullet> Communicate that information coherently to a platform 
        or unit that can launch an attack
        <bullet> Execute an attack using anything from a kinetic weapon 
        to electromagnetic systems to cyber

    Each (or any) of these ``links'' in the chain can be broken to 
defeat the threat. But some are more vulnerable than others and kinetic 
effects are not always the best way to break the chain. So instead of 
overinvesting and trying to break every part of the effects chain, we 
focus on those where the adversary has a vulnerability we can exploit 
or where we can leverage one of our own advantages asymmetrically.
    Similarly, we analyze our own effects chains for strengths and 
weaknesses; our fiscal year 2014 budget submission emphasizes proven 
technologies that limit the adversary's ability to defeat our ability 
to project power.
    We addressed challenges in the Arabian Gulf throughout 2012 and 
into this year by emphasizing Warfighting First. For example, in 
response to a Central Command urgent request and with the help of 
Congress, we rapidly outfitted the amphibious ship USS Ponce, 
previously an amphibious ship slated for decommissioning, to be an 
Afloat Forward Staging Base-Interim (AFSB-I) in support of mine warfare 
and Special Operations Forces in the Arabian Gulf. To improve our mine 
warfare capabilities we rapidly deployed Mark 18 mine-hunting unmanned 
underwater vehicles (UUV) and SEAFOX mine neutralization systems to 
Ponce and our minesweepers (MCM). These systems became force 
multipliers and enable our forces to find and/or clear mines twice as 
quickly as the forces we deployed to the Arabian Gulf in 2012--taking 
1-2 weeks instead of 1-2 months depending on the size (and our 
knowledge) of the minefield. We tested these new capabilities and 
improved our ability to operate with a coalition by organizing and 
conducting an International Mine Countermeasures Exercise (IMCMEX) with 
34 other navies in the Arabian Gulf last September. We will hold 
another IMCMEX next month.
    In addition to improving our mine warfare capability in the Arabian 
Gulf, we increased our surveillance capability and our ability to 
counter fast attack craft and submarines in the region. Through rapid 
fielding efforts supported by the Secretary of Defense and Congress, we 
added new electro-optical and infrared sensors to our nuclear aircraft 
carriers (CVN), upgraded the guns on our Patrol Coastal (PC) ships 
based in Bahrain, fielded upgraded torpedoes for our helicopters 
deployed in the Arabian Gulf and deployed additional anti-submarine 
warfare (ASW) sensors in the region. Each of these initiatives and our 
mine warfare improvements continue into fiscal year 2014 as part of our 
budget submission.
    We also continued implementing the Air-Sea Battle concept as part 
of Warfighting First. We practiced and refined the concept in wargames 
and real-world exercises including Valiant Shield and Rim of the 
Pacific (RIMPAC) last summer. RIMPAC brought together 40 ships and 
submarines, more than 200 aircraft and over 25,000 personnel from 22 
nations, including Russia and India for the first time. RIMPAC enabled 
forces to practice high-end ballistic missile defense, surface warfare 
and anti-submarine warfare in simulations and more than 70 live-fire 
missile and torpedo events. RIMPAC 14, supported by our fiscal year 
2014 budget submission, will include as many or more live-fire events 
and nations, including China for the first time.
    We reinvigorated our efforts to conduct integrated operations with 
the Marine Corps as the war in Afghanistan draws down and demands for 
naval crisis response grow in the Mediterranean and Middle East. The 
Navy-Marine Corps team conducted Bold Alligator in 2012; our largest 
amphibious exercise in more than a decade, yielding dozens of lessons 
learned which we are incorporating into our capability development 
efforts. Some of these changes, particularly in command control 
organizations and communications systems, are reflected in our fiscal 
year 2014 program. Bold Alligator 14, supported by our fiscal year 2014 
budget submission, will build on the results of last year's exercise 
and will explore the concepts and capabilities needed for a range of 
amphibious operations from single ARG up to large-scale amphibious 
assaults.

Operate Forward
    The Navy and Marine Corps are our Nation's ``away team'' and first 
responders to crisis. History has demonstrated that the Navy is at its 
best when we are forward and ready to respond where it matters, when it 
matters. To operate forward we focus our deployed presence at strategic 
maritime crossroads such as the Straits of Malacca and Hormuz or the 
Suez and Panama Canals. It is in these areas and others where sea 
lanes, resources and vital U.S. interests intersect that influence 
matters most.
    On any given day, about 50,000 of our sailors are underway on 145 
ships and submarines, 100 of them deployed overseas as depicted in 
Figure 1. They are joined by about 125 land-based patrol aircraft and 
helicopters, 1,000 information dominance personnel, 1,000 Naval Special 
Warfare operators, and 4,000 Naval Combat Expeditionary Command sailors 
on the ground and in inland waters.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The tenet Operate Forward compels us to look for new ways to 
increase the amount of presence we can deliver at the right places--and 
to do so more efficiently. Each of these ways places ships overseas 
where they deliver continuous (``non-rotational'') presence, instead of 
having to deploy from the continental United States (CONUS) to provide 
``rotational'' presence. One ship operating from an overseas port in 
this manner provides the same presence as about four ships operating 
from homeports in the United States.
    There are two basic ways in which we can sustain ships overseas.:

        <bullet> Ships can be homeported overseas as part of the 
        Forward Deployed Naval Force (FDNF) with their sailors and 
        their families as we do in Japan and will soon do in Rota, 
        Spain. This provides continuous presence, immediate response to 
        crisis, and the means to build a strong relationship with the 
        host nation.
        <bullet> Ships can also Forward Station overseas and be manned 
        by civilian or military crews that rotate out to the ship. 
        Rotating civilian crews man our Mobile Landing Platform (MLP), 
        Joint High Speed Vessel (JHSV), Afloat Forward Staging Base 
        (AFSB) and Combat Logistics Force (CLF) ships. Rotating 
        military crews man our Littoral Combat Ship (LCS) and nuclear 
        guided missile submarines (SSGN).

    Both of these ways of operating forward rely on ``places'' overseas 
where our partners and allies allow us to use their facilities to rest, 
repair, resupply and refuel. Our fiscal year 2014 budget submission 
continues to sustain development of these facilities. Military 
construction (MILCON) for these facilities comprises only 27 percent of 
our fiscal year 2014 MILCON program funding, a slightly smaller 
percentage than in fiscal year 2013. These eight projects will provide 
essential support facilities at ``bases'' and ``places'' around the 
world such as Guam and Japan. Without this investment our forces will 
be less able to operate forward and more dependent on support from 
CONUS.
    Our posture in the Arabian Gulf will improve this year with the 
addition of three PCs in Bahrain for a total of eight. Further, our 
fiscal year 2014 program supports the homeporting of 2 more PCs there 
for a total of 10 by the end of fiscal year 2014. During fiscal year 
2013 we will permanently homeport all our PCs and our four MCMs in 
Bahrain, instead of manning them with crews rotating from the United 
States. This will increase the crews' proficiency and continue to build 
our relationship with partners throughout the Arabian Gulf.
    In Europe, we continued preparations for the planned move of four 
destroyers to Rota, Spain, which highlights the benefit of FDNF ships. 
Conducting the European ballistic missile defense (BMD) mission today 
takes 10 ships deploying from CONUS. This same mission can be done with 
four destroyers based forward, freeing up six rotationally-deployed 
destroyers to deploy to other regions such as the Asia-Pacific.
    In the Pacific, we deployed our first LCS, USS Freedom, to 
Singapore where it will remain for two crew rotations (8 months) to 
evaluate LCS operational concepts. Our posture in the Asia-Pacific will 
increase as part of the Department's overall rebalance to the region. 
Our fiscal year 2014 program supports the basing of another nuclear 
attack submarine (SSN) in Guam (for a total of four) and the increase 
in the number of LCS operating from Singapore to four by fiscal year 
2017. In addition to the increase in rotational forces made available 
by FDNF DDG in Rota and the introduction of new ships such as JHSV in 
Africa and South America, our efforts to shift 60 percent of our fleet 
to Pacific homeports will increase our day-to-day presence there by 15-
20 percent.
    Fundamentally, operate forward is about making the most effective 
and efficient use of what we own. Each of these initiatives reflects 
that idea.

                                BE READY

    Our fleet must be ready to meet today's challenges, today. This 
means more than ensuring maintenance is done and parts and fuel are on 
hand. Those elements are essential to readiness, but our tenet to Be 
Ready requires that our sailors be confident in their abilities and 
equipment and proficient in their operations. Be Ready compels us in 
our decision making to always consider what our sailors need to be 
confident and proficient. We will buy proven technology that our 
sailors can use and depend on instead of new, unproven equipment. We 
will use empirical data, such as Board of Inspection and Survey 
reports, as much as possible in our decision making. This is what our 
sailors experience and we must work to make them as confident as 
possible in the warfighting capability of themselves and their gear. 
Applying our tenet to Be Ready requires that we consider all the 
factors that will detract from our sailors' ability to effectively 
fight when the time comes.
    In the past year we increased the proficiency of our sailors by 
conducting more live-fire and practical training events. In addition to 
exercises such as RIMPAC and Bold Alligator, we increased live-fire air 
defense and surface warfare and practical ASW training in our 
preparations for deployment and purchased additional training missiles, 
sonobuoys, ammunition and targets. To enhance the proficiency of our 
operators more efficiently, we funded completion and installation of 
trainers for new systems such as the P-8A Poseidon, E/A-18G Growler and 
LCS.

Current concerns
    We are encountering four major factors now that detract from our 
sailors' readiness and hinder our ability to make progress in line 
toward the vision described in Sailing Directions. They are: Sexual 
assault, suicide, at-sea manning shortfalls, and high operational 
tempo.
    Sexual assault
    Sexual assault is a crime that happens to about two sailors every 
day. Sexual assault creates an unsafe workplace and degrades the 
readiness of our ships and squadrons. Last year we began a concentrated 
effort to change our culture and get after sexual assault in our Navy. 
We implemented a series of measures, including:

        <bullet> Completed training for all Navy military personnel, 
        conducted by mobile training teams of experts in sexual assault 
        prevention and response. We have received superb feedback on 
        this training.
        <bullet> Refined our reporting criteria for sexual assault to 
        help understand victim and offender demographics, find out 
        where these attacks happen and focus our efforts accordingly. 
        We also required that all sexual assault incidents be briefed 
        by unit commanders to the first flag officer in the chain of 
        command.
        <bullet> Established programs in Fleet Concentration Areas such 
        as our Great Lakes training facility and San Diego which 
        reduced the number of reported sexual assaults--by 60 percent 
        in the 20-month program at Great Lakes. We established a 
        similar program in San Diego in December 2012 and will 
        implement programs in Europe and Japan this summer. Our San 
        Diego program provided insights that enabled us to address 
        contributors to sexual assault there, and we are seeing a near-
        term downward trend in the number of San Diego-area Navy sexual 
        assault reports--we'll watch this closely.
        <bullet> Continued quarterly meetings with all Navy four-star 
        commanders to review the data from our ``first flag officer'' 
        reports, refine our plan and adjust our approaches as needed.

    We are seeing some clear trends regarding sexual assault in the 
Navy. There appears to be less stigma associated with reporting sexual 
assault, as indicated by an increased number of sexual assault 
reports--in particular delayed reports of sexual assaults that occurred 
weeks or months earlier. Most sexual assaults are sailors assaulting 
other sailors; most victims and offenders are junior sailors; more than 
half of incidents occur on base or on ship; and alcohol is a factor in 
the majority of sexual assaults. We are applying these findings to 
develop our efforts to prevent sexual assault. I see a great 
opportunity for future success in three main areas:

        <bullet> Disrupting the ``Continuum of Harm''--or the chain of 
        events and contributors that tend to be associated with sexual 
        assault. We continue to focus, in particular, on alcohol as a 
        factor in sexual assault. This year we fielded Alcohol 
        Detection Devices to the fleet to help educate sailors on their 
        alcohol use.
        <bullet> Prosecuting the offenders using specially trained 
        investigators, victim advocates, prosecutors, and paralegals. 
        As part of this effort we established dedicated Naval Criminal 
        Investigative Service (NCIS) agent-teams in Norfolk, San Diego, 
        Bangor, and Okinawa that exclusively handle adult sexual 
        assault investigations. In Norfolk, these teams reduced the 
        average sexual assault investigation timeline from 324 days to 
        80 days. NCIS is expanding this model during fiscal year 2013 
        to Yokosuka, Japan, Hawaii, and Mayport, FL.
        <bullet> Support for victims. We prioritized prompt and 
        effective care for victims of sexual assault that maximizes the 
        ability to apprehend offenders. We continue to train and 
        qualify our military and civilian medical care workers to 
        conduct Sexual Assault Forensic Exam (SAFE); all our Military 
        Treatment Facilities and operational settings will be able to 
        perform SAFE exams by the end of this fiscal year. To support 
        victims through the investigation and judicial process we will 
        complete professionalizing our Sexual Assault Response 
        Coordinator (SARC) and Victim Advocate (VA) cadre by hiring 10 
        additional SARCs and 66 full-time VAs in fiscal year 2013.
    Suicide
    Suicide is a growing problem in our Nation, our military and our 
Navy. The number of suicides per 100,000 sailors per year has risen 
steadily from 13, 2 years ago to 16 in the last 12 months. To help 
address this trend, Navy stood up a task force to examine Navy suicide 
prevention and resilience-building programs as well as evaluate DOD, 
other service, and non-DOD approaches and programs. The task force 
completed their assessment this month and is providing a comprehensive 
set of actions for implementation. Their findings showed that while no 
program to date has stopped suicides in the military, there are some 
key factors contributing to suicide that we can address. Their 
recommendations are being incorporated into our existing efforts to 
prevent suicide, focused on education and awareness; intervention; 
sailor care; and continued assessment of our progress.
    In particular, the task force will revise our current collection of 
123 programs designed to improve resiliency or prevent suicide and 
focus them on the factors they found to be most effective at preventing 
suicide. We will implement many of these recommendations in fiscal year 
2013 and into fiscal year 2014. The Navy also works with DOD's Defense 
Suicide Prevention Office to promote awareness of the Military Crisis 
Line, a service that provides 24/7 confidential crisis support to those 
in the military and their families. This line provides immediate access 
to care for those who may be at risk for suicide, along with additional 
follow-up and connection with metal health services.
    At-sea manning shortfalls
    Our goal for at-sea manning is 95 percent of billets filled and 90 
percent ``fitted'' with a sailor having the right specialty and 
seniority. At the start of fiscal year 2013, we were at about 90 
percent fill and 85 percent fit--5 percent short of our goal in each 
measure and about 7,000 short of our goal in at-sea manning. We put in 
place a number of initiatives to shift more sailors to sea including 
Sea Duty Incentive Pay, changes to Sea-Shore rotation and shifts of 
Reserve component sailors to Active Duty. We are on track to reach our 
fit and fill goals by the end of fiscal year 2013. An enduring factor 
behind at-sea manning shortfalls is the fact we are about 4,000 sailors 
below our planned and budgeted end strength. To permanently address our 
end strength shortfall we increased accessions by 6,000 per year and 
broadened and increased reenlistment bonuses for undermanned ratings, 
adding bonuses for 18 specialties and increasing them for 42 more. We 
expect to reach our end strength goal by the end of fiscal year 2013.
    High Operational Tempo (OPTEMPO)
    Over the last decade, our fleet shrank by about 10 percent while 
our deployed presence remained about the same. As a result, each ship 
and aviation squadron spends on average about 15 percent more days away 
from home per year now than it did 10 years ago. This is an average, 
however. Our increased OPTEMPO is not evenly distributed. Our CSGs and 
ARGs will deploy on average 7-8 months in fiscal year 2013, but some 
will deploy for 9 months or more due to emergent maintenance or the 
effects of sequestration on operational schedules. Our BMD ships are 
similarly deploying for about 9 months at a time. To better understand 
how unit OPTEMPO affects individual sailors, this year we began 
monitoring the time each sailor is away from home (ITEMPO) and will use 
this information to guide our future decisions. For the long term, 
however, we have to adopt a more sustainable process to provide ready 
forces. For that reason, we are shifting to a ``supply-based'' model to 
prepare forces for deployment starting in fiscal year 2014. As part of 
this we will revise our Fleet Readiness Training Plan (FRTP) to make it 
more predictable and provide more presence from the same size fleet.
    When sailors are gone up to 9 months at a time, family readiness is 
vitally important. Our fiscal year 2014 budget submission sustains 
family support programs that provide counseling, education, child care 
and financial advice. We also continue developing our sailors' 
readiness and protection, safety, physical fitness, inclusion and 
continuum of service as part of our 21st Century Sailor and Marine 
initiative. The actions described above to address sexual assault and 
suicides are part of this initiative. To improve our resourcing, 
management and oversight of the programs that support our sailors and 
their families, I am reorganizing my personnel headquarters to bring 
all these aspects of a sailors' total health and personal readiness 
under a 21st century sailor office led by a two-star admiral.
    Our responsibility of support to our sailors and their families is 
most important when they are wounded, ill, or injured. Navy's ``Safe 
Harbor'' program helps about 1,200 sailors and coast guardsmen and 
their families through their recovery with travel orders for treatment, 
lodging, child and respite care, employment and education assistance, 
mental health assistance and career counseling. We implemented a 
campaign over the past year that increased enrollment in Safe Harbor 30 
percent by reaching out to servicemembers who were eligible but had not 
signed up. Our fiscal year 2014 budget submission sustains Safe Harbor 
and improves the program's level of service.

                    OUR COURSE FOR FISCAL YEAR 2014

    Our fiscal year 2014 budget submission implements the DSG and 
continues our current efforts by making decisions based on our three 
tenets. Our approach to building our fiscal year 2014 program focused 
on three main areas, in order:

        <bullet> First, we ensured sufficient forces and readiness to 
        provide the presence required to meet the current and projected 
        future GFMAP.
        <bullet> Second, we sustained our fiscal year 2013 investments 
        required to support our critical near-term capability to 
        perform DSG missions.
        <bullet> Third, we addressed our most relevant future 
        capability requirements to support the DSG missions.

    The resulting fiscal year 2014 program and associated plans 
implement DSG direction to rebalance our effort toward the Asia-Pacific 
region, support our partners in the Middle East, sustain our alliance 
commitments in Europe and employ low-cost, small footprint approaches 
to security on other regions.

    1.  Delivering presence: Our fiscal year 2014 submission includes 
the investments in force structure needed to meet the presence 
requirements of the fiscal year 2014 GFMAP. Our investments in ships 
and aircraft are complemented with the funding for training, 
maintenance and operations necessary for readiness today and to ensure 
they can continue to provide presence over their expected service life. 
Figure 2 depicts the presence levels generated by our planned 
investments in the fiscal year 2014 Future Years Defense Program 
(FYDP). Figure 2 also includes the number of ``non-rotational'' ships 
that are either homeported in the region or are Forward Stationed in 
the region and manned by rotational crews from CONUS.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Shipbuilding
    We determined the number and type of ships required over the long-
term through a comprehensive, analytically-driven Force Structure 
Assessment (FSA). The FSA determined the day-to-day presence required 
to execute the DSG, informed by today's GFMAP and the introduction of 
new ships, systems or payloads, and concepts that deliver presence more 
efficiently or that better match capabilities to their theater. The FSA 
resulted in a required number of each type of ship to meet the 
projected presence requirements. Although presence is the governing 
factor for Navy force structure requirements, the FSA also ensured 
Navy's force structure would be sufficient to meet the surge 
requirements of CCDR operational plans and DOD Defense Planning 
Scenarios, informed by the DSG direction to reevaluate those plans in 
view of our resource limitations.
    The FSA analysis resulted in a battle force requirement of 306 
ships. This requirement is different from our previous 313-ship 
requirement because of: (1) reduced presence requirements resulting 
from the DSG's priorities; (2) increased forward basing of ships; (3) 
introduction of new payload capacity for SSNs (replacing the SSGNs) 
and; (4) the increased use of ships manned with rotating civilian and 
military crews which provide more presence per ship.
    Our fiscal year 2014 long-term shipbuilding plan is designed and 
planned to deliver the fleet, by ship type, required per our FSA over 
the long term. Over the fiscal year 2014-fiscal year 2018 FYDP our 
program will fund construction of 41 ships. Our investments are not 
programmed to reach the precise number and mix of ships within this 
FYDP, but do deliver a fleet of 300 ships by 2019 with increased 
capability and flexibility compared to the fleet of today. To meet the 
required force mix and number, however, Navy will need the means to 
resource, in particular, construction of the next generation nuclear 
ballistic missile submarine (SSBN). Deputy Secretary of Defense Carter 
acknowledged this resourcing challenge in his memo of March 2012 that 
forwarded the Fiscal Year 2013 Shipbuilding Plan to Congress.
    Our fiscal year 2014 program continues the construction of ships 
that employ rotational military or civilian crews to improve their 
ability to operate and stay forward. Our fiscal year 2014 budget 
submission funds the final MLP, which will be configured as an AFSB and 
manned by rotating civilian crews with military detachments, and four 
LCS that will employ rotational military crews. During fiscal year 2014 
we will deploy the first JHSV, USNS Spearhead, and continue the first 
deployment of USS Freedom. We will use these deployments to integrate 
these new, highly adaptable platforms into the fleet and evaluate the 
ways we can employ their combination of persistent forward presence and 
flexible payload capacity.
    During fiscal year 2014, seven ships will enter the fleet, 
including two new classes of ships. The first Zumwalt-class DDG will 
deliver next year, bringing with it an all-electric integrated 
propulsion system and the Advanced Gun System, able to reach targets 
with precision up to 60 miles away. The amphibious assault ship USS 
America will join the fleet in fiscal year 2014 and empower new 
concepts for amphibious operations that take advantage of its expanded 
aviation capacity. Over the next 5 years, we will deliver 47 ships, 
including the Gerald R. Ford, the first of a new class of CVN that will 
provide much higher sortie generation with about 500 fewer sailors.
    Aviation
    Our aviation requirements are tied to requirements for the ships 
from which they operate, and on our required forward presence of land-
based aircraft such as the P-8A Poseidon. Our fiscal year 2014 program 
invests in aircraft to meet those requirements. To support our carrier 
air wings and independent deploying ships, our fiscal year 2014 budget 
submission continues construction of the proven and adaptable MH-60R/S 
Seahawk and E-2D Hawkeye. We also continue investment in development 
and low-rate production of the F-35C Lightning II to replace our older 
F/A-18 Hornet models (A-D).
    Readiness
    Our funded operations and maintenance in fiscal year 2013 will 
complete the manning, training, maintenance and other preparations 
necessary to enable Navy to meet the fiscal year 2014 GFMAP. Our fiscal 
year 2014 budget submission, combined with anticipated Overseas 
Contingency Operations (OCO) funding, fully funds our planned ship and 
aircraft maintenance and the ship and aircraft operations needed to 
execute the fiscal year 2014 GFMAP.
    Our overall fiscal year 2014 readiness is dependent on OCO funding. 
OCO funding subsidizes about 20 percent of our ship and aircraft 
maintenance costs in fiscal year 2014, including depot maintenance, as 
our fleet supports operations in Afghanistan. We are requesting OCO 
funding for about 20 percent of our planned ship operations to support 
training and certification for deployment and deployed operations. Our 
dependence on OCO funding for baseline operations has decreased from 
$3.3 billion in fiscal year 2011 to $2.3 billion fiscal year 2013 as we 
``migrate OCO to base'' funding. A more enduring funding strategy will 
eventually be required for Navy to maintain its current readiness and 
level of overseas presence into the future.
    The Navy also continues to develop more efficient ways to generate 
presence. Our fiscal year 2014 budget submission requests investments 
needed to modify the Fleet Readiness Training Plan (FRTP), which is the 
means Navy uses to train and maintain ships and aircraft in our CSGs 
and ARGs in preparation for deployment. This change, called ``Enhanced 
CSG Presence,'' will enable increased overseas presence of 
rotationally-deployed CSGs by: lengthening the overall FRTP cycle; 
adding time for maintenance and training; and increasing the total 
deployed time of each CSG per operating cycle. This transition will 
take about 2 years to complete, but when completed we will have 
established a more sustainable process for training and maintaining our 
rotationally deploying ships, aircraft and crews.
    Enhanced CSG Presence addresses increased use and increased 
overseas presence of CSGs over the last decade, since the current FRP 
was first developed. The current FRTP organizes the training and 
maintenance of ships and aircraft in the CSG to conduct one deployment 
(nominally 7 months) per 32-month cycle; the CSG is then available to 
deploy for contingencies for another 12 months. In the last several 
years, Requests For Forces (RFF) added to the GFMAP compelled Navy to 
routinely deploy CSGs twice in each operating cycle. This caused 
personnel to exceed DOD personnel tempo limits and expended the CVNs 
nuclear fuel at a higher rate than planned--causing some CVN to be 
constrained in the amount of operations they can do before they are 
refueled. Enhanced CSG Presence is designed to deploy CSGs twice each 
operating cycle while providing the time at home needed to stay within 
PERSTEMPO limits and maintain ships and aircraft. This model is more 
efficient because it trains and maintains the CSG once for up to two 
deployments. It is also a ``supply-based'' model because it delivers a 
set amount of overseas CSG presence and does not include ``on demand'' 
surge capacity except in most extreme contingencies. Our fiscal year 
2014 program includes the near-term investment in personnel and 
shipyard capacity needed to implement Enhanced CSG Presence, but future 
investment in CVN and aircraft recapitalization may be needed to 
address increased usage over time.
    Our shore establishment is a key contributor to our operational 
readiness. Sequestration in fiscal year 2013 reduced by more than half 
our planned facilities sustainment, renovation and modernization (FSRM) 
projects. This $1.2 billion reduction in shore investment will be 
``carried over'' into fiscal year 2014 and beyond and will degrade our 
shore readiness over time. Our fiscal year 2014 budget submission funds 
FSRM at acceptable levels of risk overall, but this ``carryover'' will 
have to be addressed.
    One particular area of emphasis in our facilities investment 
remains unaccompanied sailor housing. In 2001, 21,000 of our junior 
sailors had to live on their ship even when the ship was in port 
because there were no quarters ashore for them. Our military 
construction in fiscal year 2013 will complete our effort to provide 
every sailor a room ashore by 2016, while our FSRM investments going 
forward will improve the quality of our sailor's quarters. These 
efforts are important to our sailors' quality of life and personal 
readiness, but also will improve the safety and security of our on-base 
housing.
    Arctic
    Emerging projections assess that the Arctic will become passable 
for shipping several months out of the year within the next decade--
about 10 years earlier than predicted in 2009 when we first published 
our Arctic Roadmap. This will place new demands on our fleet for 
presence in the Arctic and capabilities to operate in the Arctic 
environment. Between now and the start of fiscal year 2014 we will 
update our Arctic Roadmap, and accelerate many of the actions Navy will 
take in preparation for a more accessible Arctic. During fiscal year 
2014 we will implement this revised roadmap, including developing with 
the U.S. Coast Guard plans for maintaining presence and search and 
rescue capability in the Arctic and pursuing exchanges with other 
Arctic countries to familiarize our sailors with Arctic operations.

    2.  Fielding near-term capabilities: Mine warfare continues to be a 
significant emphasis in the near-term. Our fiscal year 2014 program 
increases investment in the new AQS-20 towed mine hunting sonar and the 
new unmanned surface vehicle that will tow it, freeing up manned 
helicopters and ships and further expanding our mine hunting capacity. 
Our budget submission funds upgrades for our existing helicopter-towed 
mine hunting sonar and MCM hull-mounted sonar and accelerates fielding 
of the Mk-18 UUV and Sea Fox mine neutralization system. To support our 
MCMs and PCs in Bahrain, Navy's fiscal year 2014 program sustains USS 
Ponce as an AFSB-I in the Arabian Gulf and funds the outfitting of its 
replacement--the first MLP modified to be an AFSB.

    To address the near-term threat from submarines, our fiscal year 
2014 program sustains accelerated procurement of Mk-54 torpedoes, 
improves sustainment and replacement of today's fixed and mobile 
undersea sensors and improves our current periscope detection radars on 
surface ships and aircraft. To counter wake-homing torpedoes we 
installed a prototype surface ship torpedo defense (SSTD) system on USS 
George H.W. Bush this year and it is being tested. The SSTD system will 
deploy with Bush during fiscal year 2014.
    Small boats with explosives or anti-ship missiles remain a 
potential threat to our forces in the constrained waters of the Arabian 
Gulf. Our fiscal year 2014 program funds integration of the Advanced 
Precision Kill Weapon System (APKWS) onto our MH-60R helicopters to 
counter this threat. We also will test the new Laser Weapons System 
(LaWS) during fiscal year 2014 in the Arabian Gulf aboard USS Ponce. 
LaWS brings capabilities to defeat small boats and unmanned air 
vehicles (UAV) for about $1 a shot compared to thousands or millions of 
dollars per artillery round or missile. To improve our ability to 
defeat larger surface combatants, our fiscal year 2014 program invests 
in development and testing of near-term modifications to existing 
weapons that would enable them to be used for surface warfare.

    3.  Developing future capabilities: Our development of future 
capability is bench-marked to support our rebalance toward the Asia-
Pacific and is guided in large part by the Air-Sea Battle concept, 
which implements the Joint Operational Access Concept. Both these 
concepts are designed to assure U.S. forces freedom of action and 
access to support deterrence, assurance of our allies and partners, and 
the ability to respond to crises. Our investments focus on assuring 
access in each domain, often by exploiting the asymmetric capability 
advantages of U.S. forces across domains
    Undersea
    Navy's dominance of the undersea domain provides U.S. forces their 
most significant asymmetric advantage. Our fiscal year 2014 program 
continues improving our capability to deny the undersea to adversaries, 
while exploiting it for our own operations. Our ASW concepts combine 
U.S. air, space, cyber, surface and subsurface capabilities to prevent 
adversaries from effectively using the undersea domain. Navy's fiscal 
year 2014 budget submission sustains and plans production of proven ASW 
platforms including MH-60R Seahawk helicopters, P-8A Poseidon maritime 
patrol aircraft, Arleigh Burke class destroyers and Virginia class 
nuclear submarines (SSN)--including a second SSN in fiscal year 2014 
thanks to congressional support in fiscal year 2013. Our budget 
submission also funds Advanced Airborne Sensors for the P-8A Poseidon, 
accelerates torpedo defense systems for our aircraft carriers, 
transitions the PLUS system to an acquisition program and improves 
Navy's Integrated Undersea Surveillance System. To tie these manned and 
unmanned air, surface and undersea systems together in a networked, our 
fiscal year 2014 budget submission continues development of the 
Undersea Warfare Decision Support System.
    Our submarines and undersea vehicles can exploit their ability to 
circumvent anti-access challenges to conduct missions such as 
surveillance, strike, and ASUW into the air and surface domains with 
near-impunity. In addition to building two Virginia class SSNs in 
fiscal year 2014 our budget submission continues development of the 
Large Displacement Unmanned Underwater Vehicle and additional payloads 
for our existing submarines.
    Air
    Our fiscal year 2014 program continues to improve the capability of 
our CSGs to project power despite threats to access. In fiscal year 
2014 our budget submission funds two squadrons E/A-18G Growler 
electronic warfare aircraft and the Next Generation Jammer. E/A-18G 
provides key and critical capabilities to our CVW and expeditionary 
forces by jamming or deceiving adversary electromagnetic sensors while 
providing improved capability for sensing of adversary electromagnetic 
emissions. Our fiscal year 2014 budget submission also continues to 
invest in the development and low-rate production of the new F-35C 
Lightning II. We will continue to evaluate how to best integrate F-35C 
into our CVW from a training, logistics and operational perspective. In 
particular, we are concerned about the sustainment model and costs for 
F-35C and how to manage them. While we expect the F-35C to be able to 
do all the missions of today's F/A-18 E/F, it will also bring improved 
Command, Control, Communications, Computers, Intelligence, 
Surveillance, and Reconnaissance capabilities that will make possible a 
number of new operational concepts.
    Our fiscal year 2014 program funds the fielding of new ``kill 
chains'' that are better able to defeat adversary jamming. One chain 
uses infrared sensors and weapons to provide air-to-air capability that 
operates outside the radiofrequency (RF) band and is therefore not 
susceptible to traditional RF jamming. The other kill chain uses 
networked sensors and weapons in the Navy Integrated Fire Control-
Counter Air (NIFC-CA) system. NIFC-CA uses the Cooperative Engagement 
Capability (CEC) datalink between Aegis ships and E-2D aircraft and 
Link-16 between E-2D and F/A-18 aircraft to seamlessly share threat 
information between Navy ships and aircraft. NIFC-CA enables each 
platform to engage targets on another platform's data, even if the 
shooting platform does not even see the target on its own radar due to 
jamming or extreme range. Since NIFC-CA incorporates Link-16, other 
Link-16-equipped sensors such as the Army's Joint Land Attack Cruise 
Missile Elevated Netted Sensor and Airborne Warning and Control System 
could also participate in the network. We will field the first NIFC-CA 
equipped CSG in 2015 and will pursue greater Joint and coalition 
employment of NIFC-CA as part of the Air-Sea Battle Concept.
    Enhancements to our manned aircraft are still limited by the range 
and persistence of manned platforms. Our fiscal year 2014 program 
continues testing and development of the X-47 Unmanned Combat Air 
System Demonstrator (UCAS-D) UAV, which completed flight deck trials at 
sea aboard USS Harry S Truman, its first land-based catapult launches, 
and is slated for its first at-sea catapult launch and recovery in late 
May. This spring we will finalize the requirements for the follow-on 
Unmanned Carrier Launched Airborne Strike and Surveillance (UCLASS) 
system, followed by an initial request for proposals from industry. By 
fiscal year 2020, UCLASS will enhance the reach and persistence of our 
CSGs by conducting surveillance and strike missions several hundreds of 
miles from the carrier and with two to three times the endurance of a 
manned aircraft. The UCLASS can also be equipped to take on missions 
such as tanking that today take several F/A-18 E/F out of the tactical 
missions for which they were designed.
    Electromagnetic spectrum (EMS) and cyber
    Future conflicts will be fought and won in the electromagnetic 
spectrum and cyberspace, which are converging to become one continuous 
environment. This environment is increasingly important to defeating 
threats to access, since through it we can disrupt adversary sensors, 
command and control and weapons homing. Our fiscal year 2014 budget 
submission aggressively supports Navy's efforts to exploit the EMS and 
cyberspace. In addition to E/A-18G aircraft and Next Generation Jammer, 
our fiscal year 2014 budget submission funds seven SLQ-32 Surface 
Electronic Warfare Improvement Program (SEWIP) Block 1 upgrades and 
fields new deployable decoys to defeat anti-ship missiles. The fiscal 
year 2014 program also accelerates research and development on SEWIP 
Block 3, which expands the frequency range of the SLQ-32 electronic 
warfare system to address emerging missile threats and provides 
enhanced electronic attack capabilities. To disrupt adversary 
surveillance and communications, our fiscal year 2014 budget submission 
continues procurement of improvements to Navy's Ships Signal 
Exploitation Equipment, which will host a growing number of electronic 
surveillance and attack payloads.
    Improving the defense of our computer networks depends on reducing 
our ``footprint'' or the number of different networks; reducing the 
number of different applications on our networks; improving our day-to-
day cyber ``hygiene''; and developing an effective cyber workforce. Our 
fiscal year 2014 program continues fielding the Consolidated Afloat 
Network and Enterprise Services (CANES) on ships and the Next 
Generation Network ashore to reduce the number of Navy networks and 
applications while we continue to expand the inspection of our cyber 
``hygiene'' with improving results. To expand our cyber warfare 
capabilities, our fiscal year 2014 program funds the manpower and 
training to man and train a cyber force increase of about 1,000 
personnel by fiscal year 2016 in addition to the 800 billets realigned 
in fiscal year 2013 from other specialties. These cyber specialists 
will help form 40 computer defense, attack and exploitation teams at 
U.S. Cyber Command. Navy studied the challenges associated with the EMS 
and cyber domains in 2012. We are now building on these initial 
capabilities with a comprehensive plan to improve our ability to 
exploit the EMS and cyberspace.
    Amphibious warfare
    Not all threats to access are from enemy missiles or torpedoes. 
Adversaries will exploit geography and coerce neighbors to not allow 
our forces to use their facilities. Naval forces also need the 
flexibility to come ashore in unexpected areas or from less predictable 
directions to catch the adversary off guard. Amphibious warfare 
exploits the inherent maneuverability of naval forces to provide an 
asymmetric advantage against adversary anti-access efforts. Our fiscal 
year 2014 budget submission funds construction of an 11th ``big deck'' 
amphibious assault ship (LHA), LHA-8, which will bring enhanced 
aviation capacity and a traditional well deck to expand its ability to 
support the full range of amphibious operations. Our fiscal year 2014 
program also extends the life of USS Peleliu through fiscal year 2015 
and sustains our ship to shore connector capacity through life 
extensions and recapitalization. We are complementing this investment 
with revised concepts for marines to operate at sea on a larger number 
of ships to conduct missions from peacetime security cooperation to 
wartime amphibious assault.
    While developing new Navy-Marine Corps operating concepts, we will 
address in the near-term the need for improved communications systems 
on our amphibious ships. Our fiscal year 2014 program continues to 
install the CANES on San Antonio-class Amphibious Transport Dock ships 
(LPD) and on LHAs and LHDs. This only addresses a part of our 
shortfall. We are analyzing the need for upgraded communications on our 
older amphibious ships and will correct those shortfalls in the near-
term. We are also developing changes to our command and control 
organizations to enable our amphibious forces to scale their operations 
from disaggregated Amphibious Ready Groups (ARG) up to large scale 
operations involving multiple ARGs and CSGs.
    Asia-Pacific Rebalance
    Our fiscal year 2014 program continues rebalancing our efforts 
toward the Asia-Pacific region in four main ways:

        <bullet> Increased presence: As indicated in Figures 1 and 2, 
        our fiscal year 2014 budget submission enables Navy presence in 
        the Asia-Pacific to increase by almost 20 percent between now 
        and 2020. This is in large part a result of more ships 
        operating from forward locations, including an additional SSN 
        homeported in Guam, LCS operating from Singapore and JHSV, MLP 
        and AFSB operating from ports throughout the region. It also 
        reflects additional DDG and amphibious ships rotationally 
        deployed to the Asia-Pacific after being made available by 
        forward homeporting of DDG in Rota, Spain or because they were 
        replaced by JHSV and LCS in Africa and South America.
        <bullet> Homeporting: We implemented a plan in fiscal year 2013 
        to shift 60 percent of our fleet to be homeported on the 
        Pacific by 2020. Our fiscal year 2014 program continues this 
        plan.
        <bullet> Capabilities: Our capability investments for the Asia-
        Pacific are guided by the Air-Sea Battle concept and the future 
        capabilities described above will be deployed preferentially 
        and first to the Asia-Pacific region. For example, the P-8A 
        will conduct its first deployment to the Asia-Pacific in 2014, 
        followed by the MQ-4C and F-35 later this decade. Our improved 
        aviation kill chain capabilities will go first to the CVW in 
        Japan and NIFC-CA will be first fielded to the Pacific Fleet 
        once it completes its operational testing.
        <bullet> Intellectual Capital: Our investments in education, 
        exercises, interoperability and engagement continue to focus on 
        the Asia-Pacific region. We continue to conduct more than 150 
        exercises annually in the Asia-Pacific and our plan for RIMPAC 
        14 is to continue growing in sophistication and participation, 
        including China for the first time. We established a permanent 
        squadron staff to support LCS in Singapore and manage Navy 
        security cooperation activities in the South China Sea.
                               conclusion
    Budget uncertainties or reductions may slow progress toward our 
goals, but the tenets which guide our decisions will remain firm. Along 
with our primary joint partner the U.S. Marine Corps we will remain 
America's ``force in readiness,'' prepared to promptly respond to 
crises overseas. On behalf of the approximately 613,000 Navy sailors 
and civilians, I appreciate the support that Congress has given us to 
remain the world's preeminent maritime force. I can assure Congress and 
the American people that we will be focused on warfighting first, 
operating forward and being ready.

    Chairman Levin. Admiral, thank you so much.
    General Amos.

            STATEMENT OF GEN. JAMES F. AMOS, USMC, 
                 COMMANDANT OF THE MARINE CORPS

    General Amos. Chairman Levin, Ranking Member Inhofe, and 
members of the committee: I'm pleased to appear before you 
today to outline the 2013 posture of your U.S. Marine Corps. 
I'm equally pleased to be sitting alongside my Service 
Secretary, the Honorable Ray Mabus, and my good friend and 
fellow shipmate, Admiral John Greenert, the Chief of Naval 
Operations.
    For more than 237 years, the Marine Corps has been a 
people-intense force. We have always known our greatest asset 
is the single individual marine. That has borne true yet again 
during 12 years of hard combat. Our unique role as America's 
principal crisis response force is grounded in the legendary 
character and warfighting ethos of the U.S. Marine Corps.
    Today's marines are ethical warriors, forged by challenging 
training and made wise through decades of combat. You can take 
great pride in knowing that as we gather here this morning in 
this hearing, some 30,000 marines are forward deployed around 
the world, promoting peace, protecting our Nation's interests, 
and securing its defense.
    Sergeant Major Michael Barrett, Sergeant Major of the 
Marine Corps, and I recently returned from Afghanistan and can 
attest to the progress there. Marines have given the Afghan 
people a vision of success and the possibility of a secure and 
prosperous society. I'm bullish about the positive assistance 
we are providing the people of the Helmand Province and I 
remain optimistic about their future. Afghan National Security 
Forces (ANSF) have the lead now in almost every single 
operation. Our commanders and their marines assess the ANSF as 
overmatching the Taliban in every way and in every single 
engagement.
    Speaking today as both a Service Chief and as a member of 
the Joint Chiefs of Staff, the foundation of our Nation's 
defense and the security of the global economic environment 
depends upon regional stability and international order. 
Failing to provide leadership in the collective security of the 
global order will have significant consequences for the 
American people. Worse, a lapse in American leadership and 
forward engagement will create a void in which lasting security 
threats will be left unaddressed and new security challenges 
will find room to grow.
    The reality of today's security environment reveals the 
true value of forward-deployed naval presence. Sea-based naval 
forces support a proactive security strategy, all while 
treading lightly on our allies' and our partners' sovereign 
territory. Amphibious forces are a sensible and unmistakable 
solution in preserving our national security. Naval forces, and 
the Marine Corps in particular, are our Nation's insurance 
policy. We are a hedge against an uncertain and unpredictable 
world. A balanced air-ground logistics team, we respond in 
hours and days to America's needs, not in weeks and months. 
This is our raison d'etre. It has always been that way.
    This year's baseline budget submission of $24.2 billion was 
framed by our following service-level priorities:
    First, we will continue to provide the best-trained and 
equipped Marine Corps units to Afghanistan;
    Second, we will protect the readiness of our forward-
deployed and rotational forces;
    Third, we will reset and reconstitute our operating forces 
as our marines and our equipment return from nearly 12 years of 
combat;
    Fourth, as much as is humanly possible we will modernize 
our force through investing in the individual Marine first by 
replacing aging combat systems second; and
    Fifth and last, we will keep faith with our marines, our 
sailors, and our families.
    We have remained committed to these priorities in fiscal 
year 2013 despite the loss of $775 million in O&M funding as a 
result of sequestration. To guarantee near-term readiness, we 
have traded long-term infrastructure and nondeployed unit 
training to bolster the readiness of our next-to-deploy forces. 
By doing so we are capable of meeting all current GFMAP 
requirement for the remainder of this fiscal year.
    However, we cannot continue to sustain this level of 
reduction in fiscal year 2014 without impact to our deployed 
and next-to-deploy forces. Sequestration in 2014 will mean that 
more than half of our non-forward-deployed ground and aviation 
units will have readiness ratings of C3 or below.
    Ladies and gentlemen, your Marine Corps is well aware of 
the fiscal realities confronting our Nation. During these times 
of constrained resources, the Marine Corps remains committed to 
being responsible stewards of scarce public funds.
    In closing, the success of your marines and your Marine 
Corps is directly linked to the unwavering support of Congress 
and the American people. You have my promise that during our 
economic challenges, the Marine Corps will only ask for what it 
needs, not for what it wants. We will continue to prioritize 
and make the hard decisions before we ever come before 
Congress. We will continue to offer a strategically mobile 
force, optimized for forward presence and rapid response. Your 
Marine Corps stands ready to respond whenever the Nation calls 
and whenever the President may direct.
    Once again, I thank this committee for your strong support 
over the last many years and I look forward to your questions.
    [The prepared statement of General Amos follows:]

             Prepared Statement by Gen. James F. Amos, USMC

                  I. MARINES AND THE NATION'S DEFENSE

    Our Nation has long recognized the need for a ready expeditionary 
force, one able to deter those who would do us harm, swiftly intervene 
when they act to do so, and fight to win where the security interests 
of our Nation are threatened. I am pleased to report that your marines 
remain that ready force. Because of the faithfulness and trust of the 
American people, marines are forward deployed today; on ships at sea, 
at our diplomatic posts, in key security locations, and alongside our 
allies. They are poised to respond wherever crisis looms. Thousands of 
your 21st century marines and sailors remain deployed to Afghanistan 
where they are putting relentless pressure on a disrupted enemy, while 
setting the conditions for a transition of security responsibilities to 
the Afghans themselves. Marines here at home are in the field, training 
at their bases and stations. Wherever they serve, whatever their 
mission, your marines are ready, motivated, and eager. Their 
professionalism and patriotism are undimmed by over a decade of combat. 
They carry the timeless ethos and deep pride marines have built over 
237 years of service to this Nation. You can be proud of their service.
    The need for this highly capable and ready force is more pressing 
now than ever. Today, we see a world marked by conflict, instability 
and humanitarian disaster. We see the disruptive changes that accompany 
a rapidly modernizing world; a world in which tyranny is challenged, 
power is diffused and extremism finds fertile ground in the 
disenfranchised. While America's continued prosperity and security are 
found in a stable global order; instability, extremism and conflict 
create disorder instead. In what has been described as a `new normal,' 
extremism, economic disruption, identity politics and social change 
generate new potential security threats at an accelerating pace. While 
we desire peace as a nation, threats to our citizens, allies, and 
national interests compel our response when crisis occurs.
    The unpredictable and chaotic security environment in which we find 
ourselves presents security challenges that are aligned exactly with 
the core competencies of the Marine Corps. While marines have acquitted 
themselves well during two long campaigns ashore, our fundamental ethos 
and character remains that of the Nation's Expeditionary Force in 
Readiness. The Marine Corps is purpose-built for the very world we see 
emerging around us . . . purpose-built to intervene in crisis, purpose-
built to forge partnerships in collective security, purpose-built to 
defend our Nation from the wide range of security threats it faces 
today.
    This unique role is grounded in the special nature of the 
individual marine. America's marines hold to a professional ethos 
anchored in honor, discipline, fidelity, and sacrifice. Today's marines 
are ethical warriors, forged in hard training and made wise through 
years of experience in combat. Courageous in battle and always 
faithful, marines stand as pillars of just action, compassion, and 
moral courage. This ethos defines our warfighting philosophy and is the 
timeless scale upon which we continually measure ourselves . . . it has 
always been this way.
    The Marine Corps remains first and foremost a naval service, 
operating in close partnership with the U.S. Navy. We share with them a 
storied heritage that predates the signing of our Constitution. 
Together, the two naval Services leverage the seas, not only to protect 
the vast global commons, but also to project our national power and 
influence ashore where that is required. The world's coastal regions 
are the home to an increasing majority of the human population, and are 
thus the scene of frequent conflict and natural disaster. These 
littoral regions comprise the connective tissues that connect oceanic 
trade routes with the activities of populations ashore. In an era of 
heightened sensitivities over sovereignty, and where large foreign 
military footprints are unwelcome, the seas provide maritime forces 
with a means of less obtrusive access. Maritime expeditionary forces 
can be located close enough to act when crisis threatens and hours 
matter, without imposing a burden on host nations. Expeditionary 
maritime forces can operate in the air, at sea, and on land, without 
the necessity of infrastructure ashore. They can loiter unseen over the 
horizon, and can move swiftly from one crisis region to another. 
Importantly, maritime forces also have the ability to rapidly return to 
the sea when their mission is complete.
    This flexibility and strategic agility make Marine forces a key 
tool for the Joint force in major contingencies. Operating in 
partnership with the Navy, the Marine air-ground-logistics task force 
creates the strategic asymmetries that make the joint force so 
effective on the modern battlefield. Amphibious and expeditionary 
capabilities contribute to each of the ten mission areas of the joint 
force, and are directly responsive to the security demands articulated 
in the President's Defense Strategic Guidance for the 21st Century. By 
design, marines smoothly integrate with the other elements of the joint 
force, enable our interagency partners in response to disaster or 
humanitarian crises, and provide a naturally complementary team when 
working with Special Operations Forces.
    As the Nation prepares for an uncertain future, its expeditionary 
Marine forces provide a highly-utilitarian capability, effective in a 
wide range of scenarios. Marines remain a cost-effective hedge against 
the unexpected, providing a national ``insurance policy'' against 
strategic surprise. Thanks to the support of American people, the 
Marine Corps remains responsive to its congressional mandate to be the 
``most ready when the Nation is least ready.''
2012 Operational Highlights
    This past year, marines have been actively engaged in every corner 
of the global security environment. The Marine Corps continued to meet 
operational commitments in Afghanistan, while simultaneously working 
with more than 90 allies and partners to train, to learn, and to build 
effective security institutions. In addition to forces committed to 
Operation Enduring Freedom (OEF), our Marine Expeditionary Units 
(MEUs), in partnership with Navy Amphibious Ready Groups (ARGs), 
continued to patrol regions of likely crisis. Other task-organized 
Marine Air Ground Task Forces (MAGTFs), operating from expeditionary 
locations, supported U.S. national security objectives through forward 
presence, deterrence, multinational theater security cooperation 
exercises, and building partner capacity. Marines have been active in 
every geographical combatant command, serving as a key component of the 
joint force. Even under fiscal restraint, we will continue to support 
these strategically important activities to the greatest extent 
possible.

Afghanistan
    Our number one priority remains providing the best-trained and 
best-equipped Marine units to Afghanistan. As long as we are engaged 
there, this will not change. Active and Reserve marines continue 
operations in Helmand Province, comprising approximately 7,000 of the 
16,000 Coalition personnel in Regional Command Southwest (RC-SW). By 
the end of this year, we expect our contribution will be closer to half 
its current size. Through distributed combat operations conducted with 
their Afghan counterparts, marines have continued to deny the Taliban 
safe haven. Your marines, with coalition partners from nine nations and 
the Afghan National Security Force (ANSF), have restored stability in 
one of the most critical regions of Afghanistan, creating breathing 
space for the establishment of effective tools of governance. These 
combat operations have been marked by the continued bravery and 
sacrifice of American, coalition, and Afghan servicemembers.
    One measure of our battlefield success is the continued progress in 
implementing the mechanisms of effective governance in Helmand 
Province. In 2012, citizens of Helmand conducted three successful 
elections for district community councils, with more than 5,000 
participants vying for approximately 45 council seats. There are new 
district governors in 12 of 14 districts, and new provincial 
authorities in the capital of Lashkar Gah. Within the provincial 
judicial system, the numbers of judges, prosecutors and defense 
counselors are steadily growing.
    Provincial social conditions also show marked improvement. Marines 
have helped open 86 schools, providing a new normal of daily classroom 
participation by over 121,000 children. This total includes more than 
28,000 female students, a 432 percent increase since 2005.
    Healthcare is another area of vast improvement. In 2006, only six 
health clinics served the needs of the population of Helmand province, 
an area nearly twice the size of Maryland. Six years later, 57 health 
care facilities provide basic health services to more than half of the 
population. Infrastructure improvements currently underway include a 
$130 million major electrical power system project and additional major 
road construction projects.
    Transitioning from counter-insurgency operations to security force 
assistance in Afghanistan, we are adjusting our force posture into an 
advisory role in support of the ANSF. U.S.-led missions have given way 
to U.S.-Afghan partnered missions; and now are transitioning once again 
to missions conducted entirely by Afghan forces with only advisory 
support from U.S. forces. As nearly all Districts in RC-SW have entered 
the transition process, the next year remains a delicate and extremely 
important time. Afghan local authorities, supported by the ANSF and 
their citizens, have welcomed their responsibility to lead and are 
taking it upon themselves to contribute to the transition process.
    I recently returned from visiting your marines in Helmand province, 
and I can attest to the progress there. Marines have given the people 
of Helmand a vision for a secure and prosperous society, and the 
responsibilities that come with that freedom. The marines are proud of 
what they and their predecessors have accomplished, and want to see 
this mission through to completion.
    That mission is not complete until the massive project of 
retrograding our equipment from our dispersed operating locations 
across southern Afghanistan is completed. I am happy to report to you 
the tremendous progress our marines have made in recovering and 
redeploying our equipment. Our logisticians have spearheaded a recovery 
effort that has been proactive, cost-effective, and in keeping with the 
high stewardship of taxpayer resources for which the Corps is known. 
Much of our equipment, unneeded in Afghanistan but required for home-
station training, has been successfully returned to the United States, 
where it can be refurbished and reissued. We are proud to preserve our 
reputation as the frugal force.

Global Crisis Response
    Concomitant with our Afghan commitments, marines have been vigilant 
around the globe, responding to crises ranging from civil conflict to 
natural disasters. Crisis response is a core competency of your 
expeditionary force in readiness. The Marine Corps provides six MEUs 
operating from the continental United States, and one operating from 
its bases in Japan. Teamed with Navy ARGs, these expeditionary forces 
provide a rotational forward presence around the globe. Special-purpose 
MAGTFs, capable of rapidly responding when conditions deteriorate, 
augment the MEUs from forward security locations in key regions. The 
recent deployment of our 24th MEU and the Iwo Jima ARG is instructive. 
As this Navy-Marine expeditionary team transited the Mediterranean Sea 
and operated off the horn of Africa, they participated in their normal 
syllabus of exercises and operations to include African Lion with the 
Moroccan military, Eager Lion with the Jordanian Navy and the 
International Mine Countermeasures Exercise that included more than 30 
international partners. While forward deployed participating in these 
partnership initiatives, however, they also provided an essential 
response capability for our national leadership when U.S. interests or 
citizens were threatened due to violence in Syria, Gaza, Sudan, Libya, 
Egypt, and Yemen. These forces planned against a variety of scenarios 
and were poised to swiftly intervene from the sea in each of these 
cases. Although past the end of their scheduled deployment, this Navy-
Marine team was extended on-station, and maneuvered throughout the 
region in order to ensure our Nation could respond if crisis 
necessitated intervention to protect our citizens. If even one of these 
smoldering situations had ignited into the flames of crisis, our 
marines would have been quickly on the scene, protecting human life, 
preserving our interests, and evacuating our citizens. For our 
diplomats and citizens in these troubled parts of the world, there is 
no substitute for the capabilities brought by forward deployed marines 
and their Navy partners. Their ability to quickly respond to a variety 
of missions gave decisionmakers at all levels time to develop their 
plans, created options for execution, and provided assurance that there 
was a force ready to be called-on if needed. This utility, flexibility 
and forward presence is an essential feature of our Nation's ability to 
respond to crisis at a moment's notice.
    In 2012, our diplomatic posts and embassies remained highly visible 
symbols of US presence and commitment. In the threat environment posed 
by the new normal, the protection offered by host states is often 
threatened by groups and organizations that do not respect the 
conventions of the state system. Marines are a key component in 
ensuring the security of these most vulnerable nodes of U.S. presence. 
Marine Security Guards are currently deployed to 152 embassies and 
consulates around the world. With congressional guidance, we are 
seeking to increase this number in close coordination with the State 
Department. Marine Embassy Security detachments and Fleet Anti-
terrorism Security Teams (FAST), alongside their State Department 
colleagues, also protect our diplomatic missions against a range of 
threats. During 2012, specialized FAST marines deployed to reinforce 
U.S. diplomatic missions abroad, providing physical security and force 
protection. Last year we provided each Geographic Combatant Commander 
with FAST support to aid in protecting U.S. interests worldwide. These 
teams provided immediate relief in Libya following the deadly terrorist 
attack on the consulate that claimed the lives of the Ambassador and 
three other Americans. As demonstrations spread across the Middle East 
and North Africa, marines from an additional FAST platoon deployed to 
Yemen when violent protests threatened American diplomatic personnel. 
These specially trained marines remain forward deployed at naval 
commands around the globe, poised to respond on short notice when our 
citizens and diplomats are threatened.

Humanitarian Assistance and Disaster Relief
    Over the past decade, in the Asia-Pacific Area alone, major natural 
disasters have claimed the lives of an average of 70,000 people each 
year. American leadership in response to global natural disaster is a 
clear and unambiguous demonstration of our strength, our values, and 
our good intentions. This demonstration gives credibility to our 
security promises, strengthens the value of our deterrence, and creates 
goodwill among our potential partners. Although built for war and 
maintained forward to protect our security interests, the utility of 
expeditionary Marine forces makes them a natural response option when 
disaster strikes. Forward deployed marines responded to numerous 
natural disasters over the past year, smoothly integrating as a 
contributor to multiagency and multinational relief efforts. As an 
example, just this last December, marines from the III Marine 
Expeditionary Force supported a USAID-led response by providing 
disaster relief in the aftermath of super typhoon Pablo in the 
Philippines. When hours mattered and the survival of large populations 
was at stake, marines from their forward bases in Japan quickly 
organized and executed their participation in the U.S. relief effort. 
KC-130J Hercules transport planes delivered critical food packages and 
other supplies to Manila for distribution by the Philippine military. 
This is but one example of a regular feature of the global security 
environment, and the utility of your forward-postured marines.

Defense Support to Civil Authorities
    In a similar vein, when Hurricane Sandy struck our own nation in 
October 2012, more than 300 marines and sailors from the 26th Marine 
Expeditionary Unit provided critical recovery and relief operations in 
support of Americans in need in New York City and Long Island. Marines 
were one part of a multiagency response that included ships of the USS 
Wasp ARG and other military assets. Marine aviation conducted disaster 
relief assessments and provided the necessary airlift for marines to 
deploy into the hardest-hit areas. On the ground, marines successfully 
coordinated with local leaders and residents for priority relief 
requirements, providing critical supplies and assisting with clearing 
debris and helping restore normalcy to people's lives. The swiftness of 
the Marine response, and their ability to conduct relief efforts from 
the sea made them an important contributor, without imposing additional 
strain on the roads, airfields and infrastructure supporting the 
broader relief effort.

Security Cooperation
    In 2012, marines participated in more than 200 security cooperation 
engagements, including multilateral and bilateral exercises, training, 
and military-to-military engagements. Forward-deployed MEUs 
participated in joint and coalition exercises around the globe from 
Morocco to the Philippines, strengthening our partnerships with allies 
such as Kuwait, Oman, Saudi Arabia, United Arab Emirates, Jordan, 
Thailand, Malaysia, Indonesia, Korea, and Japan.
    In Europe, marine trainers deployed to support battalions of the 
Georgian Army, strengthening a decade-long partnership with that 
nation. Because of this small investment of marines, Georgian 
battalions have been effectively fighting alongside U.S. marines in 
Afghanistan since 2008. Marines continue to provide forces and 
leadership to activities such as the Black Sea Rotational Force, an 
annual U.S. European Command initiative with the Romanians, Bulgarians, 
and other Black Sea regional allies.
    In Africa, a Special Purpose MAGTF, tailored to conduct theater 
security cooperation in support of OEF-Trans Sahara, trained 
counterterrorism forces and supported coalition forces combating al 
Qaeda affiliates across the Maghreb region. This MAGTF also trained 
with forces from the African Union Mission in Somalia (AMISOM), 
providing well-trained African peacekeeping forces that are currently 
countering the Al Shabaab terrorist group in Somalia.
    In Australia, our new rotational units continued to expand the 
training and partnership opportunities offered by one of our strongest 
and oldest allies in the Pacific. This past year, Marine Rotational 
Force Darwin conducted bilateral training with their hosts on the 
superb training ranges available in Northern Australia. The partnership 
of our Australian allies is a cornerstone of our Pacific rebalance. 
Marines are natural partners for an Australian military that continues 
to expand its expeditionary capabilities. As the Australians take 
delivery of their new big-deck amphibious ships, U.S. marines look 
forward to more combined training opportunities and reinforced crisis 
response capabilities. From Darwin, marines embarked aboard USS 
Germantown to participate in the annual Landing Force Cooperation and 
Readiness Afloat Training (LF CARAT) amphibious patrol of the Southeast 
Asian neighborhood. Through LF CARAT, marines conducted training 
exercises with our partners in Thailand, Indonesia and Malaysia.
    Maintaining a sound international economic system and a just 
international order are the foundations of our Nation's Defense 
Strategic Guidance. Your marines remain forward deployed around the 
world, projecting U.S. influence, responding to contingencies, and 
building strong international relationships. By doing so, we 
significantly enhanced the security and stability of the global commons 
and contributed to the mechanisms of collective security that underpin 
the global economy and our own return to prosperity.
           ii. fiscal year 2014 budget submission highlights
    As we move into fiscal year 2014 and beyond, our budget submission 
balances our force structure, our readiness and our capability to meet 
national security commitments. A critical measure of the effectiveness 
of our Marine Corps is its readiness. Our readiness is preserved 
through a careful balance of high quality people, well-trained units, 
modernized equipment, well-maintained installations and a force level 
sufficient to accomplish our many missions. Failure in any one of these 
pillars of readiness begins to set the conditions for an eventual 
hollowing of the force. We will do everything within our power to avoid 
this outcome, and request your continued support. The linkage between 
resources and readiness is immediate and visible, and our fiscal 
restraint has caused us to pay keen attention to our priorities. To 
guide us as we optimize investments and readiness in our force, our 
priorities are as follows:

        <bullet> We will continue to provide the best trained and 
        equipped marine units to Afghanistan
        <bullet> We will continue to protect the readiness of our 
        forward deployed rotational forces within the means available
        <bullet> We will reset and reconstitute our operating forces as 
        our marines and equipment return from more than a decade of 
        combat
        <bullet> We will modernize our force through investments in 
        human capital and by replacing aging combat systems
        <bullet> We will keep faith with our marines, our sailors, and 
        our families

    This year we are seeking $24.2 billion to fund our baseline 
operations. This funding allows the Marine Corps to continue to provide 
forward deployed and engaged forces, rapid crisis response 
capabilities, and the necessary training to ensure readiness for our 
forces to fulfill strategic demands. In addition, this funding provides 
adequate resources for us to reset our combat-worn equipment, rebalance 
to the Asia-Pacific region, and keep faith with our marines, sailors, 
and their families.
    Two years ago, the Marine Corps initiated a Force Structure Review 
(FSR) whose mission was to reshape the Marine Corps for a Post-OEF 
environment. This FSR sought to find ways to meet our national security 
responsibilities in the most resource-efficient manner possible. Our 
goal was to provide the most ready, capable, and cost-effective Marine 
Corps our Nation could afford. Last year, we reported on our approved 
multi-year plan to draw down the Corps from the end strength of 202,100 
in fiscal year 2012 to 182,100 by the end of fiscal year 2016. I am 
pleased to report that these reductions are being made in a measured 
and responsible way, maintaining our commitment to provide adequate 
transition time, effective transition assistance, and family support 
for our marines who have given so much to our Nation . . . we remain 
committed to doing so.
    We will continue to reshape the force, ever mindful of our 
operational requirements and our responsibility to keep faith with the 
marines that fulfill them. As the Nation's principal crisis response 
force, we must maintain a continuous high state of readiness in both 
our forward deployed and ready forces at home station. Maintaining an 
expeditionary force in a high state of readiness creates a hedge 
against the unexpected, giving the Nation the ability to swiftly 
contain crisis, respond to disaster, and buy time for strategic 
decision-makers. For us, a hollow force is not an option. This not only 
enables joint success, but also allows selected follow-on capabilities 
of the joint force to be maintained at more cost-effective readiness 
levels. Marines are poised to swiftly fill the temporal gap between 
crisis initiation and when the joint force is fully prepared to conduct 
operations; buying time for the deployment of the larger joint force in 
major contingencies. Readiness is a key to making this possible.
    This high state of readiness is necessary for security of our 
global interests, but financing near-term readiness has caused us to 
continually decrement our modernization and infrastructure accounts. To 
meet strategic guidance during the current period of fiscal austerity, 
the Marine Corps has funded near-term manpower and readiness accounts 
at the cost of significantly increased risk in longer-term equipment 
modernization. Over the long-term, resourcing short-term readiness by 
borrowing-forward from long-term investment resources is unsustainable, 
and will eventually degrade unit readiness to an unacceptable level. 
Full implementation of sequestration and the associated cap reductions 
in the coming years will require a top to bottom re-examination of 
priorities, missions and what it will take to continue to be the 
Nation's Expeditionary Force in Readiness.
    The current period of fiscal austerity significantly pressurizes 
each of our appropriation accounts, especially operations and 
maintenance, equipment modernization, and military personnel. Our 
challenge in balancing modernization and end-strength costs is 
especially acute, as we invest nearly 60 cents of every appropriated 
dollar on our most vital assets, our personnel. Our ground materiel 
modernization investment accounts comprise a mere 10 percent of our 
baseline budget. Because of this significant variance between personnel 
and ground modernization funding, even proportional cuts across the 
Services have disproportionate impacts on our already pressurized small 
investment programs. In the Marine Corps' ground investment portfolio, 
the top 25 programs consume 60 percent of the available budget, while 
the remaining 40 percent supports 171 small programs. These small 
programs are essential to equipping individual marines and providing 
their qualitative edge. These programs, and the small businesses they 
support, have limited flexibility to respond to reduced funding, and 
are increasingly vulnerable as resource shortfalls become more acute.
    Sustained combat operations in the harsh environments of Iraq and 
Afghanistan have also significantly degraded the readiness of our 
existing ground equipment. Our combat equipment has aged far faster 
than it would have given normal peacetime utilization rates. 
Accordingly, we are requesting funding to support the reset and 
restoration of our equipment to ensure we provide marines the most 
combat ready equipment needed to respond to future crisis and 
contingencies around the world.
    We are proud of our reputation for frugality, and will always 
remain good stewards of every defense dollar we are entrusted with. In 
a period of budget austerity, we offer a strategically mobile force 
optimized for forward presence and rapid crisis response for a notably 
small portion of the Department of Defense (DOD) budget. The Marine 
Corps will remain ready to fulfill its role as the crisis response 
force of choice for our Nation's leaders.

                     III. SHARED NAVAL INVESTMENTS

    The Department of the Navy's (Navy) investment in amphibious 
warships, maritime prepositioning ships, ship-to-shore connectors, mine 
countermeasures, and the Navy Expeditionary Combat Command (NECC) 
represent critical Navy investments that also support the Marine Corps. 
Due to current fiscal challenges, we have agreed to take risk in the 
number of amphibious ships to a fiscally constrained fleet of 33 
amphibious warships, producing 30 operationally available ships if 
readiness levels are significantly improved. Thirty operationally 
available amphibious warships allow for the employment of two Marine 
Expeditionary Brigades (MEBs), the minimum capability and capacity 
necessary to fulfill our combatant commander commitments for sea-based 
forcible entry. This represents a minimal capacity for a maritime 
nation with global interests and key dependencies on the stability of 
the global system. By way of comparison, a two brigade force was 
necessary to wrest control of the mid-size city of Fallujah from 
insurgents in 2004. Two brigades of forcible entry capacity are 
required to create access for the rest of the joint force should 
defense of our interests make it necessary. There are no acceptable 
substitutes for this capability within our national defense inventory. 
This fiscal year, the total amphibious warship inventory will rise to 
31 ships with the delivery of LPD-25. Within the next 2 years, the 
inventory will decline before rising to an average of 33 amphibious 
warships across the 30 year shipbuilding plan.
    The Navy's programs and plans to sustain fleet quantities of 
landing craft include the Landing Craft, Air Cushion (LCAC) Service 
Life Extension (SLEP), LCAC Fleet Maintenance Program (FMP), and the 
Ship-to-Shore Connector (SSC) program which will produce the 
replacement LCAC-100 class craft to maintain the non-displacement ship-
to-shore capability of the fleet. The LCU Sustainment Program is the 
single program to maintain the displacement component of the connector 
fleet. The Surface Connector (X) is Navy's planned program to replace 
and recapitalize the aging LCU. These Navy programs are important to 
marines, and are essential for our Nation's ability to project its 
influence from the sea. Additionally, we support the Navy's idea to 
extend the life of select LCAC SLEP craft for 10 years to reduce 
inventory shortfalls in the 2020s. The Marine Corps actively supports 
and depends upon these programs.
    To complement our amphibious capabilities, the Maritime 
Prepositioning Force (MPF) program is designed to rapidly deploy the 
combat equipment and logistics required to support Marine Air Ground 
Task Forces from the sea. The MPF provides the capability to rapidly 
equip MAGTF personnel, who fly in to marry up with their gear. Although 
Maritime Prepositioning Ship Squadron One (MPS Squadron One)--
homeported in Rota, Spain--was eliminated in 2012, efforts are 
currently underway to enhance MPS Squadron Two (Diego Garcia) and MPS 
Squadron Three (Guam) to ensure the two remaining squadrons are 
optimized for employment across the full range of military operations. 
The current 12-ship inventory has been re-organized into two Maritime 
Prepositioning Ship Squadrons that possess new sea basing-enabling 
capabilities, including at-sea selective offload of equipment and 
supplies, thereby providing combatant commanders a greater range and 
depth of sea-based capabilities. An additional two ships will be added 
during fiscal year 2015, for a total of 14 ships, 7 in each MPS 
Squadron. Additionally, the Marine Corps Prepositioning Program in 
Norway (MCPP-N) is being reorganized to provide combatant commanders 
with balanced MAGTF equipment set for training and operations. This 
combination of prepositioned equipment locations, afloat and ashore, 
greatly enhances our ability to swiftly establish critical combat 
capabilities in times of major crisis.

                      IV. INVESTING IN OUR MARINES

    The core of our overall readiness and combat effectiveness resides 
in the individual marine. Recruiting and retaining high quality people 
is essential to attaining a dedicated and professional Marine Corps. 
Recruiting provides the lifeblood of our Corps; the foundational step 
in making marines. To maintain a force comprised of the best and 
brightest of America's youth, the Marine Corps uses a variety of 
officer and enlisted recruiting processes that stress high mental, 
moral, and physical standards. We retain the most qualified marines 
through a competitive career designation process for officers, and a 
thorough evaluation process for enlisted marines. Both processes 
measure, analyze, and evaluate our marines performance and 
accomplishments for competitive retention.
    Our ability to attract young men and women is tied directly to our 
ability to establish and foster a dialogue with the American people. We 
do this through an aggressive outreach and advertising campaign that 
seeks to reach all sectors of American society. We continue to seek 
qualified young men and women of any race, religion, or cultural 
background who are willing to commit to our demanding standards.
    Marine Reserve Forces continue to serve as a strong force 
multiplier of the total force, and are a high-payoff investment in 
capability. Since September 11, 2001, more than 60,000 Marine 
reservists, from all across the United States, have participated in 
over 80,000 activations or mobilizations. Our Reserve marines are 
uniquely well-positioned to seamlessly integrate with the Active 
component, to reinforce our service priorities, and to provide a 
reservoir of capacity for future national emergencies. Our Reserve 
marines are well-equipped and highly-trained professionals, providing 
an essential shock absorber for the Active component in the uncertain 
global environment.
    Professional Military Education (PME) is designed to produce 
leaders who are proficient in the thinking skills necessary to face the 
complexity of conflict we expect in the future. As such, PME represents 
a key, cost-effective investment in our most valued resource--our 
marines. Marine Corps University (MCU), a part of Training and 
Education Command (TECOM), is a regionally accredited, degree-granting 
institution committed to providing world-class educational 
opportunities through both resident and distance/outreach programs. 
Marine Corps University is a globally recognized, world-class PME 
institution that is designed to advance the study and application of 
the operational art. Our commitment to improve the quality of our PME 
programs and advance the PME opportunities for our marines is 
unwavering. Beginning in fiscal year 2011, military construction 
projects totaling $180 million have helped dramatically improve MCU's 
educational facilities, to include staff noncommissioned officer 
academies across our installations as well as an expansion of our 
primary campus in Quantico. In addition, we will continue to improve 
the quality and quantity of our active duty and civilian faculty.

                      V. INVESTING IN READY UNITS

    The Marine Corps will continue to meet the requirements of 
strategic guidance while resetting and reconstituting the force in-
stride. Our reconstitution efforts will restore our core combat 
capabilities and will ensure units are ready for operations across the 
spectrum of conflict. Sustaining combat operations for more than a 
decade has required the use of a large share of the available assets 
from our home bases and stations. This has produced ready forces where 
they have mattered most, but has taken a toll on nondeployed Marine 
units. Currently, 65 percent of non-deployed units are experiencing 
degraded readiness due to portions of their equipment being 
redistributed to support units deploying forward. While necessary in 
times of crisis, this commitment of our `seed corn' to current 
contingencies degrades our ability to train and constitute ready units 
for their full range of missions over time. Unbalanced readiness across 
the force increases risk to timely response to unexpected crises or 
large-scale contingencies. We will continue to emphasize our reset and 
reconstitution efforts that cost-effectively restore combat equipment 
and return it to units for training.
    Vital to maintaining readiness is the operations and maintenance 
(O&M) funding to train in our core missions and maintain our equipment. 
MAGTF readiness continues to improve with larger scale naval exercises 
that are maximized to enhance our ability to operate from the sea. Over 
the next 2 years, we anticipate incremental increases in the core 
training readiness of units as marines return home from Afghanistan and 
have time to train to their full range of capabilities. The peacetime 
availability and readiness of amphibious warships and maritime 
prepositioning ships are critical dependencies for training readiness, 
and for supporting expeditionary, amphibious operations around the 
globe.
    The geographic combatant commanders (GCCs) continue to register an 
increased demand for crisis response and amphibious forces in order to 
meet requirements across the range of military operations. Forward 
deployments provide deterrence, reassure our allies, posture our forces 
for crisis response, and enable rapid contingency response to major 
conflict. GCCs recognize and appreciate the agility and operational 
reach of ready expeditionary capabilities. As we construct the forces 
for the next decade, we will continue to seek cost-effective ways of 
saying `yes' to joint commanders on the leading edge of our national 
security effort, while preserving skills and training necessary for 
larger contingencies. The multi-purpose nature of Marine forces makes 
them a cost-effective investment for a wide range of application.
    In addition to our traditional crisis response and expeditionary 
capabilities, the Marine Corps has reinforced its contributions to our 
Marine Special Operations Command (MARSOC) and Marine Forces Cyber 
Command. The demand for our expeditionary MARSOC forces remains high as 
these marines provide critically needed capability and capacity to 
theater special operations commands supporting both Special Operations 
Command (SOCOM) and the GCC operational requirements. Marines have 
excelled as special operators, combining the Marine ethos with the 
training and skills of the special operations community. Additionally, 
the Marine Corps continues to expand its capability and capacity for 
cyberspace operations; including offensive and defensive cyber 
capabilities. The Marine Corps Information Operations Command (MCIOC) 
supports deployed MAGTFs, integrating information operations in support 
of forward deployed forces and joint commanders.

                     VI. INVESTING IN MODERNIZATION

    Across the spectrum of conflict, our adversaries have adapted their 
tactics to counter our significant technological advantage. Even many 
`low-end' threats are now equipped with modern technologies and 
weapons. Our adversaries oppose us with tools of the information age, 
including modern communications, intelligence and cyber capabilities. 
While state-sponsored opponents continue their development of advanced 
technologies, non-state threats have likewise become increasingly 
sophisticated and lethal. An increasing number of threats now possess 
intelligence capabilities, precision munitions, and unmanned systems. 
This `rise of the rest' erodes the technological advantage we have 
enjoyed for decades, making the qualitative advantages of the modern 
Joint force even more important. This situation creates an imperative 
for maintaining our investments in new equipment, better technology, 
research, and development.
    Our desire for our marines to maintain a qualitative edge over 
their opponents applies equally to both our large-scale weapons 
programs, and the numerous small programs that equip our individual 
marines with modern capabilities. This modernization mandate is a 
fundamental pillar of a ready force, shared by all of the Services. 
With the smallest modernization budget in the Department of Defense, 
the Marine Corps continually seeks to leverage the investments of other 
Services, carefully meting-out our modernization resources to those 
investment areas which are the most fiscally prudent and those which 
promise the most operationally effective payoffs.
    Innovative warfighting approaches and can-do leadership are 
hallmarks of the Corps, but these cannot overcome the vulnerabilities 
created by our rapidly aging fleet of vehicles, systems and aircraft. 
Long-term shortfalls in modernization will have an immediate impact on 
readiness and will ultimately cost lives on the battlefield. At some 
point, sustaining fleets of severely worn vehicles becomes inefficient 
and no longer cost-effective. This inefficiency reduces available 
modernization resources from an already small account, degrading our 
ability to effectively operate in today's complex security environment. 
Our modernization investment requires a balanced approach across the 
Air-Ground-Logistics Team.

Aviation Combat Element Modernization
    On average, more than 40 percent of our aviation force is deployed 
at any time, with an additional 25 percent preparing to deploy. All 
told, this means two-thirds of Marine Aviation forces are currently 
deployed or preparing to deploy. This creates an increasing cost burden 
as we work to sustain our heavily used and rapidly aging fleet of 
aircraft.
    Accordingly, even as we invest in new aircraft as a part of our 
aviation modernization, we must take every opportunity to drive down 
operations and sustainment (O&S) costs while ensuring the continued 
safety, reliability, and operational relevance of our ``legacy'' and 
recently fielded platforms. The F/A-18A-D, originally designed for a 
6,000-hour service life, has reached an average usage of 6,800 hours. 
Ongoing upgrades and analysis have extended service life to 8,000 
hours, but this buys only limited time. A service life extension 
program to increase service life to 10,000 hours would rely heavily on 
depot capacity, rapid engineering assessment, and adequate funding. Our 
aging AV-8B fleet depends on careful stewardship of its supply chain 
and targeted capability enhancements to keep it relevant through the 
mid twenties. Similar oversight and investment in the CH-53E, UH-1N, 
and AH-1W will keep our helicopter fleet operating while the next 
generation is fielded. On a positive note, the MV-22 program has 
continued to excel in combat and crisis environments, even as it has 
reduced flight hour costs by 18 percent over the past 2 years. We 
intend to find similar savings throughout Marine aviation.
    To do so, we will use our Aviation Plan--a phased, multi-year 
approach to modernization that encompasses aircraft transitions, 
readiness, aircraft inventory shortfalls, manpower challenges, safety 
and fiscal requirements. The following programs form the backbone of 
our aviation modernization effort:
    F-35B:
    As we modernize Marine fixed-wing aviation assets for the future, 
the continued development and fielding of the short take-off and 
vertical landing (STOVL) F-35B Joint Strike Fighter remains the 
centerpiece of our effort. The capability inherent in a STOVL jet 
allows the Marine Corps to operate in harsh conditions and from remote 
locations where few airfields are available for conventional aircraft. 
It is also specifically designed to operate from amphibious ships--a 
capability that no other tactical fifth-generation aircraft possesses. 
The ability to employ a fifth-generation aircraft from 11 big-deck 
amphibious ships doubles the number of ``aircraft carriers'' from which 
the United States can employ this game-changing capability. The 
expanded flexibility of STOVL capabilities operating both at-sea and 
from austere land bases is essential, especially in the Pacific. Once 
fully fielded, the F-35B will replace three legacy aircraft--F/A-18, 
EA-6B, and AV-8B. Training continues for our F-35B pilots. In 2012, we 
flew more than 500 hours and trained 15 pilots. Just recently, in 
November 2012, we established our first operational squadron, VMFA-121, 
at MCAS Yuma. Continued funding and support from Congress for this 
program is of utmost importance for the Marine Corps as we continue 
with a plan to ``sundown'' three different legacy platforms.
    MV-22B:
    The MV-22B Osprey has performed exceedingly well for the Corps and 
the Joint Force. This revolutionary tiltrotor aircraft has changed the 
way marines operate on the battlefield, giving American and coalition 
forces a maneuver advantage and an operational reach unmatched by any 
other tactical aircraft. The MV-22B has successfully conducted multiple 
combat deployments to Iraq, six deployments with MEUs at sea, and is 
currently on its seventh deployment to Afghanistan. In the Pacific, we 
have fielded our first permanent forward-deployed Osprey squadron, VMM-
265, in Okinawa. Our squadron fielding plan continues apace as we 
replace the last of our Vietnam-era CH-46 helicopters. The MV-22B's 
proven combat capability reinforces the necessity that we continue to 
procure the full program of record quantities. The record of 
performance and safety this aircraft brings in support of marines and 
the joint force on today's battlefields has more than proven its value 
to the Nation.
    CH-53K:
    The CH-53K is a new-build heavy lift helicopter that improves on 
the legacy CH-53E design to increase operational capability, 
reliability, maintainability, and survivability; while reducing cost. 
The CH-53K will transport 27,000 pounds of external cargo under high 
altitude/hot conditions out to 110 nautical miles, nearly three times 
the lift capacity of the legacy CH-53E. It is the only naval rotorcraft 
able to lift all Marine Corps air-transportable equipment from 
amphibious warships and the Maritime Prepositioned Force. Our Force 
Structure Review has validated the need for a CH-53K program of record 
of eight CH-53K squadrons.
    UH-1/AH-1:
    The H-1 program, composed of the UH-1Y utility and the AH-1Z attack 
helicopters, is a single acquisition program that leverages 85 percent 
commonality of major components between the two platforms. This 
commonality enhances deployability and maintainability while reducing 
training requirements and logistical footprints. Both aircraft are in 
full rate production. The H-1 procurement objective is 160 UH-1Ys and 
189 AH-1Zs for a total of 349 aircraft. Currently, 181 H-1 aircraft are 
on contract, with 72 UH-1Ys and 30 AH-1Zs delivered to date. The UH-1Y 
has supported sustained combat operations in OEF since November 2009. 
The AH-1Z completed its first deployment alongside the UH-1Y in June 
2012 as part of the 11th MEU. The AH-1Z performed extremely well on its 
initial MEU deployment. These aircraft had high mission capable (MC) 
readiness rates while deployed (89.9 percent MC for AH-1Z, 94.4 percent 
MC for UH-1Y). All subsequent West Coast MEUs are sourced with UH-1Y 
and AH-1Z aircraft. The continued procurement and rapid transition to 
these two platforms from legacy UH-1N and AH-1W assets in our rotary-
wing squadrons remains a priority.
    KC-130J:
    The new KC-130J Hercules has been fielded throughout our Active 
component, bringing increased capability, performance and survivability 
with lower operating and sustainment costs to the Marine Air Ground 
Task Force. Using the Harvest HAWK weapon mission kit, the KC-130J is 
providing extended endurance Close Air Support to our marines in harm's 
way. Currently, we have procured 48 KC-130Js of the stated program of 
record requirement totaling 79 aircraft. Continued procurement of the 
program of record will allow us to fully integrate our active and 
Reserve Force with this unique, multi-mission assault support platform.
    Unmanned Aerial Systems (UAS):
    Marine Corps operations rely heavily on a layer of small UAS 
systems that complement the larger systems provided by the joint force. 
These smaller systems provide direct support for forces operating from 
sea-based platforms, and enable critical low-altitude and immediate 
responsiveness that enable small units on the ground. The RQ-7B Shadow 
unmanned aircraft system has provided excellent intelligence, 
surveillance, reconnaissance, and battlefield management capabilities 
in Afghanistan. The RQ-21A Small Tactical Unmanned Aircraft System is 
uniquely capable of operating from ship or shore, is transportable by 
High Mobility Multi-Purpose Wheeled Vehicles (HMMWV), and will be an 
integral part of the future MAGTF. We remain committed to these two 
critical programs.
    Ground/Air Task Oriented Radar (G/ATOR):
    The TPS-80 G/ATOR system is the three dimensional short/medium 
range radar designed to detect low observable/low radar cross section 
targets such as cruise missiles, UAS, aircraft, rockets, mortars, and 
artillery shells. G/ATOR replaces five legacy radar systems and 
supports air surveillance, fire finding, and air traffic control 
missions. G/ATOR provides fire quality data that supports the 
integrated fire control concept and the extension of defensive and 
strike capabilities from the sea to landward in the littorals.

Ground Combat Element Modernization
    Age and operational tempo have taken a toll on our Ground Combat 
Element's (GCE) equipment, creating a requirement to recapitalize and 
modernize key components. Essential to modernizing the GCE is a 
comprehensive technologically advanced vehicle portfolio. Two key 
initiatives to modernize the GCE are the Amphibious Combat Vehicle 
(ACV) and the Joint Light Tactical Vehicle (JLTV). These systems, 
coupled with the recapitalization of our family of Light Armored 
Vehicles (LAV), a refurbishment of a portion of our legacy HMMWV fleet, 
and improvements in advanced simulations systems, are critical to 
sustaining individual and unit combat readiness while ensuring core 
capabilities of the GCE.
    Amphibious operations are a core mission of the Marine Corps. 
Amphibious operations is a category which includes a broad range of 
missions including reinforcing diplomatic facilities from sea-based 
platforms, conducting strikes and raids against terrorism targets, 
delivering aid in the case of humanitarian disaster, and conducting 
forcible entry where our forces are not invited. The future security 
environment dictates that we maintain a robust capability to operate 
from the sea, placing special demands on our equipment. When operating 
in a maritime environment, Marine systems are exposed to the effects of 
salt water and extreme weather. Our operational concepts depend on 
rapid maneuver in littoral waters by which we avoid threat strengths 
and exploit weaknesses. Thus, our combat systems must bridge the gap 
between sea and land. Our tactics exploit swift action by marines 
ashore, mandating a seamless transition from maneuver at sea to 
maneuver on land. In every operating environment we must provide a 
modicum of protection for our marines while preserving all-terrain 
mobility and minimizing weight. The specialized craft utilized by 
marines support the unique missions of the sea-based crisis response 
force, and are essential for swift maneuver and forcible entry across a 
range of environments.
    Amphibious Combat Vehicle:
    Many of our systems show the signs of age, but none more than the 
current Amphibious Assault Vehicle (AAV) which has been in Service 
since 1972. The legacy AAV has served the Corps well for over 40 years, 
but faces multiple component obsolescence issues that affect readiness, 
sustainment costs, safety, and our ability to respond from the sea. The 
ACV is needed to replace this aging fleet. To meet the demands of both 
amphibious crisis response and forcible entry, the ACV program will 
develop and field an advanced generation, fully amphibious, armored 
personnel carrier to Marine Corps expeditionary forces. The ACV will 
provide the ability to maneuver from the sea and to conduct amphibious 
operations and combat operations ashore by providing the capability to 
self-deploy from amphibious ships and to seamlessly transition between 
sea and land domains. The ACV will enable the efficient, tactical 
mobility of infantry combat forces from ships to inland objectives 
across beach landing zones under uncertain, non-permissive, or hostile 
conditions in order to facilitate the rapid buildup of combat power 
ashore. Bridging this sea-land gap with surface vehicles is a necessary 
complement to the maneuver capabilities brought by our MV-22 aircraft. 
Our objective in the ACV acquisition program is to provide a sufficient 
quantity of vehicles to ensure we can meet the requirement of the 
surface assault force for forcible entry and sustain MAGTF operations.
    During the interval in which we design, build and field the ACV, we 
must ensure the continued safety, reliability, and operational 
capability of our ``legacy'' AAV. The current AAV platform faces 
significant maintenance challenges and obsolescence issues. 
Accordingly, AAV sustainment efforts, to include the AAV Upgrade 
program, remain a top Marine Corps recapitalization effort priority 
until fielding of the ACV.
    Joint Light Tactical Vehicle:
    The JLTV will provide the Marine Corps with modern expeditionary 
light combat and tactical mobility while increasing the protection 
afforded our marines in the light utility vehicle fleet. Working 
closely with the Army as the lead Service, the Marine Corps is a 
partner in developing this key system for the tactical-wheeled vehicle 
fleet of the Joint Force. A relatively light system is necessary to 
retain our expeditionary capabilities aboard amphibious warships, and 
to support transport by rotary wing aircraft. The program also seeks to 
provide a level of protection that is an improvement over the HMMWV. As 
a reflection of a constrained fiscal environment, our initial planned 
purchase is 5,500 vehicles, only enough to meet critical needs in the 
most dangerous combat mission profiles of the light vehicle fleet. The 
JLTV development will benefit from early user and life cycle cost 
analysis to ensure its long-term cost-effectiveness. The Marine Corps 
also seeks funding to refurbish the balance of the HMMWV fleet that 
will be retained. This is a cost-effective strategy to use these older 
vehicles in mission profiles where a lack of the advanced capabilities 
of the JLTV can be mitigated.
    Light Armored Vehicle:
    The family of LAVs enables combined arms reconnaissance and 
security missions in support of the GCE. This family of vehicles has 
proven itself over more than 2 decades of combat, and is an essential 
element of the combat power of the MAGTF. Heavily utilized in crisis 
response, conventional combat, irregular environments, and stability 
operations, this fleet now requires robust recapitalization and 
modernization in order to sustain its capabilities. Additionally, 
obsolescence issues with several critical components threaten the 
sustainability of the LAVs through the expected end of service. Funding 
is requested to maintain the operational availability of these 
platforms and provide upgrades to adapt to the current and anticipated 
operating environments.
    Ground Training Simulation Systems:
    Modernization efforts in ground training simulation systems have 
capitalized on advancements in technology developed over a decade of 
preparing marines for combat deployments in Iraq and Afghanistan. 
Leveraging our success with these programs, we will further enhance 
combat training to maintain our readiness for the current and future 
security environments. These critical simulation systems develop combat 
unit proficiency in core skills such as command and control, leadership 
decisionmaking, and combined arms coordination. They develop 
proficiency in individual skills through combat convoy vehicle operator 
training, advanced gunnery training, and individual marksmanship. These 
systems complement necessary live ammunition and range training, but 
allow the fundamentals of these capabilities to be practiced in a much 
more cost-effective manner. Training simulation systems conserve 
training and maintenance funds, reduce ammunition expenditures, and 
mitigate limited availability of training ranges.
    Joint Nonlethal Weapons Program:
    As DOD's Executive Agent for the Joint Nonlethal Weapons Program, 
the Marine Corps also continues its efforts, in concert with the other 
Services, to advance nonlethal technologies, and to provide 
capabilities in support of operational commanders and our allies to 
minimize collateral damage and unnecessary loss of life. These 
capabilities are becoming increasingly relevant in the security 
environment of the new normal of instability, non-state actors, and a 
desire to minimize collateral damage.

Logistics Combat Element Modernization
    Our logistics modernization efforts include the Global Combat 
Support System-Marine Corps (GCSS-MC) as the Information Technology 
enabler for logistics supply chain management throughout the Marine 
Corps. When fully developed, GCSS-MC will provide an unprecedented 
capability for inventory accountability, providing accurate logistics 
data to commanders and logisticians in near real-time at any location 
in the world.
    The past decade's operational tempo and the continuing evolution of 
warfare have also emphasized the importance of engineer equipment 
modernization. Explosive Ordnance Disposal (EOD) capability has become 
increasingly important with the rise of the improvised explosive device 
as the enemy's weapon of choice. Development of the Advanced EOD 
Robotics System and Route Reconnaissance and Clearance Sets have proven 
themselves in combat, saving lives and preempting casualties.

Energy Modernization
    Expeditionary Energy is a multi-year initiative integrated with our 
approach to amphibious and expeditionary operations. Over the last 
decade of combat, marines have increased their lethality and 
situational awareness, but at the expense of increased requirements for 
fuel and batteries. These dependencies increase the logistics footprint 
and combat weight of our force, impairing our expeditionary 
responsiveness. The Marine Corps takes seriously the necessity to 
increase energy efficiency, deploy renewable energy technology where it 
makes sense, and train marines to employ resources more efficiently. We 
have made tremendous strides in weaning ourselves from external energy 
dependencies, and we remain committed to continue our investments in 
expeditionary energy. For expeditionary marines operating in austere 
environments, these energy efficiency measures represent a significant 
increase in combat effectiveness.

           VII. INVESTING IN INSTALLATIONS AND INFRASTRUCTURE

Infrastructure Sustainment
    Marine Corps Installations are a foundational support element to 
our Air-Ground-Logistics teams. Our bases and stations serve as launch 
platforms for our combat deployments, and are host to the realistic 
training and facilities that make our marines successful on the 
battlefield. Our installations also provide for the safety and support 
of our military families, our combat equipment, and our civilian 
workforce. The quality of life for our marines, sailors, and families 
is measurably impacted by the condition of our facilities. Our 
installation commanders are required to be good stewards of their 
properties, to respect natural and cultural resources and to operate in 
a manner that sustains the environment and their mission. We will 
continue to ensure that Marine Corps facilities are well planned, 
built, and maintained, and that they cost-effectively support Marine 
Corps readiness. To maintain our physical infrastructure and the 
complementary ability to train and deploy highly ready forces, we must 
adequately resource the sustainment and readiness of our bases and 
stations.
    In fiscal year 2014, the Marine Corps Facilities Investment 
strategy ensures that our infrastructure can adequately support Marine 
Corps' needs. The proposed fiscal year 2014 budget provides $653 
million for facilities sustainment of Marine Corps facilities and 
infrastructure, maintaining funding at 90 percent of the sustainment 
model requirement. Our budget request adequately supports environmental 
compliance, family housing improvements and the replacement of 
inadequate and obsolete facilities across our installations. The fiscal 
year 2014 budget request provides proper stewardship of Marine Corps 
infrastructure. Sequestration necessitates significant cuts in 
facilities investments and subsequent degradation in infrastructure 
conditions and readiness.
    With over $800 million requested in fiscal year 2014 for required 
Military Construction projects, we are prioritizing funding to support 
new mission and new platform requirements, force structure 
repositioning, replacement of aging infrastructure, and support to 
enduring missions. Our efforts to improve force protection, safety, and 
physical security requirements are continuous.
    The fiscal year 2014 budget provides $69 million for military 
construction and $31 million for operations and maintenance funding to 
continue improvements in our installations energy posture. This funding 
will target energy efficiency goals established by the Energy 
Independence and Security Act of 2007 aimed at reducing consumption by 
30 percent from a 2003 baseline. Additional efficiencies will be gained 
by decentralizing older, inefficient steam heating plants and by 
improving our energy management and control systems. Overall, our 
planned investments are intended to increase energy security on our 
installations while reducing the cost of purchased utilities. Lean and 
efficient basing infrastructure allows us to put every precious dollar 
to use making marines and deploying them where they are needed most.
    To enable essential changes in training requirements as well as new 
weapon systems, we are seeking Congressional support to expand the 
Combat Center at Twentynine Palms, CA, extend the existing withdrawal 
of land for the Chocolate Mountain Aerial Gunnery Range, CA, as well as 
purchase private property to expand the Townsend Bombing Range in 
Georgia. At Twentynine Palms, we are requesting the withdrawal of 
approximately 150,000 acres from the public domain as well as the 
purchase of approximately 2,500 acres of California State Land and 
10,000 acres of privately held land enabling it to support training and 
exercises for a Marine Expeditionary Brigade size force. The Marine 
Corps is also requesting to extend the existing withdrawal of land for 
the Chocolate Mountain Aerial Gunnery Range in southern California. The 
current withdrawal expires in 2014 and requires renewal by Congress so 
that this vital range can continue its use for air and ground training. 
Finally, the current 5,000 acre Townsend Bombing Range, adjacent to 
Savannah, is not large enough to meet the required safety or space 
requirements for use of precision guided munitions. We are seeking to 
purchase privately held land to increase this facility as well, 
allowing us to drop a wider range of ordnance in training. This is a 
critically important Marine Corps aviation training requirement that 
would be safely supported with the proposed expansion by approximately 
28,000 acres. For decades, Townsend Range has been used by the joint 
aviation community as a centrally located and preferred Air-to-Ground 
training facility on the east coast; the fielding of the F-35 Joint 
Strike Fighter to all three Services makes the expansion of Townsend 
Range even more critical.

                     VIII. ORIENTING TO THE FUTURE

Rebalancing Toward the Pacific
    As the world's leading democracy and largest economy, the United 
States is a global nation with economic and security interests 
inextricably linked to the Asia-Pacific. The arc extending from the 
chain of our own Alaskan islands down the Asian continent follows a 
vast littoral and archipelagic swath that is home to close allies, 
emerging partners and potential threats. It contains vast resources, 
vibrant populations, and great cities. It continues through the narrow 
straits of Southeast Asia and extends all the way into the Indian 
Ocean. Our return to prosperity as a nation (and thus achieve our 
lasting security) depends on the restoration of global growth. No 
engine of growth is more powerful than the Asia-Pacific. Rebalancing to 
the Pacific theater is a central element of strategy. Geographically, 
culturally, economically, even by name, the ``Pacific'' is a maritime 
theater. The vast stretches of ocean, the thousands of small islands 
that dot its map, and the vast inland waterways that shape its 
demography are all artifacts of this maritime character, and have 
implications for the types of forces required to achieve our security 
there. The tyranny of distance underscores the value of forward 
deployed maritime forces in the Pacific region. The Navy-Marine Corps 
team is uniquely suited to operate in this vast blue water and littoral 
environment. Marines have a long legacy of serving in the Pacific; it 
is where the Marine Corps 'came of age.' We are proud of our heritage 
in that theater through a world war and the many smaller conflicts, 
crises and contingencies that have followed. Strategic imperatives 
demand that our Nation continues to build on the presence of sailors 
and marines who operate daily throughout this region.
    As we draw down our presence in Afghanistan we will reset in 
stride, resuming our Unit Deployment Program in Okinawa and re-
establishing our force posture in the Pacific. The Marine Corps has 
developed a comprehensive campaign for a future force lay down in the 
Pacific that retains the ability to contribute a stabilizing presence, 
continues to contribute to deterrence and regional stability in 
Northeast Asia, revitalizes our traditional partnerships while 
developing new ones, and postures forces to take advantage of key 
partnership opportunities in Southeast Asia. Our desired end state 
through this rebalance is four geographically distributed and 
operationally resilient Marine Air Ground Task Forces (MAGTFs) trained 
and prepared to conduct combined arms and amphibious operations in 
support of the global requirements of the joint force.
    In the Pacific, forward presence is a key necessity for timely 
response to crisis. Where hours matter, a response measured in weeks or 
months wanes in relevance. Expeditionary Marine forces operating in the 
Western Pacific can trim 2 weeks off the response time of units coming 
from the continental United States. Forward naval presence and training 
with our Pacific allies demonstrates our commitment to the region, and 
builds trust that cannot be surged during times of crisis.

Innovation and Experimentation
    The Marine Corps has remained at the forefront of innovation, 
especially during the last decade. Through experimentation and 
realistic training, the Marine Corps has adapted to the challenges of 
the modern operating environment, and has developed new concepts, 
tactics, techniques and procedures to ensure marines are prepared to 
meet the challenges of the future. Two key components of our training 
innovation are our Marine Corps' Tactics and Operations Group (MCTOG) 
and our Marine Corps Logistics Operations Group (MCLOG). These 
organizations represent the collective wisdom of years of combat 
operations rapidly turned directly into our training curricula. 
Combined with the Marine Aviation Weapons and Tactics Squadron One 
(MAWTS-1), we are implementing a professionalization syllabus and 
certification process for our mid-level combat leaders.
    Through a rigorous process of wargaming, technological assessment, 
and experimentation, the Marine Corps Warfighting Laboratory (MCWL), 
works closely with the Office of Naval Research and other partners to 
produce material and non-material solutions for our operating forces. 
This mix of combat veterans, technical experts and forward thinkers 
conducts timely innovation to meet current needs and emerging threats. 
We intend to build on this ability to adapt and innovate through MCWL 
and the Marine Corps University. Leveraging the human capital 
represented in a combat-proven generation of marines is essential for 
our future force.

                         LARGE SCALE EXERCISES

    Nations around the world, many of whom are our allies, are 
purchasing and constructing amphibious capabilities at an increasing 
rate. Even as total fleet numbers decline, the number and tonnage of 
amphibious fleets is on the rise, and the growth of expeditionary 
maritime capabilities is similarly resurgent. Our allies and partners, 
especially in the Pacific, continue to improve amphibious arsenals and 
realize the importance for this capability, as do our competitors and 
potential adversaries. The forward deployed Navy-Marine Corps 
amphibious team continues to be a significant power projection 
capability and a compelling model for other countries to emulate. Our 
ability to train with and mentor this global force development is 
essential.
    In 2012, the Navy-Marine team conducted a number of large-scale 
amphibious exercises to revitalize, refine, and strengthen our core 
amphibious competencies. Exercises such as Bold Alligator on the U.S. 
East Coast, Cobra Gold in Thailand, and Ssang Yong in South Korea each 
draw significant international participation. Our allies have seen the 
broad utility of expeditionary forces in achieving national security 
objectives, and are investing to achieve these capabilities themselves. 
These large exercise series, and others like them, leverage the 
explosive growth of amphibious capabilities among our allies and 
partners. They contribute not only to the training readiness of our own 
forces, but also achieve combined training objectives with our allies. 
They demonstrate our collective ability to provide the mechanisms of 
collective security in the global commons. The investment of operating 
funds to conduct these large-scale exercises not only trains forces, 
but also builds strong security relationships.

       IX. KEEPING FAITH WITH OUR MARINES, SAILORS, AND FAMILIES

Family Readiness
    The Marine Corps remains acutely aware of the critical relationship 
between quality of life and Marine Corps combat readiness. The strong 
support of Congress in providing quality of life funding continues to 
yield needed enhancements in family support programs. Our Marine Corps 
Family Team Building (MCFTB) trainers and Family Readiness Officers 
support the Unit, Personal and Family Readiness Program to ensure 
marines and their families maintain a high level of family readiness. 
Over the last year, we have made significant strides in making our 
entire syllabus of MCFTB training available online via computer based 
training modules. As of 1 March, families are now able to register for 
an account and utilize computer based training on our Marine-Net 
training website. With over 227,000 subscribers and growing, our online 
family readiness website, e-Marine, continues to be a valuable and 
innovative tool to securely and safely share family readiness 
information while improving lines of communication within individual 
commands. Marines, family members, and unit commanders can access 
documents, view photos and videos, participate in forums, and receive 
important information about their marine's unit from anywhere in the 
world.

Wounded Warriors
    The Marine Corps' Wounded Warrior Regiment (WWR) is a fundamental 
component of the Marine Corps' pledge to ``keep faith'' with those who 
have served. The WWR supports marines wounded in combat, those who fall 
severely ill, and those injured in the line of duty. The WWR 
administers the Marine Corps' Recovery Care Coordination Program that 
ensures medical and non-medical needs fully integrate with programs 
such as the Warrior Athlete Reconditioning Program. Facilities such as 
our new Warrior Hope and Care Centers provide necessary specialized 
facilities that allow us to support our wounded warriors and their 
families.
    Key to this care is ensuring marines execute recovery plans that 
enable their successful return to duty or reintegration to their 
civilian communities. Around the country, we have established District 
Injured Support Cell Coordinators who assist marines transitioning from 
active duty to veteran status. Our WWR Medical Staff provides medical 
subject matter expertise, advocacy, and liaison to the medical 
community. The Sergeant Merlin German Wounded Warrior Call Center 
conducts an average of 7,000 outreach calls per month and receives 
calls for assistance 24 hours a day from both active duty and veteran 
marines. Our contact centers conduct outreach to marines who remain 
with their parent command ensuring their needs are met. Depending upon 
the individual marine's requirements, these programs and services are 
coordinated for optimal care delivery, proving that Wounded Warrior 
care is not a process, but a persistent relationship between the Marine 
Corps and our marines.
    One of my greatest concerns is the long-term care and support for 
our wounded veterans. Many of our young men and women have sustained 
injuries that will necessitate support for the remainder of their 
lives. Given the youthfulness of this wounded population, this 
represents a debt to our Nation's warriors that will have to be paid 
for several decades. Our Wounded Warrior capabilities are an enduring 
measure of our commitment to keep faith with our young men and women, 
and we expect this capability will continue well beyond our return from 
Afghanistan.

Resiliency
    We continue to invest, treat and care for our marines with Post-
Traumatic Stress (PTS) and Traumatic Brain Injury (TBI). We are working 
to ensure that marines understand that, ``it's OK to not be OK.'' Our 
efforts will continue to ensure that marines seek help and are provided 
effective care when they need it. We stress that all marines and 
lsailors have a responsibility to look out for one another and to 
assist anyone who might be struggling.
    PTS and TBI are invisible enemies we cannot ignore. We are 
thoroughly screening all marines and sailors prior to deployment, 
enhancing the delivery of care in theater and identifying and testing 
all at-risk personnel as they return from deployment. Enhanced 
resilience, achieved through training and improved physical, spiritual 
and psychological fitness, can decrease post-traumatic stress, decrease 
incidents of undesirable and destructive behaviors, and lead to greater 
likelihood for future good health. Most servicemembers who seek and 
receive psychological health support improve, and are eligible to 
remain on active duty.
    Since January 2010, we have been building Operational Stress 
Control and Readiness (OSCAR) teams at the unit level. These teams 
consist of selected unit marines, leaders, medical and religious 
personnel, and mental health professionals who work together to provide 
a network of support. This model empowers marines with leadership 
skills to break stigma and act as sensors for the commander by noticing 
small changes in behavior and taking action early. OSCAR teams 
strengthen marines, mitigate stress, identify those at risk and treat 
those who need support, with the goal of swiftly re-integrating marines 
back into the force. This investment comes at a cost, and places 
increased demand on an already stressed Navy medical capacity.
    In fiscal year 2013, we will continue to advance our Marine Total 
Fitness concept to develop marines of exemplary physical, 
psychological, spiritual, and social character. Marine Total Fitness 
infuses fitness-based information and concepts into all aspects of a 
marine's training and readiness and prepares marines to successfully 
operate in and respond to the rigors, demands, and stressors of both 
combat and garrison.

Sexual Assault Prevention and Response
    Sexual assault is a crime. Like other serious crimes, it is 
incompatible with our core values, negatively impacts individual 
marines, and directly undermines readiness, unit cohesion, and morale. 
Protecting our marines and eradicating sexual assault from our ranks 
are top priorities for me and our Corps. I believe we are making real 
and tangible progress. Over the last year, we have taken deliberate and 
substantive steps toward dramatic changes in our sexual assault 
prevention and response capabilities. The focus of effort has been on 
changing our culture--specifically, changing the behavior of those who 
might commit sexual assault and the actions of those who respond to it. 
We believe that all marines are part of the solution, from small unit 
leaders to peer and bystander intervention, to legal professionals, to 
unit commanders. In April 2012, I handpicked a two-star general to lead 
an Operational Planning Team (OPT) comprised of our Corps' most 
credible officers and senior enlisted marines. They were tasked with 
defining the sexual assault problem in our Corps and providing me 
recommendations on how we could eliminate it from within our ranks. 
This study led to our Sexual Assault Prevention and Response (SAPR) 
Campaign Plan. While recognizing that there is no single solution to 
preventing and responding to sexual assault, this plan makes every 
marine accountable in our fight against it. We reconfigured the entire 
SAPR program at the Headquarters level, assigning oversight to a 
General Officer and a newly established team of experts. In an 
unprecedented move, we pulled one of our very best colonels from his 
operational command to implement the initiatives outlined in the 
Campaign Plan. We brought back all of our general officers to Quantico 
in July for 2 days of training and cross-leveling of their 
responsibilities in turning this crime around. On the heels of that 
effort, the Sergeant Major of the Marine Corps brought all of his top 
senior enlisted leaders back to DC in August to deliver the same 
message.
    The campaign's first phase consisted of 42 tasks, including new 
large-scale training initiatives at all levels. It was comprised of 
Command Team Training for senior leaders, bystander intervention 
training for noncommissioned officers, and all hands training for every 
single marine. In these training sessions, we employed ethical decision 
games and interactive discussions to engage all marines in this 
difficult topic. To achieve long-term cultural change, this training 
will be sustained through enhancing the training curricula in all of 
our professional schools, customizing the training based on the rank 
and experience of the individual marine.
    Protection of the victims of sexual assault, even while cases make 
their way through the legal system, is an immediate and enduring 
requirement which we take very seriously. Regarding response to sexual 
assault, we professionalized our victim advocate community by revising 
our advocacy training and implementing credentialing requirements for 
SAPR personnel. Additionally, we have added 47 full-time Sexual Assault 
Response Coordinator and Victim Advocate billets for fiscal year 2013. 
We have completely reorganized our legal community to improve our 
ability to successfully prosecute these complex cases after they have 
been investigated. The centerpiece of this new model is the Regional 
Complex Trial Team, which ensures we have the right prosecutor on the 
right case. Our complex trial teams are staffed with experienced 
military prosecutors and augmented by civilian--Highly Qualified 
Experts--giving us a wealth of experience to prosecute complex sexual 
assault cases. These teams will not only be able to prosecute ``special 
victims'' type cases, but all types of complex cases.
    This effort complements our Campaign Plan's central Phase II 
initiative: the establishment of Sexual Assault Response Teams (SARTs). 
SARTs will be established regionally to prevent a fragmented approach 
to victim care. This requires continued collaboration with various 
entities, such as the US Navy Bureau of Medicine and Surgery and Naval 
Criminal Investigative Service (NCIS), adding to the enhanced training 
and surge capability that NCIS has already implemented to expedite 
assault investigations.
    Perhaps counter-intuitively, one potential manifestation of our 
intensified institutional response will likely be an increase in 
unrestricted reported cases. If this represents an increase in the 
bonds of trust between our junior marines and their chain of command, I 
will consider that a successful step on the path to eliminating this 
issue in the Marine Corps. Eliminating sexual assault in our ranks is 
our ultimate goal, and I will stay personally and actively engaged in 
leading this campaign.

Suicide Prevention
    During 2012, the Marine Corps experienced a rise in suicides and 
suicide attempts after 2 encouraging years of declining numbers. During 
calendar year 2010 and 2011, 37 and 32 marines, respectively, died by 
suicide. For calendar year 2012, the number of suicides increased to 
48. We remain committed to preventing this great tragedy. Suicide is an 
issue that belies simple or quick solutions; it is an important issue 
that demands our continual attention. We have learned that the most 
effective methodology for us to prevent suicides is vigilant and 
persistently engaged leadership at every level. Proactive leaders are 
alert to those at risk for suicide and take action to help marines 
optimize their physical, psychological, social and spiritual aspects of 
their lives. To counter suicide, affirming and restoring the 
indomitable spirit of marines is an enduring mission.
    Our primary challenge remains teaching marines to engage our many 
services early, before problems worsen to the point where they 
contemplate or attempt suicide. Last year we signed the first formal 
policy and procedural guidance for the Marine Corps Suicide Prevention 
Program. Never Leave a Marine Behind suicide prevention training 
focuses on how marines can help one another, and how they can seek help 
early before a situation becomes a crisis. In 2012, we also expanded 
our successful--DSTRESS--Line worldwide, which provides anonymous 24/7 
counseling services to any marine, sailor, or family member. 
Additionally, we have trained and implemented Suicide Prevention 
Program Officers for every battalion and squadron. We will continue 
focusing our efforts on preserving the health of our greatest and most 
cherished resource, our marines, sailors, and their families.

Civilian Marine Workforce
    Civilian marines exemplify our core values. They embrace esprit de 
corps, teamwork, and pride in belonging to our Nation's Corps of 
Marines. The 95 percent of our civilian workforce that is employed 
outside the Headquarters element in the Pentagon, are located at our 
installations, bases, and stations; they are the Guards at our gates, 
the clerks who pay our bills, the therapists who treat our wounded, the 
experts who repair our equipment, our information technology support, 
and the teachers who instruct our children. Sixty-eight percent of our 
civilian marines are veterans who have chosen to continue to serve our 
Nation. Of those, a full 13 percent have a certified disability. Still, 
our civilian workforce is very small in comparison with similar 
organizations. The Marine Corps maintains a very frugal ratio of one 
civilian to every 10 Active Duty marines. Our civilian non-appropriated 
funded workforce continues to steadfastly provide vital support to our 
marines, Reserve marines, their families, and our wounded, ill, and 
injured. Since 2009, the Marine Corps has taken proactive measures to 
prioritize civilian requirements and realign resources to retain an 
affordable and efficient workforce directly linked to our mission. In 
our effort to restrain growth, we implemented a hiring freeze from 
December 2010 through December 2011 to achieve our appropriated funded 
civilian end strength commensurate with a goal of 17,501. We started 
into this era of budgetary uncertainty not fully recovered from the 
hiring freeze and we have no chance of recovering in fiscal year 2013. 
In pursuit of the leanest possible institution, the Marine Corps' 2013 
budget restrains growth in our civilian marine workforce; our 2014 and 
beyond budget plans are based on a stabilized workforce. Further 
civilian reductions will severely jeopardize our ability to meet 
mission requirements.

Women in Service Restriction Review
    The Marine Corps continues its efforts to review the laws, 
policies, and regulations that restrict the service of female marines. 
As our policies evolve, we must ensure the effectiveness of our combat 
units, the long-term physical well-being of all of our marines, and the 
broadest possible career opportunities for all. To that end, I 
initiated a measured, deliberate, and responsible research effort to 
provide the meaningful data necessary to make fact-based 
recommendations to the senior leadership of the Department of Defense 
and Congress. Our research efforts will continue as we implement the 24 
January 2013 Secretary of Defense decision to rescind the 1994 Direct 
Ground Combat Definition and Assignment Rule. Additionally, in order 
for us to collect performance data in our most demanding and rigorous 
ground combat skills training environment, female graduates of our 
Basic Officer Course at The Basic School are afforded the opportunity 
to volunteer to attend our Infantry Officers Course. That effort is 
ongoing and will continue into 2016 as we collect the necessary data.
    During this past year, we requested and received approval for an 
exception to the 1994 Ground Combat Exclusion Rule. Under this 
Exception to Policy (ETP), the Marine Corps opened 371 Marine and 60 
Navy positions in combat arms units previously closed to females. These 
19 previously closed operational units include artillery, tanks, 
assault amphibians, combat engineers, and low altitude air defense 
communities. The assessments and feedback from these units to date has 
been encouraging.
    Following the Secretary of Defense's required notification to 
Congress later this spring, we intend to further expand the ETP beyond 
these original 19 battalions to include opening Military Occupational 
Specialties (MOSs) within Air-Naval Gunfire Liaison Company units and 
the 0203 Ground Intelligence Officer MOS. During 2013, ETP participants 
and Commanders will continue to provide assessments which will afford 
our leadership the opportunity to address issues such as optimum cohort 
size, mentorship and career development. Currently, 90 percent of our 
military occupational specialties are open to females.
    Additionally this year, the Marine Corps will continue our 
measured, deliberate and responsible research effort by completing our 
review and validation of standards for those MOSs with the greatest 
physical demands. Once complete, our goal is to correlate and norm 
these proposed physical standards with our already established Physical 
Fitness Test (PFT)/Combat Fitness Test (CFT). The goal is to develop a 
safe, predictive mechanism to use during the MOS assignment process for 
all marines, both male and female, to ensure they are assigned where 
they have the greatest likelihood to excel to their fullest potential.

Returning Quality Citizens
    It is vital that we meet the needs of our marines who transition 
from service. In March 2012, we implemented the new Transition 
Readiness Seminar (TRS) to maximize the transition-readiness of all 
servicemembers. In accordance with the Veterans Opportunity to Work 
(VOW) to Hire Heroes Act, TRS revolutionized our approach to meet the 
individual goals of each marine as he or she transitions to the next 
phase in their life. The seminar is a week long program which includes 
a mandatory standardized core curriculum and also provides four well 
defined military-civilian pathways: (1) College/Education/University; 
(2) Career/Technical Training; (3) Employment; or (4) Entrepreneurial. 
Each pathway has associated resources and additional tools to better 
prepare our veteran marines. An essential feature of the TRS is that it 
allows marines to choose and receive transition information and 
education in line with each marine's future goals and objectives.

                               X. SUMMARY

    Even in challenging times, our great Nation remains the world's 
largest economy and an indispensable leader in the global community of 
nations. Our interests span the globe, and our prosperity and security 
are to be found in the protection of a just international order. That 
order is threatened daily by the instabilities of a modernizing world, 
putting our citizens, our interests, and our allies at risk. While we 
seek peace as a nation, the headlines remind us that those who would do 
us harm continue to bring conflict to our doorstep. The Marine Corps 
remains the Nation's ready hedge against unpredictable crises, an 
insurance policy that buys time when hours matter. In special 
partnership with the Navy, and on the ready leading edge of the larger 
Joint Force, your marines provide the capability to respond to today's 
crisis, with today's force . . . TODAY. The American people can rest 
assured that their marines are poised around the globe, ready to 
respond swiftly when danger, difficulty or disaster strikes.
    I pledge that your Marine Corps will continue to work with Congress 
and the Department to provide the Nation's ready expeditionary force 
with economy, frugality and good stewardship. Through Congress, the 
American people entrust us with their most-precious capital: their 
sons, their daughters, and their hard-earned resources. With your 
continued support, we will carefully invest this capital to provide 
young marines with the ethos, training, and equipment that have made 
them successful for over 2 centuries. We will uphold high standards of 
training, leadership and discipline. We will keep faith with our 
Wounded Warriors. We will care for our families. Most importantly, we 
will ensure that your marines are ready when the Nation needs us the 
most. We will do this all with dignity, humility, and a keen 
sensitivity to the sacred trust the American people have placed in us. 
Thank you for your continued faith in us. We remain . . . Semper 
Fidelis.

    Chairman Levin. Thank you so much, General Amos.
    Let's have a 6-minute round. We hope to get everybody in in 
time. If there's a few minutes left, then we can see if there's 
additional questions.
    Mr. Secretary, General Amos just talked about what the 
effect of continuing sequestration would be if the assumption 
which is made in the budgets that we have adopted, both the 
President's budget and the House and Senate budgets, prove not 
to be true, if, as you point out, the assumption that 
sequestration will not continue in 2014 proves to be a false 
assumption. Can you tell us what the effect would be if 
sequestration occurs in the next fiscal year, the one that 
we're considering right now?
    Mr. Mabus. Mr. Chairman, the effect would be wide-reaching, 
deep, and incredibly damaging. For the Navy, we have met all 
our deployments for this year following the passage of the 
appropriations bill. We are training to meet all our 
deployments for next year. However, the risk that we are taking 
is that we are maintaining ships and aircraft in lesser 
amounts. We are maintaining our bases at very low levels. 
Except for emergency repairs, we're essentially not doing 
repairs on those bases.
    In terms of investments for ships, there is a term ``cost 
to complete'' and it's things like documentation, all the 
government-furnished equipment being put on the ships, things 
like that. We have moved those further out so that they're not 
required to be paid for today. But that bill will come due and 
it will be very difficult for us to complete ships or to get to 
the level of shipbuilding that we need to.
    For the Marine Corps, as the Commandant said, they have put 
their money into readiness today because they have to be our 
first-to-deploy, always ready force. They have to be ready 
every day. If sequestration continues, the degradation to 
training would not only occur in units at home, it would begin 
to occur in the units next to deploy.
    The harm of sequestration is number one in its amount, but 
number two is in the fact that it allows us no planning time, 
no ramp time to get ready; and number three, that it does not 
allow money to be matched against strategy. It's a fairly 
mindless way of cutting funds.
    So while the effects are very real in 2013, the effects 
will be far more damaging and far-reaching should it continue 
into 2014.
    Chairman Levin. Thank you.
    Do you know how much the Overseas Contingency Operations 
(OCO) funding is going to be, the request for OCO for fiscal 
year 2014 yet? Has that number been established?
    Mr. Mabus. No.
    Chairman Levin. In the past, witnesses have told our 
committee that the Navy and the Marine Corps will require at 
least 2 to 3 years of additional OCO funding after the end of 
combat operations just to bring equipment and personnel back to 
an acceptable state of readiness. Is that your position as 
well?
    Mr. Mabus. That is, and I'd like for both Admiral Greenert 
and General Amos to answer this, but the Department of the Navy 
has been moving funds previously expended under OCO back into 
our base budget very aggressively. But we have OCO-related 
expenses for both the Navy and Marine Corps, particularly in 
terms of reset for the Marine Corps, but also in terms of 
maintenance for our ships, which is the Navy's version of 
reset.
    Chairman Levin. Admiral?
    Admiral Greenert. As the Secretary said, reset is the key 
term to cover 3 years following the completion of operations in 
the Middle East. For us it's the depot work that didn't get 
done while we spent the extra time supporting operations in the 
Middle East. We've captured that amount and quantified it. It's 
relatively modest compared to the Marine Corps's numbers, which 
I'll turn over to the Commandant.
    But as the Secretary said, in my opinion, Mr. Chairman, we 
need a strategy in order to move ahead. Supplementals have been 
around for years and years. Decades we've had supplementals for 
various and sundry reasons, and I believe it would be a good 
idea if we could work through a strategy as we move from this 
OCO to determine what's an appropriate way to deal with 
emergent costs for emergent operations.
    Chairman Levin. General?
    General Amos. Mr. Chairman, 2 to 3 years is a good marker 
on the table. It's a function of physically being able to get 
all the equipment, the remaining equipment, out of Afghanistan 
and actually getting it through the depots and back reset to 
the fleet. If sequestration continues--and we're planning on 
it--that's going to be in the long run a 75 percent reduction 
in our depot capacity because it's going to reduce civilian 
manpower, contractors, and everything else reduce. So it's 
going to have an impact. That 2 to 3 years could go to the 
right.
    But for us it's 2 to 3 years, about $3.2 billion, to reset 
the Marine Corps and get all our equipment out.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have two areas that I want to address in this brief 
period of time. One is, a couple of days ago, during one of our 
hearings, I cited, having to do with the Article 60 of the 
Uniform Code of Military Justice (UCMJ) the incidents where a 
convening authority overturned a particular conviction and I 
covered all four Services, and mistakenly there was an article 
saying I didn't think that sexual assaults were a reality. That 
was wrong. That was corrected after that.
    However, as far as the Marine Corps and the Navy are 
concerned, from 2010 to 2012 in the Marine Corps, as you and I 
talked about, General Amos, there were 1,768 courts-martial 
resulting in findings of guilty. In seven out of those--that's 
0.4 percent--they were overturned by the convening authority. 
In the Navy, it's a little bit more--a little stronger case in 
terms of how things are working. Over a decade, 2002 to 2012--
16,056 special and general court-martial cases resulting in 
findings of guilty. There are only two in the Navy. I state 
that because I think we need to put it into perspective.
    So I am sending each of you a letter and a letter actually 
to the Chiefs, and Mr. Chairman, I want to have this made part 
of the record at this point.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Inhofe. Then I think we can come down to a couple 
of ideas or conclusions that I feel strongly about. First of 
all, Secretary Hagel came out with a solution--it was a 
suggestion, I guess it was, and I thought it was very generous. 
He was wanting to change the convening authority's jurisdiction 
on post-conviction trials, and I thought that that was giving 
up more than I thought should be given up, when you consider 
these commanders have the responsibility of sending our kids in 
where their lives could be lost and certainly that's something 
that is very significant. That's an authority that they have 
and they should keep.
    So I would like to ask each one of you in terms of the 
suggestion that Secretary Hagel had on just addressing the 
post-sentencing authority.
    Then also, there's a review that's going on, that's going 
to be convening this summer. Wouldn't it be better to address 
this after we get the results of this hearing and the study 
that's taking place this summer? Those are the two questions I 
would ask each one, starting with you, Secretary Mabus.
    Mr. Mabus. Thank you, Senator. The legislative proposal 
that's being done under the direction of Secretary Hagel is to 
take away the power of a convening authority to change the 
findings of a court-martial, which is a very narrow exception. 
I support this, as do all the Judge Advocates General of all 
the Services. I think it's representative of how our military 
justice system has matured over the past 50 or 60 years. You 
now have professional prosecutors, defense attorneys, judges, 
and a very strong appeals process.
    I know that General Amos and Admiral Greenert are concerned 
about this and will talk more specifically about it, what it 
does not do is take away any authority in terms of convening, 
in terms of post-trial sentence relief or clemency. It seems to 
be a very directed and very fair and prudent change to make.
    Finally, in regard to the panel that was set up by the 
National Defense Authorization Act (NDAA), while it's true that 
it will begin meeting this summer, I believe the results will 
not be out for about 18 months, and this seems to be an area, 
because of the attention that it's gotten, that needs to be 
acted on sooner than that. But it will be a congressional 
decision and not a DOD decision.
    Senator Inhofe. I would say, you generally agree with 
Secretary Mabus? I'm almost out of time here.
    Admiral Greenert. I do agree.
    Senator Inhofe. Okay.
    General Amos. Sir, I'm probably just a little bit out of 
sync here, because I think we need to proceed cautiously. I 
support Secretary Hagel's panel that he's setting up. I think 
that's exactly the right way to go. I just think we need to be 
cautious of what it is we're trying to fix, what the problem is 
we're trying to fix.
    Senator Inhofe. I appreciate that and I do, I'm in more 
agreement with you on this.
    Secretary Mabus, I've been critical for quite some time 
about the over 400,000 gallons of fuel and all this stuff in 
terms of how much money it costs. This comes out of the budget, 
the warfighting budget. The Department of Energy, which was 
started in 1977, was set up for this very reason, and I'm going 
to put into the record the mission statement of that today, 
which shows that, in my opinion as I look at it, they are the 
ones who need to be making these determinations.
    [The information referred to follows:]

    The mission of the Energy Department is to ensure America's 
security and prosperity by addressing its energy, environmental, and 
nuclear challenges through transformative science and technology 
solutions.

    Senator Inhofe. If our concern is to do away with our 
reliance upon foreign countries, we can do that quite easily 
just by developing the resources that we have right now. You've 
heard me say this. I'm sure you're tired of hearing it. But the 
one thing that I had learned during our conversation, Mr. 
Secretary, was that DOD will not make bulk purchases--I'm 
reading now--``of alternative drop-in replacement fuels unless 
they are cost-competitive with petroleum products.''
    Is that the commitment that you would make at this time?
    Mr. Mabus. It's a commitment I have made. I made it to this 
committee last year at this very hearing. But, Senator, in 
terms of needing alternative sources, I applaud the fact that 
our resources are going up in terms of fossil fuels and we 
should certainly continue that. However, oil is the ultimate 
global commodity and the prices are not set here. They are set 
around the world.
    In the last 3 years, the Department of the Navy has been 
hit with additional fuel bills over and above what we had 
budgeted for of $1.5 billion to pay for unexpected oil price 
shocks. That amount of money comes directly from our operations 
accounts, maintenance accounts, and if the bill gets too big it 
will come from platforms. I simply think that that is 
unacceptable and I think it's irresponsible for us not to 
address this sort of military vulnerability.
    I am confident, I am absolutely positively confident, that 
by the time we begin buying bulk amounts of biofuels, which is 
one important but fairly small part of this whole effort, is 
that it will be competitive with petroleum products.
    Senator Inhofe. Yes, but we have the language in there to 
be sure that that will be the case. I'm old-fashioned enough to 
still believe in supply and demand, and once we open up our 
resources here, I think that's going to positively affect the 
costs that we have to bear. Thank you.
    Mr. Mabus. You and I, Senator, agree very enthusiastically 
on the free market, and I simply think that relying on one type 
of fuel which is a monopoly today is not a prudent thing to do.
    Senator Inhofe. I think the safeguard you have is 
satisfactory. Thank you.
    Mr. Mabus. Thank you.
    Chairman Levin. Thank you very much, Senator Inhofe.
    By the way, on the 18-month provision that you referred to 
for the first report on the powers of the convening authority, 
it says no more than 18 months. I hope it won't take anywhere 
near that amount.
    Second, in terms of proposed changes in the legislation 
that follow that, there's another panel that we've created I 
hope will review that. It's much too long a process, I think 
unnecessary, because there's a growing, I think, if not a 
consensus, there's a growing understanding that we have to do 
something at the end of the process relative to reversing the 
findings. They've been rare, as I think Senator Inhofe has 
pointed out, and that means this would not be disruptive, to 
just focus on that one narrow part of the process. I hope we'll 
do that in this year's defense authorization bill.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Secretary Mabus, Admiral Greenert, and of course General 
Amos, I thank you all for your service and also for the quality 
of men and women that serve in the Navy and in the Marine 
Corps.
    I know a lot of people wouldn't know it, but in West 
Virginia geography-wise, we're not maybe at the largest body of 
water, but we do have a real close tie to the Navy and we 
cherish that. Sugar Grove Naval Base in Pendleton County is a 
strategic position and it's been a strategic asset for a long 
time for the Navy, and we know that might be changing and we 
look forward to working with you as the changes come about to 
make sure that we're able to serve this country in a continued 
future.
    We also have the Navy Rocket Center at the Allegheny 
Ballistics Laboratory, which I think you just designated as the 
Navy Enterprise Data Center, which is extremely important. We 
appreciate that and we're proud of that designation and when it 
continues that partnering with you.
    Let me ask this to Secretary Mabus, if I may. I know we 
talked about sequester and sequestering is now starting to hit 
and we're seeing the effects of it. I think it was very 
draconian how it's been implemented across-the-board. None of 
us run our lives that way. So we've talked about flexibility. I 
know there's an awful lot of politics in this whole 
flexibility.
    But I think when you look at the security of our Nation--
are we too far down the road with sequestration, since there's 
a $42.5 billion cut between now and September 30 or October 1, 
and in between that time we have to come up with a budget or we 
continue, the way the legislation is written?
    If we were able to vote as a body to give you the 
flexibility, to DOD, to pick and choose where the $42.5 billion 
in cuts would come from, are you too far down the road to make 
a difference, or could you change quickly enough to stop some 
of the draconian things that are happening?
    Mr. Mabus. I think the short answer is no, we're not too 
far down the road. The flexibility in terms of whether it's 
under the traditional reprogramming or something else would 
certainly be welcome. What I don't want to imply is that that 
would solve anything for 2014.
    Senator Manchin. Sure, we know that. I'm just trying to get 
you through this fiscal year to October 1.
    Mr. Mabus. I appreciate that.
    Senator Manchin. To me it just makes sense, sir, as a 
former governor--and we have a few former governors on this 
committee. We understand that it's tough sometimes, but 
sometimes you can work through these things, and we're just 
hoping that you're still in that position, if we can make 
something happen for you.
    Mr. Mabus. Thank you.
    Senator Manchin. The other thing I would ask is on Sugar 
Grove Naval Base, which we just talked about. I think we've 
been asking you for your assistance on that--anyone can comment 
on that--to try to help us. Maybe, Admiral, you might have more 
input on that.
    Admiral Greenert. I'll give you a better written answer, 
but my fleet cyber command commander, Admiral Rogers, and I are 
talking about that, how do we make that adjustment, directed by 
Cyber Command, that makes sense so we use the civilian cyber 
warriors we have properly and make the best of an activity 
which has been around for quite some time supporting us. I'll 
give you a better written answer.
    [The information referred to follows:]

    U.S. Fleet Cyber Command has examined all aspects of potential 
reuse of the Sugar Grove facility including potential use by civilian 
cyber warriors. Based on the anticipated small number of civilian cyber 
warriors and the specialized mission needs for these people to be co-
located with other cyber personnel and cyber mission functions, Fleet 
Cyber Command has concluded they have no requirement for use of the 
Sugar Grove facility beyond 2015.
    Navy officials have visited the site, in conjunction with other 
Service and National Guard representatives, to meet with local 
Pendleton County community leaders. Despite our efforts to identify 
potential reuse alternatives within the Department of the Navy, no 
requirement for the site has been identified to date.
    In compliance with 10 U.S.C. 2696, the Navy will continue to work 
with appropriate organizations to identify potential use of the 
property elsewhere within the Department of Defense (DOD). If no DOD 
use is identified, we will work with the General Services 
Administration to transfer the property to another Federal Government 
agency, local government, or to the public. The Department of the Navy 
will continue to provide monthly updates to you, Senator Manchin, and 
to Senator Rockefeller, throughout this process.

    Senator Manchin. If you could do that. Also, if I could 
ask--and I know with your schedules--but if there's a time that 
we could meet there, myself and Senator Rockefeller would love 
to meet with you there. If you haven't had a chance to visit 
there, the assets that the Navy has there is unbelievable and 
we'd like to be able to work with you.
    Admiral Greenert. Yes, sir.
    Senator Manchin. Maybe we'll schedule that with your staff.
    Mr. Secretary, I think this might come back to you and 
really to General Amos and to the Admiral also. I know, General 
Amos, the Marine Corps is reducing by 20,000 marines and there 
are civilian furloughs that have been looming and hiring 
freezes in place for many of the DOD civilian positions. Sir, I 
think you know my position on contracting. It's not real 
favorable.
    Do you know how many contractors we will still have and are 
we downsizing our contracting fleet in proportion to our 
military fleet?
    Mr. Mabus. You ask a question that I asked exactly: How 
many do we have? The best answer that I have is for the 
Department of the Navy we have a little over 170,000 
contractors or contracts out there. We are moving----
    Senator Manchin. That's just the Navy, right?
    Mr. Mabus. That's the Department of the Navy.
    Senator Manchin. Department of the Navy, I have it, yes, 
sir.
    Mr. Mabus. We're moving pretty aggressively to go into 
these things, and we've set up something called contract 
courts. It has a more formal name, but that's what we call it. 
It makes every contracting officer come in every year and say: 
Here are the contracts I have, here's why I need them, here's 
the best price I can get, this sort of thing. We're moving 
toward becoming more aggressive on that, which is, instead of 
saying here are the contracts I have, tell the contracting 
authorities to come in at zero and say, here's what I need, 
because I think that there are still some areas that we can 
make a difference here. It's too opaque right now. It's too 
hard to get into.
    Senator Manchin. Let me ask just real quickly. My time is 
running out. But on auditing, you know that myself and Senator 
Coburn have put in legislation to have DOD audited. Does that 
cause a problem with Navy, to meet this auditing that we've 
been talking about?
    Mr. Mabus. Senator, I started my elective career as State 
Auditor of Mississippi.
    Senator Manchin. Yes, sir.
    Mr. Mabus. I'm a big fan of auditing. I'm going to brag on 
the Navy and Marine Corps right now. The Marine Corps audit is 
under way right now and we're expecting an opinion soon.
    Senator Manchin. Thank you, General.
    Mr. Mabus. The Navy's audit will be ready to go, we think 
by the end of this year.
    Senator Manchin. So that doesn't create--the audit does not 
create a hardship for you? The Navy can meet that auditing 
requirement?
    Mr. Mabus. We are meeting it. I don't know about adding 
layer on there, but we're meeting it on current things.
    Senator Manchin. Thank you, sir. I appreciate it.
    Chairman Levin. Thank you, Senator Manchin.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses. Admiral Greenert, due to sequester 
the Navy is faced with the prospect that two-thirds of the 
fleet will not be fully mission-capable by the end of the year; 
is that correct?
    Admiral Greenert. Yes, sir, those that are not on 
deployment. So if you're not on deployment or just ready to go, 
two-thirds will be what we call C3, and that's a capability 
rating or less.
    Senator McCain. So they will not be ready to replace those 
rotating back out?
    Admiral Greenert. Typically, we have about half the fleet 
at C3 or C4. They're in the progress of getting ready to 
deploy. That will increase to two-thirds from one-half.
    Senator McCain. General Amos, you said recently: ``By the 
end of this year more than 50 percent of my combat units will 
be below minimal acceptable level of readiness for deployment 
to combat.'' Is that still the case?
    General Amos. Yes, Senator, it is.
    Senator McCain. If the sequester is not fixed, Admiral 
Greenert, are you ready to identify where you would have to cut 
your budget?
    Admiral Greenert. I can't give you specific program and 
budget lines now, but we are working on that right now. We're 
working within the Department and we're working with DOD staff. 
It's called a strategic concepts management review.
    Senator McCain. But you are working on the eventuality of 
actions that need to be taken, budgetary actions that need to 
be taken in case sequester is not repealed?
    Admiral Greenert. We are working that within the 
Department, yes, sir.
    Senator McCain. General?
    General Amos. Senator, we absolutely are. We're under the 
assumption that sequester will stand. It's law. The pain of 
that will be a Marine Corps that's going to be below 182,000. 
So the immediate impacts will be a drastic reduction, probably 
reductions-in-force in the Marine Corps, to some number below 
that once the strategic forces has leveled out and gives us the 
amount of money we have. But it'll be civilians, it'll be 
military, it'll be programmatic, and the cuts will be severe.
    Senator McCain. One of our problems is that the budget that 
has been submitted to Congress does not take into account the 
effects of sequestration, assuming that sequester will be 
repealed. So I'm glad to hear that, at least at your level, you 
are planning on actions that need to be taken if sequester is 
not repealed.
    General Amos, earlier this week General Odierno testified 
that sequester will produce a hollow Army. Will it have the 
same effect on the Marine Corps?
    General Amos. Absolutely, Senator.
    Senator McCain. General Amos and Admiral Greenert, from 
talking to a lot of young officers, this is having a 
significant effect on the morale and willingness to retain 
high-quality NCOs as well as commissioned officers; is that 
correct? Is that a correct impression that I have from 
conversations with our senior NCOs and captains and majors and 
lieutenant commanders and lieutenants?
    General Amos. Senator, we're not seeing that right now. In 
fact, the retention both of our enlisted ranks and our officer 
corps is very high. But I will say that with an air of caution, 
because as we go through sequestration, the full impacts take 
place, and we come back from 12 years of combat, there's going 
to be a sea change in the Marine Corps and it wouldn't surprise 
me at all to find that the retention will become challenging.
    Admiral Greenert. It's the word, the simple word, 
``predictability.'' They ask us, ``so what's the 
predictability? How can I plan my future?'' That's the case, 
Senator. My retention right now is good, but there are some 
signs here and there. I attribute it to increased operations 
right now based on the skill set, the Navy enlisted 
classification code, pilots, nukes, that nature, right now. But 
it's about predictability, Senator.
    Senator McCain. Secretary Mabus, the repositioning or, 
unfortunate word, pivot that was used to Asia-Pacific, how much 
credibility do we have when we consider, when we continue to 
have our Navy shipbuilding plan continue to decline now to 270 
ships in fiscal year 2015?
    Mr. Mabus. Actually, Senator, I think that our credibility 
remains high. If you look at our shipbuilding plan, it takes 
the fleet up to 300 ships by the end of 2019, and the fact that 
we are forward deploying four LCS in Singapore--the first one 
is there on its maiden deployment today--the fact that we are 
putting our new builds, our most capable ships, into the 
Pacific, and the fact that 60 percent of our fleet will be in 
the Pacific by the end of the decade.
    Senator McCain. So you are planning on by what year?
    Mr. Mabus. To have 300 ships in the fleet.
    Senator McCain. We will remember those, that testimony, 
Secretary Mabus, because it isn't going to happen.
    Admiral Greenert, the 30-year shipbuilding plan reflects 
the reduction of the fleet to 270 ships in 2015. How many ships 
with the right capabilities do you think the Navy needs?
    Admiral Greenert. I need 306 ships with the right 
capabilities to do the jobs assigned to me in accordance with 
the DSG we have today.
    Senator McCain. You need 306 and we're going to be down to 
270 by 2015, and you believe that we're going to add 30 more 
ships plus those that need to be replaced by 2019?
    Admiral Greenert. Based on the ships we have under 
construction today, yes, sir. We have 47 ships under contract 
or in construction today.
    Senator McCain. I'd like to see those numbers for the 
record, please.
    [The information referred to follows:]

    The Navy will have 300 ships in 2019. Between 2013 and 2019, 66 
ships will be delivered and 56 ships will be decommissioned. Of the 66 
ships to be delivered, 47 (listed in the table below) were under 
contract on April 25, 2013. As of June 3, 2013, 55 were under contract.
    The list below does not include AGOR-27, AGOR-28, and T-AGS-66 
which are also under construction, but are not included in the Navy 
battle force count.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator McCain. I thank the witnesses. It's interesting 
that we are now in a panic mode because the Federal Aviation 
Administration is delaying flights. We don't seem to be 
concerned about the testimony that you and other uniformed 
leaders have given to Congress about the devastating effect on 
our national security of sequestration. It's one of the more 
embarrassing moments for me in the many years that I have had 
the honor of serving here in this body.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    Thank you all, gentlemen, for being here this morning and 
for your service.
    Admiral, I'd like to begin by a comment about the Navy. My 
home town is Brunswick, ME, and for about 60 years, we were the 
home of the Brunswick Naval Air Station. Losing that station 
was a tremendous blow to our community, but it was a blow in a 
way--it was certainly economic with business and the economic 
effect.
    But as a resident of that community with kids in the 
schools, the loss of the Navy personnel was a tremendous loss 
for us because of what they contributed to the community, 
teaching in Sunday school, coaching in the Little League, kids 
in the schools. The Navy added so much to our community, and 
this is just a way of complimenting you on the quality of 
people that you have because they were our friends and 
neighbors for so many years.
    The economic loss we can calculate, but the loss to the 
community of the Navy personnel, was incalculable. I just want 
to convey that to you. We regret that decision.
    Secretary Mabus and Admiral, talk to me about how you 
envision the future of the Navy's destroyer force. We continue 
to retire frigates. The decision several years ago not to 
procure the next generation cruiser--it seems like destroyers 
will fill multiple roles in the Navy. Can you give me, Admiral, 
an idea of how you see the destroyer, the future of the 
destroyer fleet?
    Admiral Greenert. We need 88--we call them large surface 
combatants and that's cruisers and destroyers. So as we phase 
out the cruisers that we have, destroyers will, if you will, 
replace them.
    The destroyer of today, the ones built, for example, in 
Bath, ME, is very high-end ship, in fact, much higher end, if 
you will, capability-wise, it has more capability than a 
cruiser. It's multi-mission. It's a fantastic vessel right now.
    So the future is we need 88. We have 84. We're growing and 
will continue to grow through this decade, and we need to 
sustain that. To do that into the 2020s, we need to build about 
2\1/2\-a-year on average of these destroyers or a ship like 
them.
    Now, I'd add to this. In 2016 we will add a capability, the 
Advanced Missile Defense Radar, which will make the current 
Arleigh Burke even more capable, missile defense-capable, in 
addition to anti-air capable. We call it integrated air missile 
defense.
    Senator King. How do you intend to leverage the technology 
that's been developed for the DDG-1000? That's an amazing ship 
as well.
    Admiral Greenert. We get a lot of engineering technology 
from that ship, its fuel efficiency as well as the reduced 
manning. So we'll take that capability as well as the 
stealthiness that the ship provides. There's a good element of 
anti-submarine warfare, the hull-mounted sonar and the towed 
array sonar, that we would want to backfit as much as feasible 
into destroyers.
    Mr. Mabus. We are putting the dual-band radar that came out 
of the DDG-1000 on our aircraft carriers now.
    Senator King. So that technology is being used in other 
areas?
    Mr. Mabus. Yes.
    Senator King. I think it was the Admiral who used a phrase 
that I never want to hear these three words in the same 
sentence, ``Reducing nuclear maintenance.'' Talk to me about 
the impact on maintenance from the sequester, which we've 
talked about today? To me, not doing maintenance isn't a 
savings. It's simply deferring the cost to a later date and it 
will probably be more expensive at that point. Your thoughts?
    Admiral Greenert. Senator, if you're talking those numbers, 
which the one I was referring to was $23 billion, it's a 
balance of sustaining the force of today, and that would be the 
maintenance and the readiness of it, the force structure today, 
the number of ships and aircraft, and building the future 
fleet. So we need to do this in a balanced manner.
    If we ensure we do all the nuclear maintenance that needs 
to get done, we bring all of the non-nuclear maintenance to 
kind of parade rest, to very little. I can't do that. We have 
to have a balance towards that. Those numbers at that level 
make it difficult for me to see how we would preclude needing 
to reduce the number of shipyard workers we have, that 
capacity, and therefore the amount of ship maintenance that 
would go on.
    Senator King. Gentlemen, I've been going to these hearings 
now for a couple of months and every single uniformed and 
civilian official in Defense and also--I'm on the Intelligence 
Committee--the Intelligence Community has told me that they 
have never seen a more dangerous, volatile, and complex period 
of threats to the United States. Yet at the same time, we are 
going through the sequester and hollowing out our Services, 
which has been testified.
    What are we doing to ourselves? I just don't understand it. 
I think Senator McCain made the point that everybody knows 
about the delays at the airports. What's happening to you? 
We're putting not only our soldiers and sailors at risk, but 
our people at risk. Am I overstating this problem?
    General Amos. Senator, I don't think you are at all. I had 
a little bit of an advantage a couple of years ago. I spent 
almost a year with a very elite team working on trying to 
determine what the future security environment would look like. 
It was an international team, to include corporate America. I 
think your sense for the world we're in is accurate. I see no 
indication that the world is getting any nicer. I think all you 
have to do is look at the Washington Post on Sunday and you can 
start from the front and go all the way to the back and you can 
see that.
    So from my perspective, it is every bit as dangerous and 
perhaps because it will be spread out, it could be considerably 
more dangerous in the future. From my perspective as a service 
chief, I think that dictates--it's a predicate for us to remain 
engaged in the world. We're the only global superpower on this 
planet. We have people that count on us for leadership. They 
expect us to be leaders.
    So that's part of why I said what I said in my opening 
statement. We are global leaders. We have a responsibility 
globally, international and quite honestly, very selfishly and 
myopically. That's really what the Navy and Marine Corps team 
is able to do, is be out there engaging and representing the 
interests of the United States of America.
    Senator King. Thank you, gentlemen.
    Chairman Levin. Thank you very much, Senator King.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Admiral, thank you. Mr. Secretary, thank you. General, 
thank you.
    Our State of Indiana is proud to be a key center for naval 
operations at the Naval Surface Warfare Center (NSWC) Crane. 
The dedicated people there work night and day to keep our 
servicemembers safe, and we want you to know we are proud to be 
your inland Navy.
    In regards to China, Admiral, when you look at the threats 
that are out there, can you give us an update on their 
development of anti-ship ballistic missiles and what the 
intention of that program is? Do you consider that a game 
changer in regards to our aircraft carrier reliance?
    Admiral Greenert. My assessment would be China wants to be 
able to influence what we call within the first island chain, 
roughly 1,000 miles and in, the first island being--if you're 
familiar with that, the Philippine Islands.
    Senator Donnelly. Yes.
    Admiral Greenert. They want to be able to influence that 
area to a great degree. It's a defensive measure for the 
mainland. They look to that area as, they call it their ``Near 
Sea.'' They want to have the ability to defend it, if you will, 
as they need to.
    Is it a game changer? It certainly could be. It depends. 
But in a perhaps more classified setting I could describe to 
you, we haven't been standing around wringing our hands. There 
is a series of events that has to take place for something like 
that. You have to have the right detection, you have to 
classify it, you have to be able to target, you have to know 
when to launch it, you have to have confidence in that launch. 
It has to go through its launch sequence. Then do you shoot it 
down? Do you deceive it, do you jam it? Then lastly, do you 
shoot a bullet with a bullet?
    All of these things go through what we call the kill chain, 
and we study that very closely.
    Senator Donnelly. That was going to be my next question, 
was the current capability in regards to countering that. But 
as you said, perhaps a more classified setting would be more 
appropriate for that.
    In regards to the balance of power in submarines, you hear 
of the Chinese bringing a submarine on and the discussion of 
other nations seeing how important this is. In regards to where 
we are today in helping to control the seas and the strength of 
our submarine program, has our premier position changed at all 
in the last year? If so, how? What do you see 5 years from now?
    Admiral Greenert. Senator, simplistically, I say we own the 
undersea domain, and we still do and I have empirical data that 
convinces me of that, and I watch it very closely. It is our 
job to keep that asymmetric advantage in the future. I believe 
it is our asymmetric advantage, one of our asymmetric 
advantages, and it's our job, my job, to come to you and show 
you how we can sustain that.
    Senator Donnelly. Okay.
    General, your marines have done an extraordinary job in 
Afghanistan. As we look toward the next year or 2 ahead, for 
instance Helmand Province, do we have the confidence of the 
people in Helmand Province as we move forward in this process 
that they have some confidence level that they'll be able to be 
protected, that they'll be able to have a life that they can 
protect their children and have a decent life?
    General Amos. Senator, they do. The chemistry has changed 
dramatically over the last 4\1/2\ years. It's leadership. It's 
leadership by the provincial governor, Governor Naim, the 
district governors, mayors, and the ANSF.
    The Taliban have--I'm not saying they're not there. They're 
there, but they have been marginalized to the point where the 
ANSF have become strong enough where they can handle this 
themselves. So we are today turning over--I've already said 
major operations belong to the ANSF. We don't write operation 
plans any more. We just write supporting plans. So we're there 
as a backup.
    But the actual kind of control of the districts, the 
Afghans have it. So in Helmand the answer is yes. The key will 
be the continued stable support of the central government, the 
ability for the central government to continue to put resources 
down in these various provinces, to include the Helmand 
Province. If that stays, the confidence of the people will 
remain. If that goes, then it will evaporate quickly.
    Senator Donnelly. Do you think that the continued presence 
of--we don't know the exact number, but 8,000 to 10,000 or 
whatever that number is at the end of 2014, the continued 
presence of those marines, soldiers, sailors, or airmen, do you 
think that the Afghan people--that the presence of those 
military people makes them sleep better at night?
    General Amos. Senator, without a doubt. You talk to them 
personally face-to-face, whether it be in Kabul or whether it 
be in Helmand or anyplace else, and they are very worried. The 
normal Afghan civilian is extremely nervous that we will just 
completely come out, as we did in Iraq.
    Senator Donnelly. Are our servicemembers viewed by the 
Afghan people as we move forward in those much smaller numbers, 
as the glue that will help hold things together?
    General Amos. Sir, I think so. At the very senior levels of 
government and the military and whatever, we will help be that 
connecting tissue with thought and resources that perhaps they 
wouldn't otherwise have.
    Senator Donnelly. Thank you very much. To all of you, thank 
you for your service.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to all of you for your service and your testimony 
today.
    Secretary Mabus, your written testimony really talked about 
something I'm very focused on, which is that the challenges of 
the future require flexible force more than a fixed force, and 
the combined operations that you represent here in this hearing 
give the Nation a great flexible force capacity to deal with 
challenges whenever and wherever they arise. That's why this is 
such an important hearing.
    I stepped out for a few minutes to attend a Senate Foreign 
Relations Committee meeting on embassy security. So I think I 
may just start, General Amos, with you on that topic. I visited 
the Marine Security Guard Program at Quantico, VA, within the 
last month or so and was very impressed. But certainly there's 
a significant need in the aftermath of Baghdad. One of the 
recommendations from the review board was upgrading Marine 
Security Guard and the foreign affairs security training, and 
it looks like you have a pretty significant both capital 
expansion at Quantico as well as an upgrading of about an 
additional thousand Marine Security Guards to help our missions 
around the world.
    I'd love to just know how the current budgetary challenges 
or sequester if it continues will affect our ability to beef up 
the needed Marine Security Guard presence and training.
    General Amos. Senator, none of that is funded. It was all 
done in good faith, for all the right reasons, 6, 8 months ago. 
The original intent, my understanding is, is that once the NDAA 
authorized the 1,000-marine plus-up to the already, I think our 
number is at 1,449 marines we currently have in that field, so 
it will be another thousand on top of that to perform the 
missions that you talked about, that the funding of that would 
follow basically on top of whatever funding I would normally 
get.
    We're on our way down to 182,100, as Secretary Mabus said. 
So to add another 1,000-marine requirement on top of that pulls 
those combat forces out of the 182,000 and makes me a 181,000-
size force. So I'm still hoping that we're able to sort through 
the funding of that. But right now it's not funded.
    We are pressing ahead, just so that you know. We're not 
sitting back. In agreement with the State Department, we will 
stand up three new Marine Security Guard Detachments between 
now and June. We'll stand up another 7 by the end of this year, 
and then over the next several years we'll stand up another 26.
    So we're proceeding as if we're going to have the money, 
because the need is there. So our intent is honest. We just 
would appreciate the funding.
    Senator Kaine. I think we have to be consistent in our 
message. I'm on the Budget Committee, too, and we end up 
hearing a lot about the need to cut, cut, cut, and then at the 
other side, on the foreign relations side, we're telling you 
that we need a dramatic expansion of security presence at our 
embassies, and the Marine Corps' own part of that space. So we 
have to be consistent in the message we deliver.
    You have a sizable price tag for the retrograding of 
equipment back from Afghanistan. I think the testimony I heard 
earlier, not today but earlier, was about $3 billion or so just 
to retrograde equipment back for the marines. Then that 
equipment has to be retrofitted and improved, et cetera, before 
it's ready for additional use. So the budgetary environment and 
sequester affects both the retrograding and the upfitting of 
that equipment to make it available for its next use in the 
field.
    General Amos. Senator, you're 100 percent correct. In fact, 
within our Corps as a result of the sequester we've gone back 
and said, okay, what's good enough? What is it we currently 
own? What is it we've been driving and using for the last 5, 10 
years? Whereas otherwise we might have moved on to something 
new, we're actually taking that back through the depots right 
now.
    We have 60 percent of the equipment that we had on the 
ground in Afghanistan out as of today. I'm pretty pleased about 
that. 38,000 principal end items are working their way through 
the depots, all really important to reset the Marine Corps, and 
the bill is about $3.2 billion to complete the mission and 
reset it.
    Just to give you a sense for how we've done, though, it 
wasn't but about 4 or 5 years ago the bill was about $15 
billion. So Congress has been very good, helped us out. We've 
been faithful stewards to get our equipment through, and now 
we're in the final stages of that to get the equipment out once 
we finish the mission and to reset the Corps.
    Senator Kaine. Excellent.
    For Secretary Mabus and Admiral Greenert, one of the things 
I noticed in the 2014 submission was that you're funding 80 
percent of ship depot maintenance, but I believe it looks like 
it's 100 percent funding on both carrier and submarines. So 
this is surface ships, I gather. Is there an intent to put in 
an additional budgetary request through OCO for the remaining 
ship maintenance? Or how will you manage lesser maintenance on 
the surface ships?
    Mr. Mabus. That's correct. We would get from 80 percent to 
close to 100 percent based on our OCO submission. That's based 
on the fact that, unlike the Marine Corps, who pull equipment 
out, send it through a depot and reset, the Navy tends to reset 
every day through maintenance, through maintaining our ships. 
So that OCO request--and as I said earlier, we are aggressively 
moving OCO into base. But this is--that 20 percent of 
maintenance is still very much related to the operations tempo 
in CENTCOM right now.
    Senator Kaine. How about just generally the sequester 
environment and future shipbuilding costs and scheduling? If we 
don't find that solution that is assumed in the budget that the 
President has submitted, that you're testifying to today, what 
will be the long-term effect on the costs and scheduling on the 
shipbuilding side?
    Mr. Mabus. One of the things that we have done based on the 
bill passed here in 2009 on acquisition reform, WSARA of 2009 
is we've pushed things like multi-year contracts, which save a 
great deal of money. We've pushed things like competition. 
Sequester would have a bad effect on all those things. Again, 
as the CNO said, we're working through exactly what that effect 
would be.
    We have, for example, the Virginia-class submarine program 
now under multi-year, the DDG-51 under a multi-year, the Marine 
Corps MV-22 aircraft under a multi-year, the Hawkeye electronic 
surveillance aircraft for the Navy under a multi-year.
    If we cannot continue those multi-years or if we can't 
execute them as multi-years, the cost goes dramatically higher 
for fewer ships and aircraft.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Gentlemen, thank you all very much for being here this 
morning and for your service.
    I want to begin by saying I share Senator McCain's 
frustration and outrage that this Congress hasn't yet addressed 
sequestration and very much appreciate the challenges that we 
have given to all of you as you try and deal with a budget that 
has so much uncertainty.
    One of the things that I do every week is to host a coffee 
for my constituents from New Hampshire who are here. Several 
weeks ago I had a woman at the coffee who approached me close 
to tears because her husband works at the Portsmouth Naval 
Shipyard and she said: We don't know what we're going to do 
about our personal budget because of the furloughs that he is 
expecting.
    I know the Navy has been working on this issue, trying to 
address the furlough question. Clearly it's one of the things 
that has an impact on morale, which all of you have mentioned 
this morning. So I wonder if you can give us any insights into 
whether you are going to be able to address the furlough and 
how you might do that?
    Mr. Mabus. Thank you, Senator. That decision has not been 
made yet. It's being made at a DOD-wide level and they're 
looking at the health of the whole force. But as you point out, 
we have civilian workers--shipyard workers is a great example--
that have a direct operational impact on the Navy. The CNO and 
I have both talked about this publicly, about how that will 
impact the ships that go through these depots, how it will 
impact the sailing schedules, the steaming schedules, and our 
operational schedules.
    That's part of the input that we've been given. As 
Secretary Hagel said, if we can do better we will do better. I 
think everybody recognizes just how crucial these civilians 
are. General Amos says that he considers them civilian marines. 
We consider them civilian sailors. They are absolutely crucial 
to the fleet and to the Marine Corps.
    Senator Shaheen. Thank you very much, Mr. Secretary. I know 
that the shipyard workers at Portsmouth and throughout the 
country appreciate the efforts that are being made to try and 
address their situation.
    I want to switch to energy, because one of the best things 
I've done since I've been in the Senate was to join with you in 
the hearing on the USS Kearsarge about the efforts that are 
being made by the Navy to address energy use. I certainly agree 
that we have to reduce our what has been almost a total 
dependence on oil in recent years.
    I know that biofuels is something that you've been working 
very hard on and I very much appreciate that. But I wonder if 
you could also address some of the other efficiencies that 
you're trying to achieve in order to address energy usage 
throughout the Navy and the Marine Corps?
    Mr. Mabus. I appreciate the opportunity to talk about it. 
You're right, we're proceeding down two tracks. One is to 
change the type of energy we use, but the other is to do the 
same amount with less energy. In the Navy we're doing things 
like different hull coatings, stern flaps, different kinds of 
lighting on ships, voyage planning tools, this sort of thing, 
to use less energy.
    All these things have a tremendous impact on the amount 
that we use. We have the USS Macon Island, the first hybrid 
ship, that has an electric drive for under 12 knots. They made 
a deployment to CENTCOM and to PACOM. We sent them out with a 
$33 million fuel budget and they brought $15 million back that 
they did not use, which is able to put back into operations.
    The Marines, through their Experimental Forward Operating 
Base that they have twice a year, once at Quantico, once at 
Twentynine Palms, and get whatever industry is doing. So 
marines are lightening their loads by using fewer batteries and 
by charging their radios and global positioning systems with 
solar power. They're doing insulation. They're using wind 
power, they're using hybrid generators at their bases.
    So we are bringing down the amount of energy that we use 
and not cutting our operations at all. In fact, we're 
increasing the amount we can do on the same amount of energy. I 
think we have to keep proceeding down these two tracks because, 
as I said in answer to a previous question, in the last 3 years 
just from the spike in oil prices the Department of the Navy 
has had to pay an additional $1.5 billion in fuel bills that we 
didn't have budgeted. That money could have gone to operations 
or to platforms.
    Senator Shaheen. Particularly in these challenging economic 
times, I think it's prudent for you to continue proceeding down 
this path, and hope that we can provide you as much support in 
the Senate as possible.
    General Amos, I'm almost out of time, but I wanted to go 
back to your comments about sexual assault and about the 
convening authority, because I certainly appreciate your 
concern about proceeding with caution in this area, but the 
fact is that there are over 3,000 reported sexual assaults in 
the military. The estimate is that it's more than 19,000.
    You've indicated that you're going to lead a cultural 
change within the Marine Corps regarding sexual assault. How do 
you do that? Do we not have to look at how the system addresses 
sexual assault in order to make that cultural change?
    General Amos. Senator, I don't want to confuse you here. 
I'm working my way through the convening authority Article 60 
mentally as it relates to sexual assault, because I don't want 
anybody to think for a second that this isn't important to me. 
If that's what it takes, if that becomes part of the solution 
set, then I fully support it. So I just want you to know that.
    To your question, though, about our institution, the U.S. 
Marine Corps, this has to be a culture change. We began last, 
probably around the May timeframe, began with a general officer 
symposium. I brought every general in the Marine Corps back to 
Quantico for 2 straight days and talked nothing but where we 
were. It was a cold dose of reality, where we are in the Marine 
Corps, because quite frankly--and it's like the Gregg Zoroya 
article that popped in USA Today 2 days ago. The numbers are 
shameful. It's more than being embarrassed. I'm ashamed of this 
thing.
    But that's not where we're headed and that's not where we 
are right now. We have the entire senior leadership of the 
Marine Corps after this--I'm talking about officers and staff 
NCOs. We've just really been after it since probably about the 
mid-summer. We started in the spring, but all the campaign 
plan, three phases of it--and there's a host of things we've 
done.
    I know we're out of time. I'd be honored to come by and 
talk to you about it. But I don't want anybody to think for a 
minute that this culture change is going to be easy. But we are 
dedicated, my generals are and my sergeant majors are, and 
we're going to succeed. It's going to be hard, but we are going 
to succeed at this, because it's the right thing to do.
    Senator Shaheen. Thank you, General. I appreciate that. I 
have other questions, but I'm sure my colleagues on the 
committee will follow up.
    Thank you.
    Chairman Levin. Thank you very much, Senator Shaheen.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen.
    Just a quick follow-up question because both Admiral 
Greenert and General Amos indicated that they are looking at 
units that will be C3 towards the end of the year. As I 
understand it, that has several different components in terms 
of the rating, personnel, the equipment, et cetera.
    Can you go just one step down? What's the problem? Is it 
personnel readiness, availability of sailors? Is it equipment? 
Just to give us some texture for the rating.
    Admiral Greenert. The fact that a unit is C3, Senator, unto 
itself shouldn't be that alarming. It is not unusual. In other 
words, we have units that just before they're ready to deploy 
they are fully manned, trained, equipped. They need to get 
their ammo on board. They pick it up and they go. So for the 
record, they remain C3 until that point.
    The point is it's a trend and it's a quantification of how 
those that are ready to deploy, they are C1 and C2, those that 
are in the surge are drifting further from that C1-C2. It's 
like a Slinky dog that goes further behind. It takes that much 
more to get it ready to deploy.
    So what is the issue? It tends to be training. They don't 
have as many skill sets as they need to have when they're ready 
to deploy. If they're called to surge, we have to have a longer 
conversation to say, okay, here's what your unit will have. It 
could be an air wing, it could be a destroyer, but we have to 
have a more in-depth conversation, whereas if they're where we 
want them to be and where they are typical in our fleet 
response plan, then that is automatic, that is the covenant 
that we already have.
    Senator Reed. Thank you.
    General Amos, your comments about the Marine Corps?
    General Amos. Senator, the reality is it's equipment 
available--we talk what C3 is. The exact definition of C3 is 
units trained to undertake many but not all wartime missions. 
We don't typically deploy units that are C3. We deploy them C1 
and C2, and that's what the combatant commanders, that's what 
they expect.
    Would we deploy a C3 unit? Absolutely, yes. If war broke 
out, I'd deploy a C4 or a C5 unit. So I want to be clear about 
that.
    But what's happening is the equipment readiness as a result 
of things going through depot--I've said, when sequestration 
fully hits in 2014 and 2015, 75 percent of our depot capacity 
is going to be affected in one way or the other. That's going 
to have an effect on the equipment availability. It's training 
ranges, it's O&M, it's fuel, it's ammunition. It's the ability 
to be able to take a unit and fly it out to or move it out to 
Twentynine Palms to do its final integrated training exercise. 
It's all of that.
    Finally, the last I guess kind of litmus test is, because 
the depot maintenance and aviation has had an impact as a 
result of O&M, we're going to have--and I'll give you the exact 
numbers. Today I have 102 of 257 F-18s that are out of 
reporting status, which means they're not flyable. They need 
depot maintenance of some kind. 23 F-18s are not going to be 
inducted in the third and fourth quarter of this year.
    So the net result will be this, I'll have 125 out of 257 
Marine Corps F-18s out of reporting status. If you take all the 
squadrons that I have forward deployed, which will have the 
full complement of airplanes, the ones on carriers, the ones 
that I have in the Persian Gulf, they're my first priority. The 
remaining squadrons back home by January 2014 will have 6 of 12 
F-18s sitting on the flight line.
    Senator Reed. Thank you, sir.
    Let me do one follow-up question, too, because this was 
brought up previously. As you retrograde equipment out of 
Afghanistan, some of that equipment I presume, because it was 
specifically, particularly some of the Mine-Resistant Ambush-
Protected (MRAP) vehicles and some of the vehicles, were 
designed for the conflict in Afghanistan--do you have the 
flexibility to bring them out, but then deferring maintenance, 
as a way to husband resources without affecting the ability of 
a MEU to operate and conduct?
    General Amos. We do, Senator. For instance, we have well 
over 2,500 MRAP vehicles right now. Our long-term plan is to 
keep roughly about 1,200 of them. We're going to bring them all 
back.
    Senator Reed. Right.
    General Amos. We'll start parsing out those that need it 
and those that don't, to be able to husband resources.
    Senator Reed. Understand.
    Admiral Greenert, I was particularly impressed with the 
brilliance of Senator Donnelly's questioning about submarines, 
and also the threat to surface ships. I think it raises an 
interesting question. As you know and Admiral Locklear 
testified, there are a number of countries, particularly in 
Asia--China, Australia, Singapore, Indonesia, Malaysia, 
Vietnam, the Republic of Korea--who are developing new 
submarines, much more capable submarines. Indeed, I'm also 
indicated that Russia and China are expected to soon field new 
ballistic missile submarines, which adds another dimension.
    Then you can join that with the surface-to-surface 
precision long-range weapons, particularly with the Chinese, 
which threaten the surface fleet, which raises I think not only 
the necessity, but the criticality of the submarine fleet. Is 
that a view that you support or take?
    Admiral Greenert. I absolutely support that. As I testified 
last year, that 2014 submarine was our number one priority.
    Senator Reed. Thank you very much.
    Thank you all, gentlemen, for your service and your 
thoughtful testimony today.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you all for being here very much.
    General Amos, I know that you had expressed to my colleague 
that you want to get at this culture change and it's very 
important to you as to sexual assault. But let me just say the 
quickest way to change the culture is to put these cowards in 
prison. The people who commit these crimes are sullying your 
ranks and they are diminishing what you are as a powerful force 
in this country.
    I think the challenge around that is getting the victims to 
come forward. This has to be one of the problems that is 
foremost in your mind: How do we create an environment of 
professionalism and justice that gives victims the confidence 
that they can help you weed out these cowards and get them out 
of our wonderful military that I know you are so proud and it 
is your life, and you want nothing more than the Marine Corps 
to be seen for the wonderful men and women they are.
    So when you have a convening authority that picks five 
colonels and lieutenant colonels to sit on a jury and they do 
the thing that you always do in these cases, and it is one 
thing you do as a jury, you decide who's telling the truth, 
because all this case was about was who was telling the truth--
was it the fighter pilot and his wife or was it the victim? 
These five colonels and lieutenant colonels decided the victim 
was telling the truth, and with one stroke of a pen that 
convening authority said to every victim out there that he's 
confident if they come forward they're either not going to be 
believed or they're not going to be supported or nothing is 
going to happen to the guy.
    You know what he did when he did that? He told all of them 
they were exactly right to hide in the shadows. That is more 
damaging to our military in the area of sexual assault than 
anything that could happen. All the training in the world will 
not fix this problem if you don't give these victims 
confidence.
    Frankly, when he wrote the letter explaining how he did it 
and the first point in his letter is that she hadn't taken a 
ride home from the party? Are you kidding me? You know what 
every victim said? Oh my gosh, no matter what happens at the 
trial, no matter if they believe me, some general is going to 
decide that I'm a slut because I didn't take a ride home.
    That is the problem. Until you guys at the top levels of 
the military get that, we're not going to fix it. I firmly 
believe that. I'm so proud that the Joint Chiefs made the 
recommendation to the Secretary of Defense to change Article 60 
of the UCMJ.
    I'm going to work as hard as I can to change Article 60. I 
don't want to throw it all out. I get that the convening 
authority has a role in terms of the good of the order. I get 
that. But the idea that they can overturn a factual 
determination by a jury they hand-picked, that's ridiculous.
    So I feel better.
    Now, on to F/A-18s. I think it's really an issue here that 
we're taking a real risk with our strike fighter inventory when 
it comes to JSF. I know that we now have a problem with them 
landing on the carriers, with the tailhooks, that they're all 
going to have to be modified. This is a huge issue. We now know 
another $8.5 billion just to fix the tailhook problem.
    The F/A-18 line is going to end domestic production after 
the final procurement this year. Doesn't the F/A-18 line 
mitigate the risk of this shortfall going forward? We're now 
not to full production until 2019 on the JSF. I would like 
Admiral or Secretary Mabus or any of you to speak to this 
issue.
    We can talk about how expensive it is. We can talk about 
how it's not doing what it should have done. We can talk about 
the capability being diminished. But at the end of the day, 
what about the inventory?
    Mr. Mabus. On the F/A-18 line, in our budget we're 
requesting 21 more Growlers, F/A-18Gs, be built in fiscal year 
2014, which would keep the line going through 2016. We do think 
that it's important to have that capability there.
    I'll let Admiral Greenert talk about the issues with the F-
35 and the tailhook and the inventory.
    Admiral Greenert. Simply, Senator, I need a tailhook, a 
helmet, and I need a program that will deliver weapons 
equivalent to a Super Hornet, so that the F-35 comes into the 
air wing. The air wing can't turn around the F-35. I've been 
pretty clear on that. My air wing of the future has to be 
Hornets, Growlers, and a fifth generation. So I do need the 
capability, and in my view unmanned; there's an unmanned 
element to that.
    Does it mitigate? Yes, it definitely would mitigate the 
need for the capability. So it all fits together into an air 
wing of the future that has to be able to deliver ordnance as 
well as jam and handle the electromagnetic spectrum, which is 
huge, in the future.
    Senator McCaskill. In terms of extending the flight hours, 
I know that the report came back from GAO saying that maybe we 
need an independent assessment about what the cost is going to 
be on extending the flight hours on existing Super Hornets. Can 
you speak to that? Based on experience, we've not always gotten 
the right number when it's been an interior assessment as 
opposed to an independent assessment.
    Admiral Greenert. Let me get you a written answer, but 
here's what my Naval Air systems commander is telling me, that 
the extension on the Super Hornet looks very good, that the 
Super Hornet's performing very well and its fatigue factors and 
those areas look well. So that he was confident that we could 
get an extension.
    I'll just give you something in writing that is deliberate.
    [The information referred to follows:]

    The cost and schedule to extend the service life of the Super 
Hornet is not fully known at this time. A Service Life Assessment 
Program (SLAP) is in progress to provide detailed analysis of fleet 
usage compared to structural test data. At this time, indications are 
that life extension will be achievable through modifications and 
inspections similar to the ongoing F/A-18C Hornet Service Life 
Extension Program (SLEP). Compared to the previous F/A-18A-D SLAP, the 
Super Hornet SLAP has the advantage of having three lifetime test 
cycles completed on certain test articles, which provides additional 
data and insight into fatigue issues that will need to be addressed if 
extending service life beyond 6,000 flight hours is required. As the 
Super Hornet SLAP results are delivered, we will be able to develop 
SLEP cost estimates, plans, and milestones.

    Senator McCaskill. That would be great.
    Thank you all very much. General Amos, I know your heart 
wants to get this fixed, and we'll work together and get it 
done. I know all of the military wants to do this. As you can 
tell, this one hits close to home for me because of the years I 
spent doing this.
    Thank you very much.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Admiral Greenert and Secretary Mabus, I was here yesterday 
at the Defense Appropriations Committee hearing. I didn't get a 
chance to ask the questions I wanted to ask then. I think maybe 
my colleague Senator McCaskill has opened that door and asked 
some of them already.
    Admiral, you're the last in line of the Services to get the 
F-35s, is that right?
    Admiral Greenert. Yes, sir, that's right.
    Senator Blunt. The same things you mentioned today I heard 
you mention yesterday, that you have to have some things happen 
before those are really useable planes.
    Mr. Secretary, you mentioned you've ordered the Growlers. 
You've asked for them in the budget, rather. You haven't 
ordered them; you've asked for them in the budget. I guess one 
of my questions is, I know your tactical aircraft, you're 29 or 
30 short of what you think you need and what's the risk of not 
moving forward, asking for more of the Super Hornets at the 
same time? Or is there just not a shortage in the Super Hornet 
part of the tactical aircraft (TACAIR) mix?
    Mr. Mabus. Senator, the TACAIR shortfall which the chairman 
mentioned in his opening statement has gotten significantly 
better. It's down to less than 20 aircraft in about 2,023 now. 
This is a result of a lot of things. Part of it is what Admiral 
Greenert said. As we're doing the high flight hour inspections 
of the Hornets and Super Hornets, these inspections are turning 
out better than we had anticipated. The wear is less, the 
repairs will be less. We are currently planning to do the 
service life extension on 150 aircraft to get us there.
    The other thing is we're transitioning quicker to the Super 
Hornets from the legacy Hornets, which are giving us more 
capability and more flight hours.
    So I think that, just in terms of numbers of TACAIR risk, 
the risk is relatively low as we're going forward. We're buying 
the extra F/A-18Gs or requesting that we buy 21 additional Gs 
because of the electronic attack mission. The Marine Corps is 
retiring their EA-6s and this would be required to make sure 
that we maintain that important capability of electronic attack 
in an expeditionary way, so that we can have enough 
expeditionary squadrons to support electronic attack, not just 
for the Navy and Marine Corps, but across the joint force.
    Senator Blunt. I'm hearing right that you think that your 
shortfall is now less than the Navy might have thought it was 
going to be a couple of years ago, because these planes are 
more serviceable and lasting better than anticipated?
    Mr. Mabus. Yes.
    Senator Blunt. Admiral?
    Admiral Greenert. There's also, when we did the numbers 
that you referred to, the higher numbers as to what the 
shortfall might be, a big factor was the use, how many cycles 
are the aircraft being used. That number has come down as we've 
operated in the Gulf. So 2 years ago the use of the Super 
Hornet and the legacy Hornets, if you will, was much higher 
than it is now.
    So as we do the measurements we're finding, hey, they're 
not as fatigued as we originally thought. The assumptions have 
changed in the analysis.
    Senator Blunt. I think there was a fairly significant 
request for maintenance and parts, maybe beyond what I would 
have thought. But General Amos, do you have anything to say on 
this topic of your transition on planes?
    General Amos. No, sir. I'm in complete agreement with my 
Secretary and the CNO on this. The management of the shortfall 
has been mitigated by a large degree as a result of actually 
managing each bureau number aircraft. Every single airplane, 
the number of carrier landings, the number of arrested 
landings, catapults, Gs on the airplane. So the naval aviation 
enterprise is actually managing each one of those aircraft by 
bureau number to mitigate the long-term effects of a lot of 
flying hours.
    So we're actually managing the fleet and that's what's 
helping us out.
    Senator Blunt. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Blunt.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for your service. Thank you 
for being here. Thank you for what you do for our country.
    Before I get into my questions, I did want to make one 
comment and it's echoing Senator Shaheen and Senator McCaskill. 
It's about sexual assault. General Amos, I really appreciate 
what you're doing, but you made a comment saying that it is not 
going to be easy to change this culture. I think if you look at 
the training, you look at the convictions, you look at the 
punishments, we shouldn't be saying it's not going to be easy.
    This is something that has, as you said, has the attention. 
You brought the generals together. You've discussed this.
    I guess one question is, how many of those generals are 
women percent-wise?
    General Amos. I can't tell you percent-wise, but we have a 
slice of our general officers, 80-plus general officers, that 
are females.
    Senator Hagan. I just think it is imperative that we 
understand that sexual assault, sexual harassment, has 
absolutely no place in our military, and that it is something 
that is really affecting the culture, especially of our women 
who are in Service. I just echo the other comments, how 
important this is. I appreciate what you're doing.
    General Amos, I did also appreciate the time that you've 
taken to discuss with me a lot recently on the issue of 
notifying those affected by water contamination at Camp 
Lejeune. The Agency for Toxic Substances and Disease Registry's 
(ATSDR) recently released water model did find that the levels 
for some contaminants were as high a 150 times now what is 
considered safe. So it's very important to me that the marines, 
the civilians, and family members who were exposed to these 
contaminants are kept informed as key information is released. 
I appreciate our discussion and our commitment to do so.
    Can you update the committee on what the Marine Corps has 
done since we talked to notify those affected by this tragedy 
of recent and future findings?
    General Amos. Senator, I can. I'll be happy to. Thank you 
for the opportunity.
    As you said, the ATSDR released what they call a chapter 8 
water model and it became public, and that was an official 
report. That's one of five phases of reports, and it talks 
about the contamination started as early possibly as 1953 
instead of 1957. So as a result of that, we've advertised in 
USA Today, national publications, full-page ads talking about 
the report, and with a link on there that you can link to get 
the report.
    We've notified 104,000 email addressees that we currently 
have in our registry. We've sent them emails. We also mailed 
out 188,000 letters here just this month. All this has been 
done this month, to notify everybody that we are in contact 
with that have come forward, that are part of the registry, 
about the results of the report.
    I'll also say, Senator, we intend to do exactly that same 
type of mass notification and awareness for all the other 
reports as they come out in the future over the next year or 2. 
So we're dedicated to this. We want to do it right--we are 
going to do it the right way.
    Senator Hagan. Thank you. I appreciate us working together 
on that, I really do.
    The Department of the Navy's investment in amphibious 
warships represents a critical investment that also supports a 
key Marine Corps mission. Citing fiscal constraints, you've 
decided to reduce the number of amphibious ships to a fleet of 
33, with only 30 available at any given time due to maintenance 
requirements. My understanding is that 30 ships is the bare 
minimum required for sea-based forcible entry.
    Secretary Mabus, do you consider it an acceptable risk to 
rely on the exact minimum number of ships needed to execute 
such a mission should the need arise? Then what is plan B if 
there are not enough ships operationally available?
    Mr. Mabus. Senator, in the shipbuilding plan that we've 
sent the tables to Congress we're building toward that 33 
level. The Commandant has said repeatedly that if he could have 
50 he would. So would I. But given the fiscal constraints, I 
think 33 is a reasonable number with a reasonable amount of 
risk.
    The other thing that is in there is that in terms of 
operations concepts there perhaps are other ways we can 
transport things beside just amphibious ships. The afloat 
forward staging bases that we're building two of today and two 
more to be configured as--the last two will be afloat forward 
staging bases. The first two are mobile landing platforms that 
can transport huge amounts of equipment into an amphibious 
assault area. The Joint High Speed Vessel that can move people 
and equipment around very quickly.
    So the Marines I know are looking at the concept of 
operations, but also we find that these amphibious ships, the 
three-ship amphibious ready groups with the big-deck amphib, 
the landing platform dock, and the landing ship dock, are some 
of our most flexible and important forces, and we think that 
these, the Gator Navy, the amphibs, are some of the most 
important things that we have.
    Finally, we're exercising that as well, the exercise Bold 
Alligator that happened off the coast of North Carolina last 
year and will be repeated next year, to make sure that the 
Marines have gone back to the amphibious roots and have the 
training and the doctrine to be able to perform the way that we 
know Marines do perform.
    Senator Hagan. We definitely know that.
    Thank you all for being here today and your testimony.
    Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses for their service during 
challenging times and for all of those that serve underneath 
you, we're grateful.
    I wanted to ask Admiral Greenert and certainly Secretary 
Mabus about the fleet size. I know that you've testified about 
the fleet size and I believe you began with that if you look 
back to September 11 our fleet size was 316 and now we're at 
283. We know from your recent reporting to us that what you 
believe you need is 306 to meet all of our needs.
    As I look at the schedule, the schedule that you have put 
forward that would put us dropping down to a fleet of 270 in 
2015, did I understand that correctly? Is that a schedule that 
is based upon the President's proposed budget? In other words, 
this 270 by 2015 does not account for sequestration, does it?
    Mr. Mabus. That's correct. The reason that you have the dip 
is that there were a lot of smaller surface combatants, 
particularly frigates, built in the 1980s during the big Cold 
War buildup and they are reaching the end of their service 
life. Now, they're being replaced, as you can see from those 
charts, and we're going to go back to 300 ships by the end of 
this decade, by far more capable, far more flexible ships in 
the fleet.
    One of the things--and I was the one that said, that gave 
the numbers--is that we today have 47 ships under contract and 
43 of those ships have been put under contract since I got 
here.
    Senator Ayotte. But just to understand, we don't meet 306, 
which is what we've said we'd need, until 2037, is that right? 
That is with what we believe to be more robust, appropriate 
levels of funding.
    Mr. Mabus. I believe that is correct, Senator.
    Senator Ayotte. So that's according to the P-14 Battle 
Force Inventory. That's where I got that number.
    So as I look where we are, we have pretty great challenges 
of getting to where we need to be for our naval fleet now, even 
if we keep funding where you've proposed it to be without 
sequestration. So what happens to us if we go forward with 
sequestration in terms of fleet number and capacity?
    Mr. Mabus. I'd like Admiral Greenert to also comment on 
this. But sequestration looms over everything and it will have 
impacts on things like multi-year programs that we're building 
submarines and destroyers under. It will have obviously an 
impact on the number of ships we can build.
    But the President's budget, the Senate budget resolution, 
the House budget resolution, all went forward saying that 
sequestration was not a good idea----
    Senator Ayotte. Mr. Secretary, I'm looking around here and 
I don't see, unfortunately, people doing what needs to be done 
to resolve sequestration. So I want to make sure that everyone 
here understands if we go forward with sequestration for our 
military, for our Navy, what size does our fleet end up being? 
Because we right now are at 283. We know we need 306. As far as 
I can see--and I'm sure you would agree with me--the world's 
not getting any safer with Iran marching toward a nuclear 
weapon, with what's happening in the Persian Gulf, with our 
shift to the Asia-Pacific region, all of which needs naval 
capacity. Numbers obviously matter in terms of what we can 
cover around the world.
    So, Admiral Greenert, I don't know if you can share with 
me, what happens to our fleet?
    Admiral Greenert. If we just apply sequestration, the 
number is $50 billion a year through there, and they are pro-
rated, you pro-rate it to the shipbuilding plan, and then I 
have to reduce force structure, again it's a straight linear 
extrapolation: 30 less ships, roughly, by 2020. So you're 
looking at, instead of 295, somewhere around 265. You keep 
taking that out to a 2-year posture, we could be down as low as 
235 ships.
    Senator Ayotte. 235 ships. Would you agree with me that 
that would take on tremendous risk, given the challenges we 
face around the world? What would that do to our shift to the 
Asia-Pacific region?
    Admiral Greenert. Number one, yes, I agree with you it 
would be tremendous risk. The shift to the Asia-Pacific, it 
would slow it down, truncate it by a lot.
    A point I'd like to make: Ships are definitely important. 
Ships forward are most important. So we have to sustain our 
forward-deployed naval force, the Singapore Initiative, making 
sure we take care of lift for the Marines to Darwin. That is 
something I think would be most important to work out, so that 
we do the best we can to be forward.
    Senator Ayotte. I appreciate it.
    I wanted to ask--I know it was touched upon before, 
Secretary Mabus and Admiral Greenert, on the Navy's proposed--
as I understand it, you submitted a proposal to OSD that would 
allow you to forego furloughs for 2013. Do you know when that 
decision will be made from OSD as to whether we can forego 
civilian furloughs? Because obviously one of the concerns that 
I have heard that seems to me to be a sensible concern is that 
we will get behind on the maintenance schedule, which will 
further exacerbate the difficulties and the strain put on our 
fleet.
    Mr. Mabus. Secretary Hagel said, I believe last week, that 
the decision had not been made, would not be made for a few 
weeks. One of the things that both the Commandant, the CNO, and 
I have said during these discussions is that, exactly as you 
pointed out, some of these civilian workers that we have, like 
our shipyard workers, have a direct operational impact in terms 
of maintenance and in terms of getting ships back out to sea.
    Senator Ayotte. Thank you.
    I appreciate all of you being here. I know that it's a 
challenging time to serve. Sequestration is something that I 
think is particularly foolish with regard to our national 
security, and I think it's been clear from your testimony and 
the other Service Chiefs that if we continue with this we're 
going to really diminish the strongest military in the world.
    So I thank you all for being here.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Nelson.
    Senator Nelson. If we get out of our ideological stances 
here on both sides of Capitol Hill, we can get rid of the 
sequestration going forward. But it's baked into the cake 
between now and October 1st.
    Admiral and General, since you're not going to have as many 
flying hours, can you use simulators to try to keep your crews 
tuned up?
    Admiral Greenert. We can, and in fact during this phase we 
went through with the Continuing Resolution and the 
sequestration we turned to simulators to help keep our folks as 
current as feasible. There are some skill sets that you can't 
replicate in a simulator.
    Some are getting better. The P-8 you're well aware of down 
there in Jacksonville. That's an excellent simulator and does 
magnificent things. But you can do some, but it's very limited.
    General Amos. Senator, exactly. We revamped the training 
and readiness manual for our aviation squadrons some time ago 
to incorporate more simulation as pressurization on flight 
hours increased. So we are and we obviously are going to have 
to continue to do even more.
    Senator Nelson. Mr. Secretary, I want to thank you for your 
service. It has been extraordinary.
    As evidenced by the female Senators that have spoken so 
emotionally, I want to point out that 6 and 7 years ago in 
another committee I chaired hearings about the rapes that were 
occurring in Iraq among contractors. I did that through the 
means of the Senate Foreign Relations Committee. What we had 
was the dramatic testimony of a number of female contractors, 
and they came to the committee and told about how everything 
was swept under the rug, that in some cases--now, this is only 
6 or 7 years ago--that they could not get medical attention, 
and of course they had to rely, not just on the contractor 
medical attention, but they were in the war zone, the U.S. 
military--and in addition, that once they got home they 
couldn't get the U.S. attorneys to prosecute because all of the 
evidence had been swept under the rug. It was so bad that they 
could not get rape kits.
    Can you bring me up-to-date on what is the standard 
procedure not only of this raw issue that has been brought out 
here with regard to Active Duty military, but with regard to 
the contractors as well under the supervision of the military?
    Mr. Mabus. Senator, just as an overall thing I want to say 
that--and this is the way I put it--that, asked if I'm 
concerned about sexual assault in the military, I've said--and 
I know I speak for General Amos and Admiral Greenert here--
we're angry. It's an attack. It's a crime. It's not anything 
else. If somebody was walking around and taking shots at random 
at our Service, we would fix it, and this is the same thing. 
This is an attack. This is an attack from the inside.
    We have made a lot of progress, I think. We're beginning to 
learn what works.
    In answer to your specific question, we now have trained 
sexual assault responders, victim advocates. We've trained our 
medical personnel in sexual assault and rape. There is a 
requirement to keep evidence for very long periods of time and 
not discard it after a certain amount of time.
    We have other things to encourage people to come forward, 
that if they feel in danger we will transfer someone 
immediately to get them out of even that feeling of danger.
    We are finding that we're beginning to figure out what 
works in a lot of these cases. I think we're doing a good job 
in terms of just training like NCIS investigators in this 
specific thing, training prosecutors in this specific thing, 
training defense attorneys in this specific thing.
    There's a lot more that can be done, but I do think that we 
have to make it clear from the seaman recruit to the four-star 
that we won't put up with this, this is unacceptable.
    Senator Nelson. Is this being applied now to the contractor 
personnel as well as the military?
    Mr. Mabus. Senator, as far as I know, in terms of the 
contractor personnel that the military supports in medical care 
and things like that, it is. On the broader question, I simply 
will have to get back to you.
    Senator Nelson. Okay. That was the situation that we 
examined in the committee years ago. In some cases some of the 
rapes were perpetrated by contractor personnel on contractor 
personnel, in some cases Active Duty military on contractor 
personnel.
    Admiral Greenert. Excuse me, Senator.
    Senator Nelson. Yes, Admiral?
    Admiral Greenert. If I may, just a tidbit.
    Senator Nelson. Please.
    Admiral Greenert. Contractors, we can't compel them and 
order them to come to training. We're doing training. But the 
feedback is they are attending the training and they're quite 
interested in what we're doing. They're embedded in our people 
and those that are embedded are coming to the training and 
interfacing. Just thought you'd want to know that.
    Senator Nelson. I appreciate that, and I'm sure they are, 
because it all affects morale and so forth.
    But in your execution of a contract with them, I wish you 
would look into the fact that your contract could compel 
contractor training.
    Don't forget those women.
    Thank you.
    Chairman Levin. Admiral, will you get back to us about that 
last point of Senator Nelson, about whether contracts can be 
amended to require the training which you've referred to?
    Admiral Greenert. Yes, sir, I will.
    [The information referred to follows:]

    Navy will pursue the establishment of a requirement that 
contractors attend sexual assault training into our contracts. I will 
work with the Secretary of the Navy and the Under Secretary of Defense 
(Acquisition, Technology, and Logistics) on this issue.
    A requirement for Sexual Assault Prevention and Response (SAPR) 
training does not typically fall within the specifications or statement 
of work (SOW) section of Navy contracts. To mandate that SAPR training 
be included in contracts, Navy would have to establish a policy 
requiring contracting officers to do so. Pursuant to the Defense 
Federal Acquisition Regulation Supplement (DFARS) 201.304(1)(i), 
``Approval of the USD(AT&L) is required before including in a 
department/agency or component supplement, or any other contracting 
regulation document such as a policy letter or clause book, any policy, 
procedure, clause, or form that: (A) Has a significant effect beyond 
the internal operating procedures of the agency; or (B) Has a 
significant cost or administrative impact on contractors or offerors''.
    This type of contractor training has been held by USD(AT&L) to fall 
within both categories (A) and (B) above; therefore we must seek 
USD(AT&L)'s approval before implementing such a requirement.

    Chairman Levin. Thank you.
    Thanks, Senator Nelson.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank each of you for your service and most especially the 
service of the extraordinary men and women under your command. 
I'm grateful to you for being here today and proud of your 
service to our Nation.
    Let me begin, Admiral Greenert, you were very kind to come 
to visit the sub base in New London. Mr. Secretary, you've been 
there as well. I assume that you continue to be of the view 
that that submarine base is important, indeed essential, to our 
national security?
    Admiral Greenert. Yes, sir, I do, both the piers and the 
support to the submarines, as well as the submarine training--
actually, the Submarine Learning Center, excuse me.
    Senator Blumenthal. Are you satisfied, Admiral, that the 
President's budget has sufficient funding to continue the 
submarine building program, Virginia-class program, at the 
present pace of two submarines a year for 2014 and beyond?
    Admiral Greenert. Yes, it does. We have a submittal and a 
funding mechanism in place that we proposed to Congress. With 
that, I'm comfortable.
    Senator Blumenthal. I've noticed that mechanism, which I 
fully support because I think the submarine program, as you and 
the Secretary observed, is absolutely essential to our 
continued undersea superiority, which in turn is vital to our 
national security.
    Are you satisfied, Mr. Secretary, that there's enough 
funding for the Ohio-class program?
    Mr. Mabus. I am, Senator. At the place we're in, which is 
early design, continuing to do some R&D, we have the funding in 
place and we are on track to not only begin construction on the 
timeline that we have laid out, but also working with our 
British partners on the common missile compartment, we're on 
schedule for their successor class as well.
    The one caveat that I would put in there is sequestration 
has the potential to change that answer considerably.
    Senator Blumenthal. My hope is that sequestration has no 
effect on the submarine program, because I think it ought to be 
clearly excepted from any of those cuts that could be 
contemplated in light of all the considerations that you and 
others have stated so powerfully and eloquently. So I'm hopeful 
that we can avoid those effects.
    Also, with all due respect, I know that you may not be able 
to comment on this point in detail, but the proposal for 
another Base Realignment and Closure (BRAC) I think is probably 
destined to be doomed or, as it's been put, dead on arrival 
here in Congress. But I would certainly believe there are 
better ways to save money. Indeed, the BRAC process has shown 
itself to be cost-ineffective rather than a means of saving 
money. So I'm hopeful that we can avoid that mistake as well.
    I know that you may not be in a position to comment on it, 
but I just want to state for the record that I'm hoping that 
the President will reconsider that point of view.
    Let me say to you that I take with complete trust and 
confidence the position that you have stated, all three of you, 
with great passion and commitment to eliminating sexual 
assault. I think that one of the aspects of this that deserves 
greater scrutiny is the reporting, which has to be encouraged. 
I noted that the report released on Monday--I believe it was on 
Monday--the 2011 health survey, stated that the percentage of 
reporting or responding to that survey in the Marine Corps was 
only about 22 percent, or in other words 78 percent of troops 
declined to participate.
    Now, that was before the legal reorganization, I suppose. 
So perhaps the reporting rates would be higher now.
    General Amos, I wonder if you could comment on what more 
can be done to encourage reporting?
    General Amos. Senator, I want to make sure I'm clear here. 
When I think of reporting, it's not so much a survey as it is 
the actual victims coming forward and saying something bad 
happened. It could be male or female.
    With the advent of this surge effort, this more than surge, 
this sustained long-term effort that the Marine Corps has taken 
on since the mid-summer of last year, we've said all along that 
we expect the numbers of restricted and unrestricted reports to 
go up. That would be an indication to me that my marines 
actually have confidence in the battalion commanders, the 
squadron commanders, the senior enlisted leadership, that they 
will not be revictimized, that they will not be humiliated, 
that they will be treated with dignity and respect and they'll 
be protected.
    That's what's happening. Our reports are going up. So 
there's a side of me that you go: Oh, I hate to see that. But 
that's the reality. As I travel around, as my Sergeant Major 
travels around, the feedback we get, the anecdotal feedback we 
get from predominantly our females is that: Okay, we're more 
comfortable; we have more confidence in the leadership now.
    A large percentage of the reports in this--and I can't tell 
you how many, sir, because the information is convoluted--are 
reports from 2 years ago. In other words, my marines have come 
forward and they've said: Okay, this happened to me 2 years 
ago. That's an indication that there is more confidence in the 
leadership's ability to be able to take this seriously.
    So that's the reporting I'm looking at, Senator.
    Senator Blumenthal. Your point is very well taken that 
there are two kinds of reporting and the reporting of actual 
crimes is what really probably is most important. I would just 
suggest in closing, because my time has expired, that the way 
to get more reporting, the way to make this system more 
effective, the way to give confidence to the men and women 
under your command, is to increase the conviction rates. I say 
that with all due respect as a prosecutor and not as a career 
military person as you are. But the best deterrence is--and I 
would just second Senator McCaskill--putting people away, 
putting them in prison, giving harsh, significant, but fair 
punishment. I know that you're committed to that policy.
    General Amos. Senator, if I could, I realize time is of the 
essence. That's a very good point. As a result of NCIS's help 
and the result of reorganization of what we pull together are 
complex trial teams, where we actually have the pros from Dover 
doing this now, from 2011 to 2012 we more than doubled the 
amount of prosecutions and we've more than doubled the amount 
of convictions.
    So we're headed in the right direction.
    Senator Blumenthal. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    I'm going to leave. I think that Senator Inhofe will be 
leaving. We have that meeting of all Senators.
    Before I call on Senator Hirono, I would ask that when 
she's completed, if she's the last Senator here, which I think 
she will be, if she could then adjourn the hearing.
    Thank you very much for your testimony, gentlemen, and I 
call on Senator Hirono.
    Senator Hirono [presiding]. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    I echo the sentiments of a number of my colleagues on this 
committee to focus on the need to do everything you can to end 
sexual assault in your Service and of course all the other 
Services.
    Admiral Greenert, you gave a response to Senator Ayotte 
regarding the number of ships, and I believe that you said that 
the reduction in the number of ships will slow our rebalance to 
the Asia-Pacific. This is not a question. It's simply to say 
that I share those concerns with you and this is yet--your 
response is yet another reason that we need to end 
sequestration and focus on going forward come October 1.
    Secretary Mabus, I want to thank you for your noting that 
you are doing everything you can to use some other method than 
furloughing the thousands and thousands of civilian employees 
at our various shipyards and other places in order to meet your 
budget cuts. So the thousands of our civilian employees at 
Pearl Harbor Naval Shipyard and I commend you for those efforts 
and please continue them.
    Yesterday the National Security Adviser, Tom Donilon, spoke 
of the critical link between energy security and national 
security. He stated, ``Energy matters profoundly to U.S. 
national security and foreign policy.'' I could not agree more. 
I know that this is something that you, Mr. Secretary, have 
long recognized. I want to commend your work as Secretary in 
aggressively pursuing a strategy of diversifying the Navy's 
fuel sources and using energy more efficiently so that we would 
be saving significant amounts of money that can go for other 
defense priorities.
    So as you note in your testimony, the Navy has historically 
been a leader in energy innovation. Given the successes you are 
seeing within the Navy and Marine Corps, what in your estimate 
would be the impact on the Navy's long-term capabilities if we 
were to reduce our investments and initiatives in energy 
security?
    Mr. Mabus. Senator, this is a military vulnerability, the 
amount of fuel we use, the types of fuel we use, the 
vulnerability we have not only to supply shocks, but also to 
price shocks. I think that if we were to lessen that commitment 
to diversifying our sources, to becoming more efficient, that 
we would simply be making a military vulnerability worse; and 
that one of the things that leaders of military Services are 
required to do and certainly should do is identify, you have a 
series of adversaries' or potential adversaries' 
vulnerabilities, but also your own, and to work to lessen 
those. That's what we've been trying to do, and we very much 
appreciate the support of you and of your colleagues toward 
this goal.
    It's a wide range of things. It's the efficiencies that we 
talked about, but it's also putting some competition in trying 
to develop sources of energy that are not influenced by world 
events, by somebody threatening to close a strait here or there 
and making the price of oil spike.
    For every dollar that oil increases per barrel, it costs 
the Department of the Navy $30 million in additional fuel 
costs. So for fiscal year 2011, fiscal year 2012, and then the 
proposed increase for fiscal year 2013, that's $1.5 billion to 
the Navy. Those sorts of impacts have impacts on our 
operations, they have impacts on our people, they have impacts 
on our ability to do what our missions are.
    So I would be very happy to--because I literally could go 
on about this all day, but to get you some of the figures that 
we have worked through in terms of the benefits of this, in 
terms of where this will take us, and, as you point out, the 
fact that the Navy in particular, but also the military in 
general, has led in this and other technology changes.
    Senator Hirono. Mr. Secretary, I could not agree with you 
more that we need to continue to make the investments in energy 
security, and you correctly identify this as a security 
vulnerability if we don't do that.
    General Amos, it's good to see you again. The Marine Corps 
obviously plays a major role in the Pacific and are a 
significant part of the rebalance to the Asia-Pacific area. Can 
you talk a little bit about the latest with regards to 
relocating Marine Corps forces throughout the Pacific?
    General Amos. Senator, thank you. Yes, I can. We actually 
began this about a year and a half ago. If you take a look at 
the amount of monies over the Future Years Defense Program, 
there's about $3.5 billion all totaled money being focused on 
the reorientation of the marines in the Pacific. So that just 
gives you a sense for how committed we are.
    We deployed our first rotating battalion back onto the 
island of Okinawa last year. One of the companies of that 
battalion went down to Darwin, Australia, and began the Darwin 
detachment down there, which has just been reconstituted again 
this month.
    So that's going to begin an effort between our Nation and 
Australia, gradually eventually growing to about 2,500 marines 
there.
    We started again this year with another installment of 
another Marine battalion from Hawaii to Okinawa. So today we 
not only have the kind of typical battalion that's affiliated 
with Okinawa; we now have two rotating battalions on the ground 
on Okinawa in support of the rotational forces.
    This fall we're going to do that again. We'll triple down 
on that, so we'll have three rotating battalions plus one on 
the ground. We'll move more aviation assets into the Western 
Pacific.
    So we're committed on that. There's already this footprint 
increasing in the Western Pacific for the shift to the Pacific.
    Senator Hirono. Thank you very much for that explanation.
    As I am the last remaining person on the committee here, I 
want to once again, on behalf of our committee, thank you all 
for your service and for being here with your testimony.
    The committee stands adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                    MAYPORT AND STRATEGIC DISPERSAL

    1. Senator Nelson. Secretary Mabus and Admiral Greenert, dispersing 
our capital ships is in our best national security interest and 
specifically, dispersing the east coast carrier fleet is a national 
security priority. The 2010 Quadrennial Defense Review (QDR) clearly 
states, ``To mitigate the risk of a terrorist attack, accident, or 
natural disaster, the U.S. Navy will homeport an east coast carrier in 
Mayport, FL.'' The Navy has stated military construction costs to 
prepare Mayport to homeport a carrier would be approximately $500 
million, while the Government Accountability Office (GAO), estimates 
the number to be $250 to $300 million. However, the Navy recently 
completed a Controlled Industrial Area (CIA) at the Naval Shipyard in 
Portsmouth, VA, for $33 million. Can you discuss how the Navy can 
provide such a drastically different quote for a similar facility?
    Mr. Mabus and Admiral Greenert. Several factors contribute to the 
disparity in cost between the Norfolk Naval Shipyard Controlled (NNSY) 
Controlled Industrial Facility (CIF) and Mayport: project scope, 
timing, and location. First, a direct one-for-one comparison of the 
NNSY CIF to Mayport cannot be made as several structures critical to 
operating a CIF already exist in Norfolk, whereas they would have to be 
included in constructing a similar facility in Mayport.
    Second, the downturn in the economy after 2008 has led to a more 
favorable bidding climate nationwide. The award amount of $26.3 million 
for the NNSY CIF reflects a winning bid in the current economic 
climate. In contrast, cost estimates for Mayport were prepared to 
inform the selection of a Preferred Alternative from among many 
different ship homeporting options as part of the 2008 Environmental 
Impact Statement. Estimates for all the Mayport options were very 
conservative, as they were based on preliminary data and took into 
consideration the post-Katrina cost escalations prevalent in Florida 
and the other Gulf Coast States at the time.
    Third, the Mayport CIF design is more robust to accommodate the 
increased potential for higher storm surges due to its location 
adjacent to the coast of Florida.
    In closing, should the CIF be programmed in a future year, the 
estimate would be refined to reflect current economic conditions and 
lessons learned from constructing the CIF in Norfolk.

    2. Senator Nelson. Secretary Mabus and Admiral Greenert, will you 
ensure strategic dispersal is again added as an objective in the 2014 
QDR?
    Mr. Mabus and Admiral Greenert. The Navy is committed to strategic 
dispersal of its forces. Strategic dispersal ensures that ships and 
aircraft, their crews, supporting maintenance, and training-critical 
infrastructure are located in more than one facility or region whenever 
possible. To that end, strategic dispersal of our assets will have 
great emphasis in the development of the 2014 QDR.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III

                              CONTRACTORS

    3. Senator Manchin. Secretary Mabus, what is the approximate number 
of contractors the Navy presently has in its inventory and whether this 
figure has gone up or down since last year?
    Mr. Mabus. For fiscal year 2011, the Department of the Navy 
Inventory of Contracts for Services (ICS) reported 182,126 Contractor 
Full-Time Equivalents (FTEs) based on Navy contracted actions with 
$33.1 billion obligated. For fiscal year 2012 the Navy ICS reported 
178,679 contractor FTEs based on Navy contracted actions with $28.5 
billion obligated. Using this common reporting baseline, the Navy ICS 
figures have gone down.
    Additionally, for fiscal year 2012 an improved model for gathering 
ICS data was implemented to include additional separate categories for 
actions contracted by defense agencies (not Navy) and by non-defense 
agencies using Navy funds. The table below includes the baseline Navy 
contracted figures for fiscal years 2011 and 2012; and, includes the 
fiscal year 2012 Navy ICS reported data for these two additional 
categories.

------------------------------------------------------------------------
 Department of the Navy fiscal
 year 2011 and fiscal year 2012                            Full-Time
   Inventory of Contracts for      Obligated Dollars    Equivalent Count
     Services (ICS) Report
------------------------------------------------------------------------
From fiscal year 2011 ICS
  Navy Contracted..............       $33,120,323,148            182,126
------------------------------------------------------------------------
From fiscal year 2012 ICS
  Navy Contracted..............        28,478,906,028            178,679
  Defense Agency Contracted             1,765,038,233              9,844
   (Not Navy)..................
  Non-Defense Contracted.......           496,141,609              3,812
                                ----------------------------------------
    Total......................       $30,740,085,870            192,335
------------------------------------------------------------------------


                               FURLOUGHS

    4. Senator Manchin. Secretary Mabus, I'm told the Navy proposed an 
alternative to the 14-day furlough for its 201,000 civilian workers. 
According to Foreign Policy's Situation Report Newsletter, Navy leaders 
believe the ultimate cost of disrupting operations via a Department-
wide furlough would negate the $300 million in projected savings. 
However, this request was disapproved by the Department of Defense 
(DOD). Would you implement an alternative to the civilian furlough if 
you were given the discretion to do so?
    Mr. Mabus. The Navy provided input to the Secretary of Defense 
regarding possible ways to deal with the current budget crisis caused 
by sequestration. After consideration of the Navy's and the other 
Services' proposed options and alternatives, the Secretary of Defense 
on May 14, 2013, announced the decision to furlough DOD civilian 
employees, with a limited number of approved exemptions, as part of the 
solution to solve the budgetary shortfall across the DOD for fiscal 
year 2013. The Navy is implementing that decision. We continue to work 
with the Secretary of Defense to find ways to mitigate against the 
negative implications of sequestration on the Navy's mission.

    5. Senator Manchin. Secretary Mabus, is the furlough going to 
create more bills than it will pay?
    Mr. Mabus. Sequestration reduced the DOD's budget by $37 billion in 
fiscal year 2013, and of that amount, the Department of Navy was 
reduced by nearly $11 billion across various appropriations. It was 
these budget reductions that resulted in the Secretary of Defense's 
decision to furlough civilian personnel (with some exceptions).
    Current estimates of projected savings for the 11-day furlough 
announced by the Secretary of Defense on May 14, 2013, are 
approximately $130 million in the Operation and Maintenance, Navy 
Appropriation and $2 million in the Operation and Maintenance, Navy 
Reserve appropriation. For those personnel funded by the Navy Working 
Capital Fund (NWCF), while the personnel will be paid less, the 
furlough will slow completion of orders and result in the lost recovery 
of overhead, which may actually increase costs in future years.

                           TUITION ASSISTANCE

    6. Senator Manchin. Admiral Greenert, the Navy is the only Service 
to provide uninterrupted tuition assistance to its servicemembers. I 
find this to be a remarkable commitment to both the personal and 
professional growth of Navy servicemembers. Can you discuss why you 
feel tuition assistance is so vital to the Navy?
    Admiral Greenert. In addition to the readiness advantages offered 
by education, there is an implied commitment between sailors and the 
Navy they serve. One way that Navy honors this commitment is by 
preserving a Tuition Assistance program that assists sailors in 
achieving their education goals. This enables sailors to develop 
themselves both personally and professionally into leaders who can 
think critically, translate their thoughts into actions, and make 
effective, educated decisions. This is important both in the Navy, and 
if sailors choose to return to civilian life.

                       MARINE CORPS END STRENGTH

    7. Senator Manchin. General Amos, you are in the midst of reducing 
the size of the Marine Corps from roughly 200,000 to 182,000 by 2017. 
Recently, the Army alluded to cutting an additional 100,000 soldiers if 
the sequestration's caps remain in place. If sequestration remains in 
place, would the Marine Corps have to make additional end strength 
cuts?
    General Amos. We will not have a definitive answer to this question 
until DOD completes its Strategic Choices and Management Review (SCMR) 
of our current National Defense Strategy and analysis of a range of 
potential budget cuts. Depending upon where the Department weights its 
effort, 182,100 may or may not be sustainable. We continue to believe 
that the Nation needs a ready crises response force that is forward 
deployed and forward engaged. The President's current National Defense 
Strategy which rebalances our forces towards the Asia-Pacific theater 
is suited to the capabilities and strengths of your Marine Corps. If 
the Marine Corps' budget is further reduced below current Budget 
Control Act levels, we will have to look at reducing forces below 
182,100. Determining how much below 182,100 will again depend on how 
much the Marine Corps is required to reduce their budget based on 
decisions that result from the SCMR.

                            NAVY CREW SWAPS

    8. Senator Manchin. Admiral Greenert, the respected defense expert, 
Michael O'Hanlon, suggested that the Navy could save about $2 billion 
per year by employing crew swaps. He stated, ``by keeping a given ship 
abroad for roughly 2 years and having two or three crews share that 
vessel overseas, the Navy can do more with less. In fact, it can 
accomplish with about 3.5 ships, on average, what previously might have 
required 5.'' What do you think about using crew rotation as a means to 
do more with less?
    Admiral Greenert. I agree that using crew rotation can help us 
achieve more forward presence more efficiently. The Navy and Marine 
Corps are our Nation's ``away team'' and history demonstrates the Navy 
is at its best when we are forward and ready to respond where it 
matters, when it matters.
    In order to maximize forward presence within resource constraints, 
we have explored the use of different manning (rotational crews and 
active duty/civilian mariner mixed crews) and basing (Forward Deployed 
and Forward Stationed Naval Forces) models.
    When part of the Forward Deployed Naval Forces (FDNF), ships, 
aircraft, crews, and their families all reside in the host nation, such 
as Japan, South Korea, Spain, or Italy. As your question referenced, it 
typically requires at least four ships from the continental United 
States (CONUS) to keep one forward: one ship is deployed, one is 
returning, one is on its way forward and one is in deep maintenance. 
For example, today we designate about 10 Arleigh Burke-class destroyers 
deploying from Norfolk and Mayport to provide two in the Eastern 
Mediterranean for missile defense to our European allies. In a few 
years, we will cover the same mission with four destroyers based in 
Rota, Spain, and, therefore, free up six destroyers to deploy to other 
regions of the world. This is much more efficient than rotationally 
deploying ships and aircraft from the CONUS. Similarly, we will soon 
homeport another submarine Guam, providing the same presence as four 
deploying from the West Coast. In addition, we will also transition 
Minecounter Measure (MCM) and Patrol Coastal (PC) ships to the FDNF in 
Bahrain.
    Forward stationing and rotational crewing together provide more 
than twice the forward presence as traditional models. We also deploy 
Forward Operating Military Sealift Command (MSC) ships such as Mobile 
Landing Platforms, Joint High Speed Vessels, Combat Logistics Forces 
and Afloat Forward Staging Bases. These Forward Operating ships remain 
forward overseas almost continuously and employ rotating crews of 
civilian mariners augmented by rotating military detachments.
    Each of these models that keep ships and aircraft forward enable 
Navy to maximize the presence delivered by the fleet. Each ship kept 
forward using one of these models provides the same presence of about 
four ships rotationally deploying from CONUS. These models all depend 
on U.S. bases overseas (such as in Hawaii and Guam) as well as places 
overseas, which are allied and partner nation facilities such as 
Singapore, Japan, and Rota, Spain, that are available for the use of 
our deployed forces. Bases and places enable our deployed forces to 
rest, repair, resupply, and refuel overseas and reduce the need for 
rotational deployments from CONUS.

                     ALLEGANY BALLISTICS LABORATORY

    9. Senator Manchin. Secretary Mabus, I want to commend the Navy for 
being responsive to my colleague, Senator Rockefeller, and myself last 
year, when you examined the data center and information technology 
capabilities at the Allegany Ballistics Laboratory (ABL) in Rocket 
Center, WV. In particular, I note that you wrote to Senator Rockefeller 
on May 21, 2012, that ABL was being seriously considered for the 
designation as a Naval Enterprise Data Center. I also understand that 
recently ABL has been slated to be a research, development, test, and 
evaluation (RDT&E) hub for Navy information technology. Can you give me 
an update on that?
    Mr. Mabus. The Navy is planning to include ABL as a part of our 
long-term Data Center Hosting options for the RDT&E environment. Our 
ongoing focus in Data Center Consolidation has been to close and 
consolidate multiple domestic computing environments in accordance with 
the Federal Data Center Consolidation Initiative (OMB). The Navy is 
considering using a portion of ABL as an RDT&E hub for the east coast. 
We will also designate a facility to be our RDT&E hub for the west 
coast. Plans for establishing these Navy hubs are currently in 
development.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                           CIVILIAN FURLOUGHS

    10. Senator Inhofe. Secretary Mabus, I am concerned about the 
potential impact of civilian furloughs on the Navy's critically 
important family support programs. If furloughs take place, do you 
expect any cutbacks in your operating hours at commissaries, exchanges, 
and child development centers or curtailment of morale, welfare, and 
recreation, Department of Defense Education Agency programs, transition 
assistants programs, or military spouse employment programs?
    Mr. Mabus. The Navy provided input to the Secretary of Defense 
regarding possible ways to deal with the current budget crisis caused 
by sequestration. After consideration of the Navy's and the other 
Services' proposed options and alternatives, the Secretary of Defense 
announced the decision to furlough DOD civilian employees with a 
limited number of approved exemptions. The Navy is implementing that 
decision and continues to work with the Secretary of Defense to find 
ways to mitigate against the negative implications of sequestration on 
family support programs.
    As a result of sequestration, most Commissary stores will close on 
Mondays. Overseas commissaries staffed primarily with foreign nationals 
will remain open. The Defense Commissary Agency Headquarters also plans 
to close every Monday.
    Furlough will have minimal impact on Spouse Employment and 
Transition Assistance Programs (TAP). Furlough days for employees at 
delivery points will be rotated to ensure support is provided to Navy 
families.
    The civilian furlough will not impact Navy child care programs. The 
majority of Navy child care workers are non-appropriated funded (NAF) 
personnel and therefore not subject to furlough. Additionally, 
appropriated funded personnel who provide direct caregiving have been 
exempted from furlough.
    The majority of morale, welfare, and recreation employees are NAF 
personnel; accordingly reductions or curtailment of programs and 
services due to the civilian furlough are not anticipated. Morale, 
welfare, and recreation programs and services have already been reduced 
at most Navy installations due to sequestration and further reductions 
are not anticipated due to the furlough.
    Navy exchanges employ non-appropriated fund personnel, therefore 
the civilian furlough will not impact operating hours. There are no 
plans to change operating hours at any Navy Exchange or Navy Lodge.

    11. Senator Inhofe. Secretary Mabus, if civilian furloughs, in 
response to sequestration, impact the mission of the military entrance 
processing stations, then what options does the Navy have to ensure 
your recruit accessions are not disrupted?
    Mr. Mabus. Marine Corps - All Service recruiting will be impacted 
by civilian furloughs at Military Entrance Processing Stations (MEPS); 
because 80 percent of MEPS personnel are civilians. The possible 
civilian furlough reduces their available processing capacity. 
Implementation of a 4-day processing week would likely degrade our 
accession efforts.
    Navy - Navy ships its recruits from Monday through Thursday. We 
anticipate the furlough would shut down MEPS processing on Friday only. 
Therefore, Navy recruiting accession mission may not be impacted as a 
result of planned MEPS furloughs in fiscal year 2013. However, with the 
planned 11-day MEPCOM furlough, Navy recruiting would experience a new 
contract mission shortfall of approximately 2,900 total new contracts 
for both Active component (AC) and Non-Prior Service Reserve component 
(RC). This shortfall represents approximately 15 percent of the 
remaining fiscal year 2013 new contract mission of 19,675 (AC/RC). This 
shortfall would result in a 5 percent decrease in the Delayed Entry 
Program (DEP) posture for the beginning of fiscal year 2014. The 
reduction of the DEP posture from a target of 50 percent will increase 
our new contract mission for fiscal year 2014. However, we anticipate 
meeting our accession mission in fiscal year 2014. If MEPCOM furloughs 
continue into fiscal year 2014, MEPS capacity to process new contracts 
will be restricted and Navy's accession mission could be at moderate 
risk.

                   NAVY'S LONG-TERM SHIPBUILDING PLAN

    12. Senator Inhofe. Secretary Mabus, last year, the Congressional 
Budget Office (CBO) issued a review of the Navy's 30-Year Shipbuilding 
Plan. That review questioned the Navy's estimates that the cost for 
new-ship construction under its plan would be $505 billion over 30 
years, or an average of $16.8 billion per year. In contrast, CBO 
estimated that the Navy's intended new-ship construction would cost 
$599 billion over 30 years, or an average of $20.0 billion per year. 
Even with these estimates, CBO concluded that the Navy's 2013 plan 
would fall short of meeting the Service's inventory goals for 
destroyers, attack submarines, and ballistic missile submarines. In 
addition, CBO's estimate of $20.0 billion per year for new-ship 
construction in the Navy's 2013 shipbuilding plan is about 40 percent 
above the historical average funding of $14.3 billion. As of this 
hearing, we have not received an updated 30-Year Shipbuilding Plan this 
year that was supposed to accompany the President's budget. Will the 
Navy's updated plan for a 306-ship Navy reconcile differences in cost 
estimates with CBO?
    Mr. Mabus. Yes. The differences between the Navy and CBO estimates 
is caused by different cost estimating methods, assumptions about 
design and capabilities of future ships, and inflation indices.
    The cost estimates in the Fiscal Year 2014 Shipbuilding Plan are 
consistent with the estimates in previous plans. Cost estimates in 
Navy's shipbuilding reports are inflation-adjusted to constant-year 
dollars using the ship composite inflation rate which captures the 
historical increases in shipbuilding costs. This rate is typically 1.5 
to 1.8 percent higher than the general inflation rate of the U.S. 
economy as a whole. CBO's estimates use this rate, but also inflate 
costs by market inflation rates, which Navy considers double-counting 
the effect of inflation.

    13. Senator Inhofe. Secretary Mabus, what is the Navy's plan to 
address CBO's concerns for goals related to destroyers and attack 
submarines?
    Mr. Mabus. The need to recapitalize our Fleet Ballistic Missile 
Submarine force will cause significant and noteworthy risks to the 
Navy's overall shipbuilding plan. The Navy will try to maintain 
destroyer and submarine requirement goals through calculated 
procurements, cost reductions in the Ohio replacement SSBN and other 
ship programs, ship retention for the expected service life, and 
targeted service life extensions.
    The Navy plans to procure 33 Virginia-class SSNs from fiscal year 
2014 to fiscal year 2033. This will result in attack submarines falling 
to a low of 42 ships in fiscal year 2029--6 boats below the current 
planning requirement--before rising to 48 in fiscal year 2035 and 
remaining at or above the requirement for the rest of the 30-year 
period.
    A particular planning concern is the Large Surface Combatant (LSC) 
force and the impact Ohio replacement SSBN funding will have on it. The 
Navy's Shipbuilding plan procures 66 LSCs which will reduce the effect 
of the retiring CG-47-class cruisers in the mid-2020s and the large 
number of retiring legacy DDGs in the late 2020s and early 2030s. 
Additionally, the Navy has extended the service lives of all Flight IIA 
DDG-51s to 40 years to reduce the impact on LSC force structure. Even 
with this measure, the LSC inventory will fall to a low of 80 ships in 
fiscal year 2034--8 below the current planning requirement--before 
rising to 88 LSCs in fiscal year 2038.
    An important point is ``not all ship types are equal in 
importance''; we will build and integrate ship types based on the 
capability each provides, the evolving global situation, payload 
integration, and other key factors. For example, the plan attempts to 
balance shortfalls in large surface combatants, amphibious warfare 
ships, and attack submarines until the Force Structure Assessment (FSA) 
(by ship type) requirement is reached. It is a complex balance of 
platforms, payloads, capacity, and capability.
    All of these measures will help maintain the size of the battle 
force inventory at about 300 ships during the procurement of the Ohio 
replacement SSBN and the heavy ship retirement period expected in the 
2020s and 2030s. However, even after all of these measures are taken, 
executing the build plan with expected future resources will present a 
planning and resource challenge.

    14. Senator Inhofe. Secretary Mabus, how will the full funding of a 
replacement ballistic missile defense submarine affect the Navy's 
shipbuilding plan?
    Mr. Mabus. The Navy will encounter several challenges in executing 
this shipbuilding plan; perhaps the most important is funding and 
delivering the Ohio replacement program SSBN. The Ohio replacement SSBN 
is projected to cost about $6 billion (fiscal year 2013 constant 
dollars) each. Therefore, during the procurement and construction of 
Ohio replacement SSBN between fiscal year 2021 and fiscal year 2035, an 
average of $19.2 billion per year is projected to be required for 
shipbuilding, which will be a key resourcing challenge for the 
Department.
    If Navy funds the Ohio replacement SSBN from within its own 
resources, Ohio replacement SSBN construction will take away from 
construction of other ships in the battle force such as attack 
submarines, destroyers, aircraft carriers, and amphibious warfare 
ships. The resulting battle force will not meet the requirements of the 
Force Structure Assessment (FSA) and will therefore not be sufficient 
to implement the Defense Strategic Guidance (DSG). In addition, there 
will be significant impact to the shipbuilding industrial base.

    15. Senator Inhofe. Secretary Mabus, how will the sequestration of 
funds in fiscal year 2014 affect the Navy's shipbuilding plan?
    Mr. Mabus. I am committed to the successful execution of the Navy's 
shipbuilding plan, and I'm doing my best to ensure that we continue to 
build the fleet. We have 53 ships under contract today, 47 of which 
were contracted since I took office, and our current shipbuilding plan 
puts us on track for 300 ships in the fleet by 2019. However, the Navy 
shipbuilding plan is underpinned by the assumptions, that funding: will 
be sustained at the fiscal year 2014 President's budget level through 
the Future Years Defense Program (FYDP), will be increased during 
recapitalization of the Ohio-class submarines, and will be sustained at 
the appropriate levels (likely higher than current historical average) 
for the remainder of a 30-year period.
    The Navy is concerned that sequestration poses significant risks 
upon these underlying assumptions and therefore upon the size of our 
fleet. This was highlighted by the Navy's determination to balance 
fleet wholeness with the constraints of the budget. The Department is 
currently assessing the impact of sequestration on its shipbuilding 
goals as part of the SCMR, which is designed to factor in defense-wide 
budget cuts and its impact on the DSG. Upon completion of the review, 
we will balance the level of risk across warfighting and support 
capabilities for the full range of potential military operations and 
prioritize procurements to meet the capabilities and capacities to 
achieve this balance.
    Ultimately, in the event of full sequestration, the Navy's fiscal 
year 2014 shipbuilding plan will need to be reexamined. Under such 
circumstances, and in keeping with our shared responsibility for a Navy 
which provides for the Nation's security, the Department will work 
closely with Congress in determining the naval force the Nation can 
best afford.

    16. Senator Inhofe. Secretary Mabus, how would you assess the 
current readiness of the amphibious fleet to meet Marine Corps 
deployment requirements?
    Mr. Mabus. The Navy remains committed to providing sufficient 
amphibious warships for day-to-day presence as well as large-scale 
expeditionary operations. The Navy stands aligned with the Marine Corps 
on the fiscally-constrained requirement for 33 amphibious warships. 
This provides 30 operationally-available amphibious ships to meet Naval 
and Marine Air Ground Task Force (MAGTF) amphibious embarkation demand 
requirements. Although our current amphibious inventory stands at 30 
ships, the Navy continues to meet Navy and MAGTF deployment schedules 
with a higher than normal OPTEMPO. Going forward, the shipbuilding 
program described in the fiscal year 2014 30-Year Shipbuilding Plan 
builds and maintains a battle force of at least 31 amphibious ships by 
fiscal year 2018 and achieves 33 amphibious ships in the required 11/
11/11 mix no later than fiscal year 2025.

                   COSTS FOR CVN-78 AIRCRAFT CARRIER

    17. Senator Inhofe. Secretary Mabus, the President's budget request 
for fiscal year 2014 includes a legislative proposal to amend the cost 
cap for the first Ford-class aircraft carrier (CVN-78), currently under 
construction from $11.8 billion to $12.9 billion. As you know, the CVN-
78 is the first of three ships in the Navy's new USS Gerald R. Ford 
(CVN-78)-class of nuclear-powered aircraft carriers. The next carrier, 
CVN-79, is now estimated to cost the Navy $11.3 billion. Are the costs 
and schedule for the CVN-78 under control?
    Mr. Mabus. The cost for CVN-78 has stabilized at $12.887 billion. 
Similarly, schedule performance has also stabilized, holding a constant 
4-month variance to launch for the past few years. This delay in the 
launch date will allow increased outfitting of the ship while still on 
land, which is a key aspect in controlling the cost. CVN-78 is now 
scheduled to launch in November of this year and deliver no later than 
second quarter of fiscal year 2016. A detailed summary of the cost 
control measures for CVN-78 and CVN-79 is attached in the Report to 
Congress I provided in May of this year.

    18. Senator Inhofe. Secretary Mabus, what challenges remain to 
deliver the CVN-78 to the fleet?
    Mr. Mabus. The biggest challenge to delivery of CVN-78 to the fleet 
is completion of the test program for new development items aboard the 
ship. The primary developmental systems include Electromagnetic 
Aircraft Launch System (EMAL), Dual Band Radar (DBR), and Advanced 
Arresting Gear (AAG). As these are new technologies employed on the 
Ford, the first of the CVN-78 class, there are system integration risks 
with initial operation of these systems. To mitigate these first time 
integration risks, the Navy conducts land-based testing of these 
systems at Wallops Island (DBR) and Lakehurst (EMALS and AAG) prior to 
shipboard installation; however, there likely will still be interface 
issues that need to be addressed after full integration with other 
ship's systems during testing prior to ship delivery.

    19. Senator Inhofe. Secretary Mabus, how will sequestration in 
fiscal year 2013 affect the delivery schedule?
    Mr. Mabus. Fiscal year 2013 sequestration had no impact on the CVN-
78 delivery schedule.

    20. Senator Inhofe. Secretary Mabus, how would the sequestration of 
defense funds in fiscal year 2014 affect the Ford-class acquisition 
program?
    Mr. Mabus. The Navy is examining the impacts of sequestration in 
fiscal year 2014, in conjunction with the Department's broader SCMR 
effort. The impacts to specific programs have not yet been determined.

    21. Senator Inhofe. Admiral Greenert, given the current budget 
reality, how realistic is it that we be able to build and maintain 11 
carriers?
    Admiral Greenert. Navy remains committed to maintaining a force 
structure of 11 aircraft carriers, as reflected in the fiscal year 2014 
Long-Range Plan for Construction of Naval Vessels submitted to Congress 
in May 2013. The 11-carrier force structure represents a balanced 
approach to best support a forward naval posture capable of meeting 
warfighting and peacetime requirements. Delivery of USS Gerald R. Ford 
(CVN-78) in fiscal year 2016 returns the carrier fleet to 11 aircraft 
carriers as statutorily established in 10 U.S.C. 5062(b). A combination 
of new carrier construction and the recapitalization of Nimitz-class 
carriers through the Refueling Complex Overhaul (RCOH) program will 
maintain the carrier force structure at 11 ships through 2039.
    Continuing sequestration will remain the biggest challenge to 
executing this plan in the near term. Navy is aggressively pursuing 
cost-cutting initiatives to reduce the cost of subsequent Ford-class 
carriers. Initiatives include:

        <bullet> Applying lessons learned from the construction of the 
        first-of-class CVN-78; and
        <bullet> Building follow-ships at regular intervals for a 
        stable industrial base.

                         LITTORAL COMBAT SHIPS

    22. Senator Inhofe. Admiral Greenert, the Concept of Operations for 
the Littoral Combat Ship (LCS) called for one ship with multiple 
mission modules to replace 30 FFG-7 frigates, 14 Avenger-class MCM 
vessels, and 12 MHC coastal mine hunters, for a total of 56 vessels. 
The current plan calls for the purchase of 52 LCSs, which will 
eventually comprise one-third of the entire Navy's surface combatant 
fleet. While the price per ship has increased by over 60 percent since 
inception, recent concerns have been raised within the Navy about the 
LCS's capabilities as compared to legacy systems as well as concerns 
about survivability, adequate manning, endurance, and the ship's 
ability to meet warfighter requirements. In how many core missions of 
the sea service's Cooperative Strategy for 21st Century Seapower is the 
LCS likely to succeed?
    Admiral Greenert. LCS, as seen in her initial operations, is 
performing as expected, and is likely to succeed in all of the core 
missions outlined in the Cooperative Strategy for 21st Century 
Seapower. In terms of price, the LCS and its mission modules are about 
the same (in inflation-adjusted terms) as when originally proposed. 
While the seaframes are more expensive than planned, the mission 
modules are less costly than expected.

Forward Presence:
    LCS has already deployed and commenced forward operations out of 
Singapore. USS Freedom (LCS-1) deployed from San Diego on March 1, 
2013, and will conduct multi-lateral exercises, port visits, 
humanitarian assistance, and counter-piracy operations with partner 
nations in Southeast Asia over the next several months. LCS deployments 
will alleviate the operational burden on our forward deployed surface 
forces based in Japan. When the LCS program reaches maturity, much of 
the class will operate forward from places such as Singapore, Bahrain, 
and Sasebo, as well as throughout the U.S. European Command, U.S. 
Africa Command, and U.S. Southern Command Areas of Responsibility 
(AORs).

Deterrence, Sea Control, Power Projection, and Maritime Security:
    LCS, by virtue of its flexible capabilities and sheer numbers, is 
ideal for deterrence, sea control, power projection, and maritime 
security operations. The modular design allows operational commanders 
to tailor LCS to execute Surface Warfare (SUW), MCM, and Anti-Submarine 
Warfare (ASW) missions. LCS' high speed will allow it to quickly arrive 
on station, in numbers, to project power and serve as a credible 
deterrent.

Humanitarian Assistance and Disaster Response:
    LCS's speed and agility provide limited noncombatant evacuation 
operations (NEO) capability, and the shallow draft allows these ships 
to enter austere ports that larger vessels could not safely navigate. 
LCS can be customized to rapidly support Humanitarian Assistance and 
Disaster Response missions. The large mission bays which normally 
support SUW, MCM, and ASW mission packages can be used to transport 
disaster relief supplies and can support evacuees for short durations.

    23. Senator Inhofe. Admiral Greenert, is the Navy trying to find a 
mission for the LCS rather than working to meet the original concept of 
operations?
    Admiral Greenert. No. Since the LCS program was announced on 
November 1, 2001, LCS has continued to meet and expand on the original 
concept of operations. LCS was conceived as an integral part of a new 
battle force architecture based on an essential need for a new 
generation of ``focused mission'' multi-role surface combatants 
optimized for operations near land. This capability is precisely what 
the Department of the Navy has received with LCS.
    LCS's concept of operations calls for LCS to operate in contested 
littorals to address three major anti-access threats which are 
documented joint capability gaps: swarming fast attack craft/fast 
inshore attack craft (FAC/FIAC), diesel submarines, and maritime mines. 
LCS's high speed, maneuverability, shallow draft, networked sensors, 
and readily exchangeable mission packages are specifically intended to 
allow LCS to counter these threats and assure access to the littorals.

    24. Senator Inhofe. Admiral Greenert, in your professional 
assessment, does the LCS offer combatant commanders increased combat 
capabilities for the three missions assigned (SUW, MCM, and ASW) as 
compared to the legacy systems it is replacing?
    Admiral Greenert. The LCS and Mission Packages (MP) will provide 
greater combat capabilities compared to the legacy systems in today's 
Navy. LCS will assure access for joint operations through SUW, MCM, and 
ASW.
    LCS embarked with the MCM MP will provide greater mine hunting 
capability per ship than current platforms. The MCM MP will provide 
capabilities to counter deep, shallow, floating, tethered, bottom, and 
buried mines. Using systems deployed from off-board manned and unmanned 
vehicles. The MCM MP also represents a significant tactical change by 
emphasizing the use of off-board assets, ensuring LCS and the crew will 
operate outside of mine danger areas.
    LCS embarked with the SUW MP will have greater capability against 
highly maneuverable small surface craft than any of the ships they are 
replacing. Compared to a Frigate or Patrol Craft, LCS with a SUW MP 
embarked will have more guns (one 57mm + two 30mm) as well as a surface 
to surface missile capability and an embarked armed helicopter. These 
combined systems will provide the required volume and depth of fire 
required to defeat swarms of small littoral surface threats. Combined 
with maneuvering speeds in excess of 40 knots, LCS is a very adept SUW 
ship for the missions it was designed to execute.
    LCS with the ASW MP will feature proven and effective anti-
submarine technologies. LCS will provide greater detection capability 
than legacy systems.

    25. Senator Inhofe. Admiral Greenert, how would you assess the 
LCS's core defensive capabilities, especially against air threats, when 
employed in the littorals during elevated threat environments?
    Admiral Greenert. I am very confident the LCS can defend herself. 
Even without the mission modules on board, the ship still has core 
capabilities for self defense, air defense, surveillance, search and 
rescue, and boarding capabilities.
    LCS can operate independently in low- to medium-threat 
environments. LCS will use its speed, organic weapons (57mm gun and RAM 
missile system), and sensors to counter surface and air threats in the 
littorals. LCS has equal or greater self defense capability compared to 
frigates, patrol craft, and MCM ships.
    In situations where the threat of anti-ship missiles is high, LCS 
will operate with a Strike Group or Air Defense ships. As a small 
surface combatant, LCS is not designed to operate independently in a 
high air threat environment without being networked into a larger 
force.

    26. Senator Inhofe. Admiral Greenert, how would you assess the 
lethality of the LCS's SUW module as compared to other small surface 
combatants that are predicted to be encountered in combat operations?
    Admiral Greenert. During combat operations, the LCS is likely to 
encounter large groups of small FIAC or larger FAC. The typical FIAC is 
a militarized commercial boat less than 50 feet long with limited open 
water capability, with armament that typically consists of small 
caliber machine guns, rocket launchers, man-portable air-defense 
systems (MANPAD) and rocket propelled grenades (RPG). The typical FAC 
is a designed military or militarized vessel greater than 50 feet long. 
Armament can include anti-ship cruise missiles (ASCM), torpedoes, small 
to medium caliber machine guns and MANPADs.
    LCS, with the SUW MP embarked, is significantly more lethal than 
both enemy FAC and FIAC. The 57 mm and 30 mm guns provide greater 
engagement range and lethality than enemy counterparts, while the .50 
cal machine guns provide close-in engagement capability. The Rolling 
Airframe Missile (RAM) provides an anti-ship missile defense capability 
far superior to that of enemy FAC/FIAC. LCS's embarked MH-60R provides 
an armed helicopter capability which can engage FAC/FIAC while LCS 
remains outside of enemy weapons engagement range. The Surface-to-
Surface Missile Module (SSMM) will initially provide a short range 
counter-swarm capability, which will later be upgraded to an extended 
range, more advanced missile capability. Further, LCS's speed in excess 
of 40 knots, substantially greater than all other surface combatants, 
allows LCS to quickly maneuver to engage or evade, as necessary, both 
FAC and FIAC.
    Additional information can be provided at the SECRET level.

    27. Senator Inhofe. Admiral Greenert, when fully employed, will the 
LCS drive greater demands on crews, shore maintenance, and logistical 
support than the legacy systems it is replacing, and if so, are the 
greater demands sustainable?
    Admiral Greenert. Navy is taking steps to ensure the demands LCS 
places on crews, shore maintenance, and logistical support are 
sustainable.
    Although LCS operates with a core crew one-fourth to one-fifth the 
size of other Navy ships, it must execute similar administrative, 
operational, and sustainment processes. The LCS Squadron (LCSRON) and 
other organizations serve as extensions of the crew ashore, enabled by 
distance support methods and techniques. LCSRON ONE has been 
established in San Diego, CA, to provide this required support to the 
first ships that will homeport on the west coast. LCSRON TWO will be 
established in Mayport, FL, to support future LCS operations on the 
east coast. The LCSRON provides administrative and personnel support 
far beyond other surface ship Immediate Superior in Command (ISIC) 
staffs.
    Distance support is provided by U.S. based military, government 
civilian, and contractor personnel who monitor equipment logs, conduct 
trend analysis, and provide recommendations for shipboard and fly away 
maintenance. A small operational staff in Singapore serves as a 
Maritime Staff Element (MSE) and maintains operational oversight of 
Freedom while deployed. This staff is unique to Singapore, and will 
eventually oversee all four ships that will operate from that forward 
operating station.

    28. Senator Inhofe. Admiral Greenert, given the difference in hull 
designs and ship systems, will the LCS require ship crews to become 
increasingly reliant on Navy shore facilities and private contractors 
to help them cope with a variety of non-standard systems?
    Admiral Greenert. While there are two distinctive LCS hull designs, 
the systems aboard the ship are not non-standard systems. LCS sailors 
are trained extensively on their respective variant of ship and are 
intimately familiar with the systems they will operate and maintain.
    While a significant portion of planned maintenance will be 
conducted by off-ship personnel due to the relatively small size of LCS 
crews, each ship's core crew conducts maintenance on ship systems 
similar to what is done on other Navy ships. Core crews typically are 
assigned planned maintenance with a monthly or less periodicity 
requirement and also all situational maintenance required to conduct 
safe operations (e.g. operational tests or configuration of critical 
equipment prior to use). Condition-based maintenance (CBM) will also 
reduce the planned maintenance required on ship systems by determining 
when maintenance is actually required based on data points collected 
within the system vice being based on a pre-determined periodicity.

    29. Senator Inhofe. Admiral Greenert, are you concerned about the 
ship's endurance at sea in terms of maintenance, fuel usage, and 
sustainment of crew and mission modules?
    Admiral Greenert. I am not concerned about LCS's endurance at sea. 
In fact, combatant commanders will enjoy greater operational 
availability from LCS due to its ability to consistently remain in 
theatre. A single LCS will remain forward deployed for long periods of 
time without executing lengthy transits from homeport and its range and 
endurance support the full scope of operations which are being 
performed by legacy platforms. The ships will deploy from homeport for 
16 months and crews will be swapped during the deployment at 4 month 
intervals. The ships will return to homeport every 16 months for a 
depot maintenance period, during which the ship be unavailable for 
tasking. While deployed, LCS will be able to execute 25 day patrols, 
followed by 5 day inport maintenance periods, as well as a quarterly 
maintenance period during which the ship remains available for surge 
operations.

    30. Senator Inhofe. Admiral Greenert, are you comfortable with the 
Navy eventually relying on the LCS for a third of its surface combatant 
fleet?
    Admiral Greenert. I am comfortable with relying on the LCS as a 
third of our surface combatant fleet. The Fleet's capability is a 
function of platforms, payloads, and networks. It is not a linear 
extrapolation of individual ships' capabilities. Numbers matter; 
however it is the capability defined by the systems' synergy that 
matters most. LCS makes a significant contribution to this synergy with 
its ability to employ payloads that can rapidly evolve in capability.
    LCS represents an innovative approach that does not entirely lend 
itself to comparisons with traditional shipbuilding programs. LCS will 
initially provide essential combat capability in three mission areas--
SUW, MCM, and ASW. These payloads will deliver improvements over the 
capability resident in the platforms LCS is replacing in the Fleet, and 
they will continue to evolve going forward. Payloads for other mission 
areas may also be deployed in the future.

                              NAVY MISHAPS

    31. Senator Inhofe. Admiral Greenert, there seems to have been a 
proliferation of Class A mishaps in the Navy since 2011, each of which 
has caused more than $2 million in damage to the vessel. In January 
2013, Admiral Bill Gortney, Commander of U.S. Fleet Forces Command, 
reported an $850 million unforecasted maintenance bill, which just 
compounds the budget woes for the Navy. I am most concerned about the 
complete loss and decommissioning of a critical asset for the Navy, the 
USS Guardian, (one of our Avenger-class MCM ships). Do you see any 
trends developing in the results of the mishap investigations?
    Admiral Greenert. Navy is assessing whether there are common 
readiness trends that could be corrected to prevent future incidents. 
In the past 2 years, the primary causes for ship groundings and 
collisions have been:

    1.  Failure to follow procedures,
    2.  Lack of knowledge or understanding, and
    3.  Poor communication.

    The USS Guardian mishap included all of these causal factors and is 
part of the analysis Navy is conducting.

    32. Senator Inhofe. Admiral Greenert, I have heard about faulty 
charts, but that's what seamanship is supposed to counter. What caused 
the loss of the USS Guardian?
    Admiral Greenert. This mishap was preventable and was the product 
of poor voyage planning and poor execution by Guardian leadership. The 
investigation uncovered no single point of failure; instead, there were 
numerous links in the error chain leading up to the grounding. Had any 
one of these been appropriately addressed, the grounding would have 
been prevented. Guardian leadership and watch teams failed to adhere to 
prudent, safe, and sound navigation principles which would have alerted 
them to approaching dangers with sufficient time to take mitigating 
action.

    33. Senator Inhofe. Admiral Greenert, are we starting to see the 
signs of a strained force in the Navy?
    Admiral Greenert. Navy is currently meeting adjudicated Global 
Force Management (GFM) commitments to the maximum extent possible, 
despite budgetary impacts to operations, maintenance, and training.
    Maintenance and training are the foundation of Navy's Fleet 
Response Plan. Navy is deferring and curtailing both maintenance and 
training to meet Secretary of Defense adjudicated presence requirements 
under the current budgetary shortfalls.
    The impact of reduced fleet training and maintenance will be less 
surge capacity, but we will retain the ability to support the fiscal 
year 2014 Global Force Management Allocation Plan (GFMAP). All our 
forces deploying in fiscal year 2013 and fiscal year 2014, including 
two carrier strike groups (CSG) and two amphibious ready groups (ARG) 
(one each in the Middle East and the Asia-Pacific), will be fully 
mission-capable and certified for Major Combat Operations. For surge, 
we will retain one additional CSG and ARG in the United States that are 
fully mission-capable, certified for Major Combat Operations and 
available to deploy within 1 to 2 weeks. This is about one-third of our 
normal surge capacity. Overall, due to reduced training and 
maintenance, about two-third of the fleet will be less than fully 
mission capable and not certified for Major Combat Operations. 
Historically, about half of our fleet is in this status, since ships 
and squadrons are in training or maintenance preparing for their next 
deployment.

    34. Senator Inhofe. Admiral Greenert, is there a problem with the 
maintenance and operating condition of ship systems?
    Admiral Greenert. No. While Navy has made several unbudgeted and 
unscheduled ship repairs in recent years stemming from unexpected at-
sea accidents, none of them were caused by problems with ship 
maintenance or the operating condition of ship systems.

                       DISABILITY DETERMINATIONS

    35. Senator Inhofe. Secretary Mabus, it is unconscionable that 
servicemembers must wait many months to receive a disability 
determination from the Department of Veterans Affairs (VA). While DOD 
and VA have made some progress in decreasing the amount of time it 
takes to get disability claims completed in the Integrated Disability 
Evaluation System (IDES), more work must be done. Do you believe the VA 
is doing all that it can do to decrease the amount of time for 
disability case reviews and claims adjudication?
    Mr. Mabus. The delays in case review and adjudication are 
unacceptably long. At the same time, VA is coping with an enormous 
increase in claims being filed. We are very supportive of our VA 
partners in helping to decrease their disability case review and 
adjudication backlog. The Department of the Navy is moving ahead to 
support the VA's request to certify the Service Treatment Record 
completeness when forwarding for disability claim reviews. This will 
enhance the VA's ability for claim adjudication. Innovative solutions 
are always possible and we stand ready to assist the VA as they explore 
solutions for improvements.

    36. Senator Inhofe. Secretary Mabus, does the VA need additional 
resources to hire more claims adjudicators?
    Mr. Mabus. The VA continues to balance their work force. We are 
confident the VA presented their defensible resource requirements in 
the President's budget.

                    PROTECTING PROSPECTIVE RECRUITS

    37. Senator Inhofe. Secretary Mabus, a recent tragic case in 
Maryland appears to have been a murder/suicide incident involving a 
prospective recruit and recruiter. What guidance has the Navy provided 
to ensure that prospective recruits and their parents or guardians are 
fully aware of the limits for relationships with recruiters?
    Mr. Mabus. Navy Recruiting Command (NRC) provides applicants 
information on the first day of their enlistment into the Delayed Entry 
Program (DEP) at MEPS. Additionally, recruiters and their supervisor 
also provide the same information to the future sailor and their 
parents or guardians during the 72-hour indoctrination. This policy is 
included in the Enlisted and Officer Recruiting Manuals. NRC also has a 
Fraternization Policy Acknowledgement that details the proper behaviors 
of future sailors and recruiters, which all future sailors must read 
and sign.
    At the time of DEP enlistment, NRC provides all future sailors a 
Standards, Transitions, Acknowledgements, Requirements, and Training 
(START) Guide. Recruiters and immediate supervisors are required to 
review the contents with each future sailor during the 72-hour 
indoctrination. The START Guide contains information regarding Sexual 
Harassment and Fraternization. Additionally, the START Guide lists 
``Recruiter Prohibited Practices,'' which includes a prohibition on any 
relationship other than a formal, professional relationship. Every Navy 
recruiter business card contains the following personal pledge from 
Commander, NRC: ``We at Navy Recruiting Command are committed to 
professional, honest, and respectful treatment of every prospect and 
applicant.'' Also included is the NRC headquarters number, which is 
answered by Admiral Gay's personal staff.
    Finally, NRC is completing an intensive, updated Sexual Assault 
Prevention and Response Delayed Entry Program (SAPR-D) video 
presentation, which will be shown to every future sailor. It provides 
training on the Navy's SAPR Program, fraternization and sexual 
harassment policies. The video clearly articulates and emphasizes the 
prospective sailor's rights and responses if they feel they have been 
violated or mistreated.

    38. Senator Inhofe. Secretary Mabus, what information does the Navy 
require to be provided to prospective recruits to ensure that they have 
immediate access to assistance and intervention, if necessary, if they 
believe a recruiter is intending to take improper advantage of them?
    Mr. Mabus. Each Navy Recruiting Station has posters with Navy 
Recruiting District points of contact if applicants or future sailors 
have any issues during the recruiting process for which they desire 
assistance from someone other than their recruiter. Posters include the 
DOD Safe Helpline phone number and NRC Inspector General hotline 
number. Every applicant receives a business card from their recruiter 
that contains the recruiter's information on the front of the card and 
the following personal pledge from Commander, Navy Recruiting Command 
(CNRC) on the back: ``We at Navy Recruiting Command are committed to 
professional, honest, and respectful treatment of every prospect and 
applicant.'' Also included is CNRC phone number, which is answered by 
Admiral Gay's personal staff. We provide additional information at the 
time of Delayed Enlistment Program enrollment while at Military 
Entrance Processing Station, and again during the 72-hour 
indoctrination. Command Hotline and NRC Headquarters phone numbers are 
provided.

                            SEXUAL ASSAULTS

    39. Senator Inhofe. Secretary Mabus, DOD has told us they have 
achieved full-deployment of the congressionally-mandated Defense Sexual 
Assault Incident Database (DSAID). Is the Navy providing data to 
populate the database?
    Mr. Mabus. Both the Navy and the Marine Corps use DSAID as a 
centralized, case-level, database for the collection and maintenance of 
information regarding sexual assaults. All Navy and Marine Corps Sexual 
Assault Response Coordinators (SARC) receive extensive DSAID training 
and use DSAID as a case management system, entering information within 
48 hours of a report of sexual assault (96 hours in deployed locations 
presenting internet connectivity issues). DSAID includes available 
information about the nature of assaults, demographic information, 
services offered and disposition of reports. The Naval Criminal 
Investigative Service (NCIS) uploads final case disposition weekly into 
DSAID.

    40. Senator Inhofe. Secretary Mabus, what information, 
specifically, is this database providing Navy leadership concerning 
sexual assault incidents?
    Mr. Mabus. The DSAID is a centralized, case-level, database for the 
collection and maintenance of information regarding sexual assaults, 
which the Department of the Navy has been using since October 2012. 
DSAID includes information about the nature of assaults, the victim, 
services offered to the victim, the offender, and the disposition of 
reports associated with the assault. Over time, as DSAID becomes 
populated with more case data, it will increasingly provide the ability 
to identify and manage trends, analyze risk factors or problematic 
circumstances, and assist with actions and plans to mitigate risks.

    41. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, when appearing before this committee, DOD witnesses described the 
recently revised DOD-wide policy on the Sexual Assault Program to 
standardize prevention, health care, victim safety, training and 
response efforts, and to clearly convey the role of servicemembers and 
employees in sexual assault prevention and recovery. I am concerned 
that medical care providers were not fully aware of their obligations 
concerning restricted reports, including the obligation to withhold 
disclosure to the chain of command. What actions have been taken to 
ensure standardization with respect to protecting the sanctity of 
restricted reports?
    Mr. Mabus and Admiral Greenert. Bureau of Medicine and Surgery 
(BUMED) Instruction 6310.11A (Sexual Assault Prevention and Response 
Medical-Forensic Program) has been recently revised and signed on May 
2, 2013. This policy establishes the training requirements for all 
health care providers who will complete medical-forensic examinations.
    A subset of the multi-disciplinary policy revision working group 
has been convened to oversee and support implementation of policy 
guidance. The training is 14 hours in length and in a standardized 
format that supports health care providers in completing a Sexual 
Assault Forensic Examination (SAFE), reviews the SAFE kit and contents, 
chain of custody, preparing to be a factual witness and Navy specific 
policy guidance and reporting options. Restricted reporting is 
thoroughly covered in this training as well as the current medical 
response training required of all Navy Medical Department personnel. 
Documentation of completion is required and metrics have been 
established to support tracking of training implementation.
    General Amos. There are several directives that outline the 
obligations regarding restricted reporting requirements for medical 
care providers:

        <bullet> Marine Corps Order 1752.5B states: ``In cases where a 
        victim elects restricted reporting, the healthcare personnel 
        may not disclose confidential communication or SAFE Kit 
        information to law enforcement or command authorities.''
        <bullet> The Navy BUMED Instruction 6310.11 also defines the 
        elements of restricted reporting. It specifically states that, 
        under the circumstances of a restricted report, any details 
        provided to health care personnel will not be reported to law 
        enforcement to initiate the official investigative process 
        unless the victim consents.
        <bullet> BUMED Instruction 6310.11 also mandates that general 
        health care personnel receive initial and annual refresher 
        training on sexual assault response policies, including 
        confidentiality policy rules and limitations. It also specifies 
        that all health care personnel understand the difference 
        between restricted and unrestricted reporting.
        <bullet> BUMED Instruction 6310.11 contains a procedures 
        checklist for SAFEs to be used by health care personnel. The 
        checklist is used to verify that in the event a victim chooses 
        the restricted reporting option that neither the military 
        criminal investigation organization nor the victim's chain of 
        command has been notified.
        <bullet> States vary in their medical personnel reporting 
        requirements. California, for example mandates that medical 
        personnel report incidents of sexual assault to local 
        authorities. As a result of this requirement, victims are 
        informed of those limitations by their Victim Advocate.

    All SAPR personnel throughout the Marine Corps must complete 40 
hours of standardized advocacy training to be credentialed and must 
complete 16 hours of continued education on an annual basis to maintain 
their credentials. Marine Corps health care personnel must likewise 
complete initial and annual refresher training specific to sexual 
assault victim response. All training for SAPR and healthcare personnel 
provides restricted reporting protocol, highlighting the applicable 
directives to ensure that such cases are handled appropriately.

    42. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, what additional challenges do you see in attaining the required 
level of standardization?
    Mr. Mabus and Admiral Greenert. Each Military Service has a unique 
culture and operating environment. Beyond that, sexual assault 
prevention, sexual assault victim support, and sexual assault criminal 
investigations and prosecutions are overlapping but separate areas of 
activity.
    First, we need to better distinguish between specific activities 
that should be performed in just about the same way everywhere, and 
those where tailored approaches may be more effective. Sexual assault 
victim support is a good example of the former--victims should expect 
the same services everywhere. Sexual assault prevention is a good 
example of the latter--the Services need flexibility to implement 
strategies that work for them.
    Second, we need to evolve beyond standardizing exactly how to do 
things, and instead explore performance-based standards for key aspects 
of our processes that are most important to those affected. That will 
be hard work, and it will require genuine collaboration. For example, 
we want to know what aspects of our victim support processes are most 
important to victims themselves, so we can focus on making them more 
personal and effective.
    General Amos. There are always additional challenges with ensuring 
that SAPR training is ongoing and up-to-date so that all personnel are 
briefed on the latest and current policies and procedures. The Marine 
Corps is continually assessing and updating its training and 
outreaching to its commanders and SAPR leaders with the goal of making 
sure our SAPR efforts are standardized.
    The restricted reporting option is a standardized procedure known 
by all SAPR and health care personnel throughout the Marine Corps. It 
is a key concept of our 40 hours of standardized SARC and Victim 
Advocates training. Restricted reporting is also integral to our Fleet 
SAPR training. SARCs, Victim Advocates, and Uniformed Victim Advocates 
inform all victims of the restricted reporting option, clearly 
indicating that medical and counseling services are available to them 
without requiring disclosure to their chain of command or law 
enforcement.

    43. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, what additional tools does the Navy/Marine Corps need in order to 
continue to reduce--with the goal of eliminating--sexual assault?
    Mr. Mabus and Admiral Greenert. We need more expert resources for 
the investigations of alleged sexual assault crimes. NCIS has come a 
long way in the past several years. They have implemented impressive 
special training, and they have hired criminal investigators with 
civilian expertise, but the workload impact of new requirements to 
investigate all alleged sexual assaults, regardless of severity, is 
daunting.
    We also need to establish new tailored programs for sailors and 
marines who have been victims of sexual assault. We are in the early 
stages of developing such programs. Sexual assault victims have an 
especially high risk of re-victimization, and we must break that cycle 
by providing peer support and personal tools to help them succeed and 
fulfill their personal and professional goals without unduly labeling 
them or undermining their performance of primary duties.
    We are in the process of expanding across the entire Navy 
Department best practices from local pilot projects involving focused, 
synchronous, SAPR efforts. We must maintain visible and consistent 
senior leadership engagement working across organizational boundaries 
to change our culture and reshape the attitudes and behaviors of our 
sailors and marines. It will require dogged commitment and perseverance 
over a prolonged effort. Key to our success will be our ability to 
partner across the Department of the Navy uniformed and civilian 
leadership to identify common goals and standards while implementing 
effective solutions that work in various settings and operating 
environments.
    General Amos. Eliminating sexual assault begins and ends with 
engaged leadership. The main duties of a commander regarding sexual 
assault are: preventing the crime by fostering a culture of dignity and 
respect, remaining responsive to victims in need, and holding offenders 
accountable. Aligned with the Joint Chiefs of Staff's five lines of 
effort to combat sexual assault--prevention, victim advocacy, 
investigation, accountability, and assessment--the Marine Corps' 2012 
SAPR Campaign Plan emphasizes leadership engagement. Commanders must 
remain engaged, as they serve as our greatest tool to reduce sexual 
assault. To alter or remove the commander's role goes against our 
mission to influence Marine Corps culture from the top down and to 
establish an environment of respect and trust.
    To further support efforts to influence cultural change, I have 
directed a new command climate survey to be administered within 30 days 
of a new commander taking command and again a year after taking 
command. Designed to measure the health of a particular command, the 
survey will cover a spectrum of issues, including sexual assault, and 
will be integrated with our ongoing efforts to stop all behavior-
related offenses, including sexual harassment, hazing, and alcohol 
misuse. Giving commanders this tool and holding them accountable for 
the overall health and well-being of their command will help us 
mitigate the high-risk behaviors that tear at the fabric of the Corps.

    44. Senator Inhofe. Admiral Greenert and General Amos, some have 
suggested that it would be appropriate to incorporate standardized 
assessments of commanders' performance in prevention, investigation, 
accountability, advocacy, and assessment of sexual assault response and 
prevention lines of effort. What is your assessment of the feasibility 
of implementing commanders' performance in Service-specific performance 
appraisals?
    Admiral Greenert. We evaluate our commanders (and all officers) in 
their regular fitness reports (performance evaluations used for 
determination of advancement) in three areas: Command Climate/Equal 
Opportunity, Leadership and in written summary, where documentation of 
poor command climates would be listed. We hold our commanders 
responsible and accountable when they do not meet acceptable standards. 
We believe the current system adequately addresses the issue; however, 
we routinely review the Navy fitness report system to ensure it 
provides a comprehensive officer assessment consistent with the 
prevailing needs of the Navy.
    General Amos. The Marine Corps Fitness Report system provides the 
official evaluation and record of an officer's performance and contains 
a section entirely dedicated to leadership. This section evaluates the 
commander's ability to set the example, communicate effectively, 
provide direction, and motivate, which includes his or her ability to 
develop, lead, and ensure the well-being of subordinates. Ensuring the 
well-being of subordinates necessitates that officers demonstrate a 
genuine concern for their safety--a characteristic rooted in the 
defining Marine Corps values of honor, courage, and commitment. The 
commander's efforts must enhance the concentration and focus of the 
subordinate on unit mission accomplishment, which includes setting an 
environment free of any criminal behaviors, such as sexual assault.
    In line with the Secretary of Defense memorandum dated 6 May 2013, 
the Marine Corps is exploring methods to assess the performance of our 
commanders in establishing command climates that foster dignity and 
respect. To this end, I directed the development of a new command 
climate survey, administered within 30 days of a new commander taking 
command and annually thereafter. Designed to measure the health of a 
particular command, the survey covers a spectrum of issues and will be 
integrated with the ongoing efforts to stop all behavior-related 
offenses, including sexual harassment, assault, hazing and alcohol 
misuse. Survey results must be provided for review to the next level up 
in the chain of command.

    45. Senator Inhofe. Secretary Mabus, the Annual Report on Sexual 
Assault at the Service Academies revealed that many people who enter 
the armed services have experienced and reported sexual assault or 
unwanted sexual contact that occurred before they entered the Service 
Academies or the armed services. What could the Navy be doing to 
improve support to men and women in the accession process, to identify 
whether individuals have experienced sexual assault?
    Mr. Mabus. Navy has a thorough application process, which includes 
detailed medical screening of applicants at MEPS. Although not asked 
explicitly, applicants are questioned by MEPS Chief Medical Officers 
using a Supplemental Health Screening Questionnaire to determine if 
they have experienced any significant abusive events in their life. To 
improve support for men and women during the accession process, NRC has 
developed training focused specifically to indoctrinate them on 
military SAPR policies, to help prevent sexual harassment and assault, 
and to provide them with guidance and procedures in the event of an 
incident. In addition to this mandatory training, there is a wide 
variety of products and resources (e.g., videos, posters, and 
brochures) recruiters use for local training programs and to increase 
awareness with the future sailors in the Delayed Entry Program.
    The U.S. Naval Academy (USNA) also has a thorough application 
process, which includes medical screening of applicants. USNA ensures 
that each entering Midshipman is made aware of the Academy's SAPR 
Office services, including medical, counseling and advocacy, and legal 
assistance. All incoming plebes receive a SAPR indoctrination brief 
within 14 days of arrival. This session includes an in-depth overview 
of the USNA SAPR Program; a discussion on sexual assault, consent, 
types of reports, and services available; and emphasizes that these 
services are available regardless of when they experienced the sexual 
assault. Academy SAPR staff follow up with plebes, conduct refresher 
training, answer questions, and again stress the availability of 
services.
    As a result of findings in the most recent Service Academy Gender 
Relations survey, the USNA has implemented additional process changes 
for the entering Class of 2017 that will arrive this June. 
Specifically, during the Indoctrination-Day check-in, each Midshipman 
4th Class (MIDN 4/C) will be asked in a confidential setting if they 
have experienced sexual assault prior to entering the Academy. 
Regardless of response, each MIDN 4/C will receive a data sheet 
identifying available services and points of contact, should they 
desire to use them. This information will provide the SAPR Office and 
chain-of-command with real-time data on MIDN 4/C who admit experiencing 
pre-service incidents, as well as provide the Class of 2017 information 
they can use to access services discreetly.
    Navy is sensitive to the fact that asking explicit questions 
regarding sexual assault could lead to re-victimization of an 
applicant, which is something that should be carefully avoided. DOD is 
currently conducting a review of the applicant accessions process as 
one aspect of the 2013 DOD SAPR Strategic Plan released by the 
Secretary of Defense on May 6, 2013.

                      COMMAND CLIMATE ASSESSMENTS

    46. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, what percent of your commands conduct command climate 
assessments?
    Mr. Mabus and Admiral Greenert. Navy: All Commanders are required 
to conduct a Command Climate Assessment within 90 days of taking 
command and yearly thereafter. In fiscal year 2012, 90 percent of Navy 
commands participated in the Defense Equal Opportunity Management 
Institute Organizational Climate Survey, before the reporting system 
failed on September 19, 2012. Following the system failure, surveys and 
reporting continued throughout the year providing complete and accurate 
assessments to higher headquarters. This online assessment system was 
restored in January 2013. The DEOCS is just one portion of a Command 
Climate Assessment (CCA). Echelon II commands are charged with tracking 
their subordinate command's completion of the CCA. We entrust 
Commanders to hold their Commanding Officers accountable for 100 
percent completion of the CCA.
    Marine Corps: 100 percent. All commands are required to conduct 
climate assessments in accordance with current DOD, Navy, and Marine 
Corps directives. A new command climate survey will be administered at 
the battalion/squadron and regimental/group level in the first 30 days 
of a new commander's tenure and annually thereafter. It is known that 
at least two other surveys, Defense Equal Opportunity Management 
Institute, Defense Equal Organizational Climate Survey, and the Ground 
Climate Assessment Survey, are required in the first 90 days of a new 
commander's tenure.
    General Amos. 100 percent. All commands are required to conduct 
climate assessments in accordance with current DOD, Navy, and Marine 
Corps directives. A new command climate survey will be administered at 
every battalion/squadron and regimental/group level in the first 30 
days of a new commander's tenure and annually thereafter. It is known 
that at least two other surveys, the Defense Equal Opportunity 
Management Institute's Defense Equal Organizational Climate Survey and 
the Ground Climate Assessment Survey, are required in the first 90 days 
of a new commander's tenure.

    47. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, what are the Navy/Marine Corps doing to improve the regularity of 
command climate assessments?
    Mr. Mabus and Admiral Greenert. Navy: Every commanding officer is 
required to conduct a command climate assessment within 90 days of 
taking command and annually thereafter. The Navy will continue to track 
the completion of the Defense Equal Opportunity Management Institute 
Organizational Climate Survey, by Echelon II command, on a quarterly 
basis.
    Marine Corps: Current changes in the command climate survey 
requirements will result in commanders surveying their commands within 
30 days via the Defense Equal Opportunity Climate Survey, and annually 
thereafter. Results of the completed surveys will be provided to the 
next higher level command.
    General Amos. I have instituted a new command climate survey that 
will be administered at every battalion/squadron and regimental/group 
level in the first 30 days of a new commander's tenure and annually 
thereafter. Additionally, two other surveys, the Defense Equal 
Opportunity Management Institute, Defense Equal Organizational Climate 
Survey and the Ground Climate Assessment Survey, are required in the 
first 90 days of a new commander's tenure.

    48. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, what are you doing to evaluate the results of the command climate 
assessments to ensure necessary follow-up action?
    Mr. Mabus and Admiral Greenert. Navy: Each ISIC ensures subordinate 
commanders assess their command climate within 90 days of assuming 
command with annual follow-up assessments during their command tenure. 
Every commanding officer is required to provide an executive summary of 
survey results and any intended actions within 60 days of completing a 
command climate assessment. The ISIC also ensures necessary follow-up 
action on the results of command climate assessments. Additionally, we 
are constantly evaluating what we can do to increase the effectiveness 
of our leaders in command. A working group has been assigned to 
evaluate and make recommendations on expanding and reinforcing 
supervisory command relationships. By identifying potential or ongoing 
issues early, timely correction is likely to set conditions for a 
successful command environment.
    Marine Corps: The Commandant of the Marine Corps has directed new 
command climate survey or assessment requirements to be administered 
within 30 days of a new commander taking command and annually 
thereafter, in order to continue fostering a positive climate within 
each Marine Corps unit. The survey covers a spectrum of personnel 
issues and will be closely integrated with ongoing efforts focused on 
reducing all behavior-related offenses. The results of the surveys will 
be measured in order to obtain accurate knowledge on the health of each 
command. To assure accountability, the results of the surveys will be 
briefed to the next higher headquarters. The Commandant's intent is to 
provide commanding officers with the necessary tools to identify high-
risk behaviors and positively act on behalf of the health of their 
commands.
    General Amos. I directed our new command climate surveys to be 
administered within 30 days of a new commander taking command and 
annually thereafter, in order to continue fostering a positive climate 
within each Marine Corps unit. The survey covers a spectrum of 
personnel issues and will be closely integrated with ongoing efforts 
focused on reducing all behavior-related offenses. The results of the 
surveys will be measured in order to obtain accurate knowledge on the 
health of each command. To assure accountability, the results of the 
surveys will be briefed to the next higher headquarters. My intent is 
to provide commanding officers with the necessary tools to identify 
high-risk behaviors and positively act on behalf of the health of their 
commands.

                   FEDERAL VOTING ASSISTANCE PROGRAM

    49. Senator Inhofe. Secretary Mabus, what is your assessment of the 
performance of the Navy's Federal Voting Assistance Program (FVAP)?
    Mr. Mabus. The Navy's Voting Assistance Program (VAP) has performed 
above-and-beyond expectations; the program has met and surpassed 
requirements and complies with the full intent of the law. The program 
rapidly established all of the Installation Voter Assistance Offices 
required by law in the Military and Overseas Voter Empowerment (MOVE) 
Act, maintains a worldwide network of over 1,200 Voting Assistance 
Officers, and provides innovative support and outreach to voters.
    I concur with the assessment of both the Navy Inspector General and 
the DOD Inspector General in their 2012 assessment of VAPs that the 
Navy VAP is both compliant and effective. This assessment is also 
supported by the FVAP's annual report to Congress that was written 
after a DMDC survey of a wide range of stakeholders--including 
servicemembers, their dependents, and Voting Assistance Officers.

    50. Senator Inhofe. Secretary Mabus, what Navy-specific initiatives 
have you implemented to improve compliance with FVAP and to maximize 
the opportunity for servicemembers to exercise their right to vote?
    Mr. Mabus. The Navy VAP engaged in a number of initiatives to 
ensure that it was fully compliant with the FVAP and provide better-
than-ever service to absentee voters. Efforts included:

        <bullet> The full implementation of the MOVE Act by 
        establishing an Installation Voting Assistance (IVA) Office at 
        every Navy Installation. IVA Offices submit quarterly reports 
        detailing their assistance to voters. They also conducted a 
        wide range of awareness and outreach activities leading up to 
        the 2012 election on key emphasis dates coordinated by FVAP.
        <bullet> The engagement of senior leadership through three 
        NAVADMINs, Flag and SES Rhumb Lines, and MCPON newsletters.
        <bullet> Strengthening of command level VAPs through publishing 
        of the 2012 Navy Voting Action Plan and Voting Assistance 
        Toolkit that allowed Voting Assistance Officers every resource 
        needed.
        <bullet> Innovative marketing and awareness initiatives to 
        include the distribution of over 25,000 brochures and pocket 
        reference cards, 5,000 posters, base newspaper articles, voter 
        registration drives, public service announcements played at 
        base movie theaters, and Facebook marketing.
        <bullet> Voter and Voting Officer training including a 
        redesigned training curriculum for recruits at boot camp, the 
        roll-out of interactive Navy Knowledge Online courses for 
        Voting Officers, and numerous workshops and assist visits to 
        Installation Voter Assistance Offices.

    The Navy took a holistic approach to ensure that voters were aware 
of elections and their rights and afforded every opportunity to 
register and vote absentee.

                           OPERATIONAL TEMPO

    51. Senator Inhofe. Secretary Mabus, what is your assessment of the 
Navy's operational tempo (OPTEMPO) reporting and how well are we 
meeting our operational tempo requirements to reduce stress on our 
servicemembers and their families?
    Mr. Mabus. Navy has a good, robust mechanism in place to ensure 
accurate reporting of its units' OPTEMPO and is in the process of 
revising the instruction by which it governs the reporting of OPTEMPO 
to increase reporting efficiency. In addition, every effort is made to 
limit OPTEMPO violations to only emergent requirements.
    Through the second quarter of fiscal year 2013, OPTEMPO violations 
are down 31 percent from fiscal year 2012. This decrease shows a marked 
improvement over the previous year, even as sequestration limits Navy's 
capacity to meet all combatant commander demands.

                     LANGUAGE AND CULTURE TRAINING

    52. Senator Inhofe. Secretary Mabus, military members with language 
and culture training are essential to a U.S. global force. The National 
Defense Authorization Act for Fiscal Year 2013 authorized the Secretary 
of Defense to transform the National Language Service Corps (NLSC) from 
a pilot program to a permanent program, and also to enhance the ability 
of our Federal agencies to hire people with strategic foreign language 
skills and as National Security Education Program awardees. What are 
the Navy's goals with respect to the capabilities represented by the 
NLSCs?
    Mr. Mabus. Marine Corps - The Marine Corps recognizes the valuable 
service provided by the NLSC. In fact, Marine Corps units have employed 
NLSC services on several occasions for operational and exercise support 
and foreign language instruction. As a matter of practice, however, the 
Marine Corps will seek assistance from the NLSC only after all internal 
Marine Corps options to satisfy language requirements could not be met 
through organic Service capabilities. For this reason, the Marine Corps 
has not set any specific parameters or goals for the employment of NLSC 
services. Rather, the Marine Corps requests NLSC assistance on an ad 
hoc basis similar to other language resources, including the National 
Virtual Translation Center. The Marine Corps has implemented several 
programs to increase foreign language capacity and capability within 
its uniformed and civilian workforce, to include the Regional, Culture 
and Language Familiarization program for Career Marines; expanding the 
Foreign Area Officer program; and the creation of a Foreign Area 
Specialist program for senior enlisted Marines.
    Navy - Navy recognizes the broad range of language and culture 
capabilities provided by the NLSC, and finds particular value in their 
ability to satisfy short notice requirements. Navy has utilized NLSC 
resources for both standard fleet operations and humanitarian missions. 
NLSC personnel have served as interpreters/translators for 
multinational maritime exercises when service personnel either were not 
available or non-existent for the task.
    In the future, Navy plans to formalize its process for filling ad 
hoc requests for language, regional expertise, and culture (LREC) 
support. To that end, and similar to Navy's employment of the National 
Virtual Translation Center, the NLSC will be included as an option when 
organic assets are unavailable or nonexistent. Therefore, the intent is 
not to establish explicit, quantifiable goals for usage. Navy will 
continue to train its own assets based on identified, validated, and 
documented requirements. For ad hoc LREC support requests, Navy will 
try to use sailors first and will consider other government options 
afterwards. Navy is pursuing several initiatives to enhance LREC 
capability within its force, but it is neither reasonable nor fiscally 
sound to invest in LREC training and sustainment to meet all 
contingency needs. Navy plans to coordinate as necessary with the 
Defense Language and National Security Education Office on any 
policies, procedures, or business practices to improve or better 
utilize the NLSC.

                       MARKETING AND ADVERTISING

    53. Senator Inhofe. Secretary Mabus, one effect of sequestration 
was that DOD quickly moved to end the Services' advertising, marketing, 
and outreach programs that have been used to aid in recruiting. What is 
your assessment of the value of funding these programs, and the 
projected impact to recruiting, if these programs are not funded?
    Mr. Mabus. Navy currently has an annual accession mission of over 
45,000 officer and enlisted sailors with potential recruits dispersed 
throughout the country. Recruiting quality individuals is the first 
step in ensuring that we have intelligent, capable, high-quality people 
in the future force. Paid advertising, marketing, and outreach are 
critical components in our efforts to attain the proper recruiting mix. 
Working together to inform the American public of opportunities 
available in the Navy, they collectively communicate efficient and 
effective messages that favorably impact recruiting mission and 
contribute to end strength attainment in support of national security 
objectives. Further reduction in marketing, advertising, and outreach 
efforts and resourcing would clearly present challenges to future 
accession goal attainment.
    Specific impacts to recruiting are measured through leads and 
contracts with direct linkage to advertising efforts. In fiscal year 
2008, 44.7 percent of Navy accessions (20,218 contracts) originated 
from advertising efforts. The national unemployment rate at that time 
was 5.2 percent. As the unemployment rate declines, recruiters will 
need more assistance from advertising-generated leads to meet accession 
goals. With current levels of unemployment, 22.64 percent of contracts 
(9,810) come from advertising. These are direct effects and do not 
account for the indirect effects that advertising has on influencing 
and reinforcing the joining behavior of our market.
    Outreach programs, including Navy Weeks and Blue Angel appearances, 
allow the American public to directly interact with Navy 
representatives and afford them opportunities to observe examples of 
the technology and equipment sailors use in the daily performance of 
their duties around the world. These interactions prompt them to 
consider military service.
    The value in funding paid advertising and participating in outreach 
events is derived from end strength requirements. Joint Advertising and 
Marketing Research Studies (JAMRS) indicate that 53 percent of armed 
forces accessions come from youth who, when asked if they would 
consider joining the military, had previously indicated ``definitely 
not'' or ``probably not''. Additionally, approximately 74 percent of 
high quality applicants indicated they initiated first contact with a 
recruiter. Advertising, marketing, and outreach events serve to drive 
these initial interactions by creating awareness and a positive image 
of the Navy and its career opportunities.
    Marine Corps: In fiscal year 2012, 99.9 percent of Marine Corps 
recruits were high school graduates and 74.8 percent scored in the 
upper half of the written military entrance exam. The quality of our 
applicants is higher than ever before. A critical requirement to 
continued success is our recruit advertising program. Our advertising 
program is used both strategically and tactically to deliver branded 
communications to support Marines on recruiting duty, generate leads, 
and create positive awareness that engages our prospect and influencer 
audiences. In total, recruiting a quality and representative force 
costs less than 1 percent of the Marine Corps' overall budget. 
Recruiter success is inextricably linked to operational and advertising 
support. Advertising creates awareness and drives consideration to 
serve in the military--it produces leads. Advertising leads enable 
recruiters to efficiently focus their prospecting activities. 
Advertising dollars currently generate approximately 25 percent of all 
new contracts (enlisted) through numerous avenues, such as television 
commercials, enhanced area canvassing activities, and social media 
outlets. A further loss of funding to advertising will ultimately lead 
to increased stress and reduced quality-of-life for Marine Corps 
Recruiters, most of whom currently work in excess of 60 hours per week. 
If advertising spending is cut back too much when recruiting is strong, 
potential long-term gain in awareness and propensity may be lost. The 
dramatic advertising cutbacks between 1986 and 1993 coincided with a 
considerable erosion of public awareness regarding military service.

                  INTEGRATED ELECTRONIC HEALTH RECORD

    54. Senator Inhofe. Secretary Mabus, DOD and VA have been working 
on an integrated electronic health record (EHR) for a number of years 
with very little progress being made towards a truly seamless 
transition of health information between the two Departments. In 
January 2013, VA decided to use VistA, its legacy system, as its core 
health record, despite the findings of a recent study commissioned by 
the VA that identified many VistA deficiencies. We've been told that 
DOD has been evaluating existing solutions to determine the appropriate 
core health record to use. Has DOD coordinated its proposed EHR program 
with the Navy?
    Mr. Mabus. Yes. DOD has coordinated with the Navy while analyzing 
and determining requirements for a proposed EHR program. Our work with 
DOD continues and we have participated in the review of the Request for 
Information submissions which were publicly released on February 8, 
2013.
    I fully support the Secretary of Defense's strategy to acquire best 
value and sustainable health information technology while ensuring 
interoperability with the VA.

    55. Senator Inhofe. Secretary Mabus, how much will it cost for the 
Navy to field a new EHR?
    Mr. Mabus. The Services do not provide funding to this effort as 
all funding is centrally managed through the DOD/VA Interagency Program 
Office (IPO), the organization responsible for oversight and 
coordination of DOD/VA information-sharing initiatives. In conjunction 
with DOD, we remain focused on tri-service planning for the joint 
deployment of an integrated EHR which achieves maximum economies of 
scale, standardization of the business process of healthcare among the 
Services, and interoperability with the VA.

    56. Senator Inhofe. Secretary Mabus, what impact do you anticipate 
for the Navy's medical readiness?
    Mr. Mabus. A new integrated EHR should enhance our ability to 
assess medical readiness for our sailors and marines. While information 
can currently be viewed via the Bidirectional Health Information 
Exchange, a single integrated EHR will afford expanded access to the 
source of that health information; permitting quicker assessment and 
care coordination among healthcare providers. This capability will 
improve the continuity of care and further support our priority of 
promoting and protecting the health of our sailors and marines--
anywhere, anytime.

    57. Senator Inhofe. Secretary Mabus, do you believe the EHR must be 
deployable?
    Mr. Mabus. It is critical that the integrated EHR be deployable to 
support the Navy-Marine Corps operational mission. Our force is forward 
deployed and spends significant portions of their careers deployed and 
underway. A key feature of the integrated EHR is the ability to 
continue to document medical care in times of low or no network 
connectivity, and then synchronize data once a connection is restored 
so it is available for future use. To that end, the integrated EHR will 
provide one system permitting both the inputting of data and the 
visibility of that data throughout the continuum of care--from the 
initial point of injury, through care at a military treatment facility, 
and onto the VA treatment facility.
    Documenting healthcare in the deployed environment will enhance the 
accuracy of the medical history for our sailors and marines, which is 
important to ensuring they receive the right healthcare at the right 
time. Well-documented healthcare is also critical for use in 
determining future disability assessments and benefits determination.

    58. Senator Inhofe. Secretary Mabus, what input has the Navy had on 
the EHR program?
    Mr. Mabus. Navy Medicine is working closely with DOD, the other 
Services, and the Veterans Health Administration. Our subject matter 
experts work on the Capability Integrated Project Teams, Clinical 
Informatics Teams, and Enterprise Architecture Teams, as well as assist 
with the requirements generation process. In addition, the Navy Surgeon 
General is a non-voting member of the DOD Integrated Program Office 
Advisory Board which is responsible for integrated EHR governance.
    We recognize the challenges associated with this ambitious project 
and fully support the Secretary of Defense's strategy to acquire best 
value and sustainable health information technology while ensuring 
interoperability with the VA.

                     BENEFITS FOR SAME-SEX PARTNERS

    59. Senator Inhofe. Secretary Mabus, recently, former Secretary of 
Defense Panetta announced that DOD will expand benefits to unmarried 
same-sex domestic partners who declare a committed relationship, but 
will not extend those same benefits to unmarried heterosexual domestic 
partners. Do you agree with former Secretary Panetta, that when it 
comes to benefits paid for by hard-working American taxpayers, that DOD 
should favor same-sex domestic partners over heterosexual partners?
    Mr. Mabus. The Navy is committed to supporting the requirements and 
priorities as determined by the Secretary of Defense. Heterosexual 
couples, if they so choose, have the opportunity in every State to get 
married, and their marriage is recognized by Federal law. The Navy is 
committed to working with the Office of the Secretary of Defense to 
best ensure that all who volunteer to serve our Nation in uniform are 
treated with dignity, respect, and fairness regardless of their sexual 
orientation, and to taking care of all of our servicemembers and their 
families, to the extent allowable under law.

    60. Senator Inhofe. Secretary Mabus, was the Navy consulted to 
determine the cost impact of extending these benefits to same-sex 
partners?
    Mr. Mabus. Yes, the Navy was included among the representatives in 
the DOD working group established by the Secretary of Defense which, 
among other things, was to determine the cost impact of extending 
certain benefits to same-sex domestic partners of servicemembers and 
their children. Following the Supreme Court decision that found 
unconstitutional the section of the Defense of Marriage Act that, for 
Federal purposes, defines ``marriage'' as a legal union between one man 
and one woman, DOD is reviewing the process to make benefits available 
to all military spouses regardless of sexual orientation. The 
Department of the Navy is committed to ensuring all servicemembers and 
their families are treated with equality and respect under current law 
and regulation.

                            TOTAL FORCE MIX

    61. Senator Inhofe. Admiral Greenert and General Amos, General 
Dempsey said in his testimony last week that DOD needs flexibility to 
keep the force in balance and that everything must be on the table, 
including the mix among Active, Reserve, and National Guard units. In 
view of the heavy wartime demand on the forces, including the Reserve 
and the National Guard, what do you envision as a viable option to 
change that force mix for the Navy/Marine Corps?
    Admiral Greenert. Navy's fiscal year 2014 budget request, based on 
a comprehensive review of applicable strategies and guidance, provides 
Navy with the optimal Active and Reserve component mix to meet current 
operational demands and respond to future contingencies. This mix is 
predicated on the assumption that Overseas Contingency Operations (OCO) 
demand for Individual Augmentation by Navy personnel will continue to 
decline, and that the Reserve component will retain the capacity to 
source requirements and provide strategic depth in several capability 
areas. This approach enables the Active component to man our ships, 
submarines, squadrons, and other operational units and meet the demands 
for naval presence as outlined in the Global Force Management 
Allocation Plan.
    General Amos. The Marine Corps needs to remain at its current 
Active component to Reserve component proportionality, which is an 
Active component of 182,000 and a Reserve component of 39,600. We have 
analyzed this force mix over the course of two dedicated working 
groups, Force Structure Review Group 2010 and Force Optimization Review 
Group 2012. From those reviews we determined that this force mix is 
required to meet service level Title 10 responsibilities as a forward 
deployed force in readiness and the operational requirements levied on 
the Marine Corps by the combatant commands.

                         MILITARY COMPENSATION

    62. Senator Inhofe. Secretary Mabus, our Nation's historical 
experience of pursuing cost savings by cutting military compensation 
has demonstrated that periods of designed reduction in overall 
compensation levels resulted in retention problems. Those retention 
problems, especially in the context of generally improving civilian 
employment opportunities, meant that Congress was required to come back 
and authorize catch-up increases to help us keep the highly trained 
talents and skills that we need. What is your assessment of the impact 
of the President's proposed slowdown in military compensation on 
retention and recruiting in your Service?
    Mr. Mabus. Military compensation is highly competitive today, and 
the President's proposed slowdown in base pay growth is not likely to 
cause recruiting or retention problems in the near term, provided 
recruiting bonuses and retention pays are preserved. The most recent 
Quadrennial Review of Military Compensation reported enlisted members 
were paid at the 90th percentile and officers were paid at the 83rd 
percentile relative to private sector counterparts with comparable 
education and experience. Just 13 years ago, both officer and enlisted 
personnel in some pay grades were below the 70th percentile benchmark, 
and DOD made deliberate investments in military pay to meet that 
threshold. With the modest increases in the pay table as proposed in 
the President's budget, servicemembers will still realize sizable pay 
increases through promotions and longevity. Even without any increases 
in the pay table, a typical new enlisted servicemember would realize 
approximately an 80 percent increase in base pay over 5 years. In the 
current fiscal environment, there is room to slow down base pay growth, 
thereby helping to mitigate further cuts to force structure, readiness, 
and modernization.

                        FAMILY SUPPORT PROGRAMS

    63. Senator Inhofe. Secretary Mabus, General Dempsey testified last 
week that unsustainable costs and smaller budgets require DOD to 
examine every warrior and family support program to make sure we are 
getting the best return on our investment. How do you assess the 
investments our Nation has already made in family support programs, and 
suicide prevention in particular, in moving the needle with 
demonstrable positive return on investment?
    Mr. Mabus. The Navy and Marine Corps continually evaluate the 
effectiveness of their programs to ensure the needs of our sailors, 
marines, and their families are being met. Assessment and research 
efforts help identify program deficiencies, program best practices, and 
satisfaction. This insight enables the Navy to adjust internal 
programming and accurately direct external support to best serve 
sailors, marines, and their families.
    The Navy actively participates in the Defense Suicide Prevention 
Office's (DSPO) program evaluation initiative. DSPO is conducting an 
analysis of the Services and the Office of the Secretary of Defense 
(OSD) Suicide Prevention programs in order to align and integrate 
programs, resources, policy, and strategy. The analytical method being 
utilized has the following three components:

    (1)  Strategic Coverage: Navy is supporting efforts to align and 
analyze suicide prevention programs to assess whether there are gaps in 
addressing the overall OSD suicide prevention strategic objectives.
    (2)  Resource Allocation & Analysis: OSD and the Services are 
conducting a review of suicide prevention programs to determine full 
costing of requirements/level of effort, funding amounts, and potential 
shortfalls. This review includes examining program duplication and 
analysis of alternatives in an effort to reduce costs without 
significant negative impact.
    (3)  Program/Portfolio Effectiveness: The DSPO recently completed 
an effort to establish a common framework and understanding of measures 
of effectiveness (MOEs), and ground rules, for suicide prevention 
programs. The Services and OSD are examining MOEs and performance 
measures. This analysis will be used to realign existing program 
resources and ensure that highly-ranked suicide prevention programs are 
implemented across all of the Military Services.

                       TUITION ASSISTANCE PROGRAM

    64. Senator Inhofe. Secretary Mabus, I am pleased to learn that DOD 
has now reinstated the Tuition Assistance Program, previously cancelled 
by the Army, Marine Corps, and Air Force in response to the 
administration's failure to plan for sequestration. How does the 
Tuition Assistance Program enable your Active-Duty Forces to meet the 
professional development requirements described by General Dempsey to 
establish the Profession of Arms as the foundation for the joint force?
    Mr. Mabus. The requirements described by General Dempsey relate to 
incorporating lessons learned from our 21st century wars into the 
development of our future leaders. While such requirements are 
foundational to our service academies and military graduate 
institutions, they are not necessarily a systematic element of Tuition 
Assistance (TA), an entirely voluntary off-duty program.
    Despite these differences, the Department of the Navy considers 
many aspects of voluntary education to be fully as supportive of 
General Dempsey's professional development aims as our formal 
institutions. For example, the critical thinking, problem solving in 
complex environments, and communications skills obtained through 
voluntary education can be as effective as those learned at a Service 
Academy. The Department of the Navy believes that TA can contribute to 
morale, retention, and innovation.

                           SUICIDE PREVENTION

    65. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, our force is exceptionally well-trained on suicide awareness and 
prevention, and yet we still experience the tragedy of suicide at an 
unacceptably high rate. What is your assessment on whether the current 
level of training and leadership engagement is sufficient or whether it 
has inadvertently created a climate in which some vulnerable 
individuals may have contemplated suicide because we talk about it so 
much?
    Mr. Mabus and Admiral Greenert. The American Society of Suicidology 
emphasizes that discussing suicide does not cause someone to become 
suicidal. In fact, experts are in near universal agreement that open 
discussion is an important factor in suicide prevention. Additionally, 
the U.S. Surgeon General's 2012 National Strategy for Suicide 
Prevention recommends emphasis on resiliency in training, messaging, 
and communications, as well as clinical practice guidelines. Within the 
Navy, operational stress control training teaches skills that build 
resilience, navigate stress and identify resources that reduce risk of 
crises. By helping our servicemembers develop life skills and promote 
comprehensive wellness--physical health, nutrition, fitness, proper 
rest, sound financial decisions, strong relationships, and 
spirituality--suicide risk factors are reduced without explicitly 
discussing the subject. Navy's training is designed to foster 
meaningful discussion of stress and proactive ways to mitigate it and 
instill awareness of stress injury warning signs for those having 
trouble navigating through challenges.
    Our strategic and tactical communications products provide best 
practices on how to discuss stress injuries to help servicemembers 
avoid risk of suicide. Adapted from the national suicide prevention 
resource center's recommendations, these Navy branded products are not 
only useful to guide training, but encourage leaders to engage in 
meaningful dialogue with their servicemembers, reinforcing the message 
that, ``It's okay to speak up when you're down.'' Finally, unit 
leadership engagement is critical to enable servicemembers to move 
beyond decades of negative psychological health perceptions and 
barriers, and to seek the help needed to remain resilient and 
operationally ready. The Navy is confident that both the training 
strategy and leadership commitment to engage all aspects of suicide 
prevention will provide servicemembers and their families with the 
necessary tools to choose life.
    General Amos. The Marine Corps continually evaluates the 
effectiveness of its suicide prevention training and makes periodic 
updates to incorporate the latest evidence-based practices. Our 
evaluation includes partnering with Federal agencies, academia, and 
private industry in cooperation with Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury to study the 
effectiveness of our suicide prevention training.
    To ensure that we do not inadvertently create a climate that 
promulgates suicide, the Marine Corps adheres to the latest 
recommendations for suicide reporting and prevention, which includes 
offering hope and avoids talks about the act. We do not discuss suicide 
methods and avoid portraying dramatic images. Discussing suicide 
carefully can correct myths and encourage those who are vulnerable or 
at risk to seek help.

                     COMPENSATION AND ENTITLEMENTS

    66. Senator Inhofe. Admiral Greenert, in your written testimony, 
you stated that ``if the lower discretionary budget caps of the Budget 
Control Act (BCA) are retained, we will evaluate options to reduce 
personnel and personnel costs, including compensation and 
entitlements.'' What compensation and entitlements will the Navy reduce 
if you are not given relief from the BCA caps?
    Admiral Greenert. Options to reduce personnel costs are still being 
evaluated through multiple venues including the OSD-led Strategic 
Choices and Management Review, the Military Compensation and Retirement 
Modernization Commission, and the fiscal year 2015 budget process.
    The most significant aspects of military compensation and 
entitlements such as basic pay, housing allowances, subsistence 
allowances, and medical and retirement benefits are non-discretionary 
at the Service level. Elements of personnel costs that are 
discretionary at the Service level include some special and incentive 
pays, permanent change of station moves, the rate at which we promote 
or advance personnel, and the total number of personnel in the Navy.

                               SAFE EXAMS

    67. Senator Inhofe. Admiral Greenert, in your written testimony, 
you stated that ``all our Military Treatment Facilities (MTF) and 
operational settings will be able to perform SAFEs by the end of this 
fiscal year.'' It is disturbing to learn that there may be some MTFs in 
the Navy's inventory that still cannot perform SAFE. Can you explain 
why some MTFs cannot currently perform SAFE?
    Admiral Greenert. Previously, both DOD and Navy BUMED policy 
indicated that SAFEs could be provided at MTFs or at local civilian 
facilities via local Memoranda of Understanding (MOUs). While the DOD 
instruction continues to offer the alternative of MOUs with local 
civilian facilities, BUMED Instruction 6310.11A (SAPR Medical-Forensic 
Program) has been revised and directs the establishment of MTF 
capability to provide SAFEs. BUMED is monitoring implementation and 
this requirement will be met by September 30, 2013. All Navy MTFs 
outside of the CONUS currently offer examinations on-site.

               FUNDS FOR OVERSEAS CONTINGENCY OPERATIONS

    68. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, will the OCO request for 2014 include funds to address the fiscal 
year 2013 problems in both the OCO and the base budget for readiness 
shortfalls?
    Mr. Mabus and Admiral Greenert. The fiscal year 2014 OCO 
President's budget amendment does not address any fiscal year 2013 OCO 
or base budget readiness shortfalls for the Navy. The Navy fiscal year 
2014 President's budget amendment includes incremental costs to sustain 
operations, manpower, equipment, and infrastructure repair, as well as 
equipment replacement due to wartime operations. The request supports 
the responsible drawdown of forces in Afghanistan, including costs to 
retrograde equipment, repair, and replacement of equipment to reset the 
Navy, and combat support costs. The fiscal year 2014 OCO President's 
budget request is $11.2 billion, a reduction of $3.0 billion from the 
fiscal year 2013 OCO President's budget request.
    General Amos. The Marine Corps' fiscal year 2014 OCO request does 
not include funds to address readiness shortfalls from fiscal year 
2013. The passing of H.R. 933 enabled the Marine Corps to meet near-
term readiness commitments for deployed and next-to-deploy forces and 
continue to rebalance to the Pacific including the Marine Rotational 
Force Darwin and our Unit Deployment Program. While we are capable of 
meeting near-term readiness commitments in fiscal year 2013, we have 
taken risk in our long-term infrastructure sustainment and the unit 
readiness of our home station units as a result of sequestration. We 
cannot continue to sustain these levels of reductions in fiscal year 
2014 without impacting our non-deployed operational forces stationed at 
home. As such, the Marine Corps requests congressional support for the 
fiscal year 2014 President's budget request.

                           MILITARY READINESS

    69. Senator Inhofe. Admiral Greenert and General Amos, I am 
interested in knowing about readiness reporting requirements through 
the quarterly readiness reports. Are the reports useful to you in 
planning? If not, why not?
    Admiral Greenert. The Quarterly Readiness Report to Congress (QRRC) 
helps inform our fundamental analysis of current readiness and 
readiness trends and is useful to Navy's planning process. The QRRC 
information is also evaluated in concert with the real time readiness 
reporting by individual units and group commanders, the narrative 
reporting by our Fleet and Naval Component Commanders, and in support 
of assessments of the Joint force readiness. The resulting 
comprehensive readiness analysis is used to inform our decision-making 
processes across the full range of Navy man, train, and equip 
responsibilities.
    General Amos. The information contained in the DOD QRRC is 
principally constructed to report military readiness to Congress per 
section 482, title 10, U.S.C. Some of the information in the QRRC, 
particularly that pertaining to the Chairman's Joint Force Readiness 
Review and Joint Combat Capability Assessment, reflect the Marine 
Corps' inputs for Joint planning, readiness reporting, and risk 
assessments. Those inputs are useful both for Service planning and 
Joint Force planning.

    70. Senator Inhofe. Admiral Greenert and General Amos, what systems 
do you use internally to track readiness trends?
    Admiral Greenert. Navy uses a variety of databases and a business 
intelligence tool to mine readiness trends. The Navy Readiness 
Reporting Enterprise (NRRE) database is the primary system through 
which Navy manages a series of subsystems that collect readiness 
information. The most significant of these subsystems is the Defense 
Readiness Reporting System-Navy. To increase the breadth of information 
available for readiness analysis, data is also collected from other 
systems outside the NRRE. One example is the Maintenance Figure of 
Merit database, which provides access to the material condition 
readiness of ships.
    To ensure Navy headquarters is aware of and able to address Fleet 
readiness concerns, U.S. Fleet Forces Command publishes a quarterly 
Integrated Fleet Readiness Report (IFRR). The IFRR integrates Fleet 
platform operational availability and readiness production metrics from 
a wide range of sources to identify emerging problems, track leading 
indicators, and allocate resources most effectively.
    General Amos. The system used by the Marine Corps to track 
readiness trends is the program of record Defense Readiness Reporting 
System-Marine Corps (DRRS-MC). Commanders' assessments are inherently 
part of the DRRS-MC reporting system and provide operational 
perspective in terms of unit design, mission capability, and readiness.

    71. Senator Inhofe. Admiral Greenert and General Amos, do you have 
suggestions for alternative reporting mechanisms?
    Admiral Greenert. Navy would not recommend establishing alternative 
reporting mechanisms, although we will support adjustments to current 
reporting that the Office of the Secretary of Defense and Congress 
determine should be made.
    General Amos. The Defense Readiness Reporting System (DRRS) 
enterprise is the readiness reporting system for DOD. The system used 
by the Marine Corps to track readiness trends is the program of record 
DRRS-MC. With this readiness reporting system, Commanders' assessments 
are an inherent part of the reporting process and they provide an 
operational perspective in terms of a unit's designed mission 
capability and its readiness to execute those missions. I am satisfied 
with DRRS-MC's ability to provide an accurate readiness picture and do 
not have any alternate recommendations.

    72. Senator Inhofe. General Amos, will DOD submit a supplemental 
funding request for fiscal year 2013 if the Marine Corps cannot solve 
its O&M shortfalls?
    General Amos. The Marine Corps does not intend to submit a 
supplemental funding request for fiscal year 2013. The passing of H.R. 
933 enabled the Marine Corps to meet near-term readiness commitments 
for deployed and next-to-deploy forces and continue to rebalance to the 
Pacific including the Marine Rotational Force Darwin and our Unit 
Deployment Program. While the Marine Corps is capable of meeting near-
term readiness commitments in fiscal year 2013, we have taken risk in 
our long-term infrastructure sustainment and the unit readiness of our 
home station units as a result of sequestration. We cannot continue to 
sustain these levels of reductions in fiscal year 2014 without impact 
to our nondeployed operational units. As such, we request congressional 
support for the fiscal year 2014 President's budget request.

    73. Senator Inhofe. General Amos, if the Marine Corps is fully 
funded to its request in fiscal year 2014, how long will it take you to 
restore readiness of the non-deployed forces?
    General Amos. The fiscal year 2014 budget helps put the Marine 
Corps on a trajectory to fully reconstitute its full spectrum combat 
capability by fiscal year 2017. If this funding is sequestered, 
reconstitution of the force will be impacted, delaying indefinitely the 
complete restoration of our nondeployed operational forces.
    The fiscal year 2014 budget continues the transition to a post-
Operation Enduring Freedom (OEF) Marine Corps that complies with 
strategic guidance and fully capable to operate across the range of 
military operations. This budget invests more in full-spectrum 
training, which will lead to greater proficiency in amphibious 
operations and combined arms operations. Moreover, it enables the 
Marine Corps to maintain its high standards of training, education, 
leadership, and discipline, while contributing vital capabilities to 
the joint force in meeting the strategic aims of our Nation. 
Sequestration would have a direct and negative impact on the 
achievement of these transitions. Additionally, current readiness 
remains heavily dependent on OCO funding. While the fiscal year 2014 
budget submission explicitly protects the Corps' ability to support 
current and near-term readiness, the impact of sequestration would 
exacerbate today's imbalance between current and long-term readiness.

         JOINT IMPROVISED EXPLOSIVE DEVICE DEFEAT ORGANIZATION

    74. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, the Joint Improvised Explosive Device (IED) Defeat Organization 
(JIEDDO) was established 7 years ago. Consistent with DOD's inability 
to audit its finances, GAO has identified a lack of comprehensive 
visibility over all of DOD's counter-IED efforts external to JIEDDO. We 
have authorized billions of dollars to JIEDDO to address the counter-
IED problem, but it is time to assess the organization. How do you see 
JIEDDO's mission and organization in the future?
    Mr. Mabus and Admiral Greenert. IEDs remain the largest cause of 
casualties among U.S. and coalition forces within the CENTCOM AOR. Easy 
access to commercially available initiating systems and precursor 
chemicals will continue to make them a weapon of choice among potential 
adversaries, especially non-state actors. Knowledge of IED materials, 
tactics, and techniques is easily shared globally among our 
adversaries, and we must maintain diligence and persistence in our 
efforts to counter this threat in all of its forms.
    JIEDDO was established in February 2006, with the Mission to 
``Focus (lead, advocate, coordinate) all DOD actions in support of 
combatant commanders' and their respective Joint Task Forces' efforts 
to defeat IEDs as weapons of strategic influence.'' This mission was 
enabled by generous support of Congress in appropriating substantial 
funds to this mission and providing the authorities and flexibility to 
apply those funds to counter a very agile threat. JIEDDO has largely 
succeeded in focusing the Department on this threat and many of 
JIEDDO's initiatives have already transitioned to the Military Services 
for further development and sustainment. Additionally, for some 
capability areas, such as Joint Service Explosive Ordinance Disposal, 
we have had joint coordination and cooperative development structures 
in place for several decades. The Military Services already execute 
most of the initiatives sponsored by JIEDDO and as we transition from 
OEF we are reviewing the proper role of the Services to prepare our 
forces in this important capability area.
    The Department has learned many lessons from the wars of the past 
decade to include the need for focused leadership and agile responses 
to emerging threats. As we strive to build and sustain capability to 
mitigate the threat of IEDs, while also improving efficiency in light 
of fiscal constraints, alternative solutions managing this threat, to 
include counter-IED leadership, advocacy, and coordination role 
currently provided by JIEDDO, will be considered by the Office of the 
Secretary of Defense and the Joint Staff.
    General Amos. The fiscal year 2014 budget helps put the Marine 
Corps on a trajectory to fully reconstitute its full spectrum combat 
capability by fiscal year 2017. If this funding is sequestered, 
reconstitution of the force will be impacted, delaying indefinitely the 
complete restoration of our non-deployed operational forces.
    The fiscal year 2014 budget continues the transition to a post-OEF 
Marine Corps that complies with strategic guidance and fully capable to 
operate across the range of military operations. This budget invests 
more in full-spectrum training, which will lead to greater proficiency 
in amphibious operations and combined arms operations. Moreover, it 
enables the Marine Corps to maintain its high standards of training, 
education, leadership, and discipline, while contributing vital 
capabilities to the joint force in meeting the strategic aims of our 
Nation. Sequestration would have a direct and negative impact on the 
achievement of these transitions. Additionally, current readiness 
remains heavily dependent on OCO funding. While the fiscal year 2014 
budget submission explicitly protects the Corps' ability to support 
current and near-term readiness, the impact of sequestration would 
exacerbate today's imbalance between current and long-term readiness.

    75. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, is it time to integrate JIEDDO into other existing organizations 
and processes?
    Mr. Mabus and Admiral Greenert. Yes, it is an appropriate time to 
consider integrating the roles and responsibilities performed by JIEDDO 
into existing organizations and processes empowered with the requisite 
authority. Since its inception, JIEDDO has focused on three lines of 
effort: defeating the device through rapid and agile acquisition 
efforts; training the joint force; and attacking the IED networks 
through the integration of operations research and intelligence 
analysis. Two of these lines of effort clearly fall within the 
responsibilities of the Military Services to man, train, and equip 
forces for combatant commander employment, while attacking the network 
is a shared responsibility among all DOD components and our interagency 
and coalition partners.
    JIEDDO's substantial investments in research, development, 
acquisition of equipment, and operations analysis and integration have 
been successful. There is no doubt that the substantial and flexible 
Joint IED Defeat Fund that Congress provided to help us mitigate this 
threat has saved many lives as well as catalyzed awareness of, and 
focus on, this threat throughout the Department. We are now better 
equipped to understand the IED threat and the strategies to mitigate it 
than we were at the beginning of these wars. As the resources that 
enabled JIEDDO's reach are no longer fiscally tenable, however, the 
Military Services must effectively execute our Title 10 
responsibilities within available funding.
    We have experience in successfully executing joint programs through 
common management structures such as the Navy's role as Executive Agent 
and Single Manager for Counter Radio-Controlled IED (RCIED) Electronic 
Warfare (CREW) under DOD Directive 5101.14 (CREW Executive Agent and 
Single Manager will transfer to the Army by 2014), and the Navy's role 
as the Single Manager for DOD Explosive Ordnance Disposal (EOD) 
Technology and Training under DOD Directive 5160.62. Such experience 
will inform how the Department chooses to manage this joint capability 
area while balancing resources to maintain the freedom of maneuver 
necessary to support our National Security Strategy.
    Obviously, no Service has budgeted to assume all of the 
responsibilities currently executed with OCO funding by JIEDDO. 
Continuation of these efforts will require supplemental funding, or 
will require offsets from other budgeted priorities. Risks associated 
with any disestablishment of JIEDDO will be most tangible in the 
operations integration efforts to include the sharing of IED forensics, 
biometrics, targeting, and exploited intelligence on adversary tactics, 
techniques, and procedures (TTP) and IED devices' flow of precursor 
materials and countering the acquisition, manufacture, and use of 
commercial, military, or homemade explosives. Additionally, JIEDDO's 
coordinating role with the interagency and coalition partners would 
have to be assumed by another DOD component with the requisite 
authority to execute this task. The transition of these functions and 
its timing must be carefully planned, coordinated, and funded to 
preserve our knowledge and to sustain our momentum against the IED 
threat.
    General Amos. The Marine Corps recommends that JIEDDO remain as the 
joint organization responsible for synergizing and integrating counter-
IED capabilities for DOD.
    There are significant risks in eliminating JIEDDO and requiring 
other existing DOD organizations or individual Services to assume 
counter-IED responsibilities. Without a single responsible 
organization, DOD would experience a reduced ability to coordinate 
multi-Service responses to joint urgent and emergent requirements as 
well as reduced visibility on whether joint requirements are fulfilled. 
Additionally, requiring individual Services to pursue separate counter-
IED efforts allows the potential for fragmentation, duplication, and 
overlap. Ultimately, without a single coordinating organization, DOD's 
capability to anticipate and develop responses to new threats would be 
significantly reduced.

    76. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, how do we gain more visibility into what DOD is doing in all 
aspects of counter-IED?
    Mr. Mabus and Admiral Greenert. Counter-IED is a very broad area 
that spans multiple communities and components. It is possible to share 
information and collaborate on initiatives through appropriate joint 
structures. For example, Joint Explosive Ordnance Disposal technology 
and training and ground-based CREW technology have been delegated to 
the Navy and through management structures established by DOD 
directives 5101.14 and 5160.62. The Navy communicates and coordinates 
with JIEDDO and other DOD components to ensure visibility across all 
stakeholders. The CREW Executive Agent and Single Manager will transfer 
from the Navy to the Army by 2014.
    In the case of counter-IED, JIEDDO's responsibilities and 
organization are defined in DOD Directive 2000.19E. JIEDDO's mission 
states ``JIEDDO shall focus (lead, advocate, coordinate) all DOD 
actions in support of the combatant commanders' and their respective 
Joint Task Forces' efforts to defeat IEDs as weapons of strategic 
influence.''
    JIEDDO, by direction of the Secretary of Defense, remains the Joint 
authority for DOD counter-IED efforts and is the appropriate source for 
insight and information for DOD counter-IED efforts.
    General Amos. The most effective way to provide better visibility 
on all aspects of counter-IED is to ensure a single DOD organization 
responsible for synchronizing and integrating counter-IED capabilities, 
requirements, and responses continue to robustly support combatant 
commanders and the Services. A streamlined, efficient JIEDDO, 
responsible for the standardization, rapid resourcing, and integration 
of joint counter-IED efforts would be appropriately poised to respond 
to all inquiries with answers informed by regular interaction with the 
Services.

    77. Senator Inhofe. Secretary Mabus, Admiral Greenert, and General 
Amos, what actions are you taking to support a strong and viable 
organic and commercial industrial base?
    Mr. Mabus and Admiral Greenert. We continue to support many 
counter-IED science and technology initiatives through the Office of 
Naval Research, Naval Research Laboratories, federally Funded Research 
and Development Centers, University Affiliated Research Centers, and 
Navy systems commands and their many geographically dispersed warfare 
centers. We are also teamed with many industry partners involved in the 
development, manufacture, fielding, and sustainment of counter-IED 
technology. Today, most of our acquisition programs employ open 
architecture designs, facilitate regular communication with industry on 
challenges and opportunities, and negotiate for appropriate government 
data rights. These practices allow greater alignment with the 
industrial base, afford opportunities for small business involvement, 
and reduce system costs through increased competition.
    General Amos. The Marine Corps fully supports Secretary Mabus and 
the five acquisition principles he outlined in 2010 for the Department 
of the Navy: Clearly identify requirements; Raise the bar on 
performance; Rebuild the acquisition workforce; Make every dollar 
count; and Support the industrial base. The Marine Corps supports a 
strong and viable organic and industrial base via open competition, 
early communication, and targeted efforts.
    The Marine Corps acquisition commands procure material solutions 
based on validated requirements from Marine Corps and DOD leadership. 
To support a strong industrial base, the Marine Corps regularly 
communicates future requirements with industry via Advanced Planning 
Briefs to Industry, Requests for Information, Sources Sought 
Announcements, and Requests for Quotes and Proposals through the 
various government points of entry. These include FEDBIZOPPS, SeaPort-
e, GSA Schedule, Small Business Innovation Research, and Small Business 
Technology Transfer solicitations. These communications provide 
industry with permissible information to support their internal 
planning and focused research so they can position themselves to 
efficiently and effectively support future government acquisitions.
    As acquisition programs mature, the Marine Corps continues to 
actively engage and communicate its programmatic intentions, technical 
priorities, and future plans in a number of forums. The Marine Corps 
participates in a wide range of events, such as the annual Modern Day 
Marine Exposition that included the Small Business Pavilion which 
highlights the capabilities and technology solutions of the small 
business contractor community. Another event that offers engagement 
with industry is the biennial Advanced Planning Briefing to Industry. 
The Marine Corps engages in these Industry Days, where many individual 
Marine Corps ground programs offices meet with industry throughout the 
year, giving them an opportunity to meet with our acquisition 
professionals on potential solutions. In addition, the Marine Corps 
recognizes the potential capabilities, innovations, and technology 
solutions that small businesses can offer. The Marine Corps has an 
Office of Small Business Programs (OSBP) that is involved in small 
business and industry outreach events on a weekly basis. The OSBP 
participates in local and national small business outreach events, 
performing business matchmaking at many of those events, to match the 
capabilities of small businesses with Marine Corps requirements. Such 
events provide great venues for industry to stay abreast of 
opportunities with the Marine Corps acquisition community and for the 
Marine Corps to learn from industry about potential solutions.

                                 RADIOS

    78. Senator Inhofe. Admiral Greenert, how many proprietary, sole 
source radios has the Marine Corps and Navy procured over the last 4 
years? Please provide a breakdown by year, the number of radios, and 
the funding associated with these radios.
    Admiral Greenert. The following is a breakdown of single-source 
digital modular radio (DMR) and portable radio program (PRP) by year:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Marine Corps has not purchased any radios via sole source 
contracting action in the timeframe requested.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

          OHIO-CLASS SUBMARINE REPLACEMENT PROGRAM COMMITMENT

    79. Senator Chambliss. Secretary Mabus and Admiral Greenert, during 
a February 28, 2013, hearing concerning the nomination of Mr. Alan 
Estevez to be the Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics, I asked Mr. Estevez if DOD is 
dedicated to recapitalizing the Ballistic Missile Submarine (SSBN) 
force so it continues to be the Nation's most survivable nuclear 
deterrence capability, which he replied with concurrence. Mr. Estevez 
assured that DOD would fund a SSBN force of 12 to meet U.S. Strategic 
Command's (STRATCOM) strategic deterrence requirements. With fiscal 
uncertainty and the administration not taking sequestration into 
account for budgeting, I am wary that this program will not be 
delivered on time, resulting in a lapse of coverage in our nuclear 
triad. The President's budget has caused a 2-year shift to construction 
and delivery of the replacements. Mr. Estevez committed that the Navy 
would be monitoring closely. Are you committed to ensuring that the 
Navy commits its resources to seeing the timely fruition of the new 
Ohio-class submarine replacement?
    Mr. Mabus and Admiral Greenert. Strategic deterrence remains a 
national imperative. The SSBN force is the most reliable and survivable 
leg of the U.S. nuclear triad. The Ohio Replacement SSBN is one of the 
Navy's top three acquisition priorities. Under the current fiscal year 
2014 budget submission, research and development for the Ohio 
Replacement SSBN is fully funded and on schedule. However, continuing 
sequestration or a Continuing Resolution presents the greatest risk to 
program execution and affordability.
    To cover both the SSBN(X) program as well as other shipbuilding 
programs, yearly shipbuilding expenditures during the mid-term (2024-
2033) planning period will need to average about $19.3 billion per 
year. This is nearly $3 billion more per year than in the near-term 
planning period (2014-2023), and nearly $6 billion more per year than 
past steady-state funding levels.
    The shipbuilding plan assumes the average recurring affordability 
target for the 2nd through 12th SSBN(X)s will be $5.9 billion per 
submarine in fiscal year 2013 dollars. The SSBN(X) Milestone A 
Acquisition Decision Memorandum established an even lower affordability 
target of $4.9 billion per ship in fiscal year 2010 dollars. The Navy 
is working to reduce the cost of the submarines and conducts 
affordability reviews to monitor program efforts in achieving 
affordability targets.

    80. Senator Chambliss. Admiral Greenert, please explain your plan 
to integrate the replacement of SSBN(X) into the fleet while removing 
the old Ohio-class submarine while ensuring there are at least two 
SSBNs at sea for nuclear deterrence.
    Admiral Greenert. The Ohio-class SSBNs will begin to decommission 
at a rate of one per year in 2027 after a proposed and planned life 
extension from 30 to 42 years. Consistent with the DSG, in our fiscal 
year 2013 budget submission we proposed delaying the Ohio replacement 
program by 2 years. This delay will result in an SSBN force of 10 ships 
in the 2030s adequate to meet the requirement, but will require a high 
state of readiness to meet the Nation's strategic deterrence needs. The 
key to ensuring we maintain the required number of SSBNs at sea to meet 
strategic requirements is for construction of the lead Ohio replacement 
SSBN to commence on time in fiscal year 2021 and complete per plan. 
This ensures that Ohio replacement SSBNs will enter fleet service 
starting in fiscal year 2031 at the rate of one per year to replace the 
retiring Ohio-class.

    81. Senator Chambliss. Secretary Mabus, will your current fiscal 
year 2014 budget request for the SSBN(X) replacement program be 
sufficient to keep the program on schedule?
    Mr. Mabus. Yes, the fiscal year 2014 President's budget request is 
sufficient to keep the Ohio replacement program on schedule. The Ohio 
replacement SSBN is one of the Navy's top three acquisition priorities. 
However, continuing sequestration or a Continuing Resolution presents 
the greatest risk to program execution and affordability.

                       F-35 JOINT STRIKE FIGHTER

    82. Senator Chambliss. Secretary Mabus, the Joint Strike Fighter 
(JSF) is an imperative part of continuing our air superiority in these 
dangerous and uncertain times. As former Secretary of Defense Panetta 
commented on the F-35, ``this 5th generation fighter . . . is 
absolutely vital to maintaining our air superiority. And it will enable 
the kind of vital operations we need in anti-access environments.'' He 
went onto to say that DOD is committed to the development of the F-35. 
The Navy's aircraft procurement reflects multiple purchases of the F-35 
in the upcoming years. Are you committed to ensuring that the F-35 
remains an integral part of the warfighting capabilities of the Navy?
    Mr. Mabus. The Navy remains committed to the F-35C and will 
leverage its 5th generation capabilities to ensure mission 
effectiveness in anti-access/area-denied environments. The F-35C will 
provide a significant additive value when brought to bear as a fully 
integrated asset in the future Navy carrier air wing.

    83. Senator Chambliss. Secretary Mabus, will the current fiscal 
year 2014 and other projected fiscal years of JSF procurement be 
sufficient to incorporate the fifth generation fighter to replace the 
aging F-18s that are currently in the Navy fleet?
    Mr. Mabus. The fiscal year 2014 F-35C procurement profile is 
sufficient to replace the aging F/A-18s that are currently in the Navy 
fleet. The current transition plan calls for a one-for-one replacement 
of an F/A-18C/D squadron by an F-35 squadron. Under the current program 
of record, the first F-35C squadron is scheduled to replace the first 
F/A-18C/D squadron starting in 2016. At projected procurement rates, 
the entire F/A-18C/D fleet will be replaced by 2026.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                            AMPHIBIOUS SHIPS

    84. Senator Wicker. General Amos, in your written testimony you 
express concern that the number of amphibious ships currently available 
represents the minimal number you feel is acceptable. You note that 
current numbers allow the Marine Corps to meet combatant commander's 
requirements, but with significant risk. Would the addition of a 12th 
San Antonio-class Landing Platform Dock to the fleet be of use to the 
Marine Corps?
    General Amos. Yes. The San Antonio-class LPD is extremely versatile 
and serves as the replacement for four classes of older ships: LKA, 
LST, LSD-36, and LPD-4. Nine of the 11 authorized and approved ships of 
this class have been delivered to the Navy. The utility of this class 
was best demonstrated by USS Mesa Verde (LPD-19) as she recently 
returned after 19 months of deployed operation over a 25 month period.
    Based on the expeditionary requirements of a 2.0 MEB assault 
echelon force, as long as 30 operationally available ships are 
maintained, the Navy can meet assault echelon requirements with some 
risk. The current planned mix of amphibious ships is 11 LHA/LHDs, 11 
LPDs, and 11 LSDs. It is important to note that each additional LPD-17 
that is procured today could reduce the total number of ships required 
to replace the aging LSD-41/49 class. LX(R) is the planned LSD 
replacement program and is currently undergoing an Analysis of 
Alternatives.
    Today, the Amphibious Force Structure stands at 30 ships, which 
includes 9 LHD/LHAs, 9 LPDs, and 12 LSDs.

    85. Senator Wicker. Admiral Greenert and General Amos, I am 
concerned with the recent trends towards the acquisition of non-
military shipping as a substitute for combat-ready amphibious warships. 
Commercial-grade ships have the potential to save costs when used as 
intra-theater lift in a benign environment. However, the robust anti-
access/area-denial capabilities being developed by regional threats, 
such as Iran and North Korea, indicate that commercial-grade ships 
would not survive in the event of conflict. To this end, I believe that 
the Navy must continue to procure combat-survivable amphibious 
shipping. While cost savings should be sought in the adoption of 
commercial-grade standards where doing so will not negatively affect 
the safety of the ship and crew, the emphasis must remain on ensuring 
our amphibious ships are built to fight and survive. Do you agree 
regarding the need to continue to build amphibious ships that are meant 
to operate and survive in a multi-threat combat environment?
    Admiral Greenert. The Navy is committed to building amphibious 
ships that mitigate the capability gaps that are created when ships in 
the inventory reach their expected service lives. The starting point 
for a new warship design is based on capability gaps and the associated 
requirements. Proven hull forms are evaluated along with other ship 
alternatives in an Analysis of Alternatives in accordance with DOD 
Instruction 5000.02, Operation of the Defense Acquisition System. In 
executing a thorough Analysis of Alternatives, commercial, military, 
and tailored specification design concepts are studied. Each option is 
analyzed on the basis of capability, suitability, survivability, and 
cost.
    General Amos. It is critically important for our Nation to maintain 
a robust amphibious warship capability that enables the Nation to gain 
access regardless of the threat environment. Amphibious warships 
operate forward to support allies, respond to crises, deter potential 
adversaries, and provide the Nation's best means of projecting 
sustainable power ashore. They also provide the best means for 
providing humanitarian assistance and disaster relief. Expeditionary 
forces comprised of sailors, marines, and amphibious warships provide 
the ability to rapidly and decisively respond to global crises without 
a permanent footprint ashore that would place unnecessary political or 
logistic burdens upon our allies or potential partners. There are two 
main drivers of the amphibious warship requirement: maintaining 
persistent forward presence, which enables both engagement and crisis 
response, and delivering the assault echelons of up to two Marine 
Expeditionary Brigades (MEB) for joint forcible entry operations.
    Marines will continue to enhance our ability to operate from any 
available platform, but we believe combat missions require combat 
capable warships with its supporting echlon/sustainment platforms.

    86. Senator Wicker. Admiral Greenert, would you agree that the 
starting point for new warship design should be on a proven, combat-
capable hull form that can be modified according to need and cost-
constraints?
    Admiral Greenert. The starting point for a new warship design is 
based on capability gaps and the associated requirements. Proven hull 
forms are evaluated along with other ship alternatives in an Analysis 
of Alternatives in accordance with DOD Instruction 5000.02, Operation 
of the Defense Acquisition System. In executing a thorough Analysis of 
Alternatives, commercial, military, and tailored specification design 
concepts are studied. Each option is analyzed on the basis of 
capability, suitability, survivability, and cost.

              STABILIZING THE SHIPBUILDING INDUSTRIAL BASE

    87. Senator Wicker. Secretary Mabus, in your written testimony, you 
discuss at length the need to maintain a robust and healthy 
shipbuilding industrial base. In my discussions with industry leaders, 
they expressed to me their concerns with the unsteady nature of the 
contract work they perform for the Navy and the difficulties that stem 
from the shipbuilding acquisition program. Because of the feast or 
famine nature of the Navy's shipbuilding process, companies are 
challenged to find steady work for their highly-skilled employees to 
ensure they do not lose them to other industries. Once these employees 
leave an industry or region, they are unlikely to return. Such losses 
have the potential to cripple or bankrupt a major shipbuilding company. 
Additionally, the lack of consistency that characterizes the 
acquisition and contracting system currently in place has a ripple 
effect on 2nd- and 3rd-tier producers. While the major companies can 
generally survive short periods in which they are not building a ship, 
smaller companies that produce components or provide materials are 
often forced out of business. This uncertainty increases costs to the 
Navy and the taxpayers in the near-term, and contributes to the gradual 
erosion of the industrial base in the long-term. Do you agree that it 
is in the best interest of the Navy and the shipbuilding industry to 
establish a more consistent, predictable method of contracting and 
paying for ship construction?
    Mr. Mabus. The Navy agrees that stability and affordability are key 
to obtaining the objectives of the shipbuilding plan and improving the 
health of the industrial base. Over the past several years, the Navy 
has placed a priority on increasing shipbuilding rates and providing 
stability for the shipbuilding industrial base. On September 11, 2001, 
the U.S. Navy had 316 ships. By 2008, after one of the largest military 
buildups in our Nations' history, that number was 278. In 2008, the 
Navy put only three ships under contract, far too few to maintain the 
size of the fleet or our industrial base, and many of our shipbuilding 
programs were over budget, behind schedule, or both. One of my main 
priorities as Secretary has been to reverse those trends. Today, the 
Fleet has stabilized and problems in most of our shipbuilding programs 
have been corrected or arrested. We have 53 ships under contract today, 
47 of which were contracted since I took office, and our current 
shipbuilding plan puts us on track for 300 ships in the fleet by 2019. 
Stability translates into retention of skilled labor, improved material 
purchasing and workforce and financial planning, strong learning curve 
performance, and the ability for industry to invest in facility 
improvements; all resulting in more efficient ship construction and a 
more affordable shipbuilding program. The past Virginia-class and DDG-
51-class Multi-Year Procurements (MYPs), the DDG-1000 Swap/DDG-51 
Restart Agreement, the LCS dual block buy, the MLP procurement, the 
continuation of CVN-78-class procurements on constant 5-year centers, 
and the heel-to-toe CVN RCOH induction-to-delivery cycle have provided 
critical stable workload for our shipyards and their respective vendor 
bases. The approved upcoming Virginia-class MYP and just awarded DDG-
51-class MYP will help to further stabilize the submarine and surface 
combatant industrial base through this decade. Likewise, the funding 
requested to procure a fourth MLP, and to configure MLP-3 and MLP-4 as 
AFSBs will also provide for much-needed workload within the auxiliary 
shipbuilding sector.
    The strategy going forward continues to center upon improving 
affordability. To this end, in addition to the emphasis on stability 
discussed above, the Navy has established affordability requirements 
and invested in Design for Affordability for future ship programs; 
mandating use of open systems design; leveraging competition at every 
opportunity in shipbuilding and weapons systems production; employing 
fixed-price contracts to control cost for ships and weapon systems in 
production; imposing strict criteria limiting disruptive change to 
contracts; investing in industry-wide manufacturing process 
improvements through the National Shipbuilding Research Program; and 
incentivizing capital investment in facilities where warranted.
    The fiscal year 2014 President's budget request for fiscal years 
201 to 2018 requests 41 ships. Of these 41 ships, 25 ships are part of 
stable DDG-51 or SSN-774 MYPs or the LCS block buy contracts, and 11 
ships are part of ongoing shipbuilding construction programs.
    The Navy believes continued use of multi-year and block buy 
procurements provide the best means of ensuring stability and 
predictability within the industry with respect to workload and 
financial planning. The greatest risk to the industrial base is 
associated with budget uncertainty, particularly the disruption and 
inefficiency caused by sequestration, delayed authorization and 
appropriations, and the looming budgetary challenges. The Navy will 
continue to aggressively pursue the mutual objectives of improving the 
affordability of our shipbuilding program and increasing the strength 
of our shipbuilding industrial base, and is committed to working 
closely with Congress on these efforts.

    88. Senator Wicker. Secretary Mabus, would you agree to funding 
contracts on a multi-year basis, rather than a year-per-year basis?
    Mr. Mabus. New ship construction is typically procured using 
Shipbuilding and Conversion, Navy (SCN) appropriation funding which 
provides multiple year budget authority that is available for 
obligation for 5 years. With few exceptions, the Navy typically 
requests to fully fund an entire ship in the year of authorization/
appropriation. In cases where there is a requirement for advance 
procurement (AP) funds, which typically is associated with the need to 
order long lead time material or to achieve economic order quantity 
discounts, the Navy will request AP funds in the year(s) preceding a 
ship's full funding request. With respect to aircraft carriers, large 
deck amphibious ships, and submarines, in addition to AP funds, the 
Navy will request to incrementally or split fund the balance of the 
ship, in order to avoid large spikes in the budget request for the 
years that these capital ships are authorized and appropriated.
    In instances where the ship class design is mature and production 
is proven and stable, the Navy believes continued use of multiyear and 
block buy procurements provide the best means of ensuring stability and 
predictability within the industry with respect to workload and 
financial planning. The fiscal year 2014 President's budget request for 
fiscal years 2014 to 2018 requests 41 ships. Of these 41 ships, 25 
ships are part of stable DDG-51 or SSN 774 multi-year procurements or 
the LCS block buy contracts. The greatest risk to the industrial base 
is associated with budget uncertainty, particularly the disruption and 
inefficiency caused by sequestration, delayed authorization and 
appropriations, and the looming budgetary challenges. The Navy will 
continue to aggressively pursue the mutual objectives of improving the 
affordability of our shipbuilding program and increasing the strength 
of our shipbuilding industrial base, and is committed to working 
closely with Congress on these efforts.

                TRANSITION FOR VETERANS TO CIVILIAN LIFE

    89. Senator Wicker. Secretary Mabus, Admiral Greenert, and General 
Amos, in your written testimonies, each of you discuss the importance 
of readying our sailors and marines for their eventual transitions to 
civilian life. I am very concerned about the current unemployment rate 
for veterans. I applaud the steps you are taking to improve the TAP, 
especially the development of a more tailored and targeted curriculum 
for individuals. Even with these improvements, I remain concerned that 
we are sending our youngest sailors and marines, those in the 18- to 
24-year-old demographic, into the world unprepared to face a struggling 
economy and a job market into which their skills do not readily 
translate. Of special concern to me are those sailors and marines whose 
military occupations and skills do not translate well to well-paying 
civilian occupations. Do you share my concerns with regards to the high 
rate of unemployment among our youngest veterans?
    Mr. Mabus and Admiral Greenert. The Department of the Navy shares 
your concerns regarding the unemployment rate of young veterans, and we 
continually monitor the factors that may contribute to their 
unemployment. What is unknown is the duration of their unemployed 
status. In many cases, this may be attributed to a short-term 
transition phase as veterans enter the job market for the civilian 
workforce. Since this is an unavoidable circumstance, our goal is that 
transition programs positively improve the career readiness of 
separating servicemembers, and limit the amount of time they are 
unemployed.
    While the unemployment rate of veterans, particularly young 
veterans, remains unacceptably high, the notion that new veterans have 
a more difficult time finding employment than similar civilians who 
have recently left their jobs is not supported by employment data. The 
Department of the Navy has just begun to analyze unemployment 
compensation data to understand the duration of veteran unemployment 
and any patterns across military occupations. In many cases, young 
veterans are sought after as highly skilled and disciplined employees. 
Therefore, the TAP program has implemented the Military Occupational 
Code (MOC) Crosswalk which facilitates sailors and marines translating 
their military skills, training, and experience into credentialing 
appropriate for civilian jobs. Upon completing this module, 
servicemembers will have a file documenting their military career 
experience and skills; translation of their military occupation 
experience to civilian sector skills; and identification of gaps in 
their training and/or experience that need to be filled to meet their 
personal career goals. Further, this documentation will be a mandatory 
Career Readiness Standard that must be reviewed and verified prior to 
separation.
    General Amos. The Marine Corps shares your concerns about veteran 
unemployment. It is vital that we meet the needs of our marines who 
transition from service. In March 2012, we implemented the new 
Transition Readiness Seminar (TRS) to maximize the transition-readiness 
of all servicemembers. In accordance with the Veterans Opportunity to 
Work (VOW) to Hire Heroes Act, TRS revolutionized our approach to meet 
the individual goals of each marine as he or she transitions to the 
next phase in their life. The seminar is a week-long program which 
includes a mandatory standardized core curriculum and also provides 
four well-defined military-civilian pathways: (1) College/Education/
University, (2) Career/Technical Training, (3) Employment, or (4) 
Entrepreneurial. Each pathway has associated resources and additional 
tools to better prepare our veteran marines. An essential feature of 
the TRS is that it allows marines to choose and receive transition 
information and education in line with each marine's future goals and 
objectives.

    90. Senator Wicker. Secretary Mabus, Admiral Greenert, and General 
Amos, how is the Navy tracking the post-military employment of this 
demographic?
    Mr. Mabus and Admiral Greenert. Once the DD214 is issued, the 
Department of the Navy no longer has the ability or statutory authority 
to track post-military employment of separated servicemembers. The 
Department has, however, begun an effort to analyze unemployment 
compensation payments to our recent veterans. When completed, this may 
give us insight into both the duration of veteran unemployment and any 
differences across demographic groups or military occupations.
    General Amos. The Marine Corps does not have metrics to track post-
military employment, however we remain concerned with the overall 
veteran employment picture. As marines separate, we provide them with 
contact information for the VA and the Department of Labor (DOL) 
service locations closest to their post-military homes. These executive 
branch agencies have the mission of providing veteran and employment 
services.

    91. Senator Wicker. Secretary Mabus, Admiral Greenert, and General 
Amos, what additional opportunities do you see for improving the 
employment rates for these individuals?
    Mr. Mabus and Admiral Greenert. Although there are many factors 
that impact the employment status of a veteran, the Navy and Marine 
Corps are fully committed to improving the career preparedness and 
employability of sailors and marines. To that end, the Navy and Marine 
Corps are planning to implement the ``Military Life Cycle'' transition 
model. This proactive approach makes meeting future career goals a 
priority at the start and throughout a servicemember's military career. 
This process aligns military career development with the 
servicemember's personal post separation goals resulting in better 
preparation for civilian career opportunities.
    General Amos. Returning quality citizens from military service 
remains a key responsibility that I take very seriously. Our TRS 
maximizes the transition-readiness of all of our marines who are 
preparing to leave Active Duty. As such, we encourage our marines to 
explore the four well-defined military-civilian pathways: (1) College/
Education/University, (2) Career/Technical Training, (3) Employment, or 
(4) Entrepreneurial. Each pathway has associated resources and 
additional tools to better prepare our veteran marines.
    In addition, the DOL and the VA both have a myriad of programs to 
assist veterans with employment. Together, we encourage employers to 
hire our marines leaving Active Duty service.
                                 ______
                                 
             Questions Submitted by Senator Kelly A. Ayotte

                      OHIO-CLASS SUBMARINE PROGRAM

    92. Senator Ayotte. Admiral Greenert, in your written testimony, 
you state that: ``the Navy will need the means to resource . . . the 
next generation nuclear ballistic missile submarine.'' Why do you 
believe the Navy needs to build the next generation ballistic missile 
submarine?
    Admiral Greenert. Our SSBNs are stealthy, reliable, flexible, and 
persistent, and provide the Nation with an assured second strike 
capability. The 2010 Nuclear Posture Review confirmed the enduring 
requirements to maintain a secure and survivable sea-based deterrent. 
Further, under the New Strategic Arms Reduction Treaty (New START), 
SSBNs will be responsible for approximately 70 percent of our Nation's 
deployed nuclear warheads.
    With the Ohio-class ballistic missile submarines approaching the 
end of their unprecedented 42-year service life, it is now necessary 
for the Navy to recapitalize this vitally important leg of the triad. 
The next generation ballistic missile submarine will leverage the Ohio-
class and Virginia-class designs, components, and construction best 
practices. The new SSBN is being designed to employ the highly 
successful TRIDENT II D-5 life extension missile and associated 
strategic weapon systems negating the need to simultaneously develop a 
new missile system. By reducing midlife maintenance, including the 
development of a life-of-ship reactor core, a class of 12 submarines 
will be available to perform the same mission as today's 14 Ohio-class 
submarines. In addition, this new ballistic missile submarine will 
incorporate the enhancements in stealth necessary to ensure that it is 
able to deliver the required survivability against threats expected to 
emerge well into the 21st century.

    93. Senator Ayotte. Admiral Greenert, why do we need the sea leg of 
our nuclear triad?
    Admiral Greenert. U.S. strategic deterrence promotes global 
stability. Deterrence relies on the credible and survivable threat to 
impose unacceptable consequences to an adversary should he consider an 
attack against our Homeland. A survivable deterrent retains the ability 
to conduct an assured retaliatory response even after being attacked. 
For more than 50 years, the Navy's ballistic missile submarine force 
has provided the most survivable leg of the Nation's strategic nuclear 
deterrent triad. Our SSBNs are reliable, flexible, and persistent, and 
provide the Nation with an assured second strike capability. The 2010 
Nuclear Posture Review confirmed the enduring requirements to maintain 
a secure and survivable sea-based deterrent. Further, under the New 
START, SSBNs will be responsible for approximately 70 percent of our 
Nation's deployed nuclear warheads.

    94. Senator Ayotte. Admiral Greenert, why is 12 Ohio-class 
replacement submarines the right number?
    Admiral Greenert. Long term, the Navy needs a minimum of 12 SSBNs 
to provide a survivable force and meet Commander, STRATCOM, 
requirements. A force structure of 12 SSBNs provides 10 operational 
SSBNs during the mid-life refueling overhauls required for each SSBN. 
Ten operational SSBNs are needed to deploy SSBNs in two oceans, provide 
continuous presence, and meet targeting and policy constraints. Force 
structure requirements are not tied to the number of warheads carried 
by each submarine.

    95. Senator Ayotte. Admiral Greenert, do you oppose any further 
delay to the Ohio-class replacement program? If not, why not?
    Admiral Greenert. I am opposed to any further delay to the Ohio 
replacement program because, based on current plans and programs, it 
would reduce the total SSBN force structure below the absolute minimum 
required to provide 10 operational SSBNs during the transition period 
from the Ohio-class to the Ohio replacement. This would prevent us from 
meeting Commander, STRATCOM, at-sea requirements.
    Consistent with the DSC, in our fiscal year 2013 budget submission 
we delayed the Ohio replacement program by 2 years. This delay will 
result in an SSBN force of 10 ships in the 2030s and will require a 
high state of readiness to meet the Nation's strategic deterrence 
needs.

                    SIZE OF FLEET AND SEQUESTRATION

    96. Senator Ayotte. Admiral Greenert, in the past you have 
testified that the Navy's fleet size would drop as low as 230 ships--
well below the established fleet size requirement of 306 ships--if 
sequestration and the associated budget reductions go forward for the 
entire period--fiscal year 2013 to fiscal 2021. What would be the 
operational and national security implications of having so few ships 
and submarines?
    Admiral Greenert. Should the BCA of 2011 discretionary caps remain 
in place through fiscal year 2021, we will take a deliberate and 
comprehensive approach to the reduction, based on a reevaluation of the 
DSG. In doing so, I will endeavor to: (1) ensure our people are 
properly resourced; (2) protect sufficient current readiness and 
warfighting capability; (3) sustain some ability to operate forward by 
continuing to forward base forces in Japan, Spain, Singapore, and 
Bahrain, and by using rotational crews; and (4) maintain appropriate 
research and development.
    Inevitably, these changes will severely damage our industrial base. 
Some shipyards will not be able to sustain steady construction or 
maintenance operations and may close or be inactivated. Aviation depots 
will reduce their operations or become idle. Aircraft and weapons 
manufacturers will slow or stop their work entirely. In particular, the 
small firms that are often the sole source for particular ship and 
aircraft components will quickly be forced to shut down. Once these 
companies and their engineers and craftspeople move on to other work, 
they are hard to reconstitute, sometimes impossible, at a later date 
when our national security demands it.
    The GFMAP represents our covenant with the geographic combatant 
commanders on how we will match resources to their demand signal. The 
GFMAP is a primary basis for our Force Structure Assessment and its 
fleet size requirement of 306 ships.

    97. Senator Ayotte. Admiral Greenert, if we allow sequestration to 
continue and the Navy is forced to cut our fleet that much, what 
message would that send to our potential adversaries, as well as to our 
allies?
    Admiral Greenert. Should the BCA of 2011 discretionary caps remain 
in place through fiscal year 2021, we will take a deliberate and 
comprehensive approach to the reduction, based on a reevaluation of the 
DSG. In doing so, I will endeavor to: (1) ensure our people are 
properly resourced; (2) protect sufficient current readiness and 
warfighting capability; (3) sustain some ability to operate forward by 
continuing to forward base forces in Japan, Spain, Singapore, and 
Bahrain, and by using rotational crews; and (4) maintain appropriate 
research and development.

                   F-35 JOINT STRIKE FIGHTER PROGRAM

    98. Senator Ayotte. Secretary Mabus, why is the F-35 the Marine 
Corps' number one aviation program?
    Mr. Mabus. The Marine Corps will leverage the F-35B's capabilities 
to ensure our tactical aircraft is able to provide fifth-generation 
benefits to our ground warriors. The concept is one aircraft, capable 
of multiple missions, providing the MAGTF with flexible expeditionary 
basing and superior technology to dominate the fight. The F-35B is the 
tactical aircraft we need to support our MAGTF from now until the 
middle of this century. Our requirement for expeditionary tactical 
aircraft has been demonstrated repeatedly since the inception of Marine 
Corps aviation for over 100 years. From the expeditionary airfields and 
agile jeep carriers, to close air support, to forward basing on 
cratered runways and taxiways throughout Iraq, and strikes from the sea 
in Libya to today's fight in Afghanistan, our ability to tactically 
base fixed wing aircraft has been instrumental to our success on the 
battlefield. Given the threats we will face in the future, the F-35B is 
clearly the aircraft of choice to meet our expeditionary operating 
requirements at sea and ashore. It is the interoperability catalyst 
that optimizes our tactical aircraft effectiveness and will generate 
unprecedented strategic and operational agility within our MAGTFs to 
counter a broad spectrum of threats and win in operational scenarios 
that cannot be addressed by current legacy aircraft.

    99. Senator Ayotte. General Amos, why does the Marine Corps need 
the F-35B?
    General Amos. Given the threats we will face in the future, the F-
35 is the only aircraft capable of meeting our expeditionary operating 
requirements at sea and ashore. It will generate unprecedented 
strategic and operational agility within our MAGTF to counter a broad 
spectrum of threats and capable of dominating in operational scenarios 
that cannot be addressed by current legacy aircraft. The F-35B is the 
tactical aircraft required to support our MAGTF for the next 50 years. 
Our requirement for expeditionary tactical aircraft has been 
demonstrated repeatedly since the inception of Marine Corps aviation. 
From the expeditionary airfields and agile jeep carriers of World War 
II, to close air support in proximity to troops in Korea and Vietnam, 
to forward basing on cratered runways and taxiways throughout Iraq, 
strikes from the sea in Libya through to today's fight in Afghanistan, 
our ability to tactically base fixed wing aircraft in close proximity 
of our ground forces has been instrumental to our success on the 
battlefield.

 JOINT LAND ATTACK CRUISE MISSILE DEFENSE ELEVATED NETTED SENSOR SYSTEM

    100. Senator Ayotte. Admiral Greenert, working with the Navy's 
integrated fire control system, how would the Joint Land Attack Cruise 
Missile Defense Elevated Netted Sensor (JLENS) System help increase the 
Navy's ability to engage targets despite jamming and long ranges?
    Admiral Greenert. The JLENS system could be networked with Navy 
surface-based anti-air weapons systems (e.g. AEGIS destroyers or 
cruisers) to provide an additional, elevated radar that increases 
surveillance range over the horizon and enables earlier detection and 
engagement of missiles. This capability was demonstrated at a live-fire 
event with the Naval Integrated Fire Control-Counter Air System in 
September 2012 at White Sands Missile Range.

                        VIRGINIA-CLASS SUBMARINE

    101. Senator Ayotte. Admiral Greenert, how is the Virginia-class 
submarine program performing?
    Admiral Greenert. The Virginia-class continues to be a highly 
successful acquisition program with ships consistently delivering early 
and within budget. Nine ships have delivered, the last being USS 
Mississippi (SSN-782), delivered 1 year ahead of schedule with a Navy 
Board of Inspection and Survey (INSURV) rating of green in all 22 
areas. The program increased production to two ships per year in fiscal 
year 2011, starting with the construction of USS Washington (SSN-787) 
in September 2011, with a follow-on multi-year procurement contract for 
10 ships in fiscal year 2014 to fiscal year 2018.
    Delivered ships are exceeding expectations for operational 
performance, with five ships already completing successful full length, 
worldwide deployments: USS Virginia (SSN-774), USS Texas (SSN-775), USS 
Hawaii (SSN-776), USS North Carolina (SSN-777) and USS New Hampshire 
(SSN-778). Virginia-class ships are preferentially assigned our most 
challenging missions and have performed superbly. Specific mission 
highlights are available at the appropriate classification level.

    102. Senator Ayotte. Admiral Greenert, what is the Navy's 
requirement for attack submarines?
    Admiral Greenert. Per our 2012 Force Structure Assessment, the 
Navy's requirement for SSNs is 48.

    103. Senator Ayotte. Admiral Greenert, how will a shortfall in 
attack submarines impact our undersea strike volume?
    Admiral Greenert. Undersea strike volume will decrease by 
approximately 63 percent, from today's force, in the 2030 timeframe due 
to two factors: SSN force structure reductions and SSGN retirement.
    The Navy is examining an option to increase strike volume via a 
payload module inserted into 20 future Virginia-class. The Virginia 
Payload Module (VPM) could more than triple the vertical launch 
capacity in current Virginia-class ships, replacing the undersea strike 
capacity gap created by the retirement of the SSGNs. VPM payload tubes 
can also be used for other payloads such as Special Operations Forces 
or unmanned vehicles. The current advanced engineering design work on 
VPM will enable the Department of the Navy to incorporate VPM in the 
fiscal year 2019 Block V Virginia-class buy.

    104. Senator Ayotte. Admiral Greenert, based on the anticipated 
shortfall in the number of attack submarines, as well as undersea 
strike volume, how important is it that Congress provides the resources 
for the Navy to build two Virginia-class submarines each year going 
forward and that we move forward with the Virginia-class payload 
module?
    Admiral Greenert. Attack submarines provide a unique combination of 
stealth, persistence, and firepower that complement and enable other 
joint forces. Continuing to build two Virginia-class SSNs per year will 
minimize the length of time that our SSN force structure is below the 
validated requirement of 48, and maximize our ability to respond to 
critical peacetime and wartime tasking.
    Undersea strike is an asymmetric capability that assures joint 
access with capabilities providing additional attack capacity in our 
submarine force. The VPM could more than triple the vertical launch 
capacity in current Virginia-class ships, replacing the undersea strike 
capacity gap created by the retirement of the SSGNs. VPM payload tubes 
can also be used for other payloads such as Special Operations Forces 
or unmanned vehicles. The current advanced engineering design work on 
VPM will enable the Department of the Navy to incorporate VPM in the 
fiscal year 2019 Block V Virginia class buy.
    While VPM represents a significant improvement in strike capacity, 
it comes at a cost. Given the increased costs VPM would introduce in 
the Virginia-class concurrent with our efforts to field the SSBN(X) 
replacement, it may render VPM unaffordable as we assess the future 
fiscal impact of sequestration.

                           NAVY HIRING FREEZE

    105. Senator Ayotte. Secretary Mabus and Admiral Greenert, what 
impact is the across-the-board civilian hiring freeze having on the 
Navy, and how will this impact worsen over time?
    Mr. Mabus and Admiral Greenert. The hiring freeze has had a 
significant negative impact on the Navy and the morale of its 
employees. Since initiating the hiring freeze, the Navy's ability to 
hire veterans and wounded warriors has been drastically cut. Veterans 
account for approximately 57 percent of the Navy's civilian workforce. 
Since the freeze, the numbers of wounded warriors and disabled veterans 
brought onboard have dropped. Additionally, the Navy's efforts to build 
a diverse workforce have been brought to a near standstill.
    Prior to the hiring freeze, the Navy led the other Services and 
exceeded both DOD and OPM targets for hiring reform metrics. These 
metrics measure time to fill vacancies from beginning to end. Those 
metrics now are held in abeyance until the Navy can once again 
aggressively recruit and hire new talent. Hiring reform efforts are 
part of the Navy's strategy to attract and retain a highly qualified 
workforce as well as being an employer of choice.
    Sustained execution of a hiring freeze will severely hamper the 
Navy's ability to recruit a skilled and talented workforce capable of 
executing the Navy's mission. Navy civilians play a critical role in 
keeping the Navy and Marine Corps team operating forward--the Navy 
workforce is among the most technical worldwide. More than half of the 
civilian workforce are engineers, logisticians, mathematicians, 
scientists, information technology, and acquisition specialists--many 
with critical certifications and advanced degrees.
    The hiring freeze creates critical gaps in the Navy's current 
readiness as well as into the future. Recently Thomson-Reuters 
recognized the Navy (along with our sister Service, the Army) as one of 
the Top 100 Global Innovators--standing alongside such companies as 
Apple, Google, Yahoo, and Xerox. We will not be able to maintain this 
level of innovation if the hiring freeze continues.

         SEQUESTRATION AND REBALANCE TO THE ASIA-PACIFIC REGION

    106. Senator Ayotte. Secretary Mabus, Admiral Greenert, and General 
Amos, if sequestration continues into fiscal year 2014, how will it 
impact the Navy and Marine Corps rebalance to the Asia-Pacific region?
    Mr. Mabus and Admiral Greenert. The fiscal year 2014 President's 
budget submission is currently being assessed for impacts due to fiscal 
year 2014 sequestration. Navy is working with the Office of the 
Secretary of Defense in the SCMR to inform the major decisions that 
must be made in the decade ahead to preserve and adapt our defense 
strategy, our force, and our institutions under a range of future 
budgetary scenarios. In the event sequestration is allowed to occur in 
2014, this will compel Navy to again dramatically reduce operations, 
maintenance, and procurement in fiscal year 2014, preventing us from 
meeting the fiscal year 2014 GFMAP. The uncertainty makes it difficult 
to look long-term at how we should build, train, develop, and posture 
the future force as we rebalance our effort toward the Asia-Pacific.
    General Amos. We are concerned that sequestration will impose 
significant impacts to our operational readiness as the effects are 
occurring in the midst of our planned redistribution of forces in the 
Pacific. Furthermore, sequestration will negatively reduce our 
responsiveness and hinder our ability to maintain project power and 
respond to crises in accordance with combatant commander requirements 
and timelines. Our rebalance to the Pacific faced a significant 
challenge with the planned downsizing of the Marine Corps to 182,100. 
We mitigated this by pacing the reconstitution of the III MEF Unit 
Deployment Program (UDP) commensurate with our force requirements in 
the CENTCOM AOR and by accepting the impacts of the downsizing in other 
commands in favor of sustaining, and in some cases increasing, our III 
MEF force levels under the distributed laydown. Sequestration will 
reduce the operational readiness of those Pacific-based forces to 
conduct their assigned missions. Sequestration will also incur a 
proportional delay in executing the facilities and force posture 
restructuring necessary to achieve the distributed laydown plan, 
inducing further risk for Marine Corps forces in the Pacific. Extending 
the already protracted timeline for the distributed laydown increases 
risk for III MEF due to disruption of operational capabilities during 
the transition and relocation process.
    In addition, sequestration will likely affect Marine Corps 
participation in Theater Security Cooperation (TSC) events across the 
Pacific, to include Phase II of the Marine Rotational Force-Darwin 
(MRF-D), and the III MEF UDP. Phase II incorporates the growth in 
Australia from a company to battalion sized SPMAGTF. Initial fiscal 
year 2013/2014 costs related to site preparation for the larger unit, 
and the costs associated with moving the equipment, agricultural 
inspections, unit movement, as well as regional TSC strategic-lift 
expenses are at risk. III MEF UDP is the Marine Corps method to project 
Marine Corps forces forward in the PACOM AOR and may be affected by 
sequestration, if funding is unavailable for deployment.
    The significant impact to Marine Corps equity in the Pacific due to 
sequestration is the effect on strategic mobility. Intra-theater lift 
is a requirement due to the distances in the PACOM AOR. Marine Corps 
ability to participate in TSC events could be impacted if Navy ships 
are less available due to maintenance and other forms of intra-theater 
lift are too expensive. While the Joint High-Speed Vessel (JHSV) is not 
currently available, sustained sequestration may impact Marine Corps 
capacity to fund JHSV use when the asset becomes available.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt

             DEFENSE INDUSTRIAL BASE FOR TACTICAL AVIATION

    107. Senator Blunt. Admiral Greenert, last week you testified at a 
House Armed Services Committee (HASC) hearing expressing your concerns 
about the strength and capacity of the defense industrial base in its 
support of the Navy. However, you did not address the defense 
industrial base for tactical aviation. It has been demonstrated that 
having competition lowers cost and risk involved in production and 
operations. In the past, this committee has expressed concern with the 
Navy's tactical aviation shortfall, with its associated life cycle 
costs and the risk brought to the carrier aviation forces. During the 
past several years the Navy has reduced its shortfall figure, in part 
through managing its carrier fleet tactical inventory, service life 
extension programs (SLEP) of its legacy aircraft, and procuring new F/
A-18E/F Super Hornets. The fiscal year 2014 budget shows that the Navy 
has not addressed this committee's concerns about cost and risk. The 
budget shows the F/A-18 line will end domestic production after a final 
procurement of EA-18G Growler aircraft this year. However, the F-35C 
variant--the last of the three versions of the JSF aircraft--won't 
reach operational status until at least 2017 or beyond. One of the ways 
to mitigate against the risk in that program and the challenges 
associated with SLEP is to keep the F/A-18 line open for domestic 
production. As a way to mitigate risk in your tactical aviation 
inventory, can you discuss the importance of having the F/A-18 line 
available to support the tactical aviation needs of the Navy?
    Admiral Greenert. The current plan for F/A-18 procurement is for a 
total of 563 aircraft, with the final procurement in 2013 for delivery 
in 2015. However, the production line will remain open with the 
procurement of 21 E/A-18G in fiscal year 2014 with a delivery in 2016. 
The production line will shut down after this procurement, unless we 
receive international orders as a result of pending Foreign Military 
Sales (FMS) offers. We have one partner nation that recently agreed to 
buy 12 EA-18Gs for delivery in the 2017 timeframe, and are awaiting 
decisions on two dozen additional aircraft from other nations. These 
FMS procurements could extend the F/A-18 production line.
    We continue to evaluate options to meet our strike fighter 
requirements, to include possible procurement of additional Super 
Hornets. The F-35C is a necessary part of our future air wing to enable 
it to remain relevant against improving anti-access threats. The F-35C 
will bring C4ISR capabilities and stealth that will complement the 
capabilities of our F/A-18E/F Super Hornet and EA-18G Growler.

                             PRODUCTION GAP

    108. Senator Blunt. Admiral Greenert, during these challenging 
budget times and out heightened national security, are you concerned 
about a production gap when the Navy can't procure operational tactical 
aircraft for the carriers?
    Admiral Greenert. Currently, we have both the Boeing line of F/A-
18E/Fs and Lockheed Martin F-35C line producing tactical aircraft for 
our carriers.
    Based on the potential for a production gap, Navy is closely 
monitoring the production lines and continues to evaluate options to 
meet our strike fighter requirements, to include possible procurement 
of additional Super Hornets. The current plan for F/A-18E/F procurement 
is for a total of 563 aircraft, with the final procurement in 2013. 
However, the production line will remain open with the procurement of 
21 EA-18G in fiscal year 2014 for delivery in 2016. The production line 
will shut down after this procurement, with parts of the production 
line for the manufacture of long lead items starting to shut down in 
fiscal year 2014.
    The F-35C is a necessary part of our future air wing to enable it 
to remain relevant against improving anti-access threats. The F-35C 
will bring C4ISR capabilities and stealth that will complement the 
capabilities of our F/A-18E/F Super Hornet and EA-18G Growler.

    109. Senator Blunt. Admiral Greenert, you wrote in proceedings 
earlier this year that weapons payload and standoff ability will be 
vital to tactical naval aviation in the shift to the Pacific theater. 
Given this conclusion, the ability to carry different and diverse 
weapons payloads should be critical in current and future combat 
aircraft. Last week, the JSF program official testified before this 
committee that there remains risk in the program's technical and 
software development that could affect weapons payload. Specifically 
with respect to the F-35C Navy variant, when will the aircraft reach 
its Block III F full combat operational capability?
    Admiral Greenert. Navy F-35C IOC shall be declared when the first 
operational squadron is equipped with 10 aircraft, and Navy personnel 
are trained, manned, and equipped to conduct assigned missions. Based 
on the current F-35 JPO schedule, the F-35C will reach the IOC 
milestone between August 2018 (Objective) and February 2019 
(Threshold). Should capability delivery experience changes or delays, 
this estimate will be revised appropriately.

    110. Senator Blunt. Admiral Greenert, at that point, what weapons 
payload will it be able to carry in order to meet the goals you 
described?
    Admiral Greenert. Block 3F for the F-35C will include the following 
internal and external weapons capability:
    Internally there are four weapon stations, two Air-to-Air stations 
and two mixed usage Air-to-Air/Air-to-Ground stations. The Air-to-Air 
stations will be capable of carriage and employment of AIM-120 Advanced 
Medium Range Air-to-Air (AMRAAM) missiles. The mixed usage Air-to-Air/
Air-to-Ground stations are also capable of carriage and employment of 
AIM-120 AMRAAM, as well as GBU-32 and GBU-31 Joint Direct Attack 
Munition (JDAM), the Joint Standoff Weapon System (JSOW), and GBU-12 
laser guided bombs (LGB).
    Externally there are seven weapon stations capable of carriage and 
employment of up to four GBU-12 LGB, two AIM-9X Air-to-Air missiles, 
and one 25mm gun pod.

    111. Senator Blunt. Admiral Greenert, how does that Block III F 
weapons payload compare with the current weapons payload profile of the 
F/A-18E/F Block II Super Hornet?
    Admiral Greenert. F/A-18E/F achieved IOC in 2001 and has expanded 
its weapons portfolio as the program matured. Today a Block II Super 
Hornet can deliver a variety of air-to-surface weapons including global 
positioning system guided bombs such as the JDAM and JSOW, LGBs, and 
missiles such as the High Speed Anti-radiation Missile (HARM) and 
Standoff Land Attack Missile-Expanded Response (SLAM-ER). Super Hornet 
Air-to-Air missiles include the infra-red homing AIM-9X, the semi-
active AIM-7 Sparrow, and the active AIM-120B/C Advanced Medium-Range 
Air-to-Air Missile.
    F-35C with Block 3F software and weapons will be able to engage 
ground targets with the JSOW, JDAM, LGBs, and airborne threats with 
AIM-9X and AIM-120C. The Department of the Navy will continue to expand 
the arsenal of F-35C as the program evolves much like the Super Hornet 
added weapons to its portfolio.
    Both F-35C and F/A-18E/F will develop additional payload 
capabilities to pace threat development. These payloads will include 
networked, survivable, smart, precision munitions that will be 
delivered by carrier-launched Super Hornets and JSF, leveraging 
networked integrated fire control and advanced strike-fighter tactics.

                     SERVICE LIFE EXTENSION PROGRAM

    112. Senator Blunt. General Amos, this committee has been concerned 
with the strength of the the Navy's tactical aviation fleet. 
Specifically, we have questioned the inventory size and how the Navy 
planned to mitigate a strike fighter shortfall in the near- and long-
term. Last year, the Marine Corps emphasized a SLEP for 150 F/A-18A-D 
aircraft, which would help bridge to the F-35B. This year, briefings 
indicate a new inspection regime for aging legacy aircraft. However, 
you testified before the HASC that government depot-level inspections 
for tactical aviation are taking far longer than anticipated. You 
stated that your out-of-reporting aircraft is above 40 percent. I 
understand that inspections are estimated to be taking at least twice 
as long as anticipated. The Navy released a Request for Information to 
the industry on capabilities available to support these depot 
inspections, in part because there is a backlog of aircraft awaiting 
inspection. Can you discuss the new inspection and SLEP plan for legacy 
aircraft and has there been an analysis on the costs and schedule of 
this new process?
    General Amos. In order to meet our operational commitments through 
2030, the Navy plans to extend the life on 150 F/A-18A-D aircraft to 
10,000 flight hours by way of the SLEP. All other F/A-18A-D aircraft 
will complete a high flight hour (HFH) inspection at the depot prior to 
reaching the current service life limit of 8,000 hours. Once complete, 
the aircraft will be granted an extension authorization to 9,000 hours 
with recurring operational level inspections at 200-hour intervals. If 
completed without additional work requirements, such as regularly 
scheduled Planned Maintenance Interval (PMI) 1 or 2, Center Barrel 
Replacement (CBR), or other avionics modifications, then we only 
require a Stand Alone inspection. Thus far, Navy has completed 102 HFH 
inspections. In addition to the HFH inspection, each of these aircraft 
required engineering analysis and follow-on repairs or parts 
replacements in order to return it to an operational status.
    The HFH Stand Alone turn-around time is averaging approximately 1 
year. The average cost of this inspection is currently $447,186, due to 
the complexity and thoroughness of the inspection. Many of the aircraft 
inducted into the depot have required extensive repair and there has 
not been a case where an aircraft only required an inspection which has 
added to the challenges of attaining the 180-day turn-around goal. The 
main contributors are material and engineering dispositions, both of 
which are being closely monitored and standardized to improve 
throughput. As the nonrecurring engineering (NRE) process continues to 
develop Engineering Change Proposals (ECP) and associated kits, they 
will be incorporated into aircraft inducted. This will alleviate long 
lead material issues and reduce turnaround times at depot.
    There has been analysis on the costs and schedule of HFH 
inspections. 102 HFH inspections have been completed at the Fleet 
Readiness Centers since 2008 and every year the Naval Air Systems 
Command 4.2. Cost Team evaluates the cost and schedule based on updated 
information. The results are then compared to the existing FYDP and 
adjusted requirements are forwarded up through the budgeting process.

    113. Senator Blunt. General Amos, what percentage of your fleet is 
out-of-reporting?
    General Amos. The percentage of Marine Corps F/A-18A-D aircraft 
that are in out-of-reporting status is 45 percent. As of the latest 
Naval Air Systems Command Flight Hour and Inventory Report (May 2013), 
115 of 258 Marine Corps F/A-18A-D aircraft are out-of-reporting for 
various depot level maintenance events. This constitutes approximately 
45 percent (44.57 percent) of the Marine Corps F/A-18 fleet. There is 
an increasing trend in out-of-reporting over the past year: May 2012 
(88 of 245, 36 percent), September 2012 (102 of 249, 41 percent).

    114. Senator Blunt. General Amos, what is the average time an 
aircraft is out-of-reporting to undergo this inspection process?
    General Amos. The HFH Stand Alone inspection (not combined with any 
other recurring inspection) is averaging approximately 1 year to 
complete.

    115. Senator Blunt. General Amos, what is the cost of this new 
inspection and SLEP plan across the FYDP?
    General Amos. The average cost of the HFH Stand Alone inspection is 
currently $447,186 with turnaround times averaging 328 to 403 days 
depending on the depot site.
    Fiscal year 2013 HFH inspections and SLEP plan are fully funded. 
The FYDP costs are shown below.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    [Whereupon, at 10:57 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                          TUESDAY, MAY 7, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                      DEPARTMENT OF THE AIR FORCE

    The committee met, pursuant to notice, at 9:40 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Nelson, 
McCaskill, Udall, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Kaine, King, Inhofe, McCain, Sessions, Chambliss, Wicker, 
Ayotte, Fischer, and Lee.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; Creighton Greene, professional 
staff member; Gerald J. Leeling, general counsel; and John H. 
Quirk V, professional staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; Steven M. Barney, minority counsel; Allen M. 
Edwards, professional staff member; Thomas W. Goffus, 
professional staff member; Anthony J. Lazarski, professional 
staff member; and Natalie M. Nicolas, minority staff assistant.
    Staff assistants present: Jennifer R. Knowles and John 
Principato.
    Committee members' assistants present: Jason Rauch, 
assistant to Senator McCaskill; Casey Howard, assistant to 
Senator Udall; Patrick Day, assistant to Senator Shaheen; Jess 
Fassler and Brooke Jamison, assistants to Senator Gillibrand; 
Ethan Saxon, assistant to Senator Blumenthal; Marta McLellan 
Ross, assistant to Senator Donnelly; Nick Ikeda, assistant to 
Senator Hirono; Karen Courington, assistant to Senator Kaine; 
Steve Smith, assistant to Senator King; Jacob Heisten, 
assistant to Senator Inhofe; Paul C. Hutton IV, assistant to 
Senator McCain; T. Finch Fulton and Lenwood Landrum, assistants 
to Senator Sessions; Todd Harmer, assistant to Senator 
Chambliss; Joseph Lai, assistant to Senator Wicker; Brad 
Bowman, assistant to Senator Ayotte; Craig Abele, assistant to 
Senator Graham; Charles Prosch, assistant to Senator Blunt; and 
Peter Blair, assistant to Senator Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to discuss the plans and 
programs of the U.S. Air Force in our review of the fiscal year 
2014 annual budget and the Future Years Defense Program (FYDP).
    I want to welcome Secretary Donley and General Welsh to the 
committee this morning. This will be General Welsh's first 
posture hearing as Air Force Chief of Staff and it is likely to 
be Secretary Donley's final posture hearing, not certainly, but 
probably, as Secretary. We thank you both for your long careers 
of leadership and your service to the Department of Defense 
(DOD) and to our Nation. A special thanks as we also appreciate 
your flexibility on scheduling. This hearing has been scheduled 
and rescheduled a number of times because of complications from 
the late budget submission.
    We are presented this morning with dramatic evidence of the 
need for DOD to act swiftly and decisively to address the 
plague of sexual assaults in the military. A DOD report, 
scheduled to be issued later today, reportedly estimates that 
on the average there are more than 70 sexual assaults involving 
military personnel every day.
    Just this past weekend, Air Force Lieutenant Colonel Jeff 
Krusinski, the branch chief of the Air Force's Sexual Assault 
Prevention and Response Program, was arrested in Arlington 
County, VA, and charged with sexual battery. While under our 
legal system, everyone is innocent until proven guilty, this 
arrest speaks volumes about the status and effectiveness of 
DOD's efforts to address the plague of sexual assaults in the 
military. We will ask our witnesses to explain in their opening 
statements today what actions the Air Force has taken, plans to 
take to address this plague.
    The issue of possible changes in the Uniform Code of 
Military Justice (UCMJ) relative to the power of the convening 
authority will be addressed at our markup of the National 
Defense Authorization Act (NDAA) next month.
    Over the past 12 years, Air Force personnel and equipment 
have played a key role in support of our national security 
goals in Iraq, Afghanistan, and elsewhere around the world. 
Over this time period, we have relied heavily on Air Force 
strike aircraft to take on important ground targets, Air Force 
manned aircraft and unmanned aerial vehicles to provide 
intelligence, surveillance, and reconnaissance (ISR) support, 
and Air Force tankers to support coalition air operations. I 
hope that you two will extend on behalf of our committee our 
gratitude to the men and women of the Air Force and their 
families for the many sacrifices that they have made on our 
behalf.
    The Air Force faces a number of difficult challenges in 
fiscal year 2014 and the following years.
    First, the Air Force faces the ongoing challenge of 
ensuring that it will have the right size and mix of assets and 
capabilities to meet our strategic needs in a manner consistent 
with a tight budget environment. The Air Force budget this year 
calls for a pause in the major restructuring of Air Force 
structure proposed last year, pending the results of the 
National Commission on the Structure of the Air Force. We will 
look forward to receiving the Commission's report next spring.
    Second, the Air Force is expected to play a key role in 
implementing recent defense strategic guidance calling for a 
shift to refocus emphasis to the Asia-Pacific region. I hope 
our witnesses today will help us understand how this strategic 
shift is reflected in the Air Force budget and in the Service's 
future plans.
    Third, the Air Force faces a continuing challenge in 
managing its acquisition programs, including the Joint Strike 
Fighter (JSF), which now stands as the most expensive 
acquisition program in history. This challenge is exacerbated 
when rising costs and tight funding lead the Air Force to 
stretch out production lines, which delays modernization 
programs and further increases unit costs. The Weapon Systems 
Acquisition Reform Act of 2009 requires that DOD make 
significant changes to avoid the kind of costly delays and 
overruns that have hit our acquisition system in the past. 
While this legislation should help correct past problems, it 
will succeed only through concerted efforts within the 
executive branch to implement it.
    These problems are greatly exacerbated also by the 
implementation of sequestration in fiscal year 2013 and the 
specter of further sequestration in fiscal year 2014 and 
beyond. Sequestration, which is already required, is having an 
adverse impact on the Air Force. General Larry Spencer, the Air 
Force Vice Chief of Staff, testified last month that ``lost 
flight hours will cause unit stand-downs which will result in 
severe, rapid, and long-term unit combat readiness degradation. 
We have already ceased operations for one-third of our fighter 
and bomber force. Within 60 days of a stand-down, the affected 
units will be unable to meet emergent or operations plans 
requirements.''
    Last week, Senator Inhofe and I sent a letter to the 
Secretary of Defense in which we asked the Secretary to provide 
us with a package of reductions to the fiscal year 2014 budget 
that would meet the $52 billion savings requirement established 
by the Budget Control Act (BCA). Now, that requirement in the 
BCA will, hopefully, be met by Congress without a sequester. 
All three budgets on table--the President's budget, the House 
budget resolution, and the Senate budget resolution--would 
avoid a sequester, but none of those are likely to be adopted 
as proposed. As we explained in our letter to the Secretary, we 
believe that the identification of specific reductions should 
help prepare DOD for the possibility that we will be unable to 
avoid another round of sequestration. But at the same time, it 
should help Congress avoid sequestration because sequestration 
is so irrational and draconian, and if the public knows how 
unpalatable that outcome would be, it will hopefully help us 
avoid the outcome. We cannot afford as a Nation to let 
sequestration continue for another year.
    So we look forward to exploring these and other issues with 
our witnesses this morning.
    I now call upon Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses and the tribute you made to Secretary 
Donley. I believe this probably will be your last appearance as 
a witness. You are a very good friend to all of us up here and 
we appreciate your service. I am sure you will continue to 
contribute to our country and to the men and women in uniform.
    Today's hearing comes at not just a pivotal time, but at a 
tragic time for our Air Force, and declining defense budgets 
and ongoing effects of sequestration are having a significant 
impact on the capabilities and readiness of our airmen.
    I look to our witnesses to provide the committee with their 
candid assessment of what this new budget reality means to the 
Air Force and the risks that they are being forced to accept, 
as well as what is being done to manage those risks.
    General Welsh, you recently stated--and I am quoting, ``the 
need for modernization is pervasive across our Air Force.'' I 
could not agree with you more. I just wish that were the only 
problem that we are facing right now.
    America's combat air assets are worn out and spread too 
thin after 2 decades of modernization programs being deferred 
and canceled. The Air Force has to replace its aging aircraft 
inventory, field new tankers and fifth generation fighters, and 
build a new bomber and increase our long-range strike 
capability. We have to maintain our space-based capabilities, 
enhance our ability to operate in the cyber domain, and ensure 
that our airmen are trained and ready to execute combat 
operations across the spectrum of conflict.
    Sadly, these efforts are being undermined by a broken 
acquisition process. The way we develop and buy new weapons 
systems is an arcane and cumbersome process that continues to 
saddle the taxpayers with billions of dollars in cost overruns 
while delaying the delivery of much needed technology to our 
warfighters. Congress, DOD, and the defense industry have to 
come together to reform and streamline this process.
    The greatest near-term threat to the readiness and 
capabilities of our Air Force is sequestration, as the chairman 
stated. In order to meet the budget caps associated with 
sequestration, the Air Force is raiding its readiness and 
modernization accounts.
    We learned last month that flight hours have been cut by 
94,000. Seventeen combat squadrons, nearly a third of the 
Active Duty combat fleet, have been grounded. The Air Force 
estimates that it will take between 6 and 12 months at a 
minimum to return these squadrons to mission-ready status. This 
is unconscionable at a time when we are facing a global 
security environment that is as dangerous and complex as any 
time that I can remember.
    Finally, it is critical that we take care of the most 
important component of our Air Force. That is our airmen. We 
must ensure that they are properly trained for the full 
spectrum of operations, that they and their families receive 
the medical care that they are entitled to, and that their 
rights are protected.
    Your written statement details several actions the Air 
Force has taken to combat sexual assault. I agree that 
providing a safe, respectful, and productive work environment 
is the responsibility of every airmen at every level. But let 
me be clear: I am not satisfied with the progress to date. More 
must be done to eliminate this scourge and do everything 
possible. Sexual assault undermines morale, hurts readiness, 
and breaks the trust of those who have volunteered to serve our 
Nation.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Secretary Donley, we call on you, as Senator Inhofe said, 
as kind of an old friend of many of ours. I may be the only one 
on the committee--although I look around, there may be one 
other one--who was here when you were on the committee staff. 
You were a great staffer then and you have been a very fine 
Secretary of the Air Force. We welcome you and we call upon you 
now for your testimony.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Mr. Donley. Thank you, Mr. Chairman, Senator Inhofe, 
members of the committee. It is a pleasure to be here 
representing our Active Duty, Guard, Reserve, and civilian 
airmen.
    I am also honored to be here this morning with my teammate, 
our 20th Chief of Staff of the Air Force, General Mark Welsh, a 
great partner and a great Air Force leader.
    For fiscal year 2014, the Air Force requests $114.1 billion 
in our baseline budget. As with all budgets, our fiscal year 
2014 request represents a snapshot in time, our best analysis 
of Air Force needs, based on available information. Especially 
given the budget turmoil over the past year, this morning's 
discussion on the fiscal year 2014 budget needs to begin with 
where we stand this year in fiscal year 2013.
    First, I would like to highlight that throughout the 
current budget turmoil, our Air Force priorities remain aligned 
with the January 2012 Defense Strategic Guidance. This includes 
supporting combatant commanders in the current fight in 
Afghanistan, maintaining a strong and stable presence in the 
Pacific and Korea, supporting nuclear and regional deterrence, 
counter-terror, and other operations.
    There is demand for airpower, and your airmen are busy 
around the world. Today more than 35,000 airmen are deployed. 
More than 57,000 airmen are stationed overseas, and more than 
132,000 are providing support to combatant commanders every 
day.
    As the fiscal constraints get tighter, we must tighten our 
alignment with this new strategy and strengthen our commitment 
to joint interdependent solutions to the Nation's military 
challenges.
    You have heard many times that the implications of the 
sequestration reductions are dire. They are. That is why the 
President has put forward a balanced deficit reduction proposal 
that would allow Congress to repeal sequestration in fiscal 
year 2013 and beyond. While DOD is working full out to adapt to 
new fiscal realities, it was not possible, given the necessary 
timelines, to turn around a new fiscal year 2014 budget based 
upon new assumptions derived from the March 1 sequestration and 
from the final Defense Appropriation Act, also approved in 
March, nearly 6 months into the fiscal year.
    We need to stipulate upfront that the fiscal year 2014 
budget does not provide funding to recover from the damage done 
by even a partial year of fiscal year 2013 sequestration, much 
less the full impacts that would hit the Air Force if the 
President's budget proposal to replace sequestration for fiscal 
year 2013 and beyond is not enacted.
    This morning I will summarize the state of our Air Force in 
three broad areas: force structure, that is, the size and 
composition of the Air Force; readiness, the training and 
preparedness of our airmen and their equipment; and third, 
modernization, the replacement of aging aircraft and 
infrastructure and our investment in future capabilities.
    Last year, in our efforts to meet the requirements of the 
first half of the BCA, which included reductions of $487 
billion over 10 years, the Air Force's fiscal year 2013 budget 
proposed a number of force structure changes, including 
aircraft transfers, retirements, and changes in unit missions, 
that were the subject of much controversy in our Reserve 
components, with the State Adjutants General, and congressional 
delegations. Thanks to the work of this committee and others, 
we were able to fashion a compromise which you approved in the 
NDAA.
    This year, I can report that the fiscal year 2014 budget 
proposes no major changes in force structure. As compared to 
the levels enacted in the NDAA for Fiscal Year 2013, the fiscal 
year 2014 proposal would reduce our Active Duty end strength by 
1,860 airmen, reduce Air Force Reserve end strength by 480, and 
reduce Air National Guard end strength by 300. We retain C-130 
and Global Hawk Block 30 force structure as directed through 
the end of fiscal year 2014. Our nuclear forces remain at 
current levels, pending future decisions on implementation of 
the New START agreement, and we are on track to achieve 65 
medium-altitude combat air patrols with our remotely piloted 
aircraft (RPA) fleet. We will focus in fiscal year 2014 on 
implementing the retirements, transfers, and mission changes 
outlined in the NDAA for Fiscal Year 2013. We have provided two 
reports to Congress outlining implementation plans for each 
affected unit and location.
    Looking ahead, it has never been more important for the Air 
Force to maximize the strength of the total force. Our Active, 
Reserve, and Guard components are increasingly integrated, 
training, deploying, and conducting the full range of missions 
together as a total force. We must continue to ensure that our 
Active and Reserve component mix correctly balances the 
strengths of each component and meets our strategic 
requirements and fiscal demands.
    We have made progress over the last year in our 
intergovernmental relationships, working with DOD and the 
Council of Governors to formalize the consultative process 
between DOD and the States to provide more transparency in 
planning and programming. Within the Air Force, working with 
our Guard and Reserve leaders, General Welsh and I have 
established a Total Force Task Force to provide strategic 
options on the appropriate mix of total force capabilities and 
to inform our strategic planning for fiscal year 2015 and 
beyond. This task force will also serve as a resource to the 
congressionally-directed National Commission on the Structure 
of the Air Force, which held its first meeting on April 30.
    In summary, our proposed force structure is relatively 
stable for now, but beyond fiscal year 2014, it is dependent on 
decisions yet to be made and especially on achieving a balanced 
approach to deficit reduction to avoid further sequestration.
    Turning to readiness, while the Air Force has met the 
demands of a high operational tempo in support of today's 
fight, this has taken a toll on our weapon systems and our 
people. Unit readiness declined significantly from 2003 onward, 
and despite significant investments in the past few years, only 
half of our combat air forces have met acceptable readiness 
standards.
    With the rebalance to the Asia-Pacific and our continued 
presence in the Middle East and Africa, we expect the demand 
for Air Force capabilities will remain constant and perhaps 
even rise over the next decade. We must improve readiness to 
prevent a hollow force.
    With respect to fiscal year 2013, the Joint Chiefs of Staff 
and Air Force leaders have already recounted the readiness 
impacts we anticipated this year as a result of sequestration. 
Passage of the final fiscal year 2013 Continuing Resolution 
(CR), which included defense appropriations, was helpful to DOD 
overall but did not improve the active Air Force's operation 
and maintenance (O&M) budget. It left shortages in the Overseas 
Contingency Operations (OCO) accounts and did not mitigate the 
impacts of sequestration which required approximately $10 
billion in reductions to be taken in the last 7 months of 
fiscal year 2013.
    Anticipating this challenge, at the beginning of January, 
we took steps to cut back normal operations, including a 
civilian hiring freeze for permanent, temporary, and term 
vacancies, canceling non-mission critical official travel and 
conferences, reducing major command and combatant command O&M 
budgets by about 10 percent, and deferring non-emergency 
facilities sustainment, restoration, and modernization 
projects. However, these steps alone are not sufficient to 
absorb the full impacts of sequestration without affecting 
readiness.
    Collectively, these sequestration reductions and readiness 
impacts are now being felt across the Air Force. Currently, 
nine combat-coded fighter units and three combat-coded bomber 
units are stood down and have ceased flying operations. Seven 
combat-coded units are flying at basic mission capable levels 
and will only return to combat mission ready status if funding 
becomes available. Flying hour reductions will halt training 
for the rest of the year in many units and will take up to 6 
months to restore pilot proficiency.
    Other impacts include reductions in weapon systems 
sustainment that will delay necessary maintenance, increase 
costs, and take perhaps 2 to 3 years to recover from repair 
backlogs. The potential furlough of our valued civilian 
workforce is significantly reducing civilian pay and 
devastating morale and slowing productivity.
    Our main objective in the fiscal year 2014 budget mirrors 
our objective for 3 years running: to slow and reverse the 
erosion of Air Force readiness. To that end, the fiscal year 
2014 budget request is aimed at setting the Air Force back on 
the course toward full spectrum readiness. The fiscal year 2014 
request prioritizes funding for 1.2 million flying hours, an 
increase of 40,000 hours over fiscal year 2013 to ensure pilot 
proficiency and continue new pilot production. It funds 
training ranges to enhance flying training effectiveness and to 
restore deteriorating infrastructure. It also adds $1.5 billion 
across the FYDP to weapon systems sustainment to keep our 
aircraft and space systems ready.
    Unfortunately, fiscal year 2013 sequestration now 
jeopardizes the gains we had hoped to achieve next year. Even 
assuming this budget is approved as proposed, and even if 
Congress acted sometime this summer to repeal and replace 
sequestration for fiscal year 2013, we would almost certainly 
begin fiscal year 2014 carrying forward a significantly 
degraded readiness posture from this year.
    The Air Force is working with the Office of the Secretary 
of Defense (OSD) on a fiscal year 2013 reprogramming request to 
cover OCO shortfalls and to address some of the worst effects 
of sequestration. However, the budgetary transfer authority 
available to DOD is not sufficient to address all our known 
shortfalls. Even if such transfer authority were available, we 
do not have sufficient internal resources to pay for these 
shortfalls without digging far too deeply into modernization 
programs, and there may not be sufficient time left in fiscal 
year 2013 to repair the damage now immediately ahead.
    To sum up the readiness situation, we have been consuming 
Air Force readiness for several years and will continue to 
focus resources available to meet combatant commander 
requirements. But with the steep and late fiscal year 2013 
budget reductions brought on by sequestration, the readiness 
hole that we have been trying to climb out of just got deeper. 
The full readiness and budgetary implications of this situation 
could not be accounted for in the fiscal year 2014 Air Force 
budget request and they are still under review. We will 
continue to work with our DOD leadership and Congress to 
fashion a practical way forward.
    With respect to modernization, as I have previously 
testified, this challenge facing the Air Force is pervasive and 
will, if it is unaddressed, seriously undermine our ability to 
accomplish the missions the Nation asks us to undertake. The 
average age of our fighter aircraft is now 23 years; rescue 
helicopters, 22 years; training aircraft, 25; bombers, 36 
years; and tankers, nearly 50 years. Satellites for missile 
warning, navigation, secure communications, and other needs are 
also aging, and replacements must be built and launched on a 
schedule consistent with the life expectancy of current 
constellations.
    Our most significant Air Force priorities remain on track 
in fiscal year 2014: the fifth generation F-35, JSF; the KC-46 
tanker; the long-range strike bomber (LRS-B). The continued 
modernization of existing fleets like the B-2, the F-22, the F-
15, the F-16, and the C-17 to keep them operationally effective 
and to extend their service lives is also key.
    We request funding for preferred munitions, as well as 
critical space satellite assets such as the global positioning 
system (GPS); and the Advanced Extremely High Frequency (AEHF) 
satellite; and the Space-Based Infrared System (SBIRS). We 
intend to maintain science and technology funding in order to 
stay on the cutting edge of technological innovation and 
sustain our airpower advantage.
    While we often face challenges with major acquisition 
programs, we have recently achieved some notable success using 
block buys and efficient procurement strategies to drive down 
the costs of our three largest space programs--the Evolved 
Expendable Launch Vehicle, AEHF, and SBIRS--by over $2.5 
billion. The fiscal year 2014 request includes the first year 
of a multiyear procurement for the C-130J, which is expected to 
save over $500 million over the next 5 years. We will need more 
successes like these in the future because there is still 
significant pressure on our modernization programs.
    Last year, in programming the Air Force share of $487 
billion in defense reductions over 10 years, the cancelation or 
delay of modernization programs accounted for 65 percent of 
total Air Force reductions across the FYDP. This year, each 
program was reduced by more than 7 percent in sequestration. In 
the immediate years ahead, major programs such as the F-35, the 
KC-46, and the bomber are scheduled to grow as the overall DOD 
budget declines, and some longstanding needs such as a new 
trainer and a replacement for the E-8 Joint Surveillance Target 
Attack Radar System (JSTARS) are unfunded.
    Looking ahead, if there continues to be resistance to force 
structure changes, to base closures, and constraining growth 
and compensation, and given our current focus on improving 
readiness, it is very likely that out-year budget reductions 
through the BCA will require further disproportionate cuts to 
our modernization programs. As advanced technologies continue 
to proliferate around the globe, these cutbacks in 
modernization would put at risk the Air Force capabilities this 
Nation will need in the next decade.
    The decisions ahead of us are extraordinarily difficult, 
but Congress has the power to help the Air Force and DOD 
maneuver through these unparalleled budget challenges. In 
recent years, Congress has placed limits on the Air Force's 
efforts to take tough but urgently needed actions to balance 
our readiness, modernization, and force structure and rejected 
some of DOD's proposals to help slow the growth in military 
compensation. As our DOD leaders have testified, these 
congressional actions, if sustained, will add billions to our 
costs over the next 5 years. We hope that in the view of the 
serious economic problems facing our Nation that Congress will 
allow us to implement these and other important changes.
    It is now all the more critical that we get your support on 
reductions in base infrastructure. The Air Force executed Base 
Realignment and Closure (BRAC) 2005 on time and under budget, 
and those adjustments are today generating savings estimated at 
$1 billion per year. We are looking at European basing 
requirements with our DOD partners, and we are ready to begin 
next steps in the continental United States (CONUS). We 
estimate that more than 20 percent of our basing infrastructure 
is excess to need. BRAC authority is a tool that we urgently 
need to allow DOD to divest excess infrastructure and refocus 
resources to meet other critical needs, including readiness, 
modernization, and taking care of our people.
    In the area of military compensation, we are committed, as 
you are, to taking care of our airmen, but the impact of 
increasing personnel costs continues to be a serious concern 
and can no longer be ignored. Therefore, we support DOD's 
efforts to slow the growth of personnel costs. We support the 
modest 1 percent pay raise and the TRICARE fee and pharmacy co-
pay changes included in the President's fiscal year 2014 
budget.
    While these are some of the broad outlines of our fiscal 
year 2004 budget request, there is clearly more work to do as 
we assess the rolling implications of sequestration in fiscal 
year 2013 and beyond. We will need your help to make necessary 
adjustments in our force structure, to keep us ready and to 
avoid a hollow force, and to equip this Air Force with the 
modern capabilities it needs for the future.
    But perhaps one of the most helpful things Congress can do 
is to return to regular order and to approve the annual defense 
authorization and appropriations measures in a timely way. 
Throughout our history, this Nation has effectively dealt with 
strategic challenges and fiscal constraints, but our recent 
track record of repeated delay and uncertainty, CRs that 
disrupt programs and budget planning, and mid-year cuts that 
impair readiness and threaten civilian furloughs must not 
become the new normal. We sincerely appreciate the ongoing 
commitment of this committee and its professional staff to 
return to regular order.
    Today's world is a dangerous place and it is 
counterproductive to generate problems of our own making when 
so many other serious threats beyond our control demand 
attention. Together we must do better for our men and women in 
uniform and their families, our civilian workforce, and our 
national security.
    Mr. Chairman, the American people have the world's best 
airmen and the world's finest Air Force. Your Air Force 
leadership team remains committed to getting the most 
capability possible from whatever level of resources you 
provide. We remain grateful for the support this committee 
unfailingly provides to the Air Force and to the men and women 
of our Armed Forces. The Air Force stands ready to assist in 
any way we can, and we look forward to discussing our proposed 
budget.
    Thank you.
    Chairman Levin. Thank you so much, Secretary Donley, for a 
very clear and a very forceful statement.
    General Welsh.

 STATEMENT OF GEN. MARK A. WELSH III, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Welsh. Thank you, Mr. Chairman, Ranking Member 
Inhofe, and members of the committee. It is always really a 
privilege to appear before you.
    It is a special privilege for me today because I get to sit 
next to Secretary Donley on what is likely his last visit to 
this committee. For the last 5 years, he has led our Air Force 
with dignity and treating every airman with respect, and we 
have been absolutely privileged to follow him. I would just 
like to take this opportunity, Mr. Chairman, with your 
forbearance to thank him publicly. Boss, thank you for being a 
remarkable leader for our Air Force.
    Ladies and gentlemen, despite the budgetary turbulence in 
what I hope will be an atypical year, I believe that we will 
see a continuing demand for American airpower in the future. 
Because of that, while our fiscal year 2014 budget request does 
not fully account for the necessary recovery actions from 
sequestration, what it does do is prioritize our effort to 
reverse our declining readiness trend, recognizing that low 
states of readiness negate many of the strategic advantages of 
that airpower.
    Flying hours are allocated to maintain and in some cases to 
incrementally improve readiness across the total force. In the 
past, we relied on OCO funding to partially fund those flying 
hour programs, and that cannot continue. So we will continue to 
reduce our reliance on OCO funding for our flying hour program 
through 2015, at which point we should meet as much as 90 
percent of our peacetime flying requirement within our base 
budget, a level we have not reached in quite some time.
    We have also restored emphasis on our training ranges and 
are funding about 75 percent in the 2014 budget request, up 
from a low of about 25 percent only a couple of years ago.
    As a side note, we also hope to realize cost savings from 
the findings of our Total Force Task Force. This group was 
formed to examine the operational impacts and cost factors 
associated with various approaches to Total Force integration. 
By identifying and implementing the optimum mix of our Active, 
Reserve, and Guard components, we should be able to maximize 
operational effectiveness, better provide stability over time 
to our Reserve component missions and organizations, and better 
support the States as well as provide for the national defense. 
You can expect to see the results of this work presented in our 
fiscal year 2015 budget submission.
    Our fiscal year 2014 budget request also strives to protect 
the modernization that will make our Air Force viable in the 
future. The KC-46, the F-35, and the LRS-B remain our top three 
investment priorities. We need the F-35. It remains the best 
platform available to address the proliferation of highly 
capable, integrated air defenses and new air-to-air threats. 
The LRS-B will give our Nation a flexible, credible capability 
to strike globally with precision on limited notice should the 
national interest require. The KC-46 is our highest 
modernization priority and will ultimately replace a third of 
our current tanker fleet. That tanker fleet is what puts the 
``global'' in global vigilance, global reach, and global power. 
It provides strategic options for the Nation and we must 
modernize it.
    Four of the Air Force's 10 largest modernization programs 
are space-based platforms. We plan to extend our streak of 58 
consecutive successful launches and expand and modernize our 
constellations like the GPS, the defense meteorological 
satellite program, and others upon which our Nation and many of 
our allies and partners depend.
    We will also continue to invest in our most important 
resources, our airmen. We will provide the training, education, 
and professional development opportunities they need to be the 
best in the world at what they do. That is all they ask of us.
    On a decidedly negative note, both Secretary Donley and I 
were appalled at the deeply troubling sexual battery 
allegations against the chief of our Sexual Assault Prevention 
and Response Branch on the air staff just this weekend. As we 
have both said over and over and over again, sexual assault 
prevention and response efforts are critically important to us. 
It is unacceptable that this occurs anywhere at any time in our 
Air Force and we will not quit working this problem.
    So you know, this case is being adjudicated by the 
Arlington County prosecutor. We have requested jurisdiction, 
which is standard practice in cases like these. The individual 
will be arraigned this Thursday on a single count of sexual 
battery, and the sexual assault prosecutor in Arlington County 
will make the decision on jurisdiction and we will go from 
there. That is as much as I know about this case.
    We remain committed to supporting victims of this crime 
and, consistent with the requirements of due process, to 
holding those who commit this crime accountable for their 
actions. We will continue to foster work environments that are 
safe and respectful. We will develop leaders of character who 
demonstrate operational effectiveness, innovation, and the 
selfless caring approach required to lead America's sons and 
daughters. We will continue to do everything in our power to 
care for airmen and their families, while balancing the 
resources required to do that, with the understanding that our 
primary job is to fight and win the Nation's wars.
    My job is to help Secretary Donley field the most capable, 
credible Air Force possible. I believe our fiscal year 2014 
budget request moves us in that direction. It postures the Air 
Force to improve readiness, to limit force structure costs, and 
to protect vital modernization. Secretary Donley and I stand 
ready to answer your questions about it.
    Thank you, Mr. Chairman.
    [The prepared joint statement of Mr. Donley and General 
Welsh follows:]

        Prepared Joint Statement by Hon. Michael B. Donley and 
                      Gen. Mark A. Welsh III, USAF

                              INTRODUCTION

    Today's airmen play a pivotal role in the constant pursuit of 
better ways to defend the Nation. Since the airplane was employed over 
the battlefields of World War I, airmen have stood for and pioneered 
new and innovative ways to shape the fight and reinvent the battle 
itself. While pre-Kitty Hawk warriors relied on breaking through 
fortified lines on the ground, airmen have always sought to go over, 
not through, those fortifications to achieve victory. This spirit of 
innovation, seeing problems from an alternative, multi-dimensional 
perspective, is in our Service history, in our culture, and in every 
airmen--Active, Guard, Reserve, and civilian--regardless of his or her 
specialty or role. We call this perspective ``airmindedness.'' Airmen 
characteristically view security challenges differently--globally, 
without boundaries.
    As a direct result of our status as the world's preeminent 
aerospace nation, airpower--the ability to project military power or 
influence through the control and exploitation of air, space, and 
cyberspace to achieve strategic, operational, or tactical objectives--
allows America to control the ultimate high ground that is essential to 
winning our Nation's wars. The air arms of the Army, Navy, and Marine 
Corps are supremely capable at what they do--facilitating their parent 
Service's respective mastery of operations on the ground, at sea, and 
in a littoral environment. However, America has only one Air Force 
specifically designed and precisely employed to exploit the singular 
global advantages of military operations in air, space, and cyberspace. 
Airmen provide global vigilance, global reach, and global power for 
America through the enduring Air Force core missions of air and space 
superiority, intelligence, surveillance, and reconnaissance (ISR), 
rapid global mobility, global strike, and command and control. By 
integrating capabilities across these core missions, we bring a unique 
set of options to deter war, deliver rapid, life-saving responses to 
threatened areas anywhere on the planet, and strike hard and precisely 
wherever and whenever the national interest demands.
    Recruiting and developing high-quality, innovative airmen who 
leverage technology to rethink military operations to achieve strategic 
objectives will remain a fundamental tenet of the U.S. Air Force. Only 
through the efforts of airmen who have led the way in integrating 
military capabilities across air, space, and cyberspace--even as their 
numbers have become significantly smaller--has our Nation maintained 
its airpower advantage. In an uncertain world, the Nation will depend 
even more on ready airmen to deliver global reach, global vigilance, 
and global power.

                         STRATEGIC ENVIRONMENT

    In January 2012, the Secretary of Defense issued new defense 
strategic guidance (DSG)--Sustaining U.S. Global Leadership: Priorities 
for 21st Century Defense--which serves as a foundational document in 
establishing national security interests, the threats to these 
interests, and the fiscal realities that guide our military posture. 
The DSG directed a rebalance of forces, with a renewed focus on the 
Asia-Pacific region, as well as continued emphasis on the Middle East. 
Using the DSG as a point of departure, the Secretary of Defense 
recently directed a strategic choices and management review in light of 
budget realities--such as sequestration--and strategic uncertainty. 
This review will continue to help the Air Force to identify the major 
strategic choices that we must make to properly and realistically plan 
for the future.
    Although the future is uncertain, we know that the capability to 
sustain national priorities hinges upon a strong and capable Air Force. 
Over the last 12 years, the wars in Iraq and Afghanistan required Air 
Force capabilities to help force rogue regimes from power and then to 
provide critical support to land forces engaged in counterinsurgency 
and counterterrorism operations, and the Air Force currently plans to 
maintain these capabilities. In addition, the expected military 
challenges of the Asia-Pacific region, the Middle East, and Africa 
suggest an increasing reliance on airpower, not only by America and her 
allies, but also by her adversaries. The defining characteristics of 
American airpower--range, speed, flexibility, precision, persistence, 
and lethality--have played a crucial role in cultivating stability in 
these regions, a trend that will only increase in the future. The sheer 
geographic size and extended lines of communication of the Asia-Pacific 
region, along with the developing military expansion of potential 
regional adversaries, demand an air force that is postured to ensure 
stability and preserve U.S. interests. The Air Force is committed, 
along with our joint partners and allies and through cooperative 
military relationships, to ensuring global and regional stability and 
mutual freedom of access to the global commons to secure our common 
interests around the world.
    The Air Force's technological advantage is threatened by the 
worldwide proliferation of advanced technologies, including integrated 
air defenses, long-range ballistic and cruise missiles with precision-
capable warheads, and advanced air combat capabilities. Advances in 
adversarial capabilities in space control and cyber warfare may also 
limit U.S. freedom of action. Some of these technologies are attained 
with relatively minimal cost, greatly reducing the barriers to entry 
that have historically limited the reach and power of non-state actors, 
organized militias, and radical extremists. We live in an age of 
surprise, where individual acts can be powerful and the effects can be 
global. Today's strategic environment presents a broad range of threats 
and an unpredictable set of challenges, ranging from non-state actors 
to nuclear armed nations. We must continue to invest in our science and 
technology base to ensure that the future balance of power remains in 
our favor. This requires flexibility, versatility, and a shift to 
inherently agile, deployable, and networked systems from those designed 
for fixed purposes or limited missions.
    One initiative that we continue to pursue as we consider the 
strategic environment is the Air-Sea Battle concept. Air-Sea Battle is 
an operational concept focused on the ways and means that are necessary 
to overcome current and anticipated anti-access and area denial 
threats. By focusing on increased integration and interoperability 
between all Services, the concept ensures that joint forces maintain 
the ability to project power and protect national interests despite the 
proliferation of anti-access/area denial threats worldwide. The concept 
is not a strategy, nor does it target a specific adversary, but instead 
focuses on acquiring pre-integrated, joint capabilities. Beyond 
conflict, the Air-Sea Battle concept can enhance response to 
humanitarian missions where weather or geography may deny access.
    Even as we rebalance our forces, we are aware that the time, place, 
and nature of the next contingency can never be predicted with 
certainty. When contingencies arise, we must maintain the ability to 
respond immediately and effectively if called to action. To align with 
the DSG, the Air Force has traded size for quality. We aim to be a 
smaller, but superb, force that maintains the agility, flexibility, and 
readiness to engage a full range of contingencies and threats.

                           FISCAL ENVIRONMENT

    We recognize that because our Nation is striving to reduce spending 
and our military is transitioning operations from the U.S. Central 
Command area of responsibility and rebalancing to the Asia-Pacific 
region, the Air Force must adapt to a relatively static or reduced 
budget. However, reliance by the joint team and the Nation on our 
unique ability to provide global vigilance, global reach, and global 
power constrains Air Force options in reducing or terminating 
capabilities or missions. Therefore, we are working hard and making 
real progress in eliminating unnecessary expenses and ensuring more 
disciplined use of resources. Nonetheless, the fiscal environment 
requires us to make trades between force structure, readiness, and 
modernization among the core missions to ensure the highest quality and 
ready Air Force possible.

Fiscal Year 2013 Sequestration Effects
    As a result of the triggering of the 2011 Budget Control Act's 
sequestration provision, the Air Force is implementing significant 
reductions to our fiscal year 2013 operations. If the post-sequester 
Budget Control Act funding caps remain in effect, the Air Force will be 
unable to achieve our agenda of reinvigorating readiness and aligning 
to the DSG. In both the short- and long-term, sequestration will have 
devastating impacts to readiness, will significantly affect our 
modernization programs, and may cause further force structure 
reductions.
    Sequestration will force the Air Force to reduce expenditures by 
around $10 billion in fiscal year 2013. These actions include a planned 
furlough of more than 170,000 civil service employees, an 18 percent 
reduction in flying training and aircraft maintenance, and deferment of 
critical facility requirements (including runway and taxiway repairs).
    Many of these actions severely degrade Air Force readiness. Lost 
flight hours will cause unit stand downs which will result in severe, 
rapid, and long-term unit combat readiness degradation. We have already 
ceased operations for one-third of our fighter and bomber force. Within 
60 days of a stand down, the affected units will be unable to meet 
emergent or operations plans requirements. Lost currency training 
requires 6 months to a year to return to current suboptimal levels, 
with desired flying proficiency for crewmembers requiring even longer. 
Sequestration impacts are already occurring, and the fiscal year 2014 
President's budget (PB) does not assume the costs of recovering the 
readiness impacts from even a partial year of sequestration.
    Depot delays will also result in the grounding of some affected 
aircraft. The deferments mean idled production shops, a degradation of 
workforce proficiency and productivity, and corresponding future 
volatility and operational costs. It can take 2 to 3 years to recover 
full restoration of depot workforce productivity and proficiency. In 
our space portfolio, sequestration will force the elimination of some 
system redundancies, as well as other preventative maintenance actions 
designed to minimize risk. All of these sequestration impacts 
negatively affect Air Force full-spectrum readiness at a time when we 
have been striving to reverse a declining trend in this critical area.
    As a result of the Consolidated and Further Continuing 
Appropriations Act, 2013, the Air Force has been able to make limited 
funding transfers and reprogramming actions that will help alleviate 
the most problematic and immediate fiscal year 2013 funding shortfalls. 
However, the decisions that we have been forced to make in short-term 
spending may increase total costs over the long run. For example, 
sequestration cuts to Air Force modernization will impact every one of 
our investment programs. These program disruptions will, over time, 
cost more taxpayer dollars to rectify contract restructures and program 
inefficiencies, raise unit costs, and delay delivery of validated 
capabilities to warfighters in the field. The drastic reduction to 
modernization programs reduces our Air Force's competitive advantage 
and decreases the probability of mission success in the Asia-Pacific 
region.

Sequestration Effects in Fiscal Year 2014 and Beyond
    The President's budget includes balanced deficit reduction 
proposals that would allow Congress to replace and repeal sequestration 
in fiscal year 2013 and the associated cap reductions in fiscal year 
2014-2021. If sequestration is not replaced, however, the Air Force 
will have to rebuild degraded unit readiness, accept further delays to 
modernization, absorb the backlog in depot maintenance inductions, and 
invest additional funding to restore infrastructure. While the Air 
Force has made every effort to minimize impacts to readiness and 
people, the bow-wave of reductions, deferments, and cancellations 
associated with sequestration will challenge the strategic choices made 
in the fiscal year 2014 budget submission.
    The exact impacts of sequestration on Air Force resources in fiscal 
year 2014 and beyond depend on congressional action. We do know, 
however, that the national fiscal situation will require some 
reductions that may increase risk to our readiness, force structure, 
and our ability to modernize an aging aircraft inventory. In addition, 
the outcome of the strategic choices and management review may drive 
further changes.
    As we navigate the uncertain way ahead, in order to mitigate risk 
in critical areas like readiness, force structure, and modernization, 
and to avoid a hollow force, we will continue to work with Congress to 
develop force shaping options, urgently seek another base realignment 
and closure (BRAC) round, and ask for relief from legislative 
restrictions on the reduction of excess force structure and from 
mandatory expenditures on programs that we have proposed to retire or 
terminate. To slow the growth in military compensation while also fully 
supporting the All-Volunteer Force, we also request congressional 
support on limiting the basic military pay raise to 1 percent and 
allowing sensible TRICARE fee and pharmacy co-pay changes.
    In spite of these fiscal challenges, the Air Force will continue to 
strive to balance reductions across the force to maintain the 
capabilities of the remaining forces and keep the Air Force strong.

                        AIR FORCE CORE MISSIONS

    The Air Force will only remain a superb fighting force in fiscal 
year 2014 and beyond by investing in the capabilities that enable us to 
bring our five core missions to the joint team. President Truman 
assigned several roles and missions to the Air Force at its 
establishment in 1947. Today, the Air Force brings essentially the same 
interdependent, integrated, and enduring contributions to the joint 
fight:

        <bullet> Air and space superiority;
        <bullet> Intelligence, surveillance, and reconnaissance;
        <bullet> Rapid global mobility;
        <bullet> Global strike; and
        <bullet> Command and control.

    Through these core missions, our airmen provide global vigilance, 
global reach, and global power for America. While the means through 
which we provide these core missions will change and evolve--for 
example, the addition of space and cyberspace--the core missions 
themselves will endure. None of these core missions function 
independently. Their interdependency and synchronization provide an 
unparalleled array of options, giving America the ability to respond 
quickly in the face of unexpected challenges.
    The five core missions shape where we invest the resources we are 
given. However, the significant reductions that the Air Force has faced 
in the last few years have required us to make difficult choices. We 
have become a markedly smaller Service--the smallest in Air Force 
history.
    Despite this decline in size, our airmen have stepped up to the 
challenge and delivered incredible airpower for the Nation, 24 hours a 
day, 7 days a week, 365 days a year. They always respond when needed--
from combat rescue airmen who exfiltrate the wounded from battlefields, 
to joint terminal attack controllers who direct the actions of combat 
aircraft engaged in close air support, to mobility airmen who quickly 
airlift personnel, vehicles, and equipment in both combat and relief 
operations, to the missile combat crews who sit nuclear alert to deter 
our enemies. These brave and innovative men and women must be properly 
trained and equipped to defend the Nation. Experience has taught us 
that during periods of fiscal austerity, tough decisions are necessary 
to avoid a hollow force--one that looks good on paper, but has more 
units, equipment, and installations than it can support, lacks the 
resources to adequately man, train, and maintain them, and are not 
provided with enough capable equipment and weapons to perform their 
missions.
    In each core mission described below, we highlight what each core 
mission means, why it is important, our airmen's recent accomplishments 
in that area, and what we are focusing on for the future with respect 
to force structure and modernization.
Air and Space Superiority . . . Freedom From Attack, Freedom to Attack
    Air Superiority
    Air superiority is foundational to the application of joint 
military power, and it ensures that the advantages of the other Air 
Force core missions, as well as the contributions of our sister 
Services, are broadly available to combatant commanders. It includes 
the ability to control the air so that our military forces do not have 
to worry about being attacked from the air, and it ensures that joint 
forces have the freedom to attack in the air, on the ground, and at 
sea. Air superiority has been and remains an essential precondition for 
conducting successful military operations. Air superiority has provided 
our Nation with a decades-long asymmetric advantage. Joint force and 
coalition commanders have come to expect mission-essential air 
superiority provided by America's airmen. The Air Force has given them 
ample reason--not since April 15, 1953, has an enemy combat aircraft 
killed a servicemember in the American ground forces.
    In the six major U.S. combat operations of the last two decades, 
the Air Force's ability to provide air superiority has played an 
indispensable role in determining the outcome of each conflict. 
Recently, in Operations Odyssey Dawn and Unified Protector, our airmen 
patrolled the skies of Libya providing 50 percent of allied airborne 
reconnaissance and 40 percent of allied strike missions, equating to 
over 1,800 total strikes in support of the United Nations-sanctioned 
no-fly zone. In addition, the Air Force provides nearly 100 percent of 
the Nation's homeland air defense.
    Although air superiority underwrites the freedom of action required 
for all joint military operations, there is no guarantee of it in the 
future. Substantial near peer investment and proliferation of advanced 
technologies threatens this freedom of action. Our legacy, or fourth-
generation, fighter fleet has secured more than 20 years of an air 
superiority advantage, but may lose its ability operate as effectively 
in contested environments. Large-scale use of legacy aircraft in these 
environments could be inhibited by the increased survivability of 
highly lethal, advanced integrated air defenses that will likely 
persist for the duration of future conflicts. Our air superiority 
future depends on modern technology and fifth-generation fighter 
capability. Weapon systems like the F-22, with contributions from the 
F-35, are what will carry America's Air Force forward to continue to 
provide that capability. Fifth-generation aircraft possess the 
survivability to operate despite these threats, and the Nation will 
need them in quantity.
    In fiscal year 2014, the Air Force will focus on maintaining air 
superiority by investing $1.3 billion to modernize the F-22 and F-15 
fleets. The last F-22A was delivered in May 2012. The current F-22 
upgrade programs include hardware and software enhancements to improve 
electronic protection, weapons capabilities, and service life. The F-15 
is undergoing full scale fatigue testing to determine remaining service 
lifespan. In fiscal year 2014, the Air Force is requesting $308 million 
for F-15 fleet radar and electronic warfare upgrades that will permit 
it to operate in conjunction with fifth-generation aircraft in the 
future threat environment.
    Space Superiority
    Along with air superiority, space superiority is integral to our 
forces' ability to remain free from attack and have the freedom to 
attack in the air, on land, and at sea. Joint, interagency, and 
coalition forces depend on Air Force space operations to perform their 
missions every day. For example, the Global Positioning System (GPS) 
enables precision guided munitions employment by all Services, in all 
weather conditions, minimizing collateral damage and providing the 
nanosecond-level timing needed by today's interconnected and highly-
networked communications systems. Beyond defense uses, annual GPS 
benefits to the economy are in the tens of billions of dollars. Air 
Force military satellite communications (MILSATCOM) systems, including 
Advanced Extremely High Frequency (AEHF) and Wideband Global SATCOM 
(WGS) satellites, provide wideband and protected communications to 
deployed forces around the globe. This enables the command and control 
needed by our joint force commanders and allows deployed warfighters to 
receive intelligence, logistical, and other support from those serving 
at their home stations.
    In calendar year 2012, the Air Force launched nine National 
Security Space (NSS) satellites to bolster our GPS, MILSATCOM, and 
situational awareness, and this year, we have successfully launched an 
additional satellite to enhance our missile warning capability. These 
launches include putting the fourth WGS, the second AEHF satellite, and 
the Space-Based Infrared System (SBIRS) GEO-2 satellite into orbit. The 
Air Force also delivered to orbit a new communications satellite for 
the Navy, a third GPS II-F satellite, and four National Reconnaissance 
Office satellites, as well as handled the third successful launch of an 
orbital test vehicle (OTV), including the first reuse of OTV-1. These 
launches make 58 consecutive successful Evolved Expendable Launch 
Vehicle (EELV) launches to date and 90 consecutive successful NSS 
missions.
    To continue to advance our space superiority mission, the Air Force 
will continue to launch satellites to enhance the GPS, AEHF, WGS, 
Defense Meteorological Satellite Program (DMSP), and SBIRS 
constellations. In calendar year 2013, in addition to the SBIRS GEO-2 
launched in March, the Air Force has five more launches planned--two 
GPS, one AEHF, and two WGS. In calendar year 2014, the Air Force plans 
five launches--three GPS, one DMSP, and one additional EELV launch. 
Each of these launches will continue the necessary modernization of 
space-based positioning, navigation, and timing, protected 
communications, weather monitoring, and missile warning.
    Despite our success in space, we cannot take our space 
technological capabilities and advantages for granted. The barriers to 
space access have dropped; nine nations have cleared the engineering 
and technical challenges required to reach space independently, and at 
least 40 other nations have a space presence. As a result, the current 
space environment is more congested, contested, and competitive than 
ever, and we will see this trend continue for the foreseeable future. 
To ensure that America remains a nation with unfettered access to space 
and superior space capabilities, the Air Force is pursuing ways to 
maintain a resilient \1\ and affordable system architecture. Building 
and launching satellites is expensive, and we are exploring ways to 
reduce costs, increase competition, and improve resiliency without 
introducing unacceptable risk.
---------------------------------------------------------------------------
    \1\ Resilience is the ability of an architecture to support the 
functions necessary for mission success in spite of hostile action or 
adverse conditions. An architecture is ``more resilient'' if it can 
provide these functions with higher probability, shorter periods of 
reduced capability, and across a wider range of scenarios, conditions, 
and threats. Resilience may leverage cross-domain or alternative 
government, commercial, or international capabilities.
---------------------------------------------------------------------------
    Our space programs demand significant modernization investment, and 
the pace of modernization for those programs often is based on the life 
expectancy of on-orbit capabilities. The Air Force's 10 largest 
programs include four space systems upon which the joint team and the 
American public depend. We must sustain these critical space 
capabilities with a focus on warfighting and mission assurance 
priorities, while accepting risk to meet fiscal goals.
    To get our satellites safely into orbit, the Air Force has 
implemented a new EELV acquisition strategy to efficiently purchase up 
to 36 EELV common core boosters at a savings of more than $1 billion. 
This strategy also introduces a competitive environment for up to 14 
additional common core boosters for which new launch provider entrants 
can compete, starting as early as fiscal year 2015, giving new entrants 
a clear path to compete for future NSS missions. For fiscal year 2014, 
we are investing $2 billion in EELV.
    Our Efficient Space Procurement (ESP) strategy \2\ is driving down 
satellite costs, resulting in savings across the Future Years Defense 
Program (FYDP) of more than $1 billion for AEHF satellites, and 
modernizing MILSATCOM systems to provide greater capacity, force reach 
back, and access in benign, contested, and nuclear environments. To 
improve our ability to provide global, persistent, and infrared 
surveillance capabilities, the Air Force is requesting $1.2 billion in 
fiscal year 2014 for sustained funding of the Space-Based Infrared 
System (SBIRS). We have already achieved over $500 million in savings 
due to our ``block buy'' approach and have the potential for additional 
future savings in the SBIRS program due to the ESP strategy.
---------------------------------------------------------------------------
    \2\ ESP is an acquisition strategy that builds on the Office of the 
Secretary of Defense, Cost Assessment and Program Evaluation-developed 
concept known as Evolutionary Acquisition for Space Efficiency (EASE). 
EASE sought to lower the cost of acquiring space systems by using block 
buys and reinvesting the savings into the Space Modernization 
Initiative. The Office of the Assistant Secretary of the Air Force for 
Acquisition took the EASE concept as a building block and added 
``should cost/will cost'' methodology and fixed price incentive fee 
contracting.
---------------------------------------------------------------------------
    In addition to replenishing and modernizing aging satellite 
constellations in critical space mission areas, the Air Force must 
improve space surveillance and the resilience of space-based 
capabilities. Therefore, in fiscal year 2014, we are requesting $1.2 
billion to modernize the GPS space, control, and user segments, 
including the addition of new signals and enhanced anti-jam 
capabilities. To ensure precision navigation and timing capabilities in 
the future, we are also developing technologies, including chip scale 
atomic clocks, cold atoms, and vision-based navigation to reduce 
dependency on GPS. Space situational awareness (SSA) is truly 
foundational for ensuring our ability to operate safely and effectively 
in space. To improve our ability to discover, search, and monitor near 
earth objects, we are requesting $403.7 million to fund the Space 
Fence, a new system that will provide increased capacity to observe 
objects in space and, therefore, improve our ability to safely operate 
our critical space systems.
    International Space Partnerships
    The Air Force remains fully committed to the long-term goal of 
fostering international relationships and supporting ongoing security 
efforts with partner nations around the globe. Teaming with allies and 
partners not only helps cost-sharing, but it also increases their 
capability and their capacity to support contingency operations. Space 
is an area in which we have made significant progress in building 
partnerships. For example, in May 2012, the Air Force concluded a 
United States-Canada SSA partnership memorandum of understanding (MOU) 
regarding the Canadian Sapphire satellite system, and we successfully 
concluded a United States-Australia MOU in November 2012 to begin an 8-
year, bilateral effort to provide dedicated space surveillance coverage 
in the southern hemisphere. International partners are also supporting 
our SATCOM efforts. In January 2012, the Air Force signed the WGS MOU 
with Canada, Denmark, Luxembourg, the Netherlands, and New Zealand to 
enable expansion of the WGS program to a ninth satellite, thus 
increasing interoperability and partner access to the system. We are 
also acquiring and fielding the AEHF constellation in cooperation with 
our international partners from the United Kingdom, the Netherlands, 
and Canada. In addition, the Air Force has also established nine bi- or 
multi-lateral international agreements to advance the benefits of the 
GPS system.
    In coming years, our Nation's ability to gain and maintain 
superiority in air and space will become progressively more contested 
as sophisticated technologies continue to proliferate. Beyond 
modernizing our systems, the key to maintaining air and space 
superiority is ready and trained airmen who are properly equipped for 
their mission. When called upon, these airmen must command a well-honed 
combat edge so that they are ready to prevail even against the most 
advanced opponents.
Intelligence, Surveillance, and Reconnaissance . . . Eyes and Ears on 
        Adversaries
    Since the beginning of armed conflict, superior knowledge of 
adversary intentions, capabilities, and actions has been a critical 
enabler to victory. The evolution of globally integrated ISR has 
fundamentally changed how our military fights wars. The tremendous 
demand for Air Force ISR during recent conflicts and crises highlights 
their combat advantage. ISR capabilities are among the first requested 
and deployed, and they are increasingly essential to all facets of Air 
Force and joint operations. Airmen deliver integrated, cross-domain ISR 
capabilities that allow the Air Force to provide our Nation's decision-
makers, commanders, and warfighters with a continual information 
advantage over our adversaries.
    The Air Force ISR force is networked to provide both foundational 
intelligence and immediate warfighter support. Sensors operating in 
air, space, and cyberspace, global communication architectures, and a 
network of regionally aligned centers enable our forces to conduct 
exploitation and analytical efforts in support of combatant commander 
requirements. The Air Force Distributed Common Ground System (DCGS) is 
a critical capability within this global network, providing decision 
advantage across the spectrum of conflict, in all theaters, and in 
support of all operations.
    Last year, our ISR airmen conducted intelligence preparation of the 
operational environment, shaped combat plans for 33 named operations, 
enabled the removal of 700 enemy combatants from the fight, and 
provided critical adversary awareness and targeting intelligence to 
U.S. and coalition forces in over 250 ``troops-in-contact'' 
engagements. ISR airmen enhanced battlespace awareness through 540,000 
hours of sustained overwatch of tactical maneuver forces and lines of 
communication and identified over 100 weapons caches and explosive 
devices that would have otherwise targeted American and partner forces.
    ISR Force Structure and Modernization
    In fiscal year 2014, our ISR budget request maintains investments 
in the DCGS, the MQ-1 Predator, the RC-135 Rivet Joint, the RQ-4 Global 
Hawk Block 40, and U-2 programs, and makes internal adjustments in MQ-9 
Reaper program funding so that the program was able to meet a key 
acquisition milestone.
    The Air Force remains on track to field 65 MQ-1B Predator and MQ-9A 
Reaper combat air patrols by May 2014. To maintain our ability to 
conduct counterterrorism operations, we are standing-up five new 
medium-altitude remotely piloted aircraft (RPA) combat air patrols in 
calendar year 2013 and continuing our transition to an all-MQ-9 fleet. 
We have built a highly effective permissive ISR capability--a growth of 
4,300 percent since 2000--but the survivability in contested 
environments of some RPA is questionable. Therefore, in a post-
Afghanistan security environment and as we rebalance to the Asia-
Pacific, we are reviewing the need to adjust the RPA mix toward more 
survivable systems.
    The enduring and universal requirement for ISR capabilities, 
coupled with a complex and dangerous future security environment, drive 
the need to modernize our ISR forces. This modernization will include 
improved automated tools for the Air Force DCGS, a system that allows 
the processing, exploitation, and dissemination of an enormous amount 
of information every day, as well as integrated networks that are 
secure and reliable. The regionally aligned distributed ground sites 
will be the centerpiece of our cross-domain, global ISR enterprise and 
will allow airmen to exploit real-time data from sensors and platforms, 
even in contested environments. To modernize to an easily upgradable 
and interoperable architecture, we must overcome policy and technical 
impediments to allow for seamless intelligence sharing and integration 
with intelligence community agencies, other Services, and coalition 
partners. The fiscal year 2014 PB requests $62 million for military 
construction investments for a new DCGS building to support more than 
200 operators, maintainers, support personnel, and mission systems at 
Beale AFB, CA.
    Significant reductions in Air Force-provided ISR capabilities would 
be inconsistent with the current needs of our joint forces. Although 
ISR forces will continue to engage in counterinsurgency and 
counterterrorism operations, they must also evolve to address the 
challenges of the more contested environment of the Asia-Pacific 
region, including increased emphasis on air and naval forces, as well 
as greater cooperation and partnership with allies and regional 
partners. For example, we are currently exploring potential ISR 
efficiencies that can be gained by collaborating with the Navy, and we 
continue to grow and mature our intelligence partnerships with 
strategic allies across the Pacific. One ISR airmen will also continue 
their partnerships within the intelligence community to leverage 
national capabilities for the air component commander and better 
position combat support agencies to support air, space, and cyber 
operations.
    To enhance our ability to conduct ISR across the range of military 
operations, we must shift our efforts to solutions that enable robust 
and reliable communication architectures, all-domain data processing 
and exploitation, advanced analytical tools, and cross-domain 
targeting. We are dedicated to improving the automation and machine-to-
machine capabilities of intelligence analysis systems in order to 
deliver greater operational advantage to combatant commanders. 
Therefore, in the fiscal year 2014 PB, we are requesting an increase of 
88 personnel at the Air Force Targeting Center to support deliberate 
planning requirements, and we are investing $20 million for network 
centric collaboration targeting capabilities, which includes developing 
targeting automation tools, machine-to-machine interfaces, and auto-
populate capabilities across ISR intelligence and command and control 
systems. We also plan to add Air National Guard targeting units at two 
locations to solidify our commitment to reinvigorating the Air Force 
targeting enterprise.
    The strength of our Air Force ISR enterprise continues to be our 
professional, well trained, and dedicated airmen, officer, enlisted, 
and civilian, who take all this technology and data and transform it 
into a decision advantage for our Air Force, our joint teammates, and 
our Nation. Air Force ISR allows our forces to own the night in 
Afghanistan, connect with partners across Europe and Africa, and 
provide warning on the Korean peninsula. The integration of air, space, 
and cyber ISR is a powerful capability--one in which we must continue 
to invest our talent and resources.
Rapid Global Mobility . . . Delivery on Demand
    The Air Force's rapid global mobility core mission projects 
American influence quickly and precisely to anywhere on the face of the 
earth. Air mobility forces provide swift deployment and sustainment 
capability by delivering essential equipment and personnel for missions 
ranging from major combat to humanitarian relief operations around the 
world and at home. On any given day, the Air Force's mobility aircraft 
deliver critical personnel and cargo and provide airdrop of time-
sensitive supplies, food, and ammunition on a global scale. America's 
mobility fleet averages one take-off or landing every 2 minutes, every 
day of the year.
    Airlift
    The Air Force provides unprecedented airlift responses through our 
strategic and tactical airlift fleets. Here at home, a 12-base effort 
was initiated within 72 hours of Superstorm Sandy's landfall in October 
2012. Active and Reserve airlift crews from Wright-Patterson Air Force 
Base (AFB), McChord AFB, and Travis AFB converged on March Air Reserve 
Base and worked together to move 356 utility workers from across 
California and 134 utility vehicles with their associated equipment--
totaling 2.4 million pounds of cargo--in less than 96 hours to places 
like Stewart Air National Guard Base and John F. Kennedy International 
Airport in New York. This Total Force effort helped quickly bring 
utility trucks and workers to where they were needed on the east coast 
to help restore power to affected Americans 4 days sooner than if the 
vehicles and equipment would have been driven across the country.
    In calendar year 2012, airmen flew 38,000 airlift missions, and 
over the course of 1,300 airdrops, the Air Force dropped 40 million 
pounds of life-saving sustainment to coalition forces on the ground in 
Afghanistan--86 percent more than the entire Korean War. The capability 
to airdrop personnel, equipment, and humanitarian relief, especially in 
contested environments, remains critical to our Nation's defense.
    For the inter-theater airlift fleet, C-17 procurement will complete 
this year, but essential modernization programs to standardize the 
configuration of the entire 223 aircraft fleet continue. Our fiscal 
year 2014 budget request includes $1.1 billion to continue the 
conversion of 52 C-5B aircraft to C-5M Super Galaxy aircraft, with 
expected completion in fiscal year 2017.
    In fiscal year 2014, the Air Force will also continue its efforts 
to modernize its intra-theater airlift and special operations C-130-
type aircraft. In 2014, the Air Force seeks congressional support to 
embark upon a C-130J multi-year procurement contract that will extend 
through fiscal year 2018. Over the course of this contract, we will 
procure 72 C-130J-type aircraft to further recapitalize our airlift, 
special operations, and personnel recovery platforms. The contract is 
expected to provide approximately $574.3 million worth of savings to 
the Air Force over the life of the procurement program and deliver 
aircraft earlier than annual contracts would.
    Supported by the C-130 multi-year contract, the Air Force has 
programmed $963.5 billion dollars to continue procurement of AC/MC-
130Js to recapitalize Air Force Special Operation Command's MC-130E/P 
and AC-130H aircraft. The AC-130H recapitalization effort concludes in 
fiscal year 2014, as does the CV-22 procurement, with the purchase of 
the last three airframes.
    Air Refueling
    Mobility forces also provide in-flight refueling--the linchpin to 
power projection at intercontinental distances. Over the past 50 years, 
the Air Force has provided unparalleled air refueling capability to 
support the interests of our Nation and her allies. The Air Force flew 
16,000 tanker missions last year, and since September 11, 2001, 
America's tanker fleet has offloaded over 2.36 billion gallons to joint 
and coalition air forces. The new KC-46 tanker will help maintain this 
capability--the backbone of America's military reach--while also 
extending the range and persistence of joint and coalition aircraft.
    As the Air Force considers where to invest in this core mission 
area, we are seeking the most effective and efficient way to move 
people and equipment. We also anticipate a future that will call for us 
to provide rapid global mobility to remote, austere locations in 
contested environments. This will first require a very capable tanker 
fleet. Replacing one-third of the 50-year-old KC-135 aerial refueling 
tanker fleet with the KC-46A is our top Air Force acquisition priority. 
The KC-46A program will ensure that our Nation retains a tanker fleet 
able to provide crucial air refueling capacity worldwide for decades to 
come. In fiscal year 2014, we programmed $1.6 billion dollars for the 
manufacture of four developmental aircraft. The initial flights of the 
KC-46A test aircraft are scheduled to begin in fiscal year 2014. The 
program is currently executing as planned, and we are on track to 
receive 18 operational aircraft by late fiscal year 2017. Until the KC-
46A reaches full operational capability, we are resourcing critical 
modernization of the KC-10 and KC-135 tanker fleets.
    Combat Rescue/Aeromedical Evacuation
    Combat rescue and aeromedical evacuation forces are other key parts 
of the rapid global mobility force. The Air Force is the only Service 
with a dedicated force organized, trained, and equipped to execute 
personnel recovery. These highly-trained airmen support Air Force, 
joint, and coalition forces in a wide variety of mission areas. With a 
unique combination of armed, highly advanced HH-60G Pave Hawk 
helicopters and specially trained airmen, we provide a unique 
capability to recover wounded soldiers and civilians in environments 
considered too hostile for standard medical evacuation units. In 
addition to overseas contingency deployments, these airmen also serve 
as first responders during disaster relief and humanitarian assistance 
operations, making pararescue one of the most highly stressed career 
fields in the U.S. military. Since 2001, our combat rescue forces have 
saved over 7,000 lives, and in 2012 alone, they flew 4,500 missions 
that saved 1,128 coalition, joint and partner nation lives in some of 
the harshest environments in the world.
    Aeromedical evacuation also continues to play a vital role in 
providing responsive, world-class medical support to wounded soldiers 
and injured civilians around the globe. In calendar year 2012, the Air 
Force airlifted 12,000 patients; since 2003, we have transported a 
staggering 195,000 patients. To enhance our response to battlefield 
evacuation support, we developed and deployed tactical critical care 
evacuation teams to provide triage care on rotary wing aircraft closer 
to the point of injury. Our health response teams include rapidly 
deployable, modular, and scalable field hospitals. They provide 
immediate care within minutes of arrival, surgery and intensive care 
units within 6 hours, and full capability within 12 hours of 
deployment. These advances have elevated battlefield survival rates to 
unprecedented levels, with a nearly 30 percent improvement since 
Operation Desert Storm (Iraq) in the early 1990s.
    With the recapitalization of the HC-130N/P with the HC-130J through 
the C-130 multi-year program, the Air Force continues its effort to 
modernize its personnel recovery programs. The Combat Rescue Helicopter 
Program will replace the aging HH-60G fleet, and the Operational Loss 
Replacement Program will replace HH-60G aircraft lost during operations 
over the past decade, returning the HH-60G inventory to 112 aircraft. 
This year, we budgeted $393.6 million to finalize the modification 
process and begin testing the first two aircraft. The ability of Air 
Force helicopters to fight their way in and out of medical evacuation 
and recovery operations is unique to the joint team and has proven its 
value over the past 10 years. Currently, the combat rescue fleet is 
sized appropriately to meet our global strategy.
    Mobility Force Structure
    Air Force mobility forces, including long-range strategic 
airlifters, tankers, and tactical airlifters are sized to move and 
sustain joint forces over long distances. Congress manages the long-
range fleet to a specific floor, currently 301 aircraft. However, after 
submission to Congress of a report required by the National Defense 
Authorization Act for Fiscal Year 2013, we anticipate that this floor 
will be lowered to 275. The tanker fleet is largely right-sized to 
support the joint force. However, the tactical airlift fleet is sized 
somewhat larger than the defense strategy requires.
    Rapid global mobility will continue to be a critical core mission 
for the Air Force. Whether it is sustaining the warfighter in any 
environment or delivering hope with humanitarian assistance, airmen 
will ensure that the whole of government and international partners are 
strengthened with this unique capability to get assets to the fight 
quickly, remain in the fight, and return home safely.
Global Strike . . . Any Target, Any Time
    As a significant portion of America's deterrent capability, Air 
Force global strike provides the Nation the ability to project military 
power more rapidly, more flexibly, and with a lighter footprint than 
other military options. The Air Force's nuclear deterrent and 
conventional precision strike forces can credibly deny adversary 
objectives or impose unacceptable costs by effectively holding any 
target on the planet at risk and, if necessary, disabling or destroying 
targets promptly, even from bases in the continental United States. 
Global strike may entail close support to troops at risk, interdicting 
enemy fielded forces, or striking an adversary's vital centers from 
great distances. Credible long-range strike capabilities are 
indispensable for deterrence and provide fundamental military 
capabilities to underpin U.S. military power. Air Force global strike 
capability relies on a wide-range of systems including bombers, 
missiles, tankers, special operations platforms, fighters, and other 
Air Force systems.
    Nuclear Deterrent Forces
    The unique attributes of the Air Force's nuclear deterrent forces--
the stabilizing characteristics of the intercontinental ballistic 
missiles (ICBM) and the flexibility of the bomber--underwrite the 
Nation's ability to achieve stability amidst the likely crises and 
challenges of the coming decades. Air Force B-2 and B-52 bombers and 
ICBM crews--who continually stand watch all day, every day--provide two 
legs of the Nation's nuclear triad, while our nuclear command, control, 
and communications systems provide the National Command Authority the 
necessary tools to employ all strategic forces. Together, our bombers, 
tankers, ICBMs, and dual-capable fighters provide this ``no fail'' 
capability as the backbone of America's deterrence.
    Against a backdrop of increasingly contested air, space, and cyber 
environments, the Air Force must maintain its ability to hold any 
target at risk and provide the Nation a credible strategic deterrent 
force. This capability, unmatched by any other nation's air force, will 
only grow in importance as America rebalances its force structure and 
faces potential adversaries that are modernizing their militaries to 
deny access to our forces. Therefore, the Air Force will modernize 
global strike capabilities to ensure that American forces are free to 
act when, where, and how they are needed.
    Consistent with the DSG, in fiscal year 2014, the Air Force is 
investing in the development of the long range strike family of 
systems. The Long Range Strike-Bomber (LRS-B)--another of the Air 
Force's three top acquisition programs--is a key piece of that effort, 
and we are requesting $379.4 million for LRS-B in fiscal year 2014. The 
Air Force is committed to leveraging mature technologies and 
streamlined acquisition processes to deliver an affordable new bomber 
with conventional and nuclear strike capabilities. Therefore, the Air 
Force will certify the LRS-B for nuclear weapons employment within 2 
years after initial operating capability to simplify the development 
and fielding of the aircraft, as well as have the benefit of conducting 
its nuclear certification on a mature system.
    While the LRS-B is in development, sustaining and modernizing B-52 
and B-2 bombers is critical to ensure that these aging aircraft remain 
viable. Upgrades to the B-2's Defensive Management System, 
communications improvements on the B-52 via the Combat Network 
Communications Technology (CONECT) program, and aircraft sustainment 
efforts, such as the anti-skid system replacement on the B-52, are just 
a few examples of steps being taken to ensure the effectiveness of our 
bomber fleet for years to come. Independent of specific platforms, we 
budgeted $122.8 million to continue the adaptive engine technology 
development effort to mature advanced propulsion technology to decrease 
fuel consumption and increase range and loiter time.
    Nuclear weapons improvements include the B61-12 tail kit assembly 
program, which is undergoing its preliminary design review. We are also 
modernizing ICBM fuzes for Mk21 and Mk12A re-entry vehicles, leveraging 
common technologies and components with the ongoing Navy fuze program.
    As long as nuclear weapons exist, the Air Force is committed to 
meeting the President's direction to maintain safe, secure, and 
effective nuclear deterrence capabilities. The quantity of nuclear-
capable bombers and ICBMs comprising the bulk of the Nation's deterrent 
force may be reduced as we continue to implement the New START treaty. 
However, the treaty allows both sides to determine their own force 
structures, which gives us flexibility to deploy and maintain our 
strategic nuclear forces in a way that is best calculated to serve our 
national security interests. But deeper reductions must consider multi-
dimensional challenges from the world's emerging nuclear powers in a 
more complex security environment. The Nation's nuclear expertise must 
not be allowed to atrophy, and focused attention is necessary no matter 
the size of the nuclear force.
    Precision Strike Forces
    In addition to nuclear deterrent forces, our conventional precision 
strike forces hold any target at risk across the air, land, and sea 
domains. Currently, precision strike forces and armed ISR support joint 
and coalition ground forces in Afghanistan and Africa. In 2012, the Air 
Force flew and supported over 28,000 close air support sorties in 
Operation Enduring Freedom (Afghanistan). However, as our forces 
rebalance to the Asia-Pacific region and as anti-access/area-denial 
capabilities proliferate, the ability of our fourth-generation fighters 
and legacy bombers to penetrate contested airspace will be increasingly 
challenged.
    Success in counterterrorism and irregular warfare missions requires 
the continued ability to conduct operations in hostile, denied, or 
politically sensitive environments, using other than conventional 
forces. Air Commandos provide specialized expertise for infiltration, 
exfiltration, precision strike, battlefield air operations, ISR, and 
aviation foreign internal defense that are essential to joint special 
operations capabilities. In 2012, Air Force special operations 
personnel executed 1,642 strike missions and 7,713 specialized mobility 
missions. Persistent special operations presence in Afghanistan and 
elsewhere, increasing requirements in the Pacific, and enduring global 
commitments will continue to stress our Air Force special operations 
airmen and aircraft.
    In fiscal year 2014, the Air Force is concentrating on funding the 
F-35 program--one of our top three acquisition programs. While also 
complementing the F-22's world class air superiority capabilities, the 
F-35A is designed to penetrate air defenses and deliver a wide range of 
precision munitions. This modern, fifth-generation aircraft brings the 
added benefit of increased allied interoperability and cost-sharing 
between Services and partner nations. In fiscal year 2014, we are 
investing $4.2 billion in the continued development of the F-35 weapon 
system and the procurement of 19 low rate initial production Lot 8 
aircraft. The Air Force is focused on completion of the system design 
and development of the F-35 by fiscal year 2017 and requests $782.3 
million in fiscal year 2014 for this purpose.
    During F-35 development, it is imperative that we maintain our 
fourth-generation fighter fleet. The F-16 is undergoing full-scale 
durability testing to inform structural modification efforts to extend 
its service life. At least 300 F-16s will undergo a service life 
extension program and a capability enhancement called Combat Avionics 
Programmed Extension Suite, which permits them to remain relevant in 
the near-term threat environment until the F-35 is available in 
sufficient numbers. We are requesting $52.3 million in fiscal year 2014 
for these enhancements.
    Modernizing our munitions to align with the DSG is also an urgent 
requirement that is fundamental to managing the risk associated with 
combat force reductions. In fiscal year 2014, the Air Force is 
investing $1.1 billion in preferred conventional munitions, such as the 
AIM-120D, AIM-9X, AGM-158, and GBU-53, and is developing new munitions 
to address future needs. We are also continuing our efforts to ensure 
the safety, security, and effectiveness of our nuclear arsenal.
    The Air Force must maintain its ability to neutralize any target at 
any time with global strike forces so that America's military 
credibility will remain uncontested, allies will not worry, and 
potential adversaries will not be emboldened to challenge the pursuit 
of our national objectives.
Command and Control . . . Total Flexibility
    Airmen employ the Air Force's other four interdependent and 
enduring core missions through robust, adaptable, and survivable 
command and control systems. The Air Force provides access to reliable 
communications and information networks so that the joint team can 
operate globally at a high tempo and level of intensity. Air Force 
command and control systems give commanders the ability to conduct 
highly coordinated joint operations on an unequaled scale using 
centralized control and decentralized execution.
    The Theater Air Control System (TACS) is the Air Force's primary 
system to enable planning, control, and execution of joint or combined 
air operations. The senior element of the TACS is the air operations 
center (AOC). The inherently flexible capabilities of the AOC and its 
crews allow for deliberately planned responses to anticipated 
challenges and dynamically planned responses to contingencies. The Air 
Force's primary TACS weapons systems, such as the Control and Reporting 
Center (CRC), the E-3 B/C/G Airborne Warning and Control System 
(AWACS), and the E-8C Joint Surveillance Target Attack Radar System 
(JSTARS), provide the AOC with the critical battle management, sensors, 
and communications that are required to get the right information to 
the right person in a timely manner.
    In Operation Odyssey Dawn (Libya) in 2011, TACS airmen enabled more 
than 2,000 sorties to enforce the United Nations' no-fly zone. In 2012, 
Air Force command and control operations included: planning, executing, 
and controlling over 60,000 combat sorties in support of Operation 
Enduring Freedom (Afghanistan); over 12,000 sorties in support of 
Operation Noble Eagle (U.S. air defense); over 1,700 sorties supporting 
35 defense support to civil authorities events; over 9,000 global 
aeromedical evacuation missions; noncombatant evacuation operations as 
a result of the terrorist attack on the American embassy in Libya; and 
over 1,500 ISR missions supporting U.S. Southern Command and Northern 
Command. Our command and control systems enabled us to conduct many of 
these operations simultaneously.
    It is essential that we continue to modernize, upgrade, and refit 
our operational and tactical level command and control systems and 
sensors to maintain the Nation's advantage in command and control. Our 
systems are under constant attack, as illustrated by the new and more 
capable threats emerging daily in the areas of cyber weapons, anti-
satellite systems, advanced fighter/attack aircraft, and 
electromagnetic jamming. Our potential adversaries are also making 
advances by electronically linking their own combat capabilities, 
creating new military challenges that our forces must be prepared to 
address.
    To respond to these challenges, the Air Force will field advanced 
command and control systems that are more reliable, resilient, and 
interoperable. More importantly, we will recruit and train innovative 
airmen to build, manage, and advance our complex and diverse command 
and control systems while enabling their ready use by our own and 
allied forces. Modernization of existing systems, such as the CRC and 
E-3G Block 40/45, and AOC 10.2 will serve as the backbone of this 
effort. In fiscal year 2014, we are investing $396.8 million in E-3G 
Block 40/45, $58.1 million in AOC 10.2, and $26.4 million in CRC. We 
are also funding critical investments in future capabilities, such as 
the Joint Aerial Layer Network. The Air Force has also initiated 
modernization of crucial national command, control, and communications 
systems and is investing $52.3 million in fiscal year 2014 to fund data 
linkages between fifth-generation aircraft and legacy fleets. Finally, 
the Air Force continues to examine alternatives for the future of the 
JSTARS mission area.
    Cyber Capabilities
    The capability to deliver airpower is intimately dependent on the 
ability to operate effectively in cyberspace, which is critical to all 
of our core missions and many of our command and control systems. 
Operations in cyberspace can magnify military effects by increasing the 
efficiency and effectiveness of air and space operations and by helping 
to integrate capabilities across all domains. Pervasive and highly 
interconnected, cyberspace operations will remain extremely contested. 
The United States faces cyber-attacks on key infrastructures. The cost 
of entry is low, anonymity is high, and attribution is difficult. The 
Air Force recognizes the severity of these threats, as well as the 
speed and interconnected nature of cyberspace, and is dedicated to 
ensuring the access and freedom of maneuver that are essential for 
effective cyber operations.
    Cyber roles and responsibilities are certainly not exclusive to the 
Air Force; however, the integration of cyber capabilities with each of 
our core missions is an essential component of how we bring innovative, 
globally focused ``airmindedness'' to ensure our warfighting advantage. 
In fiscal year 2013, the Secretary of Defense decided on a new force 
model for Department of Defense (DOD) cyber operations. This model will 
increase the Air Force cyber force structure and manning. The 
additional manpower will provide the Air Force capability for national, 
combatant command, and Air Force cyber missions. For example, the Air 
Force has increased funding to $3.6 million in fiscal year 2014 to 
cyber hunter teams who provide precision capability to identify, 
pursue, and mitigate cyberspace threats affecting critical links and 
nodes within the Air Force network.
    The Air Force will continue to synchronize forces across air, 
space, and cyberspace to achieve mission success in dynamic 
battlespaces and support integrated and interoperable joint command and 
control capabilities that are agile, responsive, and survivable, even 
in contested environments.

                    AIRMEN READINESS AND DEVELOPMENT

    While it is common to define the Air Force by its core missions or 
by our aircraft, missiles, and satellites, the reality is that our 
Service's unmatched capabilities exist only because of the imagination 
and knowledge of our outstanding airmen. Accordingly, we believe in 
taking care of our people first, while always remaining focused on the 
mission. To ensure that our airmen can continue to power the enduring 
core missions for the Nation, we must invest in their readiness and 
development.
Readiness
    Underpinning our airmen's ability to provide global vigilance, 
global reach, and global power to the Nation and contribute our core 
missions to the joint team is their readiness. ``Readiness'' is the 
ability of a unit to provide its designed operational capabilities 
within the required timeline. It is comprised of personnel 
requirements, training (to include flying hours), weapon system 
sustainment, facilities, and installations. A good readiness posture 
depends on health in all of these key areas. While protecting future 
readiness includes modernizing the weapons systems and equipment, 
creating combat readiness in the near-term is a complex task involving 
the intersection of personnel, materiel, and training. It includes 
balancing time between operational and training commitments, funding 
from multiple sources, informed levels of risk, and effectively 
managing resources to achieve the desired state of readiness.
    Mitigating the risk associated with a smaller military requires a 
fully ready force. A smaller force with less capacity requires greater 
attention to ensuring adequate personnel levels, aircraft availability, 
weapons, and sufficient training to support the full range of mission 
requirements at the desired level of competency. If we attempt to 
sustain current force levels while personnel and operational costs 
rise, there will be progressively fewer resources available to support 
our current number of installations, maintain existing aircraft 
inventories, vital equipment, and weapons, and invest in future 
capabilities. These factors become more critical as shortages in 
aircraft availability, weapons, and key personnel grow and exert a 
larger negative effect on the overall readiness of the force.
    While the Air Force has met the demands of a high operational tempo 
in support of today's fight, this has inevitably taken a toll on our 
weapons systems and people, putting a strain on the overall readiness 
of the force. As reflected by Office of Secretary of Defense (OSD)-
mandated Status of Requirements and Training System (SORTS) metrics, we 
have seen a steady decline in unit readiness since 2003; our readiness 
must improve. The rebalance to the Asia-Pacific and our continued 
presence in the Middle East and Africa indicate that the demand for Air 
Force capabilities will remain constant, or perhaps even rise, over the 
next decade.
    Currently, the bulk of the funding for maintaining numerous 
missions initially fielded with overseas contingency operations (OCO) 
funding (e.g., MQ-1/9, MC-12, and the E-11A with its battlefield 
airborne communications node capability) remains in the upcoming fiscal 
year 2014 budget request. If the Air Force is to retain those 
capabilities for the long-term, funding for the aircraft and the 
capabilities and the infrastructure that supports them must migrate 
from OCO funding to an adjusted base budget. If the base budget is not 
adjusted, these capabilities will either have to be retired or be 
retained at the expense of other full spectrum forces and capabilities, 
which would increase risks.
    The Air Force supports combatant command missions that require 24/7 
availability and attention. Space operations, command and control, 
cyber defense, ISR, special operations, personnel recovery, and nuclear 
deterrence are all high priority missions that cannot be done 
adequately, and in some cases cannot be done safely, at low readiness 
levels. In support of U.S. defense strategy, air forces are inherently 
capable of responding quickly and can be shifted on relatively short 
notice between critical theaters of operation. Allowing the Air Force 
to slip to a lower state of readiness that requires a subsequent long 
buildup to full combat effectiveness will negate the essential 
strategic advantages of airpower and put joint forces at increased 
risk.
    Therefore, the Air Force's portion of the fiscal year 2014 PB 
aligns resources in an effort to slow the readiness decline and sets 
the stage for restoring full-spectrum readiness. However, as noted 
previously, the effects of sequestration in fiscal year 2013 will 
hamper our readiness efforts in fiscal year 2014 and beyond. The 
pillars of our full-spectrum readiness effort include: a consistent, 
equitable, and attainable flying hour program; prioritized full-
spectrum training venues; focused weapons systems sustainment funding; 
appropriate reallocation of manpower to our highest priority missions; 
sustainment of our power projection platforms (Air Force 
installations); and developing and caring for airmen and their 
families.
    Through planned funding of weapons system sustainment, the flying 
hours program, training ranges, facilities and installations, and 
modernization programs, the Air Force could maintain its legacy of 
``spring-loaded'' readiness. In the past 35 years, the Air Force has 
been called upon nearly 150 times to conduct combat or humanitarian 
operations in more than 45 countries, and combat sorties in the U.S. 
Central Command area of responsibility have continued uninterrupted 
since 1991. The completion of combat operations in Iraq and Afghanistan 
are important milestones that should provide an opportunity to reset 
the force, but other international security challenges remain and, in 
some cases, are growing. America will continue to need a ready Air 
Force.
    Weapons System Sustainment (WSS)
    WSS is a key component of full-spectrum readiness. Years of combat 
demands have taken a toll across many weapons systems, and we continue 
to see an increase in the costs of WSS requirements, which are driven 
by sustainment strategy, complexity of new weapons systems, operations 
tempo, force structure changes, and growth in depot work packages for 
aging, legacy aircraft. With recent force structure reductions, we must 
carefully manage how we allocate WSS in order to avoid availability 
shortfalls.
    The fiscal year 2014 budget submission adds $1.5 billion to the WSS 
portfolio across the FYDP. Although the fiscal year 2014 PB adds 
baseline funds for WSS, we continue to rely on OCO funding for global 
contingency operations.
    WSS funding requirements for combat-ready air, space, and cyber 
forces have consistently increased at a rate double that of DOD 
inflation planning factors. Although service life extension programs 
and periodic modifications have allowed our inventory to support 20 
years of unabated operations, the cost of maintenance and sustainment 
continues to rise. As a result, we want to improve the link between 
resources and readiness for Air Force weapons systems by reducing 
costs, improving risk-based decision making, and balancing costs with 
performance. To address the trend of higher costs, we are reviewing and 
streamlining organizations and processes to reduce maintenance and 
material costs, develop depot efficiencies, and manage weapons systems 
requirements growth. We are taking actions to reduce requirements by 
examining the potential for restructuring or modifying new and existing 
contractor logistics support contracts to optimize tradeoffs, provide 
visibility, and improve flexibility between costs and outcomes. We will 
also leverage risk-based strategies and evaluate maintenance schedules 
to maximize aircraft availability and apply performance-based logistics 
solutions to balance total sustainment costs with performance.
    Despite our efforts, WSS costs are still expected to grow, and new, 
more capable aircraft are often more expensive to maintain than those 
they replace. In the current fiscal environment, our efforts to restore 
weapons system availability to required levels will be a serious 
challenge.
    Flying Hour Program (FHP)
    The emphasis on readiness in the DSG reinforced the need to 
implement a FHP that achieves full-spectrum readiness. The Air Force 
balanced the allocation of flying hours across the Total Force to 
incrementally improve readiness levels. The flying hour program will 
continue to rely on OCO funding to support Operation Enduring Freedom 
and the redeployment of combat forces from Afghanistan. With the 
expectation of decreasing OCO flying hours, we have programmed 
increasing O&M-funded flying hours in fiscal year 2015 and throughout 
the FYDP. Beginning in fiscal year 2015, the program is approximately 
90 percent of the peacetime training requirement to attain full-
spectrum readiness across the Total Force, reflecting our assessment of 
the full executable program.
    We are also committed to a long-term effort to increase our live, 
virtual, and constructive operational training (LVC-OT) capability and 
capacity by funding improvements in LVC-OT devices (e.g., simulators 
and virtual trainers) and networks. Adjustments to the flying hour 
programs will continue to evolve as the fidelity of simulators and LVC-
OT capabilities improve. Increasing our virtual capabilities will 
minimize fuel consumption and aircraft maintenance costs while ensuring 
high quality training for our aircrews. In fiscal year 2014, we are 
investing $3.3 million for LVC-OT purposes.
    Training Ranges
    Full-spectrum training requires the availability of air-to-air and 
air-to-ground training ranges. Many of our ranges are venues for large-
scale joint and coalition training events and are critical enablers for 
concepts like Air-Sea Battle. In fiscal year 2014, we are requesting 
range O&M funding of $75.8 million to sustain these crucial national 
assets to elevate flying training effectiveness for the joint team, 
which in turn improves individual and unit readiness levels. 
Unfortunately, previous years' baseline range funding was at levels as 
low as 25 percent of requirements, resulting in a corresponding 
corrosive effect as range infrastructure deteriorated and aircrews only 
maintained readiness in skill sets oriented toward current combat 
operations. This year, we are reversing this trend by raising baseline 
range funding to 74 percent of requirements to begin a return to full-
spectrum readiness. As we continue to realign to the DSG, additional 
range investment and sustainment funding will be necessary to ensure 
that our combat forces are prepared for the full range of potential 
threats and environments.
    In fiscal year 2014, the Air Force is poised to work with the joint 
community to enhance cyber ranges to enable realistic testing and 
evaluation of new cyber concepts, policies, and technologies. These 
ranges will provide a venue for evaluating network services, 
information assurance, and offensive and defensive cyber capabilities 
in a closed and secure environment. Coupled with the Air Force's 
program for simulator-based cyber education, training, crew 
certification, and exercises, these cyber ranges will provide trained 
and tested cyber operators able to strike targets anywhere on the 
globe, as well as defend against foreign and domestic attacks.
    Facilities, Installations, and Energy
    From cyber to long-range strike, installation readiness buttresses 
the Air Force's core mission. Therefore, the Air Force's fiscal year 
2014 budget request employs a balanced approach to our installation 
investment strategy. Our installations are power projection platforms 
comprised of both built and natural infrastructure that: (1) 
effectively enable Air Force core operational capabilities--we deliver 
air, space and cyber capabilities from our installations; (2) send a 
strategic message of commitment to allies and intent to adversaries; 
(3) foster partnership-building by stationing our airmen side-by-side 
with our coalition partners; and (4) enable worldwide accessibility in 
times of peace or conflict. Therefore, we must maintain sustainable 
installations to enable Air Force support to the vectors outlined in 
the DSG.
    In the fiscal year 2014 PB, the Air Force returned military 
construction (MILCON) investment levels to near historic norms 
following the deliberate pause of fiscal year 2013. This year, the $1.2 
billion investment focuses on supporting beddown requirements for the 
F-35 and KC-46, combatant commanders' top priorities in cyber and 
nuclear deterrence, and the rebalance to the Asia-Pacific theater.
    Recognizing the links between MILCON and facilities sustainment, 
restoration, and modernization (FSRM), we are funding facilities 
sustainment at 80 percent of the OSD facilities sustainment model 
requirement, and we added over $400 million for restoration and 
modernization across the FYDP to enable consolidation efforts and 
improve the quality of our most mission-enabling facilities.
    Foundational to all of our efforts, energy enables the force and 
sustains our national security posture. Energy, which comprises about 8 
percent of the Air Force budget, enables Air Force core missions, and 
fuels our operational capabilities. The Air Force recognizes the 
vulnerability and volatility created by our dependence on finite, non-
renewable energy supplies. Therefore, we are committed to increasing 
energy security and becoming ever more energy efficient. We have 
already made great strides in reducing consumption and improving 
efficiency. Since 2006, the Air Force has reduced its fuel consumption 
by 12 percent, exceeding a 10 percent reduction goal 3 years ahead of 
schedule.
    Overall, our focus is to reduce our energy footprint across all 
operations. Investments we made in fiscal year 2012 to improve our 
facility energy efficiency and reduce our energy requirement are 
expected to start generating savings in fiscal year 2014. The Air Force 
is also looking to improve its energy security and diversify its energy 
supply through increased use of renewable energy. We also plan to 
improve our energy security by making the most of private sector 
knowledge, technology, and financing to capitalize on underutilized 
land on our installations.
    The Need for Base Realignment and Closure
    As we make efforts to improve and sustain our installations, we 
also recognize that we are carrying infrastructure that is excess to 
our needs. A capacity analysis conducted prior to the 2005 BRAC 
suggested that the Air Force had 24 percent capacity that was excess to 
our mission needs. However, the 2005 BRAC did not make major reductions 
to Air Force facilities, and since that time, we have reduced our force 
structure by more than 500 aircraft and reduced our active duty 
military end-strength by 7 percent. The Air Force currently has 
significant excess infrastructure that is very expensive to maintain in 
terms of both financial and human resources. In the current and 
projected fiscal environment, we simply cannot afford it. The Air Force 
has limited authority under current public law to effectively 
consolidate military units or functions and divest excess real 
property. The money that we are spending on maintaining excess 
infrastructure is more urgently needed to recapitalize and sustain our 
weapon systems, improve readiness, and invest in the quality of life 
needs of airmen.
    Readiness and Modernization
    The decline in future budgets does not allow us to improve 
readiness while also maintaining force structure and continuing all 
planned investment programs. To prioritize readiness, we have made a 
conscious choice to take some risk by making sacrifices in 
modernization programs. Although we have been more effective in our use 
of operating resources and garnered savings from better business 
practices,\3\ the Air Force has been forced to terminate or restructure 
several programs. Program restructures and terminations include 
terminating the Space Based Surveillance Block 10 follow-on, freezing 
Gorgon Stare at Increment II, terminating Air Force participation in 
the Joint Precision Approach and Landing System land-based segment, and 
divesting the UAV (unmanned aerial vehicle) Battlelab in fiscal year 
2014.
---------------------------------------------------------------------------
    \3\ There are $1.3 billion in fiscal year 2014 funding reduction 
adjustments and $7.9 billion across the future years the Air Force has 
categorized as being reflective of a more disciplined use of resources. 
Program terminations and restructures are $2.4 billion of this total. 
Savings from better business practices and more effective use of 
operating resources total $3.2 billion across the future years.
---------------------------------------------------------------------------
    The Air Force also terminated acquisition of the underperforming 
Expeditionary Combat Support System (ECSS). ECSS was initiated in 2005 
in an effort to provide end-to-end visibility of the Air Force's supply 
chain and enable better logistics decisionmaking. As planned, ECSS 
would have transformed the logistics enterprise, making all aspects 
interoperable and synchronized with the financial and accounting 
systems to enhance business and mission operations and realize 
efficiencies. Unfortunately, after several years of schedule delays, 
poor contractor performance, and cost increases, we determined that the 
program could not meet the fiscal year 2017 financial improvement and 
audit readiness statutory requirement and was not likely to achieve 
other promised capabilities at an affordable cost. Instead of 
continuing to spend money on an underperforming program, the Air Force 
determined that the prudent course of action was to pursue other ways 
to transform our logistics business processes.
    The fiscal year 2013 sequestration cuts took away all program 
flexibility, deferred some buys, added risk to many programs while at 
the same time forced us to reallocate investment funds to more critical 
O&M needs. Budget projections for fiscal year 2014 and beyond, along 
with the fiscal year 2013 cuts, may force us to halt or slow pending 
development or productions milestones on 11 acquisition category (ACAT) 
1 programs. Small scale program terminations began in fiscal year 2013, 
and we will have to consider expanding terminations in fiscal year 
2014. Similarly, several key modernization priorities remain unfunded 
given the current fiscal environment, including a replacement for the 
aging T-38 trainer and the JSTARS surveillance aircraft.
    America's Air Force remains the most capable in the world, but we 
cannot allow readiness levels to decline further and modernization 
cannot wait for the next cycle of increased defense spending. We have 
important production lines under way and development programs that are, 
or will soon be, mature enough for production. Cancelling programs in 
anticipation of a future generation of technology would be wasteful 
and, in some cases, risk the loss of critical engineering talent and 
technological advantage. New threats and corresponding investment needs 
are not theoretical possibilities for the future. They are here, now. 
The future success of the Nation's military and the joint team depends 
on modernizing our Air Force and keeping it ready to fight.
Airmen Development
    The Air Force's strategic advantage begins with its ability to 
attract, recruit, develop, and retain innovative warriors with a 
commitment to high standards and our core values of Integrity First, 
Service Before Self, and Excellence In All We Do. To accommodate an 
uncertain and fiscally challenging future, we must continue to invest 
in our airmen through education, professional development, and support 
programs for airmen and their families, coupled with other programs to 
maintain a safe, respectful, and positive work environment. We are 
focusing on the recruitment, development, retention, and overall 
effectiveness of each individual airman. Through this investment, we 
will not only improve the capability of today's force, but also 
illustrate our commitment to future generations of airmen to ensure a 
diverse and inclusive rich pool of the highest quality recruits well 
into the future.
    Sexual Assault Prevention and Response
    Providing a safe, respectful, and productive work environment is 
the responsibility of every airman at every level, and we are working 
hard to achieve this. We do not tolerate sexual assault. In the last 
year, the Air Force redoubled its efforts to eradicate sexual assault 
within our ranks, and we have invested in several programmatic, 
educational, and resourcing efforts aimed at reinforcing a zero 
tolerance environment. When sexual assaults are alleged, we are 
providing improved support to victims. In coordination with OSD, the 
Air Force created a special victims capability comprised of specially 
trained investigators, prosecutors, paralegals, and victim and witness 
assistance personnel. A cadre of 24 special investigators has received 
special victim training, along with 16 senior trial counsel, 9 of whom 
specialize in the prosecution of particularly difficult cases, 
including sexual assault cases. In addition, 60 Air Force attorneys 
have been identified and trained to serve as ``special victims' 
counsel'' to provide comprehensive and compassionate representational 
legal assistance to victims. Special victims' counselors currently 
represent over 200 sexual assault victims. The Air Force has also 
approved all 46 expedited transfer requests for Air Force victims over 
the past year, to include both permanent change-of-station and local 
installation reassignments, and we continue to employ over 3,100 
volunteer victim advocates. In accordance with the National Defense 
Authorization Act (NDAA) for Fiscal Year 2012, each of these volunteer 
victim advocates will receive full certifications to provide 
confidential victim support beyond the training they already receive, 
and the Air Force is on track to place a full-time victim advocate at 
every installation by October 1, 2013.
    Innovative, Global Airmen
    Globalization and the pace of technology advances are accelerating. 
Airmen work with advanced technology every day, and developing 
innovative and technically-savvy airmen to continue to operate on the 
cutting edge is the lifeblood of our Service. The Air Force's ability 
to leverage and field crucial technologies is dependent on America's 
aerospace research and development infrastructure--a national asset 
that must be protected to ensure future U.S. advantages in technology, 
commercial aviation, and space. Accordingly, we are protecting science 
and technology funding as a share of our total resources. To ensure 
that airmen increase their technical acumen, we are strategically 
managing our science, technology, engineering, and math (STEM) 
workforce and conducting outreach activities to recruit and train an 
adequate and diverse STEM talent pool to develop, operate, and maintain 
our technical advantage. While airmen must remain technically 
proficient, we are most interested in whole person development--
creating leaders of character who demonstrate creativity and empathy in 
addition to technical competency.
    Globalization also makes the development of a global community of 
airmen a more achievable goal. Efforts to enhance the language and 
cultural skills of the force continue to lay the groundwork for access 
and coalition building activities that enable future cooperative 
efforts with friends and allies. Likewise, outreach through foreign 
professional military education programs where members of other nations 
attend Air Force programs, as well as personnel exchange programs, 
significantly increases the likelihood of current and future 
cooperative relationships. The combined effects of these personnel 
programs and relationship-building efforts help ensure that future 
leaders of friendly foreign air forces will continue to regard the U.S. 
Air Force as one of the finest air forces in the world.
    Airmen and Family Support
    The quality of airmen and family support programs remains a 
critical element of the Air Force resilience program. Using a strength-
based approach to the resilience program builds an improved ability to 
cope with stress and forms the basis for an approach for suicide 
prevention. Regardless of the fiscal environment, the Air Force must 
continue to address the Service's evolving demographics and maintain 
balanced, healthy, and resilient airmen and families. We will adjust, 
consolidate, or eliminate services where required to meet changing 
demands, capitalize upon community resources, and gain efficiencies 
where possible.
    To better support our airmen and families, we continue to move 
forward with our ``3 to 1 Total Force Personnel Management'' 
initiative. This effort integrates personnel management policies, 
processes, and procedures across the Total Force to create a more 
efficient and effective Air Force. To the greatest extent possible, ``3 
to 1'' will yield uniformity, enhance coordination across components, 
optimize warfighter support, and improve service levels for our airmen. 
This effort will also eliminate cumbersome paper-based personnel 
workflows, standardize human resource management under common 
directives, and provide ``one-stop shopping'' for personnel support 
from anywhere, at any time. Finally, we expect this effort to ease 
airmen transitions on and off active duty and across the three 
components, all of which are vital to our Air Force mission.
    Our airmen continue to contribute significant capabilities in the 
joint arena and do so with the integrity and excellence expected of 
them. They remain committed to the Air Force mission and our core 
values. It is imperative for us to apply sufficient resources coupled 
with well-informed personnel policies to support and maintain our high 
quality, All-Volunteer Force, retain their trust and confidence, and 
empower them to fly, fight, and win.

                    ACTIVE/RESERVE COMPONENT BALANCE

    Today's Total Force consists of about 329,500 Regular Air Force (or 
Active) airmen, 105,700 Air National guardsmen, and 70,900 Air Force 
Reserve airmen actively serving in the Selected Reserve, as authorized 
by the NDAA for Fiscal Year 2013. For fiscal year 2014, the total 
number of airmen will decrease slightly to 327,600 Active airmen, 
105,400 guardsmen, and 70,400 reservists. In addition to these numbers, 
the Air Force Reserve maintains a strategic depth of more than 790,000 
stand-by or non-participating reservists and retirees who can be called 
up for national emergencies. We are one Air Force--Regular Air Force, 
Air National Guard, and Air Force Reserve airmen--working together as a 
Total Force team every day around the world.
    There is great interdependence between Active, Guard, and Reserve 
Forces. We must ensure the right balance between them because too much 
force structure in the active component does not capitalize on 
potential lower operational costs of personnel and installations in the 
Reserve component. Too little force structure in the active component 
requires guardsmen and reservists to deploy more often--even in 
peacetime--which breaks the model of a part-time force, threatens the 
sustainability of the Total Force, and increases costs significantly.
    The analytical foundation used to develop Active and Reserve 
component force balance starts with the National Defense Strategy. The 
strategy is based on scenarios and associated concepts of operation and 
forces developed by the Office of the Under Secretary of Defense for 
Policy, the Joint Staff, and the Office of the Secretary of Defense, 
Cost Assessment and Program Evaluation. These scenarios form the common 
starting point for all DOD force structure assessments and include 
major contingency demand (i.e., surge) as well as pre- and post-
contingency rotational demand (non-surge and post-surge, respectively). 
Force demands, both surge and post-surge rotational, are compared to 
projected inventories to determine how much and what type of force 
structure is required. Capabilities and risk are balanced across the 
Air Force's core missions to field the most capable and sustainable 
force within available resources. Analysis of Active and Reserve 
component force levels provides insights into the balance within this 
force that can most effectively and efficiently meet demand within DOD 
deployment goals.
    Maintaining the appropriate Active and Reserve component force mix 
is critical to the ability of the Air Force to meet forward presence 
requirements, maintain rapid response, and meet high-rate rotational 
demands within a smaller force. Additionally, appropriate force mix is 
critical to the sustainment, readiness, and health of the Total Force 
components. Force mix decisions cannot be made based solely on cost. We 
must consider the symbiotic relationship of the active and Reserve 
components and treat the three components as a complete system, 
evaluating the effects of change on all components to better understand 
unintended consequences to the whole. For example, Reserve Forces 
depend on healthy Active component forces from which trained and 
experienced airmen transition to part-time status. If the active 
component force becomes too small, the flow of personnel into the 
Reserve component will slow, driving the Reserve components to increase 
direct-entry recruitment, causing experience levels to fall and costs 
to rise. Our analysis also will consider how the Reserve component 
leverages important civilian skills and experience, such as in cyber, 
for the needs of the Nation. Air Force leaders must have the 
flexibility to reorganize force structure within the Active and Reserve 
components to maintain the health of the Total Force and its ability to 
ultimately execute the National Military Strategy.
Total Force Initiatives
    To get a better understanding of our Total Force mixture, we 
launched the Total Force Task Force, a team led by three two-star 
general officers from the Regular Air Force, the Air National Guard, 
and the Air Force Reserve. The Total Force Task Force is leading a 
reassessment of the Air Force's efforts to develop the appropriate 
Active and Reserve component balance through processes that enable the 
Department of the Air Force to leverage the inherent strengths, unique 
aspects, and characteristics of each component. The Total Force Task 
Force is conducting a comprehensive review of Total Force requirements 
and will develop strategic options to ensure that the Air Force 
balances the strengths of each component while sustaining necessary 
capabilities in the years ahead. The team is scheduled to present their 
findings by October 1, 2013. We expect the task force to serve as a 
focal point for the National Commission on the Force Structure for the 
Air Force that was directed by Congress and is scheduled to provide a 
report to the President by February 1, 2014.
    Total Force Integration (TFI) works to shape the most capable force 
possible under fiscal and operational constraints for our current and 
future force. TFI associations are a cost-efficient value to the 
taxpayer as the active and Reserve components share equipment and 
facilities. We are increasing the number of units that partner Active, 
Guard, or Reserve airmen at a single location. We currently have 121 
such unit associations and plan to add additional associations; 
however, implementation of the NDAA for Fiscal Year 2013 may affect the 
number of associations. Already a success story for mobility forces, we 
are planning for every U.S.-based Reserve fighter unit to become an 
association with the Regular Air Force within the FYDP, as will the 
continental United States locations for the KC-46 tanker. We will 
continue to refine this combination of Active and Reserve Forces across 
all appropriate areas of the Total Force.
    Force structure changes require continual dialogue between the 
Active component, the Air Force Reserve, the Air National Guard, and 
the respective Governors. Over the past year, we have worked with OSD, 
the National Guard Bureau, and the Council of Governors to formalize a 
consultative process to exchange views, information, and advice, 
consistent with the applicable guidelines on programming and budgetary 
priorities and requirements on matters specified in Executive Order 
13528. Recently, DOD and the Council of Governors agreed to the 
``State-Federal Consultative Process for Programming and Budgetary 
Proposals Affecting the National Guard.'' This process will, among 
other things, increase National Guard involvement in DOD's planning, 
programming, budgeting, and execution processes and improve the 
dialogue between the Council of Governors and the DOD before resource 
decisions affecting the National Guard are made. It is essential that 
we manage the health of the Total Force holistically, and we are 
committed, now more than ever, to strengthen our integration of effort.

                               CONCLUSION

    From airpower's earliest days, airmen have exploited technology to 
provide essential knowledge and information on when and where to act, 
to move people and materials when and where needed, to control the 
ultimate high ground, and to strike when and where directed.
    We are confident in our airmen. They are the best in the world, and 
we can rely on them to meet any challenge, overcome any obstacle, and 
defeat any enemy--as long as they are given adequate resources and the 
freedom to innovate. As they have time and again, our innovative airmen 
will find new and better ways to approach future military challenges 
across the spectrum of conflict, throughout every domain, and against 
nascent and unpredicted threats.
    The Air Force's core missions will continue to serve America's 
long-term security interests by giving our Nation and its leadership 
unmatched options against the challenges of an unpredictable future. In 
the last several decades, Air Force airpower has been an indispensable 
element of deterrence, controlled escalation, and, when so tasked by 
the Nation's leadership, been an instrument of destruction against an 
adversary's military capability--all accomplished with minimal 
casualties to U.S. service men and women and civilians. However, 
investments in Air Force capabilities and readiness remain essential to 
ensuring that the Nation will maintain an agile, flexible, and ready 
force. This force must be deliberately planned and consistently funded, 
as reconstitution of a highly sophisticated and capable Air Force 
cannot occur quickly if allowed to atrophy.
    Today's Air Force provides America an indispensable hedge against 
the challenges of a dangerous and uncertain future. Regardless of the 
future security environment, the Air Force must retain and maintain its 
unique ability to provide America with Global Vigilance, Global Reach, 
and Global Power.
    We are committed to excellence and we will deliver with your help. 
We ask that you support the Air Force budget request of $114.1 billion 
for fiscal year 2014.

    Chairman Levin. Thank you very much, General.
    We will have an 8-minute first round.
    First, on the question of sequestration, Mr. Secretary, you 
gave us some specifics in your oral testimony about the impacts 
on unit readiness. Can you go into that in a little bit more 
detail? We did not have that in your written statement. So it 
is very important that we flesh it out here in your oral 
statement. Number of units that have been reduced in readiness 
and so forth.
    Mr. Donley. Yes, sir. I will ask the chief to chime in.
    We have 12 units that have been stood down completely. That 
means that there is no flying going on. I think I referred to 
an additional seven units that are being held at a reduced 
readiness status, that is, basic mission capable. If the 
resources are made available, we might be able to move some of 
those from basic mission capable up to combat mission ready, 
but those funds are not yet available. We are still working on 
assessing whether or not that would be feasible. That may 
depend on the reprogramming to which I referred.
    We are concerned that, as the chief outlined--taking units 
to a stand-down position where they are not flying at all 
negates the advantages that airpower brings to the joint team. 
So we are very concerned that this situation be only temporary 
and that we get back to restoring combat capability as quickly 
as possible.
    Chairman Levin. How many units are there all together? That 
is 12 of how many, 7 of how many?
    Mr. Donley. This is of, I think, 31 active squadrons. 
Chief?
    General Welsh. We have 54 fighter squadrons in the Air 
Force, sir. Right now, those 17 are about a third of that. 
There are additional squadrons the Secretary did not mention 
because they are not part of our combat air forces. We have 
also shut down the Thunderbirds. We have shut down our weapons 
school squadrons. We have closed down a couple of our 
additional training units that we use, our aggressor squadrons 
who helped train in Red Flag both in Nevada and Alaska. We have 
taken those flying hours and we prioritized it toward units 
scheduled to deploy to Afghanistan or to the Pacific.
    Chairman Levin. Thank you.
    I think, Mr. Secretary, you mentioned OCO shortfalls. That 
was, I assume, for 2013 because the OCO request for 2014 has 
not yet been coming. What is the OCO shortfall for 2013 and 
what is the reason for it?
    Mr. Donley. It is at least about $1.8 billion.
    Chairman Levin. This is for the Air Force.
    Mr. Donley. This is for the Air Force. I believe you will 
see us attempting to get funding for that in the upcoming 
reprogramming. We simply did not get support for all of the OCO 
costs in the original OCO request.
    Chairman Levin. Okay. Now, relative to BRAC, let me just 
make a request of you rather than a question. We have made this 
request before. You have indicated a savings from the last BRAC 
round of about $1 billion. If you could furnish for the record 
the detail that goes into those savings, we would appreciate 
it.
    Mr. Donley. I am happy to do that.
    [The information referred to follows:]

    Base Realignment and Closure (BRAC) savings are substantial and 
allow the Air Force to apply scarce resources to emerging and/or higher 
priority missions. The Air Force continues to realize approximately 
$1.0 billion in annual net savings from commission recommendations 
implemented during BRAC 2005.
    BRAC savings begin to be realized during the first year of 
implementation, growing through the 6-year implementation period, and 
maximizing the first year of post-implementation. For BRAC 2005, post-
implementation net annual savings are approximately: civilian salaries 
($183 million), military entitlements ($555 million), base operating 
support ($68 million), sustainment ($28 million), recapitalization ($32 
million), mission ($66 million) and procurement ($24 million).
    Specific amounts for each category in BRAC 2005 during the 
implementation period can be seen in Exhibit BC-02, Implementation 
Period Financial Summary, page 6, contained in the Department of 
Defense Base Closure Account--Air Force Fiscal Year 2014 Budget 
Estimate Justification Data submitted to Congress in April 2013.

    Chairman Levin. In terms of the role of the chain of 
command in addressing sexual assaults and other crimes in the 
military, some propose removing the chain of command from the 
decisionmaking process for prosecuting assaults and other 
crimes in the military both before and after trial. We are 
going to be taking up this issue, as I indicated, in markup.
    Can you very briefly, both of you, tell us what your 
position is relative to whether or not the chain of command 
should be making the decision relative to prosecution? If so, 
why? Whether or not the chain of command should have the power 
to reverse a finding of fact after a finding of fact of guilt 
where that is the case, and whether or not the chain of command 
should retain the power relative to modifying the sentence 
where there is a finding of guilt. On those three areas, very 
briefly, if you could. Mr. Secretary, we will start with you.
    Mr. Donley. Sir, I think maintaining good order and 
discipline is a commander's responsibility. So I think it is 
very important that the administration of the UCMJ occur within 
the military chain of command.
    With respect to the role of the convening authority, which 
reviews evidence and determines whether or not court martials 
ought to occur, I think that should stay in place.
    There is the issue of Article 60, which provides for the 
opportunity for the convening authority to review the results 
of courts martial after they are completed and to make any 
change the convening authority deems appropriate.
    When that Article 60 was built, the U.S. military had a 
much less robust appeal process for court martial cases. Now 
that that appeal process is in place, we strongly support the 
Secretary's proposal for Article 60 that the convening 
authority no longer be given carte blanche to review the 
results of court martial and that be cut be back and limited 
quite a bit.
    Chairman Levin. General, do you have a view on that?
    General Welsh. Yes, Mr. Chairman.
    On the convening authority's ability to refer cases to 
court, I feel very strongly that that is in the commander's 
purview for a reason.
    Number one, if over time you take the UCMJ, particularly if 
you move the whole caseload, not just sexual assault cases, 
away from the commander's discretion, commanders eventually 
will lose touch with the UCMJ, and that would be a terrible 
occurrence I think over time.
    Second, I do not think there is an issue with commanders 
not agreeing with their lawyers on what cases ought to go to 
court. In the Air Force, we have looked back the last 3 years, 
and we have taken a look at over 2,500 cases. We have reviewed 
them manually. In 0.5 percent of those cases, the commander 
made a decision to prefer charges or not counter to the 
recommendation of their judge advocate general (JAG). So this 
is not a common thing that occurs. I do not know what we would 
be fixing by doing that.
    For the commander's ability to review and make changes to 
findings of a court, my personal opinion is there is no need 
for that. We have a court. We have a military judge in the 
courtroom. We have an appeal process.
    I do believe the commander has a role in reviewing the 
sentencing of a court, and I believe that we should talk very 
carefully about the commander's involvement in that because 
there are reasons to keep the commander involved in that 
discussion.
    Chairman Levin. Thank you.
    The administration is proposing to substantially increase 
enrollment fees for military retirees who enroll in the TRICARE 
Prime health care program to institute enrollment fees for 
participation in TRICARE Standard Extra and TRICARE For Life 
and to increase pharmacy copayments, to increase deductibles 
and the catastrophic cap. DOD has assumed budget savings of 
nearly $1 billion for all of these changes.
    Let me ask the General first. Did you personally support 
these proposals?
    General Welsh. I did, Mr. Chairman.
    Chairman Levin. Do you?
    General Welsh. I do.
    Chairman Levin. Mr. Secretary, I assume--let me ask you, I 
will not assume anything. Mr. Secretary?
    Mr. Donley. I do support the President's proposals.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Welsh, the chairman had asked you to give us an 
analysis of the $1 billion on the BRAC savings over that period 
of time. He is referring, I am sure, to the 2005 BRAC round. I 
would like to have that report include the amount of loss that 
came from that in the first, let us say, 3\1/2\ years. Would 
you mind doing that?
    General Welsh. No, sir. We will do it.
    [The information referred to follows:]

    Base Realignment and Closure (BRAC) does not drive ``losses;'' 
rather there is an upfront investment required to implement the 
commission recommendations. These upfront implementation costs are 
offset by savings garnered during the implementation period.
    BRAC one-time implementation costs occur primarily in the following 
categories: military construction, to include planning and design; 
operations and maintenance; military personnel, other procurement, and 
environmental cleanup. The invested total one-time implementation cost 
in the first 4 years of implementing BRAC 2005 was $3.2 billion.
    Also during implementation, BRAC savings are generated primarily in 
the following categories: civilian salaries, military entitlements, 
base operating support, sustainment, recapitalization, mission and 
procurement. The net savings generated during the first 4 years of 
implementing BRAC 2005 was $1.4 billion (grand total savings minus 
total recurring costs (non-add) in the first 4 years).
    Bottom line, the net implementation cost during the first 4 years 
of BRAC 2005 was $1.8 billion (grand total one-time implementation and 
total recurring costs (non-add) minus grand total savings in the first 
4 years).
    Specific amounts for each category in BRAC 2005 can be seen in 
Exhibit BC-02, Implementation Period Financial Summary, contained in 
the Department of Defense Base Closure Account--Air Force Fiscal Year 
2014 Budget Estimate Justification Data submitted to Congress in April 
2013.

    Senator Inhofe. All right.
    General, you and I talked in my office about the reduction 
of the 94,000 flying hours and the grounding of about one-third 
of the squadrons. Now, it is my understanding that once the 
units have stood down for about 60 days, they are no longer 
able to meet the operational requirements. Is that correct?
    General Welsh. Yes, Senator, or accept great risk in doing 
so.
    Senator Inhofe. Yes, which we do not want to do.
    It is my understanding that the Air Force estimates it will 
take--and I think the Secretary mentioned this in his opening 
remarks--between 6 and 12 months to return these to mission 
ready status.
    General Welsh. Senator, that would be true, assuming you 
have the additional flying hour money required to requalify----
    Senator Inhofe. That is my next question. Do you see that 
in the request of the 2014 budget?
    General Welsh. No, sir. It is not there.
    Senator Inhofe. That is serious, don't you think?
    General Welsh. Yes, sir. We would require additional funds.
    Senator Inhofe. A very similar thing is true in depot 
maintenance and in the modernization program. We have deferred 
a lot of things. We have the best depot maintenance system, I 
think, that anyone would expect us to have. However, the 
maintenance has been kicked down the road, probably deferring 
some 60 aircraft and 35 engines from depot maintenance. So I 
would ask the same question. By delaying these things, we are 
going to have to be requiring something in the 2014 budget to 
make up for that. Do you see that in the 2014 budget?
    General Welsh. No, sir, nor is there the capacity to surge 
to catch up with that bow wave within a year.
    Senator Inhofe. Thank you.
    When General Odierno was here, we talked a little bit about 
the hollow force. Nobody likes to talk about that, and I think 
that, Mr. Secretary, you did mention that we are going in that 
direction right now. I am going to read to you the quote that 
the Congressional Research Service (CRS) used back a short 
while ago. It was actually just last year. They said, talking 
about the hollow force, that although the size and composition 
of the force appeared adequate on paper--this is talking about 
in the 1970s and the 1990s--shortcomings identified when these 
forces were subjected to further scrutiny raised questions if 
these forces would be able to accomplish their assigned wartime 
missions.
    Some feel that we are already approaching the hollow force. 
We heard General Odierno talk about the hollow force insofar as 
the Army is concerned. We know that we have smallest size of 
the Air Force that we have had in history, and we are flying 
the oldest aircrafts. So where do you think we are, each one of 
you, in terms of approaching a hollow force similar to that 
which we experienced in the 1970s and 1990s?
    Mr. Donley. Sir, I have been very concerned about the 
decline in readiness since about the 2003 timeframe and our 
inability to get the resources necessary to keep up with the 
weapon systems sustainment costs, in particular, that have come 
with some of the new platforms that require lots of contractor 
logistics support to support the ongoing efforts in 
Afghanistan, et cetera. So I have been concerned about this. 
Sequestration makes the problem worse, quite simply. Standing 
down units again with no flying hours at all and deferring 
aircraft and engines, as you mentioned--and I think the numbers 
you quoted are correct, about 60 airframes and about 35 
engines--will create a backlog that needs to be addressed down 
the line, and we will not be able to recover as quickly as we 
should. So we are right now making the problem worse, not 
better.
    Senator Inhofe. Do you agree with the comments or the 
answers that General Welsh stated in terms of the fact that it 
is not currently in the 2014 budget to get this done?
    Mr. Donley. That is correct.
    Senator Inhofe. It is a very serious thing.
    The F-35. You commented on the significance of that, 
General Welsh. A lot of times, people are challenging that. I 
know that there have been cost overruns, have been problems, 
and all that. Is there anything further you want to state in 
terms of the significance of the JSF to our fleet for the 
future?
    General Welsh. Senator, as I mentioned, we need the 
airplane. We have committed to it. It brings a capability that 
nothing else in our fleet has, and we will be able to bring it 
to the battle space in 2030. It is beyond our ability to 
upgrade legacy platforms to produce the kind of capability this 
aircraft will bring to the battlefield. It is just the way it 
is.
    The program for the last 2 years has been making steady 
progress and has stayed on track in my view since about 2011. 
The major issues that remain are cost-related. I believe the 
company now knows how much it costs to build an airplane. I 
think they have demonstrated stability in that cost in the 
production line for the last two lots. I think we have to make 
very clear we understand the long-term operating costs of the 
airplane. We are working very hard at doing that in conjunction 
with the company to make sure that we see the same picture.
    It is important that we keep our partners involved in the 
program because they also affect the long-term investment that 
the United States makes in this program. It becomes much 
cheaper for us if we have partners in investing in future 
builds, et cetera, not just in the production value.
    So we are committed to the F-35. I am pretty happy with 
where it is right now. We need to keep moving toward as high a 
production rate as we can get. Sequestration has impacted that. 
We have had to back off our production rates for the next 
couple of years, although we will still hope to hit 60 per year 
starting in 2018.
    Senator Inhofe. Is the figure that they used initially 
still a reality figure?
    General Welsh. Sir, 1,763 remains the number in the 
President's budget.
    Senator Inhofe. Now, you say that there were 179 that were 
delayed for 2 years. I have had occasions to go down to Fort 
Worth and talk about the significance of delays, and you talk 
about the out-of-country purchases that are out there. As the 
price does go up--and it does go up every time there is even a 
delay, not just a cancelation--that does drive some people out 
of the market. That is something that I am concerned about 
because that makes it more expensive for us at the same time.
    Let me ask you one last question on the C-130. It is the 
work horse. Now, we are completely out of the E models now. Is 
that correct?
    General Welsh. Yes, sir. The intent is to go to all C-130H 
and J models.
    Senator Inhofe. But the H1 series--as we get new J models 
on, are we taking out of service then the H1 or the earlier H 
models?
    General Welsh. Yes, sir. The intent is to attrit the older 
models as we get new J models.
    Senator Inhofe. Is that not one program that has not slid 
on the J models?
    General Welsh. The J model program is doing very well.
    Senator Inhofe. That is good.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join my colleagues, Secretary Donley, in thanking 
you for your excellent service to our Nation and wishing you 
well in the future if this is, indeed, your last appearance 
before our committee.
    General Welsh, welcome and thank you for your extraordinary 
service over many years and the men and women under your 
command.
    I want to begin, if I may, with a question about the combat 
search and rescue (CSAR) helicopter, the CSAR HH-60, which I 
understand is scheduled to be replaced with a new aircraft 
which is necessary to perform the very challenging rescue and 
recovery missions that the Air Force undertakes so frequently. 
If I may, let me ask--first of all, to commend the Air Force on 
a very well-structured request for proposal (RFP) that 
emphasized the best capability and the lowest operating cost 
for the taxpayers. Could you provide me with an update as to 
the status of this program and an idea as to when the decision 
will be reached?
    Mr. Donley. It is funded in the President's budget, but it 
is currently under source selection. So we do not have much to 
say about the particulars of that. It is scheduled for a 
decision later this year.
    Senator Blumenthal. Will the RFP, as it was issued, be 
implemented?
    Mr. Donley. Again, I expect that the RFP would be addressed 
in the source selection process and that is the process that is 
underway today. Again, we are looking to make a decision later 
this year.
    Senator Blumenthal. Do you have a more precise idea as to 
when later this year it would be made?
    Mr. Donley. I do not at this point.
    I will just offer transparently that we are also looking at 
the affordability of all our modernization programs going 
forward. This is a very important one, but as we look at the 
potential for sequestration over a 10-year period, if that 
sight picture does not change, as I suggest in my testimony, it 
is going to change a lot of acquisition programs. So we are 
taking a broad look at all of our modernization programs to 
make sure they will be affordable for the future.
    Senator Blumenthal. I understand. If you could keep us 
informed about the status of that program, I would appreciate 
it.
    General Welsh, first of all, let me commend you for being 
so forthcoming to many of us in your efforts to combat sexual 
assault in the Air Force and in particular the special victims 
counsel (SVC) program that you have implemented since January 
28, 2013. I understand that the SVC program has already 
represented 224 sexual assault victims. I have joined two of my 
colleagues, Senators Boxer and Gillibrand, in urging that funds 
be made available to every Service to follow the model that the 
Air Force is setting in this regard.
    I wonder if you could give us an update on this program and 
the efforts that are being made because the kind of 
representation of victims or survivors is so critically 
important to enabling and encouraging them to come forward and 
report these predatory crimes. They are predatory, violent 
crimes for the most part. They should be treated as such. In 
the civilian world, as I know from my experience, providing aid 
to victims is critically important in encouraging more 
reporting of a crime that in the military is so drastically 
under-reported. Could you give us an update, please?
    General Welsh. Yes, sir, I can.
    We now have 265 victims assigned to SVCs. Our SVCs are busy 
enough that we have taken them off of all other duties. They 
are now completely dedicated to this particular task. We left 
them regionally distributed around the country as opposed to 
centralizing them, which was one of the debates we had, because 
we think it allows victims better access to them.
    We have seen two significant statistics.
    One is that in the past we had about a 30 percent rate of 
unrestricted report victims who would decide not to continue 
with prosecution after they began the process of 
investigations, interrogations, questioning, et cetera. So far, 
of the 268 represented by SVCs, we have 2, which is a huge 
improvement, which allows us to prosecute more cases over time 
which is key to moving forward in this area in my view.
    The second thing I would mention to you is that our change 
of restricted reports to unrestricted reports in the past was 
about 17 percent on average. Of the victims who have SVC, that 
number is about 55 percent. So more victims are willing to 
change to an unrestricted report and allow us to investigate 
because they are more comfortable having a legal advisor who is 
with them throughout the entire process.
    Just those two statistics make me feel very comfortable 
this program is moving in the right direction, and there is a 
lot of other anecdotal evidence, including victim testimony, et 
cetera.
    Senator Blumenthal. Let me ask you. You may have read, 
General Welsh, the Washington Post story this morning about 
Lieutenant General Susan Helms reversing a conviction similar 
to the one that General Franklin did that has aroused a great 
deal of interest and more than a little controversy.
    I wonder if you could enlighten us as to whether that story 
was accurate and what action you would contemplate under these 
circumstances.
    General Welsh. Senator, I would be happy to.
    First of all, by way of context, because I think this is 
such an emotional topic from every angle that context is 
important. In the U.S. military, in DOD over the last 5 years, 
there have been five sexual assault cases where a convening 
authority has reversed the decision. In three of those cases, 
the actual allegation of sexual assault--the subject was found 
not guilty at a trial but was found guilty of lesser offenses, 
not sexual assault charges. In those three cases, the convening 
authority set the court aside and punished the subject under 
nonjudicial punishment for the three lesser offenses.
    In the two cases where a sexual assault allegation was 
found to be guilty in court and then set aside by the convening 
authority, in one of those, the case you refer to, General 
Helms' case, there were actually two sexual assault charges. 
The court found the subject innocent of one and guilty of the 
second. General Helms has the convening authority and, 
following due process of the law as written, reviewed the case, 
determined that in her view the evidence presented did not meet 
a burden of reasonable doubt. She reversed the guilty decision 
on the second count of sexual assault. She then took the other 
three charges, the minor charges that had also been found 
guilty in court, and she punished the subject under nonjudicial 
punishment for those offenses. She also punished the sexual 
assault charge under nonjudicial punishment.
    The last case, and the only one where a court has been 
completely set aside that we can find in DOD in the last 5 
years, was the Aviano case that has also gotten a lot of 
publicity.
    So we have had two cases over the last 5 years where this 
has occurred. It does not happen routinely. I think clearly it 
makes us question two things. Number one, we have to do a 
review of the convening authority's actions. In the Aviano 
case, Secretary Donley did a very thorough review of that and 
determined that our convening authority followed the law as 
written, made a decision that we expect our convening 
authorities to make, not right or wrong in our judgment, but 
just made a decision. That is their job.
    Now we think the issue is whether the law is written 
correctly. Should Article 60, which gives the convening 
authority that responsibility and designs the process--should 
it be reviewed and adjusted? The Secretary and I both very 
clearly believe it is time to do that.
    Senator Blumenthal. I think it also undermines the 
credibility of the convening authority to make prosecutorial 
decisions in the first place. You have defended that authority 
here and I understand and respect your views. But I would just 
respectfully suggest that it also indicates a need to review 
the entire convening authority's actions and powers and 
credibility in light of these decisions.
    General Welsh. Senator, if I might. It is clearly an issue 
that we need to debate openly and honestly and look at all the 
second- and third-order effects.
    One practical example of why removing a convening 
authority's disposition authority is that it would create a 
huge problem for commanders in the field. Article 15, which is 
one of the tools commanders use routinely, is a baseline 
building block for enforcing military justice and discipline in 
their units. It almost requires the ability to compel someone 
to accept it. If you do not have the ability to refer that 
individual to court, you have no way to compel them to accept 
the Article 15. So from a very practical perspective, we just 
need to think through that implication because it is 
significant.
    Senator Blumenthal. I thank you very much. My time has 
expired, but I look forward to exploring these questions with 
you further. Thank you personally for your actions, as well as 
Secretary Donley. Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator McCain.
    Senator McCain. Secretary Donley, thank you for your great 
service in many capacities to this country, and we thank you 
for that. I think I share the view of all of us in thanking you 
for your outstanding service.
    I do not usually speak about parochial matters, but if I 
could just for a minute. The forest fire season is coming 
earlier than ever. In our defense bill that we passed, we 
authorized the transfer of aircraft of the C-27J to replace the 
very rapidly aging, very old fire fighting aircraft that we 
have.
    Can you give us an update on that particular evolution and 
how soon we could expect those very aging fire fighting tankers 
to be replaced?
    Mr. Donley. Yes, Senator. We are implementing the planned 
retirement of the C-27s using the language that the NDAA passed 
last year. We have had letters of interest from U.S. Special 
Operations Command, from the Coast Guard, from the U.S. Forest 
Service. It is our intent to have those aircraft off the books 
by the end of the fiscal year. So we will go through a process 
this summer of evaluating those letters of interest and 
negotiating out which agencies might receive the C-27s that DOD 
plans to divest.
    Senator McCain. I hope you will view it with some urgency 
because I am told that we may have a shortfall in our ability 
to combat these fires. Obviously, it is not a question of 
whether there are going to be forest fires in the entire West, 
but when. So I hope you will give it some priority and make 
sure that we are on track to replace those aircraft that we 
have to retire.
    Now, back again on sequestration, does your budget planning 
for fiscal year 2014 consider--does it assume that 
sequestration will be repealed?
    Mr. Donley. No.
    Senator McCain. It does not.
    Mr. Donley. Let me think this through. The President's 
budget does propose the repeal of sequestration. So if all the 
budget assumptions that go with the President's budget were 
passed, there would be no need for sequestration in fiscal year 
2014. Therefore, the fiscal year 2014 budget, as proposed, does 
not anticipate sequestration. If those budget assumptions do 
not come to pass and sequestration occurs, it will occur from 
whatever level, as I understand it, Congress has enacted for 
fiscal year 2014.
    Senator McCain. But right now, you are not budgeting for 
sequestration remaining in effect.
    Mr. Donley. Correct.
    Senator McCain. General Welsh, are you concerned about 
morale and retention of pilots in the U.S. Air Force as a 
result of the reduced flying hours and actual stand-down in 
some of the most important training components like the Fighter 
Weapons School at Nellis and others?
    General Welsh. Senator, if this continues for any period of 
time, I am absolutely concerned about it. They did not join to 
sit. You know that as well as anyone. They will get frustrated 
and they have other options.
    Senator McCain. I am told that there will be a very large 
exodus of airline pilots who have joined in a block period and 
that will create a demand for pilots in the airlines that we 
have not seen in a long time. Are you aware of that?
    General Welsh. Yes, sir, I am.
    Senator McCain. So you are having to, as you listed, stand 
down some of the most vital training regimens that we have in 
the U.S. Air Force.
    General Welsh. Senator, we have stopped Fighter Weapons 
School classes. We have stopped Red Flag training, and we 
canceled the last Red Flag at least. We are looking at them one 
at a time as they come up on the schedule to see how much money 
we have to execute them. We have stopped instructor pilot 
upgrade programs that are dedicated to that function. These are 
bills that we will continue to pay for 20 years. We will never 
recover this training capacity. The longer we shut down, the 
more traumatic it is. This is a big deal to our Air Force.
    Senator McCain. General Odierno testified that it could 
take 10 to 15 years to restore the operational capability of 
the U.S. Army if we continue with sequestration throughout the 
next year. Do you agree with that assessment?
    General Welsh. If we continued for another year, I am not 
sure it would take us 10 years to restore the operational 
capability. It would take us much longer than that to fill the 
personnel and the requirements bathtubs that we have generated 
in year groups now. If we do not do Weapons School instructor 
training for another year, our ability to create the top tier 
leaders of our Air Force will be affected for 20 years until 
those people retire.
    Senator McCain. The ability of your pilots to perform at 
the highest level in combat will be degraded because of the 
lack of training.
    General Welsh. Yes, absolutely, Senator. That training is 
what makes all our Services the best in the world.
    Senator McCain. Secretary Donley, in that context, in your 
retirement--and you have been around longer than most--I think 
one of the reasons that members of both parties are willing to 
allow this sequestration to proceed is a widespread belief that 
a profligate DOD is unwilling to rein in runaway costs on 
under-performing programs. The most recent example is the 
Expeditionary Combat Support System (ECSS), $1 billion, JSF 
cost overruns, the F-22 cost overruns, the criminal Boeing 
tanker case. It is damaging DOD's fiscal credibility which in 
turn permits elected officials to believe that haphazard cuts, 
which damage our readiness, are the right thing to do. As you 
testified, grounding of 17 squadrons, critical operations, 
maintenance. What do you say to this, Secretary Donley?
    Mr. Donley. I think our acquisition process just takes way 
too long and costs way too much. We have become, in many ways, 
risk averse, I think, in acquisition programs because we have 
seen so many different ways over the years that programs can 
get off track, and each time a program gets off track, we try 
to correct it by putting in a new law, a new regulation, a new 
layer of oversight to try to prevent that from happening again. 
After 20 or 30 years of that, we are pretty thick on 
regulations and oversight in our acquisition system.
    So I think there is a lot of streamlining that needs to be 
looked at going forward and especially as the resources come 
down after the fights in Iraq and Afghanistan and looking at 
the budget totals contemplated in the BCA, sequestration or no, 
whatever would take the BCA's place, we need to put more 
pressure on streamlining our acquisition process and getting 
some of the people and the processes out and get focused on 
more rapid introduction of technology.
    I support the spiral approach where we are introducing 
technology more rapidly and planning for changes later, not 
trying to build the perfect airplane right off the bat, but 
spiraling that capability in 5- or 10-year increments to 
improve it over time.
    Senator McCain. If you think that Congress needs to act in 
any way, I promise you we are more than eager to accept your 
recommendations as to what actions need to be taken to do 
exactly as you said. I am sure you understand the frustration. 
We share the frustration of a lot of American taxpayers. We 
need to fix it, and any recommendations that you can provide to 
us with the benefit of your experience we would certainly be 
pleased to have.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Secretary Donley, General Welsh, welcome today.
    Last week, we were in a recess and as I often do in recess, 
I travel around Virginia and go to parts of our State that 
touch upon our armed services mission, Department of Veterans 
Affairs' hospitals, bases, military contractors, Reserve 
Officer Training Corps programs. I was at an interesting one 
last week. Mary Baldwin College is a women's college in 
Staunton, VA, that has a 100-member Virginia Women Institute of 
Leadership in this small, private college, and they have a 
commissioning percentage among these 100 women that is higher 
than most of the 6 senior military colleges designated in title 
10.
    One of the young ladies was asking me a question and said 
do you think the military's decision to remove barriers to 
combat service might have a broader effect on women's 
opportunities in the civilian world. That led to an interesting 
discussion about what happens in the military and its effect on 
the civilian world and the important leadership role that the 
military takes.
    It is in that spirit--I am just very sorry that the 
rescheduling has you here today, in the same week when this 
incident in Arlington is in the news, and yet it is. I just 
worry about the effect of this. There are all kinds of today 
effects that this kind of event suggests when somebody charged 
particularly with overseeing a program to deal with victims of 
sexual assault is in fact charged. The chairman said that we 
have to presume innocence until proven guilty.
    But I worry as much about the tomorrow effects. I worry 
about the tomorrow effects of women who are thinking about 
making military careers and for the young woman who asked me 
the question about what happens in the military has a civilian 
effect. I also worry about those women in the program who do 
not commission but go into a civilian world but maybe go in 
with a little more of a concern that if this happens at the top 
echelon in military leadership, then it could happen in the 
civilian world as well.
    The stakes on this one are enormously high. They are 
enormously high. Senator McCain asked about morale questions 
with respect to sequester, and I am going to get to that in a 
minute. But we need to worry about the morale of tomorrow's 
military leaders, and in that context I was quite concerned.
    General Welsh, you mentioned that you have sought 
jurisdiction in this case, which is a standard matter, and if 
you could just educate me for a second about the procedure. 
There is an arraignment that is scheduled through the 
Commonwealth's Attorney in Arlington County, and that is 
scheduled later in the week. It would be military standard to 
seek jurisdiction of the matter. I gather that the prosecutor 
has discretion as to whether to continue with the criminal case 
in the courts of the Commonwealth of Virginia or to put it in 
abeyance in some way and transfer it over to military 
jurisdiction. Is that correct?
    General Welsh. Senator, that is exactly right. The sexual 
assault prosecutor in Arlington County will make that decision. 
Our 11th wing assigned at Bolling Air Force Base here in 
Washington, DC--their JAG office is actually the one that is 
the interface with Arlington County. They have submitted the 
request for jurisdiction and we will let the process play out.
    Senator Kaine. You have educated me on the process, so I 
clearly do not know. But I imagine that one of the things the 
prosecutor's office weighs in wrestling with a request such as 
that is their degree of confidence about whether a trial or 
proceeding, if transferred over to military jurisdiction, would 
in fact be a fair one.
    General Welsh. Senator, I would assume that would be part 
of this.
    Senator Kaine. Just that the stakes are very high. The 
stakes are very high on this one.
    Talking about morale in a different way and now moving to 
sequester, I visited Langley about a month ago. I met with 
wonderful Air Force personnel there, both pilots but also 
wonderful mechanics who maintain F-22s, not just those in 
Virginia, but from all around the country. I talked to General 
Hostage about this one-third of the Air Combat Command (ACC) 
units standing down. My assumption is that in the dangerous 
circumstances we find ourselves in in the world, there is an 
awful lot of contingency planning going on about use of ACC 
assets in Syria possibly, with respect to North Korea, other 
places in the world.
    If you could, just talk about what it means to stand down 
one-third of the ACC units and how that impacts the kinds of 
planning and then, God forbid, the need to actually go forward 
on executing any of those contingency plans in a status where 
we have curbed our training and our missions in that way.
    General Welsh. Senator, what we have prioritized to keep 
units flying is the units that are either already in 
Afghanistan or preparing to deploy to Afghanistan or units on 
the Korean Peninsula or those doing the nuclear mission--
everything else was affected by this, either drawdown to 
minimal flying or standing down completely. So any new 
contingency activity that requires the rest of that force 
structure will be impacted.
    As one example of the type of disconnect you can get, 
because we are meeting a known tasking from a combatant 
commander for a type of capability, an F-15C let us say, which 
is an air-to-air airplane--we have other units that do 
suppression of enemy air defenses that are not flying right now 
because they are not required in the current deployment cycle. 
In an example like a new contingency where you need to go 
suppress enemy air defenses, they would be the first things you 
need and they will not be fully ready. So we are trying to 
manage them day-to-day as the world's situations change.
    Senator, if I could go back to your last comment just one 
time on the fair trial or not. One of the issues that seems to 
come up routinely is this belief that the military does not 
prosecute as much as a local jurisdiction might. We actually 
took the Air Force statistics that are in a little bit of a 
convoluted equation that comes out of DOD because of the way we 
track these things. We took them to the Rape, Abuse, and Incest 
National Network (RAINN) folks. We sat down side-by-side with 
them, and we said use your model and put our data into it and 
tell us what our prosecution and conviction rates are. For 
2012, our prosecution rate was 1 percent below the national 
average. Our conviction rate was 3 percent above. So the idea 
that we do not prosecute should not be a concern of the special 
prosecutor. The idea that we cannot convict relative to the 
local jurisdiction should not be a concern of his if we can 
ensure they have all the facts.
    Senator Kaine. That is certainly my hope. I am not 
suggesting otherwise. Yet, just the controversy over the Aviano 
situation, the article about the second case this morning, the 
fact that the individual who is charged with leading an 
important leadership position to deal with sexual assault cases 
has, in fact, himself been charged, those are the kinds of 
things that just, again, as a prosecutor is making up a mind 
about where a case can be prosecuted in a way that will 
certainly protect victims and it will also protect the 
accused--Arlington is a pro-military community. So it is not 
going to be a hostile environment. These are the kinds of 
things that prosecutors wrestle with, and that goes back to my 
comment about the stakes being pretty high in this situation.
    I wanted to follow up on Senator McCain's question because 
I think you each knew something that I do not know and maybe 
others do not. This issue about is there a cohort of civilian 
aviation pilots that is expected to retire or depart that would 
create a significant present competition that might pull out 
military pilots if they feel like Congress, through budgetary 
or other actions, is demonstrating that we are not committed to 
certainty in their future work and path.
    General Welsh. Senator, we have been hearing for about a 
year now that the airline industry expects to increase their 
hiring rates dramatically over the next 1 to 3 years. So we do 
anticipate there will be opportunities and a draw, and 
historically we lose a much higher percentage of air crew 
members from all the Services when the airlines hire.
    Senator Kaine. Let me just say in conclusion that there 
were 53 votes, I think, in this body at the end of February in 
the Senate to not allow the sequester to go into effect. There 
were 50 votes to pass the Senate budget that did pass on March 
23 that would have dramatically changed the sequester and made 
the cuts targeted rather than across-the-board, back-end rather 
than spread evenly across 10 years, and cut in half. It is my 
deep hope, based on your testimony and the testimony of others 
who have been before us that this committee can play a lead 
role in trying to find a solution that does not continue to 
jeopardize the missions that you are promoting.
    Thank you, Mr. Chair.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses, both of you, for being here 
and for your distinguished service to our country and all that 
serve underneath you.
    Secretary Donley and General Welsh, in your prepared 
statement, you talked about the KC-46 as one of the top Air 
Force acquisition priorities, particularly given that obviously 
our tankers go back to the Eisenhower era of making sure that 
we update our tankers. The importance of the in-flight 
refueling missions is certainly the linchpin for our being able 
to carry out almost any mission in the world, as well as 
supporting our allies.
    I understand, General Welsh, from the discussion you and I 
certainly had this morning in my office that you are in the 
process, the Air Force is in the process, of making the 
decision on the basing of this particularly for the Air 
National Guard and that will be upcoming. I just want to 
applaud you for the transparent and objective process you have 
applied thus far. I think it will not come as a surprise to 
both of you that both Senator Shaheen and I feel very strongly 
about the performance of our 157th air refueling unit at Pease 
and we welcome the objective nature of this process because 
certainly Pease has a strategic location, only 12 minutes from 
very important refueling tracks, and also an already existing 
Active Duty association that we are very proud of. Of course, 
for us just what our unit has already done in every conflict in 
terms of their utilization and the excellent work they have 
done to support essentially almost every mission that the Air 
Force has been involved in most recently. So I am very proud of 
Pease. I know that Senator Shaheen is as well. I want to 
commend both of you just for the way you have conducted the 
process thus far.
    Do we expect this process to go forward in May when you 
will be making final decisions?
    Mr. Donley. Yes.
    Senator Ayotte. Okay, good. So one of the questions I would 
have to you going forward, as we look at the impact of 
sequestration, what type of impact could that have on, for 
example, our acquisition of the KC-46A in terms of purchasing 
the numbers that we need to meet our capacity going forward?
    Mr. Donley. As I suggested, Senator, the acquisition plan 
for the KC-46 remains intact. It is 179 aircraft, I think 8 
aircraft by fiscal year 2017, the first development aircraft by 
fiscal year 2015. So the program is on track today. It is a 
contract which is, we think, in the best interests of the 
warfighter and the taxpayer, limiting the Government's exposure 
at about $4.9 billion. We need to make sure that those contract 
requirements stay funded over the next several years. So we 
will do our best to keep that on track and make sure that the 
KC-46 remains a high priority and a funded program.
    Senator Ayotte. Of course, we also need to make sure that 
our pilots get the appropriate training and flying hours not 
just in our refuelers, but obviously our fighters as well. That 
remains a significant challenge going forward with 
sequestration, does it not, General?
    General Welsh. Senator, clearly it does. In fact, just as a 
side note, if you will permit me, we have a KC-135 crew we lost 
in Kyrgyzstan just this past week, and this morning, we were 
still searching for the remains of one of those crew members.
    Senator Ayotte. Our thoughts and prayers are with their 
families and their loss for their sacrifice for our country. 
Thank you.
    I wanted to discuss with you, General Welsh. Earlier you 
told Senator Blumenthal that the Air Force was seeing positive 
results by providing victims of sexual assault a SVC. I 
understand that that is a pilot program within the Air Force 
that you think is effective.
    Today, Senator Murray and I are introducing a bill which, 
in part, will provide a SVC to all sexual assault victims 
within all branches of the military. This is something modeled 
after, obviously, what is happening now in the Air Force pilot 
program. So I wanted to get your view on this and how important 
you thought having that counsel was helping the process of 
making sure victims have the support that they need to navigate 
through the system, the judicial system.
    General Welsh. Senator, I believe to date the evidence in 
my mind is clear that it has been immensely helpful 
particularly to the victims, and that is who we are most 
interested in helping. Our intent in this program is to 
complete the pilot with a report that I will work with the Air 
Force JAG, and I will forward that to the Secretary with my 
recommendations on whether the Air Force continues and 
recommendations on what he should forward to the Secretary of 
Defense for recommendations across DOD. Then the Secretary will 
make a decision from there.
    Senator Ayotte. I believe that this is not something that 
when you are within the Air Force and a victim that you should 
receive, but I believe that victims across the branches should 
be receiving this type of support. Obviously, as you can hear 
from the questions today from many of us, this is a very 
important issue that we are concerned about in terms of the 
readiness of our forces and also making sure that those who are 
victims receive the support that they need and a proper legal 
process to see that justice is done going forward. So I think 
this is an issue that we will work on on a bipartisan basis, 
and it is an important issue for our country.
    I wanted to finally follow up on the issue of audits, which 
is when I look at the cancelation late last year of the ECSS, 
that raised a flag for me, and I wanted to hear from both of 
you. Is the Air Force on track to meet the 2014 and 2017 audit 
deadlines?
    Mr. Donley. The short answer is yes, but there is risk in 
this work and the cancelation of ECSS puts a little bit more 
emphasis on the need to go forward with existing systems and to 
modify existing systems, it is clear that our enterprise 
resource programs are not going to all be in place to support 
this work. So there is going to be a lot of manual work and a 
lot of work with existing systems to do that. We have had some 
success in getting a clean opinion on about 46 percent of Air 
Force inventory, on missile motors, other parts of our Air 
Force inventory. So we continue to work toward the fiscal year 
2014 and fiscal year 2017 goals.
    Senator Ayotte. Mr. Secretary, do you think that you will 
today, as we sit in this hearing, meet those goals?
    Mr. Donley. We are working very hard to get there. There is 
risk but we are working very hard to get there. We have been 
trying to use outside auditors and experts to do pre-audit work 
with us. Some of that work was intended to be contracted out. 
The contract is under protest. So that did set us back. We are 
looking for opportunities to regain some lost time there, but 
we are working very hard to get there.
    Senator Ayotte. I thank you. This is, obviously, a very 
important issue just for us to meet those audit deadlines 
finally and to be able to have the right type of financial 
information and accountability, particularly with the fiscal 
challenges that we face.
    So I thank you both for being here today and for your 
leadership.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I know you had a bad weekend, General Welsh, and I 
understand that this is painful for you. But I need to ask a 
couple of questions.
    What background did Lieutenant Colonel Krusinski have that 
qualified him for this job?
    General Welsh. He is a personnel officer by training. He 
has spent the last 2\1/2\ years working on the air staff in the 
personnel policy arena. He was a Force Support Squadron 
commander before coming to the Pentagon. The Force Support 
Squadron is the squadron in which things like sexual assault 
coordination counselors, et cetera work in our active Air Force 
units. He has been around the business his entire career as a 
personnel officer.
    Senator McCaskill. Have you looked at his file?
    General Welsh. Yes, Senator, I have. His record is very 
good.
    Senator McCaskill. Did you look at his file for any kind of 
problems related? I mean, clearly the accusation is that he was 
drunk and sexually attacked a complete stranger in a parking 
lot. It is hard for me to believe that someone would be accused 
of that behavior by a complete stranger and not have anything 
in their file that would indicate a problem in that regard. 
Have you looked at his file and determined that his file was 
absolutely pristine?
    General Welsh. Senator, I looked at his officer record of 
performance, which is all I could access last night. I talked 
to his current supervisor. I have not talked to people who knew 
him or supervised him in the past. There is no indication in 
his professional record of performance or in his current 
workplace that there is any type of a problem like this.
    Senator McCaskill. Who selected him?
    General Welsh. He was selected by Brigadier General Eden 
Murrie who is the director of our services part in our 
personnel area, the office above the Sexual Assault Prevention 
and Response Office, and Lieutenant General Darrell Jones who 
runs our directorate of personnel manpower.
    Senator McCaskill. Will those two people be responsible for 
selecting his replacement?
    General Welsh. Yes, ma'am, they probably will be.
    Senator McCaskill. I hope that you will evaluate the 
qualifications. I have spent hours with JAG prosecutors, not 
just General Harding and his colleagues at the top of the 
military justice food chain, but with courtroom prosecutors. 
You have a wealth of people in the Air Force that understand 
what this job has to be. If this allegation is proved true, 
this was not someone who understood what this job was about. I 
will be watching very carefully who is selected to replace 
Lieutenant Colonel Krusinski because I think it is one of those 
times you are going to be able to send a message, and I think 
it is important you do.
    These cases turn on who is believable. In the Aviano case 
and in the case that General Helms overturned, in both 
instances you had the victim testifying to one set of facts and 
the accused testifying to another. In both instances, juries 
selected by those generals said they believed the victim. In 
both of those instances, the generals said, no, no, we believe 
the member of the military. That is the crux of the problem 
here because if a victim does not believe that the system is 
capable of believing her, there is no point in risking your 
entire career. Or as the victim in the Helms case said, how 
difficult it was for her to encounter the accused who had been 
convicted by a jury and have to salute him. Now, I cannot 
imagine what that would feel like to have to salute the man who 
had been convicted by his peers of assaulting her in the way 
that he did.
    So I agree with you that we have to be very careful about 
removing the convening authority entirely, but I will look 
forward to visiting with General Helms about her decision.
    The other point I want to make about her decision, General, 
is that these generals have the ability to consider anything 
when they make this decision. Anything and everything. She did 
it without meeting with the victim. She did get some email from 
the prosecutor about the victim's point of view. But should the 
victim be required to have something in the file before 
clemency is determined even if we decide to remove the 
convening authority from the ability to overturn? Should the 
victim's statement not be part of any clemency proceeding?
    General Welsh. Senator, I would assume that every victim 
would want their statement to be part of a clemency proceeding. 
I know in the cases you have referenced, the victim was 
requested to provide matters for clemency.
    Senator McCaskill. So would you have any problem with us 
requiring that?
    General Welsh. Senator, I personally would not have any 
problem with that. I have no idea if there is a legal 
implication of that, but from a common sense perspective, it 
makes eminent sense.
    Senator McCaskill. Yes. They are all getting stacks of 
letters about what a great guy this is. In this instance, they 
got an email from the prosecutor characterizing what the victim 
had said. It seems to me that is a little weighted.
    When she made this decision, we had changed Article 120, 
and I do not know how familiar you are with 120. But 120 has 
been a difficult part of the UCMJ dating back to 2007. We 
wanted to change it, to update it, and then mistakes were made 
in the way it was drafted. We changed it again. We had changed 
120 at the time Helms made her decision. It had been signed 
into law. It just had not gone into effect yet. But yet, she 
reached back and used the old 120 instead of looking at the new 
120 as she was evaluating what standard of consent was 
available. I will be anxious to visit with her about that 
decision, if she got any legal advice about how that law had 
been changed.
    Senator Ayotte covered also ECSS. For both of you, I share 
her concerns about auditability on ECSS. But the main question 
I would like for both of you--and I know, Secretary Donley, you 
have served well and long, and I too salute your service in 
leading one of the most important parts of our great military 
in this country. What I really want to focus on--and we would 
like some follow-up answers to this--is what did we learn about 
when to cancel a system. We spent a billion with a ``B'' on 
ECSS before it was canceled.
    At what point in time should we have canceled it, and why 
was it not canceled earlier? Why did we get to $1 billion 
before we realized this was unworkable? If we do not do this 
analysis, I know this is going to happen again. I just know it. 
So what steps do you think we need to memorialize here that 
would be instructive to the future ECSSs that we could avoid 
wasting $1 billion of taxpayers' money?
    Mr. Donley. Senator, this is a very good question. There 
are two reviews underway, one in OSD, one inside the Air Force, 
to get formally the lessons learned out of this experience. In 
the case of the Air Force, we are treating it in terms of 
developing for the acquisition this process, the same kind of 
rigor and discipline that we put to an accident investigation 
process, why and how did this happen, in great detail.
    I will tell you that ECSS got lots of oversight and that 
the program was restructured at least twice over a 4- or 5-year 
period. That the program manager was held accountable, that the 
program was rescoped down to try to make it more implementable, 
and it got oversight not just from the Air Force but from three 
other offices in OSD.
    So deciding when we have gone far enough--we have 
restructured it once. We have restructured it a second time, 
and in this case the third review determined this is 
unrecoverable.
    So I am very interested in getting the results of these two 
reviews to see if it can help us decide earlier when we should 
cancel programs such as this. But we certainly went through 
restructurings and it certainly had lots of oversight.
    Senator McCaskill. Now with the fiscal restraints we have, 
it is going to be very important that we absolutely have a very 
clear document showing when mistakes were made and how they 
could have been avoided. We have good news and bad news about 
our military, and that is, our military is so good we think we 
can do anything. The bad news sometimes is our military is so 
good we think we can do anything. In this instance and many 
other instances I can cite, a failure to give up ends up being 
very costly for the bottom line, and that is just something we 
cannot afford going forward.
    So I will look forward to those reports. I will continue to 
follow up on this subject until I feel like we have real clear 
guidance as to where mistakes were made and how we can avoid 
them in the future.
    I will continue to want to work closely with you, General 
Welsh, in a way that is responsible on the UCMJ on these cases, 
and I will look forward to any kind of information I can get 
about the replacement for the lieutenant colonel who was 
arrested over the weekend. Thank you.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your testimony.
    I am going to try to squeeze three issues in to my 8 
minutes. So I think on the first one, let me just make a 
statement for the record, and perhaps we can talk about that 
later.
    I want to reiterate my concerns regarding the concept of 
the Air Force Total Force Plan (TFP) and its implementation. I 
remain deeply concerned about the fiscal year 2013 defense 
authorization conference decision made without consultation of 
all conferees, which enabled the Air Force to begin 
implementation of the TFP without hearings or adequate 
deliberation by the full Senate Armed Services Committee. I am 
convinced that some elements of the TFP were short-sighted and 
may adversely impact our intra-theater airlift capability at a 
time when our Services are evolving toward a more rotational 
deployment model.
    I say to my chairman and to my ranking member, I look 
forward to working with them as well and with the Airland 
Subcommittee chairman, Senator Manchin, on markup initiatives 
to help ensure the Air Force makes its force structure 
decisions based on the best possible understanding of long-term 
global force requirements. These decisions should not be based 
solely on artificial or self-imposed resource constraints.
    Now, having made that statement, let me move to another 
issue. I think what I will ask you to do is just take this 
series of questions for the record, but I want to get it out in 
public. It is concerning the Air Force's rotorcraft acquisition 
strategy.
    I understand you are considering a common support 
helicopter to recap your UH-1N fleet of aircraft. I believe 
there are existing and affordable replacement systems available 
to meet global strike command's nuclear missile security 
mission during the decades to come. So I would appreciate it if 
both of you could provide this committee with written answers 
concerning the following.
    Number one, current requirements for all UH-1N missions.
    [The information referred to follows:]

    The Air Force's UH-1N is flown by five major commands, which 
include multiple mission sets: Air Force Global Strike Command's 
Intercontinental Ballistic Missile (ICBM) helicopter security support, 
the Air Force District of Washington's National Capital Region Mass 
Passenger Transport, Pacific Air Forces' Operational Support Airlift, 
Air Education and Training Command's Air Force Survival School, and Air 
Force Materiel Command's flight test support.
    The current requirements for the various missions of the UH-1N are 
documented in the Joint Requirements Oversight Council's approved 
Common Vertical Lift Support Platform (CVLSP) capability development 
document. Although these requirements are no longer tied to a specific 
acquisition program (i.e., the CVLSP), the requirements for the UH-1N 
mission set remain valid.

    Senator Wicker. Number two, whether the Air Force 
requirements have been reviewed and validated since those 
missions were separated from the combat rescue helicopter 
program.
    [The information referred to follows:]

    The current requirements for the various missions of the UH-1N are 
documented in the Joint Requirements Oversight Council's approved 
Common Vertical Lift Support Platform (CVLSP) capability development 
document. Although these requirements are no longer tied to a specific 
acquisition program (i.e., the CVLSP), the requirements for the UH-1N 
mission set remain valid.
    Air Force Global Strike Command will continue to sustain the 
existing UH-1N fleet for the foreseeable future, and look for 
opportunities to acquire excess aircraft from other Department of 
Defense organizations at low or no cost to the Air Force.

    Senator Wicker. Number three, the findings and 
recommendations of the Air Force's request for information on 
the UH-1N modernization with regard to the costs of the program 
modification versus a replacement cost.
    [The information referred to follows:]

    In the case of the UH-1N, as stated in the original request for 
information (RFI), ``in terms of mission capability rates the UH-1 
remains one of the most reliable platforms within the USAF inventory.'' 
The purpose of the Air Force's RFI on UH-1N Modernization was to 
determine the feasibility of sustaining and making modest modernization 
enhancements to the platform via low cost options. The Industry Day 
presentations reaffirmed that the robust helicopter industry and the 
large number of UH-1's operating globally will enable the Air Force to 
effectively sustain the UH-1N until such a time that it can be replaced 
with an aircraft that provides all required capabilities.
    Air Force Global Strike Command has determined that the most cost 
effective way ahead includes safety and simulator modifications 
totaling just over $500,000 per aircraft in the near-term. Follow-on 
improvements to the forward looking infrared radar and secure 
communications at $100,000 to $200,000 per aircraft yield a total cost 
of less than $1 million per aircraft over a 10-year period. Compared to 
the previously assessed cost of the Common Vertical Lift Support 
Platform program, or any other new helicopter acquisition, this 
approach is far more cost effective for the Air Force.

    Senator Wicker. Number four, the current operational 
availability of the UH-1N fleet and the Air Force's assessment 
of any risk regarding the maintenance and adequate availability 
levels.
    [The information referred to follows:]

    The current UH-1N average aircraft availability for fiscal year 
2013 is 73.7 percent, meeting the Air Force Global Strike Command-
established standard of 73.7 percent. The future aircraft availability 
rate is projected to continue to meet or exceed the 73.7 percent 
requirement. We expect to maintain adequate readiness levels for the 
foreseeable future.

    Senator Wicker. Number five, whether the Air Force has 
evaluated potential replacement aircraft for any of the 
missions performed by the UH-1N.
    [The information referred to follows:]

    The Common Vertical Lift Support Platform was cancelled due to cost 
considerations in this constrained economic environment after 
determination that the Air Force could assume manageable risk in this 
area. Air Force Global Strike Command is no longer pursuing a Combat 
Rescue Helicopter option to replace the UH-1N fleet for similar 
reasons. Instead, Air Force Global Strike Command will continue to 
sustain the existing UH-1N fleet for the foreseeable future, and look 
for opportunities to acquire excess aircraft from other Department of 
Defense organizations at low/no cost to the Air Force.

    Senator Wicker. So having asked for that on the record, I 
will now see if I can let you gentlemen actually speak on an 
issue, and that is concerning the safety of our U.S. Air Force 
data security.
    There have been numerous media articles referring to an 
egregious breach of U.S. computer networks when the Chinese 
gained access to some data from the JSF program back in 2009. 
The incident was part of a wave of data thefts that year, 
during which Beijing stole proprietary and in some cases 
classified information from the U.S. defense contractors.
    I asked General Bogdan, the program executive officer for 
the JSF program, at a subcommittee hearing 2 weeks ago about 
these data intrusions. General Bogdan's testimony was this: DOD 
and our allies have a robust system in place to prevent cyber 
theft, but the general went on to say, ``I would tell you that 
I am not confident outside the Department.'' Then he went on to 
say that he is ``less confident about industry partners.''
    So let me ask you each about that, and I will start with 
you, Mr. Secretary. How confident are you about the Air Force's 
ability to secure classified and sensitive data within DOD data 
networks and how confident are you about the ability of our 
industry partners to secure this very important classified and 
sensitive data?
    Mr. Donley. Sir, I do believe we have the appropriate 
security protocols in place to protect key classified 
information in DOD. We have protected networks to do that on, 
and we work very hard to maintain appropriate security levels 
on each of our classified and unclassified networks.
    I will say that in the last 5 or 6 years, 7 years--since I 
have come back to DOD, really 8 years now, I have seen more and 
more attention to this issue progressively each year. We have 
learned from weaknesses or errors seen and experienced from the 
past. We developed strong partnerships with industry partners 
who are what I would call our prime contractors who deal with 
the JSF, for example, Lockheed Martin, Northrop, Boeing, other 
large contractors with whom we do lots of defense business.
    So we have a stronger network of collaboration among key 
industry partners today than we had, say, 5 or 6 years ago. But 
it is continuing work, and there is always a concern that we 
are covering all that needs to be covered.
    Senator Wicker. General Welsh?
    General Welsh. Senator, I would tell you that internal to 
DOD, the one thing that we have worked very hard on over the 
last year and will continue to work on and refine is the way we 
support U.S. Cyber Command (CYBERCOM) which, I believe, will be 
the orchestrator and the architect of the proper defense of the 
DOD information network. The Air Force has to be hand-in-glove 
with General Alexander and his people moving forward on this, 
and we are trying to identify clearly how we do that, what kind 
of training our people need to support him. They have been 
tremendously helpful in this regard, and the entire joint world 
is trying to move in that direction.
    Senator Wicker. Are you as confident about our industry 
partners as you are about security within DOD itself? Or do you 
agree with General Bogdan that you are less confident about our 
industry partners?
    General Welsh. Senator, first of all, I am not a technical 
expert on what industry is doing in every case. I believe we 
have some partners who are very reliable in this area, and 
there are probably some who are not as reliable. I would leave 
this up to the experts at CYBERCOM to offer a better assessment 
than I can give you.
    Senator Wicker. Are either of you aware of any further 
intrusions like the one I mentioned in 2009 into the Air Force 
research and development (R&D) and acquisition programs since 
that time? Either one of you?
    Mr. Donley. I think I would like to provide you an answer 
for the record on that. This is ongoing work.
    Senator Wicker. You could do that in a non-classified 
answer for the record.
    Mr. Donley. We will do our best to do that.
    [The information referred to follows:]

    The Department of Defense (DOD) Chief Information Officer recently 
released the latest National Defense Authorization Act (NDAA) Section 
935 2012 Report to Congress, which contains an unclassified summary of 
cyber intrusions.
    To summarize that report, in fiscal year 2012, the Office of the 
Secretary of Defense (OSD) investigated 86 cyber intrusions reported by 
Defense Industrial Base (DIB) participants. Fifty-four of the 86 were 
reported prior to fiscal year 2012 and 32 additional cases were 
reported during fiscal year 2012. Of the 86 cases, OSD cyber intrusion 
damage assessment entities concluded the analysis for all or part of 35 
cases. Twelve other cases were closed in fiscal year 2012 when the DIB 
cyber security and information assurance participant certified that no 
DOD information was involved. Most cases involve multiple DOD 
acquisition equities (e.g., programs, systems, or technologies).
    DOD is concerned with the vulnerabilities throughout the 
information and communications technology supply chain. As part of its 
ongoing efforts to institutionalize the Trusted Defense Systems/Supply 
Chain Risk Management (SCRM) strategies, DOD continued to develop 
policies and legislative input to formalize SCRM.
    Supply chain risks pose a complex and evolving threat to defense 
systems. In the January 2010 NDAA for Fiscal Year 2009 Section 254 
Report on Trusted Defense Systems, DOD described supply chain risks and 
DOD's strategies for countering those risks. During fiscal year 2012, 
DOD continued efforts to implement those strategies, policies, and risk 
management activities with the goal of developing a fully operational 
SCRM capability by fiscal year 2016.
    The Air Force can provide more details via a classified venue if 
requested by the committee.

    Senator Wicker. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator King.
    Senator King. General, do you fellows have data on the 
frequency of occurrence of sexual assault in the military or in 
the Air Force in particular versus the general society?
    General Welsh. Sir, anecdotally we do. One of the things 
that we have also learned in our discussions with RAINN is that 
that data is not easily available anywhere else. It is much 
better tracked inside DOD than it is in most places.
    I have talked to a number of university deans of student 
affairs, the vice president for student affairs. There are some 
who estimate that as many as 50 percent or more of their 
students experience some type of sexual harassment or unwanted 
sexual contact or sexual assault during their time at their 
university. I hate to try and characterize this as better or 
worse anywhere. It is a big problem for our Nation. It may be 
as big or bigger elsewhere.
    My view is that we can lead the pack in this. We have the 
ability. We have the organizational structure, the leadership, 
the training, the education, and a disciplinary system and a 
judicial process that allows us to attack every aspect of this 
problem. We should be the best in the world at it.
    Senator King. I am delighted to hear you say that. In 
dealing with these kinds of problems, often it is a cultural 
issue. You can do all the law enforcement and all of those 
things, but the culture is what you have to deal with. You and 
I grew up at a time when drinking and driving was more or less 
tolerated in this country. The culture changed and that has had 
a really profound impact. So I hope that--and I am sure this is 
the case--that within the Air Force, it has to become 
unacceptable culturally in the pub after work that this is just 
not something that we do.
    General Welsh. Senator, that is clearly what it has to be. 
Roughly 20 percent of our young women who come into DOD and the 
Air Force report that they were sexually assaulted in some way 
before they came into the military. So they come in from a 
society where this occurs. Some of it is the hook-up mentality 
of junior high even and high school students now, which my 
children can tell you about from watching their friends and 
being frustrated by it. The same demographic group moves into 
the military. We have to change the culture once they arrive. 
The way they behave, the way they treat each other cannot be 
outside the bounds of what we consider inclusive and 
respectful.
    Senator King. Thank you, General. I appreciate your 
attention to this.
    Secretary Donley, sequester. It keeps coming up. We talk 
about it at all of our hearings. There is a discussion around 
here that the real problem is flexibility and that you can take 
the cuts if you are given the flexibility. Now, you said 
something like transfer authority will not help. Can you focus 
this discussion for us? Because this is going to come up over 
the next year as we wrestle with this issue. If we gave you 
additional flexibility, would that substantially alleviate the 
impact of the sequester on the hollowing out of the force?
    Mr. Donley. Flexibility comes in a variety of flavors and 
colors. So, first of all, with respect to fiscal year 2013 and 
the way it has to be implemented this year and what we 
experienced, it came almost 6 months into the fiscal year. So 
it forced a very mechanical spread of dollars across all the 
accounts, but it forced that to happen in essentially the last 
6 or 7 months of the fiscal year. So it has had devastating 
impacts really on our ability to execute the budget that you 
all approved.
    Looking forward, there is no question in our minds that 
more flexibility is better, that being allowed to make choices 
about where to put emphasis in our defense planning and 
programming, to favor certain programs, to promote the 
strategic interests of the United States even as defense 
resources go down is an important goal. It is an important 
flexibility to have.
    But I would also offer that in doing this work, we need 
time. We need time to do this right. As you give us the 
flexibility, we also need to have the collaboration and the 
cooperation of Congress so that you understand the choices that 
we will be making and you will be comfortable with those as you 
approve our defense plans and budgets. It will not help if we 
make tough choices internal to DOD which Congress does not 
agree with or is not ready to make and you reverse or block 
those changes. So it is very important that we collaborate in 
this work going forward regardless of what the level is. But we 
need time to do it right.
    Senator King. But are you suggesting then that we can go 
ahead with the 10-year sequester and you can manage okay if you 
are given--I was under the understanding that you said transfer 
authority will not really help. Was that only for this year or 
in the future? This is an important question.
    Mr. Donley. Just to be clear, transfer authority for fiscal 
year 2013 will not help us out in this sense. What you are 
giving us when you give us transfer authority is the ability to 
move dollars from one account to another account inside the 
fixed constraints of sequestration. So in order to meet all our 
O&M requirements, for example, to fix all the OCO shortfalls 
and O&M shortfalls, we have to cut into modernization programs 
that right now we are not quite prepared to cut into yet. So we 
would have to start breaking contracts and doing other 
significant damage to modernization programs to pay operational 
bills for this year. That is not a good trade for fiscal year 
2013. We could set up those decisions for 2014 and 2015 if we 
were given the time to do that.
    Senator King. But are you saying that the figures you would 
get in 2014 and 2015 under sequestration are adequate if you 
have the flexibility to plan and move the funds around?
    Mr. Donley. No. My view is that the dollars implicit in the 
BCA, which involve a trillion dollars in cuts over 10 years, 
will have a devastating impact on our security policy and 
programs going forward.
    Senator King. Regardless of flexibility and transfer 
authority.
    Mr. Donley. You cannot take a trillion dollars out of the 
defense program and not have an impact.
    Senator King. The impact you just characterized as----
    Mr. Donley. Devastating. It will be force structure. It 
will be readiness. It will be modernization. To get a trillion 
dollars out will do significant damage to our military in my 
opinion.
    Senator King. The phrase you used earlier was, 
``significantly degraded readiness posture.'' Is that the 
characterization?
    Mr. Donley. That is how we are going to start fiscal year 
2014 most likely.
    Senator King. I am out of time, Mr. Chairman. I am going to 
submit some questions for the record on the long-term plans for 
the KC-46 and refueling, where that is going to go.
    I appreciate your testimony. Thank you.
    Chairman Levin. Thank you, Senator King.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Let me say to Secretary Donley, this being your last 
hearing, again as I alluded earlier to you privately that we 
thank you for your service and I particularly do. I have a 
major Air Force presence in my State. You have been very open 
to dialogue with respect to all the issues that we have had 
with regard to not just the facilities but with weapons systems 
and a broader range of issues that we have had to engage on. 
Your service is very much appreciated and I also appreciate the 
friendship that we have shared during your tenure. So we are 
going to miss you, but we certainly wish you the best.
    Gentlemen, I want to talk for a minute about JSTARS. I am 
very concerned with what I see the direction in which this 
weapon system is going. The E-8C aircraft is the military's 
premier and wide-area ISR aircraft with ground targeting 
capability. Secretary Donley, you and I have talked about this 
any number of times over and, General Welsh, you and I have had 
this conversation too, that every time I go into theater, which 
is often, and I mention to our combat commanders on the ground 
the word ``Joint STARS,'' their eyes light up because of what 
this weapon system has done from the standpoint of being able 
to address the enemy in whatever part of the theater they 
exist.
    The President's budget request cuts $10.7 million in R&D 
funding from the program and recommends the test aircraft, the 
T-3, be put into what I understand as preservation storage 
because the developmental program has concluded. However, there 
are multiple upgrade programs such as the National Guard's 
multi-agency upgrade that will require flight testing, and the 
Air Force is proposing in your budget request to place JSTARS 
test aircraft into preservation storage, again due to the 
conclusion of the development programs. But the Air National 
Guard continues their development programs and modernization 
efforts, funded and planned, which will require flight testing.
    How will the Guard complete flight test requirements for 
these programs without the T-3?
    Both the Air Force and the Guard have future plans for 
additional modernization programs for JSTARS. How will these 
programs complete flight test requirements without the T-3?
    Lastly, what are the costs associated with placing T-3 in 
preservation storage?
    Mr. Donley. Senator, I would like to get back to you on the 
record with a comparison of what is funded in the Active Air 
Force versus what is planned on the Guard side going forward 
for the E-8.
    [The information referred to follows:]

    Joint Surveillance Target Attack Radar System operational jets will 
be used to support test requirements when not providing their primary 
function of supporting combatant commanders and training forces for 
initial qualification and combat readiness. The cost of placing T-3 in 
storage is $57,000 for induction and $52,000 for re-preservation every 
4 years.

    Senator Chambliss. Okay.
    Any comments, General Welsh?
    General Welsh. No, Senator. I do not know the details of 
the Guard program. I agree with the Secretary. We need to get 
you the right answer.
    Senator Chambliss. Okay. I really am concerned that this 
program may be headed towards whatever preservation storage may 
be, and I am truly concerned about it.
    Mr. Donley. Sir, if I might, I would just offer too that 
this is a concern for us in the sense that we have done an 
Analysis of Alternatives (AOA) that suggests for this set of 
missions, the ground moving target indicator mission, going 
forward among varying levels of options and capabilities, the 
best solution is probably a business jet type aircraft with a 
new radar. That was the result of the AOA a couple of years 
ago.
    The issue for us is it is not funded. We simply do not have 
the resources. It is one of several programs where we know 
pretty much what we want to do. We pretty much understand the 
requirements, but the dollars are not there to fund those 
programs going forward. There is even more pressure on the 
modernization programs ahead, as I indicated.
    Senator Chambliss. In your response to Senator King, you 
talk about readiness being impacted in a big way, and this is 
another one of those areas where we are not going to be ready 
if we do not have the resources under sequestration.
    Let me move to another issue, G-222. There is a lot of 
conversation around the Hill these days that the Air Force has 
a $600 million program of airplanes that we purchased for use 
in Afghanistan and that those airplanes are sitting on the 
ground in Afghanistan not being used now and that they are 
going to be chopped up and thrown away versus some other more 
useful disposition being made. My understanding is that that is 
not really the case, but I want to give you an opportunity to 
address that issue and let us set the record straight with 
respect to, number one, what are the circumstances surrounding 
the termination of that contract, and number two, what is the 
Air Force's intentions relative to the disposition of those 
aircraft that are on the ground in Afghanistan today.
    Mr. Donley. Senator, as you suggest, the G-222 has been a 
troubled program for the Air Force. This was an early version 
of the C-27, procured on the used aircraft market to meet an 
urgent need for the Afghan air force. As those aircraft were 
delivered, they had sustainment problems from the very 
beginning. First it was propellers. A year later, it was supply 
chain issues. They faced a number of spare parts and 
performance-related materiel crises over several years. Again, 
after working with the contractor, we simply concluded that 
this was not recoverable. We were not delivering--the 
contractor was not delivering the ready aircraft required under 
the contract.
    So we have worked with the Afghans. They have identified a 
C-130-like aircraft as the best option for them going forward. 
The G-222 was actually always intended as a bridge to a future 
capability, and the cancellation of the G-222 program will get 
us to the C-130-like capability more rapidly.
    So Secretary Carter and the rest of the defense leadership 
has us focused on making this transition as quickly and as 
effectively as we can. We have no plans for the disposition of 
the G-222 at this point. So there is simply no good option in 
front of us at this point.
    Senator Chambliss. As you proceed down the decision-making 
process route, I hope you will keep this committee informed of 
what you do intend to do there because, obviously, that was a 
lot of money to be spent. I understand the problems that 
existed, but we just need to know what is going to happen with 
the resources that were used there.
    Mr. Donley. We will keep you posted.
    Senator Chambliss. Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here today.
    I am a dad. I have a son and daughter, and moms and dads 
all over the country put their most precious resource, their 
most precious treasure in our hands. We have to get this right 
in the area of sexual assaults and sexual harassment. We have 
to have zero tolerance. I believe that you will work nonstop to 
make sure we get this right and look forward to your efforts on 
that. We will be watching closely to make sure that happens.
    I was with a group of Senators and Representatives that 
just returned from Afghanistan a few days ago. While we were 
there, there was a discussion about the need for the Afghan 
troops to continue to have air cover after we are gone. One of 
the discussions that took place was that there is a contract 
dispute right now over planes that are going to go to the 
Afghan air force. This dispute continues. I am very concerned 
about making sure that the Afghan army, the Afghan police have 
the ability to have the same kind of quality air coverage that 
we provide to our soldiers as we step back. I was wondering 
what are the plans to solve these disputes and to get this in 
place because the Afghan soldiers themselves said, look, we are 
concerned about the Medevac piece. If we are out there 
fighting, we need to get back. We need to have cover. So I am 
interested in your response.
    Mr. Donley. Just a couple of points, Senator. I will also 
ask the chief to chime in.
    This is the light attack support program, to which you 
referred, which we had a misfire on in our acquisition process 
over a year ago. We restarted that competition. We made a 
contract award earlier this year. It was protested, and that is 
currently being reviewed by the Government Accountability 
Office (GAO) currently. That usually takes about 100 days. The 
100-day clock will run out in the mid-June timeframe, I think.
    In the meantime, though, we have sustained the contract 
award that we made earlier this year to get the program 
started. This was an extraordinary action on our part. Normally 
we would have suspended that while waiting for the GAO to rule 
on this matter, but we decided to go ahead because of the 
commitment we had made to the Afghan air force to get this 
capability to them next summer. We are already behind in that 
work, and we are dedicated to doing that.
    They will not have the same kind of capability that we are 
exercising over Afghanistan today. I do believe they are on 
track to building a small but effective air force. One of their 
backbones right now is the MI-17 helicopter, and they have been 
doing casualty evacuation work in this regard and stepping up 
into that mission.
    Chief?
    General Welsh. Yes, Senator. I would just add that nobody 
anywhere has the kind of air support that we give our troops on 
the ground and they never will.
    The Afghans will get what they need from the A-29. It will 
provide them the capability they need to be successful in the 
battlefield, I believe, if we can deliver it on time. The plan 
is still to deliver it by the end of calendar year 2014, and 
that is what the Commander of International Security Assistance 
Force, General Dunford, is expecting us to do.
    Senator Donnelly. Great.
    In Syria, in regards to a no-fly zone, whether it is--20 
percent has been discussed. 100 percent of the entire country 
has been discussed. How difficult is that to put in place? How 
many airmen, soldiers, marines, Navy are required to do that?
    General Welsh. Senator, I think the number is completely 
dependent on the plan itself, and I am not privy to the 
detailed planning that is going on for options in Syria.
    I will tell you that the forces we have that are not flying 
right now will be likely required to maintain a no-fly zone 
over time. A lot depends on where you can actually base the 
aircraft which are enforcing the no-fly zone. You cannot do it 
all from carriers in the Levant. We do not have enough. You 
will have to do land basing. If they can base in countries 
nearby, you need less tanker support. If you have to move 
farther away, you need more tanker support. There are a lot of 
variables that will drive the size of this operation.
    Senator Donnelly. When you look at that, does a no-fly zone 
over 20 percent of the country--is that effective? Does that 
change the game at all?
    General Welsh. Senator, I think that is completely 
dependent on the objectives you are trying to accomplish. As I 
said, I am not in that discussion.
    Senator Donnelly. In regards to unmanned air systems, can 
you talk to us about the future of the unmanned air systems in 
the Air Force? What role in the Federal Aviation 
Administration's (FAA) task of integrating the unmanned 
aircraft systems (UAS) into the National Airspace System (NAS) 
by September 2015--what role is the Air Force going to play in 
that, sir?
    Mr. Donley. Sir, we are members of the NAS review process. 
We have Air Force staffers, Air Force officers assisting FAA in 
this work. Their choice about which locations to choose for 
demonstrating, I think it was, six different locations across 
the Nation--that is an FAA decision that we are not privy to. 
But they did come to us and ask for advice on how to set up 
that process.
    RPAs have a future in our Air Force. There is no doubt 
about that. We have new career fields and capabilities that we 
did not have 10 years ago that we are going to maintain into 
the future.
    Senator Donnelly. One of the proposals out there is a joint 
proposal between the States of Indiana and Ohio to be one of 
those six UAS test sites.
    As you look at the fiscal year 2014 budget, it requests 
approximately $90 million for Air Force research, development, 
test and evaluation, human effectiveness, applied research for 
trusted autonomy. Do you think that that level of funding is 
sufficient for the study of the UAS autonomous systems?
    Mr. Donley. Sir, I am not familiar with the details of that 
particular proposal, but I will get you an answer for the 
record on that.
    [The information referred to follows:]

    The total Air Force research, development, test and evaluation 
(RDT&E) budget request for research in trusted autonomy is sufficient. 
The $89.483 million request for Air Force RDT&E, Human Effectiveness 
Applied Research (Program Element 0602202F), contains a broad portfolio 
of human-centered research in the areas of airmen training, airmen 
system interfaces, bioeffects, deployment and sustainment of airmen in 
extreme environments, and understanding and shaping adversarial 
behavior. Of this amount, $3.1 million is specifically targeted to work 
in the area of trusted autonomy for unmanned aircraft systems. The Air 
Force Research Laboratory has a well-coordinated investment in trusted 
autonomy research as it relates to integration of remotely piloted 
aircraft in the national airspace. The research investment in this area 
is balanced across multiple technology areas and program elements to 
develop and demonstrate technology options to our warfighters in the 
timeframe they require. The Air Force is also leading a cross-Service 
effort, called the Priority Steering Council for Autonomy. This group 
has identified two technical challenge areas related to trusted 
autonomy: (1) human/autonomous system interaction and collaboration; 
and (2) test, evaluation, validation, and verification. There are many 
shared goals in these technical challenge areas that have resulted in 
ongoing, collaborative cross-Service research efforts focused on this 
issue.

    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Nelson [presiding]. Senator Gillibrand?
    Senator Gillibrand. Thank you both for your extraordinary 
service and for the hard work you do every single day.
    I want to continue the line of questioning that was started 
by Senator Levin concerning sexual assaults in the military, 
and I want to start with you, Secretary Donley.
    You said that you believe the chain of command needs to 
retain its authority to make determinations of whether or not a 
sexual assault charge should go to trial because you believe 
that that authority is necessary to maintain good order and 
discipline within the ranks.
    Now, fiscal year 2011 had 19,000 cases of sexual assault 
and rape, 3,192 reported, 190 convictions. The fiscal year 2012 
report has come up with higher numbers, 26,000 cases and barely 
more reported, 3,374.
    Obviously, this is not good order and discipline. So are 
you saying that every commander in the chain of command is 
failing in our military today?
    Mr. Donley. No, I am not, and I would say that the changes 
in the numbers that we are seeing are a matter of some debate 
and we are not really sure whether the numbers of increasing 
reporting reflect a higher incidence or they reflect more 
confidence in the system so we are getting more reporting of 
incidents that had already been taking place----
    Senator Gillibrand. Secretary Donley, take the lower 
number. Let us not even take the supposed cases of 19,000. Let 
us just stick with the 3,000 reported cases. If that is too 
high for you, let us stick with 190 convictions from last year.
    Mr. Donley. The numbers are too high. We agree with you on 
that. The issue that you asked about is whether or not 
commanders ought to be involved in this work, and I guess in my 
judgment--and I will defer to the chief to chime in here--
commanders need to be part of the good order and discipline for 
their units. If they are cut out in some specific way, it is 
not good. It kind of separates them----
    Senator Gillibrand. They are failing in this regard, sir. 
This is a regard in which there is clearly insufficient 
training, insufficient understanding. If the man in charge for 
the Air Force in preventing sexual assault is being alleged to 
have committed a sexual assault this weekend, obviously there 
is a failing in training and understanding of what sexual 
assault is and how corrosive and damaging it is to good order 
and discipline and how it is undermining the credibility of the 
greatest military force in the world. This is not good enough.
    Now, General Welsh, in answer to the same question from 
Senator Levin, you said you did not know what we would be 
fixing by removing the authority from the chain of command. You 
cite as proof for that that the chain of command does not 
disregard the recommendations of the lawyer.
    Do you have a sense as to why, if there are 19,000 or 
26,000 or some unknown number of sexual assaults and rapes 
within the military every year, such a fraction are reported? 
Could you surmise that it may well be that a victim has no 
faith in the chain of command on this issue, on sexual assault? 
Because going back to the gentleman whose job it is to prevent 
sexual assaults was just alleged to have committed sexual 
assault. Do you think perhaps that a victim does not believe he 
or she will receive justice because the chain of command is not 
trained, does not have the understanding of what sexual assault 
and rape actually is?
    So I do not think you should pat yourself on the back that 
your commanders have acknowledged and accepted the 
recommendation of their lawyers in a good percentage of cases. 
I am highly concerned that so few victims feel that they could 
ever receive justice that they will not report. So what I would 
like you to consider--and I would like thoughtful consideration 
of this--if we remove it from the chain of command, perhaps 
more people will report these cases because they are reporting 
them to a trained prosecutor who understands the nature of 
sexual assault and rape and will not discount their 
allegations.
    Already you are willing to agree that Article 60 is no 
longer needed because we see time and time again that after a 
jury's verdict, commanders are overturning that verdict. 
Imagine you are the assaulted victim who has just gone through 
a trial and because a commanding officer has said let us 
overturn the jury's verdict, you then have to salute the person 
who assaulted you. That seems to be a lack of justice.
    So I would like you to think this through because I have 
now heard from nearly everyone that somehow removing this one 
judgment--this one judgment--would unwind the discipline and 
order within the armed services. We are not taking away the 
commander's authority over almost everything else. I think 
there is a lack of understanding and training for this specific 
type of crime that is continuing to rise. So do you understand, 
General Welsh, that there is something that needs to be fixed?
    General Welsh. Senator, you referred to several different 
things. Let me try and break them apart just a bit because I 
have given this a lot of thoughtful thought.
    The number 800 is the one I focus on because I know there 
are 800 victims last year in the U.S. Air Force--792 people 
came forward and said they were victims, and we know an awful 
lot about that set of victims.
    I also know that in the last 3 years there has been one 
sexual contact case, one case out of 2,511 court cases, where a 
commander decided not to prefer it to court when a lawyer, 
well-trained, educated in the law, said he should. One case. We 
do not have commanders routinely overturning sexual assault 
convictions. There are two in DOD in the last 5 years that we 
can find. This does not happen all the time.
    The facts are critical as we try and figure out how we move 
forward to solve the problem because it is very easy to get 
distracted and derailed and focus on things that will not make 
this better.
    My concern is ensuring, if that is ever humanly possible, 
that no one else suffers from this crime. You know well, 
because you work this very hard, that there are lots of pieces 
to that. One is prosecution. I do not know if you were in the 
room when we had this conversation earlier, but I sat down with 
my JAG. We took our Air Force statistics because my concern is 
if we are seen as not prosecuting, people will not report.
    Senator Gillibrand. I heard your .05 percent. That is not 
what I am worried about.
    General Welsh. That is not the point I am making. RAINN 
took our data, put it in their model, and for 2012, according 
to their statisticians, we are 1-something percent below their 
prosecution rate and 3 percent above their conviction rate. So 
a fact on the table is that we do not have a very different 
problem than district attorneys' offices around the country 
have. It is a horrible problem, but it is the same problem. So 
that is not the critical issue that makes the military 
different.
    Senator Gillibrand. If one in five women say they are 
serving in the military and they are receiving unwanted sexual 
contact, that is a huge problem regardless of what you are 
looking at in the public sector.
    General Welsh. I am not comparing us to anything, Senator. 
I am trying to get at the problem that we have to fix. In the 
civil sector, there are people who can help us look at this. 
They have the same problem. We are reaching out to them. It is 
the same problem in universities, on Capitol Hill, and 
industry. It is the same problem. We should be working together 
to identify those things that help us resolve the problem in a 
meaningful way. That takes a very careful analysis of the data.
    Senator Gillibrand. One of the reasons why I am concerned 
that you are so focused on retaining this authority, if it is 
used in so few instances, why do you need to retain it? Because 
the reality is because it is in the chain of command, I 
believe--and this is what victims have told us time and time 
again--that it is why they do not report. So if you want to 
increase the number of reported cases, as opposed to these 
numbers that are unsure, vague, not sure if it is precise, 
whether it is 19,000 or 26,000 a year but only 3,000 
approximately are reporting, you have to remove it from the 
chain of command. The commander is not using the authority to 
overturn what the lawyers are recommending in hardly any cases. 
You have just said so. It is only a handful of not taking the 
recommendations to go to trial, and it is only a handful that 
are overturning those cases.
    But I think because it is in the chain of command, because 
this is what our witnesses have told us, people are not 
reporting. They do not feel that there is an atmosphere by 
which they can report safely. They are afraid of retaliation. 
They are afraid of being treated poorly by their commanders, 
being treated poorly by their colleagues. There is not a 
climate by which they can receive justice in the system. That 
is why I want the decision not to be part of the chain of 
command but be done entirely by trained professionals who may 
not have a bias or may not have a lens that is untrained.
    General Welsh. We did a survey recently in the third Air 
Force in Europe. 79 percent of the respondents said that they 
would report sexual assault if it occurred to them. That ends 
up not being true once they become victims. We find that 16 
percent of our victims report. So what changes when you become 
a victim? I think we all know. The things that cause people to 
not report primarily are really not chain of command. It is I 
do not want my family to know. I do not want my spouse to know 
or my boyfriend or girlfriend to know. I am embarrassed that I 
am in this situation. It is the self-blame that comes with the 
crime. That is overridingly on surveys over the years the 
reasons that most victims do not report. I do not think it is 
any different in the military.
    Prosecution rates in the Air Force for this crime----
    Senator Gillibrand. I think it is very different in the 
military. I think you are precisely wrong about that. 
Everything is about the chain of command. How you are seen by 
your peers and your commanders is the essence of whether you 
will have a successful career in the military.
    General Welsh. Ma'am, I am just relating what we get on 
surveys from our members. I cannot attest to the veracity with 
which they take the survey. I will take the data at face value 
until we have something better to work on.
    Our prosecution rate for sexual assault in the first 
quarter of this fiscal year--we have more cases referred to 
court than were referred in the entire year of 2011. It is 50 
percent higher than any quarter last year. We are working this 
hard.
    Senator Gillibrand. Thank you for your efforts, and I do 
appreciate what you are doing. I know every aspect in the 
military is trying very hard to address this scourge, and I 
appreciate your leadership on that.
    My time has expired.
    Chairman Levin [presiding]. Thank you, Senator Gillibrand.
    Senator Nelson.
    Senator Nelson. I think what you are hearing here is this 
is coming to the fore because a lot of people are beginning to 
speak out. This Senator had hearings on this not among the 
military but among the military contractors in Iraq, and I had 
these hearings 6 years ago. We had women who had been raped 
come forward and explain how everything was shuffled under and 
swept under the rug, how rape kits were not available, how 
there was always the pressure not to report. I think that what 
has happened is that there has been sufficient agitation now as 
being expressed by a number of the women Senators here on the 
dais that it is finally coming out. Of course, things need to 
change.
    What I found was that we could not even--this is the 
hearing 6 years ago--that we could not even get the U.S. 
attorneys to prosecute because they could not get the evidence 
because the evidence was never there when in fact we had a 
number of testimonies that would just tear your heart out.
    So thank you for what you are doing.
    Mr. Secretary, I want to personally thank you. You have 
served extraordinarily well. I remember when you were selected 
by Secretary Gates to come in and clean up a problem in the Air 
Force, and that was 5\1/2\ years ago and you have done that 
exceptionally well. I want to thank you for your service.
    Now, let me just ask a couple of quick questions. There is 
talk about another round of BRAC, and of course, that makes 
Senators nervous. But why is there not real concern about a 
BRAC in Europe? Why do we need the forces there that, in large 
part, were put there as a result of the Cold War? Why is that 
not a logical place to look?
    Mr. Donley. Sir, I would offer that the U.S. Air Force 
footprint in Europe is much smaller than it was during the Cold 
War. We can possibly make it a little bit smaller yet, and 
those discussions are underway with our joint partners and with 
OSD. But I will let General Welsh, who knows this theater like 
the back of his hand, address this in more specifics.
    But I will also offer that despite the range and speed of 
airpower and the flexibility it provides from the CONUS to go 
east or west in support of combatant commanders or worldwide 
commitments, geography matters. Geography matters, and so the 
collaboration that we have, the presence that we maintain in 
Europe provides throughput to the Middle East and other 
important areas and to North Africa as well.
    But I would let the chief talk about his experience in 
Europe.
    Senator Nelson. General, can you speak outside the Air 
Force as well?
    General Welsh. Senator, I think so. The U.S. Army did a 
very big reduction in Europe a couple of years ago. The Air 
Force has actually come down about 75 percent of its force 
structure in Europe over the last 20 years. There has been a 
significant lowering in force structure and size.
    We believe we can still streamline the footprint. We 
believe we can consolidate, we can realign some things and save 
money and close some infrastructure in Europe. We are in the 
process of putting that plan together. But as the Secretary 
said, there are some things that the United States will always 
want to have in Europe to support options for the Nation.
    Senator Nelson. Mr. Secretary, I just want to echo the 
commentary from Senator Chambliss' concerns regarding the 
grounding of the test aircraft in JSTARS, and he has already 
made that statement. General, I would address that to you as 
well.
    Tell me. Replacing the A-10--would something like the A-29 
help fill the gap in close air support?
    Mr. Donley. Again, I would offer the chief the opportunity 
to speak in more detail.
    But the F-35 is our preferred air-to-ground capability 
going forward. It is intended to replace the F-16. It is a 
multi-role aircraft, likely to replace the F-16 in numbers. I 
think it has the capability to replace the A-10 as well. But I 
will let the chief talk to this more specifically.
    One problem with the A-29 is its inability to operate in a 
highly contested environment. But I will let the chief respond.
    General Welsh. Senator, we have no requirement for the A-29 
in the U.S. Air Force. The environments that we are training 
for for the future--we need an airplane that can both operate 
in a contested environment and then swing to an uncontested one 
when able because we are, as Senator Inhofe mentioned earlier, 
the smallest Air Force we have ever been, and I think that 
downsizing will continue, which means we are having to make 
decisions like single-capability, single-mission airplanes are 
not as valuable to us as multi-mission airplanes.
    The F-35 can do the close air support mission. I think we 
will have to look at optimizing weapons for it for that mission 
in the future potentially, but the weapons that are currently 
in its projected inventory will allow it to do the job very 
well.
    Senator Nelson. I did not have the opportunity to hear 
Senator McCaskill's comments. She has put a hold on a promotion 
of an Air Force general, and as reported in the Washington 
Post, this was a general that overturned a conviction of a 
military court. Is that what it is? Can you cite something 
about the history of whether or not this is something that is 
done frequently?
    Chairman Levin. Let me interrupt your answer on this. I am 
going to run over and vote and come back. Senator Shaheen is 
over voting and is going to come back. There is a vote on, I 
should have started by saying. So when you are done, Senator 
Nelson, if you would recess this until either Senator Shaheen 
or I or other members come back.
    You folks may have a 5- or 10-minute break, in which case 
it is purely by chance, not by design. So do not thank me for 
it. We are punishing you here a little bit this morning.
    Anyway so, Senator Nelson, excuse the interruption.
    Senator Nelson [presiding]. Thank you.
    General Welsh. Senator, this was a case, one of only two in 
DOD in the last 5 years, where a convening authority has 
reversed the finding of guilt on a sexual assault charge. This 
was a case where there were actually two allegations of sexual 
assault against an individual and then some other lesser 
charges. On the principal charge of sexual assault, the subject 
was found not guilty. Or the second charge, he was found 
guilty, and he was found guilty of the lesser offenses that 
were not directly related.
    So the convening authority, reviewing the case in 
accordance with the UCMJ and our rules of court martial, made 
the judgment call that the evidence presented--after she 
considered the record of trial, the evidence presented and 
matters presented for clemency, which included other things, 
that the evidence presented had not met the burden of proof in 
her view. So she set aside the court conviction on the second 
charge of sexual assault and set aside the court on the other 
lesser charges and took those four charges and handled them all 
under nonjudicial punishment through Article 15 action. So she 
did not set aside with no punishment, but she set aside the 
court finding on that case. That is the case.
    It has only happened twice, that and a recent case at 
Aviano. That is it in all the Services in the last 5 years.
    Senator Nelson. Can you describe the facts in the Aviano 
case?
    General Welsh. In that particular case, sir, there was an 
allegation of sexual assault by a military member on an Air 
Force civilian. The convening authority convened the court. The 
court found the subject guilty of sexual assault, and sentenced 
him to prison. In the review process, the standard review 
process, again according to the UCMJ and the rules of court 
martial, the convening authority again reviewed all the 
evidence presented at trial and some additional information 
presented in the clemency package that was not available to the 
jury at trial. The convening authority decided again that they 
had not met the burden of proof in trial in his view, and he 
set aside the court martial findings.
    Senator Nelson. In this instant, the case that Senator 
McCaskill was involved in, was there any additional evidence 
that came in such as in the Aviano case?
    General Welsh. There was input from the victim through the 
victim's counsel included in the matter of clemency, and then I 
do not know exactly what was in the entire clemency package. I 
know roughly what it was. I have scanned through it all. But I 
do not remember how many letters of support, et cetera, were 
presented. I did not review all of the evidence presented in 
trial on this case. It happened a couple of years ago, and so I 
do not know if there was other evidence that the judge in that 
trial had not allowed in court that was presented to the 
convening authority. I do not know the answer. We can find that 
out for you, sir.
    Senator Nelson. I think this ought to be handled, but you 
have a Senator, Senator McCaskill, who is concerned about the 
convening authority and the convening authority's ability to 
proceed with a promotion. I would assume that that might be 
something that the Chief of Staff would want to review with 
regard to any additional evidence presented, as opposed to 
letters of support. As you just stated, in the Aviano case, 
there was additional evidence that had not been brought out at 
the trial. That would seem to me to be something that the Air 
Force at the highest counsel would want to know.
    General Welsh. Senator, we are in very close contact with 
Senator McCaskill. She has the complete record of trial. She 
has the justification from the convening authority. She has 
everything we have on this case. My JAG has spoken with her 
staff multiple times. I believe she has all the information she 
needs from us on this case.
    By the way, just to clarify, this is not a promotion. It is 
a lateral move that we have requested for this particular 
officer.
    Senator Nelson. If it is not a promotion, why does it have 
to come through the Senate Armed Services Committee?
    General Welsh. It is another three-star position, sir. She 
is in a three-star position currently and moving to another 
one.
    Senator Nelson. I see. Okay. Thank you.
    The committee will stand in recess, subject to the call of 
the chair. [Recess.]
    Senator Shaheen [presiding]. Thank you, everyone, for 
coming back in.
    To Secretary Donley and General Welsh, thank you both for 
your stamina this morning, for coming back so I can ask my 
questions as well, and especially thank you for your service to 
the country. Secretary Donley, I very much appreciate all of 
the time, energy, and expertise you have provided in your role 
as Secretary of the Air Force. I know that the country will 
miss you.
    Gentlemen, I am going to change the subject for a minute. I 
know my colleague from New Hampshire, Senator Ayotte, has 
raised this issue, and I would be remiss if I did not begin 
with asking you about the KC-46A basing decision. Now, I will 
spare you my talking points about Pease's great location in the 
northeast Atlantic and the success we have had integrating our 
Active Duty and our National Guard and the competence of 
everyone who is stationed there. But I do want to ask you if 
the decision about the basing of the new tankers is still on 
track and when you expect that to be announced.
    Mr. Donley. It is on track, ma'am. We do expect it later 
this month.
    Senator Shaheen. Great. Thank you.
    I know there have been some questions about the contract 
for the new tankers, but can you explain what the impact of 
continued sequestration might be, if there is any, and we have 
to renegotiate the contract for the KC-46A?
    Mr. Donley. We think that the current program is on track, 
179 aircraft, first developmental aircraft by fiscal year 2015, 
and I believe it is 8 aircraft by fiscal year 2017. We think 
the contractor is a good one both for the taxpayers and for the 
warfighter.
    One of my favorite reports to sign to Congress, which I do 
on a quarterly basis I believe, is that there have been no 
engineering changes to the KC-46 contract and there have not 
been since that contract was awarded. It caps the Government's 
role in this development contract at $4.9 billion. There is 
some cost and schedule--cost risk, I would say, not schedule 
risk that we know of, but cost risk to the contractor at this 
point. There is a minor impact from sequestration as we have to 
move dollars around to make sure that the KC-46 contract can be 
and is funded. We will continue to do that going forward.
    Senator Shaheen. So what would the impact be should we not 
address sequestration in the next fiscal year or the following 
fiscal year? Will we still be able to go forward with the 
contract?
    Mr. Donley. It would make it more difficult to do so. 
Depending on the flexibility provided by Congress to move 
dollars around various appropriations, that could impact our 
ability to meet contract obligations. But we are doing our 
utmost not to reopen this contract.
    Senator Shaheen. That is very good to hear. I certainly 
hope that we will do our utmost in Congress to address those 
automatic cuts from sequestration and to come up with a long-
term plan that means that not only will the military but no one 
within Government will have to have the impact of those cuts.
    But while we are talking about contracts, can we also talk 
about what impact that sequestration and furloughs might have 
on the JSF?
    Mr. Donley. Again, the JSF remains a very important 
priority for us. It has taken its share of reductions in 
sequestration. We have been able to accommodate those to some 
extent, but we are losing probably 3 to 5 tails out of our 
planned procurement for the Air Force of 19 aircraft in fiscal 
year 2013. Some of that will go to pay for continued 
development of the program which we are prioritizing. So the 
focus is on making sure the F-35 development program closes out 
before fiscal year 2018, and that is a firm commitment that the 
Joint Program Office is holding to, that the Services are 
holding to. There is no more money being provided to this 
program. So tradeoffs between procurement and development are 
an annual process, and sequestration forces us to take a couple 
of more tails in 2019 to support development.
    Senator Shaheen. Will that affect the long-term cost of the 
F-35?
    Mr. Donley. It will. We have made adjustments to the 
program in the last several years where we have pushed 
airplanes outside of the FYDP, and those would need to be made 
up at the end of the program. That does increase unit cost a 
little bit, extends the program out. So these are deliberate 
choices we are making. They do extend the life of the program a 
little bit longer and add cost.
    Senator Shaheen. So that even though we may see some short-
term savings, we are going to see some long-term increased 
cost.
    Mr. Donley. Yes, but hopefully marginally. As long as we 
stick to our current procurement plans and we maintain strong 
partnerships with the international partners that are part of 
this program and we do not take any action to substantially 
reduce the size of the program, then the cost per aircraft 
increase from these delays will be smaller than if we take 
these other actions.
    Senator Shaheen. Good. Thank you.
    Finally, gentlemen, I do want to raise my concerns, even 
though I know they have been raised by many of my colleagues 
here, about sexual assault in the military. We heard in my 
office last week not from a woman who had been sexually 
assaulted but from a man who had been sexually assaulted and 
not only once but over a period of time.
    So, General Welsh, you talked about the comparison between 
what is happening in the military and what is happening in the 
civilian world. As you pointed out, this is unacceptable 
regardless of where sexual assault happens. But can you talk 
about how you are making use of what has been learned on the 
civilian side about how to address sexual assault?
    This is an issue that I have worked on for probably 30-plus 
years in various capacities, and the things that I have learned 
from my experience that have worked have been opportunities to 
support victims of sexual assault, to make sure that they can 
be removed from the perpetrator, to ensure that there is a 
swift response on the part of law enforcement and that people 
understand what the punishment is going to be and that that is 
clear and swift and an awareness about why this is unacceptable 
among the general public.
    So can you talk about how you are making use of some of the 
lessons in the civilian world as you try and address this 
issue?
    General Welsh. Yes, Senator, I can. We have worked very 
hard to review both literature and to invite experts in, 
experts in the fields of prosecution, experts in the field of 
victim care, experts in the field of psychology, experts in the 
field of developing cultures and environments. We have been 
doing this for several years in the Air Force now and in DOD. 
We have made many changes.
    We do not know what effect they are having, but they are 
not having enough of an effect is the big point I would raise. 
We have to keep working this and we have to find a different 
set of things that may be game changers in battling this 
problem. That is why I stressed that we have to unemotionally 
assess this to the extent possible so that we can work together 
on the things that can be game changers, not the things that 
are not really at the source of the problem.
    For example, I have a dinner at my home later this week 
with a group, an industry group, that actually does work on 
building cultures and climates. The intent is to ask them if 
there is a way to put together something that we integrate into 
our training programs across the Air Force that helps develop 
focus on diversity, inclusion, and respect. We will not call it 
sexual assault training because that might not get us the 
result we want. We just change the way people think from the 
day they walk in the door. How do we take that wide spectrum of 
behavior and thought in society and bring it down into what we 
think is an acceptable spectrum of behavior when you are 
serving in this business. If we can start to make progress in 
that area, we can extend it throughout the course of a career.
    Now, we are trying to do all those things, find the areas 
where we gain traction, and then exploit those. The SVC, in my 
mind, is the one that has done that. Some of the things we have 
done differently are investigative processes. We have a new 
Office of Special Investigations special investigator course 
that we have now run three classes through, designed curriculum 
approved by initial attendees from outside the Air Force who 
are special victims prosecutors in the civilian world. So we 
have counselors, psychiatrists, special victims' prosecutors 
from the past who are helping us, and we are going to continue 
to do everything we can.
    Senator Shaheen. Did Lieutenant Colonel Krusinski have the 
benefit of some of those education programs before he was 
assigned to his role?
    General Welsh. Let me speak generally because I have not 
seen specifics of training completions that he has done. As I 
said, I just have not had time to look at that since we heard 
of this yesterday.
    He has completed all the standard Air Force training. We 
have annual training. We have recurring training. He has been a 
squadron commander in our Air Force. There is training that is 
required in squadron commander training before you take that 
role where this is included. He was a Force Support Squadron 
commander, and sexual assault response coordinators, et cetera, 
work under the Force Support Squadrons in our Air Force. So he 
is clearly familiar with the program. I do not know how far 
back his training record goes. Obviously, he had just completed 
his sexual assault response coordinator training and victim 
advocate training for this job last week.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you very much, Senator 
Shaheen.
    Just one quick question. You have given us some indication 
of the very few number of cases where fact findings by courts 
martial panels have been overturned by the convening authority. 
Could you, for the record, tell us--those related just to 
sexual assault case. So if you could tell us for the record 
whether there are any other cases and if so, what cases in the 
last same number of years--I think you were going back 5 
years--there were set-asides of findings.
    General Welsh. It is about 1 percent, just so you know. We 
will get you the details.
    Chairman Levin. If you could get us the actual numbers, 
that would be helpful.
    [The information referred to follows:]

    From 1 March 2008 to 28 February 2013, convening authorities 
disapproved findings in a total of 40 cases, 35 of which were not 
sexual assault. During that same timeframe, 3,713 cases were tried in 
the Air Force.

    Chairman Levin. There will be many questions that will be 
sent to you about either proposed legislation or legislation 
that has already been introduced asking for your opinion. There 
has been some legislation already introduced, which I 
understand has already been sent to the general counsel. There 
have been letters that have been sent to our chiefs, but there 
will be some additional letters that will be sent by me, other 
members of the committee. What we would ask you for is--we know 
we are going to get thoughtful responses, but we also need 
prompt responses because it is my plan and expectation that 
there will be legislation that will be taken up as part of the 
defense authorization bill's markup, which begins in June. So 
you could be getting letters regularly between now and then, 
but we would very much appreciate prompt responses to those 
letters.
    Nothing that was said here today by any of us was intended 
to affect or influence any judicial proceeding. Nothing that 
was said by any of us here today was intended to have any 
effect on any either pending or future judicial proceeding. I 
think we were careful to make that clear. But in any event, 
that is the position of this committee and our members to a 
person that we do not intend to influence any judicial 
proceeding by any comment that we make here because you have a 
responsibility in the military to dispense justice. We count on 
you to dispense justice for victims, but also for people who 
are accused of crime.
    We are going to do the very best that we can to see if we 
cannot bring our UCMJ up to date because there are some things 
that have happened since those provisions on the power of the 
convening authority were written, particularly in the area of 
appellate rights for defendants. So, we will be working hard on 
that and we will need your cooperation.
    We are very, very grateful to both of you for your 
testimony here today. It is very important to us that we have 
your views on not just the issues of sexual assault but also on 
the problems that you face in the Air Force, which are there in 
large numbers. So we are grateful for your service. 
Particularly, I say to you again, Mr. Secretary, you will be 
missed. You have been a really true friend, not just of the Air 
Force, but of our Nation, and we are grateful for that. We will 
see much more of you, General Welsh.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                        F-35: REPLACING THE A-10

    1. Senator Nelson. Secretary Donley and General Welsh, the Joint 
Strike Fighter (JSF) program is designed to replace the F-16 and A-10 
in the Air Force inventory. As you know better than anyone, the A-10 is 
designed to be low and slow in order to provide close air support (CAS) 
to ground forces, and it is heavily armored to protect the pilot and 
vital systems. How confident are you that the will the F-35 will be 
able to replace the core mission of the A-10?
    Mr. Donley and General Welsh. The Air Force is very confident in 
the F-35s' capabilities as an A-10 replacement.
    The F-35A in the CAS role provides increased survivability and 
lethality, and while stealth may not necessarily be required to conduct 
CAS in low intensity conflicts, F-35's fused sensors, precision 
weaponry, large payload, and data-link capability will offer distinct 
advantages.
    Selecting the appropriate CAS asset must take into account the 
threat, ground situation, target effects required, and a host of other 
dynamic factors. As the threat of advanced, mobile, surface-to-air 
missiles proliferates, the F-35's unique survivability may make it the 
best available fighter to conduct CAS in certain high-threat 
situations.

    2. Senator Nelson. Secretary Donley and General Welsh, would 
something like A-29 help fill the gap left in CAS?
    Mr. Donley and General Welsh. In the near- to mid-term, the Air 
Force believes it will be able to fulfill COCOM CAS requirements with 
acceptable, but increased risk. With declining budgets, the Air Force 
is emphasizing aircraft capable of performing multiple missions, rather 
than those uniquely optimized for CAS. Aircraft like the A-29 are 
optimized for precisely the kind of low-intensity, large-scale, 
sustained operations that the 2012 Defense Strategic Guidance de-
emphasized, saying ``U.S. forces will no longer be sized to conduct 
large-scale, prolonged stability operations.'' While the DSG does 
emphasize irregular warfare, presence missions and counterinsurgency 
operations, the Air Force believes that multi-role systems can 
successfully perform these missions at acceptable cost for short 
durations.
    As long as the President expects the Air Force to be able to 
deliver global reach, power and vigilance anywhere in the world at the 
moment of our Nation's choosing, airmen must be equipped and ready for 
that call. We remain committed to bringing decisive airpower to 
combined arms warfare campaigns, but budgetary realities mean we cannot 
afford platforms efficient at one end of the spectrum of conflict and 
unusable at the other. Fiscal pressure is forcing the Air Force to make 
difficult choices, such as not pursuing as much CAS capacity as we may 
like--and that the A-29 may deliver--in order to ensure we can deliver 
the forces needed to prevail in most consequential scenarios with a 
near-pear aggressor.
    The Air Force will continue to support the A-29 filling a building 
partnership mission. Should the demand signal for CAS, sustained 
stability and engagement operations, building partnership, or 
Department of Defense (DOD) strategic guidance change, we will continue 
to seek optimal weapons systems to fulfill our warfighting mission.

           JOINT SURVEILLANCE AND TARGET ATTACK RADAR SYSTEM

    3. Senator Nelson. Secretary Donley and General Welsh, Joint 
Surveillance and Target Attack Radar System (JSTARS) aircraft have 
proven themselves in all recent conflicts, including Libya. The 
decision has been made to terminate the re-engining program and the Air 
Force has indicated a need to upgrade the avionics sensors, as well as 
other systems to keep the aircraft viable. In light of the current 
budget environment and the need to recapitalize the fighter, bomber, 
and tanker fleet concurrently, do you believe it makes sense to 
modernize the JSTARS platform or to replace and invest in upgrading the 
platform?
    Mr. Donley and General Welsh. The Air Force considers the JSTARS 
mission areas of battle management and intelligence, surveillance, and 
reconnaissance, critical for combatant commanders' operations 
worldwide. In the fiscal year 2014 President's budget, the Air Force 
continues to fund modernization of JSTARS computer and radar processing 
equipment. Further, emerging requirements in command and control and 
intelligence, surveillance and reconnaissance make a compelling case 
for JSTARS recapitalization, even within today's challenging budget 
environment. To meet these emerging requirements, the Air Force is 
evaluating several options, including JSTARS recapitalization, in 
accordance with the recently completed analysis of alternatives (AOA), 
modernizing the existing E-8C fleet, or maintaining the status quo.

    4. Senator Nelson. Secretary Donley and General Welsh, why is the 
Air Force preparing to ground the test aircraft for a year?
    Mr. Donley and General Welsh. Due to the conclusion of 
developmental programs and no significant testing currently planned, 
the JSTARS T-3 test aircraft will be put into preservation storage. In 
fiscal year 2014, the National Guard Bureau's Multi-Agency 
Communications Capability integration will only require two test 
sorties on an operational aircraft.
                                 ______
                                 
               Question Submitted by Senator Kay R. Hagan

                           HIGH SPEED WEAPONS

    5. Senator Hagan. General Welsh, given the pivot to the Asia-
Pacific region, one of the unique challenges the military must face is 
the long distances involved between our bases and potential areas of 
action. In order to cover long distances in a relatively short amount 
of time requires higher speeds for both aircraft and weapons. DOD is 
focusing on high speed kinetic strike weapons and pursuing programs 
like the Conventional Prompt Global Strike program and the Air Force 
has the High Speed Strike Weapon program. What specific investments is 
the Air Force making in its research, development, testing, and 
evaluation (RDT&E) infrastructure and workforce to be able to 
effectively and affordably develop, test, and field these high speed 
weapons?
    General Welsh. The Air Force has made RDT&E investments for 
ballistic missile defense and hypersonic research (such as the X-51) 
that to a great extent can be translated to support programs such as 
Conventional Prompt Global Strike and the Air Force's High Speed Strike 
Weapon. Currently funded Air Force upgrades to our related 
infrastructure are being completed and we continually evaluate the 
operational and technological requirements of this emerging high speed 
kinetic strike technology against the RDT&E needs. The Air Force also 
makes it a point to promote partnerships with other government agencies 
such as Defense Advanced Research Projects Agency and the National 
Aeronautics and Space Administration Langley Research Center to 
maximize our opportunity for any future investments in this field.
    The Air Force RDT&E community is engaged across the relevant 
technical areas to effectively utilize personnel with experience in the 
high speed tactical concepts (supersonics, hypersonics) and ensure the 
next generation of workforce carries forward this expertise. The Air 
Force has previously developed a Science, Technology, Engineering, and 
Mathematics (STEM) Workforce Strategic Roadmap, called Bright Horizons, 
which we've been implementing over the past 2 years to assist in our 
RDT&E workforce planning. We are confident our current workforce 
approach will make certain we have the right skill sets in place as 
this technology matures into the operational realm.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III

                    SEXUAL ASSAULT IN THE AIR FORCE

    6. Senator Manchin. General Welsh, the arrest of Lt. Col. Jeff 
Krusinski was an embarrassment to the Air Force. With the gravity of 
the Air Force's sexual assault problems, it is perplexing to understand 
how--with over 200 general officers--the Air Force would appoint a 
Lieutenant Colonel as the face of the program. The Air Force's decision 
to assign a field grade officer to manage its sexual assault prevention 
program suggests the program was not a high priority. Given the 
importance of this issue, why did the Air Force not assign a general 
officer to lead its sexual assault program?
    General Welsh. The Air Force Sexual Assault Prevention and Response 
(SAPR) program was under the Air Force Services Directorate led by a 
Brigadier General at the time of Lieutenant Colonel Krusinski's arrest. 
The lieutenant colonel branch chief was responsible for SAPR policies 
and procedures. Following the events that have transpired over the last 
year to include the arrest of Lieutenant Colonel Krusinski, the Air 
Force has worked on creating a new directorate that reports directly to 
the Vice Chief of Staff of the Air Force. In June, this directorate was 
officially stood up under the direction of Major General Maggie 
Woodward. The new structure is significantly different than our 
previous structure as it will consist of over 30 functional experts 
across the SAPR spectrum to include medical, legal, personnel, law 
enforcement, public affairs, and research. This new headquarters SAPR 
structure will have a much greater capability to comprehensively 
address the crisis facing the Air Force. Four and three star 
commanders, wing, group, and squadron commanders, command chiefs, and 
supervisors are all charged with executing and enforcing our Air Force 
SAPR program. I have overall responsibility for the Air Force SAPR 
program and Air Force leaders at all levels.

    7. Senator Manchin. Secretary Donley, how are you addressing sexual 
assault involving servicemembers in the Air National Guard that are in 
a Title 32 status?
    Mr. Donley. Any servicemember who is sexually assaulted while in 
Title 32 status is encouraged to report the assault to the Sexual 
Assault Response Coordinator (SARC). The member will be assigned a 
Victim Advocate. Because Air Guard facilities and services are limited, 
we ensure these victims are provided information on civilian services. 
A line of duty determination may be accomplished to establish whether 
the assault occurred while the member was on active duty. All members 
assaulted while on duty will have access to medical care and spiritual 
counseling. They are also eligible for expedited transfer to a new unit 
if desired. If local law enforcement or the Air Force Office of Special 
Investigations declines investigating the title 32 sexual assault on/
off orders, the member's Adjutant General is able to contact the Office 
of Complex Administrative Investigations to request an investigation in 
accordance with Chief National Guard Bureau Manual 0400.01.

    8. Senator Manchin. Secretary Donley, are you comfortable that 
sexual assault is being adequately addressed in all three Air Force 
components?
    Mr. Donley. The Air Force recognizes we will not win our war on 
sexual assault until we have everyone on board to fight; Guard, 
Reserve, Active Duty, and our civilian workforce. We have taken great 
strides in the last year in working with the Total Force (Guard, 
Reserve, and Active Duty) to address sexual assault in the Air Force 
over a wide front of prevention, investigation and response. One 
example of this close teamwork was our Guard and Reserve components 
training alongside Active Duty members for Bystander Intervention 
Training. Additionally, our Total Force airmen now benefit from the 
many enhancements we have made in care and training for SARCs and 
Victim Advocates (VAs) who help AF members regardless of their title.
    Further, our Special Victims Counsel program is a pilot which 
empowers all Total Force airmen to come forward and ensures the legal 
process is better understood and not so daunting. We completed a Total 
Force Health and Wellness Inspection of over 200 installations and over 
700,000 AF military/civilian personnel ensuring that no materials were 
in the workplace which could be perceived as contributing to an 
unprofessional environment that tolerates sexual harassment or assault.
    Recently, we created a new AF SAPR directorate which is aligned 
directly under the Vice Chief of Staff of the Air Force and is led by a 
Major General. This new structure is significantly different than our 
previous structure as it will consist of over 30 functional experts 
across the SAPR spectrum to include medical, legal, personnel, law 
enforcement, public affairs, and research. This new headquarters SAPR 
structure will have a much greater capability to comprehensively 
address the crisis facing our Total Force and will work closely with 
Guard and Reserve leadership as we map out SAPR policies and 
procedures.
    However, there is a need for improvement as we identify our Total 
Force manning requirements and shortfalls. Currently, our Air National 
Guard bases do not have ``dedicated'' full-time SARC positions. These 
duties fall under the Air National Guard Wing commander executive 
officer. We are working with our Air National Guard leadership to 
address this problem. Lastly, we are able to offer only limited support 
beyond SARC/VA services to Res/ANG airmen who were assaulted outside of 
a duty status.

                              CONTRACTORS

    9. Senator Manchin. Secretary Donley, please provide the 
approximate number of contractors the Air Force presently has in its 
inventory. Has this figure gone up or down since last year?
    Mr. Donley. The Air Force reported approximately $26.5 billion in 
obligations which equated to 141,300 contractor full-time equivalents 
(CFTEs) to Office of the Secretary of Defense (OSD) for Personnel and 
Readiness (P&R) and OSD for Acquisition, Technology, and Logistics for 
inclusion in the DOD's fiscal year 2012 Inventory of Contracts for 
Services (ICS) pursuant to section 2330a of Title 10, U.S.C. (fiscal 
year 2012 data is the most recent and is due to Congress by 30 Jun 13). 
This is a gross reduction of 25,200 CFTEs from our fiscal year 2011 ICS 
that identified approximately $33.6 billion in obligations which 
equated to 166,500 CFTEs performing these same type services.
    Note: Approximately 21,400 CFTEs of this reduction is directly 
attributable to a change in methodology when the data is normalized 
between the last 2 years. This change captured service obligations 
embedded in supply and equipment contract actions (18,300 CFTEs) and 
excluded supply and equipment obligations embedded in service contract 
actions (39,700 CFTEs) based on the object class definition of the 
funding source identified in the initial stages of our ICS review 
process.

           impact of the sequester on air force end-strength
    10. Senator Manchin. General Welsh, if the current budget control 
caps remain in place, will you propose reductions to the Air Force's 
authorized end strength? If so, what are those reductions by component?
    General Welsh. The Air Force will program military, civilian, and 
contract support end strength to perform required capabilities 
consistent with the National Military Strategy and fiscal constraints.
    If Sequester remains in place for the next 9\1/2\ years the Air 
Force will look different. If the gross effect is to take 10 percent 
off everything then that would translate to about 33,000 Active Duty 
airmen separated and about 700 aircraft taken out of service. Similar 
reductions in the Guard and Reserves would equate to a loss of 10,000 
and 7,000 positions, respectively.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand

                         INTRA-THEATER AIRLIFT

    11. Senator Gillibrand. General Welsh, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2013 provided the Air Force 
with the authority to decide the type of intra-theater airlift aircraft 
to retain. The Air Force made the strategic choice to divest the C-27J 
and maintain the C-130 as the single airframe in the intra-theater 
airlift inventory. I fully support your decision; however, I am 
concerned that you provided C-130 aircraft back to units as 
predominantly back-up aircraft. These aircraft did not come with 
personnel or flying hour allocations. While I understand your rationale 
to maintain force structure at a reduced cost, how will units maintain 
the scheduled and unscheduled maintenance on these airplanes without 
the personnel allocations to do so?
    General Welsh. Back-up aircraft are typically assigned to units 
over and above primary inventory to allow for scheduled and unscheduled 
depot level maintenance, modifications, inspections and repairs. The 
2013 NDAA placed aircraft into units that previously did not have back-
up inventory and only placed one aircraft per unit. Although the 
additional total inventory comes with an incremental cost increase in 
Weapons System Sustainment, the additional aircraft should benefit the 
gaining units with additional operational and scheduling flexibility.

    12. Senator Gillibrand. General Welsh, do you believe this lack of 
resources will hurt unit morale?
    General Welsh. The addition of one back-up aircraft to selected C-
130 units should not adversely affect morale. The intent of back-up 
aircraft is to offset depot level maintenance, modifications, 
inspections and repairs. Although every back-up aircraft placed into 
service comes with incremental increased costs at the enterprise level, 
a single back-up aircraft can actually be a benefit to units by 
providing greater flying and maintenance scheduling flexibility and 
increased ground training opportunities.

                      CYBERSECURITY/NATIONAL GUARD

    13. Senator Gillibrand. General Welsh, the fiscal year 2014 budget 
indicates a large investment in our military's cyber capabilities. DOD 
approved a major expansion of the U.S. Cyber Command (CYBERCOM) to 
include growing its ranks from around 900 to 4,900 personnel, or cyber 
warriors, which I understand will fortify DOD's own networks, help plan 
and execute offensive attacks, and protect critical infrastructure like 
power grids and power plants. The fiscal year 2014 budget asks for a 
large increase in offensive and defensive appropriations for Air Force 
cyber projects. Is this investment mostly for technology development, 
or does it include personnel training and recruitment as well?
    General Welsh. This investment is for both technology development 
and personnel. About $74.7 million of CYBERCOM's funding increase went 
toward research and development and another $74 million went toward 
personnel-related activities. This includes plus-ups in Air Force 
civilian and contractor pay, information technology costs, supplies, 
travel, and security clearances. Additionally, the Air Force increased 
funding to its cyber hunter teams that provide security for Department 
of DOD networks by $3.6 million in fiscal year 2014. Lastly, the Air 
Force sourced its initial military manpower requirement for CYBERCOM's 
Cyber Mission Forces, a total of 39 officers and 130 enlisted.

    14. Senator Gillibrand. General Welsh, what is the Air Force doing 
to recruit the best and brightest cyber talent?
    General Welsh. The Air Force targets potential airmen with cyber 
skills through national advertising campaigns highlighting STEM 
requirements as opposed to targeting cyber specifically. The Air Force 
also advocates and supports cyberspace and computer training and 
education programs nationwide to encourage high school and college 
students towards technical career fields. For example, we support 
national competitions such as the Air Force Association's CyberPatriot 
competition for high school students. Additionally, the Air Force 
Institute of Technology's Center for Cyberspace Research hosts the 
Advanced Cyber Education (ACE) summer program for Reserve Officer 
Training Corps cadets from all Services who are studying computer 
science or computer/electrical engineering. Unfortunately, ACE has been 
canceled for 2013 due to funding constraints as a result of 
sequestration but we hope to be able to hold ACE again in future years.

    15. Senator Gillibrand. General Welsh, what mechanisms do we have 
in place to encourage cyber studies at the U.S. Air Force Academy 
(USAFA) and in Reserve Officers' Training Corps (ROTC) programs across 
the country?
    General Welsh. All USAFA cadets learn about cyber fundamentals and 
Air Force cyber operations during their first year in the core 
Introduction to Computing course. The cyber operations content of this 
course was recently increased from 5 to 16 of the 40 lessons and now 
includes many offensive and defensive cyber operations exercises 
conducted on USAFA's virtual Cyber Training Range. In the summer, 
between their first and second years, USAFA cadets have the opportunity 
to take the week-long basic cyber operations training course. This 
training is taught by upper-class cadets who have excelled in cyber and 
many who compete on USAFA's world-class Cyber Competition Team. 
Approximately 200 cadets per class attend this training and earn the 
cadet Basic Cyber Badge which they may wear on their uniforms. This 
exposure to cyber takes place before most cadets select their academic 
major in their second year.
    USAFA cadets who decide to pursue cyber studies in depth typically 
major in computer science-cyber warfare or computer engineering. In 
addition to earning an Accreditation Board for Engineering and 
Technology (ABET)-accredited degree, these cadets have opportunities to 
expand their knowledge in cyber. Each year about a dozen of the 
sharpest students in these majors get a top secret security clearance 
and spend 6 weeks working at the National Security Agency or the 
National Reconnaissance Office. Cadets also have the opportunity to 
conduct state-of-the-art cyber research in the Intel Corporation's 
anti-malware lab located at USAFA. Cadets who demonstrate exceptional 
cyber skills can earn a position on USAFA's 12-person Cyber Competition 
Team and compete against the best cyber teams around the world. The 
record-high enrollments in USAFA's computer science and computer 
engineering majors, over 200 cadets this academic year, are a good 
indication that cadets are encouraged and motivated to study cyber at 
USAFA.
    Air Force Reserve Officers Training Corps (AFROTC) enrolls cadets 
to meet Air Force cyberspace operations career field requirements which 
include a degree in Computer Science or 24 hours in 200 level or above 
STEM courses. AFROTC produces computer science, computer engineering 
and other engineering degrees that exceed accession targets. ROTC 
accomplishes this primarily through the scholarship program. There are 
currently 197 computer science and 173 computer engineer majors on 
scholarship and 293 more non-scholarship cadets in our program.
    Additionally, the Air Force Institute of Technology (AFIT) hosts 
the Advanced Cyber Education (ACE) program to encourage ROTC cadet 
cyber studies. ACE is a summer program for ROTC cadets studying 
computer science, computer engineering and electrical engineering. The 
program consists of an instructional component and cyber war games, 
hands-on internships and cyber officer development days that focus on 
the study of cyber as a revolution in military affairs. Unfortunately 
ACE has been canceled for 2013 due to funding constraints as a result 
of sequestration but we hope to be able to hold ACE again in future 
years.

    16. Senator Gillibrand. General Welsh, is the Air Force considering 
an incentive pay system that helps in the retention of military members 
with high-level cyber skill sets?
    General Welsh. Of the eight enlisted cyber Air Force Specialty 
Codes (AFSC), seven are currently receiving Selective Reenlistment 
Bonuses (SRB) in at least 1 year group. The SRB program is updated 
biennially, at the start of the fiscal year and mid-way through. As 
additional manpower authorizations are identified, we will be able to 
increase and adjust the bonuses as needed to mitigate low retention.

    17. Senator Gillibrand. General Welsh, leveraging citizen soldiers 
who work in the cyber industry every day and also serve their country 
in uniform through the National Guard and Reserve is imperative. 
Senator Vitter and I have introduced a bill to create and leverage a 
Cyber Guard. I received a positive letter from General Alexander and 
the National Governors Association about the idea. At the DOD posture 
hearing, I asked General Dempsey about the bill and he was also 
supportive. I'd like to work with you to ensure that we implement every 
available tool to recruit and retain a capable cyber force. Does this 
sound like legislation the Air Force will support?
    General Welsh. The Air Force recognizes the urgent requirement for 
high-end expertise as we build our cyber forces to meet future 
missions. To meet this need, the Air Force is actively participating in 
DOD CIO, OSD(P), OSD(P&R), and CYBERCOM working groups to address 
broadening the recruitment pool for all services. Currently the Air 
Force screens members based on test scores and educational 
achievements. Future plans include targeted recruiting and testing for 
cyber aptitude. In addition, the Air Force provides full-spectrum cyber 
training for the Total Air Force encompassing net ops, cyber offense/
defense, and exploitation for officers, enlisted and civilians alike. 
We have some concerns that, if enacted, the Cyber Warrior Act of 2013 
would actually hinder the efforts of DOD to build and strengthen cyber 
forces for two primary reasons.
    First, establishing 54 National Guard Cyber and Computer Network 
Incident Response Teams would limit the available recruiting pool. We 
recognize that the National Guard provides a great opportunity to 
recruit personnel willing to serve their country while retaining their 
civilian careers and service in National Guard cyber forces, combined 
with equivalent civilian experience, presents a great value for the 
Nation. Accordingly, we expect the Air Force Reserve to leverage the 
same advantage to develop cyber forces for the Total Air Force.
    Second, this bill would divert DOD resources that should be 
invested in creating skilled DOD cyber forces--from all Reserve 
components--to perform national defense missions and support Federal 
partners. Distributing cyber forces across 54 Cyber Teams could provide 
flexibility in response, and equip the Guard to respond in the wake of 
a cyber attack just as they do for natural disasters. Yet the inherent 
fluidity and flexibility of cyber technology permits cyber forces to 
use remote access to achieve their objectives. It is this flexibility 
that will allow the Air Force to partner with other Services and 
Federal agencies to build the world-leading cyber force by 
consolidating resources where possible, recruiting among all Reserve 
components, and distributing forces in appropriate locations, to serve 
all 54 States and territories.

       UNIFORMED SERVICES EMPLOYMENT AND REEMPLOYMENT RIGHTS ACT

    18. Senator Gillibrand. Secretary Donley, the NDAA for Fiscal Year 
2012 included a provision which amended the Uniformed Services 
Employment and Reemployment Rights Act (USERRA) of 1994 to include 
full-time National Guard members who are serving under Title 32 status 
for more than 5 years. This new provision ensures servicemembers who 
exceed the 5-year statute of limitations receive the same protections 
under the law as servicemembers serving on title 10 orders. Thus far, 
DOD has failed to issue any guidance for implementation of this new 
law. What is the status of the provisions implementation and why has it 
taken DOD so long to ensure our National Guard members are protected 
under this law?
    Mr. Donley. Section 575 of the NDAA for Fiscal Year 2012 amended 
section 4312(c)(4) of title 38 to add a new subparagraph (F) that 
exempts full-time National Guard duty (other than for training) under 
section 502(f)(2)(A) of title 32 when authorized by the President or 
the Secretary of Defense for the purpose of responding to a national 
emergency as declared by the President and supported by Federal funds, 
as determined by the Secretary concerned. In accordance with the law, 
when an operation is authorized by Secretary of Defense under section 
502(f)(2)(A) of Title 32, the Air Force will ensure that airmen receive 
a statement on their orders citing the authority under Title 38 
exempting the period of service from the USERRA 5-year limit.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal

                    AIR FORCE MILITARY CONSTRUCTION

    19. Senator Blumenthal. General Welsh, in order to bed down C-130 
aircraft at the Bradley Air National Guard Base, the aligning and 
training of personnel for the new mission along with the movement of 
the new aircraft must be considered. Given all these moving pieces, and 
as you have visibility through coming fiscal years, what are the 
necessary infrastructure projects--like hangar space and fuel cell 
size--that will facilitate a seamless changeover in aircraft type and 
maintain mission tempo?
    General Welsh. The National Guard Bureau conducted a Site 
Activation Visit (SATAF) at Bradley Air National Guard Base on 18-21 
Jun 13. The Air Force, the Air National Guard, and the base are 
integrating existing base assets; user facility needs; perceived 
facility modifications required, and environmental considerations to 
develop both their project list and the Description of Purposed 
Alternative Actions (DOPAA) for the Environmental Impact Analysis 
Process (EIAP) required by the National Environmental Policy Act 
(NEPA). To expedite our efforts, the contracts needed to complete the 
EIAP actions have already been awarded. As briefed to base leadership, 
the Air Force and the ANG plan to include the alternative project lists 
and the proposed timing of those projects developed as a result of the 
SATAF in the formal public release of the DOPAA, so we may comply with 
NEPA. There are several critical considerations that must be assessed 
and adjudicated including ramp configuration, hangar capacities, fuel 
cell requirements and other facility considerations. If existing 
situation cannot meet the requirements for the new mission, the ANG 
will propose facility projects to address the new weapon system 
requirements. Projected resource constraints will make it difficult to 
achieve current conversion timelines.

                             SEXUAL ASSAULT

    20. Senator Blumenthal. Secretary Donley and General Welsh, does 
the Air Force Inspector General treat the SAPR program as an item of 
special interest when conducting inspections of organizations and 
activities with responsibilities regarding the prevention and response 
to sexual assault as explained in Section 1611 of Public Law 111-383?
    Mr. Donley and General Welsh. Yes, the Air Force Inspection System 
has included the SAPR program as a mandatory inspection requirement 
within the inspection system since 1998. The new Air Force Instruction 
(AFI) 90-201, The Air Force Inspection System, continues to designate 
SAPR as a mandatory inspection item by Major Command IGs. The Air Force 
is implementing a new inspection system that increases compliance 
reporting and external oversight. In an early test of the new system in 
2013, Air Force wing commanders inspected and reported over 99 percent 
compliance with Sexual Assault Prevention & Response (SAPR) 
requirements.
                                 ______
                                 
           Questions Submitted by Senator Angus S. King, Jr.

                     AERIAL REFUELING MODERNIZATION

    21. Senator King. Secretary Donley and General Welsh, what is the 
long-term plan of the Air Force to sustain its aerial refueling 
capabilities, to include the fielding plan for the KC-46 and 
modernization plans for the KC-135 fleet until they can all be 
replaced?
    Mr. Donley and General Welsh. Replacement of the legacy KC-135 
fleet is planned to take place in three stages, KC-46, KC-Y, and the 
KC-Z. The initial increment fields 179 KC-46s by 2028, replacing 
roughly a third of the current capability. The Air Force will continue 
to evaluate the health of the current tanker fleet and invest, as 
required, to meet objectives outlined in the Defense Strategic Guidance 
and keep the legacy aircraft viable to the projected service life of 
2040.

    22. Senator King. Secretary Donley and General Welsh, what is the 
plan for the second and third--KC-Y and KC-Z--phases of the tanker 
replacement plan, and is that on schedule?
    Mr. Donley and General Welsh. The Air Force intends to begin the 
Next Generation Tanker (KC-Y) procurement in the mid/late 2020s as the 
current planned KC-46 procurement concludes. We are in the early stages 
of developing an initial capabilities document for KC-Y and plan to 
undertake an AOA by 2017. This AOA will explore several options 
including a continuation of the current KC-46 production line, a 
different commercial derivative effort, or a new development effort. 
KC-Y and KC-Z will conceptually explore a smaller, tactical complement 
to the KC-46 combining the capabilities of a penetrator (range, speed, 
signature technology, advanced avionics, defensive systems, and 
automated air refueling) with smaller size and lower infrastructure 
requirements to support advanced strike, special operations forces and 
combat search and rescue missions. KC-46A is on schedule and 
development of the KC-Y is awaiting approval for the Advanced Air 
Refueling Capability Concepts Developmental Planning effort.

    23. Senator King. Secretary Donley and General Welsh, how many 
refueling aircraft does the Air Force have in its inventory today, and 
how many does it anticipate having in the inventory after the KC-135 
and KC-10 fleets are replaced?
    Mr. Donley and General Welsh. Based on approved retirements in the 
fiscal year 2013 President's budget, the Air Force will have 456 
refueling aircraft in the inventory (397 KC-135s and 59 KC-10s) at the 
end of this fiscal year. The future refueling force structure will be 
based on current fiscal constraints and the Defense Strategic Guidance.

    24. Senator King. Secretary Donley and General Welsh, will KC-46, 
KC-Y, and KC-Z aircraft replace the KC-135/KC-10 fleet one-for-one, or 
will the capabilities of the new aircraft allow the Air Force to meet 
its refueling demands with less total aircraft?
    Mr. Donley and General Welsh. KC-46 is the first of a three step 
recapitalization strategy for air refueling. Its capabilities allow for 
a one-for-one replacement with the KC-135 tanker. Air refueling 
capability requirements involve not only ``fuel offload,'' but ``booms 
in the air'' as well. KC-46A will only replace approximately one third 
of our Nation's air refueling fleet, leaving approximately 220 
``Eisenhower-era'' KC-135s still in the inventory. KC-Y and KC-Z, steps 
two and three of the recapitalization process, are planned to replace 
the remaining KC-135s and KC-10s. However, an analysis of air refueling 
requirements must be accomplished prior to beginning each 
recapitalization step. For example, to determine capabilities required 
for a follow-on to the KC-46A (KC-X), Air Mobility Command, in 
collaboration with Air Force Material Command, are initiating a 
developmental planning effort in fiscal year 2014 to examine advanced 
air refueling capability concepts. Given the size of our legacy tanker 
fleet and the length of the current DOD acquisition and procurement 
processes, the Air Force must begin to examine future air refueling 
capability concepts now to ensure uninterrupted recapitalization of the 
tanker fleet.

    25. Senator King. Secretary Donley and General Welsh, do you 
foresee the need for any further consolidation of air refueling units 
or aircraft?
    Mr. Donley and General Welsh. As the fiscal and strategic 
environments evolve, the Air Force will continue to evaluate its air 
refueling enterprise and field the most operationally effective, 
fiscally-informed force structure ready for the Nation today and 
modernized to the support the Nation in the future.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                     READINESS AND FLYING HOUR CUTS

    26. Senator Inhofe. General Welsh, the Air Force had to cut 
approximately $10 billion over the next 6 months of fiscal year 2013 
due to sequestration. This includes a reduction of 94,000 flying hours, 
resulting in the grounding of combat coded squadrons that started on 
April 9. Please provide a complete list of Air Force flying squadrons/
units that have been, and those who have had, their readiness status 
reduced. Please include numbers of aircraft and personnel impacted by 
each squadron/unit grounding or reduced readiness status.
    General Welsh. Sequestration forced the Air Force to implement 
actions to flying units which forced some Regular Air Force units to 
cease flying operations while other units flew at reduced rates. The 
Air Force is continually adjusting unit flying rates to meet global 
operational commitments and deployment timelines within fiscal 
constraints. Due to the fluidity of these adjustments, the status of 
certain units may differ from what is listed in the chart below.
    The Air Force can also provide a detailed assessment of unit 
readiness status in a classified forum as needed.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    27. Senator Inhofe. General Welsh, are these grounded squadrons 
tasked to fill combatant commander (COCOM) operations plans?
    General Welsh. Almost all of our mission-ready units are already 
tasked to Secretary of Defense-ordered missions or forward-based, so 
the ability of the Air Force to provide requisite numbers of ready 
forces for emergent requirements is severely limited and will continue 
to become more difficult the longer we operate under these conditions. 
The flying hour reductions due to sequestration have caused the Air 
Force to continually adjust unit flying rates to meet deployment 
timelines and ensure global operational commitments are filled within 
fiscal constraints.
    Detailed descriptions of taskings and ability to meet operations 
plans are classified, but the Air Force can provide more details in a 
classified forum as needed.

    28. Senator Inhofe. General Welsh, what is the impact of our 
ability to fill all COCOM operational requirements, and what is the 
impact on conducting additional combat operations?
    General Welsh. Almost all of our mission-ready units are already 
tasked to Secretary of Defense-ordered missions or forward-based, so 
the ability of the Air Force to provide requisite numbers of ready 
forces for emergent requirements is severely limited and will continue 
to become more difficult the longer we operate under these conditions. 
The flying hour reductions due to sequestration have caused the Air 
Force to continually adjust unit flying rates to meet deployment 
timelines and ensure global operational commitments are filled within 
fiscal constraints.
    If non-mission ready forces are sourced for combat ops, the risk of 
higher casualties and collateral damage increases. The lack of ready 
forces limits strategic choices and increases risk.
    Detailed descriptions of taskings and ability to meet operations 
plans are classified, but the Air Force can provide more details in a 
classified forum as needed.

    29. Senator Inhofe. General Welsh, how many additional hours will 
have to be dedicated to bring all these units and their aircrews back 
up to mission ready status, and how much will that cost?
    General Welsh. In order to bring units back to pre-sequestration, 
sub-optimal readiness levels, it is anticipated the stood down units 
would need an additional 10 percent over the requested fiscal year 2014 
budget for flying hours and would require 3-6 months.
    Bringing the Air Force back to full, mission readiness goals 
requires one full training cycle (approximately 2 years) and an 
additional $3.2 billion increase above the fiscal year 2014 budget 
request for both fiscal year 2014 and fiscal year 2015, as well as a 
reduction in the number of current deployments.

    30. Senator Inhofe. General Welsh, is that cost factored into the 
fiscal year 2014 budget?
    General Welsh. The fiscal year 2014 President's budget submission 
does not factor in the cost of restoring the readiness of flying 
squadrons that have stood down due to sequestration. The Air Force is 
working to mitigate readiness impacts in fiscal year 2013. Through 
prioritization, efficiency efforts to make every dollar count and 
congressional reprograming actions, the Air Force is working to 
increase funding to the flying hour program. As our opportunity to buy 
back additional flying hours comes closer to an end, a more accurate 
picture of 2014 impacts will be possible.

    31. Senator Inhofe. General Welsh, as the Air Force focuses its 
flying hours on getting the grounded aircrews mission-ready again, what 
is the impact on the rest of the force?
    General Welsh. Since flying hours are contained within our 
operations and maintenance budget, additional flying hour funding will 
reduce critical base operating support or facility maintenance. 
Overall, the Air Force does not have sufficient operations and 
maintenance funding in fiscal year 2013 and will not in fiscal year 
2014 if the 2014 budget request is sequestered.

    32. Senator Inhofe. General Welsh, how will the student pilot 
pipeline be impacted?
    General Welsh. Under our current plan, we have allocated sufficient 
flying hours to enable our basic student pilot pipeline production to 
continue. However, we expect impacts if there is a civilian furlough 
because Air Education and Training Command maintenance and simulators 
are largely run by government civilians.

    33. Senator Inhofe. General Welsh, what are the safety risks 
associated with reduced flying hours?
    General Welsh. The Air Force designs our flying hour program model 
to provide requisite hours for aircrew to accomplish each unit's 
mission in a proficient manner. Diminished flying hours put these 
pilots at higher risk if they are called upon to execute operational 
taskings in a diminished readiness state.

    34. Senator Inhofe. General Welsh, how will the groundings impact 
the readiness of other mission-essential personnel, such as munitions, 
maintenance, and life support?
    General Welsh. The skill sets and training opportunities of our 
munitions handlers, maintenance, and life support personnel will erode 
in units where flying is curtailed. This will slow progression in skill 
level training for our maintenance personnel and contribute to 
challenges in readiness recovery.

            READINESS AND DEPOT MAINTENANCE CUTS/DEFERMENTS

    35. Senator Inhofe. General Welsh, constant deployments over the 
past 20 years have taken a toll on all Air Force aircraft. Fortunately, 
we have the best depot maintenance in the world, but it comes at a 
cost. Sequestration will result in deferring 60 aircraft and 35 engines 
into depot maintenance which will result in the grounding of some 
aircraft, further reducing the overall combat readiness of the Air 
Force. How will civilian furloughs affect depot maintenance, and what 
are the possible long-term consequences on the depots and the fleet?
    General Welsh. The overall depot maintenance requirement from 
fiscal year 2013 moving into fiscal year 2014 currently stands at 24 
aircraft and 84 engines. Internal mitigation and requested 
reprogramming efforts would decrease impacts; however a bow wave into 
fiscal year 2014 remains. In the near term, civilian furloughs are 
expected to reduce depot maintenance productivity by 25 percent for 
each week of furlough. This loss of productivity will increase flow 
days and depot possessed time impacting availability and readiness. 
With adequate sustainment funding, the Air Force anticipates a 2- to 3-
year recovery for the impacted fleets.

    36. Senator Inhofe. General Welsh, what are the safety risks 
associated with reducing depot maintenance?
    General Welsh. There are no safety risks with reducing depot 
maintenance. The depot maintenance reductions are a result of fewer 
depot inductions, but do not affect the quality of maintenance. The 
aircraft and engines that are not inducted will be grounded (not flown) 
until the required depot maintenance can be performed.

    37. Senator Inhofe. General Welsh, like flying hours, the Air Force 
starts fiscal year 2014 with a bow wave, or backlog, of depot and 
maintenance requirements, but the fiscal year 2014 budget does not 
include extra funding nor does it factor in sequestration. How much of 
the force can the Air Force return back to mission-ready status in 
fiscal year 2014, given these budget impacts?
    General Welsh. Internal mitigation and proposed reprogramming would 
reduce aircraft availability impacts in fiscal year 2013; however a bow 
wave of requirements into fiscal year 2014 remains. The Air Force will 
seek to minimize fiscal year 2014 near-term risks to readiness by 
making tradeoffs within weapon system sustainment to minimize the 
impact to those requirements that most directly impact readiness, 
including aircraft and engine overhauls. The Air Force will make 
adjustments throughout fiscal year 2014 to optimize funding to ensure 
aircraft are available to meet mission requirements.

    38. Senator Inhofe. General Welsh, how does that impact long-term 
time and cost to recover the fleet back to required mission-ready 
status?
    General Welsh. With adequate sustainment funding, the Air Force 
anticipates a 2- to 3-year recovery for the impacted fleets. The Air 
Force will continue to minimize risk by making tradeoffs within weapon 
system sustainment. However, the trade space for these tradeoffs will 
decrease as workload accumulates resulting in impacts to aircraft 
availability. Targeted force structure adjustments may decrease the 
recover costs and the length of the recovery period.

                   F-35 JOINT STRIKE FIGHTER PROGRAM

    39. Senator Inhofe. General Welsh, while the overall press on the 
F-35 continues to be negative, positive changes have been made in the 
program to include decreasing cost of each lot buy for the aircraft, 
lower than project concurrency costs, timeline milestones being met, 
flight tests surpassing goals, and a recent assessment by the 
Government Accountability Office (GAO) that is the most positive I have 
seen in the entire history of this program. The first operational 
squadron stood up at Yuma, AZ, in November 2012, and the first delivery 
of aircraft to Nellis Air Force Base (AFB) occurred at the end of 
February 2013. How many F-35s have been delivered to the Air Force and 
are they all currently flying?
    General Welsh. To date, 22 production F-35A aircraft have been 
delivered to the Air Force. An additional four F-35A aircraft were 
procured using system development and demonstration funds and are being 
used exclusively to support developmental testing at Edwards AFB. All 
26 F-35As are currently accruing flight hours.
    Of the 22 F-35As delivered to the Air Force, 12 are stationed at 
Eglin AFB, 4 are located at Nellis AFB, and 6 are located at Edwards 
AFB. To date, production F-35As have flown over 700 sorties and 
accumulated over 950 flight hours. In addition, the F-35A has flown 
over 1400 flight test sorties and accumulated 2,733 total flight test 
hours. The Air Force gains increased confidence in, and knowledge of, 
the F-35 weapon system with each sortie.

    40. Senator Inhofe. General Welsh, the Marine Corps is planning to 
achieve initial operational capability (IOC) of the F-35B next year. 
When is the Air Force planning to achieve IOC with the F-35A?
    General Welsh. The Air Force has recently established its IOC 
criteria for our F-35As, and based on the current program schedule, we 
have set an Objective date for achieving IOC of August 2016 and a 
Threshold date of December 2016. This IOC criteria is capability-based 
and is defined as 12-24 F-35As, with airmen trained, manned, and 
equipped to conduct CAS, interdiction, and limited suppression and 
destruction of enemy air defenses in a contested environment. Logistics 
and operational elements should also be in place, and the air system 
and personnel should be capable of deploying and performing the 
assigned missions. Should capability delivery experience additional 
delays, we will need to revise our timeline estimate.
    This criteria provides sufficient initial capability for the threat 
postulated in 2016. However, to meet the full spectrum of Joint 
warfighter requirements in future years, the Air Force requires the 
Block 3F capabilities delivered at the completion of the program's 
system development and demonstration (SDD).

                         NUCLEAR MODERNIZATION

    41. Senator Inhofe. General Welsh, the Air Force is responsible for 
two legs of the strategic nuclear triad: bombers and intercontinental 
ballistic missiles (ICBM); and tactical nuclear weapons delivered by 
fighter aircraft. Development of a replacement for the 31-year-old 
nuclear Air Launched Cruise Missile (ALCM) is 2 years behind schedule, 
no decision has been made for a follow-on to the Minuteman ICBM which 
we hope can be maintained until 2030, and a life extension program 
(LEP) for the B-61 bomb, an average age of 27 years--the principal 
nuclear weapon on the B-52, B-2, and fighter aircraft--has been delayed 
by 2 years from 2017 to 2019. Does the Air Force continue to support 
development of the Long-Range Strike Bomber (LRS-B), a nuclear long-
range stand-off weapon, a new ICBM, and future tactical fighters 
capable of carrying the B-61 nuclear bomb?
    General Welsh. Long-Range Strategic Bomber (LRS-B): The Air Force 
continues to support development of the LRS-B. The ``Strategic Guidance 
for a 21st Century Defense'' reaffirmed the requriement for a new, 
survivable bomber by highlighting its critical role in projecting power 
and deterring adversaries. LRS-B will be built with features and 
components necessary for the nuclear mission, ensuring nuclear 
certification within 2 years of conventional IOC. The President 
requested $8.8 billion in fiscal years 2014 to 2018 for the development 
of the bomber. Further programmatic, technical, and operational details 
are subject to enhanced security measures to protect critical 
technologies and capabilities.

        - Long-Range Standoff Weapon (LRSO): The Air Force continues to 
        support development of the LRSO program. The 2010 Nuclear 
        Posture Review directed the Air Force to conduct a study to 
        inform decisions about replacing the current air-to-ground 
        (AGM)-86B Air-Launched Cruise Missile (ALCM). The Air Force 
        conducted an AOA between August 2011 and December 2012, and its 
        conclusions were validated in May 2013. The LRSO program was 
        fully funded in the fiscal year 2014 President's budget. It 
        will be compatible with B-2, B-52, and LRS-B.
        - Ground Based Strategic Deterrent (GBSD): The Air Force 
        continues to support the GBSD program. The Air Force will 
        sustain the Minuteman III ICBM through 2030. The Air Force 
        programmed $21.1 million during fiscal years 2013-2014 for a 
        materiel solution analysis phase (including an AOA) to identify 
        potential follow-on ICBM solutions. The GBSD AOA will be 
        complete in late fiscal year 2014, in time to inform the 
        President's budget, facilitating replacement of the Minuteman 
        III ICBM in the 2025-2030 timeframe.
        - Future tactical fighters capable of carrying the B-61 nuclear 
        weapon: The Air Force continues to support carrying the B-61 on 
        the tactical fighters. The Air Force is pursuing two new lines 
        of effort to incorporate the B-61 into the F-35, while 
        remaining committed to ensuring legacy aircraft are modernized 
        and sustained to carry the B-61 for decades to come. The fiscal 
        year 2014 President's budget funded R&D efforts specific to 
        preparing the F-35 to integrate B-61s, and the Air Force 
        supports the Joint Program Office (JPO) timeline to deliver 
        nuclear delivery capability as part of the F-35's Block 4B 
        configuration.

    42. Senator Inhofe. General Welsh, what are the military risks for 
the Air Force nuclear deterrence mission should the B-61 LEP encounter 
further delays?
    General Welsh. The Air Force plans Life Extension programs with 
some margin to enable success through the transition. Delays that 
decrease that margin are cause for concern and require careful 
attention and planning to ensure requirements are met. The B-61 
supports the strategic nuclear mission performed by the heavy bomber 
force and also supports the United States national commitment to the 
extended deterrence mission performed by our European-based dual 
capable fighter force. Additional delays in the fielding of the B-61 
Mod 12 would increase the risk of aging issues in the weapons that 
currently support STRATCOM requirements and would undermine both the 
strategic and the extended deterrence mission, which is a central 
element of the U.S./NATO alliance.

    43. Senator Inhofe. General Welsh, why is the B-61 bomb an 
important capability? Why not arm our bombers only with nuclear cruise 
missiles?
    General Welsh. To hold all targets at risk, the Air Force requires 
both nuclear gravity weapons and stand-off cruise missiles. These 
capabilities are complementary, not redundant. As the primary nuclear 
gravity weapon employed by United States. long-range bombers and dual-
capable aircraft, the B-61 plays a central role in meeting STRATCOM 
requirements and providing extended deterrence and assurance to our 
allies. The B-61 is the only U.S. nuclear weapon capable of employment 
from U.S. Dual-capable aircraft (F-16/F-15E), bombers and NATO dual 
capable aircraft. Limiting the inventory to just nuclear cruise 
missiles will minimize our military capability to cover a wide variety 
of targets. Also, the B-2 will not be able to employ a nuclear cruise 
missile until the long-range stand-off missile is operational.

    44. Senator Inhofe. General Welsh, why hasn't the administration 
made a decision about a follow-on to the Minuteman ICBM?
    General Welsh. The Air Force is continuing to modernize the 
Minuteman III ICBM to sustain the weapon system through 2030. We are 
currently pursuing an AOA for the GBSD. The study is expected to begin 
August 13 and will define options for a Minuteman III follow-on 
providing capability well beyond 2030. The final AOA report is expected 
late fiscal year 2014 with a Milestone A decision expected in fiscal 
year 2015. The GBSD AOA will examine the following system approaches: 
(1) Baseline: sustain current capabilities, (2) Current Fixed: improved 
baseline to address capability gaps, (3) New fixed: a new, hardened 
silo-based system, (4) Mobile: ability to disperse upon warning and 
launch from various locations. Also considered will be a hybrid 
concept, a mixture of fixed silos and mobile based systems.

    45. Senator Inhofe. General Welsh, it can take up to 15 years to 
develop a new ICBM. If the Minuteman III comes out of the force in 
2030, we need to begin a new development next year. What options are 
being examined?
    General Welsh. The Air Force is continuing to modernize the 
Minuteman III ICBM to sustain the weapon system through 2030. We are 
currently pursuing an AOA for the GBSD. The study is expected to begin 
August 13 and will define options for a Minuteman III follow-on 
providing capability well beyond 2030. The final AOA report is expected 
late fiscal year 2014 with a Milestone A decision expected in fiscal 
year 2015. The GBSD AOA will examine the following system approaches: 
(1) Baseline: sustain current capabilities, (2) Current Fixed: improved 
baseline to address capability gaps, (3) New fixed: a new, hardened 
silo-based system, (4) Mobile: ability to disperse upon warning and 
launch from various locations. Also considered will be a hybrid 
concept, a mixture of fixed silos and mobile based systems.

                OVERSEAS CONTINGENCY OPERATIONS FUNDING

    46. Senator Inhofe. General Welsh, I am concerned that this 
administration is losing the ability to accurately budget for overseas 
contingency operations (OCO). Each of the Services has been required to 
expend base budget money to fund OCO requirements. Is there an OCO 
funding shortfall for fiscal year 2013? If yes, what is it?
    General Welsh. The Air Force has an $1.8 billion fiscal year 2013 
OCO shortfall in the Operation and Maintenance appropriations.

    47. Senator Inhofe. General Welsh, will DOD's upcoming 
reprogramming budget request eliminate the OCO funding shortfall?
    General Welsh. Yes, if fully supported by Congress, the upcoming 
reprogramming request eliminates the Air Force's fiscal year 2013 OCO 
funding shortfall.

    48. Senator Inhofe. General Welsh, will the Air Force fiscal year 
2014 OCO request include funds to address the fiscal year 2013 problems 
in both the OCO and the base budget for readiness shortfalls?
    General Welsh. The fiscal year 2014 OCO request does not include 
funds to cover fiscal year 2013 OCO or base readiness shortfalls 
resulting from sequestration. The fiscal year 2014 OCO request was 
formulated with input from CENTCOM, the Joint Staff, and OSD and is 
based on the best available estimate of operational requirements for 
fiscal year 2014.

    49. Senator Inhofe. General Welsh, did the Air Force get fully 
funded for its fiscal year 2013 OCO expenses? If not, what was the 
shortfall?
    General Welsh. The fiscal year 2013 OCO submission was based on 
budgetary assumptions made at the time of the submission. Congress made 
a variety of reductions to the request which, combined with operational 
reality has resulted in $1.8 billion shortfall in the Operation and 
Maintenance appropriations.

    50. Senator Inhofe. General Welsh, what is your fiscal year 2014 
OCO request?
    General Welsh. The fiscal year 2014 OCO request for the Total Force 
is $13.9 billion.

    51. Senator Inhofe. General Welsh, do you expect to be fully 
funded? If not, what would be the impact to readiness?
    General Welsh. Yes, the fiscal year 2014 flying hour program was 
built upon a fully funded fiscal year 2014 OCO request. If the OCO 
request is not fully funded, additional units will be required to 
reduce and/or cease flying to ensure continued OCO operations. This 
will have a detrimental and long-term readiness impact.

                        SPACE LAUNCH CAPABILITY

    52. Senator Inhofe. General Welsh, the Air Force fiscal year 2014 
budget seems to indicate it will save the Air Force $1 billion over the 
fiscal years 2014 to 2018 budget from doing a block buy of rockets from 
the incumbent Evolved Expendable Launch Vehicle (EELV) provider. Is 
that correct? Please explain your answer.
    General Welsh. Yes. As a result of the new acquisition strategy, 
which was validated by the OSD Cost Assessment and Program Evaluation 
independent cost estimate, the program has achieved $1.1 billion in 
savings over fiscal years 2014 to 2018. The new acquisition strategy 
incentivizes the incumbent to order material from vendors in quantity 
sets allowing for maximum economies of scale savings.

    53. Senator Inhofe. General Welsh, does the Air Force current 
launch capability meet the full spectrum of launch requirements by the 
Air Force and its users?
    General Welsh. Yes, the EELV can launch the entire National 
Security Space manifest to all required orbits.

    54. Senator Inhofe. General Welsh, does demand exceed current 
launch capabilities?
    General Welsh. No, the United Launch Alliance is capable of meeting 
the National Security Space launch capabilities.

                            FORWARD PRESENCE

    55. Senator Inhofe. General Welsh, how critical is a forward-
deployed presence in U.S. European Command (EUCOM) and U.S. Pacific 
Command (PACOM)?
    General Welsh. Our forward-deployed presence in EUCOM and PACOM 
supports our national interests and is an essential element of our 
alliances in both theatres. Although the formal makeup of the alliances 
differ, the presence of United States capabilities in theatre 
demonstrates our commitment, provides opportunities to develop alliance 
interoperability, and keeps our forces trained for employment anywhere 
in the world. Our combat-ready forces are a deterrent to potential 
adversaries, enhancing regional stability. In the event of a 
humanitarian or contingency operation overseas, our forward stationed 
forces are capable of responding with minimal support from our limited 
and aging fleet of refueling aircraft. We have programmed to 
recapitalize our tanker fleet, but even with the complete package of 
new tankers, in some scenarios an overseas force gives us options and 
responsiveness not possible from CONUS. That said, our stewardship of 
national resources demands a continuous review of our posture. We are 
engaged with OSD and our Sister Services in a comprehensive review of 
U.S. facilities in Europe to identify efficiencies. We fully expect 
this European Infrastructure Consolidation will enable us to return 
some assets to our host nations and consolidate certain operations with 
a foot print that supports an essential level of forward presence while 
eliminating that which is not additive to the national defense.

    56. Senator Inhofe. General Welsh, current Air Force force 
structure is reportedly the minimum required to rapidly respond to 
crises in the European and African areas of responsibility (AOR) and 
dictate a permanent forward presence. Missions include contingency, 
presidential support, aero-medical evacuation, airdrop, and training 
missions, as well as significant Joint Chiefs of Staff (JCS)-directed 
and COCOM-requested exercises. Current events in Northern Africa and 
the Middle East exemplify the need to permanently forward-base forces 
to execute phase zero operations and preserve strategic flexibility in 
times of crises. What is the requirement for C-130s in EUCOM, and what 
missions do they support?
    General Welsh. There are 14 C-130Js assigned to EUCOM. They support 
operational missions for EUCOM and U.S. Africa Command as well as 
Theater Security Cooperation (partner capacity building) missions with 
partner nations. In addition to COCOM operational missions, these 
aircraft use training sorties to support U.S. Army Europe (USAREUR) and 
U.S. Navy Europe (USNAVEUR) airborne qualified units (approximately 20 
percent of all training sorties). USAREUR and NAVEUR do not possess 
organic capability to maintain their required airborne currency.
    A portion of the U.S. Air Forces in Europe-based C-130 force 
remains on heightened alert status to support U.S. Government and 
partner nations' interests throughout both theaters. Removal of 
forward-based C-130 support puts these interests at risk.

    57. Senator Inhofe. General Welsh, have timelines for requests for 
forces been met in the past?
    General Welsh. Although every effort is made to deliver forces on 
the timeline requested by combatant commanders, there are occasions 
when delays are inevitable. In most cases, the delay can be attributed 
to shortages in the requested forces or individual circumstances (e.g., 
insufficient dwell, personal hardships and other situations). In every 
case we work with the requesting combatant commander to establish an 
acceptable delivery date.

    58. Senator Inhofe. General Welsh, how would NATO be impacted by 
cuts to force structure?
    General Welsh. Cuts in the U.S. Air Force force structure could 
call into question NATO's ability to achieve the Level of Ambition 
agreed by the heads of state of the member nations. It would require 
the North Atlantic Council to reevaluate its strategic goals and would 
most likely reduce its ability to influence destabilizing activities 
both inside and outside its traditional borders.
    Much of the planned force structure supporting the NATO Strategic 
Concept comes from the U.S. Air Force: high demand, low density forces 
such as air-to-air refueling and intelligence, surveillance and 
reconnaissance platforms are just two examples of critical resources we 
provide. The United States provides more than half of the NATO 
requirement for these capabilities. For ballistic missile defense of 
NATO member nations, we provide an even higher percentage.
    We have always stated that, in principal, the United States may 
make the political decision to provide all our resources for defense of 
the NATO Alliance, to the degree that is consistent with our worldwide 
commitments. Given current and potential operations and standing treaty 
obligations, further cuts in our force structure would severely 
constrain the resources that could be available to NATO under any 
scenario.

                               MUNITIONS

    59. Senator Inhofe. General Welsh, are you experiencing any 
shortfalls in ammunition for training, base, and operational 
requirements?
    General Welsh. The current Air Force ground munitions stockpile is 
adequate to support all current Air Force training, base and 
operational requirements for fiscal year 2013 and fiscal year 2014.

    60. Senator Inhofe. General Welsh, do you have any inventory 
shortfalls in air-to-air and air-to-ground weapons, such as advanced 
medium-range air-to-air missiles (AMRAAM), joint direct attack 
munitions (JDAM), and high-speed anti-radiation missiles (HARM)? If so, 
how do you plan to address such shortfalls?
    General Welsh. Yes, AMRAAM and JDAM inventories are short of their 
objectives. The Air Force will address these weapons shortfalls by 
competing these requirements against all other high priority 
procurements within the Air Force and make the tough trade-offs on what 
we can afford to buy. The Air Force plans to continue procurement of 
both AMRAAM and JDAM at a rate determined by the results of the trade-
off with the intent to meet combatant commander objectives. HARM 
inventory currently meets its objective. High-speed anti-radiation 
missiles modernization efforts are currently underway to increase the 
lethality of the weapon system against emerging advanced surface-to-air 
missile systems.

                             CYBER SECURITY

    61. Senator Inhofe. General Welsh, the Air Force is uniquely 
situated to support cyber-related missions. This capability is critical 
to ensuring national security interests. What is the Air Force doing to 
recruit and train airmen with cyber skills?
    General Welsh. The Air Force targets potential airmen with cyber 
skills through national advertising campaigns highlighting STEM 
requirements as opposed to targeting cyber specifically. The Air Force 
also advocates and supports cyberspace and computer training and 
education programs nationwide to encourage high school and college 
students towards technical career fields. For example, we support 
national competitions such as the Air Force Association's CyberPatriot 
competition for high school students. Additionally, the Air Force 
Institute of Technology's Center for Cyberspace Research hosts the 
Advanced Cyber Education summer program for Reserve Officer Training 
Corps cadets from all Services who are studying computer science or 
computer/electrical engineering. Unfortunately, ACE has been canceled 
for 2013 due to funding constraints as a result of sequestration but we 
hope to be able to hold ACE again in future years.
    Air Force cyberspace training programs develop Total Force 
cyberspace professionals from numerous career fields. Core training 
includes Undergraduate Cyberspace Training and Cyberspace Defense 
Operations at Keesler AFB, MS, and Intermediate Network Warfare 
Training at Hurlburt AFB, FL. We have also developed an Intelligence 
Cyber Analyst course at Goodfellow AFB, TX, to train our digital 
network analysts. This analyst training is complemented with a 6-month 
follow on Joint Cyber Analysis Course at Pensacola Naval Air Station, 
FL. Cyber personnel attend further joint cyberspace and related courses 
based upon positional requirements and work roles. In addition, the Air 
Force Institute of Technology at Wright-Patterson AFB, OH, conducts 
graduate-level cyber curricula and professional continuing education as 
well. Growth and change is constant in the cyberspace domain and these 
schools adjust as technology and tactics evolve.

    62. Senator Inhofe. General Welsh, what type of training do these 
airmen receive?
    General Welsh. Air Force cyberspace training programs develop Total 
Force cyberspace professionals from numerous career fields. Core 
training includes undergraduate cyberspace training and cyberspace 
defense operations at Keesler AFB, MS, and intermediate network warfare 
training at Hurlburt AFB, FL. We have also developed an Intelligence 
Cyber Analyst course at Goodfellow AFB, TX, to train our digital 
network analysts. This analyst training is complemented with a 6-month 
follow on Joint Cyber Analysis Course at Pensacola Naval Air Station, 
FL. Cyber personnel attend further Joint cyberspace and related courses 
based upon positional requirements and work roles. In addition, the Air 
Force Institute of Technology at Wright-Patterson AFB, OH, conducts 
graduate-level cyber curricula and professional continuing education as 
well. Growth and change is constant in the cyberspace domain, and these 
schools adjust as technology and tactics evolve.

    63. Senator Inhofe. General Welsh, how are you retaining these 
airmen after such training?
    General Welsh. To retain our cyber airmen, seven of the eight 
enlisted cyber Air Force Specialty Codes (AFSC) are currently receiving 
a Selective Reenlistment Bonus (SRB) in at least 1 year group. Also, 
all eight AFSCs are currently identified on the Chronic Critical Skills 
for Promotion List that increases the number of promotions given to a 
career field to support noncommissioned officer (NCO) and senior NCO 
manning. Finally, cyber AFSCs were shielded from some of the force 
management programs such as voluntary separation programs and accession 
cuts.

    64. Senator Inhofe. General Welsh, how are you ensuring that these 
airmen will get opportunities to advance in their career progression?
    General Welsh. Cyberspace airmen have multiple opportunities to 
advance in their careers. They are deliberately force managed to 
acquire breadth in their career fields and depth in the cyberspace 
field. For example, certain specialties will serve consecutive 
operations tours in cyberspace positions at different locations to 
build depth as they progress through their career. This experience is 
coupled with continuing professional cyberspace education to build 
cyberspace experts.

                      BASE REALIGNMENT AND CLOSURE

    65. Senator Inhofe. General Welsh, GAO released a report last year 
noting that one-time implementation costs for the 2005 Base Realignment 
and Closure (BRAC) round grew from $21 billion to $35 billion, an 
increase of $14 billion, or 67 percent. As a result, the 20-year value 
DOD expected to achieve from the 2005 round decreased by 72 percent and 
the annual recurring savings has decreased by 10 percent. In addition, 
GAO determined that 75 out of the 182 recommendations, about 41 
percent, are now expected to result in a negative 20-year value. Has 
the Air Force actually conducted any analyses to quantify the extent of 
its excess infrastructure? If not, how can the Air Force predict with 
any confidence how much will be saved by a BRAC round?
    General Welsh. The Air Force has not conducted an updated capacity 
analysis. Our current estimates of excess infrastructure are based on 
the 2004 OSD report to Congress, required under BRAC 2005 legislation, 
which stated the DOD had approximately 24 percent excess infrastructure 
at that time. BRAC 2005 eliminated very little Air Force infrastructure 
in BRAC 2005 and since then, the Air Force retired approximately 500 
aircraft and reduced its total active duty manpower by approximately 8 
percent without reducing infrastructure accordingly. If legislation is 
enacted authorizing another round of BRAC for U.S. installations, the 
Air Force will base its analysis on an approved force structure plan 
and will evaluate all bases equally to determine what bases may be 
candidates for closure or realignment.
    The Air Force knows from past BRAC rounds that savings from BRAC 
are real; 40 installations have closed saving $2.9 billion per year. 
However, it is premature for the Air Force to predict the amount of 
savings that can be garnered prior to completing the BRAC analysis.
    The Air Force effectively controlled BRAC 2005 costs through a 
disciplined military construction and training approval process with 
senior leader oversight. The Headquarters Air Force staff screened and 
budgeted for major command requests within the first year. 
Subsequently, all major command projects were reviewed biannually, 
tracking both status and cost management. Requirements that arose from 
site surveys were justified and well supported.

                                TRICARE

    66. Senator Inhofe. General Welsh, in the President's budget 
request, DOD proposes to increase TRICARE Prime enrollment fees and 
pharmacy co-pays yet again, institute new enrollment fees for TRICARE 
Standard and TRICARE for Life beneficiaries, and increase Standard 
deductibles, among other things. Within the last 2 years, Congress 
authorized DOD to increase enrollment fees and pharmacy co-pays each 
year by the amount of the annual retired-pay cost-of-living adjustment. 
Hasn't that helped you control healthcare costs? Why do we need to go 
down this road again?
    General Welsh. Congress' recent support for increases in the 
TRICARE Prime enrollment fees for working age retirees and adjustments 
to retail and mail order pharmacy co-pays are an important step to 
managing costs, but they are not enough to sustain the benefit in the 
long term. Managing health care costs is a shared responsibility among 
the government, providers and the beneficiaries. In addition to seeking 
reasonable beneficiary cost share reforms, the Military Health System 
is undergoing comprehensive change to be a progressive health system 
for the beneficiaries into the future while aggressively gleaning 
efficiencies to control cost.
    By following a holistic approach to addressing the rising costs of 
health care, the military health benefit will continue to be a rich 
reward for those who have served our country. Without beneficiary cost 
share reforms, sustaining the health benefit will require diversion of 
funds from other critical accounts to make up the shortfall.

    67. Senator Inhofe. General Welsh, if Congress doesn't agree with 
your TRICARE fee proposals, what is your back-up plan to make up the 
large deficit in your health account?
    General Welsh. If Congress prohibits the proposed TRICARE fee 
changes and does not restore the budgeted savings in fiscal year 2014, 
the Department will likely be forced to make additional reductions to 
readiness and modernization accounts. The TRICARE fee proposals are an 
important piece of the Department's approach to balanced drawdown in 
defense spending. The fee changes in conjunction with the governance 
changes in progress for the Military Health System are necessary to put 
the military health benefit on a path to long-term fiscal 
sustainability as well as to lessen the impact on readiness and 
modernization.

                          HARDENING FACILITIES

    68. Senator Inhofe. General Welsh, Admiral Locklear testified to 
this committee that; ``the United States requires a more 
geographically-distributed, operationally-resilient, and politically-
sustainable posture that allows persistent presence and, if needed, 
power projection.'' The Air Force has proposed construction of hardened 
facilities on Guam to protect certain assets to provide operational 
resilience. Do you support the hardening of facilities on Guam to 
preserve a second strike capability?
    General Welsh. Yes, the Air Force supports the ``selective 
hardening'' of facilities on Guam for a number of critical reasons, 
both unclassified and classified. Selective hardening increases our 
warfighting capability and demonstrates our commitment to operational 
resiliency to our partners and allies as well as our potential 
adversaries. This effort stems from the requirement to be resilient 
against enemy attack, ensures the availability of airpower to the Joint 
Force Commander, and enables the ability to generate airpower in the 
face of multiple attacks. The Air Force is currently working on a 
Pacific Airpower Resiliency study built on the premise of previous 
analyses that recommends the construction of two large hardened hangars 
to protect national assets deployed to Guam. Since the submission of 
the fiscal year 2012 President's budget, all major stakeholders have 
determined and agreed on the importance of these two structures. The 
NDAA for Fiscal Year 2013 provided funding for one unhardened hangar, 
and the Air Force requested funding in the fiscal year 2014 President's 
budget to harden the first hangar and construct a second hardened 
hangar. The Air Force will continue to pursue selective hardening, 
increased airfield damage repair capabilities, and a number of other 
efforts in concert with the other Services, including development of a 
new plan beyond the two proposed hangars.

    69. Senator Inhofe. General Welsh, given the large numbers of 
Chinese missiles projected in 2020, what makes you believe that you can 
protect enough infrastructure to be able to launch a second strike?
    General Welsh. This question cannot be adequately answered at the 
unclassified level. However, there are combinations of approaches that 
work in concert to help mitigate the threat represented by a large 
missile inventory. These include, but are not limited to, dispersal, 
selective hardening, rapid repair and other passive and active defense 
measures. All efforts stem from the requirement to be operationally 
resilient against enemy attack, guaranteeing the availability of 
airpower in support of the Joint Force Commander. It is not about 
simply preserving a second strike, rather it is about ensuring a 
continuous ability to generate airpower in a contested environment.

    70. Senator Inhofe. General Welsh, hardening a facility 
approximately doubles the cost of a facility--can we afford that cost 
in this budget environment?
    General Welsh. Yes, we have determined we can afford hardening of 
selective critical infrastructure on Guam and have included these 
requirements in our fiscal year 2014 budget request. We are only 
requesting to selectively harden facilities and infrastructure that are 
critical to ensure we can accomplish our missions in all threat 
scenarios. The United States has done virtually no hardening for some 
30 years, and there are no hardened facilities currently on Guam.
    Selective hardening is one of four distinct methods of mitigating 
risk in PACOM's resiliency strategy, which also includes redundancy, 
rapid repair, and dispersal. In many cases, hybrid solutions will be 
used that incorporate two or more of the mitigation measures. Without 
the selective hardening of key infrastructure, our commitment to 
overall Defense Strategy in the Asia-Pacific theater could be called 
into question by our partners and allies as well as our potential 
adversaries.

                               C-130 AMP

    71. Senator Inhofe. General Welsh, at last year's Air Force posture 
hearing, General Schwartz said that: ``the Air Force C-130 Avionics 
Modernization Program (AMP) provides military capability equal or 
greater than alternative programs and at less cost than those 
programs.'' The U.S. Government performed four independent studies on 
the C-130 AMP solution between 1998 and 2008 and found it was the most 
cost-effective solution to modernize the C-130 fleet, and at the same 
time, consolidate the multiple configurations and increase equipment 
reliability and availability. It appears from the fiscal year 2014 
President's proposed budget that a new start effort, the Minimize CNS/
ATM option, has been identified. Could you explain the Minimize CNS/ATM 
option?
    General Welsh. The Minimize Communications, Navigation, 
Surveillance/Air Traffic Management (CNS/ATM) program is a less-costly, 
smaller-scope program, compared to AMP. The Minimize CNS/ATM program 
primarily upgrades communication and navigation equipment enabling the 
C-130H to meet navigation mandates into the 2020s.

    72. Senator Inhofe. General Welsh, what is the cost of the new 
approach and what will it truly save after considering the termination 
liability, and after other life-cycle cost savings are removed from the 
solution?
    General Welsh. The fiscal year 2014 Presidents' budget requests 
$476 million for the Minimize C-130 CNS/ATM program for 184 aircraft. 
The Air Force expects the Institute for Defense Analyses (IDA) study 
directed in the NDAA for Fiscal Year 2013 to provide life cycle cost 
comparisons for C-130 AMP, the fiscal year 2014 Minimize C-130 CNS/ATM 
program, and the fiscal year 2013 Optimize Legacy C-130 CNS/ATM 
program. Planned delivery date of the IDA study to Congress is October 
2013.

    73. Senator Inhofe. General Welsh, what requirements or missions 
changed that would allow for a change of direction of this magnitude, 
specifically cancelling the program of record, AMP, and executing a new 
start, Minimize CNS/ATM?
    General Welsh. Significant fiscal reductions to Air Force funding 
drove difficult strategic choices. One of these difficult choices was 
C-130 modernization. We were compelled to pursue a less-costly, 
smaller-scope modernization program that meets mission requirements and 
ensures the C-130H fleet remains viable into the 2020s.

    74. Senator Inhofe. General Welsh, less than 2 years ago, the C-130 
AMP was the best solution and at a lower cost than all other capable 
alternatives. How can AMP now be too expensive?
    General Welsh. The constrained fiscal environment forced us to make 
difficult strategic choices. The decision to terminate the C-130 AMP 
was driven by the first phase of the 2011 Budget Control Act. Full 
implementation of the Budget Control Act--or sequestration--eliminated 
budget resources that might have been available to fund the C-130 AMP 
program. Acquiring the capability afforded by the C-130 AMP became 
untenable under these fiscal constraints, especially when compared to 
other more compelling investment opportunities.

    75. Senator Inhofe. General Welsh, why is the Air Force choosing to 
end a program that is over 99 percent complete with development 
activities and with very little risk going forward?
    General Welsh. The constrained fiscal environment forced the Air 
Force to make difficult strategic choices. The decision to terminate 
the C-130 AMP was driven by the first phase of the 2011 Budget Control 
Act. Full implementation of the Budget Control Act--or sequestration--
eliminated budget resources that might have been available to fund the 
C-130 AMP program. Acquiring the capability afforded by the C-130 AMP 
became untenable under these fiscal constraints, especially when 
compared to other more compelling investment opportunities.

    76. Senator Inhofe. General Welsh, as directed by the NDAA for 
Fiscal Year 2013, have you begun the IDA study for a cost benefit 
analysis, and what is the current status and projected completion date 
to report back to the committee?
    General Welsh. DOD placed the IDA study on contract on March 1, 
2013. The IDA study is currently progressing according to schedule, and 
IDA plans to deliver initial study results to the Air Force in August 
2013. The Air Force plans to deliver the study to Congress in October 
2013.

    77. Senator Inhofe. General Welsh, has there been any analysis of 
long-term cost savings the current C-130 AMP provides versus the 
proposed fiscal year 2014 Minimize CNS/ATM capability?
    General Welsh. The Air Force has not completed an official life-
cycle cost analysis for the proposed fiscal year 2014 Minimize C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM) program. The Air Force expects the IDA study directed in the NDAA 
for Fiscal Year 2013 to provide life cycle cost comparisons for C-130 
AMP, the fiscal year 2014 Minimize C-130 CNS/ATM program, and the 
fiscal year 2013 Optimize Legacy C-130 CNS/ATM program.

    78. Senator Inhofe. General Welsh, the fiscal year 2013 
appropriations reduced the C-130 AMP program of record in fiscal year 
2012 by $118 million, leaving $90 million and identified $20 million 
for fiscal year 2013. What is the expenditure plan for fiscal year 2013 
appropriations identified for the C-130 AMP?
    General Welsh. The Air Force has not expended any of the fiscal 
year 2013 C-130 AMP funds, or any of the fiscal year 2012 production 
funds. We are continuing to conduct fiscally responsible and prudent 
program actions while the IDA completes the cost-benefit analysis on C-
130 AMP directed by the NDAA for Fiscal Year 2013. Based on the outcome 
of the IDA study, the Air Force will provide a spend plan as 
appropriate.

    79. Senator Inhofe. General Welsh, can the current C-130 AMP be 
scaled down and still retain its certification? If so, have you thought 
about doing that instead of starting over?
    General Welsh. No, significantly scaling down C-130 AMP would drive 
a program redesign and retest.

    80. Senator Inhofe. General Welsh, with a reasonable learning 
curve, what is the current cost of a fully installed C-130 AMP system 
and what would the estimated cost be for the alternative system?
    General Welsh. The C-130 AMP Office currently estimates the C-130 
AMP per aircraft cost to be $15.4 million. The Air Force expects the 
IDA study directed in the NDAA for Fiscal Year 2013 to provide life 
cycle cost comparisons for C-130 AMP, the fiscal year 2014 Minimize C-
130 CNS/ATM program, and the fiscal year 2013 Optimize Legacy C-130 
CNS/ATM program. Planned delivery date of the IDA study to Congress is 
October 2013.

    81. Senator Inhofe. General Welsh, the current C-130 AMP eliminated 
the navigator position, which essentially paid for the upgrade through 
personnel savings. Will the Minimize CNS/ATM require a navigator, and 
if so, what is the impact on availability, training, and life-cycle 
costs?
    General Welsh. The Minimize C-130 CNS/ATM program requires a 
navigator. While the navigator savings of approximately $500 million 
(then-year dollars over a 15-year life cycle) offsets the Operations 
and Support costs of C-130 AMP, it was never intended to recover the 
full cost of the AMP modification.
    The Air Force expects the IDA study on C-130 AMP to analyze the 
impact of availability, training, and life-cycle costs of the three C-
130H combat delivery fleet modification alternatives: C-130 AMP, the 
fiscal year 2013 Optimize Legacy C-130 CNS/ATM program, and the fiscal 
year 2014 Minimize C-130 CNS/ATM program.

    82. Senator Inhofe. General Welsh, will the Minimize CNS/ATM new 
start provide more or less capability than the current program of 
record, the C-130 AMP?
    General Welsh. The Minimize C-130 CNS/ATM new start is a less 
robust avionics and sustainment solution than the C-130 AMP. The legacy 
C-130H combat delivery fleet will continue to maintain global access 
and global engagement to support the Joint Warfighter regardless of 
which AMP is adopted.

    83. Senator Inhofe. General Welsh, what other upgrades/capabilities 
previously included in the C-130 AMP will not be done and which of 
these will be addressed at some future time?
    General Welsh. The C-130 AMP modernizes C-130Hs across three 
variants (H2, H2.5, H3) with a common avionics suite and standardized 
cockpit configuration. AMP provides substantial system integration to 
reduce crew workload, thus eliminating the navigator. AMP also 
addresses future issues with obsolescence and diminishing manufacturing 
sources.
    The fiscal year 2014 Minimize C-130 CNS/ATM is an airspace 
compliance only program to meet the Federal Aviation Administration's 
January 2020 CNS/ATM airspace mandate for an Automatic Dependent 
Surveillance-Broadcast system. Therefore, the Air Force will continue 
to analyze the Legacy C-130H fleet's avionics systems' reliability, 
maintainability, and sustainability issues, and would pursue options to 
address any shortfalls.

    84. Senator Inhofe. General Welsh, is the current IDA study 
evaluating the C-130 AMP against the Minimize CNS/ATM identified in the 
fiscal year 2014 President's budget document?
    General Welsh. Yes, the Air Force tasked the IDA to evaluate all 
three C-130H combat delivery fleet modification alternatives: C-130 
AMP, the fiscal year 2013 Optimize Legacy C-130 CNS/ATM program, and 
the fiscal year 2014 Minimize C-130 CNS/ATM program.

    85. Senator Inhofe. General Welsh, has an acquisition strategy been 
developed for the fiscal year 2014 Minimize CNS/ATM new start option?
    General Welsh. The Air Force, in compliance with section 143 of the 
NDAA for Fiscal Year 2013, has taken no action to develop an official 
acquisition strategy on the fiscal year 2014 Minimize C-130 CNS/ATM 
program.

    86. Senator Inhofe. General Welsh, is there an intention to have 
some level of commonality between the large platform CNS/ATM solutions 
for the Air Force?
    General Welsh. Yes, it is our intention to maximize commonality in 
the CNS/ATM equipment used in the large platforms. However, every 
aircraft is different, which limits the extent of commonality. Since 
cost savings is a concern, we plan to take advantage of proven and 
available commercial off-the-shelf options for CNS/ATM compliance 
equipment when these solutions lower our cost to equip or sustain.

                           C-130 RE-ENGINING

    87. Senator Inhofe. General Welsh, I understand that there is an 
upgrade for the T56 engine, the engine enhancement package (EEP), that 
would improve fuel efficiency of the current engines. What is the 
status of the modification?
    General Welsh. Rolls Royce Corporation, the T56 engine 
manufacturer, developed a more fuel efficient upgrade to the current C-
130H aircraft engines using internal company resources. This upgrade is 
known as the T56 Series 3.5 engine configuration.
    Although the T-56 Series 3.5 engine modification is expected to 
provide improved fuel efficiency and reduced maintenance costs, the Air 
Force has not funded a program of record due to higher Air Force 
funding priorities in the current fiscal environment.

    88. Senator Inhofe. General Welsh, has the EEP been tested, and if 
so, what were the results?
    General Welsh. The T56 Series 3.5 has successfully passed engine 
qualification testing. Additionally, the prototype engine was flight 
tested on a C-130H at Edwards AFB, CA with all operational requirements 
being met during that effort.

    89. Senator Inhofe. General Welsh, what is the estimated cost of 
the modification, and for how many aircraft?
    General Welsh. A June 2011 Air Mobility Command Business Case 
Analysis (BCA) forecasted a requirement for 200 C-130H aircraft (184 
Mobility Air Force and 16 Air Combat Command), which will require 941 
engines including required spares. The study estimates the modification 
would require a total investment of $969 million (calculated in 2011 
constant year dollars) from fiscal year 2014-fiscal year 2024, and $414 
million would be required from fiscal year 2014-fiscal year 2018. This 
funding is based on a modification profile of 20 engines in fiscal year 
2014, and 100 engines in each of the remaining years until fiscal year 
2024 when the remaining 21 engines would be modified.

    90. Senator Inhofe. General Welsh, how long will it take to modify 
the fleet?
    General Welsh. For the Air Mobility Command BCA forecasted 
requirement of 941 engines, if the modification begins with a profile 
of 20 engines in the first year, and 100 engines in each of the 
remaining out-years, it will take 11 years to modify the fleet.

    91. Senator Inhofe. General Welsh, what is the expected fuel 
savings from making the modification?
    General Welsh. The Air Mobility Command BCA expects $240 million in 
fuel savings (7.9 percent) over 25 years of operations.

    92. Senator Inhofe. General Welsh, has the Air Force independently 
verified those savings estimates?
    General Welsh. The predicted $240 million (7.9 percent) fuel 
consumption improvement, at the current equivalent engine power 
setting, was validated through Air Force ground and flight testing.

                                 KC-46A

    93. Senator Inhofe. General Welsh, February was the 2-year 
anniversary of the KC-X contract. Since that time, both the Air Force 
and Boeing have delivered on their commitments by meeting all contract 
milestones on or ahead of schedule. At this point in the program, to 
what do you attribute the success of the Air Force?
    General Welsh. The keys to the program's success have been 
requirements and funding stability, backed by the diligent efforts of 
our professional acquisition workforce. The Department led a contract 
with well-defined requirements and both parties have held each other 
accountable to the agreement. Additionally, the Department has not 
subjected the program to budget-driven changes in schedule and content. 
This creates an environment where our engineers and program managers, 
government and contractor, can focus on executing the program on time 
and on schedule.

    94. Senator Inhofe. General Welsh, how do you see leveraging the 
lessons learned in the tanker acquisition to other Air Force 
acquisitions?
    General Welsh. The lessons learned from the tanker acquisition are 
being implemented in policy and in practice. Multiple components of the 
Air Force's Acquisition Improvement Plan and DOD's Better Buying Power 
(BBP) initiatives and policies have roots in the successes and failures 
of the broader tanker acquisition program. In practice, the source 
selection lessons learned are being propagated through the leadership 
and working levels of the Air Force Life Cycle Management Center 
(AFLCMC) and Space and Missile Systems Center through policy, 
procedures, training, directed communications, and the Air Force's 
Lessons Learned Program. As the Air Force approaches new acquisitions, 
the policies and processes that have grown out of the tanker 
acquisition will be implemented as appropriate with the nature, scope, 
and risks inherent in each new program.

                        LONG-RANGE STRIKE BOMBER

    95. Senator Inhofe. General Welsh, DOD is pivoting to a strategy 
that focuses on the Western Pacific. To accomplish this, the strategy 
says we must maintain the ability to operate in Anti Access/Area Denial 
(A2/AD) environments and that the development of a new stealth bomber 
is, therefore, needed. How does the development and fielding of a new 
LRS-B help satisfy the requirement to operate at great distances in an 
A2/AD environment?
    General Welsh. Current bombers are increasingly at risk to modern 
air defenses; the LRS-B will be able to penetrate modern air defenses 
to accomplish combatant commander objectives despite adversary A2/AD 
measures. The LRS-B will be usable across the spectrum of conflict, 
from raid to campaign levels and will provide broad geographic coverage 
(ability to operate deep and from long range). Additionally, it will 
carry a wide variety of stand-off and direct-attack munitions for 
increased flexibility. Once fielded, the LRS-B's long range, payload, 
and survivability will provide the President with the option to hold 
targets at risk at anywhere on the globe, as well as provide 
operational flexibility for Joint commanders.

    96. Senator Inhofe. General Welsh, in light of the extremely high 
total cost of ownership numbers that have been identified with the JSF 
program, what steps is DOD taking to incentivizing bidding contractors 
to design for control of those costs?
    General Welsh. With regards to the LRS-B program, the Air Force is 
considering an array of options for incentivizing the contractors to 
design the weapon system in manner that reduces total ownership costs.

    97. Senator Inhofe. General Welsh, would it make sense to increase 
the emphasis on procurement and sustainment costs in the evaluation of 
competing offers?
    General Welsh. Yes. The LRS-B program is considering an array of 
options to place an appropriate amount of emphasis on the evaluation of 
the projected procurement and sustainment costs of competing offers.

                                  C-17

    98. Senator Inhofe. General Welsh, the ability of the U.S. 
industrial base to support the production of large military aircraft is 
a growing concern. The U.S. educational system is producing fewer 
people with the requisite technical skills to build highly integrated 
and sophisticated weapon systems. More and more U.S. manufacturing 
facilities are shutting down, and U.S. corporations are depending on 
overseas companies to provide major assemblies and parts for U.S. 
products. What are you doing to maintain the U.S. industrial base and 
to ensure it retains its technology and capability edge in supporting 
and winning future wars?
    General Welsh. The national budget turbulence has caused not just 
the Air Force, but also each organization in DOD, to carefully consider 
priorities and make adjustments in plans and budgets. While sustaining 
a robust national technology and industrial base is a concern, it is 
one of many subject to the realities imposed by the current fiscal 
situation.
    Our top three modernization programs, the KC-46, the F-35, and the 
LRS-B, highlight the Air Force's current investments in the industrial 
base. Other modernization efforts such as our space programs also 
support the Nation's industrial base. However, the Air Force does not 
have resources to sustain industrial capability or capacity beyond that 
required for funded programs. In a key area, such as turbine engine 
development, the Air Force collaborates with industry on a shared-cost 
basis to advance the state of the art and maintain a cadre of 
engineering and design expertise.
    The Air Force is working with the other Services and OSD to develop 
a deeper understanding of our mutual dependencies on the complex web of 
suppliers that produce and sustain our air, space, and cyber 
capabilities.

    99. Senator Inhofe. General Welsh, what is the Air Force doing to 
ensure that mobility--and particularly airlift--are part of that 
enduring industrial base?
    General Welsh. In the current fiscal environment, the Air Force has 
few choices beyond those to support our airmen, maintain readiness of 
key units, and continue our top modernizations efforts. I fully 
appreciate that the Air Force's air, space, and cyber capabilities are 
sustained by the products and services purchased from the national 
technology and industrial base. Without the support of both the organic 
and the commercial components of the industrial base, the Air Force 
would not be ready to respond to the needs of the Nation. The result of 
the difficult choices imposed by the current budget situation is that 
the Air Force has reduced our demands on the industrial base.
    As far as the current state of industrial base supporting airlift, 
the C-17 along with the C-130J, remain in production and are still some 
of the youngest fleets in our inventory. The Air Force also benefits 
from the very healthy commercial aerospace sector of the economy. For 
example, the KC-46 is a derivative of a commercial aircraft.

    100. Senator Inhofe. General Welsh, what alternatives do you see 
for future airlift production if the C-17 line shuts down?
    General Welsh. No alternative is needed at this time since the Air 
Force's current airlift requirements will be met upon delivery of the 
final C-17 and completion of C-5 RERP modification. After the delivery 
of the final U.S. Air Force C-17 (third quarter of calendar year 2013), 
the future of the C-17 line is fully dependent on Foreign Military 
Sales (FMS) and/or direct commercial sales orders. As of now, the 
remaining firm C-17 FMS orders will keep the production line going 
until the fourth quarter of calendar year 2014. We remain committed to 
our allies and partners to help them through new FMS orders should they 
require additional airlift capability and capacity.

                     JOINT DIRECT ATTACK MUNITIONS

   101. Senator Inhofe. General Welsh, in fiscal year 2012, Joint 
Direct Attack Munitions (JDAM) constituted over 98 percent of all air-
to-ground gravity bombs employed in combat (85 percent if Hellfire is 
included) according to U.S. Air Force Central (AFCENT) data. The JDAM 
weapon system on an annual basis drops approximately 7,000 units a year 
in the support of training, test, tactics development, and combat 
operations. What is the impact on the strategic weapons stockpile/war 
reserves, when training, testing, and combat operations are consuming 
more than the annual planned procurement?
    General Welsh. The strategic weapons stockpile/war reserves 
inventory levels decrease when training, testing, and combat operations 
expenditures outpace annual procurement. Since Joint Direct Attack 
Munitions inventories are already short of inventory objectives, 
continuing to expend more weapons than we procure increases risk over 
time. This shortage will drive the use of secondary weapons that 
decrease warfighter effectiveness and result in increased time 
accomplishing the combatant commander's objectives.

    102. Senator Inhofe. General Welsh, has DOD conducted an analysis 
for what levels should be maintained and the assumptions that have 
pushed JDAM procurements to such low rates?
    General Welsh. The Air Force conducts an annual analysis to 
determine the required inventory levels to accomplish the combatant 
commanders' objectives. Annual procurement is then set in an attempt to 
meet those inventory objectives, but balanced against Air Force budget 
constraints to meet the highest priorities of the Air Force.

    103. Senator Inhofe. General Welsh, there was a tremendous surge in 
JDAM production after September 11. As production rates drop 
dramatically, what are you doing to sustain the U.S. industrial base 
and to ensure it retains the capacity to surge again, when required?
    General Welsh. This is an important issue that applies not just to 
the Air Force and not just to the Joint Direct Attack Munitions. The 
demands on that sector of the national technology and industrial base 
producing and sustaining munitions are very closely tied to the tempo 
of our combat operations. For that industrial sector, there isn't much 
of a middle ground. When the Nation's forces are not engaged in combat, 
the only demands are for training, maintaining operator proficiency, 
sustaining war reserves, or sales to our allies. When the Nation 
decides to send forces into combat, demand can rise rapidly with the 
potential for production surges.
    The Air Force works closely with the other Services and OSD on a 
variety of issues concerning the munitions industrial base. For 
example, we have participated in reviews to help identify requirements 
for and development of critical energetic materials, to support 
development of fuzes and monitor the health of that subsector. We have 
looked across the industry to identify critical suppliers and 
capabilities. The Air Force is also looking beyond the current systems 
with research programs to develop technologies for future munitions.

    104. Senator Inhofe. General Welsh, the Libyan conflict 
demonstrated that NATO inventories of JDAM are not sufficient to 
conduct even a small operation effectively. What is the United States 
doing to encourage our NATO allies to increase their JDAM inventories 
significantly?
    General Welsh. The Air Force is working with the Offices of Defense 
Cooperation to stress to NATO allies the importance of keeping 
sufficient weapons inventories. The Air Force is also working with DOD 
to investigate options, such as expedited acquisition and multi-
national munitions pooling.

                              T-X PROGRAM

    105. Senator Inhofe. General Welsh, given the impacts of 
sequestration, what priority is the Air Force acquisition plans for the 
T-X program, and will the Air Force continue with recapitalization 
plans for the T-38 Talon, which has been in service for over 50 years?
    General Welsh. Current weapon-system recapitalization efforts and 
operations took precedence over the T-X program in the fiscal year 2014 
budget. However, the Air Force does intend to recapitalize the T-38 
fleet. At this time, the objective IOC date is undefined.

    106. Senator Inhofe. General Welsh, is the T-X program still 
planning to keep this a bundled effort, to include jet, simulator, and 
courseware, all tied to the Family of Systems (FoS) to save the 
warfighters and taxpayers by reducing the cost of flight training?
    General Welsh. Yes, the Air Force still plans to acquire the T-X as 
a single Family of Systems rather than as separate acquisitions for the 
aircraft, ground training devices, and courseware. We believe this to 
be the most efficient course of action to provide a robust training 
capability at the most effective cost.

    107. Senator Inhofe. General Welsh, has the Service defined T-X 
requirements in a manner that mandates that the T-38 replacement 
aircraft must accommodate the full spectrum of male and female pilot 
candidates (JPATS 1-7), just as you did in the T-6 Texan and other new 
platforms?
    General Welsh. The T-X is still in an early stage of requirements 
development, but as the requirements are developed, the Air Force will 
try to ensure that they accommodate the full spectrum of male and 
female pilot candidates.

                           CIVILIAN FURLOUGHS

    108. Senator Inhofe. Secretary Donley, I am concerned about the 
potential impact of civilian furloughs on critically important Air 
Force family support programs. If furloughs do take place, do you 
expect any cutbacks in your operating hours at commissaries, exchanges, 
and child development centers, or curtailment of: morale, welfare, and 
recreation (MWR) programs; Department of Defense Education Activity 
(DODEA) programs; Transition Assistance Programs (TAP); or military 
spouse employment programs?
    Mr. Donley. Civilian furloughs will have a negative impact on our 
ability to provide, and maintain, a variety of services to our airmen 
and their families. Specifically, Commissaries will close one 
additional day per week and MWR programs are projected to experience 
reduced hours of operation and/or closed facilities. Additionally, 
budget reductions will have a negative impact on our ability to timely 
transform our activities to make our services more efficient.
    Utilizing the 1,645 direct child care employees that have been 
excepted from the furlough, we will continue to provide child care 
operations and minimize the impact to airmen and their families. 
Additionally, we do not anticipate Army and Air Force Exchange Service 
(AAFES), TAP or Military Spouse Employment to be affected by furloughs.

    109. Senator Inhofe. Secretary Donley, in response to 
sequestration, if civilian furloughs impact the mission of the Military 
Entrance Processing Stations (MEPS), what options does the Air Force 
have to ensure your recruit accessions are not disrupted?
    Mr. Donley. Approximately 80 percent of Military Entrance 
Processing Command (MEPCOM) employees are civilian. The 11-day furlough 
(as announced on May 14, 2013) will have a significant impact on 
MEPCOM's ability to process recruits and manage military accessions 
testing programs. MEPCOM will reduce applicant processing from 5 days 
down to 4 days to accommodate the civilian furloughs.
    There are no options to overcome recruit processing disruptions as 
a result of the MEPCOM furlough. No alternatives exist for MEPCOM 
processing to qualify youth for military service. MEPCOM is the sole 
entity for enlisted accessions. The Air Force will adjust to the 
reduced processing capacity by tightly managing the available 
processing slots. Slots will first be used to send fiscal year 2013 
recruits to Basic Military Training, and then whatever slots remain 
will be prioritized to best meet fiscal year 2014 needs. These 
restrictions will force the Air Force to delay processing motivated 
applicants until slots become available at a later date.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    110. Senator Inhofe. Secretary Donley, it is unconscionable that 
servicemembers must wait many months to receive a disability 
determination from the Department of Veterans Affairs (VA). While DOD 
and VA have made some progress in decreasing the amount of time it 
takes to get disability claims completed in the Integrated Disability 
Evaluation System (IDES), more work must be done. Do you believe the VA 
is doing all that it can do to decrease the amount of time for 
disability case reviews and claims adjudication?
    Mr. Donley. DOD and VA have implemented several improvement 
strategies to improve the IDES Physical Evaluation Board (PEB) 
timeliness.

    1.  VA has added 109 personnel to reach 264 full-time equivalents 
for claims adjudication, and consolidated Army claims at Seattle 
Disability Rating Activity Site to reduce processing times.
    2.  VA has proactively engaged DOD to expedite adoption of 
Disability Benefits Questionnaires (DBQs) within the IDES Program.
    3.  To better support DOD and members of the Reserve components 
(RC), VA implemented a process to perform IDES Compensation and Pension 
examinations closer to the residence of RC servicemembers.
    4.  VA's Chief of Staff conducts bi-monthly internal Video 
Teleconferences (VTC) with Central Office and Field Executive staff to 
review IDES performance metric and discuss process improvement 
measures. VA also has joint monthly VTCs with both Army and Navy/Marine 
Corps to discuss site performance and general collaboration 
opportunities.
    5.  VA's IDES leadership conducts weekly meetings with IDES 
leadership from OSD, Warrior Care Policy, and the Military Services. 
These meetings have been occurring since July 2011.
    6.  VA Central Office personnel conduct periodic site visits to 
identify best practices and provide assistance.
    7.  VA and DOD routinely collaborate to improve and refine policies 
and procedures.

    The Air Force continues to collaborate with DOD and VA to improve 
the overall disability evaluation process. Despite improvements, 
challenges still remain and all of the DOD is committed to working 
diligently with VA to continue streamlining and improving the overall 
disability process.

    111. Senator Inhofe. Secretary Donley, does the VA need additional 
resources to hire more claims adjudicators?
    Mr. Donley. The Air Force cannot address the resource requirements 
of the VA. However, our Service continues to collaborate with VA to 
improve the overall disability evaluation process. Despite 
improvements, challenges still remain, DOD and the Air Force are 
committed to working diligently with VA to continue streamlining and 
improving the overall disability process.

                    PROTECTING PROSPECTIVE RECRUITS

    112. Senator Inhofe. Secretary Donley, a recent tragic case in 
Maryland appears to have been a murder/suicide involving a prospective 
recruit and recruiter. What guidance has the Air Force provided to 
ensure that prospective recruits and their parents or guardians are 
fully aware of the limits for relationships with recruiters?
    Mr. Donley. Air Force Recruiting has instituted an aggressive and 
comprehensive program to inform and educate recruits and their parents 
on the subject of inappropriate behaviors, to include unprofessional 
relationships throughout the recruiting process. This program employs 
video, talking points, ``Applicant Rights/Responsibilities Cards'', and 
signed statements. The program clearly defines what constitutes an 
unprofessional relationship vs. professional relationship between 
recruits and their recruiters, and advises the recruits of their right 
and obligation to report suspected or actual cases. The program also 
outlines sources of assistance and steps to be taken to address 
concerns.

    113. Senator Inhofe. Secretary Donley, what information does the 
Air Force require to be provided to prospective recruits to ensure that 
they have immediate access to assistance and intervention, if 
necessary, if they believe a recruiter is intending to take improper 
advantage of them?
    Mr. Donley. Air Force Recruiting Service (AFRS) personnel are 
required to provide all applicants with an ``Air Force Applicant 
Rights/Responsibilities Card'' as early as practical in the application 
process before Military Entrance Processing Command (MEPCOM) 
processing. This card clearly defines professional relationships to 
potential applicants and provides guidance on how to report any 
violations. Recruiters are directed to discuss and train Delayed Entry 
Program (DEP) recruits on expectations.
    In addition, each applicant views a video discussing professional 
relationships--what is professional and unprofessional, as well as 
expectations of recruits as Air Force members and what they can expect 
from their recruiter and the recruiting process. By defining what is 
and is not acceptable, the applicant knows what is expected and what is 
expected of the recruiter. This enhances the Rights/Responsibilities 
card--if the recruit notices unacceptable behavior, he/she can then act 
on it by contacting local Air Force leadership or the contacts listed 
on the card.
    Each recruit has the opportunity to discuss potential misconduct 
when they visit the Military Entrance Processing Station (MEPS) for the 
first time. Here, away from his/her recruiter, our MEPS liaison 
completes a survey with each recruit and asks if there were any 
instances of misconduct or action/words that made the recruit 
uncomfortable. If so, leadership addresses the concerns with the 
recruit and investigates allegations further to determine if additional 
action is necessary.
    Applicants will also receive periodic briefings from supervisors 
and squadron leadership during their time in the DEP. These briefings 
will further emphasize rights, roles, and responsibilities of all 
members as well as ways to report suspected or actual cases.
    The survey process completed with the MEPS liaison in the 
recruiting process is repeated both in basic military training (BMT) 
and technical training. Essentially the survey becomes a cradle to 
grave document within the accessions and training continuum.

                DEFENSE SEXUAL ASSAULT INCIDENT DATABASE

    114. Senator Inhofe. Secretary Donley, DOD has told us they have 
achieved full-deployment of the congressionally-mandated Defense Sexual 
Assault Incident Database (DSAID). Is the Air Force providing data to 
populate the database?
    Mr. Donley. Yes, the Air Force was the first Service to implement 
the Defense Sexual Assault Incident Database (DSAID) to streamline data 
collection efforts and reporting.

    115. Senator Inhofe. Secretary Donley, specifically, what 
information is this database providing Air Force leadership concerning 
sexual assault incidents?
    Mr. Donley. Defense Sexual Assault Incident Database (DSAID) is a 
centralized, case-level database for the uniform collection of DOD 
Military Service data regarding incidents of sexual assaults involving 
persons covered by Department of Defense Instruction (DODI) 6495.02. 
DSAID includes information when not limited by Restricted Reporting, or 
otherwise prohibited by law, about the nature of the assault, the 
victim, the offender, and the disposition of reports associated with 
the assault. DSAID is available to the Sexual Assault and Response 
Office and the DOD to develop and implement congressional reporting 
requirements. Unless authorized by law, or needed for internal DOD 
review or analysis, disclosure of data stored in DSAID is only granted 
when disclosure is ordered by a military, Federal, or State judge or 
other officials or entities as required by a law or applicable U.S. 
international agreement. DSAID is a valuable tool that Air Force 
leaders can utilize to identify the extent and trends of reported cases 
either at their location or the Air Force as a whole. It helps leaders 
to plan strategies for combatting sexual assault.
    DSAID includes the capability for entering records and interfacing 
data; generating predefined and ad hoc reports; and conducting case and 
business management. Specifically, the system is a warehouse of sexual 
assault case information; has the ability to run queries and reports; 
provides the SARC with the capability to interface and manage case-
level data; includes victim, subject, and case outcomes in connection 
with the assault; and allows for SAPR Program Administration and 
Management.

                             SEXUAL ASSAULT

    116. Senator Inhofe. Secretary Donley and General Welsh, before 
this committee, DOD witnesses described the recently revised DOD-wide 
policy on Sexual Assault Program to standardize prevention, health 
care, victim safety, training, and response efforts, and to clearly 
convey the role of servicemembers and employees in sexual assault 
prevention and recovery. This committee is concerned that medical care 
providers were not fully aware of their obligations concerning 
restricted reports, including the obligation to withhold disclosure to 
the chain of command. What actions have been taken to ensure 
standardization with response to protecting the sanctity of restricted 
reports?
    Mr. Donley and General Welsh. DOD and the Air Force have 
established policy concerning restricted reporting cases as detailed in 
DODI 6495.02 and AFI 36-6001. Sexual assault policy pertaining to 
medical care is listed in AFI 44-102. If a victim first reports to a 
medical provider without having consulted with a SARC, the victim is 
referred to the SARC, after completion of immediate medical care, to 
ensure the victim is advised of all reporting options. Sometimes, the 
SARC is able to report to the medical facility to advise the victim of 
reporting options. If the victim elects restricted reporting then Air 
Force medical personnel do not report the assault to command 
authorities and documentation of the medical assessment is flagged to 
prevent unauthorized release. Although some local jurisdictions require 
medical personnel to report certain crimes to local law enforcement, 
the Air Force respects the choices of our victims and does not pursue a 
military criminal investigation for those victims who elected 
restricting reporting. If the victim elects to file an unrestricted 
report, then the SARC, victim, and medical providers as a team ensure 
that the victim reports to the Office of Special Investigations and/or 
his/her chain of command.

    117. Senator Inhofe. Secretary Donley and General Welsh, what 
additional challenges do you see in attaining the required level of 
standardization?
    Mr. Donley and General Welsh. To attain a level of standardization 
we first need to clearly identify the root causes of sexual assault and 
ensure our airmen understand what behavior is acceptable and what is 
not. Once we have a firm grasp on those two issues we must establish a 
standardized SAPR training and education program throughout the Air 
Force. This is necessary to affect the positive cultural change we are 
striving to achieve. This training and education program should be 
firmly ingrained throughout the life cycle of our airmen, starting at 
basic military training and officer accession training programs through 
technical training and senior officer and NCO schools. A key element 
throughout the life cycle of training is combining the understanding of 
what is acceptable and what is not with the need to internalize and 
live by our Air Force core values. Our new SAPR office under the Vice 
Chief of Staff of the Air Force and led by Major General Maggie 
Woodward provides us the means to attain the proper level of 
standardization. The new SAPR office includes functional experts across 
the SAPR spectrum. Their expertise and the assistance we are receiving 
from subject matter experts from the civilian sector will help us take 
our Air Force SAPR program to the next level.

    118. Senator Inhofe. Secretary Donley and General Welsh, what 
additional tools does the Air Force need in order to continue to 
reduce--with the goal of eliminating--sexual assault?
    Mr. Donley and General Welsh. We appreciate your continued support 
for our ongoing efforts, with the understanding that results will not 
be immediately apparent. Over the past year, we have taken great 
strides to improve our prevention and response program through the 
development of numerous initiatives and tools. We enhanced our 
education and training programs, implemented a Special Victims Council 
(SVC) pilot program to assist victims, brought on additional SARCs to 
assist victims and developed a specialized Judge Advocate/Office of 
Special Investigations training course designed to train Special 
Victims investigators and prosecutors for sexual assault offenses. 
Additionally, we expanded the Leaders Toolkit on the Air Force 
Personnel Center SAPR website and created a new Chief of Staff of the 
Air Force and Chief Master Sergeant of the Air Force video for our 
airmen.
    Furthermore, we recently stood up the Air Force's new SAPR 
directorate aligned directly under the Vice Chief of the Air Force and 
led by a Major General. This new SAPR office will grow the old four 
person office to over 30 functional experts across the SAPR spectrum. 
This office's mandate is to develop a comprehensive multi-pronged 
campaign plan to combat sexual assault and harassment in our force. 
Once this office has progressed in its analysis of root causes, trends, 
and prevention strategies the Air Force will engage with your office 
and other key members of Congress on our planned way ahead and 
additional tools we may need.

    119. Senator Inhofe. General Welsh, some have suggested that it 
would be appropriate to incorporate standardized assessments of 
commanders' performance in prevention, investigation, accountability, 
advocacy, and assessment of sexual assault response and prevention 
lines of effort. What is your assessment of the feasibility of 
implementing commanders' performance in service-specific performance 
appraisals?
    General Welsh. DOD is currently evaluating the methods used to 
assess the performance of military commanders for establishing command 
climates of dignity and respect and incorporating SAPR into their 
commands to ensure standardization across the Services.

    120. Senator Inhofe. Secretary Donley, the annual report on sexual 
assault at the Service Academies revealed that many people who enter 
the armed services have experienced and reported sexual assault or 
unwanted sexual contact that occurred before they entered the Service 
Academies or the armed services. What could the Air Force be doing to 
improve support to men and women in the accession process, to identify 
whether individuals have experienced sexual assault?
    Mr. Donley. In both officer and enlisted accession processes we 
identify our definition of sexual assault, provide a description of our 
prevention and response program, and allow the recruits to speak with 
SARCs should they have any concerns or questions. We have hired 
additional SARCs/Victim Advocates at some bases due to increased 
workload driven by training requirements and caseload due to more 
reporting. Additionally, we are creating a voluntary course focused on 
prevention for those with prior victimization that includes coping 
methods and skills.

                      COMMAND CLIMATE ASSESSMENTS

    121. Senator Inhofe. Secretary Donley and General Welsh, what 
percentage of your commands conduct command climate assessments?
    Mr. Donley and General Welsh. All Air Force units have the 
opportunity and are encouraged to conduct climate assessments by the 
Equal Opportunity (EO) Office. EO Offices, on behalf of the commander, 
administer Unit Climate Assessments (UCA) on organizations that have 50 
or more personnel (both military and civilian combined). For those 
organizations with less than 50 members, commanders are not afforded 
the Unit Climate Assessment; however, they are able to utilize other 
forms of EO climate assessment such as out and abouts, focus groups, 
and interviews. In addition, the Defense Equal Opportunity Climate 
Survey (DEOCS) is available through the Defense Equal Opportunity 
Management Institute (DEOMI) to gauge the climate of the organization. 
The difference between the UCA and the DEOCS is that contractors are 
permitted to be survey participants in the DEOCS.
    The UCA is required every 2 years or upon commander's request. With 
the passage of the NDAA for Fiscal Year 2013, the new requirements 
necessitate annual climate assessments and they must be completed 
within 120 days upon assumption of command. The Air Force is currently 
revising Air Force regulations to reflect the new requirements.

    122. Senator Inhofe. Secretary Donley and General Welsh, what is 
the Air Force doing to improve the regularity of command climate 
assessments?
    Mr. Donley and General Welsh. The overall Air Force climate 
assessment is conducted annually. Current regulatory guidelines require 
units to conduct climate assessments in units once every 2 years and 
upon request by a commander. The NDAA for Fiscal Year 2013 has a 
requirement to conduct a climate assessment annually and within 120 
days upon assumption of command by a new commander.
    The Air Force is considering several courses of action on how to 
increase the regularity of command climate assessments with existing 
resources, including increasing the use of focus group interviews and 
various other survey assessments.

    123. Senator Inhofe. Secretary Donley and General Welsh, what are 
you doing to evaluate the results of the command climate assessments to 
ensure necessary follow-up action?
    Mr. Donley and General Welsh. The Air Force Climate Survey is 
conducted biennially and the results are out-briefed to the Secretary 
of the Air Force and released to the units. Commanders with ten or more 
respondents are provided survey results along with a guide developed by 
behavioral scientists from the Air Force Personnel Center, Directorate 
of Manpower containing specific recommendations and lists of resources 
to improve their unit climate. Leaders that use previous survey results 
to make improvements with the organization have yielded higher levels 
of agreement in all areas.
    In addition to the Air Force Climate Survey, the Air Force has 
Equal Opportunity (EO) subject matter experts that conduct Unit Climate 
Assessments (UCA), analyze the results, and provide an out-brief to 
unit commanders. During the out-brief, EO professionals discuss 
recommendations and strategies for problem resolution and offer follow-
up services to help resolve EO or managerial related problems. With the 
passage of the NDAA for Fiscal Year 2013, UCAs will be conducted 
annually, rather than biennially, and within 120 days upon assumption 
of command.

                   FEDERAL VOTING ASSISTANCE PROGRAM

    124. Senator Inhofe. Secretary Donley, what is your assessment of 
the performance of the Air Force Federal Voting Assistance Program 
(FVAP)?
    Mr. Donley. The Air Force FVAP is a successful program within the 
department at all levels of command. In 2012, the Air Force Major 
Command (MAJCOM) inspection teams reviewed 134 Voting Assistance 
Programs at squadron, group, wing and command levels with just 12 
discrepancies reported. All discrepancies were classified as ``minor 
deficiencies'' by the SAF/IG. As a result, the Air Force is confident 
we have an effective FVAP in place and military members have the 
resources to exercise their right to vote.

    125. Senator Inhofe. Secretary Donley, what Air Force-specific 
initiatives have you implemented to improve compliance with FVAP and to 
maximize the opportunity for servicemembers to exercise their right to 
vote?
    Mr. Donley. The U.S. Air Force (USAF) Voting Assistance Program 
initiated several initiatives to improve compliance with FVAP and Title 
42, U.S.C.

     1.  The USAF made a change to Air Force Policy Directive (AFPD) 
36-31 which effects the requirement for an Installation Voting 
Assistance Office (IVAO) in the Military and Overseas Voter Empowerment 
(MOVE) Act, establishing the office as a voter registration agency 
within the installation headquarters organization reporting directly to 
the installation commander
     2.  USAF moved ahead quickly with changes to the AF Voting Action 
Plan in December of 2009, implementing various requirements of the MOVE 
Act prior to OSD and FVAP releasing any guidance (i.e., service 
requirements for moving members and deployers immediately implemented).
     3.  USAF implemented the ``Core Unit Voting Assistance Officer 
(UVAO)'' position which is authorized by the installation commander's 
appointment letter for the IVAO. IVAO are given the authority to 
appoint up to four Core UVAOs to assist in the manning and workload of 
the IVAO, which remains an unfunded mandate to date. Special training 
is required for IVAO and Core UVAO positions.
     4.  USAF produced an ``IVAO Handbook'' supplement to the ``FVAP 
IVAO Handbook'' on 30 Aug 2010. To date, seven versions have been 
published. In May 2013, the Handbook contents are being incorporated 
into the AF Voting Action Plan so that IVAOs and other IVA Office 
workers have a single document for the execution of the AF Voting 
Assistance Program.
     5.  USAF established an effective communication dissemination 
system from Service Voting Action Officer (SVAO) to IVAO to UVAO to all 
Squadron members and their voting age family members. Any voting news 
items generated by FVAP were immediately passed on to voters through 
this streamlined network.
     6.  USAF IVAOs are required to be clearly marked and advertised on 
base, giving voters a visible office; and UVAOs were not forgotten. 85 
percent of voting assistance during the past quarter was done at the 
unit level by UVAOs.
     7.  USAF SVAO scripted a Public Service Announcement which the 
USAF Chief of Staff released in January 2012, encouraging military 
members, DOD civilians and their families to vote.
     8.  USAF SVAO implemented a new Staff Assistance Visit 
(inspection) requirement for IVAOs to perform on all assigned UVAOs 
between Feb and March of every even-numbered year.
     9.  IVAOs are instructed to partner with military and civilian 
personnel offices to have the IVAO included on in/out-processing 
checklists for Permanent Change of Station (PCS) and deployment 
processing as well as for address changes.
    10.  USAF maintains an online website that allows IVAOs and UVAOs 
to access all current documents and guidance; search for and submit 
``best practice'' documents; and communicate via the forum.
    11.  USAF IVAOs are encouraged to work with local election 
officials (LEOs) during biannual Armed Forces Voters Week and Absentee 
Voters Week events to invite the LEOs on base to assist in the booth 
for local voters.
    12.  USAF IVAOs are provided an intuitive, stand-alone, forms-based 
``IVAO's Database'' for easy management of UVAO manning and training 
requirements as well as documenting UVAO ``due-outs'' (tasks), voters 
week plans and after action reports. Reports are generated at the push 
of a single button.
    13.  The USAF Voting Action Plan provides IVAOs and UVAOs multiple 
tools to use in the execution of their voting assistance duties. These 
include instructions for ordering forms, posters, and banners online at 
no cost to their units; template voting assistance information forms; 
and a biannual chronological sequence of events.
    14.  Various other measures were taken following the passing of the 
MOVE Act: (a) IVAO voicemail and email is answered within 48 hours (24 
hours if within 60 days of a Federal election); and (b) USAF SVAO 
hosted a webinar to train IVAOs on establishing and running IVA Offices 
(three webinars done to ensure time zones around the world were 
supported).

                      OPERATIONAL TEMPO OVERSIGHT

    126. Senator Inhofe. Secretary Donley, what is your assessment of 
the Air Force's operational tempo (OPTEMPO) reporting, and how well are 
we meeting our OPTEMPO requirements to reduce stress on our 
servicemembers and their families?
    Mr. Donley. OPTEMPO for an individual away from home on an 
operational deployment is managed by unit commanders and tracked 
through the individual's electronic personnel records. In turn, this 
information is transferred to the Defense Manpower Data Center in 
accordance with DODI 1336.07, Reporting of Personnel tempo events. We 
believe this process provides an accurate record for reporting.
    Due to the number of operations and locations the Air Force is 
currently supporting, we have not seen a significant reduction in 
requirements. We are, however, working closely with Air Force component 
staffs to reduce deployed footprint and leverage reach back capability.

                     LANGUAGE AND CULTURE TRAINING

    127. Senator Inhofe. Secretary Donley, military members with 
language and culture training are essential to a U.S. global force. The 
NDAA for Fiscal Year 2013 authorized the Secretary of Defense to 
transform the National Language Service Corps (NLSC) from a pilot 
program to a permanent program, and also to enhance the ability of our 
Federal agencies to hire people with strategic foreign language skills 
and as National Security Education Program (NSEP) awardees. What are 
the goals of the Air Force with respect to the capabilities represented 
by the NLSC?
    Mr. Donley. The purpose of the NLSC is to have a pool of language-
capable individuals available to support sudden and short-term 
requirements. The NLSC construct is not currently used to support the 
type of exercises and operations conducted by the Air Force. Rather, 
the Air Force meets its language needs by deliberately developing 
individuals to meet its requirements. The Air Force intends to 
encourage separating and retiring airmen who have existing language 
skills to join the NLSC.

                       MARKETING AND ADVERTISING

    128. Senator Inhofe. Secretary Donley, one effect of sequestration 
was that the Services quickly moved to end advertising, marketing, and 
outreach programs that have been used to aid in recruiting. What is 
your assessment of the value of funding these programs, and the 
projected impact to recruiting if these programs are not funded?
    Mr. Donley. The Air Force advertising, marketing and outreach 
programs are a critical component to our mission--to attract the best 
and brightest youth of America. Reduced funding for these programs will 
jeopardize the Air Force's ability to meet career field and DOD quality 
requirements. Even though the Air Force has greatly benefited from 
historic highs in the quality of accessions in recent years, initial 
indicators are signaling a potential shrinking market for high quality 
recruits per Joint Advertising Market Research and Studies ``State of 
the Recruiting Market,'' briefing April 2013. That same study indicates 
that 47 percent of new recruits were undecided about a career path and 
were influenced within a year of joining the Service. The Air Force 
must continue to strategically advertise, market, and maintain outreach 
programs to target the highest quality recruits and to convert 
applicants that are less likely to serve.

                  INTEGRATED ELECTRONIC HEALTH RECORD

    129. Senator Inhofe. Secretary Donley, DOD and VA have been working 
on an integrated electronic health record (EHR) for a number of years 
with very little progress being made towards a truly seamless 
transition of health information between the two Departments. In 
January 2013, VA decided to use VistA, its legacy system, as its core 
health record despite the findings of a recent study commissioned by 
the VA that identified many VistA deficiencies. We've been told that 
DOD has been evaluating existing solutions to determine the appropriate 
core health record to use. Has DOD coordinated its proposed EHR program 
with the Air Force?
    Mr. Donley. We fully support the Secretary of Defense's decision to 
proceed with a Request for Proposals for a core Electronic Health 
Record for DOD that will enable full interoperability between DOD and 
VA health care. The Air Force Surgeon General's Chief Medical 
Information Officer has been involved in the AOA between VistA and 
other commercial electronic health records. Additionally, the Air Force 
Deputy Surgeon General has been a regular participant in DOD and 
Veterans' Affairs meetings regarding validation of requirements and 
evaluation of solutions. The Surgeon General has kept me appropriately 
updated.

    130. Senator Inhofe. Secretary Donley, how much will it cost for 
the Air Force to field a new EHR?
    Mr. Donley. DOD's electronic health record cost estimates must be 
redetermined under the acquisition strategy directed by the Secretary 
of Defense. Prior cost estimates were based on a previous DOD and 
Veteran' Affairs' strategy that was determined by both Departments to 
be infeasible.

    131. Senator Inhofe. Secretary Donley, what impact do you 
anticipate for Air Force medical readiness?
    Mr. Donley. With a new electronic health record, data and 
documentation pertaining to individual medical readiness will be better 
integrated into clinical processes, enhancing our ability to provide 
timely health measures to sustain readiness, forecast deterioration in 
health status earlier, and proactively restore the health of the 
servicemembers under our care.

    132. Senator Inhofe. Secretary Donley, do you believe the EHR must 
be deployable?
    Mr. Donley. In the initial capability document approved by the 
Joint Requirements Oversight Council, the electronic health record 
should be deployable in Theater and support the mobility requirements 
for enroute care. The solution would eliminate the need for three 
separate theater electronic health record solutions and enhance 
continuity of care, even in ``low-communication/no-communication'' 
environments.

    133. Senator Inhofe. Secretary Donley, what input has the Air Force 
had on the EHR program?
    Mr. Donley. The Air Force Surgeon General's Chief Medical 
Information Officer has been involved in the AOA between VistA and 
other commercial electronic health records. Additionally, the Air Force 
Deputy Surgeon General has been a regular participant in DOD and 
Veterans' Affairs meetings regarding validation of requirements and 
evaluation of solutions. The Air Force Medical Service and Air Force 
Communications communities have provided more than 100 clinical subject 
matter experts for the functional and technical requirements process.

                     BENEFITS FOR SAME-SEX PARTNERS

    134. Senator Inhofe. Secretary Donley, recently, former Secretary 
of Defense Panetta announced that DOD will expand benefits to unmarried 
same-sex domestic partners who declare a committed relationship, but 
will not extend those same benefits to unmarried heterosexual domestic 
partners. Do you agree with former Secretary Panetta that when it comes 
to benefits paid for by hard-working American taxpayers, that DOD 
should favor same-sex domestic partners over heterosexual partners?
    Mr. Donley. As a result of the June 26, 2013 Supreme Court ruling 
on the Defense of Marriage Act, the Air Force is working with OSD to 
extend health care and other benefits to same-sex spouses of military 
members as quickly as possible.

    135. Senator Inhofe. Secretary Donley, was the Air Force consulted 
to determine the cost impact of extending these benefits to same sex 
partners?
    Mr. Donley. Benefit subject-matter experts were consulted during 
the OSD-led Joint Benefits Review working group. The Air Force provided 
input via this working group and various other senior leader briefings 
and discussions leading up to the announcement of benefits extension. 
From a fiscal perspective, the benefits that are being extended are of 
negligible cost. Some are cost neutral and self-sustaining such as 
Morale, Welfare and Recreation Programs, and commissary and exchange 
privileges.

                            TOTAL FORCE MIX

    136. Senator Inhofe. General Welsh, in his hearing testimony, 
General Dempsey said that DOD needs flexibility to keep the force in 
balance and, that everything must be on the table, including the mix 
among Active, Reserve, and National Guard units. In view of the heavy 
wartime demand on the forces, including the Reserve and Guard, what do 
you envision as a viable option to change that force mix for the Air 
Force?
    General Welsh. For the Total Force Air Force, numerous options are 
on the table. To preserve the capability and capacity to win our 
Nation's wars, enhance readiness, and modernize our warfighting 
capability, the Air Force must have the flexibility to balance between 
all three components--Active, Guard, and Reserve. In today's fiscal 
environment, this is a daunting challenge, and the leaders of all three 
components are fully engaged to meet this challenge.
    All three components are working diligently to appropriately size 
the Total Force Air Force mix to meet the demands of the Defense 
Strategic Guidance, geopolitical environment, and combatant commander 
requirements. The Air Force uses Force Composition Analysis (FCA) to 
provide senior leaders a range of force mix options, providing insight 
into the optimum active component/reserve component (AC/RC) mixes for 
various scenarios. FCAs are an enterprise-level analysis of a given 
weapon system or career field. These FCAs examine mission feasibility 
across a range of force mix options, based upon the associated outputs, 
costs, benefits and risks. The force mix in a specific mission area 
normally favors the AC when: (1) deployment must occur rapidly, or in a 
very short period of time, (2) steady-state demand requires rotational 
forces exceeding current policy, or (3) permanent (non-rotational) 
overseas presence is high. On the other hand, the force mix in a 
specific mission area normally favors the RC when: (1) deployments 
occur at a pace that allows the RC time to mobilize the force (normally 
72 hours after notification), (2) anticipated steady-state and/or 
forward presence requirements do not exceed deploy-to-dwell policy, or 
(3) cost savings and retaining capability/capacity are sought by moving 
force structure to the RC.

                         MILITARY COMPENSATION

    137. Senator Inhofe. Secretary Donley, our Nation's historical 
experience of pursuing cost savings by cutting military compensation 
has demonstrated that periods of designed reduction in overall 
compensation levels resulted in retention problems. Those retention 
problems, especially in the context of generally improving civilian 
employment opportunities, meant Congress was required to come back and 
authorize catch-up increases to help us keep the highly trained talents 
and skills that we need. What is your assessment of the impact of the 
President's proposed slowdown in military compensation on retention and 
recruiting in your Service?
    Mr. Donley. At this time, the Air Force does not foresee 
significant challenges to our recruiting and retention efforts as a 
result of the proposed slowdown in military compensation. Our Force 
Management program is a tailored multi-year strategy focused on sizing 
and shaping the total force with the right balance of skills to meet 
current and emerging joint mission demands. The Air Force's strategy 
over the past few years has been aggressive, allowing us to meet 
congressionally mandated end strength requirements and maintain a high 
quality force by leveraging voluntary programs first, offering 
incentive programs where needed, and implementing involuntary actions 
when required. Due to the expected improvements in the economy and the 
importance our airmen place on overall compensation, our recruiting and 
retention will be increasingly challenged, particularly as the Air 
Force addresses the need for its highly technically-skilled force. 
These compensation challenges may require increased recruiting and 
retention incentives for our future force.

                        FAMILY SUPPORT PROGRAMS

    138. Senator Inhofe. Secretary Donley, General Dempsey testified 
that unsustainable costs and smaller budgets require DOD to examine 
every warrior and family support program to make sure we are getting 
the best return on our investment. How do you assess the investments 
our Nation has already made in family support programs, and suicide 
prevention in particular, in moving the needle with demonstrable 
positive return on investment?
    Mr. Donley. We have multiple forums that enable us to monitor the 
delivery of family support programs. Within our Airman and Family 
Readiness Centers, we have a very robust computer management system 
that provides us with real time data for our supported populations-
service codes are used to record the type of support sought (e.g., 
financial management) and the system allows the provider to make 
notations of the visits. Additionally, the Air Force conducts biennial 
Community Assessments, through the Air Force Surgeon General, that 
provide valuable data on our ability to meet individual needs, and also 
collects information regarding behaviors that may place an individual 
at risk. Further, the Air Force Community Action Information Board 
(CAIB), convened at the installations, major commands, and Headquarters 
Air Force, identifies community issues to emphasize the importance of 
taking care of airmen and their families. Since 1996, the CAIB process 
has focused extensively on monitoring, managing, and implementing 
suicide prevention best practices for use by commanders. Additionally, 
the CAIB provides detailed actions and discussions on sexual assault 
prevention, child and family maltreatment issues, and resilience. A 
significant outcome from the CAIB process has been the development and 
implementation of the Comprehensive Airman Fitness concept that 
concentrates exclusively on developing our airmen and families to 
become more resilient and better prepared to meet the unique challenges 
of military service.

                       TUITION ASSISTANCE PROGRAM

    139. Senator Inhofe. Secretary Donley, I am pleased to learn that 
DOD has now reinstated the TAP, previously cancelled by the Army, 
Marine Corps, and Air Force, in response to the administration's 
failure to plan for sequestration. How does TAP enable your Active Duty 
Forces to meet the professional development requirements described by 
General Dempsey to establish the Profession of Arms as the foundation 
for the Joint Force?
    Mr. Donley. Military tuition assistance provides the financial 
means for our airmen to pursue higher education. In turn, higher 
education provides the educational background crucial in developing the 
critical thinking skills needed for practitioners of the profession of 
arms. This means our airmen are more able to work in the dynamic 
climate of today's conflicts. Additionally, higher education allows 
airmen to develop the critical ability to make connections between 
seemingly unrelated events or information and develop holistic 
solutions quickly and accurately. Military tuition assistance will 
continue to be integral to the recruiting, retention and readiness of 
our airmen. However, competing funding requirements will necessitate 
changes in fiscal year 2014 and beyond to ensure the financial health 
of the program.

                           SUICIDE PREVENTION

    140. Senator Inhofe. Secretary Donley and General Welsh, our force 
is exceptionally well-trained on suicide awareness and prevention, and 
yet we still experience the tragedy of suicide at an unacceptably high 
rate. What is your assessment on whether the current level of training 
and leadership engagement is sufficient or whether it has inadvertently 
created a climate in which some vulnerable individuals may have 
contemplated suicide because we talk about it so much?
    Mr. Donley and General Welsh. The current level of training on 
suicide prevention and leadership engagement in the Air Force is 
appropriate and the Air Force has been proactive in managing its 
messages regarding suicide.
    The Air Force has maintained emphasis in training and messaging on 
elements of resilience and the importance of seeking help early. Our 
leadership training cautions against dramatizing suicide. The AF 
Suicide Prevention program (AFSPP) is an effective evidenced-based, 
leader-led, community program that relies on 11 overlapping elements. 
The core of these elements is leadership involvement.
    Enhancements were made to the AFSPP as part of the Air Force 
response to the 2010 Suicide Task Force and the RAND reports. One of 
the most critical enhancements was the development of a strategic 
communication plan to promote responsible reporting of deaths by 
suicide, encouraging help-seeking behaviors among all airmen, and 
removing barriers to seeking care. This was done to ensure that in our 
efforts to prevent suicide, the Air Force was not inadvertently 
promoting suicide. The culmination of these efforts was the development 
of the Air Force Public Affairs Guidance (PAG) on Suicide Prevention 
that is consistent with the World Health Organization media guidelines 
and the OSD Public Affairs media guidance. The Air Force also supports 
the joint VA/DOD Military Crisis line campaign.
    In addition, the Air Force has ensured that this message 
emphasizing the importance of seeking help early is reflected in 
suicide prevention training courses and has worked hard to balance the 
amount of suicide prevention training. Current training includes annual 
suicide prevention training for all airmen, focusing on identifying 
risk factors and warning signs how to intervene using the Ask, Care, 
Escort (ACE) model. Supervisors of personnel in at-risk career fields 
receive a one-time 4-hour training session to supplement their 
supervisory skills with knowledge of resources and referral procedures. 
Leaders receive training within professional military education courses 
with suicide prevention messaging and information appropriate to their 
level of responsibility. As a result, we have achieved a balance that 
ensures leadership is engaged and all airmen understand their 
responsibility to look out for one another, identify warning signs, and 
seek help.

                             C-27 TRANSFER

    141. Senator Inhofe. General Welsh, what is the status of the 
transfer of 25 C-27 aircraft currently possessed by the Air Force?
    General Welsh. The Air Force has purchased 21 C-27J aircraft, of 
which we currently possess 16. The remaining five aircraft are in 
various stages of production, all anticipated to be delivered to the 
Air Force by the end of calendar year 2013.
    Currently, DOD is determining: (1) the number of C-27Js that are 
excess to DOD needs, and (2) the appropriate transfer priorities, in 
light of existing DOD policy regarding the disposition of excess 
defense materiel and the fiscal year 2013 Appropriations and 
Authorization Act requirements. Interested agencies will be notified 
this summer regarding allocation plans. In the end, the Air Force 
intends to transfer these aircraft to a new owner(s), or induct them 
into long-term storage at the Aerospace Maintenance and Regeneration 
Group G) by the end of this fiscal year.

    142. Senator Inhofe. General Welsh, is the Air Force factoring in 
the gaining agency's ability to operate and sustain the aircraft as 
part of its transfer decision criteria?
    General Welsh. No, the excess aircraft disposition procedures 
outlined in the Defense Materiel Disposition Manual (DOD 4160.21M 
Chapter 4) do not contain such criteria. Transfer is based on the 
priority for allocation of the requesting agency. The Air Force has 
shared with the agencies who have expressed interest in receiving C-27J 
aircraft our historical operations and sustainment costs in order to 
help them build their transitions plans to accept aircraft. The Air 
Force will coordinate the transfer of C-27J aircraft with each gaining 
organization, but the ability to operate and sustain the aircraft, 
post-transfer, is the concern of the gaining organizations.

    143. Senator Inhofe. General Welsh, is the Air Force considering 
transferring all 25 C-27s to one agency to minimize cost of operating 
and maintaining these aircraft?
    General Welsh. The Air Force has purchased 21 C-27J aircraft, not 
25. Excess aircraft disposition procedures outlined in the Defense 
Materiel Disposition Manual (DOD 4160.21M Chapter 4) do not contain 
such criteria. Transfer is based solely on the priority for allocation 
of the requesting agency. Aircraft may be transferred to other agencies 
after the Secretary of Defense declares them excess to DOD needs. 
Section 1091 of the NDAA for Fiscal Year 2013 outlines the parameters 
for these transfers to include the number of aircraft a non-DOD 
organization (in this case, U.S. Forest Service and U.S. Coast Guard, 
with first priority given to the Forest Service) can receive.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                                 C-27J

    144. Senator McCain. Secretary Donley, as the Air Force implements 
the C-27J divestiture, what is the current status of the screening 
procedure outlined in DOD 4160.21-M, Defense Material Disposition 
Manual, as amended by section 1091 of the NDAA for Fiscal Year 2013?
    Mr. Donley. Currently DOD is determining the number of aircraft 
that are excess to its needs and the appropriate transfer priorities in 
light of existing DOD policy regarding the disposition of excess 
defense materiel and the fiscal year 2013 Appropriations and 
Authorization Acts. Interested agencies will be notified this summer 
regarding allocation plans.

    145. Senator McCain. Secretary Donley, have any C-27J been 
identified for allocation to: (1) another military Service; (2) another 
DOD agency; (3) the Forest Service; (4) the U.S. Coast Guard; (5) 
Federal/State law enforcement (per the NDAA for fiscal year 1997, 
section 1033); (6) security assistance needs; or (7) other Federal 
civil agencies through the General Services Administration?
    Mr. Donley. No, not yet. Currently DOD is determining the number of 
aircraft that are excess to its needs and the appropriate transfer 
priorities in light of existing DOD policy regarding the disposition of 
excess defense materiel and the fiscal year 2013 Appropriations and 
Authorization Acts. Interested agencies will be notified this summer 
regarding allocation plans.

    146. Senator McCain. Secretary Donley, what number of aircraft has 
been requested by the Forest Service or the Coast Guard at this time?
    Mr. Donley. The Secretary of Agriculture has requested seven 
aircraft for the U.S. Forest Service. The Secretary of Homeland 
Security has requested 21 aircraft for the Coast Guard, but will accept 
no fewer than 14 aircraft. The Coast Guard has stated that their 
analysis shows that they need a minimum of 14 aircraft to make a C-27J 
program cost-effective.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                           GLOBAL HAWK SYSTEM

    147. Senator Wicker. General Welsh, how much money has been 
invested in sustaining and modernizing the U-2 fleet over the past 5 
years? Please include all sources of funding, including appropriations 
and reprogramming, both above and below threshold.
    General Welsh. The investment in sustaining and modernizing the U-2 
fleet over the last 5 years is in the table below:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                Fiscal Year
                                                                  ----------------------------------------------------------------------  Total 5 Years
                                                                       2008          2009          2010          2011          2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
Operating Costs (No Mods) BY.....................................  $513,546,387  $543,238,188  $513,804,668  $534,965,623  $555,256,038   $2,660,810,904
Mod Cost.........................................................    31,192,000    61,360,000    34,452,000   138,340,000    61,257,801      326,601,801
                                                                  --------------------------------------------------------------------------------------
Operational cost w/ Mods.........................................  $544,738,387  $604,598,188  $548,256,668  $673,305,623  $616,513,839   $2,987,412,705
--------------------------------------------------------------------------------------------------------------------------------------------------------

    $57.4 million in fiscal year 2011 procurement was invested for 
capability enhancements supporting combatant commander urgent 
operational needs, not modernization costs incurred fixing aging 
equipment, or solving diminishing manufacturing sources and vanishing 
vendor item issues.

    148. Senator Wicker. General Welsh, how much funding is needed to 
support the U-2 until 2040? Please include all anticipated sustainment 
and modernization costs. Please include all costs, including pilot 
training, special pilot food, special food development, chase cars, 
aircraft upgrades, infrastructure improvements, etc.
    General Welsh. Total U-2 funding for the next 27 years (2040) is 
approximately $16 billion, or about $600 million per year in today's 
dollars.

    149. Senator Wicker. General Welsh, if the Global Hawk could carry 
every sensor carried by the U-2, would there be a need to retain the U-
2?
    General Welsh. Yes. The Air Force's assessment of U-2 sensor 
superiority is based on a number of factors. The U-2 aircraft maintains 
a substantial advantage in size, weight, and power, allowing for 
heavier payloads and more electrical power to enable a wider range of 
mission systems. Additionally, the U-2's operational altitude extends 
the maximum range of its imagery and signals intelligence sensors 
beyond the Global Hawk, enabling the U-2 to operate at increased 
standoff range. Finally, the U-2's highly capable defensive system and 
anti-jam data links permit the U-2 to operate more effectively in 
contested environments, which are increasingly prevalent in potential 
combat theaters.
    A review of current Global Hawk Block 30 performance highlights the 
impact of previously assessed limitations. The Global Hawk does not 
have an effective capability to operate in areas of known or forecast 
thunderstorms or icing conditions, resulting in significant mission 
impact. Further, the lack of an effective capability to sense and avoid 
air traffic continues to drive a requirement to mitigate risk by 
employing other airborne assets in an overwatch role in selected AORs.
    The Air Force's decision to retain the U-2 also considers future 
applications consistent with Defense Strategic Guidance. Operations in 
contested environments require ISR weapon systems able to stand off at 
greater distances from contested boundaries and yet still collect 
against targets well inside the adversary's border. This mission 
demands ISR platforms with defensive systems to maintain an effective 
presence as tensions rise and then protect the aircraft from attempts 
to disrupt or defeat navigation systems and data links. In our 
assessment, a technical solution allowing U-2 sensors to be carried by 
Global Hawk still does not resolve the capability gap between platforms 
and thus the Air Force's intent is to retain the U-2.

    150. Senator Wicker. General Welsh, how much funding could be saved 
over the next 20 years by retiring the U-2 in fiscal year 2014?
    General Welsh. Air Force long-range plans provide approximately $13 
billion funding for U-2 sustainment and operations over the next 20 
years. However, divesting the U-2 in 2014 would create a significant 
operational and sensor capability gap. Transitioning those capabilities 
to another platform would require significant additional investment and 
time. In fact, no other current platform can match the altitude and 
weather capabilities of the U-2. In the current resource environment, 
continued investment in RQ-4 Global Hawk Block 30 operations is 
unaffordable given the lower total cost and proven sensor capabilities 
of the U-2 fleet. The most economical choice is represented in the 
President's fiscal year 2014 budget.

    151. Senator Wicker. General Welsh, please provide the average age 
and remaining service life of the Global Hawk fleet and the U-2 fleet.
    General Welsh. The average age of the Global Hawk fleet is 2.7 
years. The best means to measure service life is in flight hours. The 
flight hour average of the Global Hawk fleet is 1,193 hours. The 
certified service life for Global Hawk is 40,000 flight hours. The 
fleet average of 1,193 represents 3 percent of certified service life.
    The average age of the U-2 fleet is 31 years. The flight hour 
average of the U-2 fleet is 12,677 hours. The certified service life 
for the U-2 is 75,000 flight hours. The fleet average of 12,677 hours 
represents 16.9 percent of certified service life.

    152. Senator Wicker. General Welsh, please provide the: (1) total 
number of U-2 aircraft; (2) number of deployable U-2 aircraft; (3) 
number of currently deployed U-2 aircraft; (4) number of U-2 aircraft 
dedicated solely for training; and (5) type and number of all U-2 
sensors and their current locations.
    General Welsh. (1) There are a total of 32 U-2 aircraft; (2) number 
of deployable aircraft is 27 U-2 model aircraft with three U-2s in 
depot at any given point in time; (3) there are 12 U-2 model aircraft 
currently deployed; (4) we have five two-seat TU-2 trainers dedicated 
solely for training; and (5) the types and numbers of U-2 sensors are 
classified and will be provided under separate cover (and will include 
locations).

    153. Senator Wicker. General Welsh, please provide the cost of an 
hour on station (over target, collecting data, not training or 
transiting) for both the Global Hawk and the U-2 aircraft. Please 
consider all costs for both systems.
    General Welsh. The fiscal year 2012 (last full year) cost per hour 
on-station (over target, collecting data, not training) or transiting 
for Global Hawk is $68,234. The on-station cost for U-2 is $73,206. 
Because the two systems have been operated in different ways, these 
comparisons depend on multiple complex assumptions and will vary from 
year to year.

    154. Senator Wicker. General Welsh, please provide a thorough 
accounting of all missions flown by the Global Hawk fleet over the past 
24 months, including hours flown, types of missions, quantification of 
data collected (type and quantity of intelligence data), and locations 
of operations. Please provide similar data for the U-2 fleet. A 
classified response is acceptable, but please provide an unclassified 
overview as well.
    General Welsh. Due to the sensitive nature of the missions and 
complexity of the data requested we would be unable to provide an 
unclassified overview. We will provide information that addresses the 
request within 60 days.

    155. Senator Wicker. General Welsh, how much has been invested in 
the Global Hawk enterprise to date? How much specifically for the 
Blocks 20, 30, and 40 aircraft?
    General Welsh. The total baseline funding for the Global Hawk 
program through fiscal year 2013 is $10,733.5 million. The $10,733.5 
million is broken down as: Research Development Test & Evaluation: 
$3,257.1 million; Procurement, $5,116.4 million; Military Personnel, 
$482.8 million; Military Construction, $122.9 million; and Operations 
and Maintenance: $1,754.2 million. Funding cannot be broken out by 
specific Blocks. Funding is based on the December 31, 2012 RQ-4, Global 
Hawk Selected Acquisition Report. The funding for RDT&E does not 
include MP-RTIP and Airborne Sense and Avoid (ABSAA) costs, nor does it 
include fiscal year 2013 President's budget congressional adds, 
rescissions, and sequestration reductions.

    156. Senator Wicker. General Welsh, the Air Force Global Hawk is 
planned to be based jointly with the Navy Triton program. Presumably 
basing costs will be shared between both systems. Please provide an 
accounting for how basing costs are distributed between these systems 
and what costs would be shifted to the Navy program if the Air Force 
program were to go away.
    General Welsh. The Navy elected to base the MQ-4C Triton at Point 
Mugu Naval Air Station, California. The change in strategy was based on 
the fiscal year 2013 President's budget proposal to divest the Global 
Hawk (GH) Block 30 fleet. Consequently, basing costs are not shared 
between the two programs. However, the Navy continues to leverage 
lessons learned from the GH program to incorporate system improvements 
and establish a system support infrastructure. The Air Force and the 
Navy will continue to develop joint synergy opportunities that will 
lead to reduced operations costs over the life cycle of the GH and 
Triton programs.

    157. Senator Wicker. General Welsh, I understand the Global Hawk 
Block 40 system will be deployed to U.S. Central Command (CENTCOM) in 
May to provide ground-moving target-indicator support to deployed 
forces. I applaud the decision to deploy the Block 40 system to support 
the troops and hope the deployment will demonstrate the value of this 
uniquely capable system. I hope the Air Force is doing everything 
necessary to ensure the deployment is well supported and postured for 
success. Please provide a list of key deployment milestones and a 
detailed assessment of the resources necessary to facilitate a 
successful deployment.
    General Welsh. The Air Force is postured to respond quickly to a 
decision to deploy the Block 40 capability. Once a fielding 
recommendation has been made, there are a number of factors that 
CENTCOM will consider before a deployment decision is finalized. Key 
pre-deployment milestones include:

        <bullet> Mid-July: AFOTEC delivers final operational utility 
        evaluation report describing the effectiveness, suitability, 
        and mission capability of the system to the Commander, Air 
        Combat Command (ACC) who will determine the final fielding 
        recommendation
        <bullet> End of July: CENTCOM provides ACC deployment decision 
        for Global Hawk Blk 40
        <bullet> Subject to Commander ACC recommendation and CENTCOM 
        approval, a deployment is possible within weeks

                         GLOBAL STRIKE COMMAND

    158. Senator Wicker. Secretary Donley and General Welsh, I 
understand you are considering a Common Support Helicopter to recap 
your UH-1N fleet of aircraft. I believe there are existing and 
affordable replacement systems available to meet Global Strike 
Command's nuclear missile security mission during the decades to come. 
Please provide the current requirements for all current UH-1N missions.
    Mr. Donley and General Welsh. The Air Force's UH-1N is flown by 
five major commands, which include multiple mission sets: Air Force 
Global Strike Command's ICBM helicopter security support, the Air Force 
District of Washington's National Capital Region Mass Passenger 
Transport, Pacific Air Forces' Operational Support Airlift, Air 
Education and Training Command's Air Force Survival School, and Air 
Force Materiel Command's flight test support.
    The current requirements for the various missions of the UH-1N are 
documented in the Joint Requirements Oversight Council's approved 
Common Vertical Lift Support Platform (CVLSP) Capability Development 
Document. Although these requirements are no longer tied to a specific 
acquisition program (i.e., the CVLSP), the requirements for the UH-1N 
mission set remain valid.

    159. Senator Wicker. Secretary Donley and General Welsh, could you 
tell me whether the Air Force requirements have been reviewed and 
validated since these missions were separated from the Combat Rescue 
Helicopter program?
    Mr. Donley and General Welsh. The current requirements for the 
various missions of the UH-1N are documented in the Joint Requirements 
Oversight Council's approved CVLSP capability development document. 
Although these requirements are no longer tied to a specific 
acquisition program (i.e., the CVLSP), the requirements for the UH-1N 
mission set remain valid.
    Air Force Global Strike Command will continue to sustain the 
existing UH-1N fleet for the foreseeable future, and look for 
opportunities to acquire excess aircraft from other DOD organizations 
at low or no cost to the Air Force.

    160. Senator Wicker. Secretary Donley and General Welsh, please 
provide the findings and recommendations of the Air Force's Request for 
Information (RFI) on UH-1N modernization with regard to the costs of 
UH-1N modification versus replacement cost.
    Mr. Donley and General Welsh. In the case of the UH-1N, as stated 
in the original Request for Information, ``in terms of mission 
capability rates the UH-1 remains one of the most reliable platforms 
within the U.S. Air Force inventory.'' The purpose of the Air Force's 
RFI on UH-1N Modernization was to determine the feasibility of 
sustaining and making modest modernization enhancements to the platform 
via low cost options. The Industry Day presentations reaffirmed that 
the robust helicopter industry and the large number of UH-1's operating 
globally will enable the Air Force to effectively sustain the UH-1N 
until such a time that it can be replaced with an aircraft that 
provides all required capabilities.

    161. Senator Wicker. Secretary Donley and General Welsh, please 
provide the current operational availability of the UH-1N fleet and the 
Air Force assessment of any risk regarding the maintenance and adequate 
availability levels.
    Mr. Donley and General Welsh. The current UH-1N average aircraft 
availability for fiscal year 2013 is 73.7 percent, meeting the Air 
Force Global Strike Command-established standard of 73.7 percent. The 
future aircraft availability rate is projected to continue to meet or 
exceed the 73.7 percent requirement. We expect to maintain adequate 
readiness levels for the foreseeable future.

    162. Senator Wicker. Secretary Donley and General Welsh, please 
tell me whether the Air Force has evaluated potential replacement 
aircraft for any of the missions performed by the UH-1N.
    Mr. Donley and General Welsh. The CVLSP was cancelled due to cost 
considerations in this constrained economic environment after 
determination that the Air Force could assume manageable risk in this 
area. Air Force Global Strike Command is no longer pursuing a Combat 
Rescue Helicopter option to replace the UH-1N fleet for similar 
reasons. Instead, Air Force Global Strike Command will continue to 
sustain the existing UH-1N fleet for the foreseeable future, and look 
for opportunities to acquire excess aircraft from other DOD 
organizations at low/no cost to the Air Force.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                   F-35 JOINT STRIKE FIGHTER PROGRAM

    163. Senator Ayotte. General Welsh, why is the F-35 one of your top 
acquisition programs?
    General Welsh. It is a fundamental truth of the modern battlefield 
that to win the fight, you must ``own the skies.'' This means 
protecting your own forces, while also holding the adversaries dearest 
targets at risk. This is a hard lesson learned during World War II, 
Korea, and Vietnam, and used to our advantage in Operations Desert 
Storm, Allied Force, Enduring Freedom and Iraqi Freedom. Without it, 
our troops in combat, whether in the air, on the ground, or on the 
seas, are put at undue risk, and our chances of ultimately achieving 
victory are diminished. ``Owning the skies'' is difficult to achieve, 
and requires vigilance in maintaining this advantage through continued 
investment and development in more capable aircraft, weapons and 
mission systems. This is more than something simply tasked as 
requirement within the Defense Planning Guidance, it is something our 
joint warfighter expects from their Air Force.
    Our potential adversaries know this truth as well, and continue to 
seek ways to prevent us from achieving it. Applying lessons from our 
previous conflicts, they are investing in advanced technology for their 
planes, weapons, and air defense systems that rival our own 
capabilities and in some cases surpass them. We are also faced with 
operating a fighter fleet that is smaller and older than in any time in 
our Services' entire history. With the threat getting more capable, and 
our own fleet at its oldest and smallest, the challenges to our ability 
to control the skies in any future conflict continue to grow.
    This is why the F-35 is one of our top acquisition programs. We are 
investing in a fifth generation fighter that ensures we field a fleet 
that supports the mission essential requirement to ``own the skies.'' 
Fifth generation fighters like the F-35 have the capabilities needed to 
achieve unmatched levels of survivability and lethality required to 
maintain our air advantage against the most challenging threats. These 
capabilities include improved stealth, high maneuverability, advanced 
electronic attack and protection, fused sensors for enhanced 
situational awareness, advanced precision weapons, and multi-role 
capability. Together, they provide our airmen the best tools available 
to ensure they never have to face a ``fair fight in the sky'' against 
any future adversary, and will continue to own the skies in the mission 
to support and protect the joint warfighter.

    164. Senator Ayotte. General Welsh, what advantages does a fifth 
generation fighter like the F-35 provide over a fourth generation 
aircraft?
    General Welsh. Our potential adversaries are continuing to develop 
and field systems to challenge our ability to ``control the skies''. We 
are seeing planes being developed and fielded that are as good as, or 
better than, our legacy fleet, with improved speed and agility, 
equipped with the latest and most advanced radars, avionics, and 
electronic jamming, employing highly advanced and lethal air-to-air 
weapons, and levels of signature reduction never seen before anywhere 
outside the United States. We are seeing the proliferation worldwide of 
air defense systems with advanced early warning and target tracking 
radars that are digital and agile, with better protection against 
jamming. These advanced air defense systems are integrated into robust 
and networked command and control centers that can target and engage 
unprecedented numbers of targets at greater ranges. We are also seeing 
strategic and tactical surface-to-air missiles (SAMs) with increased 
range, maneuverability, target tracking capability and lethality. 
Ultimately, we are seeing these types of systems evolve in both 
complexity and capability, being sold worldwide, and being used 
together to form integrated air defense systems that challenge our air 
advantage.
    While our legacy fleet, such as our F-16s, secured a generation of 
air advantage in previous conflicts, they now offer little margin in 
capability against the current high end threat, and will be severely 
challenged in future scenarios against these evolving threats. We are 
at the point where our conventional legacy aircraft risk both the 
forces they protect and our ability to secure victory. Our legacy fleet 
is also rapidly approaching the point where adding new capabilities 
will no longer guarantee success. These advanced threat environments 
require signature reduction (stealth) through proper design and 
materials to achieve required levels of survivability, which simply 
can't be ``added on'' but must be inherently designed into the aircraft 
from the beginning.
    While our legacy fourth generation fleet is unable to operate and 
survive in these high threat environments, they will remain a critical 
part of our inventory for many years, complementing our fifth 
generation fleet in reduced threat scenarios. Even these ``reduced 
threat scenarios'' need to honor advanced fourth generation threats 
currently being proliferated, thus requiring targeted investments to 
increase their lethality and survivability. This also means the Air 
Force is carefully choosing modernization efforts that maximize our 
cooperative capabilities between our fourth and fifth generation fleets 
in order to increase our ability to accomplish the mission.

    165. Senator Ayotte. General Welsh, in your prepared statement, you 
say that the ``Nation will need them [F-35s] in quantity.'' What is the 
current Air Force requirement for the F-35?
    General Welsh. The Air Force is planning to purchase 1,763 F-35As 
to meet our Defense Planning Guidance directed requirements for Air 
Superiority and Global Precision Attack.

    166. Senator Ayotte. General Welsh, what influence will an 
increased ramp rate in the coming years have on unit cost?
    General Welsh. In general, increased production rate will lower the 
unit cost of the F-35A. For the contract awarded in fiscal year 2011, 
the Air Force is buying 22 F-35A aircraft at an average unit recurring 
flyaway (URF) cost of $120 million. For the contract scheduled to be 
awarded in fiscal year 2018, we plan to buy 60 F-35A aircraft at an 
average URF cost of $85 million.

       IMPACT OF SEQUESTRATION/BUDGET CUTS ON AIR FORCE READINESS

    167. Senator Ayotte. General Welsh, what are your leading readiness 
concerns?
    General Welsh. The Air Force is the smallest it has been since its 
inception in 1947. A smaller force with less capacity requires greater 
attention to ensuring fully adequate personnel levels, availability of 
aircraft, and training to support the full range of mission 
requirements. These factors become more critical because shortages in 
aircraft availability or key personnel will have a larger effect on the 
overall readiness of the force. With a smaller force, including all 
Active, Guard, and Reserve elements, there is less marginal capacity to 
meet operational needs. The total force must be more ready to meet 
near-term contingencies, including those that may involve contested 
operational environments.
    Over the past decade the ability of combat air forces to accomplish 
full-spectrum training has been hampered by operational commitments 
focused on very specific counter-insurgency missions and air-to-ground 
support. Training to establish and sustain air superiority and suppress 
air defenses has understandably received less emphasis. As we rebuild 
full-spectrum readiness, adding resources for more flying hours to 
support training must be matched with the resources for maintenance to 
ensure aircraft availability, and ranges to provide appropriate 
training venues. Additionally, the Air Force's operations tempo must be 
reduced to enable units sufficient time at home station to accomplish 
all required training.
    Critical operations and maintenance activities currently being paid 
with OCO funding are especially problematic. Several funding lines for 
remotely piloted aircraft and other platforms should be retained as 
part of our future force, but are not yet part of our base budget. 
These activities must eventually migrate from OCO funding to an 
adjusted base budget. If the base budget is not adjusted, these 
capabilities will need to be retired or, alternatively, if incorporated 
without increasing the total budget, they will squeeze out other forces 
and capabilities.
    Other threats to readiness include personnel and operational costs 
rising faster than the budget; savings from defense cuts not being 
adequately reapplied into readiness-related activities; and the 
inability to make or implement strategic choices, like reducing force 
structure or installations, that would help to consolidate resources 
and protect a quality force.
    The Air Force must not be forced to resource some units for higher 
levels of readiness than others. Air Force skepticism of this approach 
is grounded in two strategic realities. First, we support several 
combatant command missions that require 24/7 support, including nuclear 
deterrence, various space operations such as missile warning, command, 
control and communications, and global positioning system operations. 
Cyber defense and intelligence, surveillance, and reconnaissance are 
also 24/7 missions that provide indications and warning of critical 
events and threats for our national leadership. Operational readiness 
for these units is a continuous requirement.
    Second, the range, speed, and striking power of air forces make 
them among the most flexible, agile, and globally responsive elements 
of the joint force. In support of U.S. defense strategy, air forces are 
inherently capable of responding quickly and can be shifted on 
relatively short notice between critical theaters of operation. 
Intentionally posturing the Air Force for lower readiness and a long 
build-up to full combat effectiveness would negate an essential 
strategic advantage of airpower.
    The Air Force must modernize its weapon systems. The average age of 
our fighter aircraft is now 23 years, rescue helicopters 22 years, 
training aircraft 25 years, bombers 37 years and tankers nearly 50 
years. Satellites for missile warning, navigation, secure 
communications and other needs are also aging and replacements must be 
built and launched on a schedule consistent with the life expectancy of 
current constellations.
    America's Air Force is the most capable in the world, but 
modernization can't wait. We have important production lines underway 
and development programs now maturing that are, or will soon be, ready 
for production. Cancelling programs to wait for a future generation of 
technology would be wasteful and, in many cases, would risk the loss of 
critical engineering talent.
    America's Air Force must remain the most capable in the world; yet 
it is older than it should be and the need for modernization is growing 
while overall defense resources are diminishing.

    168. Senator Ayotte. General Welsh, what does the Air Force need 
most from Congress?
    General Welsh. One of the most helpful things Congress can do is to 
return to regular order and to approve annual defense authorization and 
appropriations measures in a timely way. Throughout our history, this 
Nation has effectively dealt with strategic challenges and fiscal 
constraints, but our recent track record of repeated delay and 
uncertainty, Continuing Resolutions that disrupt programs and budget 
planning, and midyear cuts that impair readiness and threaten civilian 
furloughs must not become the new normal. We sincerely appreciate the 
ongoing commitment of this committee and its professional staff to 
return to regular order.

    169. Senator Ayotte. General Welsh, what have been the impacts of 
sequestration and budget uncertainty on readiness and training, so far?
    General Welsh. Sequestration has forced the Air Force to make 
drastic reductions in readiness accounts. Flying hour reductions have 
forced some combat squadrons to cease flying operations while 
significantly reduced flying operations in other squadrons. The 
reductions in flying operations have further eroded already 
unacceptably low readiness levels.
    Almost all of our mission-ready units are already tasked to 
Secretary of Defense-ordered missions or forward-based, so the ability 
of the Air Force to provide requisite numbers of ready forces for 
emergent requirements is severely limited and will continue to become 
more difficult the longer we operate under the conditions created by 
sequestration. The flying hour reductions due to sequestration have 
caused the Air Force to adjust unit flying rates to meet deployment 
timelines and ensure global operational commitments are filled within 
fiscal constraints. Additionally, flying units which provide advanced 
tactical training, including all of the Air Force's Aggressor squadrons 
have stood down. The Thunderbirds demonstration team was also forced to 
cancel all of its shows after March 1, 2013.
    The reductions in weapons system sustainment funding due to 
sequestration, while not immediately felt by operational units, will 
impact units potentially for years to come as aircraft are unable to 
receive required depot maintenance in a timely manner, which will 
negatively impact unit readiness.
    If the Air Force does not receive sufficient funding in fiscal year 
2014, we may have to rotationally stand down units, or fly them at a 
reduced rate, similar to the actions we've taken in fiscal year 2013. 
This sequester-induced readiness posture will impact our ability to 
fill OPLAN and Secretary of Defense-ordered missions, as well as 
significantly erode our training and force development efforts, 
creating long-term readiness shortfalls.
    Fixing Air Force readiness requires additional resourcing and 
reduced operations tempo to recover Air Force readiness levels. Along 
with additional funding, full depot workload recovery is expected to 
take 2 to 3 years. Increased funding would be required to recover 
deferred maintenance backlog as depot overhaul timelines would extend 
to accommodate additional aircraft inductions
    The Air Force can also provide a detailed assessment of unit 
readiness status in a classified forum as needed.

                        LONG-RANGE STRIKE BOMBER

    170. Senator Ayotte. General Welsh, in your posture statement, you 
stated that the LRS-B is one of the ``Air Force's three top acquisition 
programs.'' Why is the LRS-B so important to the Air Force?
    General Welsh. The LRS-B is crucial to the Air Force and joint 
forces because it will play a critical role in projecting power and 
deterring adversaries. The LRS-B's long range, payload, and 
survivability will provide the President with the option to hold 
targets at risk at any point on the globe, as well as provide 
operational flexibility for joint commanders.
    Current bombers are increasingly at risk to modern air defenses, 
while the LRS-B will be able to penetrate modern air defenses to 
accomplish objectives despite adversary anti-access and area denial 
(A2/AD) measures. The LRS-B will provide broad geographic coverage 
(ability to operate deep and from long range) and will carry a wide mix 
of stand-off and direct-attack munitions for increased flexibility. 
Additionally, the LRS-B will be built with features and components 
necessary for the nuclear mission to ensure the nuclear certification 
effort completes within 2 years after IOC. The current bomber fleet 
will continue to provide a robust nuclear deterrent until LRS-B is 
fielded and certified.
    The need for the LRS-B was reaffirmed in the Strategic Guidance for 
a 21st Century Defense as well as directed by the Secretary of Defense 
in January 2012 when he stated, ``Accordingly, the U.S. military will 
invest as required to ensure its ability to operate effectively in 
anti-access and area denial environments. This will include developing 
a new stealth bomber.''

    171. Senator Ayotte. General Welsh, in terms of our Nation's 
nuclear deterrent, what value does the bomber leg of the triad provide?
    General Welsh. As recently demonstrated by the B-52 and B-2 flights 
to the Korean peninsula, bombers provide great flexibility in force 
posturing, signaling intentions and recall-ability. Additionally, these 
assets provide the President with the ability to hold at risk virtually 
any target on the globe. On a daily basis, this highly valuable, Air 
Force-unique capability, forces adversaries who consider threatening 
our national interests and those of our allies to confront the 
potential costs of losing what they hold most dear. Combined with the 
other two legs of the Triad, they comprise a robust deterrent 
capability that complicates a potential adversary's offensive and 
defensive planning and are a synergistic force that provides protection 
against the failure of any single leg of the Triad.
                                 ______
                                 
               Questions Submitted by Senator Deb Fischer

            DE-ALERTING INTERCONTINENTAL BALLISTIC MISSILES

    172. Senator Fischer. General Welsh, some observers have suggested 
the Air Force de-alert its fleet of Minuteman III ICBMs and remove the 
warheads from the missiles. Does the Air Force have the capacity to 
store hundreds of warheads at its ICBM bases, or would such a policy 
require significant infrastructure changes?
    General Welsh. No, the Air Force does not have the capacity to 
store hundreds of warheads at its ICBM bases without significant 
infrastructure changes. Due to limited storage facilities at the wing 
level, the warheads would have to be disassembled and transported to 
another storage facility located elsewhere for long-term storage.

    173. Senator Fischer. General Welsh, I understand that it requires 
a substantial amount of time to install a warhead on top of an ICBM and 
that, due to safety and security requirements, as well as limited 
maintenance crew availability, returning a de-alerted missile wing to 
alert status could take as long as 18 months. Is that correct?
    General Welsh. Due to multiple operational variables involved, re-
turning a de-alerted missile wing to alert status could take up to 36 
months.

    174. Senator Fischer. General Welsh, separating warheads from 
missiles would appear to undermine the principle attribute provided by 
the ICBMs--their ability to instantly launch on the President's 
command. Do you agree?
    General Welsh. Yes, the 2010 Nuclear Posture Review concluded that 
the current alert posture of U.S. strategic forces--heavy bombers off 
full-time alert, ICBMs on alert with ``open-ocean targeting'' and a 
significant number of SSBNs at sea at any given time should be 
maintained. As the most responsive leg of the Triad, ICBM alert forces 
underpin day-to-day stability and support America's leadership role in 
the international security environment. Nuclear alert forces also 
provide a highly visible commitment of assurance to support U.S. 
extended deterrence for our allies.

    175. Senator Fischer. Secretary Donley and General Welsh, do you 
believe it is important that the President still have this responsive 
option?
    Mr. Donley and General Welsh. Yes, nuclear alert forces underpin 
day-to-day stability and support America's leadership role in the 
international security environment. These forces are key elements of 
our national security policies of assurance, deterrence and dissuasion. 
They demonstrate visible U.S. commitments to maintaining strategic 
equivalency, deterring coercion and maintaining world order and their 
presence removes incentives for a first-strike by a potential aggressor 
while imposing a difficult and costly decision calculus on potential 
enemy planners.

                        CURRENT ARMS REDUCTIONS

    176. Senator Fischer. Secretary Donley and General Welsh, as you 
note in your prepared statement, the United States will have to reduce 
its nuclear forces to comply with the New Strategic Arms Reduction 
Treaty (START). Do you believe it is important that the United States 
retain the ability to reconstitute its nuclear forces in the event of 
technological surprise or significant geopolitical change?
    Mr. Donley and General Welsh. Yes, any course of action should 
preserve the capability to reconstitute nuclear forces, as a hedge 
against unexpected threats and geopolitical changes in our strategic 
security situation over the next 10-20 years.

    177. Senator Fischer. Secretary Donley and General Welsh, would 
distributing any reductions in ICBM forces across the missile wings and 
keeping empty missile silos in warm status help preserve the ability of 
the ICBM force to resume its strength, if necessary?
    Mr. Donley and General Welsh. Yes, keeping the silos warm would 
allow us to increase the number of deployed ICBMs if there was a need 
to do. Eliminating silos that are currently operational to achieve New 
START treaty limits would eliminate this option. The cost of 
eliminating a silo is more than keeping the silo ``warm'' but empty 
over time. Silo destruction carries a significant cost and is 
permanent.

    178. Senator Fischer. Secretary Donley and General Welsh, are there 
are other benefits, such as in the maintenance of silos, which would be 
achieved by keeping empty Minuteman III silos in warm status?
    Mr. Donley and General Welsh. Yes, keeping Minuteman III silos in 
warm status does have additional benefits. The Air Force plans on using 
any warm, nondeployed launchers to support ongoing test, evaluation, 
and sustainment operations. Additionally, the Air Force will allocate 
the nondeployed ``warm'' silos as necessary to support major 
maintenance at each unit creating an added benefit of spreading the 
workload on our maintenance forces.

                      READINESS OF NUCLEAR FORCES

    179. Senator Fischer. Secretary Donley and General Welsh, your 
prepared statement reads: ``The Nation's nuclear expertise must not be 
allowed to atrophy.'' I understand that the readiness of our nuclear-
capable bombers and ICBM forces have been largely preserved. How long 
can the Air Force protect our nuclear forces from the same readiness 
crisis building across its fleet?
    Mr. Donley and General Welsh. In the near-term, the Air Force has 
been successful at managing the impact of sequestration on nuclear 
deterrence operations--ensuring that our strategic forces remain safe, 
secure, and effective day-to-day. While challenging, we are confident 
in our ability to mitigate the remainder of the required reductions in 
fiscal year 2013 with negligible mission impacts. However, 
sequestration will put Minuteman III readiness in direct competition 
with modernization required to keep the capability viable beyond 2030. 
Beyond fiscal year 2013, the unknown effects of sequestration to the 
enterprise are cause for concern. Significant investment will be 
required within the Future Years Defense Program (FYDP) for propulsion, 
guidance, reentry vehicles and ground systems to continue providing a 
ground based leg of the triad. Over the FYDP, continued effects of 
sequestration will impact replacement of aging equipment used to 
maintain Minuteman III reentry vehicles and warheads, equipment used to 
periodically launch and test the Minuteman III weapon system to collect 
critical reliability and accuracy data, and equipment used to transport 
and protect reentry vehicles, warheads, guidance and booster stages. 
Since the risks of underinvestment are cumulative and have a 
compounding adverse effect on readiness over time, the magnitude of the 
impact will ultimately depend on the duration of the sequester.
    Under sequestration, Air Force Global Strike Command has incurred a 
10 percent reduction across its operations and maintenance accounts. 
While Air Force guidance implementing the reductions expressly 
prioritized flying hours directly supporting nuclear operations, the 
cuts are having tangible impacts elsewhere. Of particular note, the 
deferment of non-emergency facility, sustainment, maintenance, 
restoration, and modernization (FSRM) projects at missile alert/launch 
facilities, weapons storage areas, and aircraft hangars is exacerbating 
the existing backlog of critical capital improvements, raising safety 
and security risks that over time, may erode the ability of these 
facilities to meet mission requirements. Also, cancellation of most 
temporary duty assignments is limiting professional development within 
the nuclear career field. Additionally, the furlough of civilian 
employees is negatively impacting productivity and mission continuity. 
Should these and other sequestration-related impacts persist into 
future years, their combined effect will eventually lead to the 
deterioration of core readiness within our nuclear forces.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                              F-35 PROGRAM

    180. Senator Lee. General Welsh, as we recently discussed, the 
Environmental Impact Statement (EIS) Record of Decision (ROD) for 
candidate bases to host the first operational wings of the Air Force F-
35 was delayed again until this fall. The Air Force has stated, and you 
have assured me, that this delay will not have an effect on the 
scheduled delivery of these aircraft in 2015. I hope that this will be 
the last delay in the delivery of this decision, as we are shrinking 
the schedule margin for construction of facilities to house these 
aircraft when they are delivered to the wings. I believe the F-35 is of 
great importance to our national security; however, delays and cost-
overruns continue to be a problem. A GAO report in March stated that 
the current outlook for the F-35 is improving, but long-term 
affordability remains a major concern. Have you identified places where 
the Air Force can improve efficiency and cut costs to increase the 
long-term affordability of this program?
    General Welsh. The Air Force is proactively engaging with the JPO, 
OSD, and the Department of the Navy on multiple initiatives to improve 
efficiency and cut costs to increase the long-term affordability of the 
F-35 program.
    Over the last couple years, the Air Force has supported the JPO on 
several affordability initiatives that have the potential to reduce 
program costs by a program office estimated $2.3 billion (CY12$). The 
Air Force will continue to partner with the JPO on these types of 
initiatives, to help make the aircraft more affordable.
    The Air Force is also participating in the JPO-led BCA which is 
examining key sustainment functions such as supply chain management 
(SCM), sustaining engineering, fleet management, and field ops support 
to optimize contractor and organic mix. Analysis so far has found 
significant opportunities to reduce costs, while maintaining 
performance and mitigating risks. The final report is expected March 
2014. Out of this study, the Air Force and Department of Navy have 
formed a Joint Organic SCM Team to develop potential options and an 
implementation proposal should the BCA recommend a full or partial 
organic solution.
    The Air Force is also working with the Department of Navy on a 
Level of Repair Analysis. The purpose of this effort is to maximize 
cost effectiveness and fully exploit existing maintenance 
infrastructure by exploring potential to expand current F-35 program of 
record (2-level maintenance concept (operational/depot)) to include 
intermediate level.
    Finally, the Air Force is participating in the development of the 
OSD McKinsey report. The goal of this project is to identify potential 
opportunities to reduce total F-35 operational and sustainment cost. 
Everything is on the table that contributes to generating F-35 sorties. 
The final report is expected September 2013.

    181. Senator Lee. Secretary Donley and General Welsh, are there any 
reasons for you to believe at this time that the arrival date for the 
first operational wings of F-35s will be delayed beyond 2015?
    Mr. Donley and General Welsh. The Air Force is moderately 
confident, based on the F-35 JPO schedule, that F-35 aircraft will be 
delivered to the first operational wings on schedule.
    Based on the current production profile, the forecasted delivery 
date of F-35A aircraft to the first operational site starts in 2015. 
These aircraft will be from low-rate initial production (LRIP) Lot 7. 
The baseline delivery dates will not be finalized until the LRIP 7 
production contract is definitized. We expect that contract to be 
signed this summer.

                    PRESIDENT'S BUDGET AND READINESS

    182. Senator Lee. Secretary Donley and General Welsh, I am very 
worried about the Air Force's state of readiness under sequestration. 
Unfortunately, the President's proposed budget for the Air Force and 
DOD does not take sequestration into account for 2014, despite the fact 
that it is current law. Can you comment on how the Air Force is 
preparing for the real possibility of sequestration in fiscal year 2014 
and beyond?
    Mr. Donley and General Welsh. Sequestration not only presents 
additional undue risk in our readiness posture, it also creates an 
unprecedented disruption to our planning process. While we remain 
hopeful that impacts of sequestration will be mitigated by legislative 
actions, we are engaged in planning efforts to best balance our ends, 
ways and means during this period of very intense fiscal uncertainty. 
The Air Force is employing a deliberative process to prioritize our 
ongoing and future initiatives and ensure a best effort at achieving 
full-spectrum readiness in a post-sequestration environment. We look 
forward to working with members of Congress to address any questions 
necessary to lead to a budget deal that eliminates sequestration and 
its damaging impacts. A return to regular order and timely enactment of 
appropriations and authorization bills will also help the Air Force to 
plan for whatever levels of resources are provided.

                   RELIGIOUS FREEDOM IN THE AIR FORCE

    183. Senator Lee. Secretary Donley and General Welsh, recent 
reports appeared in the media last week regarding religious freedom in 
the Air Force and DOD. I appreciate statements from DOD and Air Force 
representatives last week attempting to clarify these reports and 
stating that servicemembers can share their faith, or evangelize, but 
cannot proselytize, or force unwanted, intrusive attempts to convert 
others of faith or no faith to one's beliefs. My concern, however, is 
how the military is defining and drawing the line between evangelizing 
and proselytizing, and communicating this to servicemembers. The First 
Amendment guarantees freedom of religion and freedom of speech. For 
many of our men and women in uniform, their faith is what sustains them 
through the enormous pressures and stresses of the battlefield, the 
months away from loved ones with little communication, the life-
changing injuries, and the loss of close friends. If an environment is 
created where those servicemembers feel that expressing their religion, 
sharing their faith, or showing outward representation of their beliefs 
could be found in violation of military policy and grounds for 
reprimand, it will have an unsettlingly negative effect on military 
morale and undermine recruitment, retention, and cohesiveness efforts. 
Can you both describe how the Air Force defines the difference between 
evangelizing and proselytizing, and how these standards are 
communicated and explained to airmen?
    Mr. Donley and General Welsh. The Air Force does not have a formal 
definition for ``evangelizing'' or ``proselytizing.''
    Standards regarding Government neutrality towards religion, free 
exercise of religion and religious accommodation are set out in AFI 1-
1, Air Force Standards. AFI 1-1 was published on 7 August 2012. While 
the majority of AFIs are only available electronically on the Air Force 
e-Publishing website, CSAF directed that AFI 1-1 be made available both 
on-line and in a hardcopy booklet format. The booklet is referred to as 
``The Little Blue Book,'' and is being distributed throughout the Air 
Force. A booklet is being provided to every uniformed airman, who can 
reference the booklet any time they have a question or concern. 
Collectively, commanders, first sergeants and judge advocates 
communicate the standards set out in AFI 1-1 to airmen assigned to 
their organization.
    With regards to Government neutrality towards religion, AFI 1-1 
states:

          ``Leaders at all levels must balance constitutional 
        protections for an individual's free exercise of religion or 
        other personal beliefs and the constitutional prohibition 
        against governmental establishment of religion. For example, 
        they must avoid the actual or apparent use of their position to 
        promote their personal religious beliefs to their subordinates 
        or to extend preferential treatment for any religion. 
        Commanders or supervisors who engage in such behavior may cause 
        members to doubt their impartiality and objectivity. The 
        potential result is a degradation of the unit's morale, good 
        order, and discipline. Airmen, especially commanders and 
        supervisors, must ensure that in exercising their right of 
        religious free expression, they do not degrade morale, good 
        order, and discipline in the Air Force or degrade the trust and 
        confidence that the public has in the U.S. Air Force.''

    With regards to free exercise of religion and religious 
accommodation AFI 1-1 states:

          ``Supporting the right of free exercise of religion relates 
        directly to the Air Force core values and the ability to 
        maintain an effective team. All airmen are able to choose to 
        practice their particular religion, or subscribe to no 
        religious belief at all. You should confidently practice your 
        own beliefs while respecting others whose viewpoints differ 
        from your own. Your right to practice your religious beliefs 
        does not excuse you from complying with directives, 
        instructions, and lawful orders; however, you may request 
        religious accommodation. Requests can be denied based on 
        military necessity. Commanders and supervisors at all levels 
        are expected to ensure that requests for religious 
        accommodation are dealt with fairly.''

    184. Senator Lee. Secretary Donley and General Welsh, how is the 
Air Force working to comply with section 533 of the NDAA of 2013 
(Public Law 112-239)?
    Mr. Donley and General Welsh. The Air Force is complying through 
the adherence of Air Force Instruction 1-1, Line 2.12, ``Supporting the 
right of free exercise of religion'' Additionally, the Air Force is 
updating the Free Exercise of Religion Course (ZZ133109) in Advanced 
Distributed Learning Service.

    [Whereupon, at 12:35 p.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
